<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-315]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-315, Pt. 5

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


Department of the Interior

and Related Agencies

Appropriations


                                                            Fiscal Year
                                                                   2007
                                         109th CONGRESS, SECOND SESSION

                                                              H.R. 5386


PART 5 
        DEPARTMENT OF AGRICULTURE
        DEPARTMENT OF THE INTERIOR
        ENVIRONMENTAL PROTECTION AGENCY
        NONDEPARTMENTAL WITNESSES


           Interior Appropriations, 2007 (H.R. 5386)--Part 5



                                                 S. Hrg. 109-315, Pt. 5

  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 5386

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2007, AND FOR OTHER PURPOSES

                               __________

                        PART 5 (Pages 1-xxxx)

                       Department of Agriculture
                       Department of the Interior
                    Environmental Protection Agency
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
26-550                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   BARBARA A. MIKULSKI, Maryland
WAYNE ALLARD, Colorado               HERB KOHL, Wisconsin
                           Professional Staff
                            Leif Fonnesbeck
                              Ginny James
                              Ryan Thomas
                              Rebecca Benn
                             Michele Gordon
                       Peter Kiefhaber (Minority)
                       Rachael Taylor (Minority)
                        Scott Dalzell (Minority)


                            C O N T E N T S

                              ----------                              

                        Thursday, March 16, 2006

                                                                   Page

Department of Agriculture: Forest Service........................     1

                        Thursday, March 30, 2006

Department of the Interior: Office of the Secretary..............    55

                        Thursday, April 6, 2006

Environmental Protection Agency..................................   177
Nondepartmental Witnesses........................................   209

 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, MARCH 16, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Senator Conrad Burns (chairman) 
presiding.
    Present: Senators Burns, Cochran, Allard, and Dorgan.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF MARK E. REY, UNDER SECRETARY FOR NATURAL 
            RESOURCES AND ENVIRONMENT
ACCOMPANIED BY:
        DALE BOSWORTH, CHIEF
        LENISE LAGO, ACTING BUDGET DIRECTOR


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. We will call the committee to order, and 
thank you, and good morning. I'm very pleased the Forest 
Service Chief, Dale Bosworth--nice to have you here with us 
this morning and I hope everything is all right over in your 
camp and also, the Under Secretary for Natural Resources and 
Environment.


                           BUDGET REDUCTIONS


    I thought you were for the environment, Mark. But it's nice 
to have you here this morning and of course, you've been before 
this subcommittee many, many times.
    We all know there's a little belt tightening around here in 
trying especially in the non-defense and non-homeland security 
programs for fiscal year 2007. In fact we'll be debating this 
budget resolution this week and I would imagine that the debate 
continues on the direction of the overall amount of 
discretionary spending that this committee will have to spend. 
The President's budget request for the Forest Service is $4.096 
billion in non-emergency discretionary appropriations.
    This represents a 2.5 percent cut, compared to 2006 of $4.2 
billion for non-emergency funds. I know that in this budget 
climate, tough choices have to be made about some of the 
proposed program cuts in the Forest Service really concern me.
    For example, funding for maintaining road systems has been 
cut by $39 million, an 18 percent reduction. This is hard to 
understand given the Forest Service own estimates that they 
are--have more than $4.5 billion backlogged in maintenance work 
on its roads.
    If we don't maintain those roads, then people ultimately 
can't access the forest whether it's for recreation, 
firefighting, or forest management. I think that is very 
shortsighted.
    Funding for State fire assistance has also been decreased 
over $22 million. That's a 25 percent reduction. This will 
reduce by over 5,000, the number of rural fire departments that 
receive grants and technical assistance. These fire departments 
are often the first to respond to wildland fires and they 
provide a vital help to the Forest Service and the Department 
of the Interior.
    Another concern is $29 million cut in forest health 
programs in State and private forestry. I remember we had great 
debates, at one time, on the use of this money and how 
effective it is. In my State we have an enormous problem with 
bark beetles and the forest health funds for that program have 
been cut in half.
    The dead trees that result from beetle kill add directly to 
the already excessive fuel loads and greatly increase the fire 
risk. I would draw your attention to the forest, especially in 
Montana, where I get to look at those red trees every time I 
drive down the road and I see nothing--nothing happening in 
order to take this on. Because I'll tell you, these bark 
beetles coming through a 7- or an 8-year drought, we had trees 
that were stressed and they become more vulnerable to that 
beetle than any other tree in the forest. We've done hardly 
anything to take stressed trees and infected trees out of the 
forest to deal with this problem and that's the only way we 
have to dealing with it. I think that's the only thing I've 
been told, is the removal of those trees.


                            BUDGET INCREASES


    On the other side of the ledger, a few programs receive 
significant increases in the proposed budget request. These 
include the timber program, $32.5 million, Forest Legacy, 
that's good. Hazardous fuels is $10 million. That's good and I 
think you would have to put in that definition, these beetle 
kills. They're definitely a part of that problem.
    Wildfire suppression, we have an increase of $56 million 
and we're all interested in hearing from both of you how you 
formulated the 2007 budget and how you made the difficult 
decisions allocating funding between the various programs.


                        SECURE RURAL SCHOOLS ACT


    Finally another issue that concerns me, is the 
administration's proposal on reauthorization of the Secure 
Rural Schools Act. This proposal would sell over 300,000 acres 
of our National Forest System lands, including 14,000 acres in 
Montana, to pay for continuing payments to counties for another 
5 years.
    Now as I've traveled around my State and talked to various 
groups and individuals, county commissioners, there is simply 
no support for that proposal in this form. We need to come up 
with a better way to find reauthorization of the Secure Rural 
Schools Act. I think the national taxpayer has to be aware of 
this because it impacts communities that rely heavily on forest 
and forest products.
    So I thank you for joining me today. We're going to talk a 
little bit about grazing permits and be ready for that. So make 
sure you get out your reference material. I want to see how you 
justify that and so, I look forward to hearing from both of 
you, Dale and Mark, in this hearing today.
    Now, my good friend from North Dakota who has had a great 
ski season this year. They've had quite a lot of snow. Thank 
you for joining us.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. Mr. Chairman, thank you very much. I agree 
with much of what you've had to say. This appropriations 
request really shorts needed funding in many, many areas. 
Access to public lands, fewer roads and trails to provide that 
access, fewer resources for State and local governments, less 
funding for recreation and resource development.


                             FISCAL POLICY


    I understand Secretary Rey, Mr. Bosworth, and Ms. Lago will 
be here to support the administration's budget, that is your 
job. If we were to ask you if you agree or disagree, you must 
agree because you are an appointee and we understand all that. 
But I think it's also the case that we have a fiscal policy 
that doesn't add up. It just doesn't add up.
    The reason that you're coming in, in fact we--last year, 
cut a half a billion dollars below our previous year's spending 
in this subcommittee. Half a billion dollars, not reducing the 
rate of growth, but we cut a half a billion dollars. The 
President's budget cuts another one-half billion dollars below 
that for the next year.
    My point is, the fiscal policy doesn't add up and the 
result is a lot of good things are going to pay the cost of 
that and I regret that. We have to try to find a better set of 
priorities and we need to be doing it in a way that is 
thoughtful.
    I did not bring a leafy spurge plant, you're well familiar 
with it. In fact, you brought pictures to show me I understand, 
that you're actually taking care of some of that leafy spurge. 
Not all of it, we still have a lot of work to do. But I 
appreciate your attention to it. Mr. Rey was in North Dakota 
recently, met with some ranchers and he actually talked about 
leafy spurge just a bit.
    You know there are many things, I won't go over them all, 
but the President is proposing to sell about $800 million in 
national forest lands in order to finance county payments for 
roads and schools. The reason we're forced into all of these 
abstinance choices, is we have a fiscal policy that doesn't 
add.
    We are spending money we don't have in areas now. I think 
we're going to be at $440 billion for Iraq and Afghanistan and 
now Katrina, and none of it's paid for. Nobody's ever asked to 
pay for any of it, really.
    So we just flounder along and at some point, somebody's 
going to say you know, this is unsustainable, it's a fiscal 
policy that doesn't work. But in its details in this 
subcommittee, you see the consequences of that, and it is cuts 
in areas that will have real impact, and are not cuts that make 
sense in the long term.
    Having said all that, I appreciate once again, you're being 
here and there are many areas to question and I have another 
Appropriations subcommittee just around the corner that I'm 
going to have to ask some questions of, about the train 
accident in Minot with respect to the anhydrous ammonia, some 
years ago. I've got to go ask the FRA some questions about that 
this morning.
    So I won't be able to hear all of your testimony, but I 
want to thank all three of you for being here this morning and 
you need to work with us because we need to find ways to make 
sense of all of this in an environment in which the fiscal 
policy doesn't add up. Mr. Chairman, thank you.
    Senator Burns. You are welcome and thank you for your 
statement, Senator Dorgan. And that is the reason they hire us 
around here, is to kind of protect these areas. So we will do 
that and try to find ways to pay for it.
    Mr. Secretary, nice to see you this morning and we look 
forward to your statement.
    Mr. Rey. With your sufferance, the Chief is actually going 
to start.
    Senator Burns. Chief, it's good to see you. I think 
everything is going well with you.


                   SUMMARY STATEMENT OF DALE BOSWORTH


    Mr. Bosworth. Everything is going just fine. Mr. Chairman 
and Mr. Dorgan, I do appreciate the opportunity to be here 
today and talk about the President's fiscal year 2007 budget 
for the Forest Service.
    As was stated, the 2007 President's budget for the Forest 
Service totals about $4.1 billion in discretionary funding. 
That's a $104 million decrease from fiscal year 2006.


                     FOREST SERVICE ACCOMPLISHMENTS


    What I would like to do is begin by discussing some of our 
successes from the past year and then talk about our strategy 
for accomplishing our agency's objectives.
    We had some significant accomplishments last year and a lot 
of our accomplishments, I think, are things that are measurable 
through performance measures and we're able to quantify those. 
Some of the priority areas where we either met or we exceeded 
our target included things like hazardous fuel treatment, 
noxious weed treatment, stream and lake restoration 
enhancement, timber volume that was sold, terrestrial habitat 
enhancement, decisions on range allotments, and number of miles 
of trails that were maintained.
    We accomplished much of that important work while also 
opening a service center in Albuquerque, New Mexico, which, in 
the end, will save dollars that will eventually go to the 
ground.
    I'm particularly proud of our ability to respond to 
unplanned events and in particular, the catastrophic hurricanes 
that hit the gulf States last year--hurricanes Katrina and Rita 
had a huge impact on the Forest Service, as well as a number of 
other people.
    Those strong winds affected something like 6 million acres 
of forest land in five southern States including over 300,000 
acres of national forest land. Potential losses amounted to 15 
to 19 billion board feet of timber and about 90 percent of that 
was on private land.
    Since the hurricanes, the Forest Service has sold 256 
million board feet of timber that had been damaged during the 
hurricanes. We've opened about 2,000 miles of road, and are in 
the process of also repairing some of that road.
    In support of hurricane Katrina response in the days after 
the hurricane, the interagency teams managed all agency radio, 
phone, and data communications; coordinated the receiving and 
distribution of 1,000 truckloads of supplies; provided evacuees 
with food, clothing, and shelter; and supported emergency 
medical operations at the New Orleans airport.
    At the base camp for example, four crews moved 2,400 
patients in a 3-day period to and from the Air Force triage 
hospital in New Orleans Airport. An incident command team 
managed the staging area in Mississippi, that was one of the 
largest air operations in the storm-affected area. Our crews 
unloaded, and refueled, and stored 10 to 12 747 plane loads of 
commodities every day.
    In one incident, the command team shipped over 2.9 million 
meals, 5.6 million gallons of water, and 39 million pounds of 
ice. That's enough drinking water for 11 million people for 1 
day.


                      FISCAL YEAR 2007 PRIORITIES


    I'd like to move on to talk about the priorities for 2007. 
The budget continues to work with the Healthy Forests 
Initiative and the Healthy Forests Restoration Act Authorities 
in restoring forest health. The Forest Service will treat 3.2 
million acres in fiscal year 2007 and the majority of that will 
be in the wildland-urban interface.
    We've been increasing use of our stewardship contracting 
authorities. We have 209 projects now underway and we expect to 
have 80 more contracts and agreements in fiscal year 2007.
    A key theme from the White House Conference on Cooperative 
Conservation in the Forest Service's Centennial Congress is 
that our future in the Forest Service is going to be through 
collaboration and not through regulation. We're going to 
continue to move that way.
    Our new planning processes, our new travel management rule, 
as well as the resource advisory committees that are 
established through the Recreation Enhancement Act, are all 
going to be ways of leveraging public involvement to improve 
Forest Service efficiency and effectiveness.
    Our budget reflects our continued implementation of our 
vision as the center of excellence, reducing our indirect cost 
by about $200 million by the end of fiscal year 2007. The 
Facilities Realignment and Enhancement Act allows us to 
streamline facility holdings and still produce additional funds 
for our mission critical facility maintenance.
    Our Business Operations Transformation Program is estimated 
to save $241 million by fiscal year 2011, while also improving 
the transparency and accountability of our systems.


                           PREPARED STATEMENT


    In conclusion, our 2007 budget responds to the national 
need for deficit reductions while preparing for new and a much 
more collaborative era in the future for natural resource 
management.
    Again, I appreciate the opportunity to be here and I look 
forward to working with you to implement our 2007 program. I'd 
be happy to answer any questions.
    [The statement follows:]

                  Prepared Statement of Dale Bosworth

                                OVERVIEW

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to discuss the President's fiscal year 2007 Budget for the 
Forest Service. I am pleased to be here with you today.
    The fiscal year 2007 President's budget for the Forest Service 
totals $4.10 billion in discretionary funding, which is a $104 million 
decrease in funding from fiscal year 2006. The budget advances the top 
priorities of the agency in order to sustain the health of the Nation's 
forests and grasslands. I will begin today by sharing some of the 
Forest Service's successes from the past year; these successes 
demonstrate our capabilities to accomplish the challenges ahead. Then, 
I will discuss our strategy for accomplishing agency objectives at a 
time when our Nation also needs to exercise fiscal discipline to 
provide the critical resources needed for our Nation's highest 
priorities: fighting the war on terrorism, strengthening our homeland 
defenses and sustaining the momentum of our economic recovery.

                        FOREST SERVICE SUCCESSES

    In 2005, the Forest Service achieved its priorities and 
demonstrated that it continues to be an agency of great value to the 
American people. The Forest Service exceeded its goals to restore the 
health of our forests and protect critical resources from catastrophic 
wildfires. Working collaboratively with the Department of the Interior 
(DOI), the Forest Service controlled 99 percent of all unwanted and 
unplanned fires during initial attack.
    The Forest Service and the Department of the Interior last year 
treated hazardous fuels on more than 2.9 million acres of land, and 
reduced hazardous fuels on an additional 1.4 million acres through 
other land management actions. Federal agencies plan to treat 2.9 
million more acres in 2006, and accomplish hazardous fuels reduction on 
an additional 1.6 million acres through landscape restoration 
activities. An additional 4.6 million acres are planned for 2007, which 
includes 3.0 million acres of hazardous fuels treatments and 1.6 
million acres of landscape restoration. By the end of fiscal year 2007, 
federal agencies will have treated hazardous fuels on more than 21.5 
million acres of our Nation's forests and wooded rangelands since the 
beginning of fiscal year 2001, and will have restored an additional 5.1 
million acres.
    I am especially proud this year of the strength and resourcefulness 
that Forest Service employees demonstrated during their involvement in 
the relief efforts following the many hurricanes of 2005. In the first 
four weeks after Katrina's landfall, Forest Service employees provided 
support to over 600,000 people affected by Katrina, distributing over 
2.7 million meals, 4 million gallons of water and 40 million pounds of 
ice. During peak response to Hurricanes Katrina and Rita, the Forest 
Service had 5,500 employees working in the affected region, and total 
Forest Service efforts represented over 250,000 personnel days. Forest 
Service employees provided a variety of critical services, including 
managing evacuation centers and base camps, providing logistical 
support, clearing roadways, and leading forest restoration efforts on 
both the private and public forests damaged by the storms.
    These efforts demonstrated the exceptional work ethic and ``can-
do'' attitude of Forest Service employees. At the Levi Strauss shelter 
in San Antonio, Red Cross worker Bill Martin reported that ``[Forest 
Service workers] do everything here. . . . They aren't afraid of 
getting their hands dirty.'' At this shelter, Forest Service employees 
became known as the ``green pants.'' The nickname arose from evacuees 
who quickly learned that if they needed something done quickly or a 
question answered right away, they could get it from the men and women 
wearing the green pants of the Forest Service uniform. The commitment 
to service that Forest Service employees demonstrated during the 
hurricane relief efforts is the same commitment that sustains the 
health of our Nation's forests and grasslands.
    The National Forest System continues to provide benefits to the 
American public, including fresh water, flood regulation, carbon 
sequestration and recreation. 60 million people benefit from clean 
water provided by national forests and grasslands, and in 2005 the 
American people made over 200 million visits to the national forests 
and grasslands. These statistics underscore the importance of the 
National Forest System to the environmental infrastructure and natural 
heritage of the United States.
    The Forest Service accomplished all these tasks while 
simultaneously improving its organizational and financial management. 
In 2005 the Forest Service began its Business Operations Transformation 
Program, which will advance the efficiency of its technology, budget, 
finance and human resources operations, and is expected to save the 
agency $241 million in administrative operation costs over the next 
five years. As part of this effort, the Albuquerque Service Center 
became operational in 2005, and will create a centralized location for 
human resources and financial management operations.
    The Forest Service also achieved its fourth unqualified (``clean'') 
audit opinion in a row for fiscal year 2005, continuing the agency's 
efforts to improve financial performance. Building upon these 
successes, the Forest Service will use improved financial information 
to drive results in key areas.

             FOREST SERVICE PRIORITIES FOR FISCAL YEAR 2007

    In fiscal year 2007 the Forest Service will continue its strategic 
focus on the following goals: restoring fire-adapted forests; providing 
sustainable recreation opportunities for the American people; improving 
the health of our watersheds; and helping our Nation meet its energy 
needs.
    In addition to these long-term strategic goals, the President's 
Budget provides increased support to Forest Service programs that 
improve forest health conditions, protect critical resources from 
catastrophic wildland fire, and help prevent the loss of open space. 
The President's Budget demonstrates that the Forest Service can use 
collaborative approaches and operate with renewed efficiency and 
accountability in order to reduce costs while accomplishing its 
mission. The Forest Service will achieve this by: (1) dealing 
strategically with threats to forest health; (2) expanding 
collaborative efforts; (3) increasing the efficiency of Forest Service 
programs; and (4) improving organizational and financial management. 
Through these four strategies, the Forest Service will build on its 
past successes and advance its priorities for fiscal year 2007.

            A STRATEGIC APPROACH TO RESTORING FOREST HEALTH

    The fiscal year 2007 Budget continues the work of the Forest 
Service under the authorities of the President's Healthy Forests 
Initiative and the Healthy Forests Restoration Act (HFRA). These 
authorities have removed administrative process delays and expedited 
critical restoration projects so that the Forest Service can more 
effectively restore national forests and grasslands to a more fire 
adaptive environment.
    In 2005, the Forest Service treated 2.72 million acres of land to 
reduce hazardous fuels, with over 60 percent of those acres in the 
wildland-urban interface. The fiscal year 2007 budget proposes $292 
million for the treatment of hazardous fuels. Combined with other 
programs; the agency will treat as many as 3.2 million acres, with a 
majority of acres treated in the wildland-urban interface. Recent court 
decisions affecting our use of categorical exclusions to accomplish 
this work will have an effect on our ability to rapidly and efficiently 
treat these acres that are in need of fuels reduction. The Forest 
Service is also better integrating its hazardous fuels treatments with 
other vegetation management activities. The result is an additional 1.1 
million acres of hazardous fuels treated in 2005 as secondary benefits 
to other vegetation management activities. Hazardous fuels treatments, 
in turn, often have secondary benefits such as wildlife habitat 
improvement or watershed restoration.
    Another important tool for improving forest health is stewardship 
projects. These projects allow forest managers to more efficiently 
manage efforts to restore forest health through the use of one contract 
document authorizing the disposal of national forest system timber 
incidental to and in exchange for services to be performed on national 
forest system land. The President's budget will allow the Forest 
Service to award approximately 100,000 acres of stewardship projects in 
fiscal year 2007, providing services such as noxious weed treatment, 
lake restoration, and harvesting biomass for energy use.
    In fiscal year 2007 the Forest Service will continue to assist 
communities adjacent to national forest land in the development of 
Community Wildfire Protection Plans (CWPPs). CWPPs enable communities 
to establish a localized definition of the wildland-urban interface in 
their area, and high-risk areas identified in a CWPP receive funding 
preference from the Forest Service. As of December 2005, at least 450 
CWPPs had been completed nationwide, covering at least 2,500 
communities at risk from wildfire
    In 2005, fires burned 8.6 million acres on Federal lands; the fire 
season was characterized by a continuing drought and dry fuel 
conditions. Climate forecasts and estimates of fuel loads on our 
Nation's forests highlight the continued need for highly trained and 
efficient fire prevention and fire suppression programs. In order to 
maintain these programs, the President's Budget proposes a $56 million 
increase above the fiscal year 2006 enacted amount for wildland fire 
suppression. This funding request equals the most recent 10-year 
average for suppression costs, which are on an upward trend.
    In 2005, the Forest Service continued its success in initial fires 
suppression, containing 99 percent of all unwanted fires. The 
President's Budget provides the preparedness funding needed to maintain 
this initial attack success rate. The development of an interagency 
fire managing planning and budget model to support cost effective 
allocation of preparedness resources is currently underway.
    The President's Budget provides additional incentives for reducing 
suppression costs by authorizing use of unobligated wildfire 
suppression funds for hazardous fuels treatment. This provides an 
incentive for line officers to reduce suppression expenses so they can 
have more resources to conduct hazardous fuels treatment. We are also 
committed to managing wildland fires for resource benefits or, as we 
also refer to it as, wildland fire use. This option is available to 
Federal agencies that have an approved land use plan and a fire 
management plan that allows for it. Our ability to manage naturally 
occurring fires in order to improve the health of fire dependent 
forests is increasing each year. The 2005 total of an additional 
251,000 acres was significantly higher than 2004 and we look forward to 
increasing our capability to use this important tool.
    These programs demonstrate the Forest Service's approach to 
restoring national forests and grasslands to a more fire adaptive 
environment. Through stewardship contracting, collaboration and 
community involvement, strategic treatment of hazardous fuels, and 
well-planned fire prevention and suppression, we are having a long-term 
impact on minimizing wildfire threats.
    The protection of forest health and open space is increasingly 
affected by the dynamics of a global timber market. Timber prices are 
now often set globally; the result has been a reduction in the private 
wood products infrastructure and divestment of timber companies from 
their timber land in the United States. These trends have altered the 
economic and environmental reality in which the Forest Service 
operates. The fiscal year 2007 budget provides several strategies to 
deal with these realities.
    The sell-off of industrial timber lands opens up millions of acres 
to potential development, which in turns adds to the threat of the loss 
of open space. To counter these trends, the President's Budget requests 
$62 million for the Forest Legacy Program, a $5 million increase over 
last year, which will protect an estimated 130,000 priority acres in 
fiscal year 2007. The Forest Legacy Program works in concert with the 
cooperative efforts of other Federal, State and non-governmental 
organizations to assist private landowners sustain intact, working 
forests.
    With the reduction in mill capacity and other related 
infrastructure, market conditions have created a more limited demand 
pool and led to higher costs for remaining purchasers, adversely 
affecting the financial feasibility of restoration work on our Nation's 
forests and grasslands. The fiscal year 2007 budget addresses this need 
by dedicating $5 million to foster markets in biomass utilization. 
Additionally, authorities of HFI/HFRA and stewardship contracting 
enable more efficient and effective partnerships with the local 
community in treating hazardous fuels, and promote investment in the 
local infrastructure to utilize timber.
    With greater exchange of global goods also comes greater transfer 
of invasive species. The fiscal year 2007 budget provides over $94 
million to Forest Service invasive species programs, allowing the 
agency to complete invasive species suppression, prevention and 
management on over 61,000 acres of Federal lands and 315,000 acres of 
state and private lands. These efforts involve enhanced collaboration 
with Forest Service partners to find and implement solutions to 
invasive species problems. In 2004 the Forest Service invasive species 
program underwent a program assessment rating tool (PART) evaluation. 
As a result of the assessment, new program performance measures based 
on a scientific or policy basis for validating agency actions were 
developed to more frequently update and utilize forest health risk maps 
for decision making and allocation of resources; and to provide for the 
measurement of the environmental and economic effects of invasive 
species treatments.
    An additional strategy for protecting forest health involves USDA's 
work to broaden the use of markets for ecosystem services through 
voluntary market mechanisms as announced by Secretary Johanns at the 
White House Conference on Cooperative Conservation. As part of this 
effort, Forest Service Research and Development will continue its work 
regarding the quantification of ecosystem services values.

                    INCREASED COLLABORATIVE EFFORTS

    The White House Conference on Cooperative Conservation, held in 
August 2005, marked an important milestone in the effort to expand and 
improve collaboration in natural resource management. The White House 
Conference underscored a clear lesson learned from the Forest Service 
Centennial--that the Forest Service has entered a new, more 
collaborative era of natural resource management. Today we are focusing 
on improving forest health and promoting sustainable recreation. In 
order to work effectively in this new environment, the future of the 
Forest Service must be built on collaboration instead of top-down 
regulation.
    The new planning rule for the Forest Service creates a dynamic 
planning process that is less bureaucratic, emphasizes sound science, 
and encourages more public involvement earlier in the planning stages. 
We also expect that the new system of planning will be more strategic, 
transparent, timely and efficient. The planning process will be more 
effective because the rule requires annual evaluation of monitoring 
results and a comprehensive evaluation every 5 years. Under the old 
planning rule, it usually took five to seven years to revise a 15-year 
land management plan; under the new rule, we expect that a plan 
revision will take from two to three years, saving the agency 
significant time and money.
    The new travel management rule, issued in November 2005, provides 
another example of successful cooperation resulting in effective rule 
making. In 2004, OHV users accounted for between 11 and 12 million 
visits to national forests and grasslands. While the Forest Service 
believes that OHVs are a legitimate use of the National Forest System, 
unmanaged OHV use has resulted in unplanned roads and trails, erosion, 
watershed and habitat degradation, and impacts to cultural resource 
sites. The 2005 travel management rule requires each national forest 
and grassland to designate the roads, trails and areas that will be 
open to motor vehicle use. The Forest Service will engage the public so 
that travel management will be a cooperative process, which in turn 
will help increase compliance. The result will be greater protection 
for recreation resources without significant expenditures from Forest 
Service appropriations.
    In 2004 Congress approved the Federal Lands Recreation Enhancement 
Act, giving the Forest Service a 10-year authority to reinvest a 
portion of collected recreation fees to enhance local recreation 
opportunities and improve wildlife habitat in the area. We are 
projecting receipts of $54.8 million in fiscal year 2007 under REA. The 
Act also directed the creation of recreation advisory committees that 
will provide public involvement and comment on recreation fee programs. 
We are planning to establish a number of committees and councils 
throughout the country to afford communities and citizens the 
opportunity to provide input into the recreation fee program. I want to 
thank Congress for providing the Forest Service with this new and 
effective tool for cooperative conservation.
    A final example of collaboration includes working closely with the 
Bureau of Land Management in the energy permitting process. The Energy 
Policy Act of 2005 allows the BLM and the Forest Service to develop 
interagency agreements to support established BLM pilot offices 
designed to streamline the oil and gas permitting process on federal 
lands. These agreements will be used to reduce the backlog of oil and 
gas Applications for Permit to Drill (APDs) and improve the inspection 
and enforcement processes.
    We will continue to emphasize the processing of APDs and lease 
requests, and the initiation and completion of several major oil and 
gas environmental impact statements. This emphasis will increase the 
resources available to process energy permit applications, resulting in 
a more effective permitting process. Within the energy program, the 
``process mineral applications'' activity will increase by $7 million 
over the fiscal year 2006 enacted level to meet the high priority 
objective of processing energy mineral applications.

           INCREASE THE EFFICIENCY OF FOREST SERVICE PROGRAMS

    The President's Budget reflects continued implementation of the 
Forest Service's vision as a ``Center of Excellence in Government'' in 
which it will be viewed as a model agency recognized for efficiently 
delivering its services. The Budget continues reforms that will 
streamline the Forest Service's organization, improve accountability, 
and focus on measurable results. The Budget reduces indirect costs to 
$461 million, and reflects completion of organizational efficiency 
studies that will lead to savings in fiscal year 2008 and beyond. The 
Budget further reflects a continuing emphasis on Forest Service 
performance and accountability by including two new performance 
measures for the National Forest System: (1) the use of volume sold as 
an annual output measure for forest products and (2) an annual 
efficiency measure consisting of the ratio of total receipts for each 
activity to the obligations for each respective activity that generates 
those receipts. These reforms will foster a greater focus on results; 
lead to improved decisions based on performance; and enhance 
accountability through the use of more readily available and better 
quality performance information.
    Through the President's Budget the Forest Service will continue to 
make use of valuable authorities that Congress has recently made 
available to the agency, and the Forest Service will continue its 
efforts to increase program efficiency. With the provisions of the 
Forest Service Facilities Realignment and Enhancement Act, the Forest 
Service is reducing its administrative site maintenance backlog and 
improving efficiency in its land management program. This new authority 
provides a necessary incentive to identify and maintain needed 
facilities while streamlining facility holdings that reflect a bygone 
era of forest management. In fiscal year 2006, we anticipate $37 
million in receipts from this conveyance authority and we will be 
initiating over 100 administrative site conveyances with projected 
receipts of over $77 million by fiscal year 2009. In short, the new 
authority enables the Forest Service to accomplish more with its 
Capital Improvement and Maintenance funds, while also decreasing the 
deferred maintenance backlog by removing unneeded facilities.
    In fiscal year 2007, the Forest Service will continue to implement 
the fiscal year 2006 changes to Knutson-Vandenberg (K-V) authority, 
which allow the Forest Service more flexibility in the expenditure of 
K-V funds. Consistent with OMB direction to offset increases in 
mandatory spending, the agency has issued direction to the field to 
increase collections into the National Forest Fund to offset the 
increase in the K-V program. I would like to express my appreciation 
for support that this subcommittee has given the Forest Service in 
improving this authority.
    Providing high quality recreation opportunities on the national 
forests and grasslands is of great importance to the Forest Service. 
National forests and grasslands received over 200 million visits 
occurring in 2005. The fiscal year 2007 Budget contains $250.9 million 
to provide these opportunities for visitors to National Forest System 
lands. To provide the most efficient use of these funds, we are 
developing a programmatic plan called, ``the capacity-building model 
for sustainable recreation,'' that will identify ways to build capacity 
to meet increasing demand. Tools will include partnership development, 
volunteerism, recreation fee revenues, improved business practices, and 
prioritization of recreation facility assets. Specific actions in 2007 
will include completion of recreation facility master planning to 
prioritize facility assets; completion of a feasibility study on 
retention of recreation special use fees; continued implementation of 
the Federal Lands Recreation Enhancement Act; collaborating with 
private sector partners to create a web site on improved business 
practices, including use of grant resources and volunteerism; and 
completing a skills assessment to enhance business and financial 
skills.
    In 2005 the recreation program PART assessment was conducted. As a 
result of this assessment we are taking actions to improve the 
recreation program performance, including updated performance measures 
connecting recreation program performance with achievement of the 
strategic goals; taking measures to improve visitor satisfaction and 
completing recreation business plans for each of the national forest 
and grasslands.
    The President's budget reflects the efforts of Forest Service 
Research and Development (R&D) to improve research programs while also 
advancing deficit reduction goals. To do this, R&D is expanding 
collaborative and coalition building efforts, focusing funding on 
research with external partners, and aligning research projects along 
strategic program areas. R&D is hosting two ``Outlook Workshops'' on 
future forestry research with non-governmental organizations (NGO's), 
government partners, academia and industry to encourage a common 
research agenda for all sectors of forestry research. In January 2006, 
R&D participated in a summit for Deans from U.S. forestry programs to 
lay plans for a common research agenda. The Forest Service will also 
continue to support the larger research community through the Forest 
Inventory Analysis (FIA). The FIA is the Nation's only forest census, 
and it has been tracking the conditions of America's forests for 
roughly 75 years. The President's Budget funds the FIA program at a 
level that will allow the program to cover 93 percent of the nation's 
forests with an annual inventory.
    R&D is also refocusing its research dollars, further increasing 
R&D's support of external and collaborative research efforts from 13 
percent of the R&D budget to 20 percent over the next five years. 
Finally, R&D is reorganizing its research along strategic programs 
areas, so the agency can best produce the research that supports 
current priorities. Along these lines, the President's Budget allocates 
$1.5 million to research on the value of ecosystem services; $3.5 
million to research on biomass markets and utilization; and includes 
funding for the reorganization of the Forest Products Lab, so the Lab 
can better focus on research that increases the utilization value of 
wood products, particularly in the areas of biomass, small diameter 
utilization, and energy and biofuels production from biomass. Through 
these efforts, the science produced by Research & Development will 
continue to be the foundation for effective Forest Service programs.

           IMPROVING ORGANIZATIONAL AND FINANCIAL MANAGEMENT

    In support of the President's Management Agenda, the fiscal year 
2007 budget continues the Forest Service's efforts to improve 
organizational and financial management. The Forest Service's Business 
Operations Transformation Program is improving the overall efficiency 
of the Forest Service's administrative operations and increasing the 
agency's ability to redirect funds from indirect costs to mission 
delivery. The Albuquerque Service Center successfully opened this past 
year, bringing nearly 400 employees to a consolidated budget and 
finance center that will better serve the needs of Forest Service 
internal and external customers. During the next five years, the 
Business Operations Transformation Program is estimated to result in 
$241 million in savings for the Forest Service.
    The centralization of Forest Service budget and finance will also 
create greater transparency, accountability and efficiency in the 
agency's financial management. The Forest Service continues to improve 
its financial management, as evidenced by the agency's 4th consecutive 
unqualified (``clean'') audit in 2005. Building upon these successes, 
the Forest Service will use improved financial information to drive 
results in key areas.
    The President's Budget also continues support for the Forest 
Service Competitive Sourcing program, and focuses on proper and timely 
implementation of completed competitive sourcing studies and rigorous 
analysis of the studies' results and savings.
    In fiscal year 2007 the Forest Service will continue its work in 
Budget and Performance Integration through implementation of its 
strategic plan, Performance Accountability System, and by making 
effective use of the Program Assessment Rating Tool (PART). The Forest 
Service Strategic Plan helps the agency and its field units develop 
programs of work that address natural resource needs while maximizing 
limited resources and improving performance accountability. The 
Strategic Plan will be revised in fiscal year 2006 to reflect the 
latest needs and resources of the agency.
    Through the PAS, the Forest Service is integrating existing data 
sources so that timely, consistent and credible performance information 
will be available for project and program managers as well as external 
customers. In addition, PART efforts will ensure that the agency's 
activities are aligned with its strategic plan. Thus far the Forest 
Service has used PART to evaluate the following programs: Wildland Fire 
Management, Capital Improvement & Maintenance, Forest Legacy, Invasive 
Species, Land Acquisition, Recreation and Energy. These assessments 
have resulted in development of improved performance measures to better 
track accomplishments and increase accountability and better 
integration of strategic goals with program accomplishments. For the 
fiscal year 2008 budget process, the Forest Service will complete a 
PART analysis of mission-support activities and programs aimed at 
improving watershed quality, and will reassess Wildland Fire and 
Invasive Species. Results from the PART process have been, and will 
continue to be, used to improve program management and develop better 
performance measures.

                               CONCLUSION

    The fiscal year 2007 Budget reflects the President's commitment to 
providing the critical resources needed for our Nation's highest 
priorities. The fiscal year 2007 budget responds to the national need 
for deficit reduction while preparing the Forest Service for a new, 
more collaborative, era of natural resource management. With this 
budget the Forest Service will continue to identify and support more 
efficient and effective methods of pursuing its mission. This will be 
accomplished through increased collaboration, the use of new 
legislative authorities, expanded program efficiencies and improved 
organizational and financial management. Through these efforts the 
Forest Service will continue to sustain the health and productivity of 
the Nation's forests and grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2007 
program, and I'm happy to answer any questions that you may have.

    Senator Burns. Thank you, Chief. Now, Mr. Secretary, we 
welcome you to the table.

                 SUMMARY STATEMENT OF HON. MARK E. REY

              REAUTHORIZATION OF SECURE RURAL SCHOOLS ACT

    Mr. Rey. Thank you, Mr. Chairman. I'm going to speak 
exclusively today about the administration's proposal to 
reauthorize the Secure Rural Schools and Self-Determination Act 
of 2000.
    That legislation, as you know, was enacted by Congress in 
2000 to provide counties guaranteed payments for their school 
and road systems to offset the dramatic decline in timber sale 
receipts that occurred during the 1990s.
    What the administration is proposing, is a one-time 5-year 
reauthorization for the legislation. In reviewing the 2000 
legislation and the progress that has been made to date in 
implementing it, the authors of the 2000 legislation 
essentially wanted to effectuate three transitions.
    First was a transition to stabilize county school funding 
over the period of 6 years, so that the counties could 
diversify their economies and become less reliant on Federal 
timber receipts.
    The second was to stabilize the timber sale program or give 
the Federal agencies a chance to stabilize the timber sale 
program and make the receipts a more certain proposition, as 
opposed the situation that existed as a consequence of appeals 
in litigation during the 1990s.
    The third was to effectuate a transition where we improve 
the relationships between Federal land managing agencies and 
county governments, and Federal land managing agencies and 
local citizens.
    In our judgment, looking at the progress that has been made 
over the 6 years of the original authorization, the second and 
third of those three transitions have been nearly complete.
    With respect to timber sale receipts, they are now stable 
and increasing slightly and will continue to increase slightly. 
They are already at levels that were achieved in the early 
1970s and they are dependable for the future.
    Second, with respect to the operation of the resource 
advisory committees established under the 2000 legislation, 
there has been a dramatic improvement in the relationship 
between the Federal land managing agencies and local 
governments and local interest groups.
    Those groups, through the efforts of the resource advisory 
committees, have indeed invested $36 million per year each of 
the last 6 years in resource investments on the Federal lands. 
The result of those investments is to encourage volunteerism, 
particularly volunteerism among student groups in the 
management of the national forest and the Bureau of Land 
Management's lands involved. That's why, in our proposal to 
reauthorize the legislation, we would retain those resource 
advisory committees.
    It's the first of those three transitions that involves the 
county budgets and dependence on Federal receipts which is not 
complete. Some counties have indeed diversified their economies 
and are less dependent today than they were 6 years ago on 
Federal timber receipts.
    Others have clearly not, and it's because that transition 
is not complete and because the authorization for the 
legislation expires at the end of this year, thereby ending the 
guaranteed payments, that the administration has proposed a 5-
year reauthorization of the legislation to try to extend and 
complete the first of those three transitions.
    To fund that reauthorization, we propose a one time sale of 
Forest Service lands that have been identified using criteria 
in each of the individual national forest plans as being 
isolated, difficult, and expensive to manage, and no longer 
meeting National Forest System needs.
    Lands fitting these categories in total amount to about 
309,000 acres of land, involving some 2,900 parcels in 31 
States. A complete list of all of those tracts went up on our 
website on February 10. On March 1, we provided a notice in the 
Federal Register opening a 30-day public comment period on that 
list of tracts so that the public could give us their views on 
the proposition generally and on individual tracts 
specifically.
    Today we are sending up legislative language to effectuate 
the authority to convey those lands for your consideration as 
well as letters to both the President pro tem of the Senate and 
the Speaker of the House.
    To reauthorize the secure rural school legislation, it is 
not necessary to sell all 309,000 acres of land to raise the 
needed funds. We think it will probably take somewhere between 
150,000 to 175,000 acres of land, which gives us a lot of 
flexibility to work with the list and to work with the 
interested public to evaluate each tract on a case by case 
basis before we send the final list up to the Congress later 
this spring.
    We offered this proposal understanding that land sales are 
a sensitive proposition and in doing so, we look back across 
the last 25 years of history at both land sales proposals that 
were enacted by Congress, such as the Southern Nevada Public 
Land Management Act of 1998, the Educational Land Grant Act of 
2000, and our own proposal enacted by Congress--in fact, 
enacted by this committee last year to convey access for Forest 
Service administrative sites.
    We also looked at a number of proposals that have been 
offered over the last two decades that have not met with 
Congress' support. What we discovered in evaluating both sets 
of proposals is that those that were successful and that were 
enacted by Congress seemed to share three characteristics. 
Those characteristics are thus: first, they had to be precise. 
There had to be an exclusive list of what was being discussed 
with very little tolerance for ambiguity about what was being 
considered and what might be sold or conveyed out of public 
ownership.
    The second characteristic was transparency. There had to be 
an adequate opportunity for everybody who had a view, to offer 
that view, and express whether they thought it was a good idea 
in general or whether specific tracts that were being discussed 
should be taken off the table. There was very little tolerance 
for slipping a proposal of this nature into a Senate House 
conference at the 11th hour.
    Third, there had to be an agreed-upon public purpose; that 
the land sales would serve the proposition that the sales would 
fund general deficit reduction didn't and hasn't, over the last 
two and a half decades, garnered much support.
    Our intent and our objective in proffering this proposal to 
Congress is to meet each of those three criteria. First, 
precision, by eventually offering you an exclusive list of 
everything that is being considered so there is not doubt, 
ambiguity, or uncertainty at what might be at stake or at 
issue.
    Second, by giving the public an opportunity to testify by 
advancing this as part of the President's budget in the first 
place and making sure we have collected all of the commentary 
that we can about the proposition generally and about specific 
tracts individually.
    Then third, given the broad bipartisan support for the 
initial enactment of the 2000 Secure Rural Schools bill and the 
similarly broad bipartisan support for its reauthorization, we 
believe we've met the standard of a broadly supported public 
purpose to use the funding generated by the land sales. We 
think it's important to look at our proposal in a larger 
context.
    On the average, using the Land and Water Conservation Fund 
and other authorities, the Forest Service acquires between 100 
and 115,000 acres a year--lands that are identified as meeting 
high ecological values and serving National Forest System 
needs.
    We're probably going to continue, with the Congress's 
support, that rate of acquisition. That means in less than 2 
year's time we would net out from an acreage standpoint the 
effects of this proposal to convey lands that don't meet 
national forest needs and aren't ecologically sensitive.
    A decade ago when I entered public service, if we wrote 
testimony for you describing the National Forest System, we 
would describe it as 191 million acres of national forest 
managed for the Federal good. Today that testimony speaks of 
193 million acres of national forest. So we've grown the system 
over 2 million acres in less than a decade's time.
    So that's the context I think it's most fair to look at 
this in. We have a great deal of commentary over the month and 
a half that this proposal has been part of the public 
discourse. Indeed, in response to that commentary we've made 
some changes.
    For instance, people told us as they reviewed the proposal, 
that even if we agree, for the sake of argument, that these 
lands no longer meet National Forest System needs, that's not 
the same as saying they no longer meet public needs. They may 
be meeting needs that the public enjoys, even if that's not 
something that's integral to the management of the National 
Forest System.
    Indeed, we know that on some of these isolated tracts which 
have road frontage, we've given county governments a special 
use permit to put in picnic tables for a roadside turnout or a 
picnic area.
    So what we've added to the proposal that we're sending to 
you today, is the proposition and a proviso that will offer 
these lands to State, county, and local governments, or land 
trusts acting on their behalf at fair market value on a right 
of first refusal basis. So if there is a public service that 
they are performing, that public service can continue, albeit 
being provided by another, perhaps more appropriate unit of 
government.
    Beyond that, we've heard a lot of rhetoric that this is a 
bad precedent--an unprecedented development and it's neither of 
those. Indeed today in this Congress so far, the Forest Service 
has testified on 24 separate bills that involve the conveyance 
of over 34,000 acres of Forest Service land into other 
ownerships and so, this is no more or less of a precedent than 
any of the other conveyance legislation that Congress has 
considered either in this Congress or in preceding Congresses 
over the last several decades.
    I will say that proposals like this do sometimes generate 
unexpected results, and perhaps the most pleasing unexpected 
result that this one has generated is that we've heard over the 
last month and a half from groups who are on a weekly basis 
critical of the Forest Service's management. They are saying 
that but for the Forest Service's management, dire and 
catastrophic things would occur.

                           PREPARED STATEMENT

    So, it's pleasing to know that when faced with a prospect 
of an alternative, some groups more fully support what the 
Forest Service does on a day-to-day basis. In this job, you 
take your compliments wherever you can find them and so I am 
registering that one for the record today.
    With that, we'd be happy to answer any questions that 
you've got.
    [The statement follows:]

                 Prepared Statement of Hon. Mark E. Rey

                                OVERVIEW

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to discuss the President's fiscal year 2007 Budget for the 
Forest Service. I am pleased to join Dale Bosworth, Chief of the Forest 
Service, at this hearing today.
    In my testimony, I will discuss two main issues. First, I will 
focus on the proposal in the President's Budget to continue funding for 
an amended Secure Rural Schools and Community Self-Determination Act. 
Second, I will discuss the increased funding for the Northwest Forest 
Plan that is requested in the fiscal year 2007 budget, which will 
promote improved forest health and more robust forest products 
economies in the Pacific Northwest.
continuing transitional support to rural communities through the secure 

                           RURAL SCHOOLS ACT

    The Secure Rural Schools and Community Self-Determination Act of 
2000 (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties that had been affected by the decline in 
revenue from timber harvests on Federal lands. These counties 
traditionally relied on a share of receipts from timber harvests to 
fund their school systems and roads. The funding provided by the Act 
has been used to provide over 4,400 rural schools with critical funding 
and has addressed severe maintenance backlogs for county roads. 
Resource Advisory Committees (RACs) established under the act have 
developed and proposed forest health improvement projects. A recent 
study by the Sierra Institute for Community and Environment, Assessment 
of the Secure Rural Schools and Community Self-Determination Act--Dr. 
Jonathan Kusel (January 2006), on the effectiveness of RACs under title 
II and community programs under title III of the Act was encouraging.
    Each year the level of interaction between RACs, local governments, 
and citizens has increased, resulting in broader support and 
understanding of our mission. Additionally, funding for title III has 
also been used to complete community wildfire protection plans which 
are necessary to efficiently plan protection strategies for our rural 
communities.
    The last payment authorized under the Act would be made in fiscal 
year 2007 based on timber and other receipt levels for fiscal year 
2006. The Administration is committed to provide transitional 
assistance to counties and States covered under the Secure Rural 
Schools Act. The Department of Agriculture has worked hard to find the 
offsets needed to temporarily fund this assistance, while targeting and 
gradually phasing it out.
    Our legislative proposal described in the President's fiscal year 
2007 Budget for the Forest Service would provide a source of funding 
for payments under the Secure Rural Schools Act by authorizing the sale 
of certain National Forest System lands. These parcels meet criteria 
identified in existing Forest Land Management plans as potentially 
suitable for conveyance. Many of these lands are isolated from other 
contiguous National Forest System lands, and because of their location, 
size or configuration are not efficient to manage as a component of the 
National Forest System. Isolated tracts can be expensive to manage 
because of boundary management and encroachment resolution costs. The 
sale of these lands will not compromise the health or integrity of the 
National Forest System; instead, it will allow the agency to 
consolidate Federal ownership and reduce management costs.
    The legislation would authorize to the Secretary of Agriculture to 
sell sufficient national forest land to fund an $800 million account 
that would be used to make Secure Rural Schools Act payments over a 
five year period. Payments from the land sales fund will be adjusted 
downwards and eventually phased out. This adjustment recognizes that 
the Secure Rural Schools Act provided transitional assistance to rural 
communities adapting to a changing timber economy and a changing 
federal role in resource extraction.
    Funds from the land sales account would be in addition to payments 
to the States from annual timber and other receipts on national forests 
and BLM lands. For administrative purposes, the Secretary of 
Agriculture would also make the supplemental payments from this account 
for Bureau of Land Management O&C lands. Payments will continue to be 
targeted to the most affected areas. Timber receipts are expected to 
rise over the next five years, which should further help in reducing 
the impact of the payment phase-out.
    Since payments under the Secure Rural Schools Act began in 2001, 
the affected economies have made important strides in economic 
diversification and are now less dependent on federal timber receipts. 
In addition, the Forest Service has reestablished itself as a catalyst 
for economic development by conducting hazardous fuels treatments that 
can support a market in forest biomass. By selling isolated federal 
lands, we will further contribute to diversified rural government 
funding.
    When the Federal lands are sold and become private property, they 
will be added to the county tax rolls, providing a sustainable funding 
source for local governments. All of these factors combine into a 
unified plan to promote robust local economies and reduce the 
dependence of county governments on direct federal assistance.
    The Administration remains committed to acquiring environmentally 
sensitive lands and protecting them from development. This commitment 
is reflected in the President's request for a $5 million increase in 
funding for the Forest Legacy program, which will protect an estimated 
130,000 priority acres in fiscal year 2007 through the purchase of 
conservation easements or fee simple title. In addition, our land 
acquisition program and land exchange program has been adding about 
100,000 acres per year to the National Forest System for the last 
several years. By selling lands that are inefficient to manage or are 
isolated with limited ecological values and purchasing critical, 
environmentally sensitive lands, the Forest Service will maintain the 
integrity of the National Forest System while funding payments under 
the Act in a fiscally responsible manner.

             INCREASED FUNDING OF THE NORTHWEST FOREST PLAN

    The 2007 Budget also reflects the President's commitment to 
sustainable forestry in the Pacific Northwest through increased funding 
for the 1994 Northwest Forest Plan. The Northwest Forest Plan affects 
the management and administration of 24.5 million acres of Federal 
land, of which 19.4 million are managed by the Forest Service within 19 
national forests in western Oregon, western Washington, and northern 
California. The Northwest Forest Plan was designed to produce a 
predictable and sustainable level of timber sales while protecting the 
long-term health of forests, wildlife and waterways of the region. The 
Plan has succeeded in meeting its environmental goals. A 2004 Forest 
Service review of the first 10 years of the Northwest Forest Plan found 
that the net gain in older forests since 1994 was between 1.25 and 1.5 
million acres, over twice the 600,000 acres expected during the first 
decade of the plan.
    The 2004 review found that the Plan has not been successful at 
providing a predictable level of timber and non-timber resources. In 
order to recognize the needs of all parties affected by the Northwest 
Forest Plan, the President's budget increases funding for the Plan by 
$66 million, with $41 million for forest products, $6 million for 
hazardous fuels treatment, and the remaining $19 million for assorted 
ecosystem management programs. This level of funding allows the Forest 
Service to offer the Plan's goal of 800 million board feet of timber 
per year.
    The economies of the Pacific Northwest have experienced marked 
change over the past 15-20 years. The region went from harvesting 4 
billion board feet of timber in 1990 to 409 million board feet in 2000, 
and the forest economies of the region have suffered from the lack of a 
predictable timber supply. The goal of the Administration is not to 
return to the peak levels of timber production; instead, the fiscal 
year 2007 budget provides for a sustainable, predictable level of 
timber harvest that also protects forest health. The current forest 
products economy offers great opportunities for businesses able to use 
new technologies and tap into expanding markets for new products. With 
a predictable timber supply established, the Pacific Northwest will be 
better equipped to adapt and succeed in the changing forest products 
market.
    One of the best examples of new opportunities in forest products is 
the rapidly expanding market for wood pellets as a fuel source. The 
demand for wood pellets for commercial and home heating has boomed as 
Americans face higher heating costs from traditional sources. Wood 
pellets suppliers have reported shortages from New Mexico to Rhode 
Island. Pellet producers, such as Forest Energy Corporation in Show 
Low, Arizona, are running their processing mills 24 hours a day and 
seven days a week to try and meet demand. In making the wood pellets, 
Forest Energy Corporation uses the small-diameter wood produced from 
hazardous fuels treatments in Arizona's national forests. Expanded 
funding for the Northwest Forest Plan will create similar win/win 
situations in which both sustainable harvested timber and the 
byproducts from hazardous fuels treatments are used to meet the growing 
demand for forest products.
    In addition to meeting the Northwest Forest Plan's timber targets, 
the Forest Service will improve over 3,900 acres of terrestrial 
wildlife habitat and 120 miles of fisheries habitat in fiscal year 
2007. The Forest Service has developed a comprehensive strategy for 
aquatic restoration within the Northwest Plan area to restore priority 
watersheds.
    The President's Budget also enables the Forest Service to continue 
to emphasize the treatment of hazardous fuels in the wildland-urban 
interface and address the reforestation needs of recent large forest 
fires. With the expanded NWFP funding, the agency will continue to 
emphasize partnerships and integrated projects to protect municipal 
watersheds, recover habitat for endangered and sensitive species, and 
control the spread of invasive species.
    The 2007 President's Budget provides $610 million to continue 
implementation of the Healthy Forests Initiative, to reduce hazardous 
fuels and restore forest health. The budget proposal, more than a $12 
million increase over 2006, takes an integrated approach to reducing 
hazardous fuels and restoring forest and rangeland health. Along with 
$301 million to the Department of Interior (DOI), the fiscal year 2007 
budget provides a total of $913 million to implement the Healthy 
Forests Initiative and the Healthy Forests Restoration Act.
    Through the continuation of the Secure Rural Schools Act and 
through expanded funding of the Northwest Forest Plan, the President's 
Budget promotes sustainable rural communities and the expansion of a 
forest products economy that is compatible with improved forest health. 
These efforts, in combination with the President's continued support of 
the Healthy Forests Initiative, highlight the Forest Service's 
commitment to managing the Nation's forests and grasslands with greater 
innovation and renewed efficiency. I look forward to working with 
Congress to enact the President's fiscal year 2007 budget. At this time 
I would be pleased to answer any questions.

                          NEW GRAZING PROPOSAL

    Senator Burns. Senator Dorgan is on kind of a short time 
line and for another hearing. So we'll allow that he can lead 
off the questions here this morning, so that he has other 
things.
    Senator Dorgan. Mr. Chairman, thank you very much. Chief 
Bosworth first off, you'll recall last year that you all had 
issued some new rules with respect to leasing land, or shared 
cattle and whether under those circumstances people would 
qualify for grazing permits. I held a subcommittee hearing in 
Bismarck on August 30 of last year and we had the room filled 
with people pretty upset about things.
    We had your folks testify and the folks from your regional 
office, one of the things I discovered is that they learned 
about these new proposals at the same time that I learned about 
them. There was no consultation with the local folks. It 
appeared to me to be a pretty significant problem of 
communication. Have you reviewed that circumstance?
    Now you withdrew the proposals and should have, but what 
concerned me mostly about that, was that it appeared to me 
somebody in Washington just said here's our new approach and 
sent them out and caught everybody by surprise, even your local 
and your regional folks. Can you describe what happened there?
    Mr. Bosworth. Yes. I have looked into that and as you've 
said, we withdrew the handbook. We have a process where we can 
issue interim directives and then receive comment at the same 
time. It's a good system. It works fairly well.
    I think this was an inappropriate use of that system. I 
think we should have gone out and talked to people before we 
issued the interim directive and found out what people thought. 
Then we could issue a directive with whatever changes need to 
be made, as opposed to just issuing the interim directive.
    Senator Dorgan. I appreciate hearing that you also feel 
that was a problem and has been corrected because that 
shouldn't happen. You shouldn't catch your own people by 
surprise out there. So I appreciate the response.

                     THEODORE ROOSEVELT/EBERT RANCH

    Mr. Rey, you were in North Dakota recently. You have 
requested opportunities in funding to purchase the Theodore 
Roosevelt original ranch site in the Badlands and we have 
agreed I think, on a number of provisions with respect to that.
    I would like for us to exchange those letters and put them 
in this hearing record as well. I believe we're all set in 
terms of how we do that for a no net gain of Federal lands.
    Mr. Rey. That is correct.
    [The letters follow:]
                                               U.S. Senate,
                                  Washington, DC, February 9, 2006.
Hon. Mark Rey,
Undersecretary for Natural Resources, U.S. Department of Agriculture, 
        Washington, DC.
    Dear Mr. Rey: As per our recent conversation, this letter will 
serve as a record of my position on the Department's request to 
reprogram $1.45 million towards the purchase of the Ebert Ranch 
property in Billings County, North Dakota. I support the preservation 
of this important piece of history, which includes the viewshed of 
President Theodore Roosevelt's former ranch on the North Dakota 
Badlands. However, I am only willing to lend my support to this 
reprogramming and to future funding for the acquisition if the 
Department agrees to certain conditions that will help resolve local 
concerns.
    First, I expect the Department to submit a legislative proposal for 
the necessary land conveyance that reflects that the purchase of the 
Ebert Ranch property will not be completed until all of the other 5,150 
acres of the Dakota Prairie Grasslands the agency proposes to sell are 
actually sold. This will ensure that there will be no net increase in 
Federal lands in the state, and there will not be a diminished property 
tax base for local government. I also expect the Forest Service to take 
steps between now and the time the fiscal year 2007 Interior 
Appropriations bill is passed to make sure that these sales move 
forward in a timely manner once the bill is signed into law.
    Second, the conditions under which the property is acquired must 
not interfere with the other multiple uses that currently exist for 
that property. Grazing, oil and gas development, recreation and other 
multiple uses must all be preserved. In particular, the Department 
should commit to transferring all grazing allotments affiliated with 
the Ebert Ranch property to the Medora Grazing Association in order to 
ensure that these acres stay in production.
    Moreover, the Forest Service must also demonstrate that it wants to 
work with local stakeholders to resolve other grasslands management 
issues by agreeing to codify specific policy changes. The agency's July 
2005 attempt to make policy changes to its grazing handbook and manual 
without appropriate public involvement severely undermined public 
trust. The changes included the elimination of leasing base property 
and shared livestock by grazing permittees, which would be disastrous 
for many ranchers in North Dakota. To ensure that these policies are 
not reissued, I intend to amend your sale authority with legislative 
language that protects North Dakotans from any future restrictions for 
grazing permittees on the leasing of base property or shared livestock. 
I ask that you affirm your commitment that the Administration will 
support my efforts to add these provisions, which I would make specific 
to North Dakota.
    I also expect the Service to work directly with grazing 
associations and other interests to develop a mutually acceptable plan 
to implement the grazing Record of Decision for the Dakota Prairie 
Grasslands Management Plan. This includes negotiating a reasonable 
compromise with grazing associations and other interested parties on 
the proposed Allotment Management Plan pilot demonstration project.
    Finally, virtually every other scenario that was explored for the 
Federal Government to acquire the Ebert Ranch property would have 
required Governor John Hoeven to approve the transaction. You have 
chosen to structure this acquisition so that the land can be acquired 
by the Department without his approval. However, I still believe that 
the best interests of the State of North Dakota are served by ensuring 
that he supports the Federal Government's efforts to purchase and 
conserve this property. Therefore, I ask that the Department obtain 
Governor Hoeven's support, in writing, for the acquisition of this 
property prior to the reprogramming of any funds.
    You have previously indicated to me that the Department is willing 
to meet these conditions and ensure my support for this acquisition. I 
request that your respond to this letter reaffirming that commitment. I 
look forward to working together to resolve issues of mutual concern 
and protect this historic property.
            Sincerely,
                                           Byron L. Dorgan,
                                                      U.S. Senator.
                                 ______
                                 
                    U.S. Department of Agriculture,
                                   Office of the Secretary,
                                     Washington, DC, March 3, 2006.
Hon. Byron L. Dorgan,
U.S. Senate, Washington, DC.
    Dear Senator Dorgan: This is in response to the February 9, 2006, 
letter outlining your position on the Department's request to reprogram 
$1.45 million towards the purchase of the Ebert Ranch property in 
Billings County, North Dakota. I appreciate your support for the 
acquisition of this important historical property. In addition, we will 
continue to seek the necessary approval for reprogramming with the 
House Appropriations Committee. Your support for the reprogramming is 
provided only if the Department could assist in the resolution of 
several local concerns. The Department's response to these conditions 
is as follows:
    We recognize the need to dispose of a like number of acres of the 
Dakota Prairie Grasslands (DPG) in order to insure there is a no net 
increase in Federal lands in the state upon completion of the proposed 
acquisition. The Department is prepared to submit a legislative 
proposal providing the Secretary of Agriculture the authority needed to 
convey the necessary acreage through land sales at market value. Every 
effort will be made to insure these lands are offered for sale in a 
timely manner once this authority is provided. Preparatory work to that 
end is already underway.
    When acquired, we will manage the property as a component of the 
DPG in accordance with the Forest Plan direction which provides for a 
full complement of multiple use resource activities. Grazing allotments 
associated with the Ebert Ranch would continue to be grazed through 
existing arrangements with the grazing Association.
    We will provide legislative language to continue the grazing 
permittee practice of leasing base property and shared livestock 
specific to the state of North Dakota without timeframe restrictions.
    We have and will continue to work with the appropriate grazing 
associations in the development of the demonstration project for 
allotment management planning on the DPG. The objective of the project 
is to provide a long term sustainable multiple use management through 
sound and practical management of grassland ecosystems for the multiple 
benefits of local communities and the public.
    Finally, it is true that the current structure of the Ebert Ranch 
acquisition would not require the Governor to approve the transaction. 
However, we will continue to work with the Governor to assure his 
support for the acquisition.
    I look forward to working with you and other appropriate 
Congressional members to both resolve the issues of mutual concern on 
the Grasslands, and acquire this historic property.
            Sincerely,
                                                  Mark Rey,
                Under Secretary, Natural Resources and Environment.

                 NATIONAL RECREATION RESERVATION SYSTEM

    Senator Dorgan. Let me also ask Chief Bosworth about this 
issue ricocheting around which you're very well familiar with, 
the contracting for the National Recreation Reservation System, 
a $100 million contract.
    Now I'm just an observer of this, but my understanding is 
the GAO has twice evaluated this and indicated that they felt 
the contract was improperly awarded. Yet, I think the Forest 
Service, from what I understand, has intended or decided to go 
forward with the procurement of this anyway.
    Is that the case? Do I have the facts right?
    Mr. Rey. Essentially, that's correct. GAO issues opinions 
in response to contract disputes. Under the law, those opinions 
are advisory.
    With respect to GAO's first opinion, we agreed there were 
some flaws in the contract administration which is why we 
reoffered it.
    In response to their second GAO opinion, we think they mis-
analyzed the record as it existed at the time. It is within our 
authority to proceed and the unsuccessful contract bidder can 
now, if they choose, decide that they want to pursue this 
further action through the Court of Claims.
    So far, they've filed a protective notice, but there are 
discussions ongoing. I don't know where that will head.
    Senator Dorgan. Is it quite unusual for an agency, despite 
the advice of the GAO or the evaluation of the GAO, to proceed 
anyway? You worked in the Senate I believe, and you understand 
that we rely to a substantial degree on the GAO.
    The GAO is our investigative arm. They have investigated 
this twice and both times come up saying you're short and this 
shouldn't proceed. Yet, you're proceeding anyway. Have you done 
that, and can you cite other areas where you've proceeded 
against the advice of the GAO?
    Mr. Rey. There have been no other areas I know of where the 
Forest Service has, but it's not uncommon in the case of other 
agencies. We'd be happy to sit down with you and go through 
these specifics of this. There are some countervailing reasons 
why we did not want to offer the contract a third time.
    Had we offered the contract a third time, the prevailing 
bidder the first two rounds made it quite clear that they would 
appeal that result. So we wouldn't have been before GAO a third 
time under that circumstance.
    So this is a case where the two companies involved are 
quite determined to exercise all of their remedies and options. 
Eventually, we have to get beyond that and offer a contract, so 
we can offer recreation reservations to the public.
    So one of the strong considerations, was the virtual 
certainty that we would have been before GAO a third time 
anyway. But I think if we can have the opportunity to give you 
a briefing in greater detail, you will see some circumstances 
that also mitigated in favor of moving forward.

                             NOXIOUS WEEDS

    Senator Dorgan. Let me finally, Mr. Chairman, thank you for 
your indulgence. Let me say that I want to submit some 
questions for the record including questions about leafy 
spurge--to the extent there is some improvement, good for you.
    Our ranchers--and I'm sure in Montana and Colorado feel the 
same way--our ranchers want the Federal Government to be a good 
neighbor and a good neighbor means taking care of your weeds. 
So, I want to submit some questions and those questions will 
include among other things, the leafy spurge issues.
    Now I ask that you respond to the written questions. Thank 
you very much for being here.
    Senator Burns. Thank you, Senator. You know you can go to a 
lot of fancy things in this town and if somebody asked you what 
you're working on and you say weeds, you'll find out how quick 
you're standing there by yourself, because nobody understands 
this battle we have with noxious weeds and invasive species in 
our country. That is something, we found out how to control 
them. We have a lady in Big Timber, Montana that can solve your 
problem for you if you have a really big problem. But now 
getting those folks at the table to act and to sign off on that 
is another story. But it offers no chemicals. It's as natural 
as day following night and it's grazing. Pure and simple, it's 
grazing. That's what controls weeds--sheep eat weeds and they 
take those numbers down.

                         GRAZING PERMIT BACKLOG

    While we're talking about that, we've got a real problem in 
the backlog of expiring grazing permits that need to be 
renewed. Yet, you cut that back this time. Congress put a 
schedule in place for renewal--the permits of the 1995 
Rescission Act. So your budget justifications says you're only 
getting done 50 percent of the work that you need to do each 
year to comply with that schedule and the schedule requires 
those allotments to be done by 2010. That doesn't seem very far 
off right now, as we sit here and talk about it.
    Now you've reduced the program by $8.5 million and the 
number of grazing allotments processed declined by 34 percent, 
from 484 allotments this year to 321 next year. Now why is it a 
good idea when we still have 3,200 permits that need to be 
processed?
    It makes no sense to me and my question is, how many 
allotment decisions have been made using the categorical 
exclusion? I would say, you know we get to feeling kind of 
like--and I know most of you hunt birds and you take bird dogs 
and everything like that, you know--we're feeling kind of like 
that bird dog up here, that we find the bird, we flush the 
bird, and the shooter never hits it. We don't get anything to 
retrieve and pretty soon, after four or five times of that, we 
get kind of tired of hunting for you and fighting for you out 
there to give you the tools to complete your work.
    So there was a cap, I think around 900 in that particular 
piece of language on categorical exclusions. So I would ask 
you, how many allotment decisions have you made using this 
authority so far. How many have you used?
    Mr. Bosworth. Let me just take a second to give you a 
little bit of background. We got the authority, which very 
helpful to use the categorical exclusions about a year and a 
half ago. Then of course, it took us a little bit of time, not 
too much, to get the directives out.
    Then we got into an issue called the Earth Island Institute 
lawsuit on categorical exclusions. That held us off until about 
last fall and we moved forward with using categorical 
exclusions. I think we've completed 44 allotments at this point 
using the categorical exclusions. We expected to do another 100 
this year and it's going to continue to be a tool that will 
work.
    We exceeded our targets in terms of range allotments that 
were completed in 2005. I believe we'll meet or exceed our 
targets this year. I would expect and hope that we would be 
able to exceed the number that is shown for the budget 
justification for fiscal year 2007. We'll be very close to 
meeting our expected number of allotments that use categorical 
exclusions and have them completed by the timeframe.
    So we're still committed to achieving that objective and 
that target.
    Senator Burns. You've cut back your resource here; what 
effect will that have?
    Mr. Bosworth. Obviously when we have less dollars, we do 
less work. Having said that, though, I think I mentioned a 
couple of things in my opening comments about some improved 
efficiencies that we'll get more of the dollars to the ground 
by reducing our indirect costs by centralizing our business 
processes. Some of those things will save us a considerable 
amount of money over the next few years and what we're after is 
getting more of the dollars out on the ground getting the work 
done.
    So I believe that that is one of the ways we'll be able to 
achieve and exceed some of these targets.

                       GRAZING AND NOXIOUS WEEDS

    Senator Burns. This is the dilemma we find ourselves in, in 
this respect, then it is a concern that Senator Dorgan had 
about leafy spurge. We've got both spurge and nap. Some private 
forest and private lands are paying this person that has got a 
lot of sheep. They are paying them a buck a head a month to 
graze it off when the livestock people use to pay for the 
permits to use that resource of grazing.
    Now it seems to me that we could solve two problems here. 
By accelerating these grazing permits and deal with our 
invasive and weeds and get it done. These are dollars that--
they're not very many dollars involved, but it has more impact 
on the health of the forest and our range lands than anything 
we could do.
    It's just out there and very simple. Why we can't get that 
done, is absolutely beyond me. I know why we're not getting it 
done, because we just don't have a lot of folks that go down 
deep in the Forest Service that really believe this to happen. 
They may have to do some work. They may have to stake out some 
boundaries.

                            GRAZING PERMITS

    But I really believe that this business of denying those 
grazing permits, actually denies us a most essential tool to 
the health of the land and the forests. I really believe that, 
because I can show you maps, that when we have grazing in 
forest land, we had less fires.
    Mr. Bosworth. Mr. Chairman, I'd like to respond to that 
because there are no situations where a permit has expired that 
we haven't reissued the permit. The issue here is getting all 
of our grazing allotments reissued under NEPA. In the meantime, 
we're still grazing. We have used contracts for sheep and goats 
in places in the past, to work specifically on things like 
leafy spurge, because that is effective.
    With cattle, it's not. It doesn't do the same thing. From 
time to time, we pay people to graze on the national forest to 
actually reduce the amount of leafy spurge.
    We're also using the biological controls like a flea beetle 
to help with both leafy spurge as well as spot knapweed.
    Senator Burns. Most of that was developed over at Sidney, 
Montana.
    Mr. Bosworth. Some of it was and it works fairly well in 
many places. We're not reducing any grazing based upon the 
schedule that we had for reissuing these allotments.
    The issue would be that if we don't complete it by the end 
of the timeframe, we start having problems then. I think that 
is 2010. We expect to meet that date. We expect to have all of 
these reissued by that time. In the meantime, if one ends, then 
we will reissue it anyway. We have that authority that we were 
given by Congress.
    Senator Burns. Okay. I just need some dedication and I'd 
like to see some folks down there doing those things. I don't 
want their shirt tale to hit their backside. I want them to get 
after it.
    Mr. Bosworth. I would like to add that our folks in the 
field are committed to getting this done. There is no lack of 
desire on their part and they are out on the ground, trying to 
get the job done.

                SECURE RURAL SCHOOLS LAND SALES PROPOSAL

    Senator Burns. Let's talk about the sales of these acres. 
Now I'll tell you what the attitude of the folks in Montana are 
taking, that you're going to sell about 13,948 acres eligible 
for the sale in Montana, when 75 percent of the receipts go to 
schools in California, Oregon, and Washington.
    I'm not going to sell my ranch and then send the money over 
there. How do I justify that when I'm driving down the road 
next week?
    Mr. Rey. Well, the 2000 legislation was a piece of national 
legislation and in establishing the guaranteed payment, it 
mirrored what were the historic timber sale receipts in 
different States.
    Our proposal to reauthorize it is a national piece of 
legislation, although we did include in response to commentary 
from a number of members, a requirement that we maximize 
regional equity to the extent possible. I do think that when we 
get into the reauthorization of the Secure Rural Schools 
legislation, one of the things we would like to work with the 
committees of jurisdiction on is the question of whether the 
2000 formula is still the right distribution of funds.
    Today, as I said in my testimony, some counties have made 
the transition better than others and it may be that we should 
be readjusting the formula to reflect that. I dare say, there 
are some counties in States that get the majority share of the 
money under the 2000 legislation that have done a pretty good 
job of making that transition. There are also counties and 
States that got a lesser share in 2000--based upon the historic 
receipts level--that haven't made the transition.
    Senator Burns. Well I agree with that, but I find a hard 
time coming up with an answer when you're doing things like 
this.
    Senator Allard, welcome to the committee this morning.
    Senator Allard. Thank you, Mr. Chairman. It's a pleasure to 
be here, as always. I have a prepared statement and I wonder if 
I might make that?
    Senator Burns. Without objection, it shall be made a part 
of the record.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Chairman Burns, for holding this important hearing. 
Colorado's abundance of forests make this a very significant hearing to 
me.
    Undersecretary Rey and Chief Bosworth, I thank you for your 
appearance before the subcommittee today, it is good to see both of you 
again. The role the Forest Service plays in managing our public lands 
is of particular interest to the people of Colorado.
    I hope the committee will indulge me as I am about to brag about my 
home state for a moment. I think that I am one of the luckiest people 
in Washington, DC. Not only do I get to serve the people of Colorado, 
but I am fortunate enough to have incredibly beautiful and unique lands 
in my home state. Colorado is home to 13 National Forests. This is more 
than almost any other state. These forests provide countless scenic 
vistas, unequaled hunting, fishing, and camping opportunities, and the 
nation's most popular skiing. In fact not only does the nation's most 
visited ski resort lie in Colorado, but 3 of the top 5 most visited ski 
areas call Colorado home.
    But the importance of Colorado's forests goes far beyond 
recreational opportunities. Our National Forests are a cornerstone of 
Colorado's economy. Hunting and fishing alone contribute over one 
billion dollars to Colorado's economy every year, with much of this 
money going to rural communities.
    This and other forest related industries pump billions of dollars 
into Colorado's economy and employ one of the states largest segments 
of the workforce.
    But perhaps the most important thing is that Colorado's forests 
also contain 4 major watersheds, the Arkansas, Upper Colorado, Rio 
Grande and Missouri (or South Platte), that supply water to 19 western 
states. Colorado can truly be called the Headwaters State. With the 
obvious exception of Hawaii it is the only state where all of the 
rivers flow out of the state's borders.
    Now I have to turn to the bad news. Areas of the state continue to 
suffer from drought conditions, and the potential for catastrophic 
fires is very high again this year. To compound this problem Colorado 
currently has 1.5 million acres that are suffering from the effects of 
beetle kill.
    Timber sales are thought by many resource managers to be the single 
most effective tool available to the Forest Service to mitigate 
against--or treat during--episodes like bark beetle epidemics. But the 
Forest Service doesn't seem to be getting enough money to the national 
forests in Colorado to combat the problem. We've got a sawmill in 
Montrose that's running at half capacity and another one just across 
the State line in Saratoga, Wyoming, that's closed because they don't 
have enough timber.
    That said, I support the proposed increase in the forest products 
line item and applaud the emphasis on forest plan implementation. I 
will have a question regarding this matter when we get to that portion 
of this hearing.
    Thank you again, Mr. Chairman

                         NORTHWEST FOREST PLAN

    Senator Allard. I have a question regarding the President's 
budget. There's a $30 million increase in forest products line 
item and the entire $30 million increase plus an additional $11 
million of forest products funding would go to the Pacific 
Northwest as increased funding for the Northwest Forest Plan.
    My question is this: Will the increased funding for the 
Northwest Forest Plan be at the expense of dealing with the 
bark beetle problem in Colorado, or is there room in this 
proposed budget to get more timber sale money to the national 
forests in Colorado to address the bark beetle problem?
    I'm sure you're aware that we have a very serious problem 
in Colorado with bark beetle and we're losing our entire 
forests in some cases. I'm wondering if you would respond to 
that?
    Mr. Rey. Sure. I'll start and the Chief can add anything he 
wants to. The 2007 budget proposal suggests slight increases 
for both the forest management account, timber sale account, 
and the hazardous fuels account in all Forest Service regions.
    By far, the largest increase is in the Pacific Northwest to 
fully fund the Northwest Forest Plan and we think that's 
justified. Over the last 10 years, by far the sharpest decrease 
in timber sales levels has been in the Pacific Northwest. The 
Northwest Forest Plan was itself an 80 percent reduction of 
what were historic levels there. So simply meeting the 
Northwest Forest Plan means we're only going to hit about 20 
percent of what the historic level was.
    That increase that we're proposing in 2007 will not come at 
the expense of any other region. We are proposing for the 
implementation of the Healthy Forests Initiative and the 
Healthy Forests Restoration Act yet another record request--
that being the third in a row--for a total funding for those 
purposes.
    If Congress looks favorably on that request and if the 
Federal land managing agencies--Forest Service and the 
Department of the Interior--meet the targets that we've agreed 
to in fiscal year 2006 using money you've already given us, as 
well as using the money that we requested in fiscal year 2007, 
by the end of 2007 we will have treated Federal acreage 
equivalent to the land mass of the State of Ohio.

                              BARK BEETLES

    Senator Allard. Well I'm wondering if perhaps, maybe you 
won't be available--you and Mr. Bosworth both wouldn't be 
available--to come by my office. I would like to visit with you 
a little bit about our bark beetle problem in Colorado, if you 
would. I also have a letter I would like to give to you and to 
Mr. Bosworth when we leave for the vote, if that's okay.
    [Note.--Senator Allard asked Chief Bosworth for a meeting 
about the bark beetle problem in Colorado. Forest Service 
representatives met with members of Senator Allard's staff on 
March 30, 2006, and discussed the problem.]

                            HAZARDOUS FUELS

    Senator Allard. Mr. Rey, also I have a question in regard 
to the $11 million increase in hazardous fuels funding in the 
budget. I strongly support spending money pro-actively in 
hazardous fuel projects. It will help reduce the risk of forest 
fires also, and the associated risk to watersheds, communities, 
and residents when we get the fires.
    I understand some acres treated aren't the highest priority 
acres. From your reviews of the hazardous fuel program, is 
there room to improve what is being done on the ground, and how 
are you working towards that objective?
    Mr. Rey. There's always room for improvement. But 
substantial improvement has already occurred. What drives the 
priority selection for acres today are primarily two things.
    One, the development of the community-based fire plans that 
several hundred communities in the West have developed to 
identify the acres that create the greatest risk to the well-
being of those communities. That was a planning system that was 
incorporated in the Healthy Forests Restoration Act and has 
been widely embraced by communities throughout the country. So 
to the extent that acres are identified in those plans, they 
come to the top of the list.
    Second, we are developing some fire behavior and spread 
models that are now beginning to determine the patterns of 
treatments we use, so that we have the greatest potential to 
control wildfire spread, treating the most effective number or 
the most cost effective number of acres in a particular 
watershed or airshed possible.
    Senator Allard. Well, I just wonder how successful the 
Forest Service has been at integrating these multiple budget 
line items. For example, the hazardous fuel, the forest health, 
and timber sales funding, and to individual projects in getting 
more bang for your buck.
    Mr. Rey. I think we've been pretty successful in doing 
that. The proof in the pudding will be in this fire season and 
in subsequent fire seasons as we are able to demonstrate to you 
in a real time, on-the-ground basis, that wildfires that ignite 
were brought under control, as a consequence of burning into 
areas that were treated. Already this spring, a fire called the 
February fire--actually this winter, since February is part of 
winter--the February fire, as it was named in Arizona, was 
controlled because it burned into some treated areas that were 
treated as a consequence of the Healthy Forests Initiative.

                           RECREATION FUNDING

    Senator Allard. When I look at what's happening in the 
various regions and whatnot, I have a concern about Forest 
Service Region 2 where Colorado is located. It's my 
understanding--and correct me if I'm wrong--that the national 
forests have more visitors there than in any other region.
    Fully about 32.5 million people visited there last year, 
for example. Now that's a good thing because obviously, we want 
people to enjoy our forests and the great resources that are in 
Region 2. While we look at that figure, it's confusing that it 
doesn't receive the highest recreation funding. In fact, it 
gets less funding per visitor than any other region. I wonder 
if you can explain why this is the case in Region 2?
    Mr. Bosworth. The way we allocate the recreation dollars 
varies depending upon the kind of recreation that would be 
occurring on the national forest. For example, if you count 
skier days the same way you would count, say a campground, 
there would be a difference in terms of the cost of 
accomplishing that, or administering a wilderness area, from 
the recreational standpoint. When it's a small wilderness close 
to a high population area, that is much more expensive to do 
than, say, a very large wilderness area that is a long ways 
away from a population area. So what we do is we look at the 
different kinds of recreation that occurs and the cost of doing 
that and we allocate those dollars to the regions based upon 
that approach. I'd be happy to sit down with you or your staff 
and have some folks go over the process that we use for that 
allocation. We're always continuing to make adjustments to try 
to make sure that we get the dollars to high priority areas.
    Senator Allard. I would very much like to have that. I'll 
take you up on that after with my staff, because I really would 
like to see how that is working so I can have a better 
understanding of it.
    [Note.--Senator Allard accepted Chief Bosworth's offer to 
have a meeting concerning the recreation funding allocation 
process. Forest Service representatives met with members of 
Senator Allard's staff on March 30, 2006, and discussed the 
issue.]
    Mr. Rey. I would just say in very simple terms, overnight 
use costs more to manage than day use and a lot of the Region 2 
use is day use off the Rocky Mountain front by people coming 
from Colorado or from the Denver metropolitan area and coming 
into the forest for a day either to picnic, hike, ski, or to do 
other day-use things and then going back home that night.
    Senator Allard. Mr. Chairman, I'm not familiar with how 
much time you're giving us.
    Senator Burns. You're done.
    Senator Allard. I had a feeling that perhaps maybe my time 
was expiring so I'll quit cooking.
    Senator Burns. I'll tell you one thing, when the chairman 
of the full committee comes in, we're all done.
    Senator Allard. You've got a good point.
    Thank you, Mr. Chairman. I do have other questions, I would 
just like to submit them in writing.
    Senator Burns. For the information of our members here, we 
have I think, three stacked votes which we're going to have--
everybody is trying to get out of here tonight--so we're going 
to have a lot of votes, and so our hearing may be shortened a 
little bit by this.
    So Senator Cochran, we welcome you to the subcommittee this 
morning.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to join you and other members of 
this subcommittee in welcoming Secretary Rey and Chief Bosworth 
to this hearing, reviewing the budget request for the 
management of our forest resources and the other activities and 
challenges that face the Department.
    I'm very pleased to also commend you for your timely and 
energetic devotion to duty in the aftermath of Hurricanes Rita 
and Katrina, which struck the gulf coast region of our country 
and did such a tremendous amount of damage to forest resources, 
both on private lands as well as public lands and the effort 
you're making to help recover, and rebuild, and restore health 
to the forest in this region. I deeply appreciate it and it's 
going to be a continuing effort and we'll try to provide the 
resources we have available to us through the appropriations 
process to ensure that you have what you need to do the job.
    Other than that, we know we're confronted with some 
wildfire challenges because of debris and difficulties that 
stem from these disasters. We recognize that we have an 
obligation to try to make available additional funds for that 
purpose, too.

                           PREPARED STATEMENT

    I don't have any other questions. I know our time is 
limited because of this series of votes that's occurring. I 
appreciate the chairman giving me an opportunity to come in and 
welcome you and I would ask that the rest of my statement be 
printed in the record.
    Senator Burns. Without objection, it will be. Does that 
include all the scribblings, too?
    Senator Cochran. Just like I wrote it, that's good.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman I am pleased to join you in welcoming Secretary Mark 
Rey and Chief Dale Bosworth to the committee this morning. We 
appreciate very much for their hard work over the past five years to 
ensure that our National Forest system is maintained in a manner that 
allows for the appropriate use our nation's forest resources and 
protects the health of our forests.
    I also want to commend you an your staff for the effort you have 
made throughout the Gulf Coast region following the Hurricanes Katrina 
and Rita to clear debris and establish emergency staging areas for the 
delivering of assistance in the form of shelter, food, and water to 
thousands of Gulf Coast residents who lost their homes. In recent years 
the Forest Service has had to deal with natural disasters throughout 
the nation, especially in regions that had large wildfires. This 
experience in emergency preparedness and assistance was evident with 
the quick and effective response of the forest service on the Gulf 
Coast.
    The hurricane Katrina also caused widespread damage to private as 
well as federal timber lands in Mississippi, Louisiana, and Alabama. 
Current estimates put the value of timber lost at over $1 billion. Much 
of this timber was located on private lands and these landowners have 
suffered a significant financial loss. The Forest Service and private 
landowners should work in a collaborative manner to ensure 
reforestation and restoration so this industry will be able to 
contribute throughout the South as one of our most important economic 
assets.
    In recent weeks we have seen a significant outbreak in forest 
wildfires due to the drought and the large fuel load that remains on 
the ground. I encourage the Forest Service to allocate the needed 
resources to help combat these fire outbreaks. Many of these forest 
lands are located next homes and schools in rural communities. These 
communities will need your help because much of their emergency 
response and firefighting equipment was destroyed by the Hurricanes.
    Another issue important to the Southeastern region of the United 
States is the research and treatment of insects and disease within our 
forests. In Mississippi, over 69 percent of the forestland is privately 
owned, and much of this land borders public forestlands. It is very 
important for the Forest Service continue the research and development 
of new management and treatment methods to better protect federal 
lands.
    Mr. Chairman, thank you very much for holding this hearing.

    Senator Burns. We will start voting here at around 10:30 
and there are four stacked votes and so, it would be very tough 
for us. Everybody said they're are going to be a 10- and 15-
minute vote, but don't count on that.

                            FOREST PLANNING

    But in the area, Chief, you know you joined us in Missoula, 
Montana at a very constructive hearing about forest planning 
and this type thing. As you know, we've got five forest plans 
covering 11 million acres in Montana, and that's being revised 
now. We received a lot of comments on that. Most of it during 
the hearing was concerned about public access and motorized use 
being further limited in our forest in Montana. Especially, in 
other words, consolidating and bringing down in concentrated 
areas which I think basically, does more damage to our forests, 
and the riparian areas, and the other erosion issues, than it 
does when we spread it out across the whole forest.
    Can you bring me up to date on the progress of those forest 
plans out there, right now? We were suppose to be updated late 
last fall and then we moved that back in the February area, and 
we haven't heard a lot from out there and gotten any kind of 
report.
    Can you give us a progress report on where we are and how 
we're progressing? It has to do with maintenance cuts, and 
Montana road closures, in our national forests, all of these 
issues come down to the forest planning idea.
    Mr. Bosworth. Well we're continuing work on the forest 
plans in Montana, as we discussed once before. The Beaverhead-
Deerlodge National Forest is proceeding using our old planning 
rule. We have three forests in western Montana--the Flathead, 
the Lolo, and the Bitterroot--that are using the new planning 
rule that we just completed.
    We expect those three forests to be coming out with their 
proposal here in the next few months. They are working very 
closely with the public. In fact, one of the things that I 
think the new planning rule does, is it enhances the ability of 
the public to work together with the Forest Service in 
developing the forest plans.

                           TRAVEL MANAGEMENT

    I would like to say a little bit about the off-highway 
vehicle use, because that's important to the people in Montana. 
We are implementing our new off-highway vehicle rule, and that 
requires that people remain on designated roads and trails or 
areas that have been designated. So in a collaborative way, 
we're working with the public to designate which of those roads 
and trails and I think that is working fairly well.
    It's always difficult to agree on any individual trail. Our 
purpose is to provide better access and sustainable access to 
the national forest. We don't want to end up with so much 
damage that the next generation of people can't be out there on 
the forest and enjoy it. We want to have a way that people can 
get out on these trails and on trails that have been designed 
for motorized vehicle use and get to the country that they want 
to get to.
    Most of the people, including organizations like the Blue 
Ribbon Coalition, support the notion that we have in our rule 
that would require designation of individual roads and trails 
or areas. We'll complete that designation in about 3.5 years.
    Senator Burns. That's a good idea, but then you know we've 
got to have the confidence that once we make the decisions on 
those areas that we don't close roads. Now, I'm getting 
complaints now from the State of Montana.
    Now there are certain times of the year when you close a 
road for a specific purpose and for a specific time. I'm 
getting complaints that they never open the road again. They 
just don't do it. So, I think we've got to work our way through 
some of those problems and then when we look at our 
maintenance, as far as the roads are concerned, that the ones 
that we're going to use we've got to cut back there and we want 
to try to maintain as safe a trail and a road as we possibly 
can for that specific traffic.
    So that's the things we're running into. When I talk to 
people who use the forest lands for snowmobiling, and hiking, 
and biking, and all of that kind of recreation.
    Mr. Bosworth. I would like to follow up a little bit on 
these roads where a gate's been closed and not reopened when 
it's a seasonal closure, because maybe I could work with your 
staff and find more specifically where that might be occurring. 
It's certainly our intention, that when we have a seasonal 
closure that's supposed to be closed on a certain day then 
opened on a following date that that is what we do.
    Now, from time to time, I'm sure that there's a situation 
where our folks haven't gotten out there on that day--a week 
late or something like that, but I don't want to see places 
where we're not opening those gates.
    Senator Burns. We know there could be extenuating 
circumstances. Mother Nature's a little fickle every now and 
again too, you know. We have to make a judgement call 
sometimes. But those complaints, we hear about that a lot.
    Mr. Bosworth. I'll be happy to get some more specifics on 
that. Because again as I say, it is our intention that we open 
those on the days that we say we'll open them.
    [Note.--Chief Bosworth agreed to discuss the issue of road 
closures with Senator Burns. Forest Service legislative affairs 
personnel have contacted Senator Burns' office to set up the 
meeting and are awaiting a date to discuss the issue.]

                     EARTH ISLAND INSTITUTE LAWSUIT

    Senator Burns. The Earth Island thing on categorical 
exclusions, I see in your budget justification that this case 
delayed or cancelled 723 fuel reduction projects, affecting 
over a million acres. Bring us up to date on the status of the 
litigation, and are you planning to appeal it if we get----
    Mr. Rey. The litigation is under appeal now. The District 
Court decision is under appeal before the 9th Circuit. Given 
the average turnaround time for a 9th Circuit decision, I'm not 
optimistic that we'll get any kind of a response during this 
upcoming operating season.
    Senator Burns. Is there anything you can do in light of 
that appeal? Can you do some things that would facilitate 
moving some of those projects forward?
    Mr. Rey. We will move some of those projects forward, but 
those that garner objections will be delayed by the normal 
appeals process.

                     BARK BEETLE DAMAGE IN MONTANA

    Senator Burns. I would say, I really feel like the most 
dangerous thing, Mr. Secretary, is this bark beetle, not only 
in Colorado. I would just invite anybody to drive over 
Homestead Pass, between Whitehall and Butte, and then look 
south and just absolutely cry, and then go into the Yak and 
just absolutely sit down and cry that we cannot, some way or 
another, deal with these stressed trees and thinning the 
things--the management things that's going to take to care of 
that particular problem.
    I have some more questions to ask of you.
    Do you have anything to add, Senator Allard, you want to 
talk about right now, or are you going to do it in private 
conversations?
    Senator Allard. I have some more questions if you need me 
to fill time.

                         WILDLAND FIRE PROGRAM

    Senator Burns. We don't need anymore fill time here. I'm 
going to ask you some other questions, but I'll do it and your 
response can be to the committee and be made a part of the 
committee record. Wildland fire outlook this year? Any 
forecasts?
    Mr. Rey. The forecast this year, is this will probably be a 
more difficult season than the last two. Particularly in the 
Southwest.
    Senator Burns. I know our snow pack in Montana has never 
been better, it's really good this year. Fire readiness 
capability, I think we want to talk about that and I think we 
also want to iron out this difference between State and 
volunteer fire assistance that you've got in your budget this 
year, and take a look at that. The outlook is good.
    But those are the areas where I think I had my primary 
concerns and I'll do that. We'll sit down. When you go by his 
office, we'll schedule my office. We don't want you to work a 
half of a day.
    [Note.--Senator Burns asked Chief Bosworth to have a 
meeting to discuss several issues related to the Wildland Fire 
Management program. Forest Service legislative affairs 
personnel have contacted Senator Burns' office to set up the 
meeting and are awaiting a date to discuss the issues.]
    Senator Burns. Senator Allard?
    Senator Allard. Well, Mr. Chairman, thank you. I would like 
to voice many of the same concerns that the chairman is 
voicing.

                           TRAVEL MANAGEMENT

    In the Rocky Mountain Region there are a lot of things that 
have happened that commonly effect, I think both Montana and 
Colorado. The question I have that I would like to ask here is, 
how much does the U.S. Forest Service anticipate the travel 
management, that is the designating of routes and areas for 
motor vehicle use to cost to fully implement nationwide. 
Specifically, what budgets within the U.S. Forest Service will 
funds be allocated in order to implement the travel management 
designated routes and areas for motor vehicle use. Do you 
happen to have that information?
    Mr. Bosworth. In terms of the kinds of dollars we would use 
normally, you would think that recreation would be an area that 
would be funding part of that work. There are also a number of 
other functional areas that benefit from doing a better job of 
managing off highway vehicle use.
    For example, water quality can be improved if we're doing a 
better job of keeping machines out of streams. Wildlife habitat 
can be improved if we're more careful about which trails and 
roads we allow motorized vehicles.
    So we expect that a number of different budget line items 
will contribute to the planning and to the implementation of 
managing off highway vehicles.
    As far as the total cost per forest, I could get you the 
best information if you give me a little bit of time to do 
that.
    Senator Allard. That would be helpful I think, particularly 
in my State. We'd be interested in knowing how that breaks out.
    Mr. Bosworth. I'd be happy to do that.
    Senator Allard. Very good.
    [The information follows:]

                   Cost of Travel Management Planning

    The Forest Service has estimated that nationally we will spend 
between $15 and $35 million per year over the next 4 years on travel 
planning. These costs only include travel planning costs associated 
with identifying a system of designated roads, trails, and areas. Costs 
on each national forest will depend not only on the local environment 
and local use, but on each unit's history of travel planning. Some 
national forests have recently completed comprehensive travel plans, 
while others are just beginning. These figures represent an average 
cost of $600,000 to $1.5 million per national forest to complete a 
travel plan from start to finish. On most national forests, travel 
planning will require a substantial effort, including environmental 
analysis and documentation prepared in an open, collaborative process. 
Although specific costs for travel management plans for each of the 
national forests in Colorado is not available, they are expected to be 
in the range stated above.
    Since travel planning serves multiple purposes, funding may be 
derived from a variety of Forest Service appropriations depending on 
the primary purposes served at the local level. Among the principal 
programs and appropriations associated with travel planning are: Roads; 
Trails; Recreation, Heritage and Wilderness; Wildlife and Fisheries 
Habitat Management; and Vegetation and Watershed Management.

    Senator Burns. One personal thing, are we still working on 
that little thing with Mack White?
    Mr. Bosworth. We're still working on that with Mack White. 
The Regional Forester has been in negotiations.
    Senator Burns. Will you tell him--be like Larry the Cable 
Guy--git er done and don't ask for any icing on the cake. We're 
just dealing with the cake right now. But I appreciate that and 
your efforts there.

                         ADDITIONAL STATEMENTS

    We have received statements from Senator Larry Craig and 
the Society of American Foresters that will be made part of the 
hearing record.
    [The statements follows:]

               Prepared Statement of Senator Larry Craig

    The President's budget reflects our nation's clear priorities for 
this year: win the war on terror, reduce budget deficits by reining in 
spending, create jobs and grow the economy, and boost America's energy 
independence.
    In short, this budget is ``leaner and meaner.'' And in the end, I'm 
hopeful it will translate into a more efficient government.
    I've been very vocal about my support for the Secure Rural Schools 
and Communities Act, but I want to reiterate my thanks to the President 
for including funding for this important program in his budget request. 
However, I do have significant preliminary concerns about the offsets 
proposed by the President, and I look forward to receiving additional 
details and working with the administration.
    Since the last Forest Service budget hearing, I have some new 
questions I'm hoping to have answered regarding the agency's new travel 
management rule. Recreation is an important quality of life issue for 
my constituents and I want to assure them that access will be 
maintained to our national forest lands. Additionally, it is important 
to note that the Forest Service is not in the business of closing roads 
for the purpose of saving money.
    Idaho's Parks and Recreation Department has provided an exceptional 
amount of assistance to our federal land agencies doing trail 
maintenance and construction. We have recreational groups who have 
shown interest in an ``adopt a trail'' program to help the Forest 
Service do trail clearing and maintenance. I would like to have it on 
record that Idahoans are doing their part, from our State agencies to 
public land users, and I do not want those efforts to be overlooked.
    Overall, I am pleased with the distribution of funds to the various 
accounts. I feel we need to continue to focus on fire preparedness and 
suppression; however, with a decrease in rehabilitation and 
restoration, I am curious about the President's proposal to continue to 
manage our public lands in a sustainable way after the fires come--and 
the fires will come.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    The Society of American Foresters (SAF), representing over 15,000 
forest managers, researchers, and educators, supports sound management 
and stewardship of the nation's 749 million acres of forestland. We 
offer the following suggestions to facilitate improved stewardship and 
management of the nation's forests through funding for forestry 
programs within the U.S. Forest Service and the Department of the 
Interior, Bureau of Land Management. Given the understandable 
restrictions on the length of our testimony, we do not offer the in-
depth analysis we normally provide but would be pleased to provide 
further detail upon request.
    Today, the nation's forest face serious threats--threats that will 
affect the provision of clean water and air, wildlife habitat, 
recreation opportunities, forest products, and scenic beauty. Congress 
is faced with serious budget challenges and funding is extremely 
limited. In recognition of this, we've limited our funding 
recommendations to three priority areas even though there are many 
important forestry programs within USDA and USDOI. The priority areas 
are:
  --Forest Research and Inventory
  --Forest Health on both public and private forestlands
  --Family forestland Management

                     FOREST RESEARCH AND INVENTORY

    The key to good stewardship and sustainable, long-term management 
of the nation's forests is sound scientific information. Forestry 
professionals must have the latest information on the state of forests, 
as provided by the Forest Inventory and Analysis program, and have 
access to new techniques and new research that will ensure they can 
continue to be good stewards in the constantly changing forest 
environment. We are deeply concerned with continuous declines in forest 
research capacity in the public and private sectors. Since the mid-
80's, forestry research capacity in the U.S. Forest Service has 
declined by 50 percent and unfortunately, the private sector and 
universities are facing similar downsizing. At the same time, federal 
investment in other research, including USDA's National Research 
Initiative which does not adequately provide for forestry research, has 
increased.
    This decline in forestry research is contrary to the critical 
importance of the nation's forests in global trade and in ensuring 
national health and welfare. We strongly urge sustained long-term 
funding for forestry research and inventory, including full funding for 
the Forest Inventory and Analysis program, to ensure the United States 
retains its capacity to manage and improve forests and the associated 
values and benefits.

                             FOREST HEALTH

    Across the country, over 190 million acres of federal forests and 
millions of acres of non federal forests, suffer from severe forest 
health issues and are threatened by catastrophic wildfires due to lack 
of management, insect and disease epidemics, climatic conditions, 
historical fire suppression practices, and other causes. Insect and 
disease problems include invasive species like the emerald ash borer, 
gypsy moth, and asian longhorned beetle; other insects like southern 
pine beetle and mountain pine beetle; and diseases like sudden oak 
death and white pine blister rust. To address these threats, we 
strongly urge increases above fiscal year 2006 levels for forest health 
management and sustained funding for wildfire management accounts in 
both the USDA Forest Service and Bureau of Land Management.

Biomass Utilization
    The President's budget proposes $5 million within the hazardous 
fuels line item to support biomass utilization grants. Biomass 
utilization offers a mechanism to address costly forest health issues 
and recover economic value from small diameter and unmerchantable wood. 
In addition to these forest benefits, biomass utilization can help 
reduce the nation's reliance on foreign oil imports and increase the 
use of renewable energy sources, a goal emphasized by the President and 
supported by the passage of the 2005 Energy Bill. We urge you to fund 
biomass utilization within the hazardous fuels program at $10 million, 
to help foster utilization and development of markets for this material 
and assist in achieving forest health U.S. energy security goals.

Wildfire Suppression Funding
    We greatly appreciate the Appropriations Committee's work to 
address the funding problems that have plagued wildfire suppression 
accounts in the Forest Service and Department of the Interior. Since 
steps were taken by your Committee and the Budget Committees to provide 
$500 million in emergency suppression funding, the agencies have not 
had to borrow from other accounts and disrupt the work of other 
important federal forestry programs. We urge you to continue to monitor 
this issue and provide additional emergency funding when necessary. In 
addition, we urge you to continue to monitor the Forest Service and 
Department of the Interior's cost containment efforts, to ensure 
progress is being made in this area.

Hazardous Fuels
    We strongly support the President's proposal to increase the U.S. 
Forest Service's funding for hazardous fuels reduction. We encourage 
the use of these funds in areas where Community Wildfire Protection 
Plans have recommended treatments. We are concerned with the $10 
million decrease in hazardous fuels reduction funding for the 
Department of the Interior. This decrease would result in an estimated 
32,000 acre reduction in fuel treatments, 17,000 acres in the Bureau of 
Land Management alone. Ultimately, the undesirable consequences will be 
increased risk of catastrophic wildfire and insect and disease 
outbreaks. We urge you to fund DOI's hazardous fuels program at fiscal 
year 2006 enacted levels..

                      FAMILY FORESTLAND MANAGEMENT

    With the future of 48 percent of the nation's forests in the hands 
of over 10 million family or non-industrial landowners, it is critical 
that this land remain forested. Family forestland owners are faced with 
severe challenges today, when owning forestland is often uneconomical 
and development pressures are fierce. A significant turnover in 
ownership of family forests is expected to occur over the next decade, 
creating a great deal of uncertainty as a new, younger generation 
decides what to do with their forests. Family forests supply 
approximately 60 percent of the nation's wood products. However only 3 
percent percent of landowners have a written management plan and only 
22 percent have sought professional advice prior to harvesting timber. 
These lands must be well managed with advice from professionals to 
avoid losses in productivity which make them susceptible to conversion 
to nonforest uses. To keep these lands forested, we must ensure that 
family forestland owners have access to professional advice and that 
these forests remain under sound management and stewardship. There are 
a variety of federal forest programs that assist in accomplishing this 
goal. The Forest Stewardship Program and Forest Legacy Program are 
critical to maintaining and improving private family forests. We urge 
you to increase funding above fiscal year 2006 levels for these 
programs as shown below.

           FUNDING RECOMMENDATIONS FOR THE U.S. FOREST SERVICE
                        [In millions of dollars]
------------------------------------------------------------------------
                                             Fiscal year--
                              ------------------------------------------
 Discretionary appropriations                   2007
                                   2006       proposed       2007 SAF
                                 enacted       budget    recommendations
------------------------------------------------------------------------
Forest and Rangeland Research        219.6        208.5          220.0
 \1\.........................
Forest Inventory and Analysis         64.0         59.3           73.4
 Total \2\...................
State and Private Forestry:
    Forest Health Management--        53.4         49.8           56.0
     Federal.................
    Forest Health Management--        46.9         34.5           49.0
     Cooperative.............
    State Fire Assistance....         32.9         27.0           32.9
    Volunteer Fire Assistance          5.9          5.9            5.9
    Forest Stewardship                34.2         33.9           37.0
     Program.................
    Forest Legacy Program....         56.5         61.5           61.5
    Urban and Community               28.5         26.8           28.5
     Forestry................
    International Forestry...          6.9          4.9            7.0
National Forest System:
    Land Management Planning.         58.2         55.6           58.2
    Inventory and Monitoring.        167.7        154.1          154.1
    Forest Products..........        280.2        310.1          310.1
Wildland Fire Management:
    Preparedness.............        666.1        655.9          655.9
    Fire Operations..........        690.2        746.2          746.2
    Hazardous Fuels..........        281.8        291.8      \3\ 291.8
    Rehabilitation and                 6.2          2.0            7.0
     Restoration.............
    Fire Research and                 22.9         20.1           22.9
     Development.............
    Joint Fire Sciences                7.9          4.0            8.0
     Program.................
    Forest Health Management--        14.8          6.8           15.0
     Federal.................
    Forest Health Management--         9.9          4.6           10.0
     Cooperative.............
    State Fire Assistance....         45.8         29.1           45.8
    Volunteer Fire Assistance          7.8          7.8            7.8
------------------------------------------------------------------------
\1\ Totals do not include FIA funds which are broken out in the next
  line.
\2\ Includes funding under State and Private Forestry and Research and
  Development.
\3\ Funding would include $10 million for biomass utilization, see above
  narrative.


        FUNDING RECOMMENDATIONS FOR THE BUREAU OF LAND MANAGEMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year--
                               -----------------------------------------
            Program                 2006         2007        2007 SAF
                                  enacted      proposed   recommendation
------------------------------------------------------------------------
Wildland Fire Management:
    Preparedness..............        268.8        274.8          274.8
    Suppression...............        230.7        257.0          257.0
    Hazardous Fuels...........        208.1        199.8          208.1
    State and Local Fire                9.9  ...........           10.0
     Assistance...............
    Joint Fire Science........          5.9          5.9            6.0
    Public Domain Forest               10.4         10.5           10.5
     Management...............
    OR and CA Grant Lands             108.6        112.4          112.4
     Total....................
------------------------------------------------------------------------

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. Thank you this morning for your appearance 
before this committee. There will be other questions from other 
committee members. If you would respond to them and to the 
committee, we'd surely appreciate that. The record will be left 
open for a couple of weeks if you want to make further 
comments.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

    Question. In an overall Forest Service budget that is cut by over 
$100 million, the agency proposes an increase of roughly $71 million in 
appropriated dollars to fully implement the Northwest Forest Plan that 
was created under the Clinton administration.
    The Committee is sympathetic to the communities that lost timber 
jobs in the Northwest, but in a budget that is so full of major cuts to 
core national programs, isn't this an awfully large increase for one 
region of the country?
    Answer. The fiscal year 2007 Budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. This has required difficult decisions to be made. Forest 
health is a priority for the administration and the Forest Service is 
committed to addressing the issue across the Nation. In this context, 
the administration is committed to fully funding the Northwest Forest 
Plan. The additional funding for the Northwest Forest Plan will allow 
the agency to offer 800 MMBF of timber volume, improve over 3,900 acres 
of terrestrial wildlife habitat and 120 miles of fisheries habitat, 
treat hazardous fuels in the wildland-urban interface and municipal 
watersheds, and address reforestation needs of recent large forest 
fires.
    Question. What is the impact on other Regions of the Forest 
Service?
    Since the overall budget is cut, will other Regions receive less to 
pay for this proposal?
    Answer. The agency is committed to funding all regions at similar 
levels to fiscal year 2006 through a combination of Hazardous Fuels and 
Forest Products funding. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    Question. The timber sales program in this part of the country is 
especially controversial and many sales are challenged in court. Are we 
getting the best bang for the buck by putting so many additional 
dollars here, or are there other places where these funds could be 
spent and get more timber sales accomplished?
    Answer. The administration is committed to fully funding the 
Northwest Forest Plan. Cost efficiency is not the only consideration in 
allocating the Forest Products line item. For example, increasing 
timber sales increases the amount of receipts shared with the States 
and reduces outlays from the Treasury for payments authorized for the 
Secure Rural Schools and Community Self-Determination Act. The Forest 
Products line item is an important source of funding in meeting 
resource needs, addressing forest health and community protection 
issues, contributing to local economies and maintaining local industry 
infrastructure. The allocation of the Forest Products line item takes 
into consideration these resource and community concerns and the 
allocation of other line items. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. 
Your budget justification says that you're only getting done 50 percent 
of the work that you need to do each year to comply with the schedule. 
The schedule requires all allotments to be completed by 2010.
    The agency's fiscal year 2007 budget proposal reduces the grazing 
program by $8.5 million and the number of grazing allotments processed 
declines by 34 percent--from 484 allotments this year to 321 next year. 
Why is that a good idea when we still have over 3,200 allotments 
needing to be processed?
    Answer. In 1996, the Forest Service established a 15-year schedule 
for completing NEPA on all allotments where it was not current, in 
compliance with the Rescissions Act of 1995. It was an ambitious 
schedule that the agency had wanted to expeditiously complete. Due to a 
number of issues, such as appeals and lawsuits, the agency has not been 
able to maintain pace with the 1996 schedule. At this point, the agency 
has completed nearly 54 percent of the NEPA needs. In 2005, Congress 
authorized the Forest Service to use Categorical Exclusions on 900 
allotments, to expedite the NEPA work. This new authority will speed 
the progress towards achieving the agency's obligations as set forth in 
the allotment schedule.
    Question. In the fiscal year 2005 Interior appropriations bill, the 
committee provided additional funds to address the backlog of 
allotments and also provided a Categorical Exclusion from NEPA for 
grazing allotments that met certain conditions. There was a cap of 900 
allotments on this authority.
    How many allotment decisions have been made using this authority so 
far?
    Answer. The Forest Service has used this authority for 44 
allotments since its initiation. The agency anticipates using this 
authority to complete another 100-200 by the end of fiscal year 2006.
    Question. Is this authority helping to speed up the process?
    Answer. Yes, this authority has helped speed up the process. On 
those allotments where we have not proposed changes to the management 
and the conditions are either meeting or moving towards what is 
described in our land management plans, it reduces the amount of time 
needed to go through the analysis and decision making process to get a 
decision.
    Question. Does this cap need to be raised so you can get more 
allotments processed that meet the standard for use of this authority?
    Answer. No, not at this time. Forest Service staff is assessing 
what the agency can do in using the CE authority in fiscal year 2006 
and fiscal year 2007. Based upon preliminary information, it is highly 
unlikely that we will need to have the cap raised.
    Question. The administration has proposed extending the Secure 
Rural Schools Act--the last payment will be made under the act in 
December 2006--by selling roughly 310,000 acres of National Forest 
System lands to generate $800 million in revenue. In Montana, 13,948 
acres are eligible for sale. The administration's proposal would 
gradually phase out payments over a 5 year period.
    Doesn't the agency think it's unwise to sell our National Forest 
System lands to fund a program that deserves funding on its own?
    Answer. The original Secure Rural Schools (SRS) legislation was 
designed to be a transitional measure to allow States and counties to 
readjust their priorities and programs so that they are no longer 
dependent on a higher level of funding from national forest receipts. 
Currently there are counties at different stages of making this 
transition. Consistent with this situation and need, the administration 
is proposing to provide a funding source for the next 5 years to enable 
a longer period for States and counties to make the transition before 
the program is phased out as originally contemplated.
    Conveyance of a limited number of National Forest System acres will 
offset payments for the Secure Rural Schools program if reauthorized. 
This focused approach will provide an adequate revenue source to 
support Secure Rural Schools. Baselines of both the Congressional 
Budget Office and the Office of Management and Budget reflect the end 
of this program, so in order to provide the necessary offset to the 
Treasury to extend this program, any proposal to extend it would have 
to provide a suitable offset that would ``score'' by either reducing 
direct spending from the Treasury or by providing a new source of 
receipts to the Treasury. The proposal was sent to both the Senate and 
the House on March 22, 2006 for consideration by the Congress.
    Question. Since over 75 percent of the money under the Secure Rural 
Schools Act goes to Oregon, California, and Washington, why would 
people in other States want to sell off their public lands when most of 
the proceeds wouldn't even stay in their States?
    Answer. The Budget underscores the President's commitment to States 
and counties impacted by the ongoing loss of receipts associated with 
lower timber harvests on Federal lands--not only in the Pacific 
Northwest but throughout the United States. Counties throughout the 
United States have received payments under the current County Payments 
Act and would continue to do so in the Budget's legislative proposal, 
so it is reasonable to identify parcels nationally that could be 
eligible for sale. Regardless of location, sales will be limited to 
those parcels identified as suitable for conveyance, because they are 
isolated or inefficient to manage, in existing national forest plans 
which were subject to public review and comment. These do not include 
parcels of high environmental value such as wilderness, wild and scenic 
rivers, or habitat for threatened or endangered species.
    The initial list of potentially eligible parcels for conveyance 
under the proposed authority is approximately 300,000 acres. The actual 
number of acres will not be known until specific properties are 
identified, appraised, and conveyed and parcels have gone through the 
public review process outlined in the Federal Register. Based upon 
average land values, it should require the sale of approximately 
200,000 acres to provide $800 million in receipts that the proposal 
identified to fund the Secure Rural Schools program for an additional 
five years.
    Question. Given budget constraints that the Congress has to deal 
with, future acquisitions of public land will have to rely more on land 
exchanges rather than through appropriated dollars from the Federal 
Government. Wouldn't getting rid of many of these isolated parcels take 
away a key bargaining chip for doing future land exchanges?
    Answer. The tracts identified as potentially eligible for sale 
could also be considered for exchange. However, many field units forego 
land exchange opportunities unless they expect to achieve significant 
gains in resource quality and protection. Selling many of the types of 
parcels identified can provide for a lower cost method of achieving the 
benefits associated with the disposal of isolated tracts, in 
particular, a reduction of boundary survey and maintenance costs and 
expenses related to encroachment resolution. There will still be many 
opportunities for land exchanges involving other National Forest System 
lands and, coupled with land purchases and donations, will still allow 
for the acquisition of high priority tracts within the National Forest 
System.
    Question. According to the agency's proposed budget, the Forest 
Service has a backlog of deferred maintenance of over $8 billion. But 
your budget proposes to cut the overall Capital Improvement and 
Maintenance accounts by 12 percent. The Roads account alone is cut by 
over $39 million which is a 17.8 percent cut.
    Why is the agency cutting this account when the backlog of deferred 
maintenance needs is so high?
    Answer. The fiscal year 2007 Budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. This has required difficult decisions to be made. In this 
context, even though the amount of funds provided for deferred 
maintenance is not large, they provide a meaningful and direct benefit 
to the agency's priority activity of reducing deferred maintenance, 
particularly critical health and safety related deferred maintenance 
needs. The Budget also reflects funding generated through the use of 
authorities provided by the Congress to assess the costs of facilities 
maintenance and the sale of certain administrative sites. This will 
permit the agency to reduce its maintenance backlog by 25 percent by 
2010. The funds are slowing the rate of increase in deferred 
maintenance.
    Question. How are you planning to address this enormous backlog of 
deferred maintenance?
    Answer. The Forest Service is modernizing and realigning 
infrastructure to match its mission, organizational structure changes, 
and funding expectations.. To aid in the realignment and to minimize 
our backlog of deferred maintenance, the agency is using some important 
new tools:
    (1) The agency is using the Facilities Realignment and Enhancement 
Act authorities to dispose of unneeded buildings, and using the 
proceeds to reduce deferred maintenance or construct new buildings that 
meet current needs. The agency has planned $100 million in sales over 
the next 2 years.
    (2) The agency is using the cost pool methodology to give forests 
an incentive to reduce unneeded facilities.
    (3) We are working with States to improve our trails program 
through grants of funds provided by SAFETEA-LU's recreation trails 
program.
    (4) The November 9, 2005, Travel Management Rule provides a process 
to identify the minimum road system required considering the 
availability of resources for maintenance and administration of roads 
and trails proposed to be designated for motor vehicle use. The 
analysis will guide the optimum use of available funding, so that the 
highest priority roads and trails will be sustained or in some cases, 
improved. In some cases, roads and trails may be operated at a lower, 
less costly level. For example, many passenger vehicle roads will be 
converted to high clearance vehicle roads.
    Question. What are the impacts to recreational users and the 
firefighting program if we don't have the money we need to maintain the 
roads and provide access to our national forests?
    Answer. Each national forest conducts ongoing travel management 
analysis to guide the optimum use of allocated funding, so that the 
highest priority roads and trails will be sustained or improved. 
Recreation and fire suppression access needs are important components 
in determining the optimum transportation system to sustain with 
anticipated funding. Collectively, road operational standards will 
continue to decrease, and the overall consequences to the 
transportation system can be minimized through advanced planning and 
appropriate use of available funding.
    Question. A Federal District court in the Earth Island Institute v. 
Ruthenbeck case held that the Forest Service had to provide notice, 
comment, and appeal on projects implemented through the use of 
categorical exclusions. This judicially created requirement regarding 
CEs applies to no other agency in the Federal Government.
    The agency's budget justification indicates that this case delayed 
or canceled 723 fuels reduction projects affecting over 1 million 
acres. What is the status of this litigation?
    Answer. On September 4, 2005 the Government appealed the July 2, 
2005, decision from the Eastern District of California to the Ninth 
Circuit Court of Appeals.
    Question. Are you planning to appeal?
    Answer. On September 4, 2005 the Government appealed the July 2, 
2005 decision from the Eastern District of California to the Ninth 
Circuit Court of Appeals. The case is fully briefed and awaiting oral 
argument before the Circuit. Recently, a second court held that a 
categorically excluded decision must be subjected to notice, comment, 
and appeal. See Wilderness Society v. Rey, CV 03-119 DMW (D. Mont. 
Decided April 24, 2006). The deadline for filing an appeal in that case 
is June 23, 2006.
    Question. Is there anything you can do administratively to address 
this situation or is a legislative fix needed so that the Forest 
Service is treated like every other agency when it comes to the use of 
categorical exclusions?
    Answer. Sixteen cases have been filed challenging the Forest 
Service's promulgation or implementation of the 2003 regulations issued 
under the Appeal Reform Act. The Government is actively defending all 
pending cases and has appealed the Earth Island ruling.
    Question. The committee is concerned about the large cut ($28.9 
million which is equal to 23 percent) that is proposed in your budget 
for the Forest Health program. This program helps to monitor and treat 
millions of acres of State, Federal, and private lands for insects, 
diseases and invasive weeds.
    How many fewer acres will be treated as a result of these cuts?
    Answer. While the President's Budget for forest health activities, 
funded in the Forest Health Management budget lines and the National 
Fire Plan (Wildland Fire Management appropriation), reflects a decrease 
from the fiscal year 2006 enacted level, it is an increase of $11.9 
million over last year's President's Budget. Approximately 628,000 
fewer acres will be treated than the currently planned treatments in 
fiscal year 2006.
    Question. How many acres nationally need treatment for insects and 
disease?
    Answer. The latest revision of the National Insect and Disease Risk 
Map estimates that 56.6 million of the 748.7 million acres of forest 
land in the continental United States and Alaska is at risk from 
insects and diseases. Most of this hazard can be attributed to 44 
indigenous and 14 non-native (exotic) forest pest species already 
established in the coterminous United States. Many of these lands at 
risk will not be treated because of ownership, value, or designation 
such as wilderness.
    Question. Congress recently passed Healthy Forests legislation. If 
we're going to have a healthy forests program, doesn't that mean we 
need to put adequate funds into the agency's forest health programs 
rather than cut them?
    Answer. The Healthy Forests Restoration Act (HFRA) provides the 
land management agencies with needed authorities that will expedite 
treatments and thereby permits the Forest Service to be more efficient. 
The fiscal year 2007 Budget reflects the President's commitment to 
providing the critical resources needed for our Nation's highest 
priorities: fighting the war on terror, strengthening our homeland 
defenses, and sustaining the momentum of our economic recovery. This 
has required difficult decisions to be made. In this context, while the 
President's Budget for forest health activities, funded in the Forest 
Health Management budget lines and the National Fire Plan (Wildland 
Fire Management appropriation), reflects a decrease from the fiscal 
year 2006 Enacted level, it is an increase of $12.1 million over last 
year's President's Budget, and the Budget reflects the enhanced 
efficiencies provided by HFRA. The President's Budget recognizes the 
importance of maintaining forest health technical assistance to Federal 
and nonfederal land managers and maintaining forest health monitoring 
activities and meeting the highest priority pest suppression needs on 
Federal lands, while relying on nonfederal partners to continue to 
share more of the cost of pest suppression on State and private lands. 
Further, the Budget reflects significant increases elsewhere for other 
activities that improve the health and vitality of national forests. 
For example, funding for Forest Products increases by $30 million (+11 
percent) and Vegetation and Watershed Management increases by $6 
million (+3 percent). President Bush is allocating $610 million in the 
2007 budget to continue implementation of the Healthy Forests 
Initiative to reduce hazardous fuels and restore forest health. The 
budget proposal, more than a $12 million increase over 2006, takes an 
integrated approach to reducing hazardous fuels and restoring forest 
and rangeland health. Along with more than $301 million provided to the 
Department of the Interior, the 2007 budget provides a total of nearly 
$913 million to implement the Healthy Forests Restoration Act.
    Question. The State fire assistance program is very important in 
providing grants for equipment and giving technical assistance to rural 
fire departments. The fiscal year 2007 budget request proposes to 
reduce this program by $22.7 million. This is a 25 percent reduction. 
To put this in more practical terms, this will reduce the number of 
communities receiving grants and technical assistance by over 5,300.
    Is this a wise cut when frequently it's the local firefighting 
forces that are first on the scene of a wildfire?
    Answer. The Forest Service supports efforts to improve firefighting 
readiness, and recognizes the primacy of State and local governments in 
providing these essential services to their citizens. In additional to 
Forest Service financial assistance, the Forest Service will continue 
to work with local communities and the State foresters with an emphasis 
on community wildfire protection planning and coordination on FEMA 
hazard mitigation plans, hazardous fuels treatments in the critical 
wildland-urban interface, and building fire preparedness at the State 
and local level remain priorities. The implications of reduced levels 
of funding in State Fire Assistance will vary from State to State. 
Generally, depending on the capability of each State, there may be less 
overall funding for preparedness at the State and local level to 
provide initial attack and extended attack assistance to Federal 
firefighting resources on Federal fires. Depending on the funding 
capabilities of the States and local communities, hazardous fuel 
treatments on the State and private portions of the wildland-urban 
interface may be reduced over prior years. Some of that reduction may 
be offset by proposed increases in hazardous fuel accomplishments on 
national forest acres in the wildland-urban interface.
    Question. Over the last several years, the committee has had some 
difficulty working with the agency on funding for the Fire Preparedness 
budget. This is the program that puts in place firefighters, engines, 
and other basic firefighting assets at the start of the fire season. In 
the budget for fiscal year 2007, you have reduced the program by over 
$10 million but your budget claims that you will still be able to 
suppress 99 percent of fires during initial attack- that is, before 
they get over 300 acres.
    With the rising costs of fuel and aviation assets, can the agency 
assure the committee that even with a $10 million cut in preparedness 
that you can maintain readiness in terms of the number of firefighters 
and engines at current levels?
    Answer. In fiscal year 2007, the Forest Service will maintain a 
level of readiness, including firefighters, comparable to that attained 
in fiscal year 2005 and planned for fiscal year 2006. The agency will 
achieve efficiencies through program leadership and a reduction in 
agency-wide overhead.
    Question. A number of fires have been in the news already this year 
in Texas, Arizona, and Colorado to name a few. Many places in the 
Southwest, like Arizona and New Mexico are really suffering from lack 
of precipitation.
    How severe do you expect this fire season to be based on what you 
know now?
    Answer.
   National Wildland Fire Outlook, National Interagency Fire Center, 
           Predictive Services Group, Issued: April 12, 2006
           wildland fire outlook--april through august, 2006
    Fire potential is expected to be significantly higher than normal 
over portions of the West, Alaska, Great Plains, Gulf Coast and the 
East due to the following factors:
  --Above average rain and snow in northern and central portions of the 
        West will temper fire potential in the forests. Conversely, a 
        dry winter in the Southwest and Alaska has increased the risk 
        of wildfires this spring and summer. In addition, the Southwest 
        and Great Basin have abundant carryover fine fuels from the wet 
        2004/2005 winter. This will elevate fire potential due to 
        increased fuel loading and a continuous fuel bed for rapid fire 
        spread. Long-term drought and associated bug-killed vegetation 
        continue to elevate fire potential in portions of the West.
  --Very dry conditions in the Southern Plains, Southeast and Eastern 
        States will keep fire potential high until summer thunderstorms 
        provide ample rainfall to diminish the fire threat.
  --Alaska is expected to have another above normal fire season with 
        the main areas for concern in the Southwest, western Kenai 
        Peninsula and around the Delta Junction area southeast of 
        Fairbanks.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Question. How much money does the agency have available in its fire 
suppression accounts for firefighting this year?
    Answer. The Forest Service did not find it necessary to use the 
emergency reserves in 2005 and carried over a suppression balance of 
$501 million to fiscal year 2006. Along with the fiscal year 2006 
suppression appropriation of $698 million, the agency has an 
approximately total of $1.2 billion available for fiscal year 2006.
    Question. Would the agency expect that you may have to borrow 
against other non-fire accounts that caused so much disruption to 
agency programs a few years ago?
    Answer. For fiscal year 2006, the agency retained about $500 
million in fiscal year 2005 unobligated Wildland Fire Management funds. 
Those funds, in addition to the fiscal year 2006 appropriation of $690 
million provide a little less than $1.2 billion for fire suppression. 
Fire suppression costs have only exceeded $1.2 billion once in the last 
10 years, therefore the funding should be sufficient to fund this 
year's fire suppression needs.
    Question. The Chief has identified unmanaged recreation as one of 
the four major threats to our national forests. The subcommittee is 
hearing from the public in Montana that many local managers are locking 
gates on roads for seasonal closures but are not opening them back up 
when the closure expires. This is encouraging illegal use as folks are 
driving around closed gates that should be open.
    Has the agency heard anything about this problem?
    Answer. We are not aware of the problem as described. While we 
recommend that road closure issues be addressed at the local level, we 
are concerned about the problem as stated and request more specific 
information you can provide.
    Periodically, there are good reasons to extend a closure for safety 
or to protect resource values. Two common examples are unstable road 
surfaces during spring rains or late break-up and blocked access due to 
late snowpack in the high country. In such cases, the public needs to 
be notified in advance of extending the closure.
    Question. Is this something that the agency can look into and make 
sure that when seasonal closures expire that these roads are re-opened?
    Answer. As stated in the answer to question 25, there are cases 
where seasonal closures must be extended for public safety and resource 
protection reasons. In such cases, we expect that the public be 
notified in advance of the extension. If you have any more specific 
information on the situation described, we will be better able to 
pinpoint problems and develop a prompt solution.
    Question. There is a tremendous problem in Montana with bark beetle 
infestations. Recent figures indicate that since 1999 in Region 1, bark 
beetle infested acres have increased from 400,000 acres to more than 
1.7 million acres. This has caused enormous forest health problems and 
greatly increased fire danger.
    With this kind of massive epidemic of bark beetle infestations can 
you explain the rationale for cutting the money devoted to bark beetle 
management in half--from $32 million to $16 million?
    Answer. The fiscal year 2007 President's Budget includes $14 
million in the Forest Health Management budget lines for the control of 
western bark beetles ($7 million) and the southern pine beetle ($7 
million). Although funding for western bark beetle suppression projects 
in Western States, including Montana, is 28 percent less than the 
enacted budget for fiscal year 2006, it is more than 50 percent higher 
than the fiscal year 2006 President's Budget. At the proposed funding 
level, management projects for western bark beetles will be conducted 
on 33,500 acres of Federal and cooperative lands across the West. 
Efforts to mitigate beetle-caused mortality will include using 
environmentally sensitive strategies such as pheromones and preventive 
thinning of stands to reduce risk before an outbreak occurs. Further, 
the Budget reflects significant increases elsewhere for other 
activities that improve the health and vitality of national forests. 
For example, funding for Forest Products increases by $30 million (+11 
percent) and Vegetation and Watershed Management increases by $6 
million (+3 percent). President Bush is allocating $610 million in the 
2007 budget to continue implementation of the Healthy Forests 
Initiative to reduce hazardous fuels and restore forest health. The 
budget proposal, more than a $12 million increase over 2006, takes an 
integrated approach to reducing hazardous fuels and restoring forest 
and rangeland health. Along with more than $301 million provided to the 
Department of the Interior, the 2007 budget provides a total of nearly 
$913 million to implement the Healthy Forests Restoration Act.
    Question. What will be the impact in other States with similar bark 
beetle problems?
    Answer. The fiscal year 2007 President's Budget includes $7 million 
in the Forest Health Management budget lines for the control of western 
bark beetles and another $7 million for southern pine beetle. Although 
this funding level is 47 percent less than the enacted budget for 
fiscal year 2006, it is 75 percent higher than the fiscal year 2006 
President's Budget. At the proposed funding level, management projects 
for bark beetles will be conducted on approximately 105,000 acres of 
Federal and Cooperative lands. Efforts to mitigate beetle-caused 
mortality will include using environmentally sensitive strategies such 
as pheromones and preventive thinning of stands to reduce risk before 
an outbreak occurs.
    Question. Chief you were kind enough to join me in Montana for a 
field hearing back in December regarding forest planning in Region 1. 
As you know, we've got 5 forest plans covering over 11 million acres in 
Montana that are being revised.
    We received a lot of comments from folks during that hearing that 
were concerned about public access and motorized use being further 
limited on the forests in Montana. Can you tell us how you are taking 
these concerns of citizens into account in drafting these new plans?
    Answer. The five land management plans (LMPs) currently being 
revised in Montana are on the Beaverhead-Deerlodge, Bitterroot, Lolo, 
Flathead, and Kootenai National Forests (NFs).
    The Beaverhead-Deerlodge NF's comment period on its draft plan and 
environmental impact statement (EIS) ended on October 31, 2005. The 
Forest is analyzing those comments and preparing a final plan and EIS. 
The Forest continues to work with all interest groups, including both 
summer and winter recreation groups to address their concerns. The 
final plan will identify areas where motorized use is emphasized and 
areas where motorized use is not appropriate. As a result of public 
comment throughout the plan revision process, the Forest has identified 
several areas where motorized trails could be connected to form loops 
and facilities could be constructed to accommodate motorized use. The 
Ecosystem Research Group (ERG) has provided the Forest with a 
``collaborative alternative'' to consider when preparing the final 
plan. The Forest continues to work with ERG to determine how best to 
consider that alternative in the final plan.
    The planning teams on the Bitterroot, Lolo, Flathead, and Kootenai 
NFs are in the final stages of developing proposed LMPs. These proposed 
LMPs will be released for a 90-day comment period. Public input from a 
series of public and collaborative meetings is incorporated into the 
draft LMPs. These draft LMPs will be released for a 90-day comment 
period.
    As a result of this extensive public input, the Bitterroot, 
Flathead, and Lolo NFs have added motorized loop routes as a component 
of desired conditions in their LMPs. The Bitterroot and Lolo NFs 
identified backcountry areas (labeled ``Management Area 2.2'' within 
the LMP) as generally suitable for limited motorized use. These LMPs 
also identify desired conditions for motorized and non-motorized 
activities. The public will be able to comment on these proposed LMPs 
during the 90-day comment period. The Forests intend to convene a 
series of public meetings during this comment period to explain the 
proposed LMPs.
    The Kootenai NF has developed several management areas to address 
comments associated with travel management. The Forest will continue 
working with user groups to identify areas best suited for motorized 
use.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

    Question. The 2004 fire season was the worst Alaska has ever seen. 
Alaska had 703 fires and over 6.6 million acres burned. Alaska's 2005 
fire season was almost as destructive. 624 fires and close to 5 million 
acres burned. Though these numbers are staggering, the Forest Service's 
fiscal year 2007 budget calls for sharp reductions in Alaska's 
allocation for programs that play a key role in implementation of the 
National Fire Plan and other programs focused on fire prevention and 
hazard mitigation. More specifically, Alaska's fiscal year 2007 
allocation for State & Private Forestry funds is a 17 percent reduction 
from 2006. Alaska's fiscal year 2007 allocation for Wildland Fire 
Management funds is decreased by 47 percent from 2006, including a 76.5 
percent reduction in State Fire Assistance Program funding.
    Given the number and acreage of fires in Alaska each fire season, 
how does the Forest Service justify such a drastic reduction in funds 
for fire management purposes? Do you feel the Forest Service budget has 
adequate resources for this upcoming fire season?
    Answer. Fiscal year 2006 funding provides the Forest Service with 
adequate resources for this upcoming fire season. The fiscal year 2007 
budget reflects the President's commitment to providing the critical 
resources needed for our Nation's highest priorities: fighting the war 
on terror, strengthening our homeland defenses, and sustaining the 
momentum of our economic recovery. The fiscal year 2007 budget aligns 
with the national priorities. The USDA and the DOI worked together 
closely to ensure the National Fire Plan programs would be funded at a 
level that would allow both departments to meet their planned readiness 
level.
    Question. The fiscal year 2007 budget for the Forest Service 
includes a proposal to extend the Secure Rural Schools and Community 
Self-Determination Act by selling 200,000 acres of National Forest 
System land to offset the act's $800 million cost. Sales receipts would 
go to States impacted by lower timber sales on Federal lands and 
payments would decrease and phase-out over 5 years. Justification for 
the proposal is that sale of national forest land and resulting 
development of the land would increase State and local tax base and 
reduce the need for Federal funds. The proposal has also been justified 
on grounds that regular receipt-sharing payments are sufficient to meet 
community needs. Secure Rural Schools Act payments are vital to 
communities in Southeast Alaska where the Tongass National Forest 
covers over 90 percent of the land and timber sale volume continues to 
be unstable and very low.
    How does the Forest Service justify reducing and eventually phasing 
out Secure Rural Schools Act payments to States such as Alaska where 
very little or no national forest land acreage is available for sale 
and regular receipt-sharing payments are low?
    Answer. The Secure Rural Schools and Community Self-Determination 
Act of 2000 addresses the decline in revenue from timber harvest in 
recent years received on Federal land, that have historically been 
shared with counties under the 25 percent Act of 1908. The purpose of 
the act is to stabilize payments to counties to help support roads and 
schools, provide projects that enhance forest ecosystem health and 
provide employment opportunities, and improve cooperative relationships 
among Federal land management agencies and those who use and care about 
the lands the agencies manage.
    For each year 2001-2006, the law allows States to receive a payment 
from the Federal Government based on the State's average of its top 3 
years of payments from national forest and BLM receipts from Federal 
lands from the period of 1986-1999.
    If the Secure Rural Schools existing legislation is not 
reauthorized, barring any other changes in authorizations, the States 
will continue to receive their share of 25 percent fund payments under 
the 1908 act. Funds are distributed to eligible States that received a 
25-percent payment during the eligibility period based on an amount 
equal to the average of the three highest 25-percent payments and 
safety net payments made to that eligible State for the period between 
1986-1999.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig

    Question. My first question is in regard to the new travel 
management rule. Does the Forest Service have an estimated number of 
miles identified for road and trail closers?
    Answer. The travel management rule itself does not open or close 
any road, trail, or area. Instead, the rule establishes national 
guidance for making designation decisions at the local level. Each 
national forest or grassland will assess its current travel management 
direction, involve the public, and determine whether changes are 
needed. Designations will be made with public involvement; coordination 
with Federal, State, county, tribal, and local governmental entities; 
and appropriate environmental analysis and documentation. The miles of 
road or trail that will be added to the forest transportation system or 
be closed will depend on the results of planning at the local level 
over the next 4 years.
    Question. Additionally, with the new rule, how does the Forest 
Service plan on funding such a large task with declining budgets?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads, Trails, Recreation, Heritage and Wilderness, 
Wildlife and Fisheries Habitat Management, and Vegetation and Watershed 
Management.
    Question. Along with that and new wilderness proposal areas, does 
the Forest Service agree that those agency-designated areas should 
remain accessible by both motorized and non-motorized recreationists?
    Answer. In accordance with agency policy, a roadless area being 
evaluated and ultimately recommended for wilderness or wilderness study 
is not available for any use or activity that may reduce the area's 
wilderness potential. Activities currently permitted may continue, 
pending designation, if the activities do not compromise wilderness 
values of the roadless area. This direction gives the local line 
officer discretion in evaluating such activities and determining 
whether or not to allow them to continue.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

    Question. As I understand it, the President's Budget includes a $30 
million increase in the forest products line item, but that entire $30 
million increase plus an additional $11 million of forest products 
funding would go to the Pacific Northwest as increased funding for the 
Northwest Forest Plan.
    My question is this--will the increased funding for the Northwest 
Forest Plan be at the expense of dealing with the bark beetle problems 
in Colorado or is there room in this proposed budget to get more timber 
sale money to the national forests in Colorado to address the bark 
beetle problems?
    Answer. The agency is committed to funding all regions at similar 
levels to fiscal year 2006 through a combination of Hazardous Fuels and 
Forest Products funding. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation. The agency determines where Forest Products 
program funding should be allocated to best support forest management 
programs, while using Hazardous Fuels funding to address the highest 
priority fuels reduction needs.
    Question. The proposed Forest Service budget includes an $11 
million increase in Hazardous Fuels funding. I strongly support 
spending money proactively on hazardous fuels projects if it will 
reduce the risk of forest fires and the associated risks to watersheds, 
communities, and residents. However, I'm concerned that some of the 
acres treated aren't the highest priority acres.
    From your reviews of the hazardous fuels program, is there room to 
improve what's being done on-the-ground, and how are you working toward 
that objective?
    Answer. Each year our national fuels treatment program priorities 
are developed in cooperation with the Department of the Interior and 
transmitted to regions, forests, and districts. That guidance shapes 
prioritization decisions at the individual national forests and ranger 
districts, where fuels treatments are evaluated on a site-specific 
basis. In addition, other resource treatments for wildlife habitat 
improvement, watershed, vegetation management, and recreation are also 
being designed to address fuels treatment and vegetation management 
needs. Combining objectives can help address both fuel reduction and 
condition class improvement goals. The timing and placement of these 
treatments on the landscape are evaluated with our partners at other 
Federal agencies and at the State and local level. These partnerships 
are very well established and successful in some areas, and are still 
being formed in other locations.
    We are also improving the prioritization process and performance 
measures to focus on the right acres, at the right time, and in the 
right place. Wildfires do not recognize property boundaries or agency 
administration. For hazardous fuels treatments to be most effective, 
they must be designed to change the behavior of a wildfire. To fully 
protect communities and firefighters, private landowners in the 
wildland-urban interface must also take responsibility for reduction of 
hazardous fuels on their lands and around their homes and structures. 
The National Fuels funds allocation and prioritization methodology 
evaluates Regional fuels treatment needs using measures of efficiency, 
effectiveness, consequences, restoration opportunities and wildfire 
risk. These measures are evaluated and ranked by an interdisciplinary 
team with results presented geospatially to guide the National 
Headquarters Office allocation of hazardous fuels funding to the 
Regions.
    Question. In addition, how successful has the Forest Service been 
at integrating multiple budget line items, for instance hazardous 
fuels, forest health, and timber sales funding, into individual 
projects and getting ``more bang for your buck?''
    Answer. Multiple budget line items are being effectively used to 
address forest health, watershed health, and community protection 
issues, while also contributing to local economies and maintaining 
local industry infrastructure. The Forest Service collaborates with 
other Federal agencies, as well as State, local, and tribal partners 
and the general public in the creation of Community Wildfire Protection 
Plans, to prioritize treatments of hazardous fuels at the wildland-
urban interface. The Forest Service will treat more than 1.5 million 
acres within the wildland-urban interface during fiscal year 2007. The 
allocation of various budget line items, such as Forest Products, 
Vegetation and Watershed Management, Forest Health, and Hazardous Fuels 
take into consideration these resource and community concerns. Forest 
health continues to be a priority for the administration, and the 
Forest Service is committed to addressing the issue across the Nation.
    Question. Colorado alone has 800,000 acres of NEPA ready land that 
could be treated if funding were available. How effective a use of 
limited Forest Service dollars is it to fully fund the Pacific 
Northwest Forest Plan when that area of the country has the highest 
rate of lawsuits and therefore dollars spent often don't result in 
implementation?
    It seems to me that a more worthwhile use of funding would be to 
re-apportion a fair amount of funding to Colorado to reduce the fire 
danger this year rather than send it to an uncertain fate in the 
Pacific Northwest.
    Answer. The administration is committed to fully funding the 
Northwest Forest Plan. Cost efficiency is not the only consideration in 
allocating the Forest Products line item. For example, increasing 
timber sales increases the amount of receipts shared with the States 
and reduces outlays from the Treasury for payments authorized for the 
Secure Rural Schools and Community Self-Determination Act. The Forest 
Products line item is an important source of funding in meeting 
resource needs, addressing forest health and community protection 
issues, contributing to local economies, and maintaining local industry 
infrastructure. The allocation of the Forest Products line item takes 
into consideration these resource and community concerns and the 
allocation of other line items. Forest health is a priority for the 
administration and the Forest Service is committed to addressing the 
issue across the Nation.
    The additional funding for the Northwest Forest Plan will allow the 
agency to offer 800 MMBF of timber volume, improve over 3,900 acres of 
terrestrial wildlife habitat and 120 miles of fisheries habitat, treat 
hazardous fuels in the wildland-urban interface and municipal 
watersheds, and address reforestation needs of recent large forest 
fires. The USDA Forest Service strongly supports the timber sale 
program on the Colorado national forests, and the agency is committed 
to allocating a combination of Forest Products and Hazardous Fuels 
funding to each region that is not less than the fiscal year 2006 
allocation. This is necessary to ensure that critical vegetation 
management program continuity is maintained. The Forest Service 
determines within each region where the Forest Products funding should 
be allocated to best support forest management programs, while using 
Hazardous Fuels funding to address the highest priority fuel reduction 
needs.
    Question. Can you provide me with the percentage and dollar amounts 
of the total funding that was appropriated for the purposes of Fire 
Preparedness and Fire Suppression that actually ``reach the ground?'' 
By ``reach the ground,'' I mean the amount that is actually used at the 
lowest level to fund temporary hires, permanent positions, purchase 
equipment, let contracts, etc to deal with the upcoming fire season.
    Please provide nation-wide information, as well as numbers 
specifically relating to my home State of Colorado.
    Answer. Fire Preparedness.--The Forest Service has $666 million of 
Appropriated Fire Preparedness funds for fiscal year 2006. Fifty five 
percent or $369 million will be available to fund firefighting 
capability and operations including temporary hires, permanent 
positions, purchase equipment, dispatchers, and contracting resources.
    Within the State of Colorado, the Forest Service will spend 
approximately fifty percent or $13 million on Preparedness capability 
and operations.
    Fire Suppression.--The Forest Service has $690 million of 
Appropriated Fire Suppression funds for fiscal year 2006. Seventy 
percent, or $481 million, are available to fund temporary hires, 
permanent positions, purchase equipment, contracts, etc. for the 
upcoming fire season. The funds are available on an as-needed basis. 
Through April 30, 2006, the Forest Service has expended approximately 
$2.6 million in Colorado.
    Question. Forest Service Region 2, where Colorado is located, has 
more visitors to its national forests than any other region. Fully 32.5 
million people visited there last year. This is a good thing because we 
want people to come, to get out, and to enjoy the great resources that 
are our forests. What is confusing though is that while the number of 
forest visitors is the highest the recreation funding it receives is 
not. In fact when you look at recreation funding, Region 2 gets less 
funding per visitor than any other region. Could you explain to me why 
this is the case?
    Answer. The Forest Service continues to direct available resources 
towards meeting long-term strategic goals and providing increased 
support to programs that advance sustainable resource management, which 
includes providing outdoor recreational opportunities. Available 
recreation and trails program resources continue to be focused on 
efforts that maximize program delivery, emphasize delivery of services 
to the public, and strengthen partnerships which are vital to 
accomplishing stewardship work on the ground. The Rocky Mountain Region 
(Region 2) has taken several steps to reduce costs and improve the 
value of services to the taxpayer, including implementing the 
recreation sites facility master planning process, pursuing grants and 
matching funds, and actively engaging our partners in the management of 
the national forests. Given overall budgetary constraints, Region 2 
will be working with other regions to similarly improve efficiencies.
    Question. I'm interested in ways the Forest Service can reduce 
costs of management, and thereby be more efficient with the funds that 
we in Congress appropriate. The Healthy Forests Restoration Act 
contained a pre-decisional objection process and a streamlined judicial 
review process. How well are those working from the perspective of 
allowing the Forest Service to more effectively address or resolve 
conflicts, and how well are those working from the perspective of 
reducing costs?
    Answer. The project level pre-decisional objection process used for 
hazardous fuels reduction projects authorized under the provisions of 
the Healthy Forests Restoration Act of 2003 encourages upfront 
participation by the public while preserving the opportunity to 
challenge a project and influence a decision before it is made. A pre-
decisional process serves the public by encouraging efforts to resolve 
differences collaboratively, before a decision document is signed, 
rather than by addressing issues after a decision is made. Furthermore, 
better resource decisions with fewer legal challenges could result if 
interested citizens and organizations work with the agency to resolve 
concerns before a decision is made. The Forest Service is beginning to 
monitor planning and implementation of Healthy Forests Restoration Act 
projects along with all other projects through its new Planning, 
Appeals, and Litigation System (PALS) database. Fiscal year 2005 was 
the first full year of implementation for the planning portion of this 
tracking system. As data for fiscal year 2005 are still being reviewed, 
no statistical conclusions concerning efficiency may yet be made. The 
appeals and litigation portions of this tracking system are still being 
developed.
    Question. How much does the USFS anticipate the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use to cost to fully 
implement nationwide? Specifically, from what budgets within the USFS 
will funds be allocated in order to implement the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads, Trails, Recreation, Heritage and Wilderness, 
Wildlife and Fisheries Habitat Management, and Vegetation and Watershed 
Management.
    Question. Currently, how many individual forests and/or forest 
districts functionally meet the requirements of the Travel Management: 
Designated Routes and Areas for Motor Vehicle Use and will have to only 
take minor actions (for example provide OHV travel maps) to be in full 
compliance?
    Answer. The following units, comprising approximately 42 million 
acres, or 22 percent of the National Forest System, report that they 
already manage motor vehicles on a designated routes basis. These units 
will require relatively less in the way of new planning and decision-
making to implement the travel management rule than those forests that 
are open to unregulated cross-country motor vehicle use.
Rocky Mountain Region (Region 2)
    Arapaho-Roosevelt National Forest--Sulphur and Canyon Lakes Ranger 
Districts and Pawnee National Grassland; Grand Mesa National Forest; 
Uncompahgre National Forest; Routt National Forest; and Shoshone 
National Forest.
Southwestern Region (Region 3)
    Coronado National Forest; Lincoln National Forest; Prescott 
National Forest; and Tonto National Forest--Cave Creek, Globe, Mesa, 
and Tonto Basin Ranger Districts.
Intermountain Region (Region 4)
    Boise National Forest--Lowman and Cascade Ranger Districts; 
Bridger-Teton National Forest--Pinedale Ranger District; Caribou 
National Forest; Manti-La Sal National Forest--Ferron, Monticello, 
Price, and Sanpete Ranger Districts; Humboldt-Toiyabe National Forest--
Carson Ranger District and Spring Mountains; National Recreation Area; 
Sawtooth National Forest--Sawtooth National Recreation Area; Uinta 
National Forest; and Wasatch-Cache National Forest.
Pacific Southwest Region (Region 5)
    Los Padres National Forest; Lake Tahoe Basin Management Unit; 
Sequoia National Forest--Tule River, Hot Springs, and Hume Lake Ranger 
Districts; and Stanislaus National Forest--Summit Ranger District.
Pacific Northwest Region (Region 6)
    Umatilla National Forest--North Fork John Day, Pomeroy, and Walla 
Walla Ranger Districts.
Southern Region (Region 8)
    Caribbean National Forest; Cherokee National Forest; Chattahoochee-
Oconee National Forests; Daniel Boone National Forest; Francis Marion & 
Sumter National Forests; National Forests in Alabama; National Forests 
in North Carolina; Ozark-St. Francis National Forests; George 
Washington and Jefferson National Forests; Land Between the Lakes 
National Recreation Area; Caddo National Grassland; Lyndon B. Johnson 
National Grassland; Sam Houston National Forest; and Delta National 
Forest.
Eastern Region (Region 9)
    Chequamegon-Nicolet National Forests; Finger Lakes National Forest; 
Hiawatha National Forest; Hoosier National Forest; Mark Twain National 
Forest; Midewin National Tallgrass Prairie; Monongahela National 
Forest; Shawnee National Forest; Wayne National Forest; and White 
Mountain National Forest.
Alaska Region (Region 10)
    Chugach National Forest.
    Question. We have several mills in western Colorado that 
manufacture aspen paneling and aspen excelsior. They depend on the 
national forests for aspen timber sales. We have a lot of aspen on the 
national forests in western Colorado, and it's important to manage our 
aspen stands. For some reason the Forest Service hasn't been selling as 
many aspen timber sales the last couple years. These small family owned 
businesses are on the edge of not surviving. I don't think the Forest 
Service can afford to lose any more of the forest products companies 
that help you manage the national forests. These companies are 
important to western Colorado and they're important to me. Can you tell 
me if there is sufficient funding in the proposed fiscal year 2007 
budget to fund aspen timber sales in Colorado?
    Answer. There is sufficient funding for the aspen program. There 
are three mills that primarily use aspen--Delta Timber in Delta, CO; 
Western Excelsior in Mancos, CO; and Aspen Wall Wood in Dolores, CO. 
Most of the commercial aspen the agency sells comes from the San Juan, 
White River, and Grand Mesa, Uncompahgre, and Gunnison National 
Forests.
    The aspen sold in Region 2 over the last few years has been 2.6 
MMBF in fiscal year 2005, 0.7 MMBF in fiscal year 2004, and 4.8 MMBF in 
fiscal year 2003. From those forests, we plan to offer approximately 10 
MMBF in fiscal year 2006. For fiscal years 2007-2010, our planned offer 
will vary from 5 to 9 MMBF per year, but could increase further to 
respond to the aspen mortality now occurring primarily on the San Juan 
National Forest.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

    Question. In fiscal year 2006, I continued $350,000 to fund leafy 
spurge activities on the Dakota Prairie Grasslands.
    What activities were funded? Which organizations received funding?
    Answer. The Dakota Prairie National Grassland is currently working 
on agreements with the organizations listed below to receive earmark 
funding for leafy spurge control, including herbicide treatment, 
release of biological control agents and mapping of infestations. The 
agreements are based on the available earmarked funds. The Dakota 
Prairie Grassland spends additional program dollars to inventory 
infestations, monitor prior treatments and conduct environmental 
analysis for additional treatments, but these funds are not reflected 
in the agreements or distributed to these organizations.
    Billings County; Golden Valley County; Grand River Grazing 
Association; Little Missouri Grazing Association; McKenzie County 
Grazing Association; Ransom County; Richland County; Sheyenne Valley 
Grazing Association; and Slope County.
    Question. What is the total number of acres that were treated in 
fiscal year 2006?
    Answer. Although the field work has not been completed, we expect 
accomplishments to exceed 15,000 acres in fiscal year 2006. The 
Sheyenne Valley Grazing Association alone is planning to conduct 
herbicide treatments on 13,000 acres and graze goats on an additional 
2,000 acres.
    Question. Your budget justification doesn't specify any set amount 
for leafy spurge control on the grasslands. I want to make sure this 
work is continued.
    How much funding in the President's Budget is available in total 
for leafy spurge eradication on the Dakota Prairie Grasslands?
    Answer. The fiscal year 2007 President's Budget, relative to the 
fiscal year 2006 enacted budget, increases the Manage Noxious Weed and 
Invasive Plants activity by $1,276,000 (6 percent) and increases 
targeted outputs by 34,902 acres (43 percent). This increased program 
emphasis will provide additional funds for high priority treatments; 
however, unit-specific allocations have not been determined at this 
time.
    Question. Does your budget continue my $350,000 earmark for 
cooperative work with grazing associations and county weed boards?
    Answer. The fiscal year 2007 President's Budget does not include 
the earmark provided in fiscal year 2006. However, the unit will 
continue to work with the grazing associations and county weed boards 
to identify high priority treatment areas and to implement treatments 
through cost-effective cooperative agreements. The planned completion 
of a noxious weed treatment environmental analysis in fiscal year 2006 
will also increase the unit's flexibility to implement efficient 
treatment options, including continuation of existing partnerships.
    Question. GAO has now ruled twice that the Forest Service 
improperly awarded a $100 million contract for its National Recreation 
Reservation System and directed the agency to recompete the contract. 
This is after the agency attempted to initially sole-source the 
contract. The Forest Service has indicated that it will not abide by 
GAO's second determination, despite the fact that the Comptroller 
General again found significant errors in the contracting process and 
told the agency to recompete the contract.
    How often in the past 10 fiscal years has the U.S. Forest Service 
sought to have the Secretary of Agriculture grant a waiver under the 
Competition in Contracting Act to sole-source a contract? Please 
provide details on any such occurrences.
    Answer. The Forest Service competitively sources contracts whenever 
possible, using the Secretary's waiver under the Competition in 
Contracting Act to enable a sole-source acquisition only once in the 
last 10 fiscal years, and that was in connection with the intent to 
amend the existing national recreation reservation system contract with 
Reserve America in 2003 to provide for the addition of the National 
Park Service recreation sites to be incorporated into that contract. On 
June 24, 2003, USDA Secretary Ann Veneman approved the determination, 
in accordance with Federal Acquisition Regulation 6.302-7, that it was 
in the public interest to modify, on a noncompetitive basis, the 
Reserve America, Inc. contract to integrate a portion of the Department 
of the Interior recreation reservation requirements with those of the 
USDA Forest Service and the U.S. Army Corps of Engineers. This action 
was taken to implement direction from the OMB Director in 2002 to the 
Department Secretaries of USDA and DOI and the Director of the USACE to 
consolidate various recreation reservation systems into one system. The 
National Park Service units incorporated into the Reserve America 
contract under this action were those which were not covered under an 
existing DOI contract, and in anticipation of the award of an 
integrated national recreation reservation system contract in 2005. 
This action was challenged in the U.S. Court of Claims and was upheld.
    Question. How often in the past 10 fiscal years has the U.S. Forest 
Service failed to abide by a procurement recommendation by the GAO? 
Please provide details of any such occurrence.
    Answer. The current determination not to follow the recommendation 
of GAO concerning the protest of the award of the integrated national 
recreation reservation system contract is the only instance where the 
Forest Service has decided not to follow the recommendation of the GAO.
    Question. Mr. Rey indicated that he thought it was ``not uncommon'' 
for other agencies not to follow GAO's recommendations on procurement 
cases. Please provide a list of any instances where other agencies have 
overridden GAO's recommendation on procurement cases in the last 10 
fiscal years?
    Answer. The Forest Service does not possess specific information 
regarding instances where other agencies have declined to follow GAO 
recommendations. However, it is known that there are other cases where 
Federal agencies have declined to follow GAO recommendations. Specific 
information on these cases would need to be obtained from the GAO.
    Question. Has the USDA Inspector General examined the NRRS 
contracting dispute? If not, why not?
    Answer. To our knowledge, the USDA Office of the Inspector General 
(OIG) has not reviewed, or has not otherwise been involved in review of 
the source selection process or litigation concerning award of the 
national recreation reservation system contract. The dispute and 
adjudication venues in the Federal acquisition process are well 
defined, and those venues do not include the OIG. No whistleblower 
complaint, allegations of fraud, waste, or abuse. or other allegation 
which may trigger an OIG investigation, has taken place. OIG determines 
which audits and reviews it conducts independently of the Forest 
Service, and we respectfully defer to them any questions regarding 
their work.
    Question. Your budget says the agency will have to spend $52 
million to cover the costs of pay inflation in the fiscal year 2007 
budget. That doesn't even include funding for non-pay inflation for 
things like rent and utilities.
    What is the total amount of unfunded fixed costs that will absorb 
in fiscal year 2007?
    Answer. Forest Service costs for the 2.3 percent pay increase would 
be about $52 million. In addition, non-pay costs assuming a 2.3 percent 
inflation factor would be about $41 million--for a total of $93 
million.
    Question. What is the total amount of fixed costs that you estimate 
that the Forest Service has been forced to absorb over the past five 
years?
    Answer. The cost of pay raises between fiscal year 2003 and fiscal 
year 2007 (inclusive) total $392 million. Non-pay inflation is 
estimated to be about $273 million. In order to address these costs, 
the Forest Service is currently conducting organizational efficiency 
studies and will have specific recommendations in the fiscal year 2008 
President's Budget.
    Question. Your budget claims $39 million in saving from ``program 
efficiencies'' from business restructuring and other reforms.
    How are you tracking savings to make sure they are true 
``efficiencies'' and not cuts to programs?
    Answer. Performance Work Statements (PWS) for A-76 competitions are 
crafted to ensure the full program is included within the scope. Actual 
performance is measured against the PWS requirements.
    Cost reductions for the business process re-engineering efforts are 
tracked in the financial system against a baseline of costs included in 
the respective business case. The business cases outlined how the 
programs would be structured and implemented under a revised structure. 
Each program area has service-level agreements to help ensure the 
quantity and quality of service meets needs outlined by the agency.
    Question. Your budget contains a 30 percent cut in State fire 
assistance. States like North Dakota depend heavily on Federal 
resources to help them train and equip their fire fighters--fire 
fighters that are often first responders to thousands of fires each 
year on Federal land.
    How do you expect State and local governments make up the 
difference of these cuts?
    Answer. The Forest Service supports efforts to improve firefighting 
readiness, and recognizes the primacy of State and local governments in 
providing these essential services to their citizens. In additional to 
Forest Service financial assistance, the Forest Service will continue 
to work with local communities and the State foresters with an emphasis 
on community wildfire protection planning and coordination on FEMA 
hazard mitigation plans. Hazardous fuels treatments in the critical 
wildland-urban interface and building fire preparedness at the State 
and local level remain priorities.
    Question. Since State and local firefighters are often the first 
responders to Federal lands, are we shortchanging our own readiness?
    Answer. The implications of reduced levels of funding in State Fire 
Assistance will vary from State to State. Generally, depending on the 
capability of each State, there may be less overall funding for 
preparedness at the State and local level to provide initial attack and 
extended attack assistance to Federal firefighting resources on Federal 
fires. Depending on the funding capabilities of the States and local 
communities, hazardous fuel treatments on the State and private 
portions of the wildland-urban interface may be reduced from prior 
years. Some of that reduction may be offset by proposed increases in 
hazardous fuel accomplishments on national forest acres in the 
wildland-urban interface.
    Question. Though you list improving forest health as one of your 
top activities, your budget cuts total Forest Health grants by 23 
percent. The budget includes a $7 million cut to programs that combat 
gypsy moth infestation. You also have cuts to your gypsy moth research 
program.
    Why did you target the gypsy moth program for cuts? How many fewer 
acres will be treated with under this budget proposal, as compared to 
fiscal year 2006?
    Answer. When gypsy moths first move into an area, there are often 
significant impacts on both tree mortality and nuisance to humans. 
After many years, forests recover and introduced predators, parasites, 
and disease reduce gypsy moth population growth. The President's Budget 
redirects resources from insect suppression projects in the generally 
infested areas that have had gypsy moth for many years to projects for 
slowing the spread of the gypsy moth in the highest priority areas 
along the leading edge of the advancing infestation, as well as the 
eradication of new infestations outside the generally infested area. 
The President's budget also focuses resources on the detection and 
eradication of new invasive species such as the Sirex woodwasp, emerald 
ash borer, and others which pose serious threats to the Nation's rural 
and urban forests. Approximately 340,000 acres are planned for 
treatment to suppress, eradicate, and slow the spread of the gypsy moth 
in fiscal year 2007 compared to approximately 700,000 in fiscal year 
2006.
    Question. The Forest Service and Interior Department should be 
working together on an interagency approach to fight fires. But, it 
appears that no one is talking to each other when you plan your 
budgets. For example, you increase funding for fuels treatments by $10 
million, while DOI's is cut by the same amount; your volunteer fire 
assistance is flat, while they zero out their Rural fire program.
    Why are the Forest Service and DOI fire budgets inconsistent?
    Answer. The fiscal year 2007 budget reflects the President's 
commitment to providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening our 
homeland defenses, and sustaining the momentum of our economic 
recovery. The fiscal year 2007 budget aligns with the national 
priorities and recognizes differences in statutory authority provided 
to the agencies by the Congress. The USDA and the DOI worked together 
closely to ensure the National Fire Plan programs would be funded at a 
level that would allow both departments to meet their planned readiness 
level.
    Question. The Interior bill limits the agency's spending on 
``competitive sourcing and related activities.'' For fiscal year 2006, 
you have a $3 million limit. In fiscal year 2005, it was $2 million. 
You are also required to report to Congress on ``incremental costs'' 
that you are spending on these programs. As far as I know, Congress 
have not received a report that details your competitive sourcing costs 
for fiscal year 2005 as called for in the law, and we have no idea what 
you plan to spend in fiscal year 2006.
    How much did your agency spend on its competitive sourcing and 
related activities in fiscal year 2005? What amount do you plan to 
spend in fiscal year 2006?
    Answer. The Competitive Sourcing Program Office (CSPO) operational 
expenses for fiscal year 2005 were $1.2 million; key activities were 
post-study reviews of the process and decisions of the Forest Service 
A-76 competitions of Region 5 privatization of fleet maintenance and 
road maintenance. Feasibility study follow-up analysis and review of 
decisions are management activities similar to those required for 
oversight of any Forest Service program of work. In fiscal year 2005, 
the communications program feasibility study was performed and there 
were no A-76 competitive sourcing studies initiated or implemented.
    As defined in Public Law 109-54, in fiscal year 2006, the total 
CSPO budget is $1,615,863 which includes $1,042,976 allocated for 
contractor support; the CSPO is funded at $572,887. As feasibility 
studies are completed, additional funding may be added to implement the 
recommendations. Total funds expended in the program in fiscal year 
2006 will not exceed the $3 million cap.
    Question. How is the agency sure you are complying with the $3 
million spending limitation for fiscal year 2006? How are you tracking 
expenses?
    Answer. In order to comply with congressional direction and to 
better manage the USDA Forest Service Competitive Sourcing Program, the 
Competitive Sourcing Program Office instituted tracking by activity of 
all resources expended by its contractor support, including A-76 
competitions, feasibility studies, and the FAIR Act Inventory. As there 
were no new A-76 competitions in fiscal year 2005 and that the costs to 
monitor post competition activity for the purposes of OMB Circular No. 
A-76, the USDA Forest Service tracking of expenditures was compliant 
with Congressional direction in its intent and effectiveness.
    Question. You list a number of ``feasibility studies'' underway or 
planned in your budget justification, but you don't say how much these 
are costing.
    How much are you spending in feasibility studies in fiscal year 
2006? How much do you propose to spend in fiscal year 2007?
    Answer. Although the process for the USDA feasibility studies has 
been prescribed by the USDA OCFO, every function and organization is 
different, and therefore predicting a total cost with any reliability 
would not be possible. As the USDA Forest Service moves forward, all 
costs will be developed and captured in a proposed action plan subject 
to leadership approval. It is estimated that from $400,000 to $700,000 
will be spent on feasibility studies during fiscal year 2006. Spending 
in fiscal year 2007 will depend on the outcome of the fiscal year 2006 
studies.
    Question. Are you counting the costs of these studies toward the 
annual spending cap?
    Answer. As stewards of America's national forests and grasslands, 
it is essential for the Forest Service to regularly assess 
organizational effectiveness to ensure that finite resources are 
optimally applied to performance of the agency mission. Feasibility 
studies are a management tool specifically designed to objectively, 
comprehensively, and transparently identify opportunities for 
improvement in agency programs that could be achieved in a variety of 
ways. Forest Service feasibility studies are completed to determine if 
competitive source competitions should be carried out and are guided by 
specific agency contractors. Feasibility study contractor costs are 
tracked by the Competitive Sourcing Program Office and are counted 
under the congressionally mandated funding cap.
    Question. You claim $20 million in savings in fiscal year 2005 from 
your competitive sourcing activities.
    How are you tracking costs to make sure you can back those savings 
up?
    Answer. Contracting officers overseeing the various contracts are 
tracking the contractual costs of activities which have been outsourced 
to the private sector. This information is clearly tracked in the 
Integrated Acquisition System. Private sector contract costs are 
tracked through the routine contractor billing payment process as would 
occur with any private sector contract. The Competitive Sourcing 
Activities Savings and Performance Update (Section 647 Report) shows 
total accrued savings. This report is completed by comparing the actual 
performance costs with the projected costs of in-house performance.
    For Letters of Obligation (LOO) that went to Government Most 
Efficient Organizations (MEOs), the MEOs (pursuant to agency policy and 
the terms of the LOO) are required to report actual costs on a 
quarterly basis. Specific job codes are used to capture these costs as 
per agency policy. To date, the Forest Service only has one MEO, the 
Information Solutions Organization (ISO).
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

    Question. The products that come off our Nation's forest are key to 
the economy of Wisconsin. My State is one of the leader's in forest and 
paper products. I am concerned that the administration is not taking 
the forest products industry seriously by failing to adequately fund 
research into improving paper and wood products technology. Since the 
mid-1990s the funding for the Forest Products Lab (FPL) in Madison has 
failed to keep pace with inflation, and it has not risen with increased 
budgets for forest research. The research conducted at FPL is key to 
maintaining our international competitiveness in paper and construction 
materials. The administration's decision to fund the FPL at $19.365 
million this year indicates that the Forest Service does not value the 
thousands of jobs in my State that depend on a vibrant and 
technologically advanced forest products industry.
    Why has the funding for the Forest Products Lab failed to keep pace 
with the growth in the Forest Research account?
    Answer. Growing needs in fire, watershed, and invasive species 
research emerged as agency priorities during the 1990s, and as a 
result, forest products utilization research did not grow as rapidly. 
Since fiscal year 2005, Forest Inventory and Analysis has received the 
highest priority for funding, leaving non-FIA research flat to 
declining in inflation-adjusted dollars. However, the future for 
research at the Forest Products Laboratory is bright. The FPL has 
refocused its program on the key areas critical to paper and wood 
related products with significant potential spin-off benefits for air, 
water, and fire technology development as well. Research into 
nanotechnology, advanced structures, advanced composites, bio-refining 
and small diameter tree utilization positions the FPL well for re-
emergence as the world's premier forest-based materials science 
facility. The President's fiscal year 2007 Budget provides an 
appropriate balance between Federal wood utilization research and that 
of the private sector.
    Question. Is it the administration's long-term vision that timber 
be harvested in the United States but processed elsewhere as the 
domestic industry becomes outdated?
    Answer. The administration supports sustainable forest management 
and use, as well as the need to improve the U.S. forest products 
industry through balanced public and private sector investments in 
research, new technologically advanced equipment, and up-to-date 
product processing facilities. The Forest Products Laboratory in 
Madison, WI, with funds provided by Congress, is continuing to provide 
important new technology to make the U.S. forest products industry 
globally competitive.
    Question. Why has the administration continued to underfund 
research into improved paper technology and safer, stronger, and more 
durable building materials?
    Answer. Paper and building materials technology has not been a high 
priority for Federal research in recent years. While these areas of 
research are considered important enough to continue to fund them in 
times of decreasing Federal discretionary funding, other research 
programs, such as Forest Inventory and Analysis, and fire and invasive 
species research have received focused increases.
    Question. Can we expect this funding trend to reverse itself before 
more Wisconsin jobs are lost?
    Answer. While Federal research investments can provide important 
long-term contributions to the national economy, market forces that are 
well beyond the control of the Forest Service will have a much greater 
impact on the level of private sector employment in any given State 
than a given year's modest increase or decrease of Forest Service 
research funding. Phase I of the $45 million FPL modernization 
initiative is in the fiscal year 2007 President's Budget. In addition, 
the FPL is building strong partnerships with industry in the 
development of alternative fuels that will help our Nation reduce its 
dependency on oil imports. These partnerships will certainly help build 
support internally and externally for the FPL.
    Question. How does the Forest Service intend to fund the 
implementation of the new Designated Routes and Areas off-highway 
vehicle rule?
    Answer. On November 9, 2005, the Department of Agriculture 
published a final travel management rule (36 CFR parts 212, 251, 261, 
and 295) governing the use of motor vehicles on National Forest System 
lands. The Forest Service believes that this rule represents a critical 
step in addressing unmanaged recreation, which is one of the four key 
threats to national forests and grasslands.
    The travel management rule requires each national forest to 
designate those roads, trails, and areas open to motor vehicle use by 
vehicle class and, if appropriate, by time of year. Decisions about 
which roads, trails, and areas should be designated will be made at the 
local level, with public participation and coordination with State, 
county, and tribal governments. The agency intends to complete route 
designation within the next 4 years. On most national forests, travel 
planning will require a substantial effort, including environmental 
analysis and documentation prepared in an open, collaborative process.
    Travel management is a key agency priority, and the Forest Service 
will prioritize its work and accomplish travel planning within the 
funds available. Travel management serves multiple purposes, and 
funding may be used from a variety of Forest Service appropriations 
depending on the primary purposes served at the local level.
    Question. Clearly the President's budget recommendation would 
severely decrease funding for the relevant Trails and Recreation 
budgets. What other sources of funding have been made available for the 
planning and implementation of this rule?
    Answer. The Forest Service estimates that it will spend between $15 
and $35 million per year over the next 4 years on travel planning. 
These obligations will occur within existing and available budget 
authority, so no new funding is necessary. Travel planning serves 
multiple purposes, and funding may be derived from a variety of Forest 
Service appropriations depending on the primary purposes served at the 
local level. Among the principal budget line items associated with 
travel planning are Roads; Trails; Recreation, Heritage and Wilderness; 
Wildlife and Fisheries Habitat Management; and Vegetation and Watershed 
Management.
    Question. I am also concerned about the Forest Service's effort to 
competitively source some of the jobs in the Service. I am concerned 
that the Service does not adequately track whether competitively 
sourcing jobs really saves the taxpayers money in the long run.
    How does the Forest Service track whether it saves money by 
competitively sourcing jobs?
    Answer. Contracting officers overseeing the various contracts are 
tracking the contractual costs of activities which have been outsourced 
to the private sector. This information is clearly tracked in the 
Integrated Acquisition System. Private sector contract costs are 
tracked through the routine contractor billing payment process as would 
occur with any private sector contract. The Competitive Sourcing 
Activities Savings and Performance Update (Section 647 Report) shows 
total accrued savings. This report is completed by comparing the actual 
performance costs with the projected costs of in-house performance.
    Question. Does the Service has a mechanism to allow government 
employees to compete for privately sourced jobs in the future, or is 
competitive sourcing a one way street?
    Answer. If a recompetition occurs for previous competed services 
under A-76 guidance and the recompetition is under A-76 guidance, then 
the agency could form a Most Efficient Organization (MEO) to compete, 
but this has not happened in the Forest Service to date.
    Question. How does the Service decide which jobs to compete, and 
how do you ensure that decisions that are inherently governmental are 
always made by government employees?
    Answer. At the USDA Forest Service, feasibility studies are used to 
determine what, if any, functional areas are likely to produce a 
significant performance or financial return on investment if submitted 
to further management analysis. The outcomes of such studies recommend 
whether or not to pursue a Business Process Reinvention (BPR), OMB 
Circular No. A-76 competition, some other business process improvement 
technique, or maintain the current status. The USDA Forest Service 
experience has shown that comprehensive feasibility studies offer the 
opportunity to identify holistic business units and the relationships 
they have with the entire organization. By looking at those commercial 
activities not yet examined in a collective fashion rather than piece 
by piece, the USDA Forest Service hopes to identify the best 
opportunities for improvement after all factors and impacts are 
considered. The feasibility studies, therefore, will take place over 
the period of the next several years, reviewing multiple program areas.
    Inherently governmental job activities that can only be performed 
by government employees are not competed under OMB Circular A-76.

                          SUBCOMMITTEE RECESS

    Senator Burns. The subcommittee will stand in recess to 
reconvene at 9:30 a.m., Thursday, March 30, in room SD-124, 
Dirksen Senate Office Building. At that time we will hear 
testimony from the Honorable Lynn Scarlett, Deputy Secretary, 
Department of the Interior.
    [Whereupon, at 10:35 a.m., Thursday, March 16, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 30.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Senator Conrad Burns (chairman) 
presiding.
    Present: Senators Burns, Allard, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

OPENING STATEMENT OF LYNN SCARLETT, DEPUTY SECRETARY, 
            DEPARTMENT OF THE INTERIOR
ACCOMPANIED BY:
        THOMAS WEIMER, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND 
            BUDGET
        PAM HAZE, CO-DIRECTOR, BUDGET OFFICE

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We will call the committee to order; Senator 
Dorgan may or may not show up. Depending upon what he figures 
the landscape is. I appreciate him and everything. I want to 
open up this morning, because in the Billings Gazette there's a 
story, and when I talk about public lands and why they're very 
important to us in Montana, and how they're handled and how 
they're managed, and all of this thing, one has to remember 
that the government would like to take credit for improved 
range conditions. But there was an organization that was 
started just after World War II, that was funded by the 
ranchers that had done most of the improvements on ground like 
BLM. It was called the Society for Range Management. Some of us 
will probably remember that organization and the work they did, 
conservation districts, and this type of thing, and they were 
primarily responsible for putting water in areas, where they 
had no water before, and improvements of the range and then 
they also established at that time range management studies at 
our Land grant colleges across the country. Anyway this morning 
there was a lady that had just passed away, in Garfield County. 
Garfield County is a huge county but it only has 900 hearty 
residents up there, in fact they only have one high school. 
That used to be a boarding school years ago, when you took your 
high school students to school on Monday morning you didn't see 
them until after the football game was over on Friday night. 
Now some folks would think that was a pretty good deal, but 
nonetheless when you live on ranches, you know you've got to 
have some help around, but they couldn't run buses because the 
county's so large and of course and very sparsely populated.
    But there was a lady who died she was 94 years old, in 
Garfield County, and I remember her and her mother, and even 
her father. Years ago they ranched out north of Sands Springs 
in the Missouri Breaks. When you were at the Pense Ranch you 
were outdoors. I mean it was just outside. When Mr. Pense died, 
he had a stroke, and was bedridden for 3 years. Their house had 
a dirt floor, they wet it down every morning, and swept it 
every morning, and in that huge kitchen was a big heat stove 
that sat on rocks, and a cooking range, and that was their 
heat. People say, well my gosh how cold in the winter it would 
get there, and I said well you know, basically it was warmer in 
that particular room, than in any room in any house you ever 
seen, because no cold air could get under it. Like if you had a 
floor and you had cold air under it, why your floor would get 
cold. I can remember those days as a kid on the farm. But 
basically it was very cozy and toasty, but I remember these two 
women, and how after Roy died how they carried on on that 
ranch. This is a pioneer family that is slowly slipping into 
our past, and they reach way back into the years where there 
was no electricity, there was no such thing as running water, 
or anything. They were really people of the land, and hearty 
people in a very very hard country as far as the elements were 
concerned. I don't think anybody has any appreciation; I used 
to do a lot of business with them when I was in Billings 
Livestock Commission Company, and Mrs. Pense would call you up, 
and she had lost her hearing, the mother had, and she used to 
call up and she used to just yell into the telephone, and we're 
sending you a load of cattle, when I at Billings Livestock 
Commission Company, now they couldn't ride horses, and they had 
no way, and they hired no one. So what they would do, what 
cattle they had on the ranch they would lure them into traps 
with feed, and then they'd close the gate, and call up a man 
that was in the trucking business in Jordan, Montana, and he'd 
come out, so whatever walked off of that truck was what you 
got. It was just anything and everything.
    But I just wanted to make note of that, and that it be in 
the record, because I was saddened by her passing. But 94 is a 
long life, and especially under the conditions that those folks 
live in, up on the Missouri River, that runs across the 
northern part of the State, into the Missouri Breaks, what we 
call the Missouri Breaks. You'll remember there was a movie 
with Marlon Brando that come out years ago with that name, the 
Missouri Breaks, it was a horse story. It was horses--they used 
to bring a lot of horses out from Canada, across through the 
Missouri Breaks on their way to Mile City, because Mile City, 
Fort Keogh there was a remount station for the Army.
    So the history of that country is very interesting, but I'm 
sad to see that Little Rosie has passed on, and slipped into 
the past and so it's a passing of an era that we have to live 
with in Montana. It's kind of the history of our State.
    Thank you for coming this morning, subcommittee. We're to 
discuss the Interior's fiscal year 2007 budget.
    I'd like to welcome our three witnesses: Lynn Scarlett, 
Deputy Secretary of the Interior, nice to have you with us this 
morning; Thomas Weimer, Assistant Secretary for Policy, 
Management, and Budget; and of course Pam Haze Co-Director of 
the Budget Office. So we welcome you here this morning.
    The request for the Department totals about $10.5 billion--
$9.6 billion of which is under this subcommittee's 
jurisdiction, this amounts to about a 1.8 percent decrease 
compared to the fiscal year 2006. Of course there are some of 
us on the committee that have a little bit of a problem with 
that, but I think we can work through it and still stay with 
what the President wants to do. It all boils down to 
priorities, where we spend our money, where we don't spend our 
money.
    In the context of the broader budget situation and our 
emphasis on defense and homeland security this reduction may 
not sound so dramatic but as we get into the details, it's 
obvious we're going to have some issues with the Department's 
budget as we go forward. For example, after years of ramping up 
the PILT program to get closer to its authorized level, this 
budget proposes to slash it by $35 million--from $233 million 
back to $198 million. That would be the lowest level of funding 
for this program since fiscal year 2000. As a former county 
commissioner myself, I can tell you that is going in the wrong 
direction.
    There are a number of other reductions that concern me. The 
Construction accounts of the Park Service and Fish and Wildlife 
Service have been cut by $85 million and $26 million, 
respectively. Funding for Indian school construction has been 
cut by $49 million.
    In the Wildland Fire budget, the fuels reduction program is 
proposed to be cut by $8.3 million and the rural fire 
assistance program that gives grants and technical assistance 
to local firefighting departments is reduced by $10 million. I 
think that is short-sighted, and I'll tell you why these local 
departments are frequently the first ones to arrive at a fire 
and they often put them out before they turn into disasters 
that can cost tens of millions of dollars. I'm happy to see 
that some important programs in the budget are proposed to 
receive significant increases.
    For example, $26.5 million in the Bureau of Land Management 
and $11.3 million in the Minerals Management Service--both for 
the purpose of enhancing domestic oil and natural gas 
production, on and offshore. I know that the BLM has had an 
enormous increase in the number of Applications for Permits to 
Drill (APD's) over the last few years so I think it's wise that 
you've added money to address this workload. By processing more 
APD's we not only provide more oil and gas to the marketplace 
but also provide more royalties to the States and the Federal 
Treasury. I think a lot of folks don't realize how important of 
a money maker minerals management is. In fact it's about the 
only one in the Federal Government that does make money. So the 
investment there is welcomed and I think it's important.
    Other important program increases include $25.4 million for 
Indian land consolidation to reduce the growing fractionation 
of Indian interests in lands. If we don't begin to get control 
of this dramatic increase, the Federal Government will continue 
to struggle in meeting its trust responsibilities to the Indian 
community.
    Finally, the fire suppression budget is proposed to receive 
an increase of $26.3 million. While I believe it is wise to 
budget for the 10-year average for fire suppression costs as 
the Department has done, I'd like to see this number start to 
come down as we do more fuels reduction projects to reduce fire 
danger. I'd also like to hear what administrative measures you 
have put in place, or plan to put in place, to reduce our 
skyrocketing firefighting costs. I get the feeling every now 
and again that that's a cottage industry, that just--that is 
just skyrocketing out of control.
    Before I conclude my remarks, I'd like to thank the folks 
at the Department of the Interior who are helping us deal with 
a serious problem we have with wolf predation in Eastern 
Montana. Wolves have recently killed or wounded dozens of sheep 
in McCone and Garfield Counties. We just can't afford that. I 
mean when you lose 40 or 50 head of sheep you know, one wolf, I 
think there's got to be two, but I'm guessing, that's purely 
speculation, why we think we've got a big problem. In other 
words, ranching business is tough enough without taking a loss 
like that.
    I sent a letter to the Secretary asking for help in dealing 
with this problem. The Department clarified that State wildlife 
officials and affected ranchers had the authority to shoot 
those predators that are preying on livestock. I appreciate how 
quickly the Department responded to my request and how well 
your people have worked with State and local officials, as well 
as the ranching community, to address this issue. I really 
appreciate that.
    We have a busy committee schedule this morning, so I'll 
stop here and simply say thank you all for appearing here 
today. I look forward to hearing your testimony and discussing 
the Department's 2007 budget with you. Ms. Scarlett, thank you 
very much and we're looking forward to your testimony. Oh I'm 
sorry. Senator Allard, you're pretty stealthy this morning.
    Senator Allard. Mr. Chairman, I snuck in while you had your 
back turned.
    Senator Burns. That's the way it always happens.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I just have a brief comment or two, first 
of all I want to thank you for holding the hearing today, Mr. 
Chairman. I am also pleased to have a chance to discuss the 
budget for the Department of the Interior, and even though 
she's not with us here today, I would also like to recognize 
Secretary Gale Norton, and her efforts at the Department and 
under her guidance, the Department has made many strides 
forward. I think she has done an exceptional job in handling an 
agency that's very important to Colorado and the Nation. 
Specifically I want to thank her for the work that she and the 
rest of the administration has done to protect State water 
rights and to foster an atmosphere of cooperation and 
impressive mandates.

                           PREPARED STATEMENT

    I think that we're all aware that this is going to be 
another tough budget year Mr. Chairman, and that's why hearings 
such as this are so important. So I look forward to working 
with you and the rest of the committee again this year, Mr. 
Chairman, to see that worthy projects and programs continue to 
be funded in a responsible manner. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard

    Thank you, Chairman Burns, for holding this important hearing. 
Colorado's abundance of forests make this a very significant hearing to 
me.
    Undersecretary Rey and Chief Bosworth, I thank you for your 
appearance before the subcommittee today, it is good to see both of you 
again. The role the Forest Service plays in managing our public lands 
is of particular interest to the people of Colorado.
    I hope the committee will indulge me as I am about to brag about my 
home State for a moment. I think that I am one of the luckiest people 
in Washington D.C. Not only do I get to serve the people of Colorado, 
but I am fortunate enough to have incredibly beautiful and unique lands 
in my home State. Colorado is home to 13 National Forests. This is more 
than almost any other State. These forests provide countless scenic 
vistas, unequaled hunting, fishing, and camping opportunities, and the 
Nation's most popular skiing. In fact not only does the nation's most 
visited ski resort lie in Colorado, but 3 of the top 5 most visited ski 
areas call Colorado home.
    But the importance of Colorado's forests goes far beyond 
recreational opportunities. Our National Forests are a cornerstone of 
Colorado's economy. Hunting and fishing alone contribute over $1 
billion to Colorado's economy every year, with much of this money going 
to rural communities. This and other forest related industries pump 
billions of dollars into Colorado's economy and employ one of the 
states largest segments of the workforce.
    But perhaps the most important thing is that Colorado's forests 
also contain 4 major watersheds, the Arkansas, Upper Colorado, Rio 
Grande and Missouri (or South Platte), that supply water to 19 western 
states. Colorado can truly be called the Headwaters State. With the 
obvious exception of Hawaii it is the only State where all of the 
rivers flow out of the State's borders.
    Now I have to turn to the bad news. Areas of the State continue to 
suffer from drought conditions, and the potential for catastrophic 
fires is very high again this year.
    To compound this problem Colorado currently has 1.5 million acres 
that are suffering from the effects of beetle kill.
    Timber sales are thought by many resource managers to be the single 
most effective tool available to the Forest Service to mitigate 
against--or treat during--episodes like bark beetle epidemics. But the 
Forest Service doesn't seem to be getting enough money to the national 
forests in Colorado to combat the problem. We've got a sawmill in 
Montrose that's running at half capacity and another one just across 
the State line in Saratoga, Wyoming, that's closed because they don't 
have enough timber.
    That said, I support the proposed increase in the forest products 
line item and applaud the emphasis on forest plan implementation. I 
will have a question regarding this matter when we get to that portion 
of this hearing.
    Thank you again, Mr. Chairman.

    Senator Burns. Now we'll hear from Ms. Scarlett though, 
thank you very much for coming this morning we look forward to 
your testimony.

                SUMMARY STATEMENT OF HON. LYNN SCARLETT

    Ms. Scarlett. Mr. Chairman and members of the subcommittee, 
thank you for this opportunity to present the President's 2007 
budget for the Interior Department. I thank you for accepting 
my testimony on behalf of Secretary Gale Norton, tomorrow will 
be her last day at the Interior Department. I would also like 
to acknowledge her outstanding leadership and service to the 
American public and this Nation. As we look forward to the 
confirmation of our next Secretary of the Interior, I want you 
to know that I will do my best in the interim to guide the 
Department, fulfill its responsibilities and work with the 
Congress to serve the public.
    I have with me today, Assistant Secretary for Policy, 
Management, and Budget Tom Weimer, and also Pam Haze our Deputy 
Budget Director, who will be taking the place of John Trezise 
who announced he will be retiring after 35 years with the 
Department.
    Mr. Chairman, Interior's responsibilities are vast and 
varied. We face challenges that come with the obligation to 
provide energy, recreation opportunities, water, stewardship of 
this Nation's unique natural, cultural and historic places. We 
face the complexities of Indian Trust Management and the 
fulfillment of our Indian Trust Responsibilities.
    Our budget request for programs funded in the Interior 
Appropriations Act is $9.6 billion. This is $191 million or 1.9 
percent below the 2006 enacted level. Amidst this set of 
complex and extensive responsibilities we set several key goals 
in our budget. First, recognizing the importance of fiscal 
prudence, we are striving to restrain budget spending to help 
halve the deficit by 2009 as President Bush has pledged.
    Within these constraints we propose to fund $126 million 
for fixed cost increases which covers 70 percent of anticipated 
2007 pay raises. Second we seek to implement Energy Policy act 
provisions and help meet the energy needs of the nation. Our 
budget includes $68 million for energy programs--that is a $44 
million increase over 2006.

                                 ENERGY

    As you are aware we have seen a doubling of natural gas 
spot prices since 2004, resulting for farmers in a 100 percent 
increase in their fertilizer costs. One of the best 
opportunities in the near term to augment domestic natural gas 
supplies is on Bureau of Land Management lands. Basins in five 
western States contain an estimated 139 trillion cubic feet of 
natural gas--enough to heat 55 million homes for almost 30 
years. A $9 million increase for the Bureau of Land Management, 
coupled with improved management will enable the Bureau of Land 
Management to improve inspection and monitoring and process a 
record 12,000 applications for permits to drill, that is more 
than double the number received in 2003.

                        COOPERATIVE CONSERVATION

    Mr. Chairman, the Interior Department also holds 
significant conservation responsibilities; we propose to 
maintain a strong conservation commitment through cooperative 
conservation, placing partnerships and citizen stewardship at 
the center of our efforts. Our 2007 budget includes $322 
million for Cooperative Conservation programs. That is an 
increase of $10 million over 2006. We believe these grant 
programs are not simply nice to do, they are essential if we 
are to fulfill our endangered species act responsibilities and 
achieve the Nation's conservation goals.
    Over 80 percent of species reside on non Federal lands. 
Water flows across public and private lands, invasive weeds 
know no jurisdictional boundaries. These grants make a big 
difference, our Private Stewardship and Landowner Incentive 
grants have funded some 900 projects with 1,500 partners. We 
propose to fund these two programs at $34 million. In addition 
to joining with citizen stewards to protect wildlife and 
habitat, Interior is steward of our Nation's historic and 
cultural legacy. The 2007 budget includes $32 million for 
locally focused historic preservation and heritage tourism. We 
propose combining the Preserve America program, Save America's 
Treasures and the Heritage Partnership program under a unifying 
theme.

                        INDIAN TRUST MANAGEMENT

    A third priority is to improve Indian Trust Management and 
fulfill our trust responsibilities to Indian Country. From 2001 
to 2006, Interior will have invested $3.4 billion to manage, 
reform, and improve Indian Trust programs. This investment is 
making a difference. We re-engineered trust business practices, 
and in addition, are generating the first comprehensive rewrite 
of regulations in at least 30 years.
    The 2007 budget will invest an additional $537 million in 
trust programs. That is a net program increase of $30 million 
over the 2006 appropriation. This request includes an increase 
to reduce the backlog in probate cases, and it also increases 
our ability to make improvements in the cadastral survey of 
Indian lands. The budget includes an increase of $25 million in 
the Indian Land Consolidation program bringing the total of 
that program to $60 million.
    We are targeting that program to our most highly 
fractionated tracts at 10 specific locations. We also are 
continuing to improve our work on historical trust accounting. 
We have ample evidence that most monies collected for 
individual Indians were distributed in the correct amounts to 
the correct recipients.
    The budget requests $56 million for Historical Accounting--
that is the same as was appropriated in 2006. The ability of a 
Tribe to contract or compact for Bureau of Indian Affairs 
operated programs is a key factor in strengthening Indian self-
determination. Tribes indicate that lack of full funding for 
administrative and management costs is a deterrent to 
contracting.
    To address this concern the 2007 budget includes a $19 
million increase to fully fund indirect contract support costs.

                                HAZARDS

    One additional priority merits special attention. 
Recognizing the many challenges presented by natural hazards, 
we propose to enhance hazards information, relevance, and 
dissemination. More Americans are now at risk of experiencing 
severe impacts of natural hazards than at any other time in our 
Nation's history. The budget for USGS includes a multi-hazards 
pilot initiative funded by a $2 million increase and a $4 
million redirection through workforce restructuring.

                               LANDSAT 8

    The 2007 budget also includes a $16 million increase to 
complete the design and start work on development on the ground 
system for a new earth observing satellite, Landsat 8.
    As I conclude, let me underscore that fulfilling our 
responsibilities is not simply about more dollars, it is about 
better management.

                               MANAGEMENT

    Management remains a major focus with significant progress. 
In the realm of information technology for example, despite 
some reports in the media, we have made major progress. We 
hired an outside entity to rate us and the results of that 
report were that our security was adequate. We are however 
continuing to work with our Inspector General to focus on 
additional priority areas of concern that he has identified.

                           PREPARED STATEMENT

    Mr. Chairman, Senator Dorgan and other members of this 
subcommittee I look forward to working with you and would be 
happy to answer any questions.
    Senator Burns. Thank you very much. Are you the only one 
that's going to make statements this morning?
    Ms. Scarlett. Yes.
    [The statement follows:]

                Prepared Statement of Hon. Lynn Scarlett

    Good morning. Thank you for inviting me to discuss the fiscal year 
2007 budget for the Department of the Interior. I appreciate the 
opportunity to highlight our priorities and key goals.
    Through its multi-faceted mission and geographically dispersed 
services, Interior maintains and improves the Nation's natural and 
cultural resources, economic vitality, and community well being. 
Interior's 70,000 employees and 200,000 volunteers live and work in the 
communities, large and small, that they serve. They deliver programs 
through partnerships and cooperative relationships that engage and 
include States, Tribes, local communities, citizens, groups, and 
businesses.
    The challenges of the Interior Department cut a broad swathe, with 
their breadth indicative of the complexity and extent of Interior's 
mission. They are also indicative of Interior's presence at 2,400 
locations from which we manage one in every five acres of the United 
States.
    We face the complexity of working with seven states to manage 
Colorado River waters. We encounter the inevitable challenges of 
providing recreation opportunities, access to energy resources, and 
preservation of the Nation's unique natural, cultural and historic 
resources. We work with 561 Indian tribes. We respond to emergencies 
such as Hurricanes Katrina and Rita, applying the expertise of our 
incident command teams coordinated out of the National Interagency Fire 
Center. We face the challenges that come from transitioning away from 
costly, duplicative financial and business management systems that 
include over 107 real property data bases, 16 financial systems, and 27 
acquisition systems.
    Facing these challenges requires more integrated management and an 
integrated strategic plan. The plan defines four mission categories-
resource protection, resource use, recreation, and serving communities. 
Partnerships, management excellence, and science provide the 
foundations for achieving our four mission goals and serving the public 
well.
    Using the strategic plan as a road map, the Department met or 
exceeded goals for 69 percent of its annual performance measures in 
2005. Since 2001, the Department has:
  --Completed nearly 6,000 national park facility improvements and 
        maintained high park visitor satisfaction rates, according to 
        surveys;
  --Helped meet the Nation's energy needs by nearly doubling annual 
        energy permit processing on Federal lands;
  --Advanced cooperative conservation through Private Stewardship and 
        Landowner Incentive grants that have funded 943 projects with 
        1,466 partners;
  --Protected habitat on 8.8 million acres managed through 
        partnerships; and
  --Improved forest health on 5.6 million acres of Interior-managed 
        lands through the Healthy Forests Initiative, a 108 percent 
        increase over the previous five years.
    We crafted our 2007 budget through a broad analysis of base 
programs, consideration of cost and performance information, financial 
information, staffing, and the budgetary benefits of more effective and 
efficient utilization of resources. These efforts shaped the budget by 
highlighting the effect of resource allocation decisions on strategic 
goals and identifying opportunities to realign priorities and improve 
efficiency.
    The 2007 budget seeks to maintain performance across the 
Department's strategic plan goals and improve performance in areas that 
are high-priority Administration initiatives, within the context of the 
President's commitment to reduce the deficit by more than half by 2009. 
The 2007 budget incorporates Program Assessment Rating Tool reviews and 
program evaluations that assess whether programs are well-managed and 
have clear goals.
    Although the details of the respective missions of Interior's 
bureaus and offices differ, the central focus is the same. A focus on 
excellent performance requires mission clarity, good metrics, and 
management excellence. Management excellence requires a focused 
approach to maintaining and enhancing program results, making wise 
management choices, routinely examining the effectiveness and 
efficiency of programs, finding effective means to coordinate and 
leverage resources, and continuously introducing and evaluating process 
and technology improvements.
    The 2007 budget reflects the Department's commitment to these 
management strategies and management excellence.

                            BUDGET OVERVIEW

    The 2007 budget request for current appropriations is $10.5 
billion. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress will 
provide an additional $5.6 billion, for a total 2007 Interior budget of 
$16.1 billion.
    The 2007 current appropriations request is a decrease of $392.2 
million, or 3.6 percent below the 2006 funding level. If emergency 
hurricane supplemental funding is not counted, the 2007 request is a 
decrease of $321.9 million or 2.9 percent below the 2006 level.
    For programs funded by this Subcommittee, the 2007 request includes 
$9.6 billion, a decrease of $190.9 million, or 1.9 percent from the 
2006 level, excluding the emergency hurricane supplemental.
    Receipts collected by the Department in 2007 are projected to be 
$17 billion, an increase of $99.4 million over 2006. That amount is 
$6.5 billion more than Interior's current appropriations request and 
nearly $1 billion more than the total 2007 Interior budget.

                            2005 HURRICANES

    In addition to the funds requested in the budget, on February 16, 
2006, the President sent the Congress a supplemental funding request 
for hurricane recovery. The supplemental includes $216 million for 
Interior agencies. With these funds, Interior's agencies will conduct 
clean-up and debris removal and repair and reconstruction of facilities 
at park units, refuges, and USGS science facilities. The request 
includes funds to repair levees, dikes, and water control structures 
that provide wildlife habitat and support flood control for New 
Orleans. These actions will allow us to open roads, bridges, and trails 
to the public, repair visitor centers and exhibits, and reconstruct 
water control structures to host migratory bird populations and other 
wildlife. The supplemental also includes funding for MMS to restore its 
operations in New Orleans.

                       MAINTAINING CORE PROGRAMS

    The Department manages over 500 million acres and some 40,000 
facilities at 2,400 operating locations. These responsibilities engage 
Interior as a principal manager of real property and other assets that 
require ongoing maintenance, direct services to public lands visitors, 
and ongoing activities to ensure public access, use, and enjoyment.
    In order to deliver these services, the 2007 budget includes 
funding for pay and health benefits, other nondiscretionary cost 
increases for workers, unemployment compensation payments, rental 
payments for leased space, and operation of centralized administrative 
and business systems. Providing for these costs will allow the 
Department to maintain performance across strategic goals, improve 
performance in priority areas, and effectively serve the public.
    The budget includes $125.9 million for nondiscretionary, fixed cost 
increases. Of this total, two-thirds, or $82.5 million, will cover 70 
percent of anticipated 2007 pay raises. The budget assumes a January 
2007 pay increase of 2.2 percent.
    In addition to paying for nondiscretionary fixed costs, the budget 
includes focused investments for tools to enable the department's 
employees to do their jobs more efficiently and generate long-term cost 
savings, including implementation of standardized systems and 
streamlined business practices. One of these investments is the 
Financial and Business Management System. The 2007 budget includes 
$22.2 million to continue deployment of this integrated financial and 
business management system that will facilitate the retirement of 
duplicative, outdated legacy systems.

                        PROGRAMMATIC HIGHLIGHTS

    The 2007 budget maintains and improves performance across the 
Department's strategic goals to achieve healthy lands and water, 
thriving communities, and dynamic economies throughout the Nation. Key 
goals for 2007 include:
  --Enhancing America's energy supplies through responsible energy 
        development and continued implementation of the Energy Policy 
        Act;
  --Building on successful partnerships across the country and 
        expanding opportunities for conservation that leverage Federal 
        investments;
  --Continuing to advance trust reform;
  --Coordinating existing efforts under a unified program that focuses 
        on high-priority historic and cultural protection under the 
        Preserve America umbrella;
  --Preventing crises and conflicts over water in the West through 
        Water 2025;
  --Continuing to reduce risks to communities and the environment from 
        wildland fires; and
  --Providing scientific information to advance knowledge of our 
        surroundings.
    As part of the President's effort to reduce the budget deficit by 
half over five years, the 2007 budget for the Department makes 
difficult choices to terminate or reduce funding for programs that are 
less central to the Department's core missions, have ambiguous goals, 
duplicate activities of other agencies, or require a lower level of 
effort because key goals have been achieved. Terminations and 
reductions include lower priorities and earmarks enacted in 2006. For 
example, the 2007 budget reduces funding for the Land and Water 
Conservation Fund State Assistance Grant program. These grants support 
State and local parks that have alternative sources of funding through 
State revenues and bonds. In addition, a PART review found the current 
program could not adequately measure performance or demonstrate clear 
results.

                           ENERGY DEVELOPMENT

    The Department's energy programs play a critical role in providing 
access to domestic oil, gas, and other energy resources. To enhance 
domestic production, the 2007 budget proposes an increase of $43.2 
million to implement the Energy Policy Act of 2005 and continue 
progress on the President's National Energy Policy. In total, the 
budget includes $467.5 million for the Department's energy programs.
    APD Processing--In 2003, under Energy Policy and Conservation Act 
requirements, the Department issued a report identifying five basins in 
Montana, Wyoming, Utah, Colorado, and New Mexico as containing the 
largest onshore reserves of natural gas in the country and the second 
largest domestic resource base after the Outer Continental Shelf. These 
onshore basins contain an estimated 139 trillion cubic feet of natural 
gas, enough to heat 55 million homes for almost 30 years. These 
resources offer the best opportunity to augment domestic energy 
supplies in the short term-an important step to moderating the doubling 
we have seen in natural gas spot prices since 2005. Those price 
increases have resulted in 100 percent increases for farmer's 
fertilizer costs; over 20 percent increases in transportation costs for 
some schools; and have deterred investment by some high-paying 
manufacturers in the United States.
    Before any leasing for oil and gas production can occur on the 
public lands in these areas, the Bureau of Land Management must have a 
land-use plan in place. Beginning in 2001, with the support of 
Congress, BLM initiated the largest effort in its history to revise or 
amend all of its 162 resource management plans. Within areas designated 
in plans as appropriate for mineral development, BLM has made a 
concerted effort to bring additional oil and gas supplies to market. In 
2002, 2.1 Tcf were produced from Federal, non-Indian lands. In 2003 and 
2004, 2.2 Tcf and 3.1 Tcf, respectively, were produced from these 
lands.
    The BLM is experiencing a steady increase in the demand for 
drilling permits. In 2000, BLM received 3,977 applications for permits 
to drill. In 2005, BLM received 8,351 APDs. The bureau estimates that 
in 2006, it will receive in excess of 9,300 permit applications, more 
than double the number processed five years ago. To address this 
demand, BLM has taken steps to ensure that drilling permit applications 
are processed promptly, while at the same time ensuring that 
environmental protections are fully addressed. These measures, along 
with increased funding, have allowed BLM to make significant progress 
in acting on permit applications. In 2005, BLM processed 7,736 
applications, nearly 4,000 more than it was able to process in 2000.
    Section 365 of the Energy Policy Act established a pilot program at 
seven BLM field offices that currently handle 70 percent of the 
drilling permit application workload. The pilot program is testing new 
management strategies designed to further improve the efficiency of 
processing permit applications. The Energy Policy Act provides enhanced 
funding for the pilot offices from oil and gas rental receipts. During 
2006, with more efficient processes and authorities and funding 
provided through Section 365, BLM anticipates processing over 10,000 
permits.
    The efforts of BLM have achieved significant results. Almost 4,700 
new onshore wells were started in 2005. This level of activity is 56 
percent higher than in 2002.
    For 2007, the budget proposes an increase of $9.2 million to focus 
on the oil and gas workload in BLM's non-pilot offices, which are also 
experiencing a sharp and sustained increase in the demand for APDs. 
This increase will provide $4.3 million for drilling permit processing 
and $2.8 million for inspection and enforcement activities. It will 
also provide $2.1 million for monitoring activities. The budget also 
includes $471,000 for the Fish and Wildlife Service to increase 
consultation work with the non-pilot offices.
    With the funding proposed for 2007, we expect that BLM pilot and 
non-pilot offices will collectively be capable of processing nearly 
12,000 APDs and conducting over 26,000 inspections in 2007.
    The budget assumes continuation through 2007 of the enhanced 
funding for pilot offices from oil and gas receipts to facilitate a 
smooth transition to funding from drilling permit processing fees, 
effective September 30, 2007. Legislation to be proposed by the 
Administration will allow a rulemaking to phase in full cost recovery 
for APDs, beginning with a fee amount that will generate an estimated 
$20 million in 2008, fully replacing the amount provided by the Energy 
Policy Act.
    Alaska North Slope--The most promising area for significant long-
term oil discoveries and dramatic gains in domestic production in the 
United States is the Alaska North Slope. The U.S. Geological Survey 
estimates a 95 percent probability that at least 5.7 billion barrels of 
technically recoverable undiscovered oil are in the ANWR coastal plain 
and five percent probability of at least 16 billion barrels. USGS 
estimates the mean or expected value is 10.36 billion barrels of 
technically recoverable undiscovered oil. At $55 a barrel, more than 90 
percent of the assessed technically recoverable resource estimate is 
thought to be economically viable. At peak production, ANWR could 
produce about one billion barrels of oil a day, about 20 percent of our 
domestic daily production and more oil than any State, including Texas 
and Louisiana.
    The 2007 budget assumes the Congress will enact legislation in 2006 
to open ANWR to energy exploration and development with a first lease 
sale held in 2008 and a second in 2010. The budget estimates that these 
two lease sales will generate a combined $8.0 billion bonus revenues, 
including $7.0 billion from the 2008 lease sale.
    The 2007 budget includes an increase of $12.4 million for BLM 
energy management activities on the Alaska North Slope. The additional 
funds will support the required environmental analyses and other 
preparatory work in advance of a first ANWR lease sale in 2008. The 
requested increase will also support BLM's leasing, inspection, and 
monitoring program in the National Petroleum Reserve-Alaska and BLM's 
participation in the North Slope Science Initiative authorized by the 
Energy Policy Act. In addition, a significant share of the $12.4 
million increase will be used by BLM to respond to the environmental 
threat posed by abandoned legacy wells and related infrastructure on 
the North Slope.
    Outer Continental Shelf Development--Deepwater areas of the Gulf of 
Mexico currently account for 17 percent of domestic oil and six percent 
of domestic gas production. However, over the next decade, oil 
production in the Gulf is expected to increase by 43 percent and 
natural gas by 13 percent. The increase will come from deepwater and 
greater depths below the ocean floor. The 2007 budget includes an 
increase of $2.1 million for OCS development, to allow MMS to keep pace 
with the surge in exploration and development in the deepwater areas of 
the Gulf and $1.5 million for OCS environmental impact statements on 
future lease sales.
    New Innovations in Energy Development--The 2007 budget includes an 
increase of $6.5 million for MMS's new responsibilities under the 
Energy Policy Act for offshore renewable energy development. MMS will 
establish a comprehensive program for regulatory oversight of new and 
innovative renewable energy projects on the OCS, including four 
alternative energy projects for which permit applications were 
previously under review by the U.S. Army Corps of Engineers.
    Oil shale resources represent an abundant energy source that could 
contribute significantly to the Nation's domestic energy supply. Oil 
shale underlying a total area of 16,000 square miles in Colorado, Utah, 
and Wyoming represents the largest known concentration of oil shale in 
the world. This area may contain in place the equivalent of 1.2 to 2 
trillion barrels of oil, several times the proven oil reserves of Saudi 
Arabia. The budget proposes a $3.3 million increase, for a total 
program of $4.3 million, to enable BLM to accelerate implementation of 
an oil shale development program leading to a commercial leasing 
program by the end of 2008, in compliance with section 369 of the 
Energy Policy Act. This request is accompanied by $500,000 budgeted for 
USGS to determine the size, quality, and quantity of oil shale deposits 
in the United States.
    Gas hydrates, found in some of the world's most remote regions such 
as the Arctic and deepwater oceans, could dramatically alter the global 
balance of world energy supply. The estimated volume of natural gas 
occurring in hydrate form is immense, possibly exceeding the combined 
value of all other fossil fuels.
    The 2007 budget includes a $1.9 million package of increases for 
gas hydrate research and development by MMS, BLM, and USGS. This will 
fund a coordinated effort in the Gulf of Mexico and the North Slope of 
Alaska to accelerate research, resource modeling, assessment, and 
characterization of hydrates as a commercially viable source of energy.

                      PARTNERSHIPS IN CONSERVATION

    The 2007 budget proposes $2.6 billion for resource protection 
activities that improve the health of natural landscapes, sustain 
biological communities, and protect cultural and heritage resources. 
Key initiatives in resource protection include:
    Cooperative Conservation Programs--At field locations throughout 
the country, bureau employees and volunteers are learning by doing, 
working side-by-side with neighbors, and tapping into best practices 
from others working on similar issues. By working with local 
communities, Interior employees benefit from local knowledge, ideas, 
and assistance to achieve conservation results that can transcend 
jurisdictional boundaries. At the national level, conservation 
partnerships leverage resources, broaden our knowledge base, and help 
coordinate actions to achieve strategic goals. These grants are a 
central conduit for implementing the Department's ESA responsibilities, 
since over 80 percent of endangered and threatened species are found on 
non-federal lands.
    Under the broad framework of Executive Order 13352, the Chairman of 
the White House Council on Environmental Quality convened a White House 
Conference on Cooperative Conservation. The Departments of the 
Interior, Agriculture, Commerce, and Defense, and the Environmental 
Protection Agency co-hosted the event. On August 29-31, 2005, 
representatives from the public and private sectors convened in St. 
Louis, Missouri to discuss the advancement of this cooperative 
conservation vision. The conference emphasized the need to create a 
culture of responsibility to enhance opportunities for citizen stewards 
to work together. To improve its partnering efforts in cooperative 
conservation, the Department is developing and utilizing government 
tools that inspire and complement citizen stewardship and environmental 
entrepreneurship.
    From 2002 through 2006, Interior's conservation partnership 
programs have provided $2.1 billion. These programs leverage Federal 
funding, typically providing a non-Federal match of 50 percent or more. 
The 2007 budget includes $322.3 million to support continued 
partnership success through a suite of grant and technical assistance 
programs.
    The FWS administers natural resource grants to governmental, 
public, and private organizations, groups, and individuals that focus 
on at-risk species and their habitats. The Landowner Incentive and 
Private Stewardship programs are funded at a total of $33.8 million, an 
increase of $4.9 million from 2006. Through these programs, Interior 
employees work with States, Tribes, communities, and landowners to 
provide incentives to conserve sensitive habitats, while maintaining 
the fabric of the local communities and continuing traditional land 
management practices such as farming and ranching.
    The North American Wetlands Conservation Fund, the Cooperative 
Endangered Species Conservation Fund, and State and Tribal Wildlife 
grants program are funded at a total of $196.3 million, an increase of 
$9.4 million over 2006. This includes a $7.2 million increase for State 
and Tribal Wildlife Grants, which contains $5 million for a new 
competitive component of the program.
    Challenge cost share programs in the Fish and Wildlife Service, the 
National Park Service, and the Bureau of Land Management are funded at 
$20.3 million. These cost share programs give the land management 
agencies opportunities to work together and with adjacent communities, 
landowners, and other citizens to achieve common conservation goals. 
The 2007 proposal represents an increase of $1.6 million.
    The Fish and Wildlife Service budget also includes $11.8 million, 
an increase of $1.0 million, for joint ventures. The increase will 
result in a 1.1 million acre increase in the number of acres of 
landscapes and watersheds managed through partnerships and networked 
lands. The budget includes $13.0 million for the Coastal program, 
providing an increase of $604,000 for general program activities to 
address the growing demand for habitat conservation activities for FWS 
trust species. In 2007, coastal program activities will also expand to 
address the decline of aquatic habitat in areas such as the Gulf Coast, 
affected by Hurricanes Katrina and Rita.
    Sustaining Biological Communities--The Department's 2007 budget 
request includes $60.0 million for invasive species and continues the 
government-wide, performance-based crosscut budget effort that began in 
2004. The budget provides an increase of $994,000 for work in three 
priority geo-regional areas: South Florida, the Northern Great Plains, 
and the Rio Grande River Basin. The 2007 budget will focus on invasive 
species that present significant threats to ecosystem health, including 
lygodium, leafy spurge, and tamarisk.
    National Fish Habitat Initiative--The Fish and Wildlife Service has 
brought together States, Tribes, and others to develop a coordinated 
plan to implement a geographically-focused, partnership effort to 
protect, restore, and enhance aquatic habitats and reverse the decline 
of fish and aquatic species. The 2007 budget includes $3.0 million for 
the National Fish Habitat Initiative, an increase of $2.0 million. This 
effort is modeled on the North American Waterfowl Management Plan Joint 
Ventures and will harness the energies and expertise of existing 
partnerships to improve aquatic habitat health.
    Klamath River Basin--The 2007 budget includes $63.4 million for 
Klamath Basin restoration activities, a $7.8 million increase over 
2006. Through the Partners for Fish and Wildlife program, FWS will 
restore stream channel and riparian habitat in the Upper Klamath Basin 
partnering with local landowners, conservation organizations, and other 
Federal entities to improve habitat for species such as bull trout and 
restore lakeshore wetlands for Lost River and shortnose suckers.
    In 2007, through its Partners program, FWS will begin a new $2.0 
million Lower Klamath Basin initiative. Funding will be used to provide 
fish passage on tributaries; fencing for riparian areas along streams; 
assessment and monitoring of disease, particularly in juvenile fish; 
and restoration of stream channels from former mining excavations. The 
2007 budget also includes $3.5 million to acquire and restore 
agricultural lands adjacent to Upper Klamath Lake to provide quality 
habitat for larval and juvenile suckers and a host of native 
waterbirds, improve water quality for the lake and downstream 
anadromous fish, and increase water storage in the lake.

                            INDIAN PROGRAMS

    Trust Responsibilities--The budget provides $536.0 million to 
continue the Department's ongoing efforts to reform management of its 
fiduciary obligations to Tribes and individual Indians, to continue 
historical accounting efforts for trust funds, and to reduce the 
exponentially growing costs of maintaining fractionated interests of 
Indian lands.
    The 2007 budget continues funding for efforts initiated in 2002 to 
re-engineer trust business processes. The comprehensive changes 
underway are intended to bring about dramatic improvements in the 
management of fiduciary trust assets and better meet the needs of 
individual Indians and Tribes. A comprehensive and systematic plan 
known as the Fiduciary Trust Model is guiding reform efforts, including 
reorganization of Interior's fiduciary trust offices to improve service 
delivery and enhance accountability of trust operations. Working in 
partnership with beneficiaries to implement the FTM, Interior has 
implemented changes in operations and staffing at agencies and many 
other changes to ensure fulfillment of fiduciary trust goals and 
objectives. Implementation of integrated systems to support the FTM was 
completed at the Bureau of Indian Affairs Anadarko and Concho agencies 
in Oklahoma. These agencies now use the re-engineered trust processes 
and interfaced systems; trust data have been reconciled and validated, 
and numerous backlog cleanup projects have been completed.
    The greatest challenge facing successful fiduciary trust management 
is the fractionation, or continuing subdivision, of individual Indian 
interests in the land held in trust by the Federal government. Because 
individual Indian trust lands are subject to a permanent restriction 
against alienation, they are primarily transferred through inheritance. 
With each successive generation, individual interests in the land 
become further subdivided among heirs, each of whom holds a smaller and 
smaller interest in the land. The ownership of many disparate, small 
interests generates significant management costs, benefits no one in 
Indian Country and creates an administrative burden that drains 
resources away from other Indian programs.
    The Department currently administers and manages more than 3.2 
million undivided interests in these lands owned by 223,245 individual 
Indian owners. In many cases, the cost to account for and probate 
highly fractionated tracts far exceeds either the revenue or the value 
of the underlying property. Interior has demonstrated success over the 
past several years acquiring these highly fractionated interests 
through the Indian Land Consolidation Program. Through December 31, 
2005, the Department has acquired 202,775 fractional interests in 
individual Indian allotted lands, 100 percent ownership in 166 tracts 
with over 1,142 owners, and 100 percent ownership of interests held by 
5,253 individuals.
    The 2007 budget includes $59.5 million, an increase of $25.4 
million, to acquire additional selected highly fractioned individual 
Indian land interests. The $59.5 million will fund an acquisition 
program of about 80,000 additional fractionated interests. In order to 
maximize the effectiveness of the program, the Department is 
transitioning to a new long-term strategy for acquisition of individual 
Indian interests. The strategy will use a tiered process to select 
which interests to acquire. As of March 2005, there are 2,173 highly 
fractionated tracts owned by 98,905 individuals. A focus on these 
tracts will begin in 2006 and target 1,557 of these tracts.
    Other trust increases include $6.5 million that would streamline 
and strengthen efforts to provide cadastral surveys for Indian land 
transactions, $3.0 million to continue efforts to address the backlog 
of unresolved probate cases, and $2.0 million to provide for BIA 
technical assistance and grants to Tribes for Indian energy resource 
development.
    The 2007 budget funds historical trust accounting at $59.4 million, 
including $39.0 million for Individual Indian Money accounting and 
$17.4 million for tribal accounting.
    Strengthening Indian Self-Determination--A key factor in 
strengthening Indian self-determination and fostering strong and stable 
tribal governments is the Tribes' ability to contract or compact for 
BIA operated programs. The Indian Self-Determination Act requires BIA 
to provide tribal contractors with contract support costs, which 
include payment of indirect costs, as determined through negotiation 
between tribal representatives and Interior's National Business Center. 
Contract support funds pay a wide range of administrative and 
management costs, including finance, personnel, maintenance, insurance, 
utilities, audits, communications, and vehicle costs. Full funding of 
contract support costs encourages tribal contracting and promotes 
progress in achieving Indian self-determination. The 2007 budget 
proposes a $19.0 million increase for BIA to fully fund indirect costs 
for contracting Tribes, a total funding level of $151.6 million.
    Improving Indian Education--Rigorous educational programs help 
ensure a viable and prosperous future for tribal communities. Providing 
Indian students with a quality education prepares American Indian 
children to compete in a dynamic economy. The BIA school system 
accommodates almost 48,000 Indian children in 184 elementary and 
secondary schools and dormitories, includes two schools of higher 
education, and administers operating grants for 24 tribal colleges. The 
BIA school system has experienced significant change in recent years 
with implementation of the No Child Left Behind Act. The Act 
established an Adequate Yearly Progress accountability system that 
measures student proficiency in math, reading, and language arts. BIA 
is accountable for helping schools achieve AYP targets and achieving 
AYP in all BIA funded schools is a top objective of the BIA. Student 
performance at BIA schools, while improving, remains lower than 
national averages and in the school year 2004-2005, 30 percent of BIA 
schools met the AYP measure.
    Working with Tribes, BIA developed a Program Improvement and 
Accountability Plan to improve the effectiveness of the education 
services provided in the Bureau school system. The Plan identifies six 
major objectives such as achieving AYP and the tasks to achieve the 
objectives, including hiring, training, and retaining highly qualified 
staff. The 2007 budget includes an increase of $2.5 million to realign 
education offices and meet the staffing requirements identified in the 
Plan.
    The Indian education program also includes a new initiative to 
address the needs of juveniles detained in BIA funded detention 
centers, a segment of youth that has been underserved in the 
educational system. The request of $630,000 will be used to provide 
education services to students temporarily detained in the 20 BIA 
funded juvenile detention centers.
    From 2001 through 2006, BIA received $1.6 billion for the Indian 
education program to replace 37 schools and undertake major facility 
improvement and repair projects at 45 schools. The funding has resulted 
in significant improvements, increasing the number of schools in good 
condition. In 2001, 35 percent of the BIA schools were in good or fair 
condition. After completion of work funded through 2007, approximately 
65 percent of the schools will be in good or fair condition. To 
continue improvement of facility conditions at BIA schools, the budget 
includes $157.4 million for education construction. In order to focus 
on the 27 school replacement projects funded in previous years that are 
in the design phase or under construction, the education construction 
budget reflects a reduction of $49.3 million from 2006.
    Johnson-O'Malley--The budget proposes to eliminate the $16.4 
million Johnson-O'Malley grant program. These grants, identified in the 
Tribal Priority Allocations of some Tribes, are distributed by the 
Tribes to address Indian student needs in local public schools. The 
grants duplicate similar funding made available by other Federal and 
State assistance programs. The Department of Education, for example, 
provided $115.9 million in 2006 to public schools on or near Indian 
reservations. In addition, JOM grants do not address a focused goal for 
academic achievement, and lack a means to measure and report on its 
impact to student performance. Eliminating JOM grants allows BIA to 
strengthen its commitment to the BIA school system and avoid redundant 
Federal programs.
    Law Enforcement--Indian Country comprises 56 million acres of land 
and 1.6 million people. Indian Country has less than two law 
enforcement officers per thousand people served, as compared to more 
than four officers per thousand people in comparable rural communities. 
One of the largest challenges facing the BIA law enforcement program is 
violent crime. The violent crime rate in Indian Country is twice the 
national average. The 2007 budget proposes an increase of $1.8 million 
for law enforcement in Indian Country. An additional $2.7 million is 
requested to staff newly constructed tribal detention centers that will 
be operational in 2007.

                           CULTURAL RESOURCES

    The 2007 budget supports the leading role of the National Park 
Service in the preservation of nationally significant natural and 
historical resources. Through complementary historic preservation 
programs, NPS helps to protect heritage resources through initiatives 
to inventory, manage, and preserve artifacts and monuments and 
encourages community efforts to preserve local and regional cultural 
landscapes. The BLM is also a caretaker of significant cultural 
resources, managing what is perhaps the largest and most diverse 
collection of cultural properties in North America.
    American Heritage and Preservation Partnership--Through its 
Preserve America initiative, the Administration is encouraging 
community efforts to preserve our cultural and natural heritage. The 
goals of the initiative include a greater shared knowledge about the 
Nation's past, strengthened regional identities and local pride, 
increased local participation in preserving the country's cultural and 
natural heritage assets, and support for the economic vitality of our 
communities.
    The 2007 budget request for NPS includes $32.2 million for locally 
focused historic preservation and heritage tourism programs, as part of 
the Preserve America initiative. This budget presents a more seamless 
approach to these programs by combining Preserve America grants, Save 
America's Treasures, and the Heritage Partnership program, and 
operating these programs under a unifying theme.
    Preserve America grants help States and communities preserve their 
historic resources by incorporating them into their local economies. 
The 2007 budget includes $10.0 million, an increase of $5.1 million 
above the 2006 level, for grants to help communities develop resource 
management strategies and business practices for continued preservation 
of heritage assets.
    NPS Asset Management--The NPS is responsible for maintaining over 
7,500 facilities for more than 273 million visitors annually. Over 
previous decades, a backlog of maintenance accumulated in the parks. 
Starting with the 2002 budget, the Administration has invested $4.7 
billion and undertaken nearly 6,000 facility improvements within the 
parks, resulting in improved roads and trails, rehabilitated visitor 
centers, more accessible campgrounds, stabilized historic structures, 
and visitor satisfaction rates that are high.
    Ensuring the state of disrepair experienced in the past does not 
recur requires an asset management plan that addresses all phases of an 
asset's lifecycle and encompasses the total cost of ownership for each 
asset. Effective facility management requires a comprehensive inventory 
of needs, assessment, and a facility condition assessment survey 
process, which provides the necessary information for determining 
resources that are necessary to maintain facilities and infrastructure 
in acceptable condition. At the end of 2005, NPS had performed 
comprehensive condition assessments on 57 percent of its asset 
inventory and is on track to meet its goal of completing the first 
cycle of assessments by the end of 2006. The 2007 budget continues to 
support implementation of the NPS asset management program. Total 
construction and maintenance funding is $622.8 million, a decrease of 
$80.6 million from 2006, but still above the funding levels during any 
prior Administration. This reflects a return to sustainable funding 
levels after the completion last year of a five-year surge in funding. 
The budget request focuses on protecting and maintaining existing 
assets rather than funding new construction projects.
    Cultural Resource Protection--Thousands upon thousands of cultural 
properties have been reported in surveys of BLM public lands, including 
cliff dwellings, mines, ground figures, rock art renderings, military 
outposts and homesteads, and others. These resources represent the 
tangible remains of at least 13,000 years of human adaptation to the 
lands, and span the spectrum of human experiences since people first 
set foot on the North American continent. Many of these valuable and 
irreplaceable properties and artifacts are threatened by unauthorized 
use, theft, and vandalism. The 2007 budget proposes a $3.0 million 
initiative to improve the protection, preservation, access to, and 
interpretation of these cultural resources to enhance their economic, 
scientific, cultural, and educational value to all Americans.

                              RESOURCE USE

    The Department's strategic goal for Resource Use includes programs 
that manage natural resources to promote responsible use and sustain a 
dynamic economy. Included in the $1.5 billion supporting this goal are 
programs focused on enhancing the Nation's energy security and 
availability, increasing timber production and improving forest health, 
and maximizing water availability through improved delivery and 
efficiency of water use. In addition to the energy initiatives 
discussed above, the following are the areas of emphasis in the 2007 
budget.
    Increasing Timber Products--Working in conjunction with the U.S. 
Forest Service, Interior manages timber tracts on public lands and 
follows the goals of the Northwest Forest Plan and forest management 
plans. The 2007 BLM budget will generate increased timber production 
with a $3.0 million increase in the Oregon and California Forest 
Management program that supports the commitments of the settlement 
agreement in the lawsuit American Forest Resource Council v. Clarke. 
The additional funding will focus on implementing the Northwest Forest 
Plan under commitments of the settlement agreement, which directs BLM 
to produce the allowable sale quantity of 203 million board feet and an 
additional 100 MMBF through the thinning of late- succession reserves. 
The increase will allow BLM to ramp up to meet the commitment level of 
303 MMBF by 2009. It will result in an additional 20 MMBF of timber 
offered in 2008 and 2009, which are projected to generate $6.5 million 
in additional timber receipts.
    Payments in Lieu of Taxes--The 2007 budget proposes $198.0 million 
for the Payments in Lieu of Taxes Program. PILT payments are made to 
local governments in counties, townships, and other jurisdictions where 
certain Federal land is located within their boundaries based on the 
concept that local governments incur costs related to maintaining 
infrastructure on Federal lands but are unable to collect taxes on 
these lands. The budget funds $197.6 million for PILT payments and 
$400,000 for program administration. Although this is $34.5 million 
below the 2006 record high level, it is comparable to historical 
funding levels.

                             WILDLAND FIRE

    The Department's 2007 budget for the Wildland Fire Management 
program continues implementation of the National Fire Plan and the 
President's Healthy Forests Initiative. Interior's fire bureaus, 
working collaboratively with the Forest Service, will continue meeting 
the Department's Strategic Plan goal of reducing risks to communities 
and the environment from wildland fire. Since adoption of the National 
Fire Plan, significant investments in preparedness resources have 
strengthened initial attack capability and combined with improvements 
in management and operation, have led to improved firefighting 
capability. The Department's success rate for containing wildfires at 
initial attack was 92 percent in 2000. Interior anticipates that it 
will maintain at least a 95 percent success rate in 2007. The 
Department has also made substantial progress in addressing the threat 
posed by heavy fuels buildup and over the last five years, 2001-2005, 
has treated nearly 5.6 million acres. By contrast in the five years 
preceding the National Fire Plan, Interior treated few than 2.7 million 
acres. The management and effectiveness of the hazardous fuels 
reduction program have also improved. Treatments in the wildland-urban 
interface have grown from 22 percent of acres in 2001 to nearly 44 
percent in 2006.
    In 2007, Interior will maintain its high success rate for 
containing wildfires at initial attack through more effective and 
efficient use of preparedness and suppression resources. The Department 
will also continue to strategically implement hazardous fuels reduction 
projects to reduce risks to communities and improve forest and 
rangeland health. The 2007 budget proposes $769.6 million for the 
Wildland Fire management program. This includes an increase of $26.3 
million for fire suppression operations, to reflect the ten-year 
average cost of fire suppression.
    Rural Fire Assistance--The 2007 budget for Wildland Fire continues 
partnerships with local fire departments. Interior fire agencies will 
continue efforts begun in 2006 to use $1.9 million in preparedness 
funding to provide training and personal equipment to local 
firefighters to help build a ready-reserve of local firefighters that 
can support initial and extended attack on large forest and thereby 
improve the effectiveness of Federal cooperation with local 
firefighting agencies. The $9.9 million rural fire assistance program 
is proposed for elimination as a separate funding source because the 
types of equipment and basic training needs it provides will be met 
through the U.S. Forest Service and the Department of Homeland 
Security.

                           SCIENCE PRIORITIES

    Science forms the foundation of Interior's land management 
decisions and strengthens the ability of land managers to address a 
range of issues. The U.S. Geological Survey serves as the Department's 
primary source of scientific research, earth and biological sciences 
data, and geospatial information. The 2007 budget includes $944.8 
million for USGS science related initiatives to protect lives and 
resources and provide scientific leadership through improved hazards 
detection and warning, improved energy research, streamgaging, and 
participation in the Landsat Data Continuity Mission.
    Multi-Hazards Pilot--The USGS is responsible for the assessment, 
monitoring, and prediction of geologic hazards. The 2007 budget 
proposes a multi-hazards initiative aimed at merging information about 
different hazards into integrated products to support land-use 
planning, hazards mitigation, and emergency response. The pilot will be 
funded by a redirection of base resources and, in addition, the budget 
calls for an increase of $2.2 million to enhance these resources.
    Landsat Data Continuity Mission--Landsat satellites collect data 
about the Earth's land surfaces for use in wildland fire management, 
detecting and monitoring invasive plant species in remote regions, 
assessing water volume in snow pack and large western aquifers, 
assessing the stewardship of Federal grazing lands, monitoring the 
land-use and land change in remote regions, global crop monitoring, and 
global mapping. USGS and NASA are partnering to build a new landsat 
satellite set to launch in 2010. The budget requests an increase of 
$16.0 million for USGS to finish designing and begin building a ground 
system to acquire, process, archive, and distribute data from the new 
satellite.
    Streamgages--The USGS operates and maintains approximately 7,000 
streamgages that provide long-term, accurate, and objective streamflow 
and water quality information that meets the needs of many diverse 
users. The 2007 budget includes an increase of $2.3 million to allow 
USGS to continue operations at high priority Federal interest sites as 
well as increase the number of streamgages reporting real-time data on 
the Internet.

                               CONCLUSION

    The budget plays a key role in advancing our vision of healthy 
lands, thriving communities, and dynamic economies. Behind these 
numbers lie people, places, and partnerships. Our goals become reality 
through the energy and creativity efforts of our employees, volunteers, 
and partners. They provide the foundation for achieving the goals 
highlighted in our 2007 budget. This concludes my overview of the 2007 
budget proposal for the Department of the Interior and my written 
statement. I will be happy to answer any questions that you may have.

    Senator Burns. Okay, well we'll get into the--Senator 
Dorgan has joined us, or anything you would like to add to 
this?
    Senator Dorgan. Mr. Chairman I'm sorry I was delayed. But 
Ms. Secretary, thank you and welcome.

                       PAYMENTS IN LIEU OF TAXES

    Senator Burns. We'll get underway. As I alluded in my 
opening statement Madam Secretary, that I'm concerned about the 
PILT request, in other words we're down a little bit from--all 
the way from $233 million, down to $195 million, something like 
that. That's a $40 million cut back. I want to know what your 
rationale is to cut this program.
    Ms. Scarlett. Senator, thank you very much. We certainly 
appreciate your concerns about PILT; we understand how 
important it is to local counties to have these revenues.
    I would like to underscore that the decision in this 
direction was difficult as have been our other cuts. In part it 
was made with an understanding that we do have some $4 billion 
in other kinds of payments that go to counties through sharing 
of other revenues generated from resource management. In 
addition I would like to underscore that while this is a 
reduction it still leaves the level of funding at significantly 
above where they were in the 1990s and at this difficult time 
we determined that the revenue sharing coupled with this level 
of funding would be appropriate.
    Senator Burns. Well, we're going to have a little argument 
about that. But I take I guess, I go back to my days as a 
County Commissioner, it takes as many services, and whenever 
you compare what we're paying to the country, payment in lieu 
of taxes, is 14 cents. When the private land owner is paying up 
around 6 bits, 75 cents an acre we've not caught up with what 
the private land owner pays.

                FINANCIAL AND BUSINESS MANAGEMENT SYSTEM

    Not even near it. So we'll have a little argument about 
this. Now, the growing costs and delays associated with 
implementing your Financial and Business Management System, the 
Department is requesting $22 million for this system in 2007 
and recently you removed the contractor that was doing the work 
because of implementation problems.
    Can you tell us, bring us up to date, the status of the 
project, and I've got a follow up question after that, or maybe 
a lot of questions with regard to that.
    Ms. Scarlett. Yes, thank you Senator. Let me remind the 
subcommittee of the reasons why we are moving forward and think 
it's imperative to do so, on this project. We inherited over 
100 different property systems, 15 financial management 
systems, and some 20 other asset management systems. They are 
antiquated, they no longer receive vendor support, and they 
don't speak to each other so we have to do manual entries. We 
have Bureau of Reclamation people with 30 passwords to get into 
systems. They enter one bit of data close, enter the same bit 
of data in a different system. That is not workable and that 
lies behind our attempt to integrate this system.
    We have made significant progress, but we did have problems 
with the vendor. We have let a new contract with IBM to be the 
integrator. I am pleased to say that we were able to make this 
choice, and separate from the previous contractor, because we 
have a very good contract management system in place.
    Rather than waiting 5 years down the road and well into the 
project we were able to identify the problems very early on, 
see that they were having difficulties in achieving the 
milestones that were set, and that caused us to steer in a 
different direction. We do have another contractor onboard. It 
is a fixed cost contract from this point forward, and I want to 
note that we have, along the way, made significant progress. We 
do have the grants portion already up and running, the 
financial portions for our Office of Surface Mining and MMS 
will be up and running in the fall. Then we have sequenced 
after that the other systems. Yes, we had a little hitch in the 
get along, but we think we are managing the program well and we 
think it is essential.
    Senator Burns. Well I would hope so. The years I spent 
chairing communications up in Commerce, and by the way we're 
marking up this morning. Anyway and how we fight for technology 
neutrality, interoperability, and to set the policies and 
everybody it seems like in the private sector does not 
experience the problems we have in Government. I've always said 
that every little jurisdiction in our Department that's out on 
the ground has a tendency to set up their own little fiefdom 
and think they know more about IT than anybody else. We've got 
to get over that some way or other. This system has got to be 
one system, it's got to be integrated, and it's got to be able 
to talk to each other. I know we threw a lot of money away, 
especially over in the BIA on that system. We just don't want 
to go down that road anymore.
    I just think it's a crime that we don't have somebody 
within the Department that doesn't recognize that. Because if 
you look at all the bad money we're throwing after good, we 
could fully fund PILT up to the authorized level. Very easily 
get that done and until we get some kind of a system down 
there. I've got some other questions, and I know we have a mark 
going on in Commerce, and I want to hold him down here as--
there's a couple of issues I don't want him voting against up 
there. But no, Senator Dorgan thanks for coming this morning.
    Senator Dorgan. Mr. Chairman, thank you very much. Let me 
just ask a number of questions. I understand that you've 
inherited this, although you've been a significant part of the 
agency. But you've inherited this role and undoubtedly the 
agency itself has inherited from the White House and the Office 
of Management and Budget a set of priorities that you are bound 
and determined to come up here and support as hard as it might 
be in some areas.

                            INDIAN EDUCATION

    But let me just--first obviously the zeroing out once again 
of funding for the United Tribes Technical College. That's an 
Indian College that benefits Senator Burns, Senator Domenici 
and myself, our constituents. It's by all accounts an 
outstanding college, and yet every single year, the 
administration zeros it out and we right the funding back in 
and it really makes no sense to me, I won't ask you why because 
I've asked the Secretary when she was here, why. I heard the 
answer but didn't understand the answer. So, but I expect once 
again we will add that funding, and I regret that you all don't 
think that a college worthy of that funding. Replacement school 
construction, I'm going to focus just a little bit on the 
Indian accounts, because I think when you take a look at the 
BIA, funding cuts here I'm troubled by them, because we really 
are short of funding. I had the GAO do an evaluation of the 
condition of BIA schools and frankly the schools are not in 
good condition.
    I was in a school BIA school a week ago today in Fort 
Yates, North Dakota. I mean we all go to these schools and 
understand the backlog and the need for construction and 
rehabilitation funding. I understand that the response by the 
agency is, reduce funding for replacement of these schools, 
reduce funding by $37 million, a 43 percent cut. The reason is 
they're focusing on building schools that have already been 
funded. But I mean you know the fact is the agency can do more 
than one thing at a time. I think it's really serious mistake 
to not continue to upgrade and fund the schools when young 
Indian children go through those classroom doors they are our 
charge and we really need to give them the kind of 
opportunities that all other children in this country have. So, 
let me mention one other thing and then ask you to respond. The 
Johnson O'Malley education grants, these are the grants, that 
among other things, help pay for tutoring, for after school 
programs, and I have visited with all of the tribes in North 
Dakota and many tribes from around the country, and zeroing out 
this program is a very serious mistake. So I guess I would ask, 
have you taken a hard look at the Johnson O'Malley program and 
what gives rise to deciding not to fund that program.
    Ms. Scarlett. Thank you Senator. Would you like me to 
comment on all three of those issues?

                            JOHNSON O'MALLEY

    Senator Dorgan. No, the first two were just rhetorical. I 
mean I understand what your comments would be about the first 
two. But just tell me about Johnson O'Malley, because I 
understand what your comments would be about the first two. But 
just tell me about Johnson O'Malley, because in the budget it 
says the elimination of the Johnson O'Malley program will allow 
the Bureau to focus on its primary mission requirement of 
providing basic education to Indian children in Bureau funded 
elementary, and secondary schools. But I go up to those 
programs, I don't see any increase, so you've cut Johnson 
O'Malley, but don't increase them in areas where you say--in 
the justification you're going to increase them.
    Ms. Scarlett. Thank you Senator, Indian education, of 
course, is a central priority. It is imperative that these 
students get this education so that they have opportunities for 
their future. Our reasons for zeroing out the Johnson O'Malley 
program are several fold. One, the program, at its funding 
level provides, based on the head count that we have for 
students that receive it, about $90 per student. Or have 
received about $90 per student. When the Johnson O'Malley was 
passed in 1934, or some seven decades ago, there was no other 
competing program of that sort. In the meanwhile, we have 
created the Department of Education and it is now funding very 
similar kinds of programs to the tune of some $667 million. We 
believe that is the appropriate place to fund these special 
programs and efforts for Indian students. We have worked very, 
very closely this past year with the Department of Education to 
jointly develop a strategic plan for our Indian schools, to 
ensure that they achieve the performance that they can and also 
with these students that are in public education programs to 
get the special assistance that they need.
    It is our work with the Department of Education and the 
focus of these funds there that has caused us to take this 
proposed action.

                          DEFERRED MAINTENANCE

    Senator Dorgan. I would just observe however, we can't find 
where that money was moved somewhere else in a corresponding 
increase in some other area. I know that's what the 
administration says, but we can't find that. Let me ask about 
the steady erosion over a long period of time now of the 
ability to fund the maintenance and the operation of parks and 
refuges and other lands. There's a lot of deferred maintenance 
as you know, and you are asked, because you don't request 
funding for salary increases that you know will exist. So 
you're asked to absorb these each year, and we have less and 
less money to provide for the basic maintenance and the basic 
operations of the park services and refuges--how long can that 
continue? We can't continue to do that forever I assume?
    Ms. Scarlett. Senator Dorgan, the operations of our land 
management agencies and their budgets is a high priority and 
this year we're proposing to fund the fixed pay cost at 70 
percent of the proposed pay increase, and 100 percent for the 
other fixed costs in terms of benefits and so forth. Last year 
we funded those park operations at 100 percent, indeed all the 
fixed costs for the Department of Interior. The 70 percent was 
proposed because we believe we can continue to make some 
management improvements that will allow us to be more efficient 
and effective in the delivery of services.
    For maintenance itself, we will have completed some 6,000 
projects in park maintenance for the Park Service over these 
last 5 years. That has had a dramatic effect. We now track and 
give a grade to the condition of our park facilities, for 
visitor service facilities, and so forth. We have brought that 
grade down to a fair or at least adequate level, and some, of 
course are in good condition and we're heading further in that 
direction. The budget does include a $10 million increase for 
cyclic maintenance because that keeps us on the track of not 
getting behind, but rather keeping ahead of the game and 
maintains the high levels of funding for the Repair and 
Rehabilitation program. I will note that the cuts in the 
construction program that you see are largely cuts in what 
would be new construction. We have maintained almost the same 
level of rehabilitation funding in the Park Service in the 2007 
budget.
    We have a chart that actually shows that.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Dorgan. If you'll just submit that to us, that 
would be fine.
    Ms. Scarlett. That's the overall trend line, but we have 
another chart that shows----
    Senator Dorgan. Do you have a chart that shows the backlog, 
this shows the backlog funding. Is there a chart that shows the 
backlog?
    Ms. Scarlett. There's not a chart that shows the backlog 
per se. As we have gotten into trying to understand this issue. 
When we came on board we had neither an inventory of 
facilities, nor an assessment of their condition. We had what 
might be characterized as anecdotal information, on a piece by 
piece basis of some backlog. What we have done is to put in 
place an industry best practices standard, whereby we assess 
the total cost to replace facilities and then all of the repair 
needs, both backlog as well as current repairs, ongoing current 
repairs. That gives us a ratio, and gives us a grade and that's 
the grade I'm referring to when I say we're now kind of at an 
adequate level except for roads, which remains a problem.
    Senator Dorgan. Would you submit that to us, so we can 
understand what we calculate the backlog to be from those 
documents?
    Ms. Scarlett. Yes, we can do that. And we have that 
calculated for eight different kinds of facilities and it shows 
you what ones are in significantly better condition than they 
were 5 years ago.
    [The information follows:]

                      SERVICEWIDE FACILITY CONDITION INDEX (FCI) INFORMATION BY ASSET TYPE
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year
                                                 ---------------------------------------------------------------
             Regular asset type \1\                 2003      2004     2004     2005     2005     2006     2006
                                                  baseline   target   actual   target   actual   target   actual
----------------------------------------------------------------------------------------------------------------
Buildings.......................................      0.16     0.15     0.10     0.15     0.17     0.07  .......
Houses..........................................      0.22     0.21     0.13     0.20     0.16     0.10  .......
Water Treatment Facilities......................      0.17     0.16     0.08     0.16     0.12     0.04  .......
Wastewater Treatment Facilities.................      0.23     0.21     0.17     0.20     0.17     0.07  .......
Trails..........................................      0.17     0.16     0.36     0.16     0.27     0.28  .......
Campgrounds.....................................      0.17     0.17     0.15     0.17     0.16     0.09  .......
Unpaved Roads...................................      0.26     0.26     0.12     0.26     0.17     0.11  .......
Paved (FHWA) Roads..............................  ........  .......  .......  .......  .......  .......  .......
Road Bridges....................................  ........  .......  .......  .......  .......  .......  .......
                                                 ---------------------------------------------------------------
      Subtotal \2\ Road Assets \3\..............      0.37     0.35     0.39     0.38     0.45     0.36  .......
                                                 ---------------------------------------------------------------
      Total.....................................      0.25     0.24     0.24     0.22     0.29     0.20  .......
----------------------------------------------------------------------------------------------------------------
\1\ Regular asset types include assets that have completed condition assessments based on industry standards.
  Additional information will be developed for other assets, such as memorials or archeological sites.
\2\ Pavement only; does not include retaining walls, parking lots, drainage structures, etc.
\3\ Target for fiscal year 2007 revised per fiscal year 2007 PB.

    Senator Dorgan. Just for example in the Indian health 
service, it was like pulling molars to get the data from the 
Indian health service to find out how much of the needs are 
unserved. They really can't--they don't want to tell you. I 
finally found out we serve about 60-65 percent of the need, 
means 35 to 40 percent is unserved. We--you know we're actually 
rationing healthcare on reservations in contract health. We're 
actually rationing healthcare. And there are people desperately 
sick, who are not getting the healthcare because the money 
doesn't exist. So I'm always interested in what is not being 
done that must be done. That's the list I'm interested in 
evaluating in the context of what kind of funding is being 
requested.

                    ALASKA NATIONAL WILDLIFE REFUGE

    One final question, what do you propose we do with the $8 
million you're asking to be used for drilling in ANWR. As you 
know the Congress has at this point decided not to proceed to 
drill in ANWR, so you've requested $8 million for that, would 
you suggest we invest that in the United Tribes Technical 
College in Bismarck, or perhaps the Indian health service--
where would you suggest we move that?
    Ms. Scarlett. Senator, the President's budget includes 
that, because we remain hopeful that the Congress will act on 
ANWR. Of course in recent years they have not done so, but we 
remain focused because it is the largest single supply of 
fossil fuels in the United States and we are hopeful. 
Therefore, that money is proposed for studies and related 
activities that would anticipate such action by the Congress.
    Senator Dorgan. Well that's the amount above $8 million, 
you actually asked for $12.4 million which includes some 
studies, but I recognize the budget was submitted before the 
most recent action by Congress on the ANWR issue, so I wouldn't 
have expected it to have been corrected in here. But I think 
ultimately that $8 million will not be used for ANWR, so if 
you'd send to us maybe a notion of where we might invest that, 
I think we have some ideas as well.
    As I said before, I think we'd like to submit a list of 
questions. You've inherited this job, and I know you've done a 
good job over a long period of time, and we appreciate your 
willingness to come and testify. The fact is you are the 
victim; your agency and other agencies are the victim of a 
fiscal policy that is not working in my judgment. You don't 
need to hear this in another hearing from me. The fact is that 
our fiscal policy is so off course that we are doing everything 
we can to maintain the 15 percent tax rate on capital gains, 
and we're willing to cut, cut, cut on these other areas in 
order to make up for the revenue we lose on that. So I mean I 
understand you come here and you have a requirement to support 
the President's budget, I think we're short in the Indian 
Health Service, I think we're short in Indian Education, I 
think we're short in the Maintenance Accounts, for doing what 
we should do on parks and those kinds of things. But you know, 
I say that with good will. Our committee appreciates your work, 
and the work of folks in the agency who are coming with the 
budget prepared largely at the White House and the OMB. So I 
thank you very much for being here today.
    Ms. Scarlett. Thank you.
    Senator Burns. Good heavens.
    Senator Dorgan. I'm going to run up to the Commerce 
committee markup then, and see if I can get my vote in before 
you get there.

                         INDIAN HEALTH SERVICE

    Senator Burns. If I can hold you another 5 minutes, I have 
no worries. No, not really. I've got a couple of problems and 
those of you who are--look at all the pencils come out behind 
you back there. We got a problem with, and this goes right down 
the road with our healthcare in Indian Country. We've got trust 
land that the ranches are in Montana, but they can't get their 
healthcare unless they go back to Fort Berthold. Now there's an 
Indian Health Service facility at Trenton North Dakota, which 
is just across the border, up in the Williston, up in that area 
and they can't go there because they live in Montana.
    Now they can't go to Fort Peck, because they are enrolled 
under Fort Berthold. Have we done anything to address that 
situation, because these folks happen to be there, they're 
entitled to their healthcare and they're living in sort of no 
man's land? Have we done anything to deal with that particular 
problem up in North East Montana? You may need some help on 
this.
    Ms. Scarlett. The Indian Health Service of course is not 
under Interior's direct responsibility, we have the education. 
So I'm happy to talk with my colleagues at Health and Human 
Services about that. It is a challenge of course; not only for 
education services, but health service as well, the wide 
distribution of these locations and trying to get services to 
people in these remote locations. Certainly for our 
responsibilities we're trying to make the appropriate services 
available.
    Senator Burns. Well, I've visited with the Directors there 
in Trenton in North Dakota, and it's just a situation where it 
seems like we could--in other words if we could move some funds 
from the Fort Berthold for their healthcare into the Fort Peck 
for the increased traffic, or requirements and get that done. 
It seems like it could be done administratively.

                          FEDERAL RECOGNITION

    Now also the delays in recognition, the process for Indian 
tribes, the Little Shell Tribe in Montana received a proposed 
favorable finding for recognition in 2000 but no progress has 
been made in intervening years finalizing the finding. I'd like 
to know the cause of the delay. These folks are without 
recognition right now, and could I get some explanation from 
the Department of Interior?
    Ms. Scarlett. Yes, thank you Senator. This is actually a 
somewhat analogous situation with the Tribe. We have been 
working with the Tribe for a number of years, and in fact the 
Tribe itself has asked for 10 different extensions as they have 
worked to acquire and assemble the information needed. It's my 
understanding that most of that information is now assembled 
and they are in the ready waiting for action mode, but still 
getting some final documentation. I would be hopeful that after 
this long saga, we would be able to bring some conclusion in 
the relatively near future.

                      MUSEUM OF THE PLAINS INDIAN

    Senator Burns. Thank you very much. Now, does this budget 
request propose to close the Museum of the Plains Indian? Now I 
think this is up at Browning, is that correct? I think it is. 
Does this budget request propose to close the Museum of the 
Plains Indian?
    Ms. Scarlett. Senator, we had over the years acquired three 
museums under our operation. The primary mission of the Indian 
Arts and Crafts Board has been to both promote Indian Crafts, 
as well as to enforce against fraud. We have been trying to 
shift resources at Indian Arts and Crafts Board to those two 
primary missions and then work with partners. Our intention 
would be not to close the museums, rather to find partners who 
would in turn operate the museums and hold those artifacts.
    We have had a number of discussions in the three locations, 
including in Montana, and in fact are looking forward to 
talking with the Tribe in Montana in the relatively near future 
to pick up those conversations.
    Senator Burns. I think this is an issue where we've got to 
sit down and have a meeting on it, and also work with the 
Blackfeet up at Browning.
    Ms. Scarlett. We would be very happy to do that.

                   APPLICATIONS FOR PERMITS TO DRILL

    Senator Burns. I think we can work out our differences 
there, but we can do that at a different venue. Last fall I 
examined the oil and gas resources on our federal land. As you 
well know we were backlogged with our APDs, can you bring us up 
to date for the information of this committee I know we 
increased the $25 million for the energy related programs, can 
you bring us up to date on what we have done. I know the 
request for drilling permits has increased.
    Ms. Scarlett. Yes Senator, we have made enormous progress 
and have been able to make that progress notwithstanding 
significant increases in applications for permits to drill. As 
I noted in my testimony, we estimate a projected 12,000 
applications for permits to drill in 2007.
    We expect by the end of 2007 to actually have caught up 
with the back log. So that means that we have significantly 
increased the pace at which we are able to do these, because we 
have both a growing request and more rapid disposition of these 
applications.
    We have a graph that shows that.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                            HAZARDOUS FUELS

    Senator Burns. Hazardous fuels I think you should stay 
after that. Now we've got a little more moisture up in our part 
of the country this year. But I want to bring up a little 
situation that is up in a wildlife game refuge, and that's the 
C.M. Russell. We've experienced some problems up there and some 
proposals have been made, and there again I think your staff 
should make note of that, that we're going to have to sit down 
and work out some of the problems on the C.M. Russell. 
Especially those people having grazing permits within inside 
that refuge, and just the overall relationship between that and 
the communities in which it's held.

                                RS 2477

    Let's talk about RS 2477. Seems like that comes up every 
now and again, that 2477 granted rights of way across Federal 
lands for construction of public roads, it was repealed in 
1976, but significant disagreements between Utah Counties, BLM 
and wilderness advocates have continued. The 10th Circuit as 
you know ruled on the issue in 2005 in your favor. On March 22, 
Secretary Norton issued guidance to land managers to implement 
the 10th Circuit decision.
    The Department recently announced the new guidelines. Can 
you explain why the new guidelines are necessary?
    Ms. Scarlett. Yes, thank you Senator. The 10th Circuit 
Court decision essentially ruled that the Department of the 
Interior, while it can make administrative decisions with 
respect to regulating the maintenance of roads, is not in a 
position to adjudicate the actual ownership of rights of way.
    That is left to the court system. We needed to align our 
practices with that decision and essentially that means that we 
will be working with states to come up with agreements on road 
maintenance notification, so that when they're doing road 
maintenance they will notify us first. We have certain 
provisions to ensure that occurs in an appropriate fashion. In 
addition, the decision makes very clear and we make very clear 
in our guidance to the bureau that this does not apply to 
decisions about identifying new roads. As there are no new 
roads, and new construction, the decision really applies to 
allowing counties to proceed with maintenance of existing roads 
in consultation and discussion with us.
    Senator Burns. That's always been a contention, I'm glad 
the courts ruled in the way they did, but I also want the 
Department to be sensitive to those too also, because there are 
some sensitive lands in that country.

                          ABANDONED MINE LANDS

    The AML fee extension that runs out June of this year, if 
not extended what happens? What will be the effect on the 
combined benefit fund?
    Ms. Scarlett. The fee extension of course on the one hand 
pays for the abandon mines reclamation and then also on the 
combined benefits fund. When that ultimately runs out--I'm 
actually going to turn to Pam, can you answer that? I'm not 
sure what happens with the combined benefit, I know what 
happens to the abandoned mine lands.
    Ms. Haze. The Department already has been working on the 
rule-making since the fee has been extended several times; the 
rule-making is actually ready. What would happen is we would 
issue the rule that would allow us to go ahead and make the 
payment and continue to use the interest for that payment.
    Senator Burns. Without the fee being extended?
    Ms. Haze. Correct. It would allow us to set a fee at a rate 
sufficient to pay the combined benefit fund. So it would only 
collect a fee comparable to pay the fund.

                            NPS MAINTENANCE

    Senator Burns. Thank you very much. We may have to have a 
visit on that too. Who knows? Park Service maintenance I 
would--I would like to put a comment in here, we have talked to 
the folks up a glacier. The folks at Yellowstone and some other 
folks around, and we get the backlog. Some projects have not 
moved forward and have been put on a delay basis in both of 
those parks. We are finding out that the cost not only 
materials, but labor and everything else has sort of ballooned 
a little bit and took them way past what we had budgeted to 
fix, or to build the facility.
    I think what happens is, if we delay long enough then we're 
outside our budget, the budgeted dollars. Somewhere or other 
we've got to do what we should in maintenance and on our 
national parks and take care of some of this backlog is to 
initiate those contracts, rapid and get the contractor on the 
ground the way they're bid and with some realism. I know some 
of those bids they go on, and on, they don't just let the bid, 
they let the bid, they delay the bid, and pretty soon your 
costs which have a tendency to accelerate under these 
conditions that we find ourselves in a booming economy where 
our costs go up everyday. So I would just ask that you--that 
these Park Supervisors and the people who are in charge of 
that, is once they get the authorization and the dollars to 
build a facility is to let the contract. Don't fiddle around 
with it. Get it done, I'm kind of like Larry the Cable guy, Get 
her done. We'll save dollars in the long run, and I think we 
can also taking into account some of the backlog that we might 
be experiencing at this time. So I would just ask that you do 
that. Then we'll talk about some wildlife refuges in private 
conversation.

                            2005 HURRICANES

    That's just about all the questions I have I think. My 
staff gives me all these, and then I always think of something 
the night before, but I guess most of our effort in our 
wildlife refuges have been focused towards the hurricane areas 
down there, is that correct?
    Ms. Scarlett. That's correct. In the wake of the 
hurricanes, we have some 66 wildlife refuges that are along the 
Louisiana, Mississippi and Texas, and Florida coasts. The 
President's supplemental budget actually has proposed $132 
million in its most recent request specifically for refuge 
debris removal and repairs that resulted from those hurricanes, 
specifically for our wildlife refuges.
    Senator Burns. I knew that you had to relocate some people 
down there, and I know you've got some requests in your 
supplemental.
    Ms. Scarlett. Our total supplemental I believe is around 
$216 million. About $58 million of that is for parks, and the 
biggest bulk, I think it might be $132 million, is for wildlife 
refuges.
    Senator Burns. Before we go to consider that I'd sure like 
to get a breakdown of those areas where we really have some 
problems, because I know we've got some people displaced, and 
had to move into new facilities, and everything. But I 
understand that you're moving back though and it's coming along 
fairly well.
    Ms. Scarlett. We are doing very well, and we have a very 
thorough list, I'm pleased to say and we can provide you that. 
We've made a lot of progress, particularly in the debris 
removal but the devastation was very extensive.
    [The information follows:]

           MMS HURRICANE RECOVERY MANDATORY FUNDING ESTIMATES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                              Estimated
------------------------------------------------------------------------
New Orleans, LA Swing Office (February/March 2006):
    Building Lease.........................................        1,600
    Furniture Lease........................................        1,000
    Utility, Security and Other Costs......................          650
Elmwood Rebuild (March/April 2006):
    Furniture..............................................        4,500
    Utility, Security and Other Costs......................        2,300
    Design Contract........................................          955
MMS Program Critical Needs:
    Houston Per Diem Travel (March 2006)...................        1,900
    Contract Support (March 2006)..........................        2,931
    Overtime/Salaries (January 2006).......................          800
    Emergency Preparation (March 2006).....................        1,000
    TAR/Studies (April 2006)...............................        1,300
    G&G Data Restoration (April 2006)......................        2,500
    Equip., Supplies, and Other Costs (March 2006).........          950
Additional Funding Needs:
    Emergency Preparation Efforts..........................          250
    Technology Assessment & Research/Environmental Studies.        1,805
    G&G Data Restoration and Preservation Project..........        1,000
    Coastal Protection/Barrier Island - OCS Sand Resource          2,280
     Assessment & Evaluation Project.......................
    Post Event Coordination Efforts........................          200
    Houston Program Travel Costs...........................           10
Repayment of Fiscal Year 2005 Funds: Bureau of Indian              3,343
 Affairs (Section 102 Money)...............................
                                                            ------------
      Revised Total, Estimated Hurricane Funding Needs.....       31,274
------------------------------------------------------------------------


                                                                               2005 HURRICANE SUPPLEMENTALS--DRAFT
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                            Assert     Revised
               Storm                 OrgCode          Station            State           Timeframe                                 Project title                             No.       estimate
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Rita...............................    21521  Anahuac NWR...........  TX.........  September 2005.......  Replace Damaged Metal (Butler) Mechanic Shop Building.........   10006766     $394,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Replace Damaged Metal (Butler) Vehicle Storage Building.......   10006759      160,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Replace Damaged Modular Office Building.......................   10006767      128,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace Metal (Butler)Shop/Service Building...................   10006854      847,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace McFaddin Headquarters Office..........................   10006848      399,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Rehab Clam Lake Road (FHA Rte #010)...........................   10006851      472,000
                                                                                                                                                                                    ------------
      Subtotal: First supplemental.  .......  ......................  ...........  .....................  ..............................................................  .........    2,400,000
                                                                                                                                                                                    ============
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair Levees and replace WCS (3) East Bay Bayou (Middleton)..   10006713      933,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Replace Waterfowl Check Station on East Unit Entrance.........   10044271       80,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Replace Mobile Home (12' by 65'').............................   10006745       93,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair Gravel Roads (Oyster Bayou (Undershore Marsh)..........   10006826       88,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Replace 4-Strand Barbed Wire Interior Fence on Old Anahuac....   10006816      127,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair Levee, Oyster bayou (Deep Marsh).......................   10006823      708,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair Culverts at Crossroad and Westline Road................   10045627       45,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair East Bay Boatramp crossover culverts...................   10045551       20,000
Rita...............................    21521  Anahuac NWR...........  TX.........  .....................  Repair Ditches, Jackson Ditch Unit............................   10006725      262,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace Ten Mile Cut Bridge (FHA Rte #12).....................   10006905      668,200
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Sand Dune Structures (Beach Road)......................   10006925      500,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair O Ditch and Levee in Wild Cow Bayou Watershed..........   10006870      247,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace Fence, North Unit cattle pasture......................   10006849      290,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair RIPRAP/Bank Protection, ICWW...........................   10006860      400,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Shoreline Armoring Protection on Intracoastal Waterway.   10006863      100,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Leblanc's/GIWW Waterway Levee Road.....................   10006930      700,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace Fence, White's Ranch cattle pasture. Central Unit.....   10006918      370,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repalce Fence, Clam Lake Pasture Grazing Unit barrier.........   10006852       62,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Leblanc's Reservoir Levees.............................   10006921      175,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Perkins Levee..........................................   10006889      424,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Clam Lake Road Shoreline Armoring......................   10006887      725,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair North Clam Lake Road Shoreline Armoring................   10006910      376,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Replace Fence, Star Lake pasture cattle barrier with gates....   10006850      362,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Pond 11 Levee in Wild Cow Bayou Watershed..............   10006872      109,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Middleton Levee Hunter Access Trail....................   10006922        7,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Pond 13 Levee..........................................   10006914      226,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair 6/7 Levee Road.........................................   10006871       13,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Pond 6 Oil Field Levee.................................   10006882       75,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Pond 7 Oil Field Levee (east of 6/7 levee).............   10006883       91,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair White's Levee/Fuel Brake...............................   10006890      328,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Texaco Camp Levee on White's Ranch.....................   10006898       78,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair West End Spur Levee....................................   10006900       26,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair Weather Road Oil Field Levee...........................   10006886       81,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair West Oil Field Levee (west of weather station road)....   10006884       65,000
Rita...............................    21525  McFaddin NWR..........  TX.........  .....................  Repair South Oil Field Levee (south of headquarters)..........   10006885       31,000
Rita...............................    20130  Regional Chief NWRS...  TX.........  .....................  Initial response and recovery.................................        N/A      756,800
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Repair Texas Point Levee (Cattle Walk)........................   10006933      206,000
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Repair Rock Weir..............................................   10039768       35,000
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Replace Boundary Fence, 10 miles of 4-Strand Barbed Wire......   10006932      219,000
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Repair N-ditch Rock Plug......................................   10044344        6,000
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Repar S Roadside Ditch Rock Plug..............................   10044562        6,000
Rita...............................    21526  Texas Point NWR.......  TX.........  .....................  Repair Twin Bayou Rock Plugs..................................   10053547        6,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Replace Boundary Fence, 4-strand barbed wire (17 tracts)......   10051248      297,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Repair Dirt Roads (7 tracts)..................................   10051332       34,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Repair Culverts (12 tracts)...................................   10051333       27,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Repair Wood Frame Bunkhouse, Die Tract........................   10008098       19,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Replace Signage (50 regulatory signs).........................   10051308        3,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Remove downed trees Public Use Trails/Boardwalks (18 tracts)..   10051309       77,000
Rita...............................    21593  Trinity River NWR.....  TX.........  .....................  Repair Public Use Parking Areas (8 tracts)....................   10051334       23,000
                                                                                                                                                                                    ------------
      Subtotal: Second supplemental  .......  ......................  ...........  .....................  ..............................................................  .........   10,600,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                  2005 HURRICANE SUPPLEMENTALS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                                       Revised
              Storm                  Org         Station         State      Type        Timeframe                                Project title                            Asset No.    estimate
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Wilma............................   41560  Arthur R. Marshall  FL.......  NWR.....  October 2005.....  Replace Headquarters--RES complete for standard design of medium    10014603   $3,000,000
                                            Loxahatchee NWR.                                            office/VC facility. [additional funding included in 2004
                                                                                                        supplemental for this facility].
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  TVA Agreement--Repair Maxent levee system (NORTH-only) (Bayou     ..........    4,250,000
                                                                                                        Sauvage); includes damaged structures and public-use facilities
                                                                                                        (boatramps, trails, parking areas, etc.).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Ridge Trail Boardwalk....................................    10018693      417,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair damage to pump station @ Bayou Thomas (Bayou Sauvage)....    10049237      210,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair damaged pump station @ Illegal Road (Bayou Sauvage)......    10018698      209,600
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Bayou Sauvage NWR)........    10042166       41,300
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  TVA Agreement--Repair Swamp Tour parking lot....................    10051405       32,400
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Maxent levee parking lot.................................    10051407       25,700
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair damaged water control structure (Unit 6) (Bayou Sauvage).    10049198       25,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair damaged water control structure (Unit 5) (Bayou Sauvage).    10049197       25,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair refuge interpretive signs (Bayou Sauvage NWR)............    10049262       23,900
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair entrance gates...........................................    10049245       22,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair gravel parking areas at 3 pumping stations (Bayou            10018686       21,500
                                                                                                        Sauvage).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair kiosks (Bayou Sauvage NWR)...............................    10049260       20,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Highway 11 boat launch parking area......................    10051404       20,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair refuge entrance signs (Bayou Sauvage NWR)................    10049235       12,900
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Replace facilities at seaplane facility.........................    10017810      866,800
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  TVA Agreement--Repair road at visitor center/administrative         10017819      390,000
                                            NWR.                                                        headquarters Rte #010.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair boardwalk at Boy Scout Road..............................    10017821      322,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  TVA Agreement--Repair Boy Scout Road............................    10017820      218,500
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair damage to administrative building........................    10017815      211,900
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair refuge entrance and guide signs (Big Branch Marsh NWR)...    10017827      142,400
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair damage to the historic chapel............................    10017814       56,700
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair sewage treatment plant for new Administrative                10049238       44,900
                                            NWR.                                                        Headquarters Building.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  TVA Agreement--Repair Bayou Lacombe Centre equipment access road    10051413       38,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair damaged fence around maintenance facility................    10017831       36,500
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Big Branch Marsh NWR).....    10041523       35,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair culverts.................................................    10017839       23,900
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair gate at the Holy Redeemer property--2006DM...............    10017822       21,500
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair environmental education center bathrooms.................    10053210       20,000
                                            NWR.
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Bogue Chitto NWR).........    10042080       35,000
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair septic system for RV pads & shop at Lock 1 facility (Old     10039293       10,700
                                                                                                        RPI Number 24).
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Remove/dispose of debris........................................  ..........      400,000
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Repair destroyed dune walkover boardwalk (additional damage)....    10019068      350,000
Katrina..........................   43556  Breton NWR........  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Breton NWR)...............    10049947       31,500
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair/Expand--Headquarters--RES pending [re-roofing contract     ..........    1,200,000
                                            NWR.                                                        awarded to ACTS].
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to maintenance building (Old RPI Number 34).......    10018819      111,800
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to pole shed......................................  ..........      100,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace (2) destroyed boats.....................................  ..........       70,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to Security/Fire Alarm System for Office/Visitor      10038110       20,000
                                            NWR.                                                        Center. (Old RPI Number 389).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damaged fish lab building (Old RPI Number 35)............    10018820       20,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace destroyed entrance signs at Office/Visitor Center and       10038126       10,400
                                            NWR.                                                        wildlife drive (Cameron Prairie NWR).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damaged radio tower. This tower is used by the refuge        10018826       10,000
                                            NWR.                                                        communication system Repeater (Old RPI Number 41).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair/Replace refuge boundary signs (Cameron Prairie NWR)......    10018845        8,100
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair lo-lift pump (office)--2006DM............................    10018810        7,500
                                            NWR.
Katrina..........................   43410  Daphne Field        AL.......  ES......  August 2005......  Vegetation planting, turtle light retrofit, and predator removal         N/A       23,000
                                            Office.                                                     (Perdido Beach Mouse).
Katrina..........................   43410  Daphne Field        AL.......  ES......  August 2005......  Repair/Install fencing, vegetation planting, boardwalk                   N/A       44,000
                                            Office.                                                     construction, turtle light retrofit, predator removal, and sea
                                                                                                        turtle protection (Baldwin County Access).
Katrina..........................   43410  Daphne Field        AL.......  ES......  August 2005......  Repair/Install fencing, vegetation planting, compatible public           N/A       45,000
                                            Office.                                                     access, predator removal, and sea turtle protection (Fort
                                                                                                        Morgan Historic Site).
Katrina..........................   43410  Daphne Field        AL.......  ES......  August 2005......  Repair/Install fencing, vegetation planting, boardwalk                   N/A       53,000
                                            Office.                                                     protection, reconstruction, and predator removal.
Katrina..........................   43410  Daphne Field        AL.......  ES......  August 2005......  Repair/Install fencing, vegetation planting, boardwalk                   N/A       85,000
                                            Office.                                                     construction, predator removal, and sea turtle protection (Bon
                                                                                                        Secour).
Katrina..........................   99487  Metairie Wildlife   LA.......  OLE.....  August 2005......  Replace damaged wildlife inspector van..........................         N/A       30,000
                                            Inspector Office.
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair sub headquarters office building.........................    10051467    1,500,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair Jump Pass boat slip--2006DM..............................    10017808      152,000
Katrina..........................   43558  Delta NWR.........  LA.......  NWR.....  August 2005......  Replace boat shed...............................................  ..........      104,600
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair bulkhead around old boat slip............................    10017804       96,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair Jump Pass sheet piling boat ramp.........................    10017809       45,700
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Delta NWR)................    10049452       34,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair steel fuel tank at Delta Refuge headquarters.............    10041843       31,500
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Replace damaged North boundary fence............................    10042059       17,700
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair 1.5 mile Pollocks Ferry Road.............................    10044392      142,500
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair Goat Farm Road...........................................    10044389       95,000
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair environmental education pavillion........................    10051078       77,300
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair 0.5 mile Bayou Heron dirt road...........................    10044394       47,500
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair office water well........................................    10018924       21,500
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair well on the Bellard tract................................    10037530       21,500
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair damaged visitor pavillion................................    10051078       15,000
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair damaged boat ramp at Grand Bay...........................    10043923       15,000
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair two Bellard tract septic systems.........................    10037529       12,800
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair Security fence around office compound....................    10018927       12,000
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair office septic system.....................................    10018928       10,700
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair Oak Grove Trail--2006DM..................................    10044600        2,000
Katrina..........................   43580  Hillside NWR......  MS.......  NWR.....  August 2005......  Repair damage to maintenance pole shed..........................    10018205       30,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Restore Lacassine Pool from extensive saltwater      10018744      700,000
                                                                                                        intrusion (ascassine); includes damaged structures and public-
                                                                                                        use facilities (boatramps, trails, parking areas, etc.).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to residence, Quarters 1, 3BR/1 Bath (Old RPI         10018701       58,500
                                                                                                        Number 1).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to headquarters equipment pole shed (Old RPI          10018723       50,400
                                                                                                        Number 36).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Replace damage to metal equipment storage building (2 Sided)....    10052275       42,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to residence, Quarters 2, 3BR/2BATH (Old RPI          10018702       40,000
                                                                                                        Number 2).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to amphibious excavator (Lacassine NWR)...........  ..........       30,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Modify bridge decks to Southwest Pool Spillway &     10018718       20,000
                                                                                                        Bridge--bridge inventory #43610-00023 (Old RPI Number 23).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Modify bridge decks to Southeast Pool Spillway &     10018717       20,000
                                                                                                        Bridge--bridge inventory #43610-00022 (Old RPI Number 22).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Modidy bridge decks to Northeast Pool Spillway &     10018719       20,000
                                                                                                        Bridge--bridge inventory #43610-00024 (Old RPI Number 24).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Replace damaged entrance signs & posts (Lacassine NWR)..........    10018727       18,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair/Replace refuge boundary signs (Lacassine NWR)............    10018728       15,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair/Replace damaged Informational signs (Lacassine NWR)......    10018788        3,900
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Replace directional signs (Lacassine NWR).......................    10018789        3,800
Katrina..........................   43626  Mandalay NWR......  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Mandalay NWR).............    10041510        9,500
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Replace Headquarters--RES complete for standard design of medium    10018877    2,600,000
                                            Sandhill Crane                                              office/VC facility--2006DM.
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Purchase office exhibits for replaced headquarters..............  ..........      300,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair West Perigal Road is a gravel road on the Ocean Springs      10038092      171,000
                                            Sandhill Crane                                              Unit.
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair East Perigal Road is a dirt road on the Ocean Springs        10038095      114,000
                                            Sandhill Crane                                              Unit.
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair maintenance shop facility--2006DM........................    10018876      100,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Purchase office furniture and video equipment for replaced        ..........      100,000
                                            Sandhill Crane                                              headquarters.
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair destroyed shop perimeter fencing.........................    10018887       15,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair damage to pump/well house................................    10018878       15,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair doors and siding on metal shop building (carpentry bldg.)    10018889       10,000
                                            Sandhill Crane
                                            NWR.
Rita.............................   43270  Natchitoches NFH..  LA.......  NFH.....  September 2005...  Repair wind damage to residence #1..............................    10017325       18,000
Rita.............................   43270  Natchitoches NFH..  LA.......  NFH.....  September 2005...  Repair wind damage to residence #2..............................    10017326       18,000
Wilma............................   41580  National Key Deer   FL.......  NWR.....  October 2005.....  Replace Headquarters--RES complete for standard design of small     10014776    3,000,000
                                            Refuge.                                                     office facility.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair Section Line Road E.--Noxubee County, Various Tracts,        10019029      168,000
                                                                                                        Route 108.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 5.71 mile Dummy Line Road--Winston County, tracts 394,       10018960      132,500
                                                                                                        1863, Route 110.
Rita.............................   42653  Red River NWR.....  LA.......  NWR.....  September 2005...  Repair damage to refuge office & maintenance facility...........    10046523       76,200
Katrina..........................   40130  Regional Chief      GA.......  NWR.....  August 2005......  Replace equipment & office furnishing (multiple stations).......         N/A      720,000
                                            NWRS.
Rita.............................   43640  Sabine NWR--        LA.......  NWR.....  September 2005...  Provide security fencing/lighting for closure...................  ..........      150,000
                                            Proposed Closure.
Rita.............................   43640  Sabine NWR--        LA.......  NWR.....  September 2005...  Repair damage to pole shed......................................  ..........      100,000
                                            Proposed Closure.
Rita.............................   43640  Sabine NWR--        LA.......  NWR.....  September 2005...  Repair damage to boat house.....................................  ..........      100,000
                                            Proposed Closure.
Rita.............................   43640  Sabine NWR--        LA.......  NWR.....  September 2005...  Repair damage to Oil House......................................  ..........      100,000
                                            Proposed Closure.
Rita.............................   43640  Sabine NWR--        LA.......  NWR.....  September 2005...  Cleanup/closure of Sabine NWR...................................  ..........       50,000
                                            Proposed Closure.
Rita.............................   42640  St. Catherine       MS.......  NWR.....  September 2005...  Repair damage to crew quarters..................................    10017042       22,500
                                            Creek NWR.
Rita.............................   42640  St. Catherine       MS.......  NWR.....  September 2005...  Repair damage to residence......................................    10017038        5,000
                                            Creek NWR.
Dennis...........................   41640  St. Marks NWR.....  FL.......  NWR.....  July 2005........  TVA Agreement--Repair primary dikes/levees......................  ..........    2,000,000
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Replace destroyed refuge residence/quarters--RES Pending........  ..........      550,000
                                                                                                                                                                                    ------------
      Subtotal: First              ......  ..................  .........  ........  .................  ................................................................  ..........   27,600,000
       supplemental.
                                                                                                                                                                                    ============
Wilma............................   41560  Arthur R Marshall   FL.......  NWR.....  October 2005.....  Replace destroyed Refuge entrance fee booth and self-pay kiosk      10040729       30,000
                                            Loxahatchee NWR.                                            (Old RPI Number 81).
Wilma............................   41560  Arthur R Marshall   FL.......  NWR.....  October 2005.....  Repair flooded/damaged roadways.................................    multiple       50,000
                                            Loxahatchee NWR.
                                                                                                                                                                                    ------------
      Arthur R Marshall            ......  ..................  .........  ........  .................  ................................................................  ..........       80,000
       Loxahatchee NWR Total.
                                                                                                                                                                                    ============
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Bayou Sauvage NWR)            10042166       58,700
                                                                                                        (additional funds).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  TVA Agreement--Repair Maxent levee system (remaining repairs)     ..........    7,750,000
                                                                                                        (Bayou Sauvage).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Maxent levee parking lot (additional funds)..............    10051407       24,300
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair gravel parking areas at 3 pumping stations (Bayou            10018686       18,500
                                                                                                        Sauvage) (additional funds).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Highway 11 boat launch parking area (additional funds)...    10051404       10,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair refuge entrance signs (Bayou Sauvage NWR) (additional        10049235       12,100
                                                                                                        funds).
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Ridge Trail Boardwalk....................................    10018693      425,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair U.S. Hwy 11 in New Orleans Eastboat ramp.................    10018700      350,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair ADA accessible fishing pier on U.S. HWY 90 in New Orleans    10018699       30,000
                                                                                                        East.
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair security shelter and fence for pump stations three and       10053625       50,000
                                                                                                        four.
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair kiosks...................................................    10049260       40,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair refuge interpretive signs................................    10049262       25,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair entrance gates...........................................    10049245       25,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Replace water gauges............................................    10049261       15,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair the Bayou Sauvage Bikepath...............................    10018692      800,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  September 2005...  HAZMAT/Debris removal...........................................  ..........    4,000,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Swamp Tour parking lot...................................    10051405       32,400
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Repair Joe Madere Marsh parking area............................    10039357       10,000
Katrina..........................   43595  Bayou Sauvage NWR.  LA.......  NWR.....  August 2005......  Post-hurricane invasives projects...............................         N/A    1,000,000
                                                                                                                                                                                    ------------
      Bayou Sauvage NWR Total....  ......  ..................  .........  ........  .................  ................................................................  ..........   14,676,000
                                                                                                                                                                                    ============
Rita.............................   43628  Bayou Teche NWR...  LA.......  NWR.....  September 2005...  Repair/Replace refuge boundary signs (Bayou Teche NWR)..........    10041538       20,000
                                                                                                                                                                                    ------------
      Bayou Teche NWR Total......  ......  ..................  .........  ........  .................  ................................................................  ..........       20,000
                                                                                                                                                                                    ============
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  TVA Agreement--Repair road at visitor center/administrative         10017819      155,900
                                            NWR.                                                        headquarters Rte #010 (additional funds).
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  TVA Agreement--Repair Boy Scout Road (additional funds).........    10017820      100,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Big Branch Marsh NWR)         10041523       65,000
                                            NWR.                                                        (additional funds).
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Replace facilities at seaplane facility (additional funds)......    10017810       33,200
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair kiosks at refuge office (Big Branch Marsh NWR)...........    10049450       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair kiosks (Big Branch Marsh NWR)............................    10017835       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair Barringer Road parking lot...............................    10051416       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair maintenance shop & storage facility......................    10017817      200,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair administrative building (additional funds)...............    10017815      600,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair historic chapel (additional funds).......................    10017814      250,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair Cane Bayou canoe launch..................................    10017823       60,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair picnic shelter behind White house........................    10049217       45,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair sewage treatment plant for maintenance facility..........    10017844      100,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair/Rehab landscaping & landscape of administrative            ..........      300,000
                                            NWR.                                                        headquarters.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair weather station..........................................    10050226       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair observation deck platform................................    10052150       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair Urban Interface Firelines................................    10036517       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair 6 Boy Scout Rd waysides (metal), 12 benches (wood), 20       10017836      600,000
                                            NWR.                                                        numbered posts (wood).
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  September 2005...  HAZMAT/Debris removal...........................................  ..........    2,000,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Remove old pool at Holy Redeemer site...........................    10049207       35,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair water control structure at Holy Redeemer grounds.........    10049206        5,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair Sapsucker Road Route #100................................    10017840      100,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair Sapsucker Road gravel parking lot........................    10017842       20,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Replace Road Grader- (N6260451770627)...........................      480935      120,000
                                            NWR.
Katrina..........................   43616  Big Branch Marsh    LA.......  NWR.....  August 2005......  Clean/remove debris/trees from roads and parking areas..........         N/A      100,000
                                            NWR.
Katrina..........................   43558  Big Branch Marsh    LA.......  NWR.....  August 2005......  Repair/Replace damaged fire equipment...........................  ..........       10,000
                                            NWR.
Katrina..........................   43616  Big Branch Marsh    LA.......  NWR.....  August 2005......  Post-hurricane invasives projects...............................         N/A      600,000
                                            NWR.
                                                                                                                                                                                    ------------
      Big Branch Marsh NWR Total.  ......  ..................  .........  ........  .................  ................................................................  ..........    5,619,100
                                                                                                                                                                                    ============
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Bogue Chitto NWR)             10042080       40,000
                                                                                                        (additional funds).
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair refuge kiosks (Bogue Chitto NWR).........................    10042232       10,000
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair refuge kiosks............................................    10042232       20,000
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair ADA accessible fishing piers at the Pearl River Turnaroud    10018920       50,000
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair 120 foot radio tower at Lock 1 (Old RPI Number 18).......    10018916       10,000
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Repair 8 ft. wide Honey Island Swamp Rd hiking trail (Holmes        10039187       10,000
                                                                                                        Bayou Trail) with 4 in. compacted crushed gravel.
Katrina..........................   43616  Bogue Chitto NWR..  LA.......  NWR.....  August 2005......  Post-hurricane invasives projects...............................         N/A      400,000
                                                                                                                                                                                    ------------
      Bogue Chitto NWR Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........      540,000
                                                                                                                                                                                    ============
Dennis...........................   43630  Bon Secour NWR....  AL.......  NWR.....  July 2005........  Repair entrance road to Sand Bayou Unit.........................    10019064      100,000
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Repair Nunley bunkhouse.........................................    10010953       40,000
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Repair to office celing/AC......................................    10019060       25,000
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Replace damaged/destroyed signs & kiosks........................    10019088       35,000
Katrina..........................   43630  Bon Secour NWR....  AL.......  NWR.....  August 2005......  Repair to Gator Lake boardwalk..................................    10019057       90,000
                                                                                                                                                                                    ------------
      Bon Secour NWR Total.......  ......  ..................  .........  ........  .................  ................................................................  ..........      290,000
                                                                                                                                                                                    ============
Katrina..........................   43556  Breton NWR........  LA.......  NWR.....  August 2005......  Critical beach renourishment/replace sand fencing...............    10049955    2,000,000
                                                                                                                                                                                    ------------
      Breton NWR Total...........  ......  ..................  .........  ........  .................  ................................................................  ..........    2,000,000
                                                                                                                                                                                    ============
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair/Replace refuge boundary signs (Cameron Prairie NWR)          10018845      100,000
                                            NWR.                                                        (additional funds).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to Security/Fire Alarm System for Office/Visitor      10038110       17,000
                                            NWR.                                                        Center (Old RPI Number 389) (additional funds).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace destroyed entrance signs at Office/Visitor Center and       10038126        9,600
                                            NWR.                                                        wildlife drive (Cameron Prairie NWR) (additional funds).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to pumphouse for lo-lift pump (office) (Old RPI       10018813       20,000
                                            NWR.                                                        Number 23).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair/Replace damaged Boardwalk w/ observation deck at Visitor     10038120      291,000
                                            NWR.                                                        Center (Old RPI Number 392).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  TVA/DU Agreement--Repair multiple levee systems (Cameron          ..........    5,040,000
                                            NWR.                                                        Prairie); includes damaged structures and public-use facilities
                                                                                                        (boatramps, trails, parking areas, etc.).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair damage to Pintail Wildlife Drive FHA Rte #010 (Old RPI       10018804      600,000
                                            NWR.                                                        Number 13).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace destroyed radio tower (Old RPI Number 41)...............    10018826       55,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace destroyed oil/paint storage bldg. (Old RPI Number 36)...    10018821        5,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Unit 6 24-inch lo-lift pump ( Old RPI Number 14).........    10018805       20,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Unit 1 30-inch lo-lift pump #1 ( Old RPI Number 15)......    10018806       20,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair 20-inch lo-lift double discharge Pump (Unit 5) ( Old RPI     10018809       20,000
                                            NWR.                                                        Number 18).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair pumphouse for 24-inch Lo-lift (office) ( Old RPI Number      10018813       20,000
                                            NWR.                                                        23).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair multiple water control structure, Waterman screwgate and     10036540      164,000
                                            NWR.                                                        galvanized steel pipe.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Parish Drainage east ( Old RPI Number 173).........    10037827       35,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal clear marsh drain south. This canal is used to         10037812      100,000
                                            NWR.                                                        manage water levels on refuge moist soil units and is essential
                                                                                                        for acheivement of refuge water management objectives and moist
                                                                                                        soil unit gravity drainage. ( Old RPI Number 160).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Graingerville drainage west (Old RPI Number 180)...    10037834      100,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Outfall ( Old RPI Number 205)......................    10037859      100,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Unit 8 North (Old RPI Number 206)..................    10037860      200,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Unit 8 West ( Old RPI Number 208)..................    10037862      200,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Canal Main Parish Drainage (Old RPI Number 222)..........    10037876    1,100,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Water Control Structure, Visitor Center Pond ( Old RPI       10043905       20,000
                                            NWR.                                                        Number 403).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace Cummings diesel power unit (s/n 46170208 Unit 6) ( Old      10043906       20,000
                                            NWR.                                                        RPI Number 404).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace Duetz power unit (Office, Model C110HP3-PD9, S/N 3-3 -      10043920       20,000
                                            NWR.                                                        88) ( Old RPI Number 405).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Pumping station, Unit 1&2. Property includes 3 concrete      10054735        5,000
                                            NWR.                                                        pads and 2 pumphouses.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair parking area. ( Old RPI Number 11).......................    10018802      200,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair West Cameron Prairie Road FHA Rte #100 ( Old RPI Number      10018814      750,000
                                            NWR.                                                        24).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Bankfishing Road FHA Rte #101 ( Old RPI Number 25).......    10018815      350,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair road by old office access ( Old RPI Number 382)..........    10038073       60,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair road by Claude's house ( Old RPI Number 383).............    10038074      200,000
                                            NWR.
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair Office/Visitor Center Parking lot Rte #900 ( Old RPI         10038104      100,000
                                            NWR.                                                        Number 386).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Repair parking area, Bankfishing Road, FHA Rte. #902. ( Old RPI     10049751      150,000
                                            NWR.                                                        Number 423).
Rita.............................   43612  Cameron Prairie     LA.......  NWR.....  September 2005...  Replace for damaged/destroyed vehicles..........................  ..........       75,000
                                            NWR.
                                                                                                                                                                                    ------------
      Cameron Prairie NWR Total..  ......  ..................  .........  ........  .................  ................................................................  ..........   10,166,600
                                                                                                                                                                                    ============
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Downed tree and debris removal (1st push & pull)................         n/a        5,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair damage to entrance roadway...............................    10014132       35,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair erosion/undermining of Bridge #1 (parking lot)...........    10014107       60,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair erosion/undermining of Bridge #2 (quarters)..............    10014089       60,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair erosion/undermining of Bridge #3 (hatchery intake).......    10014129       80,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair damage to wing-wall & rip-rap Rock/Mill Creeks...........    10044349       50,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair retaining wall at Rock/Mill Creeks.......................    10014133      100,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Replace destroyed domestic well & distribution lines............    10014096      135,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair water damage to Education Center.........................    10014099       25,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair water damage to Residence (#13)..........................    10014098       20,000
                                            Forest NFH.
Dennis...........................   41210  Chattahoochee       GA.......  NFH.....  July 2005........  Repair water damage to Residence (#20)..........................    10014104       20,000
                                            Forest NFH.
                                                                                                                                                                                    ------------
      Chattahoochee Forest NFH     ......  ..................  .........  ........  .................  ................................................................  ..........      590,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   43535  Choctaw NWR.......  MS.......  NWR.....  August 2005......  Clean/remove debris/trees from roads and parking areas..........         N/A      120,000
                                                                                                                                                                                    ------------
      Choctaw NWR Total..........  ......  ..................  .........  ........  .................  ................................................................  ..........      120,000
                                                                                                                                                                                    ============
Katrina..........................   43676  Coldwater NWR.....  MS.......  NWR.....  August 2005......  Repair County Line Road.........................................    10044790       50,000
                                                                                                                                                                                    ------------
      Coldwater NWR Total........  ......  ..................  .........  ........  .................  ................................................................  ..........       50,000
                                                                                                                                                                                    ============
Wilma............................   41581  Crocodile Lake NWR  FL.......  NWR.....  October 2005.....  Repair flooded/damaged roadways.................................    multiple       30,000
                                                                                                                                                                                    ------------
      Crocodile Lake NWR Total...  ......  ..................  .........  ........  .................  ................................................................  ..........       30,000
                                                                                                                                                                                    ============
Katrina..........................   43635  Dahomey NWR.......  MS.......  NWR.....  August 2005......  Repair Headquarters Road........................................    10045052      125,000
                                                                                                                                                                                    ------------
      Dahomey NWR Total..........  ......  ..................  .........  ........  .................  ................................................................  ..........      125,000
                                                                                                                                                                                    ============
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair sub headquarters office building (additional funds)......    10051467      750,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Delta NWR) (additional        10049452       66,000
                                                                                                        funds).
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Replace damaged North boundary fence (additional funds).........    10042059       19,300
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Repair damaged kiosk............................................    10051177       20,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  September 2005...  HAZMAT/Debris removal...........................................  ..........    2,000,000
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Protect crevaces with dredging, sedimant transport, engineered           N/A    2,000,000
                                                                                                        structures, and vegetative planting.
Katrina..........................   43555  Delta NWR.........  LA.......  NWR.....  August 2005......  Provide critical data management and GIS functions to support            N/A      225,000
                                                                                                        planning, habitat/species inventories, monitoring, and habitat
                                                                                                        management.
                                                                                                                                                                                    ------------
      Delta NWR Total............  ......  ..................  .........  ........  .................  ................................................................  ..........    5,080,300
                                                                                                                                                                                    ============
Wilma............................   41545  Florida Panther     FL.......  NWR.....  October 2005.....  Repair damaged roof on garage, storage building & maintenance       10014533       50,000
                                            NWR.                                                        shop; Plywood and metal roof (Old RPI Number 5).
Wilma............................   41545  Florida Panther     FL.......  NWR.....  October 2005.....  Repair flooded/damaged roadways.................................    multiple      500,000
                                            NWR.
Wilma............................   41545  Florida Panther     FL.......  NWR.....  October 2005.....  Downed tree and debris removal (1st push & pull)................         n/a       70,000
                                            NWR.
                                                                                                                                                                                    ------------
      Florida Panther NWR Total..  ......  ..................  .........  ........  .................  ................................................................  ..........      620,000
                                                                                                                                                                                    ============
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair environmental education pavillion........................    10051078      100,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Replace destroyed Ledlow bunkhouse..............................    10018921      750,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair concrete boat launching ramps............................    10049797       75,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair damaged visitor pavillion................................    10051078       30,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair ADA-accessible fishing/observation pier..................    10049802       75,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair damaged boat ramp at Grand Bay...........................    10043923       30,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair Clyde Brown boat ramp....................................    10043923       60,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair well on the Bellard tract................................    10037530       45,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair office water well........................................    10018924       45,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair wooden pier/dock.........................................    10049801       20,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair two Bellard tract septic systems.........................    10037529       20,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair Security fence around office compound....................    10018927       20,000
Katrina..........................   43617  Grand Bay NWR.....  AL.......  NWR.....  August 2005......  Repair office septic system.....................................    10018928       20,000
Katrina..........................   43617  Grand Bay NWR.....  MS.......  NWR.....  August 2005......  Repair 2000ft of paved section of trail loops...................    10049944        5,000
                                                                                                                                                                                    ------------
      Grand Bay NWR Total........  ......  ..................  .........  ........  .................  ................................................................  ..........    1,295,000
                                                                                                                                                                                    ============
Wilma............................   41582  Great White Heron   FL.......  NWR.....  October 2005.....  Repair/Replace destroyed boundary markers/buoys.................         n/a      100,000
                                            NWR.
                                                                                                                                                                                    ------------
      Great White Heron NWR Total  ......  ..................  .........  ........  .................  ................................................................  ..........      100,000
                                                                                                                                                                                    ============
Katrina..........................   43580  Hillside NWR......  MS.......  NWR.....  August 2005......  Repair Open Pole Shed...........................................    10018205       10,000
Katrina..........................   43580  Hillside NWR......  MS.......  NWR.....  August 2005......  Repair AP Slough Shed...........................................    10018191      100,000
                                                                                                                                                                                    ------------
      Hillside NWR Total.........  ......  ..................  .........  ........  .................  ................................................................  ..........      110,000
                                                                                                                                                                                    ============
Wilma............................   41561  Hobe Sound NWR....  FL.......  NWR.....  October 2005.....  Repair beach access boardwalk...................................    10014649       75,000
                                                                                                                                                                                    ------------
      Hobe Sound NWR Total.......  ......  ..................  .........  ........  .................  ................................................................  ..........       75,000
                                                                                                                                                                                    ============
Wilma............................   41583  Key West NWR......  FL.......  NWR.....  October 2005.....  Repair/Replace destroyed boundary markers/buoys.................         n/a       75,000
                                                                                                                                                                                    ------------
      Key West NWR Total.........  ......  ..................  .........  ........  .................  ................................................................  ..........       75,000
                                                                                                                                                                                    ============
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to residence, Quarters 1, 3BR/1 Bath (Old RPI         10018701       16,500
                                                                                                        Number 1) (additional funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair/Install hurricane protection shutters on multiple          ..........      125,000
                                                                                                        structures.
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Replace damage to metal equipment storage building (2 Sided)        10052275       33,000
                                                                                                        (additional funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair damage to residence, Quarters 2, 3BR/2BATH (Old RPI          10018702       10,000
                                                                                                        Number 2) (additional funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Restore Lacassine Pool from extensive saltwater      10018744      800,000
                                                                                                        intrusion (Lacassine); includes damaged structures and public-
                                                                                                        use facilities (boatramps, trails, parking areas, etc.)
                                                                                                        (additional funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  TVA Agreement--Modify bridge decks to Southwest Pool Spillway &     10018718      165,000
                                                                                                        Bridge (additional funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair/Replace refuge boundary signs (Lacassine NWR) (additional    10018728       85,000
                                                                                                        funds).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair/Replace damaged interpretative panels for Wildlife Drive.    10044644       20,000
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair Unit A Pumping Plant. Permanently installed water pumping    10018731      100,000
                                                                                                        station (Old RPI Number 45).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair Unit C Pumping Plant, permanently installed water pumping    10018737       35,000
                                                                                                        station (Old RPI Number 63).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Repair Northeast Pool perimeter levee. Raised ridge of soil used    10018780    1,100,000
                                                                                                        to retain & control the flow of water. Section 16 to boundry
                                                                                                        (Old RPI Number 116).
Rita.............................   43610  Lacassine NWR.....  LA.......  NWR.....  September 2005...  Unit A shell road. (Old RPI Number 21)..........................    10018716       40,000
                                                                                                                                                                                    ------------
      Lacassine NWR Total........  ......  ..................  .........  ........  .................  ................................................................  ..........    2,529,500
                                                                                                                                                                                    ============
Rita.............................   43440  Lafayette ES        LA.......  ES......  September 2005...  Emergency surveys on T&Es species, contaminants, and habitat             N/A      500,000
                                            Office.                                                     stabilization.
                                                                                                                                                                                    ------------
      Lafayette ES Office Total..  ......  ..................  .........  ........  .................  ................................................................  ..........      500,000
                                                                                                                                                                                    ============
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to endangered red-cockaded            N/A        5,000
                                            Office.                                                     woodpecker (repair cavity trees).
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to endangered lichen                  N/A       20,000
                                            Office.                                                     populations (C. perforata).
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to endangered gulf sturgeon           N/A       20,000
                                            Office.                                                     (repair culverts; erosion control).
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to endangered piping plover..         N/A       70,000
                                            Office.
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to endangered beach mouse             N/A      345,000
                                            Office.                                                     (repair dune walkovers; beach stabilization).
Katrina..........................   43440  Lafayette Field     LA.......  ES......  August 2005......  Support, surveys, emergency relief to threatened & endangered            N/A      440,000
                                            Office.                                                     sea turtle species (beach stabilization).
                                                                                                                                                                                    ------------
      Lafayette Field Office       ......  ..................  .........  ........  .................  ................................................................  ..........      900,000
       Total.
                                                                                                                                                                                    ============
Rita.............................   43695  Lake Ophelia NWR..  LA.......  NWR.....  August 2005......  Repair damage to sattelite office/substation....................  ..........       30,000
                                                                                                                                                                                    ------------
      Lake Ophelia NWR Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........       30,000
                                                                                                                                                                                    ============
Rita.............................   99221  LE Office Beaumont  TX.......  LE......  September 2005...  Replace water damaged personal property.........................         N/A       50,000
                                                                                                                                                                                    ------------
      LE Office Beaumont Total...  ......  ..................  .........  ........  .................  ................................................................  ..........       50,000
                                                                                                                                                                                    ============
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Replace destroyed dock at Atesna Otie Key (Cedar Keys)..........    10039135      325,000
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Repair damage to Fishbone Creek Observation Tower...............    10038048      250,000
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Replace destroyed Shell Mound fishing pier (damaged during          10014408      250,000
                                                                                                        Hurricane Ivan in 2004).
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Repair damage to Salt Creek Trail/Boardwalk.....................    10014407      175,000
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Repair facilities at Seahorse Key (Cedar Keys)..................    10014380      100,000
Dennis...........................   41515  Lower Suwannee NWR  FL.......  NWR.....  July 2005........  Repair damaged refuge roads.....................................    multiple    1,500,000
                                                                                                                                                                                    ------------
      Lower Suwannee NWR Total...  ......  ..................  .........  ........  .................  ................................................................  ..........    2,600,000
                                                                                                                                                                                    ============
Katrina..........................   43626  Mandalay NWR......  LA.......  NWR.....  August 2005......  Repair/Replace refuge boundary signs (Mandalay NWR) (additional     10041510       40,500
                                                                                                        funds).
Katrina..........................   43626  Mandalay NWR......  LA.......  NWR.....  August 2005......  Replace damaged entrance signs (Mandalay NWR)...................    10041513       10,000
Katrina..........................   43626  Mandalay NWR......  LA.......  NWR.....  August 2005......  Repair office/visitor building (Mandalay NWR)--2006DM...........    10019047       75,000
Katrina..........................   43626  Mandalay NWR......  LA.......  NWR.....  August 2005......  Post-hurricane invasives projects...............................         N/A      100,000
                                                                                                                                                                                    ------------
      Mandalay NWR Total.........  ......  ..................  .........  ........  .................  ................................................................  ..........      225,500
                                                                                                                                                                                    ============
Katrina..........................   43681  Matthews Brake NWR  MS.......  NWR.....  August 2005......  Repair Pin Oak Road.............................................    10019772       50,000
                                                                                                                                                                                    ------------
      Matthews Brake NWR Total...  ......  ..................  .........  ........  .................  ................................................................  ..........       50,000
                                                                                                                                                                                    ============
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to endangered red-cockaded            N/A        5,000
                                            Office.                                                     woodpecker (repair cavity trees).
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to endangered lichen                  N/A       20,000
                                            Office.                                                     populations (C. perforata).
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to endangered gulf sturgeon           N/A       20,000
                                            Office.                                                     (repair culverts; erosion control).
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to endangered piping plover..         N/A       70,000
                                            Office.
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to endangered beach mouse             N/A      345,000
                                            Office.                                                     (repair dune walkovers; beach stabilization).
Katrina..........................   43910  Mississippi Field   MS.......  ES......  August 2005......  Support, surveys, emergency relief to threatened & endangered            N/A      440,000
                                            Office.                                                     sea turtle species (beach stabilization).
                                                                                                                                                                                    ------------
      Mississippi Field Office     ......  ..................  .........  ........  .................  ................................................................  ..........      900,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Valentine road a gravel road on the Gautier Unit.........    10037727    1,250,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Browns Trail a gravel road on the Gautier Unit...........    10037726      200,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Sweet Bay a dirt road on the Ocean Springs Unit..........    10037731      150,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Duck pond Road is a dirt road on the Ocean Springs Unit..    10037730      250,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Green Pond is a dirt road on the Ocean Springs Unit......    10038084      350,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Big Flat dirt road on the Ocean Springs Unit.............    10038082      250,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Glenndale Road is a gravel road on the Ocean Springs Unit    10038089      350,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Firetower road on the Gautier Unit.......................    10037540      750,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Cotton Mouth is a dirt road on the Ocean Springs Unit....    10038087      300,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair maintenance shop facility................................    10018876      450,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Fire break( Ocean Springs Unit)..........................    10018904      250,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Fire break (Gautier Unit)................................    10018903      200,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Fire break (Fountainbleau Unit)..........................    10018905       75,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair 3/4 Mile nature trial at the visitor center..............    10018899       20,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair 0.6 mile Fountainebleau Unit nature trail................    10038435       20,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair doors and siding on metal shop building (carpentry bldg.)    10018889       20,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair damage to pump/well house................................    10018878       30,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair destroyed shop perimeter fencing.........................    10018887       30,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Sidewalk into visitor center.............................    10018901       10,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Shop Concrete wash rack..................................    10018896        5,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair wet cells Ocean Springs Unit 1,350' Low hazard dam.......    10018907      150,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Wet Cells Ocean Springs Unit 1,000' Low hazard dam.......    10018906      150,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Double Tree is a dirt road on the Ocean Springs Unit.....    10038083      200,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair North Beasley dirt road on the Gautier Unit..............    10037729      150,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair Vistor Center Paved parking lot, Route 900...............    10018883       75,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair visitor center/office paved road, Route 010..............    10018879       75,000
                                            Sandhill Crane
                                            NWR.
Katrina..........................   43615  Mississippi         MS.......  NWR.....  August 2005......  Repair/Replace damaged fire equipment...........................  ..........       60,000
                                            Sandhill Crane
                                            NWR.
                                                                                                                                                                                    ------------
      Mississippi Sandhill Crane   ......  ..................  .........  ........  .................  ................................................................  ..........    5,820,000
       NWR Total.
                                                                                                                                                                                    ============
Katrina..........................   43582  Morgan Brake NWR..  MS.......  NWR.....  August 2005......  Repair Alexandrer Slough Access.................................    10038758       75,000
                                                                                                                                                                                    ------------
      Morgan Brake NWR Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........       75,000
                                                                                                                                                                                    ============
Rita.............................   43270  Natchitoches NFH..  LA.......  NFH.....  September 2005...  Downed tree and debris removal (1st push & pull)................         n/a       20,000
Rita.............................   43270  Natchitoches NFH..  LA.......  NFH.....  September 2005...  Repair flooded/damaged roads & culverts.........................    10017318       10,000
Rita.............................   43270  Natchitoches NFH..  LA.......  NFH.....  September 2005...  Replace dislodged main hatchery drain discharge pipe............    10017309      210,000
                                                                                                                                                                                    ------------
      Natchitoches NFH Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........      240,000
Dennis...........................   41580  National Key Deer   FL.......  NWR.....  July 2005........  Replace/Repair ten damaged backcountry buoys....................    10014803       20,000
                                            Refuge.
Wilma............................   41580  National Key Deer   FL.......  NWR.....  October 2005.....  Replace damaged Quarters (Cudjoe Key)--damaged during Katrina...    10051007      750,000
                                            Refuge.
Wilma............................   41580  National Key Deer   FL.......  NWR.....  October 2005.....  Repair/Replace destroyed boundary markers/buoys.................         n/a       50,000
                                            Refuge.
Wilma............................   41580  National Key Deer   FL.......  NWR.....  October 2005.....  Replace three (3) damaged/destroyed vehicles....................         n/a       90,000
                                            Refuge.
Wilma............................   41580  National Key Deer   FL.......  NWR.....  October 2005.....  Repair flooded/damaged roadways.................................    multiple       30,000
                                            Refuge.
                                                                                                                                                                                    ------------
      National Key Deer Refuge     ......  ..................  .........  ........  .................  ................................................................  ..........      940,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 8.6 mile Brooksville-Louisville Road. Winston County,        10019043      600,000
                                                                                                        Route 011.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair GTR #4 Levee Road, Tracts 210, 394, Oktibbeha County.....    10019034      400,000
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 5.2 mile Brooksville-Louisville Road, Noxubee County,        10019044      450,000
                                                                                                        Route 011.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair Section Line Road-W-Winston County, Route 108............    10019028      600,000
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair Permanent Fire Breaks....................................    10019027      450,000
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair Trails--Woodpecker, Prairie Grass, Scattertown,              10019022      100,000
                                                                                                        Wilderness, Beaver Dam, Trail of Big Trees--in various tracts.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 5.71 mile Dummy Line Road--Winston County, tracts 394,       10018960      750,000
                                                                                                        1863, Route 110.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 0.75 mile Goose Pen Road in Winston County, Route number     10018945      100,000
                                                                                                        113.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 2.5 mile Goose Pen Road in Noxubee County (road tracts       10018944      250,000
                                                                                                        381a- 1816), Route number 113..
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 1.8 mile Douglas Bluff Road, Noxubee County (road tracts     10018943      200,000
                                                                                                        385, 1869).
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 1.2 mile Bluff Lake Road in Oktibbeha County, Route #010.    10018942      250,000
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Repair 1.76 mile River Road (road tracts 91 i-374), Route number    10018941      200,000
                                                                                                        101.
Katrina..........................   43620  Noxubee NWR.......  MS.......  NWR.....  August 2005......  Clean/remove debris/trees from roads and parking areas..........         N/A      150,000
                                                                                                                                                                                    ------------
      Noxubee NWR Total..........  ......  ..................  .........  ........  .................  ................................................................  ..........    4,500,000
                                                                                                                                                                                    ============
Wilma............................   41540  Office of Law       FL.......  OLE.....  October 2005.....  Repair/Replace manatee protection signs.........................         n/a      750,000
                                            Enforcement.
                                                                                                                                                                                    ------------
      Office of Law Enforcement    ......  ..................  .........  ........  .................  ................................................................  ..........      750,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to endangered red-cockaded            N/A       $5,000
                                            Office.                                                     woodpecker (repair cavity trees).
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to endangered lichen                  N/A      $20,000
                                            Office.                                                     populations (C. perforata).
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to endangered gulf sturgeon           N/A      $20,000
                                            Office.                                                     (repair culverts; erosion control).
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to endangered piping plover..         N/A      $70,000
                                            Office.
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to endangered beach mouse             N/A     $345,000
                                            Office.                                                     (repair dune walkovers; beach stabilization).
Katrina..........................   41410  Panama City Field   FL.......  ES......  August 2005......  Support, surveys, emergency relief to threatened & endangered            N/A     $440,000
                                            Office.                                                     sea turtle species (beach stabilization).
                                                                                                                                                                                    ------------
      Panama City Field Office     ......  ..................  .........  ........  .................  ................................................................  ..........      900,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   43581  Panther Swamp NWR.  MS.......  NWR.....  August 2005......  Repair Deep Bayou Road..........................................    10018392      100,000
                                                                                                                                                                                    ------------
      Panther Swamp NWR Total....  ......  ..................  .........  ........  .................  ................................................................  ..........      100,000
                                                                                                                                                                                    ============
Katrina..........................   43290  Private John Allen  MS.......  NFH.....  July 2005........  Downed tree and debris removal (1st push & pull)................         n/a      150,000
                                            NFH.
Katrina..........................   43290  Private John Allen  MS.......  NFH.....  August 2005......  Repair damage to Perimeter Road.................................    10017397       83,000
                                            NFH.
Katrina..........................   43290  Private John Allen  MS.......  NFH.....  August 2005......  Repair flood damage to office parking area......................    10044206       15,000
                                            NFH.
Dennis...........................   43290  Private John Allen  MS.......  NFH.....  July 2005........  Repair erosion damage to Pond 8A levee..........................    10017384      235,000
                                            NFH.
Dennis...........................   43290  Private John Allen  MS.......  NFH.....  July 2005........  Replace damaged fishery drain line..............................    10017389      397,000
                                            NFH.
Dennis...........................   43290  Private John Allen  MS.......  NFH.....  July 2005........  Repair damage to backup power generator system..................    10014993       50,000
                                            NFH.
                                                                                                                                                                                    ------------
      Private John Allen NFH       ......  ..................  .........  ........  .................  ................................................................  ..........      930,000
       Total.
                                                                                                                                                                                    ============
Rita.............................   42653  Red River NWR.....  LA.......  NWR.....  September 2005...  Repair damage to refuge office & maintenance facility               10046523      133,800
                                                                                                        (additional funds).
                                                                                                                                                                                    ------------
      Red River NWR Total........  ......  ..................  .........  ........  .................  ................................................................  ..........      133,800
                                                                                                                                                                                    ============
Katrina..........................   42577  Reelfoot NWR......  TN.......  NWR.....  August 2005......  Repair Grassy Island Autotour Route.............................    10016811       75,000
                                                                                                                                                                                    ------------
      Reelfoot NWR Total.........  ......  ..................  .........  ........  .................  ................................................................  ..........       75,000
                                                                                                                                                                                    ============
Katrina..........................   40130  Regional Chief      GA.......  NWR.....  August 2005......  Initial response and recovery...................................         N/A    5,000,000
                                            NWRS.
Rita.............................   40130  Regional Chief      GA.......  NWR.....  September 2005...  Initial response and recovery...................................         N/A    2,130,000
                                            NWRS.
                                                                                                                                                                                    ------------
      Regional Chief NWRS Total..  ......  ..................  .........  ........  .................  ................................................................  ..........    7,130,000
                                                                                                                                                                                    ============
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  HAZMAT/Debris removal...........................................  ..........   12,000,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Vastar Road (Old RPI Number 164)...............    10019210    1,000,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to 1A/1B Parking Area Rte #904 (Old RPI Number        10019184       50,000
                                                                                                        138).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace/repair refuge posting ( Old RPI Number 38)..............    10019130      600,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to concrete nature trail and boardwalk (Old RPI       10019140      500,000
                                                                                                        Number 78) (partnership w/tourism board).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to 3 Mile Canal bridge--bridge inventory #43640-      10019214      250,000
                                                                                                        00168 (Old RPI Number 168).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Northline parking lot Rte #901 & pier (Old RPI     10019178    1,500,000
                                                                                                        Number 132).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Plains Road 3.1 miles long (Old RPI Number 166)    10019212    2,000,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damaged boathouse........................................    10019133      150,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Vastar Rd. bridge--bridge inventory #43640-        10019216      120,000
                                                                                                        00170 (Old RPI Number 170).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Hwy. 27 bridge--bridge inventory #43640-00171      10019217      218,000
                                                                                                        (Old RPI Number 171).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Hog Island South parking lot Rte #903 (Old RPI     10019163      250,000
                                                                                                        Number 115).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to South West Cove parking area Rte #906 (Old RPI     10019164      100,000
                                                                                                        Number 116).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Nature Trail Parking Lot Rte #907 (Old RPI         10019180      100,000
                                                                                                        Number 134).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  TVA Agreement--Repair 1A/1B and Pool 3 impoundment levees         ..........   11,600,000
                                                                                                        (Sabine); includes damaged structures and public-use facilities
                                                                                                        (boatramps, trails, parking areas, etc.).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to Northline bridge--bridge inventory #43640-00169    10019215      250,000
                                                                                                        (Old RPI Number 169).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace destroyed maintenance shop..............................    10019172    1,500,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace destroyed headquarters--RES complete for standard design    10019161    4,000,000
                                                                                                        of small office/VC facility.
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damaged oil house........................................    10019168      120,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damage to West Cove parking lot (north side) Rte #905        10019179      100,000
                                                                                                        (Old RPI Number 133).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair damaged fueling facilities; above ground fuel storage        10019155      160,000
                                                                                                        tanks (Old RPI Number 105).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace destroyed fire headquarters/shop building...............    10019168    1,500,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Maintenace Area Water lines (Old RPI Number 152)................    10019198      100,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Maintenance Area Electric Lines (Old RPI Number 153)............    10019199      250,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Security Fence at Headquarters Compound (Old RPI Number 162)....    10019208       75,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair destroyed restrooms at nature trail (Old RPI Number 114).    10019162      125,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace destroyed radio tower & radio communication equipment...    10018826      250,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair viewing tower, 24' X 12' with metal roof and an attached     10019209       35,000
                                                                                                        90' X 5' accessible walking ramp. Located near Hwy 27 and
                                                                                                        Headquarters. (Old RPI Number163).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace Headquarters' sewerage treatment unit. (Old RPI Number      10019192       20,000
                                                                                                        146).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace Headquarters Telephone System and lines (Old RPI Number     10019200      250,000
                                                                                                        154).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair sewage treatment unit (Nature trail) (Old RPI Number 108)    10019157       50,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair/Reopen 18 miles of canals................................  ..........    3,600,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Headquarters/Visitor Center's Parking and Driveway Rte #900 (Old    10019193      100,000
                                                                                                        RPI Number147).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Maintenance Parking Areas (Old RPI Number148)...................    10019194      200,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Blue Goose Trail Driveway and Parking Area (Old RPI Number150)..    10019196       90,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Bridge, inventory #43640-00170, Backridge, on Vastar Rd crossing    10019216      150,000
                                                                                                        Central Canal; public use (Old RPI Number 170).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Bridge, inventory #43640-00171, Hwy. 27 & Central Canal             10019217      100,000
                                                                                                        (identified in EFMIS & formerly known as Texaco bridge,
                                                                                                        inventory #43640-00136??) (Old RPI Number171).
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair rear access road to pole shed (Old RPI Number198)........    10049951       22,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace damaged ATVs............................................  ..........       15,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace damaged office equipment/furniture/supplies.............         N/A      100,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace damaged vehicle (truck).................................  ..........       35,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace damaged vehicle (SUV)...................................  ..........       25,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace/Repairs multiple damaged boats/trailers.................  ..........       35,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Replace destroyed helipad/used for fire suppression operations..  ..........      100,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Repair/Replace damaged fire equipment...........................  ..........      300,000
Rita.............................   43640  Sabine NWR........  LA.......  NWR.....  September 2005...  Downed tree and debris removal (1st push & pull)--Hwy 27                 N/A      450,000
                                                                                                        hazardous material debris.
                                                                                                                                                                                    ------------
      Sabine NWR Total...........  ......  ..................  .........  ........  .................  ................................................................  ..........   44,545,000
                                                                                                                                                                                    ============
Wilma............................   41420  South Florida ES    FL.......  ES......  October 2005.....  Repair Turtle Hospital (Monroe Co.) in the Florida Keys.........         n/a      183,200
                                            Office.
                                                                                                                                                                                    ------------
      South Florida ES Office      ......  ..................  .........  ........  .................  ................................................................  ..........      183,200
       Total.
                                                                                                                                                                                    ============
Katrina..........................   42640  St. Catherine       MS.......  NWR.....  August 2005......  Repair Pintail Lane, Route 010..................................    10017046      250,000
                                            Creek NWR.
                                                                                                                                                                                    ------------
      St. Catherine Creek NWR      ......  ..................  .........  ........  .................  ................................................................  ..........      250,000
       Total.
                                                                                                                                                                                    ============
Dennis...........................   41640  St. Marks NWR.....  FL.......  NWR.....  July 2005........  TVA Agreement--Repair primary dikes/levees (additional funds)...  ..........    2,000,000
Dennis...........................   41640  St. Marks NWR.....  FL.......  NWR.....  July 2005........  Replace damaged and missing pilings/markings for Executive          10015299      300,000
                                                                                                        Closure Order.
Dennis...........................   41640  St. Marks NWR.....  FL.......  NWR.....  July 2005........  Repair overwash/undermined lighthouse pakring lot...............    10038986       20,000
                                                                                                                                                                                    ------------
      St. Marks NWR Total........  ......  ..................  .........  ........  .................  ................................................................  ..........    2,320,000
                                                                                                                                                                                    ============
Dennis...........................   41650  St. Vincent NWR...  FL.......  NWR.....  July 2005........  Replace damaged/missing boundary signs..........................    10040181       20,000
Dennis...........................   41650  St. Vincent NWR...  FL.......  NWR.....  July 2005........  Repair damaged barge storage building (barge is used to access      10015319      350,000
                                                                                                        St. Vincent NWR).
Dennis...........................   41650  St. Vincent NWR...  FL.......  NWR.....  July 2005........  Repair flooded Indian Pass check station........................    10015330       10,000
Dennis...........................   41650  St. Vincent NWR...  FL.......  NWR.....  July 2005........  Replace misc. small equipment in flooded storage facility.......         n/a       25,000
Dennis...........................   41650  St. Vincent NWR...  FL.......  NWR.....  July 2005........  Repair damage at Indian Pass parking area/pump house............    10052228        4,000
                                                                                                                                                                                    ------------
      St. Vincent NWR Total......  ......  ..................  .........  ........  .................  ................................................................  ..........      409,000
                                                                                                                                                                                    ============
Katrina..........................   43645  Tallahatchie NWR..  MS.......  NWR.....  August 2005......  Repair Flat Lake Access Road....................................    10044518       75,000
                                                                                                                                                                                    ------------
      Tallahatchie NWR Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........       75,000
                                                                                                                                                                                    ============
Wilma............................   41555  Ten Thousand        FL.......  NWR.....  October 2005.....  Repair/Replace destroyed boundary markers/buoys.................         n/a      100,000
                                            Islands NWR.
Wilma............................   41555  Ten Thousand        FL.......  NWR.....  October 2005.....  Repair flooded/damaged roadways.................................    multiple      250,000
                                            Islands NWR.
                                                                                                                                                                                    ------------
      Ten Thousand Islands NWR     ......  ..................  .........  ........  .................  ................................................................  ..........      350,000
       Total.
                                                                                                                                                                                    ============
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Replace destroyed refuge residence/quarters (additional funds)..  ..........      550,000
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Repair Bridge, Cross Bayou(Fina). Inventory #- 43690-00019......    10042739      200,000
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Repair bridge, Tensas River @ Mill Road-bridge inventory #43690-    10019992      700,000
                                                                                                        00005 (Cross roads).
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Repair Rainey lake road, Rte #010. (Cross roads to refuge           10020002      450,000
                                                                                                        headquarters).
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Repair misc. damage to roads/trails/ATV.........................  ..........      250,000
Katrina..........................   43690  Tensas River NWR..  LA.......  NWR.....  August 2005......  Clean/remove debris/trees from roads and parking areas..........         N/A       40,000
                                                                                                                                                                                    ------------
      Tensas River NWR Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........    2,190,000
                                                                                                                                                                                    ============
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Downed tree and debris removal (1st push & pull)................         n/a        2,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair damage to roadways & parking areas.......................    multiple       75,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair water/electrical damage to Laboratory Building...........    10014262       93,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair water damage to Aquarium Building........................    10014245       65,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair flood damage/erosion to multiple facilities..............    multiple       37,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair water damage to Residence (#3)...........................    10014224       20,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Replace wetlab gutters..........................................    10014263       12,000
Dennis...........................   41280  Warm Springs RFC..  GA.......  NFH.....  July 2005........  Repair damaged fencing around compound..........................    10014290        8,000
                                                                                                                                                                                    ------------
      Warm Springs RFC Total.....  ......  ..................  .........  ........  .................  ................................................................  ..........      312,000
                                                                                                                                                                                    ============
Katrina..........................   42682  Yazoo NWR.........  MS.......  NWR.....  August 2005......  Repair Wildlife Drive...........................................    10019865      125,000
                                                                                                                                                                                    ------------
      Yazoo NWR Total............  ......  ..................  .........  ........  .................  ................................................................  ..........      125,000
                                                                                                                                                                                    ============
      Subtotal: Second             ......  ..................  .........  ........  .................  ................................................................  ..........  121,800,000
       supplemental.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                          STORM DAMAGE DETAIL REPORT--SOUTHEAST REGION--HURRICANES KATRINA, OPHELIA, RITA, WILMA AS OF JANUARY 19, 2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
               Park                    Storm                                Asset/Need                                                    Recommended repair                           Estimate
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Big Cypress National Preserve....  Rita.........  BCW--Loop Road, unpaved RTE. 0102............................  regrade road surface/repair culverts...............................    $484,608
Big Cypress National Preserve....  Wilma........  40M--40 Mile Bend Check Station Bldg A123....................  replace shutter....................................................         552
Big Cypress National Preserve....  Wilma........  40M--Grounds.................................................  remove debris......................................................         122
Big Cypress National Preserve....  Wilma........  BCW--Big Cypress Wetland, Grounds............................  RCW, Eagle surveys, inventories....................................     909,687
Big Cypress National Preserve....  Wilma........  BCW--Birdon Road, unpaved....................................  replace signs......................................................         921
Big Cypress National Preserve....  Wilma........  BCW--Jim Dill Road, unpaved RTE. 0703........................  remove debris......................................................      12,251
Big Cypress National Preserve....  Wilma........  BCW--Loop Road, paved Rt. 102................................  repair signs, culverts, asphalt roadway............................      55,596
Big Cypress National Preserve....  Wilma........  BCW--Loop Road, unpaved RTE .0102............................  repair road-culverts, washouts, shoulders..........................   4,770,216
Big Cypress National Preserve....  Wilma........  BCW--Lower Wagon Wheel Road, unpaved.........................  remove trees, replace signs........................................         587
Big Cypress National Preserve....  Wilma........  BCW--Pine Oaks Road, unpaved RTE. 0106.......................  remove trees/debris................................................         188
Big Cypress National Preserve....  Wilma........  BCW--SCA Bldg A68............................................  replace radio tower, facia, soffit, repair screen..................      66,571
Big Cypress National Preserve....  Wilma........  BCW--West Fire Prairie Trail.................................  clear brush........................................................       4,473
Big Cypress National Preserve....  Wilma........  BL--Burns Lake Campground Road...............................  remove trees.......................................................         514
Big Cypress National Preserve....  Wilma........  BL--Burns Lake Campground, Grounds...........................  repair kiosk roof, reset portapotties..............................         597
Big Cypress National Preserve....  Wilma........  BL--TPBL 02 VIP Site/Housing.................................  install service pedastall..........................................       1,019
Big Cypress National Preserve....  Wilma........  BR--Bass Lake Road, Unpaved..................................  remove downed trees................................................         318
Big Cypress National Preserve....  Wilma........  DD--Dona Drive Grounds.......................................  Remove debris......................................................         492
Big Cypress National Preserve....  Wilma........  DL--Deep L Fire Station Bl...................................  replace downspout, repair metal doors..............................      11,822
Big Cypress National Preserve....  Wilma........  DL--Deep Lake, Water Dist. System............................  remove debirs,clean system.........................................       2,494
Big Cypress National Preserve....  Wilma........  EE--EE Center Bld A61........................................  replace window.....................................................       1,174
Big Cypress National Preserve....  Wilma........  FO--Fire Operations Center, Bldg. A100.......................  replace posts/facia, repair framing................................       6,744
Big Cypress National Preserve....  Wilma........  GH--Gator Head, Roads........................................  remove debris......................................................       2,851
Big Cypress National Preserve....  Wilma........  GHS--Gator Hook Trail........................................  remove debris......................................................      11,676
Big Cypress National Preserve....  Wilma........  GHS--Gator Hook, Chickee Bldg. A145..........................  reset cross T's....................................................         160
Big Cypress National Preserve....  Wilma........  GHS--Gator Hook, Chickee Bldg. A146..........................  reset cross T's....................................................         160
Big Cypress National Preserve....  Wilma........  HP--Hp Williams Grounds......................................  remove debris......................................................         318
Big Cypress National Preserve....  Wilma........  I--South I-75 Gounds.........................................  remove trees.......................................................         856
Big Cypress National Preserve....  Wilma........  I--South I-75 Parking Lot....................................  replace barrier sections...........................................         122
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter Boardwalk..................................  replace lumber sections............................................         636
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter Chickee Bldg. A141.........................  replace chickee....................................................      10,830
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter Chickee Bldg. A142.........................  replace chickee....................................................      10,830
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter Chickee Bldg. A143.........................  replace chickee....................................................      10,830
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter Chickee Bldg. A144.........................  replace chickee....................................................      10,830
Big Cypress National Preserve....  Wilma........  KS--Kirby Storter, Grounds...................................  remove debris/replace picnic table.................................       3,091
Big Cypress National Preserve....  Wilma........  LP--Loop Road RS, Barn Bldg A97..............................  replace windows, repair siding.....................................       2,915
Big Cypress National Preserve....  Wilma........  LP--Loop Road RS, Bldg. A96 B Upstair Q-96...................  repair roof, replace carpet, porch.................................      35,941
Big Cypress National Preserve....  Wilma........  LP--Loop Road RS, Fuel Island (Unleaded Gas).................  replace tank cover.................................................         130
Big Cypress National Preserve....  Wilma........  LP--Loop Road RS, Grounds....................................  repair fence, remove debris........................................       1,452
Big Cypress National Preserve....  Wilma........  MC--Mitchell, Grounds........................................  remove debris/repair kiosk roof....................................       7,193
Big Cypress National Preserve....  Wilma........  MC--Mitchell, Road...........................................  repair gravel road.................................................      20,324
Big Cypress National Preserve....  Wilma........  ML--Monument Comfort Station.................................  replace screen, soffit, skylight, roof vent........................       2,595
Big Cypress National Preserve....  Wilma........  ML--Monument Lake Grounds....................................  repair signs, replace grills.......................................       4,716
Big Cypress National Preserve....  Wilma........  MS--Monroe Station, Bldg. A76................................  repair bldg damage, remove debris..................................      49,719
Big Cypress National Preserve....  Wilma........  MW--Midway Grounds...........................................  replace signs, chickees, trees, remove debris......................     151,240
Big Cypress National Preserve....  Wilma........  MW--Midway, Comfort Station Bldg. A 127......................  replace siding.....................................................         130
Big Cypress National Preserve....  Wilma........  OA--Aviation Hangar A91......................................  replace door, downspout, weather station...........................      10,534
Big Cypress National Preserve....  Wilma........  OA--Herbicide Storage A86....................................  repair roof........................................................       1,522
Big Cypress National Preserve....  Wilma........  OA--Oasis Comfort Station Bldg. A126.........................  replace soffit.....................................................       1,884
Big Cypress National Preserve....  Wilma........  OA--Pole Barn #2 A90.........................................  repair roof........................................................         606
Big Cypress National Preserve....  Wilma........  OA--Quarters #1..............................................  replace porch screen...............................................       1,065
Big Cypress National Preserve....  Wilma........  OA--Ranger Storage A85.......................................  repair roof........................................................       1,522
Big Cypress National Preserve....  Wilma........  OA--Repeater Building A88....................................  repair fence, replace roof turbine.................................         742
Big Cypress National Preserve....  Wilma........  OA--Visitor Cent. Bld A79....................................  replace screen and door, repair fence..............................      13,753
Big Cypress National Preserve....  Wilma........  OA--Wood House A98...........................................  replace soffit.....................................................         590
Big Cypress National Preserve....  Wilma........  OA--Woodhouse Grounds........................................  remove debris......................................................         848
Big Cypress National Preserve....  Wilma........  OH--Headquarter BldA50.......................................  repair roof, antenna, screen, replace gutters......................      20,031
Big Cypress National Preserve....  Wilma........  OH--HQ Parking Area, East--Rte 900...........................  repair lights......................................................       1,057
Big Cypress National Preserve....  Wilma........  OH--HQ Parking Area, West Rte 900............................  repair lights......................................................       2,665
Big Cypress National Preserve....  Wilma........  OH--HQ Swimming Pool.........................................  replace porch enclosure............................................      56,581
Big Cypress National Preserve....  Wilma........  OH--Maint. Bldg. A54.........................................  repair roof, vent cap, facia.......................................       5,010
Big Cypress National Preserve....  Wilma........  OH--Ochopee Vehicle Wash Station Bldg. A113..................  replace soffit, fence..............................................       3,916
Big Cypress National Preserve....  Wilma........  OH--Ochopee Water Dist. System...............................  replace generator..................................................      21,428
Big Cypress National Preserve....  Wilma........  OH--Quarters #19.............................................  replace screen , downspout.........................................         477
Big Cypress National Preserve....  Wilma........  OH--Quarters #15.............................................  replace facia, soffit, porch screen, drip edge.....................      15,839
Big Cypress National Preserve....  Wilma........  OH--Quarters #16.............................................  replace porch, repair tower and siding.............................      15,124
Big Cypress National Preserve....  Wilma........  OH--Quarters #17.............................................  replace shutters, porch, shingles..................................      13,634
Big Cypress National Preserve....  Wilma........  OH--Quarters #20.............................................  replace screen, facia, soffit, repair porch........................       4,089
Big Cypress National Preserve....  Wilma........  OH--Quarters #21.............................................  replace fence, roof tile, gutters, porch...........................      39,479
Big Cypress National Preserve....  Wilma........  OH--Quarters #22.............................................  repair roof and ceilings...........................................       6,407
Big Cypress National Preserve....  Wilma........  OH--Quarters #23.............................................  repair roof and screen.............................................      37,384
Big Cypress National Preserve....  Wilma........  OH--Quarters #25.............................................  repair roof and porch..............................................       9,206
Big Cypress National Preserve....  Wilma........  OH--Ranger Station A67.......................................  replace wiring, screen.............................................       2,018
Big Cypress National Preserve....  Wilma........  OH--Wastewater System/Treatment Plant........................  repair fence.......................................................       6,871
Big Cypress National Preserve....  Wilma........  ORV--Bear Island Trail.......................................  remove debris......................................................      90,091
Big Cypress National Preserve....  Wilma........  ORV--Buckskin Trail..........................................  remove debris......................................................      48,916
Big Cypress National Preserve....  Wilma........  ORV--Burns Lake Trail........................................  remove debris......................................................      28,862
Big Cypress National Preserve....  Wilma........  ORV--Concho Billy Trail......................................  remove debris......................................................     105,092
Big Cypress National Preserve....  Wilma........  ORV--Jetport Trail...........................................  remove debris......................................................      22,783
Big Cypress National Preserve....  Wilma........  ORV--Little Deer Trail.......................................  remove debris......................................................      25,176
Big Cypress National Preserve....  Wilma........  ORV--Lost Dog Trail..........................................  remove debris......................................................      25,176
Big Cypress National Preserve....  Wilma........  ORV--Monroe South Trail......................................  remove debris......................................................      20,434
Big Cypress National Preserve....  Wilma........  ORV--Monument Bypass Trail...................................  remove debris......................................................      25,176
Big Cypress National Preserve....  Wilma........  ORV--Monument Trail..........................................  remove debris......................................................      50,960
Big Cypress National Preserve....  Wilma........  ORV--Mud Lake Trail..........................................  remove debris......................................................      28,218
Big Cypress National Preserve....  Wilma........  ORV--North Little Deer Trail.................................  remove debris......................................................      25,176
Big Cypress National Preserve....  Wilma........  ORV--North Raccoon Point Trail...............................  remove debris......................................................      16,305
Big Cypress National Preserve....  Wilma........  ORV--Oasis Trail.............................................  remove debris......................................................      56,524
Big Cypress National Preserve....  Wilma........  ORV--Paces Dike..............................................  remove debris......................................................      11,305
Big Cypress National Preserve....  Wilma........  ORV--Pipeline Trail..........................................  remove debris......................................................       7,827
Big Cypress National Preserve....  Wilma........  ORV--Raccoon Loop Trail......................................  remove debris......................................................       9,566
Big Cypress National Preserve....  Wilma........  ORV--Raccoon Point Trail.....................................  remove debris......................................................      50,873
Big Cypress National Preserve....  Wilma........  ORV--Rock Toad Trail.........................................  remove debris......................................................      31,262
Big Cypress National Preserve....  Wilma........  ORV--Sig Walker Airboat Waterway Trail.......................  remove debris......................................................      19,721
Big Cypress National Preserve....  Wilma........  ORV--Skillet North Trail.....................................  remove debris......................................................      30,437
Big Cypress National Preserve....  Wilma........  ORV--South Little Deer Trail.................................  remove debris......................................................      27,392
Big Cypress National Preserve....  Wilma........  ORV--West Raccoon Point Trail................................  remove debris......................................................      16,305
Big Cypress National Preserve....  Wilma........  ORV--Windmill Trail..........................................  remove debris......................................................      10,871
Big Cypress National Preserve....  Wilma........  ORV--Zone 4 Airboat Waterway Trail...........................  remove downed trees................................................      65,733
Big Cypress National Preserve....  Wilma........  PC--Pine Crest, Grounds......................................  remove haz trees...................................................       6,841
Big Cypress National Preserve....  Wilma........  PJ--Pink Jeep, Campsites.....................................  remove downed trees................................................       2,866
Big Cypress National Preserve....  Wilma........  SC--Scissor Camp, Bldg. A107.................................  repair soffit, remove trees........................................         321
Big Cypress National Preserve....  Wilma........  SC--Scissor Camp, Grounds....................................  remove debris......................................................         463
Big Cypress National Preserve....  Wilma........  TR--Quarter #4, Grounds......................................  remove debris......................................................       1,262
Big Cypress National Preserve....  Wilma........  TR--Quarter #2 Gournds.......................................  repalce fence gate, remove debris..................................       1,680
Big Cypress National Preserve....  Wilma........  TR--Quarters # 4.............................................  replace meter,gutters, screen......................................       1,657
Big Cypress National Preserve....  Wilma........  TR--Quarters #2..............................................  repair screen/replace gutter.......................................         584
Big Cypress National Preserve....  Wilma........  WP--Weeks Prop House.........................................  replace door, repair roof..........................................       8,419
Big Cypress National Preserve....  Wilma........  WP--Weeks Storage Bldg. A108.................................  replace siding, corregated tin.....................................       3,475
Biscayne National Park...........  Katrina......  AK Landscape-................................................  Replace Sea Grape Tree.............................................       1,610
Biscayne National Park...........  Katrina......  AK Residence East 103-.......................................  repair roof........................................................         800
Biscayne National Park...........  Katrina......  BC Lighthouse-...............................................  replace broken dome windows........................................         442
Biscayne National Park...........  Katrina......  BC Trail-....................................................  Remove and replace 2 trees.........................................       4,816
Biscayne National Park...........  Katrina......  CP Duplex (Housing)-.........................................  replace screens....................................................       1,886
Biscayne National Park...........  Katrina......  CP Entrance Road-............................................  repair fence/remove trees..........................................       1,811
Biscayne National Park...........  Katrina......  CP HQ Bldg-..................................................  replace screens....................................................       1,947
Biscayne National Park...........  Katrina......  CP Landscape-................................................  replace trees......................................................       5,527
Biscayne National Park...........  Katrina......  CP Trail-....................................................  Replace sign at end of Jetty.......................................         170
Biscayne National Park...........  Katrina......  EK VC--......................................................  repair roof-replace shingles.......................................       2,428
Biscayne National Park...........  Rita.........  BB Stiltsville 2146..........................................  Replace Dock.......................................................      22,437
Biscayne National Park...........  Rita.........  BB Stiltsville 2303..........................................  Replace Dock.......................................................      12,330
Biscayne National Park...........  Rita.........  CP Marina-Waterfront system..................................  Repair CP Floating Docks...........................................      16,835
Biscayne National Park...........  Rita.........  EK Boardwalk.................................................  Replace Destroyed sections of boardwalk............................     265,378
Biscayne National Park...........  Wilma........  AK Electrical Generating System..............................  repair electrical connections......................................         773
Biscayne National Park...........  Wilma........  AK Landscape.................................................  remove debris......................................................       1,353
Biscayne National Park...........  Wilma........  AK residence East 103........................................  replace gutters, screen, repair hvac, remove debris................       6,469
Biscayne National Park...........  Wilma........  AK residence West 102........................................  repair roof, hvac, replace screen..................................      16,106
Biscayne National Park...........  Wilma........  AK Trail.....................................................  clear brush........................................................       2,832
Biscayne National Park...........  Wilma........  AK Waste Water System........................................  repair electrical connections......................................         583
Biscayne National Park...........  Wilma........  AK Water System..............................................  repair electrical connections......................................         773
Biscayne National Park...........  Wilma........  BC Barn......................................................  repair roof, vents.................................................         812
Biscayne National Park...........  Wilma........  BC Chapel....................................................  repair roof........................................................         664
Biscayne National Park...........  Wilma........  BC Comfort Station...........................................  repair roof, porta john............................................       8,413
Biscayne National Park...........  Wilma........  BC Generator Bldg............................................  repair steps, replace vents........................................       1,218
Biscayne National Park...........  Wilma........  BC Landscape.................................................  replace signs,repair washouts......................................       4,428
Biscayne National Park...........  Wilma........  BC Lighthouse................................................  replace glass panes, repair steps, window trim.....................         818
Biscayne National Park...........  Wilma........  BC Pavillion.................................................  repaint pavillion..................................................       1,590
Biscayne National Park...........  Wilma........  Biscayne National Park Computer Network......................  replace battery backups............................................       1,176
Biscayne National Park...........  Wilma........  Biscayne National Park Fleet.................................  repair fleet.......................................................      11,000
Biscayne National Park...........  Wilma........  Biscayne National Parkayne Bay-replace navigation aids.......  replace lost/destroyed nav aids....................................      27,043
Biscayne National Park...........  Wilma........  Blackpoint Jetty Trail.......................................  remove debris, replace concrete bridge washouts....................      49,807
Biscayne National Park...........  Wilma........  CP Bone Yard.................................................  remove debris......................................................         241
Biscayne National Park...........  Wilma........  CP Duplex-residence..........................................  replace screen.....................................................       6,606
Biscayne National Park...........  Wilma........  CP HQ Bldg...................................................  replace screen, repair hvac, lattice...............................      13,918
Biscayne National Park...........  Wilma........  CP Landscape.................................................  replace lights/remove debris.......................................     114,929
Biscayne National Park...........  Wilma........  CP Maintenance Bldg..........................................  repair hvac, siding, fiberglass....................................       2,427
Biscayne National Park...........  Wilma........  CP Marina-Waterfront system..................................  replace finger piers...............................................     205,220
Biscayne National Park...........  Wilma........  CP Picnic Area...............................................  remove debris......................................................       2,165
Biscayne National Park...........  Wilma........  CP Trail.....................................................  remove debris/replace toe rail, repair boardwalk...................       1,825
Biscayne National Park...........  Wilma........  CP VC Parking Lot............................................  replace signs/trash cans...........................................       5,348
Biscayne National Park...........  Wilma........  CP Visitor Center............................................  repair handrails...................................................       1,104
Biscayne National Park...........  Wilma........  CP Waste Water System........................................  remove debris, inspect lift station................................       1,012
Biscayne National Park...........  Wilma........  EK Boardwalk.................................................  replace decking....................................................     286,001
Biscayne National Park...........  Wilma........  EK Comfort Station...........................................  repair roof,frame,fascia...........................................      19,932
Biscayne National Park...........  Wilma........  EK Generator Bldg............................................  replace bldg.......................................................       5,313
Biscayne National Park...........  Wilma........  EK Horseshoe Trail...........................................  remove debris......................................................      10,707
Biscayne National Park...........  Wilma........  EK Landscape.................................................  remove debris......................................................       6,459
Biscayne National Park...........  Wilma........  EK Maintenance Bldg..........................................  replace roof.......................................................      14,418
Biscayne National Park...........  Wilma........  EK Residence East 213........................................  repair roof, hvac, pilings, appliances.............................      18,407
Biscayne National Park...........  Wilma........  EK Residence West 212........................................  repair roof, hvac, pilings,screens, wiring.........................      15,838
Biscayne National Park...........  Wilma........  EK Spite Highway trail.......................................  remove debris......................................................      55,184
Biscayne National Park...........  Wilma........  EK Swim Area.................................................  remove debris......................................................       2,992
Biscayne National Park...........  Wilma........  EK VC........................................................  repair roof,overhead doors, electrical system......................      28,034
Biscayne National Park...........  Wilma........  EK WTP Bldg & Covered Storage................................  replace roof.......................................................      14,418
Biscayne National Park...........  Wilma........  Florida Straits-replace navigation aids......................  replace nav aids...................................................      12,725
Biscayne National Park...........  Wilma........  Stiltsville 2146.............................................  replace deck, repair roof..........................................      25,387
Biscayne National Park...........  Wilma........  Stiltsville 2157.............................................  repair roof, replace shed, dock....................................     108,208
Biscayne National Park...........  Wilma........  Stiltsville 2159.............................................  replace dock,repair roof,fence.....................................      21,399
Biscayne National Park...........  Wilma........  Stiltsville 2167.............................................  repair roof, siding, replace deck/dock.............................      65,669
Biscayne National Park...........  Wilma........  Stiltsville 2173.............................................  repair deck, wiring, roof,.........................................      48,566
Biscayne National Park...........  Wilma........  Stiltsville 2213.............................................  replace deck, repair roof..........................................     206,187
Biscayne National Park...........  Wilma........  Stiltsville 2303.............................................  repair roof, replace screen........................................       8,275
Cape Hatteras National Seashore..  Ophelia......  BIBD Coquina Comfort Station.................................  repair roof........................................................         567
Cape Hatteras National Seashore..  Ophelia......  BIQT Q117....................................................  repair roof........................................................         487
Cape Hatteras National Seashore..  Ophelia......  BIQT Q120....................................................  repair roof........................................................         567
Cape Hatteras National Seashore..  Ophelia......  BIRMP Oregon Inlet Ramp 4....................................  replace carsonite signs posts......................................      12,143
Cape Hatteras National Seashore..  Ophelia......  HIBD Avon Pier House.........................................  repair roof........................................................       3,704
Cape Hatteras National Seashore..  Ophelia......  HIBD Cape Point CG Loop B Shower Bldg........................  repair roof........................................................       5,277
Cape Hatteras National Seashore..  Ophelia......  HIBD Cape Point CG Loop H Shower Bldg........................  repair roof........................................................       2,463
Cape Hatteras National Seashore..  Ophelia......  HIBD Cape Point CG Storage Kiosk.............................  repair roof........................................................       1,245
Cape Hatteras National Seashore..  Ophelia......  HIBD Frisco CG Loop E Shower Bldg............................  repair roof........................................................       3,028
Cape Hatteras National Seashore..  Ophelia......  HIBD Frisco Comfort Station..................................  repair roof caps...................................................         754
Cape Hatteras National Seashore..  Ophelia......  HIBD LH Fee Kiosk............................................  repair roof........................................................       3,983
Cape Hatteras National Seashore..  Ophelia......  HIHS Double Keepers Quarters (VC)............................  repair roof........................................................      61,102
Cape Hatteras National Seashore..  Ophelia......  HIHS Hatteras Weather Bureau.................................  replace handicap elevator door.....................................       2,046
Cape Hatteras National Seashore..  Ophelia......  HIHS Little Kinnakeet Boathouse..............................  repair roof........................................................         260
Cape Hatteras National Seashore..  Ophelia......  HIHS Principal Keepers Quarters (Bookstore)..................  repair roof........................................................      42,863
Cape Hatteras National Seashore..  Ophelia......  HIHS Ranger Station..........................................  repair roof........................................................      36,323
Cape Hatteras National Seashore..  Ophelia......  HIML Hattersas Island Maintained Landscape...................  replace signs......................................................      21,047
Cape Hatteras National Seashore..  Ophelia......  HIMW Avon Fishing Pier.......................................  Repair piers.......................................................      35,223
Cape Hatteras National Seashore..  Ophelia......  HIQT Q391....................................................  repair roof........................................................       3,441
Cape Hatteras National Seashore..  Ophelia......  HIQT T4......................................................  repair roof........................................................         891
Cape Hatteras National Seashore..  Ophelia......  HIRD Billy Mitchell Road-rte 014.............................  remove tree........................................................         285
Cape Hatteras National Seashore..  Ophelia......  HIRD Frisco Water Plant Road-rte 414.........................  repair road base...................................................      39,778
Cape Hatteras National Seashore..  Ophelia......  HIRD Ramp 55 Parking.........................................  remove sand from parking lot.......................................         987
Cape Hatteras National Seashore..  Ophelia......  HIRD Soundside Access MP53...................................  repair road surface................................................      19,495
Cape Hatteras National Seashore..  Ophelia......  HIRD Turnout Ramp 38-rte 913.................................  remove sand from parking lot.......................................       1,443
Cape Hatteras National Seashore..  Ophelia......  HIRMP Ramp 30................................................  fill and grade ramp................................................       2,474
Cape Hatteras National Seashore..  Ophelia......  HITR Buxton Woods Nature Trail...............................  remove trees.......................................................       3,283
Cape Hatteras National Seashore..  Ophelia......  OIBD Emergency Generator/Lumber Shed.........................  repair roof........................................................       3,741
Cape Hatteras National Seashore..  Ophelia......  OIBD Metal Storage Bldg......................................  replace metal storage bldg.........................................       7,366
Cape Hatteras National Seashore..  Ophelia......  OIBD Ocracoke Campground Shed................................  repair roof........................................................         319
Cape Hatteras National Seashore..  Ophelia......  OIBD Ocracoke CG Loop B Shower...............................  repair roof........................................................         567
Cape Hatteras National Seashore..  Ophelia......  OIBD Ocracoke Island Portalets...............................  repair roof........................................................       1,183
Cape Hatteras National Seashore..  Ophelia......  OIBD Q137....................................................  repair ceilings....................................................         721
Cape Hatteras National Seashore..  Ophelia......  OICS Ocracoke Campground Portalets...........................  replace door.......................................................         652
Cape Hatteras National Seashore..  Ophelia......  OIMI Pony Pen Corral.........................................  repair fence.......................................................       9,945
Cape Hatteras National Seashore..  Ophelia......  OIML Ocracoke Island Maintained Landscape....................  remove debris......................................................      32,039
Cape Hatteras National Seashore..  Ophelia......  OIN: Ocracoke Island Natural Landscape.......................  remove haz trees...................................................       3,821
Cape Hatteras National Seashore..  Ophelia......  OIQT Q137....................................................  repair roof........................................................         650
Cape Hatteras National Seashore..  Ophelia......  OIQT Q138....................................................  repair roof........................................................         650
Cape Hatteras National Seashore..  Ophelia......  OIQT Q138....................................................  repair ceilings....................................................       1,105
Cape Hatteras National Seashore..  Ophelia......  OIQT Q139....................................................  repair roof........................................................         650
Cape Hatteras National Seashore..  Ophelia......  OIQT Q139....................................................  repair ceilings....................................................         690
Cape Hatteras National Seashore..  Ophelia......  OIQT Q140....................................................  repair roof........................................................         650
Cape Hatteras National Seashore..  Ophelia......  OIQT Q140....................................................  repair ceilings....................................................         151
Cape Hatteras National Seashore..  Ophelia......  OIQT T141....................................................  repair roof........................................................       2,224
Cape Hatteras National Seashore..  Ophelia......  OIQT T142....................................................  repair roof........................................................       1,356
Cape Hatteras National Seashore..  Ophelia......  OIQT T143....................................................  repair roof........................................................       1,356
Cape Hatteras National Seashore..  Ophelia......  OIRD Quock Hammock Road......................................  repair road surface-fill washouts..................................       1,352
Cape Hatteras National Seashore..  Ophelia......  OIRD South Point Road (Ramp 72)..............................  repair road surface................................................      32,875
Cape Hatteras National Seashore..  Ophelia......  OIRMP Ramp 59................................................  repair road surface-fill washouts..................................       4,305
Cape Hatteras National Seashore..  Ophelia......  OIRMP Ramp 70................................................  repair potholes....................................................       2,339
Cape Hatteras National Seashore..  Ophelia......  OITR Hammock Hill Nature Trail...............................  remove debris......................................................         523
Cape Lookout National Seashore...  Ophelia......  Colonial Waterbird Nesting assessment........................  2 year assessment of birding habitat...............................      91,500
Cape Lookout National Seashore...  Ophelia......  Harkers Island VC/Admin......................................  Replace HVAC units.................................................      15,783
Cape Lookout National Seashore...  Ophelia......  Harkers Island VC/Admin......................................  repair front vis svcs desk.........................................      15,578
Cape Lookout National Seashore...  Ophelia......  Harkers Island VC/Admin......................................  repair security system.............................................       1,000
Cape Lookout National Seashore...  Ophelia......  Ice Machine-Maintenance BLdg.................................  repair ice machine.................................................       4,819
Cape Lookout National Seashore...  Ophelia......  Life Saving Station Stable...................................  repair roof, windows, siding and walls.............................      53,704
Cape Lookout National Seashore...  Ophelia......  Lola Radio Repeater..........................................  repair repeater....................................................       7,500
Cape Lookout National Seashore...  Ophelia......  North Core Banks Road........................................  regrade road.......................................................      13,903
Cape Lookout National Seashore...  Ophelia......  signs........................................................  replace lost/destroyed signs parkwide..............................      30,000
Cape Lookout National Seashore...  Ophelia......  South Core Banks Road........................................  regrade road.......................................................      11,918
Canaveral National Seashore......  Wilma........  ND Maintenance Shop..........................................  replace vent cap...................................................         161
Canaveral National Seashore......  Wilma........  ND Pole Shed.................................................  repair roof........................................................       4,197
Canaveral National Seashore......  Wilma........  SD Boardwalk 8...............................................  repair boardwalk...................................................       1,021
Canaveral National Seashore......  Wilma........  SD Boardwalk Eddy Creek/Pavillion............................  repair boardwalk...................................................       1,484
Canaveral National Seashore......  Wilma........  SD Comfort Station 10........................................  repair vault.......................................................       1,606
Canaveral National Seashore......  Wilma........  SD Comfort Station 3.........................................  repair vault.......................................................       1,606
Canaveral National Seashore......  Wilma........  SD Eddy Creek Waterfront System..............................  replace eddy creek dock............................................      27,138
Canaveral National Seashore......  Wilma........  SD Ranger Station Pump House.................................  replace roof turbine...............................................          41
Canaveral National Seashore......  Wilma........  SD-Playalinda Beach Swimming Area............................  clean beach area...................................................      38,450
Cane River Creole NHP............  Rita.........  Cotton Gin...................................................  Reapir roof flashing/gable shutter/wood siding.....................       3,412
Cane River Creole NHP............  Rita.........  Cotton Picker Shed-Magnolia..................................  Repair roof........................................................      20,324
Cane River Creole NHP............  Rita.........  Magnolia Cultural Landscape..................................  Remove limbs and hazard trees......................................      27,420
Cane River Creole NHP............  Rita.........  Main House-Oakland...........................................  Repair/replace missing or loose shingles...........................       2,094
Cane River Creole NHP............  Rita.........  Mule Barn....................................................  Repair roof/Repair fistoric hinge on barn door.....................       2,908
Cane River Creole NHP............  Rita.........  Oakland Cultural Landscape...................................  Remove limbs and hazard trees......................................      33,131
Cane River Creole NHP............  Rita.........  Overseers House-Slave Hospital-Magnolia......................  Reapir roof, gutters and flashing..................................       1,939
Cane River Creole NHP............  Rita.........  Slave Quarters 1.............................................  Replace lost cedar shingles........................................       8,369
Cane River Creole NHP............  Rita.........  Slave Quarters 6.............................................  Repair exterior wall shift.........................................         839
Cane River Creole NHP............  Rita.........  Square Crib..................................................  Repair Roof........................................................         879
Cane River Creole NHP............  Rita.........  Tractor Shed.................................................  Repair Roof........................................................       1,730
De Soto National Monument........  Wilma........  De Soto National Monument Trail..............................  repair washouts, regrade trail.....................................      15,000
De Soto National Monument........  Wilma........  Grounds......................................................  remove debris/haz trees............................................      22,500
De Soto National Monument........  Wilma........  Shoreline....................................................  stablize shoreline-prevent addtl erosion...........................      22,500
Dry Tortugas National Park.......  Katrina......  GKBCGR Garden Key Grounds....................................  Replace Entrance sign/NR mitigation................................      65,567
Dry Tortugas National Park.......  Katrina......  GKBCMU Gasoline Storage......................................  relocate Gasoline Storage..........................................     122,319
Dry Tortugas National Park.......  Katrina......  GKBCWF Garden Key Water Front-...............................  dock repair/buoy replacement.......................................      22,704
Dry Tortugas National Park.......  Katrina......  GKFJAD Fort Jefferson Office.................................  Replace Windows....................................................       1,374
Dry Tortugas National Park.......  Katrina......  GKFJEE Electrical System.....................................  Replace Generators.................................................     137,123
Dry Tortugas National Park.......  Katrina......  GKFJFT Counterscarp and Moat.................................  Repair coping on counterscarp/dredge moat..........................     125,856
Dry Tortugas National Park.......  Katrina......  GKFJFT Fort Jefferson........................................  Curtain Wall Repair................................................     153,101
Dry Tortugas National Park.......  Katrina......  GKFJHM17-3 A-B Personnel Housing.............................  Ceiling repair.....................................................      10,770
Dry Tortugas National Park.......  Katrina......  GKFJHM17-4 Personnel Housing.................................  Replace Windows....................................................       2,765
Dry Tortugas National Park.......  Katrina......  GKFJHS17-10 Personnel Housing................................  Repair Windows.....................................................       1,963
Dry Tortugas National Park.......  Katrina......  GKFJHS17-11 Personnel Housing................................  Replace Windows....................................................       2,120
Dry Tortugas National Park.......  Katrina......  GKFJHS17-12 Personnel Housing................................  Replace Windows....................................................       2,120
Dry Tortugas National Park.......  Katrina......  GKFJHS17-2 Personnel Housing.................................  Repair windows/siding..............................................      15,811
Dry Tortugas National Park.......  Katrina......  GKFJHS17-4.5 Personnel Housing...............................  Ceiling and window repair..........................................       5,020
Dry Tortugas National Park.......  Katrina......  GKFJHS17-5 Personnel Housing.................................  Replace Windows....................................................       3,609
Dry Tortugas National Park.......  Katrina......  GKFJHS17-8 Personnel Housing.................................  Replace Windows....................................................       1,848
Dry Tortugas National Park.......  Katrina......  GKFJHS17-9 Personnel Housing.................................  Ceiling and window repair..........................................       3,410
Dry Tortugas National Park.......  Katrina......  GKFJMP Recreation Room.......................................  Replace Windows....................................................       8,724
Dry Tortugas National Park.......  Katrina......  GKFJMU Generator Room........................................  Install exhaust fans...............................................       1,360
Dry Tortugas National Park.......  Katrina......  GKFJVS Garden Key VC-........................................  Replace windows/walls..............................................       2,397
Dry Tortugas National Park.......  Katrina......  GKUTRA Dry Tortugas Radio System.............................  Install Tower......................................................      10,605
Dry Tortugas National Park.......  Katrina......  Grounds Cleanup..............................................  Debris removal.....................................................       9,000
Dry Tortugas National Park.......  Katrina......  IMT Response/misc repairs....................................  ...................................................................      56,911
Dry Tortugas National Park.......  Katrina......  Law Enforcement Support......................................  ...................................................................      10,000
Dry Tortugas National Park.......  Katrina......  LHLHGR Loggerhead Key Grounds................................  Repair Flag Pole...................................................         807
Dry Tortugas National Park.......  Katrina......  LHLHHS001 Kitchen Building...................................  Repair siding/repaint..............................................      10,307
Dry Tortugas National Park.......  Katrina......  LHLHHS002 Keepers Residence..................................  Gutter and carpet replacement......................................      14,734
Dry Tortugas National Park.......  Katrina......  LHLHLH Loggerhead Key Lighthouse.............................  Replace windows/other misc repairs.................................      12,564
Dry Tortugas National Park.......  Katrina......  LHLHMF Oil House.............................................  Replace Windows....................................................      11,395
Dry Tortugas National Park.......  Katrina......  LHLHMU Generator Room........................................  Replace Doors......................................................       5,819
Dry Tortugas National Park.......  Katrina......  LHLHWF Loggerhead Water Front-...............................  decking repair.....................................................      14,684
Dry Tortugas National Park.......  Katrina......  LHUTWP Loggerhead Water System...............................  Salt Water intakle system repair...................................       3,395
Dry Tortugas National Park.......  Katrina......  MEWCBO Boat Outboard.........................................  Replace 25' boat...................................................     148,565
Dry Tortugas National Park.......  Wilma........  GKBCBG Dock House............................................  replace decking....................................................       9,592
Dry Tortugas National Park.......  Wilma........  GKBCCG Garden Key Campsite...................................  remove trees, replace tables.......................................      13,800
Dry Tortugas National Park.......  Wilma........  GKBCWF Garden Key Water Front................................  repair piers, electric svc, replace seaplane ramp..................     322,979
Dry Tortugas National Park.......  Wilma........  GKFJAD Fort Jefferson Office.................................  repair hvac........................................................       5,165
Dry Tortugas National Park.......  Wilma........  GKFJEE Electrical System.....................................  repair wiring, antenna.............................................       1,459
Dry Tortugas National Park.......  Wilma........  GKFJFT Counterscarp and Moat.................................  repair seawall, dredge moat........................................     147,371
Dry Tortugas National Park.......  Wilma........  GKFJFT Fort Jefferson........................................  replace shutter system, remove debris, misc repairs................     579,529
Dry Tortugas National Park.......  Wilma........  GKFJHM17-3 A-B Personnel Housing.............................  repair walls, replace furnishings..................................      39,308
Dry Tortugas National Park.......  Wilma........  GKFJHS16-1 Engineer Officers Quarters........................  repair porch railing...............................................       4,496
Dry Tortugas National Park.......  Wilma........  GKFJHS17-2 Personnel Housing.................................  repair ceilings....................................................       5,377
Dry Tortugas National Park.......  Wilma........  GKFJHS17-4.5 Personnel Housing...............................  repair hvac........................................................       5,165
Dry Tortugas National Park.......  Wilma........  GKFJHS17-8 Personnel Housing.................................  repair hvac........................................................       5,165
Dry Tortugas National Park.......  Wilma........  GKFJMF Carpenter Shop........................................  replace saws.......................................................       6,841
Dry Tortugas National Park.......  Wilma........  GKUTRA Dry Tortugas Radio System.............................  repair telephone communications....................................       7,044
Dry Tortugas National Park.......  Wilma........  LHLHEE Loggerhead Electrical System..........................  repair wiring, solar controller....................................      29,470
Dry Tortugas National Park.......  Wilma........  LHLHHS001 Kitchen Building...................................  repair hvac, antenna, siding.......................................       9,282
Dry Tortugas National Park.......  Wilma........  LHLHHS002 Keepers Residence..................................  repair roof, railings..............................................       6,830
Dry Tortugas National Park.......  Wilma........  LHLHLH Loggerhead Key Lighthouse.............................  repair exterior walls..............................................      28,224
Dry Tortugas National Park.......  Wilma........  LHLHMF Boat House............................................  remove sand, repair walls..........................................       4,581
Dry Tortugas National Park.......  Wilma........  LHLHMS Storage Shed/Shop.....................................  repair door, roof..................................................       1,028
Dry Tortugas National Park.......  Wilma........  LHLHMU Generator Room........................................  replace generator..................................................      35,893
Dry Tortugas National Park.......  Wilma........  LHLHWF Loggerhead Water Front................................  replace tank, pipe.................................................      38,456
Dry Tortugas National Park.......  Wilma........  LHUTWP Loggerhead Water System...............................  remove debris, repair dock.........................................      34,189
Dry Tortugas National Park.......  Rita.........  GKBCCG Garden Key Campsite...................................  Remove debris......................................................         629
Dry Tortugas National Park.......  Rita.........  GKBCGR Garden Key Grounds....................................  Remove debris......................................................       3,148
Dry Tortugas National Park.......  Rita.........  GKBCWF Garden Key Waterfront.................................  Replace Finger Piers...............................................       9,800
Dry Tortugas National Park.......  Rita.........  GKFJEE Electrical System.....................................  Repair electrical distribution system..............................       4,680
Dry Tortugas National Park.......  Rita.........  GKFJFT Counterscarp and Moat.................................  Replace bridge.....................................................       8,391
Dry Tortugas National Park.......  Rita.........  GKFJFT Fort Jefferson Parade and Brick Walk..................  Remove debris......................................................       6,888
Dry Tortugas National Park.......  Rita.........  GKFJHM17-3 A-B Personnel Housing.............................  Replace cabinets...................................................       7,101
Dry Tortugas National Park.......  Rita.........  GKFJHS16-1 Engineer Officers Quarters........................  Repair porch and shutters..........................................       8,691
Dry Tortugas National Park.......  Rita.........  GKFJHS16-6 Personnel Housing.................................  Replace shutters...................................................       1,380
Dry Tortugas National Park.......  Rita.........  GKFJHS17-2 Personnel Housing.................................  Replace gutter system..............................................      18,871
Dry Tortugas National Park.......  Rita.........  GKFJWP Garden Key Potable Water System.......................  Repair water line..................................................         882
Dry Tortugas National Park.......  Rita.........  GKUTFD Diesel Fuel System....................................  Replace controller.................................................       2,053
Everglades National Park.........  Katrina......  ADEXFL Flamingo Waysides.....................................  Replace wayside....................................................      36,781
Everglades National Park.........  Katrina......  ADEXFLCB Signs Wayside.......................................  Replace wayside....................................................      18,841
Everglades National Park.........  Katrina......  ADEXFLEC Signs Wayside.......................................  Replace wayside....................................................      37,681
Everglades National Park.........  Katrina......  ADEXFLMR Signs Wayside.......................................  Replace wayside....................................................       9,420
Everglades National Park.........  Katrina......  ADEXFLVC Signs Waysides......................................  Replace wayside....................................................       9,420
Everglades National Park.........  Katrina......  ADEXFLWL Signs Wayside.......................................  Replace wayside....................................................       9,420
Everglades National Park.........  Katrina......  EECHRP14 SW 237th Ave........................................  Repair signs & posts...............................................         369
Everglades National Park.........  Katrina......  EEPHHM703 Lg Hernandez House.................................  Replace appliances.................................................       7,251
Everglades National Park.........  Katrina......  FLBWMA Florida Bay Marina....................................  Replace electrical service to docks................................       8,300
Everglades National Park.........  Katrina......  FLBWMA Whitewater Bay Marina.................................  Replace docks......................................................     533,597
Everglades National Park.........  Katrina......  FLCGAT430 Amphitheater.......................................  Demo & replace amiphitheater.......................................     348,574
Everglades National Park.........  Katrina......  FLCGVS409 Campground Kiosk...................................  Demo & Replace Entrance station....................................      27,600
Everglades National Park.........  Katrina......  FLCSPP921P Marina Access Parking.............................  Repair electrical lighting.........................................      10,014
Everglades National Park.........  Katrina......  FLCSPP922P Boat Ramp Parking.................................  Repair electrical lighting.........................................      37,195
Everglades National Park.........  Katrina......  FLCSWF Concessions Waterfront................................  Repair concrete seawall............................................     330,335
Everglades National Park.........  Katrina......  FLECBW Eco Pond Board Walk / Viewing Platform................  ...................................................................       1,135
Everglades National Park.........  Katrina......  FLMRGR Mrazek Pond Grounds...................................  Replace sign posts.................................................         771
Everglades National Park.........  Katrina......  FLMRRB Buttonwood Bridge.....................................  Repair expansion joint.............................................     148,457
Everglades National Park.........  Katrina......  FLMYEE Electrical System.....................................  Repair electrical lighting.........................................       6,886
Everglades National Park.........  Katrina......  FLMYRU Mosquito Alley........................................  ...................................................................      17,312
Everglades National Park.........  Katrina......  FLMYWP Water System..........................................  Repair water lines.................................................       1,717
Everglades National Park.........  Katrina......  FLPHHT60 Personnel Housing...................................  Demo housing unit..................................................      17,688
Everglades National Park.........  Katrina......  FLPHHT61 Personnel Housing...................................  Demo housing unit..................................................      17,688
Everglades National Park.........  Katrina......  FLPHMP417 Personnel Chickee..................................  Replace screens and paint..........................................       4,130
Everglades National Park.........  Katrina......  FLVCVS415 Visitor Center.....................................  Replace elevator/museum locks/repair fire system and pillars/Repair      24,039
                                                                                                                  electrical system.
Everglades National Park.........  Katrina......  FLVCVS419 Fish Cleaning Station..............................  Repair roof & screen/Replace controls..............................      43,792
Everglades National Park.........  Katrina......  FLWLBW West Lake Board Walk..................................  Repair damaged decking.............................................       1,342
Everglades National Park.........  Katrina......  GCBCCG16579 Rabbit Key Campsite..............................  Replace confort station............................................       6,020
Everglades National Park.........  Katrina......  GCBCCK Rodgers River Chickee.................................  replace comfort station............................................       6,020
Everglades National Park.........  Katrina......  GCBCWW Wilderness Waterway...................................  Replace waterway signage...........................................       9,354
Everglades National Park.........  Katrina......  KLFBCG Nest Key Campsite.....................................  Repair dock/replace portable toilets...............................      76,526
Everglades National Park.........  Katrina......  KLFBGR Back Country Grounds..................................  ...................................................................      13,420
Everglades National Park.........  Katrina......  KLRSMF505 Maintenance Shed...................................  Replace roof.......................................................       2,257
Everglades National Park.........  Katrina......  KLRSRA Key Largo Radio System................................  Repair boat radio..................................................         515
Everglades National Park.........  Katrina......  MEGT GROUND TRANSPORT........................................  Repair/Replace 16 vehicles.........................................     590,485
Everglades National Park.........  Katrina......  MEHE Heavy Equipment.........................................  Repair/Replace 2 tractors..........................................     133,990
Everglades National Park.........  Katrina......  METL Tools...................................................  Repair/replace 4 yard mixer........................................       4,303
Everglades National Park.........  Katrina......  METLRE Research Equip........................................  Replace Research equipment.........................................     173,301
Everglades National Park.........  Katrina......  MEWCBO Boat Outboard.........................................  Repair boats.......................................................     100,300
Everglades National Park.........  Katrina......  NDEEHS347 Personnel Housing..................................  Replace screen/Repair roof.........................................       1,792
Everglades National Park.........  Katrina......  NDTAADS33 Maintenance / Ranger Station.......................  Repair roof........................................................       6,601
Everglades National Park.........  Katrina......  NDTAFG Gasoline Storage Facility.............................  Repair roof........................................................       4,230
Everglades National Park.........  Katrina......  NDTAHS345 Personnel Housing..................................  Replace roof & screen/repair transmission tower....................       3,365
Everglades National Park.........  Katrina......  NDTAHS346 Personnel Housing..................................  Replace screen.....................................................       1,987
Everglades National Park.........  Katrina......  NDTAPP931N Tamiami Ranger Station............................  Replace fence and gate.............................................         362
Everglades National Park.........  Katrina......  NDTCHM350 Personnel Housing..................................  Repair roof/walls..................................................      18,005
Everglades National Park.........  Katrina......  NDTCHM352 Personnel Housing..................................  Repair roof/replace screen and shutters............................      22,424
Everglades National Park.........  Katrina......  NDTCHM354 Personnel Housing..................................  Replace shutters...................................................       2,870
Everglades National Park.........  Rita.........  PIDBAD190 Research Center....................................  Replace Screen Enclosure...........................................      37,353
Everglades National Park.........  Wilma........  ADEXFLEC Signs Wayside.......................................  replace wayside....................................................         403
Everglades National Park.........  Wilma........  ADEXFLWL Signs Wayside.......................................  replace wayside....................................................       1,028
Everglades National Park.........  Wilma........  ADEXPIRP Signs Wayside.......................................  replace wayside....................................................          55
Everglades National Park.........  Wilma........  ADEXSVST Signs Wayside.......................................  replace wayside....................................................         763
Everglades National Park.........  Wilma........  ADEXSVVC Signs Wayside.......................................  replace wayside....................................................         925
Everglades National Park.........  Wilma........  EEPHHM703 Lg Hernandez House.................................  repair hvac, walls, roof, lighting.................................      46,275
Everglades National Park.........  Wilma........  EEPHHS702 Sm Hernandez House.................................  repair roof, antenna...............................................       2,660
Everglades National Park.........  Wilma........  FLBCCG Graveyard Creek Campsite..............................  remove trees, replace tables, portojohn............................      17,305
Everglades National Park.........  Wilma........  FLBCCK445 Pearl Bay Chickee..................................  repair portojohn, steps............................................       5,293
Everglades National Park.........  Wilma........  FLBCCK446 Hells Bay Chickee..................................  repair portojohn...................................................       4,240
Everglades National Park.........  Wilma........  FLBCCK447 Lane Bay Chickee...................................  repair portojohn, structure........................................       6,041
Everglades National Park.........  Wilma........  FLBCCK448 Roberts Bay Chickee................................  repair portojohn...................................................       4,240
Everglades National Park.........  Wilma........  FLBCCK45 South Joe River Chickee.............................  repair portojohn, repair roof......................................       8,397
Everglades National Park.........  Wilma........  FLBCCK453 Oyster Bay Chickee.................................  repair portojohn, structure........................................      27,123
Everglades National Park.........  Wilma........  FLBCCK454 Joe River Chickee..................................  repair portojohn...................................................       4,240
Everglades National Park.........  Wilma........  FLBLRU211 Bear Lake Road.....................................  repair road surface................................................       9,088
Everglades National Park.........  Wilma........  FLBWMA Florida Bay Marina....................................  repair dock........................................................      14,041
Everglades National Park.........  Wilma........  FLBWMA Whitewater Bay Marina.................................  repair dock........................................................       5,601
Everglades National Park.........  Wilma........  FLBWWW Buttonwood Canaveral National Seashorel...............  remove boat lift, replace markers..................................      32,846
Everglades National Park.........  Wilma........  FLCBGR Coot Bay Grounds......................................  replace signs......................................................         806
Everglades National Park.........  Wilma........  FLCGCG A-loop Campsites......................................  replace exterior furnishings.......................................      16,679
Everglades National Park.........  Wilma........  FLCGCG C-loop Campsites......................................  replace exterior furnishings.......................................     131,179
Everglades National Park.........  Wilma........  FLCGCG T-loop Campsites......................................  replace exterior furnishings.......................................      14,647
Everglades National Park.........  Wilma........  FLCGCG Walk In Campsites.....................................  replace electrical panel...........................................       1,795
Everglades National Park.........  Wilma........  FLCGPP927P B-C Loop Parking..................................  replace signs......................................................       3,294
Everglades National Park.........  Wilma........  FLCGPP928P T Loop Parking....................................  replace signs......................................................       3,170
Everglades National Park.........  Wilma........  FLCGRP219 Picnic Area RD.....................................  replace exterior furnishings.......................................       1,502
Everglades National Park.........  Wilma........  FLCGRP220 Camp Ground Loop A Road............................  replace signs......................................................       2,171
Everglades National Park.........  Wilma........  FLCGVS402 A-loop Comfort Station.............................  repair roof........................................................         142
Everglades National Park.........  Wilma........  FLCGVS403 A-loop Comfort Station.............................  replace screens, roof vent,soffit..................................       1,828
Everglades National Park.........  Wilma........  FLCGVS404 B-loop Comfort Station.............................  repair roof, screen................................................         623
Everglades National Park.........  Wilma........  FLCGVS405 B-loop Comfort Station.............................  repair roof, electrical system.....................................       2,030
Everglades National Park.........  Wilma........  FLCGVS406 C-loop Comfort Station.............................  repair soffit, window screen.......................................         371
Everglades National Park.........  Wilma........  FLCGVS407 T-loop Comfort Station.............................  replace sink, repair soffit........................................       1,808
Everglades National Park.........  Wilma........  FLCGVS408 T-loop Comfort Station.............................  repair soffit......................................................         169
Everglades National Park.........  Wilma........  FLCGVS411 Walk In Comfort Station............................  repair roof, door, ceiling, plumbing...............................       1,828
Everglades National Park.........  Wilma........  FLCGWW Flamingo Waste Water System...........................  repair electrical system...........................................       7,092
Everglades National Park.........  Wilma........  FLCMGR Concession Maint Grounds..............................  remove debris......................................................      20,510
Everglades National Park.........  Wilma........  FLCMST473 Concession Storage/Utility.........................  demolish bldg......................................................      16,848
Everglades National Park.........  Wilma........  FLCSCR460 Restaurant/Lounge..................................  repair electrical system...........................................       3,172
Everglades National Park.........  Wilma........  FLCSSW Swimming Pool.........................................  remove screen enclosure............................................       2,952
Everglades National Park.........  Wilma........  FLCSWF Concessions Waterfront................................  dredge marina area for access to Fl Bay............................     649,916
Everglades National Park.........  Wilma........  FLECBW Eco Pond Board Walk / Viewing Platform................  repair platform and railing........................................      54,390
Everglades National Park.........  Wilma........  FLHPPP919N Residence Parking.................................  regrade parking area...............................................       6,238
Everglades National Park.........  Wilma........  FLMRRB Buttonwood Bridge.....................................  repair bridge joint................................................       2,641
Everglades National Park.........  Wilma........  FLMRRP010 Route 10...........................................  replace road signs.................................................      22,237
Everglades National Park.........  Wilma........  FLMRRU425 Sewer Plant Access Road............................  repair road surface, replace sign..................................       1,588
Everglades National Park.........  Wilma........  FLMRTU Christian Point Trail.................................  repair boardwalk...................................................         537
Everglades National Park.........  Wilma........  FLMRWW Hells Bay Canoe Launch................................  remove debris......................................................       1,366
Everglades National Park.........  Wilma........  FLMYEE Electrical System.....................................  repair electrical system...........................................       9,854
Everglades National Park.........  Wilma........  FLMYFG Gasoline Fuel System-Vehicles.........................  repair fuel system.................................................       5,703
Everglades National Park.........  Wilma........  FLMYGR Maint Yard Grounds....................................  replace fence......................................................      30,551
Everglades National Park.........  Wilma........  FLMYMA Maintenance Marina....................................  repair dock, wiring, dumpster......................................      79,287
Everglades National Park.........  Wilma........  FLMYMF406 Oil Shed...........................................  replace door.......................................................         474
Everglades National Park.........  Wilma........  FLMYMF422 Boat Shop..........................................  repair doors, electrical system....................................      33,466
Everglades National Park.........  Wilma........  FLMYMF423 Boat Shelter.......................................  repair pillars.....................................................       3,060
Everglades National Park.........  Wilma........  FLMYMS420 Paint Storage Bldg.................................  replace structure..................................................      24,425
Everglades National Park.........  Wilma........  FLMYMS426 Herbicide/Pesticide................................  repair doors, steps, glass.........................................      15,937
Everglades National Park.........  Wilma........  FLMYMS431 Haz Material Storage...............................  haz mat disposal...................................................      11,058
Everglades National Park.........  Wilma........  FLMYMS467 Maintenance Warehouse..............................  repair windows, roof, electrical...................................      88,089
Everglades National Park.........  Wilma........  FLMYMU424 Water Treatment Plant Bldg.........................  repair fence, hvac, water lines....................................      55,822
Everglades National Park.........  Wilma........  FLMYRU Mosquito Alley........................................  repair road surface................................................       1,363
Everglades National Park.........  Wilma........  FLMYWP Water System..........................................  replace filters and computer.......................................       9,400
Everglades National Park.........  Wilma........  FLMYWW Waste Water...........................................  repair lift stations, replace signs................................       6,179
Everglades National Park.........  Wilma........  FLPHHM416 Personnel Housing..................................  repair elcetrical, porch, interior walls...........................      25,506
Everglades National Park.........  Wilma........  FLPHHM439 Personnel Housing..................................  repair porch, electrical...........................................      15,517
Everglades National Park.........  Wilma........  FLPHHM440 Personnel Housing..................................  repair windows, wiring, doors, porch...............................      21,853
Everglades National Park.........  Wilma........  FLPHHM441 Personnel Housing..................................  repair doors, porch, hvac, appliances, walls.......................      27,085
Everglades National Park.........  Wilma........  FLPHHS442 Personnel Housing..................................  repair doors, porch, hvac, appliances, walls.......................      20,671
Everglades National Park.........  Wilma........  FLPHHS443 Personnel Housing..................................  repair hvac, roof, porch, wiring...................................      28,318
Everglades National Park.........  Wilma........  FLPHHS444 Personnel Housing..................................  repair porch, wiring, roof, hvac...................................      22,422
Everglades National Park.........  Wilma........  FLPHHT20 Trailer Pad.........................................  repair electrical..................................................       2,061
Everglades National Park.........  Wilma........  FLPHHT21 Trailer Pad.........................................  repair electrical..................................................       2,061
Everglades National Park.........  Wilma........  FLPHHT22 Trailer Pad.........................................  repair electrical..................................................       2,061
Everglades National Park.........  Wilma........  FLPHHT23 Trailer Pad.........................................  repair electrical..................................................       2,061
Everglades National Park.........  Wilma........  FLPHMP417 Personnel Chickee..................................  repair roof, fans, flooring, wiring................................      24,578
Everglades National Park.........  Wilma........  FLPLMA Plug Dock Complex.....................................  repair electrical pedestal.........................................      16,270
Everglades National Park.........  Wilma........  FLVCPP920P VC Parking Area...................................  repair lighting....................................................       9,438
Everglades National Park.........  Wilma........  FLVCRP216 Marina Parking Access..............................  repair electrical, replace signs...................................         820
Everglades National Park.........  Wilma........  FLVCVS Visitor Center........................................  repair hvac, phone system, windows, soffit, railings...............      41,459
Everglades National Park.........  Wilma........  FLVCVS419 Fish Cleaning Station..............................  repair screen, pipes...............................................       9,652
Everglades National Park.........  Wilma........  FLWEMU407 Pump House.........................................  repair wiring......................................................       2,460
Everglades National Park.........  Wilma........  FLWLBW West Lake Board Walk..................................  replace rail.......................................................         251
Everglades National Park.........  Wilma........  FLWLGR West lake Grounds.....................................  remove haz tree/stump..............................................         857
Everglades National Park.........  Wilma........  FLWLVS425 Comfort Station and Pavillion......................  replace door lock/signs............................................         513
Everglades National Park.........  Wilma........  FLWLWF West Lake Water Front.................................  repair rails.......................................................         131
Everglades National Park.........  Wilma........  GCBCBW sand Fly Island Boardwalk.............................  repair portojohns..................................................       4,240
Everglades National Park.........  Wilma........  GCBCCG Darwins Place Campsite................................  replace sign.......................................................         935
Everglades National Park.........  Wilma........  GCBCCG Pavillion Key Campsite................................  replace sign, portojohn............................................       4,936
Everglades National Park.........  Wilma........  GCBCCG Watsons Place Campsite................................  replace picnic tables..............................................       5,581
Everglades National Park.........  Wilma........  GCBCCG16579 Rabbit Key Campsite..............................  replace sign, portojohn............................................       4,936
Everglades National Park.........  Wilma........  GCBCCG50052 Lopez River Campsite.............................  repair portojohns..................................................       4,240
Everglades National Park.........  Wilma........  GCBCCG50053 Broad River Campsite.............................  replace sign.......................................................         403
Everglades National Park.........  Wilma........  GCBCCK Picnic Key Campsite...................................  replace sign, portojohn............................................       4,936
Everglades National Park.........  Wilma........  GCBCCK Rodgers River Chickee.................................  repair portojohns..................................................       4,240
Everglades National Park.........  Wilma........  GCBCCK Sundays Bay Chickee...................................  repair roof, portojohn, boardwalk..................................      16,755
Everglades National Park.........  Wilma........  GCBCCK Sweetwater Chickee....................................  replace sign, repair roof, portojohn...............................      15,873
Everglades National Park.........  Wilma........  GCBCCK14050 Kinston bay Chickee..............................  replace sign,repair portojohn, chickee.............................      27,819
Everglades National Park.........  Wilma........  GCBCCK16580 Plate Creek Chickee..............................  replace sign.......................................................         935
Everglades National Park.........  Wilma........  GCBCWW Wilderness Waterway...................................  replace markers....................................................       2,339
Everglades National Park.........  Wilma........  GCECFG Gasoline Fuel System..................................  repair fuel system.................................................       1,517
Everglades National Park.........  Wilma........  GCECGR Everglades National Parkglades City Grounds...........  repair fencing, replace signs, repair walkways.....................      72,993
Everglades National Park.........  Wilma........  GCECHS606 Personnel Housing..................................  repair hvac, roof, siding, porch...................................      13,721
Everglades National Park.........  Wilma........  GCECMA Marina................................................  repair piers, boat covers..........................................      13,244
Everglades National Park.........  Wilma........  GCECMF605 Maintenance Shop/Garage............................  repair roof, wiring, doors, hvac...................................      10,295
Everglades National Park.........  Wilma........  GCECVS Gulf Coast Picnic Area Chickee........................  replace roof.......................................................      11,468
Everglades National Park.........  Wilma........  GCECVS604 Visitor Center/Concession..........................  repair doors, lattice, gutters, wiring, partitions.................      23,376
Everglades National Park.........  Wilma........  GCECWF boat/Canoe Launch.....................................  repair canoe launch................................................      18,260
Everglades National Park.........  Wilma........  GCECWF Everglades National Parkglades City Water Front.......  replace waterfront rip-rap.........................................      11,563
Everglades National Park.........  Wilma........  GCPHHS601 Personnel Housing..................................  repair wiring, screens, tiles, roof, door..........................       6,352
Everglades National Park.........  Wilma........  GCPHHS602 Personnel Housing..................................  repair roof, appliances, tiles, screens, door......................      12,616
Everglades National Park.........  Wilma........  GCPHHS603 Personnel Housing..................................  repair porch, tiles, roof, screens, HVAC...........................       5,175
Everglades National Park.........  Wilma........  GCTICG New Turkey Key Campsite...............................  replace sign, portojohn............................................       4,936
Everglades National Park.........  Wilma........  KLFBCG Little Rabbit Key campsite............................  repair dock........................................................       2,386
Everglades National Park.........  Wilma........  KLRSAD503 Research Bldg North................................  replace turbine....................................................         864
Everglades National Park.........  Wilma........  KLRSDK Concrete Dock.........................................  inspect concrete dock..............................................       2,343
Everglades National Park.........  Wilma........  KLRSDK Wooden Dock...........................................  repair dock........................................................     345,578
Everglades National Park.........  Wilma........  KLRSFG Gaoline Fuel System...................................  replace dispenser and hose.........................................       6,416
Everglades National Park.........  Wilma........  KLRSHT53 Personnel housing...................................  repair hvac, porch, roof, ceilings, doors..........................      10,411
Everglades National Park.........  Wilma........  KLRSRA Key Largo Radio System................................  repalce repeater...................................................       1,074
Everglades National Park.........  Wilma........  KLRSST Research Storage......................................  repair flood damage................................................         300
Everglades National Park.........  Wilma........  KLRSVS500 Ranger Station.....................................  repair steps, hvac.................................................       7,623
Everglades National Park.........  Wilma........  KLRSWF Key Largo Water Front.................................  repair wiring......................................................         373
Everglades National Park.........  Wilma........  MEITNB Notebook Computers....................................  replace computers..................................................       9,600
Everglades National Park.........  Wilma........  MEITPC Main Entrance computers...............................  replace computers..................................................       6,800
Everglades National Park.........  Wilma........  MEPREQ Protection Equipment..................................  replace flooded lockers............................................       2,000
Everglades National Park.........  Wilma........  MEREEQ Research Equipment....................................  replace lost/destroyed research equip..............................     285,000
Everglades National Park.........  Wilma........  NDEEGR Env Educ Grounds......................................  repalce bulletin board, signs......................................       1,202
Everglades National Park.........  Wilma........  NDEEHS347 Personnel Housing..................................  repair roof, porch, door, HVAC.....................................      16,453
Everglades National Park.........  Wilma........  NDEEUB343A Pump House........................................  repair roof........................................................       2,135
Everglades National Park.........  Wilma........  NDEEVS343 Loop Rd Office Bldg................................  repair roof........................................................         498
Everglades National Park.........  Wilma........  NDEEVS343B Comfort Station...................................  repair roof, portojohns............................................      10,930
Everglades National Park.........  Wilma........  NDEEWWEast Everglades National Parkglades Waste Water........  replace fence, repair lift station.................................       5,606
Everglades National Park.........  Wilma........  NDTAADS33 Maintenance / Ranger Station.......................  repair roof, shutter...............................................       2,852
Everglades National Park.........  Wilma........  NDTAHS346 Personnel Housing..................................  repair ceilings....................................................         669
Everglades National Park.........  Wilma........  NDTAMS348 Maintenance Pole Barn..............................  replace ice machine................................................       4,672
Everglades National Park.........  Wilma........  NDTAMS348A Ranger Station Storage Shed.......................  repair storage shed................................................         403
Everglades National Park.........  Wilma........  NDTAMS348C Maintenance Storage...............................  repair roof........................................................       2,817
Everglades National Park.........  Wilma........  NDTCBG356 Laundry Bldg.......................................  repair roof, windows...............................................       1,063
Everglades National Park.........  Wilma........  NDTCGR Trail Center Grounds..................................  repair fence and gate..............................................      13,130
Everglades National Park.........  Wilma........  NDTCHS350 Personnel housing..................................  repair porch, downspout............................................         691
Everglades National Park.........  Wilma........  NDTCHS352 Personnel housing..................................  repair porch, windows, hvac, door, roof............................       5,891
Everglades National Park.........  Wilma........  NDTCHT007 Storage Shed/Trailer Pad...........................  replace structure..................................................      15,101
Everglades National Park.........  Wilma........  NDTCUB357 Pump House.........................................  repair roof........................................................         956
Everglades National Park.........  Wilma........  NDTRHS345 Personnel housing..................................  repair roof, porch, ceiling........................................       3,912
Everglades National Park.........  Wilma........  OPBCRP9336-main park road....................................  replace signs,.....................................................       5,832
Everglades National Park.........  Wilma........  PIBRAD181 Bill Robertson Bldg................................  repair screen, roof, carpet........................................         513
Everglades National Park.........  Wilma........  PIBRMS184 Flammable Storage Bldg.............................  repair roof edge...................................................          60
Everglades National Park.........  Wilma........  PIBRST182 Bill Robertson garage..............................  repair fascia......................................................       1,048
Everglades National Park.........  Wilma........  PIBRST182B Fire Equipment Outbldg............................  repair fence, roof.................................................       2,170
Everglades National Park.........  Wilma........  PIDBAD190 Research Center....................................  repair walls, carpet, hvac, roof, wiring...........................      11,875
Everglades National Park.........  Wilma........  PIDBGR Research Center Grounds...............................  repair greenshouse sun shades......................................     115,336
Everglades National Park.........  Wilma........  PIDBST190B Interconnecting Bldg..............................  repair roof, wiring, ceiling.......................................      10,790
Everglades National Park.........  Wilma........  PIDBST190E General Purpose Warehouse.........................  repair roof........................................................       6,698
Everglades National Park.........  Wilma........  PIDBUB190C Pump House........................................  repair roof........................................................         201
Everglades National Park.........  Wilma........  PILPAT153 Amphitheater.......................................  repair prjection screen............................................         372
Everglades National Park.........  Wilma........  PILPCG Camp Site.............................................  replace signs......................................................       1,882
Everglades National Park.........  Wilma........  PILPHS152 Camp Tender House..................................  repair fascia......................................................         221
Everglades National Park.........  Wilma........  PILPPP908P Long Pine Key Campground Loop.....................  replace bulletin board, furnishings................................       1,810
Everglades National Park.........  Wilma........  PILPUB152 Pump House.........................................  repair roof, holding tank..........................................         903
Everglades National Park.........  Wilma........  PILPVS148 Comfort Station....................................  repair skylight....................................................         135
Everglades National Park.........  Wilma........  PILPVS149 Comfort Station....................................  repair roof, door..................................................         198
Everglades National Park.........  Wilma........  PILPVS150 Comfort Station....................................  repair roof, bulliten board........................................         719
Everglades National Park.........  Wilma........  PILPVS154 Entrance Station...................................  repair roof........................................................         203
Everglades National Park.........  Wilma........  PILPVS168 Comfort Station....................................  repair fascia......................................................         315
Everglades National Park.........  Wilma........  PILPVS169 Comfort Station....................................  repair roof........................................................          63
Everglades National Park.........  Wilma........  PIMRRP010 Route 10...........................................  replace signs......................................................       3,395
Everglades National Park.........  Wilma........  PIMYAD164 Ranger Station/Telecommunications..................  repair roof........................................................         328
Everglades National Park.........  Wilma........  PIMYGR PI Maintenance Yard Grounds...........................  repair fence.......................................................       1,784
Everglades National Park.........  Wilma........  PIMYMS140 PI Storage Bldg....................................  haz mat disposal...................................................       8,249
Everglades National Park.........  Wilma........  PIMYST114B Supply Office Shed................................  repair roof........................................................         203
Everglades National Park.........  Wilma........  PIMYWP PI Water System.......................................  repair fence, turbine..............................................       2,471
Everglades National Park.........  Wilma........  PIMYWW Waste Water...........................................  repair lift station................................................       2,549
Everglades National Park.........  Wilma........  PIPARP204 Pahayokee Road.....................................  replace road signs.................................................         135
Everglades National Park.........  Wilma........  PIPHAD186 FPMA Bldg..........................................  remove haz trees...................................................         355
Everglades National Park.........  Wilma........  PIPHHM155 Personnel Housing..................................  repair turbine, door, screen.......................................       1,262
Everglades National Park.........  Wilma........  PIPHHM157 Personnel Housing..................................  repair door, screen................................................       2,044
Everglades National Park.........  Wilma........  PIPHHM185 Personnel Housing..................................  repair turbines....................................................         492
Everglades National Park.........  Wilma........  PIPHHS105 Personnel Housing..................................  repair roof, shutters, antenna.....................................       1,796
Everglades National Park.........  Wilma........  PIPHHS108 Personnel Housing..................................  repair screens, antenna............................................         777
Everglades National Park.........  Wilma........  PIPHHS110 Personnel Housing..................................  repair roof, antenna...............................................       2,225
Everglades National Park.........  Wilma........  PIPHHS112 Personnel Housing..................................  repair window, antenna.............................................         937
Everglades National Park.........  Wilma........  PIPHHS119 Personnel Housing..................................  repair shutter, turbine............................................       2,583
Everglades National Park.........  Wilma........  PIPHHS120 Personnel Housing..................................  repair roof, septic................................................         703
Everglades National Park.........  Wilma........  PIPHHS122 Personnel Housing..................................  repair roof........................................................         187
Everglades National Park.........  Wilma........  PIPHHS124 Personnel Housing..................................  repair gutter......................................................         169
Everglades National Park.........  Wilma........  PIPHHT001 Trailer Pad........................................  replace telephone box cover........................................         135
Everglades National Park.........  Wilma........  PIPHHT62 Personnel Housing...................................  reset trailer......................................................         537
Everglades National Park.........  Wilma........  PIPHMF142 Recycle Bldg.......................................  replace window screens.............................................         714
Everglades National Park.........  Wilma........  PIRPTP Gumbo Limbo Trail.....................................  replace sign.......................................................         428
Everglades National Park.........  Wilma........  PIRPVC109 Visitor Center.....................................  repair fascia......................................................         146
Everglades National Park.........  Wilma........  PIRPVS176 Trail Shelter......................................  repair bench, replace shed.........................................       5,272
Everglades National Park.........  Wilma........  PIVCPP900P Visitors Parking..................................  remove haz trees...................................................       6,765
Everglades National Park.........  Wilma........  PIVCVS160 Visitor Center.....................................  repair wiring, hvac motor..........................................       3,332
Everglades National Park.........  Wilma........  PIVCVS160A Comfort Station...................................  repair shutters, fascia, lightning system..........................         628
Everglades National Park.........  Wilma........  PIVCVS160B Chickee...........................................  repair security system, remove trees...............................       1,690
Everglades National Park.........  Wilma........  PIVCVS161 HQ Bldg............................................  repair antenna, fascia, lightning suppression......................       1,251
Everglades National Park.........  Wilma........  PIVCVS162 Entrance Station...................................  repair roof........................................................         172
Everglades National Park.........  Wilma........  SVADWW Shark Valley Admin Waste Water........................  repair lift station................................................         311
Everglades National Park.........  Wilma........  SVDTUB326 Old Generator Bldg.................................  repair window......................................................          78
Everglades National Park.........  Wilma........  SVSAAT332 Bike Storage Shed..................................  repair roof........................................................       1,539
Everglades National Park.........  Wilma........  SVSAHS334 Personnel housing..................................  repair gutters, HVAC...............................................       2,121
Everglades National Park.........  Wilma........  SVSAMS331 Storage / Ice Shed.................................  replace floor tile.................................................         667
Everglades National Park.........  Wilma........  SVSARA Shark valley Radio System.............................  repair antenna.....................................................         537
Everglades National Park.........  Wilma........  SVSATC Shark valley Telecommunications.......................  replace hardware...................................................       9,865
Everglades National Park.........  Wilma........  SVSTRP224 Shark valley Tram Road.............................  remove debris,repost signs.........................................         311
Everglades National Park.........  Wilma........  SVSTUB325 Pump House.........................................  replace vent, eyewash station......................................       1,458
Everglades National Park.........  Wilma........  SVSTVS326 Tower Comfort Station and Shelter..................  repair roof, replace window........................................       3,487
Everglades National Park.........  Wilma........  SVSTVS327 Shark valley Tower.................................  repair hand rail...................................................         103
Everglades National Park.........  Wilma........  SVSTWP Shark Valley Tower Water System.......................  repair fence.......................................................       6,504
Everglades National Park.........  Wilma........  SVVCGR Shark Valley VC Grounds...............................  repair fence, flagpole.............................................       3,340
Everglades National Park.........  Wilma........  SVVCPP940P Shark Valley Tram Parking.........................  replace signs......................................................         339
Everglades National Park.........  Wilma........  SVVCRP223 Sharl valley Access RD.............................  repair gate........................................................       2,822
Everglades National Park.........  Wilma........  SVVCVS310 Comfort Station....................................  repair roof........................................................         302
Everglades National Park.........  Wilma........  SVVCVS311 Comfort Station....................................  repair roof........................................................       1,512
Everglades National Park.........  Wilma........  SVVCVS329 Entrance Station...................................  repair fence, screen, solar panels.................................         443
Everglades National Park.........  Wilma........  SVVCVS349 Visitor Center.....................................  repair hvac,antenna, fence.........................................       1,085
Gulf Islands National Seashore...  Katrina......  Campground Fee Stn...........................................  repair roof........................................................         886
Gulf Islands National Seashore...  Katrina......  Campground Restroom..........................................  repair roof........................................................       3,616
Gulf Islands National Seashore...  Katrina......  Carpenter/Marine Shop........................................  repaint walls......................................................         417
Gulf Islands National Seashore...  Katrina......  Cat Island Storage Bldg......................................  replace storage bldg...............................................       5,332
Gulf Islands National Seashore...  Katrina......  CCC Cabin No. 8..............................................  rehab interior/repair roof.........................................      14,584
Gulf Islands National Seashore...  Katrina......  CCC Cabin Housing No. 9......................................  rehab interior/repair roof.........................................       4,080
Gulf Islands National Seashore...  Katrina......  Davis Bayou Fuel System......................................  Reconstruct fuel system............................................      55,682
Gulf Islands National Seashore...  Katrina......  DB Boat Dock Access and Park.................................  Remove debris/replace signs/repair surface.........................      10,924
Gulf Islands National Seashore...  Katrina......  DB Campground Road...........................................  repair surface/remove debris and stumps............................      28,625
Gulf Islands National Seashore...  Katrina......  DB Eagle Point Road..........................................  Remove debris/replace sign.........................................       9,504
Gulf Islands National Seashore...  Katrina......  DB Electrical/Plumbing Shop..................................  repaint walls......................................................         625
Gulf Islands National Seashore...  Katrina......  DB Govn't Marina.............................................  replace decking and caps...........................................      70,629
Gulf Islands National Seashore...  Katrina......  DB Gov't Boat Dock Access Park...............................  Replace signs/fencing..............................................      57,246
Gulf Islands National Seashore...  Katrina......  DB Gov't Boat Launch Road....................................  remove debris/regarde shoulder/replace signs.......................       6,959
Gulf Islands National Seashore...  Katrina......  DB Grounds, Landscape, Boardwalks............................  Remove debris/hazard trees.........................................   1,958,869
Gulf Islands National Seashore...  Katrina......  DB Grounds/Maint Shop........................................  repaint walls......................................................         418
Gulf Islands National Seashore...  Katrina......  DB Hanley Road...............................................  remove debirs/replace guardrails...................................      11,718
Gulf Islands National Seashore...  Katrina......  DB Johnboat House............................................  Reconstruct John boat house........................................     257,850
Gulf Islands National Seashore...  Katrina......  DB Lumber Storage............................................  repaint walls......................................................         207
Gulf Islands National Seashore...  Katrina......  DB Maint. Complex Parking....................................  Remove debris/replace fencing......................................      34,070
Gulf Islands National Seashore...  Katrina......  DB Nature's Way Trail........................................  remove debris/hazard trees/repair trail surface....................      72,078
Gulf Islands National Seashore...  Katrina......  DB Park Road.................................................  Repair & resurface road and guardrails.............................      24,236
Gulf Islands National Seashore...  Katrina......  DB Picnic Area Restroom......................................  repair roof........................................................         354
Gulf Islands National Seashore...  Katrina......  DB Primitive Camp............................................  Replace signs/fire rings/tables/remove trees.......................      26,842
Gulf Islands National Seashore...  Katrina......  DB Public Fishing Marina.....................................  replace dock.......................................................     127,885
Gulf Islands National Seashore...  Katrina......  DB Public Marina.............................................  repair decking and seawall.........................................       1,445
Gulf Islands National Seashore...  Katrina......  DB Ranger Station/VC Parking.................................  Remove debris & stumps/replace wheel stops.........................      30,511
Gulf Islands National Seashore...  Katrina......  DB Savanna Extention Trail...................................  repair surface/replace boardwalk...................................      35,052
Gulf Islands National Seashore...  Katrina......  DB South Walk Trail..........................................  Remove debirs/replace lighting.....................................       8,342
Gulf Islands National Seashore...  Katrina......  DB VC Well Shed..............................................  Reconstruct VC Well shed...........................................      28,651
Gulf Islands National Seashore...  Katrina......  DB Vehicle Storage...........................................  repaint walls......................................................         418
Gulf Islands National Seashore...  Katrina......  DB VFW Road..................................................  remove debris......................................................       2,789
Gulf Islands National Seashore...  Katrina......  DB Warehouse.................................................  repair roof/repaint walls..........................................       3,453
Gulf Islands National Seashore...  Katrina......  DSC & A/E Planning/Project Mgmt..............................  ...................................................................   2,685,000
Gulf Islands National Seashore...  Katrina......  East Ship Island Grounds.....................................  Remove debris......................................................       5,867
Gulf Islands National Seashore...  Katrina......  Fishing Pier Gazebo..........................................  recinstruct pier gazebo............................................      72,118
Gulf Islands National Seashore...  Katrina......  FL Debris Removal............................................  ...................................................................   3,200,000
Gulf Islands National Seashore...  Katrina......  Ft. Mass Shore Protection....................................  ...................................................................     800,000
Gulf Islands National Seashore...  Katrina......  Ft. Massachusetts............................................  Repair masonry/earthern roof/parade grounds/replace eletrical           541,534
                                                                                                                  system in Fort.
Gulf Islands National Seashore...  Katrina......  Ft.Pickens/Santa Rosa Roads..................................  Remove sand/repair road............................................  12,000,000
Gulf Islands National Seashore...  Katrina......  Fuel Pump Shelter............................................  reconstruct fuel pump shelter......................................      34,141
Gulf Islands National Seashore...  Katrina......  Gov Boat Dock Office.........................................  reconstruct boat dock office.......................................     114,598
Gulf Islands National Seashore...  Katrina......  Gov Boat Dock Shelter........................................  reconstruct boat dock shelter......................................     730,573
Gulf Islands National Seashore...  Katrina......  H. Generator Bldg #3.........................................  Reconstruct generator bldg.........................................      80,219
Gulf Islands National Seashore...  Katrina......  Haz. Mat. Storage............................................  reconstruct haz mat storage bldg...................................      12,755
Gulf Islands National Seashore...  Katrina......  Horn Electrical System.......................................  Reconstruct electrical system......................................      42,659
Gulf Islands National Seashore...  Katrina......  Horn Fuel System.............................................  repair fuel station................................................       5,588
Gulf Islands National Seashore...  Katrina......  Horn Haz Mat #37.............................................  Reconstruct haz material bldg......................................       8,503
Gulf Islands National Seashore...  Katrina......  Horn Island Grounds..........................................  Debris removal.....................................................      32,038
Gulf Islands National Seashore...  Katrina......  Horn Island Triplex #31......................................  Reconstruct triplex housing........................................     759,800
Gulf Islands National Seashore...  Katrina......  Horn Maint. #32..............................................  repair roof........................................................       7,287
Gulf Islands National Seashore...  Katrina......  Horn Pier & Boat Hoist.......................................  repair boatlift and pier ramp......................................      10,203
Gulf Islands National Seashore...  Katrina......  Horn Solar Utility System....................................  Reconstruct soler utility system...................................     142,195
Gulf Islands National Seashore...  Katrina......  Horn W. Crossover Trail......................................  Remove trees and brush.............................................       1,993
Gulf Islands National Seashore...  Katrina......  Horn Water System............................................  Repair water system................................................      44,486
Gulf Islands National Seashore...  Katrina......  Housing No. 33...............................................  Gut and rehab bldg.................................................     131,346
Gulf Islands National Seashore...  Katrina......  Housing furnishings..........................................  ...................................................................     300,000
Gulf Islands National Seashore...  Katrina......  Housing Yates No. 17.........................................  Reconstruct yates housing..........................................     649,677
Gulf Islands National Seashore...  Katrina......  Marina Restroom..............................................  Reconstruct restroom...............................................     210,402
Gulf Islands National Seashore...  Katrina......  MS Debris Removal............................................  ...................................................................   3,250,000
Gulf Islands National Seashore...  Katrina......  MS VC/HQ.....................................................  Gut and rehab bldg.................................................     563,024
Gulf Islands National Seashore...  Katrina......  Oil Storage Facility.........................................  reconstruct oil storage shed.......................................      53,717
Gulf Islands National Seashore...  Katrina......  Perdido Key Johnson Beach Road...............................  Sand removal.......................................................      13,333
Gulf Islands National Seashore...  Katrina......  Petit Bois Islands Grounds Debris............................  remove debris......................................................      10,764
Gulf Islands National Seashore...  Katrina......  Picnic Area A Gazebo.........................................  reconstruct picnic gazebo..........................................      54,648
Gulf Islands National Seashore...  Katrina......  Picnic Area Cluster..........................................  replace tables/grills/cans/remove haz trees........................      51,354
Gulf Islands National Seashore...  Katrina......  Picnic Shelter #2 MS 3.......................................  reconstruct shelter................................................      96,158
Gulf Islands National Seashore...  Katrina......  Picnic Shelter #4 MS 7.......................................  repair roof........................................................         177
Gulf Islands National Seashore...  Katrina......  Picnic Shelter 1 MS1.........................................  repair roof........................................................         177
Gulf Islands National Seashore...  Katrina......  Picnic Shelter/Restroom #3 MS6...............................  replace door.......................................................         284
Gulf Islands National Seashore...  Katrina......  Public Boat Launch She.......................................  repair roof........................................................         637
Gulf Islands National Seashore...  Katrina......  Savanna, Arboreteum tra......................................  replace decking/piers..............................................      75,410
Gulf Islands National Seashore...  Katrina......  Ship Island Pier.............................................  remove damaged beams...............................................     103,197
Gulf Islands National Seashore...  Katrina......  Ship Island Ranger Station...................................  Reconstruct ranger station.........................................     240,649
Gulf Islands National Seashore...  Katrina......  SI Boardwalks................................................  Replace boardwalks.................................................   1,396,002
Gulf Islands National Seashore...  Katrina......  SI Concesseion Bldg #46......................................  Reconstruct Concession bldg........................................     487,383
Gulf Islands National Seashore...  Katrina......  SI Crossover Boardwalks......................................  Repair decking and kick rail.......................................     185,929
Gulf Islands National Seashore...  Katrina......  SI Electrical System.........................................  Reconstruct electrical system......................................      88,872
Gulf Islands National Seashore...  Katrina......  SI Fuel System...............................................  Reconstruct fuel system............................................      76,475
Gulf Islands National Seashore...  Katrina......  SI Generator Bldg. #45.......................................  Reconstruct generator bldg.........................................     286,498
Gulf Islands National Seashore...  Katrina......  SI Generator Bldg. #46.......................................  Reconstruct generator bldg.........................................      61,118
Gulf Islands National Seashore...  Katrina......  SI Haz Mat Storage #52.......................................  reconstruct haz mat storage bldg...................................      10,629
Gulf Islands National Seashore...  Katrina......  SI Housing #41A&B............................................  Reconstruct duplex housing.........................................     264,664
Gulf Islands National Seashore...  Katrina......  SI Housing Bunk #44..........................................  Reconstruct bunkhouse..............................................     262,947
Gulf Islands National Seashore...  Katrina......  SI Lifeguard Station.........................................  Reconstruct Lifeguard station......................................      32,705
Gulf Islands National Seashore...  Katrina......  SI Lighthouse................................................  Replace Lighthouse.................................................     844,729
Gulf Islands National Seashore...  Katrina......  SI Pavilions #49 & 50........................................  Resonctruct Pavillion Cluster......................................     266,931
Gulf Islands National Seashore...  Katrina......  SI Public Restroom...........................................  Reconstruct public restroom........................................     619,509
Gulf Islands National Seashore...  Katrina......  SI Restrooms No. 48..........................................  Reconstruct public restroom........................................      93,707
Gulf Islands National Seashore...  Katrina......  SI Septic System.............................................  Replace septic system..............................................     231,290
Gulf Islands National Seashore...  Katrina......  SI Solar Boat Lift...........................................  Reconstruct sloar boat lift........................................       7,999
Gulf Islands National Seashore...  Katrina......  SI Util/Propane No. 42.......................................  Reconstruct Utility bldg-propane...................................      23,874
Gulf Islands National Seashore...  Katrina......  SI Water System..............................................  Reconstruct water system...........................................      10,848
Gulf Islands National Seashore...  Rita.........  Fort Pickens Marina..........................................  Replace Joist beans and rail.......................................       5,696
Gulf Islands National Seashore...  Rita.........  WSI Marina...................................................  Replace Decking....................................................     300,000
Jean Lafette NHP & Preserve......  Katrina......  Barataria Bayou Coquilles Canoe Trail........................  remove haz trees...................................................      15,652
Jean Lafette NHP & Preserve......  Katrina......  Barataria Bayou Coquilles Trail..............................  replace boardwalk sections.........................................      47,485
Jean Lafette NHP & Preserve......  Katrina......  Barataria Bayou des Familles Canoe Trail.....................  remove haz trees...................................................      20,249
Jean Lafette NHP & Preserve......  Katrina......  Barataria Ed Center Parking Route 912........................  repair exterior lights.............................................      10,695
Jean Lafette NHP & Preserve......  Katrina......  Barataria Ed Center Trail....................................  repair boardwalk...................................................      15,497
Jean Lafette NHP & Preserve......  Katrina......  Barataria Education Center...................................  repair screens/roof/hand rails.....................................       6,105
Jean Lafette NHP & Preserve......  Katrina......  Barataria Kenta Canaveral National Seashorel Canoe Trail.....  remove trees from Canaveral National Seashorel.....................       8,870
Jean Lafette NHP & Preserve......  Katrina......  Barataria Kenta Canaveral National Seashorel Recreational      remove debris and hazard trees.....................................       2,242
                                                   Area.
Jean Lafette NHP & Preserve......  Katrina......  Barataria Office Complex & Restrooms.........................  replace doors/handrails/repair roof................................      16,953
Jean Lafette NHP & Preserve......  Katrina......  Barataria Old Barataria Trail................................  remove haz trees...................................................       6,957
Jean Lafette NHP & Preserve......  Katrina......  Barataria Palmetto Trail.....................................  Replace boardwalk/waterline and valves.............................   1,072,635
Jean Lafette NHP & Preserve......  Katrina......  Barataria Parallel Canaveral National Seashorel..............  remove haz trees...................................................      10,124
Jean Lafette NHP & Preserve......  Katrina......  Barataria Plantation Trail Loops A & B.......................  remove haz trees/repair boardwalk..................................     234,494
Jean Lafette NHP & Preserve......  Katrina......  Barataria Preserve Pecan Grove Comfort Station...............  repair metal roof..................................................         823
Jean Lafette NHP & Preserve......  Katrina......  Barataria Ring Levee Trail...................................  remove haz trees/repair boardwalk..................................      42,110
Jean Lafette NHP & Preserve......  Katrina......  Barataria Sewage Treatment Plant I VC/Admin & Main...........  remove haz tree....................................................         661
Jean Lafette NHP & Preserve......  Katrina......  Barataria Tarpaper Canoe Trail...............................  remove haz trees...................................................      39,416
Jean Lafette NHP & Preserve......  Katrina......  Barataria Twin Canaveral National Seashorels Canoe Trail.....  remove haz treees..................................................      43,895
Jean Lafette NHP & Preserve......  Katrina......  Barataria Twin Canaveral National Seashorels Foot Trail......  remove haz trees/repair boardwalk..................................      69,439
Jean Lafette NHP & Preserve......  Katrina......  Barataria Twin Canaveral National Seashorels Parking Route     repair erdoded parking lot.........................................         850
                                                   916.
Jean Lafette NHP & Preserve......  Katrina......  Barataria Twin Canaveral National Seashorels Recreational      remove haz trees...................................................       3,183
                                                   Area.
Jean Lafette NHP & Preserve......  Katrina......  Barataria Visitor Center.....................................  repair roof and walls..............................................      54,008
Jean Lafette NHP & Preserve......  Katrina......  Barataria Visitor Center Trail...............................  Replace hand rail..................................................         140
Jean Lafette NHP & Preserve......  Katrina......  Barataria Wood Duck Trail....................................  remove haz trees...................................................      28,380
Jean Lafette NHP & Preserve......  Katrina......  Chalmette Battlefield--Maintained Landscape..................  multiple landscape impacts.........................................     178,611
Jean Lafette NHP & Preserve......  Katrina......  Chalmette Battlefield Comfort Station........................  replace HVAC, plumbing and doors/repair electrical.................      16,337
Jean Lafette NHP & Preserve......  Katrina......  Chalmette Battlefield M-B House(Roof)........................  repair slate roof/repair interior ceiling..........................     144,273
Jean Lafette NHP & Preserve......  Katrina......  Chalmette Battlefield Monument...............................  repair historic masonry/repair contractor scaffolding..............     136,540
Jean Lafette NHP & Preserve......  Katrina......  Chalmette Battlefield Visitor Center (Raze)..................  replace VC.........................................................     555,001
Jean Lafette NHP & Preserve......  Katrina......  Chalmette National Cemetery..................................  multiple landscape impacts.........................................     385,279
Jean Lafette NHP & Preserve......  Katrina......  CNC Carriage House...........................................  Gut and rehab bldg.................................................     113,603
Jean Lafette NHP & Preserve......  Katrina......  CNC Equipment Storage Bldg...................................  repair exterior walls..............................................       2,140
Jean Lafette NHP & Preserve......  Katrina......  CNC Equipment Storage Building 250 Gal Tank..................  Repair fuel storage tank...........................................       3,287
Jean Lafette NHP & Preserve......  Katrina......  CNC Maintained Landscape.....................................  repair brick wall/security gates...................................      77,098
Jean Lafette NHP & Preserve......  Katrina......  CNC Military Cemetery Road-Route 11..........................  clean and repair roadway and historical curb.......................      28,926
Jean Lafette NHP & Preserve......  Katrina......  CNC Sewage Collection........................................  repair Carriage House lift station.................................       5,765
Jean Lafette NHP & Preserve......  Katrina......  CNC Superintendents Lodge....................................  Gut and rehab bldg.................................................     169,937
Jean Lafette NHP & Preserve......  Katrina......  Debris removal...............................................  Debirs removal.....................................................     350,000
Jean Lafette NHP & Preserve......  Katrina......  FQ Bldg Visitor Center & Administration......................  misc interior/exterior repairs.....................................     238,750
Jean Lafette NHP & Preserve......  Katrina......  FQ Maintained Landscape......................................  Remove and replace trees...........................................       8,097
Jean Lafette NHP & Preserve......  Katrina......  Government Property Loss not tracked by FMSS.................  replace lost/destroyed equipment...................................     350,000
Jean Lafette NHP & Preserve......  Katrina......  Grounds ,Chalmette Battlefield M-B House.....................  replace shrubs at Beaugard House...................................       1,128
Jean Lafette NHP & Preserve......  Katrina......  Lake Salvador Geo Crib Structure.............................  replace Geo Cirb structure.........................................   1,410,000
Jean Lafette NHP & Preserve......  Katrina......  Project Mgmt and Planning....................................  DSC Project Mgmt...................................................     525,000
Jean Lafette NHP & Preserve......  Katrina......  Replace/Rehabilitate park signs, waysides & exhibits.........  replace signs/waysides parkwide....................................     750,076
Jean Lafette NHP & Preserve......  Katrina......  Stabilize/Protect/Rehabilitate Curatorial Resources..........  Preserve and store curatorial artifacts............................     450,000
Jean Lafette NHP & Preserve......  Katrina......  WACC Percy Lobdell Warehouse Building........................  repair roof/elevator...............................................       5,450
Natchez National Historic Park...  Katrina......  Replace & relocate electical panels..........................  ...................................................................      16,000
Natchez National Historic Park...  Katrina......  Replace & Relocate Telecom equipment.........................  ...................................................................       7,200
Natchez Trace Parkway............  Katrina......  Cherokee District--Maintained Landscapes.....................  remove trees.......................................................      10,075
Natchez Trace Parkway............  Katrina......  Coles Creek Comfort Station Building No. 329.................  repair roof/siding.................................................       8,456
Natchez Trace Parkway............  Katrina......  Dancy District-Maintained Landscapes.........................  remove trees/repair fence..........................................     258,492
Natchez Trace Parkway............  Katrina......  Emerald Mound................................................  remove trees.......................................................       1,537
Natchez Trace Parkway............  Katrina......  Emergency Response...........................................  ...................................................................      46,450
Natchez Trace Parkway............  Katrina......  Jeff Busby Campground........................................  remove trees.......................................................       8,183
Natchez Trace Parkway............  Katrina......  Jeff Busby Comfort Sta. Building No. 195.....................  repair roof........................................................       8,890
Natchez Trace Parkway............  Katrina......  Jeff Busby Picnic Area.......................................  remove trees.......................................................       2,856
Natchez Trace Parkway............  Katrina......  Jeff Busby Trail.............................................  repair bridge......................................................       3,492
Natchez Trace Parkway............  Katrina......  KO Hurricane Creek Trail.....................................  ...................................................................       4,628
Natchez Trace Parkway............  Katrina......  Kosciusko District-Maintained Landscapes.....................  remove trees.......................................................     846,139
Natchez Trace Parkway............  Katrina......  Meriwether Lewis District-Maintained Landscapes..............  remove trees.......................................................       9,705
Natchez Trace Parkway............  Katrina......  Mount Locust Historic House No. 100..........................  Repair roof........................................................      20,937
Natchez Trace Parkway............  Katrina......  Natchez National Historic Parkhez District-Maintained          remove trees/repair fencing/replace signs..........................     191,010
                                                   Landscapes.
Natchez Trace Parkway............  Katrina......  Port Gibson District-Maintained Landscapes...................  remove trees.......................................................     154,974
Natchez Trace Parkway............  Katrina......  RI Cypress Swamp Trail.......................................  remove trees/repair trail..........................................       7,836
Natchez Trace Parkway............  Katrina......  Ridgeland Covered Storage Building No. 308...................  ...................................................................       5,797
Natchez Trace Parkway............  Katrina......  Ridgeland District-Maintained Landscapes.....................  remove trees.......................................................     326,792
Natchez Trace Parkway............  Katrina......  Ridgeland Storage Building No. 109...........................  repair roof........................................................       6,935
Natchez Trace Parkway............  Katrina......  Rocky Springs Picnic Area....................................  remove trees.......................................................       9,778
Natchez Trace Parkway............  Katrina......  Rocky Springs Campground.....................................  remove trees.......................................................       5,562
Natchez Trace Parkway............  Katrina......  Tupelo District-Maintained Landscapes........................  remove trees.......................................................      29,716
Vicksburg National Military Park.  Katrina......  Cemetary maintenance Shop....................................  repair roof........................................................       8,900
Vicksburg National Military Park.  Katrina......  Ranger Storage Bldg..........................................  repair storage bldg................................................         950
Vicksburg National Military Park.  Katrina......  Tour Road Landscape..........................................  remove trees/debris from tour road.................................      82,980
                                                                                                                                                                                     -----------
      Total......................  .............  .............................................................  ...................................................................  64,353,455
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


             STORM DAMAGE DETAIL REPORT--INTERMOUNTAIN REGION HURRICANE RITA AS OF JANUARY 19, 2006
----------------------------------------------------------------------------------------------------------------
             Park                    Storm              Asset/need            Recommended repair       Estimate
----------------------------------------------------------------------------------------------------------------
Big Thicket National Preserve  Rita............  Set up temp HQ offices/   Travel for O. Olsen to         $1,460
                                                  Building destroyed in     assist w/computer setup.
                                                  storm.
Big Thicket National Preserve  Rita............  Beaumont HQ office        Set up temporary office         8,005
                                                  destroyed in storm.       trailers at Maint.
                                                                            Complex.
Big Thicket National Preserve  Rita............  Temporary Office          Construct boardwalk             7,800
                                                  Trailers.                 between trailers to
                                                                            doors.
Big Thicket National Preserve  Rita............  HQ office furniture       Replace office furniture        7,488
                                                  destroyed in storm.
Big Thicket National Preserve  Rita............  Sidewalks to temp.        Purchase and pour                 740
                                                  trailers.                 concrete.
Big Thicket National Preserve  Rita............  Equipment (printers,      Repair or replace.......       19,263
                                                  copiers).
Big Thicket National Preserve  Rita............  GSA Vehicle costs.......  Used for Recovery effort       12,640
Big Thicket National Preserve  Rita............  Archeologist............  Travel to assess                  168
                                                                            archeological damage.
Big Thicket National Preserve  Rita............  Evacuation needs........  Food, water, propane,           1,863
                                                                            etc.
Big Thicket National Preserve  Rita............  Damaged computer          Repair or replace.......          739
                                                  equipment.
Big Thicket National Preserve  Rita............  Fuel Storage and          Replace damaged parts           1,139
                                                  Transfer.                 and repair.
Big Thicket National Preserve  Rita............  Phone lines (SBC).......  Transfer from destroyed         1,774
                                                                            building.
Big Thicket National Preserve  Rita............  Phone System (Beaumont    Replace digital trunk          19,499
                                                  annex) (NextiraOne).      media module.
Big Thicket National Preserve  Rita............  Maintenance Security      Replace batteries and             112
                                                  System.                   transformer.
Big Thicket National Preserve  Rita............  Vehicle Fuel for          purchase gasoline.......          203
                                                  Recovery Patrols.
Big Thicket National Preserve  Rita............  Maintenance buildiing     Repair damaged door.....          420
                                                  overhead door.
Big Thicket National Preserve  Rita............  Damaged Uniforms........  Replace damaged uniforms          570
Big Thicket National Preserve  Rita............  Assess Damage...........  Copy aerial photos taken          280
                                                                            by SETT Team.
Big Thicket National Preserve  Rita............  Radio Batteries.........  Replace damaged                   359
                                                                            batteries.
Big Thicket National Preserve  Rita............  Gyrotrac for damaged      Ship from Florida.......        2,432
                                                  tree removal.
Big Thicket National Preserve  Rita............  Hazardous Tree & Limb     Purchase necessary              1,179
                                                  removal.                  equipment for removal.
Big Thicket National Preserve  Rita............  Picnic Tables...........  Replace destroyed picnic        6,524
                                                                            tables.
Big Thicket National Preserve  Rita............  Trash Containers........  Replaced destroyed trash        9,970
                                                                            containers.
Big Thicket National Preserve  Rita............  Maintenance Complex.....  Electrical repairs              1,100
                                                                            needed.
Big Thicket National Preserve  Rita............  Turkey Creek Radio Tower  Repair damaged tower....        4,910
Big Thicket National Preserve  Rita............  Beaumont Radio Antenna..  Repair damaged antenna..          750
Big Thicket National Preserve  Rita............  Town Bluff Radio Tower..  Repair damaged tower....        2,500
Big Thicket National Preserve  Rita............  Turkey Creek Radio        Replace damaged repeater        1,570
                                                  Repeater.
Big Thicket National Preserve  Rita............  Maintenance Complex.....  Replace damaged HVAC           22,000
                                                                            system.
Big Thicket National Preserve  Rita............  Maintenance Complex.....  Rebuild damaged fire            1,477
                                                                            pump.
Big Thicket National Preserve  Rita............  Patrol Boat trailer.....  Replace destroyed boat          1,075
                                                                            trailer.
Big Thicket National Preserve  Rita............  Patrol Boat parts.......  Replace damaged boat              476
                                                                            parts.
Big Thicket National Preserve  Rita............  LE Flashlight...........  Replace lost flashlight.          115
Big Thicket National Preserve  Rita............  All Preserve Trails.....  Purchase equipment for          5,126
                                                                            clearing trails.
Big Thicket National Preserve  Rita............  Landfill Dump fees......  Removal of Hurricane              212
                                                                            trash.
Big Thicket National Preserve  Rita............  Turkey Creek Trail......  Replace damaged                13,600
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Kirby Nature Trail......  Replace damaged                13,150
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Pitcher Plant Trail.....  Replace damaged                 2,000
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Big Sandy Trail (Horse    Clear limbs & trees from        4,500
                                                  Trail).                   trail.
Big Thicket National Preserve  Rita............  Woodlands Trail.........  Replace damaged                 9,470
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Beaver Slide Trail......  Replace damaged                 5,480
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Beech Woods Trail.......  Clear limbs & trees from        5,980
                                                                            trail.
Big Thicket National Preserve  Rita............  Birdwatchers Trail......  Clear limbs & trees from        4,480
                                                                            trail.
Big Thicket National Preserve  Rita............  Sundew Trail............  Replace damaged                 5,985
                                                                            boardwalks & clear
                                                                            trail.
Big Thicket National Preserve  Rita............  Trail Heads, Parking      Clear limbs and trees...       14,170
                                                  Lots, Grounds, Roads.
                                                                                                    ------------
      Total..................  ................  ........................  ........................      224,753
----------------------------------------------------------------------------------------------------------------


                                      USGS SUMMARY OF ACTUAL AND PROJECTED
----------------------------------------------------------------------------------------------------------------
                                                             Response and recovery cost
                                              -------------------------------------------------------
                                                                                 Travel &                Total
                                                 Labor    Equipment   Supplies   per diem    Other
----------------------------------------------------------------------------------------------------------------
Biology:
    NWRC operations:
        Intern/External Communications.......    $84,654  .........  .........  .........  .........     $84,654
        Search and rescue....................     97,324  .........    $15,000     $6,000    $34,760     153,084
        Flights to assess DOI asets..........  .........  .........  .........  .........     35,000      35,000
        FEMA and State OEP support...........     80,000  .........  .........  .........  .........      80,000
        Equipment Repair.....................  .........   $100,000  .........  .........  .........     100,000
Geology:
    Coastal Marine (LIDAR)...................  .........  .........  .........  .........    795,000     795,000
    Potential Health and Environmental         .........  .........  .........  .........    250,000     250,000
     Impacts Related To Sediment.............
Water:
    Coastal gages (35 gages).................    157,500  2,111,900  .........  .........  .........   2,269,400
    Water Quality instruments on coastal       .........  1,638,100  .........  .........  .........   1,638,100
     gages...................................
    Temporary gages in N.O. (6)..............      9,000    182,040  .........  .........  .........     191,040
    SR Streamflow gages (18 gages)...........    180,000    360,000  .........  .........  .........     540,000
    Unplanned response to Katrina OT (SR &       600,000  .........  .........  .........  .........     600,000
     CR).....................................
    CR Streamflow gages (9 gages)............     56,000    229,000  .........  .........  .........     285,000
        Boat & Trailer Replacement...........  .........     55,000     80,000  .........  .........     135,000
    Mobile Laboratory (Mercury) repair.......  .........    200,000  .........  .........  .........     200,000
    High-water marks.........................    339,000  .........  .........  .........  .........     339,000
    Travel & Perdiem.........................  .........  .........  .........     85,200  .........      85,200
    Water Quality:
        Ponchartrain.........................    200,000  .........  .........  .........    408,000     608,000
        Ground (tap) Water analysis..........    200,000  .........  .........  .........    403,000     603,000
        Microbiology.........................    100,000  .........     20,000  .........  .........     120,000
        QW Field Sites (12-LA, 15-MS)........    124,000    200,000  .........  .........  .........     324,000
        Other field station laboratory         .........  .........  .........  .........    500,000     500,000
         analysis............................
    Hydrologic Instrumentation Facility          180,000  .........  .........    217,500  .........     397,500
     Recovery................................
    Flood Response Support...................  .........  .........  .........  .........    159,400     159,400
Geography: Imagery and GIS support...........  .........  .........  .........  .........    522,000     522,000
Enterprise Information: Custom geospatial      .........  .........  .........  .........    500,000     500,000
 products....................................
                                              ------------------------------------------------------------------
      Total Initial Response Funding Needed..  2,407,478  5,076,040    115,000    308,700  3,607,160  11,514,378
Repayment of funds borrowed from BIA.........  .........  .........  .........  .........  .........   4,000,000
                                              ------------------------------------------------------------------
      Total USGS Needs for Hurricane Response/ .........  .........  .........  .........  .........  15,514,378
       Recovery..............................
----------------------------------------------------------------------------------------------------------------

 Request for $3 Million in Historic Preservation Fund Grants for Gulf 
               Coast State Historic Preservation Officers

    The Gulf Coast Region is rich in heritage assets and the extensive 
devastation inflicted by the recent hurricanes is unrivaled in the 
Nation's history. These assets not only form the cultural character of 
the region; they also play a critical role in the economy as the base 
of the tourism industry. New Orleans has 20 recognized historic 
districts, most of which suffered serious damage from wind and 
flooding. In Mississippi, Katrina destroyed over 300 designated 
historic properties.
    Reconstruction of heritage assets is essential to the economic 
recovery of the region, so investment and development plans must 
recognize the repair and rehabilitation of these assets as a priority. 
The revitalization of the region's heritage tourism industry will be a 
vital component of the overall economic recovery. Tourism is a major 
industry in this part of the country and visitors to cultural and 
heritage assets make-up a significant portion of the overall $18.3 
billion travel industry along the Gulf Coast.
    Federal law, through Section 106 of the National Historic 
Preservation Act, requires Federal agencies to evaluate the impact of 
their actions on historic properties. The ``Section 106 process'' is 
overseen by the Advisory Council on Historic Preservation (ACHP) but 
relies heavily upon the involvement of State Historic Preservation 
Officers (SHPO) for its day-to-day operation. Without timely and 
effective SHPO participation, the Section 106 process cannot function.
    The Section 106 process ensures that Federal assistance is used in 
a manner that avoids unnecessary harm to historic properties and, where 
possible, to promote the constructive reuse of those properties. The 
billions of dollars of Federal reconstruction funding will affect 
thousands of surviving historic properties, a scale unprecedented in 
the history of the Section 106 process.
    The extensive number of historic properties in the region will 
likewise affect the delivery of Federal reconstruction assistance. The 
sheer magnitude of Federal projects will overwhelm the Section 106 
process at the state level without the requested grants. This will 
delay Federal decisions and threaten numerous additional heritage 
assets with destruction by poorly planned redevelopment projects.
    Federal financial assistance is needed immediately to ensure the 
efficient functioning of the Section 106 review process. An infusion of 
funds during the reconstruction period will avoid system overload and 
promote development decisions that best integrate the region's heritage 
assets into a revitalized Gulf Coast economy. It will also offset the 
negative impact state budget reductions have had on SHPO resources in 
the region. The funds will be distributed among the Louisiana, 
Mississippi, Texas, and Alabama SHPOs. The estimated allocation by 
state is Louisiana ($1.25 million), Mississippi ($1.5 million), Texas 
($150,000), and Alabama ($100,000) based on a needs assessment.

                               EASEMENTS

    Senator Burns. It was. Last year we appropriated $985 
thousand to begin purchasing easements along the Front Range of 
west of Great Falls Montana, of the Rocky Mountains. For those 
who don't know, this is a part of the world where grizzly 
bears, wolves, wolverine, lynx live amongst the areas many 
ranches. In fact I will tell you that our efforts in order to 
identify how many bears we got, grizzle bears up there we got, 
has moved along and I think we've got a few more than we first 
thought.
    If you don't know the map of the area, they spotted a 
grizzly bear last year, as far out at the Interstate 15 coming 
out of Canada. That's way out on the prairie, and that's a long 
ways from the front. So we did some quarter works up there and 
some easement programs, you might bring us up to date and 
what's happening with that program, including your plans for 
funds in 2007?
    Ms. Scarlett. Yes. Thank you Senator, my understanding is 
that the Fish and Wildlife Service is moving ahead with the 
acquisitions with the 2006 funds. I believe that will total 
about 4,700 acres in 2006. In 2007 we would expect another 
6,500 acres and I believe the budget does have some funding, 
about $1.9 million for that purpose.
    Senator Burns. Sometimes we ought to look on how we put 
valuations on that. You know you're not buying a farm in Iowa, 
or irrigated land. Sometimes I think we should look at that 
somewhat. I'd like to sit down and visit with how much we're 
paying for a parcel, and I think some savings could be made 
through that direction. That's about all I have. There are 
other questions and there will be other questions before this 
is over, we'd like to work with you on the PILT and several 
areas where we're short, after all a budget does boil down to 
what your priorities are and sometimes our priorities are not 
yours, but nonetheless we'll find someway to work our way 
through it. I thank you for your testimony this morning. Other 
Senators may have questions if you could respond to those 
individual senators and to the committee I'd certainly 
appreciate that, and I thank you for your testimony this 
morning.

                           PREPARED STATEMENT

    We have received the statement of Senator Thad Cochran that 
will be made part of the hearing record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman I am pleased to join you in welcoming Secretary Lynn 
Scarlett to the committee this morning. I would also like to recognize 
Secretary Gale Norton for her years of service to this nation. I 
enjoyed working with Secretary Norton over the past 5 years on issues 
such as the Healthy Forest Restoration Act and the Migratory Bird 
Commission. Secretary Norton has been a good advocate for properly 
managing our nation's nature resources. I wish Secretary Norton well in 
her future endeavors.
    Secretary Scarlett, I want to commend you and your staff for the 
effort you have made throughout the Gulf Coast region following 
Hurricanes Katrina and Rita to clear debris and establish emergency 
staging areas for delivering assistance in the form of shelter, food, 
and water to thousands of Gulf Coast residents who lost their homes.
    These hurricanes also caused widespread damage to many of the 
National Wildlife Refugees and National Parks on the gulf coast. The 
Gulf Islands National Seashore, which provides a natural barrier from 
hurricanes, was severely damaged during Hurricane Katrina. It is 
critical that the Department of the Interior and other federal agencies 
move forward with plans to restore these important natural barriers.
    Mr. Chairman, thank you very much for holding this hearing. I look 
forward to the testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. We will leave the record open for questions 
from other committee members.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                            PILT REDUCTIONS

    Question. The Committee has a real concern with your PILT request. 
Since I've been chairman we've managed to increase the annual amount 
for PILT from around $135 million in fiscal year 2000 to a high last 
year of $233 million. This program is absolutely critical to local 
county governments yet the Administration proposes to cut it virtually 
every year.
    What is the rationale for proposing to cut this vital program again 
this year?
    Answer. As part of the President's effort to reduce the budget 
deficit by half over five years, the 2007 budget for the Department 
makes difficult choices among programs. Overall the Department's 2007 
budget reflects a reduction of $322 million in current discretionary 
funding. The 2007 budget continues essentially the same level as was 
funded in 2001, and is still at a level that is significantly above the 
levels paid in the 1990s, which were on the order of $100-120 million.
    Question. Aren't you sending a mixed message to local communities 
when you emphasize cooperation and collaboration in implementing the 
Healthy Forests Initiative and various conservation programs, but when 
it comes to a vital program that funds rural schools and infrastructure 
you keep proposing to cut the funding?
    Answer. The PILT program compensates counties across the U.S. for 
losses to their real property tax base when Federal lands are located 
within their boundaries. Payments received under the program may be 
used for any governmental purpose, such as police and fire protection, 
school buses, or road maintenance. In addition to PILT, the Department 
provides $4 billion in revenues to States and counties on an annual 
basis. These payments help to defray the costs of infrastructure and 
services at the State and county level. Although these funds are not 
intended to substitute for payments to counties, the Department does 
project continuing increases in revenues that are shared with States 
and counties, to help defray the costs of infrastructure and services 
at the State and county level. In 2000 these payments totaled $1.9 
million. The 2007 estimated payments are expected to be double this 
amount.

                    FINANCIAL SYSTEMS--COST OVERRUNS

    Question. The Committee is concerned with the growing costs and 
delays associated with implementing your Financial and Business 
Management System (FBMS). The Department is requesting $22 million for 
this system in fiscal year 2007 but recently you removed the contractor 
that was doing the work because of implementation problems.
    Can you tell us what the status is of this project?
    Answer. A new competitive solicitation for implementation services 
for the Financial and Business Management System was issued in November 
2005. On February 28, 2006, Interior awarded a contract to IBM Business 
Consulting. The DOI FBMS team is working with IBM toward deployment of 
the core financial and reporting modules of FBMS in the Minerals 
Management Service and Office of Surface Mining in the fall of 2006. 
The grants module that was deployed in April 2005 remains in 
production; software that was purchased is being used; the hosting 
services and infrastructure continue to be provided by DOI's National 
Business Center.
    Question. How much more is implementation of this system costing 
than you originally projected?
    Answer. Originally, we projected that the system implementation 
would cost about $125 million. Based on the new contract award, the 
implementation costs have increased by approximately $55 million over a 
six-year period. In addition, the Department has increased resources 
devoted to planning by $15 million over the implementation period, 
principally for increased subject matter experts drawn from DOI's 
bureaus, and more oversight into the technical work products of the 
project implementation.
    Question. Can you assure the Committee that this isn't going to 
turn into a system that doesn't work as advertised and costs tens of 
millions more to implement than what you originally projected?
    Answer. The primary software used for FBMS, from SAP, is used 
around the world by businesses and government. We have built rigorous 
functional oversight and project management best practices into our 
contract with IBM. Each deployment phase includes a formal Integrated 
Baseline Review to ensure that the scope, schedule, cost and risks have 
been fully defined and appropriate management and mitigation strategies 
identified. The project has engaged an independent contractor to 
oversee the implementation and report its findings to management. We 
are reporting our status and progress to the Interior Chief Information 
Officer monthly, using a formal project earned value management system. 
One of the most important reasons to invest in more bureau 
participation in the project planning and management is to ensure that 
the deployed system meets the Department's and bureaus' business needs 
and enables us to achieve our vision of having a single, integrated 
business system with standardized data and processes across the 
Department.

                     ROAD RIGHTS-OF-WAY (R.S. 2477)

    Question. R.S. 2477 granted rights of way across federal land for 
the construction of public roads. It was repealed in 1976, but 
significant disagreements between Utah counties, BLM, and wilderness 
advocates have continued. The 10th Circuit ruled on this issue in 2005 
in BLM's favor. On March 22, Secretary Norton issued guidance to land 
managers to implement the 10th Circuit's decision.
    The Department recently announced new guidelines on R.S. 2477. Can 
you explain why new guidelines are necessary?
    What affect will this have on road construction on federal lands? 
Will it change the way roads are currently managed or change access to 
federal lands?
    Answer. On March 26, 2006, Secretary Norton announced new 
guidelines to assist Interior land managers in implementing a recent 
court decision regarding roads across federally owned lands. The new 
guidelines implement the principles outlined in the 2005 Southern Utah 
Wilderness Alliance v. Bureau of Land Management (SUWA v. BLM) decision 
by the United States Court of Appeals for the 10th Circuit. This 
decision and the new guidelines protect federal lands by clarifying 
that these roads cannot be expanded or significantly improved without 
consultation with federal land managers.
    SUWA v. BLM clarified many legal issues related to Revised Statute 
2477 (R.S. 2477), which granted rights of way for the construction of 
public roads across federal land. Because of this clarification by the 
10th Circuit, Secretary Norton on March 22 formally revoked the interim 
Departmental policy on R.S. 2477, issued in 1997. In addition, the new 
guidelines direct the termination of the Memorandum of Understanding 
entered into between the Department and the State of Utah in April, 
2003.
    R.S. 2477 granted rights of way for public use across federal land 
prior to 1976, when Congress repealed the law. Congress specified that 
any valid R.S. 2477 rights of way existing at the time of the repeal 
would continue in effect. This has resulted in considerable doubt as to 
whether counties or the federal government own certain roads on federal 
lands.
    In SUWA v. BLM, the 10th Circuit clarified that only courts could 
finally determine the ownership issue, but that federal agencies are 
permitted to develop a process to analyze claims for administrative 
purposes. The decision allows the roads to be maintained at status quo 
and does not authorize automatic expansion. The new guidelines clarify 
how Interior will carry out its obligations following SUWA v. BLM, and 
respect the obligation that Interior has to protect federal lands and 
environmentally sensitive areas, particularly parks, refuges and 
congressionally designated wilderness areas. For example, under the 
guidelines a dirt road will remain a dirt road and a two-track road 
will remain a two-track road unless there is a permitting process and 
environmental analysis.
    The new guidelines recognize the special status of national parks, 
wildlife refuges and congressionally designated wilderness areas and 
direct Interior land managers to issue, as necessary, revised 
instructions or guidance consistent with the SUWA v. BLM decision and 
their obligation to protect federal lands and resources. The new 
guidelines recognize a number of options for Interior land managers to 
address claimed rights of way:
  --where a claimant wishes to do no more than maintain the existing 
        status quo of a road and the current use and maintenance are 
        consistent with the land manager's duty to protect the 
        surrounding and underlying federal lands, the parties may 
        utilize a road maintenance agreement;
  --where title to the road is already vested in an entity other than 
        the federal government, the parties may utilize a recordable 
        disclaimer, which formalizes that the federal government itself 
        does not dispute the entity's road claim;
  --where a road has an unclear R.S. 2477 status but the land manager 
        and a claimant agree on the need for the road, the BLM, 
        pursuant to Title V of the Federal Land Policy and Management 
        Act, may grant rights of way irrespective of R.S. 2477;
  --where a claimant wishes to perform construction or expand use 
        beyond the status quo, the land manager may make an informal, 
        nonbinding determination (NBD) of whether the R.S. 2477 claim 
        is valid and whether the proposed improvements are reasonable 
        and necessary in light of the traditional uses that established 
        the claimed right of way. A land manager would allow 
        improvement only if the land manager determines that the 
        improvement is consistent with the traditional uses and is 
        consistent with Interior's duty to protect surrounding and 
        underlying lands;
  --where a claimant seeks a binding determination of a claimed right 
        of way, the claimant may file a quiet title action. A court 
        would then make a determination.
    Before a land manager implements any of the above options, members 
of the public will be given notice and an opportunity to comment.

                          PLAINS INDIAN MUSEUM

    Question. The Indian Arts and Crafts Board (IACB) funds three 
Indian museums, one in Browning, MT. The Museum of the Plains Indian in 
Browning contains many culturally and historically important items. It 
is an important resource for the community and for the entire state of 
Montana. In last year's Budget Request, the administration proposed to 
end funding for the museum in fiscal year 2007. You should know that 
the subcommittee was strongly opposed to that idea, and we included 
language in the fiscal year 2006 Interior Report advising Interior 
against it.
    Does the fiscal year 2007 Budget Request propose to close the 
Museum of the Plains Indian?
    Can you assure me that the Department of Interior will work with 
the local community on a way to enhance this unique asset, rather than 
continuing to threaten to close it?
    Answer. The priority activities of the IACB are to promote Indian 
crafts and enforce the civil and criminal provisions of the Indian Arts 
and Crafts Act of 1990. The need to focus on enforcement is increasing 
due to evidence that counterfeiting of Indian Arts and Crafts is 
increasing and becoming more sophisticated, as well as exhibiting ties 
to more serious crimes. Violation of the Indian Arts and Crafts Act 
directly impacts the economy of tribes and individual Indians.
    The ability to expand law enforcement will depend in large part on 
the success of efforts to shift Federal funding from operations of the 
three IACB museums. The intention would not be to close the museums, 
but rather to find partners such as Tribes, local community groups or 
others who would operate the museums and manage those artifacts. Other 
options under consideration include creation of foundations to support 
the museums and establishment of relationships with universities. 
Management and engagement in the operation of these museums at the 
community level would enrich the use of the assets.
    In response to the Interior report language, the Department is 
reconsidering its options on how to best address funding issues of the 
Indian Arts and Craft Board. Particular issues include Indian Arts and 
Crafts Act enforcement and how best to improve museum operations to 
better reflect the mission, activities, and goals of the Indian Arts 
and Crafts Board.

                           ENERGY PRODUCTION

    Question. Last fall the subcommittee held a hearing to examine the 
impediments to developing oil and gas resources on federal land. One of 
the main complaints from industry has been a major backlog in 
processing APD's (applications for permits to drill). BLM's fiscal year 
2007 Budget contains $25.4 million in increases for energy-related 
programs.
    Can you tell me whether the backlog situation has improved?
    Answer. BLM has made significant improvements in the rate at which 
APDs are being processed. Using past appropriation increases, process 
improvements from streamlining and the new revenue provided for pilot 
project offices under Section 365 of the Energy Policy Act of 2005, the 
BLM is reducing the number of pending APDs even though the demand for 
APDs continues to increase. The table and graph below show the number 
of APDs received, processed, and pending since 2004 in both pilot and 
non-pilot offices:

----------------------------------------------------------------------------------------------------------------
                                                                  2004         2005         2006         2007
                                                                 actual       actual      estimate     estimate
----------------------------------------------------------------------------------------------------------------
Pending APDs less than 60 days old at start of year.........          888        1,082        1,450        1,976
Pending APDs greater than 60 days old at start of year......        2,780        2,214        2,461        1,161
                                                             ---------------------------------------------------
      Total Pending APDs at start of year...................        3,668        3,296        3,911        3,137
                                                             ===================================================
New APDs Received...........................................        6,979        8,351        9,386       10,525
APDs Approved...............................................        6,452        7,018      ( \1\ )      ( \1\ )
                                                             ---------------------------------------------------
      Total APDs Processed..................................        7,351        7,736       10,160       11,984
      Pending APDs less than 60 days old at end of year.....        1,082        1,450        1,976        1,678
      Pending APDs greater than 60 days old at end of year..        2,214        2,461        1,161  ...........
                                                             ---------------------------------------------------
      Total Pending APDs at end of year.....................        3,296        3,911        3,137        1,678
----------------------------------------------------------------------------------------------------------------
\1\ The number of APDs processed in 2006 includes 410 APDs processed with funds reprogrammed late in fiscal year
  2005. The additional funds requested in 2007 will enable BLM to process 1,100 more APDs in non-pilot offices
  than it could at the 2006 base funding level.

    Question. How will this budget proposal continue to support our 
domestic energy production needs?
    Answer. BLM's budget proposal would implement a number of important 
sections of the Energy Policy Act of 2005 including those related to 
energy permit processing and improvements in its inspection program and 
monitoring associated with oil and gas development. The budget also 
makes investments in renewable energy, supports the exploration and 
development of energy on Alaska's North Slope, and funds the testing of 
gas hydrates, a potentially significant source of natural gas. The 
budget also funds a major environmental analysis needed to support oil 
shale commercial leasing decisions.

                       INDIAN LAND CONSOLIDATION

    Question. Fractionation of individually-held tracts of Indian Trust 
land continues to contribute to the cost and complexity of managing 
Trust Lands. There are over 3.2 million individual interests held in 
Trust by the federal government, many of which are incredibly small and 
difficult to manage.
    One of the single biggest increases in the Department of the 
Interior's Budget is $25.4 million for Indian Land Consolidation, which 
is a 75 percent increase over last year's level.
    How will these funds be allocated in fiscal year 2007?
    How is the decision made on where to direct the funds?
    Are we making progress on this problem or are we continuing to fall 
behind?
    Answer. The 2007 budget proposes funding of $59.4 million for 
Indian land consolidation, an increase of $25.4 million, or 75 percent 
above the 2006 enacted level. The $59.4 million will fund an 
acquisition program of about 80,000 additional fractionated interests, 
an increase of approximately 34,000 above the estimated 2006 level of 
acquisition. (The estimates of the number of interests to be acquired 
are based on historical average cost to date. As acquisition activities 
continue and additional targeted interests are acquired, the average 
cost per acquisition, cost per interest, and amount of interests 
acquired will likely change from the experience to date.)
    The Department has demonstrated success over the past several years 
acquiring the highly fractionated interests through the Indian Land 
Consolidation program. Through December 31, 2005, the Department has 
acquired 202,775 fractional interests in individual Indian allotted 
lands.
    Based on the activities to date, the Department has determined that 
a more focused tiered acquisition approach is needed to:
  --Provide a long term strategy for acquisition of highly fractionated 
        interests;
  --Establish a tiered priority process to select which interests to 
        acquire;
  --Achieve the most efficient use of limited resources; and
  --Develop additional tools and an enhanced financing option to 
        address this program.
    As part of this proposal, the Department will implement a tiered 
acquisition strategy, targeting selected highly fractioned tracts. 
Based on data available from the TAAMS database as of March 2005, there 
are 2,173 highly fractioned tracts (defined as 200 or more interests 
per tract) owned by 98,905 individuals. A focus on these tracts will 
begin in 2006 and target approximately 1,557 highly fractionated tracts 
that include 520,685 individual interests located in ten geographic 
locations.

                     WILDLAND FIRE/FUELS REDUCTION

    Question. The Department's overall Wildland Fire Budget is $769 
million, which is a $14 million increase over last year but includes 
major cuts to core programs--particularly an $8.3 million reduction in 
Hazardous Fuels Reduction and elimination of the $10 million Rural Fire 
Assistance program, which funds small rural fire departments.
    The Committee does not understand how cutting the hazardous fuels 
program squares up with the Administration's stated goal to increase 
Forest Health and reduce wildfire risk on our public lands.
    How does the BLM plan to increase the acres of forests treated 
while reducing the dollars used for Hazardous Fuels Reduction?
    Answer. We believe that the hazardous fuels reduction funding 
request will continue to sustain significant progress toward 
performance goals. By using new authorities (such as stewardship 
contracting) to leverage additional resources while also more 
efficiently using existing funds, and by better use of partnerships and 
collaboration, the bureaus have been able to exceed performance targets 
the past two years. Overall fuels treatment funding for the Federal 
fire community (including the Forest Service) is level with 2006.
    Question. Why eliminate the Rural Fire Assistance program?
    Answer. The Department of Homeland Security and the Department of 
Agriculture's Forest Service both operate grants programs that provide 
similar services to rural fire departments across the country. The 
Department of Interior has invested heavily each year since the 
emergence of the National Fire Plan to help small community and rural 
fire departments with equipment, training, and public education. For 
the future, we are moving more toward assisting these departments with 
specific wildland fire training to further enhance their response 
capabilities. Beginning in fiscal year 2006, Preparedness funds have 
been set aside to implement the Ready Reserve program as a pilot 
project. In 2006, this program is closely aligned with the Rural Fire 
Assistance program, and is designed to expand wildland fire response 
capability by providing wildland fire training and technical assistance 
to local and rural fire department personnel. The 2007 DOI request for 
Preparedness continues the $1.9 million set aside for advancing the 
Ready Reserve concept. The 2007 Interior budget does propose to 
terminate the Rural Fire Assistance program; however, the Department 
will continue ongoing efforts to work with the Department of Homeland 
Security to meet the needs of rural fire departments for basic training 
and equipment through the much larger DHS Assistance to Firefighters 
Grant program. The Department recently updated an existing agreement 
with DHS that will ensure a greater role for the wildland fire agencies 
in reviewing grants to rural fire departments through programs DHS 
administers. As part of this enhanced collaboration, the two 
Departments now link websites to better direct rural fire departments 
seeking grants to available funding.
    Question. Aren't state and local fire departments critical in 
helping fight fire on federal lands?
    Answer. The Department does rely on State and local fire 
departments, particularly in remote areas where DOI firefighting 
resources may be several hours away from the land they protect. As 
explained above, DOI recognizes the importance of these departments and 
continues to focus available resources on providing training and safety 
gear. In fiscal year 2005, the DOI and USDA Forest Service assistance 
programs provided technical assistance, training, supplies, and 
equipment to nearly 11,000 small rural communities, and the Departments 
entered into cooperative agreements with many rural and volunteer fire 
departments for the protection of both communities and natural 
resources. The Department will continue to rely on collaboratively 
developed mutual aid agreements with State and local jurisdictions to 
support firefighting efforts.
    Question. The BLM is asking for the 10-year average for 
suppression, or $257 million, which is $26 million more than last year. 
This is a significant increase in tight budgetary times. How can we 
bring down these costs?
    Answer. We are employing a range of tactics to address high fire 
costs. In some cases, keeping fires small through successful initial 
attack may make the most sense. In these cases, quick suppression 
response avoids higher suppression costs on extended attack, 
significant resource damage, loss of economic benefits from tourism and 
resource-dependent industries, and loss of community infrastructure.
    Question. In many other locations and situations, however, 
different fire management situations may be appropriate. Continuing to 
emphasize both Wildland Fire Use (WFU) and Appropriate Management 
Response (AMR) strategies may provide the means to better control the 
rising costs of wildfire suppression. Wildland Fire Use is the 
management of naturally ignited fires to achieve resource benefits. 
These fires generally require fewer management resources so are less 
expensive than suppression fires. DOI increased its use of WFU fires 
from 170,000 acres in 2004 to more than 197,000 acres in 2005, and 
plans to continue to emphasize this strategy where possible in 2006. 
Appropriate Management Response may involve selecting suppression 
strategies that do not involve containing a wildfire to the smallest 
size possible because of safety reasons or because less-aggressive 
suppression can be more cost-effective. AMR balances the allocation of 
suppression resources with the level of risk a wildfire poses to the 
public or resources.
    The use of fewer suppression resources reduces costs of not only 
suppression operations but also of the cost to repair resource damage 
caused by suppression operations. In areas in which AMR is an 
appropriate tactic, larger areas may burn, reducing both wildland fuels 
and the potential for large, destructive, and expensive wildland fires 
in future years.
    Do you have any specific proposals to reduce suppression costs?
    Answer. Both Wildland Fire Use and Appropriate Management Response 
are critical strategies under the Fire Program Analysis planning 
system, currently in development. Shifting fire management resources in 
a cost-effective manner is an underpinning of this system. Under these 
strategies more resources will be allocated to high priority wildfires 
that threaten public safety, property, and resources. Fewer resources 
will be allocated to wildfires that are less threatening, resulting in 
more efficient use of available resources.
    Interagency teams from both DOI and USDA Forest Service are 
currently addressing specific recommendations to manage large fire 
costs. These efforts, under the guidance of the Wildland Fire 
Leadership Council, will be reported to the Council at the next 
meeting. A preliminary report is expected this summer and will be 
shared with the Committee.
    Over the long term, hazardous fuels reduction will play a key role 
in controlling wildfire suppression costs. In total, the DOI and Forest 
Service hazardous fuels reduction programs are treating more acres, and 
more critical acres, in Wildland Urban Interface areas each year.

                           AML FEE EXTENSION

    Question. The fiscal year 2007 Budget contains a proposal to extend 
the AML fee from October 1, 2006 through Oct. 1 2007. However, since 
the AML fee is set to expire on June 30, 2006, there is a 3 month gap 
in the collection. In June, the unappropriated balance of the AML Trust 
Fund will be $1.85 billion. Currently, interest earned on the unused 
portion of the AML fund is transferred to the United Mine Workers 
Combined Benefit Fund.
    The authority to collect the AML fee expires in June 2006. If the 
authorization for the fee collection is not extended, what will be the 
effect on the Combined Benefit Fund?
    Answer. In accordance with the existing provisions of Surface 
Mining Control and Reclamation Act, OSM is obligated to set the fee at 
a rate sufficient to ensure that the UMWA Combined Benefit Fund 
continues to receive annual transfers to defray the costs of providing 
health care benefits to unassigned beneficiaries under that plan. 
Should the fee not be extended, OSM is prepared to promulgate a rule 
implementing that provision. This rule would only take effect if the 
collection authority is allowed to expire.
    Question. What will be the impact on abandoned mine reclamation?
    Answer. If the AML fee is not reauthorized, only about 23 percent 
of the estimated $3.0 billion needed to reclaim the coal related health 
and safety hazards remaining could be eliminated with the remaining 
unappropriated funds available for high priority coal work. More than 
2.1 million citizens would remain at risk to the health and safety coal 
related problems of abandoned coal mines.

                      DELAYS IN TRIBAL RECOGNITION

    Question. The Committee is concerned about delays in the 
recognition process for Indian Tribes. For example, the Little Shell 
Tribe in Montana received a proposed favorable finding for recognition 
in 2000, and no progress has been made in the intervening years to 
finalize that finding.
    What is the cause of the delay in this case?
    Is this kind of delay typical around the country?
    What measures are you taking to expedite the process?
    Answer. The Federal Acknowledgment regulations govern the 
Department's administrative process for determining which groups are 
``Indian Tribes'' within the meaning of Federal law. To be Federally 
acknowledged the petitioner must meet seven mandatory criteria, which 
the Office of Federal Acknowledgement must verify. Anthropologists, 
genealogists, and historians in OFA review, verify, and evaluate 
petitions from groups seeking Federal acknowledgement. A final 
determination that a group is an Indian tribe means, among other 
things, that is has continuously existed as a tribe, has inherent 
sovereignty, and is entitled to a government-to-government relationship 
with the United States. OFA makes a recommendation whether to 
acknowledge a group to the Assistant Secretary--Indian Affairs, who has 
been delegated the authority to make the decision.
    The Little Shell Tribe first applied for recognition in 1984, and 
received preliminary approval in 2000. After receiving preliminary 
approval the regulations require a 180 day comment period. Little Shell 
asked for and received ten extensions on the comment period, as well as 
a suspension, in order to collect additional documentation necessary 
for final approval. During that time OFA held a number of technical 
assistance meetings with Little Shell to assist them in preparing their 
final draft petition. Little Shell submitted a final draft of their 
petition in 2005. Meanwhile Little Shell is still working on collecting 
additional evidence, primarily membership lists.
    The Little Shell petition is in the ``Ready, waiting for active 
consideration'' category. Little Shell was informed that their petition 
would be put into this category due to the number of extensions and the 
suspension they requested and were granted. OFA expects to place the 
Little Shell petition in the active consideration category in 2007.
    The delay experienced by the Little Shell is not typical. Their 
petition has been delayed due to their record number of requests for 
extensions and suspension while they collected necessary evidence. 
Nationwide there are currently ten petitions under active 
consideration; ten petitions are under ``ready and waiting for active 
consideration'' status; two are in post decision appeal process; and 
one is in litigation. There are 232 petitions that are not ready for 
evaluation: 70 are incomplete; 146 are only letters of intent; ten are 
no longer in contact; and six require legislation to permit processing 
under 25 CFR Part 83.
    OFA recently added a fourth professional research team with 
administrative support and associated infrastructure. With the 
additional research team, OFA will produce four proposed findings and 
four final determinations or reconsidered final determinations per year 
to address the petitions that are current on the ``Active 
Consideration'' and ``Ready, Waiting for Active Consideration'' 
priority lists.

                       FISH AND WILDLIFE SERVICE

Endangered Species
    Question. Please justify the request of $100,000 for the ongoing 
wolf monitoring effort in the Snake River Basin. If the State of Idaho 
has subcontracted with the Nez Perce Tribe to monitor wolves, why is it 
necessary to continue to direct $295,000 of Service base funds to the 
tribe?
    Answer. The $100,000 will be used by the Fish and Wildlife Service 
Snake River Basin Office for personnel and equipment, such as radio 
collars, capture equipment, and aircraft time. The Nez Perce Tribe, 
under cooperative agreement with the Fish and Wildlife Service, and in 
cooperation with the State of Idaho, conducts the day-to-day, on-the-
ground monitoring, outreach, information and education and assisting 
with control actions of wolf populations in the North Central Idaho 
Experimental Nonessential Population Area. The State of Idaho is 
responsible for the day-to-day operations in the remainder of the 
State. The Service believes it is necessary to direct these resources 
to the Nez Perce for its participation in the wolf recovery program in 
Idaho.
    Question. The committee is concerned about the Service's $493,000 
reduction request for recovery of Lahontan cutthroat trout--
particularly since this species is not yet recovered. Please itemize 
the Service's proposed expenditures in fiscal year 2007 towards 
recovery of this species.
    Answer. Lahontan cutthroat trout were extirpated from Pyramid Lake, 
Walker Lake, and Lake Tahoe by the mid 1940's. The U.S. Fish and 
Wildlife Service have been working with multiple state, federal, and 
local entities for the last 5 years to:
  --Further our understanding of available populations for use in 
        reestablishment, primarily through genetic conservation 
        research and brood stock development at Lahontan National Fish 
        Hatchery;
  --Improve our understanding of habitat utilization by Lahontan 
        cutthroat trout, primarily through radio telemetry research, 
        population monitoring, and spawning habitat assessments; and
  --Implement watershed connectivity projects to improve opportunities 
        for Lahontan cutthroat trout to reestablish in the future.
    The FWS is in the early stages of projects in each of the three 
basins but making great strides through strategic use of the 2006 
funding. The funds have allowed the FWS to build strong support for 
Lahontan cutthroat trout conservation and recovery. But the FWS still 
has important and critical work left to do to establish populations 
through work with our partners.
    In 2007, utilizing Recovery funding, the Service plans to initiate 
the following actions:
    (1) A second year of the radio telemetry study on the Truckee 
River, in partnership with the Nevada Department of Wildlife and the 
Pyramid Lake Paiute Tribe, to improve our understanding of the 
distribution and movement of Lahontan cutthroat trout in the Truckee 
River system. $60,000
    (2) Continued efforts to reintroduce Lahontan cutthroat trout to 
Fallen Leaf Lake to improve our understanding of how Lahontan cutthroat 
trout use historic lake habitats. Research to build a survivorship 
model for different size classes. $120,000
    (3) Streamside incubation of the Pilot Peak strain of Lahontan 
cutthroat trout on the McCarran restoration project, in partnership 
with The Nature Conservancy and the Pyramid Lake Paiute tribe, to 
imprint Lahontan cutthroat trout to the Truckee River so they return to 
migrate and spawn. $70,000
    (4) Performance evaluation of the Pilot Peak strain of Lahontan 
cutthroat trout in Pyramid Lake in partnership with the Pyramid Lake 
Paiute Tribe. $80,000
    (5) Development of a Lahontan cutthroat trout rearing pond and 
streamside incubation project in coordination with the historic State 
hatchery restoration project at Lake Tahoe, in partnership with 
University of California, Davis and the local community at Tahoe City. 
$163,000
    The President's budget request includes an increase in 2007 for two 
Fisheries Operational Needs System (FONS) projects within Hatchery 
operations: a mass-marking program for the reintroduction of Lahontan 
cutthroat trout into historic habitats in Walker Lake, Truckee River 
and the Tahoe Basin ($180,000); and, Lahontan cutthroat trout recovery, 
in partnership with the Community of Fallen Leak Lake and the Forest 
Service, which will focus on the continued recovery needs of the 
species in Fallen Leaf Lake located in the Tahoe Basin ($32,000). These 
FONS projects concentrate on hatchery related activities addressing 
hatchery production and related hatchery costs identified by the 
program as a priority but for which funds have been unavailable. These 
projects and the activities described above are complimentary and 
contribute to recovery of Lahontan cutthroat.
Habitat Conservation
    Question. Please explain and justify how the administration and 
implementation of the Partners for Fish and Wildlife Program varies by 
region.
    Answer. The Partners for Fish and Wildlife Program is executed by 
each Regional Director within the Fish and Wildlife Service. Each 
Regional Director designates a manager for the program. The Assistant 
Regional Director for Ecological Services manages the program in 
Regions 1, 2, 4, 5, 7 and the California Nevada Operations Office, and 
the Regional Refuge Chief manage the program in Regions 3 and 6. 
Regardless of where management responsibilities reside in the Regions, 
the program is bounded by the policies described in section 640 FW1 of 
the Fish and Wildlife Service Manual. Each regional coordinator is 
responsible for providing guidance to the field regarding all current 
policies, procedures, or national directives issued by the Washington 
Office; collecting data on the accomplishments, costs, and benefits of 
the Region's activities; developing, administering, and monitoring 
multi-State partnership agreements; conducting oversight reviews of 
field stations; and developing regional budget allocation 
recommendations for all program activities and stations.
    Question. What is the role of the Project Planning Program in the 
implementation of the Energy Policy Act of 2005? Given this country's 
commitment towards energy independence, why is the Service proposing a 
$1 million cut to the program?
    Answer. The Service's Project Planning Program provides our 
federal, state, and local partners with biological expertise to support 
many different types of development and conservation projects across 
the country. Project Planning is the ``environmental streamlining'' arm 
of the Service and plays a central role in advancing energy, 
transportation, water, and restoration projects--all Administration 
priorities. The Program's mission is to help expeditiously create 
``win-win'' projects for economic development of fish and wildlife 
conservation.
    The Service's role in the Energy Policy Act of 2005 addresses 
several major energy issues which include: the development, study and 
incentives for renewable energy sources, oil, and gas. The Service is 
currently involved with the planning and implementation of four key 
provisions of theEnergy Policy Act: Sections 241, 365, 368, and 1834. 
Section 241 requires that an interagency rule be developed to provide 
an appeal process for all parties to challenge submitted alternative 
hydropower project conditions or prescriptions. Section 365 requires 
that an interagency memorandum of understanding (MOU) with the U.S. 
Army Corps of Engineers, Environmental Protection Agency, and Bureau of 
Land Management be developed. The MOU, signed by the Secretaries of 
Department of Agriculture, Interior, Army, and Administrator of the 
EPA, dedicates several Service staff to BLM field offices to expedite 
and streamline oil and gas permitting process on BLM lands. Section 368 
directs the Secretaries of Energy, Agriculture, and the Interior to 
prepare a Programmatic Environmental Impact Statement to evaluate 
issues associated with the designation of energy corridors on federal 
lands in eleven Western states. Section 1834 directs the Secretaries of 
the Interior and Army to: (1) develop a study evaluating the potential 
for increased hydroelectric generation at existing federal facilities, 
and (2) report the study results to Congress by February 2007. Project 
Planning expects to continue collaboration and assistance with involved 
agencies and bureaus to expediently accomplish these Energy Policy Act 
provisions.
    The $1 million reduction in Project Planning includes a $262,000 
reduction associated with Federal Energy Regulatory Commission actions 
in the Northwest Forest Plan area (Oregon, Washington, and California). 
Savings of $76,000 will be realized by streamlinging program 
administrative support activities. The remaining requested reduction 
eliminates the earmarks of $542,000 for the Middle Rio Grande Bosque 
Initiative, and $99,000 for the Cedar City, Utah ES Office.The FWS will 
continue to work with partners to help obtain funding from other 
sources and continue to work with partners on critical projects as 
funding allows.
    The Service is committed to continuing to meet our responsibilities 
on our energy workload and will focus on providing biological 
assistance on high priority projects and those with the greatest 
conservation benefit.
    Question. Please provide an update of the CBRA mapping pilot 
project.
    Answer. The Coastal Barrier Resources Reauthorization Act of 2000 
directed the Service to complete a Digital Mapping Pilot Project that 
includes: (1) digitally produced maps for between 50 and 75 Coastal 
Barrier Resources System areas; and (2) a report to Congress that 
describes the results of the pilot project and the feasibility, data 
needs, and costs of completing digital maps for all CBRS areas. The 
Service is mapping a total of 60 existing CBRS areas as part of the 
pilot project. We anticipate the pilot project draft maps and report 
will be completed and delivered to Congress in 2006.
National Wildlife Refuge System
    Question. The National Park Service employees the resources of a 
Service-wide Inventory and Monitoring Program at 270 parks, in order to 
track the status and trends of species diversity, abundance and 
distribution. This is a high priority for the Park Service, who has 
requested a $1 million increase for fiscal year 2007. To what extent is 
there a similar program on National Wildlife Refuges? Given that a 
primary focus of the Fish and Wildlife Management Assistance Program is 
monitoring and assessment, what role does or can this program have? Is 
there an ecological benefit to having a coordinated program, 
particularly on federal lands residing within common ecosystem 
boundaries?
    Answer. The Fish and Wildlife Service does not have an inventory 
and monitoring program within the National Wildlife Refuge System 
similar to that of the National Park Service. The NPS model involves 
clustered parks with assigned scientists working with each cluster to 
develop protocols and databases and collect data.
    FWS does have important inventorying and monitoring requirements, 
but some of its priorities are different than those of NPS. While there 
is a role in the NWRS for landscape-scale and Systemwide monitoring 
similar to that of NPS, refuges have a much greater need than NPS for 
station-specific monitoring. Most refuge lands in the contiguous U.S. 
are intensively manipulated, either to restore indigenous habitats or 
to provide for the needs of specific species or guilds of species. 
Parks do some land management (mostly around prescribed fire or control 
of invasive species), but such activities are much more extensive on 
refuges, and so refuges need more site specific monitoring than NPS to 
track the success of such actions.
    During the last 10 years, the NWRS has improved its inventorying 
and monitoring activities on a landscape-scale and on site-specific 
efforts. This has included more rigorous policy guidelines, 
increasingly focused efforts aligned with adaptive management, 
increased technical assistance to field stations (including web-based 
tools), efforts to standardize databases and protocols, and attempts to 
capitalize on successful efforts like those of the NPS. The NWRS is 
also exploring the adaptation of many elements of the NPS program 
including the NPSpecies program, some aspects of their ARC GIS platform 
applications, some of their web-based tools, and possibly some of their 
nomenclature standards.
    Monitoring is only one of a broad range of responsibilities 
assigned to the Fish and Wildlife Management Assistance Program. Others 
include technical assistance to other Federal agencies, tribes, and 
States; fish passage restoration; outreach and education; and elements 
of subsistence management in Alaska. Based on the NWRS ability to 
monitor and cooperate with other partners, the FWMA program is probably 
not the best candidate for an exclusively collaborative monitoring 
effort with NWRS. Some cooperative efforts already exist across FWS 
programs, most notably related to migratory birds, where, for example, 
refuges contribute to mid-winter waterfowl surveys coordinated by the 
Migratory Bird Program in conjunction with State wildlife agencies. If 
appropriate to a data need and study design, other collaborative 
efforts might be designed with the Management Assistance or Endangered 
Species Programs.
    There is value to coordinated monitoring efforts in some cases, 
particularly if it is designed to address focused objectives.
Activity Based Costing
    Question. Please explain what activity based costing is, what it 
measures, and how the data were used to justify almost $2 million in 
administrative savings. Provide for the record a complete list of all 
activities measured.
    Answer. Activity Based Costing and Management (ABC/M) is a cost 
accounting and management tool that will provide the Service with 
improved visibility into the full costs of daily operations and 
outputs. It is expected that ABC/M data will be used extensively across 
the FWS and DOI for process improvement, budget formulation and 
justification, and performance measurement in upcoming fiscal years. 
Employees define the work that must be completed to achieve the outputs 
and outcomes identified in the GPRA Performance Plan. The work is 
broken into activities that describe the consumption of resources or 
cost associated with doing that work. The Service's ABC system has 176 
codes for different work activities. This is not a new financial 
accounting system, but a costing approach that provides a different, 
more effective way to view and interpret managerial cost and 
performance information--rather than report costs just by object class 
or division, ABC/M assigns resources to work activities so they can be 
viewed from an operating business process perspective.
    The Service first identified a target of reducing $2 million in 
program administration, and then used ABC data to help determine the 
distribution of the reduction.
    The categorized list of activities follows:
Process 1: Protect and Manage Species
    Protect and Manage Candidate, T&E and CITES Species
    Manage Candidate Species and Prevent the Listing of Species
      A2: Plan and Implement Candidate Conservation Actions
      A3: Evaluate Species for Candidate Status
    List Endangered Species
      B2: Prepare and Process Listing Petitions
      B3: Prepare and Process Listing Rules for US/Domestic Species
      B4: Prepare and Process Critical Habitat Rules for US/Domestic 
            Species
      B5: Provide Litigation Support for Listing of US/Domestic Species
      B6: Prepare and Process Foreign Listings
    Develop Recovery Plans or Special Rules for Endangered Species
      C2: Develop Recovery Plans for T&E Species
      C3: Prepare, Process and Implement Special 4d, Experimental 
            Population and Other Rules for T&E Species
      C4: Conduct 5-Year Reviews
      C5: Prepare and Process Delisting/Downlisting Petitions
      C6: Prepare and Process Delisting/Downlisting Rules
    Conduct Recovery Actions
      D2: Implement Recovery Actions for T&E Species
      D3: Plan and Implement Post-Delisting Monitoring
      D4: Provide Litigation Support for Recovery Actions
    Provide ESA (Section 7) Consultations
      E2: Provide ESA Section 7 Consultations for Wildland Fire to 
            Service and Other Federal Agencies
      E3: Provide ESA Section 7 Consultations for Water Use to Other 
            Federal Agencies
      E4: Provide ESA Section 7 Consultations for Hydropower to Other 
            Federal Agencies
      E5: Provide ESA Section 7 Consultations for Forage to Other 
            Federal Agencies
      E6: Provide ESA Section 7 Consultations for Forest Resources to 
            Other Federal Agencies
      E7: Provide ESA Section 7 Consultations for Non-Energy Minerals 
            to Other Federal Agencies
      E8: Provide ESA Section 7 Consultations for Energy to Other 
            Federal Agencies
      E9: Provide ESA Section 7 Consultations for Recreation to Other 
            Federal Agencies
      EA: Provide All Other ESA Section 7 Consultations to Other 
            Federal Agencies
      EB: Provide ESA Section 7 Intra-Service Consultations to Service 
            Programs except for Wildland Fire
      EC: Provide Litigation Support for Section 7 Consultations to 
            Service and Other Federal Agencies
    Evaluate Need for, Process and Monitor Permits, Agreements and 
        Assurances for T&E Species
      F2: Evaluate Need for, Process and Monitor HCP Permit 
            Applications
      F3: Process and Monitor Safe Harbor Permit Applications
      F4: Process and Monitor Candidate Conservation Agreements with 
            Assurances
      F5: Process and Monitor Recovery Permits for T&E Species
      F6: Provide Litigation Support for Permitting Actions of T&E 
            Species
    Conduct Law Enforcement for T&E and CITES Listed Species
      G2: Conduct and Assist with Law Enforcement Investigations for 
            T&E and CITES Listed Species
      G3: Conduct Import/Export Inspections for T&E and CITES Listed 
            Species
    Protect and Manage Non T&E Species
    H2: Process Non-T&E Litigation for Resource Protection
    Reintroduce or Enhance Non T&E Species
      J2: Produce and Reintroduce Aquatic Species for Non T&E Species 
            Conservation
      J3: Develop New Aquatic Technologies for Non T&E Species
      J4: Conduct Disease Monitoring and Treatment for Non T&E Species
      J5: Conduct Terrestrial Wildlife Population Management
    Plan Resources for Non T&E Species
      K2: Develop Species Management Plans for Non T&E Species
      K3: Develop Bird Conservation Plans for Non T&E Species
    Manage Harvest and Take for Non T&E Species
      L2: Develop Bird Regulations
      L3: Manage Migratory Bird Populations
      L4: Manage Harvest for Fisheries
      L5: Manage Marine Mammal Harvest and Take
      L6: Manage Alaska Subsistence Harvest Other Than Marine Mammals
    Monitor Status of Non T&E Species
      M2: Survey, Assess and Monitor Non T&E Aquatic Species
      M3: Conduct Migratory Bird Harvest Surveys
      M4: Conduct Migratory Bird Surveys and Monitoring
      M5: Assess Migratory Bird Populations
      M6: Conduct Migratory Bird Research
      M7: Survey, Assess, Monitor Non T&E Wildlife and Plants Other 
            Than Aquatic and Migratory Bird Species
    Prevent, Manage and Control Invasive Species
      N2: Prevent, Manage and Control Non-Native, Invasive, Terrestrial 
            Plants
      N3: Prevent, Manage and Control Non-Native, Invasive Terrestrial 
            Animals
      N4: Prevent, Manage and Control Invasive Aquatic Plants
      N5: Prevent, Manage and Control Invasive Aquatic Animals
    Process Permits
      P2: Process Migratory Bird Permits
      P3: Process Permits for Rights of Way
      P4: Process Refuge Special Use Permits
      P5: Process International Trade Permits, Domestic Permits and 
            Special Use Permits
      P6: Process Import and Export Licenses
      P7: Process Designated Port Exception Permits
    Conduct Law Enforcement for Non T&E and Non CITES Listed Species
      Q2: Conduct and Assist with Law Enforcement for Non T&E and Non 
            CITES Listed Species
      Q3: Conduct Import/Export Inspections of Non T&E and Non CITES 
            Listed Species
      Q4: Conduct Refuge Patrol and Enforcement
      Q5: Provide Forensics Support for Law Enforcement
    Protect Foreign Species
    R2: Implement Provisions of the Western Hemisphere Convention
    R3: Participate in Activities for the Trilateral Committee
    R4: Implement CITES Treaty, Directives, and Related International 
        Obligations and Develop Related Policies
    R5: Implement Provisions of Other Bilateral and Multinational 
        Agreements, Treaties, Accords and Orders
Process 2: Protect and Manage Habitats
    Develop Habitat Plans
    S2: Develop Land Protection Plans
    S3: Develop Comprehensive Conservation Plans
    S4: Develop Strategic Landscape Based Plans and Projects
    S5: Develop Habitat Management Plans
    Inventory, Assess, and Monitor Habitats
    T2: Inventory, Assess, and Monitor Wetlands
    T3: Inventory, Assess, and Monitor Uplands
    T4: Inventory, Assess, and Monitor Riparian/Stream Habitats
    T5: Inventory, Assess, and Monitor Marine/Coastal Habitats
    Manage and Protect Lands and Habitats
    U2: Acquire and Manage Real Estate
    U3: Acquire Easements
    U4: Exchange or Dispose of Lands
    U5: Manage Wilderness Areas
    U6: Manage Water Quality and Quantity
    Manage and Protect Habitats
      V2: Manage and Protect Wetlands
      V3: Manage and Protect Uplands
      V4: Manage and Protect Riparian/Stream Habitats
      V5: Manage and Protect Marine and Coastal Habitats
    Restore and Enhance Habitats
    W2: Restore Wetlands
    W3: Restore Uplands
    W4: Restore Riparian/Stream Habitats
    W5: Restore Marine and Coastal Habitats
    Ensure Environmental Compliance
    Ensure Environmental Quality and Safety
      X2: Evaluate and Audit Environmental Safety and Compliance
      X3: Conduct Contaminant Assessments
      X4: Clean up Contaminated Service Lands
      X5: Ensure Air Quality
    Respond to Hazardous Waste Issues and Spills
      Y2: Prepare for and Implement Spill Response Plans
      Y3: Review Hazardous Waste Actions
      Y4: Conduct Natural Resource Damage Assessments
    Conduct Environmental Review for Customers
      Z2: Review and Develop Environmental Provisions for Federal 
            Projects, Plans, and Permits
      Z3: Review and Develop Environmental Provisions for FERC 
            Hydropower Projects--Municipal (MUN)
      Z4: Review and Develop Environmental Provisions for FERC 
            Hydropower Projects--Non-Municipal (PUB)
      Z5: Review and Develop Environmental Provisions for FERC 
            Hydropower Projects--Non-Specific (COM)
      Z6: Manage Oil and Gas Activities
    Manage Fire Operations
    2A: Prepare for Wildland Fires
    2B: Prepare Fire Management Plans
    2C: Reduce Hazardous Fuels--Prescribed Fire (Non-WUI)
    2D: Reduce Hazardous Fuels--Mechanical (Non-WUI)
    2E: Reduce Hazardous Fuels--Other Methods (Non-WUI)
    2F: Reduce Hazardous Fuels--Prescribed Fire (WUI)
    2G: Reduce Hazardous Fuels--Mechanical (WUI)
    2H: Reduce Hazardous Fuels--Other Methods (WUI)
    2J: Suppress Wildland Fires (Non-WUI)
    2K: Suppress Wildland Fires (WUI)
    2L: Stabilize Burned Areas
    2M: Rehabilitate Lands Damaged by Wildland Fire
    2N: Monitor and Evaluate Fuels Reduction and Post-Fire 
        Rehabilitation
    Manage and Preserve Cultural Resources and Museum Items
    3A: Manage and Protect Cultural and Heritage Resources
    3B: Manage and Protect Museum Items
Process 3: Serve People
    Provide Opportunities for Recreation and Community Partnerships
    4A: Provide and Manage Opportunities for Quality Wildlife Dependent 
        Recreation
    4B: Provide and Manage Opportunities for Other Public Uses
    4C: Develop Visitor Services Plan
    4D: Process Litigation for Recreation
    Communicate with Stakeholders, and Inform and Educate Others
    5A: Conduct External Relations--Media, Congressional, and Other
    5B: Develop and Provide Information and Educational Materials and 
        Activities
    5C: Manage Volunteers and Community Partnerships
    5D: Develop and Manage Partnerships
    5E: Consult and Coordinate with Native American Tribes
    Provide Security and Crime Prevention for Off-Service Lands
    6A: Provide Emergency Response and Public Safety Operations
    6B: Conduct Security Activities
Process 4: Administer Grants
    7A: Administer Endangered Species Act Grants
    7B: Administer Federal Assistance Grants
    7C: Administer Migratory Bird Grants
    7D: Administer Multinational Species Conservation Fund Grants
    7E: Administer Other Domestic and International Grants and Co-
        operative Agreements
    7F: Monitor Grant Programs and Projects
    7G: Monitor Grant Fiscal Processes
    7H: Protect License Fees
Process 5: Construct and Manage Facilities and Equipment
    8A: Provide Leased Space Operations and Program Management
    8B: Construct Buildings
    8C: Construct Roads, Bridges, Tunnels 4    8D: Construct Dams and 
        Water Storage Facilities
    8E: Construct Water Conveyance Facilities
    8F: Construct All Other Structures and Facilities
    8G: Maintain Buildings
    8H: Maintain Roads
    8J: Maintain Bridges
    8K: Maintain Dams and Water Storage Facilities
    8L: Maintain Water Conveyance Facilities
    8M: Maintain All Other Structures and Facilities
    8N: Maintain Equipment
    8P: Inventory DOI Facilities and Assess Facility Condition
Process 6: Provide Management and Administrative Functions
    Provide Management and Policy Oversight
    9A: Provide Directorate Leadership and Oversight
    9B: Conduct Policies and Directives Management
    Manage Human Capital
    9C: Administer Pay and Benefits
    9D: Administer Employee and Labor Relations
    9E: Administer External Civil Rights
    9F: Administer Internal Civil Rights
    9G: Administer Recruitment, Staffing and Ensure Diversity
    9H: Conduct Workforce Planning
    9J: Evaluate and Counsel Personnel
    9K: Manage Professional Responsibility (Internal Affairs)
    Manage Information Resources
    9L: Plan IT Investments
    9M: Acquire IT Investments
    9N: Secure IT
    9P: Operate, Maintain and Manage IT Investments
    Manage Budget, Finance and Performance
    9Q: Develop and Allocate Budgets
    9R: Perform Financial Management Operations
    9S: Conduct Strategic Planning and Performance Management
    9T: Collect and Analyze Activity Based Costing Information
    9U: Conduct Competitive Sourcing Initiatives
    Provide Other Support
    9V: Administer Occupational Safety and Health
    9W: Manage Purchases, Contracts and Acquisitions
    9X: Provide Office Support
    9Y: Manage Records, Files, Mailrooms and Libraries/Info. Services
    9Z: Process Information Quality, FOIA, Privacy Act and Liability 
        Requests/Claims
    Manage and Attend Training
    92: Develop and Deliver Training
    93: Attend Training

                         NATIONAL PARK SERVICE

Historic Preservation Fund
    Question. Please provide a table showing the funding history for 
Grants-in-Aid to States and Territories versus Grants-in-Aid to Tribes, 
along with the number of Tribal Historic Preservation Offices, for the 
last ten years.
    Answer. The table below shows appropriated funding for Grants-in-
Aid to States and Territories, Grants-in-Aid to Tribes, and the number 
of Tribal Historic Preservation Offices eligible to receive an HPF 
tribal grant at the beginning of each fiscal year from fiscal year 1997 
through fiscal year 2006.

                 HISTORIC PRESERVATION FUND--GRANTS-IN-AID TO STATES AND TERRITORIES AND INDIAN TRIBE: FISCAL YEAR 1997-FISCAL YEAR 2006
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Fiscal years--
---------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  1997     1998     1999     2000     2001     2002     2003     2004     2005     2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
Grants-in-Aid to State and Territories........................   29,394   29,394   31,394   31,598   46,495   39,000   33,779   34,570   35,500   35,717
Grants-in-Aid to Indian Tribes................................    1,896    2,296    2,596    2,572    5,560    3,000    2,981    2,963    3,205    3.941
Eligible Tribal Historic Preservation Offices.................     [17]     [19]     [22]     [27]     [29]     [35]     [45]     [52]     [58]     [58]
--------------------------------------------------------------------------------------------------------------------------------------------------------

ONPS: Resource Stewardship
    Question. To what extent does research funded through the Natural 
Resources Research Support Program get published in peer-reviewed 
literature? What policies are in place to ensure that research on 
National Parks is made publicly available?
    Answer. A small portion, less than ten percent, of funding under 
the Natural Resources Research Support Program are dedicated to 
research performed internally by the NPS. The majority of Natural 
Resources Research funding provides research support for air quality, 
Research Learning Centers, Cooperative Ecosystem Studies Units, and the 
National Cave and Karst Research Institute. Internal NPS research is 
limited to specialized air quality and visibility research, a 
discipline not sufficiently covered by the USGS Biological Resource 
Discipline or other Federal agencies. In 2005, 13 professional papers 
were published in peer-reviewed literature, while 14 additional papers 
were submitted for publication and have yet to be published due to the 
extended period that routinely occurs between submission and 
publication. In addition, NPS researchers chaired six sessions during, 
and made more than 50 presentations to, professional conferences 
attended by their peers.
    Research on natural resources in units of the National Park System 
is either NPS-conducted or sponsored research designed to assist park 
managers in achieving desired resource conditions provided for in law 
or approved planning documents, or non-NPS research. The importance of 
peer review to both of these research categories is supported by 
current NPS policy and program guidance. NPS policy specifies that NPS-
conducted or sponsored research is to comply with both professional 
standards, and with general and park-specific research permit 
conditions. NPS personnel are to make their findings available to the 
public, such as by publication in professional journals or presentation 
in interpretive programs (2001 NPS Management Policies, 4.2.1). NPS 
natural resource program guidance states that research must be 
scientifically valid and tested through peer review (1991 NPS-77 
Natural Resource Management Guideline, 5.5). This guidance also 
supports publishing the results of research in primary scientific 
literature, noting that the peer review inherent in the publication 
process is critically important in maintaining the quality of research 
conducted in the National Park System (1991 NPS-77 Natural Resource 
Management Guideline, 5.10.).
    Independent, non-NPS research conducted in parks is performed 
pursuant to an NPS scientific research and collecting permit. Such 
research must conform to NPS policies and guidelines regarding the 
publication of data and the specific requirements identified in the 
terms and conditions of the permit. Independent researchers must be 
fully qualified and conform to current standards of scholarship--
standards that routinely include peer-review requirements on research 
results.
    Information derived from natural resource research can reach the 
public through interpretive and education programs, Research Learning 
Centers, various Internet-accessible information resources, and 
integration with park planning documents. In conjunction its renewed 
commitment to interpretation and education in 2003, the NPS established 
that interpretive programs would be based on sound scholarship content, 
methods, and audience analysis, and were to be informed by the latest 
research related to natural and cultural heritage (2003 Renewing Our 
Education Mission). The searchable web-based Investigators Annual 
Reports contained in the NPS Research Permit and Reporting System 
database span the full range of studies authorized to be conducted in 
parks (http://science.nature.nps.gov/research/ac/ResearchIndex).
    Applicable NPS policy and standards incorporate by reference those 
described within the Office of Management and Budget's final guidelines 
and the Department of the Interior's guidelines on information quality 
(2002 Directors Order#11B: Ensuring Quality of Information Disseminated 
by the National Park Service).
    Question. Do the Exotic Plant Management Teams work outside park 
boundaries? If not, why not? How is the work coordinated at a watershed 
or ecosystem level?
    Answer. The National Park Service does not have authority to expend 
funds appropriated for the Operation of the National Park System on 
non-NPS lands. A February 2005 Government Accountability Office report 
found that the NPS was the only major Federal land management agency 
lacking authority to expend such funds outside its boundaries even when 
a direct benefit would exist to natural resources within a park. This 
lack of consistency among Federal agencies was cited by GAO as a 
barrier to effective control of invasive species on Federal and non-
Federal lands.
    The Natural Resource Protection Cooperative Agreement Act (HR 4294) 
introduced in the House, and a similar bill (S. 1288) introduced in the 
Senate, are designed to remedy this situation by authorizing the NPS to 
enter into cooperative agreements with states, local governments, 
tribal governments, organizations, groups and private landowners. Both 
of these bills will allow the NPS to participate using ONPS funding in 
collaborative activities on lands both inside and outside the National 
Park System, as long as it ``shall provide clear and direct benefits to 
park natural resources''. This is similar to existing authorities for 
other Federal land management agencies, such as the Bureau of Land 
Management and the U.S. Forest Service. Should this legislation be 
enacted, it would permit the NPS to participate in cooperative weed 
management programs at both local and landscape scales, so long as 
there is a clear and direct link to park resources.
    Broad scale cooperation among Federal, State and private interests 
at the watershed, ecosystem and landscape levels is an important 
component of invasive species management. Currently, the NPS is a 
recognized national leader in cooperative weed management programs due 
largely to the effectiveness and efficiency of its EPMTs. As an 
example, in the Yellowstone National Park area, invasive plants are 
managed in concert across three national parks, six national forests, 
two wildlife refuges, three states, several counties and numerous 
private landowners. Likewise, ``Team Tamarisk'', a partnership with 
several Federal agencies, State and local entities, and the EPMT 
stationed at Lake Mead National Recreation Area, has produced effective 
tamarisk weed management across watershed and agency boundaries. 
Coordinated early detection and rapid response is a key element in 
combating the establishment of new invasive plant species. The Alaska 
interagency cooperative weed group is an example of this strategy, with 
the NPS and other cooperating agencies continuously working to identify 
new exotic plant infestations and remove them before they can become 
widespread.
    Coordination across Department of the Interior bureaus supports 
ecosystem and landscape level efforts to control invasive species. A 
key aspect of this inter-bureau coordination has been the role of 
senior level management in the effort. The approach used by ``Team 
Tamarisk'' for integrated invasive plant management across 
administrative boundaries is the model for planning and coordinating 
multi-bureau efforts in priority geographic areas to maximize the 
efficiency and effectiveness of investments. Direct meetings between 
four NPS regional directors and their counterparts in other DOI bureaus 
have either been held or are scheduled in the near future to advance 
this coordination.
    NPS EPMTs have worked cooperatively on National Wildlife Refuge 
System lands under interagency agreements with the U.S. Fish and 
Wildlife Service (FWS) on invasive plant control projects. These 
projects were funded with FWS appropriations. NPS EPMTs have also 
worked on local lands, such as in Clark County, NV, when funding was 
provided by the county government for invasive plant control and the 
control efforts benefited park lands.
ONPS: Facility Operations and Maintenance
    Question. Please explain how a proposed $10 million reduction in 
the Repair and Rehabilitation Program, coupled with a proposed $93 
million reduction in the Line Item Construction and Maintenance 
Program, enables the Service to properly maintain its facilities long-
term.
    Answer. The NPS remains committed to addressing the deferred 
maintenance backlog and to properly maintaining its facilities for the 
long-term. Despite the reduction in the line-item construction and the 
repair and rehabilitation funding requests, the overall fiscal year 
2007 amount requested for line-item construction, repair and 
rehabilitation, fee, and Federal Lands Highway is $933 million, which 
is $118 million higher than the 2001 funding level for these programs 
and more than double the amount available in the mid-1990's.
    In fiscal year 2007, the budgetary emphasis is changing to more 
long-term preservation and management, however, and the NPS is 
transforming the agency's approach to managing its facilities. During 
the past four years, the NPS has been implementing an innovative asset 
management program focused on developing a comprehensive inventory and 
condition assessment of the agency's asset base. Parks have completed, 
for the first time, a prioritization of their asset inventory. 
Condition assessments on eight industry-standard assets (such as 
buildings, water systems, roads and trails) will be completed at all 
parks by the end of 2006. This shift in emphasis for the agency is 
based on management reforms and performance measures, and features a 
state-of-the-art software system. Once these detailed condition 
assessments are completed, the NPS will have a better understanding of 
the current deferred maintenance needs. These new tools will allow NPS 
to have a better understanding of the true cost of ownership, including 
recurring operational costs of the facilities.
    The NPS continues to make significant progress in completing the 
numerous projects necessary to improve the condition of park 
infrastructure. Since 2002, nearly 6,000 projects have been undertaken 
and approximately $4.7 billion have been invested using line-item 
construction, repair and rehabilitation, fee, and Federal Lands Highway 
dollars. The 2007 budget proposes to protect the Administration's past 
investments by realigning funding within the NPS asset management 
program to focus on proactive measures that will preclude these 
resources from slipping to poor condition.
    The Cyclic Maintenance Program incorporates a number of regularly 
scheduled preventive maintenance procedures and preservation techniques 
into a comprehensive program that prolongs the life of a particular 
asset. The proposed increase in cyclic project funding would assist in 
preventing the continued deterioration of NPS assets. Increasing the 
project funding will afford parks the ability to maintain assets on a 
predictive cycle, rather than allowing them to fall into disrepair and 
ultimately adding to the backlog. Funds appropriated for the cyclic 
maintenance program would target those assets that are mission critical 
and still in maintainable condition, but could fall into poor condition 
without the proper application of life cycle maintenance. With the 
proposed increase of $10.0 million, the cyclic maintenance program now 
totals $71.5 million.
    The 2007 budget includes $86.2 million for the Repair and 
Rehabilitation program. Over the past five years, $345 million has been 
allocated for this program. In 2007, NPS will continue to prioritize 
projects that address critical health and safety, resource protection, 
compliance, deferred maintenance, and minor capital improvement issues. 
The budget request also includes a proposal to use additional 
recreation fee revenue for facility maintenance projects. For 2007, it 
is estimated that $100 million in recreation fees will be used for 
deferred maintenance projects.
    Within the total proposed for construction, line-item construction 
projects are funded at $121.9 million. The budget request reflects a 
shift from new construction projects to the up-keep of current 
facilities. Assuming the President's budget request is funded, the NPS 
intends to sustain the progress made in the asset management program, 
as measured by the facility condition index.
Construction
    Question. Please explain how recent trends in energy prices and 
subsequent building costs have impacted the Service's ability to 
implement construction projects.
    Answer. The NPS is making efforts to manage this situation within 
available funds at the national, regional, and park level. With budget 
constraints in the construction account, it is critical for parks and 
regions to maximize available dollars before requesting additional 
funds. To improve construction estimates, the NPS has updated factors 
to reflect current market conditions. The scope of some projects has 
been reduced, and the NPS has imposed an internal requirement that 
projects be designed for only 95 percent of available funds. This 
provides additional flexibility to accommodate the volatile 
construction market.
    Additionally, contractors who provide estimates for the Park 
Service's major construction projects have received extensive training 
from the Denver Service Center about the unique governmental factors 
that need to be considered. These factors include the Davis-Bacon wage 
rates, remoteness, historic preservation considerations, and the need 
to keep facilities open to visitors and thus limit construction work 
hours. The NPS is also conducting independent validation of 
construction estimates for projects before they go to bid. Based on 
these validations, the Park Service can adjust estimates to ensure 
viability or propose a reprogramming to shift funds between projects.

                       ENDANGERED SPECIES: WOLVES

Background
    Question. I want to thank you again for your assistance in dealing 
with our recent wolf problem in eastern Montana. Wolves have made a 
tremendous recovery and I'm proud of the cooperation by the State of 
Montana and the Service to draft a management plan that we can all 
agree on. The next hurdle, of course, is delisting the wolves.
    Can you please give us an update on where we are in the process of 
delisting wolves in Montana, Idaho, and Wyoming?
    Answer. The States of Montana and Idaho have developed wolf 
management plans that are adequate to maintain their share and 
distribution of the tri-state wolf population above recovery levels. On 
October 26, 2005, the Fish and Wildlife Service published a finding 
that the petition from Wyoming presented substantial information that 
the potential Northern Rocky Mountain (NRM) gray wolf population may 
warrant delisting. The Service is currently working on the status 
review and finding based on this petition. On Feb. 8, 2006, the Service 
announced the intent to conduct rulemaking that would establish a 
distinct population segment of the gray wolf (Canis lupus) in the NRM. 
The NRM wolf Distinct Population Segment, as proposed in the Advance 
Notice of Proposed Rulemaking, will encompass the eastern one-third of 
Washington and Oregon, a small part of north-central Utah, and all of 
Montana, Idaho and Wyoming. The comment period closed on April 10, 
2006.
    Question. Why is it that all three states have approved wolf 
management plans before management authority can be turned over to an 
individual state?
    Answer. We use the following five factors to determine whether or 
not a ``species'' has recovered to the point that it should be 
delisted:
  --the present or threatened destruction, modification or curtailment 
        of its habitat or range;
  --overutilization for commercial, recreational, scientific, or 
        educational purposes;
  --disease or predation;
  --the inadequacy of existing regulatory mechanisms; and
  --other natural or manmade factors affecting its continued existence.
    These five factors must be applied to the entity, either species, 
subspecies, or distinct population segment, as it is listed. In the 
case of the potential Northern Rocky Mountains distinct population 
segment of wolves, before the Service can delist, the fourth factor--
inadequacy of existing regulatory mechanisms--must be satisfied. Since 
the core population of the NRM wolves is found in these three states, 
all three states must have adequate regulatory mechanisms in place to 
maintain the recovered wolf population.

               FWS LAND ACQUISITION: ROCKY MOUNTAIN FRONT

Background
    Question. Last year we appropriated $985,000 to begin purchasing 
easements along the front range west of Great Falls, MT. For those of 
you who don't know, this is the only remaining landscape in the Lower 
48 with a complete, intact, and functional assemblage of large 
carnivores, including the grizzly bear, gray wolf, wolverine, and lynx. 
Moreover, it is my continued hope that this program will become a fine 
example of cooperative conservation by ranchers, conservationists, and 
the Service. Judging from your budget proposal to more than double the 
funding in fiscal year 2007 (to $1.98 million), the program is a 
success.
    Can you please provide us with an update of the Rocky Mountain 
Front program, including your plans for the funds in fiscal year 2007?
    Answer.

                 ROCKY MOUNTAIN FRONT CONSERVATION AREA
                         [Dollars in thousands]
------------------------------------------------------------------------
                                               Fiscal years--
                                  --------------------------------------
                                       2006         2007        Total
------------------------------------------------------------------------
Funding..........................         $985       $1,980       $2,965
Acres Acquired...................        4,787        6,500       11,287
------------------------------------------------------------------------

    The FWS is partnering with the Nature Conservancy and the Montana 
Department of Fish, Wildlife and Parks to implement the Rocky Mountain 
Front Easement Program. This program is part of a landscape 
conservation strategy to protect the unique, highly diverse and 
unfragmented ecosystem of the Front, which is located in north central 
Montana and encompasses the massive ecotone formed by the intersection 
of the western edge of the Northern Great Plains and Rocky Mountains.
    Among conservation biologists, the Front is ranked in the top one 
percent of wildlife habitat remaining in the United States. In 2006, 
Congress appropriated $985,000 for the FWS to acquire 4,787 acres of 
conservation easements from willing landowners in the Front. The FWS is 
moving forward with the 2006 acquisitions (identifying willing sellers 
and conducting appraisals, etc.)
    The 2007 President's Budget includes $1.9 million to acquire 6,500 
acres of conservation easements from willing landowners. By partnering 
with the Nature Conservancy and the State of Montana, the FWS is able 
to leverage Federal funds in the efforts to maintain biological 
diversity and related wildlife habitat values in the Front.

              NATIONAL WILDLIFE REFUGES: HURRICANE DEBRIS

Background
    Question. Last year, hurricanes Katrina and Rita leveled whole 
communities and deposited an incredible amount of hazardous waste, 
appliances, cars, boats, and countless other debris on our National 
Wildlife Refuges.
    What is your timeline for cleaning up the debris?
    Answer. In December, the Service received $30 million in emergency 
supplemental funding. Funding was not adequate for debris removal, but 
provided for immediate stabilization on some affected refuges. The 
President's $132.4 million supplemental request includes funding for 
the removal of known hazardous debris on multiple national wildlife 
refuges impacted by the 2005 hurricanes.
    To expedite the process, the Service has entered into an agreement 
with the Tennessee Valley Authority to: (1) complete an assessment of 
hazardous materials and debris on all impacted refuges; (2) to complete 
any necessary environmental compliance documents; and (3) to develop a 
scope of work for actual hazardous debris removal activities. The 
Tennessee Valley Authority is used in this agreement because they are a 
support agency to the Environmental Protection Agency for debris 
removal under Emergency Support Function#3 in Cameron Parish, 
Louisiana. The recently enacted supplemental should allow the Service 
to quickly issue contracts to begin work on debris removal.
    Question. What is the role of the Service's Environmental 
Contaminants Program in assessing the damage and monitoring such 
factors as water quality?
    Answer. Impacts to our trust resources from hazardous materials are 
a significant concern being addressed with the help of the 
environmental contaminants program. Biologists from that program are 
working with refuge managers and biologists from across all of our 
programs on all hazardous materials concerns. Specifically, 
contaminants staff will assist in the development and review of the 
assessment, compliance, and scope of work necessary to complete 
hazardous debris removal on national wildlife refuges impacted by the 
2005 hurricanes. The Service intends to initiate an inventory and 
monitoring program on the ecological recovery of national wildlife 
refuges as a result of damages from devastating hurricanes of the past 
two years.
    Question. Your fiscal year 2006 emergency supplemental request 
includes $24 million for debris removal and hazardous materials clean-
up. Will these funds cover complete removal and clean-up needs, and, if 
not, would you use fiscal year 2007 base funds?
    Answer. The Service believes that the amounts requested are 
adequate to remove known hazardous debris, although they will not cover 
cleanup of known non-hazardous debris. Costs to complete cleanup of all 
known debris (both hazardous and non-hazardous) may be much higher. The 
Service has prioritized $20 million for the removal of known hazardous 
debris on four national wildlife refuges in Louisiana, and $12 million 
for these cleanup activities on Sabine National Wildlife Refuge. This 
will be a massive cleanup effort and as additional assessments are 
conducted, it may become necessary to redirect some of this request to 
provide for additional removal activities. At this time, the Service 
has not made a decision whether to use fiscal year 2007 base funding to 
cover any additional cleanup needs.
    Question. Are there instances where you are considering leaving 
some of the debris in place so as to minimize further ecological 
damage?
    Answer. Yes, the Service will not remove all debris deposited on 
national wildlife refuges as a result of the hurricanes. The Service 
will focus its priority on the removal of all known hazardous materials 
on refuge lands, but it is not feasible or cost-effective to remove all 
of the debris. As with all management activities, the Service will rely 
on experts, good science, and its historical knowledge to ensure that 
debris removal focuses on hazards and that impacts are minimized to 
these sensitive coastal marsh ecosystems.

                FISH AND WILDLIFE SERVICE: CONSTRUCTION

Background
    Question. You propose to cut $25 million (-56 percent) from the 
Fish and Wildlife Service construction budget. Furthermore, the meager 
$19 million request includes more funds for salaries and overhead than 
for on-the-ground projects.
    Given the relatively few projects in the request, how can you 
justify the budget for personnel and other overhead costs--particularly 
when you assess each project for additional overhead costs?
    Answer. An adequate engineering staff is critical for the FWS to 
properly maintain and replace its facilities. Recent appropriations 
levels for the Construction program have totaled more that $40 million 
per year. In many cases these are multi-year projects that require 
involvement of the engineering staff over the course of several years.
    In addition, supplemental funding for hurricane recovery totaled 
$30.0 million in 2006 and an additional $132.4 million is included in 
the current supplemental budget recently signed by the President. Many 
of these proposed hurricane recovery projects will be continued into or 
initiated in 2007. If FWS were to reduce the personnel associated with 
its engineering staff, it would not be able to complete these recovery 
activities in a timely fashion. FWS also needs additional staff to 
manage the additional funds in the recently enacted highway 
reauthorization bill (SAFETEA-LU). Over the five-year life of the 
SAFETEA-LU program, $145 million will be dedicated to refuge roads.
    Question. Does the request includes a $7 million reduction in 
Refuge deferred maintenance?
    Answer. Within construction, there is a $6.7 million reduction in 
refuge projects; however, we are focusing funding on Klamath and 
hatchery repair and rehabilitation projects. The 2007 budget focuses 
funding for deferred maintenance through the refuge operations 
maintenance program and the additional funds received in SAFETEA-LU. 
The FWS will carefully target deferred maintenance funds to address the 
highest priority needs. Since 2001, the Refuge Maintenance program has 
increased by $9.4 million, or 12.6 percent. The recently enacted 
highway reauthorization bill (SAFETEA-LU) includes $29 million in 2007, 
a 30 percent increase over 2004. Over the five-year life of the 
SAFETEA-LU program, $145 million will be dedicated to refuge roads.
    Question. How is the Service tracking deferred maintenance and what 
has been the trend in the last 5 years?
    Answer. The refuge system prioritizes maintenance needs through 
data used to develop five-year budget plans, including the Asset 
Priority Index (API) and the Facilities Condition Index (FCI). APIs 
help assess each asset's contribution to the refuge mission, allowing 
the refuge manager to estimate the annual operation and maintenance 
cost of each individual asset. The FCI helps determine whether 
replacement is more appropriate then repair, tracks the performance of 
the maintenance program, and provides the maintenance performance 
metric under the DOI strategic plan.
    The refuge system's Condition Assessment Program, established in 
fiscal year 2001 to systematically evaluate the condition of real 
property and itemize costs for maintenance needs, measures the state of 
refuge properties with replacement values of more than $50,000 every 
five years. At the end of fiscal year 2005, half of all assets with 
current replacement value over $50,000, (11,097 out of 22,226) have 
been assessed through the field inspection stage. The refuge system 
expects to complete the first cycle of comprehensive condition 
assessments by the end of 2006. After that point the refuge system will 
cyclically complete condition assessments as 20 percent of field 
stations each year, assuring that every field station undergoes 
condition assessments every five years.
    Since 2001, the Service has invested $618 million in its refuge 
maintenance program. During the five-year period including fiscal years 
2002 through 2006 the refuge maintenance budget increased approximately 
12.6 percent. The Refuge System utilized maintenance funding to 
complete 2,382 projects through 2005. These projects have included the 
rehabilitation of critical facilities including administrative offices, 
and other facilities supporting refuge maintenance, visitor services, 
and habitat conservation.
    Question. What is the Service doing to ensure that deferred 
maintenance doesn't get out of control?
    Answer. Because the refuge system will complete the first five-year 
cycle of condition assessments this year, we are in a much better 
position to understand how to best prioritize limited resources. The 
refuge system prioritizes maintenance needs through data used to 
develop five-year budget plans, including the Asset Priority index 
(API) and the FCI. FCIs help determine whether replacement is more 
appropriate than repair, track the performance of the maintenance 
program in improving asset condition, and provide the means to compare 
performance across the Department and within the FWS. APIs reflect the 
priority of each asset's contribution to the refuge mission. The refuge 
system can now estimate the annual operational and maintenance cost of 
each individual asset.
    We expect that the use of these tools will help the FWS refine its 
five-year construction and deferred maintenance plans to ensure that 
funding is going to the most critical deferred maintenance needs. This 
way we can ensure safe work environments for our staff, safe visits for 
the general public, and the creation of new facilities that protect the 
resources under our stewardship while providing necessary visitor 
services.

           NATIONAL PARK SERVICE: MAINTENANCE & CONSTRUCTION

Background
    Question. Madam Secretary, the total request for maintenance and 
construction is $622 million, including a $93 million (43 percent) 
reduction in the line item construction and maintenance budget. The 
budget justification states that the $122 million request will focus on 
deferred maintenance.
    Given our mutual commitment to reducing the maintenance backlog 
over the last several years, what safeguards have you put in place to 
ensure that reductions like these won't lead to further backlog 
problems down the road?
    Answer. Despite the reduction in the line-item construction and the 
repair and rehabilitation funding requests, the overall fiscal year 
2007 amount requested for deferred maintenance activities is $933 
million, which is $118 million higher than the 2001 funding level for 
these programs and more than double the amount available in the mid-
1990's. The 2007 budget proposes to protect the Administration's past 
investments by realigning funding within the NPS asset management 
program to focus on proactive measures that will preclude these 
resources from slipping into poor condition.
    The Cyclic Maintenance Program incorporates a number of regularly 
scheduled preventive maintenance procedures and preservation techniques 
into a comprehensive program that prolongs the life of a particular 
asset. The proposed increase in cyclic funding would assist in 
preventing the continued deterioration of NPS assets. Increasing 
funding will afford parks the ability to maintain assets on a 
predictive cycle, rather than allowing them to fall into disrepair and 
ultimately adding to the backlog. Funds appropriated for the cyclic 
maintenance program would target those assets that are mission critical 
and still in maintainable condition, but could fall into poor condition 
without the proper application of life cycle maintenance. With the 
proposed increase of $10.0 million, the cyclic maintenance program 
totals $71.5 million.
    The 2007 budget includes $86.2 million for the Repair and 
Rehabilitation program. Over the past five years, $345 million has been 
allocated for this program. In 2007, NPS will continue to prioritize 
projects that address critical health and safety, resource protection, 
compliance, deferred maintenance, and minor capital improvement issues. 
The budget request also includes a proposal to use additional 
recreation fee revenue for facility maintenance projects. For 2007, it 
is estimated that $100 million in recreation fees will be used for 
deferred maintenance projects.
    Within the total proposed for construction, line-item construction 
projects are funded at $121.9 million. The budget request reflects a 
shift from new construction projects to the up-keep of current 
facilities. Assuming the President's budget request is funded, NPS 
intends to sustain the progress made in the asset management program, 
as measured by the facility condition index.
    The NPS also continues to make significant progress in completing 
the numerous projects necessary to improve the condition of park 
infrastructure. Since 2002, nearly 6,000 projects have been undertaken 
and approximately $4.7 billion have been invested using line-item 
construction, repair and rehabilitation, fee, and Federal Lands Highway 
dollars.
    In addition to investing significant levels of funding, the NPS is 
transforming the agency's approach to managing its facilities. During 
the past four years, the NPS has been implementing an innovative asset 
management program focused on developing a comprehensive inventory and 
condition assessment of the agency's asset base. Parks have completed, 
for the first time, a prioritization of their asset inventory. 
Condition assessments on eight industry-standard assets (such as 
buildings, water systems, roads and trails) will be completed at all 
parks by the end of 2006. This shift in emphasis for the agency is 
based on management reforms and performance measures, and features a 
state-of-the-art software system. Once condition assessments are 
completed, the NPS will have a better understanding of the current 
deferred maintenance needs. These new tools will allow NPS to have a 
better understanding of the true cost of ownership, including recurring 
operational costs of the facilities.

                       NPS HISTORIC PRESERVATION

Background
    Question. Your fiscal year 2007 request proposes to create a new 
umbrella program--America's Heritage & Preservation Partnership 
Program--as the new home for Save America's Treasures, Preserve 
America, and Heritage Partnership Programs. In the process, you propose 
to increase Preserve America (+$5 million) at the expense of Save 
America's Treasures (-$10 million) and Heritage Partnership Programs 
(-$6 million).
    How will the proposed budget reorganization help local communities 
gain access to these programs, as described in your budget 
justification, particularly if there is no change in the delivery of 
these programs?
    Answer. The Department continually strives to improve the 
effectiveness and efficiency of its programs and services. The 
Department identifies areas of synergy among programs and look for ways 
to leverage those commonalities in the pursuit of its mission of 
preserving nationally significant historical and cultural resources. 
The American Heritage & Preservation Partnership Program (AHPP) was 
established with that exact effort in mind. It combines the synergistic 
elements of Save America's Treasures, Preserve America and Heritage 
Partnership Programs and leverages them in an effort to achieve the 
goals of preserving and increasing awareness of our National cultural 
resources. This new structure will allow local communities to determine 
which strategies best suit their heritage needs; apply to the most 
appropriate programs for repairing historic buildings, conserving 
museum resources, and promoting heritage development; effect better 
coordination; and generate greater efficiencies in enhancing and 
expanding opportunities for cultural resource preservation throughout 
the Nation.
    Question. Considering that Grants-in-Aid to States, Save America's 
Treasures, and Preserve America all rely on identical performance 
measures, how are these programs not duplicative?
    Answer. Grants-in-Aid to States, Save America's Treasures and 
Preserve America are three distinct programs used by the National Park 
Service to promote distinct local preservation goals. Grants to States 
and Territories are used primarily to support State Historic 
Preservation Offices. State offices use this funding to survey and 
inventory historic properties, manage the National Register process at 
the local level, and develop and implement preservation programs and 
compliance review.
    Funding requested for the America's Heritage and Preservation 
Partnership Program, including Save America's Treasures and Preserve 
America, allows local communities to determine which strategies best 
suit their heritage needs and apply directly for Federal aid. Save 
America's Treasures funding is used to support restoration projects to 
preserve irreplaceable historic sites or collections of national 
significance for future generations. The Preserve America program does 
not fund ``bricks and mortar'' restoration projects, which are covered 
under Save America's Treasures grants. Instead, it complements the Save 
America's Treasures grants program by offering one-time ``seed money'' 
in the form of competitive 50:50 matching grants to help local 
communities develop sustainable resource management strategies and 
sound business practices for the continued preservation of heritage 
assets. Such activities include planning and feasibility studies, 
heritage education curricula, and heritage tourism business cases.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

    Question. How much of the Interior Department's budget goes toward 
the costs of litigation to defend the regulations and laws under your 
purview?
    Answer. Within Interior, the BLM has made the greatest advancement 
in capturing the costs of its activities. Using its costing data, BLM 
was able to provide an estimate of litigation costs. In fiscal year 
2004, BLM spent approximately $14.3 million on litigation activities 
including the costs of gathering information, preparing documents and 
records, preparing and giving testimony, and working with solicitors 
and attorneys on specific legal cases. The only other estimates on 
costs of litigation for other Interior agencies are those reported by 
the Office of the Solicitor.
    The fiscal year 2006 enacted operating budge for the Office of 
Solicitor (Office) is $54.6 million and includes the costs of 
litigation. The Office provides the principal support to the Secretary 
for defense of laws and regulations under the purview of the Secretary 
of the Interior. The primary role of the Office is to provide high 
quality legal advice regarding the goals, objectives, and 
responsibilities that are given to the Secretary by the President and 
Congress. The Office coordinates with the Department of Justice 
regarding litigation involving the Department of the Interior. The 
Office performs the critical task of communicating the Department's 
legal position to the President, Congress, other executive branch 
agencies, and the public.
    The majority of the Office's resources are devoted to the defense 
of a wide range of litigation against the United States, both 
administrative and judicial, and to other legal services, ensuring that 
the Department's bureaus carry out their responsibilities in accordance 
with the law. In most judicial litigation, attorneys actively assist or 
are co-counsel with attorneys from the Department of Justice. In some 
judicial litigation and all administrative litigation, attorneys 
represent the Department without assistance from DOJ.
    The Office provides everyday legal service assistance in drafting 
and reviewing legislation, proposed and final regulations, contracts, 
memoranda of agreement, decisions, agreements, leases, rights-of-way, 
title documents, and other legal instruments, as well as providing both 
written and oral legal advice on legal questions. In addition, the 
Office provides critical legal support for the Department's key 
initiatives, assists the bureaus in responding to congressional 
direction in appropriations and substantive legislation, and advises 
the bureaus on legal options for streamlining processes and improving 
program management and implementing plans to carry out departmental 
goals. The Office assists the bureaus in responding to Inspector 
General, congressional, judicial, and public (FOIA) requests, as well 
as subpoenas for documents.
    Question. How do you plan to work with Congress to provide more 
control over the implementation of laws and regulations, for example 
the ESA, to states?
    Answer. The Department continues to work with Congress to ensure 
that laws and regulations pertinent to the mission and programs of the 
Department of the Interior are carried out as effectively as possible. 
The Department also continues to strive to find collaborative efforts 
and partnerships that enhance opportunities to foster a culture of 
responsibility in implementing legislation.
    Interior agencies also continually strive to improve regulations 
and policies to ensure that they are explicit, well defined, and 
consistent with current laws. For example, the recent Program 
Assessment Rating Tool review of the Endangered Species program found 
that FWS can make improvements in endangered species-related 
regulations and polices. This may include revising the definition of 
adverse modification, issuing critical habitat guidance, and explicity 
characterizing the benefits of critical habitat designations. FWS is 
currently working on these improvements as well as developing a process 
for regularly scheduled independent evaluations of the program.
    The Department is also focusing resources on cooperative 
conservation programs, such as the Private Stewardship Grant, Landowner 
Incentive, and Partners for Fish and Wildlife programs, that foster a 
non-regulatory approach to solving conservation problems at the local 
and state level.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                NATIONAL STREAMFLOW INFORMATION PROGRAM

    Question. In December I sent a letter with eight of my colleagues 
to the Secretary of Interior and to the Office of Management and Budget 
strongly supporting the State Cooperative Program and the National 
Streamflow Information Program (NSIP), programs that fund stream 
gauging and water analysis across the nation. My analysis shows that 
these two programs are the most efficient and most effective ways to 
provide our nation with essential information on floods, water 
supplies, our international water obligations and impacts on regional 
hydrologic changes.
    The administration has provided a minimal increase in the NSIP 
program, well below the national requirements, but in the same proposal 
dramatically decreased the State Cooperative Program. This approach to 
stewardship of our water resources must be reversed.
    Can you explain how these cuts to the State Cooperative Program are 
going to be offset by NSIP, and which New Mexico programs or projects 
will be cut?
    Answer. The two proposed program changes are not related. The 
Cooperative Water Program reduction is targeted at interpretive studies 
that are ending and should not affect streamgages or other basic data 
collection. The proposed increase for the NSIP will help to stabilize 
and augment the national streamgaging network, and thus will not offset 
the reductions proposed for the Cooperative Water Program. The USGS 
does not plan to stop any ongoing projects in New Mexico or in any 
other State. The reduction will target only those projects that were 
already planned to conclude by the end of 2006.
    Question. Will you commit to providing my office a strategy for 
meeting all our high-priority water monitoring needs as articulated in 
the USGS description of the goals for the NSIP and State Cooperative 
Programs, along with a description of the expanded budget needs to meet 
these goals by July of 2006?
    Answer. The USGS has performance measures and 5-year plans for 
high-priority monitoring activities, which comprise the bureau's 
strategy for monitoring activities. By July 2006, the Department can 
deliver the 5-year plans, the written analysis and summary of results 
from review of Water information and dissemination activities using the 
Program Assessment Rating Tool, and a budget summary of the monitoring 
activities.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

       BUREAU OF INDIAN AFFAIRS--REPLACEMENT SCHOOL CONSTRUCTION

    Question. The budget request proposes to reduce funding for 
replacement school construction by $37 million. That's a cut of 43 
percent from the current enacted level, and 74 percent from the 2004 
level. According to the budget justification, the reason for the cut is 
so that BIA can ``focus on building schools that have already been 
funded.''
    How many replacement school projects is BIA currently managing?
    How many staff are assigned to the replacement school program?
    How many more years will it take BIA to catch up with the backlog?
    Answer. During this Administration, we have obtained a total of 
over $1.3 billion for BIA school construction projects. With the 2007 
budget, we will have provided over $1.5 billion in six years.
    By the time we have completed the work proposed in our 2007 budget, 
65 percent of BIA schools will be in good or fair condition. This will 
reverse the status of schools from four years ago when 65 percent of 
BIA schools were in poor condition. Of the 37 replacement schools 
funded between 2001 and 2006, 10 have been completed and another 19 are 
scheduled to be completed in 2006 and 2007. BIA is currently managing 
27 replacement school projects.
    The BIA has 112 employees working on the construction program. 
Although the replacement school program is the largest program within 
construction, these employees also work on other programs such as major 
and minor facility improvement and repair. In addition to BIA 
employees, the Army Corps of Engineers and the General Services 
Administration also provide technical expertise and assistance on 
replacement school projects. The construction program also works 
closely with the Tribes through Public Law 638 and Public Law 297 
contracts to plan, design, and build the replacement schools. 
Successful coordination with the Tribes is integral to reducing the 
backlog.
    In 2007, we are proposing a program of $157 million for Indian 
school construction. As recently as 1999, spending on BIA school 
backlog needs was only $60 million a year.
    Funding at higher levels than requested for 2007 would get us ahead 
of our ability to prudently manage the construction program. The 
requested 2007 funding will support replacement of the Muckleshoot 
Tribal School in Washington and the Dennehotso Boarding School in 
Arizona.
    BIA released the new replacement school list in February 2004. The 
list contains 14 schools which have the greatest health and safety 
concerns in the BIA school system. The 2007 budget will provide funding 
to complete the fourth and fifth schools on the list. There are an 
estimated 27 schools in need of replacement subsequent to the 
completion of the current priority list; however cost estimates are not 
available for these schools. The time it takes to fund these schools is 
dependent upon construction cost estimates and outyear funding levels, 
both of which are changing or unknown at this time.

      BUREAU OF INDIAN AFFAIRS--JOHNSON-O'MALLEY EDUCATION GRANTS

    Question. The budget proposes to eliminate the $16.3 million 
currently in the BIA Education account for the Johnson-O'Malley 
Assistance Grants. According to the budget justification, ``the 
elimination of the JOM program will allow the Bureau to focus on its 
primary mission requirement of providing basic education to Indian 
children in Bureau-funded elementary and secondary schools.'' That 
statement infers that the Bureau is moving money from a program that 
supports Indian children who attend non-Bureau schools to those who go 
to Bureau schools. Yet, as I look at the budget, there isn't one non-
administrative programmatic increase in the Education account for a 
Bureau funded school. In fact, the only real programmatic increase is 
the $630,000 being put in the Juvenile Detention Education program.
    Please identify the program or programs that provide ``basic 
education to Indian children in Bureau-funded elementary and secondary 
schools'' to which the $16.3 million in Johnson-O-Malley funding was 
transferred. And if the money was transferred outside of BIA, please 
identify the agency and program where these funds were moved.
    Answer. The Johnson-O'Malley program provides funding to meet the 
needs of Indian children in public school systems. Tribes fund Johnson 
O'Malley grants out of Tribal Priority Allocations. Johnson-O'Malley 
grants are proposed for elimination in 2007 because they are 
duplicative of funding available in the Dept. of Education and because 
there is a lack of accountability from the Tribes on the utilization of 
the funding and the benefit to Indian students.
    The Department of Education has two programs that provide funding 
for purposes similar to JOM grants. Together, these programs are funded 
at $667 million in 2007. The Indian Education Grant program funds 
competitive grants to improve education opportunities for Indian 
students. The activities funded under this program are similar to those 
funded by the JOM program, and tribes as well as schools are eligible 
to apply for the grants. The type of programs/services JOM and Indian 
Education Grants support include tutoring, counseling, cultural 
activities, summer education programs, and career days. The 2007 
request for this program is $119 million. Impact Aid is directed to 
local school districts that have Federal and Indian land because 
property taxes cannot be collected on this land. The school districts 
decide how to use the funds. We estimate that 2007 impact aid payments 
to districts with Indian students will be $548 million.
    Johnson O'Malley funds have not been transferred to other BIA 
school operations programs. However, the 2007 request does include a 
$4.8 million increase in the Indian School Equalization Program (ISEP) 
to fund the Department of Defense comparability pay increase for 
teachers at BIA-funded schools and $2.5 million to implement management 
aspects of the BIA Indian school system Program Improvement and 
Accountability Plan. The increase in ISEP funding will provide about 
$100 more per student in activities directly related to education 
programs at BIA-schools. Management improvements will help improve the 
effectiveness of the education services provided in the Bureau funded 
school system which are struggling to achieve Adequate Yearly Progress 
goals. The BIA budget dedicates other increases to contract support, 
law enforcement, and trust services and also includes additional funds 
for tribes to develop energy resources, all of which are priorities to 
Tribes on a nationwide basis.

 BUREAU OF INDIAN AFFAIRS--TRIBAL COLLEGE & UNIVERSITY OPERATING GRANTS

    Question. For fiscal year 2007, the administration is asking for 
$54 million for the support of the 24 Tribal Colleges nationwide. 
That's the same amount as was provided for 2006. Despite the fact that 
enrollment is growing at these institutions and that students are 
taking more classes, which raises the Indian Student Count, the 
administration didn't ask for an increase in the amount provided for 
operating grants. Under this budget request, the 2 colleges run by BIA 
would receive $413,000 to cover their fixed costs. But the 24 colleges 
run by the Tribes are left to fend for themselves. The budget says that 
``the basic operations and technical assistance line items are fully 
funded.'' If the colleges have to absorb increases in utilities or 
employee pay costs, how can the administration say that those 
institutions are being ``fully funded?''
    Why were the tribal colleges not given any fixed cost increases?
    Answer. Tribal Colleges and Universities are vital contributors to 
improved quality of life in native communities. These schools, which 
address the needs of the most economically depressed regions of Indian 
Country, significantly strengthen community economic potential. Tribal 
education is one of the key fact ors to providing a brighter future for 
these communities.
    The Bureau of Indian Affairs strongly supports these institutions, 
and in the 2007 President's Budget requested $54 million for tribally 
controlled colleges and universities operating grants, the highest 
amount ever requested. This is 22 percent higher than the $42.3 million 
requested in the 2006 President's Budget. These funds will provide the 
faculty, facilities, and instructional programs for these schools to 
provide tribal members with skills and knowledge necessary for economic 
development.
    Based on student count estimates, TCUs will receive about $5,100 
per student in the 2006-07 and 07-08 school years, and increase of 
$500, or 11 percent, per student over the 05-06 school year. Actual 
funding will depend on actual student counts.

       BUREAU OF INDIAN AFFAIRS--UNITED TRIBES TECHNICAL COLLEGE

    Question. For the 5th year in a row, the administration has 
proposed eliminating the BIA funding for United Tribes Technical 
College in Bismarck, ND. The budget justification says that ``UTTC 
receives funding from a variety of other Federal, state, program 
partnerships, and other private sources. Therefore, the Bureau is not 
requesting additional funds.''
    Is the criteria of not funding projects which receive funds from 
other sources being applied solely to UTTC, or are all other projects 
and programs within the Department's budget being treated similarly?
    Do any of the Line-Item Construction projects included in the 
National Park Service budget receive outside funding?
    Answer. Funding decisions for UTTC in the 2007 budget reflect 
distinctions drawn in underlying authorizing legislation. The Bureau of 
Indian Affairs is authorized to administer operating grants to Tribal 
colleges and universities that meet the criteria established in the 
Tribal Colleges and Universities Act of 1978, as amended. UTTC is not 
eligible for funding under the Act and therefore is not included in the 
BIA budget. UTTC, along with Crownpoint Institute of Technology, are 
the exclusive recipients of $7.365 million in tribal college operating 
grants authorized in the Carl Perkins Act administered by Dept. of 
Education. Colleges and universities funded by BIA under the 1978 Act 
are not eligible for these grants.
    In formulating the Department's budget, priority is given to the 
programs which carry out the mission of the Department. The Department 
does consider the availability of other funds in decision making. For 
example, the NPS state assistance program is reduced partially because 
states can use funds available to them from other sources for the same 
purposes as the grants.
    With respect to whether Line-Item Construction projects included in 
the NPS budget, in some cases NPS cost-shares with private or state 
partners. This reduces the cost to the Federal Government.

          OPERATIONS FUNDING FOR FEDERAL LANDS AND PROPERTIES

    Question. I am concerned that once again the President's Budget has 
not addressed the steady erosion of Interior bureaus to maintain and 
operate its parks, refuges, and other lands. For over 100 years, past 
Presidents and Congresses have designated lands for the perpetual 
enjoyment of the American public with the expectation that future 
generations would do their part to maintain this heritage.
    Since fiscal year 2001, DOI has ``absorbed'' more than $400 million 
in fixed costs including annual pay raises, health insurance premiums, 
workers and unemployment compensation, GSA rent, and the working 
capital fund. The idea that agencies have the magical ability to 
``absorb'' inflationary costs year after year is an illusion. I think 
it is time for us all to recognize that years of ignoring inflation is 
having a detrimental effect on parks, refuges, and rangelands. I think 
we need to be more forthcoming about the costs to federal lands for 
increases in grants and other programs that benefit non-federal lands.
    I notice that travel, fuel, employee relocations, supplies, and 
equipment are not even considered in Interior's fixed cost 
calculations. These are goods and services that a park or refuge have 
pay to keep the gates open. Interior has not requested or received an 
increase for general inflation in over 15 years. This has led to a 
steady erosion of the base budgets for parks, wildlife refuges, public 
lands, and facilities. Just about everything has gone up in cost, but 
the Department has not received a cent to cover those costs.
    How much in fixed costs do you expect Interior bureaus to absorb in 
fiscal year 2007?
    Answer. The budget proposes that Interior bureaus absorb about 70 
percent in pay and health costs and fully funds all other fixed cost 
items. The budget includes $125.9 million for fixed costs and proposes 
an absorbtion of $43.5 million. These figures assume the pay raise is 
enacted at the budget request level of 2.2 percent.
    Question. Based on commonly accepted inflation factors, how much 
did Interior agencies lose to inflation in 2005?
    Answer. The fixed costs budget request provides increases for 
general schedule pay raises based on Presidential pay policy, health 
benefits based on anticpated increased rates, rent increases for space 
costs under the terms of existing leases, and payments to other 
agencies for workers and unemployment compensation payments based on 
anticipated billings from the Department of Labor. In 2005 the budget 
requested $70.9 million for fixed costs and proposed Interior absorb 
about 40 percent of the fixed costs or $56.7 million. The enacted 
budget included a higher than proposed pay raise. Based on these 
factors Interior absorbed $103.3 million in fixed costs. There was also 
an across-the-board reduction of $149.2 million.
    Question. Based on commonly accepted inflation factors how much do 
you expect in 2006 and 2007?
    Answer. In fiscal year 2006 the budget request included full 
funding for fixed costs, or $157.1 million, but the pay raise was 
enacted at a higher level than the budget proposal and as a result 
interior absorbed $29.3 million. The across-the-board reduction was 
$156 million. In 2007 the fixed cost request totals $125.9 million for 
fixed costs and proposes an absorption of $43.5 million.

           LANDOWNER INCENTIVE AND PRIVATE STEWARDSHIP GRANTS

    Question. The administration budget does propose increases for a 
variety of grants programs for private landowners, localities, and 
states.
    Two programs that fared extremely well in the budget request are 
the Landowner Incentive Grant program and the Private Stewardship grant 
program. The Landowner Incentive Program is increased 11 percent and 
Private Stewardship grants are increased 29 percent above the enacted 
level. These increases are out of line with the overall decrease in 
spending for the Department funded by this subcommittee.
    What justifies the high priority and large funding increases for 
these private lands programs, especially when many other tested 
programs have been cut?
    Answer. The Landowner Incentive Program (LIP) and the Private 
Stewardship Grants Program (PSGP) offer complementary approaches to 
enhance relationships with our partners and address important habitat 
needs for imperiled species.
    LIP provides competitive grant funds to State and territorial fish 
and wildlife agencies and Tribes to establish or supplement their own 
landowner incentive programs and to provide technical or financial 
assistance to private landowners for the protection, restoration, and 
management of habitat to benefit federally listed or other species 
determined to be at risk. By helping, rather than regulating, the 
Service has found LIP to be a cost effective way to build public 
support for wildlife conservation in rural communities, stretch 
existing conservation dollars to achieve the greatest possible benefit, 
and prevent the need for more drastic, and costly, regulatory actions 
later on. So far, over 50 States and one territory (the U.S. Virgin 
Islands) have used Landowner Incentive dollars to either initiate or 
enhance their efforts to work with private landowners. Dollars are 
being used to implement important conservation actions identified in 
the State's Wildlife Action Plan, thereby addressing issues impacting 
multiple species of conservation need
    The PSGP provides grants and other assistance on a competitive 
basis directly to individuals and groups engaged in voluntary 
conservation efforts on private lands that benefit federally listed, 
proposed or candidate species or other at-risk species. In contrast to 
other grant programs, which usually support projects of third parties, 
groups and individuals themselves use the funds provided through PSGP 
for on-the-ground projects to conserve species on their property. 
Interest from private landowners in this program remains high. For 
example, in fiscal year 2005, private landowners submitted 191 eligible 
proposals requesting approximately $21,625,279; of those, the Service 
was able to fund 72 projects that provided benefits for 120 unique 
listed species and an additional 19 unique candidate species.

                        AMERICAN WHITE PELICANS

    Question. After several decades of recovery, populations of 
American white pelicans have been declining in the 21st century. As you 
know, American white pelicans breed in several large colonies in north 
central states, including Chase Lake, North Dakota. An interagency, 
multi-state white pelican workshop was conducted in Jamestown, North 
Dakota in January 2006 to examine the white pelican situation across 
the major pelican nesting areas in North Dakota, Montana, South Dakota, 
and Minnesota. Scientists at the conference identified West Nile virus 
as a potentially serious threat to the species, and recommended that a 
continent-wide pelican population survey is key to answering many of 
the questions we have about the future of white pelicans. No survey has 
been conducted since the early 1980s. I know the white pelican is not 
endangered, at least not yet, and is not a game bird, but it is a 
species of concern. None of us wants to see white pelicans put on the 
endangered species list.
    How much base DOI funding do you plan to dedicate to white pelican 
research in fiscal year 2007?
    Answer. Although certain local colonies have been declining, the 
overall continental population of American White Pelicans (Pelecanus 
erythrorhyncos) appears to be stable or increasing. Pelicans are long-
lived birds that can probably withstand multiple years of reproductive 
failure while maintaining a relatively stable population size. While 
the Fish and Wildlife Service is concerned and would like to have a 
better understanding of factors that led to problems observed in 2004 
and 2005 with the pelican colony at Chase Lake National Wildlife 
Refuge, on a continent-wide basis these birds are abundant compared to 
many higher priority migratory birds. The Service's migratory bird 
priorities are documented in the 2002 Species of Conservation Concern 
List and in a list of 139 Focal Species of migratory birds. The 
American White Pelican is not currently a species of nationwide 
concern, although it is listed as a regional concern in Bird 
Conservation Region 26 (the Lower Mississippi Alluvial Valley).
    There are no funds dedicated to specific research projects 
concerning the white pelican. However, we continue to monitor the 
different colonies in the Northern Great Plains for deaths, adult 
abandonment of nests and young, predation, and general colony health. 
This monitoring can be accomplished with existing funds.
    Question. What will your Department do in 2006 and 2007 to address 
the declining pelican populations?
    Answer. As stated above, continent-wide American White Pelican 
populations are in general not declining. They are in fact increasing 
in some geographic areas, and otherwise largely maintaining stable 
populations (making them a low priority concern nationally from a 
migratory bird management perspective). However, we are concerned about 
certain local colonies declining, such as the Chase Lake colony. We 
continue to monitor the different colonies in the Northern Great Plains 
for deaths, adult abandonment of nests and young, predation, and 
general colony health.

                OIL AND GAS EXPLORATION ON PUBLIC LANDS

    Question. The budget increases Bureau of Land Management (BLM) oil 
and gas management by $26.3 million, an increase of 30 percent over 
2005. I applaud your decision to increase environmental inspection, 
monitoring, and enforcement of drilling operations with an additional 
$4.9 million. Also included in the increase is $4.3 million to ``keep 
pace with the growing demand for APD's''. Opponents of speeding up 
approvals for oil and gas companies to drill on public lands point out 
that you have already approved thousands of applications that have not 
been put to use.
    Exactly how many approved APD's have not been exercised?
    Answer. The BLM does not track the number of APDs that have not 
been drilled. However, BLM does track the number of wells spudded, or 
originally drilled. In 2004, drilling activity lagged behind BLM's rate 
of APD approval; however the number of new wells now exceeds the BLM's 
rate of approving APDs, indicating that industry is adding capacity to 
utilize APDs and is drilling APDs approved in prior years.
    Industry has now ramped up to meet the national demand for energy 
and is utilizing a high percentage of the APDs that are approved. 
Industry has more than doubled its drilling since 2004. The number of 
wells spudded since the beginning of the fiscal year now nearly matches 
the number of APDs approved in 2006. The table below displays APDs 
approved and wells spudded for the period October 1 to April 1 in 
fiscal year 2006 and for the comparable period during the prior two 
years:

------------------------------------------------------------------------
                                       2004         2005         2006
------------------------------------------------------------------------
APDs Approved 10/1-4/1...........        2,382        2,722        3,373
Wells Spudded 10/1-4/1...........        1,446        2,728        3,298
------------------------------------------------------------------------

    Question. Is it really necessary to speed up APD approvals in light 
of the number that have already been approved?
    Answer. Section 366 of the Energy Policy Act of 2005 contains 
processing timelines that BLM is working to meet. The timely processing 
of pending APDs represents perhaps the Nation's best near-term 
opportunity to provide additional domestic energy supplies.

                            APPROVAL OF APDS

    Question. The Bureau of Land Management has hired an industry 
association to review and approve APD's from the industry they 
represent. This truly looks like the fox is guarding the henhouse. I 
can imagine the uproar that would have greeted the Clinton 
administration if it had chosen the Wilderness Society to process the 
paperwork for timber sales. At a minimum, this gives the appearance of 
a conflict of interest.
    How can you to assure this Committee that abuses are not taking 
place?
    Answer. The BLM has not hired an industry association to review and 
approve APDs. The BLM has utilized industry employees in the past, 
under volunteer agreements, to prepare supplemental information such as 
maps used in the processing of APDs. BLM does not utilize industry 
employees currently. In fiscal year 2005, the oil and gas industry 
offered the services of several employees in order to assist BLM to be 
able to process additional APDs in a few offices that were unable to 
keep up with the pace of new APDs. BLM's staffing has since been 
increased to handle this workload.
    The scope of work undertaken by these ``hosted workers'' was 
limited to resource input and scientific analysis in subject matters 
they had expertise in. All decisions are made by BLM managers. The BLM 
uses volunteer labor in several of it programs throughout the bureau 
and provides specific guidance on how this work force is to be used and 
supervised. The guidance for the use of such workers is found in BLM 
Manual 1114.2.22(C) (Volunteers). This policy states that hosted 
workers may provide advisory services, but may not make substantive 
recommendations and decisions that are appropriately made by BLM 
employees, supervisors, and managers.
    Work assignments for hosted workers were made by BLM supervisors 
and managers, not the sponsoring organizations. Prior to the arrival of 
hosted workers at a BLM Office, BLM identified the projects that hosted 
workers would be assigned to work on. Neither the hosted workers nor 
the consulting firm that recruited the workers had any role in setting 
work priorities.
    Hosted workers do not have access to BLM proprietary information 
and data. Access to data by volunteers is limited, carefully monitored, 
and controlled.
    Question. What other options did you consider before making this 
choice?
    Answer. As noted above, the BLM is not currently using ``hosted 
workers.'' As a short term measure, taken in order to respond to the 
unplanned increase in requests for APDs in 2005, BLM used the services 
of hosted workers. BLM considered options such as requesting additional 
appropriations, reprogramming and reassignments of staff from other 
offices. The hosted worker arrangement, under the BLM Manual policy for 
volunteers, provided the skills needed while BLM prepared a longer term 
response to the demand for APDs. BLM does not plan to use hosted 
workers to assist with APD processing in 2006 and 2007.
    Question. If Congress approves this budget increase, will you agree 
to stop using industry people to review APD's?
    Answer. The BLM is not currently using industry employees to review 
APDs. Using the 2007 budget increase, together with the Pilot office 
funding in 2006, BLM has the capability to add staff and hire 
contractors with the skills provided by these ``hosted workers'' in 
2005. BLM does not plan to use hosted workers to assist with APD 
processing in the future.

                    ALASKA NATIONAL WILDLIFE REFUGE

    Question. Your budget adds $12.4 million for Alaska North Slope 
energy activities, including $8 million to prepare for oil drilling in 
the Alaska National Wildlife Refuge (ANWR).
    Congress has not authorized oil exploration in ANWR, and even if it 
does, the first lease sale would not take place before 2008. 
Considering how many other programs are being cut or neglected in this 
budget, I believe we should put this $8 million to use in a more 
practical manner.
    Where would you suggest Congress redirect this $8 million that will 
not require new legal authorization?
    Answer. The Department's budget proposal supports the environmental 
analyses needed to explore and develop the area within the Alaska 
National Wildlife Refuge (ANWR), where the U.S. Geological Survey 
estimates a mean expected volume of 10.4 billion barrels of technically 
recoverable oil if Congress acts to lift the ban on development. If 
Congress does not lift this ban, but still provides the 
Administration's funding request, up to $8.0 million of the funds 
requested would be used to respond to a significant and costly set of 
response and cleanup projects caused by accelerated shoreline erosion 
in Alaska. The erosion of the shoreline threatens government-owned 
legacy wells and other facilities. Proper abandonment of these 
government-owned legacy wells is important to prevent contamination of 
the oceans and lakes in the area.
    The 2007 BLM Budget Justification referenced a preliminary cost 
estimate of $24 million for emergency response and remediation 
activities that may be needed at various sites over the next five 
years. The BLM and Department will have a better cost estimate when the 
ongoing studies and the preparation of a long-term systematic plan for 
responding to the sites are completed.
    In 2005, shoreline erosion exposed the well casing and breached the 
reserve pit at the JW Dalton well, initiating a highly visible winter 
emergency site characterization. BLM's initial remediation response was 
successful and the State of Alaska's formal acceptance for the removals 
at the former reserve pit was received. In 2005, the Department 
provided $7.5 million in emergency funding to address the J.W. Dalton 
Well site issue and begin assessments and characterization of other 
sites that are at risk of inundation. The portion of the funding used 
specifically for the Dalton well has been used for the emergency 
response actions to plug and abandon the well; and to remove and manage 
the reserve pit contents in constructed temporary stockpiles.
    Transportation and final disposal of the wastes remain to be done 
before the J.W. Dalton project is complete. The disposal options study 
was completed January 30, 2006. The least-cost scenario is roughly $6.5 
million for contracting, with an additional $0.2 million needed for 
administrative costs to complete this final phase of the JW Dalton 
response.
    The stockpiles are located at the Air Force's Pt. Lonely DEW-Line 
site and the Air Force agreement stipulates that the stockpiles must be 
removed by 2008. The State of Alaska is allowing only a one-year 
extension to the temporary stockpiles. Funding is now needed to 
complete the removals. Completing the J.W. Dalton disposal is the 
highest priority.
    After the Dalton disposal, the next priorities, as identified by 
the 2005 NPR-A erosion inventory are:
    1. East Teshekpuk Legacy (USGS research) well and reserve pit
    2. Atigaru Legacy (USGS research) well and reserve pit
    3. Drew Point Legacy (USGS research) well and reserve pit
    A fourth priority site, the North Simpson (Navy) Legacy well, has 
no reserve pit associated with it and the BLM oil and gas staff have 
assessed the risk of the well itself as low. However, the wellhead has 
valves and is inundated in 4 feet of seawater. Although the risk to the 
marine environment is currently low, the wellhead valve can be expected 
to eventually deteriorate, presenting a hazard to the marine 
environment from the diesel fuel in the well case. In addition, the 
wellhead presents a navigational hazard to any watercraft which are 
near shore in the area. For these reasons, the local Native 
communities, the State of Alaska, and the North Slope Borough could be 
expected to strongly oppose lack of action to plug, abandon, and cut 
off this well.

                      HURRICANES KATRINA AND RITA

    Question. Many employees of your Department distinguished 
themselves by their heroic efforts to rescue stranded people and feed 
those left with nothing along the Gulf Coast after Hurricanes Katrina 
and Rita. They are to be commended. The Fish and Wildlife Service 
devoted over $10 million worth of support for the recovery efforts. 
This is in addition to over $160 million in damages to Service lands 
and property. The President has requested sufficient funding for 
necessary repairs and reconstruction which I support. However, he has 
not requested money to reimburse the agency for its emergency response 
costs. Last year you covered the $10 million in emergency response 
costs by moving funds from the Fish and Wildlife Service construction 
account. Some of the construction funds came from leftover balances 
from completed projects. I'm glad to see those funds being put to good 
use. However, you also took funds from planned or uncompleted projects 
that are priorities of this Committee. These priority projects cannot 
be resumed unless funding is restored.
    Question. Will you use a portion of the pending supplemental to 
restore funds to these projects?
    Answer. The Fish and Wildlife Service does not plan to use a 
portion of the recently enacted supplemental to restore funds to these 
projects.

                        WILDLAND FIRE MANAGEMENT

    Question. The National Fire Plan was intended to establish a 
unified, seamless, interagency wildfire management program. The budget 
presents disconcerting evidence of a lack of coordination between the 
Departments of Agriculture and Interior. The Interior Department's 
budget for Wildland Fire Management is strangely at odds with that of 
the Forest Service. You propose elimination of rural fire assistance 
grants to small communities. The Forest Service budget, on the other 
hand, proposes an increase for their comparable volunteer fire 
assistance grants program. Your budget reduces funding for hazardous 
fuels reduction by $8 million. The Forest Service budget proposes a $10 
million increase for fuels reduction.
    On the other hand, the administration is holding joint USDA-
Interior fire research funding steady, but the Forest Service is 
proposing to cut their share. Perhaps most surprising is that you are 
increasing fire preparedness funding while the Forest Service reduces 
theirs.
    Would you please explain how the administration came up with such 
an inconsistent budget?
    Answer. There are programmatic reasons for differences in the two 
agencies' budgets, and having a unified and coordinated program does 
not necessarily mean that funding for individual activities will always 
move in tandem. Wildland fire management, including fuels reduction, 
rural fire assistance, and preparedness, remains a top priority for 
both Departments. The Department of Interior and USDA Forest Service 
plan to treat approximately 3.0 million acres of hazardous fuel in 
fiscal year 2007. The Department of Interior alone expects to conduct 
hazardous fuels treatments on 1,052,000 acres, of which approximately 
43 percent are in critical Wildland Urban Interface areas. Overall 
fuels treatment funding for the Federal fire community (including the 
Forest Service) is level with 2006.
    Though the 2007 budget does propose to eliminate the pilot RFA 
grant program at DOI, the request does continue to fund the Ready 
Reserve program. This DOI pilot program began in fiscal year 2006 with 
$1.9 million in Preparedness funding. The purpose of this program is to 
strengthen initial attack and extended capabilities of rural fire 
departments (RFDs) that provide firefighting assistance on DOI lands. 
In 2006, firefighter training will be repackaged for delivery at local 
fire facilities around the country. Additional training will be 
developed that bridges existing training in both the structural and 
wildland fire sectors, and training delivery will begin. With these 
funds, a supplementary workforce of 1,000--2,000 RFD personnel would be 
trained each year. This enhancement of local capacity will reduce the 
Department's reliance on the more expensive alternative of transporting 
Federal and contract firefighters from other regions of the country.
    Furthermore, the Department will continue ongoing efforts to work 
with the Department of Homeland Security to meet the needs of rural 
fire departments for basic training and equipment through the much 
larger DHS Assistance to Firefighters Grant program. The Department 
recently updated the existing agreement with DHS that will ensure a 
greater role for the wildland fire agencies in reviewing grants to 
departments through programs they administer. As part of this enhanced 
collaboration, the two Departments now link websites to better direct 
those seeking grants to rural fire departments to available funding.
    DOI currently plans and budgets all predictable firefighting 
expenses within the Preparedness account, including all firefighters 
and aviation resources. The $6 million increase requested for 
Preparedness would fund fixed costs for this firefighting force.
    The Department and the Forest Service are currently engaged in the 
development of Fire Program Analysis, an innovative system that will 
inform fire management planning and budgeting across ownership and 
jurisdictional boundaries. Beginning with the 2008 budget request, this 
effort is designed to provide efficiencies through common and unified 
planning and budgeting in the future for both Departments.
    Question. Why don't your Departments coordinate your efforts and 
provide a coherent budget to Congress?
    Answer. The Department of the Interior and USDA Forest Service do 
coordinate budget activities regarding wildfire management. However, 
this does not mean that funding for specific activities will always 
move in unison because each agency has unique factors to consider in 
developing its budget request. Both agencies are engaged in the 
development of Fire Program Analysis (FPA), an effort designed to 
provide efficiencies through common and unified planning and budgeting 
in the future.
    Although the DOI and Forest Service wildfire budgets and budgeting 
processes are separate, the agencies collaborate and cooperate closely 
in all aspects of fire management, fire response, hazardous fuels 
reduction and public wildland fire education.

                         RURAL FIRE ASSISTANCE

    Question. Rural fire departments successfully respond to thousands 
of fires every year on federal lands--saving taxpayers many millions in 
federal emergency response costs. Your budget asserts that you will 
coordinate with the Department of Homeland Security to see that 
Interior's rural neighbors will have access to federal funding.
    Why are you proposing to cut assistance grants to rural fire 
departments that respond to wildfires on Interior's public lands?
    Answer. As explained above, the Department continues to fund the 
Ready Reserve program at $1.9 million. In 2007, this program will train 
and provide safety gear for about 1,000-2,000 local firefighters.
    The Ready Reserve program was appropriated $1.9 million in fiscal 
year 2006; awards are not yet complete. Those funds will be spent for 
the following:

------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Training Repackaging.......................................     $250,000
Training Development.......................................      250,000
Personal Protective Equipment..............................      585,000
Training Delivery..........................................      789,000
------------------------------------------------------------------------

    In fiscal year 2007, the program will direct all funds to training.
    Question. And how can you claim that DHS will help when the 
administration is also proposing to cut DHS firefighter grants from 
$648 to $293 million?
    Answer. DOI's Rural Fire Assistance grant applicants are eligible 
to apply for DHS Assistance to Firefighters (AFG) grants and may also 
be eligible for Forest Service grants. To better coordinate all 
available grant resources, the Department recently updated a Memorandum 
of Understanding with DHS and the Forest Service that will ensure a 
greater role for the wildland fire agencies to participate in the AFG 
grant evaluation process. As part of this enhanced collaboration, the 
two Departments now link websites to better direct those seeking grants 
to rural fire departments to available funding.
    The AFG web page (http://www.firegrantsupport.com/stories/
afg_stories.aspx) details grants that funded such things as wildland 
urban interface type II and III engines (California), wildland fire 
training (Tennessee), and a brush truck (Alaska). Though the DOI 
program does not fund rolling stock, these communities were able to 
successfully compete for wildland fire equipment and training in this 
much larger grant program. Through our enhanced collaboration and 
cooperation, the Department expects to continue to educate our DHS 
partners about the wildland fire community and their specific needs to 
enhance their future capability to compete for scarce assistance.

                    LAND AND WATER CONSERVATION FUND

    Question. The Administration claims that it is requesting $533 
million from the Land and Water Conservation Fund. I am not persuaded 
that this really the case. Your budget only requests $85.1 million for 
federal land acquisition, and grants to states for land acquisition and 
development of recreational opportunities. Federal land acquisition was 
$573 million in 2002 and it has gone down every year in the Bush 
administration. The state assistance side of the LWCF--which provides 
funds to states for acquisition of open space and development of parks 
would be eliminated. The Department's budget points to 10 other non-
LWCF programs being counted as LWCF.
    Can you please explain how you say you are funding LWCF at $533 
million when it seems that all you are playing a shell game by renaming 
other programs so you can count them as LWCF?
    Moreover, how can you justify requesting such low levels for LWCF 
land acquisition when there is a significant backlog of inholdings in 
our national forests, wildlife refuges, parks, and BLM lands, with 
sellers willing to sell their property for the benefit of our natural 
resources?
    Answer. Recognizing that a number of programs contribute to meeting 
America's conservation and recreation needs, the Congress over the past 
decade has appropriated nearly $1.5 billion from the Land and Water 
Conservation fund for programs other than Federal land acquisition and 
State recreation grants. Specifically, in 2001, $456 million was 
appropriated from the Fund for other programs. In 2006, Interior, 
Environment and Related Agencies Appropriations Act, $156 million was 
appropriated for other programs.
    The 2007 proposal would use LWCF funding for the following programs 
that were funded from LWCF beginning in 2001: Cooperative Endangered 
Species Conservation fund, North American Wetlands Conservation Fund, 
and State and Tribal Wildlife grants. The 2007 proposal also includes 
LWCF funding for the following two programs that have been funded from 
the LWCF each year since 2002: Landowner Incentive program and Private 
Stewardship grants.
    The 2007 budget focuses LWCF funding on achieving high-priority 
conservation and related goals. Linking cooperative conservation on 
public lands to nearby private lands enhances conservation, intensifies 
community participation and leverages the funding dedicated to these 
activities. Conservation partnerships that transcend Federal boundaries 
create opportunities to tap into the knowledge and resources of 
neighboring communities and enlist their support in long-term 
conservation and recreation goals. In addition these partnerships 
leverage funds through partnerships that yield at least a one-to-one 
match. The proposed 2007 funding level of $533 million includes $147.3 
million for the Forest Service and $386 million for DOI.
    With respect to the backlog of inholdings and willing sellers, as 
stated in the Departments of the Interior and Agriculture National Land 
Acquisition Plan of February 2005, that was submitted to the 
Appropriations Committees, the conservation of lands does not 
necessarily require Federal acquisition. Our agencies have systematic 
processes for selecting the appropriate tools to manage lands, ensuring 
that acquisition is used with discretion, extensive public input, and 
only where acquisition appears to be the best alternative. In addition, 
the concept of a ``backlog'' for land acquisition can be misleading for 
several reasons. First, conservation of lands does not necessarily 
require Federal acquisition. Second, in contrast to facilities 
maintenance, there are not objective criteria for what must be done. 
Third, many inholdings do not need to be acquired. The key conclusion 
of the Land Acquisition Plan is that land acquisition is only one of a 
suite of tools to reach the Departments' conservation and other land 
management objectives. Cooperative conservation programs provide 
alternative tools to protect and manage land and resources. These tools 
significantly leverage Federal funds and often broaden the ways in 
which lands are managed and conservation goals are achieved.

                    USGS NORTH DAKOTA ENERGY REPORT

    Question. A USGS scientist named Dr. Leigh Price researched the 
potential for billions of barrels of untapped oil reserves in the 
Williston Basin, which includes North Dakota, in 1999 and 2000. 
Unfortunately, Dr. Price died more than six years ago--before he had 
the chance to publish two studies that he was working on. The studies 
include a manuscript, ``Origins and characteristics of the basin-
centered continuous-reservoir unconventional oil-resource base of the 
Bakken Source System, Williston Basin,'' and a detailed data set. I 
understand that USGS is currently reviewing Dr. Price's research for 
possible release. Since this research could be very important to both 
the scientific and energy development communities in my state, I am 
concerned that USGS has been abnormally slow in its decision about 
whether to make the information public. This research may be especially 
relevant since USGS is scheduled to do its next assessment of energy 
resources in the Williston Basin in 2007 or 2008.
    Do you plan to make this information publicly available?
    What is your timeline for making a decision about whether you will 
release this information to the public?
    Why has it taken the USGS six years to consider publishing this 
research?
    Answer. The scientist, Leigh Price--now deceased--submitted a draft 
manuscript for scientific peer review in 1999, just before his death, 
for publication as a ``USGS E-Bulletin.'' Only one reviewer returned 
any comments in the scientific peer review process. Therefore, the 
manuscript has not had peer review and has not received approval for 
publication by the Team Chief Scientist and the Director. In its 
current state, USGS cannot release the draft or any of its contents 
without violating policies relating to scientific merit, integrity, 
objectivity, impartiality, non-advocacy, and public benefit.
    The USGS is currently evaluating the information in the unpublished 
manuscript and locating the author's raw data that serve as the 
foundation for his interpretations. The USGS is also taking into 
consideration information presented in recent publications regarding 
the Williston Basin. In addition, USGS is required to determine whether 
the unpublished manuscript contains any proprietary information. Upon 
completion of all these evaluations, USGS will make a determination 
whether any information in this unpublished manuscript merits 
consideration for approval and publication and then the most 
appropriate means to disseminate that information, if appropriate.
    The last USGS assessment of petroleum resources in the Williston 
Basin was released in 1995. The results of this assessment are 
available at http://energy.cr.usgs.gov/oilgas/noga/index.htm. The next 
formal USGS study and reassessment of petroleum resources of the 
Williston Basin is slated for winter 2007/2008, with the publication 
and release of those findings shortly thereafter.

        STATESIDE LAND AND WATER CONSERVATION FUND (LWCF) GRANTS

    Question. Your budget request eliminates stateside assistance 
grants through the Land and Water Conservation Fund. The National Park 
Service budget justifies this cut by saying ``Paying for improvements 
to State and local parks is a decision better left to State and local 
taxpayers rather than to Federal taxpayers.'' This rationalization is 
hard to understand when you propose a $2.1 million increase for private 
stewardship grants for voluntary conservation efforts on private lands 
and another $2.7 million increase for landowner incentive program 
grants to states and tribes for financial assistance to private 
landowners.
    Please explain why these FWS grants are more appropriate for 
federal funding than conservation grants to states?
    Answer. The Private Stewardship Grants and the Landowner Incentive 
Program Grants are critical elements in the conservation and recovery 
of the nation's endangered and threatened species and other species of 
concern, and the habitats that support them. Recent studies have 
indicated that 75 percent of the species currently listed as either 
threatened or endangered under the Endangered Species Act rely on 
privately owned habitat for part or all of their lives. Likewise, the 
recently completed Wildlife Action Plans (also known as State 
Comprehensive Wildlife Conservation Plans) identify thousands of other 
species of concern that cannot be conserved without the habitats found 
on private lands. For example, in Tennessee, a state where 92 percent 
of the land is privately owned, landowner grants are being used to 
protect habitats in high priority rivers and streams. Projects funded 
by these grants are expected to benefit over 40 threatened or 
endangered species and provide improved water quality for all 
downstream users. Likewise in eastern Wyoming, where almost all the 
land is privately owned, conservation grants to landowners will be used 
to enhance or restore 10,000 acres of prairie and prairie stream 
habitats. This work will benefit dozens of species identified in the 
Wyoming Wildlife Action Plan while also providing financial benefits to 
the landowners.
    Given the importance of private lands to wildlife and the 
conservation opportunities they represent, the Private Stewardship 
Grants Program and the Landowner Incentive Program provide habitat for 
wildlife while simultaneously helping landowners maintain the economic 
viability of their property. By helping, rather than regulating, the 
Service has found these programs to be cost effective mechanisms to 
build public support for wildlife conservation within rural 
communities, stretch existing conservation dollars to achieve the 
greatest possible benefit, and prevent the need for more drastic, and 
costly, regulatory actions later on.
    The elimination of funding for LWCF State grants in the fiscal year 
2007 budget request is an example of the difficult choices that were 
made to propose a budget that could support the Administration's effort 
to cut the budget deficit in half by fiscal year 2009. In recognition 
of the need to constrain the budget, this was one area that could be 
reduced without affecting operations of the National Park System, which 
is the core responsibility of NPS. The fiscal year 2007 budget request 
increases operations funding by $23.4 million.
    The fiscal year 2007 budget does not include funding for new LWCF 
State grants but does include $1.6 million for State Grants 
Administration which will be used to review the accounting, billing and 
performance of grants provided in previous years. Nearly $3.9 billion 
has been appropriated through fiscal year 2006 for the State grant 
program including $312 million in the last four years.
    Question. How will the President fulfill his promise on the LWCF 
without the stateside program?
    Answer. The annual budget requests for 2002--2005 upheld the 
President's first-term commitment to fully fund the Land and Water 
Conservation Fund. Throughout the first term, the Administration 
requested $900 million for Interior and Forest Service programs within 
the Land and Water Conservation Fund. Congress did not appropriate 
funds at the request level.
    Beginning in 2006, the budget began to reflect the need to 
constrain funding with the goal of reducing the deficit. Despite the 
constraints, the 2006 budget request still included $496 million for 
the LWCF programs just within Interior. The Congress funded $264.5 
million. The 2007 budget maintains a robust funding level for the Land 
and Water Conservation Fund. The 2007 request includes $386 million for 
Interior LWCF programs, an increase of $121 million over the 2006 
enacted level.
    This funding level is achieved with a focus on high-priority 
conservation partnership programs. Linking cooperative conservation on 
public lands to nearby private lands enhances conservation, intensifies 
community participation and leverages the funding dedicated to these 
activities. Conservation partnerships that transcend Federal boundaries 
create opportunities to tap into the knowledge and resources of 
neighboring communities and enlist their support in long-term 
conservation and recreation goals. These cooperative conservation 
programs also have the significant benefit of leveraging federal 
dollars, sometimes by a ratio of four to one or more. They capitalize 
on community engagement, collaboration, and cooperation in working 
toward shared goals of healthy lands and thriving communities. Four-
fifths of the land in this country is in private ownership. Local 
communities and landowners are in the best position to help in efforts 
such as providing habitat for the protection of endangered species.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                         NATIONAL PARK SERVICE

    Question. 2005 statistics show there are 79 million acres of 
national parks in the United States. Alaska has approximately 51 
million acres, or 65 percent of the country's national parks. Compared 
to the entire National Park System, the Alaska Region consistently 
receives less than 5 percent of operations funding each fiscal year.
    Can you explain to me why the Department spends such a small 
percentage of operations funds for the National Park System in Alaska 
when Alaska has over half of the nation's parkland?
    Answer. Many factors affect the funding level necessary to operate 
a park unit in a manner that is consistent with the National Park 
Service mission. Among the most important of these factors is the 
number of visitors a park receives, the nature of a park's cultural and 
natural resources, the prevalence of threats to visitors and resources, 
and the number of facilities and roads that must be operated and 
maintained. Most of the park units in the Alaska region are expansive 
and home to invaluable natural resources. However, due to their remote 
locations, Alaska parks have fewer facilities in comparison with parks 
in the lower forty-eight States and receive less than one percent of 
the overall visitation to national park units.
    The current funding level for Alaska parks reflects a balance 
between the need to protect resources over a large area and the 
relatively small number of visitors for whom the NPS must provide 
interpretive programs, safety and security, and facilities. However, as 
a result of needs identified by the NPS, Alaska national park units 
received funding increases at a rate faster than the average for all 
park units over the last ten years. From fiscal year 1997 to fiscal 
year 2006, Alaska parks had operations budget growth of 70 percent, 
greater than the 46 percent average for all parks. The NPS will 
continue to assess the needs of all parks to ensure that natural and 
cultural resources are protected and adequate services are provided to 
visitors.

                        FISH & WILDLIFE SERVICE

    Question. The fiscal year 2007 budget request eliminates funds for 
the Regional Mark Processing Center. These funds are used by the 
Pacific States Marine Fisheries Commission to maintain the coast-wide 
coded-wire tag database for anadromous fish produced in U.S. 
hatcheries, as required by the Pacific Salmon Treaty. The Fish & 
Wildlife Service justifies this cut on grounds the project is not 
directly related to its performance goals under the Department of 
Interior's strategic plan.
    How does this project not fit into the Department's performance 
goals? How will the United States meet its obligations under the 
Pacific Salmon Treaty if funds for this project are eliminated?
    Answer. NOAA Fisheries and the States have primary responsibility 
of managing the fisheries covered by the Treaty. As a result, the 
Regional Mark Processing Center's management of fishery harvest is not 
captured in the Service's Strategic Plan. Almost half of RMPC's 
operational budget of roughly $530,000 comes from the Service annually. 
For the U.S. to meet its obligations under the Pacific Salmon Treaty, 
the agencies currently involved in the financial support of the RMPC 
will make every effort to identify other base funding sources to cover 
a portion of the proposed reduction.
    Question. The Marine Mammal Act is that marine mammal populations 
and the marine ecosystems on which they depend be maintained at, or 
returned to, healthy levels. This mandate is particularly important to 
Alaska given the number of types of marine animals in the State and the 
need to ensure sustainable use of marine mammals for subsistence 
purposes.
    What is the Department's justification for eliminating funding for 
the Alaska Marine Mammals Program--almost $2 million was appropriated 
for this program in fiscal year 2006?
    Answer. The earmark provided in 2006 is targeted to two areas: (1) 
$969,000 for cooperative agreements with Alaska Native organizations, 
and (2) $990,000 for marine mammal surveys in Alaska. Although the 
elimination of the $969,000 earmark will reduce the scope and number of 
joint efforts pursued under cooperative agreements, the Service will 
maintain essential agreements through base funds in fiscal year 2007. 
The scaled-back agreements, many of which are predicated on a long-term 
approach, will still play an important role in maintaining partnerships 
with Alaska Natives, which provide key management tools for 
understanding marine mammal population trends and managing subsistence 
harvest.
    The 2006 Appropriation of $990,000 will be targeted towards the 
continued development of marine mammal population survey methods in 
Alaska. These funds provide the opportunity to obtain biological 
information to address high priority resource issues. For example, we 
have developed and are implementing an innovative survey technique to 
estimate the Pacific walrus stock. The Service will continue to seek 
ways to meet our management responsibilities for northern sea otter, 
Pacific walrus, and polar bear conservation that also recognizes 
current budget limitations.
    We anticipate that the tasks and projects funded with the marine 
mammal earmark will be completed in 2006. The Service is committed to 
continuing to meet our responsibilities for marine mammal conservation 
and management under the Marine Mammal Protection Act, and recovery for 
those species listed under the Endangered Species Act.

                       BUREAU OF LAND MANAGEMENT

    Question. The fiscal year 2007 budget request eliminates funding 
for the Alaska Minerals Program. The BLM justifies this cut on grounds 
the mineral survey function is more appropriate for the State and other 
entities. Section 1010(a) of the Alaska National Interest Lands 
Conservation Act (ANILCA) directs the Secretary of Interior to assess 
the oil, gas, and other mineral potential on all public lands in the 
State of Alaska in order to expand the data base with respect to the 
mineral potential of such lands. There are 73 mining districts in 
Alaska. 30 of these have been identified as high priority for 
assessments under ANILCA. The U.S. Bureau of Mines (through 1995) and 
BLM (since 1995) have completed the mineral assessments of 15 of the 
high priority mining districts.
    ANILCA directs the Secretary of Interior to assess the mineral 
potential on public lands in Alaska so I do not think the BLM's stated 
justification for eliminating the program is adequate. How can the 
Department justify this cut when assessments have been completed on 
only half of the high priority mining districts? In addition, there are 
43 remaining districts that have yet to be scheduled for assessment.
    Answer. The Department is focusing its available funding to meet 
its highest priorities, including responding to the Nation's demand for 
energy. The Alaska Minerals program provides mineral assessments which 
may provide some long term economic benefit, but which are not clear 
Federal priorities. The Department believes that industry or other 
entities with an interest in Alaska's long term mineral potential will 
invest the funds needed to continue assessments where needed.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, April 
6, in room SD-124. At that time we will hear testimony from the 
Hon. Stephen L. Johnson, Administrator, Environmental 
Protection Agency.
    [Whereupon, at 10:32 a.m., Thursday, March 30, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
April 6.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Domenici, Craig, Allard, and 
Dorgan.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR
ACCOMPANIED BY:
        MARCUS PEACOCK, DEPUTY ADMINISTRATOR
        LYONS GRAY, CHIEF FINANCIAL OFFICER
        MICHAEL W. S. RYAN, DEPUTY CHIEF FINANCIAL OFFICER
        DAVID A. BLOOM, DIRECTOR, OFFICE OF BUDGET
        ANN R. KLEE, GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL
        BILL RODERICK, ACTING INSPECTOR GENERAL, OFFICE OF INSPECTOR 
            GENERAL
        WILLIAM WEHRUM, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF AIR 
            AND RADIATION
        GEORGE GRAY, ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND 
            DEVELOPMENT
        BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
        GRANTA NAKAYAMA, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT 
            AND COMPLIANCE ASSURANCE
        SUSAN HAZEN, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
            PREVENTION, PESTICIDES AND TOXIC SUBSTANCES
        SUSAN BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE 
            AND EMERGENCY RESPONSE
        LUIS LUNA, ASSISTANT ADMINISTRATOR, OFFICE OF ADMINISTRATION 
            AND RESOURCES MANAGEMENT
        LINDA TRAVERS, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
            ENVIRONMENTAL INFORMATION

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We'll call the committee to order. Sorry--
well, I guess we're about on time. Murphy's Law took over this 
morning. You know, the old law of anything that can go wrong, 
will. It did. Then I got to looking this over, Mr. Director, 
and I'm going to make this flowery statement here that's been 
written by a very able person. Of course, I can't read, and 
that doesn't help things, but, nonetheless, I was just going to 
tell you, gather everything you've got up, go back downtown, 
and rework it, and come on back when you're ready.
    Mr. Johnson. We're ready, sir.
    Senator Burns. All right. Well, good morning, and thank you 
very much for coming this morning.
    We will hear the budget on the Environmental Protection 
Agency. I'd like to welcome our good friend, Steve Johnson, the 
administrator down there, who's with us, and it's a pleasure to 
have you and--as we make this discussion and try to come up 
with some--a meeting of the minds, as far as EPA is concerned.
    Let me begin by saying, EPA has one of the most important 
and difficult missions of all the Federal agencies. There's no 
question about that. You're torn in 65 different directions. 
How you keep it all together is--takes a man of great talent, 
and I think you are a man of great talent. The jurisdiction 
ranges from the responsibility of the cleanup of Superfund 
sites, such as the Libby asbestos site in Montana, to funding 
clean water and drinking infrastructure programs, to the 
enforcement of a long list of environmental laws.

                             BUDGET REQUEST

    The administration has requested $7.3 billion in a total 
budget authority for fiscal 2007. This is $310 million below 
fiscal year 2006. That's a 4-percent reduction. That sort of 
concerns a lot of us on this committee. While the EPA has only 
been under the jurisdiction of this committee for the past 
year, the enormity of the clean water and drinking water 
infrastructure needs across this country has continually been 
impressed upon me. The administration has requested funding, 
$842 million, for the Drinking Water SRF, but it has 
recommended a large reduction in funding the Clean Water State 
Revolving Loan Fund. The administration is requesting $688 
million for the Clean Water SRF, which is $199 million below 
the fiscal year of 2006. In the Clean Water, the $688 million 
is just not enough. Clean Water and Drinking Water 
Infrastructure Gap Analysis published in 2002 indicates we 
still have a substantial gap in funding, which could help 
develop the country's clean water and drinking water systems to 
maintain the spending levels--or the current spending levels, I 
should say. The Gap Analysis estimates the United States will 
need to spend $540 billion for both clean water and drinking 
water capital needs in the next 20 years. I'm not certain yet 
what our subcommittee allocation will allow us to do, but I 
intend to try to fund by the State Revolving Loan Funds at the 
highest level.
    Despite the 4-percent reduction in the President's budget 
request, EPA has a few programs receiving substantial 
increases. The budget includes the following notable increase, 
$50 million for Diesel Emissions Reduction Grant Program. I can 
do that in one single swoop. If you'll just let me turn all 
that coal into diesel, I can take care of all that.
    And $20 million--and do it with private money. Now, that 
ain't a bad deal. I think that's kind of the way America 
works--$20 million above the enacted level for the Great Lakes 
Geographic Program and $55 million above the enacted level for 
homeland security initiatives at the Agency.
    But we also face significant challenges in cleaning up the 
1,238 active Superfund sites--1,238 Superfund sites on the 
National Priorities List, and 62 sites proposed to make the 
NPL. The administration is requesting $1.259 billion for 
Superfund Programs, which is $17 million above fiscal year 
2006.
    Now, there's no question that the Superfund Program could 
use increased funding to clean up sites currently on the NPL 
and those waiting to make the list. Libby asbestos site, in 
Montana, was added to the National Priorities List in 2002. The 
folks in Libby have suffered greatly, and I would like nothing 
more than to see this site cleaned up as soon as possible. 
That's why I included it in the language of last year's bill 
directing the EPA to issue a Record of Decision for Libby no 
later than May the 1st of this year. I understand that there is 
some discomfort at the Agency about moving forward with the 
final ROD for Libby, but I want the ROD issued swiftly, because 
folks in Libby deserve to know both the timeline and the 
details of the cleanup process, and I do not want the quality 
of the ROD to suffer. Most importantly, Mr. Administrator, I 
would like your word that the community will be involved in the 
greatest extent possible as that process moves forward.
    Now, there's many issues that I could raise at this point, 
ranging from the proposed funding increase for homeland 
security initiatives to the newly configured Diesel Emissions 
Reduction Grant Program, but I'll save my comments for the 
question part of the round of this hearing.
    So, again, I want to thank you for coming this morning. We 
appreciate your hard work down there, understanding it's 
probably one of the toughest jobs in this 17 square miles of 
logic-free environment in which we have to do business.
    So, I will--I don't have any colleagues to turn to.
    So, I'll turn to the administrator. Mr. Johnson, thank you, 
this morning, very much, and we'll look forward to your 
testimony.

              SUMMARY STATEMENT OF HON. STEPHEN L. JOHNSON

    Mr. Johnson. Well, thanks, I appreciate being here. Mr. 
Chairman and members of the committee, I am pleased to be here 
to discuss the President's fiscal year 2007 budget request for 
the Environmental Protection Agency.
    The President's budget reflects his continued commitment to 
providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening 
our homeland defenses, and sustaining the momentum of our 
economic recovery. The President's pro-growth economic 
policies, coupled with spending restraint, will keep the 
Government on track to cut the deficit by more than half by the 
year 2009.
    EPA is responsible for being a good steward of our 
environment and a good steward of our tax dollars. In keeping 
with the need for spending restraint, the President has 
included $7.3 billion to support the work of EPA and our 
partners nationwide in his budget.
    This budget fulfills every presidential environmental 
commitment and maintains the goals laid out in EPA's strategic 
plan, while spending less. When I accepted the position of EPA 
administrator, President Bush charged me with accelerating the 
pace of environmental protection while maintaining the Nation's 
economic competitiveness.

                       BUDGET REQUEST: PRINCIPLES

    As we prepare for tomorrow's environmental challenges, EPA 
will meet the President's charge by focusing on three 
principles:
    The first is results and accountability. This budget 
includes three programs that have been delivering some of the 
longest-standing and greatest environmental results. The 
President requested nearly $1.3 billion for the Superfund 
Program, a $17 million increase over last year's enacted 
budget, $841.5 million for the Drinking Water State Revolving 
Fund, and $688 million for the Clean Water State Revolving 
Fund.
    In order to continue our Nation's steady march toward 
cleaner air, the President requested $932 million for the Clean 
Air and Global Climate Change Goal. In order to meet this goal, 
last year EPA implemented a suite of clean air rules that 
dramatically cuts power plant emissions of soot, smog, and 
mercury in the Eastern United States. However, we continue to 
believe that Clear Skies, a permanent legislative approach, is 
a more efficient, effective, and long-term mechanism to provide 
certainty and achieve large-scale emission reductions across 
the country.
    The second principle is innovation and collaboration. The 
Great Lakes Program is an excellent example of regional and 
international collaboration. In his budget President Bush 
requested over $70 million to clean up and protect the lakes. 
This includes $50 million for the Great Lakes Legacy Act 
cleanup program, which is an increase of over $20 million over 
last year's enacted budget.
    As the President said, breakthroughs in new technology are 
powering our economy and dramatically improving our environment 
and nowhere is this more apparent than in the administration's 
investment in energy innovation. EPA plays a substantial role 
in this effort through the implementation of the Energy Policy 
Act of 2005. The President's budget includes over $100 million, 
to support the development and implementation of the renewable 
fuel standard rulemaking to strengthen preventive measures for 
underground storage tanks and to support the Agency's National 
Clean Diesel Campaign to reduce diesel emissions from existing 
engines.
    The third principle to accelerate environmental protection 
is best available science. The President shares this commitment 
to sound science. His budget request includes $7 million for a 
Water Infrastructure Initiative, as well as additional funding 
to study manufactured nanomaterials, for the Integrated Risk 
Information System, and for the Computational Toxicology 
Research Program.
    Before I conclude, I need to mention EPA's responsibility 
in supporting the President's top priority: The safety and 
security of the American people. For 2007, the President 
requested $184 million for EPA's Homeland Security efforts, 
which is an increase of $55 million over last year's enacted 
budget. By reaffirming our commitment to results and 
accountability, innovation and collaboration, and the best 
available science, the funding in the President's budget will 
allow EPA to meet the environmental challenges of the 21st 
century and beyond.

                           PREPARED STATEMENT

    Last, I also want to thank the committee for significantly 
reducing the amount and number of congressional projects 
included in this year's appropriation bill.
    That concludes my prepared statement, Mr. Chairman. I would 
be pleased to answer any questions you may have.
    Thank you.
    [The statement follows:]

                Prepared Statement of Stephen L. Johnson

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the fiscal year 2007 budget request for the 
Environmental Protection Agency (EPA). The President's fiscal year 2007 
budget request of $7.3 billion reflects the Administration's strong 
commitment to carrying out EPA's mission of protecting human health and 
the environment. The request demonstrates the President's continued 
commitment to providing the resources needed to address our Nation's 
highest priorities which include: continued support of homeland 
security, fighting the war on terror, and sustaining the recovery of 
our economy. At the same time, there is a need for discipline in our 
federal budget, and this request shows such discipline through its 
results-oriented approach.
    EPA's programs can work even more efficiently than they do today. 
We expect to be held accountable for spending the taxpayers' money more 
efficiently and effectively every year. To assist you, the 
Administration launched ExpectMore.gov, a website that provides candid 
information about programs that are successful and programs that fall 
short, and in both situations, what they are doing to improve their 
performance next year. I encourage the members of this Committee and 
those interested in our programs to visit ExpectMore.gov, see how we 
are doing, and hold us accountable for improving.
    This fiscal year 2007 budget incorporates the Administration's 
vision of a results-oriented and market-based approach to environmental 
protection while focusing on achieving measurable outcomes in the form 
of cleaner air, purer water, and better protected land. EPA will 
implement an environmental philosophy based on three principles in 
order to better fulfill its mission of protecting human health and the 
environment.
    The first principle is results and accountability. EPA must focus 
on environmental outcomes, not environmental programs. This budget 
request includes three programs that have delivered some of the 
greatest environmental successes. These three programs include: 
Superfund, for which $1.3 billion is requested, the Drinking Water 
State Revolving Fund for which $841.5 million is requested, and the 
Clean Water State Revolving Fund, for which $688 million is requested.
    The second principle is innovation and collaboration. This means 
the Agency will focus on collaborating with its state, tribal, local, 
and private enterprise partners. EPA will work with these partners to 
promote market-based strategies, advance stewardship opportunities, and 
invest in new and innovative technologies. The Great Lakes Program is 
an example of regional and international cooperation, and this budget 
requests over $70 million to clean and protect the Great Lakes. This 
request includes $50 million for the Great Lakes Legacy Act program, a 
$20 million increase, which will accelerate the cleanup of contaminated 
sediment that has accumulated for many years in the Great Lakes as a 
result of historical industrial sources.
    Using the best available science is the third principle which the 
Agency will utilize to fulfill its mission. Strong science and data are 
integral to making decisions about environmental issues. This budget 
supports the use of science and data by requesting $7 million for a 
Water Infrastructure initiative. These funds will provide EPA with the 
resources needed to conduct a major research effort which will reduce 
the cost of operation, maintenance, and replacement of old drinking and 
wastewater systems. The focus on the best science is also demonstrated 
in the request to fund the study of nanomaterials and their effect on 
human health. Additionally, our request supports the Integrated Risk 
Information System and Computational Toxicology programs to promote the 
best available science.
    Mr. Chairman, the Agency has accomplished a great deal in its past 
efforts to clean the water, improve our air quality, and protect our 
lands. The environmental challenges that we face are enormously complex 
and expensive but by relying upon what we have learned from our 
accomplishments and by incorporating the Administration's environmental 
philosophy with its focus on results, I believe we can meet the 
challenges that lie ahead in an efficient and productive manner.

                           HOMELAND SECURITY

    Homeland Security is a top priority for the Administration and an 
integral component of this budget. For fiscal year 2007, the President 
requests $184 million for Homeland Security. This is an increase of $55 
million over fiscal year 2006 enacted levels. EPA plays a leading role 
in protecting U.S. citizens and the environment from the effects of 
attacks that release chemical, biological, or radiological agents. 
Following the cleanup and decontamination efforts of 2001, EPA has 
focused on ensuring we are prepared to detect and recover quickly from 
deliberate incidents. The emphasis for fiscal year 2007 is on a few key 
areas: decontamination of threat agents, ensuring trained personnel and 
standardized lab capabilities to be called upon in the event of an 
emergency, and working with the drinking water utilities to protect our 
water supplies.
    Secure drinking water supplies are imperative and this budget 
requests $42 million for improved water security including the 
WaterSentinel pilot program. The WaterSentinel pilot program 
demonstrates how EPA has a critical role in protecting the citizens of 
this Nation. This program is designed to monitor and help secure the 
Nation's drinking water infrastructure and will provide early warning 
of intentional drinking water contamination. WaterSentinel consists of 
enhanced physical security monitoring, water quality monitoring, 
routine and triggered sampling of high priority contaminants, public 
health surveillance, and consumer complaint surveillance. In fiscal 
year 2007, EPA will establish, in selected cities, additional pilot 
contamination warning systems with water utilities through increased 
water monitoring and other surveillance. The addition of water 
utilities in fiscal year 2007 will allow for more comprehensive and 
diverse testing of contaminant warning systems. By the end of fiscal 
year 2007, EPA expects to begin disseminating information learned from 
the pilots to other water utilities.
    Clean Air and Global Climate Change
    The fiscal year 2007 President's Budget requests $932 million for 
the Clean Air and Global Climate Change goal. EPA implements this goal 
through its national and regional programs which are designed to 
provide healthier air for all Americans and protect the stratospheric 
ozone layer while also minimizing the risks from radiation releases, 
reducing greenhouse gas intensity, and enhancing science and research. 
In order to carry out its responsibilities, EPA utilizes programs that 
include many common elements, including: setting risk-based priorities; 
facilitating regulatory reform and market-based approaches; partnering 
with state, Tribal, and local governments, non-governmental 
organizations, and industry; promoting energy efficiency; and utilizing 
sound science.
    In March 2005, EPA issued the Clean Air Interstate Rule (CAIR), 
which will reduce power plant emissions of sulfur dioxide and nitrogen 
oxides in 28 eastern states and the District of Columbia by 70 percent 
and more than 60 percent respectively from 2003 levels when fully 
implemented. This will go a long way to help many areas attain the fine 
particle standards and the ozone standards. We will continue to move 
forward with implementation of this and our other clean air rules in 
fiscal year 2007. However, we have received 14 Petitions for Review and 
12 Petitions for Reconsideration for the 2005 Clean Air Interstate 
Rule. EPA has also received two administrative stay requests (1 has 
been denied, 1 is pending); two judicial stay motions have been filed 
(both have been denied). While we are confident that we will prevail in 
the litigation concerning CAIR, there is always some uncertainty 
regarding the outcome of any litigation. We would much prefer to reduce 
emissions from power plants with the President's Clear Skies 
legislation. The authority provided by the Clean Air Act to put CAIR in 
place is limited. Regulations do not provide enough certainty--that is 
why the President has been urging Congress to pass a permanent, nation-
wide solution.
    EPA's Climate Protection Programs continue to assist in reaching 
the President's goal of reducing greenhouse gas intensity by 18 percent 
by the year 2012. The United States has joined five other countries 
(Australia, China, India, Japan, and the Republic of Korea) in the 
Asia-Pacific Partnership for Clean Development and Climate. In 2007, 
EPA requests $5 million to support this partnership which will focus on 
deploying cleaner technologies in partner countries in order to reduce 
poverty, enhance economic growth, improve energy security, reduce 
pollution, and reduce greenhouse gas intensity.
    This fiscal year 2007 budget request includes $50 million for the 
new Diesel Emission Reduction Grants Program authorized by the 2005 
Energy Policy Act. The program will provide grants for projects that 
reduce diesel emissions from existing engines by using cleaner fuels, 
retrofitting them with emissions reduction technology, or replacing 
them with newer, less-polluting engines.
    Clean and Safe Water
    The fiscal year 2007 President's Budget requests $2.7 billion to 
implement the Clean and Safe Water goal through programs designed to 
improve the quality of surface water and drinking water. EPA will 
continue to work with its state, Tribal, and local partners to achieve 
measurable improvements to the quality and safety of the Nation's 
drinking water supplies as well as the conditions of rivers, lakes, and 
coastal waters.
    Also in fiscal year 2007, EPA will continue to work with states and 
tribes on implementing core Clean Water programs, including innovations 
that apply programs on a watershed basis. Water quality monitoring is a 
top priority in protecting and improving water quality and will provide 
the scientifically defensible water quality data that is necessary to 
defend our Nation's waters. Additionally, the Agency will support the 
protection and restoration of wetlands through its own programs such as 
Section 319 and State Revolving Fund, as well as other Federal programs 
such as those administered by Fish and Wildlife Service.
    The Budget also continues the Administration's commitments to the 
Clean Water and Drinking Water State Revolving Funds (SRFs). The Budget 
provides $688 million for the Clean Water SRF, keeping the program on 
track to meet the cumulative capitalization commitment of $6.8 billion 
for 2004-2011. This funding level will allow the Clean Water SRF to 
provide $3.4 billion in loans annually, even after Federal 
capitalization ends, and will ensure communities have access to capital 
for their wastewater infrastructure needs.
    The Budget proposes $841.5 million for the Drinking Water State 
Revolving Fund, a $4 million increase over the 2006 enacted level. This 
request keeps the administration's commitment to provide sufficient 
capitalization grants to allow the Drinking Water SRF to provide $1.2 
billion annually, even after Federal capitalization ends.

                   LAND PRESERVATION AND RESTORATION

    The Agency's fiscal year 2007 budget request to Congress implements 
the Land Preservation and Restoration goal through EPA's land program 
activities which promote the following themes: Revitalization, 
Recycling, Waste Minimization, and Energy Recovery; Emergency, 
Preparedness and Response, and Homeland Security.
    In fiscal year 2007, this goal will include new responsibilities as 
EPA takes on an important role in implementing the Energy Policy Act of 
2005 and it is reflected in the 2007 budget request. This budget 
includes $38 million for State and Tribal Assistance Grants to support 
EPA's underground storage tank (UST) program. This is a $26 million 
increase over fiscal year 2006 enacted levels. The UST program will 
continue working with states to implement the base UST program as well 
as the new provisions of the EPAct. The EPAct provisions focus on 
preventing future releases from USTs and include inspections, operator 
training, delivery prohibition, secondary containment, and financial 
responsibility.
    Revitalized land that was once contaminated can be used in many 
proactive ways, including creation of public parks, the restoration of 
ecological systems, the establishment of multi-purpose developments, 
and the establishment of new businesses. EPA uses its cleanup programs 
(including Superfund, RCRA, Corrective Action, Brownfields, Federal 
Facilities, and Underground Storage Tanks) to facilitate the cleanup 
and revitalization of contaminated properties. In fiscal year 2007, the 
Agency will continue to promote the minimization of waste. EPA's 
municipal solid waste program will implement a set of coordinated 
strategies, including source reduction (also called waste prevention), 
recycling (including composting), combustion with energy recovery, and 
landfilling. The Agency will work with other Federal Agencies within 
the National Response System to respond to incidents which involve 
accidental or intentional releases of harmful substances and oil.
    Enforcement activities are a significant component of the Land 
Preservation and Restoration goal which support the Agency's ability to 
clean up the majority of the most hazardous sites in the Nation. 
Enforcement allows the Agency to collect funding from Potentially 
Responsible Parties (PRPs) to finance site-specific cleanup. These 
accounts segregate site-specific funds obtained from responsible 
parties that complete settlement agreements with EPA. The Agency will 
continue to encourage the establishment and use of these Special 
Accounts within the Superfund Trust Fund in order to finance cleanups. 
These funds create an incentive for other PRPs to perform cleanup work 
they might not otherwise be willing to perform and the result is that 
the Agency can clean up more sites and preserve appropriated Trust Fund 
dollars for sites without viable PRPs.

                   HEALTHY COMMUNITIES AND ECOSYSTEMS

    In fiscal year 2007, EPA's Budget carries out the Healthy 
Communities and Ecosystems goal via a combination of regulatory, 
voluntary, and incentive-based programs. A key component of the Healthy 
Communities and Ecosystems goal is to reduce risks to human health and 
the environment through community and geographically-based programs. 
Some of these community and geographically-based programs include: 
Brownfields, Wetlands Protection, and programs that concentrate on our 
nation's large bodies of water such as the Great Lakes, Gulf of Mexico, 
and Chesapeake Bay.
    Community and Geographically-based programs comprise one of the 
most important components of the Healthy Communities and Ecosystems 
goal. In fiscal year 2007, the Agency requests $163 million for the 
Brownfields program to restore abandoned contaminated properties. This 
is a slight increase over the fiscal year 2006 enacted level for 
Brownfields. The Chesapeake Bay program also supports the Healthy 
Communities and Ecosystems goal. This program protects the Bay which 
needs improved water quality, overall protection, and restoration. This 
budget requests $26 million for cleaning up and protecting the 
Chesapeake Bay. This request is $4 million over the fiscal year 2006 
enacted level. Community Action for a Renewed Environment (CARE) is 
another program which is vital to achieving the goal of Healthy 
Communities and Ecosystems. This program offers many communities the 
opportunity to improve their environment through voluntary actions.
    Another major focus of the Healthy Communities and Ecosystems goal 
is identifying, assessing, and reducing the risks from chemicals and 
pesticides. In fiscal year 2007, EPA will continue identifying and 
assessing potential risks from pesticides. In addition, EPA will set 
priorities for addressing pesticide and chemical risks, strategize for 
reducing such risks, and promote innovative and alternative measures of 
pest control. Also related to reducing pesticide and chemical risk, EPA 
will continue its Homeland Security activities which focus on 
identifying and reviewing proposed pesticides for use against pathogens 
of greatest concern for crops, animals, and humans in advance of their 
potential introduction. EPA will work closely with other Federal 
agencies and industry in order to carry out these activities.

                COMPLIANCE AND ENVIRONMENTAL STEWARDSHIP

    EPA's fiscal year 2007 Budget Request of $540 million for the 
enforcement program helps realize the Compliance and Environmental 
Stewardship goal through programs that monitor and promote enforcement 
and compliance with environmental laws and policies. In fiscal year 
2007, EPA will continue with its strong commitment to compliance and 
enforcement through collaborating with its state, Tribal, and local 
government partners. The Agency also will support stewardship through 
direct programs, collaboration and grants for pollution prevention, 
pesticide and toxic substance enforcement, environmental information, 
and creation of an environmental presence in Indian Country.
    Compliance assistance and enforcement are critical components of 
the Compliance and Environmental Stewardship goal and EPA supports 
these components by assuring requirements are clearly understood and by 
assisting industry in identifying cost-effective compliance options. In 
fiscal year 2007, EPA will use a two-part approach in ensuring 
compliance assistance and enforcement. First, EPA will help clarify 
environmental laws and regulations for regulated communities. The 
second step is for the Agency to reduce noncompliance through 
inspections, monitoring, and via enforcement when needed.
    In fiscal year 2007, EPA also will focus on promotion of 
Environmental Stewardship. Environmental Stewardship is a concept that 
seeks more than just minimal compliance with environmental regulations. 
Instead, it promotes voluntary environmental protection strategies in 
which states, Tribes, communities, and businesses are invited to 
participate. EPA will promulgate stewardship by educating, providing 
incentives, tools and technical assistance to states, Tribes, 
communities, and businesses. EPA will implement a performance-oriented 
regulatory system that allows flexible strategies to achieve measurable 
results.
    In fiscal year 2007 EPA will continue to work with industrial 
sectors to set pollution reduction goals, provide tools and technical 
assistance, and identify innovative strategies to reduce risks. In the 
tribal GAP program, the Agency will support approximately 517 federally 
recognized Tribes in assessing environmental conditions on their lands 
and building environmental programs tailored to their needs.
    Also in fiscal year 2007, the agency will continue to fortify the 
Environmental Information Exchange Network (Exchange Network). In 
fiscal year 2007, EPA, states, Tribes, and territories will continue to 
re-engineer data systems so that information previously not available 
or not easily available can be exchanged using common data standards. 
By the end of 2007 all fifty states and approximately ten Tribes will 
have established nodes on the Exchange Network and will be mapping data 
for sharing with partners and submission to EPA.
    In 2007, EPA also will continue its work with Performance Track by 
recognizing and rewarding private and public facilities that 
demonstrate strong environmental performance, beyond current 
requirements. To provide incentives to business to participate, EPA 
continues to implement and develop new regulatory incentives at the 
state level. It will support and leverage state environmental 
leadership programs by aligning Performance Track with at least 20 
state programs and double the measurable environmental improvements 
achieved to date.
    In summary, this budget will enable us to carry out the goals and 
objectives as set forth in our strategic plan, to meet challenges 
through innovative and collaborative efforts with our state, tribal, 
and private entity partners, and to focus on accountability and results 
in order to maximize environmental benefits.
    The requested resources will help us better understand and solve 
environmental problems using the best available science and data, and 
support the President's focus on the importance of Homeland Security 
while carrying out EPA's mission.

                   CLEAN WATER INFRASTRUCTURE FUNDING

    Senator Burns. Well, I thank you.
    Let's just--let's talk about this clean water 
infrastructure funding, Mr. Administrator. How does the--I'd 
just like to--for you to justify reducing that fund, at Clean 
Water SRF. In face of the above-mentioned funding estimates, we 
know we're about--over $500 billion over the next 20 years. We 
have no chance at all of ever making a dent in that unless we 
fully fund what we're supposed to be doing now. Now, we can 
shift funds, and we can delay funds, and something like that. 
The bad thing here are construction costs. Everything costs 
more every year. And so, we slip back and back. It's not that 
you cut those funds, but you increase the costs for the next 
time around.
    So, I--give us an idea. Where does local and rural areas go 
for seed funding on any project that they might have? Where do 
they go? Where are we headed? I guess that's my question.
    Mr. Johnson. Well, Mr. Chairman, as you correctly point 
out, the needs of our Nation are great when it comes to water 
infrastructure. I believe we have laid out an approach that 
attacks that really massive problem in a number ways. One is 
that the $688 million that the President is requesting in this 
budget fulfills his commitment to have the Revolving Loan Fund 
for the Clean Water--State Revolving Loan--revolve at $3.4 
billion. So, the amount of money that's in our budget that he's 
requesting fulfills that obligation to achieve that kind of 
revolving. But that is not the only approach.
    Second is that we need to be looking at innovative 
technologies, because, whether it is a large system or a small 
system, we need to be investing in research and development. In 
fact, the President includes $7 million to look at new 
technologies. In fact, we've already evaluated 14 technologies 
that will be very helpful in helping small systems achieve 
various water compliance issues.
    Then the third is a multi-pronged approach that looks at 
this problem of ensuring that there is full-cost pricing. We 
need to be looking at this in a watershed approach, because 
what we do in a watershed in one area affects the others. We 
also need to be looking at conservation. What are things that 
we can do to help reduce the burden? Then, lastly, better 
management. There are opportunities across the Nation where 
systems are doing a much better job than others. We want to try 
to take those lessons learned and have them apply. So, we're 
really looking at it in a multi-pronged way.

                               TECHNOLOGY

    Senator Burns. You know, one of these days--I know you 
don't get into this area, but most of us in the West do--and 
you have nothing to do with it, but--I don't know how 
technologies is going to--is going to help new--help a shovel 
out.
    I mean, this is--what we're talking about here, if you've 
got--if you've got a virtual shovel that's--that shovels 
virtual dirt to put a virtual pipeline in the ground, that's 
still not going to get any water on the other end. So, I don't 
know what new technologies does for you.
    But I would suggest, when you're in California the next 
time, you give me a call, and we'll go down, and we'll show you 
a--an irrigation area that's in the west-end farmers. You know, 
they lost about 10 percent of their water--irrigation water. 
They also lost about 8 percent of their land that they couldn't 
irrigate anymore. When you've got a little area down there that 
produces a $3.5 billion of agricultural products in that 
system, and then you want to cut them back, does not make a lot 
of sense to me. But they went through a series of underground 
laterals--mains and laterals on the irrigation system. Figure 
they saved about 20 percent of their water that they were 
losing just to evaporation. They--and that--I think that is a 
model that we--we've got to follow, one of these days, about 
how we do things. So, if you ever get down in California, you 
want to go and have them give you a tour of what they did 
there.
    Mr. Johnson. Thank you.
    Senator Burns. Environmentally, is to get away from big 
sprinklers, and went to drip technology that Montana State 
worked out with--with Israel, by the way--it is something to 
behold. So, I think we've got to look around outside this 
thing.

                           HOMELAND SECURITY

    Homeland security. The administration has requested $184 
million for homeland security activities, $55 million over 
2006. The largest increases, for a water security program, 
included $30.5 million in Water Sentinel pilot projects. Give 
me an idea of what these projects are, and what criteria the 
Agency is using to select those projects, and also how those 
projects will be evaluated.
    Mr. Johnson. Well, thank you very much, Mr. Chairman.
    The Water Sentinel Program is intended to address the 
homeland security issue with our Nation's water systems. It is 
a series of pilot studies that would look for contaminants of 
concern, real-time contaminants of concern--weapons of mass 
destruction, if you will. We are looking at technologies that 
would enable water systems to be able to detect a variety of 
these kinds of agents.
    With regard to the specifics, I would like to inform you, 
Mr. Chairman and members of the committee, that we are 
arranging a secure briefing, a classified briefing for you, so 
that you can have the details of the numbers of pilots, the 
rationale for this. I would encourage--and, in fact, urge--all 
the members to attend, because this is an area of critical 
need.
    Senator Burns. I would suggest that we do that. I'd try to 
round up all the committee to do that, just members only----
    Mr. Johnson. Yes.
    Senator Burns [continuing]. If that's the way you want to 
go. We can get that done for you. We can facilitate that.
    Mr. Johnson. I'd appreciate that.
    Senator Burns. Because I happen to believe that you're on 
the right track. Give us some idea on what you're going to do, 
where you're going to do it, and how you evaluate it. That's 
what I'm looking for now.
    Let's--I'm going to turn to my friend from Colorado, 
Senator Allard, who just arrived. Have you got a statement, 
Senator? If so, you can put it in the record. It's your turn to 
ask questions.
    Senator Allard. Well, Mr. Chairman, thank you. I do have a 
statement. I would ask unanimous consent that it be made a part 
of the record.
    Senator Burns. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Mr. Chairman, thank you for holding this hearing today. The EPA 
oversees the many environmental regulations and requirements, some of 
which can be far reaching and have a disproportionate effect on small 
communities. I think that this fact makes it very important that 
Congress exercises close oversight of the Agency and its funding.
    I cannot stress enough the need to utilize sound, peer-reviewed 
science when making decisions about increasing regulations. I also 
believe that the cost-benefit analysis of regulations should be given 
more weight in many situations.
    Finally, I remain concerned about the climate within the EPA. I 
mentioned this last year at our EPA budget oversight hearing, and it 
seems that little--if anything--has changed since that hearing. From 
communications I have had with constituents, it seems that EPA no 
longer has an interest in assisting communities with complying with 
regulations set by EPA, but rather just in heavy-handed enforcement. 
Often small communities do not have the expertise to develop a plan to 
meet new regulations. The EPA should be willing to help those 
communities, rather than refuse assistance until they are able to take 
enforcement action.
    I look forward to working with the Administrator, and my colleagues 
in the Senate, to see that EPA is able to reasonably carry out their 
mission; and working with the Committee to ensure that activities at 
the Environmental Protection Agency are funded in a manner that is 
responsible and sufficient.

                         SUMMITVILLE MINE SITE

    Senator Allard. I understand you're sort of streamlining 
this hearing, because we're going to have votes coming on, and 
we're going to have--so, I'll try not to abuse my privileges 
here, as far as time is concerned.
    Senator Burns. It doesn't bruise very easily.
    Senator Allard. Yeah. I am interested, also, in some 
continued monitoring of water systems, particularly in some of 
those areas where our risks may very high. But, aside from 
that, I want to talk a little bit about the Summitville Mine 
site there in Colorado. I think you're aware of the cleanup 
there, what's been going on.
    The question I have--can you tell me what level of priority 
this is for the Environmental Protection Agency, and kind of 
give me an update on the cleanup work at the site, where we are 
right now?
    Mr. Johnson. Senator, it is a priority area for us. The 
site is a result of sodium cyanide that was used to extract 
metals, and the metal leachate that is getting into and causing 
the problems. We've been working very closely with the Colorado 
Department of Health and Environment, and looking at it from a 
number of ways. One is, the existing water treatment plant is 
going to need some improvements. We're working with them both 
on the design and how that would be improved. In addition, 
there is work that's currently ongoing to consider the design 
of a new plant. In fact, some of the design work has already 
now been done, and we are now actively looking at that. We're 
working very closely with Colorado to determine what are those 
best remedies, given the contamination of the mine.
    Senator Allard. Now, in those--in working with Colorado----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. I assume you've made some 
commitments as to what you plan on doing, and that Colorado's 
made some commitments on what they plan on doing.
    Mr. Johnson. We're----
    Senator Allard. How are you on your commitments?
    Mr. Johnson. As far as I know we're on track. The funds 
that are available to work on this are through a settlement 
account.
    Senator Allard. Yes.
    Mr. Johnson. Through the EPA Summitville Settlement 
Account. There are monies that are there to help this work. My 
assessment is that, we're still very much trying to assess what 
is the appropriate technology and the most cost-effective 
technology to address this.

                        EPA COLORADO COMMITMENTS

    Senator Allard. So, as far as you know, you've met all the 
commitments to Colorado, at this point?
    Mr. Johnson. As far as I know, yes. If you're aware of 
something we haven't----
    Senator Allard. Well----
    Mr. Johnson [continuing]. I'd be happy to follow up.
    Senator Allard. Well, I've been asked to ask that question. 
I think there might be some concern there as to whether all the 
commitments have been made. So, maybe we need to visit----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. A little bit about that.
    Mr. Johnson. I would be happy to.
    [The information follows:]

                          Colorado Commitments

    The 2001 Record of Decision (ROD) envisioned construction of a two-
stage water treatment plant to remove copper and aluminum. EPA 
committed to funding a water treatment plant. EPA and the State of 
Colorado agree that the State aluminum water quality standard should be 
revised so that a one-stage plant would meet water quality 
requirements. The State staff is preparing to ask the State Water 
Quality Control Board to make the needed revision to the aluminum water 
quality standard for the Alamosa River.
    The State has the lead for managing the construction of the 
treatment plant. At issue is whether a one or two stage treatment plant 
will be funded. An alternate proposal is to provide added building 
space for a second stage should the Colorado Water Quality Control 
Board choose to not revise the current water quality standard. This 
option would add more than $1 million to the cost of a one-stage 
treatment plant.
    EPA has offered to waive the aluminum standard under its Superfund 
authority if it is not revised by the State Water Quality Control 
Commissioners. This approach has not been supported by the State. The 
State and EPA have agreed to wait until the Colorado Water Quality 
Control Board meets in 2007 on whether to revise the aluminum water 
quality standard in the Alamosa River to a level attainable with a one-
stage plant.
    EPA and the State continue to fund the on-going operations of the 
existing water treatment plant. EPA and the State are also funding the 
necessary improvements at the existing water treatment plant in order 
to meet OSHA safety requirements.

    Senator Allard. Now, can you provide me with the status of 
the settlement funds that were earmarked for cleanup costs at 
Summitville?
    Mr. Johnson. I don't have that number off the top of my 
head, but I'll be happy to provide it for the record.
    [The information follows:]

             Summitville Mine Site, Settlement Funds Status

    EPA and the State maintain separate settlement fund accounts. EPA's 
settlement balance is approximately $4.6 million. The State of Colorado 
has estimated that it has $8 million in its settlement balance. The 
State is using this funding for site operation and maintenance costs.

    Senator Allard. That's another thing I'll be interested in.
    Mr. Johnson. Okay. All right.
    Senator Allard. I think that there--I mean, it's 
progressing along. My understanding is that now fish are 
beginning to show up in the river below the Summitville. 
Somebody reported that to me----
    Mr. Johnson. Okay. Good.
    Senator Allard [continuing]. Which is the sign that, you 
know, we're at least moving through some recovery there.
    Mr. Johnson. Good.
    Senator Allard. I realize it's a complicated--it's a 
serious problem there, complicated, and has some long-term 
effects that are going to take us a while to work through. I 
just wanted to make sure that continues to be----
    Mr. Johnson. Good.
    Senator Allard [continuing]. An important priority.
    Mr. Johnson. It is, very much. Senator, I might just add, 
although not directly applicable in this situation, what we 
find across the United States is that there are over 500,000 
abandoned mines where there aren't responsible parties, there 
aren't----
    Senator Allard. Yes.
    Mr. Johnson [continuing]. Opportunities----
    Senator Allard. Yeah.

                         GOOD SAMARITAN PROJECT

    Mr. Johnson [continuing]. For settlement accounts, and that 
we have launched a product--or a project administratively with 
Trout Unlimited, called the Good Samaritan Project, where we 
have organizations that want to get in and clean up these mine 
tailing areas, but, for fear of liability, have not----
    Senator Allard. Yes.
    Mr. Johnson [continuing]. For many, many years. So, we 
have----
    Senator Allard. That's the Good Samaritan Law, which----
    Mr. Johnson. We're very interested in and we're moving 
forward administratively, and we'll also be talking with you 
more about the legislation.
    Senator Allard. Yeah, well, I think I have some 
legislation----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. On the Good Samaritan Law----
    Mr. Johnson. Right.
    Senator Allard [continuing]. That we're working on. We're 
trying to get it through committee. I think it's something that 
needs to be dealt with so that individuals can pick up these 
and--like you say, they would like to clean up the environment, 
and they're willing to make some personal commitments to do 
that. So----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. We need to give 'em that 
opportunity without having 'em incur a huge liability that----
    Mr. Johnson. Right.
    Senator Allard [continuing]. Was no fault of their own.
    Mr. Johnson. Exactly.
    Senator Allard. There's a debate about, ``Well, are we 
letting off the big polluters when we do this?'' and all that. 
But my view is that we'd do more good than harm, and that's--we 
simply need to do something in that area, and I'm glad to----
    Mr. Johnson. Yes. Good.
    Senator Allard [continuing]. Hear you state that.
    Mr. Johnson. Thank you.
    Senator Allard. Also, with regard to Summitville, has the 
Agency considered any alternative treatments for the site? 
Could you please update me on the status of any alternatives 
that may be considered?
    Mr. Johnson. There is technology, from an organization 
called Arcadius, that we have seen in a pilot phase, which 
shows some promise. We are encouraging them to submit a more 
fulsome proposal that moves it beyond the pilot stage. We're 
encouraged that, at least in a pilot way, it appears to be a 
workable new technology. We're encouraging them to send us 
something that expands that.
    Senator Allard. Okay. Well, if you'd just get back to my 
office, give us----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. Answer some of these----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. Questions, we brought up and 
kind of visit the staff, we'd appreciate that.
    Mr. Johnson. Sure.
    Senator Allard. And----
    Mr. Johnson. It is my pleasure.
    Senator Allard [continuing]. We want to stay on top of it.
    Thank you, Mr. Chairman.
    [The information follows:]
             Summitville Mine Site, Alternative Treatments
    EPA Region 8 and State of Colorado staff have met with ARCADIS, an 
engineering consulting firm, a number of times over the last twelve 
months, most recently March 6, 2006, to discuss a pilot test to use 
their cleanup technologies at the Summitville Mine Superfund Site.
    On April 21, 2006, ARCADIS submitted a plan to EPA Region 8 and the 
Colorado Department of Public Health and Environment to perform a pilot 
test of their proposed technologies. The pilot test would involve the 
injection of carbon dioxide, a carbon source such as alcohol, as well 
as other nutrients into the primary mine pool in an attempt to reduce 
the generation of acid mine drainage and metals loads.

    Senator Burns. Senator Craig?
    Senator Craig. Mr. Chairman, thank you very much.
    Administrator Johnson, welcome before the committee. A 
couple of questions. Mr. Chairman, I'd ask that my full 
statement be a part of the record. Thank you.
    Senator Burns. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Larry Craig

    Administrator Johnson, thank you for coming today. I have several 
concerns, and I am glad to have this opportunity to share those 
concerns with you and ask you some questions.
    My first concern is the arsenic standard. I, along with many of my 
Western colleagues, have been concerned for some time about the 
tremendous burden this standard is putting on small and medium-sized 
communities. There is not one of these communities that doesn't WANT to 
be in compliance. The issue is they can't get there. They simply can't 
afford it. There are approximately 175 communities that probably do not 
meet the current arsenic standard, which for small communities creates 
some very large problems. For instance, one rural community in my State 
of Idaho that was hit hard by the arsenic standard not only passed an 
expensive bond, but also laid off their only city police officer to try 
to afford to get into compliance. To me, this poses a greater public 
safety risk than the naturally occurring arsenic.
    I have heard rumblings that EPA may propose new internal regulatory 
guidance to allow for affordability criteria as it relates to future 
contaminants. As I understand it, this would give rural communities 
under 10,000 people an option of how they want to address expensive 
contaminant issues without economically crippling the community. While 
arsenic may not be one of the contaminants included in this guidance, 
we have to work harder to find solutions for these communities. The 
situation for some of them is getting desperate.
    I also have some concerns about pesticide application and EPA 
discharge permits. As you know, recent court decisions have 
contradicted long-standing federal policy that the application of 
agricultural and other pesticides in compliance with labeling 
requirements do not require National Pollutant Discharge Elimination 
System (NPDES) permits. This has created ambiguity for pesticide users 
like farmers, fire fighters, irrigators, and mosquito abatement 
districts who must have access to the tools necessary to manage pests 
and maintain public health.
    Gem County, Idaho is currently defending itself against a court 
case alleging that even though they applied a pesticide as directed by 
the EPA-approved label, the County has to have a NPDES permit. This is 
a major problem, and one that has the potential to set a wrongful 
precedent unless the EPA takes more decisive and effective action to 
protect your own rule.
    I believe the EPA-proposed rule you issued in February of 2005 is a 
step in the right direction, but it is not fully consistent with the 
Agency's longstanding policy that if you apply a pesticide in 
accordance with its label, you are not required to have an NPDES 
permit. Your proposed rule does not protect users from citizen's 
lawsuits when they are simply performing long-practiced, approved and 
heavily regulated pest management and public health protection 
activities. We have an established process that tests chemicals 
extensively and regulates their use. Requiring NPDES permits for 
application is redundant, unnecessary, and ill-suited to agriculture. 
It is an attempt to redefine current law through lawsuits, rather than 
the legislative process, and we must say enough is enough.
    I have co-sponsored legislation, S.1269, with EPW Chairman Inhofe 
that would provide further clarity by ensuring that NPDES permits would 
not be required if a pesticide is used to, near or over a waterway in 
accordance with its labeling and other federal regulations. But this 
legislation shouldn't even be necessary.
    My third concern is regarding air emissions from confined cattle 
feed operations (CAFOs) and Superfund. You know I have been working to 
clarify the applicability of the Superfund and EPCRA programs to 
agriculture, particularly as it relates to livestock operations. To 
think that a dairy operation or a beef cattle feedlot should be 
regulated identically to a weapons dump, an abandoned mining site, or 
an oil spill is simply ridiculous.
    Yet again, we have environmental lawsuits attempting to tell 
Congress what WE intended to do when passing the Superfund Act in 1980. 
The EPA is currently implementing the ``Air Consent Agreement,'' where 
a small sampling of producers have voluntarily agreed to have the EPA 
gather air emissions data on their farms to more intelligently 
understand how fugitive air emissions should (or should not be) 
regulated by the Superfund and EPCRA.
    I believe that agriculture was never intended to be regulated just 
like mines, weapons dumps, etc. And lawsuits like these are really a 
backdoor attempt to shut down the livestock industry in this country.
    I will address these issues further in my questions, and look 
forward to working with you on these problems. Thank you.

                           ARSENIC STANDARDS

    Senator Craig. My first inquiry is about arsenic standards. 
I've heard rumblings that EPA may propose new internal 
regulatory guidance to allow for affordable criteria as it 
relates to future contaminants. As I understand it, this would 
give rural communities, under 10,000 people, an option of how 
they would address expensive contaminant issues without 
economically crippling their communities. In other words, 
that's the general concept.
    In Idaho--and Idaho is not alone in this, because of 
western geology--the arsenic standard has caused considerable 
problems in small-to medium-sized communities. There are 
approximately 175 communities that probably do not meet current 
arsenic standards, which, for some small communities, creates 
huge problems. One community, their entire community budget, or 
city budget, would be committed to that, alone, even though 
they've been drinking that water for 100 years.
    For instance, one of our rural communities is--was hit hard 
by the arsenic standard, not only passed an expensive bond, but 
also laid off their entire city police force--or city police 
officer--no, their only city police officer--I guess that's the 
way I should word it--which is their entire police force--to 
try to afford the compliance. To me, this poses, I think, a 
greater public risk than the issue of arsenic, based on 
historic records.
    If, in fact, EPA is planning on this new regulatory 
guidance, will arsenic be included as a contaminant under the 
affordability criteria? And will these communities get a 
waiver? Or, if arsenic is not, why?
    Mr. Johnson. Well, Senator, you've asked a number of 
questions. Let me try to work----
    Senator Craig. Have at it.
    Mr. Johnson [continuing]. My way through.
    First, the arsenic standard, as you correctly point out, is 
a new standard, a health protective standard of 10 parts per 
billion. We are aware that for some of the small and rural 
communities, there are challenges in meeting that. We've been 
working to address the challenges by both technology and our 
research and development. As I mentioned a little while ago, 
we've evaluated or are now evaluating 14 technologies that deal 
with arsenic contamination. We're continuing to evaluate new 
technologies specific to arsenic.
    Second is, with regard to waivers or exemptions, the 
standard is the standard. What we do have under the Safe 
Drinking Water Act is the authority, working with the State, to 
extend the compliance period. Of all the systems that I and Ben 
Grumbles, the head of our water program, has been working with, 
the issue is not whether you're going to comply or not, the 
issue is, how do we get them into compliance, and over what 
time period? So, our focus has been providing compliance 
assistance.

                    BILATERAL COMPLIANCE AGREEMENTS

    We've been encouraging an approach called Bilateral 
Compliance Agreements between the State and the utility to work 
out the specifics so that the small water systems can get in 
compliance, but it may take them more time.
    With regard to the affordability----
    Senator Craig. Let's talk----
    Mr. Johnson. Okay.
    Senator Craig [continuing]. About compliance.
    Mr. Johnson. Okay.
    Senator Craig. In other words, if there is a good-faith 
effort and clearly a path forward is being demonstrated by the 
community in relation to the State and EPA, I mean, is that 
part of all of that picture----
    Mr. Johnson. That is part of all----
    Senator Craig [continuing]. Timelines?
    Mr. Johnson [continuing]. Of that picture, yes, sir. That 
is part of that picture.
    Senator Craig. Okay.
    Mr. Johnson. We've been working, I think, very 
constructively to try to work through that.
    Second, with regard to the affordability guidance the 
Agency has the methodology that the Agency has used for years 
to determine whether something is affordable or not? We have 
recently released draft guidance. That draft guidance is for 
prospective contaminants, with the exception of, as we note, in 
the proposed guidance document, that it also applies to the 
disinfectant byproducts rule that I had signed just a couple of 
months ago.
    Senator Craig. But does not include----
    Mr. Johnson. But----
    Senator Craig [continuing]. Arsenic.
    Mr. Johnson. It does not include arsenic.
    Senator Craig. Okay.
    Mr. Johnson. That's correct.
    Senator Craig. Okay. Well, I know you're working at 
flexibility. That's obviously appreciated. In some instances, I 
suspect--and I'm glad you're looking out at new technology--
there is a rush toward that approach by many in the private 
sector to see if we can't get technology down to an affordable, 
workable, sustainable way. You know, there isn't any community 
out there that doesn't want to comply.
    Mr. Johnson. Right.
    Senator Craig. There is the reality of compliance, some of 
these small communities I've just mentioned. So, you lay off 
your police force, one or two.
    Mr. Johnson. Right. Yes.
    Senator Craig. That community is simply not going to tax 
itself beyond its capability, especially when it's drinking 
water it's drunk for so long and has found no side effects, 
that they know of, anyway.
    Why is the EPA not more actively defending their own rules 
and authority on the pesticide application and EPA discharge 
permit issues?
    Mr. Johnson. Well, I believe that we are. In fact----
    Senator Craig. So, it's in the eye of the beholder.
    Mr. Johnson. So--perhaps it's in the eye of the beholder--
--
    Senator Craig. Your eye tells me what?
    Mr. Johnson. Well, my eye tells me that we recognize that 
this is an issue of uncertainty between the pesticides law, 
FIFRA, and the Clean Water Act. What we did was issue some 
guidance to say, if, in fact, a pesticide is used in accordance 
with its label directions, then an NPDS permit is not required. 
We are in the process of going through the rulemaking process 
to make sure that is embodied in regulation.
    Senator Craig. Okay.
    Mr. Johnson. We're very active. We have guidance. We're 
working on the regulation----
    Senator Craig. Well, we'll stay tuned.
    Mr. Johnson. So, that's for my eye.
    Senator Craig. Okay. We'll stay tuned with you. It's an----
    Mr. Johnson. Okay, good.
    Senator Craig [continuing]. Important issue to be resolved, 
and effectively, responsibly--second-guessing doesn't work here 
very well for any of the parties involved. Trying to 
understand----
    Mr. Johnson. Right.
    Senator Craig [continuing]. Where they need to be.
    Last, Mr. Chairman--Administrator Johnson, since I've 
become engaged in the issue of confined herds, large herd 
operations, air emissions, and----
    Mr. Johnson. Yes.
    Senator Craig [continuing]. Superfund issues, as it relates 
to large dairies and feed lots, EPA has not been consistent in 
their position, in my opinion, on this issue. Could you give me 
the status of the Air Consent Agreement, and talk about what 
direction you see this going?

                   COMBINED ANIMAL FEEDING OPERATION

    Mr. Johnson. Yes, sir. The Combined Animal Feeding 
Operation, CAFO, as it's known. The issue of air emissions was 
one that there was great uncertainty in the science. The 
National Academy of Sciences, in a report, noted that we needed 
additional science, that there wasn't science to really 
discern, ``Is there a problem? Isn't there a problem? What is 
there, what isn't there?'' Their strong recommendation was that 
you needed to do research to understand what is going on.
    Well, the research that we need is from those CAFOs. So, we 
entered into consent agreements with a number of operations, 
now well over 2,000 operations. As part of that agreement, 
these CAFOs are collecting and monitoring information, per our 
design, which will then be brought together. In the next year 
or so, as we gather all that information, then we'll be able to 
actually assess the science, and then say, ``Is there a 
problem?'' If there is, here are the steps that need to be 
taken to address it. If there isn't a problem, then so be it. 
This CAFO agreement is, we believe, a very effective means of 
gathering the information so that we can base our decisions on 
sound science.
    Senator Craig. What kind of timelines do you have as it 
relates to gathering information and then what might follow 
from that information?
    [The information follows:]

                            CAFO Agreements

    EPA expects the nationwide AFO air emissions monitoring study to 
begin later this year and it will last two years. This two-year 
timeframe is necessary for the scientific purpose of allowing the 
monitoring study to take into account variable factors such as weather 
throughout the different seasons and between the different years. Data 
will start to become available to EPA the first year of the study, and 
will undergo extensive validation and quality assurance by the Agency. 
Data will be published on a rolling basis. No later than 18 months 
following the monitoring study's conclusion, EPA will then publish 
emission-estimating methodologies, also on a rolling basis.

    Mr. Johnson. We are continuing to sign up additional 
farming operations. In fact, the specific number is probably 
close to 2,700 operations, to date. The monitoring is 
beginning. I think it's going to take some 9 months to a year 
to gather the information. Then, once we gather that, it's 
going to take us some time to assess it.
    Senator Craig. It's got to run through a----
    Mr. Johnson. So----
    Senator Craig [continuing]. Variety of seasonal and----
    Mr. Johnson. There are seasonal and geographic dimensions. 
We want to make sure that we do proper peer review. We want to 
do this in an open and transparent way. A lot of people are 
very interested in it. I would be happy to get back to the 
record for you on the specific----
    Senator Craig. Well, I----
    Mr. Johnson [continuing]. Schedule.
    Senator Craig. It is very important to my State, and, 
frankly, it's very important to the future of American 
agriculture, that we get this right and we don't make it 
impossible, at the same time.
    Mr. Johnson. Right.
    Senator Craig. You know, large animal operations have 
impacts, and we all know that. Nobody wants not to do it well.
    Mr. Johnson. Right.
    Senator Craig. We simply need the tools to do it with.
    Mr. Johnson. Right.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Dorgan.
    Senator Dorgan. Mr. Johnson, thank you. I'm sorry I was 
delayed at another hearing. But I've looked at your testimony, 
and appreciate your being here.

                    CLEAN WATER STATE REVOLVING FUND

    Let me ask you, first, about the Clean Water State 
Revolving Fund. As you know, EPA's Gap Analysis shows that 
there's about $120 billion gap between what we're currently 
spending and what we need to spend on the infrastructure. The 
administration has requested $687 million. That's $700 million 
below the 2004 level, $400 million beneath the 2005 level, $200 
million beneath the 2006 level. Let me ask, if I can, why the 
22-percent cut in this account?
    Mr. Johnson. Senator, you're absolutely correct when you 
say that the needs are great. The needs assessments are 
literally in the hundreds of billions of dollars for both clean 
water as well as the drinking water. The President's budget 
reflects what the President's commitment was for the Clean 
Water State Revolving Loan Fund. That commitment was that, over 
a period of time, the loan fund would revolve at $3.4 billion. 
The monies that have been requested fulfill that presidential 
commitment to have the loan fund revolve at that $3.4 billion. 
But that's only a piece of the pie.
    The other piece is that we really need to be working on 
trying to help water systems, particularly the small water 
systems. We believe that there are four pillars to that to 
address that. One is conservation. Another is full-cost 
pricing; ratepayers have a responsibility, as well. Third is, 
we need to be looking at this problem not just facility by 
facility, but by watershed because that's where the 
contaminants and the issues and the availability all need to be 
considered. Then, last, the issue of better management is the 
fourth pillar.
    We know of the importance of better management from other 
systems. The chairman just mentioned some things on water lines 
of one particular area in California. What we're trying to do 
is gather those good experiences, these success stories, that 
could be used by other systems.
    The last piece included in the President's budget is $7 
million for innovative technologies. We know that the need is 
great. We're seeing innovative technologies that could address 
some of the issues. So, for example, rather than replacing a 
pipe, having to dig up the pipe, we're seeing some liner 
technology that might be a more cost-effective and better 
option for dealing with some of the issues. So----
    Senator Dorgan. Mr. Johnson, what was the recommendation 
from your agency with respect to this year's budget, as you 
sent it up the line? Can you tell me that, for this account?
    Mr. Johnson. I don't----
    Senator Dorgan. Did your agency----
    Mr. Johnson. I don't----
    Senator Dorgan [continuing]. Recommend----
    Mr. Johnson. I don't----
    Senator Dorgan [continuing]. A 22-percent cut?
    Mr. Johnson. I don't remember what the discussions were 
within the administration. My goal was to make sure that we 
honored the President's commitment. This budget reflects that.
    Senator Dorgan. All of the--most of the pillars he 
described, however, are made more difficult by these budget 
cuts, I would expect. I mean, we--your own gap analysis would 
suggest that your budget should reflect the ability to respond 
to that. But I under---it's really not your budget. I was 
trying to see if I could figure out what you had requested, but 
I understand it's OMB and now the President's budget. You're 
duty bound to come here and put on a suit and be aggressively 
supportive of it. And I respect that view.

                      CENTER FOR AIR TOXIC METALS

    Let me just say, the President's budget zeros out $33 
million that Congress provided through the Science and 
Technology account for specific research projects. Two million 
dollars of that went to the Center for Air Toxic Metals at the 
University of North Dakota. That goes back to 1992. The center 
is to develop information on trace elements and--so that 
pollution prevention strategies could be developed and 
implemented and so on. There's no discussion anywhere in this 
budget about why the administration chose to zero out that $33 
million of research projects. There's no information about the 
specific projects that were funded previously and would now be 
defunded. Can you tell me what the----
    Mr. Johnson. Well, I'd have to look at the $33 million. The 
specific project referred to is, as are a number of projects, 
congressional special projects, called earmarks. The 
administration doesn't carry over those earmarks as part of the 
next budget. In fact, as you know, I've been at EPA 25 years, 
and no administration carries over those earmarks. So----
    Senator Dorgan. I understand that, but normally----
    Mr. Johnson [continuing]. But on the specific one--I'm not 
sure about the $33 million. I'd be happy to get back to you, 
for the record.
    Senator Dorgan. Yeah. I mean, that's the Science and 
Technology account. In fact, this particular center, the Center 
for Air Toxic Metals, was actually created by the EPA. So--at 
any rate, if you would get back to me on that, I'd appreciate 
it.
    Mr. Johnson. I'd be happy to.
    [The information follows:]

    The Center for Air Toxic Metals (CATM) at the Energy and 
Environment Research Center (EERC) of the University of North Dakota 
(UND) was established in 1992 to perform research on toxic trace 
element emissions. EPA will support the center in 2006 through a $2 
million congressional add-on to the President's fiscal year 2006 budget 
request--part of a larger set of 37 congressional additions totaling 
$33,275,000 for EPA's science and technology account. EPA expects 
fiscal year 2006 funding for CATM will support research and development 
concerning mercury's transformation in coal-combustion flue gases; 
sampling and analytical methods; control technologies; and mercury's 
interaction with selenium. Consistent with Agency policy and prior 
president budget requests, the fiscal year 2007 budget does not include 
funding for congressional add-ons provided in previous fiscal years.

                        PESTICIDE HARMONIZATION

    Senator Dorgan. Pesticide harmonization under NAFTA, we 
passed NAFTA--of course, I didn't support it--but on the floor 
of the Senate and during debate, the contention was, we're 
going to harmonize pesticides between the two countries. We 
just had a study by North Dakota State University that shows 
that if North Dakota consumers--I should say farm producers--
paid the same price as the Canadian producers just across the 
border, for virtually identical chemicals, they'd pay $41 
million less. They expect, and I would have expected, that we 
would have harmonized, because that's what NAFTA promised. And 
yet, there's been almost no effort at all to harmonize these 
chemicals so that you could do joint labels and farmers across 
the border could essentially buy the chemicals and bring them 
back if they're the identical chemical, or virtually identical.
    So, tell me, where are we on the harmonization?
    Mr. Johnson. That is an issue that you and I have been 
talking about for some time. I am pleased to report that, on 
the harmonization front, that we have made great strides. We do 
not control, and have no authority to control, prices, and our 
focus is on human health and environmental assessment, and 
making sure that the products that end up on the market comply 
with those health and environmental protective statutes.
    What we have done as part of the NAFTA agreement is work on 
pesticide harmonization. In fact, we have now, between Canada 
and the United States, jointly registered 20 new active 
ingredients. We have been working cooperatively with our 
Canadian counterparts in trying to sort through all the data 
requirements, making sure that they are not only consistent, 
but to do everything we could to have joint registrations. As I 
said, I'm pleased to report that we have actually jointly 
registered 20 new active ingredients.
    Senator Dorgan. I'm aware of----
    Mr. Johnson. Clearly, there are opportunities to do more, 
more work to support harmonization.
    Senator Dorgan. Can you give me a timeline with respect to 
your agency's work on this, so we can expect a time when the 
requirements of NAFTA will be met, generally? If you would give 
me a report on that.
    Mr. Johnson. I will.
    [The information follows:]

                        Pesticide Harmonization

    While EPA's existing programs are fully consistent with our 
obligations under the NAFTA, we are continuing to work toward the NAFTA 
goal of harmonization of regulatory standards whenever possible, 
without lowering the level of health and environmental protection 
afforded under U.S. laws. We meet formally with our NAFTA counterparts 
at least two times a year (the next meeting is set for May 24, 2006) 
and maintain frequent contacts with our Pest Management Regulatory 
Agency (PMRA) colleagues. The EPA does not have authority over 
pesticide pricing, but we are continuing to work with state officials, 
stakeholders, and our international trading partners to explore 
remedies under existing authorities and through cooperative approaches. 
EPA has been working to break down trade barriers and promote a level 
playing field through our harmonization efforts under the NAFTA 
Technical Working Group on Pesticides (TWG). Under the TWG, the United 
States and Canada have established a successful Joint Review Program to 
share the work of evaluating pesticides being marketed in both 
countries. To date, over 20 new pesticide products have been 
simultaneously registered under the Joint Review program. While the 
United States and Canada have been open to NAFTA labels, and actively 
encouraged pesticide producers to submit candidates, agricultural 
pesticide producers have been reluctant to apply for NAFTA labels. We 
have put the structure in place but in order for the process to work, 
pesticide producers will need to participate. EPA, Canada, and Mexico 
have initiated a stakeholder process involving representatives from 
government, industry, and growers, to explore solutions related to 
pesticide joint labeling as a way of addressing price disparity. EPA 
and its Canadian counterpart agency plan to hold a meeting with these 
stakeholders later this year. EPA remains committed to providing 
growers access to pesticide products and continuing our pesticide 
harmonization efforts with Canada and other international partners 
which have already led to more consistent regulatory and scientific 
requirements, risk assessment procedures, and improved regulatory 
decision-making. EPA will also continue to provide technical assistance 
to support Congress, as necessary.

                               RED RIVER

    Senator Dorgan. One other question. Today's not a good day 
to raise this, because the Red River is running north, and it's 
flooding the entire Red River Valley, and we're trying to run 
it through three communities, with dikes. It's the third 
highest flood in the history of the Red, so it's not a good 
time for me to raise questions about the need to replenish the 
water system of the Red River.
    But, as you know, the Red River does run dry. When the Red 
River dries up, as it has done in the past, it'll destroy the 
economies of Fargo and Grand Forks and so on. So, we've had 
this work going on, under the Dakota Water Resources Act, that 
would evaluate the ability to have an assured supply of water 
for the Red River Valley. The Bureau of Reclamation has been 
doing its studies. It is now almost done. It'll be done this 
December, 4 years behind the date in which it was supposed to 
have been done, but, nonetheless, you know, 4 years later, 
it'll be done. Now they're indicating that this is the Draft 
Environmental Impact Statement for the Bureau of Studies. EPA 
plays a part in that. The comment period was now extended by 
the Bureau, after consultation with the EPA. The EPA was not 
yet ready to sign off on the project, and asked for an 
extension because you want to compile a record.
    I can well understand wanting to compile a record, but I 
want you to understand, the Bureau has fallen behind 4 years. 
Our hope would be that we--you know, with 4 years' delay, we 
could certainly have a record out there someplace that somebody 
could glean and use and begin to digest. I hope that, if you 
have some issues, that you will understand the urgency that we 
have, and that, because it's 4 years delayed, you'll work with 
us and with the Bureau to try to move expeditiously on this.
    Mr. Johnson. You have my commitment.
    Senator Dorgan. All right. Again, I say, it's not a great 
time to raise the question of needing water in the river, 
because we've got way too much at the moment. We're trying to 
send it to Winnipeg, to get it through our cities, so that 
Winnipeg gets all of it.
    But, at any rate, let me thank you for your work.

                    CLEAN WATER STATE REVOLVING FUND

    Senator Dorgan. But, you know, I'm concerned about the 22-
percent cut in the Clean Water State Revolving Fund. I don't 
think that helps our communities. I think that hurts us as 
we're trying to address these issues. I recognize, as I said 
before, you come here supporting a budget that may or may not 
be your recommendations, but, nonetheless, you're part of the 
team, and you've got to support this. I happen to think that 
it's going to shortchange the communities. It's not going to 
address the gap that we know exists, of 120 billion. It's going 
to leave us farther back than we should have been. But, you 
know, we've got serious--we've kind of driven in a ditch in 
fiscal policy here, for a lot of reasons, and we've got serious 
problems, so I'm not particularly surprised by all these 
recommendations, but I think the recommendations hurt, rather 
than help.
    Senator Burns. We always have a good, friendly competition 
between North Dakota and Montana. We can never figure out how 
the North Dakotans can flood out and burn out in the same day.
    That was a pretty good trick you pulled that time, you 
know. It really was.
    I've got a couple of questions left, also, Mr. Johnson. The 
Libby asbestos site, as I mentioned in my opening statement, 
could you please give us a status report on the Record of 
Decision, if we could get that done by May the 1st, if we can. 
I think we should talk about that.

                     LIBBY SITE RECORD OF DECISION

    Mr. Johnson. Well, yes, sir. On the Libby site, we 
appreciate all the work and your assistance and leadership in 
this area. We've actually cleaned up 595 properties. This year 
our plan is to clean up an additional 200. We have, in the 
Libby area, about 1,300 properties, and then, in the Troy area, 
probably 200 to 300. We have been working on a number of 
issues, and trying to work through the Libby, as well as the 
Record of Decision. I would love to have a few moments to talk 
to you about our status on the Record of Decision. We're going 
to be a little bit late on that date, but we're working on it.
    Senator Burns. We would----
    Mr. Johnson. I----
    Senator Burns. We would like to have a visit, if we 
possibly could----
    Mr. Johnson. Okay.
    Senator Burns [continuing]. Because folks up there are very 
nervous about that.
    We've already talked about feed lots and confined feeding. 
Eighty million dollars was rescinded from the Agency's budget 
in fiscal year 2006 in order--in an effort to offset the need 
for new appropriations. Give us an update on the Agency's 
progress of identifying that $80 million, expired grants, 
contracts, and agreements.
    Mr. Johnson. We've made very good progress. The GAO was 
technically correct, and we have gone back and looked at, and 
continue to evaluate, our contracts and grants. I expect that 
within the next few weeks, that we'll actually have what our 
plan is. It has taken a lot of very extensive work to go back 
and look through each of these agreements, both from a legal 
and from a financial standpoint. And so, as I said, we'll have 
our roadmap in the next few weeks, and then we'll meet our 
obligation. Obviously, we can't do the necessary steps on these 
contracts and grants until the September timeframe, but we're 
on target, and look forward to sharing that with you.
    Senator Burns. You might bring us up to date on your Diesel 
Emission Reduction Program. Give me a thumbnail report on that.

                   DIESEL EMISSIONS REDUCTION PROGRAM

    Mr. Johnson. Yes, sir. It's an exciting program. We've made 
great strides. In the President's budget, there is $49.5 
million requested. Based on our experience to date, from funds 
that have been used to both replace engines and to retrofit 
engines, we expect to leverage not only that $50 million of 
Federal taxpayer dollars, but another $100 million, to get $150 
million invested in diesel emission reductions. What that 
equates to, in terms of environmental benefit, is about 7,000 
tons of reduction of particulate matter. If you want to look at 
that in terms of health benefits, that's about $2 billion in 
health benefits. So, it's a wise investment, both from an 
environmental standpoint, and certainly from a public----
    Senator Burns. Tell me about----
    Mr. Johnson [continuing]. Health standpoint.
    Senator Burns. Have you done any work on any--any research 
on the use of turbochargers on diesel engines? They tell me--
there's some work being done, and I'm wondering if you have 
monitored any of that work or----
    Mr. Johnson. Personally, I'm not aware of any----
    Senator Burns. Okay.
    Mr. Johnson [continuing]. But I'd be happy to check----
    Senator Burns. Okay.
    Mr. Johnson [continuing]. With our engineers.
    [The information follows:]

                 Use of Turbochargers on Diesel Engines

    The EPA's Clean Diesel Combustion (``CDC'') technology provides a 
lower-cost approach for making fuel-efficient diesel engines clean. 
EPA's CDC strategy, controlling the diesel engine's NO<INF>X</INF> 
emissions to EPA's Tier 2 levels without NO<INF>X</INF> aftertreatment, 
increases the turbocharger's performance requirements to levels which 
are beyond levels required in the market place today.
    On April 18, 2006, EPA Administrator Steve Johnson joined 
BorgWarner, Inc's Chairman and CEO Tim Manganello to celebrate a joint 
Government-Industry collaboration in this area of turbocharger 
technology. Through this collaboration, EPA invented turbocharger 
technologies are being evaluated and commercialized by BorgWarner (U.S. 
based corporation, with turbocharger manufacturing in Asheville, NC).
    Under the partnership, EPA is providing prototype turbochargers and 
proprietary insight to improve turbocharger efficiency at low 
temperature. BorgWarner has supplied modified production hardware to 
accelerate the commercialization and technology transfer process, as 
well as to support EPA's CDC industry partnerships with Ford and 
International Truck to continue their commercialization evaluations of 
CDC. A fact sheet and Press Releases from BorgWarner and EPA are also 
attached.
    This EPA-Industry partnership in the area of diesel engine 
combustion and turbochargers is one of several focused on enabling 
near-term energy conservation through the use of clean automotive 
technologies. EPA's innovative program has 35 engine and hybrid 
drivetrain related patents with 20 more underway.
                                 ______
                                 
           Clean Automotive Technology--Innovation That Works

        EPA AND BORGWARNER TO DEVELOP FUEL EFFICIENT TECHNOLOGY

    A new technology partnership known as a Cooperative Research and 
Development Agreement (CRADA) between the U.S. Environmental Protection 
Agency (EPA) and BorgWarner, Inc. was announced on April 18, 2006. The 
partnership will evaluate and determine the commercial viability of 
newly advanced turbochargers, air management, and sensors for use with 
diesel and high-efficiency gasoline engines.
    The initial efforts of the CRADA calls for EPA and BorgWarner to 
evaluate the technical and market potential of advanced turbocharger 
technologies designed to preserve and extend the diesel engine's 
efficiency, as these engines achieve the next generation of diesel 
emissions requirements.
    The technical challenge has been to make these high-efficiency 
engines clean and cost-effective, while maintaining or improving 
efficiency. These advanced turbocharging technologies are an extremely 
attractive part of a suite of technologies that enable both diesel and 
high-efficiency gasoline engines to reduce U.S. dependence on foreign 
oil and to reduce emission of greenhouse gases.
    Through the partnership, EPA and BorgWarner will evaluate these 
advanced automotive components that can allow the automotive and 
trucking industry to utilize EPA's Clean Diesel Combustion (CDC), as 
well as Homogeneous Charge-Compression Ignition (HCCI) gasoline 
combustion technologies.
    Broad industry interest in EPA's Clean Diesel Combustion has 
accelerated the need for more advanced air-boosting systems than are 
used in today's diesel.
    In order to meet the progressive requirements for advanced 
turbocharging and boosting systems, BorgWarner and EPA have been 
working jointly on innovative systems for use with CDC and other clean 
combustion engine technologies.
    These advanced air management systems provide the technical 
approaches and hardware necessary for ultra-clean diesel engines and 
gasoline engines to become as efficient as diesel engines.
    The advanced enabling technologies, along with CDC and other clean 
high-efficiency gasoline combustion technologies are being created in 
EPA's Ann Arbor Laboratory. BorgWarner and EPA will work to quickly 
evaluate and develop these concepts into commercially viable advanced 
turbocharger, air management, and sensor hardware.
    Successful commercialization of these advanced components will 
result in the use of more diesel and high-efficiency gasoline vehicles 
in the United States--which will:
  --Reduce emissions . . . thereby helping to clean up the environment
  --Save consumers money at the pump . . . by reducing fuel consumption
  --Reduce U.S. dependence on Middle East . . . increasing national 
        security
  --Reduce record U.S. trade deficit . . . keeps money in United 
        States--grows economy
                                 ______
                                 
 Partnership Geared Toward New Technologies to Reduce Fuel Consumption

    Cleaner engines mean cleaner air thanks to a partnership to develop 
advanced automotive components for cleaner, more fuel efficient engines 
and vehicles. The U.S. Environmental Protection Agency and BorgWarner 
will examine the commercial viability of newly advanced turbochargers, 
air management, and electronic sensors for use with clean diesel and 
high efficiency gasoline engines. Commercialization of these 
technologies will result in lower emissions and reduced fuel 
consumption, which in turn saves Americans money at the pump, improves 
environmental protection and lessens dependence on foreign oil.
    ``By advancing the technologies that are good for the environment, 
good for our economy, and good for our energy security, together with 
BorgWarner, EPA is meeting the president's call to get our nation off 
the treadmill of foreign oil dependency,'' said EPA Administrator 
Stephen L. Johnson. ``For the past century, diesel engines have been 
America's economic workhorse--reliable, fuel efficient, and long 
lasting. Through innovations in technology, this economic workhorse is 
expanding into an environmental workhorse.''
    Diesel powered passenger vehicles have significantly better fuel 
economy than their gasoline powered counterparts. Through the 
partnership, BorgWarner will build and evaluate unique turbochargers 
that will help maintain fuel economy in clean diesel combustion 
systems. The company also will develop air management and combustion 
sensor technologies. Partnering with BorgWarner allows this ``made in 
the USA'' technology to also support manufacturing jobs in the United 
States through their turbocharger manufacturing and engineering 
facilities in Asheville, NC.
    The EPA--BorgWarner partnership was established through a 
Cooperative Research and Development Agreement, which is a tool 
Congress established to facilitate technology transfer from National 
Laboratories to industry and the marketplace.
    More information about the partnership and clean fuel efficient 
technology: epa.gov/otaq/technology

                        DIESEL HYBRID TECHNOLOGY

    Mr. Johnson. We've done some very interesting work on 
diesel hybrid technology that uses hydraulic hybrid systems. 
So, instead of using a battery to store the energy that comes 
from braking, EPA's unique patented hybrid system stores the 
energy in a hydraulic system. In fact, we have a partnership 
with UPS where we are demonstrating this technology in their 
delivery trucks. You're going to begin seeing some trucks 
actually being used to deliver packages which have diesel 
hybrid hydraulic technology. The fuel savings for the hydraulic 
hybrid trucks is significant. So, we're very excited about the 
work that we've been doing with the Department of Energy, the 
hydraulic industry, and some of the engine manufacturers, to 
advance these kind of technologies.
    Senator Burns. Good.
    Senator Domenici, thank you for coming this morning.
    Senator Domenici. Who owns that patent? Whose patent is 
that?
    Mr. Johnson. It's actually an EPA patent.
    Senator Domenici. Terrific.
    Mr. Johnson. Researchers from our Ann Arbor, Michigan, 
laboratory are the ones that----
    Senator Domenici. Terrific.
    Mr. Johnson [continuing]. Have the patent.
    Senator Domenici. Are they out there trying to get it into 
the market and--
    Mr. Johnson. Yes. It is actually a joint partnership effort 
with a number of auto and truck manufacturers. UPS is going to 
be the first one in the market with this technology.
    Senator Domenici. Now, how do you come about that? Do you 
have a laboratory that does that work?
    Mr. Johnson. Yes, we have a laboratory in Ann Arbor, 
Michigan, that invented the technology and is part of the 
technology transfer partnerships helping to move this 
technology to the market. This is the same laboratory that 
deals with, you know, the window stickers that everybody sees 
on the windows of new cars.
    Senator Domenici. Yeah.
    Mr. Johnson. This is the laboratory that actually does the 
emissions and fuel economy testing of new cars to validate and 
verify testing that is done by the automobile manufacturers, so 
that the consumers can know the fuel economy of new vehicles. 
The engineers in this laboratory did the research and 
development of the unique hydraulic hybrid technology.
    Senator Domenici. Interesting.
    Mr. Johnson. Now we have 35 patents granted and 20 underway 
covering engine and hybrid technologies.
    Senator Domenici. Mr. Chairman, I have a lot of issues in 
this appropriations, but I'm only going to deal with a very 
small one that has been befuddling New Mexicans for a long 
time.
    I'm so grateful to you, Mr. Johnson, for helping us on 
arsenic in the small communities. We still are--still can't get 
it worked out with the State of New Mexico. I don't like to get 
you in the middle with the environmental people in the State, 
but I have no alternative. I--you have a different approach 
than they do, and I just must continue to push hard as to why 
they can't see fit to do what you think is possible to help the 
small users, those small arsenic-laden water systems.

                            ARSENIC STANDARD

    First, we want to thank you for the help--you've detailed 
responses to my questions--and your willingness to come and 
personally meet with me and others, and a number of Senators. 
You did that for us. You asked--I asked that the State use the 
minimum documentation necessary to meet your guidance on 
exemption applications--you're aware of that--to implement 
existing State policy and the EPA guidance so that communities 
can receive exemptions from economic hardships, which are--is 
in quotes--that's works of art--and adjust for New Mexico's 
relatively low median household income, and use alternative 
approaches to issuing formal exemptions in order to use the 
full flexibility provided by the EPA to buffer--excuse me--to 
offer bilateral agreements for time extensions for the 
individual water systems that meet general financial or 
concentration criteria. Do you believe that these suggestions 
are permissible under existing regulations? And, if so, do you 
think it justifiable for a State to permit these to be used by 
the water systems in the State?
    Mr. Johnson. Well, Senator, you raise a very important 
issue with regard to the revised arsenic standard. We are very 
supportive of these bilateral compliance agreements between the 
State and the individual utilities. We see that as an effective 
mechanism to provide the necessary window of time so that an 
individual utility can come into compliance with the 10-parts-
per-billion arsenic standard. In all the discussions that I've 
had, it's not been whether they will or will not. Everyone 
wants to come in compliance with that. It's, How do we do that, 
and do we have sufficient time to do that? What we've been 
doing, and, certainly, as an agency, focusing on compliance 
assistance. How can we assist the communities? As I said, the 
bilateral compliance agreement is, we believe, an effective 
mechanism to be able to do that.
    In addition, as I believe I mentioned earlier, we have been 
actively continuing to research new technologies that help----
    Senator Domenici. Yes.
    Mr. Johnson [continuing]. That particularly--help all 
communities, but particularly help small communities.
    Senator Domenici. But we're not there yet.
    Mr. Johnson. Right.
    Senator Domenici [continuing]. Some of them aren't right 
behind the eight ball.
    Mr. Johnson. Well, we're----
    Senator Domenici. We're almost there, but the State is 
saying, ``Do it,'' and you're on the outside, saying, ``Maybe 
you can get extensions, and here are some ways to do it,'' if 
I----
    Mr. Johnson. And----
    Senator Domenici [continuing]. If I read it right.
    Mr. Johnson. We're committed to work with our State 
partners to help provide whatever we can do. The flexibility is 
given. As you appropriately point out, there are flexibilities 
within the statute so that--again, they need to meet the 
standard, but flexibilities in time, so that they have an 
opportunity to meet it.
    Senator Domenici. Now, you're going to continue to 
expeditious and fair reevaluation, as I understand it, and, if 
appropriate, re-promulgation of arsenic standards, in light of 
the new scientific--any new scientific data, as--that would 
indicate that the science relating to arsenic might be changed. 
You're still working in that arena. It's a--day-by-day, 
scientists are still working at that. Is that correct?
    Mr. Johnson. Well, it's true. It's true for a number of 
chemicals. As an agency, we always need to be open to what the 
new science tells us. Whether it's arsenic or some other 
contaminant of concern, we have to be open to that. So, both 
for arsenic, as well as a number of other compounds, as the 
science continues to evolve, as additional research, then we, 
as an agency, need to be open.

                   INTEGRATED RISK INFORMATION SYSTEM

    We do have, as part of the President's budget, a $9 million 
request to support IRIS, which is our Integrated Risk 
Information System, which is the principal system and the 
support of the scientists, to make sure that we're keeping up 
with the evolving science for contaminants.
    So, yes, sir.
    Senator Domenici. What is that called?
    Mr. Johnson. The Integrated Risk Information System, also 
called IRIS----
    Senator Domenici. IRIS.
    Mr. Johnson.--I-R-I-S.
    Senator Domenici. Okay.
    Mr. Johnson. Thank you.
    Senator Domenici. You're part of that team. You have $9 
million to spend in that activity?
    Mr. Johnson. That's correct.
    Senator Domenici. I want to thank you, personally, for what 
you do in your job. You don't get--people don't know what kind 
of job you have. I knew your predecessor very well, Paul 
Gilman. He's--he was--worked for me for a long time. I guess 
you know that.
    Mr. Johnson. Yes. Well, thank you, sir.
    Senator Domenici. Thank you.

                            ARSENIC STANDARD

    Thank you, Mr. Chairman.
    Senator Burns. Yes, sir.
    Senator Allard?
    Senator Allard. Well, I--you're going to get a little bit 
on arsenic from me, too.
    I mean, all----
    Senator Burns. We've all got it out there.
    Senator Allard [continuing]. We all have this arsenic 
concern. What is the--strictly from a health risk standpoint--
I'm not talking about what's in the law, but I'm talking about 
from a health risk standpoint, what is generally the level that 
is acceptable?
    Mr. Johnson. Well, the maximum----
    Senator Allard. It's somewhat higher than what we have in 
law.
    Mr. Johnson. Well, the maximum contaminant level, set at 
10-parts-per-billion, is health protective. I know that the 
National Academy of Sciences and a variety of other people have 
opined on that particular issue. It's not one on which I am 
particularly an expert, myself. Let me--I'll turn to Ben 
Grumbles or--do you have any additional information? Ben 
Grumbles is the head of our Water Program, our Assistant 
Administrator for Water, Senator.
    Senator Allard. Thank you.
    Mr. Grumbles. Senator, I don't have the specifics on the 
science, but, based on the National Academy of Sciences report, 
when the Agency went through the rulemaking process to set the 
MCL and to move from the 50-parts-per-billion, which had been 
the previous standard, down to the 10-parts-per-billion, that, 
based on the science in that report, the Agency went through a 
process where the standard would have been even more stringent 
than the 10-parts-per-billion. It was somewhere in the 5- to 8-
parts-per-billion. The administrator used the flexibility--the 
new flexibility provided in the Safe Drinking Water Act 
amendments of 1996, taking costs into account, and feasibility, 
and ended up with the 10-parts-per-billion standard, which is 
the current standard. So----
    Senator Allard. Set by, basically, the Congress--isn't that 
correct?
    Mr. Grumbles. Well, the----
    Senator Allard. Isn't that set in----
    Mr. Grumbles [continuing]. The Congress didn't specify the 
10-parts-per-billion, but the Congress provided for a process 
to go through for setting a standard, and the Congress did 
direct that the Agency set a standard.
    Senator Allard. Well, you know, I was always under the 
understanding that that 10-parts-per-billion was a much lower 
level than what historically has been accepted as a level where 
you would impact a life-threatening situation, as far as the 
human population is concerned. Now, there's--if you talk about 
arsenic levels, and you want to talk about other parts of the 
environment--you know, fish or birds or something--they might 
be much more sensitive to levels. But I was trying to get out 
of you about where the human risk level would be, where we have 
the increased. I have always been under the assumption it was 
higher. Now, I was formerly a health officer, and we had a 
higher level than that, that we considered before you actually 
concerned about just health risk. That's the figure I was 
trying to get on the record here. I thought it was somewhere 
around 50-parts-per-billion, which you threw out, which was our 
original standard that we had there.
    Mr. Grumbles. That's correct.
    Senator Allard. I guess if we're trying to protect birds, 
which tend to be very sensitive to these kind of things, and 
fish and all this, then that--maybe we have to go down to 10-
parts-per-billion. I mean, the struggle that we're going with 
is, I have communities in my State, too, that have actually--
they're not as low as the 10-parts-per-billion, but they're--
it's not at a level that creates a health problem for the human 
population in that community. It seems to me--and Senator Craig 
also alluded to this, that people in my community have been 
drinking this water for decades and not had a problem, and all 
of a sudden they're faced with this challenge. It seems to me, 
in setting priorities, we look at the health risk. Right now 
the standard is so tight that this is a naturally occurring 
level in these communities, in that river that they get their 
water out of, is higher than 10-parts-per-billion, and you're 
asking that small community to clean up that river, and they 
didn't cause the problem. It was there by nature. Nature put it 
there.
    It seems to me that if we're going to be providing an 
exemption, and they are a struggling community that doesn't 
have a lot of money, it seems to me that there's--you can 
provide them some economic relief and not create a problem for 
them economically. If that level is higher than 10-parts-per-
billion, and it's been there for hundreds of years, there's 
probably not many birds or fish that are surviving in that area 
right now, anyhow, because they haven't--they wouldn't be able 
to, if that's affecting them, at this particular point.
    Now, those communities where arsenic is added in, because 
of manufacturing operations or--that's a different story. But 
so many of us are at the top of the heap, from Montana and 
Colorado and Idaho. That's just a naturally occurring product--
chemical that you find in drinking water. It's been there for 
hundreds of years. Now these communities are expected--and it 
seems to me that--and I guess my question is, Do we have the--
do you have the flexibility to look at that, in a small 
community that's struggling, and not having any health effects 
to the human population, saying, ``Well, you know, this is a 
community that we can--we don't have to press them so hard to 
get it done, until we get our technology developed?''
    Mr. Grumbles. Senator, a couple of things. When the 10-
parts-per-billion number was established, a definite factor 
involved in that was the threat to public health. Now, as the 
administrator said, we need to continue to review the science 
behind all our regulations. The Water Office doesn't--it's not 
currently on our agenda to revise--to go through a process to 
revise that 10-parts-per-billion standard, but what is 
extremely important is to continue to gather the science, and 
to use the 6-year review process, under the Safe Drinking Water 
Act, for regulations that have been promulgated, to ensure we 
revisit, over time.
    On the extensions part----
    Senator Allard. Let me--if it is a threat to human health, 
why do you let 'em drink it?
    Mr. Grumbles. If it is--I'm sorry--if it----
    Senator Allard. You said the 10-parts-per-billion was a 
threat to human health. So, why do you let 'em drink it?
    Mr. Grumbles. Well, it's a factor. It's one of the factors 
that's involved in the risk, in the health assessment.
    Senator Allard. I----
    Mr. Grumbles. Right.
    Senator Allard. The point is, though, is that 10-parts-per-
billion, on and by itself, it might be----
    Mr. Grumbles. Right.
    Senator Allard [continuing]. A factor in accumulating--a 
number of accumulating factors. But, you know, if this is such 
a public health problem, you shouldn't let 'em ever drink the 
water, even now. You shouldn't ever let 'em drink the water. 
But the point is, is that this has been there for hundreds of 
years. These communities have been suffering--they've been 
dealing with this. There hasn't been an unusual death rate in 
these communities. It seems to me, in trying to provide--you 
know, you can give these communities a little relief, 
economically, and--it seems to me like you can have the science 
to support that, at least historically, and not have to force 
this economic burden on 'em until we get some technology that's 
developed that can actually work on it. It seems to me there's 
some common sense that we're missing here.
    Mr. Grumbles. Your points are well taken. That's one of the 
reasons why the administrator has ensured that our office 
maximize the flexibility that's provided. The statute calls 
them ``exemptions.'' It's really extensions of time to reflect 
the priorities and the economies of scale. That's why we point 
to the fact that small communities can have up to 9 years to 
comply with that standard as we develop more effective 
technologies, and funds are available under the Drinking Water 
State Revolving Fund and other mechanisms to make it 
affordable, over time.
    Senator Allard. Well, in my State, these small communities 
may not be increasing in population. Now, they may be, and may 
be in a better financial position in--9 years from now, but I 
don't see their economic situation improving, frankly. Do you, 
Mr. Chairman? I don't--you know, they're struggling. In some 
cases, they're actually losing population. Being able to deal 
with--and I don't see the cost of developing this technology 
really coming down, unless you really mass produce it.
    It just seems to me that we're really getting ourselves 
into kind of a--an area that we're just going to say to these 
people, ``Well, you know, your community's going to die, and 
the river arsenic level's going to stay the same, because the 
community won't be there to treat the water.'' And it seems to 
me we've lost focus on some common sense here, somehow or the 
other. I'd just encourage you, if you have the latitude there 
in the law, to give this some serious thought.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Allard.
    Well, I thank you, Mr. Director, for coming down this 
morning. I have no more questions, although there will be some, 
and then we'll have our visit, and then we'll meet--somewhere, 
we'll meet and iron all of our difficulties out. There's not 
that many of 'em. I will--I want to congratulate you. You've 
done a good job down there, and under very difficult conditions 
and circumstances, because I know what your job would be, and I 
don't think I could keep all those balls in the air if I were 
trying to do it.

                         CONCLUSION OF HEARINGS

    Thank you all very much. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon, at 10:37 a.m., Thursday, April 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]

              Prepared Statement of Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior supporting 
fiscal year 2007 funding for the National Endowment for the Arts (NEA) 
at a restored level of $170 million. At the end of this statement we 
will also touch on a special one-time request for $5 million for the 
NEA in the next Gulf Coast emergency package, separate from its regular 
fiscal year 2007 funding.
    The requested fiscal year 2007 funding of $170 million would:
  --restore the NEA's ability to perform its core mission of supporting 
        the creation, preservation, and presentation of the arts in 
        America;
  --strengthen the Challenge America program, which uses the arts to 
        enhance America's communities through improved access to the 
        arts for all Americans; and
  --cover increased administrative and grant-making costs.
    My statement focuses on the core programs of the NEA: Access to 
Artistic Excellence, Learning in the Arts for Children and Youth, and 
Challenge America: Reaching Every Community. I would like especially to 
explain how local arts agencies use these programs to serve their 
communities.
    Local arts agencies are Americans for the Arts' key constituency, 
and advancing full and affordable access to the arts is at the heart of 
their mission. Local arts agencies meet community needs by using the 
arts to address social, educational, and economic development issues as 
well as by supporting ``art for art's sake.'' They make grants, provide 
services to artists and arts organizations, and present arts 
programming to the public. Typically, local arts agencies lead 
community cultural planning--a community-inclusive process of assessing 
local cultural needs and mapping a plan of implementation. NEA 
leadership has played a pivotal role in creating and sustaining local 
arts agencies, which have grown in number from 500 in 1965, when the 
NEA was established, to 4,000 today. Three quarters of all existing 
local arts agencies are private non-profit organizations, of which many 
are designated official arts agencies for their communities and 
entrusted with granting government funds. The remaining quarter are 
government agencies.
    Turning to the core programs of the NEA:
    First, the Access to Artistic Excellence core program of the NEA 
helps local arts agencies build infrastructure, pool resources, and 
coordinate local partnerships and coalitions, with the aim of extending 
the reach of artists and arts organizations to new audiences. A few 
examples of recent fiscal year 2006 grants include:
  --The Arts Council in Stuart, FL, received a grant to support a needs 
        assessment and cultural inventory as preliminary steps toward 
        the development of a cultural plan, including a comprehensive 
        catalogue of the county's cultural assets.
  --In Broward County, FL, a grant from the NEA supports an e-marketing 
        program, a regional shared calendar database, and electronic 
        advertisements for cultural events and organizations in a 
        multi-county area.
  --South Dakotans for the Arts received a grant to support the Prairie 
        Arts Management Institute, which provides intensive training 
        for staff of small and mid-sized arts organizations from the 
        ``prairie states'' of Middle America.
    The second of the NEA's core programs is Learning in the Arts for 
Children and Youth. To cite the NEA's applications guidelines, this 
program ``achieves its support of arts education through a focus on 
children, teachers, artists, arts organizations, and school leadership 
that will model best practices in arts education, disseminate those 
practices to the field, and build the case for quality arts education 
across the country. Critical to this strategy is the rigorous 
application of national, state, or local arts education standards.''
    Grants to local arts agencies from the Learning in the Arts core 
program typically support collaborations among teaching artists, local 
arts institutions, and providers of educational services to students in 
school and after-school. These grants play to the strengths of local 
arts agencies, which often maintain rosters of teaching artists and 
facilitate multi-party partnerships.
    Recent examples include:
  --The Fulton County Arts Council in Atlanta, GA, received a grant for 
        after-school visual arts workshops and open studios for stained 
        glass, clay, furniture making, glass blowing, and printmaking. 
        The teenage participants are referred by the Fulton County 
        Juvenile Court probation officer or a judge.
  --In Lafayette, LA, the Acadiana Arts Council received a grant for an 
        after-school and summer program featuring workshops in the 
        visual and performing arts, emphasizing job-building skills. 
        Participants work with artists on projects including public 
        mural, web design, and theater production.
  --In Tennessee, Allied Arts of Chattanooga is supporting local 
        teaching artists who team with classroom teachers to develop 
        and implement a curriculum that promotes reading and writing 
        through dance, theater, and visual arts.
    The third core program of the NEA is Challenge America: Reaching 
Every Community. To quote the NEA once again:

    ``[T]his category offers $10,000 grants, primarily to small and 
mid-sized organizations, for projects that extend the reach of the arts 
to underserved populations--those whose opportunities to experience the 
arts are limited by geography, ethnicity, economics, or disability. 
Projects that are supported in this category generally are smaller in 
scale and shorter in duration than those in the Access to Artistic 
Excellence or Learning in the Arts for Children and Youth categories.''

    Grants are limited to four specific uses: special events with guest 
artists; professionally developed public art projects such as murals or 
sculptures that are developed with community engagement; civic design 
activities; and planning projects that address cultural tourism or 
economic revitalization.
    With a simpler application process and expedited review, these 
grants are especially valuable to arts organizations that lack the 
administrative staffing and expertise to compete with larger, better-
funded organizations. Challenge America is a key component of the NEA's 
drive, which we praise, to ensure that direct federal support for the 
arts is spread broadly and fairly across the country. Our research 
shows that in fiscal year 2005, 114 congressional districts received 
direct NEA grants solely through this program.
    Recent examples of grants to local arts agencies include:
  --In Aliceville, AL, the Rural Members Association received a grant 
        to support the Freedom Creek Blues Festival, which showcases 
        Alabama blues artists.
  --In Idaho Falls, ID, the Arts Council received a grant to promote 
        the Idaho Falls Cultural District, supporting the production of 
        brochures, advertising, and banners for the district.
  --The Iowa Trails Council received a grant to support the design and 
        installation of public art on the Cedar View Pedestrian and 
        Bicycle Trail Bridges in Jefferson County, IA.
    Unfortunately, the administration's requested budget includes a cut 
of $3.46 million from the Challenge America core program of the NEA. 
The funds would be shifted to the other core grant programs as well as 
to cover increased administrative costs. As noted at the beginning of 
my statement, we are requesting that the NEA receive an appropriation 
that can accommodate these needs without taking funds from an existing 
program that is effective, popular, and essential to accomplishing the 
NEA's goal of distributing federal funds fairly across the country.
    Finally, I would like to address our special request for $5 million 
in disaster recovery funds for the NEA as part of the next relief 
package of reprogrammed or supplemental appropriations.
    As soon as Hurricane Katrina hit, the arts community stepped 
forward with open hearts and helping hands, in common with the rest of 
the nation. In the immediate aftermath of the storm, national arts 
organizations collected and disseminated information including damage 
reports, requests for help, and offers of aid. National organizations 
also solicited, coordinated, and/or provided assistance. For example, 
by Monday, September 5, the board of directors of Americans for the 
Arts had approved the release of $100,000 from our reserve funds. In 30 
days, we disbursed the entire amount in emergency grants to local arts 
agencies and other arts organizations in the affected areas. Finally, 
national arts service organizations asked for federal relief funds to 
be provided to the NEA to address specific, unique needs, and that 
would not duplicate other federal programs.
    The NEA's expertise is unmatched among federal agencies with 
respect to the internal operations of arts organizations, their public 
services, and their relationships to the broader community. Therefore, 
several national arts organizations have developed a proposal for $5 
million in NEA funds that would provide technical assistance and 
planning for nonprofit arts organizations. In view of the immense shock 
that the storm delivered to a regional economy, arts organizations must 
come up with plans to withstand several years of reduced funding and 
smaller audiences. Many that have been forced to suspend operations 
must figure out how, when, and--unfortunately--even whether to reopen. 
Regrettably, these organizations as nonprofits are ineligible for 
Economic Injury Disaster Loans from the Small Business Association. 
Most similarly cannot qualify for help in any form from FEMA. Finally, 
other federal funds, especially the Community Development Block Grants, 
which normally can be used at the discretion of city governments to 
assist the arts, are now being directed almost solely to assistance for 
homeowners. We certainly do not begrudge the help to these 
individuals--they need it. My points are simply that first, almost no 
federal help is currently available for the nonprofit arts, and second, 
the arts need help because they are key to the recovery and rebuilding 
of devastated communities. Third and finally, as I indicated, private 
groups and individuals from around the nation stepped forth and helped 
at a moment's notice. I understand that the arts could not be at the 
top of the list for federal help when a million people were displaced 
and an entire infrastructure was destroyed. Eight months later, 
however, it seems appropriate to begin investing in their recovery. To 
its credit, the NEA scraped together $700,000 in fiscal year 2006 funds 
to dispatch in discretionary grants. More funding, more broadly 
disbursed, is needed as quickly as possible.
    Thank you very much for the opportunity to submit this testimony.
                                 ______
                                 
  Prepared Statement of the American Bird Conservancy, Audubon, Ducks 
      Unlimited, and the Association of Fish and Wildlife Agencies

    We are writing to express our support for the Neotropical Migratory 
Bird Conservation Act Grants Program in fiscal year 2007. We appreciate 
your past support of this extremely effective matching grant program 
that coordinates and funds the conservation of neotropical migratory 
birds and their habitats throughout the United States, Latin America, 
and the Caribbean. We urge your continued support in the current 
funding cycle.
    Each spring, some 5 billion birds from 500 different species make 
their spectacular migration from their winter habitats in Mexico, 
Central America, Caribbean, and northern parts of South America to 
their breeding grounds throughout North America. These species comprise 
a vast array of many well known birds, such as: ducks, geese, and other 
waterfowl; raptors; warblers; thrushes; shorebirds such as sandpipers 
and plovers; hummingbirds; orioles; and many others that fly in this 
annual ritual.
    Unfortunately, the survival rate for many migratory birds is 
relatively low, due in part to natural predation and general hazards 
along their migratory route. Exacerbating these challenges, however, is 
the continuing loss of habitat in the breeding grounds, staging areas, 
and wintering grounds of these species, particularly throughout the 
Caribbean, Latin America and Canada. Through the establishment of a 
matching grants program to fund projects that promote the conservation 
of these birds in the United States, Latin America, and Caribbean, the 
Neotropical Migratory Bird Conservation Act Grants Program provides a 
comprehensive approach to address the varied and significant threats 
facing the numerous species of migratory birds as identified in the 
North America Bird Conservation Initiative.
    The Neotropical Migratory Bird Conservation Act Grants Program has 
provided an effective framework for nations, states, local governments 
and other entities to work together cooperatively for the protection of 
neotropical migratory birds in the Western Hemisphere. It has a proven 
track record of reversing habitat loss and degradation and of advancing 
innovative management and habitat restoration strategies for the broad 
range of neotropical birds. Grants have gone to conservation programs 
in 31 states and 33 Latin American and Caribbean countries for projects 
that protect, research, monitor, and manage neotropical migratory bird 
populations and their habitats. Partner funds have contributed $80 
million since fiscal year 2002, far exceeding the 3:1 federal match 
requirement to nearly 4:1. In fact, for the 37 projects approved in 
fiscal year 2005, partners leveraged $17.6 million in funds against the 
$3.9 million appropriated by Congress.
    We urge the Interior Appropriations Subcommittee to prioritize 
fiscal year 2007 funding for the Neotropical Migratory Bird 
Conservation Act Grants Program at $5 million, the currently authorized 
level, an increase of $1 million from the appropriated amount in fiscal 
year 2006.
                                 ______
                                 
    Prepared Statement of the Arkansas Basin Development Association

    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association (ABDA).
    The Kansas ABDA representatives join with our colleagues from the 
other Arkansas River Basin states to form the multi-state Arkansas 
Basin Development Association. We fully endorse the summary statement 
presented to you by the Chairman of the Arkansas River Basin Interstate 
Committee.
    Public Law 108-137 authorized a 12-foot channel on the McClellan-
Kerr Arkansas River Navigation System. The Corps is now obligated to 
operate and maintain the system as a 12-foot channel. Over 90 percent 
of the system currently is adequate for a 12-foot channel. Deepening 
the remainder of the channel to 12 feet will allow carriers to place 43 
percent more cargo on barges, which will reduce the amount of fuel 
consumed and emissions released. Funds in the amount of $7.0 million 
were allocated in fiscal year 2005 with $1.5 million used to complete 
the Feasibility Study and Environmental Impact Statement with the other 
$5.5 million used on engineering, design, and construction activities. 
In conjunction with the deepening project the Corps is preparing a 
Basin Wide Master Plan that will include an integrated major 
maintenance construction and operational maintenance prioritized list 
for investment opportunities. Other environmental benefits include the 
creation of new aquatic habitat through new dike construction and the 
construction of Least Tern islands through beneficial use of dredged 
material.
    Therefore, we request $40 million to maintain the authorized depth 
by constructing dike structures to minimize dredging and dredging only 
necessary areas. This investment will increase the cost competitiveness 
of this low cost, environment-friendly transportation method and help 
us combat the loss of industry and jobs to overseas.
    The critical water resources projects in the Kansas portion of the 
Arkansas River Basin are identified below. The projects are 
environmental and conservation in nature and all have regional and/or 
multi-state impact. We are grateful for your past commitment to these 
projects.
    A. We ask for your continued support for this important Bureau of 
Reclamation project on behalf of the Wichita/South Central Kansas area:
    Equus Beds Aquifer Storage and Recovery Project.--This is the 
continuation of a Bureau of Reclamation project jointly endorsed by the 
City of Wichita, Groundwater Management District No. 2 and the State of 
Kansas. This model technology has proven the feasibility of recharging 
a major groundwater aquifer supplying water to nearly 600,000 
irrigation, municipal and industrial users. The demonstration project 
has successfully recharged more than one billion gallons of water from 
the Little Arkansas River. The project is essential to help protect the 
aquifer from on-going degradation caused by the migration of saline 
water.
    The Equus Beds are vital to the surrounding agricultural economy. 
Also, environmental protection of the aquifer, which this strategic 
project provides, has increasing importance to ensure quality water for 
the future since south central Kansas will rely to an even greater 
extent on the Equus Beds aquifer for water resources.
    The south-central Kansas economy including the Wichita MSA 
represents:
  --More than 20 percent of the state's employment.
  --More than one-third of the state's manufacturing employment and 
        payroll.
  --At least 20 percent of the state personal income.
    The quality of life and economic future for more than 20 percent of 
the state's population and economy is dependent upon the availability 
of reliable, high quality water resources from the Equus Beds.
    The State of Kansas supports the project as the needed cornerstone 
for the area agricultural economy and for the economy of the Wichita 
metropolitan area. The Chief Engineer of Kansas has authorized full-
scale construction.
    The aquifer storage and recovery project is a vital component of 
Wichita's comprehensive and integrated water supply strategy. The full 
scale design concept for the aquifer storage and recovery project calls 
for a multi-year construction program. Phase One is estimated to cost 
approximately $25 million and is scheduled for completion in 2007. The 
total project involving the capture and recharge of more than 100 
million gallons of water per day is estimated to cost $130 million over 
10 years. This is substantially less costly, both environmentally and 
economically, when compared with reservoir construction or other 
alternatives.
    We are grateful for your previous cost share funding during the 
demonstration phase, as a compliment to funds provided by the City of 
Wichita. As we enter the construction phase, we request continued 
Congressional support in two ways:
    1. House Bill 1327 was passed by the House of Representatives last 
year. The Senate passed a very similar bill, Senate Bill 1025. This 
legislation, or similar legislation, would authorize the project and 
also provide cost share funding up to 25 percent of the project cost to 
a maximum of $30 million. We request your support of this legislation 
authorizing the Aquifer Storage and Recovery Project as a Federal 
project and directing the Bureau of Reclamation to participate in its 
final design and construction to completion.
    2. Through continued cost share funding of the full-scale Aquifer 
Storage and Recovery Project within the limits of House Bill 1327 or 
similar legislation for fiscal year 2007.
    B. The Arkansas River Basin is a treasure that must be protected 
for future generations. However, we are experiencing decline in water 
quality due to sediment and nutrient loading. The quality of the water 
in the Arkansas River and its tributaries, including the numerous 
reservoirs in the system, is a reflection of its watershed and land use 
practices. It is imperative that the subbasins within the system are 
studied using the watershed approach and that protective remedies are 
identified and implemented to reverse the continuing decline in water 
quality. We recommend adding the following high priority watershed 
studies to the fiscal year 2007 budget:
    1. Walnut River (El Dorado Lake) Watershed Feasibility Study.--A 
reconnaissance study was conducted in July 2000 by the USACE, Tulsa 
District, which identified ecosystem restoration as a primary concern 
in the Walnut Basin. The Kansas Water Office entered into an agreement 
with the USACE to begin a Walnut River Basin Ecosystem Restoration 
Feasibility Study for the entire basin.
    Following the initial phase of the feasibility study, it was 
decided that focusing the study to a smaller geographic area would make 
more efficient use of existing local, state, and federal resources. The 
project was re-scoped to focus study efforts on protection and 
restoration of El Dorado Lake and its contributing watershed.
    Public water supply storage in El Dorado Lake is owned by the City 
of El Dorado and represents an important future regional water supply 
source for the Walnut Basin. The reservoir and its watershed have been 
designated by the Kansas Department of Health and Environment as high 
priority for Total Maximum Daily Load (TMDL) implementation for 
eutrophication (nutrients) and siltation. Fecal coliform bacteria is 
another high priority TMDL pollutant. Because of the importance of 
protecting both water quality and quantity in El Dorado Lake, and to 
more effectively target limited resources, KWO has partnered with the 
City of El Dorado to address long-term protection and restoration needs 
for the reservoir and its watershed, in cooperation with other local, 
state and federal agencies.
    Study efforts include addressing identified opportunities to reduce 
sedimentation in El Dorado Lake and meet the watershed total daily 
maximum load (TMDL) issues of sediment and eutrophication for the 
purpose of preserving existing water supply storage, restoring riparian 
and aquatic habitat in the lake and watershed.
    The fiscal year 2006 budget for this project in the amount of 
$200,000 is for continuation of the feasibility study. We support the 
President's proposed fiscal year 2007 budget which includes $80,000 for 
completion of the feasibility study in September 2007
    2. Grand (Neosho) Basin Reconnaissance Study.--A need exists for a 
basin-wide water resource planning effort in the Grand-Neosho River 
basin, apart from the issues associated with Grand Lake, Oklahoma. A 
federal interest has been determined from the reconnaissance study as a 
result from a Congressional add in fiscal year 2003 and another add was 
appropriated in fiscal year 2004. The Reconnaissance Report has been 
approved. Feasibility Cost Share Agreements will be executed in 2006. 
The study would support management efforts by Kansas and Oklahoma 
agencies to address watershed and reservoir restoration issues in the 
Grand Lake Watershed. Local interest exists for ecosystem restoration 
projects and flood damage reduction projects. We request funding in the 
amount of $450,000 in fiscal year 2007.
    C. Grand Lake Feasibility Study.--A need exists to evaluate 
solutions to upstream flooding problems associated with the adequacy of 
existing real estate easements necessary for flood control operations 
of Grand Lake, Oklahoma. A study authorized by the Water Resources 
Development Act of 1996 was completed in September of 1998 and 
determined that if the project were constructed based on current 
criteria, additional easements would be required. Section 449 of the 
WRDA of 2000 directed the Secretary to evaluate backwater effects 
specifically due to flood control operations on land around Grand Lake 
and authorizes a feasibility study at full Federal cost if the 
Secretary determines that Federal actions have been a significant cause 
of the backwater effects. The Tulsa District is preparing a letter 
report which will be submitted to the ASA(CW) for a determination on 
proceeding with a full federally financed feasibility study. If the 
ASA(CW) determines that Federal actions have been a significant cause 
of the flooding, feasibility study activities would be initiated at 
full Federal expense. Since Grand Lake is an integral component of a 
system flood control operation consisting of 11 principal reservoir 
projects in the Arkansas River basin, changes in the operations of the 
project or other upstream changes could have a significant impact on 
flood control, hydropower and navigation operations in the Grand 
(Neosho) River system and on the Arkansas River Basin system, as well. 
A feasibility study is necessary to determine the most cost-effective 
comprehensive solution to the real estate inadequacies. We urge you to 
provide $500,000 to fund feasibility studies for this important project 
in fiscal year 2007 and to direct the Corps of Engineers to execute the 
study at full federal expense. This project has been a Congressional 
add for the past four years, but there are no funds in the fiscal year 
2007 President's budget request to continue this project.
    D. Continuing Authorities Programs.--We support funding of needed 
programs including the Small Flood Control Projects Program (Section 
205 of the 1948 Flood Control Act, as amended), Aquatic Ecosystem 
Restoration (Section 206 of the 1996 Water Resources Development Act, 
as amended), Ecosystem Restoration (Section 1135 of the 1986 Water 
Resources Development Act, as amended) as well as the Emergency 
Streambank Stabilization Program (Section 14 of the 1946 Flood Control 
Act, as amended). Smaller communities in Kansas (Iola, Liberal, 
McPherson, Augusta, Parsons, Altoona, Kinsley, Newton, Arkansas City, 
Coffeyville and Medicine Lodge) have previously requested assistance 
from the Corps of Engineers under the Section 205 and Section 14 
programs. The City of Wichita also requests funding through these 
programs to address flooding problems. We urge you to support an 
increase of these programs to the $65 million programmatic limit for 
the Small Flood Control Projects Program, $35 million for Aquatic 
Ecosystem Restoration, $35 million for the Ecosystem Restoration 
Program and $25 million for the Emergency Streambank Stabilization 
Program.
    The Planning Assistance to States Program under section 22 of the 
Water Resources Development Act of 1974, as amended, provides federal 
funding to assist the states in water resource planning. The state of 
Kansas is grateful for previous funding under this program which has 
assisted small Kansas communities in cost sharing needed resource 
planning as called for in the Kansas State Water Plan. We request 
continued funding of this program at the $10 million programmatic limit 
which will allow the state of Kansas to receive the $500,000 limit.
    Finally, we are very grateful that both the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide on major public 
projects. Your continued support of these vital agencies, including 
funding, will be appreciated. Our infrastructure must be maintained and 
where needed, enhanced for the future.
    Mr. Chairman and Members of these Committees, thank you very much 
for the dedicated manner in which you have dealt with the Water 
Resources Programs and for allowing us to present our funding requests.
                                 ______
                                 
          Prepared Statement of the American Fisheries Society

    The American Fisheries Society (AFS) would like to provide input 
that may assist you in the task of determining the level of fiscal year 
2007 appropriations for the Department of the Interior's, Biological 
Research Discipline (BRD) of the U.S. Geological Survey (USGS), the 
Fisheries Program of the U.S. Fish and Wildlife Service (USFWS), the 
National Park Service, the Bureau of Reclamation (BOR), and the Bureau 
of Land Management (BLM). As the Nation's largest association of 
fisheries and aquatic science professionals with 9,000 members 
representing all states, commonwealths, and trust territories, we 
believe it is essential that interests of our members and our 
profession be considered in the appropriations process for agencies 
supporting fisheries and aquatic science and conservation. We ask this 
statement be included in the official record of the agency's 
appropriation hearings.
    The Nation's fisheries annually provide billions of dollars in 
recreational and commercial benefits. Millions of Americans and 
visitors spend hundreds of millions of hours fishing the country's 
rivers, streams, lakes, and marine coastal waters.
    Over the past few years the Congress has taken critically important 
actions to conserve these resources to ensure that their benefits will 
continue to be enjoyed by future generations. However, despite 
Congress' actions, our fisheries resources are at risk and in too many 
cases threatened. Additional funds are needed to better implement the 
management and research programs that are essential to reverse the 
current decline in many of our fisheries.
    Although we understand that this is a period of strongly competing 
government priorities, we also wish to note that robust research and 
technology development programs are the only means by which more 
effective and efficient fisheries management tools and actions can be 
developed and tested. Management and conservation decisions are only as 
good as the information upon which they are based and there is 
substantial evidence to suggest that better information is critically 
needed here. To address these needs the Society offers the following 
recommendations for your consideration.

                         U.S. GEOLOGICAL SURVEY

Biological Resources Discipline
    The Biological Resources Discipline (BRD) provides critical 
scientific research and information needed for the effective management 
and restoration of the Nation's inland, anadromous, and estuarine 
fisheries and aquatic resources. With no regulatory role, BRD provides 
high-quality unbiased science for our nation's natural resources 
decision makers.
    In light of past under funding of the BRD, AFS is disappointed over 
the fiscal year 2007 request of $172.5 million for the Biology 
component. This is a slight increase over the fiscal year 2006 budget, 
and it is still almost a $3 million decrease from the fiscal year 2004 
budget. AFS also notes that although recent BRD budgets show progress 
by tracking in the same direction as inflation, they still are not 
keeping -up with inflation and have not yet made up for the 20 percent 
decrease experienced in 1996.
    The Society is a strong supporter of BRD's Co-Operative Research 
Units (CRU). CRU is of particular importance to fishery research, 
restoration, and management are the Co-operative Research Units (CRU). 
We strongly support the $274,000 increase to this important program.

                    U. S. FISH AND WILDLIFE SERVICE

Fisheries Program
    The U.S. Fish & Wildlife Service works with others to conserve, 
protect, and enhance the nation's fishery resources and aquatic 
ecosystems for the benefit of the American people. The Fisheries 
Program safeguards these resources while helping to provide 
recreational opportunities for the nation's 50 million licensed 
anglers, as well as evaluates fish populations and their habitats and 
coordinates the restoration and recovery of aquatic populations, 
habitats, and ecosystems.
    The Society recommends the $3.859 million increase to the 
Cooperative Endangered Species Fund in mandatory appropriations. AFS 
also commends the fiscal year 2007 budget request for continuing to 
address the operations and management challenges faced by our aging 
National Fish Hatchery System, a system critical to fishery 
conservation, restoration, and recreation efforts, but that needs to be 
updated to function at its full capacity and achieve its management 
objectives. However, the total budget includes $114.6 million for the 
Fisheries program, which is a net program decrease of $2.1 million 
compared to 2006. Within this level of funding are program increases of 
$1.9 million for hatchery operations for endangered species recovery 
actions, $1.4 million for fish passage improvements, and an increase of 
$2.0 million for the National Fish Habitat Initiative. The Society 
recommends restoring the fiscal year 2007 Fisheries Program budget to 
the fiscal year 2006 level.

                       BUREAU OF LAND MANAGEMENT

Wildlife and Fisheries
    The BLM manages public lands for a range of uses, including 
recreation, conservation, livestock grazing, hunting and fishing, 
forest management and wildland fire management, cultural resource 
protection, and energy and mineral production. Many of the BLM lands 
are managed for fisheries as well as other uses. Fisheries program 
priorities for 2007 include: inland-fisheries conservation; subsistence 
fisheries management; Pacific Northwest fisheries, including culverted 
fish passage issues; multi-species conservation; aquatic indicators of 
land condition; and partnerships.
    While we feel that the President and Congress have made an effort 
to increase funding for the important role of conserving our Nation's 
aquatic resources, we feel more funds should be allocated to these 
programs in fiscal year 2007. AFS was encouraged in fiscal year 2005 to 
see an increase of $100,000 for these programs and $430,000 in fiscal 
year 2006. The fiscal year 2007 budget request of $12.418 is still an 
encouraging increase over the fiscal year 2006 budget. However, AFS 
recommends an increase of the Fisheries Line Item to back the fiscal 
year 2001 level of $12.8 million.
    AFS is also pleased to see an increase of $181,000 in the fiscal 
year 2007 budget for Threatened and Endangered Species Management.

                      MINERALS MANAGEMENT SERVICE

Outer Continental Shelf Program
    AFS supports MMS activities overseeing OCS leases, review of new 
exploration and development plans, examination of pipeline right-of-way 
applications, environmental assessments, and annual safety inspections 
of mineral extraction operations on-site. MMS OCS provides for safe and 
environmentally sound energy and mineral development on the OCS. AFS 
supports the MMS request of $159.365 million in fiscal year 2007 for 
OCS program activities, a net increase of $10,594 above the fiscal year 
2006 enacted budget.
    AFS is also pleased to see $250 million dedicated to the Coastal 
Impact Assistance Program in fiscal year 2007.

                         NATIONAL PARK SERVICE

Park Management
    For fiscal year 2007, AFS recommends supporting the Resource 
Stewardship Line Item at the level requested of $362.4 million. AFS 
also supports The 2007 budget includes an increase of $1.0 million for 
natural resource programs to complete establishment of inventory and 
monitoring programs, and equip managers with critical information about 
the ecosystems they manage.

                         BUREAU OF RECLAMATION

    The AFS is concerned with the President's request of $970.7 million 
in fiscal year 2007 for BOR. This is a net decrease of $132.5 million 
below the fiscal year 2006 enacted level. With the growing challenge of 
water quality and quantity, allocation and preservation, AFS wants to 
underscore the critical responsiblity the Bureau of Reclamation and 
other Federal agencies have in managing our water resources and their 
associated ecosystems and species for the public good, including 
compliance with the Endangered Species Act.
    The Society appreciates your consideration of our view. We welcome 
the opportunity to provide additional information and advice regarding 
fisheries efforts of the Department of Commerce.
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies

    On behalf of our America's fish and wildlife agencies, I urge the 
Subcommittee on Interior and Related Agencies to support funding in the 
amount of $85 million for the State Wildlife Grants Program in the 
fiscal year 2007 Interior and Related Agencies Appropriations Act.
    The State Wildlife Grants Program is our nation's core program for 
keeping wildlife from becoming endangered. State fish and wildlife 
agencies enjoy a strong partnership with the federal government in 
managing our nation's wildlife resources. Working together, we are able 
to ensure robust fish and wildlife populations and keep species from 
declining to the point of becoming endangered. State Wildlife Grants is 
an integral element of this partnership, providing the federal 
government's share of support for proactive on-the-ground conservation 
projects aimed at declining fish and wildlife species and their 
habitats. State Wildlife Grants is not just a grants program. It truly 
is a core program of the Department of Interior for advancing a 
pressing national need.
    The President's budget includes $74.7 million, an increase of $5 
million above the fiscal year 2006 enacted level of $68.5 million. We 
appreciate the Administration's continued support for this program as a 
core component of their collaborative conservation agenda.
    Although the budget is tight, America's fish and wildlife agencies 
are recommending that Congress provide a funding level of at least $85 
million in order to restore this program back up to the highest level 
of funding it has ever received, in fiscal year 2002. Consistent 
funding is essential to the long-term success of this program, and the 
completion of wildlife action plans in every state and territory only 
underscores the need for adequate and reliable resources. A funding 
level of $85 million would send an important message about the 
Congress's commitment to following through on providing the support 
needed to implement the wildlife action plans. We are pleased that 170 
Representatives have already formally signed on to this commitment in 
the form of a ``dear colleague'' and we hope you will match that strong 
demonstration of support.
    We also urge your consideration of additional language to provide 
an incentive for states to cooperate on projects with other states as 
well as federal agencies when implementing the actions in their plans. 
Allowing implementation projects that include several states working 
together to implement actions identified in their comprehensive state 
wildlife strategies at a 75:25 match (vs. 50:50) will provide greater 
benefits to the nation. In addition, allowing federal funds to be used 
as a match for a particular State Wildlife Grants project will 
encourage greater cooperation between a federal entity within that 
state and the state wildlife agency in implementing the strategies/
plans together. The strategies/plans have the potential to encourage 
everyone to work together resulting in a greater cumulative impact as 
well as avoiding costly duplication and unnecessary overlap.
    The President's budget includes a proposal to set aside $5 million 
of the new funds recommended for State Wildlife Grants for a new 
program of competitive grants. While we appreciate the intent to reward 
effective conservation proposals, we believe that the time is not yet 
right for a new competitive program to be created within State Wildlife 
Grants. The creation of such a program should be predicated on the 
attainment of higher levels of funding. State Wildlife Grants has 
provided a tremendous enhancement to the capacity of every state to 
address wildlife conservation. While we cannot currently support the 
creation of a competitive funding program, we are committed to making 
any programs that are enacted by Congress a success. If Congress deems 
that this is an appropriate course of action, we will work together 
with the Fish and Wildlife Service to make it a success.
    In closing, I again extend the appreciation of America's wildlife 
agencies for your continued support for the state-federal wildlife 
conservation partnership. We sincerely urge you to provide our 
requested level of $85 million for State Wildlife Grants.
                                 ______
                                 
       Prepared Statement of the Arkansas Game & Fish Commission

    We are seeking your support for the President's fiscal year 2007 
Budget Request of $3 million to support the National Fish Habitat 
Initiative (NFHI) and, furthermore, we ask you to support an additional 
$3 million to be appropriated to the U.S. Fish and Wildlife Service's 
Southeast Fisheries Program for the Southeast Aquatic Resources 
Partnership (SARP). The NFHI, led by the International Association of 
Fish and Wildlife Agencies in partnership with the U.S. Fish and 
Wildlife Service, is a nationwide fisheries habitat restoration plan 
modeled on the successful North American Waterfowl Management Plan. The 
SARP is developing a Southeast Aquatic Habitat Plan that will guide the 
implementation of the NFHI on a regional scale and serve as a model for 
other regions of the country. The Southeast Aquatic Habitat Plan will 
identify and establish Fish Habitat Partnerships that will deliver the 
objectives of the NFHI in the Southeast.
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the Southeastern United States. 
This partnership developed because (1) the Southeast has the highest 
diversity of aquatic species and habitats of any region in the country, 
(2) these resources are facing serious threats to their future 
existence, and (3) no single State or Federal agency has the necessary 
resources and authority to address this impending aquatic crisis. It is 
only by working together through partnerships that we will make a 
difference. SARP includes the fish and wildlife agencies from 13 States 
(Alabama, Arkansas, Florida; Georgia, Kentucky, Louisiana, Mississippi, 
Missouri, North Carolina, Oklahoma, South Carolina, Tennessee, and 
Texas), the Gulf and Atlantic States Marine Fisheries Commissions, the 
Gulf of Mexico and South Atlantic Fishery Management Councils, the U.S. 
Fish and Wildlife Service, and NOAA Fisheries.
    This unique and focused effort is poised to deliver a new regional 
approach to aquatic conservation for future generations. Securing $3 
million in additional funding for the SARP is critical for the 
successful implementation of the Southeast Aquatic Habitat Plan.
    Thank you for your consideration of this request.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    Thank you for this opportunity to provide the American Geological 
Institute's perspective on fiscal year 2007 appropriations for 
geoscience programs within the Subcommittee's jurisdiction. We ask the 
Subcommittee to support the well-informed, yet fiscally responsible 
increases in the Administration's budget proposal for the Minerals 
Management Services (MMS), the Bureau of Land Management's Energy and 
Mineral Management program and the Smithsonian Institution. AGI also 
supports new funding for fixed costs and a few high priority programs 
within the United States Geological Survey (USGS). The high priority 
programs include a new Integrated Multi-Hazards Demonstration Project, 
the National Streamflow Information Program, the Energy Resources 
Program and some new funding for the Landsat Continuity Mission.
    Regrettably, the Administration also proposes significant cuts to 
the USGS mineral resources and water programs. If the President's 
request were enacted, the USGS would receive a total budget of only 
$945 million, a 2 percent decrease compared to last year's funding, 
while the Mineral Resources Program would receive a $22 million cut, 
leaving the program with only about $30 million in fiscal year 2007 and 
the Water Resources Program would be cut by about $7.4 million. If 
enacted, these reductions would hamper the Survey's ability to carry 
out its important objectives to monitor environmental conditions and 
provide resource assessments for economic development and national 
security. The value of domestically processed nonfuel mineral resources 
is estimated to be about $478 billion and the USGS Mineral Resources 
Program is the only entity, public or private, that provides an 
analysis and assessment of the raw materials and processed minerals 
accessible from domestic and global markets. Specifically, we ask the 
Subcommittee to restore funds to the Mineral Resources Program and the 
Water Resources Program and to support a $1.2 billion overall budget 
for USGS. This budget would allow essential, but consistently under 
funded, programs throughout the agency to fulfill their basic mission 
and such a request is supported by the 69 organizations of the USGS 
Coalition. AGI is a charter member of the USGS Coalition.
    For the Environmental Protection Agency (EPA), the proposed fiscal 
year 2007 is $7.3 billion, a 5.1 percent decrease from last year with 
significant cuts for state water programs. AGI supports full funding 
for water programs in EPA and USGS, given the importance of clean and 
readily available water for our citizens, industries, local to federal 
government agencies and the environment.
    AGI is a nonprofit federation of 44 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists who work in industry, 
academia and government. The institute serves as a voice for shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role that the geosciences play in society's use of resources and 
interaction with the environment.

                         U.S. GEOLOGICAL SURVEY

    For the fifth year in a row, the USGS faces cuts in the 
Administration's request. AGI thanks the Subcommittee for its record of 
restoring critical funds and recognizing the Survey's essential value 
to the nation. The USGS is a critical federal science agency and it 
should receive increased funding like the proposed increases in the 
President's American Competitiveness Initiative for the National 
Science Foundation and the Office of Science within the Department of 
Energy. The USGS performs complementary research, analysis and 
education and should be part of the President's initiative to advance 
innovation, reduce imported oil dependencies and ensure American 
competitiveness in science and technology.
    Virtually every American citizen and every federal, state, and 
local agency benefits either directly or indirectly from USGS products 
and services. As was made clear by the National Research Council report 
Future Roles and Opportunities for the U.S. Geological Survey, the 
USGS's value to the nation goes well beyond the Department of the 
Interior's stewardship mission for public lands. USGS information and 
expertise address a wide range of important problems facing this 
nation: earthquakes and floods, global environmental change, water 
availability, waste disposal, and availability of energy and mineral 
resources. Some of the most important activities of the Survey serve 
the entire nation. At the same time, AGI recognizes that the Survey 
does have a responsibility to provide scientific support for its sister 
land management agencies at Interior, an important mission that needs 
to be well executed if land management decisions are to be made with 
the best available scientific information. It is imperative that these 
missions be recognized and valued within the Department and by the 
Administration. AGI asks the Subcommittee to continue its efforts to 
help the Administration better understand the Survey's value to the 
nation as a whole
    Mineral Resources Program.--This highly regarded research program 
is the nation's premier credible source for regional, national and 
global mineral resource and mineral environmental assessments, 
statistics and research critical for sound economic, mineral-supply, 
land-use and environmental analysis, planning and decision-making. AGI 
urges the Subcommittee to reject the Administration's requested cuts to 
this program and to fund it at the fiscal year 2005 appropriated level 
of $54 million. The huge cut, leaving the program with less than $30 
million in fiscal year 2007 would decimate the program. It would cost 
about 240 full time positions and would eliminate or reduce global 
mineral resource assessments of mineral commodities, research on 
industrial minerals, research on inorganic toxins, materials flow 
analyses, and the Minerals Resources External Research program. The 
essence of the program would be jeopardized at a time when mineral 
products account for a rapidly growing and valuable commodity of the 
U.S. economy.
    The Mineral Resources Program (MRP) has 6 divisions with offices 
across the United States working on a broad range of initiatives to 
secure the nation's economic base and environmental welfare. Each 
month, the Minerals Information Services of the MRP responds to over 
2,000 telephone inquiries and more than 90,000 email or facsimile 
inquiries from the federal government, state agencies, domestic and 
foreign agencies, foreign governments and the general public. Cutting-
edge research by MRP scientists investigates the role of microbes in 
the geochemical cycles of arsenic, mercury, lead and zinc to understand 
the transport and accumulation of health-threatening toxins related to 
these elements and to distinguish their natural or anthropogenic 
sources. MRP scientists also investigated and prepared a report on the 
asbestos-bearing debris in the aftermath of the World Trade Center 
disaster. The Global Mineral Resource Assessment Project of the MRP 
provides unbiased and timely information about the current and future 
availability of mineral resources around the world, which is needed to 
understand and anticipate economic, health, environmental and political 
factors that will affect how these resources are used in this 
increasingly interconnected world.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other federal, state and 
local government entities, foreign governments, private companies and 
the general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land use decisions posed by industry, government and private land 
owners. We urge the Subcommittee to restore the Mineral Resources 
Program to its fiscal year 2005 level of $54 million so that it may 
perform its core missions effectively and efficiently.
    National Cooperative Geologic Mapping Program.--AGI is encouraged 
by the Administration's continued requests for small annual increases 
for the National Cooperative Geologic Mapping Program (the fiscal year 
2007 request is for $25.4 million) and values Congress' past support 
for much larger increases. This important partnership between the USGS, 
state geological surveys, and universities provides the nation with 
fundamental data for addressing natural hazard mitigation, 
environmental remediation, land-use planning, and resource development. 
The program was authorized (Public Law 106-148) to grow by about 10 
percent to 20 percent per year from a starting level of $28 million in 
1999 to $64 million in 2005. Re-authorization at $64 million per year 
over the next 5 years is currently being considered in Congress. AGI 
strongly supports the increased funding being considered by Congress 
because the program provides a timely basis for assessing water 
availability and quality, risks from hazards and other major land and 
resource-use issues that are of increasing prominence in many states.
    Natural Hazards.--A key role for the USGS is providing the 
research, monitoring, and assessment that are critically needed to 
better prepare for and respond to natural hazards. The tragic 
earthquake/tsunami in the Indian Ocean, hurricanes Katrina and Rita 
striking the Gulf Coast and the massive earthquake in Pakistan, remind 
us of the need for preparation, education, mitigation and rapid 
response to natural hazards. A 2006 National Academies report entitled 
Improved Seismic Monitoring estimates that increased seismic monitoring 
leads to increased future savings from the damaging effects of 
potential earthquakes. Given recent events and this timely report, AGI 
strongly supports the Administration's request for increased funding 
for Earthquake, Volcano and Landslide Hazards and appreciates Congress' 
past support for these programs. With great forethought, the Earthquake 
Hazards Reduction Authorization Act of 1999 called for a significant 
federal investment in expansion and modernization of existing seismic 
networks and for the development of the Advanced National Seismic 
System (ANSS)--a nationwide network of shaking measurement systems 
focused on urban areas. ANSS can provide real-time earthquake 
information to emergency responders as well as building and ground 
shaking data for engineers and scientists seeking to understand 
earthquake processes. ANSS has been allocated about 10 percent of its 
authorized funding level per year, which is not nearly enough to deploy 
the 7,000 instruments called for in the law. Currently, 66 are 
operating and there is much more work that needs congressional support. 
We would like to commend the Subcommittee for your leadership in 
securing previous increases for ANSS and ask for additional increases 
in fiscal year 2007. The National Earthquake Hazards Reduction Program 
(NEHRP) was reauthorized in October, 2004 and AGI supports the 
appropriation of full funding for this vital program. We hope that all 
of these under funded systems will receive additional support to meet 
their timely goals of better protection and mitigation of earthquake 
hazards long before we need to react.
    Water Programs.--The president's request calls for the termination 
of the Water Resources Research Institutes. AGI strongly encourages the 
Subcommittee to oppose these reductions and to fully support this 
program at its small, but effective fiscal year 2005 level of $6.4 
million. AGI is pleased that the Administration supports increased 
funding for stream gages and the National Streamflow Information 
program.
    Homeland Security.--Another troubling aspect of the President's 
request is the lack of funding for the USGS activities in support of 
homeland security and the war on terrorism overseas. All four 
disciplines within the Survey have made and continue to make 
significant contributions to these efforts, but the fiscal year 2007 
request does not provide any direct funding. Instead, those costs must 
be absorbed in addition to the proposed cuts. AGI encourages the 
Subcommittee to recognize the Survey's important role in homeland 
security and ensure adequate support for its newfound responsibilities.

                        SMITHSONIAN INSTITUTION

    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the Subcommittee to build up Smithsonian research with steady 
increases that are a tiny fraction of the overall budget, but would 
dramatically improve the facilities and their benefit to the country. 
We support the Administration's request for increased funding for the 
Smithsonian in fiscal year 2007.

                         NATIONAL PARK SERVICE

    The national parks are very important to the geoscience community 
as unique national treasures that showcase the geologic splendor of our 
country and offer unparalleled opportunities for both geoscientific 
research and education of our fellow citizens. The National Park 
Services's Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI would like to see additional 
support for geological staff positions to adequately address the 
treasured geologic resources in the national parks.
    Thank you for the opportunity to present this testimony to the 
Subcommittee. If you would like any additional information for the 
record, please contact me at 703-379-2480, ext. 228 voice, 703-379-7563 
fax, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="780a170f191638191f110f1d1a56170a1f">[email&#160;protected]</a>, or 4220 King Street, Alexandria VA 22302-1502.
                                 ______
                                 
           Prepared Statement of the American Hiking Society

    Mr. Chairman and members of the Subcommittee, American Hiking 
Society is the only national nonprofit organization that promotes and 
protects foot trails and the hiking experience. With a strong 
membership base of individual hikers and hiking clubs, American Hiking 
represents half a million outdoors people and serves as the voice of 
the American hiker. We appreciate the Subcommittee's past support for 
trails and recreation and urge you to support strong funding that will 
keep our trails open, safe, and enjoyable today and for future 
generations. American Hiking makes the following trail and recreation 
funding recommendations for fiscal year 2007:
National Park Service
    Rivers, Trails and Conservation Assistance program: $10.1 million
    National Trails System: $10.68 million, plus $1.25 million for GIS 
Network
    Challenge Cost-Share Program: $4.5 million Traditional CCSP (one-
third of $4.5 million for National Trails System), plus $2.5 million 
for Lewis & Clark Bicentennial
USDA Forest Service
    Recreation Management, Heritage and Wilderness: $275 million
    Capital Improvement and Maintenance--Trails: $90 million
Bureau of Land Management
    Recreation and Wilderness Management: $70 million
    National Landscape Conservation System: $46 million
U.S. Fish & Wildlife Service
    National Wildlife Refuge System: $417.5 million
Land and Water Conservation Fund (LWCF)
    Stateside LWCF: $100 million
    Federal LWCF: $220 million, including $23.7 million for National 
Scenic and Historic Trails, as follows: Appalachian NST: $5.6 million 
(Forest Service); Continental Divide NST: $1.4 million (BLM); Ice Age 
NST: $4 million (NPS); Florida NST: $5 million (Forest Service); 
Pacific Crest NST: $5.25 million (Forest Service), $1.5 million (BLM); 
Overmountain Victory NHT: $195,000 (Forest Service); Oregon NHT: $1 
million (BLM).

         FISCAL YEAR 207 TRAIL & RECREATION FUNDING PRIORITIES

    Our nation's trails provide unparalleled opportunities for hiking 
and other outdoor recreation activities, enjoyment and appreciation of 
natural and cultural resources, healthy physical activities, 
alternatives for transportation, and economic development for local 
communities. Recreation has increased dramatically in importance for 
the American people, yet the federal investment for trails, recreation, 
and land conservation has not increased accordingly. This lag has 
resulted in high maintenance backlogs, deteriorating infrastructure, 
loss of open space, and negative impacts to resources.
NPS, Rivers, Trails, and Conservation Assistance Program (RTCA): $10.1 
        million
    The RTCA program is a technical assistance program that implements 
the natural resource conservation and outdoor recreation mission of the 
NPS. RTCA yields enormous conservation and recreation benefits to 
communities by fostering partnerships between federal, state, and local 
interests. The resulting cooperative efforts restore rivers and 
wildlife habitat, develop trail and greenway networks, preserve open 
space, and revitalize communities--all contributing to improved quality 
of life and close-to-home recreation. On average, the program partners 
protect nearly 700 miles of rivers, create more than 1,300 miles of 
trails, and conserve more than 61,000 acres of open space each year. 
RTCA is a very successful and popular program, but its funding has 
remained relatively flat during the last decade and lagged well behind 
the rate of inflation. The program's declining real budget has resulted 
in significant cuts to staff and reduced staff participation in on-the-
ground projects. RTCA requires at least a $2 million increase to remedy 
the program's continued erosion, compensate for losses due to 
inflation, and enable the program to respond to growing needs and 
opportunities in communities throughout the country.
NPS, National Trails System: $10.68 million, plus $1.25 million for GIS 
        network
    The NPS administers eighteen of the twenty-four National Scenic and 
Historic Trails. For most of these trails, barely one-half of their 
congressionally authorized length and resources are protected and 
available for public use. A minimum of $10.68 million in fiscal year 
2007 is crucial for resource protection, trail maintenance, 
interpretation, and volunteer coordination and support. In addition, 
NPS requires $1.25 million to continue work on a Geographic Information 
System network for the National Trails System. American Hiking thanks 
the Subcommittee for its support of the National Trails System and 
urges you to increase funding to help complete and protect these 
national treasures. American Hiking Society endorses the specific 
funding requests submitted by the Partnership for the National Trails 
System.
USDA Forest Service, Recreation Management, Heritage and Wilderness: 
        $275 million
    Although recreation makes up the greatest use of National Forest 
System lands and the largest share (60 percent) of the Forest Service's 
contribution to the Gross Domestic Product, recreation remains woefully 
underfunded and understaffed. Only about 10 percent of the Forest 
Service budget is dedicated to recreation. The Forest Service requires 
increased funding for recreation management and wilderness to protect 
critical resources; upgrade recreation facilities; reduce the $200+ 
million deferred maintenance backlog; augment on-the-ground recreation 
staff; improve recreation resource analyses and planning; and more 
effectively utilize partnerships and volunteers. The President's fiscal 
year 2007 proposed funding level, excluding any cost of living 
increases or inflationary pressures, would result in a program 
reduction of $14.3 million from fiscal year 2006.
Forest Service, Capital Improvement and Maintenance--Trails: $90 
        million
    The Forest Service manages 133,000 miles of trails and requires 
increased funding to restore and maintain these thousands of trail 
miles; reduce the $99 million trails maintenance backlog and address 
the $99.2 million capital improvement construction needs for trails; 
improve trail infrastructure; prevent and mitigate resource impacts; 
and provide safe, high-quality recreational experiences for millions of 
hikers and other trail enthusiasts. The President's fiscal year 2007 
proposed funding level, excluding any cost of living increases or 
inflationary pressures, would result in a program reduction of $15.6 
million from fiscal year 2006. We request $11.48 million as a separate 
budgetary item in addition to the Administration's request specifically 
for the Continental Divide, Florida, and Pacific Crest National Scenic 
Trails and the Nez Perce National Historic Trail as outlined by the 
Partnership for the National Trails System.
BLM, Recreation Management: $70 million
    The BLM supports a broad range of recreational opportunities within 
its multiple use mission yet continues to receive very limited funding 
for recreation. BLM is focusing on a comprehensive travel management 
approach to managing roads and trails, providing adequate and 
appropriate public access, and has generated many collaborative 
partnerships for trails. However, the BLM faces daunting challenges 
with a growing deferred maintenance backlog for upkeep of more than 
15,500 miles of trails. BLM is also facing critical inventory, planning 
and management challenges as it manages a staggering network of an 
estimated 600,000 miles of roads, trails, routes and ways available for 
public use--with 80,000 miles maintained and signed. Increased funding 
will support the development of travel management plans, interpretation 
projects, stewardship education, outreach projects, expansion of 
partnerships, and the protection of natural and cultural resources 
impacted by increased recreational use.
BLM, National Landscape Conservation System (NLCS): $46 million
    Basic Operations and Maintenance, Law Enforcement, Resource 
Monitoring, and Cultural Resource Protection: We urge the subcommittee 
to increase the Administration's fiscal year 2007 budget for the NLCS 
by $11.3 million, for operations and maintenance, to provide a total of 
at least $46 million to conserve the unique National Monuments, 
Conservation Areas, Trails, Rivers, Wilderness, and Wilderness Study 
Areas that comprise the 26 million-acre System. This would restore 
funding levels to those proposed by the President in fiscal year 2006. 
Priority unmet needs include law enforcement, resource monitoring, and 
cultural resource protection. Adequate funding for fiscal year 2007 is 
critical, as the BLM will need to implement numerous Resource 
Management Plans for areas in the System. We also ask the committee to 
support any member requests for additional funding for NLCS units in 
their districts. American Hiking endorses the specific funding requests 
for National Scenic and Historic Trails submitted by the Partnership 
for the National Trails System.
    Crucial Acquisitions.--We urge the committee to add $5.1 million to 
purchase inholdings and lands adjacent to NLCS areas that are 
threatened by development, including Colorado's Canyons of the Ancients 
National Monument and McInnis Canyons NCA, California's Carrizo Plain 
National Monument, the Pacific Crest Trail and Cascade-Siskiyou 
National Monument in Oregon, and the Continental Divide Trail in New 
Mexico.
    Accountability and Transparency.--We urge the committee to promote 
greater transparency through budgeting and reporting. Congress should 
require BLM to provide a cross-cut budget for NLCS that includes 
subactivity accounts, similar to that published in the fiscal year 2002 
DOI budget, which clearly listed funding for specific activities within 
specific NLCS units. The BLM's recent National Scenic and Historic 
Trails Strategy and Work Plan recognized the ``. . . need for a 
subactivity account . . .'' by emphasizing that ``. . . In order to 
ensure adequate funding to properly protect congressionally recognized 
national trail resources and monitor success, this objective eliminates 
conflict of purpose and will provide a mechanism to improve funding and 
identify and track use of designated funds.'' To help Congress and the 
public understand the needs of the NLCS and how funds were spent, 
Congress should require BLM to provide expenditure and accomplishment 
reports on NLCS areas, like Monuments, Conservation Areas and National 
Scenic and Historic Trails, starting with reports for fiscal year 2006.
U.S. Fish & Wildlife Service, National Wildlife Refuge System (NWRS): 
        $417.5 million
    The NWRS protects countless species of wildlife, fish, plants, and 
critical habitat, provides recreational opportunities for nearly 40 
million visitors annually, and continues to face significant budget 
shortfalls. The operations and maintenance backlog for the system 
totals about $2.7 billion. Approximately 200 refuges do not have any 
staff. A minimum increase of $16 million above the fiscal year 2006 
appropriation is necessary to prevent ``no net loss'' for the system, 
meet cost of living increases and inflationary pressures, and keep 
refuges from cutting public use programs. The NWRS uses its 
approximately 2,500 miles of land and water trails to deliver its 
congressionally determined six priority wildlife dependent recreation 
activities.
Land and Water Conservation Fund (LWCF): $100 million Stateside; $220 
        million Federal
    The LWCF helps create parks, protect trails and open spaces, 
preserve wilderness and wildlife habitat, and enhance recreational 
opportunities. While LWCF funds have been cut severely, the need for 
open space and recreation has soared. LWCF has helped create parks for 
people to enjoy in 98 percent of counties in America and has provided 
protection for more than five million acres of land and water areas 
across the country. Authorized at $900 million annually, LWCF is one of 
the most important conservation tools ever designed and is critical to 
the future protection of national trails. We strongly oppose the 
Administration's recommendation to terminate the stateside LWCF 
program.
    American Hiking is joined by many Representatives and Senators of 
both parties in strongly opposing the Administration's proposal to 
raise $800 million to help fund rural roads and schools by selling off 
national forests and other public lands, our nation's pride and legacy.

                               CONCLUSION

    Volunteer contributions are essential to trails and recreation 
programs, and American Hiking and its members and partners contribute 
hundreds of thousands of hours worth millions in labor, to help 
maintain our nation's trails. However, an increase in volunteerism on 
public lands must not be perceived as a panacea to agency budget 
constraints. American Hiking is coordinating more than 100 week-long 
Volunteer Vacation trail maintenance trips in 2006 on our treasured 
national parks, forests, and other public lands. On June 3, 2006, 
American Hiking will coordinate the fourteenth National Trails Day 
(NTD) to raise public awareness and appreciation for trails, with more 
than one thousand NTD events nationwide to celebrate and maintain 
trails. American Hiking Society members and outdoorspeople nationwide 
appreciate the Subcommittee's support for trail and recreation in the 
past and look forward to continued strong support. Thank you for 
considering our request.
                                 ______
                                 
           Prepared Statement of the American Hiking Society

    I am writing on behalf of American Hiking Society to urge your 
support for trails, recreation, and land conservation in the fiscal 
year 2007 Interior Appropriations bill. We are very concerned about 
some of the deep cuts for trail and recreation programs proposed in the 
Administration's fiscal year 2007 budget request. Increased funding is 
crucial to keeping our trails open, safe, and enjoyable today and for 
future generations. We respectfully request the following funding 
levels in fiscal year 2007:
  --$10.1 million for the National Park Service's (NPS) Rivers, Trails 
        and Conservation Assistance program to help communities manage 
        and protect their recreational and natural resources. Ongoing 
        funding shortages continue to erode RTCA's real budget and 
        reduce essential services of this excellent federal technical 
        assistance program.
  --$10.5 million for the 18 national scenic and historic trails 
        administered by the NPS; plus $1.25 million for a Geographic 
        Information System network for the national trails.
  --$275 million for USDA Forest Service Recreation Management, 
        Heritage, and Wilderness, and $90 million for Capital 
        Improvement and Maintenance for Trails to protect resources, 
        reduce the maintenance backlog, augment on-the-ground 
        recreation staff, leverage volunteers, and maintain trails. 
        These two programs each face about a $15 million cut in the 
        Administration's request, which would adversely affect critical 
        trail and recreation needs across the country.
  --$70 million for Bureau of Land Management Recreation and Wilderness 
        Management and an $11.3 million increase for the National 
        Landscape Conservation System to manage rapidly expanding 
        recreational use while protecting natural and cultural 
        resources. We urge the Interior Appropriations Subcommittee to 
        establish high standards for accountability and transparency in 
        the BLM's budget.
  --$220 million for the Federal side of the Land and Water 
        Conservation Fund (LWCF); $100 million for Stateside LWCF. We 
        vigorously oppose the Administration's recommendation to 
        terminate the state assistance program, a vital tool that 
        provides close-to-home recreational opportunities for all 
        Americans.
    In addition, we strongly oppose the Administration's proposal to 
help fund rural roads and schools by selling off national forests and 
other public lands, our nation's pride and legacy.
    American Hiking Society is a national organization that promotes 
and protects foot trails and the hiking experience. Thank you for your 
support and considering this request.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences requests that 
Congress provide the United States Geological Survey (USGS) with $1.2 
billion in fiscal year 2007, with at least $200 million for the 
Biological Resources Discipline.
    The funding we request would restore proposed cuts to important 
science programs, provide a modest but needed inflation adjustment, and 
implement important science and information dissemination initiatives. 
This funding would also help USGS address the cost of maintaining 
research infrastructure.
    The USGS provides independent research, data, and assessments 
needed by public and private sector decision-makers. The Survey's 
unique combination of biological, geographical, geological and 
hydrological research programs enable USGS scientists to utilize 
innovative interdisciplinary research techniques to answer important 
questions.
    USGS scientists do not work in isolation. Through offices located 
in every state and partnerships with more than 2,000 federal, state, 
local, tribal, and private organizations, the USGS has built the 
capacity to leverage additional research expertise. For example, 
through the Cooperative Research Units program USGS scientists are 
stationed on university campuses. This proximity to academic 
researchers brings additional intellectual and technical resources to 
work on the biological, ecological, and natural resource questions USGS 
seeks to answer. The value of Cooperative Research Units extends beyond 
their immediate research productivity, however. Cooperative Research 
Units are a vital component of our nation's education and training 
infrastructure. These research units enable future natural resource 
professionals to gain the skills and experience government agencies 
need. Furthermore, Cooperative Research Units are one of USGS' 
mechanisms for providing data and technical assistance to local, state, 
and national decision-makers.
    Natural resource managers require reliable, relevant, and timely 
information. The Biological Informatics Program develops and applies 
innovative technologies and practices to the management of biological 
data, information, and knowledge. Increased funding for the USGS would 
enable the Biological Informatics Program to continue on-going 
activities and begin to implement initiatives the resource management 
and research communities have identified as priorities. For instance, 
new nodes could be added to the National Biological Information 
Infrastructure program.
    The NatureServe program provides the scientific basis for wise 
natural resources management. Together with its network of sate Natural 
Heritage programs, NatureServe provides valuable information about rare 
species and threatened ecosystems to numerous federal and state 
agencies to help them make informed natural resource management 
decisions. The proposed $1.0 million investment in ensuring the quality 
and consistency of this national data resource is estimated to leverage 
$40 million nationwide, primarily from state and private sources.
    USGS biological research programs gather important data and 
information that academic, private sector, or other government 
scientists do not or cannot collect. For instance, a clear national 
priority is the prevention and mitigation of economic losses from non-
native species invading new environments. USGS research helps guide our 
understanding of how these invasive species, such as the zebra mussel, 
snakehead fish, and tamarisk, colonize new environments. Decision-
makers, whether a private land owner or a resource manager working for 
a government agency, utilize USGS science to develop action plans to 
combat invasive species.
    USGS biologists conduct impartial research that makes it possible 
to assess the vitality of waterfowl, songbirds, large mammals, 
terrestrial plants, amphibians, and their habitats. These data 
subsequently inform state and federal agency conservation planning and 
management. As an example, USGS research allows scientists to assess 
the vitality of bird populations, determine habitat requirements, and 
map migration routes. This information is increasingly important to 
public health officials concerned with the potential spread of diseases 
that may be transmitted from wild animals to humans or domesticated 
animals. Indeed, included in the President's fiscal year 2007 budget 
request is $3.2 million for surveillance of migratory waterfowl for 
avian flu.
    The fiscal year 2007 budget request does not fully fund ``fixed'' 
cost increases. We encourage the committee to fully fund these 
expenses. Without full funding for these costs, USGS science programs 
would likely be forced to reprogram funds that would otherwise support 
important research.
    An fiscal year 2007 appropriation of $1.2 billion for the USGS and 
at least $200 million for the Biological Resources Discipline would 
enable the USGS to: maintain current research efforts; restore $7.3 
million in proposed terminations of on-going research; provide at least 
a $1.5 million increase to the Cooperative Research Units program; 
provide $1.0 million for the NatureServe program; provide funding for 
fixed cost increases; provide $3.2 million to support surveillance of 
waterfowl for avian flu; support for a new USGS-wide natural hazards 
initiative; and, provide a modest inflation adjustment.
    Thank you for your thoughtful consideration of this request. If you 
require additional information, please contact Robert Gropp at 202-628-
1500.
                                 ______
                                 
  Prepared Statement of the American Institute of Hydrology; American 
Rivers; American Society of Agronomy; American Water Works Association; 
 Association of American State Geologists; Association of Metropolitan 
 Water Agencies; Association of State and Interstate Water; Pollution 
  Control Administrators; Clean Water Action; Crop Science Society of 
 America; The Groundwater Foundation; The H. John Heinz III Center for 
 Science, Economic and the Environment; National Association of Clean 
Water Agencies; Natural Resources Defense Council; The National Ground 
 Water Association; Sierra Club; Soil Science Society of America; and 
                      Water Environment Federation

    We are writing to urge you to provide increased funding for the 
National Water Quality Assessment Program (NAWQA) and the Ground-Water 
Resources Program within the budget for the U.S. Geological Survey in 
the fiscal year 2007 Interior, Environment and Related Agencies 
Appropriations Bill. Specifically, we urge that you provide $70 million 
for the NAWQA program and $8.5 million for the Ground-Water Resources 
Program. These amounts would enable both programs to maintain program 
capabilities while meeting cost increases due to inflation.
    One of the most important challenges we face as a Nation in the 
coming decades is the management of water resources to provide 
sufficient quantities of clean and safe water to meet the needs of our 
growing population, agricultural and industrial demand, and 
environmental and recreational needs. Two programs within the U.S. 
Geological Survey conduct basic scientific research on critical surface 
and ground water resources to assist policy-makers in making informed 
resource allocations decisions.
    NAWQA was established to provide consistent and comparable 
information across the nation on water-quality conditions and ecosystem 
health, and the Ground-Water Resources Program was established to 
assess the availability of ground-water resources at the regional and 
national scale. Both programs are the only non-regulatory federal 
programs that conduct long-term, scientifically-based monitoring of our 
nation's streams and ground water to support sound management and 
policy decisions relating to our water resources.
    While a number of state and federal programs conduct water 
resources monitoring, these two programs are the primary sources for 
long-term, nationwide information on the quality of streams and aquatic 
ecosystems, and the availability of ground water resources.
    The general public as well as local, state, and federal water 
quality officials charged with managing our water resources rely on 
NAWQA and the Ground-Water Resources Program and the information they 
provide.
    For example, a 1993 NAWQA study near Denver uncovered the existence 
of MTBE in ground water which alerted the public and health 
professionals to unintended consequences of a compound designed to 
enable gasoline to burn cleaner. In 2005, NAWQA studies conducted in 
Austin, Texas uncovered a direct link between increased mortality of 
aquatic life and contaminated storm water run-off caused by polycyclic 
aromatic hydrocarbons (PAH) found in parking lot and driveway pavement 
sealants. During drought conditions, the Ground-Water Resources Program 
provides real-time ground-water measurements to USGS databases for 
display on the Internet for water managers and the general public.
    In 2005, the Government Accountability Office (GAO) issued a report 
examining twenty federal data collection programs that assemble and 
analyze quantitative measures of the nation's environmental conditions 
and trends. The report examined whether funding issues or other factors 
will affect the ability of these programs to continue to generate data 
comparable to data from past years. GAO found that of the twenty 
programs examined, only two programs were in jeopardy of continuing to 
generate quality data, including NAWQA. GAO found that NAWQA's ability 
to continue providing comparable data has been significantly diminished 
due to funding constraints.
    Congress provided slight increases in funding for both these 
programs in the fiscal year 2006 appropriations cycle; however, the 
fiscal year 2007 Budget request proposes a reduction for the Ground-
Water Resources Program and a slight increase of approximately $300,000 
for NAWQA. If these budget requests were to be accepted, both programs 
will be required to curtail their research programs. Already, static 
funding for NAWQA has required it to reduce the number of water study 
units from sixty to forty-two. And, within these study regions, the 
impacts of the reductions were amplified by a reduction in the number 
of stream networks targeted for continuous monitoring from 492 stream 
sites to just 84.
    Insufficient funding for these two programs is severely hampering 
their ability to fulfill their missions and to effectively assist water 
managers and policy makers at all levels of government. Furthermore, 
there is an opportunity to develop a stronger cooperative program with 
existing state ground water research agencies with additional federal 
funding to these programs. We urge you to support $70 million for NAWQA 
and $8.5 million for the Ground-Water Resources Program in the fiscal 
year 2007 Interior, Environment, and Related Agencies Appropriations 
Bill so that critical water monitoring data will continue to be 
available.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences requests that 
Congress provide the United States Geological Survey (USGS) with $1.2 
billion in fiscal year 2007, with at least $200 million for the 
Biological Resources Discipline.
    The funding we request would restore proposed cuts to important 
science programs, provide a modest but needed inflation adjustment, and 
implement important science and information dissemination initiatives. 
This funding would also help USGS address the cost of maintaining 
research infrastructure.
    The USGS provides independent research, data, and assessments 
needed by public and private sector decision-makers. The Survey's 
unique combination of biological, geographical, geological and 
hydrological research programs enable USGS scientists to utilize 
innovative interdisciplinary research techniques to answer important 
questions.
    USGS scientists do not work in isolation. Through offices located 
in every state and partnerships with more than 2,000 federal, state, 
local, tribal, and private organizations, the USGS has built the 
capacity to leverage additional research expertise. For example, 
through the Cooperative Research Units program USGS scientists are 
stationed on university campuses. This proximity to academic 
researchers brings additional intellectual and technical resources to 
work on the biological, ecological, and natural resource questions USGS 
seeks to answer. The value of Cooperative Research Units extends beyond 
their immediate research productivity, however. Cooperative Research 
Units are a vital component of our nation's education and training 
infrastructure. These research units enable future natural resource 
professionals to gain the skills and experience government agencies 
need. Furthermore, Cooperative Research Units are one of USGS' 
mechanisms for providing data and technical assistance to local, state, 
and national decision-makers.
    Natural resource managers require reliable, relevant, and timely 
information. The Biological Informatics Program develops and applies 
innovative technologies and practices to the management of biological 
data, information, and knowledge. Increased funding for the USGS would 
enable the Biological Informatics Program to continue on-going 
activities and begin to implement initiatives the resource management 
and research communities have identified as priorities. For instance, 
new nodes could be added to the National Biological Information 
Infrastructure program.
    The NatureServe program provides the scientific basis for wise 
natural resources management. Together with its network of sate Natural 
Heritage programs, NatureServe provides valuable information about rare 
species and threatened ecosystems to numerous federal and state 
agencies to help them make informed natural resource management 
decisions. The proposed $1.0 million investment in ensuring the quality 
and consistency of this national data resource is estimated to leverage 
$40 million nationwide, primarily from state and private sources.
    USGS biological research programs gather important data and 
information that academic, private sector, or other government 
scientists do not or can not collect. For instance, a clear national 
priority is the prevention and mitigation of economic losses from non-
native species invading new environments. USGS research helps guide our 
understanding of how these invasive species, such as the zebra mussel, 
snakehead fish, and tamarisk, colonize new environments. Decision-
makers, whether a private land owner or a resource manager working for 
a government agency, utilize USGS science to develop action plans to 
combat invasive species.
    USGS biologists conduct impartial research that makes it possible 
to assess the vitality of waterfowl, songbirds, large mammals, 
terrestrial plants, amphibians, and their habitats. These data 
subsequently inform state and federal agency conservation planning and 
management. As an example, USGS research allows scientists to assess 
the vitality of bird populations, determine habitat requirements, and 
map migration routes. This information is increasingly important to 
public health officials concerned with the potential spread of diseases 
that may be transmitted from wild animals to humans or domesticated 
animals. Indeed, included in the President's fiscal year 2007 budget 
request is $3.2 million for surveillance of migratory waterfowl for 
avian flu.
    The fiscal year 2007 budget request does not fully fund ``fixed'' 
cost increases. We encourage the committee to fully fund these 
expenses. Without full funding for these costs, USGS science programs 
would likely be forced to reprogram funds that would otherwise support 
important research.
    An fiscal year 2007 appropriation of $1.2 billion for the USGS and 
at least $200 million for the Biological Resources Discipline would 
enable the USGS to: maintain current research efforts; restore $7.3 
million in proposed terminations of on-going research; provide at least 
a $1.5 million increase to the Cooperative Research Units program; 
provide $1.0 million for the NatureServe program; provide funding for 
fixed cost increases; provide $3.2 million to support surveillance of 
waterfowl for avian flu; support for a new USGS-wide natural hazards 
initiative; and, provide a modest inflation adjustment.
    Thank you for your thoughtful consideration of this request. If you 
require additional information, please contact Robert Gropp at 202-628-
1500.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the nation's 36 Tribal Colleges and Universities 
(TCUs), which comprise the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2007 
Appropriations recommendations for the 26 colleges funded under the 
Tribally Controlled College or University Assistance Act (Tribal 
College Act), our two tribally controlled postsecondary vocational 
institutions, the two Bureau of Indian Affairs postsecondary 
institutions, and the Institute of American Indian Arts. The U.S. 
Department of the Interior, Bureau of Indian Affairs, administers all 
these programs, save for the Institute of American Indian Arts, which 
is funded directly by the Interior Department. While AIHEC ultimately 
seeks full funding for all programs authorized under the Tribal College 
Act, we recognize that a focused approach with incremental increases is 
a realistic way to meet that goal. In fiscal year 2007, we seek a total 
of $69.4 million for Tribal College Act programs. Our first priority 
within this request is to increase funding for the day-to-day 
operations of institutions funded under Titles I & II of the Act. 
Specifically, we request $66.9 million; of which, $49.2 million would 
be for Title I grants (funding 25 TCUs) and $17.7 to fund Title II 
(Dine College). This request is an increase of $7 million for Title I 
grants and a $6.3 million increase for Dine College over fiscal year 
2006 levels and a total of $12.7 million over the President's fiscal 
year 2007 budget request for institutional operations funding. 
Additionally, we seek $500,000 for the technical assistance contract 
under section 105 of the Act, the same amount as appropriated in fiscal 
year 2006. These funds will help address continually emerging technical 
assistance needs and to gather and analyze data necessary to comply 
with the Congressional request to provide added information on TCUs. 
Additionally, $2 million is requested for endowments under Title III of 
the Act. Lastly, we support $4.5 million for United Tribes Technical 
College; and $2.5 million for Crownpoint Institute of Technology; the 
latest budget once again recommends eliminating Interior Department 
funding for these two tribally controlled postsecondary vocational 
institutions.
    AIHEC's membership also includes three other TCUs funded under 
separate authorities within Interior Appropriations, namely: Haskell 
Indian Nations University; Southwestern Indian Polytechnic Institute; 
and The Institute of American Indian Arts. AIHEC supports the 
independently submitted requests for funding the institutional 
operations of these institutions.

                   BACKGROUND AND FUNDING DISPARITIES

    In 1972, six tribally controlled colleges established AIHEC to 
provide a support network for member institutions. Today, AIHEC 
represents 35 Tribal Colleges and Universities in 13 states, created 
specifically to serve the higher education needs of American Indians. 
Annually, they serve approximately 30,000 full- and part-time students 
from over 250 Federally recognized tribes.
    The vast majority of TCUs is accredited by regional accreditation 
agencies and like all institutions of higher education, must undergo 
stringent performance reviews on a periodic basis to retain their 
accreditation status. In addition to college level programming, TCUs 
provide much needed high school completion (GED), basic remediation, 
job training, college preparatory courses, and adult basic education. 
Tribal colleges fulfill additional roles within their respective 
communities functioning as community centers, libraries, tribal 
archives, career and business centers, economic development centers, 
public meeting places, and childcare centers. An underlying goal of 
TCUs is to improve the lives of students through higher education and 
to move American Indians toward self sufficiency.
    Title I of the Tribal College Act authorizes funding for the basic 
institutional operating budget of one qualifying institution per 
Federally recognized tribe based on a full time American Indian student 
enrollment formula. The Tribal College Act was first funded in 1981. 
Today, 25 years later and notwithstanding an increase of $2.5 million 
in fiscal year 2006, these colleges are operating at $4,563 per full-
time Indian student count (ISC), approximately 75 percent of their 
authorized level of $6,000 per ISC. If the TCUs were to be fully funded 
at $6,000 per ISC today, when you consider inflation, they would not 
even have the same buying power as their initial fiscal year 1981 
appropriations, which was $2,831 per ISC. While the other TCUs funding 
is not enrollment driven and therefore the disparity of funding is not 
as easily illustrated, they too suffer from a lack of adequate 
operating funds. This is not simply a matter of appropriations falling 
short of an authorization; it effectively impedes our institutions from 
having the necessary resources to grow their programs in response to 
the changing needs of their students and the communities they serve.

                             JUSTIFICATIONS

    (a) Tribal colleges provide critical access to vital postsecondary 
education opportunities.--TCU reservations are located in remote areas, 
and their populations are among the poorest in the nation. On average, 
median household income levels are only about half of the level for the 
U.S. population as a whole. As a result, the cost of attending a 
mainstream institution, which for many reservation communities is 
several hours away, is prohibitively high, especially when tuition, 
travel, housing, textbooks, and other expenses are considered.
    (b) Tribal colleges are producing a new generation of highly 
trained American Indians as teachers, tribal government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals.--By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities. In contrast to the 
high rates of unemployment on reservations, graduates of TCUs are 
employed in ``high need'' occupational areas such as Head Start 
teachers, elementary and secondary school teachers, and nurses/health 
care providers. Just as important, the overwhelming majority of tribal 
college graduates remain in their tribal communities, applying their 
newly acquired skills and knowledge where they are most needed. One-
half of the faculty and staff of Little Big Horn College in Crow 
Agency, Montana are graduates of the college.
    (c) Tribal colleges meet the strict standards of mainstream 
accreditation boards and offer top quality academic programs.--Several 
TCUs have attained a ten year accreditation term, the longest term 
granted to any higher education institution. The quality of the 
colleges' programs is reflected in the high rates of satisfaction 
reported by their graduates: Over 90 percent of TCU graduates surveyed 
reported being very satisfied or satisfied with courses in their major 
field of study and with overall instruction.
    (d) Tribal college attendance increases educational success and 
serves as highly effective bridges to four year postsecondary 
institutions.--While most TCUs are two year institutions offering 
certificates and associate degrees, their transfer function is 
significant. A survey of TCU graduates conducted by Harder+Company 
Community Research, San Francisco, CA for the American Indian College 
Fund, indicated that more than 80 percent of respondents who attended a 
mainstream college prior to enrolling at a tribal college did not 
finish the degree they were pursuing at the mainstream college. The 
rate of completion markedly improved for those who attended a tribal 
college prior to pursuing a degree at a mainstream institution. After 
completing tribal college coursework, less than half of respondents 
dropped out of mainstream college, and nearly 40 percent went on to 
obtain a bachelor's degree. This suggests TCUs may have a profound 
impact on the persistence of American Indian students in pursuit of 
baccalaureate degrees. The overwhelming majority of respondents felt 
that their tribal college experience had prepared them well for further 
education and noted that it had a very positive impact on their 
personal and professional achievements.

                         SOME ADDITIONAL FACTS

    (a) Enrollment Gains & New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of colleges has quadrupled and Indian student 
enrollments have risen a remarkable 333 percent. In fiscal year 2005, 
two newly established TCUs, Saginaw Chippewa Tribal College (Michigan) 
and Tohono O'odham Community College (Arizona) became eligible to 
receive funds under the Tribal College Act. White Earth Tribal and 
Community College (Minnesota) is expected to become eligible for 
funding in fiscal year 2007. TCUs are in many ways victims of their own 
successes. The dramatic enrollment increases, coupled with a growing 
number of tribally chartered colleges, have forced TCUs to slice an 
already inadequate pie into even smaller pieces. Our fiscal year 2007 
recommendation would fund institutional operations at Title I colleges 
at approximately $5,400 per ISC, which is still short of the original 
funding level as appropriations have not even kept up with inflation.
    (b) The Absence of State Funds for Institutional Operations.--While 
mainstream institutions have enjoyed a foundation of long-term stable 
state support, TCUs must rely on the Federal government for their 
operating funds. Because TCUs are located on Federal trust lands, 
states have no obligation to fund them even for the non-Indian state-
resident students who account for approximately 20 percent of TCU 
enrollments. Yet, if these same students attended any other public 
institution in the state, the state would contribute basic operating 
funds to the institution.
    (c) Local Tax and Revenue Bases.--TCUs cannot rely on local tax 
base revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. On reservations where tribal colleges are 
located, the unemployment rate can exceed 60 percent. In comparison, 
the national unemployment rate for February 2006 is 4.8 percent.
    (d) Trust Responsibility.--The emergence of tribal colleges is a 
direct result of the special relationship between American Indian 
tribes and the Federal government. TCUs are founded and chartered by 
their respective American Indian tribes, which hold a special legal 
relationship with the Federal government, actualized by more than 400 
treaties, several Supreme Court decisions, prior Congressional action, 
and the ceding of more than one billion acres of land to the Federal 
government. Beyond the trust responsibility, the fact remains that TCUs 
are providing a public service that no other institutions of higher 
education are willing, or able, to provide by helping the Federal 
government fulfill its responsibility to the American people, 
particularly in rural America. Despite the fact that only students that 
are enrolled members of a Federally recognized Indian tribe are counted 
when determining the level of operating funds, TCUs have open 
enrollment policies and do not discriminate based on race or ethnicity. 
They are simply and effectively removing barriers that have long 
prevented equal access to higher education for reservation community 
residents.

          THE PRESIDENT'S BUDGET REQUEST FOR FISCAL YEAR 2007

    For the past several years the annual Federal budget has 
recommended deep cuts in TCU operations, in fiscal year 2006 the budget 
recommended an 18 percent cut. The President's fiscal year 2007 budget 
includes $54.3 million for institutional operations of 26 TCUs, which 
indicating a change in this trend. Each year Congress has restored the 
recommended cuts and even included some increase to the TCUs' operating 
grants. Over the past few years several new TCUs have become eligible 
for funding under the Tribal College Act. However, the lack of basic 
operating funds caused financial difficulties that two long standing 
colleges were not able to overcome. Unfortunately, D-Q University in 
California and Si Tanka University in South Dakota, which were 
chartered in 1971 and 1974 respectively, are now closing their doors. 
We are hopeful that Congress will build on the President's fiscal year 
2007 budget recommendation so that tribal colleges might realize a true 
increase in the funding available for basic operations.

       AIHEC'S APPROPRIATIONS RECOMMENDATION FOR FISCAL YEAR 2007

    We respectfully request a total appropriation of $69.4 million for 
the programs authorized under the Tribal College Act. Our first 
priority within this request is to increase funding for the day-to-day 
operations of institutions funded under Titles I & II of the Act. 
Specifically, we request $66.9 million; of which, $49.2 million would 
be for Title I grants (funding 25 TCUs) and $17.7 to fund Title II 
(Dine College). This request is an increase of $7 million for Title I 
grants and a $6.3 million increase for Dine College over fiscal year 
2006 levels and a total of $12.7 million over the President's fiscal 
year 2007 budget request for institutional operations funding. 
Additionally, we seek $500,000 for the technical assistance contract 
under Sec. 105 of the Act, equal to the fiscal year 2006 appropriation 
and the President's request. These funds will help address ever 
emerging technical assistance needs and to fund data collection and 
analysis necessary to comply with the Congressional requests for 
additional information on TCU funding and operations. Additionally, we 
request $2 million for Title III of the Act, which helps our 
institutions to build endowments. The President's budget request 
eliminates this program.
    For our two tribally controlled vocational institutions, we support 
$4.5 million for United Tribes Technical College; and $2.5 million for 
Crownpoint Institute of Technology to restore and expand the funding 
for these programs that the fiscal year 2007 President's budget 
recommends eliminating.

                               CONCLUSION

    Tribal colleges provide higher education to thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment in the Tribal Colleges and Universities has 
paid great dividends in terms of employment, education, and economic 
development. Continuation of this investment makes sound moral and 
fiscal sense. We very much need your help to sustain and grow our 
programs and achieve our missions.
    Thank you for your past and continued support of the nation's 
Tribal Colleges and Universities and your consideration of our fiscal 
year 2007 appropriations recommendations.
                                 ______
                                 
       Prepared Statement of the Association to Preserve Cape Cod

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Association to Preserve Cape Cod, the region's leading 
environmental advocacy and stewardship organization with more than 
5,500 members, I write to strongly support an appropriation of $6.1 
million from the Land and Water Conservation Fund for the Cape Cod 
National Seashore in Massachusetts. This funding would be used to 
acquire the 57-acre North of Highland Campground, which is a family-run 
campground within the Seashore's boundary in the town of Truro.
    The Cape Cod National Seashore is clearly the crown jewel of this 
peninsula's natural resources. The beautiful beaches, dunes, 
marshlands, and kettle hole ponds make the Cape Cod National Seashore 
one of the most heavily visited parks in the National Park system. 
Biking and hiking trails and surfing, swimming and fishing 
opportunities attract those seeking active recreation as well as those 
looking for serenity and scenic vistas.
    The family that owns this land, which as been operated as a 
campground since 1954, wishes the land to continue to be used as a 
campground, providing affordable recreation for the general public at 
this very popular destination. For the family, the Seashore and the 
public, this outcome is by far superior to the land being sold and 
developed as residences. The family is working closely with the 
National Seashore to that end.
    I thank you for the opportunity to testify in support of the 
appropriation of $6.1 million in the fiscal year 2007 from the Land and 
Water Conservation Fund for the Cape Cod National Seashore.
                                 ______
                                 
        Prepared Statement of the Air Pollution Control District

    We respectfully request $220.3 million in fiscal year 2007 for the 
State and Local Air Quality Management Program--which is the amount 
appropriated in fiscal year 2006. The President's fiscal year 2007 
budget reduces funding for this important program by $35.1 million.
    Established by the Clean Air Act, the State and Local Air Quality 
Management Program provides federal financial assistance in the form of 
grants to the 50 states, 4 territories, and approximately 60 local 
agencies to operate their air pollution control programs. The grants 
provide the resources to states and localities to perform basic air 
pollution control activities like monitoring air quality, developing 
and planning control options, permitting and inspecting sources, 
enforcing laws and regulations, and educating the public.
    In particular, this grant funding helps support state and local air 
quality management efforts to implement the National Ambient Air 
Quality Standards. As you may know, the Environmental Protection Agency 
(EPA) has designated 495 counties across the nation as in nonattainment 
for the particulate matter and ozone air quality standards. Under the 
Clean Air Act, states must submit State Implementation Plans by 2007 
and 2008 detailing how these areas will meet the standards by specified 
deadlines. Additionally, EPA has promulgated numerous other regulations 
that impose additional duties on state and local officials.
    The President's fiscal year 2007 budget includes $185.2 million for 
the state and local grant program--which is a reduction of 16 percent 
or $35.1 million from the fiscal year 2006 appropriated level. This 
entails reductions of $15.6 million from the Section 105 air grants 
program and $2.5 million from regional planning organizations. 
Additionally, funding for the fine particulate monitoring program is 
cut by $17 million, with the remainder shifted from Section 103 
authority to Section 105. This shift will require states and localities 
to provide matching funds.
    Thank you for your consideration of this matter. We urge you to 
restore the funding for this important program to $220.3 million for 
fiscal year 2007 and not shift funds for monitoring from Section 103 
authority to Section 105. Funding for this vital program should not be 
decreased at a time when the workload required of states and localities 
is increasing.
                                 ______
                                 
 Prepared Statement of the Aleutian Pribilof Islands Association, Inc.

    The Aleutian Pribilof Islands Association, Inc. (APIA) submits the 
following request with regard to the fiscal year 2007 Indian Health 
Service budget:
  --$1.14 million increase over fiscal year 2006 for phase two of 
        staffing for our new health center in St. Paul. This is 
        $265,000 more than the Administration's requested $875,000 
        increase.
  --$1 million for the construction shortfall for the staff quarters 
        for the new St. Paul Health Center
  --We support the recommendations of the Alaska Native Health Board on 
        matters including increased funding for built-in costs, for 
        contract support, medevac and patient travel, village-built 
        clinics and for construction of the hospitals in Barrow and 
        Nome which are at the top of the IHS priority construction 
        list.
    St. Paul Health Center Staffing. We thank Congress for providing 
funding for the construction of the new health center at St. Paul, one 
of the most remote and needy locations in the IHS health system. The 
Center opened on January 13, 2006. In fiscal year 2006 Congress 
provided $260,000 for the first phase of staffing for our new health 
center. The President's fiscal year 2007 budget would build the 
$260,000 from fiscal year 2006 into the base budget and provide an 
increase of $875,000 for a total of $1.13 million. This is $265,000 
short of the needed $1.4 million. Thus we request a total increase over 
fiscal year 2006 of $1.14 million.
    Staffing Package:
    Fiscal year 2006 staffing package--$260,000 (built into base 
budget)
    Fiscal year 2007 Admin proposal--$875,000 increase over fiscal year 
2006
    APIA Need--$1,140,000 increase over fiscal year 2006

                   TOTAL TWO-YEAR PHASE-IN OF STAFFING
------------------------------------------------------------------------
                          Year                                Amount
------------------------------------------------------------------------
Fiscal year 2006 appropriation..........................        $260,000
Fiscal year 2007 APIA Request...........................       1,140,000
                                                         ---------------
      Total.............................................       1,400,000
------------------------------------------------------------------------

    While we appreciate the Administration's effort to calculate our 
funding package need, it falls short by not accounting for the extreme 
remoteness of our site and the ensuing lack of access to available 
support services and facilities.
    St. Paul Island is located, as this committee knows, in the Bering 
Sea and it is almost 1000 air miles away from our nearest referral 
center in Anchorage. It is also the only Health Center in the most 
dangerous fisheries area in the country. APIA must serve a huge influx 
of seasonal fisheries workers and our staff must be of a caliber to 
handle major disasters with no ready assistance. Our population 
balloons to over 2000 during the fishing seasons. Due to the dangerous 
nature of fishing in the Bering Sea, many of our cases are of an 
emergency nature--for instance, we have provided emergency response 
services for shipwrecks, explosions, and fishing-related injuries. In 
addition to the large numbers of persons--Native and non-Native--who 
fish in our waters, we also attend to emergency health needs of the 
many people who visit our area for bird watching. We are, in fact, 
``the only act in town'' when it comes to health care, and thus we need 
to be as self-sufficient as possible in the provision of health care. 
That is why our new Health Center will include x-ray capability, a 
holding bed area, and 24 hours per day call-back for emergencies.
    As you would imagine, the cost of medical staff is very high in the 
Aleutian Pribilof Islands. While last year's Physician Assistants 
received an annual salary of $85,000, the cost this year is $120,000 
plus housing. In addition, the cost of traveling to and from our 
communities has increased in some cases 140 percent. A ticket to St. 
Paul is $1,000. Home heating fuel has risen to over $800/month and 
electricity is $400/month.
    Extreme weather conditions and the cost of travel further play an 
adverse role in getting field services out to St. Paul. Visits by 
physicians are minimal and often times postponed or shortened due to 
weather conditions. St. Paul has the highest recorded per capita rate 
of Type 2 Diabetes in the United States. This situation has become 
critical as the rate continues to increase. Approximately 60 percent of 
the population is in need of mental health assistance, with 
anticipation that this will increase as the fishing industry continues 
to decline. Having an adequate staffing package will allow us to 
address these disease burdens.
    A total staffing package of $1.4 million is more realistic to meet 
our unique needs that are not easily quantified by a universal formula 
devised for other IHS sites that have far better access to support 
centers.
    St. Paul Health Center Quarters Shortfall.--We also ask for $1 
million to meet the shortfall in quarters construction funds for the 
St. Paul Health Center. Without the additional $1 million we will be 
forced to eliminate one single and one double housing unit which were 
in our approved construction plan. In the context of St. Paul Island, 
this is very significant.
    It is extremely difficult to find housing for staff on the Island. 
Island land is, as you can imagine, extremely scarce and can only be 
leased, making it impossible for anyone to acquire bank financing for 
loans on existing homes (should a rare one become available). Our own 
Health Administrator, who is from St. Paul, has had to live off-island 
waiting for housing to become available. We must have this additional 
funding so that our attempts to recruit and retain medical staff for 
the new St. Paul Health Center are not thwarted by the lack of adequate 
housing.
    History.--While well known to our Congressional delegation, we 
would like to bring to the Subcommittee's attention a little sense of 
the history of the Aleut people--a history likened to that of 
colonialism and of being treated like the enemy during World War II. 
Much of what has happened to the Aleut people has been driven by the 
desire of private industry and governments for the riches of the Bering 
Sea seal trade and of the coerced labor of highly skilled Aleut 
fishermen.
    Russian fur traders first started coming to the Pribilof Islands 
during the mid 1700s. They used Aleut fishermen as slave labor, 
mistreated Aleut women, and indiscriminately plundered the seal 
population. Rival traders took an estimated 240,000 seals in 1868 
alone. In the first 30 years of Russian contact, the Aleut population 
declined from an estimated 12,000 to about 1,900. Aleuts were relocated 
by the Russians from hundreds of villages into just 27 villages. 
(Source: A Century of Servitude by Dorothy M. Jones, B.A.)
    Alaska was purchased by the United States from Russia in 1867 for 
$7.2 million--the transaction referred to as Seward's Folly. The cost 
was more than paid for by the profits to the government from the 
Pribilof fur trade--with the labor done by Aleuts. In 1870, the U.S. 
Government established the Pribilofs as a government reservation and 
signed a 20-year contract with the Alaska Commercial Company granting 
it exclusive property right to seals in exchange for rent and 
royalties. The law also required conservation measures, much needed 
after the years of Russian exploitation. The Pribilof Islands were 
managed by the United States Treasury Department. Treasury officials 
had a great deal of influence over the daily lives of Aleuts but were 
given little direction on how to go about their jobs. The results 
ranged from neglect to egregious violation of individual rights.
    A most painful experience for us was the evacuation during World 
War II of Aleuts from the Pribilofs to various locations in 
southeastern Alaska. Aleuts endured the evacuation from 1942 to 1945. 
This was allegedly done for the safety of the Aleuts, but in fact 
Aleuts were treated like they were the enemy. People were given two 
days notice to leave and then were never told their destination--most 
ended up 1,500 miles away in various southeast Alaska locations. It is 
a little known fact that some people were also evacuated to Japan. 
Aleuts were put in extremely crowded unheated abandoned buildings, many 
families in one area separated only by blankets hung from the ceiling. 
Sanitation conditions were horrible--in one case there was one outhouse 
for over 200 persons. There was little clean water. Naturally there was 
much sickness. The U.S. Government realized that they needed the labor 
of the Aleut fisherman for sealing operations and they were taken back 
to the Pribilofs on a seasonal basis to obtain the fur and seal oil 
needed by the military--their wives and children left behind in the 
horrendous relocation camps.
    In the end, 10 percent of the Aleuts who were evacuated from St. 
Paul, St. George, Unalaska, Atka, Akutan, Nikolski, Biorka, Kashega, 
and Makushin died in the relocation camps. Of the 42 persons evacuated 
from Attu to Japan, 22, or nearly 50 percent, died. When people were 
allowed to return to their home villages, many found that their homes 
had been destroyed, their possessions taken, and their churches 
stripped of religious icons--by the U.S. military.
    Despite this history, the Aleut are a proud people and are up to 
the challenge of providing quality health care to our people despite 
the many geographical and environmental challenges of living in an 
isolated frontier community. The efforts to build a new health center 
on St. Paul Island started over 20 years ago. Now that the dream is a 
reality, it would be devastating to the many who worked hard to make 
this happen to have the Center fall short of desperately needed housing 
and staff.
    Thank you for your consideration of the needs of the Aleutian 
Pribilof Islands Association.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electric consumers (approximately 43 
million people), serving some of the Nation's largest cities. However, 
the vast majority of APPA's members serve communities with populations 
of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2007 funding priorities within the jurisdiction of the 
Interior and Related Agencies Subcommittee.

         ENVIRONMENTAL PROTECTION AGENCY: ENERGY STAR PROGRAMS

    APPA is disappointed in the Administration's request of $45.7 
million for fiscal year 2007 for EPA's Energy Star Programs as it 
represents a reduction in their request of approximately $5 million 
from fiscal year 2006 as well as a reduction in the congressional 
allocation of $49.5 million for fiscal year 2007. We urge the 
Subcommittee to allocate at least the fiscal year 2006 amount for 
Energy Star.
    Energy Star is a voluntary partnership program pairing EPA with 
businesses and consumers nationwide to enhance investment in 
underutilized technologies and practices that increase energy 
efficiency while at the same time reducing emissions of criteria 
pollutants and greenhouse gases. In particular, APPA member systems 
across the country have been active participants in a subset of the 
Energy Star program called ``Green Lights.'' The Green Lights program 
encourages the use of energy efficient lighting to reduce energy costs, 
increase productivity, promote customer retention and protect the 
environment.
    According to the EPA, Energy Star is saving businesses, 
organizations, and consumers more than $9 billion a year, and has been 
instrumental in the more widespread use technological innovations like 
LED traffic lights, efficient fluorescent lighting, power management 
systems for office equipment, and low standby energy use.

   ENVIRONMENTAL PROTECTION AGENCY: LANDFILL METHANE OUTREACH PROGRAM

    APPA is also disappointed in the Administration's request of $1.9 
million for fiscal year 2007 for the Landfill Methane Outreach Program 
at EPA. We would urge the Subcommittee to again consider an allocation 
for this program over and above the Administration's request.
    The Landfill Methane Outreach Program (LMOP) helps to partner 
utilities, energy organizations, states, tribes, the landfill gas 
industry and trade associations to promote the recovery and use of 
landfill gas as an energy source. According to the U.S. Environmental 
Protection Agency (EPA), LMOP has more than 490 Partners that have 
signed voluntary agreements to work with EPA to develop cost-effective 
landfill-gas-to-energy (LFG) projects. There are approximately 395 
operational LFG energy projects in the United States with approximately 
140 projects currently under construction or exploring development 
options and opportunities. LMOP has also developed detailed profiles 
for over 1,300 candidate landfills.
    Landfill gas is created when organic waste in a landfill 
decomposes. This gas consists of about 50 percent methane and about 50 
percent carbon dioxide. Landfill gas can be captured, converted, and 
used as an energy source rather than being released into the atmosphere 
as a potent greenhouse gas. Converting landfill gas to energy offsets 
the need for non-renewable resources such as coal and oil, and thereby 
helps to diversify utilities' fuel portfolios and to reduce emissions 
of air pollutants from conventional fuel sources.
    In 2005, all operational LFG energy projects in the United States 
prevented the release of 19 MMTCE (million metric tons of carbon 
equivalent). This reduction is the carbon equivalent of removing the 
emissions from 13.3 million vehicles on the road or planting 19 million 
acres of forest for one year. This reduction also has the same 
environmental benefit as preventing the use of 162 million barrels of 
oil or offsetting the use of 341,000 railcars of coal.
    As units of local and state governments, APPA's member utilities 
are uniquely poised to embark on landfill-gas to energy projects. EPA's 
LMOP facilitates this process by providing technical support and access 
to invaluable partnerships to our members and the communities they 
serve.

                    COUNCIL ON ENVIRONMENTAL QUALITY

    APPA is disappointed with the Administration's request of $2.7 
million for fiscal year 2007 for the White House's Council on 
Environmental Quality (CEQ), and urges the Subcommittee to consider 
allocating at least $3.2 million for this office. Public power 
utilities have experienced a general lack of consistency in federal 
government regulation, particularly involving environmental issues. 
While additional layers of government should be avoided, a central 
overseer can perform a valuable function in preventing duplicative, 
unnecessary and inconsistent regulation. CEQ is responsible for 
ensuring that federal agencies perform their tasks in an efficient and 
coordinated manner.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I 
serve as Executive Director for the Little Rock Port Authority and as 
Arkansas Chairman for the Interstate Committee. Other committee members 
representing Arkansas, in whose behalf this statement is made, are:
    Mr. Scott McGeorge, President, Pine Bluff Sand and Gravel Company, 
Pine Bluff
    Mr. N.M. ``Buck'' Shell, CEO, Five Rivers Distribution in Van Buren 
and Fort Smith
    Mr. Jack Long, General Manager, Logistic Services, Inc., Port of 
Little Rock
    Mr. Jeff Pipkin, President & CEO of the Russellville Area Chamber 
of Commerce and Director of the Arkansas Valley Alliance for Economic 
Development
    We call to your attention four projects on the McClellan-Kerr 
Arkansas River Navigation System (the ``System'') that are especially 
important to navigation and the economy of this multi-state area: 
Arkansas River 12-Foot Channel, Little Rock Port, Backlog of Channel 
and Structure Maintenance, and the Arkansas-White Rivers Cut-Off Study.

                    ARKANSAS RIVER'S 12-FOOT CHANNEL

    Mr. Chairman, Public Law 108-137 authorized a 12-foot channel on 
the McClellan-Kerr Arkansas River Navigation System. The Corps is now 
obligated to operate and maintain the system as a 12-foot channel. Over 
90 percent of the system currently is adequate for a 12-foot channel. 
Deepening the remainder of the channel to 12 feet will allow carriers 
to place 43 percent more cargo on each barge which will reduce the 
amount of fuel consumed and emissions released. Other environmental 
benefits include the creation of new aquatic habitat through new dike 
construction and the construction of least tern islands through 
beneficial use of dredged material.
  --Therefore, we request $40,000,000 to continue the work towards 
        achieving the 12-foot navigation channel as noted in Public Law 
        108-137. Corps of Engineers capability levels on this project 
        are currently $20,000,000 in both the Tulsa and Little Rock 
        Districts. The goal of completing this project in four years at 
        the capability levels of the Corps will increase the cost 
        competitiveness of this low cost-environment friendly 
        transportation method and help us combat the loss of industry 
        and jobs to overseas.

                            LITTLE ROCK PORT

    We recognize the significant reduction in new work and understand 
the need to combat the Global War on Terrorism. We also recognize the 
need to look for economic advantages where the needs of the government 
cross with the good of public entities to serve both needs. We believe 
a prime example of this effort would be to utilize Section 107 of the 
River and Harbors Act of 1960 (Public Law 86-645) in the Continuing 
Authorities Program which would allow the disposal of dredge disposal 
material to be utilized by the Little Rock Port for beneficial fill 
material.
  --Therefore, $7.6 million is requested for this project. This project 
        will compliment the goal of Homeland Security by providing a 
        safe, mid-America environment for shipping while complimenting 
        other Federal investments, including the 12-foot channel 
        project'' by providing completion of a major economic 
        development engine.

                BACKLOG OF CHANNEL STRUCTURE MAINTENANCE

    We request $10 million Operation and Maintenance Budget which is 
urgently needed for critical repairs to damaged and deteriorated dikes 
and revetments to maintain channel alignment and provide original 
channel configuration while reducing the need for dredging.
    More than a decade of neglect to our navigation structures while 
funding the construction of Montgomery Point Lock & Dam has created a 
critical backlog of channel structure work that threatens the viability 
of the McClellan-Kerr Arkansas River Navigation System.

                   ARKANSAS-WHITE RIVERS CUTOFF STUDY

    A cutoff is developing between the Arkansas and White Rivers which, 
if not corrected, could have dramatic adverse effects on the navigation 
system as well as significant bottomland hardwoods and pristine 
environment that provides unique wildlife habitat in southeast 
Arkansas.
    Unless corrected, it is inevitable that a major cutoff will occur 
negatively impacting navigation on the river, significantly increasing 
siltation and dredging requirements and, at worst, cutting off the 
lower end of the Navigation System from the Mississippi River.
  --We request, for the benefit of the entire system, $300,000 to 
        protect the Navigation System from incurring significant 
        increases in dredging, hazardous navigation conditions, and to 
        preclude a devastating loss of habitat in bottom land hardwoods 
        in the Big Island region between the Arkansas River, the White 
        River and the Mississippi River. This pristine habitat is being 
        threatened from the meandering of these rivers while also 
        adversely impacting the Navigation System. The funds are 
        greatly needed to complete the study and do the required 
        environmental documentation.
    In addition to these three vital requests, we urge you to continue 
to support funding for the construction, and operation and maintenance 
of the McClellan-Kerr Arkansas River Navigation System which provides 
low-cost and dependable transportation for farm products, construction 
aggregates, raw materials and finished products important to our 
nation's economic recovery.
    It is also most important that you continue construction authority 
of the McClellan-Kerr Project until remaining channel stabilization 
problems identified by the Little Rock District Corps of Engineers have 
been resolved. The Corps needs to develop a permanent solution to the 
threat of cutoffs developing in the lower reaches of the navigation 
system and to use environmentally sustainable methods under the 
existing construction authority.
    Mr. Chairman, we appreciate the work of this essential committee 
and thank you for your efforts that contribute so much to the social 
and economic well-being of the United States of America.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee and urge you 
to favorably consider these requests that are so important to the 
economic recovery of our region and nation.
                                 ______
                                 
  Prepared Statement of the Association of Research Libraries and the 
              Council on Library and Information Resources

    This statement is submitted on behalf of the Association of 
Research Libraries (ARL) and the Council on Library and Information 
Resources (CLIR). ARL and CLIR are writing in support of the fiscal 
year 2007 budget request of $140.955 million for the National Endowment 
for the Humanities (NEH) and, in particular, the $17.988 million budget 
request for the Preservation and Access Division, whose work is 
critical to preserving our American heritage. ARL and CLIR respectfully 
urge that Congress provide an addition $15 million or a total of $156 
million for NEH in fiscal year 2007.
    NEH plays a vital role in preserving our historic and cultural 
legacy, improving education at all levels, and helping Americans better 
understand the life of their Nation. The Preservation and Access 
Division of NEH was created to help advance knowledge and understanding 
of the humanities in America. Through its grant programs, the Division 
supports projects that preserve and increase the availability of 
resources, such as books, journals, newspapers, photographs, and films 
that are crucial for research, education, and public programming in the 
humanities.
    NEH funding is absolutely critical to ongoing programs of interest 
to the library community: the Brittle Books Program, the U.S. Newspaper 
Program, and Preservation Education and Training. Without Congressional 
support for NEH, fragile material in libraries and repositories in 
universities, colleges, and communities across the country would be in 
danger of permanent loss.
    We applaud NEH's quick response in assisting cultural institutions 
following the devastation caused by Katrina. NEH provided $30,000 to 
state humanities councils in Louisiana, Mississippi and Alabama and 
generously channeled $1 million in emergency grants to libraries, 
museums, historical societies and cultural institutions. More recently, 
NEH announced that it would dedicate an additional $250,000 to 
hurricane relief for affected humanities-related institutions.
    ARL and CLIR also encourage funding for the Administration's 
request of $15.239 million for the We the People initiative. This 
initiative further enhances NEH's core functions in critical areas, 
including Preservation and Access. The initiative, created in response 
to the lack of basic historical knowledge among many Americans, is 
designed to enhance the teaching, research, and understanding of 
American history and culture. Of particular interest to the research 
library community is one of the initiative's key programs, the National 
Digital Newspaper Program (NDNP). This program will convert microfilm 
of historical newspapers published between 1836 and 1922 into digital 
files and mount them on a national database that will be freely 
accessible to all Americans via the Internet. This effort is a 
partnership between NEH, which funds the digitization projects, and the 
Library of Congress, which mounts and maintains the resources. We 
strongly encourage you to support this initiative.
    Although microfilming serves as a great tool for preserving 
America's books and newspapers, ARL and CLIR strongly support the 
efforts of NEH to complement its preservation program with grants for 
the digitization of library materials. Digital technology provides new 
opportunities to extend the reach of humanities resources into every 
classroom, library, and home. To that end, many repositories of 
specialized and rare materials are digitizing their holdings to provide 
students, educators, and scholars easy access to them. Moreover, 
libraries and other humanities organizations are providing online 
access to an ever-increasing body of knowledge created in ``born 
digital'' journals, books, and databases.
    NEH also provides critical assistance to our Nation's libraries, 
archives, historical societies, and other repositories for preservation 
education and training. Grants in this area help support U.S. graduate 
programs in art and material culture conservation; preservation 
workshops, surveys, and information services to hundreds of cultural 
institutions; and targeted workshops for staff who manage digital 
imaging and preservation microfilming projects.
    Last year, the NEH and the National Science Foundation (NSF) formed 
a partnership to develop and advance knowledge of endangered languages. 
The initiative, ``Documenting Endangered Languages,'' records, 
documents and archives information on 3,000 languages that are near 
extinction. ARL and CLIR strongly support this important multiyear, 
cooperative initiative.
    Information, education, and knowledge are the pillars of our 
country's domestic progress and international leadership in the 21st 
century. The existence and support of humanities is vital to ensure a 
successful democracy by means of reflection, participation, and 
communication. The Nation must preserve the historical record 
accumulated by past generations to ensure the success of future 
generations.
    We very much appreciate the Subcommittee's continuing support of 
NEH and its programs.
                                 ______
                                 
  Prepared Statement of Americans for Responsible Recreational Access

    Americans for Responsible Recreational Access is a group committed 
to fostering responsible recreational practices on public lands. We are 
writing to you today to express our grave concerns about the 
Administration's budget proposal for the U.S. Forest Service, 
especially those portions dealing with the recreation and trail 
programs.
    The President's budget proposal calls for reducing the Recreation, 
Wilderness and Heritage program by 4 percent, $10 million less than the 
Congress appropriated in fiscal year 2006. The Trails program is slated 
for an even larger cut of 19.4 percent, $14.5 million less than fiscal 
year 2006 funding.
    We understand that the Federal budget is under severe strain. And 
we certainly don't envy the task you have before you in deciding which 
programs should ultimately receive lesser support in the coming fiscal 
year. We hope that as you balance competing interests, you will take a 
close look at the Forest Service budget, especially those areas dealing 
with recreation.
    More than ever, greater numbers of Americans are visiting our 
national forests for recreational activities. The Forest Service tracks 
the number of visitors to its facilities and its own statistics show 
that in 2004 alone, there were more than 205 million visits to the 
National Forests. Since then, we know that this figure has grown and 
will continue to do so for the foreseeable future. This is not the time 
to be cutting funds for trail maintenance and rehabilitation work.
    We think a strong case could be made that these programs merit an 
increase in funding especially for trail maintenance and 
rehabilitation. But we understand that such a wish is highly unlikely 
during these difficult fiscal times. Therefore, our hope is that your 
committee will fund these programs in fiscal year 2007 at the current 
level found in fiscal year 2006.
    In the coming days, we will be visiting members of your committee 
to make the case that facilitating recreation in our National Forests 
is an important mission of the U.S. Forest Service, and that the 
Recreation and Trail programs merit, at a minimum, funding at the 2006 
level. We stand ready to assist your committee with any background 
information you desire that supports funding the trails and recreation 
programs at their existing levels.
                                 ______
                                 
   Prepared Statement of the American Society of Civil Engineers \1\
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents 137,000 civil engineers 
in private practice, government, industry and academia who are 
dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a non-profit educational and professional society 
organized under Part 1.501(c)(3) of the Internal Revenue Code.
---------------------------------------------------------------------------
                  THE ENVIRONMENTAL PROTECTION AGENCY

    The American Society of Civil Engineers (ASCE) recommends an annual 
appropriation of $1.5 billion from the federal general fund for the 
Clean Water State Revolving Loan Fund (CWSRF) program and $1 billion 
for the Safe Drinking Water SRF (DWSRF) in fiscal year 2007. The need 
is justified; the nation's wastewater treatment infrastructure and 
drinking water systems received a grade of D- from ASCE on our 2005 
Report Card for America's Infrastructure released on March 2005.

                  THE UNITED STATES GEOLOGICAL SURVEY

    ASCE also recommends that Congress approve at least $1.2 billion in 
new budget authority for the U.S. Geological Survey in fiscal year 
2007, including $85.8 million for the National Earthquake Hazards 
Reduction Program. This level would enable the USGS to meet new 
challenges while continuing to provide data for land-use management, 
sustainable natural resource development, economic growth, and enhanced 
security from natural and manmade hazards. More investment is needed to 
strengthen USGS partnerships, improve monitoring networks, produce 
high-quality digital geospatial data and deliver the best possible 
science to address societally important problems.

                 WATER INFRASTRUCTURE INVESTMENT NEEDED

    For fiscal year 2007, we support annual appropriations of $1.5 
billion from the federal general fund for the Clean Water State 
Revolving Loan Fund (SRF) program.
    For fiscal year 2007, ASCE supports a minimum appropriation of $1 
billion from the federal general fund for the Safe Drinking Water State 
Revolving Loan Fund (SRF) program.
    The federal government has directly invested more than $70 billion 
in the construction of publicly owned sewage treatment works (POTWs) 
and their related facilities since passage of the Clean Water Act in 
1972. Nevertheless, the physical condition of many of the nation's 
16,000 wastewater treatment systems is poor due to a lack of investment 
in plant, equipment, and other capital improvements over the years.
    Numerous wastewater systems have reached the end of their useful 
design life. Older systems are plagued by chronic overflows during 
major rain storms and heavy snowmelt and, intentionally or not, are 
bringing about the discharge of raw sewage into U.S. surface waters. 
The U.S. Environmental Protection Agency (EPA) estimated in August 2004 
that the volume of combined sewer overflows (CSOs) discharged 
nationwide is 850 billion gallons a year. Sanitary sewer overflows 
(SSOs), caused by blocked or broken pipes, trigger the release of as 
much as 10 billion gallons of raw sewage yearly, according to the EPA.
    Federal funding under the CWSRF program has been steadily eroding. 
Congress appropriated between $1.2 billion and $1.35 billion from 1995 
to 2004. But in fiscal year 2005 Congress cut wastewater SRF funding 
for the first time in eight years, reducing the total investment to 
$1.1 billion, and the total was further redueced in fiscal year 2006 to 
$887 million. The Bush administration has proposed further cuts for 
fiscal year 2007, with a budget submittal calling for an appropriation 
of only $688 million, a reduction of nearly 29 percent from the fiscal 
year 2006 enacted level.
    Funding needs remain very high: the U.S. must invest an additional 
$181 billion for all types of sewage treatment projects eligible for 
funding under the Act, according to the most recent Needs Survey 
estimate by the EPA and the states, completed in August 2003.
    In September 2002, EPA released a detailed Gap Analysis, which 
assessed the difference between current spending for wastewater 
infrastructure and total funding needs. The EPA Gap Analysis estimated 
that, over the next two decades, the United States needs to spend 
nearly $390 billion to replace existing wastewater infrastructure 
systems and to build new ones. (The total includes money for some 
projects not currently eligible for federal funds, such as system 
replacement, which are not reflected in the EPA-state Needs Survey).
    The Congressional Budget Office (CBO) released its own gap analysis 
in 2002 in which it determined that the gap for wastewater ranges, 
depending on various financial and accounting variables, from $23 
billion to $37 billion annually.\2\
---------------------------------------------------------------------------
    \2\ None of the estimates cited includes the costs of operation and 
maintenance (O&M), costs that are borne entirely by the local utilities 
and are not eligible for federal funding. The 2002 Gap Analysis, for 
example, put the total O&M costs at $161 billion for the 20-year study 
period.
---------------------------------------------------------------------------
  --ASCE supports enactment of the Clean Water Trust Act of 2005,\3\ 
        which would establish a federal water infrastructure trust fund 
        act that would provide a reliable source of federal assistance 
        for the construction and repair of POTWs to reduce the enormous 
        funding ``gap.'' The bill also would authorize Congress to 
        appropriate $37.5 billion over five years for wastewater and 
        drinking water systems.
---------------------------------------------------------------------------
    \3\ H.R. 4560, 109th Cong. (2005).
---------------------------------------------------------------------------
  --We support the establishment of a federal capital budget to create 
        a mechanism to help reduce the constant conflict between short-
        term and long-term needs. The current federal budget process 
        does not differentiate between expenditures for current 
        consumption and long-term investment. This causes major 
        inefficiencies in the planning, design and construction process 
        for long-term investments. A capital budget system would help 
        increase public awareness of the problems and needs facing this 
        country's physical infrastructure and help Congress focus on 
        programs devoted to long-term growth and productivity.
    In addition, the nation's 54,000 drinking water systems face 
staggering public investment needs over the next 20 years. Although 
America spends billions on infrastructure each year, drinking water 
faces an annual shortfall of at least $11 billion to replace aging 
facilities that are near the end of their useful life and to comply 
with existing and future federal water regulations. The shortfall does 
not account for any growth in the demand for drinking water over the 
next 20 years.
    In 2001, the EPA released a national survey of drinking water 
infrastructure needs. The survey results concluded that approximately 
$151 billion would be needed over 20 years to repair, replace, and 
upgrade the nation's 55,000 community drinking water systems to protect 
public health.
    A year later, the agency published The Clean Water and Drinking 
Water Infrastructure Gap Analysis, which identified potential funding 
gaps between projected needs and spending from 2000 through 2019. This 
analysis estimated a potential 20-year funding gap for drinking water 
capital, and operations and maintenance, ranging from $45 billion to 
$263 billion, depending on spending levels. Capital needs alone were 
pegged at $161 billion, a $10 billion increase from the 2001 
estimate.\4\
---------------------------------------------------------------------------
    \4\ Operation and maintenance (O&M) costs are paid for by the local 
water utilities, not the federal government.
---------------------------------------------------------------------------
    The CBO concluded in 2003 that ``current funding from all levels of 
government and current revenues generated from ratepayers will not be 
sufficient to meet the nation's future demand for water 
infrastructure.'' The CBO estimated the nation's needs for drinking 
water investments at between $10 billion and $20 billion over the next 
20 years.\5\
---------------------------------------------------------------------------
    \5\ The CBO approximation does not include the $178 billion to $331 
billion in anticipated pipe replacement costs over the same 20-year 
period.
---------------------------------------------------------------------------
    Federal assistance has not kept pace with demand. Since fiscal year 
1997, Congress has appropriated only between $700 million and $850 
million annually for the Safe Drinking Water Act State Revolving Loan 
Fund (SRF) program, enacted in 1987. The enacted funding level for 
fiscal year 2006 was $838 million, less than 10 percent of the total 
national requirements. The Bush Administration has proposed an 
appropriation of $842 million for fiscal year 2007.
  --ASCE supports the establishment of a federal capital budget to 
        create a mechanism to help reduce the constant conflict between 
        short-term and long-term needs. The current federal budget 
        process does not differentiate between expenditures for current 
        consumption and long-term investment. This causes major 
        inefficiencies in the planning, design and construction process 
        for long-term investments. A capital budget system would help 
        Congress to focus on programs devoted to long-term growth and 
        productivity.

                             USGS PROGRAMS

    ASCE requests that Congress increase the fiscal year 2007 budget of 
the U.S. Geological Survey (USGS) to $1.2 billion. We support full 
funding for the agency's vital streamgaging program.
    The fiscal year 2007 budget request would cut funding for the USGS 
by $20.6 million (2.1 percent) to $944.8 million.
    The USGS plays a critical role in protecting the public from 
natural hazards such as floods and earthquakes, in assessing water 
quality, in providing emergency responders with geospatial data to 
improve homeland security, in analyzing the strategic and economic 
implications of mineral supply and demand, and in providing the science 
needed to manage our natural resources and combat invasive species that 
can threaten agriculture and public health. The USGS is working in 
every state and has nearly 400 offices across the country. To aid in 
its interdisciplinary investigations, the USGS works with more than 
2,000 federal, state, local, tribal and private organizations.
    During the past 10 years, total federal spending for non-defense 
research and development has risen by 64 percent from $45 billion to 
$74 billion in constant dollars. By contrast, funding for the USGS has 
been essentailly flat. Even this flat funding for the USGS reflects 
congressional restoration of proposed budget cuts.

             NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM

    ASCE strongly supports the president's fiscal year 2007 request of 
$51.5 million for the Earthquake Hazards Office and $5.7 million for 
the multi-hazards initiative; these are a positive indication of the 
Administration's support in this important area. ASCE remains concerned 
about the continued under funding of Advanced National Seismic System 
(ANSS), as the $8 million requested for fiscal year 2007 is well under 
the authorized level of $36 million.
    ASCE urges Congress to build on the president's support and 
appropriate the fully authorized funding level of $85.8 million, 
including $36 million for ANSS, for the National Earthquake Hazards 
Reduction Program (NEHRP) functions at the U.S. Geological Survey.
    The USGS has the responsibility to monitor earthquakes, assess the 
seismic hazard for the Nation and research the basic earth science 
processes controlling earthquake occurrence and effect. The Advanced 
National Seismic Research and Monitoring System (ANSS), authorized by 
Congress in 2000, is intended to expand the current monitoring system 
and provide the needed information to maximize our understanding of how 
specific buildings performed during earthquakes. Strong motion 
information is critical to making the next quantum leap in 
understanding how to economically arrest the growth of earthquake risk.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                         Administrators (ASDWA)

    ASDWA respectfully requests that, for fiscal year 2007, the 
Subcommittee appropriate funding for three state drinking water 
programs at levels commensurate with Federal expectations for 
performance and at levels that continue to ensure appropriate public 
health protection. Specifically, ASDWA requests an appropriation of 
$112 million for the Public Water System Supervision (PWSS) program; 
$850 million for the Drinking Water State Revolving Loan Fund (DWSRF) 
program; and $6 million for state drinking water program security 
initiatives.
    ASDWA represents the state drinking water programs in each of the 
fifty states and territories in their efforts to ensure the provision 
of safe drinking water to more than 275 million consumers nationwide. 
ASDWA's primary mission is the protection of public health through the 
effective management of state drinking water programs that implement 
the Safe Drinking Water Act (SDWA).
    States Need Increased Federal Support to Maintain Public Health 
Protection.--State drinking water programs strive to meet their public 
health protection goals through two principal funding programs--the 
Public Water System Supervision Program and the Drinking Water State 
Revolving Loan Fund Program. These two programs--with their attendant 
state match requirements--provide the means for states to work with 
drinking water systems to ensure that American citizens can turn on 
their taps with confidence that the water is safe to drink and that the 
supply is adequate. In recent years, state drinking water programs have 
accepted additional responsibilities to work with all public water 
systems to ensure that critical drinking water infrastructure is 
protected and that plans are in place to respond to disasters both 
natural and manmade.

                      HOW STATES USE FEDERAL FUNDS

    The PWSS Program.--To meet the requirements of the SDWA, states 
have accepted primary enforcement authority for oversight of ongoing 
regulatory compliance and technical assistance efforts for 160,000 
public water systems to ensure that potential health-based violations 
do not occur or are remedied in a timely manner. Going beyond these 
longstanding core responsibilities, since 1996, state drinking water 
programs have participated in the development and implementation of 
more than 20 new Federal regulations and strategic initiatives designed 
to enhance the protection of public health. States are also 
implementing an array of proactive initiatives to protect public health 
from ``source to tap''--including source water assessments and 
controls; technical assistance with water treatment and distribution; 
and enhancement of overall water system capacity. State activities go 
far beyond simply ensuring compliance at the tap.
    The DWSRF Program.--In less than 10 years, states have leveraged 
funding for the DWSRF program into more than $9 billion in loans to 
thousands of communities as a means to help them improve the quality or 
quantity of the water they drink. State drinking water programs have 
also used DWSRF funds to support the technical assistance and training 
needs of small drinking water systems and to help them obtain the 
technical, managerial, and financial proficiency that enables them to 
meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--Since 2001, and 
more critically since last summer's experience of Hurricanes Katrina 
and Rita, states have taken extraordinary measures to meet the security 
and emergency response-related needs of the drinking water community. 
State drinking water programs have endeavored to respond to the 
significant number of requests for assistance, training, information, 
and financial support from the systems under their purview. States have 
also been instrumental in providing support and assistance to systems 
in assessing whether a contamination event has occurred and, if so, 
evaluating the magnitude of the public health implications. States have 
devised training and technical assistance programs, initiated new 
communications structures, and begun the work of integrating the 
concepts of enhanced security concerns throughout all aspects of the 
drinking water program.

               WHY INCREASED FUNDING IS CRITICALLY NEEDED

    States must accomplish all of the above-described activities and 
take on new responsibilities while responding to escalating pressures 
to further cut their budgets, streamline their workforces, and operate 
with less state-provided financial support. State drinking water 
programs have always been expected to do more with less and states have 
always responded with commitment and ingenuity. However, state drinking 
water programs are now in crisis. Congress and the Executive Branch, 
through EPA, have implemented national program guidance calling for 
both states and water systems to continually improve their contaminant 
rule compliance rates. However, many states are now experiencing 
declining compliance rates in the face of declining or stagnant 
financial resources. For every decrease in available Federal dollars, 
the likelihood of a contamination event that puts public health at risk 
increases.
    Although the 1996 SDWA Amendments authorized the PWSS Program at 
$100 million per year, appropriated amounts have only recently reached 
that originally-authorized level. This level of funding, 10 years after 
enactment, is now woefully inadequate for the enormity of the task 
faced by state drinking water programs.
    Of the $1.1 billion in PWSS grants that states could have received 
since 1996, actual appropriations have only been $851.7 million through 
fiscal year 2005 and the additional $98.3 million appropriated for 
state programs in fiscal year 2006 is still a tentative figure, 
according to the EPA website, due to the potential for additional 
rescissions. Such chronic underfunding of the program has consequences. 
It is estimated that one-third of the states may not be able to conduct 
timely implementation of major provisions of the newer regulations, 
leaving the work undone or forcing U.S. EPA to undertake rule 
implementation tasks that they may not have the resources or expertise 
to perform. This could create a significant implementation crisis in 
several regions of the country and ultimately delay implementation of 
several critically needed public health protections.
    Similarly, for the DWSRF, the authorized level of $1 billion per 
year has never been appropriated. States have received less than 80 
percent of the $11 billion authorized for the DWSRF program since 1996. 
This underfunding, coupled with the decline in the spending power of 
these dollars due to inflation and cost of living increases, has 
severely hampered state drinking water programs' ability to fulfill 
their mission and provide critically needed support to drinking water 
systems.

      FISCAL YEAR 2007 REQUEST LEVELS AND SDWA PROGRAM OBLIGATIONS

    The PWSS Program.--This year, the State PWSS program request level 
in the Administration's budget is $99.1 million. This reflects an 
alarming downward trend from prior year Administration requests of 
$105.1 million and the enacted budget high point of $101.9 million 
appropriated just three years ago--in fiscal year 2004. State drinking 
water programs are hard pressed to understand a justification for the 
decreased funding since this is the year when they must begin 
implementation of the new arsenic regulations and the M/DBP Rule 
cluster--two very sophisticated and complex initiatives. States want to 
offer the flexibilities allowed under these and other rules; however, 
fewer dollars mean less opportunities to work one-on-one with systems 
to meet their needs. States, this year, are also expecting to see new 
regulatory requirements relating to ground water protection and 
revisions to the existing lead and copper rule. Looking ahead, states 
expect that new rules relating to MTBE, perchlorate, and NDMA will be 
forthcoming. A new Radon Rule will also likely soon be developed along 
with revisions to the Total Coliform Rule and possibly, a new 
distribution system rule. The number of regulations requiring state 
implementation and oversight as well as performance expectations 
continue to grow while, at the same time, Federal funding support 
necessary to maintain compliance levels and meet expectations is in 
decline.
    ASDWA, therefore, respectfully requests that the fiscal year 2007 
funding for the PWSS program be appropriated at $112 million. This 
figure represents a baseline of $101.9 million as appropriated in 
fiscal year 2004 plus an additional 3 percent increase over the past 
two fiscal years and into fiscal year 2007 to adjust for inflation.
    The DWSRF Program.--The fiscal year 2007 DWSRF program request in 
the President's budget reflects a nearly $9 million decrease from the 
amount requested in the three previous years. The primary purpose of 
the DWSRF is to improve public health protection by facilitating water 
system compliance with national primary drinking water regulations 
through the provision of loans to improve drinking water 
infrastructure. EPA's most recent National Drinking Water 
Infrastructure Needs Survey (2003) indicated that water system needs 
total $276.8 billion over the next 20 years to comply with SDWA 
mandates. This represents a significant jump from the earlier survey 
(1999) findings of a total 20 year need of $150.9 billion. 
``Immediate'' water infrastructure needs totaled $165 billion in the 
2003 survey as compared to $102.5 billion identified in 1999. Despite 
these documented needs, the maximum amount requested by the 
Administration for the DWSRF has been $850 million and Congress has 
appropriated less than those requested levels. (the anticipated post-
rescission appropriation for fiscal year 2006 is $832.2 million). 
Without reasonable increases--or at least maintenance of previous 
funding levels, the DWSRF will never be able to meet the SDWA 
compliance and public health protection goals for which it was 
designed.
    ASDWA, therefore, respectfully requests that the fiscal year 2007 
funding for the DWSRF program be appropriated at authorized level of $1 
billion or at least $850 million. $850 million represents a maintenance 
baseline consistent with previous year funding request levels.
    Security Responsibilities.--The fiscal year 2007 budget request 
includes $4.9 million for state drinking water programs to continue to 
expand their security activities, particularly for small and medium 
systems. While states are appreciative of the funding, once again it is 
difficult to understand why the request level is decreased from 
previous years. Given the realities exemplified by Hurricane Katrina, 
state drinking water programs are working more closely than ever with 
their water utilities to evaluate, assist, and support drinking water 
systems' preparedness and response capabilities. In addition to 
providing technical assistance, training, and support as mandated by 
the Bioterrorism Act of 2002, in recent years, states have been 
directed to focus their efforts toward smaller water systems not 
covered by the Act. These systems are much less likely to have the 
organizational or financial wherewithal to better secure either their 
physical or cyber infrastructures and rely on the states to help them 
meet their needs and identify potential funding sources (DWSRF). There 
is no dedicated fund to support or assist these smaller systems.
    ASDWA, therefore, respectfully requests that the fiscal year 2007 
funding for the state security initiatives program be appropriated at 
$6 million. This figure represents a maintenance baseline consistent 
with previous year funding request levels adjusted for the eroding 
effects of inflation since the originally appropriated level of $5 
million in fiscal year 2002.

                               CONCLUSION

    In conclusion, ASDWA respectfully recommends that both state and 
Federal fiscal year 2007 budget needs for the provision of safe 
drinking water be adequately funded by Congress. The Subcommittee can 
meet those needs through relatively modest increases in funding over 
the Administration's requested fiscal year 2007 budget or by a 
``budget-neutral'' reallocation of funding within the overall budget of 
the U.S. Environmental Protection Agency. ASDWA calls the 
Subcommittee's attention to an alternative state-recommended fiscal 
year 2007 budget developed by the Environmental Council of the States 
(ECOS) as a constructive starting point for these discussions.
    A strong drinking water program supported by the Federal-state 
partnership will ensure that the quality of drinking water in this 
country will not deteriorate and, in fact, will continue to improve--so 
that the public can be assured that a glass of water is safe to drink 
no matter where they travel or live. States are willing and committed 
partners. Additional Federal financial assistance is needed, however, 
to meet ongoing and ever growing regulatory and security needs. In 
1996, Congress provided the authority to ensure that the burden would 
not go unsupported. In 2006, ASDWA asks that the promise of that 
support be realized.
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy

                              INTRODUCTION

    The Alliance to Save Energy, a bipartisan, nonprofit coalition of 
more than 100 business, government, environmental, and consumer 
leaders, appreciates this opportunity to submit written testimony in 
support of a $10 million increase for the Environmental Protection 
Agency's (EPA) Energy Star Program in fiscal year 2007 compared to the 
fiscal year 2006 appropriated level. The Alliance's mission is to 
promote energy efficiency worldwide to achieve a healthier economy, a 
cleaner environment, and greater energy security. The Alliance, founded 
in 1977 by Senators Charles Percy and Hubert Humphrey, currently enjoys 
the leadership of Senator Mark Pryor as Chairman; Washington Gas 
Chairman and CEO James DeGraffenreidt, Jr. as Co-Chairman; and 
Representatives Ralph Hall, Zach Wamp and Ed Markey and Senators 
Bingaman, Collins and Jeffords as its Vice-Chairs. The American Council 
for an Energy-Efficient Economy (ACEEE) also supports the 
recommendations in this testimony.
    The Energy Star program is one of the most successful efforts to 
promote marketplace solutions for greater energy efficiency. The 
program works with thousands of business partners to make it easy for 
consumers to find and buy many energy-efficient products, buildings, 
and services by awarding the well-known Energy Star label and by 
providing other consumer information. The Energy Star program is an 
entirely voluntary program that reduces energy demand, lowers energy 
bills, and helps avoid pollution and greenhouse gas emissions.
    Increased investment by the federal government in the Energy Star 
program will translate to increased energy savings by consumers and 
businesses across the country. The EPA estimates that every federal 
dollar spent on the Energy Star program results in an average savings 
of $75 or more in consumer energy bills; the reduction of about 3.7 
tons of carbon dioxide emissions; an investment of $15 in private 
sector capital; and the contribution of over $60 to the economy.
    In 2005 alone, Energy Star helped Americans save 28,000 Megawatts 
of peak power, enough to avoid the need for more than 50 new power 
plants. This savings is a significant amount of energy--150 billion 
kWh--representing 4 percent of total 2005 electricity demand. Working 
together with Energy Star, Americans prevented the emission of 35 
million metric tons of greenhouse gas emissions, which is equivalent to 
removing 23 million cars from the road. And Americans, with the help of 
Energy Star, saved $12 billion on their energy bills. As these 
statistics exemplify, the Energy Star program is helping millions of 
Americans get the energy they need, while saving money and avoiding 
pollution.

        ENERGY EFFICIENCY IS AMERICA'S GREATEST ENERGY RESOURCE

    Energy efficiency is the nation's greatest energy resource--we now 
save more energy each year from energy efficiency than we get from any 
single energy source, including oil, natural gas, coal, or nuclear 
power. The Alliance to Save Energy estimates that if we tried to run 
today's economy without the energy-efficiency improvements that have 
taken place since 1973, we would need 43 percent more energy supplies 
than we use now (43 quadrillion Btu). What's more, increasing America's 
energy efficiency is the quickest, cleanest, and cheapest way of 
meeting our energy needs. Without these enormous savings, our 
difficulties in meeting energy demand would be far, far worse than they 
are today.

              HOW ENERGY STAR CAPITALIZES ON THIS RESOURCE

    EPA's Energy Star program has proven to be an extremely effective 
way for this nation to capitalize on the potential of energy efficiency 
as a resource. Energy Star's voluntary partnership program--which 
includes Energy Star Buildings, Energy Star Homes, Energy Star Small 
Businesses, and Energy Star Labeled Products--works by removing 
marketplace barriers to existing and emerging technologies, providing 
information on technology opportunities, generating awareness of 
energy-efficient products and services, and educating consumers about 
life-cycle energy savings.
    Energy efficiency is an investment. There is often a modest 
additional cost for purchasing more efficient, smarter technologies, 
but that additional cost and more is paid back to the consumer through 
lower energy bills. Energy Star helps consumers understand and realize 
these benefits. The label represents the ``good housekeeping seal of 
approval.'' The program sets rigorous guidelines representing high 
energy-efficiency and product quality goals that products, buildings, 
or services must meet in order to qualify for the Energy Star label.
    In 2003 the Alliance to Save Energy undertook an extensive public 
opinion survey and found that the name recognition of the Energy Star 
program is very high--86 percent among U.S. homeowners. Approximately 
one-third of U.S. consumers report using the Energy Star label as an 
information tool for making purchase decisions; and an even higher 
number report using Energy Star as an information tool to help them 
save energy. Most consumers who are aware of the Energy Star label 
correctly understand that products bearing the Energy Star label use 
less energy and can save them money on energy bills.

                   ABOUT THE ENERGY STAR PARTNERSHIPS

    Energy Star works through voluntary partnerships, and these have 
grown since the early 1990s to include thousands of businesses. These 
partnerships demonstrate that energy efficiency delivers ``pollution 
prevention at a profit.'' And the Energy Star program testifies to the 
important environmental achievements that can be made through 
cooperative partnerships between government and businesses.
    Energy Star serves broad constituencies in every state in the 
country. Energy Star currently has more than 8,000 partners who are 
committed to improving the energy efficiency of our homes, businesses 
and products. Among those partners are over 1,500 manufacturing 
partners who make and market over 35,000 different models of Energy 
Star qualifying products, and 800 retail partners representing over 
21,000 storefronts, as well as building owners and operators, 
utilities, state and local governments, and nonprofit organizations. 
Energy Star counts more than 2,500 builder partners and partners who 
supply products and services for energy-efficient home construction. 
More than 500,000 families now live in Energy Star Homes (40 percent 
more than last year)--locking in financial savings for homeowners of 
more than $110 million annually. In fact, nearly 10 percent of all 
homes built in 2005 earned the Energy Star label.
    As you may know, 2006 marks the sixth year that the Alliance has 
asked Energy Star company partners to join us in our request for a 
significant increase in funding for the program. The response in the 
past has been remarkable. Joining us in our request this year are 391 
companies and Energy Star partners and another 75 individuals.
    much has been accomplished, but huge potential remains untapped
    Although the Energy Star program has made a significant 
contribution to reducing consumer energy use, a wide array of 
important, additional opportunities to use the program to promote 
energy efficiency remain untapped. Energy Star is a success, poised to 
provide more savings and enhanced environmental protection as soon as 
the government is ready and able to invest more.
    In 2001, the President's National Energy Plan recommended that the 
Energy Star program be expanded to label more products, appliances, 
buildings, and services. Time and again, the President and the EPA 
Administrator have noted that voluntary measures are vital to 
addressing climate change and have held up Energy Star as an exemplary 
program. Yet funding for the program has declined. The fiscal year 2007 
proposed budget for Energy Star, $45.7 million, is down 9 percent from 
this year and, after inflation, is down one-fifth from fiscal year 
2002. In addition, internal funding cuts at EPA have plagued the 
program over the past several years. Even with tight budgets, the 
number of products and manufacturers in the labeling program has 
greatly expanded, and the number of partners in the Buildings, Homes, 
and Small Business programs has soared.
    But more funds are needed. Considering the sky-high energy prices 
around the country and the concerns about electricity reliability and 
pollution abatement, the Alliance believes that funding for the Energy 
Star program should be increased by at least $10 million over last 
year's appropriated level for fiscal year 2007, and should be doubled 
over the next five years. This would enable the Energy Star program to 
label additional products, update its criteria, increase consumer 
education campaigns, and--especially important--address energy-
efficient home improvements nationwide.
    By building on the Energy Star name, we can save much more energy 
and break through additional market barriers, building homeowner trust 
in energy audit programs and whole-home retrofits, including 
insulation, duct sealing, and home envelope sealing. In addition to 
labeling products and buildings, Energy Star has begun a successful 
effort working with state and local organizations to help homeowners 
audit and upgrade the efficiency of their homes. Home Performance with 
Energy Star is growing as state and utilities look for opportunities to 
save energy and reduce peak load. More than 17,000 homes in California, 
Colorado, Georgia, Idaho, Kansas, Massachusetts, Minnesota, New York, 
Texas, and Wisconsin have been improved through this program. But much 
more needs to be done to implement similar programs across the country. 
With additional funding, the Energy Star program could develop a 
supportive infrastructure for contractors around the country, share 
information with interested state organizations, and develop marketing 
efforts in up to 10 metropolitan areas per year.

                            RECOMMENDATIONS

    EPA's Energy Star program has clearly demonstrated its importance 
in helping the United States to capitalize on its greatest energy 
``resource''--energy efficiency. The program is delivering real 
progress toward meeting our country's environmental and energy security 
goals, while at the same time putting more money in consumers' pockets 
through reduced energy bills. More investment by the federal government 
is needed to expand the impact of this voluntary partnership between 
the government and industry.
    The Alliance to Save Energy recommends the subcommittee take the 
following actions to best leverage the proven results that stem from 
EPA's Energy Star program:
  --First, we ask that the House, Senate, and conference reports again 
        specify the exact level of federal funding that is appropriated 
        for the Energy Star program as in the fiscal year 2006 reports. 
        Such direction to EPA is needed to assure that funding intended 
        by Congress for the program is used by the agency for that 
        purpose. Unfortunately, EPA has a history of imposing internal 
        cuts in the program, especially in years when Congress has not 
        specified Energy Star funding.
  --Second, we recommend that Congress increase funding of the Energy 
        Star program by $10 million over the fiscal year 2006 
        appropriated level, to $60.0 million, in order to expand the 
        number of products, programs, and partners involved in the 
        current program. This should be a first step to doubling the 
        $50 million budget for the Energy Star program within five 
        years. In particular, the added funds will allow expansion of 
        the new Energy Star ``Home Performance'' component nationwide.

                               CONCLUSION

    The Energy Star program proves that we can protect the environment 
while simultaneously saving consumers money on their energy bills and 
enhancing the economy. Energy Star provides the catalyst for many 
businesses, state and local governments, and consumers to invest in 
energy efficiency, which in turn yields multiple private and public 
benefits. It does this by providing access to information, improving 
brand recognition, and providing positive publicity.
    While there are many demands on the country's financial resources, 
Energy Star has proven tremendously cost-effective, and it returns 
important benefits to the nation. Every added federal dollar invested 
in Energy Star in fiscal year 2007 will return a significant and cost-
effective yield in pollution reduction, economic stimulation, energy 
security, and consumer savings.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit testimony on the fiscal year 2007 appropriation 
for the Environmental Protection Agency (EPA). The ASM is the largest 
single life science organization in the world, comprised of more than 
43,000 members. ASM members are involved in research to improve human 
health and the environment and work in academic, industrial, medical, 
and governmental institutions worldwide. The ASM's mission is to 
enhance the science of microbiology, to gain a better understanding of 
life processes, and to promote the application of this knowledge for 
improved health, and for economic and environmental well-being.
    The EPA's mission is to protect human health and to safeguard the 
environment. The ASM believes that sound public policy for 
environmental protection depends on adequately funded intramural and 
extramural research programs based on scientific peer review to assure 
that support is awarded for both quality and relevant research. At 
laboratories located throughout the nation, the EPA works to assess 
environmental conditions and to identify, understand, and solve current 
and future environmental problems; integrate the work of scientific 
partners such as nations, private sector organizations, academia and 
other agencies; and provide leadership in addressing emerging 
environmental issues and in advancing the science and technology of 
risk assessment and risk management. It is essential that the EPA 
science and technology programs are adequately supported.
    The fiscal year 2007 request for the EPA's science and technology 
funding is $788 million, 8 percent above fiscal year 2006. Science and 
technology programs are important to addressing complex environmental 
problems, and the ASM urges Congress to support the Administration's 
overall request to increase funding for the EPA's science and 
technology programs by $58.5 million. The EPA depends on excellent 
research programs to evaluate risk, develop and defend protective 
standards, anticipate future health and environmental threats, and to 
identify solutions to environmental problems.

                          WATERBORNE PATHOGENS

    Although the American public enjoys safe drinking water, waterborne 
disease outbreaks caused by pathogenic bacteria, viruses, and parasites 
continue to be reported. Surface water and groundwater sources can be 
contaminated with many different types of chemical substances and 
microorganisms. Furthermore, the disinfection process itself creates a 
number of potentially toxic chemical byproducts. The EPA conducts the 
necessary research to provide a strong scientific foundation for 
standards that limit the public's exposure to drinking water 
contaminants and disinfection byproducts. This research supports major 
regulatory activities including the Microbial/Disinfection Byproduct 
Rules, and future decisions on unregulated pathogens and chemicals.
    The EPA has drinking water regulations for more than 90 
contaminants. The Safe Drinking Water Act (SDWA) includes a process for 
identifying new contaminants, which are reported in a Contaminant 
Candidate List (CCL). The first CCL was published in March 1998. The 
EPA uses this list of unregulated contaminants to prioritize research 
and data collection efforts to help determine whether a specific 
contaminant should be regulated.
    In addition to releasing the most recent CCL in February 2005, the 
EPA provided an update on its work to improve the CCL process for the 
future that is based, in part, on recommendations from the National 
Research Council and the National Drinking Water Advisory Council. 
Goals for the future include:
  --evaluate a wider range of information;
  --screen contaminants more systematically; and
  --develop a more comprehensive CCL by expanding the number of 
        contaminants being reviewed for inclusion on the next CCL.
    The EPA is currently working on the third CCL and anticipates its 
draft release in 2006. The increasing numbers of contaminants and 
candidate contaminants that must be monitored and regulated require 
adequate funding. Research focuses on filling data gaps, developing 
analytical methods for measuring the occurrence of chemical and 
microbial contaminants on the CCL and developing and evaluating cost-
effective treatment technologies for removing pathogens from water 
supplies, while at the same time minimizing microbial/disinfection by-
product formation.
    Under the Beaches Environmental Assessment and Coastal Health Act 
of 2000 (BEACH Act), the EPA protects the quality of the nation's 
coastal and Great Lakes region recreational water. Swimming in some 
recreational waters can pose a risk of illness as a result of exposure 
to microbial pathogens. The EPA's safety improvement strategy includes 
the general reduction of pathogen levels in recreational waters by:
  --reducing pollution from Combined Sewer Overflows (CSOs);
  --addressing major sources discharging pathogens under the permit 
        program; and
  --improving management of septic systems.
    The EPA is conducting research on waterborne pathogens, arsenic, 
disinfection byproducts, and other chemical contaminants to protect the 
nation. The ASM supports the Administration's request to increase 
Drinking Water and Water Quality research by $9.8 million in fiscal 
year 2007.

                           INDOOR AIR QUALITY

    Every breath we take, indoors and out, we inhale not just life-
sustaining oxygen but dust and smoke, chemicals, microorganisms, and 
particles and pollutants that float on the air. The average human 
inhales approximately 10 cubic meters of air daily. Because most people 
spend about 22 hours each day indoors, poor indoor air quality (IAQ) 
affects both public health and national productivity. At present, a 
shortage of IAQ research leaves much unknown about cause-and-effect 
specifics, but there is little doubt that contaminated buildings are 
attracting more attention as occupants develop often vague symptoms 
followed by remediation, litigation, and other costly outcomes.
    Although IAQ issues are often viewed as a problem of modern 
buildings, connections made between air and disease date to ancient 
times. Long before the germ theory of disease and its indictment of 
pathogenic microorganisms, humans associated foul miasmas like ``sewer 
gas'' with infectious diseases such as malaria. Initially, prevention 
of disease transmission by infectious pathogens became the principal 
concern of early public health advocates. Today we understand that 
airborne non-pathogenic organisms, fragments of microbial cells, and 
by-products of microbial metabolism also cause problems. The ASM 
believes that more research is needed in this area for the safety and 
protection of human health and urges Congress not to support the 
Administration's request for a $6.4 million reduction in fiscal year 
2007 for Air Quality research at the EPA.

                         COMPUTATION TOXICOLOGY

    The EPA's Office of Research and Development (ORD) has initiated a 
research program on Computational Toxicology to better understand the 
relationships between sources of environmental pollutant exposure and 
adverse outcomes. Computational toxicology integrates computing and 
information technology with the technologies of molecular biology and 
chemistry and is used to improve the EPA's prioritization of data 
requirements and risk assessments for toxic chemicals. Strategic 
objectives of this program are to: (1) improve understanding of the 
linkages in the continuum between the source of a chemical in the 
environment and adverse outcomes, (2) provide predictive models for 
screening and testing and (3) improve quantitative risk assessment.
    The ASM supports the Administration's request to increase research 
funding for this program by $2.7 million in fiscal year 2007. Part of 
this increase will support a biologically based system to reduce the 
uncertainty in the prioritization and categorization of chemicals, and 
develop computational models of biological processes relevant to the 
induction of toxicity for high priority environmental contaminants. As 
a result, the Agency would be less reliant on default assumptions of 
risk assessments and able to accurately characterize the uncertainty 
associated with risk predictions.

                          STAR GRANTS PROGRAM

    The EPA's Office of Research and Development (ORD) manages the STAR 
grants program, which is a competitive, peer-reviewed, extramural 
research grants program intended to increase access to the nation's 
best scientists and engineers in academic and other nonprofit research 
institutions. Research sponsored by the STAR program allows the EPA to 
fill information gaps that are not addressed completely by its 
intramural research programs, and to respond to new and emerging issues 
that the agency's laboratories are not able to address.
    The EPA fiscal year 2007 budget requests $65 million for the STAR 
grants program, a 5 percent reduction from the fiscal year 2006 level, 
and 36 percent below the peak funding level of $102 million in fiscal 
year 2002. The National Academy of Sciences (NAS) has urged the 
continuation of and investment in the STAR program. In 2003, the NAS 
released a report titled, The Measure of STAR: Review of the U.S. 
Environmental Protection Agency's Science to Achieve Results (STAR) 
Research Grants Program, which argues that the STAR grants are a 
critical means for the agency to access scientific expertise that it 
does not have in-house, and to respond quickly to emerging issues.
    Since its inception in 1995, the STAR research projects have 
resulted in articles in highly respected, peer-reviewed journals, and 
have already helped to improve our understanding of the causes, 
exposures and effects of environmental pollution and microorganisms in 
the environment. The ASM urges Congress to increase funding for the 
STAR grants program to the fiscal year 2002 level of $102 million. The 
STAR program focuses on critical research areas, including the health 
effects of particulate matter, drinking water, water quality, global 
change, ecosystem assessment and restoration, human health risk 
assessment, endocrine disrupting chemicals, pollution prevention and 
new technologies, children's health, and socio-economic research.

                        STAR FELLOWSHIP PROGRAM

    As part of its STAR program, the EPA offers Graduate Fellowships 
for master's and doctoral level students in environmentally related 
fields of study. The STAR fellowship program was initiated in 1995. 
Approximately 1,100 STAR fellowships have been awarded since the 
inception of the program. The purpose of the fellowship program is to 
encourage promising students to obtain advanced degrees and pursue 
careers in an environmental field. This goal is consistent with the 
immediate and long-term mission of the EPA, to protect public health 
and the environment.
    The EPA budget requests a $3.4 million reduction to the STAR 
Fellowship Program in fiscal year 2007, or 37 percent below the fiscal 
year 2006 level. This reduction will affect approximately 37 graduate 
students pursuing degrees related to environmental sciences. The ASM 
urges Congress to restore funding for the STAR Fellowship Program. The 
STAR fellowship program has proven to be beneficial to both the public 
and private sectors by providing a steady stream of well-trained 
environmental specialists to meet environmental challenges in our 
society. It has also provided new environmental research in physical, 
biological, health sciences, and social sciences and engineering.

                               CONCLUSION

    Well-funded research is needed to address emerging issues affecting 
the environment and human health. For the EPA to fulfill its mission to 
protect human health and to safeguard the natural environment, the ASM 
urges Congress to support the Administration's overall request for 
increased funding for the EPA's science and technology programs in 
fiscal year 2007.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers its 
appropriation for the EPA for fiscal year 2007.
                                 ______
                                 
      Prepared Statement of the American Symphony Orchestra League

    On behalf of America's orchestras, the American Symphony Orchestra 
League urges the subcommittee to approve fiscal year 2007 funding for 
the National Endowment for the Arts (NEA) at a level of $170 million. 
Congressional support for the NEA has strengthened in recent years, 
evidenced by meaningful incremental funding increases. Still, the NEA 
has never fully recovered from a 40 percent budget cut in fiscal year 
1996. The current fiscal year 2006 level of funding for the NEA--$124.4 
million--is well below the 1992 appropriation of $176 million.
    An increased appropriation would expand the NEA's ability to serve 
the American public through grants supporting and promoting the 
creation, preservation, and presentation of the arts in America through 
the NEA's core programs--Access to Artistic Excellence, Challenge 
America: Reaching Every Community, Learning in the Arts for Children 
and Youth, and Federal/State partnerships--and through important 
national initiatives.
    Founded in 1942, the American Symphony Orchestra League is the 
national service organization for nearly 1,000 symphony, chamber, 
youth, and collegiate orchestras, with budgets ranging from less than 
$50,000 to more than $50 million. Together with the NEA, we share a 
common goal of strengthening orchestras as organizations and promoting 
the value of the music they perform.
    As the NEA marks its 40th year, it is important to recognize the 
irreplaceable contributions federal funding makes to the creative 
capacity of the United States. The grants awarded to orchestras by the 
NEA, and support provided to orchestras through NEA funds administered 
by state arts agencies, provide critical support for projects that 
increase access to music in communities nationwide.
    A few quick facts about the state of American orchestras:
    Across America, there are 1,800 adult and youth orchestras.--
Supported by a network of musicians, volunteers, administrators, and 
community leaders, America's adult, youth, and college orchestras exist 
in every state and territory, in cities and rural areas alike. They 
engage more than 150,000 instrumentalists, employ (with and without 
pay) more than 8,000 administrative staff, and attract more than 
475,000 volunteers and trustees.
    During the last decade, America's orchestras performed for more 
people than ever before.--American orchestras have never been in 
greater demand. In the course of a season, orchestras perform nearly 
36,000 concerts to total audiences nearing 28 million. Current 
attendance at concerts is higher than a decade ago.
    Orchestras remain artistically rich, economically challenged--and 
amazingly resilient.--Though their structure is delicately balanced, 
the economic performance of America's orchestras continues to improve. 
Three of the communities that lost orchestras during the recession of 
2002 through 2005 have already revived their orchestras or started new 
ones. Musicians and civic leaders value live symphony music so much 
that they do whatever it takes to ensure the presence of an orchestra 
in their community.
    Orchestras are an important part of the community fabric.--The 
resolve of American orchestras to reach all segments of their 
communities is strong. In the 2003-04 season, America's orchestras 
performed more than 36,000 concerts, including twice as many education 
concerts as a decade ago. Orchestras are working to increase the 
representation of their diverse communities both on stage and in the 
audience, and composer residencies are on the rise. Orchestras are 
essential and active partners in increasing access to music, improving 
the quality of life in their communities by collaborating with school 
systems and other local partners to deliver a wide array of 
performances and programs.

      NEA GRANTS UNIQUELY SUPPORT THE CREATION, PRESENTATION, AND 
                        PRESERVATION OF THE ARTS

    In the most recently completed grant year, fiscal year 2005, the 
NEA's Grants to Organizations included 118 grants to orchestras and the 
communities they serve, supporting arts education for children and 
adults, expanding public access to performances, preserving great 
classical works, and fostering the creative endeavors of contemporary 
classical musicians, composers, and conductors.
    The NEA is a critical component in the network of public, private, 
corporate, and philanthropic support that makes the work of America's 
orchestras possible. Orchestras and the communities they serve benefit 
from NEA support through direct grants to organizations and 
distribution of NEA funds through state arts agencies. Concert income 
accounts for only 37 percent of orchestra revenue. The remaining 
support for orchestras is generated by a delicate balance of private 
and public support. For many orchestras, the benefit of an NEA grant 
goes far beyond the dollar-value of the award and serves to multiply 
private support by attracting additional sponsorship and recognition.
  --In fiscal year 2005, the Juneau Symphony received an NEA grant, 
        funding a tour to Wrangell, Alaska through Alaska's Inside 
        Passage. This is the first NEA grant the orchestra has 
        received. Support from the NEA enabled the orchestra to bring 
        live symphonic music to underserved communities and helped 
        attract new funding sources from area businesses.
  --The Orchestra of Southern Utah received its first NEA grant to 
        support the Spanish Trail Festival, a celebration of the 
        Hispanic, Paiute, and Pioneer heritage of the area through 
        music and native dance. The NEA grant enabled the orchestra to 
        commission an original composition by Marshall McDonald, a 
        nationally prominent guest artist, pianist and composer, and 
        helped procure a $5,000 grant from the George S. and Dolores 
        Dore Eccles Foundation.
  --NEA funding for the New Mexico Symphony Orchestra supported a 
        state-wide tour to small, rural, and underserved communities in 
        New Mexico, serving approximately 5,000 new audience members 
        and reaching over 42,000 children through educational programs 
        in partnership with local school systems and community centers.
       nea funding helps orchestras connect to their communities
    The NEA motto, ``A Great Nation Deserves Great Art'' aptly 
reinforces the key focus of the agency. While the vast majority of NEA 
funds are allocated to arts institutions, the NEA exists to serve the 
American people. Projects supported by the NEA must demonstrate 
artistic excellence and a strong capacity to reach new audiences. 
Audiences across the country are currently experiencing an NEA-funded 
project that exhibits the hallmarks of the agency: reaching new 
audiences, attracting additional financial support, and providing 
access to the arts to communities nationwide.
    An NEA grant to the Glens Falls (N.Y.) Symphony Orchestra supports 
the ``Ford Made in America'' project, a collaborative commissioning, 
performance, and outreach project that involves 65 smaller-budget 
orchestras, including at least one from each of the 50 states. In 
addition to support from the NEA, the Ford Motor Company Fund 
contributed major funding, becoming the title sponsor, and the program 
is a partnership of the American Symphony Orchestra League and Meet the 
Composer. The largest consortium commission ever planned by American 
orchestras, Ford Made in America gives ensembles in smaller communities 
the capacity to premiere a new work by Joan Tower, an established 
American composer of national repute.
    For orchestras with smaller budgets, commissioning and presenting a 
major new work by a nationally recognized composer can be difficult, 
due to budget constraints and limited staff resources. The 
collaborative nature of the Ford Made in America project provides the 
65 participating orchestras the opportunity to achieve together what no 
one of them could afford to do on their own. On the local level, Ford 
Made in America has opened up new potential funding streams for 
participating orchestras. Communities in all participating orchestras 
are enjoying the ``buzz'' that comes with being connected with the 
greater symphony community and garnering national attention by being 
part of an exciting new project.
    Joan Tower's composition titled ``Made in America'' received its 
world premiere by the Glens Falls Symphony Orchestra in October 2005, 
and will be performed in May 2006 by the Missoula Symphony Orchestra. 
The subsequent performances will take place through March 2007, making 
``Made in America'' the most-performed work by a living American 
composer. The Ford Made in America project is more than just a 
performance of one piece, however. Each participating orchestra has 
been equipped with a ``tool kit'' which provides talking points for 
local fund raising, marketing materials, and education lesson plans 
that serve as the basis for developing distinctive community-based 
programs.
    The Ford Made in America project exemplifies the vitality of 
America's orchestras and composers, a spirit of partnership, and a 
commitment to creativity and communities. It also demonstrates the 
capacity of the NEA to identify and support efforts that encourage 
creative collaboration and build the artistic strengths of local 
communities.
    The Endowment's unique ability to provide a national forum to 
promote excellence, both through high standards for artistic products 
and the highest expectation of accessibility, remains one of the 
strongest arguments for a federal role in support of the arts. We ask 
you to support creativity and access to the arts by approving an 
increase in funding for the National Endowment for the Arts.
                                 ______
                                 
 Prepared Statement of the Association of State and Territorial Solid 
     Waste Management Officials (ASTSWMO); National Association of 
Convenience Stores (NAGS); National Association of Truck Stop Operators 
 (NATSO); National Ground Water Association (NGWA); Natural Resources 
  Defense Council (NRDC); Petroleum Equipment Institute (PEI); Sierra 
  Club; and the Society of Independent Gasoline Marketers of America 
                                (SIGMA)

    As you prepare to develop fiscal year 2007 appropriations 
legislation, the undersigned organizations request that you increase 
substantially the level of appropriations from the Federal Leaking 
Underground Storage Tank (LUST) Trust Fund to fund fully the Federal 
underground storage tank (UST) program. Such an increase in fiscal year 
2007 appropriations will: (1) provide important assistance to the 
Environmental Protection Agency (EPA) and States in preventing 
petroleum releases from regulated USTs; (2) enable EPA and States to 
undertake remediation work at UST sites where a responsible party can 
not be found; (3) provide Federal and State UST officials with adequate 
resources to ,enforce Federal and State UST laws; and, (4) enhance the 
protection of human health and the environment.
    The Federal LUST Trust Fund provides money to States and EPA to 
operate their UST programs and to assist States in remediating releases 
when a responsible party cannot be found. In the years since its 
inception, this Fund has amassed a balance of $2.349 billion as of 
September 30, 2005. A preliminary analysis by the Treasury Department 
reports that in fiscal year 2005 the Fund received an additional $190.8 
million from the Federal LUST tax and $77.7 million from interest on 
the balance in the Fund. Yet, for the last several years Administration 
budget requests and congressional appropriations from the Fund have 
been less than the interest earned--$69.4 million in fiscal year 2005.
    These minimal annual appropriations levels have persisted for 
years, causing the balance in the Fund to rise to a point that it could 
now fund annual appropriations at current levels for the next 30 
years--without an additional dollar in income! Clearly, the LUST Trust 
Fund is being used as a Federal deficit reduction device rather than 
for the important purpose originally envisioned by Congress--protection 
of the environment. This situation must change. We have asked the 
Administration to increase its budget request for the program, and we 
are asking you to increase congressional appropriations.
    The Energy Policy Act of 2005 contained several reforms to the 
Federal UST program that expand the permitted uses of Federal LUST 
Trust Fund dollars and place substantial new responsibilities on the 
EPA and State UST agencies. The legislation authorized significant 
increases in appropriations from the Fund to assure that EPA has the 
financial resources to implement these reforms, to assure that the new 
regulatory provisions do not represent an unreasonable burden on the 
States, and to allow EPA and States to expand their response to UST 
petroleum releases, including those containing MTBE. If the 
Administration and Congress do not break with tradition and appropriate 
significantly higher amounts from the Fund in the coming years, EPA and 
the States will be unable to implement these important reforms.
    The President's proposed budget includes an additional $26 million 
in State and Tribal Assistance Grants (STAG) dedicated to help States 
implement these important reforms, yet requests only $73 million from 
the LUST Trust Fund for overall program operations. While the 
additional STAG funds will be of great assistance to the States, they 
are insufficient to fully implement the reforms of the Energy Policy 
Act without a substantial increase in appropriations from the LUST 
Trust Fund as authorized in the Energy Policy Act.
    We understand that the Administration and Congress currently are 
facing a difficult budget situation and there are many demands on 
Federal funds. However, the Federal LUST Trust Fund must cease to be 
used as a deficit reduction tool in the budget process and its massive 
resources must be employed to fulfill Congress' intent--prevention of 
UST releases, remediation of UST releases, and enforcement of Federal 
and state UST laws.
    As you consider fiscal year 2007 spending priorities, we urge you 
to ensure this important environmental program is adequately funded and 
that the resources collected to protect the environment, prevent UST 
releases and enforce Federal and State UST laws are used to do just 
that.
    Thank you for your support for the Federal UST program and please 
let us know how we may be of assistance to you and your staffs in this 
effort.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy

    Mr. Chairman and Honorable Members of the Subcommittee: I am 
writing in behalf of the Appalachian Trail Conservancy to present this 
testimony in support of three Land and Water Conservation Fund 
appropriations totaling $5.6 million and two Forest Legacy 
appropriations totaling $3.22 million. These projects are in Tennessee, 
Virginia, Connecticut, Vermont and Maine and if funded will lead to 
acquisitions that significantly benefit the Appalachian National Scenic 
Trail (A.T.), America's favorite long-distance hiking trail and a unit 
of the National Park System.
    The Appalachian Trail Conservancy is a volunteer-based, private 
nonprofit organization dedicated to the conservation of the 2,175-mile 
Appalachian National Scenic Trail, a 250,000-acre greenway extending 
from Maine to Georgia. Our mission is to ensure that future generations 
will enjoy the clean air and water, scenic vistas, wildlife and 
opportunities for simple recreation and renewal along the entire Trail 
corridor. Our 37,000 members come from all 50 states and last year our 
5,000 affiliated volunteers contributed more than 195,000 hours toward 
managing and maintaining the Trail and its associated facilities and 
resources.
    Cherokee National Forest ($3 million LWCF).--We are requesting $3 
million from the Land and Water Conservation Fund for the Cherokee 
National Forest in Tennessee. This funding will support the acquisition 
of four tracts--three of them directly benefiting the Appalachian 
Trail. The most spectacular of them is the Hump Mountain tract (470 
acres for $1.175 million). This in-holding consists of vacant land, 
both open and wooded, and lies on the upper slopes of Hump Mountain and 
includes the headwaters and upper watershed of Shell Creek. This tract 
is situated in the immediate view shed of the A.T. which traverses 
along the crest of Hump Mountain at elevations exceeding 5,000 feet. 
This section of the A.T. is characterized by high altitude grassy balds 
situated along the Tennessee/North Carolina state line. Views from and 
to the property are outstanding. Currently, this tract is being 
subdivided and advertised for sale on the Internet; however, no lots 
have been sold and the landowner has indicated he would consider 
selling the tract as a whole. The Southern Appalachian Highlands 
Conservancy (SAHC), Appalachian Trail Conservancy (ATC), The Nature 
Conservancy (TNC) and local hiking clubs are working in cooperation 
with the Forest Service to prevent development of this tract and bring 
this tract under Forest Service ownership.
    Also in the Cherokee National Forest is the Shook Branch relocation 
tract (20 acres for $50,000). The present location of the A.T. in the 
Shook Branch area includes approximately a one-quarter-mile walk on a 
paved county road that not only diminishes A.T. values, but also 
creates a safety concern of mixing pedestrians with vehicular traffic. 
The original Trail route planned for this area has met with an 
unwilling seller. The Forest Service, in cooperation with ATC and local 
hiking clubs, has determined a better and more scenic route for the 
Appalachian Trail that can be accomplished without utilizing eminent 
domain. Two properties on the new proposed route were recently acquired 
from willing sellers and only this tract remains to complete this A.T. 
relocation.
    The final A.T. parcel in the Cherokee National Forest is the Pond 
Mountain Wilderness tract: (11 acres for $27,500). This tract is within 
1,500 feet of the Appalachian Trail and is adjacent to the federal Pond 
Mountain Wilderness area. Acquisition will allow the Forest Service to 
provide parking for foot travel access into National Forest System 
lands and will enhance several outdoor activities such as hunting, 
camping, hiking and other backcountry recreational experiences.
    George Washington and Jefferson National Forest ($1.25 million 
LWCF).--This appropriation will enable acquisition of a combination of 
fee-simple interests as well as conservation easements along a proposed 
seven-mile relocation of the Appalachian Trail adjacent to the New 
River in Giles County in Southwest Virginia. For nearly 30 years the 
final alignment of the A.T. in this area has remained unresolved due to 
challenges with trail design, land ownership, and hiker-safety issues. 
The current footpath location is on private property owned by Celanese 
Acetate, LLC and is open only at the discretion of the landowner. The 
current route parallels U.S. 460, passes by a large chemical plant, 
provides minimal recreational or scenic values, and poses a barrier to 
certain Celanese land uses. The largest portion of the requested 
funding will be to purchase fee interest in approximately 400 acres 
from Celanese. Seven scenic easements will be acquired from additional 
landowners amounting to approximately an additional 25 acres.
    Through the collaborative efforts of the USDA Forest Service and 
the Appalachian Trail Conservancy, in negotiation with the managers of 
the Celanese Acetate, LLC Chemical Plant and the local community and 
government, a new alternative route was identified on the Celanese 
property that provides a scenic and safe route from the New River to 
the summit of Peters Mountain. The new route alleviates impacts to 
adjacent private landowners. This is a route that is receiving wide 
public support. The completed trail will provide the local community 
with an outstanding recreational opportunity, as this area of 
Southwestern Virginia seeks to capitalize on outdoor recreation dollars 
for economic growth.
    The proposed new route crosses the New River and U.S. 460 and 
immediately enters the woods. The terrain and topography will shield 
the Trail from the audible and visual impacts of the chemical plant and 
the highway. The trail will follow the New River for one mile before 
ascending a ridgeline onto Hemlock Ridge through terrain that provides 
a more remote experience and minimizes conflicts with Celanese 
operations. As it continues and ascends Peters Mountain, it affords 
spectacular vistas of the surrounding terrain.
    Skiff Mountain Forest Legacy ($1.22 million Legacy).-- This Forest 
Legacy funding will allow the State of Connecticut to acquire an 
easement on 510 acres of working forest in the towns of Kent and Sharon 
in the northwest corner. The Skiff Mountain project is being 
spearheaded by the Trust for Public Land and the State of Connecticut 
and if funded will implement the second and final phase of this 
project. Given the level of development and the relative lack of open 
space in a small urban state like Connecticut this presents a unique 
opportunity to conserve a large piece of working forest. These lands 
contain the headwaters of several tributary streams to the Housatonic 
River and also harbor important wildlife habitat. Of importance to the 
Appalachian Trail, these parcels provide significant viewshed 
protection and buffer the Trail from development. These lands also 
contain the upstream area for several brooks that are used as water 
sources by hikers. Keeping these lands from being developed will 
sustain the rural economy by providing a long term source of forest 
products in a region that frequently is seeing large parcels subdivided 
for second home development.
    Broad Brook Property--Green Mountain National Forest ($1.1 million 
LWCF).--The Broad Brook Property is an important addition to the Green 
Mountain National Forest along the Massachusetts border. Available for 
acquisition in fiscal year 2007 are the final 970 acres of the 3,921-
acre Broad Brook watershed property. For many years, the city of North 
Adams, Massachusetts, which owns this parcel, used the Broad Brook 
watershed as a source of drinking water for city residents. However, 
several years ago the city ceased depending on Broad Brook for its 
water and is now interested in selling the property. The State of 
Vermont has mapped this parcel as being entirely within black bear 
production habitat capable of supporting high densities of cub 
producing females. On the property there can be found a large and 
healthy population of the state threatened Large Whorled Pogonia 
(Isotria verticillata), and close to 7 miles of pristine headwaters 
streams. A portion of the Appalachian National Scenic Trail, which in 
this part of Vermont coincides with the Long Trail, passes across the 
Broad Brook property. The current A.T. protection is a narrow easement 
and this acquisition would bring the level of A.T. protection up to an 
adequate standard. Putting the trail in the midst of a larger protected 
landscape is the surest way to retain the wild and scenic experience 
that hikers currently enjoy elsewhere in southern Vermont.
    Grafton Notch Forest Legacy: Maine ($2 million Legacy).--The 
Grafton Notch parcel is part of the Mahoosuc Range, an important 
mountain landscape that is seeing intense development pressure around 
the resort community of Bethel, Maine. This project is ranked #1 on the 
President's Forest Legacy list and the funding would provide an 
opportunity for the State of Maine to acquire a 3,688-acre parcel. This 
parcel contains spectacular views both to and from the Appalachian 
Trail. It also contains a section of the Grafton Loop Trail, a side 
trail to the Appalachian Trail. This new trail is designed to take 
pressure off of the heavily visited section of the A.T. in the Mahoosuc 
Range. The Grafton Notch parcel is surrounded on three sides by state 
land and is part of an important mountain ecosystem that is one of only 
three places in Maine where peaks rise above 4,000 feet. If it is not 
purchased by the state, the parcel is vulnerable to development since 
it is in the same valley as the Sunday River Ski Area, a destination 
resort that has been spawning very large subdivisions at a rate that 
has caused concern in the local community.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of Land and Water Conservation Fund and Forest 
Legacy appropriations.
                                 ______
                                 
               Prepared Statement of Audubon Connecticut

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Audubon Connecticut, I appreciate the opportunity to present this 
testimony in support of a $2 million appropriation from the Land and 
Water Conservation Fund for land acquisition within the Salmon River 
Division of the Silvio O. Conte National Wildlife Refuge in 
Connecticut, as part of an overall $4 million request for funding for 
refuge projects in Connecticut, Massachusetts, Vermont and New 
Hampshire.
    Audubon Connecticut, the state organization of the National Audubon 
Society with more than 10,000 members statewide, works to further the 
protection of birds, other wildlife and their habitats using education, 
science and conservation, and legislative advocacy for the benefit of 
humanity and the earth's biological diversity.
    In 1991, the Silvio O. Conte National Fish and Wildlife Refuge 
(NFWR) Act directed USFWS to study the entire Connecticut River 
watershed, from Vermont and New Hampshire, through Massachusetts to 
Connecticut, and create a national fish and wildlife refuge. The Conte 
NFWR is no ordinary refuge. The Connecticut River watershed, 7.2 
million acres in four states, is larger and more populous than areas 
usually considered for a refuge. The purposes of the Conte Refuge are 
also much broader, it is one of the few fish and wildlife refuges, and 
protecting natural diversity is a new scientific and social challenge. 
There are several announced, identified and potential IBAs within the 
boundaries of the Refuge. The two current acquisition opportunities are 
located at the Salmon River Division in Connecticut and the Fort River 
Division in Massachusetts.
    The northern third of the watershed located in Vermont and New 
Hampshire is part of the ``Northern Forest'' which is largely privately 
owned industrial forest stretching from the Adirondacks to the coast of 
Maine. Large blocks of this land have been sold in unprecedented 
quantities recently as the timber industry relocates some of its 
financial assets. Important bottomland forest, flood plain wetlands, 
and a variety of grassland areas are generally located along the middle 
third of the Connecticut River in western Massachusetts and northern 
Connecticut. The mouth of the river, located in southern Connecticut, 
contains internationally significant fresh, brackish and saltwater 
tidally influenced wetlands. The Refuge emphasizes protecting Federal 
trust species--migratory birds, migratory fish, federally endangered or 
threatened species, and rare and exemplary natural communities.
    Forty-eight ``Special Focus Areas'' encompassing roughly 180,000 
acres have been identified within the watershed. These areas contribute 
substantially or in unique ways to supporting natural diversity in the 
watershed. There are two recognized IBAs and seven identified IBAs 
within the Refuge Special Focus areas in Connecticut; there are 14 in 
Massachusetts, four in Vermont, and one in New Hampshire.
    In Connecticut, the Salmon River is recognized by U.S. Fish & 
Wildlife Service (USFWS) as a high-priority Special Focus Area. Salmon 
River Division is comprised of a range of important natural features, 
including free-flowing rivers, thriving freshwater tidal marshes, 
forested watersheds, floodplain forests, and rare plants and animals.
    The Elm Camp Johnson property proposed for acquisition in 2007 
would be the first acquisition in this division and is a keystone 
property containing these features:
  --3,360 feet of frontage on Pine Brook, a high-quality stream that 
        provides remarkable cold-water fish habitat
  --1,440 feet on the west bank of the Salmon River, site of extensive 
        state and federal efforts to restore anadromous fish runs, 
        including the Atlantic salmon
  --Pine Brook is the only major Salmon tributary free of artificial 
        barriers to migratory fish
    I respectfully request that you include an appropriation of $4 
million for the Silvio O. Conte NWR in fiscal year 2007 in the Interior 
and Related Agencies Appropriations bill, allocated to projects in the 
four states included in the Refuge, with $2 million for the Elm Camp 
Johnson parcel in Connecticut, and an additional $2 million for land 
acquisition projects in Massachusetts, Vermont and New Hampshire in the 
Fort River Division, Pondicherry, and Mohawk River Divisions.
    Thank you for the opportunity to present this request.
                                 ______
                                 
               Prepared Statement of Audubon Connecticut

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
Audubon Connecticut, I appreciate the opportunity to present this 
testimony in support of a $1 million appropriation from the Land and 
Water Conservation Fund for land acquisition within the Stewart B. 
McKinney National Wildlife Refuge.
    Audubon Connecticut, the state organization of the National Audubon 
Society with more than 10,000 members statewide, works to further the 
protection of birds, other wildlife and their habitats using education, 
science and conservation, and legislative advocacy for the benefit of 
humanity and the earth's biological diversity.
    The Stewart B. McKinney National Wildlife Refuge, named to honor 
the late U.S. congressman who was instrumental in its creation, was 
established to protect migratory bird habitat considered important to 
wading and shorebird species including heron, egrets, terns, plovers 
and oystercatchers among others. Stewart B. McKinney NWR is currently 
comprised of eight units stretching along 60 miles of Connecticut's 
coastline. In addition to the increase in habitat protection over the 
years, the refuge now provides opportunities for scientific research, 
environmental education, and fish and wildlife-oriented recreation. 
Located in the Atlantic Flyway, the refuge provides important resting, 
feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    Available for refuge acquisition in fiscal year 2007 is the 22-acre 
Menunketesuck Salt Meadow Marsh in Westbrook, Connecticut. The property 
is comprised of pristine coastal tidal marsh, a forested upland, 
scrubland, and a rock outcropping that towers above 1,000 feet of 
frontage along the gentle Menunketesuck River as it winds its way to 
Long Island Sound. As a migratory stopover for neo-tropical migrant 
land birds, this riparian area is the top priority for acquisition for 
the refuge. It has been identified as an Important Bird Area by Audubon 
Connecticut because of its high value avian habitat.
    Acquisition of the marsh property will enhance the resources of the 
current Salt Meadow Unit of the refuge, as it contains part of the 
least developed upland borders of any remaining tidal marsh in all of 
Connecticut. As much of the state's coastline has been built upon, it 
is rare to find such a large undeveloped marsh area in Connecticut. 
Under imminent threat of development into condominiums, this parcel 
must be acquired by the Refuge if it is to continue to serve as an 
island of forested habitat land on an otherwise highly developed 
coastline.
    In order to acquire the Menunketesuck Salt Meadow Marsh property, 
an appropriation of $1 million is needed from the Land and Water 
Conservation Fund in fiscal year 2007. This priority acquisition will 
increase wildlife habitat protection at the Stewart B. McKinney NWR and 
ensure the public continued opportunities for recreation and 
environmental education along Connecticut's coastline.
    I respectfully request that you include an appropriation of $1 
million for the Stewart B. McKinney NWR in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
         Prepared Statement of the Arizona Wilderness Coalition

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to submit this testimony in support of an 
appropriation of $5.5 million from the Land and Water Conservation Fund 
for purchase of the Packard Ranch for the Coconino National Forest in 
Arizona.
    The canyons, deserts, and forests of the Coconino National Forest 
are a tremendous natural resource for residents and visitors in central 
Arizona. Millions of visitors are drawn annually to the forest to camp, 
fish, picnic, ride horses, and enjoy winter sports.
    This year, the Forest Service has the opportunity to acquire the 
139-acre Packard Ranch property. Located upstream from the towns of 
Clarkdale and Cottonwood, the riparian areas along the Verde River and 
Sycamore Creek on the property provide critical habitat for threatened 
and endangered species including bald eagles, razorback suckers, and 
spikedace. The parcel is adjacent to the Sycamore Creek Wilderness, an 
area that protects the scenic red rock Sycamore Canyon.
    Packard Ranch includes an important trailhead providing access to 
the Sycamore Canyon Wilderness. Both the Parson's and Packard hiking 
trails are entered exclusively from this property. Although the public 
has traditionally been permitted to use this trailhead, there is no 
permanent guarantee of access.
    Properties with riparian frontage in Arizona are at a premium for 
development, and without permanent protection, it is predictable that 
Packard Ranch would be developed. If this were to happen, the character 
of the landscape could change dramatically, and the public could lose 
access to the trails and wilderness area.
    With its strategic location within the Coconino National Forest, 
the acquisition of the Packard Ranch property in fiscal year 2007 will 
protect vital habitat, ensure continued public access to trails, and 
preserve the unique scenic vistas of Sycamore Canyon. Acquiring this 
property from the currently willing seller should be provided the 
highest level of priority. An appropriation of $5.5 million is needed 
from the Land and Water Conservation Fund to ensure that this land will 
be protected in perpetuity.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the acquisition of Packard Ranch for the 
Coconino National Forest.
                                 ______
                                 
    Prepared Statement of American Rivers, Association of State and 
 Interstate Water Pollution Control Administrators, Interstate Council 
  on Water Policy, Association of American State Geologists, Western 
 States Water Council, American Institute of Hydrology, Environmental 
   Defense, American Society of Civil Engineers, Water Environmental 
   Federation, Federation of Flyfishers, American Canoe Association, 
Association of State Flood Plain Managers, Trout Unlimited, Association 
 of State Dam Safety Officials, National Water Resources Association, 
 the National Association of Flood and Stormwater Management Agencies, 
American Whitewater, and International Association of Fish and Wildlife 
                                Agencies

    We seek your help to increase funding in the federal fiscal year 
2007 budget sufficient to restore the U.S. Geological Survey's 
Cooperative Water Program (CWP) and National Streamflow Information 
Program (NSIP) to at least fiscal year 2003 levels of capability. 
Restoring this capacity requires an appropriation of at least $74 
million for the CWP (rather than the $62.171 million in the President's 
request) and $16.764 million for the NSIP (as requested by the 
President).
    Many of our members are active, financial partners in the 
Cooperative Water Program. All of us rely on the streamflow data 
collected and disseminated by these two important programs.
    Together, these two programs comprise a critical national system of 
water resource monitoring. The USGS operates and maintains these 
networks with extensive cooperation from state agencies, interstate 
organizations, tribal and local governments and many non-governmental 
organizations.
    The Nation's need for accurate streamflow data continues to 
increase along with our population. This information is used by 
federal, state, tribal, and local government agencies, by public 
utilities, private businesses, non-profit organizations and 
individuals, on a regular basis to forecast flooding and drought 
events, to plan and protect water supplies for agricultural, municipal, 
and industrial uses, to design bridges, manage hydropower production, 
schedule recreation activities, evaluate dam safety and to integrate 
ecological protection of wetlands, fish and wildlife management and for 
endangered species conservation with our other priorities.
    Although these data collection and science programs benefit so many 
interests, their funding has been allowed to erode to the point that 
the quantity and quality of the basic data are threatened, with 
significant adverse consequences to a growing and diverse number of 
decision makers and stakeholders. Years of inadequate federal funding 
threatens the availability of critical data regarding stream flows, 
lake levels, groundwater levels and water quality, which are the basis 
for many essential public and private decisions. The President's 
request for the CWP will continue a pattern of steady erosion of 
federal support and the elimination or obsolescence of many long-term 
gages, undermining our planning, design, forecasting and emergency 
warning capabilities.
    In 1998, Congress' concern about streamgaging led the USGS to 
create the National Streamflow Information Program. Unlike the 
Cooperative Water Program (which is funded in large part by non-federal 
Cooperators), Congress determined that the NSIP should be funded 
entirely with federal appropriations. In November 2004, the National 
Research Council's Committee on Water Resources Research completed its 
assessment of the USGS plans for the NSIP: ``Overall, the Committee 
concludes that the National Streamflow Information Program is a sound, 
well-conceived program that meets the nation's needs for streamflow 
measurement, interpretation, and information delivery.''
    The NSIP has been severely under funded and we urge your support 
for the President's request to increase its appropriation to $16.764 
million for fiscal year 2007 in order to restore program capability to 
its fiscal year 2003 level. The NSIP is currently able to fund less 
than 15 percent of the gages listed in the plan approved by the 
National Research Council. In future years, another $100 million will 
be needed to reactivate and add streamgages, upgrade the system, and 
realize the full vision of the NSIP. A fully funded NSIP averts the 
loss of long-term gages that are critical for analysis of trends, 
floods, and water supply. A strong federal investment in the NSIP is 
needed to reverse the current trend of annually shutting down 
streamgages that provide the basis for flood warnings and info for 
water resource management.
    The President's request for the Cooperative Water Program in fiscal 
year 2007 ($62.171 million) represents a cut of $2 million and will 
exacerbate the decline in CWP capability. For over 100 years, the CWP 
has been maintained as a federal/non-federal partnership, funded 
through 50/50 percent cost-share agreements. Today, roughly 70 percent 
of the funding is from non-USGS sources.
    For fiscal year 2007, we ask that you appropriate at least $74 
million for the Cooperative Water Program to restore its ability to its 
fiscal year 2003 level, as we urged in our August 12, 2005 letter to 
Interior Secretary Norton and OMB Associate Director Anderson. This 
amount is still well below the $138 million contributed by Cooperators 
annually since fiscal year 2004. We will continue asking Interior, OMB 
and the President to increase their annual requests to match the 
Cooperators' level of support over the next few years. In the meantime, 
we seek your help.
    Our recent experience with the prediction of catastrophic storms 
and the design of adequate safeguards proves that timely and accurate 
information needed for water resources management has never been more 
important.
    We urge you to give a higher priority to these vital programs in 
fiscal year 2007 and then increase future appropriations until the 
Cooperators' matching contributions are fully met and the nation's 
water monitoring system is fully stabilized. In this regard, the 
funding levels we are requesting should be viewed as the minimum needed 
to maintain existing capabilities, while even greater funding would 
hasten the restoration and completion of a National Streamgaging System 
that we depend on in making water supply and emergency management 
decisions.
                                 ______
                                 
      Prepared Statement of the Awwa Research Foundation (AwwaRF)

    Thank you for the opportunity to present testimony on behalf of 
AwwaRF. We request the consideration of the Subcommittee for $5 million 
in funding from the EPA Science and Technology account of your fiscal 
year 2007 bill.
    Providing safe, secure, and affordable drinking water to the 
American public is a national priority and compliance with federally 
mandated drinking water regulations is an essential part of this 
process. AwwaRF, acting in its capacity as the research arm of the 
North American water supply community, supplies much of the sound 
science and knowledge that utilities depend upon to meet EPA 
regulations. We believe that the Foundation offers a successful model 
for how to fund this crucial research in today's challenging budgetary 
climate.
    AwwaRF generates $12 million each year in cash from our nearly 
1,000 participating utilities in the research subscription program. 
This funding is produced when utilities invest $2.10 per million 
gallons of delivered water out of their rate base with the Foundation. 
We generate a further $13 million each year through research 
partnerships and researcher in-kind contributions. Very simply, when 
the Congress provides $5 million in EPA Science and Technology funding 
for AwwaRF, it is instantly matched by $12 million from the 
subscription program. When partnerships and in-kind are factored in, 
every $1 in Congressional funding is matched by $5 from AwwaRF and the 
water supply community. We are proud of our demonstrated ability, year 
after year, to turn $5 million in Congressional funding into a $30 
million drinking water research program. This achievement is made 
possible by the funds generated by local utility customers through 
their water bill and by the investment of the Congress.
    Over the past 20 years, this approach has produced an AwwaRF 
investment in drinking water research of over $370 million, including 
$53 million in Congressional funding. This translates into 710 
completed and 323 ongoing projects. These projects have been conducted 
by researchers in leading universities, water utilities, and consulting 
engineering firms from throughout the world. The results are providing 
answers and tools for a host of challenges to the delivery of safe 
drinking water including improved methods for removing arsenic and 
perchlorate from water, desalinating brackish groundwater and ocean 
water, and protecting against waterborne pathogens such as 
cryptosporidium, to name only a few. The breadth of AwwaRF supported 
and managed research is so broad that it impacts water agencies in 
every region of the country and of every size from rural water systems 
to the largest cities.
    We appreciate the consideration of the Interior Appropriations 
Committee, including your $1 million in fiscal year 2006 funding. This 
however represents an 80 percent decrease from the $5 million in 
funding that was provided to AwwaRF from fiscal year 2002 through 
fiscal year 2005. The Foundation makes no claim whatsoever to assured 
funding each year from the Congress. We instead base our requests upon 
our proven track-record of delivering relevant and highly creditable 
drinking water research to the water supply and regulatory communities. 
The $5 million in EPA funding provided by the Congress had been 
leveraged into a $30 million a year ongoing research program. This will 
be impossible to sustain given the $4 million cut in fiscal year 2006 
funding and despite the fact that water utilities have continued their 
investment in the research subscription program at the same $12 million 
annual level. If these reductions continue in fiscal year 2007, AwwaRF 
will be obliged to shrink its staff and to further cut back on drinking 
water research, including our ability to create research partnerships 
to further leverage our funding.
    Although AwwaRF's $30 million annual program is largely directed 
towards providing water utilities with the tools they need to comply 
with federal regulations, 80 percent or $25 million of this amount is 
paid for with local dollars. We trust that very few requests come 
before the Committee where such a modest funding request affects as 
many people as AwwaRF and its drinking water research program. We 
further trust that few requests feature a local match of five to one. 
If Congress withdraws its support of AwwaRF and drinking water 
research, we do not believe that federal regulations or the challenges 
they entail will go away as well. We therefore respectfully submit that 
it is good policy for the Congress to continue to help water utilities 
to secure the research they need by continuing the AwwaRF/Congressional 
research partnership at its current 80/20 match.
    We note that the Administration has requested a $4 million increase 
in fiscal year 2007 drinking water research located in the EPA S&T 
account. We respectfully request that the Committee re-invest this $4 
million with AwwaRF, along with the $1 million in fiscal year 2006 
funding that you provided. This would create the $5 million in funding 
that we are seeking and, more importantly, it would provide for the 
continued operation of AwwaRF and the research subscription program at 
its current level. This means that water utilities will continue to 
have the knowledge and the tools they need to deliver safe drinking 
water to the American public.
    Thank you again for your past support and for your consideration of 
our fiscal year 2007 request.
                                 ______
                                 
  Prepared Statement of the Bethel Area Chamber of Commerce, Bethel, 
                                 Maine

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present testimony in support of an 
appropriation of $2 million from the Forest Legacy Program for the 
Grafton Notch property in Maine. Grafton Notch is Maine's highest 
priority Forest Legacy project.
    The 3,688-acre Grafton Notch property offers plentiful 
opportunities for recreation, sustainable forestry, and protection of 
diverse forest and riparian habitats. It is surrounded on three sides 
by Maine public reserve lands and Grafton Notch State Park, a very 
popular tourist destination, and is adjacent to Mahoosuc Notch, one of 
the most rugged sections of the federally protected Appalachian 
National Scenic Trail. The parcel is also in the viewshed from the 
Trail, both from Mahoosuc Notch and from the Baldpate Mountain section. 
Given its location, the property is a prime site for public 
recreational use, and upon purchase by the state, would be added to the 
27,253-acre Mahoosuc Unit.
    A snowmobile trail that provides a critical link to a Maine-New 
Hampshire trail network runs through the property along the Bear River. 
In addition, this property's public protection is critical to the 
completion of the 42-mile Grafton Loop Trail, a newly-constructed AT 
spur that runs from East Baldpate Mountain across several peaks before 
ascending the southeast slopes of Old Speck and reconnecting to the AT. 
Protection of the Grafton Notch property would ensure that these 
recreational opportunities will continue to be available to the public 
and will also help alleviate overcrowding by providing significant 
backcountry recreation alternatives.
    The Grafton Notch property contains the southeast slopes of Old 
Speck Mountain and the northwest slopes of Sunday River Whitecap. There 
are numerous waterfalls on the site as well as several tributaries that 
drain into the Bear River and the Sunday River, both of which 
contribute to the Androscoggin River.
    The mountainous terrain supports a variety of plant communities in 
the transition between forested slopes and alpine summits. Up to 80 
percent of the property is available as a timber resource and will be 
managed by the state using sustainable harvesting procedures.
    With its proximity to scenic, natural, and recreational resources, 
the forested resources found on the Grafton Notch property are 
seriously threatened with fragmentation. The property is only 10 miles 
from the Sunday River Ski Area, Maine's largest ski resort, and is 
immediately adjacent to Route 26, which leads into the growing town of 
Bethel. A second-home subdivision was recently approved across Route 26 
on the slopes of Puzzle Mountain, and in nearby Andover, a 5,500-acre 
timber lot was carved into 500 acre homesites.
    With an appropriation of $2 million from the Forest Legacy Program 
in fiscal year 2007, the Grafton Notch property would be permanently 
protected, ensuring a host of public benefits for future generations.
    Thank you Mr. Chairman, for this opportunity to present testimony 
in support of the Grafton Notch Forest Legacy project.
                                 ______
                                 
      Prepared Statement of the Black Bear Conservation Committee

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $1.75 million 
appropriation to the Fish and Wildlife Service from the Land and Water 
Conservation Fund (LWCF) for the Tensas River National Wildlife Refuge.
    The Black Bear Conservation Committee (BBCC) is a regional non-
profit conservation organization whose mission is to restore the 
federally listed Louisiana black bear to suitable habitat in its 
historic range in Louisiana, Mississippi, southern Arkansas, and east 
Texas. The recovery efforts associated with the Louisiana bear are 
considered to be as progressive as any restoration effort in the nation 
because of the broad base of support from landowners, timber companies, 
agricultural interests and other stakeholders in the region. Habitat 
restoration and protection are key components to the success of the 
recovery objective.
    The Tensas River NWR has an immediate opportunity to further its 
black bear recovery program and ensure the permanent protection of 
critical bottomland hardwood forestlands by completing the final phase 
of the 11,033-acre Chicago Mill tract. At present, the Tensas NWR 
exists as two separate units. With the acquisition of the Chicago Mill 
property, these two units will be bridged, thus providing a protected 
wildlife corridor for the refuge species, most notably the Louisiana 
black bear. Located in Madison Parish, near the town of Tallulah, this 
property was initially used for forestry purposes and then primarily as 
an agricultural tract for many years. Conservation offers the US Fish 
and Wildlife Service an outstanding opportunity to create additional 
habitat by restoring bottomland hardwoods to the site.
    The Chicago Mill acquisition is both innovative and highly 
leveraged, using almost $4 million of private carbon sequestration 
funds to offset what otherwise would be costs incurred by the USFWS. 
Thus far, over 8,200 acres have been conserved, using previously 
Congressionally appropriated funds, an allocation from the Migratory 
Bird Conservation Fund, and carbon sequestration funds from the Entergy 
Corporation. To further the recovery efforts for the Louisiana black 
bear, over one-half million trees have already been replanted on over 
1,900 acres of these lands. Additionally, Entergy Corporation has 
donated substantial management funding to the refuge as part of the 
this conservation deal.
    Available for acquisition in fiscal year 2007 is the final of four 
phases of the Chicago Mill acquisition. An appropriation of $1.75 
million from the Land and Water Conservation Fund in fiscal year 2007 
is needed to purchase the final 2,723 acres of the Chicago Mill tract. 
This funding will provide connectivity among refuge-protected habitat 
lands, safeguard important wildlife habitat, and allow restoration 
activities to proceed at the Tensas River NWR.
    I respectfully request that you include an appropriation of $1.75 
million for the Tensas River NWR in the fiscal year 2007 Interior and 
Related Agencies Appropriations bill.
    Thank you for your attention to this request.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the Biomass Energy Research 
Association's (BERA) recommendations for fiscal year 2007 in support of 
appropriations for the USDA's Forest Service (USDAFS) to support 
bioenergy-related R&D under the President's Healthy Forest Initiative 
and through the USDAFS Forest Products Laboratory. Both activities are 
conducted under the auspices of the Natural Resources and Environment 
program of the U.S.D.A. BERA recommends that $56,000,000 be 
appropriated for these efforts in fiscal year 2007. A separate 
statement has been prepared for submission on other biomass energy RD&D 
performed by the Department of Energy's (DOE) Office of Energy 
Efficiency and Renewable Energy (EERE) under the Energy and Water 
Development Bill. Specific line items for the USDAFS budget are as 
follows:
  --$35,000,000 under the President's Healthy Forest Initiative for the 
        reduction of hazardous fuels via removal of forest thinnings, 
        waste and underbrush.
  --$5,000,000 to continue the Biobased Products and Bioenergy Research 
        (BPBR) program of the USDAFS Forest Products Laboratory.
  --$1,000,000 to collect and consolidate the results of two decades of 
        R&D conducted at the DOE on utilization of forestry energy 
        sources.
  --$5,000,000 to develop and implement an integrated R&D plan for 
        forestry-derived bioenergy.
  --$10,000,000 for industry cost-shared energy plantation 
        demonstration projects

                               BACKGROUND

    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from freshly harvested and waste biomass, and to serve as a 
source of information on biomass RD&D policies and programs. BERA does 
not solicit or accept federal funding for its efforts.
    There is a growing realization in our country that we need to 
diversify our energy resources and reduce reliance on foreign oil. 
Economic growth is fueling increasing energy demand and placing 
considerable pressure on our already burdened energy supplies and 
environment. The import of oil and other fuels into the United States 
is growing steadily and shows no sign of abating. Industry and 
consumers both are being faced with rapidly rising costs for petroleum 
and natural gas, which are vital to our economy. A diversified energy 
supply will be critical to meeting the energy challenges of the future 
and maintaining a healthy economy with a competitive edge in global 
markets. The recently announced Biofuels Initiative at the DOE provides 
funding to support the use of cellulosic biomass as a feedstock for 
ethanol, including wood and forestry resources, with the potential to 
replace as much as 30 percent of domestic gasoline demand in 2030. We 
support this Initiative and believe it will help to accelerate the use 
of this important energy resource.
    Forest biomass energy plantations that provide feedstocks for 
forest biorefineries producing paper products as well as fuels and 
biopower could make an important contribution to our energy supply 
while providing a boost for rural economies and reducing wildland 
forest fires. In addition, wood can be used instead of petroleum and 
natural gas to produce many high-value products such as plastics and 
chemicals. However, targeted research is needed to make this a reality.

            BERA RECOMMENDATIONS FOR USDA FOREST SERVICE R&D

    The Bioenergy/Bioproducts Initiative, which was created as a result 
of ``The Biomass Research and Development Act of 2000,'' and Title IX 
of the Farm Bill, sought to triple U.S. usage of bioenergy and biobased 
products. A strategic plan was developed to reach this goal by the 
multi-agency Biomass Research and Development Board (BRDB) co-chaired 
by the Secretary of Energy and the Secretary of Agriculture. To meet 
goals for bioenergy and biobased products, substantial increases in 
biomass energy and fuel consumption are clearly needed. BERA's 
recommendations support several key areas that will contribute to the 
goals of sustainable forestry as well as the creation of viable 
renewable resources as part of a diversified energy supply. Specific 
programs are recommended as follows.

Recommendation 1: Support the President's Healthy Forest Initiative: 
        Reduction in Hazardous Fuels via Forest Waste Recovery for Fuel 
        and Feedstocks
    Large, repetitive, wide-spread losses have occurred in the Nation's 
forests over the last several years because of wild fires. Such fires 
are supported by the accumulation of dense undergrowth and brush 
coupled with poor forest management practices, insect infestation and 
disease that increase the number of dead trees, and other factors. As a 
result, loss and injury to fire fighters and others, large property, 
financial, and esthetic losses, and environmental harm have occurred in 
commercial as well as private and federally owned forests. BERA 
believes that this problem can be optimally addressed by conducting a 
targeted RD&D program to develop economic, practical methods for 
collection and removal of forest wastes, underbrush, and small-diameter 
tree thinnings, for the purpose of using them as energy resources. 
Forest wastes could be combined with large-scale forest biomass energy 
plantations to provide fuel and feedstocks for forest biorefineries 
producing fuels and high-valued products. Funding should be provided to 
start an RD&D program in this area as soon as possible. This is 
essential to the long-term sustainability of the forest and biomass 
energy industries in North America and to help reduce and displace 
fossil fuel consumption.

Recommendation 2: Continue to Conduct Wood-based Feedstock Research at 
        the USDAFS Forest Products Laboratory
    Critical research to develop, plant, grow, and manage energy crops, 
particularly forest biomass, for conversion to cost-competitive energy 
and fuels, was once conducted by the DOE but has since been terminated. 
DOE's position is that other agencies (USDA) are better suited to 
handle this research. While DOE's feedstock production program has made 
significant research contributions over the last 25 years, BERA 
strongly endorses the idea that the USDA should assume responsibility 
for this program. The USDA has a long history in biomass production and 
is recognized worldwide for its accomplishments in developing advanced 
agricultural and forest biomass production methods. According to a 
recent study (Biomass as Feedstock for a Bioenergy and Bioproducts 
Industry: The Technical Feasibility of a Billion-Ton Annual Supply, 
DOE/USDA April 2005), woody feedstocks can make a substantial 
contribution (368 million dry tons per year) and are an essential 
component of a large-scale industry producing affordable biomass 
energy, fuels, and chemicals. BERA strongly recommends that RD&D on 
woody biomass production for dedicated energy and feedstock uses be 
continued by the USDAFS Forest Products Laboratory Biobased Products 
and Bioenergy Program(BPBR) under the Interior and Related Agencies 
Bill. This program is developing new and more economical technologies 
for the production, management, harvest, and utilization of woody 
materials for energy and high-value products. The research is a natural 
complement to the forest waste recovery R&D that BERA recommends be 
added to its overall program.

Recommendation 3: Collect/Consolidate DOE's Research and Field Results
    DOE has conducted an extensive forest biomass production program 
from the 1970's up to 1992. This research included laboratory and field 
projects performed by academe, national laboratories, research 
institutes, and the private sector. The program emphasized the 
development and selection of special species, hybrids, and clones of 
trees, and advanced growth, management, and harvesting procedures for 
dedicated energy crops. Research on short-rotation tree growth and the 
screening of tree species in small-scale test plots was carried out in 
several areas of the country. Depending on the geographic location, 
woody species recommended as energy feedstocks from the test-plot 
results included hybrid poplars, willow, eucalyptus, black locust, and 
others. In collaboration with DOE, BERA recommends that the results of 
these efforts be collected and consolidated with those of the USDAFS 
efforts on woody biomass production. A plan should also be developed 
for preserving the large amount of improved woody crop clonal materials 
produced both by the USDAFS and the university collaborators of DOE.

Recommendation 4: Develop an Optimized RD&D Plan
    BERA recommends that the USDAFS produce a 10-year, strategic RD&D 
plan that continues the research necessary to obtain the data and 
information needed for optimization of methods for recovering and 
removing waste biomass and small-diameter thinnings from forests and 
the testing of their efficacy on preventing forest fires, to design 
forest plantations for different regions of North America, including 
environmental impacts, and to integrate fire prevention methods with 
forest biomass production. The management, growth, harvesting, storage, 
and transport to hypothetical processing plants of both the waste and 
virgin biomass should be included in this work. The resulting system 
designs should lead to industry cost-shared field projects to 
demonstrate medium-scale, sustainable, forest biomass production and 
the removal of residuals in several geographic locations.
    Considerable progress has been made on the efficient production of 
short-rotation woody crop and multi-crop systems. In addition, research 
on tissue culture techniques and the application of genetic engineering 
methods to low-cost energy crop production have shown promise. This 
research should continue to be an important part of the R&D plan going 
forward.

Recommendation 5: Support Industry Cost-shared Plantation Projects
    BERA recommends that industry cost-shared, scale-up projects of at 
least 1,000 acres in size be installed and operated in different 
regions of the country as a forerunner to commercial energy plantations 
in which dedicated energy crops are grown and harvested for use as 
biomass resources. The results of this work will provide sufficient 
operating and capital cost data to afford second generation economic 
data for larger modular systems and to perfect the design of 
sustainable energy plantations. The scale-up projects should be 
strategically located and should utilize the advanced woody biomass 
production methods developed in the research programs. Successful 
completion of this work will help biomass energy attain its potential 
by providing the data and information needed to implement the design, 
construction, and operation of practical forest biomass production 
methods for sustainable energy plantations that can supply low-cost 
feedstock for conversion to heat, steam, electric power, liquid and 
gaseous fuels, and chemicals.
    During the first year of this program, fiscal year 2007, site 
studies can be completed to facilitate the selection of specific areas 
that are deemed suitable for energy plantation construction, and that 
installation on at least one site can be started. DOE should be 
involved in this program where appropriate so that their work on 
biomass infrastructure can be applied, such as the design and operation 
of integrated biomass production and conversion systems.

                              CONCLUSIONS

    Expansion of the USDAFS programs as recommended by BERA enables a 
considerably higher probability of significantly increasing the 
contribution of biomass to primary U.S. energy demand by displacing 
more fossil fuel usage and eliminating a national fire hazard. The key 
to this eventuality is the deployment of technologies for producing and 
recovering low-cost virgin and waste forest biomass for conversion to 
cost-competitive supplies of energy, fuels, and chemicals. Forest 
biomass is the Nation's and the world's largest reserve of renewable 
carbon resources. Without the availability of economically competitive 
forest biomass feedstocks, the probability of tripling biomass energy 
consumption in the United States is doubtful. Ultimately, this RD&D 
program is expected to lead to commercial, sustainable energy 
plantations that are integrated with biorefineries supplied with 
forest-based fuels and feedstocks.
                                 ______
                                 
             Prepared Statement of the BlueRibbon Coalition

    The BlueRibbon Coalition (BRC) is a nationwide organization 
representing 600,000 motorized recreationists, equestrians, mountain 
bike enthusiasts and resource users. We work with land managers to 
provide recreation opportunities, conserve resources, and promote 
cooperation with other public land users.
    I am writing you to encourage you to sustain current funding levels 
for the Recreation and Trails programs within the USDA Forest Service 
(USES) budget.
    The Administration's proposed fiscal year 2007 budget recommends a 
decrease of $10.4 million to the Recreation program and a $14.5 million 
reduction to the Trails program as compared to the fiscal year 2006 
enacted budget. The cuts proposed by the President would make it very 
difficult for the USFS to serve the recreational needs of the over 200 
million people who annually visit our National Forests.
    Recreational use of USFS lands continues to grow and we believe 
that the vital role played by the USFS needs to be recognized. It is 
crucial that its funding be protected instead of facing steep cuts that 
will hamper its ability to provide adequate opportunities for those who 
wish to recreate on our National Forests.
    The proposed cuts come at a critical time for the USFS. On November 
9, 2005 the USFS finalized a rulemaking process that requires each 
National Forest or ranger district to designate which roads, trails and 
areas are open for motorized vehicle use. This will be a massive 
undertaking that will require individual forests and districts to 
undergo an extensive process of route identification, evaluation, 
designation and mapping.
    BRC agrees with Forest Service Chief Dale Bosworth's affirmation 
that ``OHVs are growing in popularity and they are a legitimate use of 
national forest land.'' As such it is imperative that adequate funding 
be provided to the USFS to ensure that the effective management of OHV 
use can be accomplished by the implementation of the new rule. Without 
the necessary funding, the Forest Service will be unable to either 
adequately manage or provide adequate opportunity for all National 
Forest system users.
                                 ______
                                 
     Prepared Statement of the Bonneville Shoreline Trail Coalition

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Bonneville Shoreline Trail Coalition, I appreciate the opportunity 
to present this testimony in support of a $3 million appropriation from 
the Land and Water Conservation Fund for critical land protection 
efforts along the Bonneville Shoreline Trail in Utah.
    The Bonneville Shoreline Trail Coalition (Coalition) is an 
organization of entities, both citizen and governmental, representing 
the communities in Utah involved in promoting, planning and building 
the Bonneville Shoreline Trail (BST). The vision of the BST is a non-
motorized trail that serves as an interface between the urban area and 
public lands along the Wasatch Front and will provide trail users with 
a recreational experience at a distance from motorized activities that 
is both safe and aesthetically pleasing. The Coalition was formed on an 
ad hoc basis in 2001 and formalized and incorporated in 2003.
    The Bonneville Shoreline Trail concept was originated in 1990 as a 
proposed 90 mile trail for non-motorized use that would span the 
foothills of the four counties of the central Wasatch Front. Trail 
planning has now expanded to encompass more than 280 miles from the 
Idaho border through Cache, Box Elder, Weber, Davis, Salt Lake, and 
Utah Counties. Additional planning has been proceeding to continue the 
BST westward through Camp Williams and the Kennecott Land development, 
around the Oquirrh Mountains and into the Tooele valley. This multi-use 
non-motorized trail system will enhance access to open space and public 
lands, and provide a connection to a variety of other trails and 
recreational areas. The Coalition's private and governmental entities 
representing the Wasatch Front communities and many dedicated 
volunteers are working to make the trail a reality
    The ideal alignment of the trail is on or near the foothills bench 
formed by the shoreline of ancient Lake Bonneville. While it is 
recognized such an alignment is not possible throughout the entire 
length of the trail, planners are urged to vigorously seek a route as 
near to the Bonneville Shoreline as possible in order to achieve the 
following objectives:
  --To provide access to the canyons, streams, mountains and other 
        features in our Wasatch foothills by locating the trail high 
        enough on the slope to provide ready access to public lands.
  --To provide a place where walkers, runners, bicyclists and horse 
        users can experience their recreational pursuits at a distance 
        from automobiles that is both safe and aesthetically pleasing. 
        (On some sections of the trail, it may not be appropriate to 
        include all uses--pedestrian, bicycle and equestrian--but 
        planners are urged to accommodate as broad a range of non-
        motorized users as possible.)
  --To provide citizens an opportunity for quiet and scenic 
        recreational use that is nearby, yet apart from the developed 
        urban area of the Wasatch Front.
  --To provide rapid deployment of fire fighting resources to the 
        urban/foothills interface while at the same time serving as a 
        buffer between the developed urban area and the more natural 
        environment of the foothills.
  --To contribute to the preservation of aesthetic, wildlife, historic 
        and educational values of the foothills.
    The major challenges in creating the Bonneville Shoreline Trail lie 
principally in obtaining the necessary property acquisitions, rights-
of-way, easements and permissions. The efforts to actually build trail 
are typically of secondary difficulty and rely principally on volunteer 
labor. The major costs of developing the BST will be associated with 
the acquisition of property for the trail.
    Available for acquisition in fiscal year 2007 are two critical 
properties along the BST that are high priorities for protection by the 
U.S. Forest Service. Both properties are extremely important summer and 
winter range habitat for deer and elk. They serve as important buffers 
for fire protection for the rapidly developing area along the Wasatch 
Front and also provide watershed protection for neighboring areas.
    The 1,700-acre Draper (Bear Canyon) property is located on the 
eastern boundaries of the cities of Sandy and Draper along the BST, and 
both cities are very supportive of this land acquisition. Conveyance of 
the Bear Canyon property to the Forest Service will allow the forest to 
reduce management costs by consolidating public lands. The property to 
be acquired is adjacent to both the Lone Peak Wilderness and the 1,000-
acre Corner Canyon property that was acquired for $13 million by Draper 
City in late 2005 for permanent open space protection and recreation. 
The combination of the Draper's protection of Corner Canyon and the 
planned Forest Service acquisition of Bear Canyon represents an 
important federal and local conservation partnership in southern Salt 
Lake County. In fiscal year 2006, $1.5 million was appropriated to 
acquire 900 acres. This year, an additional $1.5 million through the 
Land and Water Conservation Fund is needed to complete this project and 
protect the remaining 800 acres. Major stretches of the BST are planned 
across this property and its acquisition would be important for the 
continuity of this portion of the trail.
    The second property available for protection this year is the 300-
acre North Ogden property in Weber County. The North Ogden program is a 
partnership effort to provide a new stretch of the BST along the 
northern boundaries of North Ogden and Pleasant View, within the 
boundaries of the national forest. In 2005, a five-mile stretch of BST 
along North Ogden and Pleasant View was secured through a trail 
easement on an existing utility corridor granted to the nonprofit Weber 
Pathways. The property available for protection this year is critical 
to the North Ogden program because it will bring Forest Service 
ownership down to this stretch of the BST and add critical trail access 
to the citizens in this area of the state. Protection of this property 
will also protect beautiful views of the foothills of the Wasatch Front 
and Ben Lomond Peak, one of Weber County's most important landmarks, 
while conserving important wildlife habitat and winter range along this 
rapid growth area. This property is also valued at $1.5 million.
    In fiscal year 2007, a total of $3 million is needed to acquire 
these two BST properties that are critically important to furthering 
the goals of the trail. If not protected, this area will be developed 
over time. Public access to this portion of the BST could be lost 
forever, and adjacent forest and wilderness lands would also be put at 
risk.
    I respectfully request that you include an appropriation of $3 
million for the Bonneville Shoreline Trail in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for your attention to this request.
                                 ______
                                 
         Prepared Statement of the Pueblo Board of Water Works

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement

    The Cooperative Alliance for Refuge Enhancement consists of the 
following organizations: American Birding Association; American 
Fisheries Society; American Sportfishing Association Assateague Coastal 
Trust; Congressional Sportsmen's Foundation; Defenders of Wildlife; 
Ducks Unlimited; International Association of Fish and Wildlife 
Agencies; Izaak Walton League of America; National Association of 
Service and Conservation Corps; National Audubon Society; National 
Rifle Association of America; National Wildlife Federation; National 
Wildlife Refuge Association; Safari Club International; The Wilderness 
Society; The Wildlife Society; Trout Unlimited; U.S. Sportsmen's 
Alliance; Wildlife Forever; and the Wildlife Management Institute.
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to offer comments on the fiscal year 2007 (fiscal year 
2007) Interior Appropriations bill. Over the last several years, the 
Cooperative Alliance for Refuge Enhancement (CARE), a broad coalition 
of 21 diverse wildlife, sporting, conservation, and scientific 
organizations, has worked cooperatively with Congress and the 
Administration to highlight the needs of the National Wildlife Refuge 
System and secure strong investments in this remarkable network of 
lands and waters. We are grateful for the budget increases that 
Congress provided the Refuge System leading up to its 100th 
anniversary, and we again seek your support as Congress considers 
fiscal year 2007 and beyond. We urge the Subcommittee to provide $415 
million for the operations and maintenance (O&M) budget of the National 
Wildlife Refuge System, managed by the U.S. Fish and Wildlife Service 
(FWS), in the fiscal year 2007 budget.
    CARE, representing a national constituency numbering more than 5 
million Americans, recognizes the value of a healthy Refuge System to 
both the wildlife and habitats refuges were established to protect and 
the 40 million visitors that frequent these special places each year. 
The Cooperative Alliance for Refuge Enhancement was formed in 1995 as a 
loose coalition of diverse organizations concerned about the ability of 
our national wildlife refuges to fulfill their missions. We have 
determined that it will be necessary to increase the annual Refuge 
System budget to $700 million simply to meet the System's top tier 
needs.
    Each year, 40 million Americans from coast to coast visit national 
wildlife refuges to experience the best of our great nation's natural 
resources. During its first 100 years, the Refuge System has been 
instrumental in restoring vital North American wildlife populations; 
providing diverse recreational opportunities to fish, hunt, birdwatch, 
view and photograph wildlife; and educating the public about the 
wonders of the natural world. In addition, national wildlife refuges 
stimulate local economic growth, fostering nearly $1.4 billion in 
recreation-based economic activity and generating nearly 24,000 jobs 
and $453.9 million in employment income. While all of these activities 
are significant, the Refuge System's potential continues to be largely 
unrealized.
    The mission of CARE has been to address the backlog in operations 
and maintenance needs within the Refuge System budget, needs that now 
total $2.7 billion. Unfortunately, recent funding cuts in the refuge 
budget have adversely affected the Refuge System by exacerbating the 
already burdensome O&M backlog.
    President Bush's fiscal year 2007 request of $381.7 million is 
approximately $11 million less than the administration's fiscal year 
2006 request and $763,000 less than the actual fiscal year 2006 funding 
level (after Congressional rescissions and agency reprogramming). A $16 
million increase in Refuge System O&M funding would be a ``no-net-
loss'' budget for the Refuge System to keep pace with inflation and 
other uncontrollable costs when taking into account cost-of-living, 
energy, and sustaining levels of visitor services and wildlife 
management requirements.
    We respectfully request that you fund the National Wildlife Refuge 
System at $415 million, which would equal the fiscal year 2004 Refuge 
System budget ($406.5 million) when adjusted for inflation. This level 
of funding would ensure a ``no-net-loss'' budget which would allow the 
Refuge System to avoid layoffs and reductions in services, maintain 
protections for wildlife and habitat, prevent backsliding on gains 
already made, and provide for addressing the backlog in coming years.
    We extend our appreciation to the Subcommittee for its ongoing 
commitment to our National Wildlife Refuge System.
                                 ______
                                 
 Prepared Statement of the Center for Advanced Separation Technologies

    The Center for Advanced Separation Technologies (CAST) is a 
consortium of the seven universities listed above. It was formed in 
2001 to develop advanced technologies that can be used to efficiently 
produce cleaner fuels in an environmentally acceptable manner and to 
study the basic sciences and engineering involved. The new technologies 
developed as a result of CAST research and the highly skilled personnel 
trained during the course of its activities will help the United States 
meet the challenges of energy independence. These missions are 
consistent with President Bush's American Competitiveness Initiative, 
announced in his 2006 State of the Union Address. The President's new 
program includes doubling R&D commitments to basic research, supporting 
universities for world-class education and research opportunities, and 
training a work force with skills that can be used to better compete in 
the 21st century.

                              ORGANIZATION

    The Center for Advanced Separation Technologies (CAST) was formed 
initially between Virginia Tech and West Virginia University with the 
objective of developing advanced solid-solid and solid-liquid 
separation technologies that can help the U.S. coal industry produce 
cleaner solid fuels. In 2002, five other universities listed above 
joined the consortium to develop crosscutting technologies that can 
also be used in the U.S. minerals resources industry. As a result, the 
scope of CAST research was expanded to studies of chemical/biological 
separations and environmental control.
    As a consortium, the Center can take advantage of the diverse 
expertise available in the member universities and address the 
interests of the different geographical regions of the country. Working 
together as a consortium is consistent with the recommendations of a 
recent National Research Council (NRC) report on the U.S. Department of 
Energy's fossil energy research, which states that ``consortia are a 
preferred way of leveraging expertise and technical inputs to the 
mining sector, and recommends that DOE should support ``academia, which 
helps to train technical people for the industry.''

                         PROGRESS AND NEXT STEP

    At present, a total of 45 research projects are being carried out 
at the seven CAST member universities. Of these, 12 projects are in 
solid-solid separation, 5 in solid-liquid separation, 12 in chemical/
biological separation, 7 in modeling and control, and 6 in 
environmental control. The project selection was made by an industry 
panel according to the priorities set forth in the CAST Technology 
Roadmap developed in 2002 by industry representatives. Research results 
have been presented at two workshops, the first in Charleston, WV, 
November 19-21, 2003, and the second in Blacksburg, VA, July 26-27, 
2005. Both meetings enjoyed strong participation from industry. The 
third workshop will be held in July 2007 in Blacksburg.
    CAST research has been focused on removing impurities (e.g., ash, 
sulfur, mercury and other toxic elements) from coal. Various solid-
solid and solid-liquid separation technologies are used to remove these 
impurities. In general, the efficiency of separation diminishes sharply 
with decreasing particle size. As a result, coal companies discard coal 
fines to impoundments. In the United States, approximately 70 to 90 
million tons of coal fines are being discarded annually according to a 
National Research Council report. The report was issued as a result of 
a congressional directive to investigate a major failure of a fine coal 
impoundment in Kentucky in October, 2000, which caused 300 million 
gallons of coal sludge to flood an active mine and neighboring creeks 
and rivers. There are more than 713 active water and slurry 
impoundments in the eastern United States, many of which are rated 
``high risk.'' The report suggested a study to identify appropriate 
technologies that can eliminate the need for slurry impoundments.
    CAST has been developing advanced separation technologies that can 
help U.S. coal companies recover fine coal rather than discard it to 
impoundments. One company, Beard Technologies, Inc., is currently 
building a plant designed to recover fine coal from a large impoundment 
in Pineville, WV, using the technologies developed by CAST. The plant 
will be the first to recover practically all of the coal from a waste 
impoundment without the benefit of a tax credit. If the project is 
successful, it is anticipated that many other companies will follow 
suit. The enabling technology used in the Pineville recovery plant is 
the use of chemical additives that can remove moisture from fine coal 
during vacuum filtration. CAST is developing several other dewatering 
technologies, which include hyperbaric centrifuge, hyperbaric 
horizontal belt filter (HHBF), and a flocculant injection system. In a 
recent pilot-scale test conducted with the hyperbaric centrifuge, it 
was possible to reduce the moisture of a fine coal (smaller than 0.15 
mm) to below 10 percent by weight without using chemical additives. The 
technology has been licensed to Decanter Machine Company, Johnson City, 
TN, which plans to construct a prototype unit for onsite testing. 
Development of the HHBF technology is also making progress. 
Construction of a pilot-scale test unit has been completed, and is 
ready for a trial. This new dewatering technology is also designed to 
reduce fine coal moisture to less than 10 percent. The flocculant 
injection system is already in use by many coal companies to minimize 
the loss of fine coal associated with the use of screen-bowl 
centrifuges, which represent the most widely used conventional 
dewatering technology in the U.S. coal industry. In addition, Arch Coal 
Company is seriously considering installation of a deep-cone thickener, 
as a result of the work conducted at CAST, to obviate the need to build 
a fine coal impoundment.
    Despite the importance of fine coal cleaning, the bulk of the coal 
being cleaned today is coarse coal, most of which is being cleaned of 
impurities using density-based separation methods. Therefore, there is 
an interest in determining separation efficiencies using density 
tracers. Typically, plastic blocks of known densities are added to a 
feed stream, collected manually from product streams, and counted to 
determine the efficiency of separation--a process which is cumbersome 
and entails inaccuracies. Therefore, a new method has been developed in 
which each tracer is tagged with a transponder so that the destination 
of each tracer can be monitored electronically. The new technique has 
been tested successfully in several plants and is ready for commercial 
deployment. Precision Testing Laboratory, Beckley, WV, plans to market 
the new technology. Its use can help coal companies maximize the 
efficiency of cleaning coarse coal.
    Much of the basic scientific principles and technologies involved 
in coal cleaning also apply to processing ores. Therefore, CAST has 
been developing crosscutting technologies that can be used in both coal 
and minerals industries. As an example, a joint Krebs Engineers-CAST 
research resulted in the development of a novel hydrocyclone that can 
efficiently remove clay (slimes) from coal. The same technology can 
also be used in processing many industrial minerals. For instance, 
removal of clay minerals is an a priori requirement in processing the 
potash (KCl) ores in New Mexico. Laboratory experiments showed that 
more efficient desliming can increase potash recovery by 4 to 6 percent 
downstream. Implementation of these new technologies being developed at 
CAST will help the industry remain competitive against foreign 
producers and retain high-paying jobs in the country.
    The United States is the second largest copper producer in the 
world. However, much of the ores being mined are low grade, which makes 
it difficult for U.S. companies to compete internationally. 
Traditionally, copper is extracted from an ore through a series of 
processes, including grinding, flotation, smelting, and refining, which 
are energy intensive and hence costly. CAST is currently developing new 
technologies to facilitate the application of alternative leaching/
impurity removal/electrowinning processes that can replace the costlier 
steps of grinding, flotation, smelting, and refining. The alternative 
processes should require substantially lower capital costs and reduce 
energy consumption by 50 percent.
    The mining industry has been extracting gold using cyanide, which 
is toxic. Therefore, CAST has been developing an environmentally benign 
extraction method using alkaline sulfide. Bench-scale continuous tests 
conducted using this new lixiviant showed that the extraction 
efficiency is as good as those obtained using cyanide.
    In addition to the more practical projects described above, CAST 
has also conducted fundamental research. As an example, a mathematical 
model has been developed to describe the flotation process, which is 
the most widely used and versatile solid-solid separation process used 
in both the coal and minerals industries. The model is based on first 
principles so that it has predictive and diagnostic capabilities. In 
another project, a computational fluid dynamic (CFD) simulation 
technique has been used to design optimal flotation machines. This 
project is co-funded by Dorr-Oliver EIMCO, Utah. In addition, the 
surface forces acting between two microscopic surfaces immersed in 
water have been measured using the atomic force microscope (AFM) and 
the surface force apparatus (SFA). The results show that strong 
attractive forces are present between hydrophobic surfaces, the origin 
of which is not yet known. The newly discovered surface forces, which 
are referred to as `hydrophobic force' play an important role in the 
separation of hydrophobic energy `minerals' such as coal, oil, bitumen, 
and kerogen from hydrophilic waste minerals such as clay, silica and 
others.

                     FUNDING REQUEST AND RATIONALE

    The United States is by far the largest mining country in the 
western world, followed by South Africa and Australia. In 2004, the 
U.S. mining industry produced $63.9 billion of raw materials, including 
$19.9 billion of coal and $44 billion of minerals. Australia is a 
smaller mining country but has five centers of excellence in advanced 
separations as applied to coal and minerals processing. Last year, 
Australia established the Mineral Science Research Institute, a 
consortium of four mining schools, with a funding of $22.6 million for 
the initial five-year period. In the United States, CAST is the only 
federally funded consortium serving the mining industry. According to a 
Congressional testimony by K. Mark Le Vier, President of the Mining and 
Metallurgical Society of America, 50 percent or more of the faculty in 
the U.S. mining schools will retire in the next five years. Continued 
funding of the CAST program is critical for producing a trained 
workforce for the industry.
    CAST has been developing a broad range of advanced separation 
technologies. Although it is a relatively new research center, some of 
the projects have yielded technologies that are already in use in 
industry. Many other promising research projects are on-going and 
require continued support. Working as a consortium is an effective way 
of exchanging ideas and utilizing diverse expertise required to solve 
major problems. Continued funding will allow CAST to develop advanced 
technologies that can be used to produce cleaner coal in an 
environmentally acceptable manner. Furthermore, the advanced 
technologies can be used not only to clean up the troublesome waste 
impoundments that have been created in the past but also to eliminate 
the need to create them in the first place.
    For fiscal year 2007, CAST is requesting $3 million to (i) develop 
crosscutting separation technologies, (ii) better understand the basic 
sciences involved, and (iii) produce highly-skilled engineers and 
scientists. Although the aim of the proposed research is to benefit the 
U.S. mining industry, its results should also help the President's 
initiatives to develop a hydrogen economy and to produce biofuels more 
efficiently (e.g., separating ethanol from water without distillation). 
Further, the results can be used to develop technologies for extracting 
kerogen from oil shale, of which the United States has 72 percent (1.2 
trillion barrel equivalent of oil) of the world's reserves. A steady 
supply of fuels and strategic minerals is critical for the continued 
growth of the economy and for national security.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2007 funding request of $400,000 
from the Environmental Protection Agency for CCOS. These funds are 
necessary for the State of California to address the very significant 
challenges it faces to comply with new national ambient air quality 
standards for ozone and fine particulate matter. The study design 
incorporates recent technical recommendations from the National Academy 
of Sciences (NAS) on how to most effectively comply with federal Clean 
Air Act requirements.
    First, we want to thank you for your past assistance in obtaining 
federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous SIPs, the 
2007-2008 SIPs will need to be updated and refined due to the 
scientific complexity of our air pollution problem. Our request this 
year would fund the completion of CCOS to address important questions 
that won't be answered with results from previously funded research 
projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. Future SIPs will be more complex than they were in the 
past. The National Academy of Sciences (NAS) is now recommending a 
weight-of-evidence approach that will involve utilizing more broad-
based, integrated methods, such as data analysis in combination with 
seasonal and annual photochemical modeling, to assess compliance with 
federal Clean Air Act requirements. This will involve the analysis of a 
larger number of days and possibly an entire season. In addition, 
because ozone and particulate matter are formed from some of the same 
emissions precursors, there is a need to address both pollutants in 
combination, which CCOS will do.
    Consistent with the new NAS recommendations, the CCOS study 
includes corroborative analyses with the extensive data provided by 
past studies, advances the state-of-science in air quality modeling, 
and addresses the integration of ozone and particulate pollution 
studies. In addition, the study will incorporate further refinements to 
emission inventories, address the development of observation-based 
analyses with sound theoretical bases, and includes the following four 
general components:
    Performing SIP modeling analyses--2005-2011
    Conducting weight-of-evidence data analyses--2006-2008
    Making emission inventory improvements--2006-2010
    Performing seasonal and annual modeling--2008-2011
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS.
    For fiscal year 2007, our Coalition is seeking funding of $400,000 
from the EPA through Clean Air funds.--The requested funds would be 
used in conjunction with other funding to conduct weight-of-evidence 
data analyses, which will help address future SIP needs as well as the 
new NAS recommendations. This funding will also allow for computational 
improvements and air quality modeling validation studies that are 
associated with multi-pollutant air pollution assessments for extended 
periods (e.g. seasonal or annual). These are necessary to ensure that 
models are representing the results for the right reasons. The U.S. EPA 
has a direct stake in, and will benefit from, the CCOS program. This 
program will further the development of corroborative analysis methods 
and improve the fundamental science upon which to base future SIPs in 
California and nationwide.
    California should not bear the entire cost of the study for several 
reasons. There is a national need to address issues regarding air 
quality modeling, especially for long-term multi-pollutant scenarios. 
The study itself is very cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study 
and the current California Regional Particulate Matter Air Quality 
Study. Use of models for future ozone SIPs (and updating existing SIPs) 
is a national issue. The federal government should fund continuing 
efforts to improve the performance of models used in SIPs. Much of the 
information generated by CCOS will further the fundamental science of 
air quality modeling which makes it valuable from a national 
perspective.
    Thank you very much for your consideration of our request.
                                 ______
                                 
    Prepared Statement of the Conservation Commission, Westbrook, CT

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Conservation Commission, Westbrook Connecticut, I appreciate the 
opportunity to present this testimony in support of a $1 million 
appropriation from the Land and Water Conservation Fund for land 
acquisition within the Stewart B. McKinney National Wildlife Refuge. 
The Conservation Commission has, by Town ordinance, the responsibility 
for developing criteria for prioritizing open space protection and 
acquisition. The 22-acre Menunketesuck Salt Meadow Marsh meets the four 
top criteria: (1) protection of water resources including coastal zone 
resources; (2) protection of unique and sensitive habitats; (3) 
significantly contributes to the viability of adjacent protected open 
space; and (4) is under threat of development. The Commission has also 
has the responsibility for recommending acquisition of priority lands 
to the Town of Westbrook, or to private, State or Federal agencies, 
when appropriate. Acquisition and protection of the 22-acre 
Menunketesuck Salt Meadow Marsh within the Stewart B. McKinney National 
Wildlife Refuge will add significant protection to refuge and to the 
Menunketesuck River estuarine habitat one of Westbrook's most valuable 
natural resources, and a coastal resource of state and national 
significance.
    Named to honor the late U.S. congressman who was instrumental in 
its creation, the Stewart B. McKinney National Wildlife Refuge was 
established to protect migratory bird habitat considered important to 
wading and shorebird species including heron, egrets, terns, plovers 
and oystercatchers among others. Stewart B. McKinney NWR is currently 
comprised of eight units stretching along 60 miles of Connecticut's 
coastline. In addition to the increase in habitat protection over the 
years, the refuge now provides opportunities for scientific research, 
environmental education, and fish and wildlife oriented recreation. 
Located in the Atlantic Flyway, the refuge provides important resting, 
feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    Available for refuge acquisition in fiscal year 2007 is the 22-acre 
Menunketesuck Salt Meadow Marsh in Westbrook, Connecticut. The property 
is comprised of pristine coastal tidal marsh, a forested upland, 
scrubland, and a rock outcropping that towers above 1,000 feet of 
frontage along the gentle Menunketesuck River as it winds its way to 
Long Island Sound. As a migratory stopover for neotropical migrant land 
birds, this riparian area is the top priority for acquisition for the 
refuge. The marsh property will enhance the resources of the current 
Salt Meadow Unit of the refuge, as it contains part of the least 
developed upland borders of any remaining tidal marsh in all of 
Connecticut. As much of the state's coastline has been built upon, it 
is rare to find an such a large undeveloped marsh area in Connecticut. 
Under imminent threat of development into condominiums, this parcel 
must be acquired by the refuge if it is to continue to serve as an 
island of forested habitat land on an otherwise highly developed 
coastline. In order to acquire the Menunketesuck Salt Meadow Marsh 
property, an appropriation of $1 million is needed from the Land and 
Water Conservation Fund in fiscal year 2007. This priority acquisition 
will increase wildlife habitat protection at the Stewart B. McKinney 
NWR and ensure the public continued opportunities for recreation and 
environmental education along Connecticut's coastline.
    I respectfully request that you include an appropriation of $1 
million for the Stewart B. McKinney NWR in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
      Prepared Statement of the Continental Divide Trail Alliance

    The Continental Divide Trail Alliance respectfully requests an 
addition to the President's budget of $6.42 million, earmarked for the 
congressionally designated Continental Divide National Scenic Trail. We 
request that $6,076,000 be appropriated to the Forest Service and 
$344,000 be appropriated to the Bureau of Land Management. These funds 
will be utilized toward the funding needed to plan 591 miles of the 
Trail in preparation for construction and to construct 345 miles of the 
Trail.
    Over the last eleven years we have developed countless partners, 
utilized thousands of volunteers and significantly leveraged federal 
funds and resources. We believe the time has come to step up the level 
of support from Congress:
  --The CDTA, Forest Service, National Park Service and Bureau of Land 
        Management have a well defined plan to complete the Trail;
  --States, corporations and individuals are making substantial 
        contributions to the efforts to complete the CDT and leverage 
        limited federal funds; and
  --The investment in this national treasure has tremendous potential 
        to capitalize on local and national citizens' investment of 
        time and money, provide significant rural economic development 
        opportunities and increase the awareness of appropriate uses of 
        this amazing national treasure.
    It is important to note that these funds would be available for use 
in Montana, Idaho, Wyoming, Colorado and New Mexico where the CDT is 
located. Funding provided by this Congress will also be leveraged by 
volunteer labor and financial support from the private sector.
    We are proud of the many successes we have had over the last few 
years, raising over $4 million in private sector support and $3.5 
million in volunteer labor. We truly believe that our efforts can send 
a strong signal to the land managers and Americans from every state 
that the National Trail System model is the best way to be effective 
stewards of our lands.
    It should also be noted that Representatives Hefley, Beauprez, 
Tancredo, DeGette, Salazar, Mark and Tom Udall and Cubin have signed on 
to this request in support of the Continental Divide Trail.

                               BACKGROUND

    Mission.--The Continental Divide Trail Alliance's (CDTA) mission 
is: ``To construct, manage and preserve a non-motorized public 
backcountry trail along the full length of the Continental Divide from 
Canada to Mexico and to link its significant resources with the 
assistance of volunteers and public and private partnerships. To 
develop an appreciation of and enjoyment in America's natural lands 
through education and the opportunity to experience the Continental 
Divide National Scenic Trail.''
    In January 2005, the CDTA adopted a new Vision: ``Connecting people 
to the land and each other to instill conservation, respect and renewal 
of the human spirit''. This vision builds upon CDTA's ten years of 
community and public lands work. While we are extremely proud of our 
accomplishments, there is much more to be done to fulfill our vision 
through the creation of the Continental Divide National Scenic Trail. 
Our Vision guides us to encourage people to know and use the Trail to 
connect with nature, instill public land stewardship, build spiritual 
communities, inspire healthy lifestyles and to protect the environment.
    History.--The idea of a trail through the West's most scenic, 
rugged, diverse and historic landscapes won the approval of Congress in 
1978 when it was officially designated a National Scenic Trail, one of 
only eight in the Nation. The vision for the Continental Divide Trail 
is to create a 3,100-mile primitive and challenging non-motorized trail 
on or near the Continental Divide--the Backbone of America--to allow 
people to experience the scenic beauty of the Rocky Mountains and to 
conserve the nationally significant scenic, historic, natural and 
cultural qualities critical to the Trail's experience.
    The Continental Divide Trail is known as the ``King of Trails''. 
The CDT is the highest (14,290 feet), wildest, and most remote National 
Scenic Trail, offering more wildlife viewing and miles of dramatic and 
diverse landscapes than any other long trail. The Trail is a window 
into our past and an open door for adventure and exploring. It is home 
to working ranches, small towns, and generations of Americans whose 
lives are forever etched with the land they work. It crosses paths 
where Lewis & Clark first set foot on the Continental Divide, where 
legendary mountain men like Jim Bridger and Kit Carson roamed, and 
where Native Americans built rock walls for driving game 5,800 years 
ago. The Trail is a natural resource treasure chest with a changing 
panorama of crystal clear alpine lakes, glorious mountain peaks, 
cascading waterfalls, sheer cliffs, glaciers, dense forests, arid 
deserts, and fields of brilliant wildflowers. The CDT allows modern day 
explorers to journey among thousands of plant and animal species in 
their natural settings: mountain goats, wild horses, elk, moose, deer, 
antelope, grizzlies, bald eagles and road runners, as well as, meadows 
of wildflowers, prickly pear, ancient stands of bristle cone pine, 
aspen groves strewn with columbine and the remote rugged alpine terrain 
with the illusive alpine buttercup.
    In spite of the CDT's rich history and resources, endless benefits 
and conservation values, the lack of public awareness, volunteer 
involvement, overall coordination and funding were killing progress. In 
1995, the Continental Divide Trail Alliance was formed to work with the 
public and federal, state and local agencies in the completion, 
maintenance and protection of the CDT. Start-up funding was provided 
primarily by the Fausel Foundation, National Forest Foundation and 
Recreational Equipment Inc. In 1997, the CDTA coordinated the first 
border-to-border inventory of the Trail's status with volunteers and 
released a State of the Trail Report. The inventory and report led to 
the development of the CDT 2008 Strategic Completion Plan outlining all 
of the needs, projects, methods and costs to complete the CDT by 2008, 
or the Trail's 30th Anniversary.
    Program.--The CDTA is recognized by the Forest Service, National 
Park Service and Bureau of Land Management (BLM) as the major non-
governmental partner in the completion, management and protection of 
the 3,100 miles Continental Divide Trail. The CDTA is the voice for 
unity in the creation of the Trail. CDTA's work includes Trail 
promotion, public education, and recruitment, training and the 
coordination of volunteers to scout, locate, construct, repair, 
maintain and protect the Trail. Through these programs, thousands of 
people connect with and gain ownership of the land, learn and have a 
greater understanding of public land management, the environment and 
people living along it, as well as the health benefits of using it. 
Currently the CDT is approximately 58 percent complete meaning it is 
located to provide the most scenic, diverse and inspiring experience, 
sensitive to the environment, constructed to a high quality non-
motorized standard, and signed. When complete the Trail will traverse 
the backbone of America, from Canada to Mexico, passing through five 
states (Montana, Idaho, Wyoming, Colorado and New Mexico), 25 National 
Forests, 20 Wildernesses, three National Parks (Yellowstone, Glacier 
and Rocky Mountain) one National Monument (El Malpais) and eight BLM 
Resource areas. The CDT acts as a conservation tool, preserving the 
surrounding natural features and significant qualities critical to 
experiencing a National Scenic Trail.
    Accomplishments.--CDTA's work has been praised by national new 
sources, such as Newsweek, Washington Post and Backpacker Magazine and 
received the Take Pride in America Award. This national attention is 
due, in part, to the accomplishments we have made over the past ten 
years (1995-2004).
  --Coordinated, trained and educated nearly 6,700 volunteers who have 
        donated more than $3.1 million in volunteer labor on 620 miles 
        of the CDT.
  --Organized two end-to-end surveys with more than 1,000 volunteers to 
        identify the Trail's status, document more than 300 nationally 
        significant features and capture 1,700 photos.
  --Developed a 10-year action plan outlining the needs, projects, 
        methods and costs to complete the CDT by 2008.
  --Created mutually beneficial partnerships or shared our vision with 
        diverse groups like Rotary Clubs, Wyoming Stock Growers Assoc., 
        Backcountry Horseman of America, National Mining Association 
        and Montana Wilderness Association.
  --Completed more than 1,275 miles, 31 bridges and 46 trailheads with 
        the physical labor of volunteers and federal land manager 
        staff, and generous gifts of individuals, businesses and 
        foundations.
    Need.--Americans connection to the land and to our diverse cultures 
and traditions are limited, and in many cases diminishing. With 
approximately 80 percent of U.S. citizens living in urban areas, 40 
percent of adults engaging in no leisure-time physical activity, and 
the average citizen of Western civilizations spending 95 percent of 
their lives indoors, one could deduct fewer people experience and 
recreate in the natural world outside. People shut off from the natural 
world are less sensitive to and supportive of the environment, and 
experience more stress, a perpetual decline in health and well being, 
and dependencies that cause disorders.
    Also, respect and understanding for other people's perspectives and 
lifestyles, particularly as it relates to our public lands, is lacking, 
as witnessed in the continual battles over how public lands should be 
managed and used. Lack of respect and understanding creates conflicts, 
produces poor communication, destroys any sense of community, and 
provokes people to make decisions that hurt others.
    In addition, less than one-third of adults in the U.S. engage in 
the recommended amount of physical activity and millions suffer from 
illnesses (50 million have high blood pressure, one-third are 
overweight, 13.5 million have coronary heart disease, etc.) that can be 
prevented or improved through regular physical activity. Promotion of 
the CDT can inspire and lead people down a path of good health and well 
being.
    Last, federal land managers are confronted with two troubling 
trends: an expanding backlog of work on our public lands and a 
shrinking budget. Funding for routine maintenance, currently a $200 
million backlog, has not kept pace with needs. The result is a 
declining quality of experience for recreationists. CDTA programs 
assist in caring for the land with millions of dollars worth of 
volunteer service.
    The CDTA recognizes and embraces the benefits and challenges of 
building the Continental Divide Trail, including providing access to 
recreate, enjoy and learn from the outdoors and to experience and 
understand the diverse and unique lifestyles and traditions along the 
Trail. Due to its location, the Trail is a magnet for many public-lands 
issues and CDTA works to unite diverse communities in an effort to 
create a national treasure that will benefit all of America.
    Benefit.-- Have you ever sat on top of a mountain and felt 
refreshed, or been cheered by the vibrant sounds of a songbird? Does a 
wildflower's fragrance bring you joy, and a rushing stream change your 
senses? These are only a sample of how nature soothes the soul and 
lessons the stresses of normal life. And, these are only a few of the 
ways the Continental Divide Trail inspires and educates thousands of 
people.
    Experiencing the Continental Divide Trail, whether on a six-month 
end-to-end hike, a one-day adventure, or a volunteer work project, will 
create more knowledgeable and environmentally and socially responsible 
individuals. The Trail crosses 3,100 miles of public lands with diverse 
users and uses, providing an experience that teaches and promotes 
respect and understanding of other people's perspectives.
    Establishing the Trail on the ground will preserve the land and the 
significant scenic, historic, natural and cultural qualities 
surrounding the Trail and critical to the experience.
                                 ______
                                 
   Prepared Statement of the Crownpoint Institute of Technology (CIT)

    CIT respectfully requests $2.5 million for fiscal year 2007 under 
U.S. Department of Interior, Bureau of Indian Affairs. Activity: 
Special Programs and Pooled Overhead.
    On behalf of the Crownpoint Institute of Technology (CIT), I thank 
this Subcommittee for appropriating critically needed operational funds 
to CIT. The authorization for this appropriation that enables CIT to 
educate Indian young adults for our nation's workforce is Public Law 
84-959, ``Vocational Training for Adult Indians.'' Public Law 84-959 is 
fully consistent with the BIA goal of economic self-sufficiency for all 
tribal citizens. CIT expresses its gratitude to this Subcommittee for 
assisting CIT toward reaching the common goal of economic self-
sufficiency for tribal citizens through education for employment.
    CIT is a tribal college in all definitions, and is a member in good 
standing with all voting rights of the national association that 
advocates for all the nation's tribal colleges, the American Indian 
Higher Education Consortium (AIHEC). However, CIT is not eligible to 
receive funding under the ``Tribally Controlled Colleges and 
Universities Act,'' due to an original 1978 statutory restriction of 
one college per tribe. Dine College in Tsaile, Arizona is the one 
Navajo tribal college already participating under this statute. This 
restriction is fair for nearly all tribes chartering tribal colleges, 
as the average tribal population for those tribes is 4,909 derived from 
U.S. Census 2000 trust land tribal populations. The same U.S. Census 
acknowledges Navajo Nation trust land tribal population 173,987, of a 
total Navajo population of 225,298. This population is spread 
throughout a 17,500,000 acre reservation (26,897 square miles) 
extending into three States (AZ, NM, UT). The Navajo reservation is 
2,810 square miles larger than the State of West Virginia. The driving 
distance across the reservation is approximately nine hours. As an 
example of comparison, the fifteen tribes in the States of Montana, 
North Dakota and South Dakota have a combined tribal population of 
72,835 (U.S. Census 2000). These fifteen tribes charter sixteen tribal 
colleges, each on significantly smaller land bases than the Navajo 
reservation.
    The population and vast service area of the Navajo Nation warrant a 
second tribal college. CIT's Congressional Delegation sought 
unsuccessfully to amend this restriction to allow a second college for 
exceptionally high population tribes. CIT is the only postsecondary 
vocational educational institution on the Navajo Nation reservation. 
CIT students come from throughout the reservation, as well as from the 
towns of Gallup, Cruet, Continental Divide, Fruitland, Kirtland, 
Mentmore, Rehobeth (all in New Mexico), Durango, Colorado, White Mesa, 
Utah and the Tohono O'odham and Hopi Reservations in Arizona. CIT also 
serves all eligible applicants as room is available and has retrained 
non-Indian displaced uranium workers and Indian students from as far 
away as Alaska and Montana.
    In its fiscal year 2007 Budget Justification to the U.S. Congress, 
the Department of Interior proposes elimination of CIT funding, but the 
Department uses erroneous calculations to justify their proposal. CIT 
has submitted correct per student cost and funding calculations to the 
BIA on numerous occasions. To assure accuracy, CIT's cost calculations 
have been prepared by the outside, independent auditing firm of Sloan 
and Company, Albuquerque, New Mexico. CIT's correct per student cost 
per year is $10,282. Of this, 65 percent or $6,710 is for residential-
related costs. CIT's correct cost is $2,710 higher than the 
Department's inaccurate assessment of $4,000 per student for 
residential costs. CIT's correct instruction-only per student cost is 
$3,572, or 35 percent of total per student cost. CIT is one of the few 
tribal colleges that are residential. CIT also offers day care as an 
essential service for single-parent students who are among those most 
in need of job-oriented educational opportunity. The vast majority of 
all tribal colleges have commuting students only. Most tribal colleges 
do not have residential costs and therefore these dissimilar colleges 
cannot be compared on a per student cost basis to residential tribal 
colleges. This dissimilarity of comparison is further exacerbated as a 
result of the Department applying cost bases which are severely 
inaccurate.
    In its proposal to eliminate CIT funding, the Department 
incorrectly calculates that Interior provides $4,402 per student to 
CIT. The correct per student Interior allocation is half that, $2,237. 
In addition, the Department erroneously calculates CIT enrollment at 
403 Indian Student Count (ISC). CIT's correct ISC for fiscal year 2005 
was 646. CIT submits actual enrollment numbers to the BIA every year. 
The most recent year in which CIT had an enrollment approaching the 
BIA's incorrect fiscal year 2007 citation was in 1993, thirteen years 
prior. In academic year 2005-06, CIT's accurate ISC enrollment is 904.
    CIT does receive U.S. Department of Education Funding under Section 
117 of the Carl D. Perkins Vocational Education Act. The other tribal 
colleges also participate in Indian Set-aside Perkins funding under 
Section 116, a section for which CIT is not eligible. CIT began to 
experience a crippling shortfall under Section 117 in 1995 when 
disproportionate funding was redirected to online courses. This 
threatened CIT's operational continuation and in fiscal year 2000 CIT 
sought Interior operational funding to keep its doors open, the same as 
the tribal colleges. All tribal colleges including CIT are eligible to 
compete for multiple sources of funding from many Departments, but 
these sources are not core operational funding. CIT's correct combined 
funding per ISC from Interior and Department of Education is $8,447, 
which still leaves a shortfall of $1,835 per residential student for 
the last year calculated. CIT's 258 ISC enrollment increase from 646 to 
904 will exacerbate the funding shortfall. CIT has consistently 
produced outstanding graduation and employment placement statistics 
with the help of Interior appropriations.
    For fiscal year 2007, the Department also seeks to ``continue 
facilitating a partnership between the Colorado School of Mines, UTTC 
and Crownpoint to offer an energy related career curriculum.'' CIT 
cannot partner with Colorado School of Mines if CIT cannot keep its 
doors open through direct BIA operational assistance.
    Also for fiscal year 2007, the Department of Interior requests ``an 
increase of $600,000 in the Trust-Real Estate Services activity to 
offer a Certified Federal Surveyor curriculum provided by United Tribes 
Technical College and the Crownpoint Institute of Technology.'' The 
fiscal year 2007 Budget Justification is the first time that CIT 
learned of this proposal. CIT was never consulted regarding this 
proposed joint curriculum and does not even offer such a program. CIT 
eliminated its surveyor program 14 years ago due to absence of economic 
demand which demand is necessary for employment opportunities. Further, 
the State of New Mexico requires a bachelor degree in order for 
surveyor graduates to qualify to even take the State certification 
exam. CIT does not offer four-year programs.
    CIT offers one-year certificate and two-year associate degree 
programs, as well as continuing education and summer session. CIT's 
most recent graduating class May 2005 was comprised 201 one-year 
Certificate and two-year Associate degree students, an increase of 40 
graduates over 2004. U.S. Department of Education does not allow Spring 
Count funding, therefore CIT must ask Interior to assist in funding 
this cost. CIT's 2006 Spring enrollment consists of a Nursing Assistant 
program not able to be offered in the Fall. This program is high 
employment demand and has high job placement.
    Nearly all Navajo citizens on the reservation not only can speak 
the Navajo language, but use it in their everyday lives. On trust land 
alone, 106,432 Navajo citizens are age 18 and over. The median Native 
American population age is 27.4 years, eight years younger than the 
median age for mainstream America. Approximately 10,000 Navajo students 
graduate from area high schools each year. The average CIT student age 
is 26, with the actual age range being 18 to 64. The Navajo Nation is 
one of the very few tribes with an extant native language. 94 percent 
of CIT's students are full-time: six percent are part-time. Seventy 
percent of CIT enrollment is comprised New Mexico residents, 29 percent 
Arizona residents and 1 percent from Utah, Colorado, Minnesota and 
Montana
    Of the entire Navajo population, only 4.66 percent of high school 
graduates go on to achieve a bachelor's degree. Only 2 percent achieve 
Masters degrees, and less than .5 percent earn doctorates. CIT has 
proven to offer a realistic educational experience that equips young 
adults with skills that place the majority of graduates into career 
track employment. For students with the goal of continuing their 
educations at four-year institutions, their CIT educational experience 
has proven to augment their ability to succeed. Although distant from 
major towns, Crownpoint is a major reservation activity center.
    In order to overcome the obstacles inherent in its geographic 
location and underserved population, CIT has broader infrastructure 
responsibilities. CIT's campus base is comprised of 153,468 square feet 
of facilities. The campus includes state-of-the-art classrooms, a 
hands-on working Veterinary Clinic, modular administrative buildings, 
library, separate men's and women's dormitories, married student 
housing, daycare and cafeteria. CIT has no recreation facility. CIT has 
a higher proportion of students with developmental education needs 
resultant from inadequate high school preparation. Most students 
require remedial courses to equip them to undertake college level 
programs. CIT has longer distances to transport students over 
reservation expanses where public transportation is non-existent. 
Despite many challenges, CIT earns achievements. CIT twice received an 
excellence award from the U.S. Department of Agriculture for sincere 
commitment to student outcomes, one of only eight such awards 
nationally, which carried with it a modest cash prize and 
congratulatory letter from President Bush. CIT's Culinary Arts Program 
continues to win awards in both national and State competitions.
    For years CIT wait-listed approximately 200 otherwise qualified 
students due to residential housing limitations, a practice recently 
discontinued because limited housing renders admission highly 
improbable. CIT has a ten-year average student retention rate of over 
90 percent. Due to funding challenges resulting in insufficient 
Employment Placement personnel, the average job placement has dropped 
from a previous average of 86 percent to 74 percent. Increased funding 
would greatly assist in this area.
    CIT is fully-accredited by North Central Association of Colleges 
and Schools as a higher educational institution. CIT offers two-year 
Associate of Applied Science degrees in seven disciplines: Accounting, 
Administrative Assistant, Applied Computer Technology, Environmental 
Technology and Natural Resources, Law Advocate, Legal Assistant and 
Veterinary Technician. CIT offers sixteen vocational certificate 
programs: Accounting, Administrative Assistant, Applied Computer 
Technology, Automotive Technology, Building Maintenance, Carpentry, 
Culinary Arts, Electrical Trades, Environmental Technology and Natural 
Resources, Law Advocate. Legal Assistant, Nursing Assistant, Veterinary 
Assistant, Small Business Development (new), Commercial Drivers License 
and Computer Aided Drafting.
    On average, 85 percent of CIT graduates secure full-time employment 
and 15 percent accept seasonal jobs. Of this, 54 percent secured 
employment on-reservation and 46 percent off-reservation. The region's 
economy is comprised significantly of self-employed ranchers who by 
definition are not placed in employment. Several CIT Veterinary 
students are self-employed ranchers who improve their livestock yield 
through knowledge and skills learned in the CIT Veterinary Program. 
Students continuing their educations are considered positive 
terminations.
    Of the above graduating classes students, the CIT Placement Office 
successfully tracked and placed 74 percent of graduates in jobs or 
continuing education. Of all CIT graduates, the average entry level 
annual wage is over $17,000. Commercial Drivers License (CDL) graduates 
earn the highest wage at $16 to $18 an hour, or $33,280 to $37,440 
annually if employment remains stable. The next highest entry-level 
wages are: Veterinary Technician, Assistant $23,920: Legal Advocate/
Assistant $21,320: Electrical Trades $20,280: Automotive and 
Environmental Technology, both at $19,760. An apprentice will start at 
$9/$11 hourly and increase to $22/$28 hourly in less than 4 years.
    In an average lifetime of employment, CIT graduates will return to 
the Federal Government the cost of its investment many times over. Each 
employed graduate pays an average of $2,576 of their earnings to 
federal taxes in the first year of employment alone. Actual taxes paid 
differ according to a number of variables such as number of dependants, 
but wage earnings and resultant tax contributions will generally 
continue over at least thirty years. Over 60 percent of tracked 
graduates were employed in private industry and did not rely directly 
or indirectly on federal appropriations for jobs.
    On behalf of CIT students and their dependants whose quality of 
life has been greatly improved by education resulting in employment, 
thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the City of North Adams, Massachusetts

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $1.1 million 
appropriation from the Land and Water Conservation Fund for the 
acquisition of Broad Brook watershed project in the Green Mountain 
National Forest.
    The City of North Adams has owned the 3,921-acre Broad Brook 
property across the border in Vermont as a source of drinking water for 
its residents for nearly one hundred years. However, several years ago 
the city ceased depending on the Broad Brook parcel for its water and 
is now interested in selling the property to the Forest Service for 
inclusion into the Green Mountain National Forest. We completed the 
sale of the first portion of the property in December 2005 and are 
anxious to finish this project this year.
    In fiscal year 2007, an appropriation of $1.1 million will secure 
the transfer of the final 970 acres of the 3,921-acre Broad Brook 
watershed property. Located within the boundaries of the Green Mountain 
NF in the towns of Pownal and Stamford, the Broad Brook property would 
be an outstanding addition to the forest, known for its excellent 
recreational opportunities and critical wildlife habitat.
    The State of Vermont has mapped this parcel as being entirely 
within black bear production habitat, regions which support high 
densities of cub producing females. On the property there can be found 
a large and healthy population of the state threatened Large Whorled 
Pogonia (Isotria verticillata), and close to 7 miles of pristine 
headwater streams. A portion of the Appalachian National Scenic Trail, 
which in this part of Vermont coincides with the Long Trail, passes 
across the Broad Brook property. The tract is adjacent to other Forest 
Service ownership, the Stamford Meadows Wildlife Management Area--a 
state-owned sanctuary--as well as other conservation lands near the 
town of Pownal.
    The Vermont congressional delegation, lead by Senator Leahy, has 
secured appropriations for this project in three consecutive fiscal 
years, 2004, 2005, and 2006. These funds recently allowed the first 
phase of the property, 2,450 acres, to be added to the Green Mountain 
NF. An appropriation of $1.1 million in fiscal year 2007 will complete 
the final phase of this project and would add an additional 970 acres 
to the forest.
    The City of North Adams has reduced the total acquisition price for 
the Forest Service for the Broad Brook property by 25 percent off fair 
market value, allowing for a significant savings for the federal 
government. Importantly for the City of North Adams and its residents, 
the sale of this property to the federal government will provide the 
city with critical funds to enhance city services. The community also 
supports the transaction as a positive conservation legacy of which the 
city can be very proud.
    This federal acquisition in Vermont has significant positive 
impacts for residents in both Massachusetts and Vermont. An 
appropriation of $1.1 million will complete the final phase of this 
important project.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the appropriation for the Broad Brook property 
in Vermont.
                                 ______
                                 
                Prepared Statement of the City of Draper

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Draper City Council and its residents, I appreciate the opportunity 
to present this testimony in support of a $3 million appropriation from 
the Land and Water Conservation Fund for critical land protection 
efforts along the Bonneville Shoreline Trail in Utah.
    In November 2005, the City of Draper, with an overwhelming vote of 
support by Draper's citizens, completed the purchase and permanent 
protection of Corner Canyon, a 1,020-acre property that was slated for 
development. This land will now be available to the community for open 
space and recreational uses. Corner Canyon is located within Draper's 
city limits and is nestled in the foothills below the Lone Peak 
Wilderness Area, in the ``corner'' between the Wasatch Range and 
Traverse Ridge. Following our acquisition, it will offer a variety of 
trails for hikers, bikers, and equestrians, and provides public access 
to the Bonneville Shoreline Trail. Such recreational uses will be 
incorporated in a master plan for Corner Canyon and is scheduled for 
completion by August 2006.
    The Corner Canyon project is the largest ever conservation purchase 
by Draper City, and the $7 million bond passed to fund it is the 
largest bond measure passed in Salt Lake County for a single open space 
acquisition. The landowners agreed to sell the property to the City for 
approximately $13.6 million, with the agreement that a conservation 
easement would be placed on the property once the City acquired it. In 
addition to City funds, funding applications for $500,000 each were 
successfully made to both the State of Utah's Quality Growth Commission 
and Salt Lake County to assist in the acquisition of the property. With 
the assistance of this additional $1,000,000, the city was able to come 
up with the additional funds to acquire the property. For a City of 
approximately 35,000 residents, the purchase of Corner Canyon was 
obviously a very large investment and demonstrates both the commitment 
of the City and importance of protecting this critical land.
    Corner Canyon is truly a public treasure, and has become an 
investment for each of us in the future of Draper. I am convinced that 
``Our Corner Canyon'' will stand as a monument to our community, to our 
past and those who settled here and to our quality of life.
    A significant portion of the Bonneville Shoreline Trail/Bear Canyon 
property, which the Forest Service would acquire with the requested 
2007 Land and Water Conservation Funds, lies immediately adjacent to 
the Corner Canyon property and is a very important connection to our 
efforts to protect Corner Canyon and the land between City limits and 
the Lone Peak Wilderness Area. Additionally, the Bonneville Shoreline 
Trail/Bear Canyon property contains significant stretches of the 
Bonneville Shoreline and therefore will fill important gaps in 
completion of the Bonneville Shoreline Trail in Salt Lake County. The 
combination of the city's protection of Corner Canyon and the planned 
Forest Service acquisition of Bear Canyon represents an important 
federal and local conservation partnership in southern Salt Lake 
County.
    In fiscal year 2007, additional funds are needed for the Forest 
Service to acquire the remaining portion of the Bonneville Shoreline 
Trail/Bear Canyon property. If not protected, this area could be 
developed, public access to this portion of the Bonneville Shoreline 
Trail could be lost forever, and adjacent forest and wilderness lands 
would also be put at risk.
    Because of the afore stated reasons, I respectfully request that 
you include an appropriation of $3 million for the Bonneville Shoreline 
Trail in the fiscal year 2007 Interior and Related Agencies 
Appropriations bill.
    Thank you for your time, consideration, and attention to this 
request.
                                 ______
                                 
             Prepared Statement of the County of Riverside

    On behalf of the County of Riverside, please support full funding 
for the Payment in Lieu of Taxes (PILT) program in fiscal year 2007.
    With your assistance, Congress provided $233 million for PILT in 
fiscal year 2006. This funding provides important compensation to local 
communities that have significant amounts of Federal land in their 
counties. There are over 2.5 million acres of Federal land within the 
borders of the County of Riverside. PILT funds partially offset the 
costs of supplying many valuable services such as search and rescue, 
law enforcement, and road maintenance.
    The authorization for PILT would provide funding at approximately 
$340 million annually, which is warranted by the fiscal pressures felt 
by counties, particularly in California. The President's fiscal year 
2007 budget proposal would cut PILT by $35 million. The County of 
Riverside strongly urges you to oppose this proposal.
    Please continue to work to increase the funding necessary for this 
program.
                                 ______
                                 
              Prepared Statement of the County of Ventura

    I am writing on behalf of the County of Ventura to urge you to 
include provisions to extend the existing moratorium against new 
activities on the California Outer Continental Shelf (OCS) in the 
fiscal year 2007 Interior and Related Agencies Appropriations bill.
    On September 20, 2005, the Ventura County Board of Supervisors 
unanimously voted to oppose federal bills and regulations that reduce 
the role or authority of State and local governments in the siting and 
approval of offshore energy facilities or diminish the public and 
environmental review process. The Board also voted to oppose time 
extensions of existing undeveloped offshore oil & gas leases.
    Exploration and development activities on the OCS raise many unique 
and complex environmental issues. In order to avoid the potential 
ecological disaster risks inherent in offshore oil production, avoid 
the air quality impacts to the Ventura County air shed of increased 
offshore oil exploration and production, and to preserve the scenic, 
recreational, economic, and environmental resource values of our coast, 
the Board opposes the extension of existing undeveloped offshore oil & 
gas leases and the lifting of the existing moratorium on new leases.
    The Board of Supervisors urges you to continue to work with your 
colleagues on the subcommittee to oppose efforts to modify the 
moratorium, and to ensure that the role or authority of State and local 
governments in the siting and approval of offshore energy facilities is 
not diminished.
    Thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    Support for fiscal year 2007 Federal Funding of $5.2 million for 
the Department of the Interior--Bureau of Land Management to assist in 
the Colorado River Basin Salinity Control Program, with $1,500,000 to 
be expended on identified salinity control related projects and 
studies.
    Your support and leadership are needed in securing adequate fiscal 
year 2007 funding for the Department of the Interior-Bureau of Land 
Management with respect to the federal/state Colorado River Basin 
Salinity Control Program. This program is carried out as a part of 
ecosystem and watershed management pursuant to the Colorado River Basin 
Salinity Control Act (Public Law 93-320) and the Clean Water Act 
(Public Law 92-500).
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Due to geologic 
conditions, much of the land that is controlled and managed by the BLM 
is heavily laden with salt. Past management practices have led to 
human-induced and accelerated erosional processes from which soil and 
rocks, heavily laden with salt have been deposited in various stream 
beds or flood plains. As a result of this disposition, salt is 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged federal agencies, including the BLM, with 
proceeding with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures may be 
more cost-effective than some of those now being considered for 
implementation by the Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its 
Environmental Quality Incentives Program (EQIP). In keeping with the 
Congressional mandate to maximize the cost-effectiveness of the 
salinity control program, the Colorado River Board of California 
(Colorado River Board) is requesting that Congress appropriate and the 
administration allocate adequate funds to support BLM's portion of the 
Colorado River Basin Salinity Control Program.
    Since the Congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $330 million per year and 
that there are very significant additional damages yet to be 
quantified. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration,
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. In addition, the federal government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin states with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2007 and in future fiscal years, that the Congress provides 
adequate funds to the Bureau of Land Management for its activities 
related to salinity control in the Colorado River Basin.
    The BLM budget, as proposed by the Administration in the BLM budget 
justification document, includes five long-term vision components for 
the Soil, Water, and Air Management Program. One of these components is 
meeting state water quality standards in all stream miles flowing on 
BLM lands. Reducing saline runoff to meet the interstate, federal and 
international agreements is a critical element of the Soil, Water and 
Air Management Program.
    The Colorado River Board, the state agency charged with protecting 
California's interests and rights in the water and power resources of 
the Colorado River System, requests that Congress appropriate 
$5,200,000 to BLM in fiscal year 2007 for activities that help control 
salt contributions from BLM managed lands in the Colorado River Basin. 
In the past, the BLM has used $800,000 of this funding for proposals 
submitted by BLM staff to the BLM's salinity control coordinator for 
projects that focus on salinity control. The Colorado River Basin 
Salinity Control Advisory Council report states that the BLM has now 
identified specific projects and studies that in fiscal year 2007 
totals $1.5 million. The Colorado River Board urges the Subcommittee to 
specifically designate, $1.5 million for BLM identified projects and 
studies.
    The Colorado River Basin Salinity Control Forum (Forum), on behalf 
of the seven Colorado River Basin states, has submitted testimony to 
your Subcommittee. The Colorado River Board concurs in the fiscal year 
2007 funding request and justification statements for BLM as set forth 
in the Forum's testimony.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective Salinity Control 
Program will avoid the additional economic damages to river users in 
California and the other states that rely on the Colorado River.
    The Colorado River Board greatly appreciates your support of the 
Colorado River Basin Salinity Control Program and asks for your 
assistance and leadership in securing adequate funding for this vital 
program.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    In Support of $5,200,000 to assist in Colorado River Salinity 
Control, Title II from the Soil, Water and Air Management effort, and 
with support for the President's request for that activity. Also a 
request that $1,500,000 be spent on identified salinity control related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control Program authorized by the Congress. The BLM 
budget, as proposed by the Administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, federal 
and international agreements to control salinity of the Colorado River.
    The BLM's 2007 Budget Justification document states, with respect 
to 2005 Planned Program Performance, that the BLM continues to 
implement on-the-ground projects, evaluate progress in cooperation with 
the U.S. Bureau of Reclamation (USBR) and the U.S. Department of 
Agriculture (USDA), and report salt-retaining measures in order to 
further the Plan of Implementation of the Federal Salinity Control 
Program in the Colorado River Basin. The Colorado River Basin Salinity 
Control Forum (Forum) believes that fiscal year 2007 funds appropriated 
by the Congress for the Soil, Water, and Air Management Program should 
be used, in part, for reducing saline runoff in the Colorado River 
Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged the BLM in a partnership with the Basin states as has been done 
previously with the two other federal agencies implementing salinity 
control in the Basin. The Forum has requested and the BLM has selected 
a salinity control coordinator for this basinwide effort. This person 
now serves with the two full-time coordinators in place for the USBR 
and the USDA efforts. This enhanced working relationship has taken 
advantage of the availability of Basin states' cost-sharing monies to 
leverage federal funds. The Forum is encouraged by the words in the BLM 
budget document. The Forum supports the funding request of $32,053,000 
for the Soil, Water, and Air Management Subactivity. As one of the five 
principal Soil, Water, and Air Program priorities, the Forum believes 
that the BLM needs to specifically target $5,200,000 to activities that 
help control salt contributions from BLM managed lands in the Colorado 
River Basin. In the past, the BLM has used $800,000 of the Soil, Water 
and Air Program funding for proposals submitted by BLM staff to the 
BLM's salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council 
report states that the BLM has now identified projects that in fiscal 
year 2006 could use $1.5 million. For years, Congress has dedicated 
$800,000 on the effort and now the Forum believes $1.5 million should 
be so designated.
    The success of the BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control Program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin states and approved by the U.S. Environmental 
Protection Agency (USEPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM program can move ahead at a pace that is needed 
to sustain these water quality standards.

                                OVERVIEW

    This testimony is in support of funding for a portion of the Title 
II program. The Colorado River Basin Salinity Control Program was 
authorized by the Congress in 1974. The Title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. In response to the Basin states' requests, the Congress 
revised the Act in 1984 to give new salinity control responsibilities 
to the USDA and to the BLM. That revision, while leaving implementation 
of the salinity control policy with the Secretary of the Interior, gave 
new salinity control responsibilities to the USDA and to the BLM. The 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the Congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $330 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration,
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 mg/l increase in salinity concentrations, there is $75 
million in additional damages in the United States.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the USEPA and 
pursuant to requirements of the Clean Water Act, every three years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.

                             JUSTIFICATION

    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the BLM is heavily laden with salt. Past management practices, which 
include the use of lands for recreation; for road building and 
transportation; and for oil, gas, and mineral exploration have led to 
man-induced and accelerated erosional processes. When soil and rocks 
heavily laden with salt erode, the silt is carried along for some 
distance and ultimately settles in the streambed or flood plain. The 
salts, however, are dissolved and remain in the river system causing 
water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
federal agencies, including the BLM, to proceed with measures to 
control the salinity of the Colorado River, with a strong mandate to 
seek out the most cost-effective options. It has been determined that 
rangeland improvements can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the USBR and by the USDA. They are very 
environmentally acceptable as they will prevent erosion, enhance 
wildlife habitat, increase dependable stream flows and increase grazing 
opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the Administration allocate adequate funds to 
support the BLM's portion of the Colorado River Salinity Control 
Program as set forth in the Forum's adopted Plan of Implementation.
                                 ______
                                 
     Prepared Statement of the Colorado River Commission of Nevada

    As a Nevada representative of the Colorado River Basin Salinity 
Control Forum, the Colorado River Commission of Nevada (CRC) supports 
funding for the Bureau of Land Management (BLM) for the subactivity 
that assists the Colorado River Basin Salinity Control Program. The CRC 
supports the fiscal year 2007 funding request of $33,343,000 for the 
Soil, Water, and Air Management Subactivity. As one of the five 
principal Soil, Water, and Air Program priorities, the CRC believes the 
BLM needs to specifically target $5,200,000 to activities that help 
control salt contributions from BLM managed lands in the Colorado River 
Basin.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations that support the Colorado River Basin 
Salinity Control Program is essential to move the program forward so 
that the congressionally directed salinity objectives are achieved.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman, Honorable Members of the Committee, on behalf of the 
Columbia River Inter-Tribal Fish Commission, I want to thank you for 
the opportunity to present our views on the Bureau of Indian Affairs 
budget. The Commission also endorses the testimony of our four member 
tribes on their natural resource program needs. We respectfully request 
that Congress reverse the downward trend in program funding that 
supports tribal well being including the protection of our natural 
resources. We also encourage this committee to take note of the on-
going collaborative effort ordered by the federal judge within the 
region under the Biological Opinions on the Federal Columbia River 
Power System. For fiscal year 2007, the Commission has identified the 
following funding needs:
    $4,570,185, an increase of $1,435,000 over fiscal year 2006, for 
Columbia River Fisheries Management (a subcategory under the Rights 
Protection Implementation, Wildlife and Parks, Other Recurring Programs 
Area), plus pay cost adjustments. Of this increased amount:
  --$500,000 is required for base programs to address salmon listings 
        under the Endangered Species Act, including genetic stock 
        identification work required for hatchery reform programs.
  --$535,000 for enforcement officers to patrol In-lieu and Treaty 
        Fishing Access Sites on the Columbia River.
  --$400,000 to assist in the start-up of a commercial fish processing 
        center and expand marketing efforts to increase the value of 
        the commercial treaty fisheries through processing and 
        marketing.
    $1,500,000 is required for Conservation Officers, either as a new 
program category/line item included under Wildlife and Parks or as a 
base increase to the Columbia River Fisheries Management line item.
    $4,650,000, an increase of $608,485 over fiscal year 2006, plus 
pay-cost adjustments, for the U.S./Canada Salmon Treaty program.

                               BACKGROUND

    In 1977, the Columbia River Treaty Tribes (Nez Perce, Umatilla, 
Warm Springs and Yakama Tribes) formed the Commission to provide 
coordination and technical assistance to the member tribes.
    In 1855, the United States entered into treaties with the four 
tribes \1\ to ensure the mutual peace and security of our peoples. For 
the four tribes' cession of millions of acres, the United States 
promised to protect and honor the rights and resources the tribes 
reserved to themselves under those treaties. Our rights and our 
religious beliefs are tied to the salmon which is being destroyed by 
process and delay by those blocking the adoption of necessary recovery 
and restoration actions and programs consistent with the Endangered 
Species Act and federal trust obligations. We have a plan designed to 
restore salmon to healthy sustainable levels.
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The Bonneville Power Administration (BPA) continues to fall short 
in funding the fish and wildlife efforts proposed by the region's co-
managers. This January, 541 project proposals were submitted to the 
Northwest Power and Conservation Council (NPCC) for the 2007-09 funding 
cycle. These proposals followed an extensive subbasin planning effort 
involving tribal, state and federal co-managers as well as a growing 
number of local conservation groups and watershed councils. The 2007-09 
proposals total $354 million, $338 million and $324 million over the 
three-year period. Under BPA's proposed artificial funding cap of $179 
million, many projects will not be funded and ongoing projects may be 
at risk of not getting funded. We are recommending that BPA fish and 
wildlife funding levels be set at least at $200 million, $225 million, 
and $240 million respectively in 2007 to 2009. Unfortunately, because 
of BPA's artificial funding cap, we must now ask Congress to fund the 
project proposals identified by the region's fish and wildlife 
agencies.
    CRITFC's principles for fisheries protection and restoration are 
outlined in a restoration plan titled Wy-Kan-Ush-Mi Wa-Kish-Wit (Spirit 
of the Salmon). Wy-Kan-Ush-Mi Wa-Kish-Wit can be viewed at 
www.critfc.org. The plan's objectives are to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild salmon runs to 
levels that support tribal ceremonial, subsistence and commercial 
harvests. To achieve these objectives, the plan emphasizes strategies 
and principles that rely on natural production and healthy river 
systems. The plan utilizes the cooperative collaborative conservation 
approach that the White House has encouraged parties to use to address 
natural resource issues. The tribes can point to several successes in 
watershed-based restoration of salmon working with state, federal and 
private entities.
    Columbia River Fisheries Management Program Needs.--The member 
tribes have identified programmatic funding shortfalls that undermine 
efforts to fulfill their self-determination goals and objectives for 
ESA recovery planning, hatchery reform, treaty fishing access sites, 
salmon marketing, and conservation enforcement. These funding 
shortfalls require an increase of $1,435,000 over fiscal year 2006 for 
a new program base of $4,570,185 for Columbia River Fisheries 
Management as explained below.
    ESA Recovery Planning.--$500,000 is required for base programs to 
address salmon listings under the ESA, including extensive coordination 
with federal agencies regarding recovery planning for listed salmon. In 
1991, at the BIA's request, we submitted a needs assessment regarding 
outstanding hunting and fishing rights. At that time, we requested 
$1,000,000 to determine the allocation of the conservation burden among 
all sources of salmon mortality caused by hydropower, habitat, 
hatcheries and harvest impacts and for implementing hatchery production 
reform. The BIA provided only $700,000. The funding has supported 
ongoing effort to participate in multiple processes and forums for 
salmon recovery planning.
    Hatchery Reform.--While we have been calling for hatchery reform 
since 1976, the White House recently recognized reforming hatchery 
production programs is an integral part of salmon restoration. The 
tribes are leaders in restoration efforts utilizing methods such as 
supplementation and welcome the White House's new interest to advance 
this useful tool as part of a comprehensive restore salmon program. 
This broader mandate carries responsibilities to monitor and evaluate 
the results of management actions taken to reform production. To meet 
regional obligations and high standards under this broader mandate, the 
tribes must develop the capacity to analyze a broad base of genetic 
data essential for conservation and restoration of salmon populations, 
without impacting remaining wild stocks and request $200,000 for this 
requirement. This funding is part of the $500,000 program increase 
identified for ESA recovery planning.
    In-Lieu Treaty Fishing Access Sites.--We request new base funding 
of $535,000 specifically for the Treaty Fishing Access Sites, putting 
four officers on patrol to provide full coverage. This funding will 
cover dispatch support, vehicles with equipment, and four new uniformed 
officers. In-lieu and treaty fishing access sites were developed to 
replace fishing and access sites lost to the tribes as a result of 
federal construction of hydropower dams. While the BIA provides two 
enforcement personnel for these sites, they are not a dedicated 
resource and often called away from the river area for extended periods 
of time. Problems include illegal drugs, assaults, domestic violence 
complaints, damage to government property (the in-lieu and access site 
facilities), and numerous trespass violations by non-tribal members 
using the sites. All four tribes passed formal resolutions requesting 
that the Bureau provide funding to the Columbia River Inter-Tribal 
Fisheries Enforcement Department to take over protection and 
enforcement responsibilities at these sites.
    Salmon Marketing.--$400,000 to assist in the start-up of a 
commercial fish processing center and expand marketing efforts to 
increase the value of the commercial treaty fisheries through 
processing and marketing. Over the years, tribal fishers have been 
relegated to the bottom of the retail chain, with little compensation 
for their efforts. It is imperative that the tribal fishers have the 
opportunity to increase the economic value of their fisheries through 
processing, specialty product development, and marketing. The Corps of 
Engineers, in coordination with the four tribes, is building a 
commercial fish-processing center along the Columbia River. This 
facility should be finished by early 2007. A business plan to guide 
operations is being completed, and funding is needed for start-up 
capital needs for equipment and initial staffing, and for expanded 
marketing activities to process and move a value added salmon product.
    Conservation Enforcement Program Restoration.--Due to funding cuts 
made by the Bonneville Power Administration (BPA), we have a 
conservation enforcement request of $1,500,000 for fiscal year 2007 for 
a new program category under Wildlife and Parks for Conservation 
Officers, or as a base funding increase to the Columbia River fisheries 
management line item, to restore the tribes' coordinated fisheries 
enforcement program, and for cultural resource protection. This program 
was previously funded by BPA but was reduced due to BPA's artificial 
limitation on fish and wildlife program funding. The BPA and the 
Northwest Power and Conservation Council have both endorsed 
Congressional funding for this successful program. This funding would 
allow enable the Nez Perce Tribe to maintain a well qualified staff 
that provides conservation enforcement in the tributaries in the Snake 
River Basin, would allow the Confederated Tribes of the Umatilla Indian 
Reservation to provide conservation enforcement in tributaries in 
northeastern Oregon, and would allow the Columbia River Inter-Tribal 
Enforcement branch to continue conservation enforcement and safety 
programs on the mainstem of the Columbia River between Bonneville and 
McNary dams. The NPCC acknowledged these program needs in its 1994 
``Strategy for Salmon,'' calling for ``an expanded enforcement program 
to provide additional protection to Columbia River salmon and 
steelhead.'' The program has been successful in both reducing 
violations and educating tribal and non-tribal fishers and continues to 
receive the strong endorsement of NPCC, the BPA, and NOAA Fisheries.
    U.S.-Canada Salmon Treaty Program.--The 24 treaty fishing tribes 
that participate in the implementation of the U.S./Canada Pacific 
Salmon Treaty of 1985 have identified a program need of $4,650,000, an 
increase of $608,485 over fiscal year 2006, plus pay-cost adjustments, 
for the U.S./Canada Salmon Treaty program. This funding supports salmon 
harvest monitoring and evaluation, mark tagging programs, and research 
carried out by the tribes on Chinook, coho, chum, sockeye and pink 
salmon stocks originating in the Snake, Columbia River, Washington 
Coastal and Puget Sound rivers and streams. This work is coordinated 
with state and federal efforts through the U.S. Section of the Pacific 
Salmon Commission in order to ensure cost and program efficiencies. 
Continued funding reductions in this program area have forced the 
twenty-four tribes to cut staff in order to maintain critical research 
needs.
    In summary, through a governing body of leaders from the four 
tribes working together to protect our treaty fishing rights, with a 
staff of biologists, hydrologists, law enforcement personnel, and other 
experts advising tribal policy-makers, the tribes have become proven 
leaders on natural resource issues, provided that adequate resources 
are available. These activities are essential to meet the federal 
mandate of co-management reaffirmed by federal court order. We ask for 
your continued support of our efforts and we are prepared to provide 
any additional information you may require on the Department of the 
Interior budget.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission

    We appreciate the opportunity to provide this written testimony to 
the Appropriations Subcommittee on Interior and Related Agencies. The 
Chugach Regional Resources Commission (CRRC), a non-profit Alaska 
Native coalition for managing Tribal natural resources, with its seven 
member Tribes located in the Prince William Sound and Lower Cook Inlet, 
respectfully requests restoration of its base funding of $350,000 to 
the fiscal year 2007 Bureau of Indian Affairs budget, Fish, Wildlife 
and Parks Program and an increase of $150,000 for the continued 
operations of the Alutiiq Pride Shellfish Hatchery. Thus, CRRC is 
seeking a total of $500,000 for fiscal year 2007 Appropriations. We 
have attached a budget of our appropriations request.
    The Tribes of the Chugach Region, who make up CRRC, appreciate the 
support of the Subcommittee in reinstating our fiscal year 2006 
funding, which was zeroed out by the Bureau of Indian Affairs. 
Unfortunately, the Administration has once again zeroed out our funding 
in the President's proposed BIA fiscal year 2007 budget. Therefore, we 
are respectfully requesting the support of the Appropriations 
Subcommittee to restore the $350,000 to the Bureau of Indian Affairs 
fiscal year 2007 Fish, Wildlife and Parks budget for CRRC and add it to 
the base budget as permanent funding. We also request an additional 
appropriation of $150,000 to support the Alutiiq Pride Shellfish 
Hatchery until it becomes economically self-sustaining.
    The mission of CRRC is to work with our seven member Tribes to 
promote and develop sound economic resource based-projects and to work 
collectively to address any natural resource and environment-related 
issues that affect the Native people of the Chugach Region.
    Until fiscal year 2002, funding for CRRC had been included in the 
BIA's Fish, Wildlife and Parks budget for the previous 12 years. In 
fiscal year 2002-2006, this fiscal year funding was not included, but 
was restored by Congress. Last year, however, our funding was reduced 
by $50,000, significantly jeopardizing the program's continued 
operation. CRRC funding, over the past 16 years, has supported the 
development and operation of many programs that have assisted 
communities in providing meaningful employment opportunities as well as 
valuable services and products to the people of the State of Alaska.
    If this funding is not restored, 35 Native people in the Chugach 
Region will lose their jobs. With the scarcity of employment 
opportunities in rural Alaska, the impact of approximately six families 
per village losing this income in a village with an average population 
of 100, strikes a devastating blow to the local community economy. In 
addition, these 20 families will create a much larger burden on state 
and federal financial resources as they will be forced to depend upon 
state and federal welfare programs to provide funding for necessary 
living expenses.
    This funding also supports the base operating expenses of CRRC, and 
without it, our work will not be able to continue. A summary of some of 
these programs supported by this funding is provided to give you a 
better understanding of the integral role this funding plays in Tribal 
community development.
    Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. A 
20,000 sq. ft. shellfish hatchery located in Seward, Alaska, the 
hatchery houses shellfish seed, brood stock, and algae production 
facilities. Originally known as the Quteckak Shellfish Hatchery, the 
hatchery employs 4 individuals and is operated by the Chugach Regional 
Resources Commission. The Hatchery needs an additional $150,000 to 
facilitate its self-sustaining operations.
    Alutiiq Pride has been successful in culturing goeduck and razor 
clam species but additional research and development funding is needed 
to assist in the nursery, growth and marketing stages. Last year, 
Alutiiq Pride produced 4 million oyster seeds. This year, the Hatchery 
anticipates sales of 8 million oyster seed. Revenue from such sales, 
however, is quite modest ($35,000). The goeduck shellfish farming 
industry is expected to grow rapidly. If Alutiiq Pride can sell 
goeducks and razor clam seeds, the production potential from only 2 
million seed sales can approach $400,000, a tenfold revenue increase.
    The shellfish industry in Alaska has not yet grown to the point 
where seed sales cover the cost of operations. Oyster sales have 
matured and goeduck seed sales will coincide with the expected growth 
of that industry. Alutiiq Pride is undertaking hatchery, nursery and 
grow out operations research to adapt mariculture techniques for the 
Alaskan shellfish industry. Until the hatchery is self-sufficient in 3-
5 years, however, it requires operations and research and development 
funds if it is to meet the State's growing demand for shellfish seed. 
The Hatchery seeks annual funding of $150,000 for hatchery operating 
expenses research and development funding to develop new shellfish 
species until we are self-sustaining.
    In addition to our work at Alutiiq Pride, the CRRC has established 
a host of other projects that have restored salmon and sockeye runs to 
important areas, created important employment opportunities through 
mariculture project development, and initiated important educational 
projects that will lead to meaningful involvement of the Tribes in the 
management of their resources. These projects include:
    Port Graham Salmon Hatchery.--The Port Graham Salmon Hatchery has 
been in operation since 1990, and raises sockeye, pink, and coho 
salmon. CRRC provided Port Graham with the technical and administrative 
assistance necessary to build the hatchery program. The hatchery's goal 
is to rebuild local salmon runs and provide economic opportunities for 
village residents. CRRC has funded the hatchery operations for many 
years and employed the hatchery staff consisting of 5-7 full time and 
seasonal employees.
    The original hatchery was located in the net loft of the salmon 
cannery building. This building was completely destroyed by a fire in 
January of 1998. CRRC worked closely with the Port Graham Village 
Council to obtain funding and help to build a new hatchery. The new 
hatchery was completed in 2000 and is now in the process of bringing 
salmon production to full capacity, which is 110 million pink salmon 
eggs, 5 million sockeye salmon eggs and 2 million coho salmon eggs. The 
hatchery currently produces local stock pink and coho salmon and 
incubates sockeye salmon eggs for the nearby Native Village of 
Nanwalek. The hatchery is expecting about 300,000 adult pink salmon to 
return this year, which will be enough to fill it to capacity.
    Tatitlek Mariculture Project.--The Tatitlek Mariculture Project has 
grown over the past few years to the point of the community 
constructing a processing facility for oysters, with plans to expand to 
Littleneck clams, scallops, mussels, and cockles. The project employs 
eight community members to care for the oysters until they reach a 
marketable size, at which time they are prepared for market. Another 
component of the project is to expand upon the existing marketing plan 
to ensure continuous funding for the project. This project has several 
funding sources as well, including the BIA, DCED, and revenue received 
from selling their oysters from the Tribal farm, after subsistence 
needs are met. Tatitlek has also received ANA funding in the past, 
which assisted them in getting the project started. This grant was 
administered by CRRC.
    Tribal Education Initiative Project.--Under this project, the 
principal partners, CRRC, University of Alaska-Fairbanks and NOAA will 
work together to establish a coastal resources management technician 
training degree program. CRRC and its member villages are committed to 
greater employment and business development and to improving their 
capacity to play a meaningful role in research, monitoring and 
management of those resources on which their livelihood and culture 
depend. This project will integrate traditional knowledge and western 
science by involving Native Elders and traditional knowledge bearers 
from the region in curriculum development and project implementation.
    As you can see, federal funding has played an integral role in 
allowing CRRC to develop and implement important community-based 
programs such as those described above. The Native people employed 
under this funding, the majority of whom live in remote villages, will 
lose their jobs if this funding is not restored; CRRC will be without 
operating funds, thus unable to facilitate the development of local 
community economies, and Tribes will no longer have a collective voice 
to address the environmental and resource issues that affect their 
lives.
    We are respectfully requesting the Committee's support to restore 
the original amount of $350,000 to the BIA Fish, Wildlife and Parks 
Budget for the Chugach Regional Resources Commission and make it part 
of the recurring base budget. We also request a $150,000 increase to 
fund the continuing operations of the Alutiiq Pride Shellfish Hatchery. 
Due to the magnitude of this program to the people of the Chugach, as 
well as its far reaching impacts and high cost to benefit ratio, we are 
also requesting that this funding be included in the budget as part of 
the permanent base. We believe that making our funding a part of the 
permanent base will alleviate the need for us to spend what little 
funding we have on getting our BIA funding restored rather than on 
meaningful projects that will benefit the communities.
    Once again, we ask the Subcommittee to restore these funds in 
behalf of the Native people of the Chugach Region and thank you for 
your support of our programs, as well as this opportunity to provide 
our written testimony.

                                 BUDGET
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Personnel...............................................        $177,435
Travel for Board of Directors and Staff.................          21,000
Mariculture/Fisheries/Office Supplies...................          49,970
Technical Biological and Legal Assistance...............          43,200
Miscellaneous Expenses (Telephone, Office Space, etc.)..          58,395
Alutiiq Pride Shellfish Hatchery Operations.............         150,000
                                                         ---------------
      Total request.....................................         500,000
------------------------------------------------------------------------

                                 ______
                                 
          Prepared Statement of the Cheyenne River Sioux Tribe

    As Chairman of the Cheyenne River Sioux Tribe, I am pleased to 
present this testimony on the Department of the Interior budget for 
fiscal year 2007. A summary of the Cheyenne River Sioux Tribe's fiscal 
year 2007 funding request for Interior is as follows:
    1. To promote improved range management, an increase of 
$1,322,203.00 for Cheyenne River Sioux Tribe's Prairie Management 
Program is requested.
    2. To improve service to sixteen (16) communities serviced by the 
Cheyenne River Sioux Law Enforcement Division in order to come into 
full compliance with the Tribe's 638 Law Enforcement Contract, 
$416,351.30 to meet minimum staffing levels for its Law Enforcement 
Division is requested. An increase of $1,225,698.70 is requested for 
adequate staffing levels.
    3. To meet increased volume of caseloads and to address case 
backlog, an increase of $818,431.00 to hire minimum staff for the 
Cheyenne River Sioux Tribal Court System is requested. An increase of 
$1,164,290.00 is needed to bring the budget up to adequate staffing 
levels.
    4. To fund Phase I of the Trust Asset Management Project for 
agency-level management of rangeland resources, $1,710,867.00 is 
requested.
    5. To restore the Welfare Assistance Program funding to fiscal year 
2006 levels and to specifically fund the Miscellaneous Assistance 
portion of the Program, $250,000.00 is requested.
    6. To provide funding for expansion of the Indian Child Welfare Act 
Program to address a dramatic increase in caseload, $558,093.00 is 
requested.
    7. To fund BIA Road Maintenance, $1,212,101.00 is requested in 
order to provide adequate maintenance for over 316 miles of reservation 
roads.

          NARRATIVE JUSTIFICATION FOR FUNDING REQUEST INCREASE

    Prairie Management Program.--This Program is responsible for 
restoring and preserving the mixed grass prairie ecosystem on the 
Reservation. Its goals are to improve land productivity by implementing 
range management practices that focus on the reduction of erosion, 
improvement of wildlife habitat, control of noxious weeds and the 
black-tailed prairie dog, as well as bison enhancement and endangered 
species recovery. This Program has been funded annually by a special 
congressional appropriation since 1995, however, it has been under-
funded since its inception. During fiscal year 2006, its funding was 
reduced to approximately $416,000--far below the level necessary to 
sustain the Program. As a result of this reduction in funding, the 
Program was forced to reduce its workforce in fiscal year 2006 to 10 
full-time workers from 18 full-time employees, six contract employees, 
and six seasonal employees in fiscal year 2005. Indeed, without 
adequate funding in fiscal year 2007, the Program will be forced to 
close down completely. Accordingly, we are requesting $1,322,203.00 to 
operate the Program so that improvements to the sustainable resource of 
our rangelands can continue.
    Law Enforcement Division.--The Tribe is requesting $416,351.30 in 
order to meet minimum staffing levels for its Law Enforcement Division. 
An increase of $1,225,698.70 is needed to bring the budget up to 
adequate staffing levels. The Division in its current state is unable 
to provide adequate police protection to the 16 communities it serves. 
Emergency response time suffers due to the size of the Reservation and 
the distance between communities. Coverage is further limited by the 
staffing level--6 sergeants and 16 patrol officers. This is the same 
number of patrol officers the Tribe had in 1998--only now the 
Reservation population is over 20 percent larger.
    BIA appropriations have not increased for Law Enforcement in the 
past five years. The Law Enforcement Division needs additional funding 
to increase staffing levels, so that is can come into compliance with 
the Tribe's 638 contract. With an increase in funding, salaries can be 
increased (patrol officers currently start at $25,771/year; that 
starting salary can be raised to $31,830/year) and new officers can 
attend certification training to better serve the public.
    Tribal Court System.--The Tribe is requesting $818,431 in order to 
bring its Tribal Court System to minimum staffing levels. An increase 
of $1,164,290.00 is needed to bring the budget up to adequate staffing 
levels. In fiscal year 2006, the Tribe had to fund its Tribal Courts 
when the $458,345.21 total budget was expended on salaries and fringe 
benefits alone. The Tribe paid for supplies, communications, and 
building expenses from the CRST General Fund.
    Inadequate staffing levels result in lengthy delays in trial, the 
issuance of orders, and appeals. This interferes with defendants' right 
to a speedy trial. The Tribal Courts are overburdened--there are 57 
cases for every 100 Reservation residents. The additional funds would 
be used to hire one civil court judge, one staff attorney or law clerk, 
one additional criminal court judge, one additional juvenile court 
judge, one mediation clerk, one appellate court clerk, two probation 
officers (adult/juvenile), one compliance clerk and two court process 
servers. Money is also needed for basic operational costs such as 
communications, office supplies, and equipment.
    Unless base funding is increased, a high number of cases will 
continue to be carried out into the next year resulting in violations 
of criminal defendants' sixth amendment rights, reduction in effective 
victim protection, and negative impacts on reservation businesses that 
must rely on the civil court for collection actions.
    Trust Asset Management Program.--The Great Plains Region secured 
$1.825 million for fiscal year 2005 in Public Law 108-447 (Consolidated 
Appropriations Act) for use at the Agency level for staffing in the 
area of rangeland management. This Program, which focuses on the 
specific needs of large land-based agricultural tribal economies, is 
necessary since lease income from lands for agriculture and livestock 
grazing is a main source of revenue for the Tribe and requires 
intensive, on site operation to ensure range productivity. Neither the 
Region nor any of its tribes received funds for fiscal year 2006, 
however, and a result vital land management services, including lease 
compliance, resource management planning and IIM account management at 
the agency level, were not adequately addressed for that fiscal period. 
We are requesting $1,710,867.00 to complete Phase I of the Program.
    Welfare Assistance Program.--The Administration is proposing to 
reduce funding by $11 million from the 2006 enacted level to $74.1 
million for this Program, which will negatively impact many critical 
services and completely eliminate others. For instance, the General 
Assistance (GA) program, which was established by the BIA to provide 
necessary financial assistance to Indians in need when such assistance 
is not available through state or local agencies, would be reduced by 
$5.8 million in fiscal year 2007. Such reduction in funding will have a 
devastating effect on a majority of our most needy members, as we have 
an over 80 percent unemployment rate on our Reservation. Supportive 
services through the GA Program also provide assistance to individuals 
in overcoming personal or environmental handicaps that may inhibit 
their employability. Such services include transportation assistance, 
shelter costs, legal assistance and other critical tasks related to 
employment.
    Miscellaneous Assistance would be eliminated under the 
Administration's fiscal year 2007 budget. Miscellaneous Assistance 
provides indigent Indians with burial assistance, disaster assistance 
and emergency aid, which are services that are not adequately addressed 
under local, state or Federal programs. Accordingly, retaining the 
BIA's responsibility for providing these services is critical. 
Accordingly, we request the Subcommittee's assistance in assuring that 
the Welfare Assistance Program is restored to its fiscal year 2006 
enacted level and that Miscellaneous Assistance is re-funded. 
Specifically, we request $250,000.00 for Miscellaneous Assistance.
    Indian Child Welfare Act Program.--The Administration is proposing 
to reduce funding for this Program by $690,000 from the 2006 enacted 
level, significantly impacting critical support from tribal social 
workers who have responsibility for providing counseling and other 
services to Indian families. The Tribe's Program determines which off-
reservation proceedings involve our Tribal families and then decides 
whether to transfer the case to Tribal Court or to intervene and 
participate in state proceedings. Most importantly, the Program finds 
family placements for our Lakota children who are removed from their 
homes.
    The Tribe received $79,563.47 in fiscal year 2006 for its Program. 
This amount is well below the funding necessary to run our program at 
adequate levels. The Program currently has 80 active cases (including 
three appeals to the State Supreme Court) and annually receives over 
1,300 requests for assistance in 11 states and 8 counties in South 
Dakota. Due to a dramatic increase in caseload, the current budget is 
inadequate to provide for more staffing. We are therefore requesting 
$558,093.00 to bring the budget up to adequate staffing levels to 
provide salaries for five additional staff positions (one attorney, two 
social workers, and one receptionist).
    BIA Road Maintenance.--In 2005, through the enactment of SAFETEA-
LU, Congress made a major commitment to address the poor state of 
transportation infrastructure on Indian reservations by increasing 
funding for road construction and improvement. The five year SAFETEA-LU 
authorization makes critical advances in reversing the historical 
neglect and underfunding for road construction on Indian reservations. 
While investing in the construction and improvement of reservation 
roads is vital to tribal economic development and self-determination, 
preserving that investment by maintaining the integrity of these roads 
is just as important. The Administration is proposing to cut the Tribal 
Priority Allocation amount for BIA road maintenance by $2.1 million 
from its 2006 enacted level. This proposal simply does not make sense 
as the lack of maintenance funding, for snow removal for instance, can 
put reservation road out of commission for significant periods of 
time--in the Northern Plains, snow covers roads for, on average, six 
months out of the year.
    The BIA Agency received $462,101.00 for fiscal year 2006, an amount 
that has proven inadequate for actual road maintenance after deductions 
for staff salaries, transportation costs, building utilities, office 
supplies and contractual services. There are over 316 miles of road in 
the Tribe's Indian Reservation Roads (IRR) inventory. This leaves 
approximately $209.00 per road mile for annual maintenance, well below 
approximately $5,000.00 per road mile the amount that is spent by the 
State for the exact same purpose. The Tribe estimates its unmet need, 
at a minimum, of $750,000.00 for fiscal year 2006 alone. Thus, we are 
requesting that the annual allocation for the Tribe's road maintenance 
be increased to $1,212,101.00 annually for fiscal year 2007, which 
would allow for an annual average allocation per road mile of 
$2,582.00.
                                 ______
                                 
  Prepared Statement of the Colorado River Water Conservation District

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy

                            PROJECT REQUESTS
------------------------------------------------------------------------
                         Project                              Amount
------------------------------------------------------------------------
Funding for the Don Edwards San Francisco Bay Wildlife        $1,540,000
 Refuge (FWS, Partners for Fish and Wildlife)...........
Monitoring of San Francisco Bay Salt Ponds (USGS,                900,000
 Biological Research and Monitoring)....................
------------------------------------------------------------------------

                                SUMMARY

    The following testimony is in support of the California State 
Coastal Conservancy's fiscal year 2007 Interior and Environment 
Appropriations request. The Conservancy respectfully requests needed 
funding for the following critical projects: $1.54 million, U.S. Fish 
and Wildlife Service, Partners for Fish and Wildlife Program (Base 
Budget would be preferable; Partners for Fish and Wildlife Program is 
second choice) and $900,000, U.S Geological Survey, Biological Research 
and Monitoring. Both of these requests are for the South Bay Salt Pond 
Restoration Project.

                         CONSERVANCY BACKGROUND

    The California Coastal Conservancy, established in 1976, is a state 
agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy: protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails, thus opening more 
than 80 miles of coastal and bay lands for public use; assisted in the 
completion of over 100 urban waterfront projects; joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups, making local community involvement an integral part of the 
Coastal Conservancy's work and completed projects in every coastal 
county and all nine San Francisco Bay Area counties. In addition, we 
currently have over 300 active projects that are benefiting the 
citizens of California.

         SOUTH SAN FRANCISCO BAY SALT POND RESTORATION PROJECT

    This project is of national significance because in conjunction 
with the Napa River Salt Marsh Restoration project it will create the 
largest restored wetland on the west coast of the United States. In 
addition, the project will provide extensive habitat for federally 
endangered species and migratory waterfowl and will also provide tidal 
and fluvial flood protection in South San Francisco Bay protecting 
approximately 42,800 acres, 7,400 homes and businesses, and significant 
urban infrastructure, to include major highways, hospitals and airport 
facilities. Finally, the project will also improve wildlife-oriented 
public access and recreational opportunities. The combination of these 
extensive benefits make the project of critical importance to the State 
of California and the region which is evidenced by the amount of 
support this project enjoys in local, state and federal circles.
    In order to continue to advance this important study it is 
imperative that local interests and the federal government work 
together to ensure a reliable funding stream for the project. In 
accordance substantial cost-sharing has already begun among the land 
management agencies. The U.S. Fish and Wildlife Service contributed $8 
million toward the $100 million acquisition of the salt ponds. The 
State of California provided $72 million and the Hewlett Foundation, 
Packard Foundation, Moore Foundation, and Goldman Fund provided $20 
million. The foundations are providing an additional $15 million for 
restoration planning and $9 million for land management. The State of 
California is providing over $8 million for planning and $6 million for 
land management.

                       FISH AND WILDLIFE FUNDING

    For the upcoming fiscal year, we respectfully request the inclusion 
of $1,540,000 in funding for the Don Edwards San Francisco Bay National 
Wildlife Refuge for continued management and maintenance.
    The Don Edwards San Francisco Bay National Wildlife Refuge is now 
managing 9,600 acres of the recently acquired South Bay Salt Ponds that 
were acquired from Cargill in 2003. In order to effectively manage 
these lands, including installation and management of water control 
structures, levee maintenance, and monitoring of salt ponds increased 
funding is needed through the Department of Fish and Wildlife. In 2004 
$460,000 was added by the President to the Refuge's base budget in and 
$540,000 in appropriations in fiscal year 2005 and 2006 have allowed 
for the successful implementation of interim management of the site. 
The cost of maintenance has increased over what had originally been 
estimated by Cargill and an additional $1,000,000 is needed for levees 
maintenance to protect Silicon Valley from tidal flooding prior to 
implementation of the permanent flood control solution by the Corps, 
which will not commence until at least 2012 and will require years to 
complete.

                              USGS FUNDING

    We respectfully request the inclusion of $900,000 in funding for 
the United States Geological Survey for the purpose of monitoring the 
San Francisco Bay.
    The funds being requested for fiscal year 2007 would be used by the 
Geological Survey to conduct interdisciplinary monitoring, specifically 
USGS will be engaging in biological, hydrological, and water quality 
studies of Salt Ponds in San Pablo Bay and San Francisco Bay. This 
monitoring is essential to the health of the Bay Area and the future of 
the project as it will be critical in shaping the outcome of the 
feasibility study and future design and implementation of the project. 
Without the proposed monitoring activities, there will be little to no 
understanding of the benefits and impacts of the restoration activities 
that are being planned by the Army Corps of Engineers and local 
sponsors. The State of California is providing gap funding to USGS, but 
cannot continue to fund the monitoring without assistance from the 
Federal Government.
                                 ______
                                 
             Prepared Statement of the County of San Diego

    On behalf of the County of San Diego, please support full funding 
for the Payment in Lieu of Taxes (PILT) program in fiscal year 2007.
    With your assistance, Congress provided $233 million for PILT in 
fiscal year 2006. This funding provides important compensation to local 
communities that have significant amounts of Federal land in their 
counties. PILT partially offsets the costs of supplying many valuable 
services such as search and rescue, law enforcement, and road 
maintenance.
    The County of San Diego strongly supports full funding for this 
program. The authorization for PILT would provide funding at an 
estimated $340 million annually, which is warranted by the fiscal 
pressures experienced by counties.
    Please continue to work to increase the funding necessary for this 
program.
                                 ______
                                 
             Prepared Statement of Coconino County, Arizona

    Dear Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $2.2 million from the USDA Forest Service's Forest 
Legacy Program for the Cedar Springs property near Flagstaff, Arizona. 
As you may know the President's budget is requesting $880,000 for Phase 
I of this project.
    The conservation of the 800-acre Cedar Springs property is the top 
priority project for the Forest Legacy Program in Arizona. Riparian 
forests, including those on the property, are home to the most 
biologically diverse natural communities in the state. The project will 
also help maintain important habitat and migration corridors from the 
mixed conifer forest of the higher elevations, across the mid-elevation 
pinyon-juniper forest, to the grasslands at lower elevations.
    Natural springs on the property provide important sources of water 
for wildlife on thousands of surrounding acres. These catchments are a 
potential refugia for the Little Colorado spinedace, a federally-
listed, threatened fish species. A number of other important wildlife 
species rely on the springs and the property for wintering habitat.
    The property is also home to a number of historical resources from 
pioneer days. Historical constructions include a homestead barn and 
corral, a cedar-post flume, the Grand Canyon Stage Coach line, and the 
Beale Wagon Road, built between 1857 and 1859 across New Mexico and 
Arizona as a route to California. Remnants of this road remain on the 
property, and the Forest Service has developed parts of the road into 
the 19.5-mile Beale Wagon Road Historic Trail.
    The Cedar Springs project is consistent with Coconino County's 
regional conservation strategy and links protected lands in the 
Coconino National Forest, Northern Arizona University's Centennial 
Forest, and the Coconino Plateau Natural Reserve Lands. The project 
complements larger conservation easements to the north and west, and 
protects one of the last remaining private parcels of significant size 
in a landscape of otherwise conserved lands.
    An appropriation of $2.2 million from the Forest Legacy Program in 
fiscal year 2007 will protect the Cedar Springs property in its 
entirety and preserve forestlands vital to the region's natural and 
historic character. The Forest Legacy Program and their non-
governmental partners are working with the landowner to best conserve 
this property with the requested federal funding.
    Thank you again, Mr. Chairman, for this opportunity to provide 
testimony in support of the Cedar Springs project.
                                 ______
                                 
 Prepared Statement of the Confederated Salish and Kootenai Tribes of 
                          the Flathead Nation

    Honorable Chairman Burns, Ranking Member Dorgan, and members of the 
subcommittee, the Confederated Salish and Kootenai Tribes of the 
Flathead Nation (CSKT) appreciates this opportunity to present you with 
testimony on the President's fiscal year 2007 budget request for the 
Department of Interior. Before offering remarks on the overall budget 
for Indian programs and providing more information about the specific 
projects for which the CSKT request funding, here is the basic 
information about our budgetary requests:
  --$100,000 for a feasibility study on the establishment of a Salish 
        and Kootenai Judicial Center and Regional Detention Facility
  --Continued funding for the CSKT land consolidation program
  --$500,000 for tribal water rights negotiations
  --Funding for the Indian Health Service to achieve parity with other 
        federal beneficiaries
    Background.--The CSKT reservation is a result of the cession of 
tribal lands made by the Salish, Kootenai, and Pend d'Oreilles Indians 
under the Hellgate Treaty of 1855. In the Hellgate Treaty the Tribes 
ceded over 20 million acres of ancestral land (much of what is now 
considered western Montana) in exchange for a reservation of title to 
lands within an area of 1.3 million acres in northwestern Montana. In 
1904, Congress opened up the Flathead reservation to allotment and 
widespread transfer of tribal land into the hands of individual tribal 
members and ultimately to non-Indians took place. Beginning in the 
1940's, the CSKT began to recover some of the lands over which the 
Tribes had lost ownership. Currently, we have over 600,000 acres of 
land in trust, almost 71,000 owned by the Tribe in fee, as well as over 
36,000 acres owned in fee by individual tribal members, within the 
reservation. The Flathead Nation has been on the cutting edge not only 
of land consolidation in Indian Country, but also in the exercise of 
tribal self-determination.
    The CSKT is a Self-Governance Compact tribe, which means that we 
operate almost all of the programs and services that the federal 
government, mainly through the Bureau of Indian Affairs and Indian 
Health Service, would be required to provide were the Tribes not 
operating them on behalf of the federal government. In addition to the 
more traditional programs that many tribes operate, we operate the Land 
Realty program, operate and manage the power utility (Mission Valley 
Power), and the Financial Trust Services program, including Individual 
Indian Money (IIM) accounts, as well as some IHS functions but not all 
of them. We recently had to give the Contract Care program back to the 
IHS to operate because we were going bankrupt operating this program 
for the IHS While we are confident that the Tribe is the entity best 
suited to carrying out all of these activities, they require major 
obligations of financial support from the federal government.
    Fiscal Year 2007 Interior Budget.--We will not spend time in this 
testimony going over the national scope Indian programs but will say 
that we agree with the analysis of the budget prepared by the National 
Congress of American Indians and the other large Indian organizations. 
We share their concern about the degree to which the proposed budgets 
are wholly insufficient to do the job that the Congress has assigned 
the BIA and the IHS. We are concerned about programs slated for total 
elimination such as Johnson O'Malley education funding in the BIA.
    For the Indian Health Service, the President's overall budget for 
service programs, including direct services and contract support costs, 
proposes an increase of approximately $130 million for the amount 
enacted for fiscal year 2006. While the majority of the budget items in 
the service programs subcategory remain flat, which is itself 
disappointing given the lack of acknowledgement of inflation and pay 
cost adjustments, it is also disconcerting to see the urban Indian 
health program subject to elimination. This program provides service to 
thousands of Indians throughout the United States that live in cities 
and certainly serves some CSKT tribal members. Among other things, this 
will lead to those people returning to the reservation for services and 
there is no corresponding increase that will allow us to serve them. 
The continuation of an effective moratorium on construction of new 
health facilities in Indian Country is another concern to the Flathead 
Nation, as we stand together with our fellow tribes in the position 
that health care facilities, as well as health care services, in Indian 
Country are lagging far behind the acceptable standards for the public 
at large.
    Public Safety and Justice.--In BIA Construction of public safety 
and justice facilities, the President's fiscal year 2007 budget 
proposes $11.6 million. The National Congress of American Indians in 
its budget request for fiscal year 2007 has proposed a much more 
ambitious table that would fund 15 new detention facilities in Indian 
Country within the next three years, at a total cost of $150 million. 
Obviously, under the President's request, which is basically flat from 
the amount enacted by Congress for construction of public safety and 
justice facilities in fiscal year 2006, there is funding for little 
more than one facility per year. The CSKT have for over 10 years been 
considering the possibility of developing a tribal judicial center that 
better meets the needs of tribal police, prosecutors, courts, and 
probation officers, and now request $100,000 in funding for a study to 
determine the feasibility of a new judicial and regional detention 
facility on the Flathead Reservation.
    The CSKT court system processes around 2,300 criminal cases 
annually and has concurrent jurisdiction with the State of Montana for 
felony cases under Public Law 280. While the tribal court generally 
takes a rehabilitative approach to criminal sentencing, referring 
offenders to services for alcohol treatment, mental health treatment, 
or anger management when appropriate; some violent offenders who we 
would prefer to be in jail have instead been released because of a lack 
of jail space. This is definitely not in the best interests of the 
Tribe or the surrounding communities, but is a reality of the limited 
capacity of our system. There are many other tribes in Montana, the 
Northwest, and throughout Indian Country, that have similar problems, 
and that is why the Interior budget for construction of public safety 
and justice facilities must reflect a much more ambitious effort to 
construct and improve facilities in Indian Country. This problem is not 
limited to Indian Country either, as the CSKT knows that some Montana 
counties, including Flathead, Lake and Missoula Counties have been 
forced to send their prisoners out to other jurisdictions because of a 
lack of capacity. The need for a new regional and tribal facility is 
clear, but a more formal study of the situation is needed to move 
forward.
    In 1998 the Flathead Nation entered into a contract with EKM, 
Incorporated to conduct an assessment of the current and future needs 
of the CSKT court and detention services. The assessment showed that 
the existing facility that the Tribe has in place is insufficient to 
keep up with the needs of tribal justice system currently and into the 
future. The space at the existing facility is simply too limited to 
provide adequate services. Further, the assessment concluded, the 
mechanical and electrical systems are completely outdated and should be 
replaced entirely. The CSKT also does not have a juvenile facility, 
which results in additional expenditures of $250,000 to detain 
juveniles at off-reservation locations. The feasibility study we 
propose is a reasonable step to take in determining the likely benefits 
to not only the CSKT but to neighboring localities and counties of a 
new judicial and detention facility. Attached for your information and 
files is a more detailed description of what we would like to do with 
this study.
    Indian Land Consolidation.--Indian lands are increasingly owned by 
a number of heirs who each hold a fractionated interest in parcels of 
property. This result of the allotment era when tribal lands were 
divided and parceled out to individual tribal members has resulted in a 
system where hundreds or even thousands of people hold property 
interests in a given parcel of land. The allotment period also resulted 
in ``checkerboarding'' of Indian land ownership between Indians and 
non-Indians and has created an entanglement of jurisdictional issues 
that the federal government, tribes, states, counties, and localities 
must work through together. The substantial increase in the overall 
budget for the Indian Land Consolidation Act (ILCA) program is a 
positive step for Indian Country. We are one of the tribes involved in 
the BIA's ILCA program. The Bureau approached our tribes to get 
involved because (a) we have plenty of fractionated land and (b) we are 
using our limited tribal dollars to repurchase land on the reservation 
whenever it comes up for sale. We are therefore able to use tribal 
dollars as a local match to BIA ILCA funds. We believe we may be the 
only tribes in the country doing so. OMB is pressuring the BIA to only 
target ILCA funds on the most fractionated reservations and we are not 
in the top 10 in that regard. Nonetheless we have a lot of 
fractionation and again are ensuring the BIA gets a good bang for its 
buck by supplementing the program with tribal funds. We therefore 
request that the Appropriations Committee include language in the 
fiscal year 2007 Interior Report directing the BIA to continue funding 
the ILCA program on our reservation at the same level at which is has 
been previously funded.
    Water Rights Negotiations Funding.--The Confederated Salish and 
Kootenai Tribes are actively negotiating water rights with the Montana 
Water Rights Compact Commission. These negotiations began in the mid 
1980's. During the late 1980's and early 1990's the State of Montana 
shifted priorities to other Montana Indian reservations. Then in 1995 
the CSKT renewed active negotiations and the United States created the 
Federal Flathead Water Rights Negotiating Team. Negotiations have 
continued since this time and are getting progressively active 
requiring increasing funding especially with the Montana Water Rights 
Compact Commission scheduled to terminate in 2009.
    The Tribes prepared a proposal for assistance in funding this 
effort in 2006 to the Portland Regional Office of the Bureau of Indian 
Affairs to be funded under the Water Resources Planning and Pre-
Development Program for $707,625. The Tribes have been notified that 
only $31,694 will be made available to the Tribes. The Tribes have 
reviewed the proposal and have determined that $500,000 would be 
adequate per year to support our water rights negotiations effort.
    While the level of negotiation activities increases the level of 
federal support continues to decrease. This continues to be a concern 
for the Confederated Salish and Kootenai Tribes especially with the 
Montana Water Rights Compact Commission terminating in 2009.
    IHS Budget.--As everyone knows, good health care systems are 
essential for maintaining health, and healthy individuals are the 
keystone of healthy families and healthy communities. Despite the 
federal governments trust obligations owed to Indian Tribes in the 
field of health care, Indians remain the minority population with the 
highest rate of a number of serious diseases in the United States. 
Further, Indian people have by far the lowest life expectancy of any 
minority population in the United States. Alcoholism, diabetes, drug 
abuse, cancer, heart disease, accidental deaths, and suicide are all 
rampant in Indian Country. While not all of the burden can be placed on 
the federal government for the well-being of Indian people, the federal 
government does have a legal obligation to fund Indian health care 
services, among other populations.
    While Indian people rank highest among occurrences of a number of 
major diseases, among all of the groups for which the United States 
must pay for health care, Indians rank the lowest in terms of per 
person funding. According to a recent study conducted by the U.S. 
Commission on Civil Rights, ``A Quite Crisis: Federal Funding and Unmet 
Needs in Indian Country,'' the Federal Government pays $5,915 annual 
per Medicare recipient. It pays $5,214 on average annual per veteran 
through VA health care. The U.S. even pays $3,803 annually in health 
care for each federal prisoner. For Indian people, though, the federal 
government contributes only $1,914 per person annually. This disparity 
is completely unacceptable. The government is essentially saying we are 
only worth half as much a federal prisoner! The Congress must begin to 
address this stunning inequity and commit to parity funding between 
tribes and other federal health care beneficiaries. At this time, the 
CSKT would like to call for a ramping up of the IHS service budget over 
the next five to seven years to reach parity with other federal health 
care recipients. This is going to require a concentrated political 
effort on behalf of advocates for Indian Country in Congress, as 
nothing less than an increase of $500 million per year for the next 
five years will get Indian health care to a level of equity with other 
federal health care recipients. This must be a coordinated approach 
between the Budget Committees, the Authorizing Committees and the 
Appropriations Committee but it really must start in fiscal year 2007.
    Section 122.--We do request that the language now appearing as 
Section 122 of the fiscal year 2006 Interior Appropriations be extended 
again in fiscal year 2007 and that the Committee consider an 
appropriate level of funding for the participating tribes so that we 
can fully meet trust standards as we are required by the language of 
the section.
    Thank you.
                                 ______
                                 
            Prepared Statement of Colorado Springs Utilities

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budet.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah..
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Confederated Tribes and Bands of the Yakama 
                                 Nation

    Forestry.--The Yakama Nation seeks commitments from the Federal 
Government to ensure adequate funding to implement forest management 
measures designed to protect, maintain and enhance our sacred forest 
resource.
    Background.--The Yakama Indian Reservation is located in south 
central Washington (Figure 1) on the east slope of the Cascade Mountain 
range. The reservation is approximately 1.3 million acres, of which 
more than 600,000 acres are forested. The Yakama forested area contains 
an estimated 10 billion board feet of timber and approximately 150 
million board feet is harvested annually. It is the largest forestry 
operation nationally within the Bureau of Indian Affairs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Yakama forest plays a vital role for the Yakama People. Our 
forest is used for subsistence living which includes traditional foods 
and medicines, big game and fish, and a spiritual setting for our 
enrolled members (Figure 2). It also is essential for both the Tribal 
economy and surrounding communities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Yakama Nation forest resource is the absolute core of our 
Tribe's economy. The timber harvesting program creates economic 
opportunities and includes employment within the forestry and natural 
resource programs, tribal logging operations, and tribal enterprises 
such as the lumber mill, Yakama Forest Products (YFP). YFP alone 
employs over 340 people, over 90 percent are tribal affiliated, with an 
annual payroll and benefits exceeding $11 million. More than 2,000 jobs 
are directly related to the Yakama forest and an estimated five times 
that amount indirectly benefit.
    Although the Bureau of Indian Affairs (BIA) continues to carry out 
its trust responsibility, the Yakama Nation is increasingly 
participating in the management of our forest resources. The BIA has 
contributed significantly to the management of our resources despite 
the budget limitations. The BIA forestry budgets have remained 
relatively flat over the past decade, while our forest has increasingly 
been impacted by insect and disease problems and a compounding increase 
in the risk of catastrophic wildfire.
    From 1980 to the late 1990's, the BIA failed in offering the full 
amount of timber that was scheduled for harvest. The effects of this 
shortfall contributed to overstocked stands that were ravaged by a 
Western Spruce Budworm outbreak during the 1990's. The Yakama Nation 
accelerated the harvest levels in 1999 through 2001, but we are once 
again falling short of our annual allowable harvest levels. Although we 
achieved our allowable cut of 147 million board feet in 2004, we fell 
well short of this level in 2003 harvesting 131 million board feet. 
This past year in 2005, we were able to harvest only 128 million board 
feet.
    These reduced harvest levels can be attributed directly to the 
funding levels. Along with BIA federal funds, the Yakama Nation retains 
10 percent of the total value harvested and uses these administrative 
fees to fund nearly half of our forestry program. The combination of 
falling timber prices and the BIA failing to meet its trust obligation 
to offer the annual allowable harvest is causing severe budget 
shortfalls.
    Many of the budget shortfalls are being met with tribal funds. In 
fiscal year 2006, the Yakama Nation will contribute more than $315,000 
to pay for the shortfall in salaries of our tribal employees who 
receive their funding from the administrative fees. Additionally, the 
Yakama Nation assists in the funding of many of our natural resource 
programs including archeology, cultural resources, fisheries and 
wildlife.
    Forestry Recommendations.--The Yakama Nation requests a stronger 
commitment from the federal government in meeting its trust obligation 
to the Yakama Nation. At minimum, the BIA should offer the annual 
allowable harvest to the Yakama Nation. In order to prepare these 
timber sales to meet the standards in the National Environmental Policy 
Act, the Endangered Species Act, and the National Historic Preservation 
Act, additional funding is imperative. The Yakama Nation therefore 
requests the following.
  --Reallocation of the Increased Harvest Initiative Funds.--These 
        nonrecurring funds are allocated for the specific purpose of 
        allowing tribes to achieve their annual allowable harvest 
        levels. The Yakama Nation receives a portion of these funds but 
        requests an additional $300,000 increase.
  --Reallocation of the Endangered Species Act Funds.--These 
        nonrecurring funds are allocated for the purpose of meeting the 
        requirements of federally listed animal species. The Yakama 
        Nation is required under federal law to survey for the Northern 
        Spotted Owl, a federally listed species. We request an 
        additional $200,000 increase.
  --Forest Development Funds.--These funds are allocated for the 
        maintenance and enhancement of commercial timberland to support 
        the desired level of annual timber harvesting. Since the Yakama 
        Nation operates the largest forestry program nationally, the 
        Yakama Nation should receive the highest level possible from 
        this funding source. We request an additional $200,000 
        increase.
    The Yakama Nation further recommends supporting the ``Indian Forest 
Management Assessment Team'' report, December 2003. The report is a 
requirement of the National Indian Forest Resources Management Act, 
Public Law 101-630, which directs the Secretary of the Interior to 
obtain an independent assessment every 10 years. The report is the 
second independent congressionally mandated report on the state of 
Indian forests and forestry. The report contains an analysis of funding 
on Indian forest lands compared with similar federal and private 
forests.
    The support of these recommendations will serve to better meet the 
trust obligations of the BIA and protect our sacred resources that are 
so vital to our traditional values and economic viability.
    Johnson O'Malley.--The Yakama Nation strongly opposes the proposed 
total defunding of Johnson O'Malley (JOM) education funds. In fiscal 
year 2006, JOM was funded at $16.4 million. JOM provides financial 
assistance to Tribes through their Tribal Priority Allocations to 
supplement funding received by tribes from other federal, states, and 
tribal sources. Tribes have used JOM to help Indian students succeed in 
school by providing counseling, cultural activities, remedial 
education, and crucial school supplies, even extending to things like 
eyeglasses. JOM is a crucial program to the Yakama Nation because of 
the flexibility it provides in helping us meet the needs of our 
students. JOM should definitely not be eliminated, and should at least 
be funded at the level for fiscal year 2006, if not higher.
    Attorney Fees.--We urge the Congress to return the $7 million that 
came from BIA accounts to pay the Cobell attorneys, most importantly 
the $2 million that was taken from attorney fees account and the $1 
million from other across the board cuts in BIA programs. Tribes 
desperately need attorney fees funding to protect their natural 
resources and there are other sources that would have been far more 
appropriate to use to pay the Cobell attorneys
    The Yakama Nation relies on the Interior litigation support and 
attorney fees to protect our treaty rights to fish, hunt, and gather in 
the Hanford Reach portion of the Columbia River Basin. In some cases, 
such as that concerning cleanup of the Hanford Nuclear Reservation, the 
United States has a conflict of interest that prevents it from bringing 
a suit on behalf of a tribe. This is the purpose of the litigation 
support and attorneys fees funds: to facilitate the ability of Indian 
tribes to litigate to protect their interests when they United States 
cannot do so. The Hanford Reach, located along the Columbia River 
within the Hanford Nuclear Reservation, is one of the most heavily 
contaminated sites of nuclear waste materials in the world. However, it 
also happens to be an area of usual and accustomed use for the Yakama 
people that carries major cultural, social, and spiritual significance. 
The Tribe continues to lead efforts to force the Department of Energy 
to abide by the terms of the Yakama's treaty with the United States 
through a professional cleanup of the Hanford site. We have used the 
funds to assess injury and recover damages to our trust resources 
harmed by nuclear waste facilities located on the Hanford Reach along 
the Columbia River. We request $750,000 for Litigation support and 
$450,000 for Attorneys Fees under the Rights Protection Implementation 
category of the Interior budget.
                                 ______
                                 
     Prepared Statement of the Confederated Tribes of the Colville 
                              Reservation

    Chairman Burns, Ranking Member Dorgan and members of the 
Subcommittee, on behalf of the Confederated Tribes of the Colville 
Reservation (``Colville Tribe'' or the ``Tribe'') I thank you for this 
opportunity to submit written testimony to the Subcommittee. As you may 
know, the Colville Tribe has been working with Senators Patty Murray 
and Maria Cantwell to restore $630,000 in Lake Roosevelt Management/
Enforcement funds to the Bureau of Indian Affairs (``BIA'') that were 
not requested in the President's fiscal year 2007 Budget Request. These 
funds, administered in the ``Other Recurring Programs'' account of the 
BIA's budget, are vital to the continued public safety and the security 
of the United States/Canadian border.
    Before discussing how the Colville Tribe uses these funds and why 
the funds are vital to ensure public safety, I would like to take this 
opportunity to provide some brief background on the Colville Tribe. 
Although now considered a single Indian tribe, the Confederated Tribes 
of the Colville Reservation is, as the name states, a confederation of 
twelve smaller aboriginal tribes and bands from all across eastern 
Washington State. The Colville Reservation encompasses approximately 
1.4 million acres and is located in north central Washington State. The 
Colville Tribe has over 9,200 enrolled members, making it one of the 
largest Indian tribes in the Pacific Northwest. About half of the 
Tribe's members live on or near the Colville Reservation.

              LAKE ROOSEVELT MANAGEMENT/ENFORCEMENT FUNDS

    Lake Roosevelt Management/Enforcement funds enable both the 
Colville Tribe and the Spokane Tribe to employ law enforcement officers 
to patrol Lake Roosevelt and its shoreline to enforce federal laws 
(through cross-deputization arrangements) and tribal health and safety 
laws. Lake Roosevelt is the 151-mile reservoir of the Grand Coulee Dam, 
the largest hydroelectric power plant in the United States and the 
third largest in the world. As a national tourist destination, Lake 
Roosevelt receives approximately 1.5 million visitors annually.

Homeland Security
    The law enforcement patrols funded by Lake Roosevelt Management/
Enforcement funds have become increasingly critical since the September 
11 terrorist attacks. As you can imagine, the Grand Coulee Dam is 
considered a ``high-value'' terrorist target. Indeed, in early 2002 
media outlets reported that U.S. troops recovered materials relating to 
the Grand Coulee Dam in the rubble of Al-Qaeda hideouts in Afghanistan. 
Tribal personnel funded by Lake Roosevelt Management funds have in 
recent years worked cooperatively with the Bureau of Reclamation and 
the National Parks Service to increase their patrols to correspond with 
the heightened security of the Grand Coulee Dam. To this end, Lake 
Roosevelt Management/Enforcement funds play a direct role in protecting 
public safety by ensuring that a key access point to the Grand Coulee 
Dam, Lake Roosevelt, remains patrolled.

Border Security
    The patrols funded by Lake Roosevelt/Management funds are also an 
integral part of securing the United States' northern border with 
Canada. The northern boundary of the present-day Colville Reservation 
is approximately 70 miles long and is within 35 miles of the U.S./
Canadian border. In addition, the Tribe owns two large tracts of trust 
land and numerous smaller parcels that are either contiguous to or 
within 5 miles of the U.S./Canadian border. One of these tracts, a 562 
acre parcel, abuts the U.S./Canadian border. Another 592 acre tract is 
within 5 miles of the border. Drug smuggling along the U.S./Canadian 
border, particularly in rural eastern Washington State, has become an 
increasing problem in recent years.
    In recent weeks, numerous sightings of unmarked fixed-winged 
aircraft capable of landing on water have been reported on lakes and 
waterways within and near the Colville Reservation. Most significantly, 
on March 14, 2006, tribal law enforcement officers funded by Lake 
Roosevelt Management/Enforcement funds seized an unmarked float plane 
from Canada that was attempting to smuggle illegal drugs into the 
United States through the Colville Reservation. After being alerted to 
the plane and after a long chase, the Tribe's officers captured and 
detained the pilot the next day and handed over to federal law 
enforcement authorities an estimated $2 million in illegal drugs that 
had been dropped by the plane on the bank of Columbia River near the 
Grand Coulee Dam. The U.S. Border Patrol recently honored the Tribal 
officers that participated in this seizure.
    In addition to this incident, three other incidents involving 
similar float planes smuggling drugs via waterways on the Colville 
Reservation have also resulted in arrests in recent weeks:
  --On February 19, 2006, a float plane was spotted landing and 
        depositing bags of illegal drugs on Omak Lake, a small lake 
        within the Colville Reservation. Although that plane and its 
        pilot managed to escape, the Tribe's law enforcement officers 
        apprehended the driver of a vehicle that retrieved the bags and 
        recovered an estimated $400,000 worth of illegal drugs.
  --On March 23, 2006, a float plane landed on Soap Lake, another small 
        lake within the Colville Reservation, and dropped yet another 
        load of illegal drugs. That plane and its pilot were also able 
        to escape but authorities were able to arrest two Canadian 
        citizens who retrieved the drugs. The drugs seized in this 
        incident were valued at $1.5 million.
  --Earlier this month, the Tribe's law enforcement gave chase to yet 
        another float plane, though the plane managed to escape.
    The Colville Tribe's law enforcement personnel receive two to three 
reports of float plane sightings per week on the Colville Reservation. 
The Colville Tribe has reason to believe that up to 25 aircraft may be 
involved in cross-border drug smuggling activities using the Colville 
Reservation. The fact that these float planes are focusing their 
smuggling activities on waterways and other bodies of water within the 
Colville Reservation makes funding for Lake Roosevelt Management/
Enforcement funds all the more critical.

                   FUNDING HISTORY AND MATCHING FUNDS

    Congress has appropriated Lake Roosevelt Management/Enforcement 
funds to the BIA every year since the five parties executed the 
agreement in 1990. In turn, the BIA apportions the funds between the 
Colville Tribe (approximately two-thirds) and the Spokane Tribe 
(approximately one-third). From fiscal year 2001 through fiscal year 
2005, Congress funded the program at $630,000. Congress funded the 
program at $350,000 in fiscal year 2006.
    Matching funds for the Colville Tribe's activities under this 
program for fiscal year 2007 include the following: (1) the Tribe will 
contribute approximately $500,000 (the Spokane Tribe similarly 
contributes substantial tribal resources to its program); (2) the U.S. 
Department of Justice will contribute $175,000 through the COPS grant 
program; (3) the Tribe reprogrammed $170,000 in BIA tribal priority 
allocation funds from other BIA programs; and (4) the program will 
generate an estimated $90,000 from fines and fees. The Colville Tribe 
uses all the funds from the direct appropriations to fund the salaries 
of the program's 12 full-time officers.

                               CONCLUSION

    Thank you for the opportunity to comment on this important issue 
and to describe how important Lake Roosevelt Management/Enforcement 
funds are, both to the Tribe and to the continued public safety. The 
Colville Tribe appreciates the Subcommittee's consideration of the 
Tribe's request.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Sub-activity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Sub-activity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support ongoing operation of the FWS' Ouray National Fish Hatchery in 
Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
  Prepared Statement of the Duchesne County Water Conservancy District

    We are writing to request your support for continued funding for 
the Colorado River Salinity Control Title II Program. This program has 
greatly assisted in removal of many tons of salt from the Colorado 
River, but there is still a great deal of work to be completed that 
will require an adequate level of funding. The seven Colorado River 
Basin states, as well as Mexico, have greatly benefitted from this 
important program. For many years high concentrations of salt in the 
Colorado River had severely damaged agricultural production in the West 
as well as resulting in poor quality water being delivered to Mexico.
    Great strides have been made in improving water quality in the 
Colorado River since the inception of this program but we strongly feel 
that there is still a great deal to be done. We understand that the 
Colorado River Basin Salinity Control Forum is requesting $17,500,000 
in funds be appropriated for this program for fiscal year 2007 and we 
would like to add our full support to that funding level request. We 
would also like to express support for the continued funding of the 
Natural Resource Conservation Service program, the Environmental 
Quality Incentive Program (EQIP) which works closely with the Salinity 
Program. It is very important that adequate funding levels be 
maintained for it also.
    We request the Subcommittee's assistance to ensure that the 
Colorado River Salinity Control Title II program and EQIP program are 
provided with continued adequate funding.
                                 ______
                                 
                 Prepared Statement of David J. Bardin

    Chairman Burns and Members of the Subcommittee: I urge 
Congressional actions of great potential benefit to citizens of Montana 
and North Dakota and to the national security of the United States.
  --In 2000, USGS ``misplaced'' two virtually-finished studies that 
        could help augment our country's domestic oil and gas 
        supplies--studies made with taxpayer support by a prolific U.S. 
        government scientist.
  --Please direct the U.S. Geological Survey in the Department of the 
        Interior to share with the entire exploration and development 
        community (not just the private consultants to whom USGS 
        transferred possession in 2000) two studies involving large 
        amounts of crude oil in the Bakken Source System of the 
        Williston Basin.
  --Bakken oil is a very high quality, low sulfur, low asphalt, no tar 
        crude oil.
  --The two studies, prepared by the late Leigh C. Price, an award-
        winning scientist who died in August 2000, untimely ending a 
        27-year career at the USGS, are:
    --A comprehensive report, ``Origins and characteristics of the 
            basin-centered continuous-reservoir unconventional oil-
            resource base of the Bakken Source System, Williston 
            Basin''--a 1999/2000 manuscript.\1\
---------------------------------------------------------------------------
    \1\ USGS identified this report as ``in press'' in 2001 (USGS 
Professional Paper 1653).
---------------------------------------------------------------------------
    --An extensively-researched Hydrogen Index contour map of the 
            Williston Basin, assembling results of analyzing some 1,700 
            rock samples.\2\
---------------------------------------------------------------------------
    \2\ Price described this valuable map and its preparation in the 
report referred to above (e.g., at pages 217-218) and in a posthumous 
USGS publication (Chapter H in DDS-67, a book funded in part by the 
Department of Energy). USGS has received a FOIA request for the 
Hydrogen Index mapping information.
---------------------------------------------------------------------------
  --Please also encourage USGS in its scheduled 2007/2008 reassessment 
        of undiscovered, continuous-type, unconventional crude oil and 
        associated gas resources of the Williston Basin to consider 
        those studies (which supported 1,000 times more barrels of 
        potential crude oil resource than the official USGS assessment) 
        or openly explain its reasons for disregarding them.
    These studies (and results of successful exploration by independent 
producers since 2000) cast doubts about an official ``National Oil and 
Gas Assessment'' (NOGA) as first issued by USGS in 1995 and updated in 
2005. In 1995, USGS did not regard Price's resource assessment as 
sufficiently documented to be worthy of considering. Price laid it all 
out in the 1999/2000 manuscript, explaining bases for his assessment 
and criticizing flaws in the NOGA assessment (at pages 177-183). USGS 
silently buried the manuscript until 2006.\3\
---------------------------------------------------------------------------
    \3\ USGS located internal copies of the manuscript only when 
furnished one of the external copies, this year.
---------------------------------------------------------------------------
    Accepting Price's estimate of a recoverable, 200+ billion barrel 
continuous-type recoverable resource in Montana and North Dakota would 
multiply the official USGS NOGA estimate of total USA technically-
recoverable resources onshore and state waters.

   POTENTIAL UNDISCOVERED, TECHNICALLY-RECOVERABLE CRUDE OIL RESOURCES
------------------------------------------------------------------------
                                   Assessment made
           Estimate            -----------------------   Mean estimate
                                     by         year   Crude oil barrels
------------------------------------------------------------------------
NOGA (onshore & state waters,   USGS........  1995...    112,600,000,000
 total USA).
Including:
    Undiscovered conventional     ..........    .....     30,300,000,000
     fields (includes North
     Slope ANWR).
    Reserve growth in             ..........    .....     60,000,000,000
     conventional field.
    Continuous-type               ..........    .....      2,100,000,000
     accumulations.
        Of which Williston        ..........    .....        150,000,000
         Basin Bakken oil.
    Measured (proven) reserves    ..........   ......     20,200,000,000
Williston Basin Bakken oil....  L.C. Price..  1999...    206,500,000,000
NOGA (onshore & state waters)-- USGS........  2005...     47,340,000,000
 sum of conventional and
 continuous-type resources
 (includes North Slope ANWR at
 10.36 BBO).
Outer Continental Shelf:
    Alaska OCS................  MMS.........  2006...     26,610,000,000
    Atlantic OCS..............  MMS.........  2006...      3,820,000,000
    Gulf of Mexico OCS........  MMS.........  2006...     44,920,000,000
    Pacific OCS...............  MMS.........  2006...     10,530,000,000
Proven reserves (onshore,       EIA.........  2004...     21,371,000,000
 state waters, OCS).
------------------------------------------------------------------------

    Of course, Price's figures (like the NOGA) are just estimates. They 
are subject to uncertainty.\4\ But hard evidence has mounted. The 
Bakken Source System is now a very hot ``play.'' Although USGS was 
unaware until this year of the Elm Coulee Field, discovered in 2000, it 
is the largest onshore discovery in the lower 48 States in 50 years. 
USGS did not grasp that this rapidly growing Bakken oil production 
(which passed 50,000 barrels of oil per day late in 2005) is based on 
horizontal drilling of hundreds of oil wells into dolomites immediately 
adjacent to source rocks (where Julie LeFever, of the North Dakota 
Geological Survey, and Leigh Price predicted in the early 1990s that 
abundant oil would be found) rather than into the Bakken shale source 
rock layer which seems to be all that USGS considered in its NOGA 
assessment.\5\
---------------------------------------------------------------------------
    \4\ The Price manuscript details mass-balance calculations (while 
stressing inherent limits on its accuracy, at pages 210-211); it lays 
out estimates of in-place oil resources--413 BBO within a wide range of 
271 to 503 BBO--and uses a recovery factor of at least 50 percent (page 
235). The NOGA does not disclose estimates of oil resources in place or 
recovery factors for this unconventional, continuous-type resource.
    \5\ Annual growth of Elm Coulee Field, MT--actual production of 
Bakken oil (in barrels)--follows:
        2000-- 21,164
        2001--277,784
        2002--798,075
        2003--2,710,095
        2004--7,565,126
        2005--15,713,513
    Source: Jim Halvorson, Montana Oil & Gas Conservation Board.
---------------------------------------------------------------------------
    USGS has shown extreme caution as to continuous-type resources. A 
USGS culture of ``scientific'' and ``unbiased'' and ``impartial'' 
estimates may consider a high estimate to be ``going out on a limb'' 
but a low estimate to be just fine. For example, the 1995 NOGA 
assessment of undiscovered, continuous-type non-associated natural gas 
resources in the Barnett Shale formation in north Texas was zero--yes, 
nothing (``justified'' by deliberately excluding from NOGA 
consideration the very prolific East Newark Field field near Dallas, 
TX). Yet development of this Barnett Shale resource into proven 
reserves (not merely potential resources)--one of the most successful 
natural gas projects in our country--checked and reversed a decline in 
Texas gas production. USGS was wrong--too low--and felt obliged to 
reassess in 2003 (at 26 trillion cubic feet).
    In 2000, after Price's death, USGS transferred possession of much 
of his USGS research products to a private consultant associated with a 
private consulting firm--both in Colorado. As I wrote to USGS Acting 
Director Leahy on February 24, 2006, because the USGS ``lost track of 
Price's extensive report [i]t is available to very few geoscientists 
and members of the exploration and development community. USGS should 
make it equally available to one and all.'' It is high time to retrieve 
Leigh Price's outputs and disseminate them. USGS should have released 
Price's outputs 5\1/2\ years ago. Now USGS should repair its omissions 
promptly rather than demand patience while it finds excuses for 
withholding information or further delays.
    Congress can serve the national interest by helping convince USGS 
to air professional disagreements within its ranks and to foster 
professional debate in the sunshine.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife

    Defenders of Wildlife is a national non-profit organization 
dedicated to saving and restoring wildlife and wildlife habitat. We 
have substantial concerns about the administration's fiscal year 2007 
budget and make recommendations in the following priority areas.
    Fish and Wildlife Service (FWS): Endangered Species (ESA) 
Program.--Defenders urges a total of $215.8 million for the four 
endangered species operations accounts, an increase of $68 million over 
fiscal year 2006 as follows: $30 million for Listing, an increase of 
$12.4 million; $113.6 million for Recovery, an increase of $40 million; 
$55.5 million for Consultation, an increase of $7.5 million; and $13.6 
million for Candidate Conservation, an increase of $5 million. We are 
extremely disappointed that even though FWS biologists have estimated 
that about 200 currently listed species are on the verge of extinction 
primarily due to insufficient recovery funding, the president's budget 
cuts the Recovery account by $7.7 million or 10 percent and requests 
amounts far below the need for the other 3 accounts. Even though more 
than 280 candidates await proposal for protection under the Endangered 
Species Act, the president's request for programs that list new species 
as endangered or threatened and designate their critical habitat is 
virtually level. Many of these plants and animals have been waiting 
years for protection. While consultation does receive a modest 
increase, it is paid for by the cut in the Recovery budget; and 
Candidate Conservation is cut by more than $500,000. Both of these 
programs are in need of significant increases. Demand for efforts to 
conserve the long list of candidates while they await protection far 
exceeds funding; and increases are needed to fund projects with local 
stakeholders and partners. In addition, the number of projects reviewed 
under the Consultation program has increased from 40,000 in 1999 to 
about 77,000 in 2005 and further increases are expected. Finally, the 
development and implementation of Habitat Conservation Plans (HCPs), 
which allow activities to proceed while still protecting species, 
continues to grow, with funding critically needed to help ensure timely 
and effective development and monitoring of 500 existing and nearly 300 
new HCPs that together will cover about 72 million acres when complete.
    FWS: National Wildlife Refuge System Operations and Maintenance.--
Defenders and the Cooperative Alliance for Refuge Enhancement, a 
diverse coalition of 21 conservation, recreation and scientific 
organizations, are requesting an fiscal year 2007 increase of $35 
million over fiscal year 2006, a total of $417.5 million, to address 
fixed costs and to make progress on a small portion of the $2.46 
billion operations and maintenance backlog. We are concerned that the 
president's budget includes a nearly $1 million cut for operations and 
maintenance and fear that recent progress made in the refuge system 
budget will now be lost. Moreover, during the past year, more than $8 
million has been reprogrammed to pay previously underestimated refuge 
system bills. We hope that this accounting problem has been addressed 
and that similar measures will not be necessary in the future. In 
addition, 61 refuges suffered unprecedented damage from last year's 
hurricanes, including the deposition of hazardous debris on a number of 
refuges. The worst impacts were to Sabine National Wildlife Refuge in 
Southwest Louisiana from as much as 350,000 gallons of hazardous 
materials in a six-mile debris field. FWS reported initial damages of 
$173.6 million to facilities, while habitat stabilization and 
monitoring needs total $96.7 million. The cost of hazardous materials 
cleanup remains unknown. We greatly appreciate the Subcommittee's 
support in providing supplemental funding to begin to repair this 
extensive damage and urge your continued strong support to once again 
make the Refuge System whole.
    FWS: State and Tribal Wildlife Grants Program.--Defenders joins the 
Teaming With Wildlife Coalition in requesting at least $85 million, 
$17.5 million above the 2006 level, for this important program that 
channels money to states to protect at-risk wildlife before Endangered 
Species Act protection becomes necessary. The upcoming year is very 
important since each state for the first time has just completed a 
State Wildlife Action Plan under this program to help guide wildlife 
conservation more strategically and effectively. Funding increases are 
needed to begin implementation of key actions in the plans. The Action 
Plans are the key to the program's success in its ability ultimately to 
avert the need to list numerous species in the future. We urge the 
Subcommittee to continue its oversight of the plans and their 
implementation.
    FWS: Migratory Bird Programs.--Defenders urges $45.2 million for 
Migratory Bird Management, an increase of $7 million over fiscal year 
2006 and $5 million for the Neotropical Migratory Bird Conservation 
Fund, an increase of $1.1 million. The recommended increases for 
Migratory Bird Management include $1 million to begin implementation of 
new conservation plans for nine focal species, $500,000 to begin 
development of the next set of plans for focal species, $1 million to 
begin to address recent declines in webless game birds, $4 million to 
protect habitat through the Joint Ventures program and $500,000 for 
fixed costs. The president's budget does request a $3.1 million 
increase for Migratory Bird Management, but it falls far below the 
need. As funded, these programs cannot fulfill their mandates to 
adequately monitor and plan for the conservation of 825 species of 
migratory birds, including the 25 percent of all U.S. migratory birds 
in serious need of conservation to assure their long-term survival.
    FWS: International Programs.--Defenders urges $12.9 million, an 
increase of $3 million over enacted for the International Affairs 
program and $8 million, an increase of $1.6 million over fiscal year 
2007, for the Multinational Species Conservation Fund (MNSCF). 
Defenders is also opposed to a proposal in the budget to place the 
Neotropical Migratory Bird Fund under the MNSCF, a move that will help 
further the administration's tendency to play budgetary shell games. 
Moreover, the two programs are administered through different FWS 
divisions, so it makes no sense to combine them. In addition, the 
president's request provides only level funding for International 
Affairs, actually a cut when including fixed costs, and slashes the 
small but effective Multinational Species Conservation Fund by 33.4 
percent below fiscal year 2006. Recommended increases in the 
International Affairs program would be allocated as follows: $1.4 
million to replace key personnel; $1.1 million allocated among the four 
highly successful Wildlife Without Borders programs that work with 
resident peoples and develop locally adapted, long-term wildlife 
management and conservation programs; and $500,000 for fixed costs.
    FWS: Law Enforcement.--Defenders requests a total of $61.5 million, 
an increase of $5.4 million over fiscal year 2006, allocated as 
follows: $2.5 million for needed special agents and wildlife 
inspectors; $500,000 for security clearances for inspectors so that 
they can have access to the International Trade Data System, an e-
government interagency trade enforcement initiative; and $2.4 million 
for fixed costs. Although the administration requests a $1.2 million 
increase, it does not even fully fund fixed costs. With globalization, 
e-commerce and the ever-increasing complexity of our world, wildlife 
here at home and around the world are targets of escalating criminal 
activity. Increases are desperately needed to help the Law Enforcement 
program address these rapidly proliferating threats.
    FWS: ESA Related Grant Programs.--Defenders recommends $100 million 
for the Cooperative Endangered Species Fund, $20 million over the 2006 
level; $50 million for Landowner Incentive Grants, an increase of $28.3 
million; and $10 million for Private Stewardship Grants, an increase of 
$2.7 million. Non-federal lands are crucial to the conservation of rare 
species. At least 65 percent of federally listed plants and animals are 
found on non-federal lands, with many absolutely dependent upon these 
lands for their survival. The Cooperative Endangered Species Fund 
provides grants to states for conservation activities on non-federal 
lands both for listed and candidate species. Landowner Incentive and 
Private Stewardship Grants provide funding to states and private 
landowners for efforts to conserve species at risk on private lands. 
Funding for these programs falls far below current demand.
    Bureau of Land Management (BLM): Wildlife and Fisheries Management 
(WFM) and Threatened and Endangered Species Management (TESM).--
Defenders urges $45.5 million for WFM, an increase of $5 million above 
fiscal year 2006; and 23.8 million, an increase of $2.6 million for 
TESM. BLM manages more land, and more wildlife and fish habitat, than 
any other federal agency, administering half of the remaining habitat 
for the imperiled sage grouse and almost 15 million acres of prairie 
grasslands vital to many declining grassland dependent species. Yet 
funding and resources for these two key wildlife programs have been 
increasingly diverted to support energy development on BLM lands at the 
expense of their own proactive conservation projects--30 percent of 
funds are allocated to other programs. Given the major expansion of 
energy development on BLM lands included in the president's budget and 
proposed level funding for wildlife programs, it is highly likely that 
resources will continue to be siphoned away from wildlife conservation. 
An alternative to providing increased funding would be to include 
language in the committee report prohibiting the continued diversion of 
funds to other programs.
    BLM: Challenge Cost Share.--Defenders recommends $14.4 million, an 
increase of $5 million over fiscal year 2006 for this effective program 
that allows the agency to work with partners to restore wildlife, 
habitat and other resources and averages a $2 match. Level funding in 
the president's budget fails to address gaping needs for sage grouse 
conservation, off-highway vehicle management and invasive species 
control.
    BLM: Native Plant Materials Development.--Defenders recommends $9 
million, an increase of $4.4 million over fiscal year 2006. This 
funding critically is needed as part of the Burned Area Rehabilitation 
account to provide for restoration of native plants after wild fires 
and other disturbances, and is vital to preventing the spread of 
invasive plants which degrade habitat.
    Forest Service: Wildlife and Fisheries Habitat Management.--
Defenders urges $188.5 million, an increase of $55.6 million. The 
president's budget slashes this account by almost $9 million, a 6.8 
percent cut. The 193 million acre National Forest System is critically 
important to the conservation of wildlife, fish and their habitat--more 
than 425 species listed under the Endangered Species Act and an 
additional 3200 at risk species occur on Forest Service lands. Fish and 
wildlife resources on our National Forests are important to people all 
across the nation--about 40 million visits per year are primarily for 
hunting, fishing or wildlife viewing.
    BLM and Forest Service Land Sales.--The president's budget contains 
two highly controversial proposals to raise funds for the federal 
treasury and rural schools through an expanded BLM land sale program 
and a new program to sell national forest lands. Defenders is opposed 
to these two proposals. Federal lands provide valuable resources for 
our nation's wildlife, unparalleled outdoor recreational opportunities 
for all Americans, and protection for our communities' water supplies. 
Selling these lands will deprive Americans today and in the future of 
these important recreational opportunities and essential national 
resources. Rather than selling off individual parcels of federal lands, 
the Bush administration should exchange isolated parcels for other 
lands connected to or near existing federal lands.
    Land and Water Conservation Fund (LWCF).--The president's budget 
eviscerates LWCF, funding it at only $85.1 million. Yet habitat and 
wild places across the country are increasingly threatened and in dire 
need of protection. Defenders evaluated hundreds of federal land 
acquisition projects to determine some of the highest priority needs 
for wildlife conservation based on their importance to threatened and 
endangered species, nexus with the State and Tribal Wildlife Grant 
Program's State Wildlife Action Plans, and their degree of threat. 
Based on this analysis, Defenders recommends the Subcommittee fund the 
following 16 projects totaling $51.3 million. However, these projects 
are only a subset of the overall enormous need; we urge total federal 
LWCF funding for fiscal year 2007 to be no less than $220 million.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
              Project                             Description                   Agency        State       Funds
----------------------------------------------------------------------------------------------------------------
Blackwater NWR....................  Provides habitat for the endangered      FWS.........  MD.........    $1.8
                                     Delmarva fox squirrel and bald eagle.
Cache River NWR...................  The site of the recent rediscovery of    FWS.........  AR.........  \1\ .485
                                     the endangered Ivory-billed woodpecker.
Driftless NWR.....................  Protects remaining populations of two    FWS.........  IA.........      .550
                                     listed species.
Lower Rio Grande Valley NWR.......  Protects over 480 species of birds and   FWS.........  TX.........     1
                                     at least seventeen listed species.
Silvio O. Conte NWR...............  Supports ten listed species in the       FWS.........  CT, MA, NH,     4
                                     Connecticut River watershed.                           VT.
St. Marks NWR.....................  Protects habitat for several endangered  FWS.........  FL.........  \1\ 1.5
                                     species, including the wood stork.
Upper Klamath NWR.................  Protects wetlands for waterfowl and the  FWS.........  OR.........  \1\ 3.4
                                     largest bald eagle population in the
                                     Lower 48.
Gulf Islands NS...................  The last remaining breeding habitat for  NPS.........  MS, FL.....     2.1
                                     the endangered diamond-backed terrapin.
Saguaro NP........................  The Park's only riparian hardwood        NPS.........  AZ.........     4.2
                                     forest for several listed species.
Wind Cave NP......................  Protects mixed-grass prairies for large  NPS.........  SD.........     5
                                     herds of bison, deer, and elk.
Cascade Checkerboard..............  Secures wildlife migration corridors     NFS.........  WA.........     3.3
                                     for the greater Cascade Mountain area.
Flathead NF.......................  Provides habitat for listed species      NFS.........  MT.........    16.2
                                     such as grizzly bear, lynx, and bald
                                     eagle.
Gallatin NF.......................  Establishes crucial habitat              NFS.........  MT.........     1.6
                                     connectivity in the Greater
                                     Yellowstone Ecosystem.
Suwannee Wildlife Corridor........  Protects habitat and migration           NFS.........  FL.........     5
                                     corridors for the imperiled Florida
                                     black bear.
Carrizo Plains NM.................  One of the largest grouping of listed    BLM.........  CA.........      .700
                                     species on public lands in the U.S.
Coachella Valley Preserve.........  Protects sand source vital to maintain   BLM.........  CA.........  \1\ .250
                                     endangered fringe-toed lizard habitat.
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2007 presidential request.
NWF:National wildlife refuge, NF: National Forest, NP: National Park, FWS: Fish and Wildlife Service, FS: Forest
  Service, NPS: National Park Service, BLM: Bureau of Land Management

                                 ______
                                 
                   Prepared Statement of Denver Water

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
          Prepared Statement of the Eastern Forest Partnership

    On behalf of the Eastern Forest Partnership and our member groups 
representing citizens from Mississippi to Maine, I would like to offer 
testimony concerning fiscal year 2007 appropriations for the U.S. 
Forest Service and the Department of the Interior--specifically the 
Forest Legacy Program and Land and Water Conservation Fund. We feel 
that recent federal studies, most notably the U.S. Forest Service's 
recently released Forests on the Edge report, support our call for the 
strongest possible mark for conservation funding programs in the fiscal 
year 2007 Interior, Environment and Related Agencies Appropriations 
Bill, including $80 million for the U.S. Forest Service's Forest Legacy 
Program and $220 million for the Department of Interior's federal side 
of the Land & Water Conservation Fund. We have included at the end of 
this testimony a list of priority eastern projects that we feel are 
meritorious of fiscal year 2007 funding from these programs.

                      EASTERN FORESTS ON THE EDGE

    Over the past fifteen years, federal agencies have been studying 
our eastern forests and the unique value of these lands as ``green 
infrastructure'' for the American people. In particular, forested 
watersheds play an essential role in the crowded eastern states 
providing clean drinking water supplies for rural communities and 
distant cities alike. Recent U.S. Forest Service studies have 
highlighted the acute threats to some of the most important forested 
water supply areas across the East, including the Southern 
Appalachians, Highlands, and Northern Forest.
    However, until the release of the Forests on the Edge report this 
summer, the U.S. Forest Service had not been able to provide a clear 
and scientific assessment of exactly where and to what extent future 
development might compromise watersheds and other important forest 
resources, such as timber supply areas, wildlife habitat, and public 
recreation like hunting and fishing. The report gives a stark view of 
the future: it projects that through 2030 the nation will lose 44 
million acres of private forestland to development. According to the 
report, the effects will be particularly acute in the East, with all of 
the top fifteen watersheds for projected future development in the 
eastern forests and three of those just in the State of Maine.
    This rampant and likely increasing parcelization of forestland will 
continue to produce some short-term economic returns for landowners and 
in some important instances may produce needed housing units in 
undersupplied areas. However, much of this new development is often far 
from appropriate growth areas, especially development of large rural 
parcels of former working forestland for second homes, and will lead to 
long term economic decline and increasing threats to natural resources 
like drinking water. Parcelized forestlands are less valuable for 
forestry and often closed off from timber harvest or even basic forest 
stewardship. Parcelized lands are also more often posted and closed to 
any public recreational access like hunting--here in my home state of 
Vermont, the number of landowners controlling less than ten acres has 
doubled in the last fifteen years and posted land has increased by more 
than 1,200 percent over the same period. Finally, parcelized 
forestlands have significantly reduced value for watershed protection, 
wildlife habitat, and other natural values.

        CONTROLLING FOREST PARCELIZATION: FOREST LEGACY AND LWCF

    It is clearly in the national interest to manage this growing trend 
of forest parcelization on multiple fronts. The Eastern Forest 
Partnership is deeply engaged in conversations about forest programs in 
the 2007 Farm bill, and believes that technical assistance and cost-
share programs through the U.S. Forest Service and our state foresters 
will play a significant role in helping landowners more effectively 
steward their lands while also lowering costs and increasing benefits 
of ownership so that these private owners will continue to hold their 
lands.
    We also feel that an increased commitment to funding land 
conservation projects through Forest Legacy will play a significant 
role in keeping our eastern forestland and traditional way of life 
intact. Forest Legacy has now conserved more than one million acres of 
land, most often through conservation easements on private lands that 
allow public access and continued forestry operations. The program has 
leveraged one dollar of state, local, and private funding for every 
dollar spent. This catalytic role is appropriate and effective for the 
federal government.
    Our top priority Forest Legacy projects for fiscal year 2007 are 
well-represented on the President's list, most notably the Grafton 
Notch project in Maine that was top-ranked, Cumberland Mountains 
project in Alabama, and Birdsboro Waters project in Pennsylvania. These 
three projects represent the kind of strategic landscape conservation 
that is the hallmark of the Forest Legacy Program. All three projects 
will leverage past Forest Legacy investments, link to other conserved 
areas, and deliver critical conservation of high priority lands for 
multiple-use, including forestry, recreation, and natural resource 
protection.
    These projects are also notable for the enthusiastic local support 
that has been evidenced through letters, communications with elected 
officials, and attendance at public meetings. In November, I traveled 
to Washington with local supporters for each of these projects to 
deliver their messages of support directly to key officials in the Bush 
administration. Back home the support and public interest in these 
projects is overwhelming. We had 112 local residents turn out for a 
recent public meeting on a cold February night in Bethel, Maine to 
discuss the Grafton Notch project and other local conservation efforts 
along the Mahoosuc Range of Maine and New Hampshire. I personally 
attended an event in Birdsboro, Pennsylvania that drew local, state, 
and federal officials into the pouring rain alongside local citizens to 
celebrate this popular project.
    Due to conservation funding shortfalls in recent years, important 
Forest Legacy projects have been eliminated in conference, even some 
included in the House, Senate, and administration lists, as occurred 
with Birdsboro Waters in fiscal year 2005. Many other projects have 
been severely under-funded and end up coming back for a second phase of 
funding, including Connecticut's Skiff Mountain project that was only 
partially funded in fiscal year 2006 and returns in fiscal year 2007. 
The result is a severe loss of momentum in these states as the same 
projects continue to clog the pipeline. Even the President's strong 
Forest Legacy appropriation of $61 million and good list of projects 
excludes fourteen states entirely and many critical projects, such as 
North Carolina's Clarendon Plantation, the Skiff Mountain, Phase II and 
Sparta Mountain South, Phase II projects to complete important work in 
the Highlands, and the Phillips Brook project on New Hampshire's side 
of the Mahoosuc Range that lies just a few miles from the top-ranked 
Grafton Notch project.
    For the federal side of the Land & Water Conservation Fund (LWCF), 
the rapid reduction below authorized levels continues to hamper federal 
agency land acquisition in the East, most notably for national forest 
and national wildlife refuge enhancement. The Region 8 list of national 
forest acquisitions in particular is annually full of time-sensitive 
opportunities that are being lost as funding does not come through. The 
agency describes this dire situation well in its testimony in support 
of the Georgia Mountains fiscal year 2007 LWCF project on the 
Chattahoochee National Forest:
    ``The watersheds of the Chattahoochee National Forest supply the 
drinking water for the largest urban areas in the State of Georgia . . 
. also provide unexcelled recreational opportunities for forest 
visitors, and are critical habitats . . . The Chattahoochee is an urban 
forest and under intense pressure from second home development . . . 
The cumulative impact from this development and population growth 
surrounding the Forest is seriously threatening water quality by 
generating non-point source pollution.''
    Eastern refuges are also in dire need of acquisition dollars: the 
Silvio Conte National Wildlife Refuge ranks fifth in the Land 
Acquisition Priority System (LAPS), in part because the Connecticut 
River watershed that the refuge covers is projected by the Forests on 
the Edge report as one of the top twenty in the nation for future 
development. Yet the refuge was excluded from the President's fiscal 
year 2007 list and only received a fraction of needed funding in fiscal 
year 2006.
    In conclusion, it is our belief that the national interest demands 
continued investment in land conservation programs that will help 
protect the eastern forests. Forest Legacy has a proven track record of 
conserving private forestlands and assisting state acquisition as 
federal match to locally-led cooperative conservation efforts. We again 
urge an appropriation of $80 million with funding for the strong list 
of eastern projects at the end of this testimony. The Land and Water 
Conservation Fund is less widely applicable in the East, but critically 
important--at least $220 million should be available for federal 
acquisition of high value natural and recreational value lands from 
willing sellers, including the projects listed below. These 
acquisitions will benefit the public interest and greatly lessen 
management challenges for fragmented eastern federal lands. Thank you 
very much for your consideration of this testimony and the projects 
listed below.

              EFP FOREST LEGACY--FISCAL YEAR 2007 REQUESTS
------------------------------------------------------------------------
State                       Project                           Request
------------------------------------------------------------------------
   AL Cumberland Mountains Preserve                         $1,185,000
   AL Mobile Delta                                           1,000,000
   AR Morrow Big Pine                                          500,000
   CT Skiff Mountain, phase II                               1,200,000
   DE Green Horizons                                         2,000,000
   FL Northeast Florida Timberlands                          2,225,000
   GA Paulding County Land Area                              2,225,000
   KY Marrowbone Creek State Forest                          1,000,000
   MA Southern Monadnock Plateau                             2,500,000
   ME Grafton Notch                                          2,000,000
   ME Lower Penobscot Forest                                 5,500,000
   ME Machias River, phase III                               2,000,000
   NC Whitehurst State Forest                                4,500,000
   NC Clarendon Plantation                                   2,500,000
   NH Phillips Brook                                         3,500,000
   NH Willard Pond/Robb Res.                                 3,000,000
   NJ Sparta Mountain South, phase II                        2,100,000
   NJ Mountain Gate                                          1,050,000
   NY Tahawus                                                5,000,000
   PA Birdsboro Waters                                         300,000
   RI North-South Corridor                                   3,000,000
   SC Pee Dee River                                          2,500,000
   SC Savannah River                                         2,500,000
   VA New River Corridor                                     2,100,000
   VT Orange County Headwaters                               1,542,000
   VT Adams Pond                                             1,167,000
                                                       -----------------
            Total                                           58,094,000
------------------------------------------------------------------------


     EFP LAND AND WATER CONSERVATION FUND--FISCAL YEAR 2007 REQUESTS
------------------------------------------------------------------------
    State                       Project                       Request
------------------------------------------------------------------------
          AL Alabama National Forests                       $1,500,000
          AL Bon Secour                                      1,500,000
          AR Ozark-St. Francis & Ouachita NF                   834,000
          FL St. Marks NWR                                   1,700,000
          FL Suwannee Wildlife Corridor/Pinhook Swamp        2,000,000
          FL Florida National Scenic Trail                   2,000,000
          GA Georgia Mountains                               2,700,000
          KY Daniel Boone NF                                 4,615,000
       KY/TN Cumberland Gap NP (Fern Lake Watershed)         2,500,000
          MS Lower Yazoo Basin, Delta NF                     2,500,000
          MS Horne Island                                    2,000,000
          NC Croatan NF (Onslow Bight)                       5,000,000
          NC Uwharrie National Recreational Trail            1,600,000
          NH Lake Umbagog National Wildlife Refuge           1,000,000
 NH/VT/MA/CT Silvio Conte National Wildlife Refuge           4,000,000
          OH Wayne Select Lands                                500,000
          PA Flight 93 Memorial                              5,000,000
          SC Francis Marion Sumter NF                        4,685,000
          TN Tennessee Mountains                             3,000,000
          VA Eastern Shore of Virginia NWR                   2,277,000
          VA Jefferson NF (Black Lick & Appalachian          2,850,000
              Trail)
          VT Green Mountain National Forest (Broad           1,100,000
              Brook Phase II)
                                                       -----------------
                   Total                                    54,861,000
------------------------------------------------------------------------

                                 ______
                                 
Prepared Statement of Friends of Balcones Canyonlands National Wildlife 
                                 Refuge

    Mr. Chairman and Honorable Members of the Subcommittee, my name is 
Heidi Wittenborn, President of Friends of Balcones Canyonlands National 
Wildlife Refuge. On behalf of Friends I would like to express my 
appreciation for this opportunity to testify. Friends urges you to 
appropriate $1.5 million from the Land and Water Conservation Fund for 
the U.S. Fish and Wildlife Service to acquire a conservation easement 
for Balcones Canyonlands National Wildlife Refuge. The tract this 
appropriation would protect is key habitat for the Golden-cheeked 
Warbler, a songbird Audubon lists as one of the ten most endangered. 
Its acquisition would be a significant step towards the long range goal 
of completing the Refuge. Acting now is extremely important, as the 
window of time for protecting habitat is closing rapidly in the face of 
accelerating urban expansion, and the opportunity for protecting this 
species is at risk.
    Friends is a nonprofit, volunteer organization. Its mission is to 
support, complete, and enhance Balcones Canyonlands National Wildlife 
Refuge and its diverse ecology, and promote its use for recreational, 
educational, and scientific purposes. The organization's membership is 
drawn primarily from Central Texas communities situated near the 
Refuge.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step towards recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 21,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the City and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    Balcones Canyonlands Refuge, although fourteen years old, is not 
yet half complete. It is particularly important to act now as time is a 
critical consideration in completing the Refuge. Because of the 
proximity of the Refuge to the rapidly expanding Austin metropolitan 
area, urban expansion is a serious threat to habitat needed by the 
Refuge. There are already three outlying real estate developments 
within the acquisition boundary of the Refuge and a rapidly advancing 
blanket of urban residential and commercial development is within 
sight.
    This year, we would like to go forward with the partially completed 
acquisition of the Armstrong conservation easement, which contains 
substantial Golden-cheeked Warbler habitat. The property is in a 
strategic location, will alleviate cumulative habitat fragmentation 
within the approved acquisition area of the Refuge, and preclude 
development and land uses that would be incompatible with the Refuge's 
objectives. It is anticipated that the conservation easement covering 
this segment of the Refuge could be acquired for $1.5 million and that 
the transaction could be consummated within 6 months following 
appropriation of the needed funds.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a rapidly growing source of eco-tourism for the 
surrounding area. The Refuge's annual songbird festival continues to 
grow with record attendance predicted for this year. Our first annual 
winter sparrow festival also was a sell out. Over the longer term, 
Balcones Refuge is expected to become a major draw for birders 
interested in viewing the endangered Warbler and Vireo, as well as 
other bird species for which this area provides unique habitat. The 
Refuge has been described as one of the Last Great Places by the Nature 
Conservancy and as an ``Important Bird Area'' by two national 
conservation groups based on its ``global importance'' to the 
endangered Warbler and Vireo.
    Also, Balcones Canyonlands offers Central Texas a variety of 
recreational opportunities compatible with wildlife protection. Once 
completed, Balcones Canyonlands will be a step towards providing 
additional accessible public outdoor areas, identified as a critical 
need in a recent study for Texas Parks and Wildlife.
    For all of these reasons Friends of Balcones Canyonlands National 
Wildlife Refuge strongly recommends that you set aside $1.5 million 
from the Land and Water Conservation Fund for Balcones Canyonlands 
Refuge for fiscal year 2007.
    Thank you again for the opportunity to present this statement to 
the Subcommittee.
                                 ______
                                 
    Prepared Statement of Friends of the Boundary Waters Wilderness

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $2 million 
appropriation from the Land and Water Conservation Fund for the 
critical land protection in the Superior National Forest in Minnesota.
    Long Island is the largest undeveloped island in Burntside Lake. 
Located 30 miles southeast of Crane Lake and 3 miles northwest of Ely, 
Burntside Lake is over 10,000 acres in size. The lake is an important 
recreational area, with two entry points into the Boundary Waters Canoe 
Area Wilderness (BWCAW), five public campsites and six public canoe 
launching points. The lake is also the start of a popular 11-mile canoe 
trail outside of the BWCAW, referred to as the Burntside-Dead River-
Everett Trail. One of the few lakes in Minnesota that support a natural 
cold water fishery, the lake is renowned for its big lake trout and 
walleye and also supports one of the largest populations of loons in 
the state.
    Beyond its current recreational and natural qualities, Burntside 
Lake holds significant historic and cultural value. It is the location 
of writer and conservationist Sigurd Olson's legendary Listening Point. 
As Walden was to Thoreau and Sand Country to Aldo Leopold, Listening 
Point was a place of inspiration for Olson and where he wrote many of 
his books and crafted aspects of the 1964 Wilderness Act.
    Long Island is situated directly across from Olson's beloved 
Listening Point. When he first discovered the point, he had been 
looking for a long time throughout northern Minnesota for a place to 
listen, to contemplate ``the grandeur of creation,'' and a place that 
would evoke the spirit and beauty of the northern wilderness. When he 
came to the point he wrote: ``From the top of one of [the rocks] I 
could see the vistas across to the islands and knew the search was 
over. Here was everything I had ever hoped to find. I would never own 
the water or the horizons, but the sunsets, the moonrises and the 
vistas would belong as much to me as though written into the deed 
itself.'' Listen Point, Alfred A. Knopf, 1958.
    While Listening Point is protected today, Long Island is not. 
Without that protection, the vista and much of what Sigurd Olson wrote 
about in his book will be lost.
    Long Island would be an outstanding addition to the Superior NF, 
boasting one mile of undeveloped lakeshore. The island has a beautiful 
sand beach, which would be utilized by the public for recreation. There 
are limited numbers of public beach areas within the forest boundaries, 
and this would be a rare opportunity for the public. The island is home 
to nesting osprey, blue heron and nesting loons, and has potential for 
habitat for rare and sensitive species.
    The 64-acre Burntside Islands Scientific and Natural Area (SNA), 
which features two virtually undisturbed islands, is located 
immediately southwest of Long Island. These two forested bedrock 
islands are home to old-growth Great Lakes pines forests that are 
extremely rare outside of the BWCAW. Public acquisition of the Long 
Island property will ensure that the attributes of the northwoods 
region so treasured by its many visitors will be protected in 
perpetuity.
    Furthermore, Long Island, if protected, will offer the public a 
near-wilderness experience, a wonderful benefit to those who can not or 
choose not to go into the BWCAW itself.
    An appropriation of $2 million from the Land and Water Conservation 
Fund in fiscal year 2007 will secure the acquisition of Long Island, 
protect its critical natural resources for the public, and maintain the 
integrity of the great northwoods.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
       Prepared Statement of Friends of the Columbia River Gorge

    I thank you for the opportunity today to present this testimony in 
support of critical land acquisition projects in the Columbia River 
Gorge National Scenic Area. Appropriations totaling $2 million from the 
Land and Water Conservation Fund to the Forest Service will go a long 
way to protect a number of identified high-priority properties in the 
Gorge, including the Bridal Veil and Russell properties in Oregon and 
the Hopper and Grazini properties in Washington.
    The Columbia River Gorge National Scenic Area (CRGNSA) was created 
by Congress in 1986 ``to protect and provide for the enhancement of the 
scenic, cultural, recreational, and natural resources of the Columbia 
River Gorge'' and to encourage economic growth in nearby urban areas. 
The scenic area protects nearly 300,000 acres in both states and 
receives hundreds of thousands of visitors annually.
    The 1986 act also declared the White Salmon River in Klickitat 
County, Washington as a National Wild and Scenic River. In 2005, 
Congress extended this designation to its headwaters on Mount Adams. 
The White Salmon is one of only three rivers in Washington to have such 
a listing.
    The acquisition of key properties in fiscal year 2007 will benefit 
recreational access to areas in the Gorge and White Salmon:
    The 17-acre Bridal Veil property in Oregon is located near 
Multnomah Falls at an intersection of Interstate 84. Protection of this 
property would conserve land along the historic Columbia River Highway, 
serve as a potential site for interpretation, and would greatly improve 
public access to Bridal Veil Falls.
    The Russell property is a 50 acre parcel located near Mosier just 
south of the Historic Columbia River Highway on the lower two-thirds of 
an open, grassy hillside, locally known as Hudson Hill. This north and 
west facing property provides a stunning panorama of the Columbia River 
Gorge with the show capped volcanic peaks of Mt. Adams and Mt. Hood 
visible in the distance. Acquisition of this property would provide an 
excellent recreation opportunity.
    The 4.5-acre Hopper property in Washington is adjacent to a planned 
public boat launch site on the river. With the White Salmon River 
renowned for its kayaking and whitewater rafting opportunities, this 
acquisition is critical to ensuring recreational access to the river.
    An appropriation of $2 million from the Land and Water Conservation 
Fund will protect these priority parcels in and around this a vital 
recreational and ecological corridor.
    We thank you Mr. Chairman for the opportunity to present this 
testimony in favor of the appropriations for the Columbia River Gorge 
National Scenic Area and the Wild and Scenic Rivers administered by the 
NSA.
                                 ______
                                 
            Prepared Statement of Friends of Congaree Swamp

    On behalf of: Friends of Congaree Swamp; South Carolina Wildlife 
Federation; Audubon South Carolina; Columbia Audubon Society; South 
Carolina Coastal Conservation League; Sierra Club--South Carolina 
Chapter; and Congaree Land Trust
    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $4.5 million from the Land and Water Conservation Fund 
to the National Park Service for land acquisition at Congaree National 
Park in South Carolina.
    Congaree Swamp National Monument was authorized as a unit of the 
National Park Service in 1976. In 2003, Public Law 108-108 designated 
Congaree as a National Park--South Carolina's first and only national 
park--and also authorized a boundary expansion of 4,576 acres.
    Congaree National Park rests on a floodplain of the Congaree River 
in central South Carolina, and is recognized as an International 
Biosphere Reserve, a National Natural Landmark, a Wilderness Area, and 
a Globally Important Bird Area. With its 75 species of trees, Congaree 
hosts the nation's largest tract of old-growth bottomland hardwood 
forest, and nurtures some of the tallest trees in the eastern United 
States with some pines reaching over 160 feet.
    More than 190 species of birds have been observed within the park. 
Following rediscovery of the Ivory-billed Woodpecker in Arkansas, 
Congaree National Park is considered prime habitat for recovery of this 
species. Currently, the South Carolina Ivory-billed Woodpecker Working 
Group is coordinating searches within Congaree National Park.
    Congaree National Park also offers excellent opportunities for 
recreation. A 2.5-mile boardwalk loop provides easy access into 
Congaree's forest, and more than 20 miles of trails are available for 
hiking. Visitors enjoy canoeing and kayaking on Cedar Creek, currently 
nominated for designation as the first Outstanding National Resource 
Waters in South Carolina. Outdoors enthusiasts can also enjoy fishing, 
camping, birding, and picnicking.
    In fiscal year 2005, Congress appropriated $6 million from the Land 
and Water Conservation Fund to purchase the 2,395-acre Bates Fork 
tract--at the confluence of the Congaree and Wateree Rivers. This is 
the largest tract within the Congaree boundary expansion, authorized in 
2003. The National Park Service completed this acquisition in November 
2005.
    Fiscal year 2007 presents the opportunity to acquire the 1,886-acre 
Riverstone tract--also within the boundary authorized in 2003. The 
Riverstone tract will connect the previously-acquired 22,000 acres of 
Congaree National Park with the recently-acquired 2,395-acre Bates Fork 
tract. The Bates Fork tract, in turn, adjoins the 16,700-acre Upper 
Santee Swamp Natural Area, owned by the South Carolina Public Service 
Authority. So, the Riverstone tract is the link to connect Congaree 
National Park and the Upper Santee Swamp Natural Area.
    Resources on the Riverstone tract--including Bates Old River, Big 
Lake, Little Lake, Running Creek and Running Lake--have significant 
natural, recreational, and historical values. Bates Old River is the 
longest oxbow lake (4 miles) in the Congaree River floodplain and one 
of the longest oxbows in South Carolina. An unusual mix of sweetgum, 
bald cypress, water tupelo, and green ash dominates the Bates Old River 
ridge and swale system. The Riverstone tract harbors extensive areas of 
early- and mid-successional plant communities rarely found in Congaree 
National Park, plus dwarf cypress and planer tree communities not 
represented at all on existing park lands. In addition, there are 
numerous large specimen swamp cottonwoods and water hickories. 
Acquisition of the Riverstone tract will provide new and diverse 
recreational and historical interpretation opportunities for park 
visitors while adding to the park's natural resources.
    A fiscal year 2007 appropriation of $4.5 million from the Land and 
Water Conservation Fund will provide the National Park Service with 
funds to purchase this critical Riverstone tract, thereby ensuring 
permanent protection of its outstanding natural and cultural resources, 
and connecting the 22,000 acres upriver with the 19,000 acres 
downriver.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of our request.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    Mr. Chairman, Members of the Committee, my name is Peter J. Defoe. 
I am the Chairman of the Reservation Business Committee of the Fond du 
Lac Band of Lake Superior Chippewas and would like to thank you for 
this opportunity to present testimony on fiscal year 2007 
Appropriations. The Fond du Lac Band occupies a reservation in 
northeastern Minnesota, which encompasses 100,000 acres and was 
established by the Treaty of September 30, 1854. The Fond du Lac Band 
provides health, education, social and other governmental services to a 
population of 6,500 Indian people that live on or near the Fond du Lac 
Reservation.
    We are deeply concerned about the very substantial cuts proposed in 
the President's fiscal year 2007 budget. Those budget cuts--if they 
stood--would severely reduce our ability to educate our children, care 
for our elderly and infirm, prevent crime, and protect and manage our 
natural resources. We urge Congress to restore or increase the funding 
on which we depend to provide essential services to our Band members. 
In particular, we ask that funding be restored or increased in the 
following areas:
Bureau of Indian Affairs
    Johnson O'Malley--restore $16.3 million.
    Early Childhood Development--restore $3.2 million.
    Education Construction--restore $49 million.
    Tribal Colleges & Universities--restore $824,000.
    Tribal Colleges & Universities--reaffirm funding for the Fond du 
Lac Tribal College.
    Circle of Flight--restore $600,000.
    Tribal Courts--restore $5.3 million.
    Fond du Lac Law Enforcement & Resource Management--increase by $9 
million.
    General Assistance Program--restore $11.3 million.
Indian Health Services
    Increase funding for Indian health care.
    Increase funding for contract support costs.

                        BUREAU OF INDIAN AFFAIRS

    Education: Johnson O'Malley program, Early Childhood Development 
program, Education Construction and Tribal Colleges & Universities. 
Johnson O'Malley (JOM) funding helps Indian children with tutoring, 
cultural enrichment and Native language education, and is critical to 
tribal education programs. We request that Congress restore full 
funding to these vitally important education programs. A complete cut 
of funding for this program, as is proposed, would severely erode this 
irreplaceable source of funds for essential educational services. The 
Department has attempted to justify this amount by claiming that JOM 
funding duplicates funding provided by the Department of Education, but 
this is not the case. The Department of Education has testified that it 
has not adjusted its budget to cover this loss of funds.
    The Early Childhood Development program, which enhances the school 
readiness of our young children, is also critical to preparing our 
youth for school and in meeting the President's ``No Child Left 
Behind'' standards. We ask Congress to restore $3.2 million to this 
program.
    Additionally, we do not support the Bureau of Indian Affair's 
decreased funding for Education Construction, including significant 
cuts to Facilities Operations (O&M). Facilities O&M funding must be 
increased for fiscal year 2007 to the level necessary to provide for 
the continued safety and utility of our educational facilities. Current 
funding levels are not keeping pace with the escalating costs of 
operating educational facilities. Rising fuel, utility costs, and the 
cost of living adjustments for skilled maintenance and custodial staff 
must be considered in adjusting adequate levels of Facilities O&M 
funding.
    We ask Congress to restore the Tribal Colleges and Universities 
endowment grant funding by $824,000 to the fiscal year 2006 level. More 
importantly for the Band, we ask Congress to reaffirm funding to the 
Fond du Lac Tribal College. In 1987, the Fond du Lac Tribal College was 
chartered by the Band to provide post-secondary education to Indian 
students. The Tribal College currently provides post-secondary 
education to close to 500 Indian students. For many years, the Bureau 
of Indian Affairs provided funds to the Tribal College, recognizing it 
as an entity eligible for federal financial assistance for Tribal 
Colleges under the Tribally Controlled College or University Assistance 
Act. The President's Budget includes funding for Tribal Colleges under 
the Tribally Controlled College or University Assistance Act but it has 
not been determined whether the Bureau of Indian Affairs intends to 
include continued funding for the Fond du Lac Tribal College. Without 
the funds provided to the Tribal College under the Tribally Controlled 
College or University Assistance Act, the College will not be able to 
carry out its valuable mission: to provide higher education 
opportunities for its Indian students. Therefore, we ask Congress to 
reaffirm funding to the Fond du Lac Tribal College for fiscal year 
2007.
    Natural Resources: Circle of Flight.--We ask Congress to restore 
the Circle of Flight Wetland/Waterfowl Enhancement Program in the BIA's 
fiscal year 2007 budget to at least the fiscal year 2006 level of 
$600,000, and to consider providing the amount of $1,113,000 to cover 
actual program needs. Circle of Flight has been one of Interior's top 
trust resource programs for more than a decade. Since fiscal year 1991, 
Great Lakes tribes and our partners have restored or enhanced more than 
66,000 wetland, grassland and native prairie acres. The Circle of 
Flight program has invested more than $6 million in habitat projects, 
and has leveraged these dollars for an additional $18 million in 
federal, state, private, and tribal funding, yielding an impressive 
match ratio of 3 to 1.
    Public Safety and Justice: Tribal Courts.--We urge Congress to 
restore Tribal Court funding by increasing the appropriated amount by 
$5.3 million to fiscal year 2006 levels. We also support additional 
funding to meet detention facility needs, but believe that this 
increase should not come at the expense of a reduction in funding for 
Tribal Courts, which have been historically under-funded and which are 
essential to effective law enforcement efforts.
    Public Safety and Justice: Fond du Lac Law Enforcement and Resource 
Management Program.--We request a one-time appropriation of $9 million 
to the Fond du Lac Resource Management Program for law enforcement and 
natural resource protection ($1.5 million in base funding for court 
operations and law enforcement, $1.5 million for resource management 
and conservation enforcement, and $6 million for expansion of office 
space to serve both). This additional funding is needed because of the 
Band's increased law enforcement responsibilities. Following a 
Minnesota Supreme Court decision in 1997 holding that the State did not 
have jurisdiction to enforce traffic laws on roads within Indian 
reservations, State v. Stone, 572 N.W.2d 725 (Minn. 1997), the Fond du 
Lac Band needed to establish a Tribal law enforcement department to 
address on-reservation law enforcement needs. The Band has done this, 
using a combination of tribal funds and federal funds (made available 
through the Community Oriented Policing Services (COPS) program and the 
Bureau of Indian Affairs), and by entering into cooperative agreements 
with local law enforcement agencies. However, because of the short-term 
limited financial resources available, there are significant unmet 
needs in this area. At Fond du Lac, we need long term funding to pay 
for staff and equipment to adequately ensure the safety of the 
Reservation population. With the increased responsibility assumed by 
the Band there is an increased need to expand the staff and its 
capabilities. With this in mind, we request that $1.5 million be added 
to our base budget to continue to implement the enforcement systems for 
the Band.
    Related to this are the Band's responsibilities for enforcing 
conservation laws that protect natural resources and regulate Band 
members who hunt, fish and gather those resources both within and 
outside the Reservation pursuant to rights reserved under Treaties with 
the United States in 1837 and 1854. The Band's rights to hunt, fish and 
gather on lands ceded under these treaties have been recognized and 
upheld by the federal courts and the United States Supreme Court. Under 
established Band conservation law, the Band is responsible for 
enforcing regulations over approximately 8,000,000 acres in northern 
and central Minnesota. It is also essential that the Band continue to 
manage its on-reservation resources in order to meet the demands of an 
increasing population. The on-reservation resources are vitally 
important to Band members as they provide the foundation for our 
culture, subsistence, employment and recreation. Therefore, we are 
seeking an additional $1.5 million be added to the Band's base budget 
for the Fond du Lac Resource Management Division, for its Resource 
Management programs to enable us to continue to protect these resources 
for the future generations at Fond du Lac. The funds for this program 
have not been increased since 1991. We also request a one-time 
allocation of $6 million to the Band for the expansion of the office 
space, as our current building is inadequate to house both law 
enforcement and natural resource management staff.
    General Assistance Program.--We urge Congress to restore $11.3 
million in funds to this program. The General Assistance Program helps 
the Band ensure that its tribal members' health and general welfare 
needs are met by providing another form of assistance. The General 
Assistance Program is especially important for the Band's families with 
children, elders and tribal members with disabilities.

                         INDIAN HEALTH SERVICE

    While we support the President's proposal to increase the budget 
for Indian Health Services, the amount of that increase ($130 million 
from fiscal year 2006 funding levels) still will not meet the actual 
costs of providing health care to Indian people. The proposed increase 
fails to address the high rates of medical inflation and the 
substantial unmet need for health care among Indian people. For 
instance, Indians at Fond du Lac, like Indians throughout the Nation, 
face disproportionately higher rates of diabetes and the complications 
associated with diabetes, than the rest of the population. Heart 
disease, cancer, obesity, chemical dependency and mental health 
problems are also prevalent among our people. While other federal 
programs, like Medicare and Medicaid, have seen annual increases in 
funding of 5-10 percent to address inflation, the budget for IHS has 
never had comparable increases, and, as a result, IHS programs have 
consistently fallen short of meeting the actual needs. The Band 
supports the efforts of all Indian tribes to receive 100 percent of the 
Level of Need Formula (LNF) so that it can address the serious and 
persistent health issues that confront its community. The Band serves 
about 5,800 Indian people at its clinics, but the current funding level 
meets only 40 percent of our health care funding needs. In addition, 
the Band requests an increase in funding for substance abuse and mental 
health programs in order to combat the growing methamphetamine problem 
on our Reservation. In addition, while this Administration seeks the 
use of electronic health records for all Americans, this is a seriously 
unfunded mandate for tribal organizations.. Therefore, the Band 
requests an increase in funding to continue the implementation of our 
Electronic Health Record (EHR) so that we may reduce medical errors and 
increase the quality of our patient care. We also urge the Committee to 
provide increased funding for contract support costs comparable to that 
provided by the Bureau of Indian Affairs.

                 SUPPORT FOR PROPOSED BUDGET INCREASES

    Fish and Wildlife Service: Tribal Wildlife Grant program and 
Landowner Incentive Program.--We strongly support the President's 
proposed $5 million increase in funding for the Tribal Wildlife Grant 
(TWG) program, and the $2.7 million increase to the Landowner Incentive 
Program in the Interior Department's budget for the U.S. Fish & 
Wildlife Service. Fond du Lac has received grants in these two programs 
this year, which will be used for important fisheries, wildlife, and 
wild rice management and restoration projects. These increases will 
help to address the considerable need for managing our shared natural 
resources.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support to preserve the current BIA 
funding levels is essential to our ability to maintain vitally 
important programs. Your support of our additional funding requests 
will enable us to improve the delivery of services to Band members and 
help ensure that we enter the 21st Century with a renewed sense of 
hope. Miigwech. Thank you.
                                 ______
                                 
   Prepared Statement of the Florida Fish and Wildlife Conservation 
                               Commission

    We are seeking your support for the President's fiscal year 2007 
Budget Request of $3 million to support the National Fish Habitat 
Initiative (NFHI) and, furthermore, we are asking you to support an 
additional $3 million to be appropriated to the U.S. Fish and Wildlife 
Service's Southeast Fisheries Program for the Southeast Aquatic 
Resources Partnership (SARP). The NFHI, lead by the International 
Association of Fish and Wildlife Agencies in partnership with the U.S. 
Fish and Wildlife Service, seeks to develop a nationwide fisheries 
habitat restoration plan modeled on the successful North American 
Waterfowl Management Plan. The SARP is currently developing a Southeast 
Aquatic Habitat Plan that will help guide the implementation of the 
NFHI on a regional scale and serve as a model for other regions of the 
country. The SARP, through its aquatic habitat planning process, will 
identify and establish Fish Habitat Partnerships that will deliver the 
objectives of the NFHI in the Southeast.
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the southeastern United States. 
This partnership developed from the realization that (1) the Southeast 
has the highest diversity of aquatic species and habitats of any region 
in the country; (2) that these resources are facing serious threats to 
their future existence; and (3) that no one state or federal agency has 
all the necessary resources and authority to address this impending 
aquatic crisis. It is only by working together through partnerships 
that we will make a difference.
    The SARP is comprised of those state and federal agencies and 
organizations with management authority for fisheries and aquatic 
resources. It includes the fish and wildlife agencies from 13 states 
(Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
Missouri, North Carolina, Oklahoma, South Carolina, Tennessee, and 
Texas), the Gulf and Atlantic States Marine Fisheries Commissions, the 
Gulf of Mexico and South Atlantic Fishery Management Councils, the U.S. 
Fish and Wildlife Service, and NOAA Fisheries. These entities have 
signed an unprecedented Memorandum of Understanding pledging to work 
together for the conservation and management of aquatic resources in 
the Southeast. No similar multi-state, multi-agency partnership exists. 
To date, SARP has been successful in receiving over $700,000 in grant 
monies as well as contributions from the agency members. This unique 
and focused effort is poised to deliver a new regional approach to 
aquatic conservation for future generations. Securing $3 million in 
additional funding for the SARP is critical for the successful 
implementation of the Southeast Aquatic Habitat Plan.
    Thank you for your consideration of this request. If you should 
have any questions or need further information, please contact Mr. Jim 
Estes at 850-488-5460.
                                 ______
                                 
           Prepared Statement of the Friends of Indian Health

    The Friends of Indian Health is pleased to submit testimony on the 
fiscal year 2007 appropriation for the Indian Health Service. The 
Friends is a coalition of over 50 health organizations and individuals 
dedicated to improving the health care of American Indians/Alaska 
Native (AI/AN) people.
    The Friends thanks the Committee for its past support for the 
Indian Health Service (IHS). The Committee's action has sent a strong 
message that addressing the health care needs of Indian people is a 
high priority of the federal government. With that thought in mind, we 
are recommending a funding level of $3,361,787,000 to sustain clinical 
and preventive services and to attract a viable workforce of health 
care providers that will lead to eliminating the disparity of disease 
and health care among AI/ANs.
    Numerous studies have shown that the disparity in health care for 
Indian people has continued to increase since the early 1990's. AI/AN 
people have a lower life expectancy--nearly four years less--when 
compared to other populations. This occurs for a variety of reasons:
  --Native American youth are more than twice as likely to commit 
        suicide,
  --AI/AN people are 670 percent more likely to die from alcoholism,
  --650 percent more likely to die from tuberculosis,
  --318 percent more likely to die from diabetes and
  --204 percent more likely to suffer accidental death
    At the center of this disparity is an inequity in funding for 
health care. The IHS operates with an estimated 55 percent of what it 
needs to provide adequate health care using the Federal Employee Health 
Benefits Programs as the benchmark. The service spends $2,130 per 
person per year for health care, which is more than 50 percent below 
similar expenditures by public and private health insurance plans. As 
organizations and individuals involved in health care, we know that 
additional funding can make a difference in eliminating disparities in 
disease rates and access to care.
    The Friends recommends an increase of $192,000,000 above the 
President's request for IHS for fiscal year 2007. We believe that by 
targeting this increase to already proven IHS programs, access to 
health care can be improved and the rise in mortality rates reversed. 
Specifically, we recommend the following increases:
  --+$22,000,000 for loan repayment. The quickest way to close the gap 
        in health care access is to hire an adequate workforce. The 
        current vacancy rate for IHS health professionals overall is 
        approximately 16 percent with critical shortages in all fields. 
        The IHS conducts an excellent recruiting program but there are 
        more applicants than there are funds available. The ability to 
        offer loan repayment is essential for recruiting and retaining 
        health care professionals, many of whom graduate with over 
        $200,000 of student loan debt.
  --+$8,000,000 for prevention. The Friends is very pleased that the 
        President's request includes $2,000,000 for prevention 
        activities. The IHS has proven that being able to prevent 
        disease can save lives. Surveys show that the average death 
        rate for the AI/AN populations dropped 28 percent between 1972 
        and 2002. Additional resources are needed to reduce these rates 
        even further.
  --+$2 million for Tribal Epidemiology Centers. Activities of Tribal 
        Epidemiology centers include the development of surveillance 
        systems for disease conditions, investigation of disease 
        outbreaks, development and implementation of disease control 
        and prevention programs and coordination of activities with 
        other public health authorities in the region. The data 
        gathered by the centers helps the IHS to better target its 
        prevention resources.
    The Friends is pleased to see that the Administration has accounted 
for inflation, contract support costs and population growth in its 
fiscal year 2007 budget. These figures help provide a more realistic 
approach for budgeting for the IHS. However, in several of these 
accounts are still below actual need. If they are not fully funded then 
mandatory needs will drain resources from current programs creating 
even more disparity in health care for AI/AN people. We believe that 
the following increases reflect the actual level of need:
  --+$31 million for Pay Act costs. The President's budget provides for 
        a 2.2 percent salary raise for civil service employees and 
        commissioned officers. However, it does not contain sufficient 
        funding to cover ``within-in grade'' (WIGIS) increases.
  --+$18 million for Contract Health Services (CHS). Funding for this 
        program is used to purchase health care services outside IHS 
        facilities through private health care providers in places 
        where an IHS facility does not exist, or is not staffed or 
        equipped to meet the health care needs of the AI/AN patients. 
        CHS funding is used to address health care that has been 
        deferred or denied such as: treatment for diabetes, cancer, 
        heart disease, injuries, mental health, domestic/community/
        family abuse/violence, maternal and child health, elder care, 
        refractions, physical therapy, and elective orthopedic services 
        The President's budget provides for an increase of $36.9 
        million but it still leaves this fund short. One of the 
        consequences of underfunding this account is that it creates a 
        financial drain on non-IHS health communities.
  --+$67 million for Health Care Facilities. The Friends of Indian 
        Health was very pleased that last year this Committee 
        appropriated $38 million for IHS health facilities 
        construction. However, the agency still needed an additional 
        $47 million to meet the facilities construction schedule. We 
        are disappointed to see that the Administration is again 
        proposing to decrease this account. The IHS has carefully 
        planned its construction schedule and an interruption in that 
        planning will only result in higher construction costs in the 
        future.
  --+$33 million for Urban Indian Health Program (UIHP). While the 
        Friends appreciate the need not to duplicate federal programs, 
        we do not agree with the Administration's analysis that the 
        Community Health Center program can accommodate urban Indians. 
        Indeed, the National Association of Community Health Centers 
        has also opposed this proposal stating that, ``the fiscal year 
        2007 budget [for the Community Health Centers] is not designed 
        to meet the needs of the more than 1 million AI/ANs currently 
        living in communities served by the UIHP.'' We strongly urge 
        the Committee to restore this program until a better approach 
        can be developed so that health care for urban Indians is not 
        compromised.
  --+$11 million for Indian Health Care Improvement. The President's 
        budget for fiscal year 2007 does not include an increase for 
        this fund, which was created to address deficiencies in health 
        status and resources for all tribes. Funds are allocated using 
        the Federal Disparity Index, which benchmarks the cost of 
        providing personal health services by a mainstream health plan 
        in comparison to the IHS.
    Below are additional statements by groups represented by the 
Friends detailing the need for improved Indian health care. As health 
care organizations and providers, we know that there will ultimately be 
a cost savings to the government if the disease disparity rates can be 
reduced and access to health care improved for AI/ANs.
    The Friends recommends that the Committee continue its consistent 
funding approach for the IHS so that it can continue to address the 
health care needs of the AI/AN populations. Weakening the IHS public 
health infrastructure can only lead to even greater increases in 
mortality and morbidity rates of American Indians and Alaska Natives.

                             MENTAL HEALTH

    Poverty is a significant contributing factor toward mental and 
substance abuse disorders. The poverty rate for American Indians and 
Alaska Natives (AI/AN) in 2001 was 24.5 percent, as compared to 7.8 
percent for non-Hispanic whites. The median household income estimate 
for AI/ANs was $32,000 as compared to $46,000 for non-Hispanic whites.
    Inadequate mental health and substance abuse services contribute to 
a suicide rate for AI/AN that is about 1.7 times the rate for all races 
in the United States and the suicide rate for males 15 to 34 years of 
age is over two times the national rate.
    The suicide rate for Indian people is 60 percent higher than the 
general population.
    Studies have shown that 69.9 percent of all suicidal acts 
(completions and attempts) in AI/AN country involved alcohol use.

                             KIDNEY DISEASE

    American Indians have one of the highest rates of chronic, 
irreversible kidney failure or End Stage Renal Disease (ESRD) of any 
population with a prevalence rate 3.5 times that of white Americans.
    Diabetes is the leading cause of all new cases of kidney failure 
for all Americans, and the explosion in the incidence of type 2 
diabetes among American Indians is the driving force behind the AI/AN 
kidney disease prevalence rate.

                              ORAL HEALTH

    79 percent of children aged 2-5 years had a history of decay.
    78 percent of adults 35-44 years old and 98 percent of elders 55 
years or older had lost at least one tooth because of dental decay, 
periodontal (gum) disease or oral trauma.

                                DIABETES

    Today diabetes has reached epidemic proportions among Native 
Americans. Each year 54,000 people lose their feet or legs to diabetes. 
Amputation rates among Native Americans are 3-4 times higher than the 
general populations.
    An Arizona tribe has the highest rate of diabetes in the world. 
About 50 percent of the adults between the ages of 30 and 64 have 
diabetes in this tribe.

                         VISION AND EYE HEALTH

    A recent three year study of Navajo people (the largest native 
population) revealed that within the prior two years only about 33 
percent had an eye exam and that only 20 percent had visual acuity good 
enough to qualify for a driver's license, even with their present 
eyeglasses.
    With the high rate of diabetes, it is imperative that timely 
detection and treatment be available in Indian country. Diabetic 
retinopathy occurs in 24.4 percent of Oklahoma Indians.

                                PHARMACY

    Pharmacists play an important role in disease state management, 
particularly the monitoring of patients suffering from diabetes.
    Through the pharmacy training program, now in 13 sites, the IHS 
plays a significant role in the education of pharmacists interested in 
pursuing careers in the IHS.

                          WOMEN'S HEALTH CARE

    AI/AN girls up through the age of 19 are approximately 3 times more 
likely to commit suicide than their white counterparts.
    Although AI/AN women across Indian country have lower cancer death 
rates than United States all races, in Alaska and Northern Plains, the 
rates for AI/AN women are 22 percent and 42 percent higher, 
respectively, than for United States all races.
    The 2002 United States prevalence of diagnosed diabetes in women 20 
and over was 7.1 percent. For AI/AN women, it was 15.9 percent, more 
than double. This disease is devastating to the health of these women; 
in addition, it increases complications in childbearing, and elevates 
the risk that their children will also become diabetic.

                         CHILDREN'S HEALTH CARE

    More than one-third of the nation's AI/AN population is under the 
age of 15, and the health of these children consistently lags behind 
other populations. For example, the SIDS rates among AI/AN infants are 
nearly twice that of the general population.
    AI/AN children are more than twice as likely to die in the first 
four years of life than the general population, and remain twice as 
likely to die through age 24.
    The rate of type 2 diabetes among AI/AN teens aged 15-19 has 
increased 109 percent since 1990.

                      CARDIOVASCULAR DISEASE (CVD)

    While the general U.S. population has seen a 50 percent decline in 
cardiovascular mortality, the AI/AN population rates are rapidly and 
dramatically increasing.
    CVD is the leading cause of death among AI/ANs and is double the 
rate of the general U.S. population.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of fiscal year 2007 
appropriations for Colorado River Basin salinity control program 
activities of the Bureau of Land Management. I urge that $5,200,000 be 
appropriated for the Bureau of Land Management for activities that 
benefit the control of salinity in the Colorado River Basin, and of 
that amount, $1,500,000 be marked specifically for the Colorado River 
Basin Salinity Control Program. In addition, I support the President's 
requested appropriation of $33,343,000 for the Land Resources 
Subactivity: Soil, Water, and Air Management, but request an increase 
of $700,000 in that amount to provide for the needed Colorado River 
Basin salinity control activities of the Bureau of Land Management.

                               STATEMENT

    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined all of the features needed to control the salinity of the 
Colorado River. Those features include activities by the cooperating 
States, the Bureau of Reclamation, the Department of Agriculture, and 
the Bureau of Land Management (BLM). The salinity control program has 
been adopted by the seven Colorado River Basin States and approved by 
the EPA as a part of each state's water quality standards. Also, water 
delivered to Mexico in the Colorado River is subject to Minute 242 of 
the U.S. treaty with Mexico that sets limits on the salinity of the 
water.
    About 75 percent of the land in the Colorado River basin is owned, 
administered or held in trust by the federal government. BLM is the 
largest landowner in the Colorado River Basin, and manages public lands 
that are heavily laden with salt. When salt-laden soils erode, the 
salts dissolve and remain in the river system, affecting the quality of 
water used from the Colorado River by the Lower Basin States and 
Mexico. BLM needs to target the expenditure of at least $5.2 million 
for activities in fiscal year 2007 that benefit salinity control in the 
Colorado River Basin. In addition, BLM needs to target the expenditure 
of $1,500,000 of the $5.2 million specifically for salinity control 
projects and technical investigations. Experience in past years has 
shown that BLM projects are among the most cost-effective of the 
salinity control projects.
    As one of the five principal Soil, Water and Air Management program 
activities, BLM needs to specifically target $5.2 million to activities 
that benefit the control of salinity on lands of the Colorado River 
Basin. In the past, BLM has allocated $800,000 of the Soil Water and 
Air Management appropriation for funding specific project proposals 
submitted by BLM staff to the BLM salinity control coordinator. 
However, some of that funding has been eliminated in recent years by 
budget rescissions or transfers to other uses to balance budget needs. 
Consequently, the $800,000 allocated by BLM from the Soil, Water and 
Air Management Subactivity for Colorado River Basin salinity control 
has been reduced, limiting the implementation of needed salinity 
control efforts. The recently released annual report of the federally 
chartered Colorado River Basin Salinity Control Advisory Council 
reports that BLM has identified projects that could utilize funding in 
the amount of $1.5 million for fiscal year 2007. Consequently, I 
request that $1.5 million of the Soil, Water and Air Management 
Subactivity be marked specifically for Colorado River Basin salinity 
control activities. Achieving this level of appropriation for the 
critically needed cost effective salinity control work by BLM may 
require an increase of $700,000 in the BLM budget request of 
$33,343,000 for the Soil, Water and Air Management Subactivity.
    I believe and support past federal legislation that finds that the 
federal government has a major and important responsibility with 
respect to controlling salt discharge from public lands. Congress has 
charged the federal agencies to proceed with programs to control the 
salinity of the Colorado River Basin with a strong mandate to seek out 
the most cost-effective solutions. BLM's rangeland improvement programs 
can lead to some of the most cost-effective salinity control measures 
available. In addition, these programs are environmentally acceptable 
and control erosion, increase grazing opportunities, produce dependable 
stream run-off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $330 million per year. For 
every increase of 30 milligrams per liter in salinity concentration in 
the waters of the Colorado River, an increase in damages of $75 million 
is experienced by the water users of the Colorado River Basin in the 
United States. Control of salinity is necessary for the Basin States, 
including New Mexico, to continue to develop their compact-apportioned 
waters of the Colorado River. The Basin States are proceeding with an 
independent program to control salt discharges to the Colorado River, 
in addition to up-front cost sharing with Bureau of Reclamation and 
Department of Agriculture salinity control programs. It is vitally 
important that BLM pursue salinity control projects within its 
jurisdiction to maintain the cost effectiveness of the program and the 
timely implementation of salinity control projects to avoid unnecessary 
damages in the United States and Mexico.
    At the urging of the Basin States, BLM has created a full time 
position to coordinate its activities among the BLM state offices and 
other federal agencies involved in implementation of the salinity 
control program. The BLM 2007 Budget Justification states that BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation and the U.S. Department 
of Agriculture and reports salt retention measures to implement and 
maintain salinity control measures of the federal salinity control 
program in the Colorado River Basin. BLM is to be commended for its 
commitment to cooperate and coordinate with the Basin States and other 
federal agencies. The Basin States and I are pleased with the BLM 
administration's responsiveness in addressing the need for renewed 
emphasis on its efforts to control salinity sources and to comply with 
BLM responsibilities pursuant to the Colorado River Basin Salinity 
Control Act, as amended. While it is commendable that BLM's budget 
focuses on ecosystems and watershed management, it is essential that 
funds be targeted on specific subactivities and the results of those 
expenditures reported. This is necessary for accountability and 
effectiveness of the use of the funds.
    I request the appropriation of at least $5.2 million in fiscal year 
2007 for Colorado River salinity control activities of BLM, and that 
$1,500,000 of that amount be marked specifically for the Colorado River 
Basin Salinity Control Program, including projects and technical 
investigations. In addition, I request the appropriation of a minimum 
of $33,343,000 for the Land Resources Subactivity: Soil, Water, and Air 
Management as requested by the President. However, I request that 
$34,043,000 be appropriated for the Land Resources Subactivity: Soil, 
Water, and Air Management to provide for the increase of $700,000 
needed for a total of $1.5 million marked specifically for Colorado 
River salinity control activities without causing any reduction of 
other activities funded from the Soil, Water and Air Management 
appropriation. I very much appreciate favorable consideration of these 
requests. I fully support the statement of the Colorado River Basin 
Salinity Control Forum submitted by Jack Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
                                 ______
                                 
Prepared Statement of Friends of Rachel Carson National Wildlife Refuge

    Mr. Chairman and Honorable Members of the Committee: On Behalf of 
the Friends of the Rachel Carson National Wildlife Refuge, I appreciate 
the opportunity to present this testimony in support of a $650,000 
appropriation from the Land and Water Conservation Fund for land 
acquisition within the Rachel Carson National Wildlife Refuge.
    The Rachel Carson NWR plays a critical role in land protection 
efforts in southern Maine, serving as an anchor around which numerous 
local conservation organizations focus their efforts to protect land 
along the river corridors that flow through the refuge to the sea. The 
refuge and its supporters are working to effectively stitch together 
conserved properties into a greenbelt for habitat and water quality 
protection and public enjoyment. Previous years' appropriations have 
allowed the USFWS to conserve several properties within the refuge at 
Biddeford Pool and Parson's Beach, providing an important buffer 
between the intense development pressure along the southern Maine coast 
and its fragile coastal estuaries. While significant acreage within the 
refuge is protected today, additional areas of concern remain in need 
of protection.
    Available for immediate acquisition from a willing landowner in 
fiscal year 2007 is the 49-acre Parsons Woods property, located in the 
Parson's Beach area of the refuge near Kennebunkport. Consisting of 
wooded uplands, the property lies immediately adjacent to existing 
refuge lands and land being acquired with previously appropriated 
funds. The Parson's Woods tract contains the headwaters of a tributary 
of the Little River, the bulk of which flows through existing refuge 
lands and empties into the Atlantic between Laudholm and Crescent Surf 
beaches. If acquired, this parcel will allow the refuge to protect 
important wildlife habitat and link it to already protected refuge 
lands. Located in a rapidly developing part of Maine, this acquisition 
offers the refuge an outstanding opportunity to conserve southern 
Maine's coastal landscape and further consolidate the fragile habitat 
that exists on the marshes, uplands, creeks, and the estuaries of the 
coast.
    The Friends of Rachel Carson National Wildlife Refuge is the 
longest standing Friends of the National Wildlife Refuge system groups 
in the northeast, voicing support for the acquisition and protection of 
lands vital to the health of the refuge and the communities of southern 
Maine. We are a 501c3 organization, and our board leadership represents 
all ten of the refuge's districts. Our local roots recognize and speak 
for the benefits the refuge brings to our southern Maine communities, 
the critical plant and animal habitat of our unique coast, and the 
generations of visitors to the Rachel Carson Wildlife Refuge.
    We are fast approaching the 100th anniversary of Rachel Carson's 
birth in May 2007, and urge you to ensure that her legacy of protection 
for critical coastal areas is honored through an appropriation to the 
refuge. Given the development pressures in this part of the state, the 
opportunity to permanently protect the Parsons Woods property only 
exists for a limited time. An appropriation of $650,000 for the Rachel 
Carson NWR in fiscal year 2007 will yield enormous public benefits for 
generations to come.
    Thank you for the opportunity to present this request.
                                 ______
                                 
            Prepared Statement of the Fort River Partnership

    Mr. Chairman and Honorable Members of the Committee, I appreciate 
the opportunity to present this testimony in support of a $2 million 
appropriation to the Fish and Wildlife Service from the Land and Water 
Conservation Fund (LWCF) for the Silvio O. Conte National Fish and 
Wildlife Refuge (Conte NFWR) in Massachusetts.
    The Fort River Partnership coordinates the work of federal, state, 
and nonprofit partners \1\ to protect wildlife habitat, working farms, 
and water quality in the Fort River region of the Connecticut River 
valley in Massachusetts. As a board member of Valley Land Fund I 
strongly support the efforts of the U.S. Fish and Wildlife Service to 
expand the Fort River Division of the Conte NFWR through land 
acquisitions that protect grassland bird habitat along and near the 
Fort River.
---------------------------------------------------------------------------
    \1\ The Fort River Partnership participants include representatives 
from the USFWS Conte NFWR, the Massachusetts Department of Conservation 
and Recreation, the Kestrel Trust, Valley Land Fund, Franklin Land 
Trust, the Conservation Fund, and the Trust for Public Land.
---------------------------------------------------------------------------
    Silvio O. Conte was a conservationist, fisherman, and champion of 
the Connecticut River who served as a U.S. Representative for 
Massachusetts' 1st District from 1959 until his death in 1991. Just 
before he died, Congressman Conte introduced legislation to establish a 
national wildlife refuge in the Connecticut River watershed, and his 
congressional colleagues paid tribute to his conservation legacy by 
authorizing the U.S. Fish and Wildlife Service (FWS) to establish the 
Silvio O. Conte National Fish and Wildlife Refuge in 1991. The refuge, 
officially established in 1997, protects native and endangered fish, 
wildlife, and plant species throughout the 7.2 million acre Connecticut 
River watershed, located in portions of Massachusetts, Connecticut, 
Vermont, and New Hampshire.
    Available for acquisition this year in the Conte NFWR in 
Massachusetts are three tracts in Hadley, that total 82 acres and 
complement the Refuge's recent acquisition of 23 acres nearby. These 
parcels are part of the Grasslands Complex Special Focus Area and are 
prized for their potential to provide habitat to grassland bird species 
such as the grasshopper sparrow, bobolink, and upland sandpiper, as 
well as for their frontage on the Fort River. The Fort River is the 
longest free-flowing tributary of the Connecticut River in 
Massachusetts.
    With roughly two and a half million people in the Connecticut River 
watershed, the threat from development poses a challenge to the mission 
of the refuge and the protection of the valley's resources. Hadley, a 
traditional farming town rich in prime soils, is increasingly facing 
the challenges of rising land values and loss of rural character. The 
addition of these parcels to the Refuge's Fort River Division will 
contribute strongly to the creation of a viable land base for grassland 
bird species and to the health of other critical Fort River species, 
including the federally endangered dwarf wedgemussel. Failure to 
protect these parcels will inevitably lead to housing developments in 
this sensitive area. The Select Board of the Town of Hadley has 
declared its support for the establishment and expansion of this 
Division. The FWS and its partners are working closely with local land 
trusts to ensure that the refuge additions are leveraged through local, 
state, and federal investments in farmland protection, creating a 
conservation mosaic in the focus area that preserves its rural, 
historic and scenic character and protects the quality of the town's 
drinking water aquifer.
    The estimated value of the Fort River Grasslands properties is $2 
million, which is part of a larger $4 million request to fund other 
conservation opportunities throughout the four Conte NFWR states in 
fiscal year 2007. The $2 million appropriation to protect these Fort 
River properties will allow the Conte NFWR to continue to provide 
valuable resource protection within the Connecticut River valley in 
Massachusetts.
    I respectfully request that you include an appropriation of $2 
million for the Silvio O. Conte NFWR in Massachusetts in the fiscal 
year 2007 Interior and Related Agencies Appropriations bill. I also 
support the request of the Friends of the Silvio O. Conte National Fish 
and Wildlife Refuge for a total of at least $4 million for the entire 
four-state refuge. This amount will help fund the $5.25 million in 
current high-priority Conte NFWR projects that are at risk of being 
lost in the Connecticut River watershed, a region comprising one sixth 
of New England's land mass and providing over 70 percent of the 
freshwater inflow to Long Island Sound.
    Thank you for your attention to this request.
                                 ______
                                 
Prepared Statement of Friends of the Silvio O. Conte National Fish and 
                            Wildlife Refuge

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $4 million 
appropriation to the Fish and Wildlife Service from the Land and Water 
Conservation Fund for the Silvio O. Conte National Fish and Wildlife 
Refuge. This amount will help fund the $5.25 million in current high-
priority Conte NFWR projects that are at risk of being lost in the 
Connecticut River watershed.
    The Friends of the Silvio O. Conte National Fish and Wildlife 
Refuge (SOC Friends) respectfully request your support for our fiscal 
year 2007 budget priorities. The pages that follow summarize our 
collective vision for what it will take in the fiscal year 2007 budget 
cycle to achieve the conservation results that the late congressman and 
champion of the Connecticut River, Silvio O. Conte, dreamed of. While 
$4 million will not fully fund all of the priority projects listed 
below, we hope that it will be sufficient to leverage additional 
funding to complete these projects if the Service has sufficient 
flexibility to apply the funds where they are most needed.
    Our unified request reflects the unique nature of the Silvio O. 
Conte National Fish and Wildlife Refuge, which encompasses 7.2 million 
acres in New England's largest watershed, comprising one sixth of New 
England's land mass and providing over 70 percent of the freshwater 
inflow to Long Island Sound. The Refuge's diverse natural habitats help 
it rank as the top refuge in the region in the U.S. Fish and Wildlife 
Service Land Acquisition Priority System. Uniting four states, 
encompassing nine congressional districts and a constituency of more 
than 2 million citizens, the Conte Refuge is a New England treasure 
that provides tremendous opportunity to create permanent public 
benefits.
    The SOC Friends group includes the following organizations: The 
Nature Conservancy; The Trust for Public Land; The Conservation Fund; 
Society for the Protection of New Hampshire Forests; Connecticut River 
Watershed Council; Appalachian Mountain Club; Northern Forest Alliance; 
Connecticut Audubon; New Hampshire Audubon; Massachusetts Audubon; 
National Audubon Society; Friends of the Discovery Center; Friends of 
Pondicherry; Nulhegan Gateway Association; and Fort River Partnership.
    As conservation partners with the U.S. Fish and Wildlife Service, 
we stand ready to help make Silvio Conte's vision a reality, and 
respectfully request the support of Congress in this effort.
    Our identified requests include:
    Connecticut.--Salmon River Division:
  --Cost: $2,000,000
  --Acreage: 289 acres
    The Salmon River division is comprised of a range of important 
natural features, including free-flowing rivers, thriving freshwater 
tidal marshes, forested wetlands, floodplain forests, and rare plant 
and animal species. The Elm Camp/Johnson property would be the first 
acquisition in this division and is a keystone property containing 
3,360 feet of frontage on Pine Brook, a high-quality stream that 
provides remarkable cold-water fish habitat; and 1,440 feet on the west 
bank of Salmon River, site of extensive state and federal efforts to 
restore anadromous fish runs, including the Atlantic salmon. Pine Brook 
is the only major Salmon tributary free of artificial barriers to 
migratory fish.
    Massachusetts.--Fort River Division:
  --Cost: $2,000,000
  --Acreage: 82 acres
    These parcels are prized for their potential to provide habitat to 
grassland bird species such as the grasshopper sparrow, bobolink, and 
upland sandpiper, and for more than a mile of frontage on the Fort 
River. The Fort River is the longest free-flowing tributary of the 
Connecticut River in Massachusetts, home to the federally-listed 
endangered dwarf wedgemussel and other rate mussels, fish, dragonflies, 
and turtles. At the center of a mosaic that includes over 600 acres of 
the protected farmland and new refuge holdings, these parcels are 
subject to development proposals that would drastically reduce the 
tremendous habitat potential of this rural landscape.
    New Hampshire--Ashuelot River Division:
  --Cost: $500,000
  --Acreage: 1,400 acres
    The Ashuelot River and its watershed are remarkable for their 
biodiversity and natural features, including: diverse freshwater 
wetlands, large unfragmented forest blocks, high quality wild brook 
trout streams, spawning habitat for anadromous fish, and rare species 
and natural communities, including the federally endangered dwarf wedge 
mussel. The subject property includes the headwaters of the high 
quality Roaring Brook stream system, and supports an exemplary wetland 
ecosystem containing a complex of emergent marsh, beaver flowages, 
scrub-shrub floodplain, riverbanks, and seepage swamps. Roaring Brook 
is a free-flowing tributary of the Ashuelot, supports a key Atlantic 
salmon stocking site, and provides excellent habitat for 63 species of 
birds and an abundance of other wildlife.
  --Pondicherry Division:
  --Cost: $180,000
  --Acreage: 98 acres
    Pondicherry was designated as a National Natural Landmark in 1974, 
and was recently designated as the first Important Bird Area in New 
Hampshire. The area has long been known to offer exceptional avian 
habitat supporting approximately 230 species of birds of which 125 
species have been confirmed as breeding. Species of particular 
conservation interest include common loon, northern harrier, sore, 
rusty blackbird, whip-poor-will, and American black duck. 20 species of 
reptiles and amphibians, 41 species of mammals, and 17 species of fish 
have also been documented to use the Pondicherry Refuge site. Recent 
ecological surveys have identified and documented a variety of 
exemplary natural communities including peat bogs, fens, deep emergent 
marshes, and increasingly threatened.
  --Mohawk River Division:
  --Cost: $320,000
  --Acreage:126 acres
    This River, located in New Hampshire's North Country is remarkable 
for its remote, boreal forests, rugged mountain peaks, abundant clear 
streams, lush wetlands, and rich lowland forests. Its habitats include 
mature conifer forests, mixed northern hardwoods, boreal peat bogs and 
freshwater wetlands. The Mohawk River provides nursery and rearing 
habitat for juvenile Atlantic salmon. It also provides high quality 
habitat for native brook trout.
    Vermont.--Nulhegan Division:
  --Cost: $250,000
  --Acreage: 116 acres
    The Nulhegan Basin includes a complex of bogs, freshwater wetlands 
and spruce forest. These habitats provide nesting areas for loon, 
hooded mergansers, black, ring-necked and wood ducks. The Nulhegan 
Basin supports the only viable population of spruce grouse in the 
Connecticut River Watershed. More than a dozen rare plants and animals 
are also known to occur in this area.
    On behalf of the SOC Friends, I respectfully request that you 
include an appropriation of $4 million for the Silvio O. Conte NFWR in 
the fiscal year 2007 Interior and Related Agencies Appropriations bill.
    I thank you in advance for your attention and your support as we 
endeavor to promote this investment in the natural and human 
environment.
                                 ______
                                 
             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $182 
million this past year in research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
research universities.
    Mr. Chairman, let me tell you about two projects we are pursuing at 
FSU. Our first project centers around the creation of a Coastal Marine 
Institute.
    Beach erosion and renourishment are critical issues in regions that 
are dependent on tourism and recreation. Florida's beaches and barrier 
islands protect $150 billion in coastal structures and infrastructure. 
Beach-related tourism generates approximately $40 billion in direct and 
indirect annual spending. More than half of Florida's sandy beaches are 
classified as critically eroding, the result of frequent storms, sea-
level rise, and the loss of sand sources due to coastal development. 
Recent hurricanes have drastically added to the erosion problem.
    To that end, Florida State University propose to create an MMS 
Florida Coastal Marine Institute (FCMI), for the purpose of bringing 
researchers on southeastern coastal marine environments together with 
MMS scientists on projects related to MMS' work on the marine resources 
of the outer continental shelf (OCS).
    Our work will predominantly entail research into the environmental 
effects of extracting OCS sand resources for beach renourishment in the 
Southeast. Sand for renourishment is nearly always sought offshore, 
where the extraction process is potentially disruptive to the marine 
environment. The state's beaches comprise a quarter of America's sandy 
shorelines. Beach renourishment is the principal tool employed in 
Florida to address coastal erosion. State government agencies alone 
spend about $30 million annually on beach renourishment-related 
activities. Similar amounts come from local sources and the federal 
government, for a total of nearly $100 million annually expended on 
beach restoration in Florida.
    The readily available sand resources close to shore are rapidly 
being depleted. OCS sand is being used more and more frequently for 
replenishing Florida's eroded beaches, on both coasts. Such use will 
accelerate in the future, as sources further and further offshore are 
tapped for sand.
    Research into the environmental effects of sand extraction is 
multi-faceted. The offshore resource itself needs to be quantified and 
evaluated. Environmentally sensitive zones on the shelf need to be 
identified. The potential biological and physical impact on offshore 
extraction sites needs to be carefully evaluated. The proposed Florida 
CMI would be a source of much-needed expertise into these issues. We 
are requesting $750,000 for this activity.
    Our second project involves the creation of a southeast regional 
Center to focus research on the long-term sources and fates of mercury 
delivered to the global atmosphere. We will focus on the most critical 
piece of the puzzle--gaseous elemental mercury. The Center will be 
partnered between Florida State University and Georgia Institute of 
Technology. FSU's Oceanography Department and Geochemistry Program of 
the National High Magnetic Field Lab excel in the collection and 
analyses of ultra-trace element chemistry and isotopes globally--
including mercury--in both atmospheric and aquatic environments. 
Georgia Tech's Schools of Earth & Atmospheric Sciences and Civil & 
Environmental Engineering have extensive national and international 
programs in urban photochemical chemistry, tracing of ``tailpipe'' and 
``smoke stack'' gases, and global atmospheric mapping of trace gases 
from research airplanes and satellites. The Center will be a component 
of the ``Geotraces'' program, a new international 10-year effort 
starting in 2006 to map for the first time the global distributions of 
ultra-trace elements and isotopes in the ocean.
    Mercury is one of two trace elements known to have a large source 
to the surface ocean via deposition from the atmosphere. Mercury is 
thus targeted by Geotraces. The source of lead is known to be 
tetraethyl-lead additives in gasoline (now banned in the United 
States). In south Florida, the anthropogenic lead source is European, 
the source of vapor mercury to the ocean's surface is unknown.
    Although there is agreement that the atmosphere dominates the 
transport pathways for mercury, there is controversy regarding what 
fraction of mercury entering lakes and rivers is natural vs. man-made 
and global vs. local. Most mercury emissions are in the northeast 
United States, yet most mercury deposition is in the southeast. 
Patterns of mercury in rainfall have been interpreted as both ``local 
source'' and ``global long-distance source''. Local, regional, and 
global distributions of gaseous elemental mercury are unknown yet 
elemental mercury is thought to represent the most important source of 
anthropogenic mercury to the atmosphere. Because of the critical 
importance of mercury emissions to ecosystem and human health, and 
because of the increasing reliance of America's electric power plants 
on coal, a concentrated and well-focused effort on the atmospheric 
portion of the mercury cycle is required. In order to correctly 
regulate the ``correct'' man-made source it is essential to establish a 
scientific basis for quantifying the global array of atmospheric 
sources. We are seeking $2,000,000 for this activity.
    Mr. Chairman, these are just two projects that Florida State 
University is working on that will have long reaching and positive 
outcomes for our country's future. Your consideration is greatly 
appreciated.
                                 ______
                                 
         Prepared Statement of the Friends of Westwater Canyon

    Mr. Chairman and Honorable Members of the Committee: The Friends of 
Westwater Canyon appreciates the opportunity to present this testimony 
in support of a $1.3 million appropriation from the Land and Water 
Conservation Fund for the second phase of the Westwater Ranch 
conservation project in the Colorado River Special Recreation 
Management Area.
    Westwater Canyon and Colorado River SMRA.--The Colorado River has 
carved some of nature's greatest wonders in its long and sometimes 
tortuous path: the Grand Canyon, the vanished but once hauntingly 
beautiful Glen Canyon and the fearsome waters of Cataract Canyon in 
Canyonlands National Park. Just as remarkable is Westwater Canyon in 
southeastern Utah, some 40 miles west of Grand Junction, Colorado and 
40 miles northeast of Moab, Utah.
    Visitors to Westwater Canyon experience a wild whitewater river, a 
truly unique contrast of land formations as well as a remote, 
prospering habitat for both plant and wildlife. Treasures unfold in the 
canyon: beautiful geologic formations, ephemeral streams and seeps, 
wildflowers, petroglyphs and potholes. Its cliffs are home to the 
endangered Peregrine Falcon, Golden and Bald Eagles, and Desert Bighorn 
sheep. The canyon's entrance hosts a unique Cottonwood-Willow forest--
one of the rarest forest types in the United States. Critical habitat 
is found here for endangered native Colorado River fishes: the Colorado 
Squawfish, Bonytail Chub, Humpback Chub and the Razorback Sucker.
    Westwater Canyon is located within the Westwater Canyon Wilderness 
Study Area and Bureau of Land Management's (BLM) Colorado River Special 
Recreation Management Area. The BLM Westwater Ranger Station, located 
on the Colorado River less than an hour's drive from both Moab, Utah 
and Grand Junction, Colorado, serves as both a takeout for many rafters 
coming downriver from the McInnis Canyons National Conservation Area 
(in Colorado) and a launching point for the whitewater trip through 
Westwater Canyon. This canyon is the first whitewater stretch of the 
Colorado River in Utah and is an exceedingly popular trip due to the 
canyon's relative proximity to metropolitan areas, its classic desert 
scenery, and numerous challenging rapids.
    Friends of Westwater Canyon.--The Friends of Westwater Canyon was 
incorporated as a non-profit organization in 1997 by community members 
to achieve a number of goals:
    1. Preserve the unique desert river canyon of Westwater,
    2. Educate the public as to qualities of Westwater Canyon,
    3. Work with the Bureau of Land Management to ensure Westwater 
Canyon is not impaired by development and indiscriminate destruction of 
its natural resources.
    The preservation of Westwater Canyon enjoys the ongoing support of 
many commercial and conservation organizations such as: the Utah Guides 
and Outfitters Association, Colorado Plateau River Guides Association, 
Colorado River Outfitters Association, Utah Rivers Council, Southern 
Utah Wilderness Alliance, American Rivers, Mineral Policy Center, 
Western Mining Action Project and Friends of Westwater Canyon. In 
addition, hundreds of individuals have taken action on behalf of 
Westwater Canyon.
    Support of LWCF Funding Request.--Available for acquisition in 
fiscal year 2007 is the second phase of a conservation easement on the 
1,100-acre Westwater Ranch at the mouth of Westwater Canyon on the 
Colorado River. The ranch is one of the largest remaining private 
parcels along the Colorado River between the McInnis Canyons NCA in 
Colorado and the Westwater Wilderness Study Area. The property has over 
three miles of river frontage, which is lined with cottonwood, willow 
and other riparian vegetation. For the thousands of rafters who put in 
at the BLM Ranger Station, located immediately upstream of Westwater 
Ranch, these three miles of river frontage on the ranch before entering 
Westwater Canyon itself are an important element of the recreational 
experience. Wildlife often observed on the ranch from the river include 
wild turkeys, deer and bald eagles, which frequently nest in the 
riparian corridor on the ranch property.
    New owners recently acquired the ranch and are working to restore 
the ranch to agricultural uses, including removal of invasive Russian 
knapweed and Tamarisk. BLM and The Trust for Public Land are now 
working with these new owners to protect the remainder of the ranch 
with the purchase of a conservation easement. In fiscal year 2006, Land 
and Water Conservation Funds were secured to protect 500 acres of the 
ranch.
    Without protection, this property faces an imminent threat from 
rural residential development. Protecting the ranch will provide scenic 
benefits along the Colorado River, provide the public with additional 
camping and recreational facilities at the current ranger station, and 
protect the area's unique richness of natural and recreational 
resources. I respectfully request you include an LWCF appropriation of 
$1.3 million in the fiscal year 2007 Interior and Related Agencies 
Appropriations bill to complete the acquisition of the remaining 
acreage of Westwater Ranch.
                                 ______
                                 
                Prepared Statement of Grand County, Utah

    Mr. Chairman and Honorable Members of the Committee: Grand County 
appreciates the opportunity to present this testimony in support of a 
$1.3 million appropriation from the Land and Water Conservation Fund 
for the second phase of the Westwater Ranch conservation easement 
project in the Colorado River Special Recreation Management Area.
    Grand County is located in eastern Utah with county seat in Moab, 
and population of approximately 8,700. The County contains some of the 
world's most spectacular scenery. Within its boundaries lie Arches and 
Canyonlands National Parks, Dead Horse Point State Park, Manti-La Sal 
National Forest, the Colorado River, and an abundance of Bureau of Land 
Management Recreation Areas. This region is an outdoor wonderland for 
hikers, bikers, sightseers, photography buffs, rafters, golfers, four 
wheel drive enthusiasts and much more. Moab, the county seat, is the 
only town in Utah located on the Colorado River.
    The County has always had deep ties to the Colorado River, having 
been named after the river when the County was founded in 1890 (and 
river was then known as the Grand River). Over its history, Grand 
County's economy has been greatly benefited by farming, ranching, 
mining, oil exploration and more recently, by tourism generated by the 
numerous natural resource and recreational and hunting opportunities in 
the area.
    The area along the Colorado River near BLM's Westwater Ranger 
Station is one of those important recreation and hunting areas in Grand 
County. We understand that funding provided by Congress in the fiscal 
year 2006 federal budget will allow for the first phase of a 
conservation easement to be acquired by BLM, which will protect a 
portion of the privately-owned Westwater Ranch. Additional funding of 
$1.3 million is being requested in the fiscal year 2007 budget for this 
Westwater Ranch conservation easement to be completed. The owners of 
Westwater Ranch have also indicated their willingness to sell a small 
portion of the ranch adjacent to the Ranger Station to BLM that would 
enable expansion of the public facilities at the Ranger Station.
    The purchase by BLM of a conservation easement on Westwater Ranch 
will enhance the visitor experience in Grand County by preservation of 
scenic values. The purchase of private land for expansion of BLM's 
Westwater Rnager Station will do much to ease congestion at the 
Station. Additionally, the acquisition of other private parcels located 
between the Utah/Colorado state line and the Westwater Ranger Station 
will resolve public access problems on existing roads with locked 
gates, with which we are very familiar.
    We strongly support an LWCF appropriation of $1.3 million in the 
fiscal year 2007 Interior and Related Agencies Appropriations bill, and 
BLM's plans to acquire a conservation easement on Westwater Ranch, 
lands adjacent to the existing Westwater Ranger Station for expansion 
of the public facilities, and acquisitions of selected lands along the 
Colorado River and upstream of the Station to protect the riverfront 
and provide for improved public access.
    Thank you for your consideration.
                                 ______
                                 
Prepared Statement of the Great Lakes Indian Fish & Wildlife Commission 
                                (GLIFWC)

 AGENCIES--BUREAU OF INDIAN AFFAIRS AND ENVIRONMENTAL PROTECTION AGENCY

    1. BIA TREATY RIGHTS PROTECTION/IMPLEMENTATION: $4,174,000 
($382,000 above fiscal year 2006 enacted).
    Agency/Program Line Item: Dept. of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that also funds the 1854 Authority.
---------------------------------------------------------------------------
    Funding Authorizations: Snyder Act, 25 U.S.C. Sec. 13; Indian Self-
Determination and Educational Assistance Act, 25 U.S.C. Sec. Sec. 450f 
and 450h; and the treaties between the United States and GLIFWC's 
member Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 491, Treaty 
of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 
10 Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    2. EPA ENVIRONMENTAL PROGRAMS AND MANAGEMENT: $300,000 (fiscal year 
2004 enacted).
    Agency/Program Line Item: Environmental Protection Agency, 
Environmental Programs and Management (funneled through the EPA's Great 
Lakes National Program Office).
    Funding Authorizations: Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    As Congress has recognized for over 20 years, funding for GLIFWC's 
conservation, natural resource protection, and law enforcement 
programs: (i) honors federal treaty obligations to eleven Ojibwe 
Tribes; and (ii) provides a wide range of associated public benefits. 
The lack of a secure funding base jeopardizes GLIFWC's ability to: (i) 
implement federal court orders and intergovernmental agreements 
governing the exercise of treaty-guaranteed hunting, fishing and 
gathering rights; and (ii) participate in cooperative management 
partnerships in Wisconsin, Michigan and Minnesota.
    1. BIA TREATY RIGHTS PROTECTION/IMPLEMENTATION: $4,174,000. As its 
primary Indian Self-Determination and Educational Assistance Act 
funding base, GLIFWC seeks to:
    a. Restore $157,000 in base funding lost over the last four years 
that is not included in the Administration's fiscal year 2007 budget 
proposal;
    b. Restore $75,000 of base funding for annual pay cost adjustments 
that the BIA routinely has not included in its budget request to 
Congress; and
    c. Provide $150,000 in additional base funding to sustain 
enhancements in conservation law enforcement and emergency services 
capabilities.
    2. EPA ENVIRONMENTAL PROGRAMS AND MANAGEMENT: $300,000. As an EPA 
funding base for its primary environmental program elements, GLIFWC 
seeks to:
    a. Provide $189,700 for basic scientific/technical capabilities to: 
(i) continue participation in a number of Great Lakes initiatives 
(including the Binational Program to Restore and Protect Lake Superior, 
the Lake Superior Lakewide Management Plan (LaMP), and the Great Lakes 
Regional Collaboration); (ii) carry out habitat and human-health 
related research; and (iii) provide the requisite analysis and data to 
support participation in regional initiatives and to assess the impact 
of particular projects on tribal treaty rights.
    b. Provide $110,300 to undertake three habitat and human health-
related research projects regarding: (i) GLIFWC's fish consumption 
mercury advisory program; (ii) ceded territory sulfide mining site 
evaluation and monitoring; and (iii) a Lake Superior herring 
contaminant assessment.

       CEDED TERRITORY TREATY RIGHTS--GLIFWC'S ROLE AND PROGRAMS

    Established in 1984, GLIFWC is a natural resources management 
agency for its 11 member Ojibwe Tribes regarding their ceded territory 
(off-reservation) hunting, fishing and gathering treaty rights. Its 
mission is twofold:
  --Ensure that its member Tribes are able to exercise their rights for 
        the purposes of meeting subsistence, economic, cultural, 
        medicinal, and spiritual needs; and
  --Ensure a healthy, sustainable natural resource base that supports 
        those rights.
    GLIFWC is a ``tribal organization'' within the meaning of the 
Indian Self-Determination and Educational Assistance Act (Public Law 
93-638). It is governed by a Constitution developed and ratified by its 
member Tribes and by a board comprised of the Chairs of those Tribes.
    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists.
    Its activities include: (i) natural resource population assessments 
and studies; (ii) harvest monitoring and reporting; (iii) enforcement 
of tribal conservation codes in tribal courts; (iv) funding for tribal 
courts and tribal registration/permit stations; (v) development of 
natural resource management plans and tribal regulations; (vi) 
negotiation and implementation of agreements with state, federal and 
local agencies; (vii) invasive species eradication and control 
projects; (viii) biological and scientific research, including fish 
contaminant testing; and (ix) development and dissemination of public 
information materials.

               JUSTIFICATION & USE OF THE REQUESTED FUNDS

    For over 20 years, Congress has recognized GLIFWC as a cost 
efficient agency that plays a necessary role in: (i) meeting specific 
federal treaty and statutory obligations toward GLIFWC's member Tribes; 
(ii) fulfilling conservation, habitat protection, and law enforcement 
functions required by federal court decisions affirming the Tribes' 
treaty rights; (iii) effectively regulating harvests of natural 
resources shared among the treaty signatory Tribes; and (iv) serving as 
an active partner with state, federal and local governments, with 
educational institutions, and with conservation organizations and other 
non-profit agencies.
    Particularly relevant to the requested EPA funds, Tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded.
    With the requested stable funding base, GLIFWC will:
    1. MAINTAIN ITS CORE CAPABILITIES TO CONSERVE NATURAL RESOURCES AND 
TO REGULATE TREATY HARVESTS: As was the case with the BIA funding base 
provided by Congress for the past 5 years, GLIFWC would: (i) restore 
program cuts caused by chronic under-funding; \3\ (ii) provide cost-of-
living pay increases to staff; \4\ and (iii) solidify law enforcement 
and emergency response infrastructure improvements that have been 
instituted with a combination of BIA and U.S. Department of Justice 
COPS funds.\5\
---------------------------------------------------------------------------
    \3\ For example, the previously restored funding base was used to: 
(i) reinstitute fall juvenile walleye recruitment surveys to previous 
levels; (ii) restore tribal court and registration station funding 
cuts; (iii) restore Lake Superior lamprey control and whitefish 
assessment programs; (iv) restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects; (v) replace aging 
equipment; (vi) meet expanding harvest monitoring needs; and (vii) meet 
uncontrollable increases in employee benefit costs.
    \4\ Since fiscal year 2002, the Administration has not included 
funding for GLIFWC employee cost of living pay adjustments in GLIFWC's 
base funding levels. Failure to include these adjustments in succeeding 
budgets negates their very purpose and results in recurring de facto 
budget cuts if the adjusted salaries are to be paid in subsequent 
years.
    \5\ GLIFWC has: (i) upgraded its patrol capabilities with new 
vehicles, boats, snowmobiles, and off-road vehicles; (ii) increased 
officer medical training and upgraded first aid equipment; (iii) 
upgraded its radio systems to be compatible with surrounding agencies; 
and (iv) established ongoing joint training with federal, state, and 
local agencies.
---------------------------------------------------------------------------
    2. REMAIN A TRUSTED ENVIRONMENTAL MANAGEMENT PARTNER AND SCIENTIFIC 
CONTRIBUTOR IN THE GREAT LAKES REGION: With the requested EPA funding 
base, GLIFWC would maintain its ability to bring a tribal perspective 
to the interjurisdictional mix of Great Lakes managers.\6\ It also 
would use its scientific expertise to study issues and geographic areas 
that are important to its member Tribes but that others may not be 
examining.\7\
---------------------------------------------------------------------------
    \6\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Regional 
Collaboration, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \7\ With the requested fiscal year 2007 EPA funds, GLIFWC would: 
(i) continue its long-standing program to collect and test fish for 
mercury and to communicate testing results through health care 
providers and GIS maps; (ii) assess the impacts of contaminants leaking 
from a closed mine in Wisconsin; (iii) conduct water testing and 
baseline monitoring of heavy metals in the area of a proposed sulfide 
mine in Michigan's Upper Peninsula near pristine Lake Superior 
tributaries where native coaster brook trout spawn; and (iv) assess 
mercury, PCB and organochlorine levels in Lake Superior herring, the 
second most commercially-harvested fish in the U.S. waters of Lake 
Superior.
---------------------------------------------------------------------------
    The lack of a secure, ongoing EPA funding base jeopardizes GLIFWC's 
role as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. The federal government's treaty 
obligations to GLIFWC's member Tribes compel more than the mere 
opportunity to compete for a diminishing patchwork of discretionary EPA 
grants. This is particularly true given important current initiatives 
such as the Great Lakes Regional Collaboration in which GLIFWC 
participates as a full partner.
    3. MAINTAIN THE OVERALL PUBLIC BENEFITS THAT DERIVE FROM ITS 
PROGRAMS: Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member Tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    Over the past 20 years, GLIFWC has built many partnerships that: 
(i) provide accurate information and data to counter social 
misconceptions about tribal treaty harvests and the status of ceded 
territory natural resources; (ii) maximize each partner's financial 
resources; (iii) avoid duplication of effort and costs; (iv) engender 
cooperation rather than competition; and (v) undertake projects and 
achieve public benefits that no one partner could accomplish alone.

                 OTHER RELATED APPROPRIATIONS CONCERNS

    1. Fully Funded BIA Contract Support Costs: Since 1995, GLIFWC has 
experienced a $372,000 shortfall in contract support costs despite its 
historically low indirect cost rates that never exceeded 15.25 percent. 
This is unsustainable and, when combined with increased administrative 
costs, will force GLIFWC to increase its fiscal year 2006 rate by over 
3 percent from its fiscal year 2005 rate.
    2. BIA Circle of Flight Tribal Wetland & Waterfowl Initiative: Once 
again, Congress should fully fund this long-standing tribal 
contribution to the North American Waterfowl Management Plan that the 
Administration again proposes to eliminate.
                                 ______
                                 
            Prepared Statement of the Great Lakes Task Force

    As members of the Great Lakes delegation, we are writing to express 
our strong support for the many programs in the Department of Interior, 
the Environmental Protection Agency, and the Agency for Toxic 
Substances & Disease Registry that protect the human health as well as 
fish and wildlife resources in the Great Lakes. In particular, we ask 
that you consider the following requests.
  --We urge the Committee to provide the fully authorized amount of 
        funding ($54 million) for the Great Lakes Legacy Program.
    The Great Lakes are plagued by contaminants from years of 
industrial pollution that have settled into the sediments of 
tributaries to the lakes. These pollutants degrade the health of both 
humans and wildlife. The worst of these polluted areas are known as 
Areas of Concern (AOC). The Great Lakes Legacy Act was enacted in 2002 
in order for the EPA to clean-up contaminated sediments in the Great 
Lakes. The Great Lakes Legacy program will provide funds to the EPA in 
order to address contaminated sediments at AOCs, and we support funding 
at the fully authorized amount ($54 million) for the Great Lakes Legacy 
program as well as language to allow the life of these funds to extend 
beyond 2 years. The EPA completed the first Legacy project in November 
of 2005, and of the four projects that have received funding, EPA 
estimates that over 1.2 million cubic yards of contaminated sediment 
will be removed. This program represents how federal funding can 
leverage significant private funds. Although the President's budget 
requested $50 million in fiscal year 2006, the program received $30.0 
million, and the President included $49.60 million in his proposed 
budget for fiscal year 2007.
  --We urge the Committee to provide $4 million for the Fish and 
        Wildlife Service (FWS) Great Lakes Fish and Wildlife 
        Restoration Program with language directing at least $2 million 
        towards the grant program established by the Great Lakes Fish 
        and Wildlife Restoration Act of 1998.
    The Great Lakes Fish and Wildlife Restoration Act calls for the 
implementation of proposals to restore the fish and wildlife resources 
in the Great Lakes Basin based on the Great Lakes Fishery Restoration 
Study and authorizes grants to encourage cooperative conservation, 
restoration and management of the fish and wildlife resources and their 
habitat in the Great Lakes Basin. The Fish and Wildlife Service will 
only be able to implement restoration projects and meet the purposes of 
the Act if funding is provided for the continuation of the FWS Great 
Lakes Regional Offices (authorized at $3.5 million) and for the grants 
program to implement restoration projects (authorized at $4.5 million). 
In fiscal year 2006, $1.27 million was appropriated for the FWS 
Regional Offices and $500,000 for the grants program, and the fiscal 
year 2007 budget proposes $1.27 million for the Regional Offices.
  --We request that the Committee provide $25 million for EPA's Great 
        Lakes National Program Office.
    The Great Lakes National Program Office (GLNPO) is responsible for 
overseeing the U.S. commitment to the U.S.-Canadian Great Lakes Water 
Quality Agreement, establishing a Great Lakes system-wide surveillance 
network to monitor water quality, serving as the liaison with the 
International Joint Commission, and coordinating EPA's Great Lakes 
activities as well as coordinating those activities with other Federal, 
State and Local authorities. Additionally, GLNPO is responsible for 
implementing the Great Lakes Legacy Program, and it has considerable 
responsibility for implementing Executive Order 13340 which was signed 
in an effort to improve coordination of all of the federal Great Lakes 
programs. GLNPO carries out a program that combines research and 
monitoring with education and outreach, and supports grants for 
specific activities to enhance and protect the Great Lakes environment. 
Approximately 60 percent of GLNPO's budget is allocated towards making 
grants and cooperative agreements to organizations in the state, 
tribal, or local sector. GLNPO received $22.072 million in fiscal year 
2006, and the fiscal year 2007 proposed budget provides $20.571, a $1.5 
million decrease. To meet the growing demand for work on the Great 
Lakes, $5 million in additional funding is needed
  --We support the Administration's request for $10 million for the 
        BEACH Act.
    Each year state, local and tribal health and environmental 
protection agencies monitor the quality of water at our nation's 
beaches. When measured bacteria levels in the water are too high, these 
agencies notify the public of beach warnings or closings. State and 
local monitoring and notification programs differ across the country 
and provide varying levels of swimmer protection. In an effort to 
improve water quality testing at the beach and public notification when 
water quality problems exist, the Beaches Environmental Assessment and 
Coastal Health Act (BEACH Act) authorizes EPA to award grants to 
states, tribes, and territories to develop and implement beach water 
quality monitoring programs at coastal and Great Lakes recreational 
waters near beaches. These grants also provide support for the 
development and implementation of programs to reduce the risk of 
exposure to disease-causing microorganisms in the water to users of the 
Nation's beaches. There is a great demand for these grants throughout 
the Great Lakes states, and we support the Administration's request for 
funds.
    The work carried out by the EPA, FWS and USGS is of critical 
importance to the sustainability of the Great Lakes' natural resources. 
We urge the Committee to carefully consider these requests and thank 
you for your attention to this matter. If you have questions, please 
contact Joy Mulinex at 224-1211.
                                 ______
                                 
              Prepared Statement of the Glacier Park, Inc.

    The purpose of this statement is to bring to your attention a very 
unfair amendment inserted into the 2005 Interior Appropriation Bill and 
continues today, and done so in secrecy and without congressional 
hearings, or concessionaires' knowledge. In-other-words, done through 
the back door, undercover, and most importantly, in violation of the 
National Parks Omnibus Management Act of 1998 known as Public Law 105-
391. The violating amendment is known as the ``De Novo'' Amendment. 
Public Law 105-391 allows for binding arbitration between the National 
Park Service and concessionaires if a dispute arise over the value of 
the concessionaire's assets. With the ``De Novo'' Amendment only the 
park service has the right to take the arbitrators ruling to the Court 
of Federal Claims for another ruling, which violates ``Binding 
Arbitration.'' It is totally unfair that concessionaires must respect 
the law, but the government (National Park Service) has a second chance 
to possibly get a more favorable ruling. This Amendment is one-sided, 
unfair and unethical. This Amendment must be eliminated and prevented 
from happening again. The 2007 Interior Appropriation Bill is underway 
now and I ask that you do all in your power to speak out against this 
type of unfair action and vote against any further ``De Novo'' 
Amendment.
    Thanks in advance for your immediate action before it's too late! I 
appreciate your help and your consideration for fairness.
                                 ______
                                 
          Prepared Statement of the Gallatin Valley Land Trust

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Gallatin Valley Land Trust, I appreciate the opportunity to present 
this testimony in support of a $1.6 million appropriation from the Land 
and Water Conservation Fund for the second phase of the Bozeman Pass 
(Schmidt) conservation project in the Gallatin National Forest.
    Gallatin Valley Land Trust (GVLT) is a nonprofit land trust that 
serves Gallatin, Park, Madison, Jefferson, Broadwater and Meagher 
counties in Montana. Founded in 1995, GVLT has worked with willing 
landowners to secure conservation easements over 25,000 acres of land 
that provides exceptional habitat, unspoiled scenery, and protection of 
water and soil resources. Additionally, GVLT has been the catalyst 
behind a 45 mile long public trail system in the Bozeman area. In the 
heart of our service area, Gallatin County is the fastest growing 
county in Montana, and still is a vital part of the Greater Yellowstone 
Ecosystem (GYE). Conservation and responsible use of our spectacular 
natural resources is also fundamental to our region's continued 
economic development. I write to seek your support for the permanent 
conservation of a very critical element of that ecosystem and one of 
GVLT's highest priority projects.
    Remarkably diverse, the GYE provides some of the best wildlife 
habitat in the country, including home for one of the last viable 
grizzly bear populations in the lower 48 states. It hosts the largest 
elk and free-roaming bison herds in North America, and provides the 
only U.S. wintering ground for the rare trumpeter swan. Wolverines, 
lynx, fishers, and martens still roam the GYE's mountains, as do 
bighorn sheep, black bears, and mountain goats. Other flourishing 
species include pronghorn antelope, wolves, moose, mountain lions, mule 
deer, beavers, coyotes, osprey, bald eagles, and peregrine falcons. The 
rich biological diversity of the GYE is truly exceptional--nowhere else 
in the lower 48 states can you find a large and relatively intact 
ecosystem containing nearly all the living organisms present in pre-
Columbian times.
    In addition to its impressive wildlife values, the GYE offers some 
of the best recreational opportunities in North America. Its fisheries 
are world-renowned and attract fly fishers from all over the globe. Big 
game hunting opportunities are abundant. In addition to these sporting 
opportunities, the GYE offers a wide range of backcountry recreational 
opportunities including skiing, snowshoeing, snowmobiling, hiking, 
camping, whitewater rafting, horseback riding, and wildlife viewing.
    Available for acquisition in the GYE in fiscal year 2007 is the 
second phase of the 2,055-acre Schmidt property. Located five miles 
east of downtown Bozeman and straddling Interstate 90 between the Bear 
Canyon and Trail Creek exits, this property has become available for 
protection through a combination of fee and conservation easement 
acquisitions. Montana Fish, Wildlife & Parks (MFWP) has called this 
project one of the most unique and important acquisitions for wildlife 
and its habitat to be proposed in the Gallatin Valley, largely due to 
the property's strategic location between the Gallatin Mountains to the 
south and the Bridger/Bangtail Mountains to the north, its close 
proximity to downtown Bozeman and I-90, and its high subdivision value.
    This project conserves important habitat and connects existing 
protected habitat for a wide range of species. A recent study shows 
that one of the most important highway crossing points for wildlife in 
the Bozeman Pass area is located between the Bear Canyon and Trail 
Creek exits and that this area offers the best route for connectivity 
between secure habitats on either side of the interstate. Three large 
properties, covering almost 1,100 acres, have already been protected 
adjacent to the Schmidt property through donated conservation 
easements. Completing this project will ensure that a fivesquare-mile, 
contiguous block of wildlife corridor between the two mountain ranges 
will be permanently protected.
    In the coming months, approximately 250 acres in the first phase of 
the project will be purchased and conveyed to the Forest Service using 
an appropriation of $1.0 million from fiscal year 2006. Another 390 
acres are available for purchase this year in the second phase of the 
project. If these acres are successfully acquired, another 175 acres 
will be donated to the Forest Service outright. An additional 1,240 
acres will also be conserved through a conservation easement to be 
purchased by Gallatin County and conveyed to the Gallatin Valley Land 
Trust for long-term monitoring and enforcement. Sufficient non-federal 
funding for this easement purchase has already been secured. While 
funding from the Land and Water Conservation Fund will be used to 
purchase only 640 acres, it will ultimately be responsible for 
triggering the permanent conservation of almost 2,100 acres.
    The project will also provide significant public access benefits. A 
new trail easement is included which would allow a new public trail to 
be built, starting at the Trail Creek Road on the south side of 
Interstate 90 and leading up to the 640 acres that would be conveyed to 
the Forest Service as part of this project and to existing National 
Forest lands beyond. It also includes guaranteed public access to a 
popular local rock climbing area, which would be donated to the Forest 
Service.
    Given its spectacular views of the Gallatin Valley and the Bridger 
Mountains, its gently sloping terrain and its close proximity to 
downtown Bozeman, the Schmidt property is extremely vulnerable to 
development. If full-scale development were ever allowed to occur on 
this property, critical wildlife habitat and scenic open space would be 
lost forever.
    An appropriation of $1.6 million in fiscal year 2007 from the Land 
and Water Conservation Fund will leverage more than $4 million worth of 
additional conservation and recreation benefits (paid for entirely with 
nonfederal dollars) and ensure that 2,055 acres are permanently 
conserved.
    I respectfully request that you include an appropriation of $1.6 
million for the final phase of the Bozeman Pass (Schmidt) conservation 
project in the Gallatin National Forest in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for your attention to this request.
                                 ______
                                 
    Prepared Statement of the Grand Valley Water Users' Association

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
       Prepared Statement of the Gathering Waterways Conservancy

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present testimony for you today. On 
behalf of the land trusts of Wisconsin, Gathering Waters Conservancy 
supports the appropriation of $2.5 million from the Land and Water 
Conservation Fund for acquisition projects in the Chequamegon-Nicolet 
National Forest in Wisconsin.
    The beauty and ecological importance of this area are impressive. 
And with the number of lakes, and trails, the Chequamegon-Nicolet 
National Forest provides some of the best recreational opportunities in 
the country. We now have the opportunity to acquire two additional 
tracks, totaling 1,390 acres: Venison Creek and Indian Farms. This will 
continue the success of this landscape as an area where people can 
hike, camp, hunt, and ski.
    The protection of this area has been well-supported in the past. 
The Forest Service's Wild Wisconsin Waterways program recognizes the 
special value of Wisconsin's northern forests. This program works to 
protect undeveloped properties along lakes and rivers to enhance 
natural resources and to provide areas for recreation. Congress has 
provided annual funding for land protection through the Wild Wisconsin 
Waterways program through the Land and Water Conservation Fund. So far, 
8,500 acres have been protected. This year, Congress has the 
opportunity to fund the acquisition of two additional parcels of land.
    The acquisition of this property has already been a model of 
private-public partnerships. When Plum Creek decided to sell the land, 
the Rocky Mountain Elk Foundation stepped up and agreed to purchase and 
hold the property for one year while funds are secured through the Land 
and Water Conservation Fund. An appropriation by Congress of $2.5 
million will protect these properties in the Chequamegon-Nicolet 
National Forest and ensure the continued success of the Wild Wisconsin 
Waterways program.
    Thank you for your consideration of this testimony! We hope that 
you will help us save special places for the future by funding the 
acquisition of Venison Creek and Indian Farms.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition

    On behalf of the regional Board of the Highlands Coalition, which 
includes over 150 organizations working together to conserve priority 
lands in the Highlands region of CT, NY, NJ, and PA, we would like to 
thank you for the opportunity to comment on the fiscal year 2007 
Department of the Interior, Environment and Related Agencies 
Appropriations bill.
    Our top priorities include:
  --$11 million for the Highlands Conservation Act, including $10 
        million for land conservation partnership projects through the 
        U.S. Fish & Wildlife Service, and $1 million for USDA Forest 
        Service technical assistance and research programs in the 
        Highlands; and
  --$80 million for the Forest Legacy program, including $1.22 million 
        for Skiff Mountain--phase II (CT), $2.1 million for Sparta 
        Mountain South--phase II (NJ), and $300,000 for Birdsboro 
        Waters (PA).

                       HIGHLANDS CONSERVATION ACT

    In the fall of 2004, Congress enacted and President Bush signed the 
Highlands Conservation Act, recognizing the national significance of 
the more than three-million acre Highlands region as a source of 
drinking water, productive forests and farms, wildlife habitat and 
recreation within an hour of major metropolitan areas including 
Philadelphia, New York City and Hartford. The Act authorized $10 
million annually to assist the Highlands states in conserving priority 
lands from willing landowners, and to continue USDA Forest Service 
research and assistance to private landowners in the Highlands. Under 
the Act, the states are required to match federal funds for land 
conservation partnership projects on an equal basis to greater leverage 
these funds.
    In his budget for fiscal year 2007, President Bush has included $2 
million for the Highlands Conservation Act (HCA), through the Fish & 
Wildlife Service, to support land conservation partnership projects in 
the four Highland states of Pennsylvania, New Jersey, New York and 
Connecticut. The Governors of the four Highlands States have jointly 
submitted projects totaling $10 million in need to the Department of 
the Interior for funding in fiscal year 2007, including:
Litchfield Farms (CT)
    Cost: $10,000,000
    HCA Request: $2,500,000
    Size: 753 Acres
    Matching Funds: State of Connecticut; Town of Litchfield; private 
donations
    Description: The State of Connecticut requests funds for Litchfield 
Farms which contains large areas of wetlands, prime agricultural soils, 
and diverse forests. The site hosts a known state-listed endangered 
species and contains several vernal pools. Litchfield Farms lies within 
both the Bantam and the Naugatuck watersheds. All waterways on the 
property that drain into the Bantam River are AA, or the highest-level 
water quality. Elevations on the property reach up to 1,300 feet making 
it one of the highest points in Litchfield. Preservation of this 
property would provide ridgeline and scenic vista protection for both 
the towns of Torrington and Litchfield.
Wyanokie Highlands (NJ)
    Cost: $7,700,000 HCA
    Request: $2,500,000
    Size: Four parcels totaling 1,288 Acres
    Description: New Jersey requests funds for this focal area which is 
ranked highly due to its value for water resources and recreation, and 
secondarily for biodiversity and forest land. The Wyanokie Highlands 
form the headwaters of Burnt Meadow and West Brooks that flow into 
North Jersey's Wanaque Reservoir, which provides drinking water for 
nearly two million NJ residents. These acquisitions will help complete 
a critical greenway in the Wyanokies linking Long Pond Ironworks State 
Park with Norvin Green State Forest. These parcels are the largest 
portion of the missing link and include waterways of exceptional 
ecological significance, which drain into the Wanaque Reservoir.
Oley Hills (PA)
    Cost: $5,000,000
    HCA Request: $2,500,000
    Size: 2,263
    Description: The Oley Hills is a Critical Treasure within the 
Highlands Region. This assemblage of properties is located within the 
Oley Hills core conservation area of the Reading Prong, the geologic 
formation that lies at the heart of the Pennsylvania Highlands. The 
Oley Hills project encompasses three state-designated ``Exceptional 
Value'' streams (the Pine, Oysterville, and Saucony creeks). These 
pristine waterways provide drinking water to the surrounding 
communities, and important water quality protection for the Schuylkill 
River, Pennsylvania's first designated Scenic River and the spine of 
the Schuylkill River Heritage Corridor. The Oley Hills are known to 
provide habitat that supports substantial populations of the endangered 
Bog Turtle. The area also contains sweeping scenic vistas of the 
Highlands Region and woodlands that are exceedingly rare in southeast 
Pennsylvania.
Great Swamp and Sterling Forest Areas (NY)
    Cost: $10,600,000
    HCA Request: $2,500,000
    Size: 1,300 Acres
    Description.--Great Swamp: New York State requests funds to assist 
in the acquisition of properties that will further protect the Great 
Swamp, one of New York's most important wetland complexes and the 
largest and highest quality red maple hardwood swamp in the State. It 
also contains breeding habitat for more than 80 bird species and 
migratory habitat for more than 150 species of waterfowl and other 
birds. The Great Swamp also contains a south flowing section based on 
the East Branch Croton River, a critical part of New York City's water 
supply system; and a north flow section based on the Swamp River which 
flows into the Housatonic and, ultimately, to Long Island Sound.
    Arrow Park: New York requests funds to assist in the acquisition of 
an addition to Sterling Forest State Park. The Arrow Park property is 
situated adjacent to the northeastern corner of Sterling Forest State 
Park and in close proximity to the Appalachian National Scenic Trail. 
The property contains a highly scenic lake, woodlands and wetlands, as 
well as significant frontage on Orange Turnpike. Portions of the 
property were acquired in 2002 as additions to the Park, while the 
disposition of the remaining 350 acres was being considered by the 
owners.
    The USDA Forest Service has been a valuable partner and catalyst in 
the region and $1 million is needed to allow the Forest Service to 
continue the expansion of the NY-NJ Highlands Regional Study to 
Pennsylvania and Connecticut, and to provide increased technical 
assistance to private landowners and local communities to advance 
stewardship and management of priority lands in the region.

                   FOREST LEGACY PROGRAM AND PROJECTS

    We also support funding for critical Forest Legacy projects in the 
Highlands region including: $1.22 million for Skiff Mountain (phase 
II)--Connecticut, $2.1 million for Sparta Mountain South (phase II)--
New Jersey, and $300,000 for Birdsboro Waters--Pennsylvania. In order 
to ensure that there is adequate program funding for these critical 
projects in the Highlands, we urge your support for funding Forest 
Legacy at $80 million in fiscal year 2007.
Skiff Mountain (CT)
    $1.22 million in Legacy funding requested for phase II
    Conservation easement on 510 acres
    $1.2 million provided in fiscal year 2006 for easement on 427 acres
    Innovative project involving 8 contiguous landowners
    Directly abuts Appalachian Trail & 5,000 protected acres
Sparta Mountain South (NJ)
    $2.1 million in Legacy funding requested for phase II
    Conservation easement on 800 acres, 200 acres in fee
    $1.8 million provided in fiscal year 2006--easement on 1,200 acres
    Key linkage between state parks and wildlife areas
    Recent development on adjacent parcels
Birdsboro Waters (PA)
    $300,000 requested in the President's budget
    Funding would complete $2.3 million project
    Conservation easement on 1,958 acres
    $500,000 received in fiscal year 2005 from PA startup funds
    Exceptional Value Watershed, Class A trout stream
    Part of larger 12,000 acre block of contiguous forest
    Finally, we are very concerned about the proposed cuts to the Land 
& Water Conservation Fund, which is slated to receive only $85 million 
in the President's budget, which would be the lowest level of funding 
in over three decades. Without adequate funding to the Highlands 
Conservation Act, Forest Legacy Program and Land & Water Conservation 
Fund, precious natural treasures of the Highlands may be developed and 
lost to conservation forever.
    Thank you again for considering our comments on the fiscal year 
2007 Interior, Environment and Related Agencies Appropriations bill.
                                 ______
                                 
            Prepared Statement of the Hualapai Indian Tribe

    As the Chairman of the Hualapai Indian Tribe, I am writing to 
request your immediate attention concerning the inequity which exists 
with respect to the administration of the. Clean Water Act's (CWA's) 
Section 106--Water Pollution Control Program for Indian Tribes. The 
1987 Clean Water Act Amendments (i.e., Section 518 of the Clean Water 
Act, 33 U.S.C. 1251 et seq.) added a new section titled ``Indian 
Tribes'' which authorizes the U.S. Environmental Protection Agency 
(EPA) to treat Federally recognized Indian Tribes as States for certain 
provisions, including financial assistance under such programs as the 
Water Pollution Control Program. Section 518 is commonly known as the 
``Treatment as a State (TAS) section'', and it would be an appropriate 
name for this section if in fact Indian Tribes were treated as States 
with respect to equity of funding.
    Currently, once an Indian Tribe qualifies to be treated as a State, 
it can receive Section 106 funds from EPA to administer its own water 
pollution control program. A few examples of the type of activities 
which are funded under Section 106 include:
  --Developing water quality management plans;
  --Hiring staff and purchasing equipment;
  --Conducting water quality monitoring;
  --Establishing water quality standards; and
  --Developing and administering Nonpoint Source and National Pollutant 
        Discharge Elimination System (NPDES) Permit Programs.
    The inequity exists in the way, the EPA allocates Section 106 funds 
to Indian Tribes and the amount of funding which tribes receive.
    States receive Section 106 funds from EPA through an EPA funding 
formula which establishes funding targets for each state and territory 
of the United States (see Enclosures--Section 106 Funding Targets for 
Fiscal Years 2004-2006). These funding targets do not vary 
significantly from year to year especially since states and territories 
would not be able to maintain staffing levels if program funding were 
to be drastically reduced.
    Individual Indian Tribes on the other hand do not have funding 
targets provided by EPA once they have qualified to be treated as a 
State. Instead, Indian Tribes are required by EPA to play a guessing 
game on how much funding they will receive through Section 106 each 
year.
    The EPA has developed a funding formula which is used to allocate 
funds to each of the appropriate EPA Regional Offices and these 
allocated amounts appear as Tribal Set-Asides (see Enclosures). Region 
9 now has ninety-seven (97) Sec. 106 TAS Tribes. This more than likely 
will mean that my Tribe's Section 106 grant award for the coming fiscal 
year will be significantly reduced which could have severe negative 
impacts upon our Hualapai Water Pollution Control Program such as 
having to lay off key environmental program staff and delaying the 
implementation of the monitoring of our water quality standards 
attainment.
    If we were to be really treated as a state, we would have a funding 
target which would assure us level program funding from year to year 
such that staff and program continuity could be maintained. Indeed, 
each Indian Tribe who has met TAS qualifications should have a funding 
target just as states do. Notice that there are no funding targets for 
the Hualapai Tribe (see Enclosure) or any other of the other 97 Indian 
Tribes within our Nation (see Enclosure) who have qualified to be 
treated as a state, but there should be. This arrangement is definitely 
neither fair nor equitable.
    The amount of Section 106 funding ($260,000 for fiscal year 2007) 
for the Hualapai Tribe is insufficient to administer an adequate water 
pollution program for 1,000,000 acres of reservation. Over a very short 
time span of the last eight to nine years, our Tribe has made 
tremendous strides with respect to our program accomplishments which 
are intended to restore and protect our waters. We believe that these 
accomplishments are significant especially when viewed from the 
perspective that states have been receiving Section 106 funds from EPA 
for over forty years. Some of these accomplishments are as follows:
    1. The hiring and training of our environmental staff.
    2. The identification and assessment of all of the waters within 
our Reservation.
    3. The development of our Nonpoint Source Assessment and Management 
Program.
    4. The development of the Tribe's Water Quality Standards and 
enaction of our Water Resource Ordinance into Law for all Tribal 
Waters.
    5. The restoration of Tribal lands and waters through the 
implementation of nonpoint source projects.
    Four years ago, an EPA workgroup developed the following proposed 
criteria for determining eligibilty of Indian Tribes to receive a 
funding target or to be considered as a Mature Program. The target 
could then be set as a weighted average throughout the EPA Regions. The 
proposed criteria which we heartily endorse follows:
    1. Program Structure: The Tribe has programs, policies, procedures 
in place to develop and implement a water quality program.
    2. Program Management: The Tribe has a demonstrated ability to 
manage a continuing water quality program.
    3. Information Management and Reporting: The Tribe has ability to 
gather, assess and report on the conditions of tribal water quality.
    Our major concern with the Workgroup's effort is that it has not 
addressed the methodology for determining funding targets for Indian 
Tribes. What is even more troubling is that Section 106 budget funding 
for fiscal year 2007 is proposed by the Administration to be reduced 
when the number of applicants within Region 9 is anticipated to 
increase significantly. If this occurs, I fear, many existing tribal 
programs maybe forced out of existence.
    For the Hualapai Tribe to implement an adequate water pollution 
control program, I request that you establish a reasonable funding 
target for us of $297,000 per year. We appreciate the budget 
constraints that Congress has to deal with each year. We only hope, 
however, that Congress appreciates its Trust responsibilities to insure 
that the Tribe's most precious Trust Asset, water, is not polluted and 
if it is, we get your help. This is critically important after the 
events of September 11, 2001 for Hualapai Homeland Security. As you 
probably already know the Tribe's Northern boundary is 108 miles of the 
Colorado River through Grand Canyon. Water Sampling in this reach of 
the reservation to insure compliance of our water quality standards now 
also serves as a critical monitoring exercise for our Homeland Security 
and yours. The cities of Las Vegas, Los Angles and San Diego are the 
downstream users of our water resources and can also be protected by 
our monitoring for pollutants. We are equally certain that other tribes 
are also facing numerous threats from pollution and that there is a 
great need for additional funding to remedy these serious problems.
    I also personally want to thank you for lifting the one-third of 
one percent cap that was on Section 319 Nonpoint Source Funding to 
Tribes again this year. I only hope that this lifting of the cap can be 
permanent next year. Lastly, the Tribe wishes to continue to protect 
it's critical Wetlands. We therefore ask you in your funding of EPA 
Office of Water allocations in 2007 to consider allowing a base amount 
for Tribes as you have in 319 funding to begin to protect these fragile 
environments in the southwest. Any assistance you can give us in this 
matter would be greatly appreciated. If you should have any questions 
or concerns please don't hesitate to call myself or Don Bay, Director 
of Hualapai Natural Resources Department (928) 769-2254.
                                 ______
                                 
Prepared Statement of the Friends of the Health Resources and Services 
                             Administration

    The Friends of the Health Resources and Services Administration 
(HRSA) is an advocacy coalition of more than 100 national 
organizations, collectively representing millions of public health and 
health care professionals, academicians and consumers. Our member 
organizations strongly support the programs at HRSA designed to ensure 
Americans' access to health services.
    Through its programs in thousands of communities across the 
country, HRSA provides a health safety net for medically underserved 
individuals and families, including 45 million Americans who lack 
health insurance; 49 million Americans who live in neighborhoods where 
primary health care services are scarce; African American infants, 
whose infant mortality rate is more than double that of whites; and the 
estimated 850,000 to 950,000 people living with HIV/AIDS. Programs to 
support the underserved place HRSA on the front lines in responding to 
our nation's racial/ethnic and rural/urban disparities in health 
status. HRSA funding goes where the need exists, in communities all 
over America. We support a growing trend in HRSA programs to increase 
flexibility of service delivery at the local level, necessary to tailor 
programs to the unique needs of America's many varied communities. The 
agency's overriding goal is to achieve 100 percent access to health 
care, with zero disparities. In the best professional judgment of the 
members of the Friends of HRSA, to respond to this challenge, the 
agency will require an overall funding level of at least $7.5 billion 
for fiscal year 2007.
    The Friends of HRSA are gravely concerned about the president's 
budget recommendation of a $255 million overall cut for fiscal year 
2007, including over 12 program eliminations. This is in addition to 
the 12 programs that were eliminated in the fiscal year 2006 
appropriations bill and other programs that received deep cuts in both 
years.
    Through its many programs and new initiatives, HRSA helps countless 
individuals live healthier, more productive lives. In the 21st century, 
rapid advances in research and technology promise unparalleled change 
in the nation's health care delivery system. HRSA could be well 
positioned to meet these new challenges as it continues to provide 
needed health care to the nation's most vulnerable citizens.
    The Primary Care Bureau received a $181 million increase, all of 
which is designated for the Community Health Centers. Community-based 
health centers and National Health Service Corps-supported clinics form 
the backbone of the nation's safety net. More than 4,000 of these sites 
across the nation provide needed primary and preventive care to nearly 
13 million poor and near-poor Americans. HRSA primary care centers 
include community health centers, migrant health centers, health care 
for the homeless programs, public housing primary care programs and 
school-based health centers. Health centers provide access to high-
quality, family-oriented, culturally and linguistically competent 
primary care and preventive services, including mental and behavioral 
health, dental and support services. Nearly three-fourths of health 
center patients are uninsured or on Medicaid, approximately two-thirds 
are people of color, and more than 85 percent live below 200 percent of 
the poverty level. Additional primary care is provided by 2,700 
clinicians in the National Health Service Corps. Corps members work in 
communities with a shortage of health professionals in exchange for 
scholarships and loan repayments.
    The Bureau of Health Professions received $342 million in cuts in 
fiscal year 2007 budget which is 46 percent of its budget. Health 
professions and nursing education programs, authorized under Titles VII 
and VIII of the Public Health Service Act, are essential components of 
American's health care safety net, bringing health care services to our 
underserved communities. An adequate, diverse, well-distributed and 
culturally competent health workforce is indispensable to our national 
readiness efforts. The health professions programs support the training 
and education of health care providers with the aim of enhancing the 
supply, diversity, and distribution of the workforce, filling the gaps 
in the health professions' supply not met by traditional market forces. 
Through loans, loan guarantees, and scholarships to students, and 
grants and contracts to academic institutions and non-profit 
organizations, the Title VII and VIII health professions programs are 
the only federal programs designed to train providers in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the health 
care workforce. We are concerned that cuts to Title VII health 
professions programs will exacerbate existing provider shortages in 
rural, medically underserved, and federally designated health 
professions shortage areas. While we applaud the $181 million increase 
in the President's budget for Community Health Centers, these cuts to 
the Health Professions raise the question of whether there will be a 
sufficient number of health care providers to staff these clinics. 
These programs provide up-front incentives for dozens of types of 
health professionals--not only physicians, but mental health, public 
health and dental providers as well--encouraging them to pursue health 
careers in areas that would otherwise go unserved. Cuts will also 
impede recruitment of underrepresented minorities and students of 
disadvantaged backgrounds into the health professions. This action will 
have the further consequence of intensifying already problematic health 
disparities. We are also concerned about the impact health professions 
cuts will have on vulnerable populations such as the elderly. Adequate 
funding for HRSA Health Professions Programs under Title VII and VIII 
will help to create a prepared national workforce by reversing 
projected nationwide shortages of nurses, pharmacists, and other 
professionals. In addition to the dismay we have aboutthe Health 
Professions programs that were eliminated this year, we are deeply 
concerned about the program cuts and eliminations proposed in the Title 
VII and VIII programs in fiscal year 2007. We strongly encourage the 
Subcommittee to restore cuts to these vital Health Professions 
programs.
    The Maternal and Child Health Bureau was cut by $36 million to $780 
million. Valuable programs like the Traumatic Brain Injury program, 
Universal Newborn Hearing Screening, and Emergency Medical Services for 
Children were zeroed out and the Maternal and Child Health Block Grant 
was level funded. The Maternal and Child Health Block Grant is a source 
of flexible funding for states and territories to address their unique 
needs, and remains in great need of increased funding. The Title V 
Maternal and Child Health Block (MCH) Grant received a $31 million cut 
in the fiscal year 2006 budget. The president's budget for fiscal year 
2007 proposed level funding for the block grant at the fiscal year 2006 
level. Operating for a second year with less funds than in fiscal year 
2005, and greater needs among more pregnant women, infants, and 
children, particularly those with special health care needs presents 
daunting challenges to the state maternal and child health programs. 
Furthermore, if programs like the Traumatic Brain Injury program, 
Universal Newborn Hearing Screening, and Emergency Medical Services for 
Children program are eliminated, those costs will be borne by the MCH 
Block Grant. Each year, a MCH program serves more than 26 million 
pregnant women, infants and children nationwide. Of the nearly 4 
million mothers who give birth annually, almost half receive some 
prenatal or postnatal service from a MCH-funded program. MCH programs 
increase immunizations and newborn screening, reduce infant mortality 
and developmentally handicapping conditions, prevent childhood 
accidents and injuries, and reduce adolescent pregnancy.
    Nationally there are 1.4 million brain injuries per year, with an 
estimated societal cost of over $60 billion per year, including direct 
care and lost productivity. Research indicates that 50,000 individuals 
die as a result of Traumatic Brain Injury (TBI) each year in the United 
States and an additional 80,000 survive with residual long-term 
impairments. Today over 5.3 million Americans are living with a TBI-
related disability. TBI can strike at anyone at any time--from falls, 
vehicle crashes, sports injuries, violence, and other causes. HRSA's 
Traumatic Brain Injury program makes grants to states to coordinate, 
expand and enhance service delivery systems in order to improve access 
to services and support for persons with TBI and their families. 
Despite increasing numbers of soldiers returning from war with head 
injuries, increasing numbers of children being identified as disabled 
due to head injuries, and the release of an Institute of Medicine 
Report stating the importance of the program to brain injury survivors 
and their families, the Administration's fiscal year 2007 budget 
eliminates the TBI State Grant program. We encourage the Subcommittee 
to restore cuts to the TBI State Grant program. Furthermore, 
individuals with traumatic brain injury have an array of protection and 
advocacy needs, including assistance with returning to work; finding a 
place to live; accessing needed supports and services, such as 
attendant care and assistive technology; and obtaining appropriate 
mental health, substance abuse, and rehabilitation services. Very 
often, these individuals are the victims of stigma and discrimination 
because so little is understood about the effects of TBI. In addition, 
many people with TBI--including returning veterans--are forced to 
remain in extremely expensive institutional settings far longer than 
necessary because community-based supports and services they need are 
not available. We encourage the Subcommittee to restore funding for the 
Protection and Advocacy for Traumatic Brain Injury Program.
    The Children's Health Act of 2000 authorized funding for grants and 
programs to improve state-based newborn screening. Newborn screening is 
a public health activity used for early identification of infants 
affected by certain genetic, metabolic, hormonal or functional 
conditions for which there is effective treatment or intervention. 
Screening detects disorders in newborns that, left untreated, can cause 
death, disability, mental retardation and other serious illnesses. 
Parents are often unaware that while nearly all babies born in the 
United States undergo newborn screening tests for genetic birth 
defects, the number and quality of these tests vary from state to 
state. Screening programs coordinated through the HRSA Bureau of 
Maternal and Child health help to ensure that every baby born in the 
United States receives, at a minimum, a universal core group of 
screening tests regardless of the state in which he or she is born. 
However, the Administration again proposes eliminating the universal 
newborn hearing screening program. It goes without saying that more 
disorders will go unnoticed if the affected newborns are not screened. 
We encourage the Subcommittee to restore funding for the newborn 
hearing screening program.
    The proposed elimination of the Emergency Medical Services for 
Children (EMSC) Program is also concerning to us, especially 
considering the many children who are eligible for Medicaid and SCHIP 
but who cannot enroll due to enrollment limits and budgetary pressures. 
The Emergency Medical Services for Children Program, administered by 
HRSA, is a national initiative designed to reduce child and youth 
disability and death due to severe illness and injury. The federal 
funds that are contributed to this program are supplemented by funding 
from private sources, including parents and volunteers. HRSA 
administers the program in partnership with the U.S. Department of 
Transportation's National Highway Traffic Safety Administration. EMSC 
grants fund States and U.S. Territories to improve existing emergency 
medical services (EMS) systems and to develop and evaluate improved 
procedures and protocols for treating children. Children are not merely 
small adults. They have very unique and specific concerns that this 
programs works to address. We request that the $20 million funding 
level be restored.
    The Healthcare Systems Bureau received a cut of $13 million to $536 
million. We are concerned with the funding level in the hospital 
preparedness program. Although the Administration proposes level 
funding, we are concerned with the $13 million cut the program took in 
fiscal year 2006. In the post 9/11 era, all responders, providers and 
facilities must be ready to detect and respond to complex disasters, 
including terrorism, and HRSA must continue to support these vital 
hospital preparedness programs.
    Furthermore, HRSA's Trauma-EMS Systems Program was eliminated in 
the fiscal year 2006 appropriations bill. This program facilitates the 
development of effective and comprehensive statewide trauma systems. 
This program is critical in order to ensure that our response to local, 
state and federal emergencies is effective and reflects the best 
clinical practice in trauma and emergency medicine. We request that the 
$3.5 million funding level be restored.
    The Office of Rural Health Policy was cut by 83 percent in the 
President's budget. HRSA programs improve health care service for the 
more than 61 million people who live in rural America. Although almost 
a quarter of the population lives in rural areas, only an eighth of our 
doctors work there. Because rural families generally earn less than 
urban families, many health problems associated with poverty are more 
serious, including high rates of chronic disease and infant mortality. 
We encourage the Subcommittee to restore funding for rural health 
programs.
    An estimated 163,221 Americans experience out-of-hospital sudden 
cardiac arrests each year. Only an estimated 6 percent of them survive. 
Immediate CPR and early defibrillation using an automated external 
defibrillator (AED) can more than double a victim's chance of survival. 
For every minute that passes without CPR and defibrillation, the 
chances of survival decrease by 7 to 10 percent. The HRSA Rural and 
Community Access to Emergency Devices Program provides grants to states 
to train lay rescuers and first responders to use AEDs and purchase and 
place these devices in public areas where cardiac arrests are likely to 
occur. We encourage the Subcommittee to restore funding for this 
program to the fiscal year 2005 level of $8.927 million.
    The HIV/AIDS Bureau received a $95 million increase. The Ryan White 
CARE Act programs, administered by HRSA's HIV/AIDS Bureau, are the 
largest single source of federal discretionary funding for HIV/AIDS 
health care for low-income, uninsured and underinsured Americans. 
Although we are pleased with the additional funds for comprehensive 
care and early intervention, we are concerned that previous years cuts 
has diminished the reach of the Ryan White CARE Act has been 
diminished. Since fiscal year 2003, funding to the most impacted cities 
has been cut by $15 million and funding to the states has been cut by 
$8 million. These cuts have forced state and local HIV/AIDS programs to 
stretch already thin CARE Act dollars to treat existing clients while 
trying to provide care and treatment to those newly diagnosed as HIV-
positive. We request an increase of $577 million for CARE Act programs 
in fiscal year 2007.
    In fiscal year 2006 the AIDS Drug Assistance Programs (ADAP) 
received a $2 million increase. Unfortunately, this program, which 
provides life-sustaining treatment to thousands of people living with 
HIV/AIDS, cannot be sustained on such an increase. By the end of fiscal 
year 2006 it is expected that hundreds more individuals will be added 
to ADAP waiting lists and that states will have had to institute other 
cost-containment measures such as reduced formularies, increased cost-
sharing for ADAP clients and lowered eligibility requirements for 
enrollment. We request an increase of $197 million for the ADAP 
program.
    Title X of the Public Health Service Act was enacted to provide 
high-quality, subsidized contraceptive care to those who need but 
cannot afford such services, to improve women's health, reduce 
unintended pregnancies, and decrease infant mortality and morbidity. 
Title X programs provide comprehensive, voluntary and affordable family 
planning services to millions of low-income women and men--many of whom 
are uninsured--at more than 4,600 clinics nationwide. People who visit 
Title X funded clinics receive a broad package of preventive health 
services, including breast and cervical cancer screening, blood 
pressure checks, anemia testing, and STD/HIV screening.
    A major source of HRSA's strength is its many linkages and 
partnerships with other federal agencies, state, national and local 
organizations. For example, HRSA and the Centers for Medicare and 
Medicaid Services (CMS) are jointly implementing outreach on the new 
State Children's Health Insurance Program in addition to working 
together to improve data sharing and coordination, particularly on 
Medicaid. Work also is ongoing with the Substance Abuse and Mental 
Health Services Administration (SAMHSA) to integrate behavioral health 
and substance abuse screening, early intervention, referral and follow-
up into primary health care settings funded through HRSA grants. HRSA 
and the Centers for Disease Control and Prevention (CDC) cooperate on a 
variety of disease prevention and health promotion activities.
    Cross-cutting HRSA programs continually respond to new public 
health challenges. For instance, tooth decay remains the single most 
chronic childhood disease in the nation. However, about 125 million 
Americans have no dental insurance. Lack of access to dental care is 
especially severe among children of poor, rural and minority families. 
A quarter of the nation's school-age children have 80 percent of all 
dental disease, putting them at risk for a host of related illnesses. 
And as new drugs help people with HIV/AIDS live longer, healthier 
lives, their need for regular oral health care will continue to 
increase. HRSA can help both groups by increasing the number of 
dentists in community and school-based centers and by providing greater 
reimbursements to hospital dental clinics and dental schools for the 
growing costs of treating people living with HIV/AIDS.
    Among the programs that were eliminated in the fiscal year 2006 
appropriations bill are Healthy Community Access Program and the State 
Planning Grants program. Each of these programs helps communities and 
states provide access to health care for those who need it most. We 
encourage the Subcommittee to restore funding to these and other 
programs eliminated in the fiscal year 2006 appropriations bill.
    We urge the members of the Subcommittee to restore the cuts and 
fund the agency at a level that allows HRSA to effectively implement 
these important programs. The members of the Friends of HRSA are 
grateful for this opportunity to present our views to the Subcommittee.
                                 ______
                                 
      Prepared Statement of the Hoosic River Watershed Association

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $1.1 million 
appropriation from the Land and Water Conservation Fund for the 
acquisition of Broad Brook watershed project in the Green Mountain 
National Forest.
    The mission of the Hoosic River Watershed Association is to protect 
and improve the 750-square-mile Hoosic watershed in Massachusetts, 
Vermont and New York State. Braod Brook is a tributary to the Hoosic. 
The conservation of the Broad Brook watershed property as an addition 
to the Green Mountain National Forest is important to our organization, 
because it protects the property's forests and water quality, excellent 
wildlife habitat, and recreational opportunities. The Green Mountains 
of Vermont are one of the northeast region's most popular and heavily-
visited areas, which each year draw millions of tourists attracted to 
its scenic beauty. The Green Mountains region contains outstanding 
natural resources such as wildlife habitat for black bear, deer, and 
neotropical songbirds, as well as extensive timber resources. The area 
boasts excellent trout streams and encompasses the watersheds that 
provide drinking water for many Vermont communities. The acquisition of 
properties in the Green Mountain National Forest protects recreational 
opportunities that have long been important to residents and visitors 
alike, such as camping, hiking, hunting, and cross-country skiing.
    Available for acquisition in fiscal year 2007 are the final 970 
acres of the 3,921-acre Broad Brook watershed property, located in the 
southernmost portion of the forest just north of the Massachusetts 
border. For many years, the Massachusetts city of North Adams, which 
owns this parcel, used the Broad Brook watershed as a source of 
drinking water for city residents. However, several years ago the city 
ceased depending on Broad Brook for its water and is now interested in 
selling the property. Located within the boundaries of the Green 
Mountain NF in the towns of Pownal and Stamford, the Broad Brook 
property would be an outstanding addition to this forest, known for its 
excellent recreational opportunities and critical wildlife habitat.
    The State of Vermont has mapped this parcel as being entirely 
within black bear production habitat, regions which support high 
densities of cub producing females. On the property there can be found 
a large and healthy population of the state threatened Large Whorled 
Pogonia (Isotria verticillata), and close to 7 miles of pristine 
headwater streams. A portion of the Appalachian National Scenic Trail, 
which in this part of Vermont coincides with the Long Trail, passes 
across the Broad Brook property. The tract is adjacent to other Forest 
Service ownership, the Stamford Meadows Wildlife Management Area--a 
state-owned sanctuary--as well as other conservation lands near the 
town of Pownal.
    Residents and officials in both Vermont and Massachusetts have 
displayed exceptional commitment to completing this important 
transaction. The City of North Adams has agreed to sell the Broad Brook 
property at 25 percent below fair market value, providing significant 
savings to the federal government. On November 2, 2004, Pownal 
residents voted by a margin of two-to-one in favor of purchase of the 
Broad Brook parcel by the Green Mountain NF.
    With that vote of approval and with congressional appropriations in 
fiscal years 2004, 2005, and 2006 the first phase of the property, 
2,450 acres, has already been completed. An appropriation of $1.1 
million from the LWCF in fiscal year 2007 will permit the Forest 
Service to complete this critical acquisition, allowing for continued 
management of important wildlife species as well as ensuring public 
access to the Appalachian Trail and other recreation opportunities in 
this popular national forest.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the appropriation for the Broad Brook property 
in Vermont.
                                 ______
                                 
         Prepared Statement of the Hospital for Special Surgery

    Mr. Chairman, and Members of the Subcommittee, thank you for the 
opportunity to submit testimony to the hearing record regarding 
Hospital for Special Surgery (HSS) in New York, New York. Since its 
founding over 140 years ago, HSS has been the hospital of choice for 
countless individuals of all ages--from infants to older adults--
suffering from musculoskeletal conditions. Today, HSS is considered the 
premier specialty hospital for orthopedics and rheumatology in the 
United States and abroad.
    As you know, funds to support the establishment of the National 
Center for Musculoskeletal Research at Hospital for Special Surgery 
were included in Labor, HHS and Education Appropriations in fiscal year 
2002 and fiscal year 2005. First, I would like to take this opportunity 
to thank the Subcommittee for its support and to report on the 
excellent progress that has been made in achieving this goal.
    With a combination of institutional, private, and government 
support, HSS has transformed its research enterprise over the past six 
years, from the physical plant to the depth and focus of its scientific 
expertise. HSS has conducted the largest recruitment drive in its 
history. Expanded, state-of-the-art laboratories have increased the 
quality and quantity of investigations. Today, 70 percent of HSS' basic 
research activity is federally funded, meeting national benchmarks. Our 
critical mass of expertise is composed of 34 bench scientists and 129 
full-time laboratory fellows, technicians, and support. Of course, the 
most important measure of success is HSS's capacity to improve quality 
of life through treatments derived from a greater understanding of 
disease. This has been fortified by the scientific talent and new 
resources made possible by the Hospital's generous supporters. Today, 
the National Center for Musculoskeletal Research at HSS is an 
internationally recognized leader whose pioneering scientists are 
making significant contributions to understanding diseases like 
arthritis, osteoporosis, and lupus, and advancing progress toward the 
development of better treatments and cures.
    The Hospital's groundbreaking basic, translational, and clinical 
research efforts are unique in that they are informed by its very 
sizeable patient base, which is the largest of any musculoskeletal 
hospital in the world. HSS's surgical techniques, rehabilitation 
practices, orthopedic imaging, anesthesiology and pain management, and 
non-surgical interventions are the ``best practices'' in the field. To 
continue to advance the state-of-the-art, while meeting the needs of 
increasing numbers of patients, HSS is now working to create an 
entirely new platform of patient care for the 21st century. The 
centerpiece of this initiative is the expansion and modernization of 
its clinical facilities to provide the highest level of care to the 
increasing number of patients seeking the expertise of the Hospital's 
extraordinary medical staff. HSS has requested a fiscal year 2007 
Appropriation of $4 million to advance this important project.
    The Hospital last expanded in 1996 when facilities meant for polio 
patients and lengthy hospitalizations were redesigned and modernized. 
In the succeeding years, pioneering advances in musculoskeletal 
medicine have taken place, many of them using biosynthetic materials, 
molecular diagnostics, innovative surgical tools and techniques, and 
computer guidance and modeling. Since 1996, HSS has added 65 medical 
staff and numerous specialized centers dedicated to research and 
clinical care in orthopedics, rheumatology, complementary medicine, 
sports medicine, non-surgical interventions, imaging, and pain 
prevention.
    New medical staff have the opportunity to learn from surgeons and 
physicians who have practiced at HSS for decades, embracing a great 
breadth and depth of experience, historical knowledge of the field, and 
insight into patients' needs, expectations, and potential for recovery. 
Building on experience, we have increased our efficiencies and ability 
to help increasing numbers of patients from all over the world. For 
example, the average length of stay for joint replacement has been 
reduced from 6 days (1996) to less than 4.5 days. For patients who 
qualify for minimally invasive surgery, many can leave the hospital 
within 2-3 days. In the future, we feel certain some joint replacement 
surgery will be carried out on an ambulatory basis.
    The major demographic and sociological trends observed worldwide 
are fueling a demand for care at HSS that is unprecedented. There has 
been an extraordinary increase in the over-sixty population and their 
need for musculoskeletal medicine; and there is a more active, younger 
population desiring to remain mobile and play sports as they grow 
older. From 1996 to 2005, Special Surgery's annual surgical volume rose 
from 10,700 to 17,500 and its annual outpatient visits rose from 
147,000 to 230,000, a total increase of approximately 60 percent. 
Special Surgery is also a magnet referral center for complex surgeries, 
with growing numbers of patients requiring extensive, high-level care.
    Meeting demand is only part of the equation. Bringing improved 
treatments and interventions to patients is of utmost importance. HSS 
continues to be a leader in advancing clinical treatments that enable 
patients to recuperate more quickly and regain mobility. HSS-led 
innovations on the horizon include:
  --Minimally invasive knee, hip, and shoulder implants for younger 
        patients. ``Baby boomers'' are our fastest growing patient 
        segment.
  --Spinal disc replacement surgery for degenerative disc disease, and 
        spinal stabilization without fusion.
  --Effective treatments for early arthritic patients when there is a 
        ``window of opportunity'' to slow and perhaps halt the 
        progression of disease.
  --Biosynthetic materials that mimic everyday movements to repair 
        sports injuries to ligaments, tendons, meniscus, and cartilage.
  --Biological solutions with minimal side effects to treat and prevent 
        the progress of a wide range of inflammatory conditions.
  --New diagnostics to predict the efficacy of medical treatments.
  --Advanced imaging techniques that can diagnose disease at the pre-
        clinical stage, enabling earlier and more effective treatment.
  --New medications to intervene before nerve injury and remold pain 
        pathways, minimizing post-operative pain.
  --Computer-assisted surgical procedures.
    An expanded clinical facility will enable the countless patients 
who seek our help to have the benefit of these medical innovations.
    Our new clinical facilities and extraordinary volume of patients 
will also provide an unparalleled opportunity to create a robust 
clinical research program. The potential for new knowledge in joint 
replacement is significant, since HSS performs the greatest number of 
hip and knee replacements in the world, more than 4,000 annually. The 
clinical research program will be built on a strong basic research 
foundation, which was strengthened over the past several years with the 
vital support of the Labor, Health and Human Services Subcommittee.
    In our ``new hospital'' every patient would have an opportunity to 
partner with us as a research patient in the effort to gain a deeper 
understanding of bone and joint disease to perfect treatment for future 
generations. With advanced technology, patients will help create their 
own research records, containing uniform, prospective data on the 
nuances of their treatment and progress. Each specialty service will 
have its own clinical research coordinator, and patients will have 
``real time'' access to information about clinical trials. Clinical 
research analysis, coupled with our knowledge of disease at the basic 
science level--particularly arthritis and inflammatory disease--will 
provide a powerful resource for advancing musculoskeletal health and 
restoring patients' mobility. We are currently recruiting new 
leadership for this program and developing the required infrastructure 
to successfully launch this initiative in our expanded facilities.
    The Hospital's new facilities will be completed by 2009 and 
encompass 201,000 square feet of new construction and 75,000 square 
feet of renovated existing space. On-site patient services will be 
significantly expanded and redesigned for greater efficiency and 
comfort. Highlights include a modernized, expanded ambulatory surgery 
center; enhanced rehabilitation facilities; new imaging, pain 
management, and minor procedures facilities; and an enhanced sports 
medicine rehabilitation center. In addition, the Hospital is 
refurbishing the lobby of the Main Building to better serve patients 
and their families. HSS took a unique approach to the design of this 
project, forming a collaborative team of physicians, nurses, 
architects, and planners to develop an optimum healing environment that 
flows efficiently for both patients and medical staff.
    Mr. Chairman, the objectives of Hospital for Special Surgery's 
Clinical Facilities Expansion and Modernization Project are consistent 
with those historically funded by the Department of Health and Human 
Services in the Labor, HHS and Education Appropriations Bill. We hope 
that the subcommittee will provide $4 million in fiscal year 2007 
toward this capital expansion, which will benefit countless patients as 
they grow older and seek help for a range of musculoskeletal 
conditions. The chances are, no matter where patients live, they will 
be helped by a medical advance pioneered at HSS or by an HSS-trained 
physician. To keep this promise alive, we must be able to expand 
clinically and lead the way, as we have done since opening our doors as 
America's oldest existing orthopedic hospital.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States

    Thank you for the opportunity to offer testimony to the Interior 
and Related Agencies Subcommittee on several funding items of 
importance to The Humane Society of the United States (HSUS) and its 
9.6 million supporters nationwide. The HSUS urges the Committee to 
address these priority issues in the fiscal year 2007 budget.
       law enforcement division of the fish and wildlife service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology and 
a full complement of Special Agents are essential if law enforcement is 
to have any hope of effectively enforcing the nation's endangered 
species trade laws. We commend the Administration's $1.2 million 
increase for the Law Enforcement Division in fiscal year 2007. The HSUS 
strongly supports an additional increase of $1.3 million over the 
Administration's request for U.S. Fish and Wildlife Service Law 
Enforcement Operations and Maintenance, to better house and equip the 
Wildlife Forensics Laboratory and to hire and train additional new 
Special Agents for proper enforcement of the Captive Wildlife Safety 
Act.
    The Captive Wildlife Safety Act was signed into law in December 
2003, as Public Law 108-191. It passed unanimously in both the House 
and Senate and takes aim at the problem of private ownership of big 
cats as pets. We are pleased that the Service has now proposed 
regulations to implement this important law. According to some 
estimates, there are as many as 15,000 big cats kept as pets in the 
United States. A modest increase of $1.3 million over the President's 
fiscal year 2007 request should be appropriated to hire and train one 
new Special Agent for each of the Fish and Wildlife Service's seven 
regions. This additional funding will allow for better enforcement of 
this and other vital wildlife protection laws.

                MULTINATIONAL SPECIES CONSERVATION FUND

    The HSUS joins a broad coalition of organizations in requesting an 
increase over the Administration's request for the Multinational 
Species Conservation Fund (MNSCF) and Wildlife Without Borders. The 
MNSCF was established by Congress to benefit African and Asian 
elephants, rhinos, tigers, great apes, neotropical migratory birds, and 
marine turtles. Congress has been very supportive of these programs in 
the past. Unfortunately, the Administration's fiscal year 2007 request 
falls short of the funds necessary to carry out these valuable 
missions. We ask that you continue to support these highly threatened 
mammals and birds in fiscal year 2007 by appropriating $1.6 million 
each for the African Elephant Conservation Fund, the Asian Elephant 
Conservation Fund, and the Great Ape Conservation Fund and $1.2 for the 
Marine Turtle Conservation Fund. We further request $2 million for the 
combined Rhinoceros and Tiger Conservation Fund, $5 million for the 
Neotropical Migratory Birds Conservation Fund, and $500,000 for 
Wildlife Without Borders. This request totals $13.5 million.
    While there are threats to the long-term survival of elephants, 
rhinos, tigers, great apes, neotropical migratory birds, and marine 
turtles, there have been improvements attributable to funds made 
available through the MNSCF. Grants made from the MNSCF provide a 
stable funding source that has leveraged over four times as much in 
additional contributions from range states, non-governmental 
organizations, and others.
    While The HSUS wholeheartedly supports increased funding for the 
MNSCF, we are concerned about past incidents and future opportunities 
for funds from these conservation programs to be allocated to promote 
trophy hunting, trade in animal parts, and other consumptive uses--
including live capture for trade, captive breeding, entertainment, and 
public display--under the guise of conservation for these animals. 
Grants made to projects under the MNSCF must be consistent with the 
spirit of the law.

  ENVIRONMENTAL PROTECTION AGENCY--OFFICE OF RESEARCH AND DEVELOPMENT

    In 2000, the ICCVAM Authorization Act (Public Law 106-545) created 
a new paradigm for regulatory toxicology, by promoting chemical testing 
methods that are often faster and more economical than existing 
methods, as well as more responsive to public concerns about the use of 
animals in toxicity testing. The new paradigm requires federal agencies 
to ensure that new and revised animal and alternative test methods be 
scientifically validated prior to recommending or requiring use by 
industry. All 15 federal regulatory and research agencies that compose 
the Interagency Coordinating Committee on the Validation of Alternative 
Methods (ICCVAM) agree on a common definition of validation as ``the 
process by which the reliability and relevance of a procedure are 
established for a specific use.''
    In recent years, Congress has provided specific funding for 
research, development and validation of non-animal and other 
alternative test methods that replace, reduce, or refine the use of 
animals in toxicity testing. However, EPA has been under-funding 
validation studies of non-animal and other alternative methods.
    For several years, the budget for the Office of Research and 
Development (ORD) has hovered at approximately $500 million. Animal 
protection organizations have supported a request for 1-2 percent of 
this budget to go for research, development and validation of non-
animal, alternative test methods. Then-Chairman Walsh secured a $4 
million appropriation for research, development and validation of non-
animal test methods in EPA's fiscal year 2002 budget. While the animal 
protection community is greatly appreciative of that first-ever 
directive, we have yet to receive a detailed accounting of the 
expenditure of funds. The agency has stated that funding has been 
provided for bench science that may have future relevant applications. 
EPA contends it has used monies from the ORD's Science and Technology 
Account to fund research and development of non-animal and other 
alternative test methods, but the funding stops at the stage when a 
test method must be scientifically validated. Consequently, this 
approach does little to support the necessary validation studies for 
non-animal test methods with potential application in reducing costs 
and increasing efficiency in existing EPA programs. Moreover, no 
detailed reporting on the actual expenditure of funds under the 
Computational Toxicology Program to promote alternative methods has 
ever been submitted to the Congress. Therefore, we join with the 
American Chemistry Council, the Procter & Gamble Company, and the Doris 
Day Animal League, in support of including the following report 
language in the appropriations bill:

    ``The Committee recognizes the EPA's commitment to developing a 
Computational Toxicology Program to reduce the use of animal testing 
and the cost of such testing. It is the Committee's expectation that, 
commensurate with Committee support for funding of the Computational 
Toxicology Program for the last several years, EPA demonstrate real 
progress not only in development of computational toxicology methods, 
but importantly, in validation of new and revised test methods, non-
animal methods, and alternative methods so that these can be utilized 
in regulatory program activities. The Committee encourages EPA to 
develop, integrate, and implement specific plans for validation studies 
of new and revised, non-animal and alternative methods for chemical 
screening and priority setting within the Agency's Computational 
Toxicology Program. The Committee requests that EPA submit an annual 
report, due by March 31 of the following fiscal year, detailing results 
of its Computational Toxicology program, to include a section on EPA's 
overall activities and itemized expenditures in a manner where both 
specific activities and specific expenditures devoted to validation of 
new, revised test methods, non-animal methods, and alternative methods 
are broken out from expenditures on research and development.''

        BUREAU OF LAND MANAGEMENT--WILD HORSE AND BURRO PROGRAM

    The BLM is charged with the management of approximately 32,000 wild 
horses in 10 Western States. The fiscal year 2007 budget for the 
maintenance of this herd is $36.4 million. That is a little over $1,100 
per animal. This inadequate budget is further augmented through the 
unacceptable practice of selling ``unadoptable'' animals to individuals 
who often consider them no more than horsemeat for French and Belgian 
menus. The massive public outcry resulting from sales of wild horses to 
slaughter reflects revulsion Americans feel about the brutality and 
unseemly nature of this practice. The BLM should have only two 
mechanisms for dealing with ``surplus'' wild horses and burros; (1) 
long-term, humane pasturing and (2) adoption.
    The budget for the wild horse and burro program should be increased 
by at least $12 million for a total of $48.4 million or $1,500 per 
animal. This would allow for more intensive herd monitoring and range 
inventory to assist in the continuance of accurate herd censuses and 
the reinstatement of mandatory biennial reports to Congress. These 
additional funds could also contribute to non-lethal methods of horse 
and burro population control including contraception, an approach the 
HSUS is working collaboratively with the BLM to implement. A renewed 
marketing strategy for publicizing the wild horse and burro adoption 
program could also be funded through additional appropriations. This 
supplementary money could be re-appropriated from the energy and 
minerals management line item that includes a funding increase of $12.4 
million ``. . . to support preparation and implementation of an ANWR 
leasing program . . .'' that has yet to be approved by Congress.

                        PROTECTION FOR WALRUSES

    We urge this subcommittee to appropriate $500,000 in fiscal year 
2007 to fund the continuation of much-needed research on the Pacific 
walrus. New promising methodologies for surveying walrus populations 
have been developed and require sustained funding support. A 
comprehensive walrus survey was begun in 2005--the effort must receive 
continued support to maximize the utility of its results. Walruses are 
targeted by Native hunters for subsistence, despite a paucity of data 
regarding their current population status or population structure. 
Hundreds of walruses are killed annually; in some years this number has 
climbed to as many as 7,000. Moreover, in some hunting villages, 
females and their calves are preferentially killed, against the 
recommendation of the USFWS and standard management practice. A portion 
of the research funds could also be used to improve the Walrus Harvest 
Monitor Project, which collects basic management data.

        FISH AND WILDLIFE SERVICES--ENDANGERED SPECIES PROGRAMS

    The President's fiscal year 2007 budget for the FWS endangered 
species program recommends a cut of more than $6 million from fiscal 
year 2006. In addition to this reduction, the President proposes 
transferring over $4 million away from actual species protection 
measures to land owner incentive and stewardship grant programs. 
Overall, these cuts short-change this important legislation which had 
actually experienced an increased budget between fiscal year 2005 and 
fiscal year 2006. This program should not be funded at under $175 
million.
    Candidate Conservation: This portion of the budget would be cut by 
almost $600,000 from fiscal year 2006 funding. These cuts are primarily 
focused on slashing funding for research efforts on the Idaho sage 
grouse and the California fisher. Both of these species' population 
reductions have been primarily due to habitat fragmentation and loss 
which need to be monitored or reversed in order to prevent the listing 
of these species. Additionally, no new programs for any of the 282 
candidate species were added for fiscal year 2007. Reallocating money 
from the general operations budget to the candidate conservation line 
item would assist in the protection of species on the brink of listing. 
The $1.8 million slated to fund ``results-based performance 
management'' training would be better spent on threatened species in 
need of preservation.
    Listing: Although the funding of this element is steady compared 
with fiscal year 2006, additional funds are desperately needed. This 
aspect of the program allows for the designation of critical habitat 
for species to be listed in addition to evaluating petitions to list 
candidate species. Of the 565 listed animals, only about 170 have 
critical habitat designations. Additional funds of at least $5 million 
should be added to alleviate the backlog of animals with no defined 
critical habitats.
    Consultation: This item of the endangered species budget includes 
an increase, but this increase is only to provide for expedited permit 
processing to ``directly support national energy production''. This 
program is designed to foster dialog between different federal and non-
federal entities under the Habitat Conservation Planning (HCP) program. 
The HCP program is designed to identify and resolve potential species 
conflicts in the early stages of federal project planning and to ensure 
that projects will be implemented in a manner consistent with the 
conservation needs of listed species, not the energy needs of our 
nation. Therefore, funds for this portion of the program should go 
towards conflict management and conservation needs, and not towards the 
approval of permits for natural resource mining and drilling.
    Recovery: This component has been cut over $8.5 million. These 
reductions are primarily aimed at severely diminishing and completely 
terminating funding for a number of endangered species and their 
habitats. Notable among the budget casualties are funds for Yellowstone 
Grizzly Conservation Strategy and wolf monitoring and recovery. 
Although the budget states that the Partners for Fish and Wildlife 
program and the National Park Service (NPS) will take over funding 
these programs, there is only $495,000 for Yellowstone grizzlies and 
$800,000 for wolf monitoring. There is no mention of either of these 
programs in the NPS budget statement.
                                 ______
                                 
        Prepared Statement of the Housatonic Valley Association

    The Housatonic Valley Association appreciates the opportunity to 
present this testimony in support of a $1.22 million appropriation to 
the State of Connecticut from the Forest Legacy Program for the second 
phase of the Skiff Mountain project. The Housatonic Valley Association, 
founded in 1941, works to conserve the natural character and 
environmental health of our communities in the Housatonic River 
watershed by restoring and protecting our lands and waters for future 
generations. Skiff Mountain is one of our most urgent conservation 
priorities, and we strongly support our local and regional partners 
working for its protection.
    The Highlands region of the East Coast is virtually in the backyard 
of the nation's largest metropolitan area. Located within an hour of 
nearly 25 million Americans, the Highlands form a greenbelt of forests 
and farmland adjacent to the sprawling Hartford-New York-Philadelphia 
urban corridor. Two million acres of glacial bogs, hardwood-conifer 
swamps, rock outcrop communities, and chestnut oak forests stretch from 
western Connecticut across the Lower Hudson River Valley and northern 
New Jersey into Pennsylvania, enticing more than 14 million visitors 
each year--more than Yellowstone and Yosemite National Parks combined.
    The state has identified the Connecticut portion of the Highlands 
as a critical focus area under its Forest Legacy Program. Right now 
there are four separate parcels of land in this focus area that are 
available for protection in fiscal year 2007. These parcels total 
approximately 510 acres of Skiff Mountain Forest in northwestern 
Connecticut. They form a network of forested properties in Litchfield 
County straddling the Kent-Sharon town line, an area under tremendous 
large-lot development pressures. Strategically located among already 
existing conservation lands, part of the Housatonic River Greenway 
corridor of state significance, and immediately adjacent to the 
federally protected and world-renowned Appalachian National Scenic 
Trail, the Skiff Mountain assemblage has been identified by the state 
as its top priority for Forest Legacy funding this year completing the 
second and final phase of this outstanding conservation effort.
    In fiscal year 2007, $1.22 million is needed from the Forest Legacy 
program to help preserve 510 acres of Skiff Mountain, and keep intact 
this conservation corridor of the Housatonic River Watershed and four-
state Highlands region. Local funding and land value donation will 
match these funds. We hope that you will provide $1.22 million to 
ensure the success of this effort in the fiscal year 2007 Interior 
appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

    On behalf of our America's fish and wildlife agencies, I urge the 
Subcommittee on Interior and Related Agencies to support funding in the 
amount of $85 million for the State Wildlife Grants Program in the 
fiscal year 2007 Interior and Related Agencies Appropriations Act.
    The State Wildlife Grants Program is our nation's core program for 
keeping wildlife from becoming endangered. State fish and wildlife 
agencies enjoy a strong partnership with the federal government in 
managing our nation's wildlife resources. Working together, we are able 
to ensure robust fish and wildlife populations and keep species from 
declining to the point of becoming endangered. State Wildlife Grants is 
an integral element of this partnership, providing the federal 
government's share of support for proactive on-the-ground conservation 
projects aimed at declining fish and wildlife species and their 
habitats. State Wildlife Grants is not just a grants program. It truly 
is a core program of the Department of Interior for advancing a 
pressing national need.
    The President's budget includes $74.7 million, an increase of $5 
million above the fiscal year 2006 enacted level of $68.5 million. We 
appreciate the Administration's continued support for this program as a 
core component of their collaborative conservation agenda.
    Although the budget is tight, America's fish and wildlife agencies 
are recommending that Congress provide a funding level of at least $85 
million in order to restore this program back up to the highest level 
of funding it has ever received, in fiscal year 2002. Consistent 
funding is essential to the long-term success of this program, and the 
completion of wildlife action plans in every state and territory only 
underscores the need for adequate and reliable resources. A funding 
level of $85 million would send an important message about the 
Congress's commitment to following through on providing the support 
needed to implement the wildlife action plans. We are pleased that 170 
Representatives have already formally signed on to this commitment in 
the form of a ``dear colleague'' and we hope you will match that strong 
demonstration of support.
    We also urge your consideration of additional language to provide 
an incentive for states to cooperate on projects with other states as 
well as federal agencies when implementing the actions in their plans. 
Allowing implementation projects that include several states working 
together to implement actions identified in their comprehensive state 
wildlife strategies at a 75:25 match (vs. 50:50) will provide greater 
benefits to the nation. In addition, allowing federal funds to be used 
as a match for a particular State Wildlife Grants project will 
encourage greater cooperation between a federal entity within that 
state and the state wildlife agency in implementing the strategies/
plans together. The strategies/plans have the potential to encourage 
everyone to work together resulting in a greater cumulative impact as 
well as avoiding costly duplication and unnecessary overlap.
    The President's budget includes a proposal to set aside $5 million 
of the new funds recommended for State Wildlife Grants for a new 
program of competitive grants. While we appreciate the intent to reward 
effective conservation proposals, we believe that the time is not yet 
right for a new competitive program to be created within State Wildlife 
Grants. The creation of such a program should be predicated on the 
attainment of higher levels of funding. State Wildlife Grants has 
provided a tremendous enhancement to the capacity of every state to 
address wildlife conservation. While we cannot currently support the 
creation of a competitive funding program, we are committed to making 
any programs that are enacted by Congress a success. If Congress deems 
that this is an appropriate course of action, we will work together 
with the Fish and Wildlife Service to make it a success.
    In closing, I again extend the appreciation of America's wildlife 
agencies for your continued support for the state-federal wildlife 
conservation partnership. We sincerely urge you to provide our 
requested level of $85 million for State Wildlife Grants.
                                 ______
                                 
   Prepared Statement of the Industrial Minerals Association--North 
                                America

    Dear Chairman Burns and Ranking Member Dorgan: The President's 2007 
Budget for the U.S. Geological Survey (USGS) includes a proposed 
reduction of $22 million in funding for mineral resources programs that 
will discontinue or reduce, among other things, global mineral resource 
assessments of critical mineral commodities. The Industrial Minerals 
Association--North America (IMA-NA) is opposed to reducing 
authorizations and appropriations below current levels of $53 million, 
believing rather that our national capacity regarding economic 
intelligence should be strengthened.
    The proposed reduction will terminate data collection and analysis 
for 100 mineral commodities in 180 countries outside the United 
States.--The budget cuts have the potential to limit severely available 
data on global industrial minerals production and consumption, while 
continuing to make domestic data readily available outside the United 
States. In a globally competitive marketplace, that means that global 
competitors will know more about U.S. production and consumption than 
U.S. producers will know about their global competition.
    IMA-NA believes the United States should promote an environment 
conducive to competition in the global marketplace and collection and 
analysis of mineral commodity data on an international basis serves 
that end.--In today's global environment, the United States must 
maintain its capacity to assess critical mineral resources both within 
and outside the United States. The private sector cannot perform this 
comprehensive assessment itself. To do so collectively could raise 
antitrust issues. The collection, analysis and dissemination of mineral 
commodity data on an international basis are inherently governmental 
functions and USGS is best prepared to continue to perform them.
    IMA-NA believes that the United States should continue industrial 
minerals research to ensure a stable supply of materials essential to 
our national economy and to our way of life.--The United States is the 
world's largest user of mineral commodities. Every year about 25,000 
pounds of new non-fuel mineral materials from the earth must be 
provided for every person in the United States. just to maintain our 
current standard of living. USGS is uniquely situated in the federal 
government to provide scientific information for objective resource 
assessments and unbiased research results on mineral potential, 
production and consumption.
    We respectfully request your support for continued funding of 
collection and analysis of economic intelligence on the broad array of 
mineral commodities produced and consumed outside the United States. We 
also request your support for continued funding of industrial minerals 
research.
    The Industrial Minerals Association--North America (IMA-NA) is a 
trade association organized to advance the interests of North American 
companies that mine or process industrial minerals. These minerals are 
used as feedstocks for the manufacturing and agricultural industries 
and are used to produce such essential products are glass, paints and 
coatings, ceramics, detergents and fertilizers. The IMA-NA membership 
includes producers of ball clay, bentonite, borates, feldspar, 
industrial sand, mica, soda ash (trona), sodium silicate, talc and 
wollastonite. IMA-NA's membership also includes many of the suppliers 
to the industrial minerals industry, including equipment manufacturers, 
railroads and trucking companies, and consultants.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the Committee regarding the views of the 
Compact's member states on the fiscal year 2007 Budget Request for the 
Office of Surface Mining (OSM) within the U.S. Department of the 
Interior. In its proposed budget, OSM is requesting $58.3 million to 
fund Title V grants to states and Indian tribes for the implementation 
of their regulatory programs and $145.4 million for state and tribal 
Title IV abandoned mine land (AML) program grants. Our statement will 
address both of these budgeted items.
    The Compact is comprised of 22 states that together produce some 90 
percent of the Nation's coal as well as important noncoal minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party states that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $58.3 million for Title V grants to 
states, an amount which is matched by the states each year. As you 
know, these grants support the implementation of state regulatory 
programs under the Surface Mining Control and Reclamation Act (SMCRA) 
and as such are essential to the full and effective operation of those 
programs. For the past few fiscal years, we have seen a very modest 
trend to increase Title V grants in an effort to assist the states in 
meeting their uncontrollable cost increases. This year, in particular, 
OSM has proposed a $2 million increase, the largest over the past five 
fiscal years. Just as with the federal government, state regulatory 
programs are personnel intensive, with salaries and benefits 
constituting upwards of 80 percent of total program costs. States must 
have sufficient staff to complete permitting, inspection and 
enforcement actions needed to protect citizens of the coalfields. When 
funding falls below program needs, states may struggle to keep active 
sites free of offsite impacts, reclaim mined areas, and prevent 
injuries.
    When it comes to funding state programs, we believe it is critical 
to investigate the potential mechanisms for assisting the states to 
meet their financial requirements, either through increased overall 
grant funding or through adjustments to the current funding formula. 
For instance, OSM's budgeted amount does not meet the states' own 
estimates for their projected program operating costs in fiscal year 
2007, which total $63 million. While OSM's estimates will allow us to 
meet our most direct and critical responsibilities for conducting 
regulatory operations to minimize the impact of coal extraction 
operations on people and the environment, the gap of $5 million between 
the two estimates eliminates the cushion for inflation and 
uncontrollable costs. It also undermines our efforts to realize needed 
program improvements and enhancements. This will become increasingly 
important as the federal government is faced with the dilemma of either 
securing the necessary funding for state programs or implementing those 
programs (or portions thereof) themselves--at significantly higher 
costs.
    OSM's own Budget Justification Document acknowledges the importance 
of the states receiving adequate program funding:
    The States have the unique capabilities and knowledge to regulate 
the lands within their borders. Providing a 50 percent match of Federal 
funds to primacy States in the form of Administration and Enforcement 
(A&E) Grants results in the highest benefit and the lowest cost to the 
Federal government. If a State were to relinquish primacy, OSM would 
have to hire sufficient numbers and types of Federal employees to 
implement the program. The cost to the Federal government would be 
significantly higher. [OSM Budget Justification Document, 
``Environmental Protection'', page 76.]
    The states continue to work cooperatively with OSM to develop 
realistic and meaningful estimates for state regulatory program costs. 
Our recent efforts have focused on insuring that all funds received 
each year are in fact obligated, despite the fact that states often 
face significant challenges related to differences in grant/fiscal year 
cycles and accounting methods. Some of these issues can be addressed 
through regular reviews of grant expenditures. Others require some hard 
choices concerning regulatory program adjustments or enhancements. In 
the end, the states are committed to effectively and efficiently 
managing their programs to accomplish both state and federal outcome-
based performance goals.
    It must be kept in mind that where there is inadequate funding to 
support state programs, some states will be faced with either turning 
all or portions of their programs back to OSM or, in other cases, will 
face potential lawsuits for failing to fulfill mandatory duties in an 
effective manner. Of course, where a state does, in fact, turn all or 
part of its Title V program back to OSM (or if OSM forces this issue 
based on an OSM determination of ineffective state program 
implementation), the state would be ineligible for Title IV funds to 
reclaim abandoned mine lands. This would be the height of irony, as the 
states have recently worked diligently with the Interior Department, 
OMB and Congress to reauthorize Title IV and to increase funding for 
state AML work.
    With regard to funding for state Title IV Abandoned Mine Land (AML) 
program grants, OSM has proposed a decrease for the fourth year in a 
row for state and tribal AML grants. These grants are separate from 
moneys allocated to the states for the Appalachian Clean Streams 
Initiative (ACSI) and for state-administered emergency programs. The 
non-ACSI, non-emergency state AML grants are the lifeblood of state 
programs and represent the primary source of funding for the majority 
of priority 1 and 2 AML work that is undertaken each year. Over the 
past three fiscal years, and now again this year, we have seen a 
disturbing downward trend in these critical baseline grants: $142 
million in fiscal year 2004; $136 million in fiscal year 2005; $130 
million in fiscal year 2006, and now $127 million for fiscal year 2007. 
These numbers are based on a detailed analysis of information contained 
in OSM's budget justification document.
    We are at a total loss to understand how OSM can, on the one hand, 
advocate a strong position for reauthorization of Title IV (including a 
proposal to extend fee collection through September of 2007 and 
continued support for comprehensive reform of Title IV), while on the 
other hand undercutting the essential annual funding for existing state 
AML programs. We are losing ground in the battle to address high 
priority AML sites that threaten our citizens. It is essential that 
this trend be reversed immediately if we are to accomplish the goals 
and objectives of the AML program. We therefore request that these 
baseline state AML grants be restored to at least their fiscal year 
2004 level of $142 million.
    The future of the AML Fund and its potential impacts on the 
economy, public safety, the land, our Nation's waters and the 
environment will depend upon how we manage the Fund and how we adjust 
the current provisions of SMCRA concerning the Fund. As we draw closer 
to the June 30, 2006 expiration of fee collection authority, we are 
hopeful that we will see Congressional action to finally and 
comprehensively reauthorize the AML program. The states and tribes, 
through IMCC, the National Association of Abandoned Mine Land Programs 
and the Western Governors Association have over the past several years 
advanced proposed amendments to SMCRA that are few in number and scope 
and that reflect a minimalist approach to adjusting the existing 
language in SMCRA and to incorporate only those changes necessary to 
accomplish several key objectives. They are as follows:
  --To extend fee collection authority for at least 12 years.
  --To significantly increase annual allocations to states and tribes 
        to address AML problems. This has been one of the greatest 
        inhibitions to progress under Title IV of SMCRA in recent years 
        and must be addressed if we are to enhance the ability of the 
        states and tribes to get more work done on the ground within 
        the extended time frame of 12 years or longer.
  --To assure adequate funding for minimum program (under-funded) 
        states who have consistently received less than their promised 
        share of funding ($2 million) over the past several years, 
        thereby undermining the effectiveness of their AML programs. In 
        fiscal year 2007, OSM's budget once again funds the minimum 
        program states at only $1.5 million.
  --To address a few other select provisions of Title IV that will 
        enhance the overall effectiveness of the AML program, including 
        remining incentives, handling of liens, and enhancing the 
        ability of states to undertake water line projects.
  --Finally, to address how the accumulated, unappropriated state and 
        tribal share balances in the Fund will be handled (assuming 
        that the interest in the Fund is no longer needed to address 
        shortfalls in the UMW Combined Benefit Fund), while at the same 
        time assuring that an adequate state share continues for the 
        balance of the program to insure that all states and tribes are 
        well-positioned and funded to address existing AML problems.
    Mr. Chairman, it is obvious from an assessment of the current 
inventory of priority 1 and 2 sites that there will not be enough money 
in the AML Trust Fund to address all of these sites before fee 
collection is set to expire in June. It is even more obvious that, 
regardless of what the unappropriated balance in the Fund is (currently 
$1.7 billion) and what future fee collections will add to that balance 
over the next year (approximately $300 million), recent Congressional 
appropriations for state and tribal AML program grants have been 
woefully inadequate and have not kept pace with our ability and desire 
to address the backlog of old as well as continually developing high 
priority AML problems. We are therefore faced with a significant 
challenge over the next few months--and that is to reconcile all of the 
various interests and concerns attending the administration of the AML 
program under Title IV of SMCRA in a way that assures the continuing 
integrity, credibility and effectiveness of this successful and 
meaningful program under SMCRA. We welcome the opportunity to work with 
your committee, Mr. Chairman, and with other affected parties to 
address the myriad issues that attend the future ability of the AML 
program to address the needs of coalfield citizens.
    We also urge the Committee to support adequate funding for OSM's 
training program, including moneys for state travel. These programs are 
central to the effective implementation of state regulatory programs as 
they provide necessary training and continuing education for state 
agency personnel. Additionally, the states are key players in OSM's 
training program, providing instructors for many of the courses. IMCC 
also urges the Committee to support adequate funding for TIPS, a 
program that directly benefits the states by providing needed upgrades 
to computer software and hardware. In this regard, we strongly support 
the proposed amounts for the training program and TIPS in OSM's fiscal 
year 2007 budget.
    Finally, IMCC requests continuing support for the Acid Draining 
Technology Initiative (ADTI), a nationwide technology development 
program with a guiding principle of building consensus among Federal 
and State regulatory agencies, universities and the coal industry to 
predict and remediate acid drainage from active and inactive coal and 
metal mines. This collaborative effort receives funding and other 
support from industry and several federal agencies for specific 
projects. OSM has provided ADTI $200,000 for the last several fiscal 
years, which has been a consistent source of funding for activities 
related to acid mine drainage from coal mines and has been instrumental 
in accomplishing ADTI's goals. We support continued funding for this 
vital initiative.
    In conclusion, we want to reiterate that adequate Title V grants 
are the lifeblood of effective state regulatory programs. Should states 
be unable to operate these programs due to funding constraints, the 
federal government will be faced with the burden of operating 
regulatory programs at a substantially increased cost (generally 30 to 
50 percent more). Further, without Title V programs in place, states 
are unable to access Title IV funds. In the final analysis, it behooves 
everyone--OSM, the Congress and the states--to commit the resources 
necessary to assure strong and effective state programs that will 
achieve the purposes and objectives of SMCRA, thereby protecting the 
environment where active mining operations occur and enhancing the 
environment through remediation of past problems associated with 
abandoned mines.
                                 ______
                                 
 Prepared Statement of the Independent Petroleum Association of America

    On behalf of various stakeholders who collectively play important 
roles in the development of America's domestic energy resources, we are 
writing to you to urge full funding for the ``National Geological and 
Geophysical Data Preservation Program Act of 2005.'' Specifically, we 
would request that the subcommittee fund this program (Section 315 of 
the Energy Policy Act of 2005), at the authorized level of $30 million, 
which is $29 million above the amount included in the Administration's 
Budget Request for the U.S. Geological Survey (USGS) for fiscal year 
2007.
    Geoscience data and collections are critical to government and 
industry's discovery and development of the nation's energy and mineral 
resources. Fundamental to any scientific and engineering endeavor are 
the collection of high quality data. Subsurface data--rock cores, 
cuttings, and geophysical measurements valued in the tens of billions 
of dollars--have been collected and housed by the private oil and gas 
sector for 70 years in the United States. The private sector is now 
clearing out these collections with two end member options: make gifts 
to qualified curation facilities or dispose of the one of a kind 
information permanently. The data must be saved, not just because they 
are unique and irreplaceable, but because they have immeasurable future 
value to oil, natural gas, coal, water, CO<INF>2</INF> sequestration 
and other key resource issues facing the United States.
    A key component to domestic energy and mineral resource production 
and security lies in preservation and ready access of samples and data. 
Volumes of expensive and difficult to obtain subsurface information 
(cores, cuttings and geophysical data) are currently being disposed of 
by oil, gas and mineral exploration companies: these rock samples are 
like one of a kind rare books; once lost they can never be replaced. 
These subsurface data, however, are critical to efficient exploration 
and production of the nation's energy resources. In addition to being 
applied toward conventional oil, gas and mineral production, subsurface 
data are now being applied in the areas of non-conventional energy 
development, CO<INF>2</INF> sequestration, and mineral exploration as 
well as the preservation of water supply, and the training of a new 
generation of geologists and geophysicists. Additionally, geoscience 
data and collections support sound decisions on resource utilization, 
environmental protection, and disaster preparedness. In addition, data 
and collections perform a critical role in the academic research and 
education of both informed citizens and future geoscientists.
    Over the course of many years, significant financial investments 
have been made to compile geoscience data and collections. As an 
example, core reposited at the USGS's Core Research Center in Colorado 
is estimated to have a current replacement value of $10 billion and 
seismic data sets represent tens of billions of dollars of geophysical 
data. The acquisition costs of maintaining and preserving is minimal to 
that of replacement costs, if indeed cores can ever be replaced. 
Through preservation, existing geoscience data and collections can be 
utilized again and again as new technologies are developed and new 
scientific hypothesis are tested.
    State geological surveys have historically collected geoscience 
data, typically consisting of geological, geochemical, geophysical and 
engineering data; maps; well logs; and samples of rocks, minerals, and 
fossils that are representative of a particular state's geology. 
Consequently, state geological surveys have substantial experience in 
the cataloging, preserving and archiving of both physical and digital 
data that characterize surface and subsurface geology in each state, 
and are experienced in providing ready access to others for 
examination, study, and sampling of these data and Earth materials.
    In authorizing legislation (Section 315 of the Energy Policy Act of 
2005), also known as the National Geological and Geophysical Data 
Preservation Program Act of 2005, funding would go towards the 
establishment of regional geoscience data and collection centers with a 
mission of: (1) preserving and improving access to domestic geoscience 
data through Federal, State and private-sector partnerships; (2) 
supporting development of a comprehensive, integrated, long-term 
management plan to ensure preservation of geoscience information, and 
(3) encouraging all stakeholders in geoscience data utilization to 
coordinate their efforts and provide access to data.
    The breadth of effort that can be undertaken in the states to 
secure these important data and collections is extensive. The budget 
request represents a small down payment on a significant task. 
Therefore, we ask the subcommittee to consider full funding this 
important program at the authorized level of $30 million for fiscal 
year 2007.
    The Independent Petroleum Association of America, the U.S. Oil and 
            Gas Association, the International Association of Drilling 
            Contractors, the International Association of Geophysical 
            Contractors, the National Stripper Well Association, the 
            Petroleum Equipment Suppliers Association, the Association 
            of Energy Service Companies, Public Lands Advocacy, 
            California Independent Petroleum Association, Colorado Oil 
            & Gas Association, East Texas Producers & Royalty Owners 
            Association, Eastern Kansas Oil & Gas Association, Florida 
            Independent Petroleum Association, Illinois Oil & Gas 
            Association, Independent Oil & Gas Association of New York, 
            Independent Oil & Gas Association of Pennsylvania, 
            Independent Oil & Gas Association of West Virginia, 
            Independent Oil Producers Association Tri-State, 
            Independent Petroleum Association of Mountain States, 
            Independent Petroleum Association of New Mexico, Indiana 
            Oil & Gas Association, Kansas Independent Oil & Gas 
            Association, Kentucky Oil & Gas Association, Louisiana 
            Independent Oil & Gas Association, Michigan Oil & Gas 
            Association, Mississippi Independent Producers & Royalty 
            Association, Montana Oil & Gas Association, National 
            Association of Royalty Owners, Nebraska Independent Oil & 
            Gas Association, New Mexico Oil & Gas Association, New York 
            State Oil Producers Association, Northern Alliance of 
            Energy Producers, Ohio Oil & Gas Association, Oklahoma 
            Independent Petroleum Association, Oklahoma Commission on 
            Marginally Producing Oil and Gas Wells, Panhandle Producers 
            & Royalty Owners Association, Pennsylvania Oil & Gas 
            Association, Permian Basin Petroleum Association, Petroleum 
            Association of Wyoming, Tennessee Oil & Gas Association, 
            Texas Alliance of Energy Producers, Texas Independent 
            Producers and Royalty Owners, Virginia Oil & Gas 
            Association, and Wyoming Independent Producers Association.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative

                       INTRODUCTION & BACKGROUND

    My name is Ervin Carlson, a member of the Blackfeet Nation of 
Montana and President of the InterTribal Bison Cooperative (ITBC). 
Please accept my sincere appreciation for this opportunity to submit 
written testimony to honorable members of the Appropriation 
Subcommittee on Interior. ITBC is a Native American non-profit 
organization, headquartered in Rapid City, South Dakota, comprised of 
fifty-seven (57) federally recognized Indian Tribes within a 19 state 
region. On behalf of these members of ITBC, I would like to address the 
following issues: (1) request an appropriation of $4,150,000 for fiscal 
year 2007, to continue our restoration effort, implement our marketing 
initiative and to continue our health initiative, utilizing buffalo to 
treat and prevent diet related diseases among Native Americans, (2) 
explain to the committee ITBC's unmet funding need of $28 million, and 
(3) update the committee on ITBC's present initiatives.
    Buffalo thrived in abundance throughout North America for many 
centuries before they were hunted to near extinction in the 1800's. 
During this period of history, buffalo were critical to survival of the 
American Indian. Buffalo provided food, shelter, clothing and essential 
tools for Indian people and insured continuance of their subsistence 
way of life. Naturally, Indian people developed a strong spiritual and 
cultural relationship with the buffalo that has not diminished with the 
passage of time.
    Numerous tribes that were committed to preserving the sacred 
relationship between Indian people and buffalo established the ITBC as 
an effort to restore buffalo to Indian lands. ITBC focused upon raising 
buffalo on Indian Reservation lands in order to foster sustainable 
economic development in a manner compatible with each of the Tribal 
cultures. Significant portions of Indian Reservations consist of poor 
quality lands for farming or raising livestock. Although a large 
portion of these reservation lands are unproductive for typical farming 
practices, most are ideal for raising buffalo. ITBC began actively 
restoring buffalo to Indian lands after receiving funding in 1992 as an 
initiative of the first Bush Administration.
    Federal appropriations have allowed ITBC to successfully restore 
buffalo to numerous Indian Reservation lands, thereby preserving the 
sacred relationship between Indian people and buffalo. The respect that 
Indian tribes have maintained for buffalo has fostered a serious 
commitment by ITBC member Tribes for successful buffalo herd 
development. With healthy, viable buffalo herds, opportunities now 
exist for Tribes to utilize buffalo for treatment and prevention of 
diet related diseases among Native American populations and for tribal 
economic development efforts. The primary focus of ITBC is to help 
develop and assure economic sustainability of bison herds and the 
promotion of buffalo as a healthy food source, thus allowing Tribes to 
utilize a culturally relevant resource as a means to achieve self-
sufficiency.

                            FUNDING REQUEST

    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2007 in the amount of $4,150,000. This 
amount would maintain the fiscal year 2006 appropriation for ITBC and 
is greatly needed to successfully accomplish our goals and objectives. 
This request will help balance our continuing growth in membership with 
our funding level. The $4,150,000 funding level would restore vital 
funding that has been cut from the administration's fiscal year 2007 
budget. Our requested funding level of $4.15 million will allow our 
member Tribes to continue their successful restoration effort, to 
implement our marketing initiative, and to continue the health 
initiative for the treatment and prevention of diet related diseases 
among Native American populations, while simultaneously building 
economic sustainability to the Tribal projects.

                     FUNDING SHORTFALL & UNMET NEED

    In fiscal year 2006, the ITBC and its member tribes were funded 
through appropriations at $4,150,000. The President's budget for fiscal 
year 2007 recommends a decrease of funding in the amount of $4,150,000, 
which would eliminate our funding, just as many Tribes are recovering 
from a long lasting drought, and just as we are beginning the health 
initiative to address diet related health problems that are epidemic on 
most of our reservations.
    Without the restoration of funding at last years level ITBC new 
member tribes will not receive adequate funding to begin buffalo 
restoration efforts. Other tribes that have successfully restored 
buffalo to Tribal lands will not receive adequate technical assistance 
and resource development funds to ensure the sustainability of existing 
herds. Furthermore, the investment made by Congress in fiscal year 2006 
towards ITBC's health care initiative would need to be discontinued. 
This was designed to utilize buffalo for treatment and prevention of 
diet related diseases among Native American populations.
    ITBC is structured as a member cooperative and 100 percent of the 
appropriated funds are expended on the development and support of 
Tribal buffalo herds and buffalo product business ventures. ITBC 
funding is distributed to ITBC member Tribes via a proposal review 
process developed by the consensus of members. ITBC surveys member 
tribes, annually, to determine unmet project needs and currently the 
total unmet need for ITBC member projects is $28,000,000.

                        ITBC GOALS & INITIATIVES

    The immediate goal of ITBC is restoration of buffalo to Indian 
lands for Tribes to utilize for sustainable economic development in a 
manner that is compatible with their Tribal culture. ITBC's ultimate 
goal is for Tribal buffalo herds to achieve self-sufficiency and once 
again become a daily part of Tribal cultures.
Economic Development
    In 1991, seven Indian tribes had small buffalo herds, with a 
combined total of 1,500 animals. The buffalo provided little or no 
economic benefit to the tribal owners. ITBC has proven extremely 
successful at buffalo restoration during its relatively short 10-year 
history. Today, with the support and technical assistance of ITBC, 57 
Indian Tribes are engaged in raising buffalo or developing plans to 
raise buffalo, with approximately 15,000 animals owned and managed by 
ITBC member tribes.
    Many of these tribal buffalo programs have developed herds large 
enough to justify and develop plans for marketing products as a step 
toward self-sufficiency. Of great significance for Indian reservation 
economies, buffalo production has resulted in a new industry creating 
hundreds of direct and indirect jobs relating to the buffalo management 
and production. As a result, a significant amount of revenue derived 
from buffalo products is beginning to circulate through Indian 
reservation economies.
    However, Tribes must have the resources to build solid foundations 
for this new industry to become fully self-sufficient and maintain 
sustainable buffalo herds. ITBC provides critical technical assistance 
to member Tribes that have developed sustainable management and 
infrastructure development plans. Additionally, ITBC provides training 
curriculum for the newly created jobs and marketing plans as Tribal 
herds reach marketing capabilities. ITBC has begun implementation of a 
marketing initiative to provide member Tribes with viable marketing 
options for utilization of buffalo as economic development efforts. 
This marketing initiative is in an infancy phase and continued funding 
is critical to achieve success.
Tribal Buffalo Marketing Initiative
    When the tribal buffalo are ready for market, ITBC member tribes 
face another obstacle to economic success. Few meat processing plants 
exist that are willing to process range-fed buffalo. Shipping buffalo 
far distances to be processed increases operating costs and reduces the 
quality of the meat by introducing unnecessary and harmful stress to 
the animals. Further compounding the problem, existing processing 
plants often will not process buffalo unless the buffalo are finished 
in feedlots, which compromises the objective of ITBC to provide a 
healthy range-fed product. ITBC believes the development of tribally 
owned processing facilities that will process range fed buffalo will 
provide a solution to the processing plant obstacle.
    ITBC has assisted the Gros Ventre and Assiniboine Tribes of the 
Fort Belknap Indian Community in northern Montana with the development 
of a meat packing facility acquired by the Tribe in Malta, Montana. 
ITBC also assisted the Cheyenne River Sioux Tribe in South Dakota with 
the expansion of their USDA approved meat packing facility. As a part 
of the ITBC marketing initiative, ITBC is also working with other 
member Tribes to develop Tribally owned processing plants in strategic 
regions in order to provide the infrastructure for member Tribes to get 
their buffalo processed and develop a cooperative market for the 
Tribally produced range fed buffalo. Development of Tribally owned 
processing facilities would create the necessary infrastructure to 
ensure the sustainability of Tribal buffalo production. Additionally, 
ITBC hopes to provide technical assistance in areas of meat processing, 
cold storage facility development, processing plant enhancement, 
development of distribution systems for Buffalo meat and by-products, 
and develop a cooperative brand name with standards and labeling 
guarantees for Native American produced buffalo. It is our firm belief 
that Tribally owned buffalo processing plants are necessary to maintain 
the integrity of the buffalo meat as a healthy food source, and provide 
culturally appropriate processing methods and jobs to our member 
Tribes.
Preventive Health Care Initiative
    ITBC is committed to providing buffalo meat to Indian reservation 
families both as an economic development effort for Native American 
producers and, more critically, as a healthy food to reintroduce into 
the diets of Native American populations. Current research indicates 
that the diet of most Indian reservation families includes large 
amounts of high cholesterol, processed meats that contribute to 
diabetes, heart disease and other diet related illnesses.
    ITBC member Tribes are just beginning to implement a preventive 
health care initiative with fiscal year 2006 year's funding, which will 
provide easy access to buffalo meat on Indian reservations and will 
educate more Indian families of the health benefits of range fed 
buffalo meat in their daily diets. Generally, buffalo meat is not sold 
in small quantities at the Indian reservation grocery and convenience 
stores leaving Native American families with few alternatives to the 
high fat, high cholesterol processed meats stocked in reservation 
stores.
    ITBC seeks to remedy this concern by providing buffalo meat in 
family sized quantities to Indian reservation markets and interact with 
Federal Food programs. So far ITBC has purchased approximately 300 
buffalo from our member Tribes to be used for the health initiative. 
ITBC is currently developing a distribution plan to be coordinated with 
Trial health officials at participating Tribes. A scientific study is 
also being planned, that will provide scientific data and support 
regarding the benefits of buffalo meat to the Native American diet.

                               CONCLUSION

    ITBC has demonstrated success over the years by assisting its 
member tribes restore buffalo to their native lands for cultural 
purposes and economic development. ITBC will continue to provide 
technical assistance and funding to its member tribes to facilitate the 
development of sustainable buffalo herds.
    ITBC and its member tribes have created a successful new Indian 
reservation industry, tribal buffalo production, resulting in new money 
for reservation economies. In addition, ITBC continues to support 
methods to market buffalo meat by providing easy access on the 
reservation and education efforts to the health benefits of buffalo 
meat in the Native diet. The ultimate goal is to restore the Tribal 
herds to a size large enough to support the local health needs of their 
Tribal members and also generate enough revenue through a cooperative 
marketing effort to achieve economic self-sufficiency.
    ITBC and its member tribes are appreciative of past and current 
support from the Congress and the Administration. I urge the committee 
to consider restoring ITBC funding to the fiscal year 2006 level of 
$4.15 million, which will allow ITBC to continue, without interruption, 
the important and successful efforts of buffalo restoration and 
development of buffalo production as viable Reservation based economic 
development efforts.
    I would like to thank this Committee for the opportunity to present 
testimony and the members of ITBC invite the honorable members of the 
Committee to visit our Tribal buffalo projects and experience first 
hand their successes.
    Questions and/or comments regarding any of the issues presented 
within this testimony may be directed to Mr. Ervin Carlson, President 
or to Mr. Fred DuBray, Executive Director at (605) 394-9730.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    Mr. Chairman, on behalf of the more than 4 million members and 
supporters of the National Wildlife Federation (NWF), thank you for the 
opportunity to provide funding recommendations for Department of the 
Interior and U.S. Forest Service programs for fiscal year 2007. The 
purpose of our testimony is to recommend levels of funding for a few 
specific programs that are vital to NWF's mission to inspire Americans 
to protect wildlife for our children's future.
    In addition to the following funding recommendations, NWF would 
also like to take this opportunity to respectfully urge the members of 
the subcommittee to reject the legislative proposals in the President's 
budget to sell hundreds of thousands of acres of BLM and USFS land to 
secure revenues to reduce the federal budget deficit and to fund the 
Secure Rural Schools and Community Self-Determination Act. The National 
Wildlife Federation and our state affiliates are in strong and 
unanimous opposition to these land sales proposals. The President's 
budget fails to recognize the incredible value of the nation's public 
lands. Public lands encompass a wonderful diversity of fish and 
wildlife habitats, and provide millions of Americans opportunities to 
fish, hunt, hike, camp, observe wildlife and otherwise experience 
nature. Every year, these lands become more valuable and more 
important, and to propose selling them off in order to secure one-time 
solutions for budget shortfalls is to rob this, and future, generations 
of a great national legacy.

                                U.S. FWS

State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the nation's core 
program to prevent wildlife from becoming endangered in every state. It 
is a mission-critical element of the Interior Department's budget as no 
other federal program is focused on this goal. It provides states and 
their partners a broad suite of conservation tools early enough to 
allow for meaningful and cost-effective species conservation. When 
Congress created the program in fiscal year 2001, every state wildlife 
agency was asked to complete a state wildlife action plan. These action 
plans, many of which have now been completed and approved, were 
developed by scientists, sportsmen, environmentalists, private 
landowners, and communities who worked together to identify the actions 
that are needed to prevent species from becoming endangered. The state 
wildlife agencies and their many conservation partners are already 
moving ahead with implementing their wildlife action plans. Congress 
needs to honor its commitment to this effort by providing the federal 
share of support for this program as it enters this new phase of 
implementation. The Administration's request for $74 million is an 
increase in funding for this program from the 2006 enacted level, but 
is insufficient to meet the large and growing needs of this program. We 
respectfully request that the subcommittee provide $85 million, an 
increase of $11 million over the President's request.
National Wildlife Refuge System Operations and Maintenance
    The President's budget calls for a $763,000 cut to the National 
Wildlife Refuge System Operations and Maintenance budget. We note with 
concern that when inflation and increases in salaries, rents, cost-of-
living adjustments, energy prices, and increasing levels of visitor 
services and wildlife management requirements are taken into account, 
this would be an effective cut in refuge funding of approximately $17 
million, and thus a significant decrease in refuge services. NWF 
supports the Cooperative Alliance for Refuge Enhancement (CARE) 
recommendation of $415 million, which would equal the fiscal year 2004 
Refuge System budget ($406.5 million) when adjusted for inflation. This 
level of funding would ensure a ``no-net-loss'' budget which would 
allow the Refuge System to avoid layoffs and reductions in services, 
maintain protections for wildlife and habitat, and provide for 
addressing the backlog in coming years.
Endangered Species Program
    The Endangered Species Act (ESA) is one of our nation's most 
important environmental laws and we are disappointed that the 
Endangered Species Program has not been funded at the level needed to 
carry out its critical purpose of preventing extinction and recovering 
our irreplaceable wildlife. In fact, the Presidents budget proposal is 
seeking to cut funding for the endangered species program by $6.7 
million, or over 4.5 percent. Out of the four core endangered species 
programs, the species recovery program was hit the hardest again, with 
cuts of more then 10 percent. Funding for candidate conservation also 
faces significant reductions--over 6 percent. All told, President 
Bush's budget will allot only $141.4 million to ESA protection, 
although FWS's needs are demonstrably much greater. We urge the 
subcommittee to appropriate at least $212 million toward the Endangered 
Species Program (an increase of $71 million) for the following critical 
activities:
  --Listing Program.--While the President proposes a $129,000 (less 
        then one percent) increase in the listing and critical habitat 
        account, that amount will not begin to cover the backlog of 
        species awaiting action on proposed listings and critical 
        habitat designations. More than 280 candidate species--i.e., 
        species deemed by FWS to be at risk of extinction and 
        warranting ESA protection--have been denied the benefits of the 
        ESA due to lack of resources. The Fish and Wildlife Service has 
        estimated a need of at least $153 million to alleviate the 
        backlog. The President's budget requested $17.75 million. This 
        is well below the actual need. To begin to address the backlog, 
        the Listing line item should be funded at no less than $30 
        million for fiscal year 2007.
  --Recovery Program.--Recovery funding faces the biggest reduction. 
        Under the President's budget it would be reduced by $7.68 
        million, or 10.4 percent below fiscal year 2006, even though 
        FWS has said that more than 200 species currently listed under 
        the Act are on the verge of extinction, primarily because not 
        enough funds are available for recovery activities. Recovery 
        should be funded at no less than $113.6 million.
  --Consultation Program.--Consultation is an important part of the 
        checks and balance system to ensure that endangered species are 
        protected on the ground. Consultation was increased by only 
        $1.3 million, or 2.8 percent, even though it is projected that 
        FWS will review approximately 77,000 federal actions under 
        Section 7 in 2007. On top of this, FWS is responsible for 
        monitoring nearly 400 approved Habitat Conservation Plans and 
        will be reviewing 250 more that are currently in the pipeline. 
        Consultation should be funded at $55.5 million.
  --Candidate Conservation.--Candidate species are plants and animals 
        for which the Service has sufficient information on their 
        biological status and threats to propose them for listing as 
        endangered or threatened, but for which listing is precluded 
        due to lack of resources and other higher priority listing 
        activities. The President has also proposed reducing the 
        Candidate Conservation program by $556,000, or 6.5 percent, 
        despite the fact that efforts to protect candidate species at 
        an early stage are cost-effective, reducing the difficulty and 
        expense of species recovery. Candidate Conservation should be 
        funded at $13.6 million.
Multinational Species Conservation Fund
    NWF is concerned to see that the President's budget reduces total 
funding for the Multinational Species Conservation Fund by $2 million. 
For fiscal year 2007, we ask the subcommittee to again support these 
successful programs by appropriating $2 million each for the African 
Elephant, Asian Elephant, Great Apes and Marine Turtle Conservation 
Funds, $3 million for the combined Rhinoceros and Tiger Conservation 
Funds, and $5 million for the Neotropical Migratory Bird Conservation 
Fund, for a total of $16 million, or an increase of $7.7 million above 
the President's request. These funds will enable the Department of 
Interior to expand critical support for these imperiled species in 
their natural habitats. We also urge the subcommittee to continue to 
treat the Neotropical Migratory Bird Conservation Fund as a separate 
account.

           BLM NATIONAL LANDSCAPE CONSERVATION SYSTEM (NLCS)

    The NLCS is an American treasure that consists of 26 million acres 
of BLM's most spectacular lands. Since its creation in June 2000, 
however, the System has been chronically under-funded, and starved for 
adequate resources to meet its core responsibilities and manage the 
growing number of visitors. The President's budget slashes $5.7 million 
from NLCS operations. This cut will cause mission critical needs to go 
unmet, such as contending with increases in illegal and irresponsible 
off-road vehicle traffic, the spread of invasive species, and the 
vandalism of ancient artifacts. We note with concern that when 
inflation and increases in salaries, rents, cost-of-living adjustments, 
energy prices, and increasing levels of visitor services and management 
requirements are taken into account, the President's budget represents 
an effective cut of approximately $8 million. This will result in a 
significant decrease in NLCS services. We respectfully request an 
increase of $3 million in operations and planning funding for the NLCS 
over the fiscal year 2006 enacted budget, for a total of $46 million. 
This funding level would enable the BLM to maintain services at the 
fiscal year 2006 enacted level, including restoring $1.2 million for 
law enforcement in the Four Corners region, while also providing 
capacity for the following activities:
  --Law Enforcement and Visitor Management--$1.5 million.--The NLCS 
        faces a serious shortage of law-enforcement rangers and 
        outreach/public education specialists. In many units, 
        individual NLCS rangers must patrol hundreds of thousands of 
        acres. We suggest an additional $1.5 million in funding to 
        cover the cost of hiring fifteen additional law enforcement 
        rangers and public education outreach specialists.
  --Science and Natural Resource Monitoring--$1.5 million.--It is 
        essential for the BLM to obtain adequate information on the 
        health of flora and fauna, riparian conditions, water quality, 
        and other critical natural resources. Yet the BLM does not have 
        adequate science personnel to collect and assess quality data 
        for decision-making, a problem recently highlighted by the 
        Heinz Center and a Government Accountability Report. We 
        strongly suggest funding to enable BLM to hire seven natural 
        resource specialists to expand biological monitoring and 
        partnerships with other agencies and research institutions.
    NLCS LWCF Projects.--We support the President's fiscal year 2007 
request for Land and Water Conservation Fund projects for California 
Wilderness, and the Chain of Lakes Recreation Management Area/Lewis and 
Clark National Historic Trail (Montana). We recommend that the 
President's request for $750,000 for Sandy River/Oregon National 
Historic Trail be increased to $1 million, and we support $4.9 million 
for six additional projects:
  --Canyons of the Ancients National Monument, Colorado: $1.1 million 
        to acquire inholdings.
  --McInnis Canyons National Conservation Area, Colorado: $1.1 million 
        to purchase properties within and adjacent to this NCA.
  --Carrizo Plain National Monument, California: $500,000 to acquire 
        inholdings.
  --Cascade-Siskiyou National Monument, Oregon: $700,000 to acquire 
        Soda Mountain inholdings.
  --Pacific Crest Trail, Cascade-Siskiyou National Monument, Oregon: 
        $1.5 million to acquire the Sky King Cole Ranch.

               U.S. FOREST SERVICE FOREST LEGACY PROGRAM

    NWF is concerned by the President's request of $61.5 million for 
the Forest Legacy Program, almost $20 million less than last year's 
request. The needs of this program are much larger and growing, so we 
ask the subcommittee to appropriate $100 million for the program, or an 
increase of $38.5 million. Forest Legacy protects environmentally 
important forests that are threatened with conversion to non-forest 
uses, while protecting local communities and their way of life. The 
program has been especially important in states where there are few 
federal land holdings and timber companies are in the process of 
consolidating and selling their lands.

                LAND AND WATER CONSERVATION FUND (LWCF)

    NWF is concerned to see that the President's budget slashes federal 
LWCF funding to only $83.6 million, the lowest request in more than 
three decades. LWCF has been cut by more than 75 percent since 2001. We 
urge the subcommittee to provide at least $220 million for total 
federal LWCF funding, with at least $5 million for the Pinhook Swamp 
project in Florida and $16.2 million for the Swan Valley project in 
Montana.
    We are extremely disappointed to see that the Administration's 
budget cuts all funding for stateside LWCF. State-side LWCF provides 
matching funds for state and local recreation and conservation 
programs. Eliminating this fund would seriously impact locally 
sponsored recreation projects that provide opportunities for youth, 
seniors and the physically challenged. We ask the subcommittee to 
restore $100 million for Stateside LWCF.
    Thank you for providing us with this opportunity to testify on the 
budget requests for the Interior Department and U.S. Forest Service.
                                 ______
                                 
   Prepared Statement of the Kansas Arkansas River Basin Interstate 
                               Committee

    The critical water resource projects in the Kansas portion of the 
Arkansas River Basin are summarized below. The projects are safety, 
environmental and conservation oriented. In addition, we state our 
unanimous support for the fiscal year 2007 request of $40 million to 
maintain the channel depth on the McClellan-Kerr Navigation System to 
12 feet as authorized by Public Law 108-137.
    We are encouraged about water resource development opportunities in 
the Arkansas River. In addition to traditional uses, we also support 
the promotion of economic development around Corps reservoirs. While 
encouraged, we are also concerned that funding levels will not support 
the needs. Therefore, we encourage your continued investment in our 
infrastructure with enhanced funding.
    We request your continued support for this important Bureau of 
Reclamation project:
    1. Equus Beds Aquifer Storage and Recovery Project--continuation of 
a City of Wichita, Groundwater Management District No. 2 and State of 
Kansas project to construct storage and recovery facilities for a major 
groundwater resource supplying water to more than 20 percent of Kansas 
municipal, industrial and irrigation users. The project will capture 
and recharge in excess of 100 million gallons per day and will also 
reduce on-going degradation of the existing groundwater by minimizing 
migration of saline water. Federal authorization of the project through 
House Bill 1327 introduce last year or through similar legislation this 
year. Construction Phase One is scheduled for completion in 2007. 
Continued federal funding is requested for fiscal year 2007 consistent 
with this legislation which will authorize funding for 25 percent of 
the project cost up to a maximum of $30 million during the construction 
phases.
    We request your support of these equally important Corps of 
Engineers projects:
    1. Walnut River (El Dorado Lake) Watershed Feasibility Study--
feasibility study is needed to fully understand and recommend 
restoration strategies to reduce sedimentation and meet TMDL issues to 
preserve the El Dorado public water supply. Funding is requested in the 
amount of $80,000 for fiscal year 2007.
    2. Grand (Neosho) Basin Reconnaissance Study--to address watershed 
and reservoir restoration issues in the Grand Lake Watershed. Funding 
request is for $450,000 in fiscal year 2007 to continue the study.
    3. Grand Lake Feasibility Study--follow-on flood control study to 
determine the most cost-effective solution to real estate inadequacies 
of federal flood control easements around Grand Lake. Funding request 
in the amount of $500,000 for fiscal year 2007.
    4. Continuing Authorities Program--Wichita and many small Kansas 
communities including Kinsley, Newton, Parsons, Arkansas City, Augusta, 
Butler County and Coffeyville are requesting Corps of Engineers 
assistance through the Small Flood Control Projects, Aquatic Ecosystem 
Restoration, Ecosystem Restoration and the Emergency Streambank 
Stabilization programs. The CAP limits have been held level for many 
years and the federal funds are not available when a community has a 
need. We request increased annual program limits so that the 
communities who are willing to cost-share have the opportunity to do 
so.
    Finally, we are very grateful that the Corps of Engineers and 
Bureau of Reclamation have the expertise needed for the development and 
protection of water resources infrastructure. It is essential to have 
the integrity and continuity these agencies provide. Your continued 
support of these vital agencies, including funding, will be 
appreciated.
                                 ______
                                 
   Prepared Statement of the Kentucky Department of Fish & Wildlife 
                               Resources

    We are seeking your support for the President's fiscal year 2007 
Budget Request of $3 million to support the National Fish Habitat 
Initiative (NFHI) and, furthermore, we ask you to support an additional 
$3 million to be appropriated to the U.S. Fish and Wildlife Service's 
Southeast Fisheries Program for the Southeast Aquatic Resources 
Partnership (SARP). The NFHI, lead by the International Association of 
Fish and Wildlife Agencies in partnership with the U.S. Fish and 
Wildlife Service, is a nationwide fisheries habitat restoration plan 
modeled on the successful North American Waterfowl Management Plan. The 
SARP is developing a Southeast Aquatic Habitat Plan that will guide the 
implementation of the NFHI on a regional scale and serve as a model for 
other regions of the country. The Southeast Aquatic Habitat Plan will 
identify and establish Fish Habitat Partnerships that will deliver the 
objectives of the NFHI in the Southeast.
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the Southeastern United States. 
This partnership developed because: (1) the Southeast has the highest 
diversity of aquatic species and habitats of any region in the country, 
(2) these resources are facing serious threats to their future 
existence, and (3) no single State or Federal agency has the necessary 
resources and authority to address this impending aquatic crisis. It is 
only by working together through partnerships that we will make a 
difference. SARP includes the fish and wildlife agencies from 13 States 
(Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
Missouri, North Carolina, Oklahoma, South Carolina, Tennessee, and 
Texas), the Gulf and Atlantic States Marine Fisheries Commissions, the 
Gulf of Mexico and South Atlantic Fishery Management Councils, the U.S. 
Fish and Wildlife Service, and NOAA Fisheries.
    This unique and focused effort is poised to deliver a new regional 
approach to aquatic conservation for future generations. Securing $3 
million in additional funding for the SARP is critical for the 
successful implementation of the Southeast Aquatic Habitat Plan.
    Thank you for your consideration of this request. If you should 
have any questions or need further information, please contact my 
Fisheries Division Director, Benjy Kinman, at (502) 564-3400.
                                 ______
                                 
         Prepared Statement of Kennebunkport Conservation Trust

    Mr. Chairman and Honorable Members of the Committee: On Behalf of 
the Kennebunkport Conservation Trust, I appreciate the opportunity to 
present this testimony in support of a $650,000 appropriation from the 
Land and Water Conservation Fund for land acquisition within the Rachel 
Carson National Wildlife Refuge.
    The Rachel Carson NWR plays a critical role in land protection 
efforts in southern Maine, serving as an anchor around which numerous 
local conservation organizations focus their efforts to protect land 
along the river corridors that flow through the refuge to the sea. The 
refuge and its supporters are working to effectively stitch together 
conserved properties into a greenbelt for habitat and water quality 
protection and public enjoyment.
    Previous years' appropriations have allowed the USFWS to conserve 
several properties within the refuge at Biddeford Pool and Parson's 
Beach, providing an important buffer between the intense development 
pressure along the southern Maine coast and its fragile coastal 
estuaries. While significant acreage within the refuge is protected 
today, additional areas of concern remain in need of protection.
    Available for immediate acquisition from a willing landowner in 
fiscal year 2007 is the 49-acre Parsons Woods property, located in the 
Parson's Beach area of the refuge near Kennebunkport. Consisting of 
wooded uplands, the property lies immediately adjacent to existing 
refuge lands and land being acquired with previously appropriated 
funds. The Parson's Woods tract contains the headwaters of a tributary 
of the Little River, the bulk of which flows through existing refuge 
lands and empties into the Atlantic between Laudholm and Crescent Surf 
beaches. If acquired, this parcel will allow the refuge to protect 
important wildlife habitat and link it to already protected refuge 
lands. Located in a rapidly developing part of Maine, this acquisition 
offers the refuge an outstanding opportunity to conserve southern 
Maine's coastal landscape and further consolidate the fragile habitat 
that exists on the marshes, uplands, creeks, and the estuaries of the 
coast.
    The Friends of Rachel Carson National Wildlife Refuge is the 
longest standing Friends of the National Wildlife Refuge system groups 
in the northeast, voicing support for the acquisition and protection of 
lands vital to the health of the refuge and the communities of southern 
Maine. We are a 501c3 organization, and our board leadership represents 
all ten of the refuge's districts. Our local roots recognize and speak 
for the benefits the refuge brings to our southern Maine communities, 
the critical plant and animal habitat of our unique coast, and the 
generations of visitors to the Rachel Carson Wildlife Refuge.
    We are fast approaching the 100th anniversary of Rachel Carson's 
birth in May 2007, and urge you to ensure that her legacy of protection 
for critical coastal areas is honored through an appropriation to the 
refuge. Given the development pressures in this part of the state, the 
opportunity to permanently protect the Parsons Woods property only 
exists for a limited time. An appropriation of $650,000 for the Rachel 
Carson NWR in fiscal year 2007 will yield enormous public benefits for 
generations to come.
    Thank you for the opportunity to present this request.
                                 ______
                                 
              Prepared Statement of Carl and Dinni Fabiani

    Mr. Chairman and Honorable Members of the Subcommittee: We 
appreciate the opportunity to present this testimony pertaining to an 
appropriation of $5 million from the Land and Water Conservation Fund 
to acquire 800 acres at Mount Rainier National Park in Washington.
    I am a lifelong resident (59 years) of the Town of Wilkeson a small 
community which has for many years labeled itself as ``The Gateway to 
the Carbon Glacier''. My wife and I have been nearly lifelong users of 
the Carbon River area of Mount Rainier National Park.
    While we strongly support the addition of lands along the Carbon 
River to Mount Rainier National Park, we feel as strongly that the 
rationale often quoted for this boundary expansion will have a very 
negative impact on the many thousands of people who currently use the 
``Carbon River area'' of the Park. A reason given for the expansion is 
that the government will save money by not having to make expensive 
repairs to the 5 mile road from the Carbon River Entrance to the Carbon 
Glacier trailhead.
    The obvious implication is that the road will no longer be 
repaired. The Trust for Public Lands has in fact stated in their 
literature that the road will be converted to a hiking and biking 
trail. Currently the hike to the Carbon Glacier is a 7 mile round trip 
of moderately easy walking. If driving access is eliminated this 
popular hike will become a 17 mile trip which effectively eliminates 90 
percent of the users of this trail. 17 miles is not a day hike for most 
people, especially those with young families and those with limited 
abilities. The greatest majority of people using this area do so on a 
day-use basis.
    Much of the literature supporting the boundary expansion has stated 
that new roads, campgrounds and trails would be built which will 
improve visitor access to the Park. However these proposed new 
facilities are planned to be built in the newly added lands and will in 
no way improve access to what is currently considered the ``Carbon 
River area''. The slight odor of ``red herring'' here.
    The Carbon Glacier Trail is a very special place in Mount Rainier 
National Park. Every year the trail takes thousands of visitors of all 
ages and a wide range of abilities through dense old growth forest, 
along a raging glacial river, through a rugged rock walled canyon to 
the lowest glacier terminus in the 48 states. Along the trail are views 
of Mount Rainier, many wildflowers through the summer, clear streams 
cascading off the mountains and a variety of wildlife. This trail is 
the epitome of what National Parks are supposed to be, some of the most 
unique places on Earth.
    If Mount Rainier Park boundaries are extended at the expense of the 
current Carbon River road from the Carbon River Ranger Station to the 
Carbon Glacier trail as an excuse to save a few tax dollars, you will 
be doing the people of this country a disservice that far outweighs any 
gains made through the boundary expansion.
    We have attended a number of public hearings in recent years 
regarding the Carbon River corridor. Maintaining the current access to 
the area has always been heavily supported at these hearings and has 
been a primary topic of interest among attendees of the hearings.
    In addition people have been vocal about protecting the very rural 
and in some areas even pristine character of the Carbon River corridor. 
Land development is happening at a rapid rate in this part of the 
country and even now Forest Lands along the Carbon River are being 
developed for home sites.
    Adding 800 acres along Carbon River to the Park for the long term 
protection of the Carbon River with its Marbled Murrelet, Northern 
Spotted owl and salmon habitat is reason enough to add these lands. Do 
not base the expansion on the excuse of expensive road repairs. The 
repairs are not as expensive as presented and the real loss to people 
would be priceless.
    Thank you for the opportunity to express these views.
                                 ______
                                 
     Prepared Statement of the Litchfield Hills Greenprint Program

    Mr. Chairman and Honorable Members of the Committee: The Litchfield 
Hills Greenprint Program appreciates the opportunity to present this 
testimony in support of a $1.22 million appropriation to the State of 
Connecticut from the Forest Legacy Program for the second phase of the 
Skiff Mountain project. The Litchfield Hills Greenprint is an 
initiative sponsored by the Housatonic Valley Association (HVA), the 
Trust for Public Land (TPL), and area land trusts to conserve the 
ecological integrity of this landscape and the rural character of its 
communities. A greenprint is a land use plan created by community 
leaders and residents that identifies and prioritizes important lands 
and those most vulnerable to development at local and regional scales. 
The Litchfield Hills Greenprint has identified Skiff Mountain in Kent, 
CT as one of the area's top conservation priorities
    Skiff Mountain lies within the Highlands region of the East Coast, 
virtually in the backyard of the nation's largest metropolitan area. 
Located within an hour of nearly 25 million Americans, the Highlands 
form a greenbelt of forests and farmland adjacent to the sprawling 
Hartford-New York-Philadelphia urban corridor. Two million acres of 
glacial bogs, hardwood-conifer swamps, rock outcrop communities, and 
chestnut oak forests stretch from western Connecticut across the Lower 
Hudson River Valley and northern New Jersey into Pennsylvania, enticing 
more than 14 million visitors each year--more than Yellowstone and 
Yosemite National Parks combined.
    The state has identified the Connecticut portion of the Highlands 
as a critical focus area under its Forest Legacy Program. Right now 
there are four separate parcels of land in this focus area that are 
available for protection in fiscal year 2007. These parcels total 
approximately 510 acres of Skiff Mountain Forest in northwestern 
Connecticut. They form a network of forested properties in Litchfield 
County straddling the Kent-Sharon town line, an area under tremendous 
large-lot development pressures. Strategically located among already 
existing conservation lands, and immediately adjacent to the federally 
protected and world-renowned Appalachian National Scenic Trail, the 
Skiff Mountain assemblage has been identified by the state as its top 
priority for Forest Legacy funding this year completing the second and 
final phase of this outstanding conservation effort.
    In fiscal year 2007, $1.22 million is needed from the Forest Legacy 
program to help preserve 510 acres of Skiff Mountain, and keep intact 
this conservation corridor of the Housatonic River Watershed and four-
state Highlands region. Local funding and land value donation will 
match these funds. We hope that you will provide $1.22 million to 
ensure the success of this effort in the fiscal year 2007 Interior 
appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
        Prepared Statement of the Missoula County Commissioners

    Mr. Chairman and Members of the Committee: The Missoula County 
Commissioners are in strong support of the conservation initiatives 
being implemented in the Swan Valley. Over the past seven years, 
constituents in the Valley have been working together with landowners, 
public resource and land management agencies and non-governmental 
organizations to address issues of concern. This effort has included 
identification of community values, science-based assessments of 
natural resources and development of a strategy to conserve resource 
values important to the community.
    The Swan Valley forest landscape provides for a rich diversity of 
wildlife and fisheries habitat, outdoor recreation opportunities and 
variety of forest-based livelihoods. Its location between the Bob 
Marshall Wilderness complex and the Mission Mountains Wilderness 
provides a critical link between natural areas in our State. 
Maintaining the connectivity between these areas and avoiding habitat 
fragmentation are critical to a variety of wildlife species. Avoiding 
residential development within rural forestlands reduces the potential 
for property loss, human injury and wildfires.
    As part of a collaborative effort, the Plum Creek Timber Company 
has made available a portion of its land in the Swan Valley for 
conservation sale to the public. Missoula County lends its support to 
the U.S. Forest Service's fiscal year 2007 request for a $16.2 million 
appropriation from the Land and Water Conservation Fund (LWCF). This 
would allow the Flathead National Forest (FNF) to acquire lands in the 
southern part of the Valley (within Missoula County), which are 
important for wildlife habitat and public recreation. Such acquisitions 
would reduce fragmentation and lead to more effective and efficient 
land management. The Swan Valley request is a high priority for the 
U.S. Forest Service-Northern Region this year.
    Of particular interest to the County is an emergency communications 
facility located on the Pierce Lake property, east of Highway 83. This 
site is leased by Missoula County Emergency Services and provides 
important public safety benefits. Use of the site will be continued 
under a special use permit with the Flathead NF.
    Additionally, the Condon Creek properties include a critical 
portion of a grizzly bear linkage zone, wetlands and riparian areas, 
big game winter range and about a mile of Swan River frontage. The 
local community places a high value on these parcels, which are 
adjacent to or near Highway 83, important for public access, and 
susceptible to subdivision and development. Conversion of these 
forestland parcels would lead to habitat fragmentation, conflicts with 
forest management of the Flathead NF, reduction of public recreation 
opportunities, and the creation of a residential/wildland interface 
zone.
    The LWCF funding is one of several complementary efforts being 
implemented to achieve community goals in the Valley, including an 
impressive array of both public and private funding resources.
    We recognize the Committee's support over the past few years to 
secure LWCF funding, and we encourage complete funding of this high-
priority Swan Valley project. We appreciate your support for this 
funding request, which will promote our rural forest-based economies 
and provide recreational opportunities for the residents of the County 
and State--as well as visitors from elsewhere--for generations to come.
    Thank you for the opportunity to provide our support.
                                 ______
                                 
  Prepared Statement of the Mississippi Department of Marine Resources

    The Mississippi Department of Marine Resources wishes to join the 
list of agencies seeking your support for the President's fiscal year 
2007 Budget Request of $3 million for the National Fish Habitat 
Initiative (NFHI) program and a supplemental appropriation of $3 
million to the U.S. Fish and Wildlife Service's Southeast Fisheries 
Program for the Southeast Aquatic Resources Partnership (SARP).
    The NFHI, lead by the International Association of Fish and 
Wildlife Agencies in partnership with the U.S. Fish and Wildlife 
Service, is a nationwide fisheries habitat restoration plan modeled on 
the successful North American Waterfowl Management Plan. The SARP is 
developing a Southeast Aquatic Habitat Plan that will guide the 
implementation of the NFHI on a regional scale and serve as a model for 
other regions of the country. The Southeast Aquatic Habitat Plan seeks 
to identify and establish Fish Habitat Partnerships to meet the 
objectives of the NFHI.
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the Southeastern United States. 
This partnership developed because (1) the Southeast has the highest 
diversity of aquatic species and habitats of any region in the country, 
(2) these resources are facing serious threats to their future 
existence, and (3) no single State or Federal agency has the necessary 
resources and authority to address these threats. It is only by working 
together through partnerships that this issue can be effectively 
resolved. SARP includes fish and wildlife agencies from Alabama, 
Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, Missouri, 
North Carolina, Oklahoma, South Carolina, Tennessee, and Texas as well 
as the Gulf and Atlantic States Marine Fisheries Commissions, the Gulf 
of Mexico and South Atlantic Fishery Management Councils, the U.S. Fish 
and Wildlife Service, and NOAA Fisheries.
    This unique and focused effort is poised to deliver a new regional 
approach to aquatic conservation for future generations. Securing $3 
million in additional funding for the SARP is critical for the 
successful implementation of the Southeast Aquatic Habitat Plan.
    We thank you for your valuable time and consideration.
                                 ______
                                 
Prepared Statement of the Mississippi Department of Wildlife, Fisheries 
                               and Parks

    We are seeking your support for the President's fiscal year 2007 
Budget Request of $3 million to support the National Fish Habitat 
Initiative (NFHJ) and, furthermore, we ask you to support an additional 
$3 million to be appropriated to the U.S. Fish and Wildlife Service's 
Southeast Fisheries Program for the Southeast Aquatic Resources 
Partnership (SARP). The NFHI, lead by the International Association of 
Fish and Wildlife Agencies in partnership with the U.S. dish and 
Wildlife Service, is a nationwide fisheries habitat restoration plan 
modeled on the successful North American, Waterfowl Management flan. 
The SARP is developing a Southeast Aquatic Habitat Plan that will guide 
the implementation of the NFHI on a regional scale and serve as a model 
for other regions of the country. The Southeast Aquatic Habitat plan 
will identify and establish Fish Habitat Partnerships that will deliver 
the objectives of the NFHJ in the Southeast (Attachment).
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the Southeastern United States. 
This partnership developed because (1) the Southeast has the highest 
diversity of aquatic species and habitats of any region in the country, 
(2) these resources are facing serious threats to their future 
existence, and (3) no single State or Federal agency has the necessary 
resources and authority to address this impending aquatic crisis. It is 
only by working together through partnerships that we will make a 
difference. SARP includes the fish and wildlife agencies from 13 States 
(Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
Missouri, North Carolina, Oklahoma, South Carolina, Tennessee, and 
Texas), the Gulf and Atlantic States Marine Fisheries Commissions, the 
Gruff of Mexico and South Atlantic Fishery Management Councils, the 
U.S. Fish and Wildlife Service, and NOAA Fisheries.
    This unique and focused effort is poised to deliver a new regional 
approach to aquatic conservation for future generations. Securing $3 
million in additional funding for the SARP is critical for the 
successful implementation of the Southeast Aquatic Habitat Plan.
    Thank you for your consideration of this request. If you should 
have any questions or need further information, please contact Mr. 
Walter Hubbard, 601-432-2208.
    Attachments.

                SOUTHEAST AQUATIC RESOURCES PARTNERSHIP

    With partners, protect, conserve, and restore aquatic resources 
including habitats throughout the Southeast, for the continuing 
benefit, use, and enjoyment of the American people.
    The Southeast Aquatic Resources Partnership (SARP) supports the 
President's fiscal year 2007 Budget Request of $3 million for the 
National Fish Habitat Initiative (NFHI) and, furthermore, recommends 
that an additional $3 million be allocated to the U.S. Fish and 
Wildlife Service's Southeast Fisheries Program for implementation of 
the SARP Aquatic Habitat Plan.
    Recognizing the Southeast's unique biological diversity, looming 
threats to critical habitats and limited resources to meet the immense 
challenges, States and Federal agencies and organizations with 
management authority for fisheries and aquatic resources in the 
Southeast joined forces to form a ground-breaking partnership five 
years ago. The Southeast Aquatic Resources Partnership (SARP) includes 
fish and wildlife agencies from 13 States (Alabama, Arkansas, Florida, 
Georgia, Kentucky, Louisiana, Mississippi, Missouri, North Carolina, 
Oklahoma, South Carolina, Tennessee, and Texas); the Gulf and Atlantic 
States Marine Fisheries Commissions; the Gulf of Mexico and South 
Atlantic Fishery Management Councils; the U.S. Fish and Wildlife 
Service; and NOAA Fisheries. These entities have signed an 
unprecedented Memorandum of Understanding pledging to work together for 
the conservation and management of aquatic resources in the Southeast. 
The SARP also involves a number of other Federal agency partners and 
non-governmental organizations.

         THE SOUTHEAST--AQUATIC DIVERSITY OF GLOBAL IMPORTANCE

    The people of the Southeastern United States live in an area that 
has more aquatic freshwater species (62 percent of the freshwater 
fishes and 75 percent of the freshwater mussels) than any region of the 
country. The Southeast has the most aquatic diversity in the country, 
more than 70 major river basins, more miles of coastal shoreline 
(26,000 miles), the highest economic return on recreational fishing 
($17 billion in total economic output), and thebulk of thecountry's 
wetlands important to fisheries and other aquatic organisms (45 percent 
of the country's wetlands and 78 percent of its coastal marsh).

                   THE SOUTHEAST--A CRISIS UNFOLDING

    Human populations in the Southeastern United States are projected 
to grow by about 25 percent between 2005 and 2025. Five of the top 10 
most sprawling U.S. metropolitan areas of 1 million people or more are 
in the Southeastern United States--Nashville, Charlotte, Greensboro, 
Atlanta, and Memphis. Nine Southeastern States are among the top 20 
States that lost the most open space and farmland to urban sprawl 
during the 1990's. New and expanding communities will exhaust water 
supplies and place increased threats to fishery habitats in rivers, 
lakes, and coastal waters. Water resource needs that support outdoor 
recreational pursuits will compete with agricultural interests, 
waterborne transportation interests, and water supply needs for more 
and more communities. The challenge will be to develop sustainable uses 
of fresh water and aquatic resources. The predictable increase in 
public recreation will require everyone to work even closer together to 
ensure that economic vitality and human health are not at odds with 
fisheries and aquatic resource conservation, but rather are seen as the 
results of healthy aquatic resources.

                          SARP ACCOMPLISHMENTS

    Since its inception in 2001, the SARP has realized significant 
accomplishments. The SARP has achieved more than $700,000 in grants, as 
well as substantial contributions from the SARP members to begin laying 
the foundation for the creation of a Southeast Region Aquatic Habitat 
Plan--which will be the first regional component completed under the 
National Fish Habitat Plan, and the national plan's primary delivery 
mechanism for--the Southeast Region. Successful steps in this process 
have included:
  --Pilot Rivers Aquatic Habitat Planning Project.--The SARP worked 
        with The Nature Conservancy to complete pilot aquatic habitat 
        plans for 4 priority watersheds in the Southeast Region--
        Roanoke River (NC), Altamaha River (GA), Pascagoula River (MS), 
        and Duck River (TN). This project was supported by a $75,000 
        grant from the National Fish and Wildlife Foundation (NFWF) and 
        a $75,000 matching grant from the SARP partner agencies.
  --SARP Coordinator.--The SARP coordinator's position was filled in 
        Fall 2005. This was supported by the Southeastern Association 
        of Fish and Wildlife Agencies who committed funding for the 
        position and by a $40,000 grant from the NFWF.
  --Regional Integration of State Wildlife Action Plans.--The SARP is 
        conducting a southeastern regional assessment of aquatic 
        species identified in recently completed State Comprehensive 
        Wildlife Conservation Strategies as being of the greatest 
        conservation need, developing a process for integrating the 
        aquatic elements of the plans, and identifying areas of 
        regional importance for aquatic diversity. This project was 
        supported by a $90,000 grant from the NFWF.
  --Aquatic Nuisance Species Coordinator.--The SARP is developing 
        aquatic nuisance species (ANS) management plans for all SARP 
        States. State plans are scheduled to be completed in late 2007. 
        Development and implementation of these plans will enhance the 
        capabilities of the States to detect and respond to ANS 
        introductions. This was supported by a $232,500 Multi-state 
        Conservation Grant from the International Association of Fish 
        and Wildlife Agencies (IAFWA).
  --Southeast Aquatic Habitat Plan.--The SARP is developing a regional 
        Aquatic Habitat Plan. With the completion of the pilot rivers 
        project, the results and planning methodologies developed in 
        that process will be employed in the development of the 
        regional plan. The Southeast Aquatic Habitat Plan will be 
        completed in 2007, and will be the regional component of the 
        National Fish Habitat Plan. This project was supported by a 
        $257,000 Multi-state Conservation Grant from IAFWA.
    The Southeast Aquatic Habitat Plan will identify the highest 
priority aquatic habitat needs and how to better address the 
conservation and management of aquatic resources across the region. 
Securing $3 million in additional funding for the SARP is critical for 
the successful implementation of the Southeast plan. The SARP's efforts 
at regional planning will serve as a model for other regions identified 
in the NFHI and as components of the national plan itself. Through this 
process, the SARP will identify and establish Fish Habitat Partnerships 
that will deliver the objectives of the NFHI in the Southeast.
                                 ______
                                 
        Prepared Statement of the Montana Fish, Wildlife & Parks

    Montana has a great deal of interest in locating and developing 
wild rainbow trout strains, that has some significant level of 
resistance to the whirling disease parasite Myxobolus cerebralis. 
Montana's management of its salmonid fisheries differs somewhat from 
other western states in that it manages most of its cold-water salmonid 
streams as wild fisheries and stocking of hatchery strains of rainbow 
trout is not allowed in these waters. Because of this management 
philosophy, it would be essential that any whirling disease resistant 
strain(s) of rainbow trout developed through strain resistant research 
would fit the wild trout management strategy. Rainbow trout which show 
some ability to resist whirling disease infections would have to be 
capable reproducing and surviving in the wild environment, plus they 
would have to be compatible with the other wild salmonids, such as 
native cutthroat trout, residing in these streams.
    Whirling disease research conducted over the last several years has 
uncovered two wild strains of rainbow trout, which has shown some 
significant resistance to the whirling disease parasite, Myxobolus 
cerebralis. The first strain is primarily found in lake environments 
with the only source being in Harrison Reservoir located 50 miles west 
of Bozeman, MT. The strain was introduced into Harrison Reservoir in 
late 1970's from Lake DeSmet, Wyoming. A four-year imprint series from 
1977-81 established a self-sustaining wild rainbow trout population, 
which sustained itself on wild reproduction until the whirling disease 
parasite was introduced in the mid 1990's. Initially, the introduction 
caused a large (50 percent) decline in this wild population. Early 
whirling disease research at the Pony Whirling Disease Lab showed that 
this strain of rainbow trout (DeSmet) had a measurable resistance to 
the parasite even without any known previous contact with the WD 
parasite. Early tests showed that approximately 50 percent of the 
Harrsion/DeSmet rainbow trout were resistant to the parasite. More 
recent research has shown the strain has increased its level of 
resistance after 10 years of exposure to the WD parasite to where 
nearly 90 percent are resistant to infection. Montana has decided that 
this WD resistant strain of rainbow trout is a very valuable stock and 
may play an important role in solutions to whirling disease, especially 
in lake environments. In partnership with the USFWL Service, Montana is 
beginning the development a Harrison/DeSmet rainbow brood stock to be 
maintained and held by the Ennis National Fish Hatchery. This strain 
should have wide spread use in areas where whirling disease is a 
problem in lake environments.
    A second wild rainbow trout strain has been identified, as 
partially resistant to the whirling disease parasite and is found in 
the upper Madison River. Initially when the parasite was introduced 
into the Madison River in the late 1980's, this strain had almost no 
resistance to whirling disease infections resulting in large (90 
percent) losses in the wild population. After approximately 15 years of 
exposure to M. cerebralis, this strain appears to have developed enough 
resistance to the parasite to allow some survival to the second and 
third year of life. Prior to this development of whirling disease 
resistance, young-of-the-year wild Madison River rainbow trout 
experienced a 95 percent or greater loss during their first year of 
life. While this is good news for the upper Madison River fisheries, 
some disturbing problems have accompanied this new resistance. The 
resistant offspring has a much slower growth rate than observed 
previously measured and appears to have a very high mortality rate 
during its third year of life. Because of these two problems with the 
WD resistant offspring, there has been little improvement in the number 
of larger wild rainbow trout in the upper Madison River. More research 
needs to been done on this resistant stream rainbow trout to determine 
if this problem can be resolved or is this condition of the new found 
resistance. To date this is the only instance where whirling disease 
resistance has developed in a wild stream strain of rainbow trout after 
10-20 years of exposure to the parasite. Development of salmonid 
strains resistant to whirling disease infections may be one of the most 
promising areas of research and may offer solutions to this problem in 
some wild trout waters. The rainbow trout resistant strain research may 
offer an important insight to whirling disease resistance in other 
susceptible salmonid species.
                                 ______
                                 
          Prepared Statement of the Mountain Group Sierra Club

    Mr. Chairman and Honorable Members of the Committee: The Mountain 
Group Sierra Club appreciates this opportunity to present this 
testimony in support of a $800,000 appropriation from the Land and 
Water Conservation Fund for the Wild Horse Creek conservation project 
in the San Bernardino National Forest.
    The Mountain Group Sierra Club has over 200 members and represents 
the mountain communities from Crestline to Green Valley Lake. All the 
communities are within the San Bernardino National Forest.
    For over a hundred years, the San Bernardino National Forest has 
protected portions of the San Gabriel, San Bernardino, San Jacinto, and 
Santa Rosa mountains. The nearly 660,000 acres of the national forest 
located about 60 miles east of Los Angeles provide a wide variety of 
climates, vegetation, scenery, and wildlife. Nearly two million people 
visit the forest each year for activities such as hiking, camping, 
horseback riding, fishing, and skiing. This high rate of use is 
steadily increasing due to the close proximity of large and rapidly 
growing metropolitan areas in and around the greater Los Angeles Basin. 
More than half of the state's population lives within a two-hour drive 
of this popular forest.
    Available for acquisition in fiscal year 2007 is the 273-acre 
Wildhorse Creek property, located in the San Gorgonio Ranger District 
on State Highway 38. The property is the last significant remnant of an 
old cattle ranch and is surrounded on three sides by the national 
forest and on the fourth side by the state highway. This key inholding 
in the forest has nesting habitat for the California spotted owl and 
the southwestern willow flycatcher. It also provides critical wintering 
range for western mule deer, and supports mountain lions, bears, 
weasels, and other species typically found in the San Bernardino 
National Forest. There are willows located along the creek at the lower 
end of the property where Wildhorse Creek meets the Santa Ana River. In 
the more forested portions of the property, there are Jeffrey pines and 
western juniper.
    A historic trailhead is located where Wildhorse Creek crosses 
Highway 38. The Wildhorse Meadow Trail was a main thoroughfare for the 
indigenous people of the area before the first wagon trails were built. 
Later, when the early homesteaders moved into Big Bear Valley, it 
became a major cattle route. Over the years, gold miners, deer hunters, 
and equestrians have used the trail. Since the property has been in 
private ownership and there are alternative routes into the upper Santa 
Ana Mountains, the Forest Service has blocked access to the Wildhorse 
Meadow Trail. Public acquisition of this property would allow the 
Forest Service to reopen this popular trail, which wanders through 
picturesque granite boulders. This historic trail would take hikers and 
equestrian visitors to Sugarloaf Mountain for overnight camping. A 
proposed wilderness area, Sugarloaf Mountain is not far from Big Bear 
Lake and would provide a less visited alternative to the nearby San 
Gorgonio Wilderness. The Heart Bar Recreation Area lies to the south of 
the parcel and the Barton Flats Recreation Area is to the west. Once 
acquired by the Forest Service, the Wildhorse Creek property would be 
accessible to family campers, day users, and organization campers from 
these recreation areas. With its convenient location on Highway 38 and 
its moderately sloping lower portions, the Wildhorse Creek property is 
highly developable due to the easy access and suitable topography. In 
addition, some of the development proposals have been related to the 
export of water from the area, which contains the headwaters of the 
Santa Ana River. Such proposals pose a threat to the management and 
resources of the surrounding USFS lands and have made this acquisition 
a priority for the forest.
    An fiscal year 2007 appropriation of $800,000 from the Land and 
Water Conservation Fund is needed for the Forest Service to acquire 
this key property. Federal acquisition is essential in order to avoid 
development and protect this property's excellent wildland character.
    The Mountain Group Sierra Club urges you to include this project in 
the fiscal year 2007 Interior and Related Agencies Appropriations bill.
    Thank you for considering this request.
                                 ______
                                 
      Prepared Statement of the Mountains to Sound Greenway Trust

    Mr. Chairman and Honorable Members of the Subcommittee: I write on 
behalf of the Mountains to Sound Greenway Trust to urge your support of 
an appropriation of $1.7 million for the Cascade Checkerboard Program 
in the Mt. Baker-Snoqualmie National Forest (MBSNF) in Washington. The 
Greenway Trust is the private, non-profit conservation organization 
that has successfully protected over 130,000 acres of farm and forest 
land along Interstate 90, a National Scenic Byway, that gives millions 
of people access to outdoor recreation in the MBSNF.
    For over a century, the central Cascades have been marked by the 
checkerboard land patterns resulting from the 19th century land grant 
system. This mix of public and private forest lands has made coherent 
and efficient management for forestry and wildlife habitat difficult 
for both public and private landowners.
    Two important land parcels proposed for acquisition in fiscal year 
2007, in the vicinity of Stampede Pass and Dandy Pass along the crest 
of the Cascade Mountains. Located less than 50 miles from Seattle, 
these proposed acquisitions are primarily within the boundaries of the 
Mt. Baker-Snoqualmie NF, with a corner of the Stampede Pass parcel 
lying in the adjacent Wenatchee NF. In addition to their key role in 
providing wildlife connectivity, they are important for recreational 
assets.
    The 618-acre Stampede Pass parcel, which is available for $975,000, 
contains two miles of the internationally famous Pacific Crest Scenic 
Trail (PCT) running from Mexico to Canada along the spine of Western 
mountains. This project is a top priority of the Pacific Crest Trail 
Association and its acquisition will provide permanent protection for 
this segment of the trail.
    The 640-acre Dandy Pass parcel lies just south of the PCT and is 
available for $725,000. Its acquisition will provide additional 
protection for the landscape surrounding and visible from the trail. In 
addition to hiking, visitors can enjoy camping and cross-country 
skiing. Public ownership will also ensure public access to adjacent 
Forest Service lands.
    Acquisition of these parcels is part of an ongoing program of 
consolidating lands in the central Cascades, which has long been a 
Forest Service priority. The acquisitions of the Stampede Pass and 
Dandy Pass parcels will improve forest management, enhance recreational 
activities, and secure vital wildlife migration corridors. An fiscal 
year 2007 appropriation of $1.7 million from the Land and Water 
Conservation Fund for the Forest Service Cascade Checkerboard program 
is necessary to bring these lands into protected public ownership.
    Thank you, Mr. Chairman, the opportunity to present this testimony 
and for your consideration of this request.
                                 ______
                                 
              Prepared Statement of Mack Taylor, Geologist

    This is to request that you maintain current funding for the 
Mineral Resources Program of the U.S. Geological Survey.
    The Mineral Resources Program produces Mineral Industry Surveys and 
Mineral Resource Assessments which are used by the mining and mineral 
resource industries throughout the world as the only authoritative 
source of fundamental data on the changing status of the world`s 
mineral resources. Those of us in the mining industry use these reports 
constantly in planning and assessment of development and production 
activities.
    There is no other source, anywhere, for these basic studies. The 
research and assessments produced by this group, derived from a 
baseline stretching back over a century, could not be equaled by any 
other agency, public or private, anywhere in the world.
    This is one of the most efficient and effective groups in the U.S. 
Government. Without the studies and information that this small group 
of people provide on a continuing basis, it would be very difficult to 
maintain the current relatively highly efficient balance between 
resource supply and demand.
    I'm a geologist not an economist, but it seems evident that severe 
dislocations in resource supply will be felt fairly quickly throughout 
U.S. industry, and shortly thereafter in increased inflation. Nominal 
funding by the U.S. Government supports a program with a very large 
positive impact.
    Please reconsider the proposal to greatly reduce or eliminate 
funding for the Mineral Resources Program.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    The Metropolitan Water District of Southern California is writing 
in support of the following federal programs, in priority order, under 
the Bureau of Land Management and Environmental Protection Agency's 
budgets, that we believe are deserving of your Subcommittee's support 
during the fiscal year 2007 budget process:
California Bay-Delta Program
    EPA funding for CALFED related programs: water quality, ecosystem 
restoration, watershed protection, water use efficiency, science and 
coordination.
Soil, Water, and Air Management Subactivity
    $5.2 million designation for Colorado River Basin Salinity Control 
Program.
    The Metropolitan Water District of Southern California is a public 
agency that was created in 1928 to meet the supplemental water demands 
of people living in what is now portions of a six-county region of 
southern California. Today, the region served by Metropolitan includes 
approximately 18 million people living on the coastal plain between 
Ventura and the international boundary with Mexico.
    Included in our region are more than 300 cities and unincorporated 
areas in the counties of Los Angeles, Orange, San Diego, Riverside, San 
Bernardino, and Ventura. We provide over half of the water used in our 
5,200-square-mile service area and help our members to develop local 
supplies through increased water conservation, recycling, storage and 
other resource-management programs. Metropolitan's imported water 
supplies come from the Colorado River via our Colorado River Aqueduct 
and from northern California via the State Water Project's California 
Aqueduct.
    We are sensitive to the magnitude of these program requests during 
tight budget times. We are also committed to supporting these federal 
programs as they are critical to meeting the challenges of water 
resources management and source water quality protection throughout 
California. These programs help to ensure long-term water security and 
meet the water quality requirements necessary to provide our member 
agencies with a safe, reliable water supply. We strongly urge your 
support for these funding requests.

                      CALIFORNIA BAY-DELTA PROGRAM

    Metropolitan strongly supports Environmental Protection Agency 
funding needed to supplement the State of California's cost share of 
implementing the CALFED Bay-Delta Program, including water quality, 
ecosystem restoration, watershed protection, water use efficiency, 
science and coordination. In particular, we support funding for 
implementation of key water quality activities, including the San 
Joaquin River drainage and salinity management, source control programs 
in the Delta and its tributaries, and water treatment demonstration 
projects.

                     SOIL, WATER AND AIR MANAGEMENT

    The BLM 2007 General Statement providing budget justifications 
includes five long-term vision components for the Soil, Water and Air 
Management Program (Subactivity). One of these components is meeting 
state water quality standards in all stream miles flowing on BLM 
managed lands. Included in one of the means and strategies for 
achieving BLM's performance goals is tracking compliance with BLM 
obligations to maintain state water quality standards under the Clean 
Water Act and the Colorado River Basin Salinity Control Act. Reducing 
saline runoff to meet the interstate, federal, and international 
agreements to control the salinity of the Colorado River is a critical 
element of the Soil, Water and Air Management Program. Metropolitan 
supports the Administration's funding request of $32.053 million for 
the Soil, Water and Air Management Subactivity under the Land Resources 
Activity. BLM riparian restoration treatments were in part responsible 
for the retention of about 90,000 tons of salinity in six Colorado 
River Basin states, assisting with the objective of preventing further 
degradation of water quality in the Colorado River. As such, 
Metropolitan urges that BLM target $5.2 million to activities that help 
control salt contributions from BLM managed lands in the Colorado River 
Basin. Of that amount, $1.5 million should be distributed based on 
proposals submitted by BLM staff to BLM's salinity control coordinator 
for consideration for funding. Basin states' monies have been utilized 
to cost share a 2006 BLM proposal stretching the federal funding 
provided this fiscal year.
    Much of the land that is controlled and managed by BLM in the 
Colorado River Basin is heavily laden with salt. Past management 
practices, which include the use of lands for recreation; for road 
building and transportation; and for oil, gas, and mineral exploration 
have led to man-induced and accelerated erosion processes. When soil 
and rocks heavily laden with salt erode, the silt is carried along for 
some distance and ultimately settles in the streambed or flood plain. 
The salts, however, are dissolved and remain in the river system 
causing water quality problems downstream.
    Rangeland management can bring about some of the most cost-
effective salinity control actions available. BLM's control of erosion 
from public lands, and thus salt contributions to the Colorado River 
and its tributaries, is essential to the success of the Colorado River 
Basin Salinity Control Program. Acceleration of BLM salinity control 
efforts will result in very significant economic benefits to Colorado 
River water users. Concentrations of salts in the river cause hundreds 
of millions in damage in the United States.
    We look forward to working with your office to further advance 
sound water management activities in California. Please contact me, at 
(213) 217-6211, if I can answer any questions or provide additional 
information.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs

    As the President of the National Association of Abandoned Mine Land 
Programs (NAAMLP), I submit this statement on the proposed fiscal year 
2007 Office of Surface Mining budget.
    The NAAMLP is a tax-exempt organization consisting of 29 states and 
Indian tribes with histories of coal mining and coalmine related 
hazards. These states and tribes are responsible for 99.5 percent of 
the Nation's coal production. Each NAAMLP member administers an 
abandoned mine land (AML) reclamation program funded and overseen by 
the Office of Surface Mining (OSM) pursuant to Title IV of SMCRA, 
Public Law 95-87.
    This statement reflects the NAAMLP position on the proposed fiscal 
year 2007 budget for the Office of Surface Mining, which requests 
$185.9 million for the Abandoned Mine Land Reclamation Program.
    We strongly feel that the future of the AML program should continue 
to focus on the underlying principles and priorities upon which SMCRA 
was founded--protection of the public health and safety, environmental 
restoration, and economic development in the coalfields and mining-
impacted areas of America. Over the past 29 years, tens of thousands of 
acres of mined land have been reclaimed, thousands of mine openings 
have been closed, and safeguards for people, property and the 
environment have been put into place.
    Please remember that the AML program is first and foremost designed 
to protect public health and safety. The bulk of state and tribal AML 
projects directly mitigate AML features that threaten personal safety 
or welfare. While state and tribal AML programs complete significant 
projects that benefit the environment, the primary focus has been first 
on eliminating health and safety hazards and the OSM inventory of 
completed work reflects this fact.
    What the AML inventory of completed work over time, also reflects, 
at least to some degree, is the escalating cost of addressing these 
problems as they continue to go unattended due to insufficient 
appropriations from the AML Trust Fund for state and tribal AML 
programs. Un-reclaimed sites tend to get worse over time and this 
results in increased reclamation costs. Inflation combined with 
increased fuel and material costs, further increases the cost of 
reclamation. The longer reclamation is postponed, the less reclamation 
will be accomplished and it will cost more.
    The AML inventory is dynamic. We believe the dynamic nature of the 
inventory was anticipated from the AML program's inception. States and 
tribes find new high priority problems each year. This is especially 
true where new communities develop in rural areas formerly used for 
mining. New sites also manifest themselves due to time, weather and the 
forces of nature. As a result, new landslides and mine subsidence 
events will develop and threaten homes, highways, and the health and 
safety of our nation's residents. This underscores the need for 
continual updates to the inventory, as well as constant vigilance to 
protect citizens.
    In the end, the real cost of addressing Priority 1 and 2 AML 
hazards exceed $3 billion. The cost of remediating all mining-related 
AML problems, including acid mine drainage (Priority 3 sites), could be 
5 to 10 times this amount and far exceeds available funds.
    These funds also promote development in economically depressed 
areas. Since grants were first awarded to the states and tribes for AML 
reclamation, over $3 billion has been infused into the local economies 
of mining-impacted communities. These are the same communities that 
have been at least partially depressed by the same abandoned mine land 
problems that the program is designed to correct. In fact, those 
dollars spent in economically depressed parts of the country, such as 
Appalachia, could be considered part of an investment in the 
redevelopment of those regions. The AML program translates into jobs, 
additional local taxes, and an increase in personal income. According 
to a United States Forest Service 1992 IMPLAN study, for each $1 spent 
on reclamation construction, $1.23 returns to the nation's economy, and 
for each $1 million in construction, 48.7 jobs are created. The AML 
expenditures over the past 29 years have returned over $4 billion to 
the economy and have created some 150,000 jobs.
    The ability to accomplish the high priority reclamation identified 
in the current inventory is being severely constrained by a declining 
level of funding for state and tribal AML programs.
    While we are aware of the Administration's budgetary efforts to 
meet other priorities related to Homeland Security, the War on 
Terrorism, and Hurricane Katrina, we believe it is vital to release AML 
money that has already been statutorily dedicated for protecting the 
nation's citizen's health and safety from the threats associated with 
past mining.
    Lack of adequate funding has been and continues to be the greatest 
barrier to progress under Title IV of SMCRA in recent years and this 
issue must be addressed if we are to enhance the ability of the states 
and tribes to get more work done on-the-ground within the foreseeable 
future.
    Although OSM's budget overview, seen at the following link, (http:/
/www.osmre.gov/news/OSM%20FY07%20Budget%20Highlights.pdf) shows $145.2 
million for state and tribal reclamation grants, that figure is 
misleading, as it does not account for money that will go to Clean 
Streams and Emergency programs. Assuming that OSM will fund Emergency 
programs at the same level as last year and the Clean Streams program 
at the projected amount of $6.9 million, the funding for state and 
tribal AML reclamation grants will be cut from $145.4 million down to 
the projected $127.2 million as shown above.
    The OSM proposed budget for fiscal year 2007 includes an increase 
over the fiscal year 2006 budget of $688,000 to cover increases in 
OSM's fixed costs. These include and cover expenditures such as vehicle 
purchases, building rent, increased fuel costs, etc. States and tribes 
have also seen dramatic increases in these expenses, yet our grants 
show no increase to cover these costs.
    This reduced level of funding will result in falling far short of 
meeting the needs AML programs have to correct health and safety 
hazards in the coalfields. Less reclamation will be completed and 
citizens living near these hazards will remain at risk.
    The NAAMLP firmly believes that the two most important factors in 
combating the nation's AML problems are reauthorizing the AML program 
and guaranteeing state and tribal reclamation grants at a level similar 
to those seen in fiscal year 2001. In addition, we support a return of 
the state share balances to certified states.
    Thank you for the opportunity to present the NAAMLP's perspective. 
Please contact me if the NAAMLP can provide more information or assist 
the subcommittee in any way.
                                 ______
                                 
     Prepared Statement of the National Alternative Fuels Training 
                               Consortium

    Chairman Burns and Members of the Interior and Related Agencies 
Subcommittee on Appropriations: The National Alternative Fuels Training 
Consortium (NAFTC) requests funding of $2.5 million for fiscal year 
2007 to continue the important work of our organization in supporting 
the use of alternative fuel vehicles (AFVs) and alternative technology 
vehicles. The benefits of our program include improved air quality and 
decreasing dependence on foreign oil. The NAFTC is funded in fiscal 
year 2006 for $2 million in the Science and Technology account in the 
U.S. Environmental Protection Agency budget.
    I am Al Ebron, Executive Director of the NAFTC, a consortium of 27 
educational institutions listed in the attached table. Our programs are 
dedicated to the use of AFVs and advanced technology vehicles (such as 
hybrid gasoline-electric vehicles). The NAFTC supports our nation's 
energy independence and assists in improving our air quality by: (1) 
Developing curricula for AFVs and advanced technology vehicles; (2) 
Conducting training for technicians, fleet managers, government 
officials, students, instructors and others to maintain AFVs/advanced 
technology vehicles; and, (3) Conducting education and awareness events 
to educate the American public about AFVs/advanced technology vehicles. 
The NAFTC is the only nationwide organization that develops curricula 
and disseminates training for AFVs and advanced technology vehicles. 
The NAFTC is headquartered at West Virginia University.
    Our continued dependence as a nation on foreign oil, largely to 
fuel our transportation systems, is a major weakness in our National 
Security. The demand for oil drives our foreign policy and strains our 
relationships both with other countries and with our environment. 
President Bush, in his State of the Union Address on January 31, 2006, 
stated, ``Keeping America competitive requires affordable energy. And 
here we have a serious problem: America is addicted to oil, which is 
often imported from unstable parts of the world. The best way to break 
this addiction is through technology.'' The United States Congress 
passed the Energy Policy Act of 2005 on July 29, 2005 to establish a 
comprehensive, long-range energy policy. The Act provides incentives 
for newer and more efficient energy technologies, as well as 
conservation.
    In the transportation sector, important energy-saving options 
include using AFVs and advanced technology vehicles. According to the 
Energy Information Administration, 20 percent of the millions of 
vehicles to be sold over the next 20 years will be AFVs and advanced 
technology vehicles. Traditional AFVs have increased dramatically in 
the 1990s. With more hybrid models being offered by automobile 
manufacturers, thousands of hybrids are now being sold each year.
    As the number of AFVs/advanced technology vehicles increases in the 
United States, the need for properly trained technicians and fleet 
managers will increase. AFV/advanced technology vehicle trained 
technicians have greater job opportunities with the promise of higher 
salaries. The NAFTC has been a catalyst in providing the curricula and 
training to support this need.
    As vehicle technologies change, the NAFTC will revise and develop 
new curricula and training to support these vehicles. The NAFTC is 
currently developing programs for hybrid and hydrogen-powered vehicles 
to support the use of these advanced transportation technologies to 
reduce our dependence on foreign sources of oil. In addition, the NAFTC 
is developing training programs for First Responders to instruct these 
personnel on how to safely address accidents involving hybrid vehicles. 
We will expand this program to other alternative fuels and Homeland 
Security issues.
    The NAFTC has developed AFV/advanced technology vehicle training 
for CNG, LPG, Electric, Hybrid, Fuel Cell, Biodiesel, Ethanol and 
Hydrogen vehicles. Deployment and use of these vehicles will ensure a 
clean and affordable diversity of options to meet our transportation 
needs. Trained technicians will ensure the continued use of these 
vehicles rather than shunting them aside when service or repairs are 
needed.
    Many in the automotive industry predict a shortage of between 
250,000 and 300,000 technicians over the next ten years. The training 
conducted by the NAFTC's National Training Centers is directly 
impacting the shortage of technicians to maintain AFVs/advanced 
technology vehicles. NAFTC training programs provide workforce 
development opportunities in the regional areas of the member National 
Training Centers.
    The NAFTC is making a difference. Some highlights are as follows:
  --The NAFTC conducted over 40 classes with over 500 attendees last 
        year. The NAFTC has delivered over 700 courses and trained over 
        7,000 technicians, students and others nationwide in AFVs/
        advanced technology vehicles. Many class participants are 
        themselves trainers who in turn train others on AFVs/
        alternative technology vehicles.
  --The NAFTC completed a Biodiesel Training Manual, revised our AFV 
        Overview Manual and conducted nine workshops last year. The 
        NAFTC has developed 20 major curricula and workshop programs 
        for AFVs/advanced technology vehicles.
  --The NAFTC has conducted over 750 workshops and education/outreach 
        events with over 160,000 attendees. The highlight of these 
        outreach activities has been National AFV Day Odyssey, a 
        biennial event held in 2002 and 2004. This nationwide event was 
        established to bring awareness and to promote the use of AFVs 
        and advanced technology vehicles to policymakers, instructors, 
        students, fleet managers and the general public. The 2004 event 
        had nearly 25,000 attendees at 54 different sites in 34 states 
        across the country and 2 sites in Canada. Over 24 million 
        individuals were reached through media outlets across the 
        country.
    The NAFTC will accomplish the following goals with fiscal year 2006 
funding:
  --Continue to conduct training on AFVs and advanced technology 
        vehicles across the country. An additional 10 educational 
        institutions will be added to the consortium, enhancing the 
        number of qualified faculty to train students and in-service 
        technicians.
  --Develop a new Hybrid Vehicle Training Manual, highlighting the 
        changes in hybrid technology and providing technicians new 
        information on available vehicles.
  --Complete the development of the First Responders Safety Training 
        Course. Coordination with Homeland Security, State Fire 
        Marshals, Rescue Organizations, Police and Sheriff Departments, 
        U.S. Department of Transportation, U.S. Department of Energy, 
        U.S. EPA and other organizations for dissemination of this 
        vitally important training has already started.
  --Conduct National AFV Day Odyssey 2006. This nationwide event will 
        continue to build on the success of the 2002 and 2004 events. 
        Efforts will be made to reach even more educators, policy 
        makers, fleet managers, students and the general public than 
        previous events. A concentrated effort will be made to ensure 
        the maximum possible media coverage to spread the message of 
        the benefits of AFVs/advanced technology vehicles.
    The funding for fiscal year 2007 will be used to:
  --Continue to build the program's success, conducting AFV and 
        advanced technology vehicle training across the United States. 
        An additional 10 NTCs will be targeted for addition to the 
        consortium.
  --Develop curricula in support of AFV and advanced technology vehicle 
        needs. Heavy-duty hybrid vehicles, such as municipal buses, are 
        being developed and put into service. Training for these 
        vehicles will be developed for the large group of municipal 
        fleet technicians. The Hybrid Vehicle Training Manual will be 
        updated to include new vehicles released by Vehicle 
        Manufacturers.
  --Follow-on educational and awareness events will be conducted to 
        reinforce the message of the 2006 National AFV Day Odyssey on 
        the merits of AFVs and advanced technology vehicles in 
        improving air quality and decreasing U.S. dependence on foreign 
        oil.
    Fiscal year 2007 funds will support between 35 and 45 schools, as 
new schools are joining the NAFTC monthly. The NAFTC is at the front of 
the effort to clean the air of our nation and reduce its dependence on 
foreign oil. We have taken the initial steps to bring these options to 
those who work on our cars and to the general public. The Subcommittee 
should continue the NAFTC program to continue the benefits that our 
unique nationwide organization can provide in stimulating the increased 
deployment of AFVs and advanced technology vehicles.
    The NAFTC and all of its current and projected members ask that you 
support a continued appropriation of $2.5 million in the fiscal year 
2007 Science and Technology account of the U.S. Environmental 
Protection Agency budget.
    Thank You,

                                        CURRENT NATIONAL TRAINING CENTERS
----------------------------------------------------------------------------------------------------------------
                  State                             Educational Institution                      City
----------------------------------------------------------------------------------------------------------------
Arizona.................................  Gateway Community College.................  Phoenix
California..............................  Cypress College...........................  Cypress
                                          Rio Hondo College.........................  Whittier
Connecticut.............................  Gateway Community College.................  North Haven
Florida.................................  Traviss Career Center.....................  Lakeland
Illinois................................  Morton College............................  Cicero
Indiana.................................  Ivy Tech Community College of Indiana.....  Gary
Iowa....................................  Des Moines Area Community College.........  Ankeny
Louisiana...............................  Louisiana Technical College...............  Baton Rouge
Maryland................................  Com. Col. of Baltimore County               Baltimore
                                           (Catonsville).
Massachusetts...........................  Wentworth Institute of Technology.........  Arlington
Michigan................................  Lansing Community College.................  Lansing
                                          Kalamazoo Valley Community College........  Kalamazoo
Missouri................................  Ranken Technical College..................  St. Louis
Nebraska................................  Central Community College.................  Columbus
Nevada..................................  Community College of Southern Nevada......  North Las Vegas
New York................................  Onondaga Community College................  Syracuse
North Carolina..........................  Wake Technical College....................  Raleigh
Ohio....................................  University of Northwestern Ohio...........  Lima
                                          Ohio Technical College....................  Cleveland
Oregon..................................  Portland Community College................  Portland
South Carolina..........................  York Technical College....................  Rock Hill
Tennessee...............................  Nashville Auto-Diesel College.............  Nashville
Texas...................................  Tarrant County College....................  Ft. Worth
Washington..............................  Shoreline Community College...............  Shoreline
West Virginia...........................  West Virginia University..................  Morgantown
----------------------------------------------------------------------------------------------------------------


                                     PROPOSED NEW NATIONAL TRAINING CENTERS
----------------------------------------------------------------------------------------------------------------
                  State                           Educational Institution \1\                    City
----------------------------------------------------------------------------------------------------------------
Alaska..................................  University of Alaska......................  Anchorage
Utah....................................  Salt Lake Community College...............  Salt Lake City
Vermont.................................  Vermont Technical College.................  Randolph Center
Virginia................................  Northern Virginia Community College.......  Alexandria
----------------------------------------------------------------------------------------------------------------
\1\ Additional training centers are being recruited in Alabama, California, Colorado, Hawaii, Idaho, Minnesota,
  New Mexico, New York, North & South Dakota, Oklahoma, and Pennsylvania.

                                 ______
                                 
  Prepared Statement of the National Association of Local Government 
   Environmental Professionals; U.S. Conference of Mayors; Northeast-
  Midwest Institute; National Association of Counties; International 
 Council of Shopping Centers; International City Managers Association; 
  Cherokee Investment Partners, LLC; The Trust for Public Land; Local 
   Initiatives Support Corporation; Real Estate Roundtable; and the 
         National Association of Industrial & Office Properties

    As your Subcommittee prepares the fiscal year 2007 Interior and 
Environment Appropriations bill, we urge you to include the full $250 
million for the U.S. EPA Brownfields Program, which was authorized by 
the Small Business Liability Relief and Brownfields Revitalization Act 
of 2001 (the ``Brownfields Revitalization Act'').
    The EPA Brownfields Program has broad-based, bipartisan support as 
evidenced by the 99-0 Senate vote and the unanimous consent House vote 
to pass the Brownfields Revitalization Act in 2001. Funds under this 
program are used to assess and clean up brownfields such as abandoned 
or under-utilized warehouses, inactive factories, gas stations, salvage 
yards, vacant lots, contaminated properties, and other eyesores that 
plague virtually every community. These properties cause blight to 
neighborhoods, inhibit economic development, pose risks to public 
health and the environment, and erode the tax base of communities.
    The undersigned coalition of organizations represents thousands of 
communities and tens of millions of Americans who have been working 
during the past decade to promote the reuse of contaminated properties. 
Our coalition together with Federal and state government agencies have 
demonstrated that a strategic combination of public and private 
investment can return brownfield properties to productive use. The U.S. 
EPA Brownfields program has been critical to helping hundreds of 
communities clean up and redevelop these properties, creating thousands 
of jobs, increasing local tax revenue, creating urban green space, and 
bringing new vitality to struggling neighborhoods.
    By any measure, the EPA Brownfields program has been tremendously 
successful. EPA has invested about $800 million in the assessment and 
cleanup of brownfields since 1995. According to EPA, this relatively 
modest investment has leveraged more than $9 billion in cleanup and 
redevelopment monies--a return of more than 10 to 1. In addition, this 
investment has resulted in the assessment of more than 8,000 properties 
and helped to create more than 35,000 new jobs.
    While the EPA Brownfields Program has helped numerous communities, 
much remains to be done. Experts estimate there remain as many as 1 
million brownfield properties nationwide. These sites continue to 
blight neighborhoods, discourage new investment, and undermine economic 
progress in many communities. Moreover, at current funding levels, EPA 
can only fund about one-third of the applicants for Federal brownfields 
grants. Attachment 1 shows that EPA has turned away approximately 800 
applicants over the past 2 years. Without these critical seed funds, 
thousands of sites will continue to remain idle, blighting 
neighborhoods and undermining local revitalization.
    Despite the tremendous success of the program and the compelling 
need in communities across the country, the Administration and Congress 
have significantly under-funded the brownfields program during the past 
four years. Attachment 2 shows that Congress has only appropriated an 
average of $165.6 million a year for the period of fiscal year 2003 
through fiscal year 2006 for the Brownfields program. This represents a 
34 percent reduction from the $250 million per year authorized for the 
overall program under the Brownfields Revitalization Act. Moreover, 
between fiscal year 2003 and fiscal year 2006, Congress has only 
appropriated an average of $90.2 million for brownfields assessment and 
cleanup grants to local communities--the most critical component of the 
brownfields program. This funding level represents a 45 percent 
reduction from the $165 million authorized for assessment and cleanup 
grants under the Brownfields Revitalization Act.
    Consequently, we request that the Subcommittee fully fund EPA's 
Brownfields program at the authorized level of $250 million for fiscal 
year 2007. This modest investment will help hundreds of additional 
communities clean up and reuse thousands of contaminated properties, 
thereby bringing new hope and vitality to millions of Americans 
nationwide.
    We also ask that you resolve a technical problem with the 
Brownfields Revitalization Act, which prevents brownfield grant 
recipients from using a small portion of their grant to cover 
reasonable administrative costs such as rent, utilities and other costs 
necessary to carry out a project. This limitation makes it extremely 
difficult for local governments, community organizations and non--
profit entities to effectively develop and implement their site 
assessment and cleanup programs and projects. All other EPA programs 
(Clean Water, Drinking Water, Superfund, RCRA, etc) and virtually all 
Federal grant programs allow a portion of grant funds to be allocated 
to cover reasonable administrative costs.
    State agencies that receive brownfield funding from EPA are 
permitted to pay administrative costs with their grants. Only local 
governments and non-profit organizations are penalized by this 
prohibition and only the Brownfields program is singled out for this 
unfair treatment. As a result, many localities and organizations are 
unable to use brownfields funds. We have heard from a number of 
communities--especially small and rural communities--who have indicated 
that they are unable to apply for EPA brownfield funding due to the 
prohibition on the use of funds for administrative costs.
    The fiscal year 2006 Senate appropriations bill for EPA eliminated 
this prohibition on the use of brownfield grants to cover reasonable 
administrative costs. Unfortunately, this important provision was 
dropped during Conference Committee consideration of the bill. 
Therefore, we ask you to include this provision again in the fiscal 
year 2007 appropriations bill.
    Finally, we thank you for your leadership in eliminating a 
significant barrier to brownfields redevelopment. Your language in the 
August 2005 SAFETEA-LU legislation made innocent landowners, who 
purchased property before the enactment of the Brownfields law, 
eligible for EPA brownfields grants. This technical correction will 
enable hundreds of additional localities to assess, clean up and 
redevelop blighted property, but it will also increase the demand for 
EPA's brownfields grants.
    Thank you for considering our request to enhance EPA's Brownfields 
Program. The Program is making a critical difference to communities 
across the country, and fully funding this program would enable more 
communities to return blighted property to productive use. The 
technical fix would open the door to hundreds of additional communities 
who could apply for a brownfield grant and see the benefits of 
revitalization.
    If you have questions or want additional information, please 
contact Paul Connor of the National Association of Local Government 
Environmental Professionals at 202-638-6254, Judy Sheahan of the U.S. 
Conference of Mayors at 202-861-6775, or Ken Brown of the Ferguson 
Group at 202-331-8500.

         ATTACHMENT 1.--UN-FUNDED BROWNFIELDS GRANT APPLICATIONS
------------------------------------------------------------------------
Fiscal                               Grants       Grants      Un-Funded
 year        Type of Grants         received   awarded \1\  applications
------------------------------------------------------------------------
  2004Assessment                        325          153           172
      Cleanup                           370           77           293
      RLF                                61           15            46
                               -----------------------------------------
            Total                       756          245           511
                               =========================================
  2005Assessment                        362          170           192
      Cleanup                           267          100           167
      RLF                                44           13            31
                               -----------------------------------------
            Total                       673          283           390
------------------------------------------------------------------------
      \1\ The awarded grants in 2005 are approximate numbers.

ATTACHMENT 2.--ANALYSIS OF FEDERAL FUNDING FOR THE U.S. EPA BROWNFIELDS 
                     PROGRAM: FISCAL YEAR 2003-2007

                               BACKGROUND

    The U.S. Environmental Protection Agency established the federal 
brownfields program in 1995 as a demonstration program, which provided 
seed funding to several types of demonstration pilots across the 
country. The brownfields pilots helped demonstrate how federal funding 
for assessment and cleanup could leverage billions in private sector 
investment to help bring contaminated properties back into productive 
use. In 2002, Congress enacted the Small Business Liability Relief and 
Brownfields Revitalization Act, which provided the brownfields program 
with a Congressional mandate, new liability tools to promote reuse, and 
increased funding at a level of $250 million per year.
    Specifically, the law authorizes $200 million a year for 
brownfields assessment and clean-up grants to local communities. The 
$200 million a year includes direct grants for assessment and clean-up, 
as well as funding for EPA to administer the program (see table below). 
The law also authorizes $50 million a year in grants to States and 
Indian tribes to help them implement state brownfields programs.
    By any measure, the federal brownfields program has been a 
tremendous success. The EPA has invested approximately $800 million in 
brownfields site assessment and cleanup since 1995. According to EPA, 
the program's relatively modest investment has leveraged $9 billion in 
cleanup and redevelopment monies--a more than ten to one return on 
investment. In addition, this investment has resulted in the assessment 
of more than 8,000 properties and helped to create more than 35,000 new 
jobs nationwide.
    Unfortunately, both the Administration and the Congress have 
consistently under-funded the EPA Brownfields Program during the past 
four years. The result is that hundreds of thousands of brownfields 
sites remain idle and continue to blight neighborhoods across the 
country. Below is a summary of EPA Brownfields funding for the period 
of fiscal year 2003-fiscal year 2007, since the new law was enacted.

                                                      EPA BROWNFIELDS FUNDING FISCAL YEAR 2003-2007
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                       Fiscal year
                                                               -----------------------------------------------------------------------------------------
                                                       Law \1\    2003     2003     2004     2004     2005     2005     2006     2006     2007     2007
                                                                request  enacted  request  enacted  request  enacted  request  enacted  request  enacted
--------------------------------------------------------------------------------------------------------------------------------------------------------
Assessment, cleanup grants...........................  \1\ 165    120.5     89.9    120.5     92.9    120.5     89.3    120.5     88.7     89.1        ?
EPA Administration expenses..........................   \1\ 35     30.5     27.0     29.5     27.3     28.0     24.3     29.5     24.5     24.6        ?
State Grants.........................................       50     60.0     49.7     60.0     49.7     60.0     49.6     60.0     49.3     49.5        ?
                                                      --------------------------------------------------------------------------------------------------
      Total..........................................      250      211    166.6      210    169.9    208.5    163.2      210    162.5    163.2        ?
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The federal brownfields law authorizes $200 million a year for brownfields assessment and clean-up grants to local communities. The $200 million a
  year includes direct grants for assessment and clean-up, as well as funding for EPA to administer the program. The $165 million for direct assessment
  and clean-up grants and the $35 million for EPA administrative expenses represent EPA estimates for those categories if the Brownfields Program were
  fully funded at the level authorized by the brownfields law.

 THE ADMINISTRATION IS EPA BROWNFIELDS BUDGET REQUEST FOR FISCAL YEAR 
                               2003-2006

    The Administration requested only $120.5 million a year for 
brownfields assessment and cleanup grants to local communities--the 
most critical component of the brownfields program. This represents a 
27 percent reduction from the $165 million per year authorized for 
assessment and cleanup grants under the Brownfields Revitalization Act.
    The Administration requested only $210 million a year for the 
overall Brownfields program, including grants for assessment and 
cleanup, grants to the States, and administrative expenses for EPA to 
administer the program. This represents a 16 percent reduction from the 
$250 million per year authorized for the overall program under the 
Brownfields Revitalization Act.

 THE ADMINISTRATION IS EPA BROWNFIELDS BUDGET REQUEST FOR FISCAL YEAR 
                                  2007

    The Administration has requested only $89.1 million in fiscal year 
2007 for brownfields assessment and cleanup grants to local 
communities--the most critical component of the brownfields program. 
This represents a 46 percent reduction from the $165 million authorized 
for assessment and cleanup grants under the Brownfields Revitalization 
Act. It also represents a 26 percent reduction from the Administration 
request for fiscal years 2003-2006.
    The Administration requested only $163.2 million in fiscal year 
2007 for the overall Brownfields program, including grants for 
assessment and cleanup, grants to the States, and administrative 
expenses for EPA to administer the program. This represents a 35 
percent reduction from the $250 million per year authorized for the 
overall program under the Brownfields Revitalization Act. It also 
represents a 22 percent reduction from the Administration request for 
fiscal years 2003-2006.

 CONGRESSIONAL APPROPRIATIONS FOR EPA BROWNFIELDS PROGRAM FISCAL YEAR 
                               2003-2006

    Congress has appropriated an average of $90.2 million for 
brownfields assessment and cleanup grants to local communities--the 
most critical component of the brownfields program. The funding has 
ranged from a high of $92.9 million in fiscal year 2004 to a low of 
$88.7 million in fiscal year 2006. This funding level represents a 45 
percent reduction from the $165 million per year authorized for 
assessment and cleanup grants under the Brownfields Revitalization Act.
    Congress has appropriated an average of $165.6 million a year for 
the overall Brownfields program, including grants for assessment and 
cleanup, grants to the States, and administrative expenses for EPA to 
administer the program for the period of fiscal year 2003 through 
fiscal year 2006. The funding has ranged from a high of $169.9 million 
in fiscal year 2004 to a low of $162.5 million in fiscal year 2006. 
This represents a 34 percent reduction from the $250 million per year 
authorized for the overall program under the Brownfields Revitalization 
Act.
                                 ______
                                 
     Prepared Statement of the National Association of Service and 
                       Conservation Corps (NASCC)

    The National Association of Service and Conservation Corps (NASCC) 
urges you to fully fund, at $12,000,000, the Public Lands Corps Healthy 
Forests Restoration Act of 2005 (Public Law 109-154) which was signed 
into law on December 30, 2005.
    When funded, the Act will enable the Departments of Agriculture and 
Interior to engage Service and Conservation Corps in projects: ``(A) To 
reduce wildfire risk to a community, municipal water supply, or other 
at-risk Federal land; (B) To protect a watershed or address a threat to 
forest and rangeland health, including catastrophic wildfire; (C) To 
address the impact of insect or disease infestations or other damaging 
agents on forest and rangeland health'' and for other purposes. Funding 
the Public Lands Corps will enable federal land managers to cost-
effectively complete critical backlogged maintenance projects on 
federal lands.
    NASCC is the voice of the nation's 108 Service and Conservation 
Corps. Currently there are Corps operating in 40 states and the 
District of Columbia that annually enroll more than 23,000 young people 
who contribute about 13 million hours or service to their communities.
    NASCC Corps are direct descendents of the Civilian Conservation 
Corps (CCC) of the Depression-era that provided work and vocational 
training for unemployed single young men through conserving and 
developing the country's natural resources. Between 1933 and 1941 when 
it was disbanded, the CCC had employed almost 3.5 million men who 
planted an estimated 2.5 billion trees, protected 40 million acres of 
farmland from erosion, drained 248,000 acres of swamp land, replanted 
almost a million acres of grazing land, built 125,000 miles of roads, 
fought fires, and created 800 state parks and 52,000 acres of 
campgrounds. But the biggest legacy of the CCC may have been the hope 
it provided both the young men and their families.
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are economically or otherwise disadvantaged and out-of-
work and/or out-of-school, the chance to change their own lives and 
those of their families, as well as improve their communities. Of the 
23,000 Corpsmembers enrolled in 2004-2005, 55 percent had no High 
School diploma, 64 percent reported family income below the federal 
poverty level, 30 percent had previous court involvement and, at least 
10 percent had been in foster care. Contemporary Corps provide 
thousands of 16-24 year olds the In return for their efforts to restore 
and strengthen their communities, Corpsmembers receive: (1) a living 
allowance, (2) classroom training to improve basic competencies and, if 
necessary, to secure a GED or high school diploma, (3) experiential and 
environmental service-learning based education, (4) generic and 
technical skills training, and (5) a wide range of supportive services.
    Research has shown that youth who complete Corps programs have 
higher rates of employment and earn more than their counterparts. 
Corpsmembers also score higher on measures of personal and social 
responsibility and are more likely to earn a college degree. Corps 
generate a positive return for every dollar invested.
    Public Law 109-154 authorizes $12 million for the Secretaries of 
Agriculture and Interior to contract with qualified youth and 
conservation Corps to carry out projects on public lands that are 
consistent with the goals of the Healthy Forests Act. It authorizes $8 
million for priority projects and $4 million for other appropriate 
conservation projects.
    The Act creates two preferences; one for projects and the other for 
Corps. With regard to contracts and cooperative agreements to work on 
``appropriate'' conservation projects, the Secretaries ``may give 
preference to qualified youth or conservation Corps located in a 
specific area that have a substantial portion of members who are 
economically, physically, or educationally disadvantaged to carry out 
projects within the area.'' With regard to priority projects as defined 
by the Healthy Forests Restoration Act, the Secretaries ``shall to the 
maximum extent practicable, give preference to qualified youth or 
conservation Corps located in that specific area that have a 
substantial portion of members who are economically, physically, or 
educationally disadvantaged.'' The Secretaries may also authorize 
projects to be carried out on Federal, State, local, or private land as 
part of a Federal disaster prevention or relief effort.
    Thus, the purposes of the Public Lands Corps Healthy Forests 
Restoration Act are twofold: to participate in the fight against 
wildfires, invasive species, other threats to our public lands and 
other disaster prevention and relief activities, and to engage young 
people, particularly those who are disadvantaged, in these efforts. A 
third benefit of the PLC is that the government may not pay more than 
75 percent of the cost of any project. The remaining 25 percent may be 
provided in cash or in-kind from nonfederal sources.
    According to Congressional testimony provided by the Department of 
the Interior on April 5, ``the 2006 fire season started early this 
year, and fire activity has been well above normal in the Southern and 
Eastern areas of the United States. The National Interagency Fire 
Center (NIFC) Predictive Service Office expects fire potential to be 
significantly higher than normal across most of the Southwest, southern 
California, portions of the Rocky Mountain area, Texas, Oklahoma, and 
central Alaska. . . . Overall, we anticipate a very active fire season 
for the remainder of 2006.'' According to the NIFC, so far this year 18 
states have reported fires that consumed at least 10,000 acres.
    In 2004 the National Fire News noted that ``as firefighters control 
wildland fires, another group of quiet heroes move into the area to 
start the healing. After a wildland fire, the land may need 
stabilization to prevent loss of topsoil through erosion and prevent 
the movement of dirt into rivers and streams. Land management 
specialists and volunteers jump start the renewal of plant life through 
seeding and planting with annuals, trees, and native species that help 
retain soils and fight invasive weeds. It's a long term process that 
comes alive as the wildland fires die down.''
    This is the kind of work at which Corps excel and can play an 
increasingly important role. Service and Conservation Corps are an 
experienced, cost-effective, and valuable resource in the fight against 
fires and infestation. Corps do fuels reduction work, create firescapes 
around new communities as cities spread into previously rural areas, 
provide logistical support to firefighters, remove invasive species 
like Tamarisk, Leafy Spurge and Russian Olive, combat agricultural 
pests and insects such as the Bark Beetle and Pine Beetle, and educate 
homeowners and others about how to prevent fires. They also partner 
with community-based organizations in disaster preparedness and relief 
activities.
    Some examples of the work performed by Corps are:
  --Eleven Corps have sent more than 300 young people and staff to the 
        Gulf Coast. Corps from California, Minnesota, Montana, New 
        York, Pennsylvania, Texas, Alaska, Vermont, Florida and 
        Washington State are helping residents rebuild their homes and 
        their lives by clearing debris, repairing roofs in Mississippi, 
        managing a supply warehouse in Louisiana, serving displaced 
        residents aboard ships in Alabama, and installing temporary 
        ``hard roofs'' on historic buildings in New Orleans.
  --In 2004, the Montana Conservation Corps (MCC) completed over 600 
        acres of wildfire fuels reduction projects in partnership with 
        national parks, state agencies on private lands, and local 
        conservation districts. Its priority has been to create 
        defensible space around historic buildings in the national 
        parks and around campgrounds. In West Yellowstone, MCC 
        partnered with the Chamber of Commerce to remove 300 hazardous 
        trees lining the popular Rendezvous Ski Trails, site of 
        national ski races, and an important economic asset in a 
        community trying to diversify from the traditional snowmobile-
        based economy.
  --The Western Colorado Conservation Corps (WCCC) has done work in the 
        urban interface in the Black Canyon of the Gunnison National 
        Park housing area to insure safe passage for emergency response 
        workers. Corpsmembers have been trained in firescaping around 
        new suburban neighborhoods as cities spread into rural areas. 
        They help to provide both visually aesthetic and fire resistant 
        landscape around structures and along the avenues of emergency 
        response.
  --The California Conservation Corps (CCC) is the nation's oldest, 
        largest and longest-running Conservation Corps. Nearly 90,000 
        young men and women have worked more than 50 million hours to 
        protect and enhance California's environment and communities 
        and have provided six million hours of assistance with 
        emergencies like fires, floods and earthquakes.
  --The Coconino Rural Environment Corps located in Flagstaff, Arizona, 
        thins hundreds of acres of federal, state, county, city, and 
        private lands every year. The Corps has created multiple 
        partnerships in local communities to mitigate the hazards of 
        catastrophic wild fires including one to provide local Native 
        American communities with more than 400 cords of fire wood. The 
        Corps has increased community awareness to the dangers of 
        wildfire and the risks associated with living in one of the 
        most fire prone forests in the world, thus creating a more fire 
        wise community. The CREC thins more than 500 acres a year and 
        returns more than 4000 acres to native grasslands.
    Invasive species are another large and growing threat to our public 
lands. Almost half of the plants and animals listed as endangered 
species by the federal government have been negatively affected by 
invasive species. Purple loosestrife, for example, diminishes waterfowl 
habitats, alters wetland structure and function, and chokes out native 
plants. The Asian long horned beetle destroys valuable city trees and 
could spread. Invasive plants are estimated to infest 100 million acres 
in the United States. A Bureau of Land Management study (1996) 
estimated that 4,600 acres of additional Federal public natural areas 
in the Western United States are negatively affected by invasive plant 
species every day. One report indicates that invasive species cost the 
United States an estimated $137 billion a year.
    Corps have also been mobilized in California, Montana, Colorado, 
New Mexico, Washington, Utah and elsewhere to fight invasive species; a 
growing problem on our public lands. For example:
    The Montana Conservation Corps is partnering with the National 
Forest Foundation, Gallatin National Forest, and Gallatin/Big Sky Weed 
Management Area Committee to undertake an extensive invasive weed 
mapping and removal project in the Lee Metcalf Wilderness. In 2003, 
partnering with the Charles M. Russell National Wildlife Refuge, MCC 
floated sections of the Missouri Breaks Wild and Scenic River to 
inventory and map patches of invasive Leafy Spurge using hand-held GPS 
units and data loggers. The crews collected thousands of Flea Beetles, 
a tested and successful biological control method for leafy spurge, and 
returned to the surveyed sites to release the flea beetles in the most 
sensitive areas.
  --The Rocky Mountain Youth Corps (RMYC), based in Taos and the 
        Western Colorado Conservation Corps (WCCC), based in Grand 
        Junction, Colorado, have been actively involved in tamarisk 
        removal for several years. The WCCC has partnered with the 
        Colorado State Parks Department and the state Division of 
        Wildlife, the Audubon Society, and the Tamarisk Coalition to 
        control acres of Tamarisk and Russian Olive, Hounds Tongue, 
        Canada Thistle and other species, as well as 15 miles of 
        Salsafy, Russian Thistle, and Storks Bill.
    The Public Lands Corps will provide work experience to low-income, 
disadvantaged youth between the ages of 16-24 who are enrolled in the 
Corps, giving them the chance to develop the skills and habits they 
will need to become employed and productive citizens. This experience 
will help them help themselves, their families, and their communities. 
It will also enable federal land managers to cost-effectively complete 
critical backlogged maintenance projects. We urge you to provide $12 
million to support this program and we appreciate your attention to 
this request.
                                 ______
                                 
     Prepared Statement of the New York State Energy Research and 
  Development Authority and the National Association of State Energy 
                               Officials

    Mr. Chairman and members of the Subcommittee, I am Peter Smith of 
New York, and Chair of the National Association of State Energy 
Officials (NASEO). NASEO represents the energy offices in the states, 
territories and the District of Columbia. NASEO is submitting this 
testimony in support of funding for the Energy Star program (within the 
Climate Protection Division of the Office of Air and Radiation) at the 
U.S. Environmental Protection Agency (EPA). NASEO supports funding of 
at least $15 million above the Administration's fiscal year 2007 
request of $45 million, to a level of $60 million, including specific 
report language directing that the funds be utilized only for the 
Energy Star program.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with states, local governments and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and over thirty-five states are Energy Star Partners. In 2005, EPA and 
NASEO announced a new Clean Energy and Environment State Partnership 
program, which already has approximately fifteen state members. We are 
working closely with EPA on a new Energy Efficiency Action Plan and the 
Energy Star Challenge. On October 5, 2005 we worked with EPA to have 
over half the states declare ``Change a Light'' Day. With very limited 
funding, EPA's Energy Star program works closely with the state energy 
offices to give consumers and businesses the opportunity to make better 
energy decisions, without regulation or mandates. As we are facing an 
energy emergency, these programs are even more urgently needed today.
    Energy Star focuses on energy efficient products as well as 
buildings. In 2005, 175 million Energy Star products were purchased. 
The Energy Star label is recognized across the United States. It makes 
the work of the state energy offices much easier, by working with the 
public on easily recognized products, services and targets. In order to 
obtain the Energy Star label a product has to meet established 
guidelines. Energy Star's voluntary partnership programs include Energy 
Star Buildings, Energy Star Homes, Energy Star Small Business and 
Energy Star Labeled Products. The program operates by encouraging 
consumers, working closely with state and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education.
    In addition to the state partners, the program has more than 8,000 
company partners. More than 500,000 families now live in Energy Star 
homes, saving $110 million annually. We are working with EPA, DOE and 
HUD on the development of a ``Home Performance'' with Energy Star 
activity. This allows us to focus on whole-house improvements, not 
simply a single product or service. This will be extremely beneficial 
to homeowners. Pilots have already been undertaken in New York, 
Illinois and Wisconsin. We are also working closely with EPA in the 
implementation of the new Energy Star Challenge, which is encouraging 
businesses and institutions to reduce energy use by 10 percent or more, 
usually through very simple actions. We will work with the building 
owners to identify the level of energy use and compare that to a 
national metric, establish goals and work with them to make the 
specified improvements. Again, this is being done without mandates.
    The state energy offices are very encouraged with progress made at 
EPA and in our states to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been expanding the 
technical assistance work with the state energy offices in such areas 
as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The state energy offices are working cooperatively with our peers 
in the state environmental agencies and state public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.

                             STATE EXAMPLES

    In the examples noted below, the state energy offices have been 
active program participants and promotion agents for Energy Star. We 
can provide a myriad of other state examples at your request.
    Alaska.--Thirty companies and public entities in the State are now 
working with the Energy Star program, with 7,200 homes already earning 
the Energy Star label. With high energy costs, the evaluation tools 
prepared by Energy Star have been very helpful in assessing building 
performance and recommending and implementing improvements. For 
example, the Matanuska-Susitna Borough School District has upgraded 
lighting, installed programmable thermostats and taken other measures 
to reduce energy usage.
    California.--More than 1,850 companies and public entities are 
participating in the program, with 202 manufacturers of Energy Star 
products located in the State. More than 21,100 homes have already 
earned the Energy Star label (D.R. Horton Homes built 1,049 homes in 
2005 to Energy Star standards). The State is focusing on a new homes 
program, there is a State ``Energy Star'' purchase requirement and 
companies as varied as Intel Corporation and Hilton Hotels have been 
program participants.
    Colorado.--Energy Star initiatives and projects have been 
implemented throughout the State. Some notable examples include the: 
(1) Poudre School District in Fort Collins, which completed 95 projects 
saving over $300,000/year; (2) Jefferson County Public Schools in 
Golden, which are saving $2.8 million each year; and (3) 26 different 
homebuilders constructing Energy Star homes (Aspen Homes now builds 100 
percent of its homes to Energy Star standards). Hundreds of companies 
and public entities are participating in the program.
    Idaho.--Twenty-eight companies are building Energy Star homes in 
the State. Western Window in Caldwell is producing Energy Star windows 
for use in the southern part of the State. Utilities are actively 
participating in the program, including both investor-owned and 
municipal utilities. The State's ``GemStar'' program is promoting the 
use of high performance homes. Over 100 companies and other public 
entities are involved in the program.
    Maryland.--Almost 800 companies and public agencies are involved in 
Maryland. Over 4,000 homes have earned the Energy Star label. State 
legislation has promoted the use of Energy Star appliances, including 
making some energy efficient models tax free. Partners include such 
diverse entities as Harley-Davidson, Howard County Public Schools and 
Archstone Smith Realty.
    Mississippi.--With 60 companies and public entities, numerous 
manufacturers and many homes participating in Energy Star and earning 
the Energy Star label, Mississippi is moving aggressively to promote 
the program. Retailers stocking Energy Star products include Wal-Mart, 
Best Buy, Circuit City, Home Depot, Lowe's, Sam's Club and Sears. Five 
companies are now building Energy Star homes. This has taken on added 
urgency in the wake of Hurricane Katrina.
    Montana.--Over 50 companies and public entities are participating 
in the program, with 210 retail locations selling Energy Star products. 
Executive Order 03-01 has directed that Energy Star be included in 
state procurement. Active partners include the Northwest Energy 
Efficiency Alliance, Montana State University, hospitals, schools 
districts, etc. The State has forcefully promoted the program.
    Nevada.--Over 100 companies and public entities are program 
participants. The state energy office and the public utility commission 
are working together to promote a variety of activities, including a 
recent Energy Star appliance rebate program for utilities. The Nevada 
Energy Star Partners Campaign has increased consumer awareness to 90 
percent. The Clark County School District has reduced annual utility 
costs by $4 million through energy efficiency efforts across 147 
schools. The City of Las Vegas has saved 4.8 million kWh through 
aggressive energy efficiency measures. Thirty-three companies are now 
building Energy Star homes. 3,600 homes built by Astoria Homes have now 
earned the Energy Star label.
    New Hampshire.--Over 110 companies and numerous public entities are 
program participants. Hundreds of retail locations are selling Energy 
Star products. Rebates for Energy Star products are now offered by the 
utilities as a result of regulatory actions. The State initiated a 
master lease program to promote performance contracting for energy 
efficiency initiatives. Over 500 State-owned buildings are either being 
evaluated or undergoing modifications.
    New Mexico.--Over 80 companies and public entities are 
participating in the program, with over 2,200 homes already receiving 
the Energy Star rating. Active participants thus far include Two Park 
Square in Albuquerque, the federal buildings in Gallup and Roswell, the 
Albuquerque Indian Hospital and the VA Health Center and scores of 
schools in Albuquerque. Six companies are now building Energy Star 
homes, led by Artistic Homes.
    North Dakota.--Thirty companies and public entities are 
participating, with 3 manufacturers of Energy Star products located in 
the State. Numerous schools have been involved, including, for example, 
Grand Forks West Elementary School, Grand Forks Winship Elementary 
School, Cavalier Public Schools and Walhalla Public Schools. A variety 
of retailers sell these products and Thermal Line Windows in Mandan 
sells Energy Star windows in 12 states.
    Utah.--Over 110 companies and public entities are program 
participants, with over 170 retail outlets selling Energy Star 
products. For example, more than 1,800 Energy Star homes have been 
constructed by Ence Homes (St. George). Thirty-two companies are now 
building Energy Star homes. Amsco Windows of Salt Lake City is a major 
seller of Energy Star windows. The University of Utah has now 
retrofitted 81 buildings with significant energy efficiency 
improvements.
    Vermont.--Over 150 companies and public entities are program 
participants, with 5 manufacturers of Energy Star products located in 
the State. Over 1,900 homes have already earned the Energy Star rating, 
with active promotion of the program accelerating market penetration 
and acceptance. The State has created three Energy Star Retail Centers 
with associated training programs. The state energy office, the Vermont 
Energy Investment Corporation (operating public benefit programs), 
Efficiency Vermont (composed of 20 utilities and others), Green 
Mountain College, Killington Ski Resort and the University of Vermont 
are all aggressive program participants. Vermont is also part of the 
Northeast Energy Star Lighting and Appliance Initiative that has saved 
8 billion kWh in a five-state region.
    West Virginia.--Seventy companies and public entities are 
participating in the program. The state energy office has provided 
technical assistance to industries, public institutions and local 
governments to promote Energy Star products and services, including 
over 100 energy audits leading to significant improvements. Individual 
participants have included Royal Vendors, Inc. (Kearneysville), 
Simonton Windows (Parkersburg) and Marion County Schools (Fairmont). 
Expanded public information initiatives focus on Energy Star.
    Wisconsin.--Almost 800 companies and public entities are 
participating in Energy Star. For example, over 1,900 homes constructed 
by Veridian Homes have earned Energy Star status. In addition, 45 
schools, 6 office buildings, 4 supermarkets and 3,000 existing homes 
have now earned Energy Star recognition. In addition to active 
promotion work by the state energy office having spearheaded the 
implementation of 22 facility upgrades leading to $2.6 million in 
annual savings, 350 builders are constructing Energy Star homes. 
Johnson Controls, based in Milwaukee, has been an industry leader in 
promoting Energy Star through their performance contracting activities. 
A new promotional campaign has led to the sale of more than 900,000 
Energy Star qualified products.

                               CONCLUSION

    Increases in funding for the Energy Star Programs are justified. 
NASEO endorses these activities and the state energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters

                              INTRODUCTION

    The National Association of State Foresters (NASF) is pleased to 
provide testimony on the U.S. Forest Service (USFS) budget request for 
fiscal year 2007. Representing the directors of state forestry agencies 
from all fifty states, eight U.S. territories, and the District of 
Columbia, our testimony centers around those program areas most 
relevant to the long-term forestry operations of our constituents. 
State and Private Forestry programs multiply the public benefits of 
federal funding by leveraging in-kind contributions through cost-share 
programs and matching funds from states. These programs assist private 
landowners in providing society with such public benefits as clean 
water, wildlife habitat, carbon sequestration, and flood control. 
Wildland Fire Management supports essential State and Private Forestry 
and federal programs that address wildland fire.
    Our recommendations include restoring funding to our top three 
priorities (State Fire Assistance, Cooperative Forest Health 
Management, and Urban and Community Forestry) and discussing other 
opportunities for Congress to further the advancement of sustainable 
management on both public and private forestlands nationwide.

NASF FUNDING RECOMMENDATIONS FOR USDA FOREST SERVICE IN FISCAL YEAR 2007
                        [In millions of dollars]
------------------------------------------------------------------------
                                                President's
                                       2006       proposed     Proposed
                                     Enacted        2007      2007  NASF
------------------------------------------------------------------------
State Fire Assistance:
    State and Private Forestry...         32.9         27.0         35.0
    Wildland Fire Management.....         45.8         29.1         55.0
                                  --------------------------------------
      Total......................         78.7         56.1         90.0
                                  ======================================
Cooperative Forest Health
 Management:
    State and Private Forestry...         46.9         34.6         48.0
    Wildland Fire Management.....          9.9          4.6         10.0
                                  --------------------------------------
      Total......................         56.8         39.2         58.0
                                  ======================================
Urban and Community Forestry.....         28.5         26.8         36.0
                                  ======================================
Forest Inventory and Analysis:
    Research and Development.....         59.4         59.3         60.0
    State and Private Forestry...          4.6  ...........          5.0
                                  --------------------------------------
      Total......................         64.0         59.3         65.0
                                  ======================================
Forest Stewardship...............         34.2         33.9         37.0
------------------------------------------------------------------------

                  STATE AND PRIVATE FORESTRY PROGRAMS

State Fire Assistance (SFA)
    State Fire Assistance (SFA) provides crucial financial and 
technical assistance to states and local fire departments for wildland 
fire management. SFA helps to ensure preparedness of local resources, 
which serve as the first line of defense for their forests and 
communities. These fire fighting resources function as both ``first 
responders'' for local incidents and as ``ready reserves'' for large 
federally managed catastrophic fires. Further, SFA is the only federal 
program that currently provides funding for fuel reduction work on non-
federal lands, regardless of their proximity to federal lands. It is 
also one of the few programs that helps communities develop Community 
Wildfire Protection Plans, which are an important component of the 
Healthy Forests Restoration Act. SFA also helps prepare states for 
dealing with non-fire emergencies, such as hurricane recovery and other 
all-hazard events.
    SFA provides the flexibility to meet different state needs, which 
may include firefighting preparedness, firefighter training, fire 
suppression, and hazardous fuel reduction, Community Wildfire 
Protection Plans, as well as prevention activities. SFA is funded under 
both Cooperative Fire Protection (State and Private Forestry) and 
Wildland Fire Management in the Forest Service budget. Funds under 
State and Private Forestry are used to help states increase 
preparedness at the local level through training, coordination, and 
communication to local firefighters. Funding under Wildland Fire 
Management is used for both preparedness and hazard mitigation. 
Reducing these funds would seriously hamper the states' ability to 
treat hazardous fuels on private lands and to work with communities to 
complete Community Wildfire Protection Plans.
    NASF recommends increased funding for State Fire Assistance at $35 
million under Cooperative Fire Protection and $55 million under 
Wildland Fire Management. Increasing funding for these line items will 
provide continued protection for local communities from catastrophic 
wildland fires, many of which originate on federal lands.
Cooperative Forest Health Management
    The Cooperative Forest Health Management program provides funding 
assistance to address forest health issues on non-federal forestland. 
Cooperative Forest Health Management activities include prevention, 
detection, and suppression of damaging insects, diseases, and plants. 
Every year, the American public loses billions of dollars to damage by 
invasive species and the cost of insect and disease detection and 
control. To illustrate the extent of the cost, the potential losses 
from damage by one insect pest, the emerald ash borer, are $25 million 
in ash timber and an additional $20 to $60 billion in street tree 
losses across the nation. The Cooperative Forest Health Management 
program assists in the development and application of new technologies 
that mitigate these forest health concerns and reduce public expenses. 
Forest pests know no land ownership boundaries and often move to and 
from federal lands. These funds, from both State and Private Forestry 
(S&PF) and Wildland Fire Management, are critical to the maintenance of 
healthy and sustainable forests.
    Funding for Cooperative Forest Health Management under Wildland 
Fire Management is used primarily for forest insect and disease 
mitigation in high hazard areas, such as forests at high risk of fire 
or those recently burned and susceptible to insect and disease attack. 
Funding under State and Private Forestry provides states with support 
for prevention, detection, and suppression of harmful insects and 
diseases.
    NASF recommends funding S&PF Cooperative Forest Health Management 
at the fiscal year 2006 level of $48 million to provide the tools 
needed to address forest health issues across the many non-federal 
forest types and ownerships in the United States.
    NASF also recommends $10 million to continue level support for 
Cooperative Forest Health Management under Wildland Fire Management to 
address forest health problems that increase the risk of catastrophic 
wildland fire. Cooperative Forest Health Management funds help states 
achieve the goals of the Healthy Forests Initiative by restoring 
healthy forests across ownership types.
Urban and Community Forestry
    The Urban and Community Forestry program provides technical and 
financial assistance to promote the stewardship of urban and community 
trees and forest resources. The program leverages existing local 
efforts that help urban areas and rural communities manage, maintain, 
and improve their tree cover and green spaces. Such efforts emphasize 
the vital connection between human and natural environments, and create 
social and aesthetic benefits. These efforts also reduce energy 
consumption, create healthier human environments, and reduce the 
prevalence and severity of flooding in our communities.
    NASF worked with the Forest Service to develop a new allocation 
formula to distribute funding among the states and territories. This 
new formula more closely aligns state funding allocation with program 
goals and objectives.
    NASF recommends funding the Urban and Community Forestry program at 
the fiscal year 2003 level of $36 million to enhance the quality of 
life for communities in urban and rural areas.
Forest Inventory and Analysis (FIA)
    The Forest Inventory and Analysis program provides crucial forest 
information to policy makers and land managers, enabling them to make 
informed decisions about our nation's forested lands. FIA data provides 
users with relevant information on the condition, extent, use, and 
health of forests across ownerships. Because of this benchmark 
accomplishment, FIA must continue to provide essential inventory data 
for addressing long-term forest management needs. Funding for FIA from 
State and Private Forestry is essential for supporting state inventory 
crews, an integral component of the program. NASF recommends funding 
FIA at $60 million through Research and Development and $5 million 
through State and Private Forestry, for a total of $65 million. The 
program must continue to advance toward full implementation in all 
states. Together with a well-funded research program, FIA will continue 
to provide essential inventory data for addressing long-term forest 
management needs.
Forest Stewardship Program
    The Forest Stewardship Program continues to serve as the primary 
program for promoting sustainable forest management on family forest 
lands. Since its inception in 1991, the Forest Stewardship Program has 
turned out 240,000 Stewardship Plans covering 30 million acres. By 
expanding the sustainable management of private forest land, the public 
receives an array of benefits including increased water quality, 
improved plant and animal habitat, carbon sequestration, and wood 
products that support local economies. NASF recommends increasing 
funding to meet the President's fiscal year 2006 request of $37 for the 
Forest Stewardship Program. We encourage efforts to better target the 
delivery of the Forest Stewardship Program in order to focus on 
priority resources concerns.

                         OTHER FEDERAL PROGRAMS

Federal Wildland Fire Management
    NASF recommends continued funding of federal wildland fire 
management at the 10-year average. Funding is integral to rapid 
suppression of small fires before they grow into large and costly 
fires. The increasing costs of wildfires--due mainly to drought, fuel 
accumulation, and the rapid expansion of the wildland-urban interface--
makes adequate suppression funding critical. We support continued 
funding for preparedness, fire operations, and hazardous fuels 
treatment on federal land, including the $15 million provided under 
State and Private Forestry appropriations that may be used on non-
federal land to protect communities at risk from adjacent USFS lands 
where hazard reduction activities are planned.
DOI conservation grant programs
    NASF supports the Department of the Interior conservation grant 
programs for private landowners to manage their land for a variety of 
public benefits. Continued funding will ensure these programs remain 
viable.

                               CONCLUSION

    NASF seeks the Subcommittee's support for a Forest Service fiscal 
year 2007 budget that will ensure the continued delivery of a broad 
range of public benefits from privately owned forest lands. 
Collaboration among stakeholders across the landscape--federal, state, 
and local government agencies, private landowners, industry, and non-
profit organizations--is necessary to manage for the wide range of 
forest resources found on all ownerships and the values derived from 
those lands. Cooperative Forestry, State and Private Forestry (S&PF), 
and Wildland Fire Management provide these links. The federal share 
leverages private dollars and provides an important catalyst for 
collaboration in order to take the work far beyond the usual boundaries 
of federal land management.
    We realize that the Subcommittee will be faced with some difficult 
funding decisions this year and will have to make sacrifices and 
tradeoffs to some programs. NASF encourages you to keep our priorities 
in mind when making these decisions.
    Thank you for the opportunity to provide our testimony.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the NASULGC Board on Natural Resources, we thank you 
for your support of science and research programs within the United 
States Geological Survey (USGS) and the Environmental Protection Agency 
(EPA). We appreciate the opportunity to provide detailed 
recommendations for: $788 million for the EPA Office of Science & 
Technology, and the efforts of the American Competitiveness Initiative 
(ACI); $100 million for the EPA Science to Achieve Results program; and 
$1.2 billion for the USGS.
    NASULGC Supports the American Competitiveness Initiative and the 
Administration's request of $788 million for the EPA Office of Science 
and Technology.--State universities and land-grant colleges truly 
welcome and are excited by the President's American Competitiveness 
Initiative (ACI) and the renewed national focus on scientific research 
and education. Education and scientific research have served as the 
infrastructure and foundation for much of Nation's economic and 
national security. We feel targeted federal investments in our top 
priority programs, will provide America with secure economic, 
environmental, and homeland security. $788 million of the EPA of 
Science and Technology would provide small increases to maintain 
ongoing programs. Without sound science, EPA will be unable to 
correctly identify and develop sound management and mitigation 
strategies for critical environmental problems. Any cuts to EPA S&T 
would result in drastic reductions in essential extramural research 
funded by the Office of Research and Development (ORD) and education 
and outreach carried out by the Office of Education. Within the EPA we 
further recommend:
    The NASULGC Board on Natural Resources requests that the Committee 
restore EPA STAR funding to $100 million for competitive grants and $10 
million for graduate fellowships.--One of the most effective programs 
for improving the agency's science capabilities is the Science to 
Achieve Results (STAR) program. The investment EPA ORD makes in STAR is 
especially significant and effective because STAR is not a stand-alone 
grants program. It is coordinated with EPA program and regional 
offices, and targeted at high-priority needs that support the agency's 
mission. The program is leveraged by the participation of other federal 
agencies and the private sector, and involves thousands of research 
scholars in universities.
    NASULGC universities have used STAR extramural research funding to:
  --Develop evaluations of U.S. estuarine and coastal water quality 
        degradation,
  --Analyze ecosystem health and impairment,
  --Establish effective multi-university research collaborations, and
  --Develop techniques to assess the risks to fish in the Great Lakes 
        associated with exposure to endocrine disrupting chemicals.
    Grants from the STAR program have provided financial support for 
several of the top graduate students. These students are now working at 
colleges and universities to educate others in society about 
sustainable management of the Earth's natural resources and maintenance 
of the ecological services that support all life.
    STAR graduate fellowships help move America towards becoming more 
competitive by investing in the next generation of scientists and 
engineers, and providing opportunities for students to develop the 
skills needed to enhance this nation's environmental science expertise. 
Moreover, these grants are often a way to get minority graduate 
students engaged in high-level scientific research. STAR investigator-
initiated research grants are a very important tool to address future 
workforce needs and are significantly expanding the number of 
scientists conducting EPA-related research and enhancing the overall 
quality of EPA Science and Technology.
    NASULGC recommends $1.2 billion for the United States Geological 
Survey, an increase of $200 million above the fiscal year 2006 
conference report. This increase would restore cuts proposed in the 
President's budget; cover rising fixed costs such as salaries and rent; 
accomplish core tasks that have been under-funded for years; and keep 
up with inflation.
    NASULGC supports this amount in coordination with the USGS 
Coalition an alliance of organizations united by a commitment to the 
continued vitality of the unique combination of biological, 
geographical, geological, and hydrological programs of the United 
States Geological Survey.
    In the wake of Hurricane Katrina, the United States Geological 
Survey (USGS) was praised for quickly arriving on the scene and 
providing reliable data that assisted recovery teams. As members of 
academic community that have partnered with the USGS for the past 
several decades, we were very pleased with their performance during 
this catastrophe. We have worked with the USGS to provide the public 
and private sector, as well as policymakers, with crucial information 
about natural resources, natural hazards and wildlife diversity. 
Furthermore, the USGS provides geospatial data, from maps to satellite 
images, for improved land and wildlife management. Our universities 
provide necessary expertise to complement the USGS workforce, and the 
land-grant missions of our universities dovetail appropriately with the 
resource development and conservation missions of the Department of 
Interior. We further recommend that part of the $1.2 billion request be 
used to support:
    The NASULGC Board on Natural Resources requests $8,775,000 for the 
Water Resources Research Institutes, an increase of $2,275,000 over the 
fiscal year 2006 appropriation. This request is based on:
  --$7,000,000 in base grants for the water resources research 
        institutes as authorized by Section 104(b) of the Water 
        Resources Research Act, including state-based competitive 
        grants;
  --$1,500,000 to support activities authorized by section 104(g) of 
        the Act, a national competitive grants program, and
  --$275,000 for program administration.
    The Administration's proposal to eliminate funding for this 
excellent partnership with state governments and universities is 
unjustified. Federal funding for the water resources research institute 
program is the catalyst that moves states and cities to invest in 
university-based research to address their own water management issues. 
The added benefit is that research to address state and local problems 
often helps solve problems that are of regional and national 
importance. Many of the projects funded through this program provide 
the knowledge for state or local managers to implement new federal laws 
and regulations. Perhaps most important, the federal funding provides 
the driving force of collaboration in water research and education 
among local, state, federal and university water professionals.
    This program is essential to solving emerging and future state, 
regional and inter-jurisdictional water resources problems. Institutes 
in Louisiana, California and North Carolina, made major contributions 
in emergency planning and hurricane recovery, protecting groundwater 
aquifers from sea water intrusion and reducing water treatment costs. 
The institutes also provide training for the next generation of water 
resource managers and scientists.
    The water resources research institute program is constantly 
striving for efficiency in research administration and collaboration. 
State water resources research institutes take the relatively modest 
amount of federal funding appropriated by this Subcommittee, match it 
2:1 with state, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
state water problems that are of national importance. The Institutes 
have raised more than $15 in other funds for every dollar funded 
through this program.
    The NASULGC Board on Natural Resources supports $61 million for the 
Mineral Resources Program (MRP), which would restore cuts made over the 
past 5 years, and is a modest increase of about $7 million above fiscal 
year 2006. Our request should set aside $5 million for the creation of 
a Mineral Education and Research Initiative (MERIT), a peer-reviewed 
external grants program for applied research and education in mineral 
resources and material flows analysis conducted by universities, state 
organizations, and individuals in the private sector. Last year, the 
Senate appropriated and the USGS committed $1,000,000 toward Mineral 
Resources External Research, but additional funds are needed to expand 
upon this first step. Apart from this small program, there is virtually 
no funding to sustain applied science research and education related to 
mineral resources.
    The establishment of a consistently well-funded MERIT would follow 
the recommendations of three recent National Research Council reports 
and would help arrest the dramatic decline of minerals expertise in the 
United States. Funding levels of $5 million in fiscal year 2007, and $8 
million in fiscal year 2008, is an appropriate ramp-up for the external 
grants program, which ideally should reach a level of $20 million per 
year. Modest levels ($1,000,000) of external research funding by the 
MRP in fiscal year 2005 to six universities supported graduate student 
research and education.
    The NASULGC Board on Natural Resources supports funding the USGS 
National Cooperative Geologic Mapping Program at a level of $31.5 
million.--This is a $6.1 million increase above the Administration's 
request. Universities are involved in this program through competitive 
grants for both the training of scientists. These scientists posses 
special skills needed in geologic mapping and the production of new 
geologic maps to meet needs in stewardship of water, energy, and 
mineral resources; risk reduction from natural hazards; and 
environmental protection.
    The NASULGC Board on Natural Resources supports $17.5 million for 
the Cooperative Fish and Wildlife Research Unit Program of the USGS.--
This is a $2.6 million increase above the Administration's request. The 
additional funds will be critical in filling the many vacant scientist 
positions in the Cooperative Fish and Wildlife Research Unit Program 
throughout the nation. This program has proven to be a remarkably 
successful investment. Unit scientists also play a vital role in 
practical, real-world training of the next generation of natural 
resource managers, who will be needed soon to replace a significant 
professional workforce component that is nearing retirement.
    Thank you for the opportunity to share our views with the 
Committee.
About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all fifty 
states. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.
About the Board on Natural Resources
    The Board's mission is to promote university-based programs dealing 
with natural resources, wildlife, ecology, energy, and the environment. 
Most NASULGC institutions are represented on the Board. Present 
membership exceeds 500 scientists and educators, who are some of the 
nation's leading research and educational experts in environmental and 
natural-resource disciplines.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition

                                SUMMARY

    The National Cooperators' Coalition (NCC) urges Congress to 
increase the budget of the U.S. Geological Survey's Cooperative Fish 
and Wildlife Research Units to $17.5 million in fiscal year 2007. This 
increase of $2.6 million above the fiscal year 2007 request is 
essential to fill the growing number of vacant scientist positions in 
the USGS program and restore the program's integrity.
    The National Cooperators' Coalition is an alliance of more than 60 
nonfederal CRU program cooperators and other supporters of the CRU 
program. Its members include state wildlife agencies, universities, and 
non-governmental organizations. The mission of the NCC is to build a 
stronger and more coordinated base of support to serve research, 
education, and technical assistance needs of the nonfederal CRU program 
cooperators.

                FUNDING SHORTFALL AND LOSS OF SCIENTISTS

    The NCC requests your support in providing $17.5 million in fiscal 
year 2007 to fill the many vacant scientist positions in the 
Cooperative Fish and Wildlife Research Unit Program of the U.S. 
Geological Survey (USGS). We greatly appreciate your past efforts in 
behalf of the Cooperative Fish and Wildlife Research Units, especially 
given difficult budgetary constraints.
    As you know, the 40 Cooperative Fish and Wildlife Research Units 
across the country provide very important and cost-effective products 
and services to state and federal agencies, universities, and private 
landowners in the form of management-oriented research, graduate level 
education, and technical assistance. Unlike other programs, this one 
co-locates substantial numbers of federal scientists at universities 
who serve as graduate research/teaching faculty. These federal 
scientists understand (and communicate to their students) the nature of 
conducting research within a government agency to address real-world 
problems.
    Full funding and scientist staffing for the Cooperative Fish and 
Wildlife Research Units, which was achieved through your support in 
fiscal year 2001, resulted in unparalleled cooperation, productivity, 
and service in the management of our natural resources. Unfortunately, 
The $14.938 million requested by the Administration for fiscal year 
2007 is $2.6 million less than the amount needed to fill the vacant 
Unit scientist positions and meet congressionally mandated increases in 
federal salaries and benefits, and is only $861,000 more than the 
amount appropriated 6 years earlier. During that same time the 
Cooperative Fish and Wildlife Research Units will have been required to 
absorb $3.0 million in uncontrollable salary and benefit costs, while 
being directed to establish and staff a new Unit. The result is that a 
record number of Unit scientist positions (22) will need to be vacant 
by the end of fiscal year 2007 in order to meet the funding level in 
the current budget request. For the cooperators in any given affected 
state, these vacancies have caused an enormous 25 percent to 67 percent 
reduction in the number of Unit scientists and their contributions to 
research, education, and technical assistance. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Cooperative Fish and Wildlife Research Units have been a 
remarkably successful investment. Unit scientists leverage the USGS 
base funding provided by Congress more than 3:1 with funds from other 
sources. Unit scientists also play a vital role in practical, real-
world training of the next generation of natural resource managers, who 
will be needed soon to replace a significant professional workforce 
component that is nearing retirement. Scientist vacancies hamper the 
ability of the program to leverage funding from state, federal, and 
private sources for addressing key natural resource problems and 
training tomorrow's managers.
    The Cooperative Fish and Wildlife Research Unit program is a 
synergistic one that requires each cooperator (federal, state, 
university, and private) in a Unit to make its agreed upon investments 
under negotiated agreements. Under the fiscal year 2007 budget request, 
however, for the fifth year in a row, the federal government is not 
making its agreed-upon contribution, particularly in the nearly half of 
all Units across the country that have one or more scientist vacancies.
    We urge you, therefore, to support providing $17.5 million for the 
Cooperative Fish and Wildlife Research Unit Program in fiscal year 
2007. This action will fill vacant scientist positions at the Units and 
ensure that the Units can continue to support the needs of state, 
university, and private cooperators in your states and elsewhere across 
the country.
    We thank you for consideration of our request.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $1.2 billion for the U.S. Geological Survey 
(USGS) in fiscal year 2007. NCSE recommends a minimum funding level of 
$900 million for the Environmental Protection Agency's (EPA) Science 
and Technology account, including at least $150 million for the Science 
to Achieve Results (STAR) research grants program and $20 million for 
the STAR graduate fellowship program, as well as $10 million for the 
Office of Environmental Education.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.

                         U.S. GEOLOGICAL SURVEY

    The vital importance of the U.S. Geological Survey in protecting 
public safety has been brought home by a series of devastating natural 
disasters over the past several years. Investments in the USGS pay 
enormous dividends by reducing risks from earthquakes, tsunamis, 
floods, hurricanes, landslides, wildfires, and volcanic eruptions. The 
USGS plays a pivotal role in preventing natural hazards from becoming 
natural disasters. Likewise, the USGS helps provide a scientific basis 
for managing critical natural resources--from energy to wildlife to 
water resources.
    As a founding member and co-chair of the USGS Coalition, NCSE joins 
with nearly 70 other organizations in recommending an appropriation of 
$1.2 billion for the USGS in fiscal year 2007. This increase would 
enable the USGS to restore the science cuts proposed in the budget 
request, accelerate the timetable for deployment of critical projects 
(e.g., Advanced National Seismic System, National Map, and National 
Streamflow Information Program), and launch new science initiatives 
that would begin to reverse the cumulative effects of the long-term 
funding shortfall that has left the USGS budget stagnant for the past 
decade.
    The President's budget request would cut funding for the USGS by 
$20.6 million or 2.1 percent to $944.8 million. In real dollars, the 
USGS budget would fall to its lowest level since 1996, when the 
National Biological Service was integrated into the USGS. The fiscal 
year 2007 request would add $40.1 million in new programs and fixed 
costs, which would be offset by redirecting $50.7 million from ``lower 
priority'' activities and eliminating $10.0 million in earmarked funds, 
according to USGS budget documents.
    Funding is requested for a multi-hazards pilot initiative, 
development of Landsat 8, increased energy research, and regular 
testing for avian influenza in wild birds as part of an expanding 
detection effort. These and other USGS initiatives deserve the support 
of Congress.
    Two proposed large program cuts are of special concern to NCSE. 
First, $22.0 million would be cut from the Mineral Resources program, a 
devastating 42 percent decrease in funding. Second, the entire $6.4 
million budget for the Water Resources Research Institutes, which are 
located in all 50 states, would be eliminated. These and other proposed 
budget cuts would adversely affect the ability of the USGS to achieve 
its mission. We encourage Congress to restore the cuts, but this 
funding should not come at the expense of other high priority programs 
in the USGS.
    The USGS Mineral Resources program is an essential source of 
objective guidance and unbiased research on our mineral resources that 
helps guide economic development of natural resources and protection of 
the environment. This guidance and research is important to reduce the 
environmental impacts of mining and to maintain the growing value of 
processed materials from mineral resources that accounted for $478 
billion in the U.S. economy in 2005, an increase of 8 percent over the 
previous year. The proposed cuts in the Minerals program would 
terminate multidisciplinary research that has important implications 
for public health (such as studies on mercury, arsenic and other 
inorganic toxins), environmental protection, infrastructure, economic 
development, and national security.
    The Water Resources Research Institutes have been highly successful 
in developing cooperative programs that leverage federal investments 
with funds from other sources. The proposal to eliminate all funding 
for this partnership is inconsistent with guidance from the House 
Appropriations Committee: ``The Administration has placed a high 
priority on cooperative programs that leverage funds from State and 
local governments as well as private entities. The Committee believes 
that Bureaus that are successful in implementing these policies should 
be rewarded and not penalized'' (H. Rpt. 108-542).
    The request includes an increase of $20.7 million for non-
discretionary ``fixed cost'' increases (such as salaries and rent), of 
which $15.2 million are budgeted and $5.5 million are ``absorbed.'' The 
cumulative effect of absorbing fixed cost increases over many years has 
had a disproportionate impact on core USGS programs which cannot absorb 
cuts without affecting scientific research and monitoring activities. 
Without full funding of fixed cost increases, the USGS may be forced to 
curtail ongoing activities, hindering or preventing the delivery of 
data needed by resource managers and emergency planners. This would 
increase our vulnerability to disasters and increase the costs of 
recovery.
    In addition to restoring the proposed program cuts, we encourage 
Congress to provide additional increases that would enable the USGS to 
meet the tremendous need for science in support of decisionmaking. More 
investment is needed to strengthen USGS partnerships, improve 
monitoring networks, produce high-quality digital geospatial data and 
deliver the best possible science to address societally important 
problems. The USGS has a national mission that addresses the needs of 
all citizens through natural hazards monitoring, drinking water 
studies, biological and geological resource assessments, and other 
activities.
    From 1996 to 2006, total federal funding for research and 
development has risen by 55 percent from $87 billion to $134 billion in 
constant dollars. By contrast, real funding for the USGS has been 
nearly flat after adjusting for inflation. Even this flat funding for 
the USGS reflects congressional restoration of proposed budget cuts.
    We encourage Congress to provide the USGS with a budget that will 
allow for the growth necessary to address emerging needs for science. 
After years of stagnant funding and absorption of uncontrollable cost 
increases, the USGS has a large and growing backlog of monitoring and 
science needs.
    The National Council for Science and the Environment urges Congress 
to appropriate $1.2 billion for the USGS in fiscal year 2007. This 
investment will help the USGS improve monitoring networks, strengthen 
partnerships, produce high-quality data, and deliver impartial science 
that serves the needs of the nation.

                    ENVIRONMENTAL PROTECTION AGENCY

    In order to fulfill its mission, the U.S. Environmental Protection 
Agency (EPA) needs increased investments in both its intramural and 
extramural science programs. The National Council for Science and the 
Environment (NCSE) urges Congress to appropriate a minimum of $700 
million for EPA's Office of Research and Development (bringing it back 
to fiscal year 2004 levels), including at least $150 million for EPA's 
Science to Achieve Results (STAR) research grants program and $20 
million for EPA's STAR graduate fellowship program. We recommend a 
total of $900 million for EPA's Science and Technology account. NCSE 
also urges Congress to restore full funding for the Office of 
Environmental Education at a level of at least $10 million.
    EPA's research and development portfolio has stagnated while the 
complexity of environmental challenges continues to grow. In real 
dollar terms, EPA's funding of science has been nearly unchanged for 
more than two decades. Under the fiscal year 2007 budget request, 
funding for EPA's R&D portfolio would fall to its lowest level since 
1987.
    EPA's strategic plan calls for science-based decisionmaking, but 
the agency will be unable to achieve this goal if its capacity to 
conduct science is not improved. According to its strategic plan, ``EPA 
has identified reliance on sound science and credible data among the 
guiding principles we will follow to fulfill our mission to protect 
human health and the environment.'' EPA needs to reverse the decline in 
its capacity to conduct science in order to fulfill its mission.
    Under the President's fiscal year 2007 budget, EPA's total budget 
would decline by $310 million or 4.1 percent to $7.3 billion, after a 
similar cut in fiscal year 2006. EPA's R&D portfolio would be cut by 
$43 million or 7.1 percent to $557 million, after a similar cut in 
fiscal year 2006. Funding for most EPA research areas would decline. If 
EPA's fiscal year 2007 budget proposal is enacted, funding for the 
Office of Research and Development would $90 million or 14 percent 
below its peak funding level of $646.5 million in fiscal year 2004.
    EPA created the extramural Science to Achieve Results (STAR) 
program as part of a set of reforms to EPA science proposed by the 
National Academy of Sciences in the 1990s. The STAR research grants 
program expands the scientific expertise available to EPA by awarding 
competitive grants to universities and independent institutions in 
order to investigate scientific questions of particular relevance to 
the agency's mission.
    The EPA's STAR program has been widely praised. The National 
Academies issued a laudatory report, The Measure of STAR, which 
concludes that the program supports excellent science that is directly 
relevant to the agency's mission. It says, ``The STAR program should 
continue to be an important part of EPA's research program.'' According 
to the report, the STAR program has ``yielded significant new findings 
and knowledge critical for regulatory decision making.'' The report 
says, ``The program has established and maintains a high degree of 
scientific excellence.'' It also concludes, ``The STAR program funds 
important research that is not conducted or funded by other agencies. 
The STAR program has also made commendable efforts to leverage funds 
through establishment of research partnerships with other agencies and 
organizations.''
    The EPA STAR research program compares favorably with programs at 
other science agencies. According to the National Academies report, 
``The STAR program has developed a grant-award process that compares 
favorably with and in some ways exceeds that in place at other agencies 
that have extramural research programs, such as the National Science 
Foundation and the National Institute of Environmental Health 
Sciences.''
    Funding for the STAR program has been cut repeatedly over the past 
several years. The fiscal year 2007 request for the STAR research 
grants program is $65.3 million, which is 38 percent below the fiscal 
year 2004 request of $104.7 million and 24 percent below the fiscal 
year 2004 enacted level. NCSE proposes that the STAR research budget be 
increased to $150 million, which would allow expansion of areas and 
scientists supported and would send a signal that Congress is serious 
about science for environmental decisionmaking.
    EPA created the STAR graduate fellowship program to ensure a strong 
supply of future environmental scientists and engineers. It is the only 
federal program aimed specifically at students pursuing advanced 
degrees in environmental sciences. According to the National Academies, 
``The STAR fellowship program is a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering to help build a stronger scientific foundation for the 
nation's environmental research and management efforts.''
    For the fifth consecutive year, the President's budget request has 
proposed deep cuts in the STAR graduate fellowship program. Congress 
restored full funding in each previous year. The fiscal year 2007 
budget request would cut funding by 26 percent in fiscal year 2007. The 
current level of funding is insufficient to allow all students whose 
applications are rated as excellent to receive fellowships and it is 
insufficient to meet national needs for a scientifically trained 
workforce. NCSE recommends doubling the funding for STAR fellowships to 
$20 million, which can be accomplished without any decrease in the 
quality of the awardees.
    The fiscal year 2007 budget request proposes no funding for the EPA 
Office of Environmental Education. NCSE strongly encourages Congress to 
restore full funding of at least $10 million to support the 
congressionally mandated programs administered by this office. These 
programs provide national leadership for environmental education at the 
local, state, national and international levels, encourage careers 
related to the environment, and leverage non-federal investment in 
environmental education and training programs.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

    Request.--$50,000,000 from the Historic Preservation Fund, National 
Park Service, the Department of Interior, for the States to carry out 
the National Historic Preservation Pro-gram Administration.

                                SUMMARY

    The National Conference of State Historic Preservation Officers 
requests $50,000,000 for fiscal year 2007 for the administration of the 
National Historic Preservation Program by the states. While this is an 
increase over the Administration's request of $35,700,000, $50,000,000 
is only one-third of the annual deposits into the Historic Preservation 
Fund.

                     EMERGENCY SUPPLEMENTAL THANKS

    On behalf of the hard-hit State Historic Preservation Officers in 
the Gulf States, the National Conference extends its deepest thanks to 
the Senate Appropriations Committee for including in the Emergency 
Supplemental the $80,000,000 for restoration of damaged historic places 
and the $3,000,000 to expedite responses on federal agency impacts to 
historic places. The State Historic Preservation Offices will use that 
money wisely in hurricane recovery in the Gulf.
    The Supplemental funding highlights the role that resources--
dollars--play in preservation. All SHPOs have addressed declining 
budgets by paring down to the bare essentials. Once at the ``bare 
bones'' level, SHPOs have no where else to cut. The Emergency 
Supplemental funding is so important to the recovery of this historic 
region. Had HPF funding levels over the years matched inflation, SHPOs 
would have been better prepared to respond.

                       IMPACT OF FUNDING DECLINE

    States continue to struggle to achieve bare minimum NHPA mandates 
as funding--in real dollar terms--declines. HPF withdrawals dropped by 
more than 25 percent from fiscal year 2001 to fiscal year 2003 and have 
been essentially flat since then. In real dollar terms, the current HPF 
appropriation is the same as the 1975 appropriation although the 
workload has increased.\1\ Our request would return the national 
program to levels comparable to fiscal year 2001, adjusted for 
inflation.
---------------------------------------------------------------------------
    \1\ In 1975, SHPO responsibilities included survey, National 
Register, planning, Section 106 reviews, and restoration grants. In 
2005 SHPO responsibilities include the 1975 programs plus rehab tax 
credits, Certified Local Governments with a 10 percent pass through, 
and Preserve America.
---------------------------------------------------------------------------
    Declining HPF withdrawals continue to force SHPOs to ignore the 
preservation needs of their States to respond to on-demand federal 
requirements. Economic Research Associates, an internationally economic 
consulting firm, analyzed SHPO's activity and concluded---- \2\
---------------------------------------------------------------------------
    \2\ Economic Research Associates, ``Section 106 Cost Assessment,'' 
for NCSHPO, January 2006, ERA Project No. 15755. Copies available 
through NCSHPO.``Section 106 is a paradox in that it is an 
un(der)funded Federally mandated program that states are required to 
complete, whether or not sufficient budgets are available; as such, 
reallocation of funding from other program areas to cover the costs of 
Section 106 funding have [sic] a negative effect on other historic 
preservation priorities.
---------------------------------------------------------------------------
    ``Based on average costs, staff allocations and `time-spent' 
information provided . . ., SHPOs have become very efficient at 
processing Section 106 Reviews.
    ``[S]tates already overmatch Federal contributions, so Section 106 
can be considered overly `cost effective' from the standpoint of 
leveraged Federal expenditures.
    ``As government programs go, Section 106 appears to run quite 
efficiently and at a very low average cost. In fact, the opposition to 
the program is more a reflection of resistance to government regulation 
of any type, as opposed to specific inefficiencies within Section 106.
    ``Many SHPOs have streamlined the review processes through 
Programmatic Agreements, special review approaches . . ., and 
investment in technology such as web-based databases and Geographic 
Information Systems (GIS).
    ``Other needed preservation programs are being starved to cover 
under-funded, but mandated Section 106 review costs (National Register, 
historic site survey, planning, rehab tax credit assistance, education, 
etc.).'' [emphasis added]
    Historic preservation is and has been an effective domestic policy 
tool that both addresses key priorities for the conservation of our 
priceless heritage and generates significant economic benefits to the 
Nation. At $50,000,000, SHPOs could achieve much more in preserving and 
protecting heritage properties, reviewing Federal historic preservation 
tax credit applications, implementing the Preserve America and Save 
America's Treasures initiatives, and streamlining the historic 
preservation review process.

                        SUPPORT FOR $50,000,000

    Historic preservation enjoys wide, bipartisan support in the 
Congress and around the country. Senators Mike DeWine and Richard 
Durbin and a fourth of the Senate went on record supporting the HPF. 
The Senators said, ``SHPOs provide the foundation for the nation's 
historic preservation program. . . . Funding for SHPOs returns the 
federal investment by leveraging additional dollars through local jobs, 
fostering nonfederal contributions and securing long-term economic 
development.'' \3\
---------------------------------------------------------------------------
    \3\ Dear Colleague letter by Senators DeWine and Durbin.
---------------------------------------------------------------------------
    Mayor Mike Swoboda of Kirkwood, Missouri, said ``The value of 
historic preservation in a local community is beyond price. It's about 
preserving something that can't be replicated today. It's about 
appreciating the planning and efforts of those who came before us. 
Historic preservation upholds what was important in the past, thereby 
maintaining a community's foundation: its past, present, and future.'' 
\4\
---------------------------------------------------------------------------
    \4\ National Park Service, The Historic Preservation Fund Annual 
Report fiscal year 2003, [March 2004].
---------------------------------------------------------------------------
    Governor Rick Perry of Texas concurs: ``Historic preservation 
creates jobs, revitalizes downtown business districts, provides 
affordable quality housing and stimulates heritage tourism.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
                            ECONOMIC IMPACT

    Aside from its incalculable cultural benefits, historic 
preservation also provides an opportunity to generate local, regional 
and national economic growth by revitalizing valuable historic 
neighborhoods and communities, enticing private capital investment and 
fostering heritage tourism. HPF programs such as the Rehabilitation Tax 
Credit have proven their worth by using the modest Federal operating 
funds to stimulate as much as $3 billion per year in economic benefits 
to the Nation each year.

                            HERITAGE TOURISM

    Historic preservation is the foundation of heritage tourism, which 
is a multibillion dollar industry ($200 billion annually by 2005). 
Heritage tourists stay longer and spend more than other tourists do 
($623 per historic/cultural trip as compared to $457 for an average 
U.S. trip), providing local jobs and creating local, state and federal 
tax revenues. SHPOs promote heritage tourism through historic site 
survey and National Register programs, and they further American 
history education by generating interest in urban and rural landmarks 
across America.

            HPF ALLOCATIONS TO THE STATES = MONEY WELL SPENT

    Under the Administration's Program Assessment Rating Tool, 
management of Historic Preservation Programs receive a score of 89 
percent indicating exemplary performance of mandated activities.\6\ The 
National Conference is disappointed that this success is not reflected 
in an increase in program funding in the Administration's budget 
request.
---------------------------------------------------------------------------
    \6\ State LWCF grants, in contrast, received a review score of 43 
percent.
---------------------------------------------------------------------------
                         HPF INTENT UNDERMINED

    Further, the National Conference of State Historic Preservation 
Officers is concerned that the Administration is using the Historic 
Preservation Fund in ways counter to the Act for Save America's 
Treasures grants and for federal salaries administering tribal grants. 
The National Historic Preservation Act is specific (Section 101(e)). 
The Secretary may make matching grants to the States, Indian tribes, 
and the National Trust. The law allows the Secretary to use only 10 
percent of the annual HPF appropriation for direct project grants.

                               CONCLUSION

    Forty years ago, the National Historic Preservation Act of 1966 
(NHPA) established the nation's historic preservation program but 
directed that it be carried out through State Historic Preservation 
Offices (SHPOs). The success of SHPOs' promoting historic preservation 
is well demonstrated by the sound description of the program by the 
Honorable Francis Toscana, Mayor of Deadwood, South Dakota.
    ``Preservation is done in partnership. Communities, State Historic 
Preservation Offices, and Federal agencies work together to identify 
and preserve America's historic treasures. As mayor of one of those 
treasures, our relationship with the State Historic Preservation Office 
is important. The Historic Preservation Fund (HPF) makes it possible 
for the States, through their State Historic Preservation Offices, to 
foster this partnership into a successful preservation program.'' \7\
---------------------------------------------------------------------------
    \7\ National Park Service, The Historic Preservation Fund Annual 
Report 2005, March 2005.
---------------------------------------------------------------------------
    Thank you for your consideration of this request.
                                 ______
                                 
     Prepared Statement of the Campaign for Environmental Literacy

 INCLUDING EDUCATION AS AN AUTHORIZED USE OF STATE WILDLIFE GRANT FUNDS

Executive Summary
    First funded by Congress in fiscal year 2001, the original Wildlife 
Conservation and Restoration Program (elements of which have since been 
incorporated into the State Wildlife Grants Program, or SWG) made these 
funds available to states for conservation education as well as for 
habitat protection and restoration. However, despite widespread support 
from state fish and wildlife agencies for using these funds for 
education purposes, education was removed in fiscal year 2002 as an 
allowable use of funds. With this loss of SWG as a source of education 
funding, the federal government in its entirety now provides literally 
no funding specifically identified for conservation education at the 
state level.
    Yet our survey of the 50 Comprehensive Wildlife Conservation 
Strategies recently produced by state fish and wildlife agencies 
discovered that the vast majority of these agencies see education as 
mission-critical, vital to their efforts to conserve wildlife. This 
survey also found that they almost unanimously feel that education 
plays a critical role in first raising awareness of conservation 
issues, and then motivating people to modify their behavior towards 
wildlife.
    And most importantly, all 50 state Comprehensive Wildlife 
Conservation Strategies cited the need to expand their conservation 
education and outreach programs on multiple levels and scales to 
achieve their conservation goals--despite the fact that the SWG Program 
will not fund education.
    The broad support in every state for conservation education 
programs, both within the general public \1\ as well as within state 
wildlife agencies, along with the crucial need to close the public's 
growing conservation literacy gap, calls for federal action.
---------------------------------------------------------------------------
    \1\ Ninty-five percent of adult Americans believe environmental 
education should be taught in schools, according to a Roper Starch 
Worldwide survey in 2001.
---------------------------------------------------------------------------
    We therefore urge Congress to restore education as an allowable use 
of SWG funds by state fish and wildlife agencies. Taking such action 
will require no new funds from the federal government or taxpayer, and 
in fact, will save future federal dollars.

                               BACKGROUND

    Congress created the Wildlife Conservation and Restoration Program 
in 2001, and subsequently incorporated many of its elements into State 
Wildlife Grants program (SWG). This program provides funding to every 
state and territory to support cost-effective conservation aimed at 
keeping wildlife from becoming endangered. Funds are allocated 
according to a formula based on each state's size and population. SWG 
funding from Congress has ranged from $65 million to $85 million over 
the past five years.
    This program is based on the recognition that lack of federal 
support for non-game species protection prior to 2001 led to the 
significant decline of these species, thus raising the potential for 
costly federal restoration efforts when such species become officially 
endangered. It is therefore in the interest of the federal government 
to support state efforts to prevent wildlife species from becoming 
endangered in the first place, in order to avoid bearing restoration 
costs.
    It is important to understand that the direct causes of wildlife 
loss and endangerment primarily are habitat loss, introduction of 
competing exotic species, pollution, and overharvesting, challenges for 
which SWG funding is primarily intended. However, these problems often 
are a result of thousands of individual decisions made by thousands of 
individuals. As regulation has greatly reduced the corporate impact on 
these now diffuse and chronic problems, a new set of environmental 
actors has emerged on the scene: small businesses which exist below 
today's regulatory radar, and millions of households whose consumption 
decisions drive energy and material flows as well as the increasingly 
complex logistics systems which move goods and people across the face 
of the planet. Far more effective, when properly done, is to educate 
these decision-makers rather than regulate them.
    Thus, education is an essential tool for achieving the purposes of 
the SWG program. Yet, fiscal year 2002 Appropriations report language 
excluded education as an allowable use of SWG funds.

               STATE WILDLIFE ACTION PLANS AND EDUCATION

    In order to make the best use of State Wildlife Grants, Congress 
charged each state and territory with developing a Comprehensive 
Wildlife Conservation Strategy (CWCS), which identifies species and 
habitats of greatest conservation need and outlines the steps needed to 
conserve these wildlife and vital natural areas. Every state and 
territory has now completed their CWCS.
    We thoroughly reviewed each of these 50 state plans. Every state 
created their plans using the same framework but their priority 
strategies vary due to different state-specific issues and needs. Thus, 
it is particularly noteworthy that our survey found a number of common 
themes related to education in these plans:
  --Every state CWCS acknowledges the inherent value of education and 
        outreach programs in effectively managing those species and 
        habitats in greatest need of conservation.
  --Every state CWCS cites the need to expand its conservation 
        education and outreach programs on multiple levels and scales.
  --Every state that has used public education and/or outreach with 
        positive measurable results identified it as a best practice 
        adaptable for other priority species and habitats.
  --The large majority of states include new and/or expanded education 
        efforts as one of their statewide priorities, and reinforce 
        this need in their conservation actions across multiple key 
        species and habitats.
    For example, North Carolina's plan noted the following conservation 
education challenges:
  --Inadequate production and distribution of wildlife education 
        materials.
  --Current wildlife education programs not able to meet the public's 
        growing needs.
  --Inadequate funding sources for programs and materials aimed at 
        conservation education.
  --Insufficient number of nature centers devoted to the state's 
        nongame wildlife.
    North Carolina's CWCS therefore set the following Conservation 
Education Priorities:
Wildlife Nature Centers
    Develop Commission-owned wildlife nature centers in each 
physiographic region and support projects at existing centers.
    Develop materials and traveling displays for use across the state 
at schools, universities, science museums and aquariums to increase 
awareness of wildlife concerns.
Wildlife Education Programs
    Improve the Commission's capabilities to provide instructor 
training in Project Wild & CATCH and coordinate support for other state 
environmental education programs.
    Develop and improve guides for construction/development of outdoor 
classrooms.
    Develop demonstration projects for wildlife education programs.
Wildlife Educational Materials
    Develop and distribute wildlife educational materials to the public 
school systems.
    Develop informational materials on wildlife species, management 
programs, and habitat conservation.
Wildlife Education Grants
    Encourage development of educational materials and programs on fish 
and wildlife through an annual Wildlife Education Grants program.

   EXAMPLES OF HOW SWG FUNDS MIGHT BE USED TO FURTHER ENVIRONMENTAL 
                                LITERACY

    North Carolina lists the following as a few examples of the uses to 
which they might put such funds:
  --Provide schools, community parks, retirement centers, etc. with 
        technical expertise, grant information, planting and 
        educational materials for developing school and community 
        nature areas as outdoor classrooms which in turn would attract 
        wildlife.
  --Establish demonstration areas for backyard wildlife habitat 
        improvements.
  --Coordinate biologists and educators to develop effective education 
        and outreach materials for endangered/rare species in North 
        Carolina.
  --Expand delivery of wildlife-related programs and field trips to key 
        audiences (e.g., schools, civic groups, watershed associations, 
        planning boards).
    Other key states offered the following examples when they were 
recently queried as to how they might use SWG funds for education:
  --Establish a statewide network of professional trainers and wildlife 
        conservation practitioners working with at-risk species to 
        offer in-service educator workshops.
  --Establish a competitive small grant program for schools and nature 
        centers to compete for funding to purchase simple equipment 
        (binoculars, dip nets, field guides, etc.), the lack of which 
        is often a primary barrier for teachers attempting to take 
        students on field trips to learn about natural areas.
  --Build partnerships with teacher training programs at state colleges 
        and universities to better integrate conservation education in 
        both content and methods courses for pre-service teachers.
  --Create a partnership with the state Department of Education and 
        local school districts to incorporate conservation education 
        themes into state science standards.
  --Work with electric utilities to educate homeowners, business owners 
        and municipalities to reduce use of outdoor lighting during 
        nesting, peak migration and other critical times.
  --Educate citizens and community leaders about the economic and 
        social benefits that are achieved through scientific management 
        of key species and habitats.

                       SUGGESTED REPORT LANGUAGE

    ``Education projects funded with SWG dollars must contribute 
significantly to the education priorities identified in a state's 
Comprehensive Wildlife Conservation Strategy.''

                        COST OF THIS INITIATIVE

    The State Wildlife Grants program actually saves taxpayer dollars 
by taking preventative action to conserve wildlife before it becomes 
endangered. Further, a nonfederal matching requirement assures local 
ownership, and leverages state and private funds to support 
conservation. In an era of tight budgets, the State Wildlife Grants 
program represents how limited federal funds can be invested to get the 
most results for taxpayers.
    Specifically reopening these funds to education saves further 
money. Species are driven to extinction in large part due to ignorance 
and lack of understanding by the public of the value of maintaining 
wildlife and their habitats. Investing in sound education over time 
will significantly reduce the risk of needing expensive efforts to 
bring back endangered wildlife species. It treats the true cause--
illiteracy--of the problem of species loss, not just the symptoms.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District

    On behalf of the Northern Colorado Water Conservancy District, I am 
requesting your support for the following appropriations in fiscal year 
2007 to the U.S. Fish and Wildlife Service for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, as recommended in the President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses in managing and implementing the 
San Juan Recovery Program.
    I thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the North Carolina Wildlife Resources Commission
    We are seeking your support for the President's fiscal year 2007 
Budget Request of $3 million to support the National Fish Habitat 
Initiative (NFHI) and, furthermore, we ask you to support an additional 
$3 million to be appropriated to the U.S. Fish and Wildlife Service's 
Southeast Fisheries Program for the Southeast Aquatic Resources 
Partnership (SARP). The NFHI, lead by the International Association of 
Fish and Wildlife Agencies in partnership with the U.S. Fish and 
Wildlife Service, is a nationwide fisheries habitat restoration plan 
modeled on the successful North American Waterfowl Management Plan. The 
SARP is developing a Southeast Aquatic Habitat Plan that will guide the 
implementation of the NFHI on a regional scale and serve as a model for 
other regions of the country. The Southeast Aquatic Habitat Plan will 
identify and establish Fish Habitat Partnerships that will deliver the 
objectives of the NFHI in the Southeast.
    The SARP was initiated in 2001 to better address the conservation 
and management of aquatic resources in the Southeastern United States. 
This partnership developed because (1) the Southeast has the highest 
diversity of aquatic species and habitats of any region in the country, 
(2) these resources are facing serious threats to their future 
existence, and (3) no single State or Federal agency has the necessary 
resources and authority to address this impending aquatic crisis. It is 
only by working together through partnerships that we will make a 
difference. SARP includes the fish and wildlife agencies from 13 States 
(Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
Missouri, North Carolina, Oklahoma, South Carolina, Tennessee, and 
Texas), the Gulf and Atlantic States Marine Fisheries Commissions, the 
Gulf of Mexico and South Atlantic Fishery Management Councils, the U.S. 
Fish and Wildlife Service, and NOAA Fisheries.
    This unique and focused effort is poised to deliver a new regional 
approach to aquatic conservation for future generations. Securing $3 
million in additional funding for the SARP is critical for the 
successful implementation of the Southeast Aquatic Habitat Plan.
    Thank you for your consideration of this request. If you should 
have any questions or need further information, please contact Robert 
L. Curry, Chief, Division of Inland Fisheries, by phone (919) 707-0221 
or by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="582a373a3d2a2c763b2d2a2a2118363b2f31343c34313e3d76372a3f76">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the National Environmental Services Center

    We request $3 million in fiscal year 2007 to continue the programs 
of the National Small Flows Clearinghouse and the National 
Environmental Training Center for Small Communities. Both programs are 
administered by the U.S. Environmental Protection Agency (EPA) under 
the Environmental Programs and Management (EPM) account.

                              INTRODUCTION

    My name is Richard Bajura and I serve as Executive Director of the 
National Environmental Services Center. The Environmental Protection 
Agency and the Department of Agriculture fund our programs to provide 
comprehensive environmental services to small and tribal communities 
and to rural areas. Our work is focused on drinking water, wastewater, 
and municipal solid waste. Two of our major programs, the National 
Small Flows Clearinghouse (Clearinghouse) and the National 
Environmental Training Center for Small Communities (Training Center) 
are the subjects of this testimony.
    The Clearinghouse is in its 27th year of providing information and 
technical assistance to local governments/officials, to operators/
managers of wastewater, drinking water, and solid waste facilities, and 
to circuit riders. We assist agencies, organizations, and industries 
that advance decentralized wastewater management as part of the 
nation's wastewater infrastructure. The Clearinghouse was mandated by 
Congress in the 1977 Clean Water Act and its subsequent 
reauthorizations. We use federal funds to provide contemporary, 
objective, and comprehensive technical information services and site-
specific assistance about wastewater systems. We publish a suite of 
regular and special publications targeted to small, tribal, and rural 
community needs for wastewater management.
    The Training Center was established by Congress in 1991 as an 
adjunct to the Clearinghouse for the purpose of developing and 
delivering training on wastewater, drinking water, and municipal solid 
waste disposal. Our trainers and the services we provide assist small, 
tribal, and rural communities in providing essential water and 
sanitation services.
    The Clearinghouse and Training Center partner with a wide range of 
organizations and groups to help states and communities. In doing so, 
more people are served, dollars are leveraged, and cost savings are 
realized.

                                  NEED

    Our nation relies on water and wastewater infrastructure and 
services to protect public health, sustain economic activity, and 
enable our modern lifestyles. This infrastructure, which was generally 
installed decades ago and is often a small community's largest public 
investment, is aging and even failing. The 25 million people who live 
in small communities rely on local leaders and system personnel to 
manage this infrastructure and provide essential water and wastewater 
services. These dedicated citizens often lack the necessary time, 
expertise, information, strategies, and finances to meet these demands. 
EPA is charged with developing water and wastewater treatment 
strategies and services for these rural communities. However, EPA does 
not have the necessary resources in-house and relies on units like the 
Clearinghouse and Training Center to fulfill this part of its mission. 
EPA also relies on Congress to add funds for these services since the 
Administration routinely does not provide financial support for such 
programs. Congressional action is required each year to support the 
services we provide.

              ABOUT THE NATIONAL SMALL FLOWS CLEARINGHOUSE

    The Clearinghouse is the premier (and only) comprehensive national 
source of information about ``small flows'' systems, those with fewer 
than one million gallons of wastewater flowing through them per day. 
These systems range from individual septic systems to small sewage 
treatment plants, and require technologies different from large-volume 
wastewater treatment plants. Decentralized systems, such as onsite 
septic systems and small cluster systems, serve 25 percent of the U.S. 
population.
    Small communities in the United States (populations less than 
10,000) need significant assistance for basic water and wastewater 
services. Services provided by the Clearinghouse enable the communities 
to achieve and maintain regulatory compliance using technologies which 
are less costly than conventional sewers and treatment plants.
    The Clearinghouse was created in legislation to provide information 
and assistance to small, tribal, and rural communities on proper 
technology selection and management of onsite and small wastewater 
systems. Under its congressionally mandated information collection and 
dissemination mission [1977 Clean Water Act section 104(q)(1)], the 
Clearinghouse serves as the national archive for onsite and 
decentralized wastewater management technologies and offers a 
comprehensive body of information and technical assistance services 
unique to the wastewater industry. Users of these services include 
individual homeowners, small town officials who do not have staff 
support to address regulatory requirements, developers, state 
regulators, and professionals who design, install and service 
alternative treatment systems.
    Using Clearinghouse services, small communities across the nation 
learn how to leverage funding, obtain information about affordable 
small system technologies, and meet regulatory requirements. The 
Clearinghouse accomplishes its mandate by:
  --Enabling small system operators and service providers to comply 
        with federal regulations;
  --Providing access to expert advice and training on wastewater;
  --Guaranteeing the availability of current, comprehensive information 
        in small wastewater system financing, technologies, and 
        management;
  --Delivering onsite public health and environmental awareness 
        education, information, and technical assistance.
    Congressional funding for the Clearinghouse supports and provides:
  --Toll-free technical assistance via telephone from our staff of 
        engineers and information experts to operators, engineers, 
        scientists, regulators, manufacturers, and homeowners;
  --Magazines and newsletters, including Small Flows Quarterly and 
        Pipeline, that address wastewater issues for small communities, 
        reaching 70,000 individuals or organizations nationwide;
  --More than 800 products such as pamphlets, how-to guides and 
        handbooks, design manuals, videos, checklists, equipment 
        manufacturers catalogs and an outreach resource guide, 
        directories of various water and wastewater experts nationwide, 
        informational posters, case studies, and related information;
  --Comprehensive web site, discussion forums, list serves, and 
        searchable online databases (e.g., our one-of-a-kind Onsite 
        Regulations Database) featuring water, wastewater, security, 
        and emergency preparedness resources;
  --Demonstration projects at more than 100 sites in 27 states showing 
        the latest onsite sewage treatment technologies and management 
        strategies at work; and
  --The intensive annual State Onsite Regulators Alliance (SORA) 
        Conference: a one-of-a-kind event for wastewater regulators and 
        industry professionals.

ABOUT THE NATIONAL ENVIRONMENTAL TRAINING CENTER FOR SMALL COMMUNITIES 
                                (NETCSC)

    In 1991, Congress funded the Training Center to meet the training 
needs of multiple constituent groups on a variety of environmental 
topics. In a unique approach, the Training Center develops, 
disseminates, and delivers training customized for small community 
environmental management. Environmental trainers and technical 
assistance providers who attend the classes then in turn train 
environmental professionals who serve small communities. The Training 
Center has developed more than 40 model training packages for drinking 
water and wastewater system design, operation, finance, management, 
emergency response, and system security. These training packages are 
delivered and available coast-to-coast to thousands of participants, 
often in co-sponsorship with other training and/or service providing 
organizations.
    The Training Center has held more than 250 training events on 
environmental management, security, and emergency response. Hundreds of 
environmental trainers across the nation subsequently use our materials 
to train thousands of local officials, operators, installers, 
regulators, engineers, homeowners, and tribal audiences. More than 
7,000 environmental trainers, technical assistance providers, and small 
community professionals receive the Training Center's environmental 
training newsletter.
    Since September 2001, the Training Center assisted small 
communities in addressing water security concerns. At the request of 
the EPA, the lead agency for homeland security in the area of water, 
and the Department of Agriculture, we developed and delivered training 
courses designed to improve the security of small drinking water and 
wastewater systems through a cadre of more than 250 trainers. These 
trainers held over 50 training events and trained over 1,000 
individuals. The Training Center has also developed and compiled an 
array of vulnerability assessment, emergency response, and security 
resources. These efforts include multiple training deliveries, 
substantial coverage of security issues in E-Train (our newsletter), 
and on our frequently accessed worldwide web sites. Additionally, we 
developed and disseminated a nationally distributed Wastewater 
Vulnerability Assessment Guide for small communities, and a ``Top Ten'' 
list of security and emergency preparedness actions for small 
wastewater systems. Our security-related efforts have been undertaken 
in consultation with a variety of national, regional, and state and 
local partners.
    The Training Center also sponsors the weeklong National 
Environmental Training Institute drawing a wide-ranging audience of 
water, wastewater, and environmental professionals interested in small 
community infrastructure.

                                REQUEST

    Congressional support to continue the work of the Clearinghouse and 
Training Center is imperative because the State agencies and 
communities these programs assist do not have funds to pay for these 
services. By virtue of the congressional appropriation, we are able to 
offer most of our services free of charge.
    The Clearinghouse is a national resource for data and services that 
supports the work conducted by other major wastewater management 
programs funded under the EPA Environmental Programs and Management 
account. Without continued funding, this information repository will 
not be accessible by water groups, associations, and the user community 
which has relied on these services for many years.
    Both programs were supported by Congress in previous years, but did 
not receive an appropriation for fiscal year 2006 for the first time 
since the early 1990s. We request reinstated funding for fiscal year 
2007 and continued annual support at our previous levels of $2 million 
for the National Small Flows Clearinghouse and $1 million for the 
National Environmental Training Center for Small Communities.
    We appreciate your continued support for these highly-regarded 
national programs. Thank you for considering our request.
                                 ______
                                 
    Prepared Statement of the Northeast Waste Management Officials' 
                              Association

    The undersigned Environmental Commissioners for the Northeast 
States are writing to respectfully request your assistance for 
reinstating a $300,000 line item in the U.S. Environmental Protection 
Agency's (EPA) fiscal year 2007 budget for the Northeast Waste 
Management Officials' Association (NEWMOA). This funding will support 
multi-state work on waste management and cleanup problems that are 
critically important to the Northeast region and to our individual 
states, and will advance U.S. EPA's national priorities.
    In our experience, interstate cooperation on common environmental 
problems such as brownfields redevelopment and control of mercury 
pollution multiplies the benefits of scarce state and federal 
resources. We hope that, despite the many compelling priorities that 
your Subcommittee must balance, you will act favorably on this request.
    In 1986, NEWMOA, a non-profit, non-partisan association, was 
established by the Governors of the New England States as an official 
interstate regional organization, in accordance with Section 1005 of 
the U.S. Resource: Conservation and Recovery Act, and was formally 
recognized by EPA. New York and New Jersey joined subsequently. 
NEWMOA's members are the directors of the state hazardous waste, solid 
waste, waste site cleanup, and pollution prevention programs in 
Connecticut, Maine, Massachusetts, New Hampshire, New Jersey, New York, 
Rhode Island, and Vermont. NEWMOA works with member states to develop 
and implement regional policies and strategies for mutual waste 
management issues, serves as a clearinghouse for multi-state 
information, and provides staff training and education.
    Federal ``line item'' funds have made it possible in the recent 
past for NEWMOA to develop unique solutions in environmental 
improvement and protection. For fiscal year 2006, however, Congress did 
not appropriate funds for NEWMOA's activities. Reinstating these funds 
in fiscal year 2007 will enable NEWMOA to continue with projects such 
as:
  --training environmental consultants and state staff to improve the 
        quality and reduce the cost of characterizing contaminated 
        Superfund and Brownfields sites;
  --helping states and businesses implement laws that phase out mercury 
        in products through the Interstate Mercury Education & 
        Reduction Clearinghouse (IMERC), a service that provides a 
        single point of contact for a growing membership beyond the 
        Northeast states to the West Coast and Mid West for receiving 
        required reports from the regulated community, managing mercury 
        product data and sharing information so that states, businesses 
        and the public can measure progress and set priorities;
  --facilitating the development of innovative compliance programs that 
        measurably improve environmental performance and reduce costs 
        for businesses and state environmental agencies;
  --measuring solid waste flows among the Northeast states and tackling 
        ``hard to dispose of'' wastes, such as construction and 
        demolition debris, electronics, and tires, on a multi-state 
        basis.
    These collaborative initiatives solve critical environmental 
challenges and expand successful strategies at a far lower cost than 
would occur if each state had to do this work on its own. NEWMOA is a 
very important resource for our state waste management programs and 
contributes significantly to advancing state and national environmental 
objectives. We urge your support for an appropriation of $300,000 to 
NEWMOA for fiscal year 2007.
    If you have any questions or would like more information about our 
fiscal year 2007 request please contact NEWMOA's Executive Director, 
William Cass (telephone: 617-367-8558 x301), or the current Chair, Dave 
O'Toole, Division of Solid and Hazardous Materials, New York State 
Department of Environmental Conservation (518-402-8652). You may also 
wish to visit NEWMOA's website (www.newmoa.org) for more information 
about NEWMOA's activities.
    Thank you for your continued assistance.
                                 ______
                                 
           Prepared Statement of the Northern Forest Alliance

    On behalf of the Northern Forest Alliance, a coalition of fifty 
non-profit organizations across New York, Vermont, New Hampshire, and 
Maine, I would like to offer testimony in support of fiscal year 2007 
funding for the U.S. Forest Service's Forest Legacy Program and the 
Department of Interior's Land and Water Conservation Fund (LWCF). 
Specifically, we request funding for specific Forest Legacy and LWCF 
projects from the Northern Forest totaling $23.709 million and $6.1 
million, detailed in tables below. We also urge strong overall program 
allocations of $80 million for Forest Legacy and $320 million for LWCF, 
including $220 million for federal LWCF projects and $100 million for 
the state grants program, in light of the value of these programs not 
only to the Northern Forest but to the nation.
    The Northern Forest is a rural region of 26 million acres 
stretching from the Tug Hill Plateau in New York through the 
Adirondacks, Vermont's Green Mountains, New Hampshire's White 
Mountains, and into northern Maine. Much like the Southern 
Appalachians, the Northern Forest is an eastern forest region that has 
retained its rural character and resource-based economy in the face of 
overwhelming changes in the broader eastern landscape. However, this 
rural region is changing rapidly. The recently released U.S. Forest 
Service report, Forests on the Edge, projects that much of the private 
lands in the Northern Forest will see ``medium'' or ``high'' change 
from development through 2030. The study focused its assessment by 
watershed and identified seven watersheds in the Northern Forest states 
as among the top twenty-five in the nation for projected development 
through 2030, including the Connecticut River watershed between Vermont 
and New Hampshire and the Penobscot River watershed in Maine. Some of 
the conservation projects we are recommending for funding lie within 
these most threatened watersheds.
    The kind of forest parcelization and development that the report 
projects are already affecting not only natural resources but also the 
Northern Forest way of life. Our region was the nation's original fiber 
basket and continues to be a place where many citizens earn a living 
from the woods as loggers and sugarmakers or in forest products 
manufacturing. Parcelized forestlands are less valuable for forestry 
and new owners often make them unavailable for timber harvest and 
neglect even basic forest stewardship. This is having economic and 
environmental impacts. Our region also prides itself on a long 
tradition of open travel across private lands, a tradition that is 
increasingly at risk thanks to rising forest parcelization. Posting of 
land is increasing across the Northern Forest, closing opportunities 
for hunters, hikers, and other recreationists.

                 SUSTAINING OUR NORTHERN FOREST LEGACY

    Despite some recent mill closings in Berlin, New Hampshire and 
other Northern Forest communities, forest products remain the largest 
industrial sector in the Northern Forest. The forest products industry 
in Maine alone contributes $6.5 billion annually to the Northern Forest 
economy with wages and salaries of more than $1 billion. To maintain 
this important economic activity, many of the fiscal year 2007 Forest 
Legacy projects in our region have been designed to maintain working 
forests that might otherwise be converted for private development. One 
such example is the Orange County Headwaters project in Vermont, which 
will sustain timber harvest and sugaring over 3,043 acres of the most 
productive sugar maple stands in the state. The project is also notable 
as a shining example of cooperative conservation: the Forest Legacy 
project is one piece of a larger 30,000-acre conservation collaboration 
among private landowners in two neighboring towns that features 
coordinated donation of conservation easements to the Vermont Land 
Trust and Upper Valley Land Trust.
    Like other rural regions across the country, the Northern Forest is 
also seeking to diversify its economy through tourism and other 
measures. Tourism has already grown to include ten percent of all 
Northern Forest jobs, with a payroll of $455 million. Many of the 
fiscal year 2007 Forest Legacy projects in the Northern Forest would 
have a significant impact on tourism. In particular, we are supporting 
two complementary fiscal year 2007 Forest Legacy projects along the 
Mahoosuc Range of Maine and New Hampshire--one of the Northern Forest's 
most famed recreation areas and a magnet for tourism. The Mahoosuc 
Range features the most rugged and challenging section of the entire 
Appalachian Trail (AT), the newly-developed Grafton Loop Trail that 
will enable hikers to swing almost fifty miles off the AT, and some of 
the richest hunting grounds in the entire Northern Forest in New 
Hampshire's Phillips Brook watershed that lies on the western edge of 
the range. Maine's Grafton Notch Forest Legacy project was top-ranked 
by the President for good reason, as it will add 3,688 acres to state 
holdings in the Mahoosucs, including lands that contain nine miles of 
the Grafton Loop Trail. The Phillips Brook project in New Hampshire did 
not make the President's list despite its potential to complement 
Grafton Notch. The project will conserve more than 23,000 acres of 
forest and wetlands under easement, allowing hunting in this wildlife-
rich area and preserving timber harvest on the first parcel purchased 
by International Paper at its founding in 1898.
    The Northern Forest is also notable for containing the headwaters 
of many major northeastern rivers, including the Hudson, Connecticut, 
Androscoggin, and Penobscot. Many of our projects clearly address the 
threats to these forested watersheds identified in Forests on the Edge. 
The Tahawus project in New York is one example, as it will conserve 
10,056 acres in the High Peaks region of New York's Adirondack Park 
that are wrapped around the headwaters of the mighty Hudson River. 
Tahawus also addresses many other Forest Legacy Program values by 
providing public access for hunting, fishing, and other recreation, 
continued opportunities for forestry, and new opportunities to develop 
heritage tourism--it was on this parcel that then-Vice President Teddy 
Roosevelt began his famous ``Midnight Ride.''

    NORTHERN FOREST ALLIANCE FISCAL YEAR 2007 FOREST LEGACY REQUESTS
------------------------------------------------------------------------
State                      Project                          Request
------------------------------------------------------------------------
   ME Grafton Notch                                         $2,000,000
   ME Lower Penobscot Forest                                 5,500,000
   ME Machias River, phase III                               2,000,000
   NH Phillips Brook                                         3,500,000
   NH Willard Pond/Robb Res.                                 3,000,000
   NY Tahawus                                                5,000,000
   VT Orange County Headwaters                               1,542,000
   VT Adams Pond                                             1,167,000
                                                    --------------------
            Total                                           23,709,000
------------------------------------------------------------------------

         FULFILLING OUR POTENTIAL: LWCF FOR THE NORTHERN FOREST

    The fiscal year 2007 LWCF projects for the Silvio Conte National 
Wildlife Refuge, Lake Umbagog National Wildlife Refuge, and Green 
Mountain National Forest will help realize the potential conservation, 
economic, and community benefits of our region's few federal public 
land units. These federal lands are strategically situated to conserve 
some of our the Northern Forest's most important natural and 
recreational resources, but are being compromised as private inholdings 
within the units are developed, sometimes by private owners who would 
have preferred to sell to the relevant agency but were unable to for 
lack of federal LWCF funding for acquisition.
    The Conte and Umbagog National Wildlife Refuges have already 
brought previously unimagined levels of tourism and related economic 
benefits to rural towns in the far northern reaches of our region like 
Island Pond, Vermont and Errol, New Hampshire. The Conte NWR is also 
unique for its strategic conservation value, as the proclamation area 
covers select lands of highest conservation value throughout the entire 
Connecticut River watershed. The Northern Forest Alliance has worked 
with other supporters of the Conte NWR across four states to create the 
new Friends of Conte Refuge group that is enthusiastically supporting a 
$4 million request for this unique refuge in fiscal year 2007. The 
funding request covers important acquisitions from willing sellers in 
all four states that the refuge crosses--Vermont, New Hampshire, 
Massachusetts, and Connecticut. The lands in Vermont lie adjacent to a 
new visitor center and are essential to maintaining that unit's tourism 
potential. The lands in New Hampshire include key watershed parcels in 
the Ashuelot River and Mohawk River basins--both major growth centers.
    The fiscal year 2007 LWCF funding to complete the USFS acquisition 
of the Broad Brook property in Vermont is also of paramount importance. 
This area of over 3,900 acres serves as a critical water supply area 
for local communities and is valued by locals and visitors alike for 
its extended section of the Long Trail/Appalachian Trail corridor. The 
project is a particular priority for two Northern Forest Alliance 
member groups: Vermont's Green Mountain Club and the Appalachian Trail 
Conservancy. In a sign of how much towns across the Northern Forest are 
embracing land conservation as part of their economic future, the Town 
of Pownal where the Broad Brook parcel is situated voted to approve the 
project by a two to one margin. This system of local approval assures 
that U.S. Forest Service acquisitions in Vermont are consistent with 
community interests.

  NORTHERN FOREST ALLIANCE FISCAL YEAR 2007 LAND AND WATER CONSERVATION
                              FUND REQUESTS
------------------------------------------------------------------------
    State                     Project                       Request
------------------------------------------------------------------------
          NH Lake Umbagog National Wildlife Refuge          $1,000,000
 NH/VT/MA/CT Silvio Conte National Wildlife Refuge           4,000,000
          VT Green Mountain National Forest (Broad           1,100,000
              Brook Phase II)
                                                    --------------------
                   Total                                     6,000,000
------------------------------------------------------------------------

    All of the Forest Legacy and LWCF projects included in our fiscal 
year 2007 request represent the best that our region has to offer, a 
highly select group drawn from the total range of projects seeking 
funding across the Northern Forest. In appreciation of the severe 
constraints on federal resources for the upcoming fiscal year, we have 
gone through careful evaluation to develop this prioritized set of 
time-sensitive strategic investments that will leverage other funding 
sources and deliver critically important public benefits. We would be 
grateful for your consideration of this testimony as you go through the 
appropriations process.
                                 ______
                                 
  Prepared Statement of the National Federation of Federal Employees 
                               Local 1957

    As officers of the National Federation of Federal Employees (NFFE) 
Local 1957, we are writing on behalf of the bargaining unit for the 
Minerals Information Team (MIT), Geologic Division, U.S. Geological 
Survey (USGS), Reston, VA. We are concerned that the President's 
proposed fiscal year 2007 budget for the USGS includes a $4.5 million 
cut (30 percent) to MIT's current funding level of $15.4 million, and a 
total of $22 million (42 percent) from the entire Mineral Resource 
Program, of which we are a part.
    The effect of the proposed fiscal year 2007 cut would be to 
eliminate 180 occupied scientific positions from across the country. 
MIT specifically would cease collection and dissemination of data on 
international production and consumption for 100 mineral commodities; 
publication of commodity reports on 20 minerals; and research on 
mineral and materials life cycles, material flows, and future demand 
and uses of minerals and metals.
    All this would occur at a time of increasing globalization and 
materials competition from developing countries such as China and India 
that has led to global supply constraints and record-high metals 
prices. Currently, the U.S. import dependence for most strategic and 
critical nonfuel minerals exceeds 75 percent, which is greater than the 
country's dependence on foreign oil. In 2005, MIT found that U.S. 
companies relied more than 50 percent on imports to meet their needs 
for 42 of 81 nonfuel mineral commodities and were 100 percent import 
reliant for 16 mineral commodities essential to the domestic economy; 
this was up from 29 and 10, respectively, in 1995.
    Assuring that the country has ample mineral resources to meet its 
needs cannot be done with disregard to the international factors that 
affect their supply and demand. Eliminating MIT's core International 
Information function (collecting, reporting, and analyzing data on the 
foreign supply of minerals needed by the United States), will inhibit 
the ability of the members of our bargaining unit to provide critical 
information on the nation's mineral supply. The increasing global 
demand for mineral resources will affect the U.S. economy's ability to 
have ample affordable mineral resources to meet its needs and will 
require international information regarding the production and 
consumption of minerals. Without data on international supply, there 
would be a critical information gap regarding the U.S. mineral supply
    MIT was transferred to the USGS in 1996 under a Joint House-Senate 
Conference Amendment that provided for the minerals information 
activities, formerly conducted by the U.S. Bureau of Mines, to continue 
within the USGS. The Defense Production Act of 1950, as amended (1980 & 
1992), delegates significant authority to the Secretary of the Interior 
relating to the assurance of an adequate supply of mineral materials 
necessary for the national defense, with the specific responsibility 
for analyses of domestic and foreign supplies.
    Information and analyses produced by MIT are widely used and relied 
upon by our Government and private sector. The MIT produces more than 
500 publications per year covering most nonfuel minerals, including 
Mineral Commodity Summaries for the Congressional Offices. Our web site 
provides approximately 1.4 million publication downloads per year and 
nearly the same number of hits. The U.S. Departments of Commerce, 
Defense, Treasury, and State, as well as the Central Intelligence 
Agency, the Federal Reserve Board, the Overseas Private Investment 
Corporation, the International Trade Commission, and the Office of the 
U.S. Trade Representative have increasingly relied on the USGS-MIT 
specialists for global minerals-related policy analysis, as have 
domestic agencies, including the U.S. Bureau of Land Management, the 
Minerals Management Service, the National Park Service, and the U.S. 
Forest Service. MIT data are cited in Securities and Exchange 
Commission filings by mining companies requiring an authoritative, 
impartial source for statements of world resources, capacities, 
production and consumption.
    MIT is already operating under a severely constrained budget that 
has declined by about 25 percent in real dollars since 1996, the year 
the group was moved to the U.S. Geological Survey when the U.S. Bureau 
of Mines was eliminated. Compounding the problem, MIT has had to absorb 
mandated increases in salaries and cost of living adjustments despite 
the decreasing annual budgets. MIT, therefore, requires a minimum of 
$23 million to restore its reporting capability and retain its 
expertise. Not included in this level of funding are upgrades to the 
outdated IT software and hardware systems that are necessary for MIT 
performance.
    Last year, Congress rejected a similar reduction proposed by the 
Administration. In rejecting that proposed cut, Congressional joint 
committee managers wrote ``[we] strongly disagree with the 
Administration's proposed reductions to the mineral assessment program 
and believe it irresponsible for the Administration to decrease or 
eliminate funding for what is inherently a Federal responsibility.'' 
NFFE urges Congress to do the same in fiscal year 2007.
    We want to extend our appreciation for your consideration of these 
issues that affect both our Union's and the Nation's interest.

   NFFE LOCAL 1957 BRIEFING ON THE USGS MINERALS INFORMATION TEAM & 
                       MINERAL RESOURCES PROGRAM

                  USGS MINERALS INFORMATION TEAM (MIT)

    The Administration's proposed $4.5 million cut to MIT's current 
funding level would eliminate MIT's international data collection 
function and severely compromise the USGS' ability to meet its mission 
as mandated by Congress.
  --MIT's international information function would be eliminated, 
        greatly limiting the MIT bargaining unit's ability to meet its 
        core mission--to collect, report, and analyze data on the 
        supply of minerals critical to the Nation's economic and 
        national defense needs.
  --The USGS, therefore, could not fulfill its Congressional mandate to 
        assure there is an adequate and dependable supply of mineral 
        materials necessary for national defense, as established by The 
        Defense Production Act of 1950, as amended (1980 & 1992).
    Because of the global nature of the minerals industry, mineral 
commodity assessments require international information.
  --The Administration's budget proposal comes at a time of increased 
        globalization and demand for minerals.
  The economies of China, India, and other developing countries 
        continue to grow, which places an ever increasing global demand 
        for mineral resources. This will affect the U.S. economy's 
        ability to have ample affordable mineral resources to meet its 
        needs and will require international information regarding the 
        production and consumption of minerals.
  --The U.S. import dependence for most strategic and critical nonfuel 
        minerals and metals exceeds 75 percent, which is greater than 
        the country's dependence for oil. In 2005, MIT found that U.S. 
        companies relied more than 50 percent on imports to meet their 
        needs for 42 of 81 minerals (USGS Mineral Commodity Summaries 
        2006). Of those, the import reliance was 100 percent for 16 
        minerals and at least 80 percent for another 13. (See The 
        Importance of Manganese to National Security in highlight box.)
  --Helping assure the country has ample mineral resources to meet its 
        needs simply cannot be done with disregard to assessing data on 
        the international factors that affect the supply and demand of 
        those resources.
    MIT's budget should be permanently set as a separate line item and 
the budget increased to $23 million.
  --Repeated attempts by the Administration to reduce MIT funding over 
        the last several years raise the question of the group's long-
        term viability under the current budget structure.
  --In 2002, Congress rejected a similar proposed $2 million reduction 
        in MIT's budget.
  --Since then, Congress has continued to reject proposed similar cuts 
        to MIT funding.
  --Since 1998, MIT's budget of about $16 million has fallen about 5 
        percent, which represents more than a 25 percent decrease when 
        accounting for salaries, cost of living adjustments, and other 
        inflationary costs. Such a severely constrained budget 
        challenges the group's ability to retain its expertise, attract 
        new hires for succession planning, implement upgrades to the 
        outdated IT systems software and hardware, and perform at the 
        highest levels.
  --NFFE urges Congress to increase MIT funding to at least $23 
        million, which is equivalent in today's dollars to MIT's 
        funding within USGS in 1998. This represents only about 0.0045 
        percent of the non-defense discretionary budget of $445 billion 
        as estimated by the Congressional Budget Office in January 
        2004, and would afford MIT the means to better meet its 
        mission. As the nation's only source of comprehensive and 
        unbiased mineral commodity data, MIT should be retained and 
        enhanced.
  --At a minimum, MIT's international function should be retained and, 
        accordingly, MIT's budget should be restored by $4.5 million so 
        that the MIT bargaining unit can meet its core mission 
        functions.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2007 funding 
request for the National Fish and Wildlife Foundation (Foundation). 
Included in this testimony is a summary of our history and fiscal year 
2005 accomplishments, as well as the new and innovative programs we 
hope to accomplish with the funding provided by this Committee.
    Congress established the Foundation 22 years ago, and since that 
time the Foundation's vision for more healthy and abundant populations 
of fish, wildlife and plants has flourished through the creation of 
numerous valuable partnerships. The breadth of our partnerships is 
highlighted through our active agreements with 14 federal agencies, as 
well as numerous corporations, foundations and individual grantees. 
Through these unique arrangements we are able to leverage federal 
funds, bring agencies and industry together and produce tangible, 
measurable results. Our history of collaboration has given way to 
programs and initiatives such as the North American Waterfowl 
Management Plan, the Neotropical Migratory Bird Conservation Program, 
the Chesapeake Bay Small Watershed Grants Program and the Pulling 
Together Initiative. With the support of the Committee in fiscal year 
2007, we can continue to uphold our mission of enriching fish, wildlife 
and the habitat on which they depend.
    The Foundation respectfully requests that this Committee fund these 
efforts at the following levels:
  --$9 million through the U.S. Fish and Wildlife Service's Resource 
        Management General Administration appropriation;
  --$5 million through the U.S. Fish and Wildlife Service's Resource 
        Management Endangered Species appropriation to conserve and 
        restore Pacific salmon in Washington State;
  --$4 million through the Bureau of Land Management's Management of 
        Lands and Resources appropriation; and
  --$4 million through the Forest Service's National Forest System 
        appropriation.
    This request lies well within the authorized levels and will allow 
the Foundation to better meet the demand for new or expanded strategic 
conservation programs. The appropriations provided by the Committee are 
also used by the Foundation to attract additional funding for 
conservation projects through mitigation, settlements and direct gifts.
    Since our inception in 1984 through fiscal year 2005, the 
Foundation has supported over 8,190 grants and leveraged over $339 
million in federal funds for more than $1 billion in on-the-ground 
conservation. This has resulted in more than 18 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and stronger 
education programs in schools and local communities. We recognize that 
without the seed money this Committee provides many of these 
conservation benefits would not be realized. None of our federally 
appropriated funds are used for lobbying, litigation or the 
Foundation's administrative expenses. All of our federally appropriated 
funds go directly to on-the-ground conservation projects.
    Our efforts encompass many boundaries and missions of our U.S. Fish 
and Wildlife Service (FWS), Bureau of Land Management (BLM) and USDA-
Forest Service (FS) partners. Whether it involves habitat conservation, 
species management, conservation education or international 
conservation, the Foundation strategically invests the federal funds 
entrusted to us in sound projects. In fiscal year 2005, we received 
three times as many good project proposals as we could fund. We were 
able to fund 417 projects representing over $17.2 million in Foundation 
federal funds, leveraging it with $43.9 million in non-federal funds to 
commit $61.1 million to on-the-ground conservation. This will result in 
thousands of acres of vital habitat being enhanced, restored and 
protected as well as hundreds of stream miles improved. The remaining 
$500,000 in appropriated funds will be obligated in the next few months 
bringing our total on-the-ground conservation to more than $62 million.
    As you have heard us say before, the term ``partnerships'' lies at 
the center of everything that the Foundation does. In fiscal year 2005, 
the FWS, BLM and FS partnerships we forged with our appropriated 
dollars helped the Foundation permanently protect 1,305 additional 
acres; restore over 22,000 acres; better manage 105,000 acres of public 
and private lands; and aided the restoration of 128 river and stream 
miles, as well as management of 282 miles of rivers and streams. As our 
grantees continue to report to us on their restoration and management 
efforts, we expect to see increases for all of these performance 
measurements by year's end.
    Working Landscapes and Healthy Habitats.--The Foundation places one 
of our highest priorities on projects integrating conservation 
practices on ongoing agricultural, ranching and forestry operations 
with the goal of improving the ecological health of working lands. 
Utilizing our FWS, BLM and FS appropriations, the Foundation supports 
projects designed to improve the habitat of our Nation's federal and 
private lands. In fiscal year 2005, the Foundation was appropriated an 
additional $500,000 in BLM funds to support the conservation of 
sagebrush habitats on federal and adjacent private lands. With FWS and 
FS funds added to the BLM dollars, the Foundation funded 19 sagebrush 
conservation projects leveraging $1,047,525 into more than $2.5 million 
to benefit sage grouse.
    An example healthy habitat grant program is the Foundation's 
Pulling Together Initiative (PTI), which is a private/public 
partnership to aid in the prevention, management and/or eradication of 
invasive and noxious plants. Through this collaborative program, FWS, 
BLM and FS are able to join invasive species experts from the 
Department of Defense, Animal and Plant Health Inspection Service and 
the Natural Resources Conservation Service to review and jointly select 
the most innovative weed management projects. In fiscal year 2005, the 
Foundation awarded 68 projects in 28 states that leveraged over $1.7 
million in federal funds to more than $5.8 million for on-the-ground 
invasive species control projects through the PTI program.
    Conserving Fish, Wildlife, and Plants.--With our FWS, BLM and FS 
appropriations, the Foundation also leveraged resources to fund 
projects that directly benefit diverse fish and wildlife species 
including sage grouse in the intermountain west, cutthroat trout in the 
west and quail in the south. We also measure our success by preventing 
the listing of species under the Endangered Species Act and by 
stabilizing and hopefully moving others off the list. We invested in 
common sense and innovative cooperative approaches to endangered 
species, building bridges between the government and the private 
sector. Some species benefiting from Foundation grants in fiscal year 
2005 include steelhead trout, red-cockaded woodpeckers, Black-capped 
vireos, Whooping cranes, Laysan ducks, Karner blue butterflies, Houston 
toads and black-footed ferrets.
    An example wildlife focused grant program is the Foundation's 
Washington State Community Salmon Fund. In fiscal year 2005, the 
Foundation leveraged $2 million provided by the Committee into more 
than $6 million for salmon conservation projects. The Foundation 
established the program with the goal of awarding community-based 
salmon habitat restoration grants to assist rural communities, farmers 
and other private landowners with salmon habitat improvement projects. 
The program has expanded in recent years to include funding and 
participation by the Salmon Recovery Funding Board and the King County 
and Pierce County Community Salmon Fund programs. As a result of the 
Committee's support, salmon will now have increased access to more than 
600 miles of spawning and rearing habitat; at least 4,500 acres of in-
stream, riparian, estuarine and upland habitat will be restored; and 
over 3,000 acres will be protected through improved management.
    Watershed Approach.--The Foundation has recently launched several 
collaborative grant programs designed to support conservation projects 
on a watershed level. These programs include the Chesapeake Bay Small 
Watershed Grants Program, the Delaware Estuary Grants Program, the Long 
Island Sound Futures Fund and the Columbia Basin Water Transaction 
Program. In fiscal year 2005, the Foundation launched a new 
strategically focused grant program targeting the Great Lakes 
Watershed. The partners in this program include the Environmental 
Protection Agency, FWS, National Oceanic and Atmospheric 
Administration, FS and the Natural Resources Conservation Service.
    The Foundation is currently developing two additional Special Grant 
Programs that will be launched later this year. The purpose of the 
first grant program is to implement the National Fish Habitat 
Initiative Action Plan. The National Fish Habitat Initiative is a 
multi-agency, multi-partner initiative to improve our Nation's aquatic 
resources. The Foundation's grant program will bring together federal 
and non-federal funds to strategically invest in priority fish habitat 
grants. The Foundation's second grant program will focus on the Upper 
Mississippi River Watershed. The program is being launched at the 
direction of FS, with the goal of restoring private land streambanks 
with native trees and grasses. The Foundation is hoping to expand this 
program into a multi-partnered effort in fiscal year 2007.
    Evaluation.--The Foundation has become a leader in evaluation and 
adaptive management among its peers. The Foundation's goal is to build 
the capacity of both itself and its partners to undertake more 
effective evaluation, to assist in both measuring performance and 
adapting methods and funding strategies for more effective 
conservation. To address these goals, the Foundation is implementing 
several evaluation strategies simultaneously. First, the Foundation has 
instituted new protocols within its application process to provide the 
measurable indicators needed to evaluate the impacts of our programs. 
Second, the Foundation has convened meetings among our agency partners 
to identify and coordinate potential opportunities for collaboration 
within evaluation. One of the initial results of these meetings has 
been an interest in piloting new evaluation indicators, to better 
articulate the federal investment for GPRA and PART.
    Third, the Foundation has commissioned several third-party 
evaluations targeting standard methods like culvert removal to full 
program evaluations to learn where we have been successful and where 
past methods have not provided the desired impact. As an example, in 
fiscal year 2006, the Foundation's Chesapeake Bay Small Watershed 
Grants Program will be evaluated for the first five years of grant-
making. The evaluation will include 355 projects associated with about 
$10.6 million in federal funds. The federal legislation accompanying 
this program included 10-year goals, and this evaluation presents an 
opportunity to assess the mid-way mark in helping the Foundation and 
its partners better focus their resources over the next five years. To 
capture the evaluations and lessons learned, the Foundation is taking a 
fourth key step by developing a new searchable project website where 
users will be able to query information and learn more about funded 
projects, including how to adapt projects for higher rates of success.
    Accountability and Grantsmanship.--The Foundation constantly 
strives to improve the grant making process while maintaining a healthy 
level of oversight. To improve ease of use for potential applicants, 
Foundation applications are now completed and reviewed electronically. 
In early 2006, to further improve efficiency, the Foundation released a 
revised application, grant contract template and reporting form. Even 
with these efficiencies, the Foundation still requires strict financial 
reporting by grantees and has once again received an unqualified audit 
in fiscal year 2005.
    In addition to the evaluation requirements described earlier, all 
potential grants are subject to a peer review process. This involves 
five external reviews representing state agencies, federal agencies, 
affected industry, environmental non-profits and academics. Before 
being recommended to the Foundation's Board of Directors, grants are 
also reviewed internally by staff, including our conservation 
scientists. The internal review process examines the project's 
conservation need, technical merit, the support of the local community, 
the variety of partners and the amount of proposed non-federal cost 
share. The Foundation also provides a 30-day notification to the 
Members of Congress for the congressional district and state in which a 
grant will be funded, prior to making a funding decision.
    Basic Facts About the Foundation.--The Foundation is governed by a 
25-member Board of Directors, appointed by the Secretary of the 
Interior and in consultation with the Secretary of Commerce. At the 
direction of Congress, the Board operates on a nonpartisan basis. 
Directors do not receive any financial compensation for service on the 
Board; in fact, all of our directors make financial contributions to 
the Foundation. It is a diverse Board, representing the corporate, 
philanthropic and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation. I took over the 
chairmanship in January, after serving on the Board for ten years. It 
is an honor to lead such a prestigious board.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation program funded in part by 
the federal government. None of our federally appropriated funds are 
used for lobbying, litigation or the Foundation's administrative 
expenses. By implementing real-world solutions with the private sector 
while avoiding regulatory or advocacy activity, our approach is 
consistent with this Congress' philosophy. We are confident the money 
appropriated to the Foundation will continue to make a difference.
                                 ______
                                 
               Prepared Statement of the Audubon Society

                      SITE DESCRIPTION & LOCATION

    In 1991, the Silvio O. Conte National Fish and Wildlife Refuge 
(NFWR) Act directed USFWS to study the entire Connecticut River 
watershed, from Vermont and New Hampshire, through Massachusetts to 
Connecticut, and create a national fish and wildlife refuge. The Conte 
NFWR is no ordinary refuge. The Connecticut River watershed, 7.2 
million acres in four states, is larger and more populous than areas 
usually considered for a refuge. The purposes of the Conte Refuge are 
also much broader, it is one of the few fish and wildlife refuges, and 
protecting natural diversity is a new scientific and social challenge. 
There are several announced, identified and potential IBAs within the 
boundaries of the Refuge. The two current acquisition opportunities are 
located at the Salmon River Division in Connecticut and the Fort River 
Division in Massachusetts.
    The U.S. Fish and Wildlife Service (Service) land protection plan 
for the Refuge identifies the minimum interest necessary to accomplish 
habitat protection goals. The Service has the potential and ability to 
acquire easements within all of the 48 Special Focus Areas. The Refuge 
accomplishes its habitat protection goals by utilizing all available 
conservation tools and partnerships. The Refuge encourages and supports 
mutually beneficial work with agencies, conservation organizations, 
landowners, and citizens.

                           ECOLOGICAL VALUES

    The northern third of the watershed located in Vermont and New 
Hampshire is part of the ``Northern Forest'' which is largely privately 
owned industrial forest stretching from the Adirondacks to the coast of 
Maine. Large blocks of this land have been sold in unprecedented 
quantities recently as the timber industry relocates some of its 
financial assets. Important bottomland forest, flood plain wetlands, 
and a variety of grassland areas are generally located along the middle 
third of the Connecticut River in western Massachusetts and northern 
Connecticut. The mouth of the river, located in southern Connecticut, 
contains internationally significant fresh, brackish and saltwater 
tidally influenced wetlands. The Refuge emphasizes protecting Federal 
trust species--migratory birds, migratory fish, federally endangered or 
threatened species, and rare and exemplary natural communities.
    Forty-eight ``Special Focus Areas'' encompassing roughly 180,000 
acres have been identified within the watershed. These areas contribute 
substantially or in unique ways to supporting natural diversity in the 
watershed. There are two recognized IBAs and 7 identified IBAs within 
the Refuge Special Focus areas in Connecticut and 14 in Massachusetts, 
4 in VT and 1 in NH.
    Special Focus Areas provide the following biological values:
  --Habitat for federally-listed species;
  --Habitat for a number of rare species and/or rare vegetative 
        community types;
  --Important fisheries habitat;
  --Important wetlands; habitat for waterbirds;
  --Substantial areas of contiguous habitat;
  --Large blocks of unusual habitat, and;
  --Landbird resting, feeding, and breeding habitat.
    The Fort River Division represents several hundred acres of 
grassland and agricultural habitat that will offer substantial 
grassland restoration opportunities and ensure the establishment of a 
critical reservoir population of nesting grassland birds that can help 
strengthen the New England population of regionally endangered 
grassland birds.
    The Salmon River Division represents critical wintering habitat for 
the federally threatened Bald Eagle, along with critical wetland, 
forest and shrubland habitat for many species of conservation concern.

                PUBLIC USE AND BENEFIT TO THE COMMUNITY

    The Conte National Fish and Wildlife Refuge is charged with 
providing environmental education and research opportunities. 
Recreational opportunities at Conte include wildlife observation and 
photography, hiking, and fishing. Acquisition within the Conte Special 
Focus areas would allow improved habitat management and create 
significant opportunities for environmental education, wildlife 
viewing, and research. The location of these special focus areas within 
the heavily populated Central Connecticut Valley of New England would 
allow the Refuge to serve urban areas more effectively, including 
Middletown and Hartford, CT, Springfield, MA, Brattleboro, VT and 
Manchester, NH.

                                THREATS

    The Connecticut River watershed is facing tremendous pressures from 
development throughout its length. Areas on or near the river are in 
high demand as locations for high-end luxury housing, and there is 
increasing risk of fragmenting forest blocks throughout the watershed. 
Grassland and unfragmented forest habitats are particularly at risk.

        ACQUISITION STATUS & ESTIMATED COST FOR THE ACQUISITION

    The Refuge consists of 32,076 acres with a total acquisition goal 
of 93,395 acres. Acquisition priorities include additions that enhance 
environmental education and scientific research on the Refuge. $4 
million is needed for fiscal year 2006 to purchase 280 acres in the 
Salmon River Division in Connecticut and 83 acres in the Fort River 
Division in Massachusetts to provide research, public access and 
environmental education opportunities in heavily populated central 
Connecticut Valley of New England. Additional land acquisition projects 
in Vermont and New Hampshire will also be funded through this year's 
appropriation in the Nulhegan Basin, Pondicherry and Mohawk River 
Divisions.

                             PUBLIC SUPPORT

    Tremendous public support exists for protection of the Connecticut 
River and for acquisition of land by the Conte NFWR. Many environmental 
groups have an interest in the conservation of land within the 
watershed including: Audubon Connecticut; Audubon Vermont; the 
Massachusetts Audubon Society; the Audubon Society of New Hampshire; 
The Nature Conservancy; Mattabeseck Audubon Society; Potapaug
    Audubon Society; Trust for Public Land; Connecticut Audubon 
Society; Hartford Audubon Society; The Friends of the Silvio O. Conte 
Refuge, and many other groups.
Connecticut
    The Potapaug Audubon Society Chapter volunteers have participated 
in Conte NFWR Migratory Bird Habitat Stopover studies. Audubon chapters 
and affiliates would provide volunteers to lead trips and participate 
in Refuge wildlife monitoring activities when the Refuge does acquire 
land in Connecticut.
Vermont and New Hampshire
    Audubon Vermont and the Audubon Society of New Hampshire are 
currently undertaking an effort to map the natural resources of the 
Connecticut River Watershed and conduct a spatial analysis of the 
watershed to assess habitat that may qualify for IBA status. Field 
assessments will be conducted this summer. And further nominations and 
recognitions are expected. In Vermont, chapters have advocated for 
state and federal funding to acquire land for the Refuge at Nulhegan 
Basin and the chapter has helped with a high school summer science 
program that has conducted large mammal surveys in the Conte Refuge 
holding in the Nulhegan over the last two summers. At Herricks Cove, 
each year our Audubon Chapter and the Vermont State Office sponsor a 
wildlife festival at Herricks Cove attended by as many as 1,000 people 
each year. In addition the state office has worked with the chapter to 
conduct a wildlife assessment of the property and are carrying our a 
native plant restoration project on site this past summer and the 
summer to come. Monthly monitoring is also taking place. Ascutney 
Mountain Audubon Society has developed artificial heron nesting 
platforms to maintain a heron rookery on a wetland in Weathersfield VT 
and the chapter maintains a nature trial and kiosk at the Army Corp of 
Engineers flood control project in Springfield and Weathersfield. 
Southeastern Vermont Audubon has put up Osprey nesting platforms along 
the banks of the Connecticut river in Brattleboro and the Northeast 
Kingdom Audubon participates in monitoring efforts at the Victory Bog 
IBA.

                                HABITAT

    The Salmon River Division parcel consists of 280 acres of forested 
and freshwater tidal wetland habitat. The Fort River Division parcel 
consists of 83 acres of grassland and agricultural habitat.

                                SPECIES

    Home to threatened & endangered species such as:
    Federally threatened species: Piping Plover; Bald Eagle; puritan 
tiger beetle; shortnose sturgeon.
    State-listed species.--Whip-poor-will; Yellow-breasted Chat; Bald 
Eagle; Red-shouldered Hawk; Saltmarsh Sharp-tailed Sparrow; Seaside 
Sparrow; Sedge Wren; Northern Saw-whet Owl; Short-eared Owl; Least 
Bittern; American Bittern; Snowy Egret; Great Egret; Willet; Piping 
Plover; Northern Harrier; Snowy Egret; Horned Lark; King Rail; Black 
Rail; Common Moorhen; Pied-billed Grebe; Blue-winged Teal; Peregrine 
Falcon; American Kestrel; American Oystercatcher; Upland Sandpiper, 
Yellow-crowned Night Heron; Brown Thrasher; Bobolink; Savannah Sparrow; 
Ipswich Sparrow; Grasshopper Sparrow, Vesper Sparrow, Least Tern; 
Common Tern; and several species of state-listed plants and insects.
    Home to Audubon WatchList species.--American Black Duck; 
``Atlantic'' Brant; Black Rail; Piping Plover; American Golden Plover; 
American Oystercatcher; American Woodcock; Red Knot; Short-billed 
Dowitcher; Whimbrel; Short-eared Owl; Blue-winged Warbler; Kentucky 
Warbler; Prairie Warbler; Rusty Blackbird; Wood Thrush; Cerulean 
Warbler, Worm-eating Warbler; Willow Flycatcher; Black-and-White 
Warbler; Hairy Woodpecker; Seaside Sparrow; Saltmarsh Sharp-tailed 
Sparrow and Nelson's Sharp-tailed Sparrow.
    Partners in Flight High Conservation Priority Species.--Home for at 
least 37 species of birds considered of high conservation priority by 
Partners in Flight.
    Other species.--Floodplain forest of the Connecticut River has been 
documented as being important stopover habitat for migrant landbirds. 
Large blocks of forest remaining in the upper reaches of the watershed 
are critical nesting areas for many species of forest-nesting birds, 
and habitat for large mammals such as black bear and moose. The 
freshwater tidal marshes of the lower river are important habitat for 
migrant shorebird stopover, rails and other marsh birds, and as a 
waterfowl migratory stopover and wintering area.
                                 ______
                                 
            Prepared Statement of the New Hampshire Audubon

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of an 
appropriation of $3 million from the Forest Legacy Program for the Robb 
Reservoir/Willard Pond tract in New Hampshire.
    The mission of New Hampshire Audubon is to protect New Hampshire's 
natural environment for wildlife and for people. The Robb Reservoir/
Willard Pond tract has been a conservation priority of our organization 
for 35 years, with the first transfer of land to New Hampshire Audubon 
occurring in 1971. We are deeply invested in these properties due to 
their tremendous natural resources, wetlands, endangered species, and 
crucial wildlife corridor linkages.
    New Hampshire's forests are the economic engine that drives tourism 
and the majority of manufacturing in the state. Private landowners and 
industries own eighty percent of the state's forestland. The New 
Hampshire Forest Legacy Program seeks to protect blocks of forestland 
of varying sizes and values that are threatened by conversion to 
nonforest uses, so that they may provide for the continuation of 
traditional forest uses. To date, more than 200,000 acres of forestland 
in New Hampshire have been protected through the Forest Legacy Program.
    The Robb Reservoir/Willard Pond project is a 1,667-acre tract in 
Cheshire County, one of the few areas in southern New Hampshire where 
large unfragmented blocks of forestland can still be found. Protection 
of the property will link together the 1,466-acre Willard Pond New 
Hampshire Audubon Wildlife Sanctuary with two other private easements. 
Altogether these conservation efforts will link a block of over 40,000 
acres of permanently protected forestland in a densely populated area 
of the state.
    The Robb Reservoir/Willard Pond project area has also been 
identified as a critical target for protection due to its ecological 
value and central location in the Quabbin-to-Cardigan Conservation 
Initiative, an inter-organizational collaborative effort organized to 
establish a contiguous conservation corridor from the southern White 
Mountains in New Hampshire to the Quabbin Reservoir in Massachusetts. 
Approximately 75 percent of the property is productive forestland and 
will be managed to provide for sustainable timber production. This 
property is under considerable development pressure because of its 
commuting distance to Concord, Manchester and Keene.
    Under the terms of a conservation easement, the project area would 
continue to provide public access for hunting, hiking, nature viewing, 
cross-country skiing, and snowshoeing, as well as fishing for warm and 
cold water species in the North Branch River and Robb Reservoir. A 
network of established recreation trails will connect this property to 
an adjacent trail network at the Audubon wildlife sanctuary. 
Mountainous portions of the property offer unobstructed views of the 
reservoir and surrounding mountains, and provide excellent vantage 
points for wildlife viewing. Documented archaeological sites, located 
along the north branch of the Contoocook River, reveal clues to the 
lifestyle of the Penacook people, who lived on this landscape for 
millennia. A historic Native American travel route, the Kon-weg-ti-ok 
Trail, once ran through the property along the river, connecting Native 
American villages.
    The Robb Reservoir/Willard Pond property is home to diverse and 
interesting plant and animal species. Several state threatened and 
endangered species have been documented on the property including the 
bald eagle, pied-billed grebe, osprey, purple martin, and northern 
harrier. In addition, a state listed endangered plant species, the 
arethusa, is found growing on the property within the three state 
designated Exemplary Natural Communities: Atlantic white cedar swamp, 
southern New England level bog, and southern New England acidic seepage 
swamp. Of these three, the Atlantic white cedar swamp is designated as 
``critically imperiled'' due to its extreme rarity. In 1991, the north 
branch of the Contoocook River, which runs through the property, was 
designated as protected by the New Hampshire Rivers Management 
Protection Program.
    New Hampshire has recognized Robb Reservoir/Willard Pond as its 
number one priority for the Forest Legacy Program this year, and $3 
million has been included for the project in the President's fiscal 
year 2007 Budget. This year, a total appropriation of $3 million of 
Forest Legacy funding is needed to acquire and protect the 1,667-acre 
Willard Pond/Robb Reservoir property.
    Thank you Mr. Chairman, for the opportunity to present this 
testimony in support of this request.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, on behalf of the National Institutes for Water 
Resources, I request the Subcommittee to provide $8,775,000 to the U.S. 
Geological Survey for the state Water Resources Research Act Program, 
as originally established under provisions of Public Law 88-379, the 
Water Resources Research Act of 1964.
    First, I would like to thank you and the Subcommittee members for 
your longtime support of the program. You have recognized the 
importance of university cooperation with local, state and federal 
government agencies to produce new knowledge, and to ensure the 
education and training of the professionals who design and manage our 
water systems.
    The 54 state water institutes, located at land grant universities 
in each of the states and territories, have been funded through the 
Department of the Interior each year since they were first authorized 
in 1964. They have a threefold mission: to oversee the conduct of 
useful water research, to foster the education and training of our 
Nation's future water professionals, and to transfer research results 
to those who manage or use the Nation's water resources.

                                REQUEST

    The National Institutes for Water Resources respectfully request 
the addition of $8,775,000 to the 2007 budget of the USGS for the Water 
Resources Research Act Program. This recommendation is composed as 
follows:
  --$7,000,000 in base grants for the water institutes, as authorized 
        by Section 104(b) of the Act, for competitive research seed 
        grants and outreach;
  --$1,500,000 to support activities authorized by section 104(g) of 
        the Act, the national competitive grants program; and
  --$275,000 for program administration.
    Two reauthorization bills for the program are currently pending 
before the House Resources Committee: S. 1017, which passed the Senate 
unanimously, and H.R. 4588, introduced by Representative Doolittle. 
Both bills authorize annual appropriations of $12,000,000. The 
appropriation in fiscal year 2006 was $6,500,000. The increase from the 
fiscal year 2006 appropriation that is recommended herein would 
partially offset the sharp increase in university costs of the last 3-5 
years, in particular the cost of tuition.

                             JUSTIFICATION

    ``At the dawn of the 21st century the United States faces a panoply 
of water problems that are significantly more numerous, complex, and 
larger in scope than those of the past.'' So stated an expert committee 
of the National Research Council in 2004, in an assessment reported in 
Confronting the Nation's Water Problems: The Role of Research. These 
problems, paradoxically, stem from our Nation's progress and success. 
As the U.S. population grows and its economy drives forward, demands on 
water resources intensify. As the built environment expands, more value 
is jeopardized by each flood and drought. As we learn more about 
natural processes, we strive to bring our water management practices 
into alignment with our new understanding. As our general prosperity 
increases, we raise our expectations--for drinking water quality, the 
availability of irrigated farm produce and the abundance of wild fish. 
Meeting these demands requires high levels of research, outreach to 
water managers and water users, and education of future specialists.
    Federal agencies conduct a great deal of water research and 
training. But, as the NRC report points out, these are driven and 
constrained by agency missions, which means that important topics are 
neglected--most notably the institutional aspects of water management, 
where important economies and innovations may be realized. Private 
organizations and state natural-resource agencies need water research, 
education and training but seldom have the capacity to conduct these 
activities themselves. Clearly, universities must play a major role. 
The question is: by what characteristics should the Water Resources 
Research Act Program be judged worthy to fill this role, at a time of 
unprecedented demand on the federal budget? I propose four criteria: 
relevance, quality, efficiency and need.
    Relevance.--Congress was quite deliberate in originally directing 
the establishment of water institutes at land grant universities. These 
are the schools that specialize in identifying problems within their 
states, developing solutions, and conducting technology transfer. The 
institutes' research and outreach are further tuned to state needs, 
because the institutes are required by the Water Resources Research Act 
to consult with panels of advisors representing the water interests in 
their states. Regional and national priorities are addressed when the 
institutes collaborate on larger projects. Examples of 2006 activities 
at different scales include:
  --A regional workshop on turning the water produced during coalbed 
        methane and oil extraction to beneficial uses
  --A national conference titled Increasing Freshwater Supply
  --A collaboration with the American Water Works Association to place 
        undergraduate interns with municipal water utilities
  --Research to define ground water flows in the Tar River Basin, a 
        rapidly-growing area of North Carolina where increased water 
        supplies are needed
  --Research to locate the sources of infectious microbes in the 
        watershed tributary to the Philadelphia municipal water system.
    Institute-sponsored research is not limited to the natural 
sciences; for example, three of this year's eight national research 
projects concern the economics of water management.
    Quality.--In both the state and national research programs, 
projects are selected for funding on a competitive basis, relying on 
the reviews of peer scientists, economists or engineers. The 
performance of each institute is evaluated every five years by an 
independent, USGS-appointed panel. The most recent evaluation report 
(2004) stated ``The vast majority of institutes are strong and thriving 
and a significant subset is very strong and distinguished the institute 
program, with its federal-state matching requirement, is an important 
and significant part of the nation's water resources research 
infrastructure.''
    Efficiency.--The water institutes must match each federal dollar 
from their base grants with two non-federal dollars. This is the 
highest match requirement of any federal research program. The national 
competitive grants program requires a 1:1 match. The overall leveraging 
ratio for all of the institutes, counting funding from all sources, is 
more than 15:1. In 2005 the institutes supported more than 1,300 
student researchers, at an average cost of less than $10,000 each. By 
comparison, student stipends funded by the National Science Foundation 
average more than $20,000 per year. The Water Resources Research Act 
Program does not allow for university administrative costs, and USGS 
administrative costs are less than 5 percent.
    Need.--The President's budget recommends the water institute 
program for elimination in fiscal year 2007. The recommendation is 
justified thus: ``These Institutes generally have been successful in 
obtaining other sources of funding and should be able to support 
themselves.'' In fact, the institutes cannot exert funding leverage if 
they have no fulcrum against which to lever. It is the ongoing federal 
support, the Congressional designation as a focal point of water 
investigation and outreach, that enables the institutes to augment 
their base grants from other funding sources. Furthermore, a 
significant number of the institutes receive no base funding from their 
states or universities at all. Some of these would cease to exist 
without the federal base grant. Others would greatly curtail their 
activities; in particular, they would no longer disburse research seed 
grants, formally consult with water-user groups, collaborate with other 
universities in their states, or conduct outreach to water managers. In 
my own state, the annual conference that brings together more than 200 
water managers, students, and researchers is largely funded through the 
federal base grant. Without the appropriation, its continuation would 
be in jeopardy.

                               IN CLOSING

    The water institutes have been on the job nationwide for more than 
40 years, and they're well-prepared to play a key role in assuring our 
Nation's water security in the 21st century. But from one year to the 
next they are absolutely reliant on federal seed funding to mobilize 
the resources they need to tackle contemporary water problems. I thank 
you for your past support, and hope that the institutes have earned 
your continued confidence.
                                 ______
                                 
          Prepared Statement of the New Jersey Audubon Society

    On behalf of the New Jersey Audubon Society and its over 21,000 
members, I would like to thank you for the opportunity to submit 
testimony to the fiscal year 2007 Subcommittee on the Interior and 
Related Agencies.
    New Jersey Audubon Society is a privately supported, not-for 
profit, statewide membership organization that fosters environmental 
awareness and a conservation ethic among New Jersey's citizens; 
protects New Jersey's birds, mammals, other animals, and plants, 
especially endangered and threatened species; and promotes preservation 
of New Jersey's valuable natural habitats.
    I am writing to express our support for funding three national 
wildlife refuge acquisition projects in New Jersey through the Land and 
Water Conservation Fund (LWCF) Program. These projects meet the 
criteria of the LWCF program and benefit the citizens of New Jersey and 
visitors by:
  --Providing opportunities for citizens recreation in the most densely 
        populated state in the nation;
  --Protecting open space and habitat for wildlife, including 
        endangered and threatened species;
  --Offering opportunities for scientific research through the 
        enhancement of the NOAA Jacques Cousteau National Estuarine 
        Reserve; and
  --Resulting in considerable saving for the US Fish and Wildlife 
        Service.

                   CAPE MAY NATIONAL WILDLIFE REFUGE

    LWCF funds in the amount of $1.3 million would acquire 450 acres, 
known as Braddock Realty, adjacent to Cape May National Wildlife Refuge 
in southern New Jersey.
    The property is located along Bidwell Creek, a tidal creek flowing 
from the Delaware Bay. Cape May County identified the drainage basin of 
this creek as one of the most important aquifer recharge areas in the 
county.
    This low, wet property is also the site of one of the largest 
stands of swamp pink (Helonias bullata), a member of the Lily Family 
and a federally threatened plant. In addition, this property is 
composed of forested uplands and an overgrown field, exceptional 
habitat for American woodcock. This piece of land also provides habitat 
for the tremendous number of migratory birds that pass through the Cape 
May peninsula each year. Other species that call this area home include 
state threatened species such as barred owls, red-shouldered hawks, and 
osprey.

                   FORSYTHE NATIONAL WILDLIFE REFUGE

    LWCF funds in the amount of $500,000 would acquire a 45.59-acre 
island, known as the Ocean County parcel, near the Edwin B. Forsythe 
National Wildlife Refuge in central New Jersey.
    The Ocean County parcel is an upland tree island in the tidal 
marches to the north of Great Bay. The marshes surrounding the parcel 
are already part of refuge, however the island is not.
    Acquisition of this parcel is critical to the protection of habitat 
within the area and would be the final step in acquiring a 128-acre 
area approved for development in 1999. The Ocean County Freeholders 
recently purchased the other portion of this 128-acre area for the 
refuge.
    The land is located within the approved refuge acquisition boundary 
and once purchased would become part of the NOAA Jacques Cousteau 
National Estuarine Reserve.

                  GREAT SWAMP NATIONAL WILDLIFE REFUGE

    LWCF funds in the amount of $2 million would acquire 30 acres of 
land located on two abutting lots adjacent to Great Swamp National 
Wildlife Refuge in northern New Jersey.
    The 27-acre larger lot currently contains a fireworks production 
facility and temporary storage area as well as deciduous forested 
wetlands. Purchasing this land would remove a potentially dangerous 
operation from the immediate area of the refuge. The production 
facility is now located approximately 2,000 feet from the Somerset 
County Environmental Education Center and a little over 5,000 feet from 
the Refuge headquarters.
    Acquisition of this land also would provide an excellent 
restoration opportunity and likely protect critical habitat of the 
endangered blue-spotted salamander, found on adjacent refuge land, and 
the endangered red-shouldered hawk, reported to be nesting in the area.
    The smaller 3-acre lot contains a 4,400-square-foot brick house. 
Acquiring this lot would provide an opportunity to relocate the U.S. 
Fish and Wildlife Service Division of Law Enforcement, currently 
occupying expensive leased space in Elizabeth, onto Service land. The 
house is in very good condition and could easily be converted and used 
as office space, resulting in considerable saving for the Service.

                            PROJECT SUPPORT

    These projects are supported by the following organizations, which 
represents hundreds of thousands of New Jersey citizens:
  --American Littoral Society
  --Delaware Riverkeeper
  --Great Swamp Watershed Association
  --New Jersey Conservation Foundation
  --New Jersey Environmental Federation
  --NJ PIRG
  --New Jersey State Federation of Sportsmen's Clubs
  --New York-New Jersey Trail Conference
  --Passaic River Coalition
  --Pinelands Preservation Alliance
  --Sierra Club, New Jersey Chapter
    Finally, NJ Audubon Society is very concerned about the overall 
proposed cuts to the Land & Water Conservation Fund, which is slated to 
receive only $85 million in the President's budget. This would be the 
lowest level of funding in over three decades. Without adequate funding 
of this program, New Jersey's last remaining open spaces will be 
developed, resulting in a loss of recreational opportunities and 
quality of life for both urban and rural residents.
    Thank you again for considering our comments on the fiscal year 
2007 Interior and Related Agencies Appropriations bill.
    Contact Information: Eric Stiles, NJ Audubon Society at 908-766-
5787 x13 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="debbacb7bdf0adaab7b2bbad9eb0b4bfabbaabbcb1b0f0b1acb9f0">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the New Jersey Conservation Foundation

    The New Jersey Conservation Foundation thanks you for the 
opportunity to comment on the fiscal year 2007 Department of the 
Interior, Environment and Related Agencies Appropriations bill. The NJ 
Conservation Foundation is a member-supported, non-profit 501.c.3 
statewide organization whose mission is to preserve New Jersey's land 
and natural resources for the benefit of all. Since 1960, NJCF has 
worked to protect the State's farmland, forests, urban parks, wetlands, 
water quality and special places.
    NJCF's top priorities include:
  --$80 million for the Forest Legacy Program, including $2.1 million 
        for the protection of Sparta Mountain South (NJ)--Phase II 
        ($1.8 million was provided in fiscal year 2006 for Phase I);
  --$11 million for the Highlands Conservation Act, including $2.5 
        million for protection of the Wyanokie Highlands (NJ); and
  --$2.0 million from the Land and Water Conservation Fund for the New 
        Jersey Pinelands Forked River Mountain Preserve Expansion 
        Project.

                       USDA/FOREST LEGACY PROGRAM

    Sparta Mountain South (NJ) is located in Sussex County, where it 
forms the westernmost ridge of New Jersey's northern Highlands. Sparta 
Mountain/Lubber's Run was identified as important ``Conservation Focal 
Area--I '' in the USDA Forest Service NY-NJ Highlands Regional Study: 
2002 Update.
    There is currently the potential, in densely populated New Jersey, 
to preserve more than 5,000 acres in the Sparta Mountain Greenway. In 
fiscal year 2006, the Forest Legacy Program provided funding for 1,200 
easement acres. Now, we seek $2.1 million for 1,000 acres (fee and 
easement).
    Sparta Mountain South is a key linkage between state park and 
wildlife management areas, extending some 15 miles between Hamburg 
Mountain State Wildlife Management Area and Allamuchy State Park. At 
Sparta Mountain's northern end, 1,200-acre Gerard Woods, 3,200-acre 
Sparta Mountain and 1,300-acre Weldon Brook State Wildlife Management 
Areas preserve over 5,700 acres. Sparta Mountain South forms a critical 
linkage between these WMA's and Allamuchy State Park to the south. New 
Jersey's Highlands Millennium Trail, initiated in 1994 with National 
Park Service Rivers and Trails Conservation Assistance, follows Sparta 
Mountain on its 150-mile route between the Hudson and Delaware Rivers.
    Sparta Mountain South offers magnificant vistas overlooking 
pristine lakes and ponds, glacial erratics, and a diversity of natural 
communities, including grasslands and wetlands. Mature forests of oak, 
beech, hickory, maple, and tulip poplar clothe its steep ridges, and 
hemlock groves still stand despite the wooly adelgid blight that has 
devastated many hemlock forests in the State. Federally endangered bog 
turtle and State threatened red shouldered hawk, wood turtle, spotted 
salamander, timber rattlesnake and bobcat make their home here. The 
forests protect groundwater aquifers and water quality, while wetlands 
and ponds provide flood control and habitat for wading birds, neo-
tropical migrant songbirds and amphibians.
    Sparta Mountain South forms part of the watershed of the 
Musconetcong River. Legislation adding the Musconetcong River to the 
National Wild and Scenic Rivers System was approved in the Senate 
December 16, 2005, and successfully marked up on March 29, 2006 by the 
Parks Subcommittee of the House Committee on Natural Resources.
    Recent development on adjacent parcels threatens the biological and 
resource integrity of Sparta Mountain South.

                       HIGHLANDS CONSERVATION ACT

    In the fall of 2004, Congress enacted and President Bush signed the 
Highlands Conservation Act, recognizing the national significance of 
the more than three-million acre, four-state Highlands region as a 
source of drinking water, productive forests and farms, wildlife 
habitat and recreation within an hour of major metropolitan areas 
including Philadelphia, New York City and Hartford. The Act authorized 
$11 million annually to assist the Highlands states in conserving 
priority lands from willing landowners, and to continue USDA Forest 
Service research and assistance to private landowners in the Highlands.
    The Administration's fiscal year 2007 budget included $2 million 
for the Highlands Conservation Act (HCA), through the Fish & Wildlife 
Service, to support land conservation partnership projects in the four 
Highland states of Pennsylvania, New Jersey, New York and Connecticut. 
The Governors of the four Highlands States have jointly submitted 
projects totaling $10 million in need to the Department of the Interior 
for funding in fiscal year 2007.

                        WYANOKIE HIGHLANDS (NJ)

    New Jersey requests $2.5 million in funding to acquire four parcels 
in Passaic County totaling 1,288 acres. The total cost of this project 
is $7.7 million.
    The Wyanokie Highlands encompass critical watersheds that protect 
New Jersey's most significant and most threatened water supply--the 
Wanaque Reservoir--on which nearly two million people rely. The 
Wyanokies contain the headwaters of Burnt Meadow and West Brooks, 
waterways of exceptional ecological significance, which flow directly 
into the Wanaque Reservoir. Acquisition will provide essential 
protection for this critical water supply, which the U.S. Forest 
Service identified as highly threatened by development.
    In addtion, preservation will complete a missing greenway link 
between Norvin Green State Forest and Long Pond Ironworks State Park, 
and extend a direct connection to New York's Sterling Forest State Park 
along the route of the Highlands Millenium Trail. The Highlands Trail, 
nearly completed, runs 150 miles between the Hudson and the Delaware 
Rivers. The Wyanokie Highlands boast an extensive network of historic 
hiking trails and dramatic scenic overlooks, as well as significant 
ecological values.

                    LAND AND WATER CONSERVATION FUND

    Forked River Mountain Preserve Expansion Project.--We are seeking 
$2.0 million from the Land and Water Conservation Fund (authorized by 
Section 502 of the National Parks and Recreation Act) to preserve 622 
acres in the Forked River Mountain Project area, towards the project's 
total cost of $4.425 million. The 622 acres are located wholly within 
the Pinelands National Reserve, in and near New Jersey Conservation 
Foundation's 3,000-acre Forked River Mountain Preserve.
    The New Jersey Conservation Foundation is working to permanently 
preserve thousands of acres throughout the New Jersey Pinelands 
Commission's Preservation Target Areas in partnership with the 
Pinelands Commission, NJ Department of Environmental Protection and 
other governmental and non-governmental agencies. Over $40 million 
would be needed to protect all the unpreserved, targeted lands. The 
money sought will match existing funds to purchase the property from 
the current landowner.
    The permanent preservation of critical natural resources in the 
Pinelands National Reserve (PNR) ensures that the specific goals and 
overall mission of the Pinelands Comprehensive Management Plan (CMP) 
are realized. The New Jersey Conservation Foundation has a long history 
of supporting the CMP and the Pinelands Commission land preservation 
initiatives throughout the PNR. If funded, our efforts will result in 
the preservation of thousands of acres leveraged by additional State, 
local and private funding that will protect natural areas, connect 
existing isolated preserved lands, and provide the public with areas 
for hunting, fishing, hiking and other outdoor pursuits. Management 
will include active and passive measures to ensure the survival and 
possible expansion of known populations of threatened and endangered 
species found on these properties.
    The Forked River Mountain Preserve Expansion Project is within a 
Land Preservation Target Area approved by the Pinelands Commission. It 
consists of a mosaic of tracts that are entirely forested with no 
history of development or other significant disruption. Pine-oak forest 
dominates the property with some significant stands of Atlantic White 
Cedar in the lower areas along the North Branch of the Forked River. 
This area is known to be habitat for a number of rare and endangered 
Pine Barrens species such as Pine Barrens treefrog (Hyla andersonii), 
Knieskern's beaked-rush (Rynchospora knieskernii), northern pine snake 
(Pituophis melanoleucus) and curly grass fern ( Schizaea pusilla). A 
portion of the property is located in the Oyster Creek Watershed, 
recently given additional protections by the Pinelands Commission 
through a zoning change to better protect species diversity and high 
water quality. Many adjacent properties are already protected as part 
of the 3,000-acre Forked River Mountain Preserve.
    Thank you again for considering our comments on the fiscal year 
2007 Interior, Environment and Related Agencies Appropriations bill.
                                 ______
                                 
  Prepared Statement of the American Hiking Society; American Rivers; 
 Arizona Wilderness Coalition; Audubon Society of Greater Denver; Bay 
   Area Coalition for Headwaters; Continental Divide Trail Alliance; 
  Friends of the Agua Fria National Monument; Friends of the Missouri 
  Breaks Monument; Friends of Sloan Canyon; Grand Canyon Trust; Grand 
   Canyon Wildlands Council; Idaho Conservation League; Idaho Rivers 
 United; National Coast Trail Association; National Trust for Historic 
 Preservation; National Wildlife Federation; Natural Resources Defense 
    Council; New Mexico Wildlife Federation; Oregon Natural Desert 
    Association; Republicans for Environmental Protection; San Juan 
     Citizens Alliance; Sierra Club; Sky Island Alliance; Tamarisk 
    Coalition; U.S. Public Interest; Research Group; The Wilderness 
                   Society; and the Wilderness Watch

    On behalf of the 27 organizations listed above and our millions of 
members, we are writing to express our support for increased funding 
and improved budgeting and reporting accountability for the National 
Landscape Conservation System (NLCS).
    The NLCS is comprised of 26 million acres of the most spectacular 
lands and waters under the stewardship of the Bureau of Land Management 
(BLM). Created in 2000, the System provides unparalleled opportunities 
for recreation, hunting, fishing, wildlife watching, grazing, solitude, 
adventure, scientific research, and economic benefits to neighboring 
communities across the West. National Monuments, National Conservation 
Areas, Wilderness Areas, Wilderness Study Areas, National Scenic and 
Historic Trails and Wild and Scenic Rivers are all part of the NLCS.
fiscal year 2007 operations, maintenance, and planning budget needs for 

                                THE NLCS

    The President's fiscal year 2007 budget slashes $4.8 million from 
NLCS operations funding--a cut of 12 percent. When inflation and normal 
uncontrollable operating increases are taken into account, the 
President's proposal cuts approximately $6 million. The total proposed 
budget of just $37.1 million will leave critical BLM responsibilities 
and needs unmet, including law enforcement, management of illegal off 
road vehicle traffic, archaeological site protection, control of 
invasive species, and the implementation of new Resource Management 
Plans.
    We respectfully request that the Committee provide $46 million for 
operations and planning funding for the NLCS, a $3 million increase 
over the fiscal year 2006 enacted budget. This funding level would 
enable the BLM to maintain services at the fiscal year 2006 enacted 
level, while providing additional capacity to address areas of acute 
need, including:
  --Law enforcement and visitor management: A 2005 survey of 15 
        Monuments and Conservation Areas in the NLCS found that only 
        one-third has more than one full-time law enforcement ranger. 
        On average, one ranger patrols 200,000 acres. Enforcement staff 
        capacity needs to keep pace with growth in use; in some areas, 
        visitor numbers have quadrupled in the past 5 years.
  --Science and natural resource monitoring: The BLM cannot meet its 
        responsibility to obtain adequate information on the health of 
        flora and fauna, riparian condition, water quality, and other 
        resources--a problem recently highlighted by the Heinz Center 
        and the Government Accountability Office.
  --Cultural Resource Management: BLM does not have the personnel to 
        meet its legal responsibility to identify, evaluate, and 
        nominate historic properties to the National Register of 
        Historic Places, and protect cultural sites. The NLCS contains 
        hundreds of thousands of significant cultural and historic 
        resources, yet the agency has comprehensively inventoried just 
        6-7 percent of the area encompassed by NLCS Monuments and 
        Conservation Areas.
    Additionally, we note that the President's budget has removed all 
of the Congressional requests that were included in the fiscal year 
2006 budget. We urge the committee to restore these Congressional add-
ons and we ask the committee to give serious consideration to any 
additional member requests for funding NLCS units in the fiscal year 
2007 budget. These increases should be allocated in addition to, not in 
lieu of, funding already budgeted for each NLCS unit in the BLM's 
fiscal year 2007 budget.
    These requested increases could be funded by limiting the 
appropriation for BLM's oil and gas program to $6 million, rather than 
the $26 million increase requested by the agency. In addition to BLM's 
oil and gas program request, the BLM is receiving an additional $20 
million ``off budget'' from lease rentals to fund seven ``pilot 
permitting programs'' established by the Energy Policy Act. In effect, 
the BLM is asking for a $46 million increase in funding for its oil and 
gas program, while neglecting other high priority programs, such as the 
National Landscape Conservation System.

            NLCS LAND AND WATER CONSERVATION FUND PRIORITIES

    The President's fiscal year 2007 budget would provide just $6 
million for BLM land acquisition via LWCF--the lowest level ever. We do 
support the projects proposed for funding from the Land and Water 
Conservation Fund in the President's request, but strongly recommend an 
additional $4.9 million for projects in Canyons of the Ancients 
National Monument (CO), McInnis Canyons National Conservation Area 
(CO), Carrizo Plain National Monument (CA), Cascade Siskiyou National 
Monument (OR), and along the Pacific Crest Trail (OR). These projects 
are BLM acquisition priorities and offer willing sellers, local 
support, and opportunities to resolve inholder/access issues and 
protect recreational opportunities.

  SUPPORT FOR THE PRESIDENT'S CULTURAL RESOURCE FUNDING INCREASES IN 
                            FISCAL YEAR 2007

    We support the President's proposed $3 million program increase for 
cultural resource enhancement on BLM lands in fiscal year 2007. We 
encourage the Appropriations Committee to direct the BLM to devote a 
portion of this increase to inventory and protect the NLCS' hundreds of 
thousands of significant archaeological and historic sites (both known 
and unknown), and the wild lands surrounding these sites. The Committee 
should also restrict the use of these funds to proactive management of 
cultural resources (surveys, necessary maintenance and stabilization of 
historic sites), rather than for compliance with Section 106 of the 
National Historic Preservation Act.

            NLCS MANAGEMENT ACCOUNTABILITY AND TRANSPARENCY

    BLM's budget structure for the NLCS discourages program integration 
and limits accountability. For example, the NLCS receives funding from 
multiple budget categories and subcategories, obscuring the total 
funding devoted to the NLCS and how it is used within the System. The 
BLM cannot effectively track NLCS funding, so the President's budget 
does not provide a clear depiction of NLCS expenditures.
    Members of Congress concerned about the efficient use of scarce 
conservation dollars should request that the Interior Department 
provide annual reports on NLCS revenues, expenditures, and 
accomplishments, starting with budget documents for fiscal year 2006 
and fiscal year 2007. Directing the DOI and the BLM to provide budget 
information on the System at the unit level (for example, 
accomplishments and financial information for each Monument and 
Conservation Area)--akin to the level of detail DOI can provide on oil 
and gas leasing, and minerals management--would promote good government 
and accountability and help clarify the goals and needs of BLM's 
National Landscape Conservation System. We urge the committee to 
reinstate a cross-cut budget for the NLCS similar to that included in 
the fiscal year 2002 budget and we recommend that the Committee direct 
the BLM to establish separate subactivities for Wild and Scenic Rivers, 
National Scenic and Historic Trails, National Conservation Areas and 
National Monuments.
    We look forward to working with you on improvements to the budget 
to ensure that the BLM can effectively and efficiently meet its mandate 
of conservation on the National Landscape Conservation System--some of 
our nation's most spectacular and beloved public lands.
                                 ______
                                 
       Prepared Statement of the Northern Lights Nordic Ski Club

    I thank you for the opportunity today to present this testimony in 
support of an appropriation of $750,000 from the Forest Legacy Program 
(FLP) for the Sugar Hills property in Itasca County, Minnesota. As you 
may know, the President's Budget for this year included $750,000 for 
this project.
    The Northern Lights Nordic Ski Club is a non-profit volunteer 
association of over 250 members who enjoy cross country skiing and 
other winter sports in the forests around Grand Rapids, Minnesota. 
Every year we sponsor a cross country race series called the 
Vinterloppet. Different events include classic and freestyle Nordic 
skiing as well as the Kinderloppet for children. We put on weekly free 
ski clinics for children and adults. Our mission is ``to promote cross 
country skiing as a healthful family activity.''
    Our organization voluntarily cuts, grooms, and maintains over 25 
kilometers of cross country ski trails on the Sugar Hills property for 
use by our members and other cross country enthusiasts. These trails 
include five separate loop trails ranging in length from nearly two 
kilometers to over five kilometers. The trails are some of the best in 
the state. As a result, the Sugar Hills trail system is a primary 
destination for Nordic Ski enthusiasts from not only the Itasca County 
area, but from throughout the State of Minnesota. In the summertime 
these trails are used for other recreational opportunities including 
hiking, bird watching, nature walks by school children, and biking, and 
provide public access to the forest for hunting and fishing. In the 
winter the skiing trails are open longer because of the dense cover 
from the forest canopy.
    The forests of the Sugar Hills property and northern Minnesota are 
a tremendous resource for residents and recreational users, but also 
the natural environment. The old growth northern hardwood communities 
and riparian areas along Pokegama and Siseebakwet creeks, Long Lake, 
and at many small potholes, wetlands, and ponds, support habitat for 
numerous species including timberwolves, lynx, bear and other mammals, 
and many species of birds, including grouse and dozens of warbler 
species.
    In recent years the Forest Legacy Program has made significant 
steps to prevent the fragmentation of forests in Minnesota. Conversion 
of forestlands to non-forest uses through development threaten 
recreation and habitat lands and the contributions of timber management 
to local economies. Itasca County has the greatest concentration of 
industrial forestlands in Minnesota and the Sugar Hills property is 
located in a larger block of 75,000 acres that is under consideration 
for future Forest Legacy efforts.
    An appropriation of $750,000 from the Forest Legacy Program in 
fiscal year 2007 is needed to allow the purchase of the conservation 
easement on the Sugar Hills property to continue providing recreational 
access for the members of our organization and others, conserve fish 
and wildlife habitat, and ensure the integrity of the northern hardwood 
forests. The federal funds provided will be matched by state and 
private funds to complete this project.
    I respectfully urge you to include this Forest Legacy project in 
the fiscal year 2007 Interior and Related Agencies Appropriations Act.
    I thank you again for this opportunity to provide testimony for 
your consideration of this request.
                                 ______
                                 
            Prepared Statement of Natural Lands Trust, Inc.

    We would like to enlist your help to secure a $300,000 
appropriation through the U.S. Forest Legacy Program for the 
``Birdsboro Waters'' project. The money would leverage other public and 
private monies that will be used for the acquisition of a conservation 
easement on 1,836 acres of forest land owned by the Birdsboro Municipal 
Authority in Union and Robeson townships in Berks County, Pennsylvania.
    The forested area of southern Berks and northern Chester County, 
know as the Hopewell Big Woods landscape, is by far the largest block 
of wild and unbroken forest left in southeastern Pennsylvania. Its 
importance is further enhanced by being at the critical juncture of the 
Pennsylvania Highlands and the Schuylkill River corridor.
    According to the Hopewell Big Woods Landscape Conservation Plan, 
the Birdsboro Waters tract is the highest land protection priority for 
the Hopewell Big Woods Project. It is highly unusual to be able to come 
across a piece of property of this size in southeastern Pennsylvania, 
especially one with the natural significance and features of this one.
    Through the Forest Legacy Program, the Federal government is now in 
a position, with a relatively small investment, to close the deal on 
Birdsboro Waters. We have already received or anticipate receiving 
$1,900,000 in funding of the $2,200,000 price tag on Birdsboro Waters, 
leaving us only $300,000 away from our goal and the completion of the 
purchase of a conservation easement.
    As part of the Forest Legacy easement provisions, the land owner, 
the Birdsboro Municipal Authority, will still be able to realize timber 
revenues from the property, under the guidance of a sustainable forest 
management plan. The Hopewell Big Woods Partners are also organizing 
outdoor tourism opportunities for this forest area. It is hoped that 
this will provide the economic engine for the Borough of Birdsboro and 
renew it as a nature-based tourism center and regional service center.
    This project has been included in the President's 2007 budget to 
Congress for Forest Legacy funding and is currently in the Interior 
Appropriations budget. It is essential that these monies remain intact 
in these budgets.
    While the Birdsboro Water Authority has been very patient as we 
have worked to assemble the funding necessary for this project, we can 
anticipate that their patience has an end point, at which time the land 
will be considered for development. Also, it may be of interest for you 
to know that the project has support from the local forest products 
industry.
    We greatly appreciate your support and efforts on behalf of this 
project.
                                 ______
                                 
      Prepared Statement of the National Mining Association (NMA)

                          NMA RECOMMENDATIONS

Department of the Interior
    U.S. Geological Survey--Mineral Resources Program (MRP). Reject the 
proposed $22.9 million reduction in funding for the MRP, including the 
$4.5 million proposed cut for the Minerals Information Team.
    Bureau of Land Management (BLM)--Mining Law Administration. 
Increase the Mining Law Administration's Program budget by $5 million 
(enacted level is $32.6 million). Restore the $2.3 million proposed cut 
to the BLM Alaska minerals program.
U.S. Environmental Protection Agency
    Center for the Study of Metals in the Environment at the University 
of Delaware. $825,000 is recommended for the research of metal 
sequestration into soils.

                               BACKGROUND

    Mineral Resources Program.--The United States Geological Survey 
(USGS) is the only source for most of the United States' statistical 
data on mining and minerals commodities. The proposed reduction of 
$22.9 million in the MRP would result in the elimination of more than 
180 full time employees (FTEs). The $4.5 million reduction proposed for 
the Minerals Information Team will result in the discontinuation of 
data collection and analysis for 100 mineral commodities in 180 
countries and approximately 200 reports. The reduction will also result 
in the loss of employees with invaluable expertise in global and 
domestic production and consumption of mineral commodities. As a 
result, information on U.S. and international minerals will no longer 
be available to the: (1) U.S. Department of Commerce's Bureau of 
Industry and Security, which uses the data and analyses to resolve 
trade disputes; (2) Federal Reserve Board, which uses global minerals 
information in preparation of economic forecasts; and (3) U.S. 
intelligence agencies that must understand the effect changes in 
natural resource markets have on economic and political stability of 
developing countries.
    In addition, the USGS' role in mineral information, exploration, 
identification of geological hazards and mapping offers important 
support to the mining industry.
    This information provided by USGS is the basis for informed policy 
decisions and is extensively used by government agencies, by Members of 
Congress and by state and local governments, as well as industry, 
academia and nongovernmental organizations. Mineral resource supply and 
demand issues are global in nature, and our nation is becoming more 
dependent upon foreign sources to meet our metals and minerals 
requirements. The MRP is the leading source of unbiased research on the 
nation's mineral resources. The guidance and research the program 
provides is important in maintaining the growing value of processed 
materials from mineral resources that accounted for $478 billion in the 
U.S. economy in 2005 as well as assessing the environmental impacts of 
mining. The proposed cuts in the Minerals program would also terminate 
multidisciplinary research on mercury, arsenic and other inorganic 
toxins.
    Mining Law Administration.--The BLM's fiscal year 2007 request of 
$32,696,000 for the Mining Law Administration Program (MLAP) is 
inadequate to meet the agency's obligations to process notices and 
plans of operations necessary for domestic exploration and mining 
projects. Since 1999, the funding of the MLAP program has remained flat 
(around $32,000,000). The substantial increase in the number of mining 
claims over the past five years (300 percent) demonstrates additional 
staffing and other resources are necessary to process the notices and 
plans of operations required for expanding our domestic mineral 
supplies. Ironically, while BLM has increased the regulatory demands on 
our domestic industry, it has not kept pace with sufficient agency 
staff and resources to review and approve the requests for permits and 
other authorizations required under the increasingly more stringent 
regulatory requirements.
    Delays in obtaining permits and other authorizations remain a 
substantial impediment to the financing and development of mining 
projects in the United States. A 1999 National Academy of Sciences 
study found the permitting of domestic mining projects entails an 
inordinate amount of time and resources. According to Behre Dolbear, 
the U.S. ranks among the lowest of the top 25 mining nations in terms 
of time and expense for obtaining required permits for mineral 
exploration and development. The consequence of this state of affairs 
is substantially longer lead times to get projects up and running so 
that they begin to generate a return on investment. As a result, 
permitting delays discourage companies from exploring in the United 
States and impair our ability to attract the capital investment 
required for mine development. In short, investment capital flows to 
where investors will experience a quicker return on their investment.
    In its report to Congress last year, BLM identified insufficient 
staffing as one cause of permitting delays, noting that many BLM 
offices were not backfilling positions as they were vacated. BLM 
recommended that a portion of the increased location and maintenance 
fees could be used to maintain adequate staffing levels needed to 
review, analyze and approve plans of operations.
    NMA agrees that insufficient staffing significantly delays the 
permitting process. Increasing funds for staffing appropriately 
balances the need to address the mining permit delays and capability of 
the agency with our nation's needs for secure supplies of minerals.
    To address this regulatory bottleneck, which impairs our Nation's 
economic growth and security, NMA provides the following 
recommendations:
  --An additional $5 million should be appropriated in fiscal year 2007 
        for the MLAP. This level would allow the hiring by BLM State 
        Offices of approximately 30 full time equivalents (FTE) to 
        allow either backfilling of currently vacated positions or new 
        hires.
  --Allocation of funds to the State Offices should be prioritized 
        based on number of notices and plans filed in each office and 
        current unfilled openings in MLAP.
  --For any fiscal year where receipts from mining claims maintenance 
        and location fees exceed the amount Congress appropriates for 
        MLAP, excess funds should be retained by the agency and used 
        only for MLAP to promote more timely permit processing.
    Alaska Minerals Program.--By cutting its $2.3 million budget, BLM 
proposes to completely eliminate the Alaska Minerals Program. BLM's 
justification is that the money is needed to focus on higher 
priorities. However, that justification ignores the need for domestic 
sources of minerals. The Alaska minerals program helps identify 
mineralized areas that will supply the nation with new sources of 
minerals. In addition, the Alaska Minerals Program ensures that mineral 
potential and reserves are considered during the development or 
revision of land management plans. For example, the agency is currently 
developing a plan for the Southern National Petroleum Reserve in Alaska 
(NPRA) which holds tremendous mineral potential. The plan for this area 
will determine whether it is open to mineral development. The Alaska 
Minerals Program plays a critical role in promoting the efficient use 
of our nation's mineral resources and NMA, therefore, recommends it be 
fully funded at $2.3 million.
    Environmental Protection Agency.--The Center for the Study of 
Metals in the Environment (CSME) is comprised of scientists and 
engineers from the University of Delaware and Pennsylvania State 
University. The purpose of the CSME is to analyze and research the 
effects of metals on aquatic and terrestrial ecosystems.
    NMA recommends $825,000 in funding for the CSME. A sound 
understanding of the chemistry, toxicology and fate of metals in the 
environment is critical to the development of appropriate regulatory 
programs. The CSME will use the requested funding to develop 
quantitative tools for understanding and predicting the fate and 
effects of metals in soils and water. This work will include:
  --understanding and modeling the fate of metals in streams, rivers 
        and lakes; and
  --conducting research into metal sequestration in soils, a natural 
        process that can lower the risk of metals in soil and, thereby, 
        decrease cleanup costs at mining, military and industrial 
        sites.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association

    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's more than 300,000 members, we 
appreciate the opportunity to share our funding priorities and 
respectfully request the Committee consider these views as you develop 
the fiscal year 2007 Interior budget.
    NPCA is deeply concerned with the President's fiscal year 2007 
budget request that cuts funding for the National Park Service $100 
million below enacted levels. Funding for our national parks should not 
be cut. At a minimum, we request overall funding for the National Park 
Service at current fiscal year 2006 level of $2.25 billion in 
appropriations. In addition, we request funding for priority programs 
and projects listed below.

                 OPERATIONS OF THE NATIONAL PARK SYSTEM

    A top NPCA priority is to significantly increase funding for Park 
Service operations. NPCA is requesting an increase of $150 million 
above the current fiscal year 2006 levels, $127 million above the 
President's request, for a total of $1.86 billion for Operations of the 
National Park System.
    If enacted, the President's requested increase of $23 million for 
Operations of the National Park System (ONPS), well below the rate of 
inflation, will result in a reduction in critical Park Service 
functions, including resource protection and visitor services. We note 
that the budget request for ONPS covers only 70 percent of the Park 
Service's fixed costs, forcing the parks to again absorb these costs at 
the park level. We urge the Committee to fully cover the anticipated 
fixed costs for the Park Service as it formulates its fiscal year 2007 
budget. In recent years, the parks have been stretched thin by 
unbudgeted cost-of-living increases, un-reimbursed storm damage, and 
insufficient funding for homeland security needs, which have 
contributed to and compounded the burden of the annual operating 
deficit. NPCA greatly appreciates the effort of the Committee to work 
on a bipartisan basis to address the core operating needs of the parks, 
particularly the successful effort to significantly increase the base 
operating budget of the parks in fiscal year 2005.
Land Acquisition
    NPCA urges the Committee to significantly increase funding for 
National Park Service land acquisition. The President's request of only 
$22 million for federal land acquisition for the National Park Service, 
a cut of more than 50 percent below fiscal year 2006 enacted levels, 
and more than $100 million below levels only five years ago, hinders 
the ability of the Park Service to acquire and protect sensitive 
natural and cultural lands across the nation from willing sellers.
California Desert Parks, CA (Death Valley NP, Joshua NP, Mojave NP)
    Request.--$1,000,000
    Description.--Funding is requested toward the purchase of desert 
park in-holdings from willing sellers. There are substantial numbers of 
private property parcels located within the boundaries of the Mojave 
National Preserve, Joshua Tree and Death Valley. These funds would 
match private dollars raised by the National Park Foundation, which has 
already worked to identify, map, and prioritize in-holdings for 
purchase from willing sellers.
Chickamauga and Chattanooga National Military Park, TN
    Request.--$2,000,000
    Description.--Funding is requested for acquisition of the Light 
property in Lookout Valley to protect and ensure the integrity of these 
historic battlefield lands. $1.8 million was appropriated in fiscal 
year 2006 for acquisition of adjacent lands.
Cumberland Gap National Historical Park, KY/TN
    Request.--$2,500,000
    Description.--Funding is requested to complete acquisition (4,000 
acres) of the Fern Lake watershed, critical to protecting water supply, 
historic lands, and one of the most scenic vistas in the park. $1 
million was appropriated in fiscal year 2005 towards this acquisition.
Gettysburg National Military Park, PA
    Request.--$1,500,000
    Description.--Funding is requested to purchase two priority 
acquisitions in the park totaling 145 acres. The first, a 34-acre 
tract, the second 11 acres, both with National Register significance 
within the Gettsyburg Battlefield Historic District, and at risk of 
development. Of the 5,989 acres inside Gettysburg's boundary, nearly 20 
percent or 1,154 acres remains privately owned. The last funding 
provided to acquire threatened lands at Gettysburg was in fiscal year 
2001.
Grand Teton National Park, WY
    Request.--$2,100,000
    Description.--Funding is requested to purchase from willing sellers 
the remaining 1.4 acre inholding parcel adjacent to the Moose-Wilson 
Road. Known as the ``Hartgrave Property,'' the land is critical park 
wildlife habitat and in an important scenic viewshed. An adjacent 3 
acre parcel was acquired in 2005 by the National Park Service.
Great Smoky Mountains National Park (Tapoco Addition), TN
    Request.--$1,500,000
    Description.--Funding is requested to acquire 627 acres of part of 
a larger 10,000-acre Tapoco Lands project, a watershed containing one 
of the few remaining undisturbed, high-elevation streams in the 
ecoregion. Alcoa Power Generating, Inc. has committed $100,000 per year 
for 40 years to the project.
Harpers Ferry National Historical Park, WV
    Request.--$2,000,000
    Description.--Funding is requested to acquire Schoolhouse Ridge 
properties inside the park boundary. Public Law 108-307 authorized the 
addition of 1,240 acres to be included within the national park 
boundary. Almost all of the $2.9 million approved in fiscal year 2005, 
and $2.0 million in fiscal year 2006 (total of $4.9 million) has been 
appropriated to acquire two tracts totaling 111 acres. This land 
outside Washington, D.C., faces significant development threats. 
Funding in fiscal year 2007 of $2 million will enable the Park Service 
to buy remaining smaller tracts from willing sellers.
Mount Rainier National Park, Carbon River Valley, WA
    Request.--$5,000,000
    Description.--Funding is requested to complete acquisition of 800 
acres from willing sellers to address seasonal flooding and improve 
road access to the park. The Mount Rainier Boundary Adjustment Act 
(Public Law 108-312) was signed into law in 2004. The fiscal year 2005 
Interior Appropriations bill including an initial $1 million for 
surveying and land acquisition.
New River Gorge National River, WV
    Request.--$2,000,000
    Description.--Funding is requested to purchase the Woods Ferry 
Property (179 acres) which contains a major access point to the Gauley 
River. The park has identified 2,900 acres of private land owned by 
willing sellers. Funding to purchase Woods Ferry is an important step 
in showing continued progress on purchasing these properties. $500,00 
was appropriated in fiscal year 2006.
Petrified Forest National Park, AZ
    Request.--$5,000,000
    Description.--Funding is requested to begin the purchase of private 
lands incorporated into the park through the Petrified Forest National 
Park Expansion Act signed into law by President Bush in 2004 (Public 
Law 108-430). The expansion will protect globally significant 
paleontological resources, as well as nationally significant 
archeological resources. There are currently approximately 79,500 
privately owned acres within the expansion.
Valley Forge National Historic Park, PA
    Request.--$3,000,000
    Description.--Funding is requested to continue acquisition of lands 
owned by the Archdiocese of Philadelphia inside the park boundary. In 
fiscal year 2005, $1.5 million was appropriated towards the acquisition 
of these lands. Valley Forge National Historical Park is a premier 
classroom on the American Revolution. Approximately 20 percent of the 
park's acreage inside its designated boundary remains in the hands of 
other owners.
Emergency, Hardship, Deficiency, and Relocation Fund
    Request.--$5,000,000
    Description.--Funding is requested at $5 million, an increase of 
$2.6 million above the President's fiscal year 2007 request. This 
funding is critical to secure inholdings throughout the Park System. 
For example, through the Hardship Fund, the vast majority of the 
inholdings in Gates of the Arctic National Park have been secured.

                              CONSTRUCTION

Death Valley National Park, CA
    Reconstruct Furnace Creek Water System
    Request.--$8,754,000
    Description.--NPCA supports the President's fiscal year 2007 
request of $8.7 million to reconstruct this water system, critical to 
providing reliable water to the park and restoration of the historic 
wetland and riparian habitat in the area.
Hamilton Grange National Monument, NY
    Relocation and Restoration of Alexander Hamilton's Home
    Request.--$8,493,000
    Description.--NPCA supports the President's fiscal year 2007 
request of $8.5 million to relocate and restore the Hamilton Grange, 
the home of Alexander Hamilton. Funding is needed to avoid further 
deterioration of this historic landmark. Public Law 106-482, signed 
into law in 2000 authorized the Secretary of the Interior to acquire by 
donation suitable land to serve as the new location for the home of 
Alexander Hamilton and to authorize its relocation to the acquired 
land.
Olympic National Park, WA
    Elwha River Ecosystem and Fisheries Restoration
    Request.--$20,010,000
    Description.--NPCA supports the President's fiscal year 2007 
request of $20 million to fully restore the Elwha River ecosystem and 
fisheries, as directed in the Elwha River Ecosystem and Fisheries and 
Restoration Act (Public Law 102-495). $115 million has been 
appropriated to-date for this effort.

                                 OTHER

Everglades National Park, FL
    Modify Water Delivery System
    Request.--$13,330,000
    Description.--NPCA supports the President's fiscal year 2007 
request of $13.3 million within the Department of Interior budget for a 
Modify Water Delivery System, as well as the $35 million from the U.S. 
Army Corps of Engineers. This funding is critical to ensure significant 
restoration benefits for Everglades National Park and the South Florida 
Ecosystem.
    Restoration Science and Monitoring
    Request.--$8,521,000
    Description.--NPCA supports the President's fiscal year 2007 
request of $8.5 million for science, research, and planning to ensure 
the Park Service is adequately participating in the Everglades 
restoration effort.
National Underground Railroad Network to Freedom
    Request.--$2,000,000
    Description.--NPCA requests $2 million for the Underground Railroad 
Network to Freedom program managed by the National Park Service. The 
President's fiscal year 2007 budget eliminates the $368,000 
appropriated in fiscal year 2006 for the program. NPCA requests $1.5 
million for operations and $500,000 for grants to this important 
program. The Underground Railroad Network to Freedom program was 
created to promote and preserve sites, partnerships, and programs that 
educate the public about the historical significance of the Underground 
Railroad. Many of the sites and structures of the Underground Railroad 
are in imminent danger of being lost to us forever. The Underground 
Railroad Network to Freedom program is the best existing opportunity to 
interpret and preserve this significant part of American history.
                                 ______
                                 

             Prepared Statement of the New River Land Trust

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support 
of an appropriation of $1.3 million from the Land and Water 
Conservation Fund for the Jefferson National Forest in 
Virginia.
    Managed jointly, the Jefferson and George Washington 
National Forests in western Virginia contain some of the finest 
scenery, wildlife habitat, and recreational lands in Virginia, 
including over 4,000 acres of open water in lakes, ponds, and 
streams, and approximately 2,000 miles of hiking trails. The 
Jefferson boasts tumbling waterfalls, rare wildflowers, and 
Virginia's highest peak (Mount Rogers), along with 11 
wilderness areas.
    The New River Land Trust is a nonprofit conservation 
organization working throughout the New River watershed to 
protect farmland, forests, open spaces and historic places. In 
the past 3\1/2\ years, we have helped to conserve over 12,000 
acres. Our region is under increasing pressure from 
development. This tract of land near Wytheville is an ideal 
inholding to add to our National Forest system to preserve both 
productive forest and recreational options for our region.
    In fiscal year 2007, an opportunity exists to acquire the 
1,477-acre Black Lick property for inclusion into the Jefferson 
NF. As an inholding within the Wythe Ranger District of the 
Jefferson, the property is strategically located in Wythe 
County, ten miles outside Wytheville and near many public 
access points within the forest, including the Dark Horse 
Hollow picnic area, Big Bend picnic area, and the Stony Fork 
campsites.
    Acquisition of this large tract is therefore a priority for 
the Jefferson National Forest and would offer recreational and 
ecological benefits to visitors and local residents alike. 
Acquisition would provide additional public access to the Stony 
Fork Nature Trail and trails along Little Walker Mountain. 
Hikers along the Stony Fork Nature Trail can enjoy dramatic 
views of the 3,782-foot Griffith Knob, the upper Stony Fork 
Valley below, and the inside of the Big Bend of Walker 
Mountain. Furthermore, the headwaters of Hutson Branch and a 
fork of Grippy Branch, both perennial streams, are located on 
the tract. These streams flow into Reed Creek, which borders 
the town of Wytheville. Acquisition of the Black Lick tract, 
therefore, would protect the watershed for Wytheville and the 
surrounding area.
    Char-Lo Timberlands, a timber company based in the Pacific 
Northwest, owns the Black Lick property and is willing to see 
the land conserved as part of the Jefferson NF if federal funds 
are made available. An appropriation of $1.3 million from the 
fiscal year 2007 Land and Water Conservation Fund will help 
conserve this property for generations to come.
    Thank you, Mr. Chairman, for the opportunity to present 
this testimony is support of this acquisition in the Jefferson 
National Forest.
                                ------                                

   Prepared Statement of the National Recreation and Park Association

    This statement reflects the views of the National Recreation and 
Park Association on fiscal year 2007 appropriations for selected 
programs within the subcommittee's jurisdiction. Referenced programs 
are administered principally by the National Park Service. The National 
Recreation and Park Association recommends that the following 
appropriations be made:
  --$100,000,000 from the Land and Water Conservation Fund (LWCF) for 
        state assistance to be invested by state and local governments 
        on a 50/50 matching basis. Funds should be appropriated to the 
        states as authorized by the Land and Water Conservation Fund 
        Act, Public Law 88-578, as amended.
  --$25,000,000 for the Urban Park and Recreation Recovery Program 
        (UPARR) to address the most distressed urban recreation 
        resource conditions and deficiencies identified and aided 
        through the Urban Park and Recreation Recovery Program. At a 
        minimum, $250,000 in administrative funding for the Urban Park 
        and Recreation Recovery Program (UPARR). These funds are 
        critically needed to continue to ensure protections of 
        federally aided urban park projects from conversion to other 
        uses under Section 1010, protections which may be ended if no 
        administrative supervision is provided.
  --$10,100,000 for the Rivers, Trails and Conservation Assistance 
        (RTCA) program to support field-based technical assistance 
        actions that yield broad conservation and recreation benefits 
        through partnerships between federal, state, and local 
        interests.
  --Sufficient funds to enable the National Park Service, through 
        Federal Lands to Parks and related programs to collaborate with 
        state and local recreation and park agencies and others on the 
        conservation and use of surplus federal real property, and 
        conservation of rivers and trails and other resources.
    If substantially adopted, our recommendations will help address an 
increasing national imperative to improve physical and mental health, 
stimulate local economies, and to sustain the environment through the 
protection and enhancement of public recreation areas and parks.
    We are pleased to note that our recommendations relative to LWCF 
assistance and urban park restoration are supported by advocates for 
health, public parks, and recreation, as well as a broad coalition of 
health and recreation related groups. The Smart Communities of Outdoor 
Recreation and Environment (SCORE), a coalition that includes major 
public official organizations, major U.S. sports organizations, 
community development organizations, and the sports and outdoor 
industry, also supports our testimony.
    The parks and recreation resources of local and state park and 
recreation systems are critical to the American people. These parks and 
facilities are not only our communities' public sanctuaries for close 
to home recreation and physical activity, they are resources 
stimulating local economies, bringing visitor tax dollars into the 
local area, and providing stimulus for cultural and community exchange. 
These public areas address diverse public interests and our collective 
need for quality recreation and associated services for children of 
working parents. Local agencies in particular host programs that serve 
millions of nutritious meals to children in need, especially during 
summer months. Public recreation and park sites and services help 
reduce crime and delinquency, especially during non-school hours, days 
and seasons. Public parks and recreation agencies accommodate needs to 
enhance physical, mental, social, and cognitive development through 
programming and access to facilities. Public parks and recreation are 
often regarded as the second largest public support entity next to 
public schools for individuals with disabilities. In addition to 
providing public recreation experiences, state and local agencies 
contribute to sustaining plant and wildlife diversity, and protect 
against flood/storm water, provide ground water recharge, and filter 
pollutants.

           LAND AND WATER CONSERVATION FUND STATE ASSISTANCE

    We commend the Subcommittee for its decisions to create and sustain 
fiscal partnerships with state and local recreation agencies and local 
governments. Consequently, we believe the President's proposed 
termination of LWCF State Assistance and proposal to provide a mere 
$1.6 million in administrative funding for fiscal year 2007 is 
remarkably short-sighted. Further, we believe the stated rationale for 
these actions reflects limited awareness of program purpose, public and 
personal health imperatives, long-term value and results arising from 
investments, and fiscal conditions of state and local governments. The 
Administration is recommending termination of this program for the 
second time in two years, and we are astonished at the rationalizations 
used to justify the elimination of one the most successful conservation 
and public recreation partnerships in the history of the Department of 
Interior.
    The LWCF state assistance program has leveraged millions of dollars 
on the local level, and countless times the federal assistance for the 
approved project ends up being much less than 50 percent, making the 
actual federal investment minimal. These grants seem to attract other 
funds at the local and state level because of the review process 
identifying quality projects with a high level of need. Many 
economically distressed areas have benefited from access to public 
recreation resources through the LWCF state assistance program.
    The Department's claim that state and local governments should go 
it alone reflects a basic misunderstanding of one of the key elements 
of the act--reinvestment of a small portion of Outer Continental Shelf 
receipts for resource conservation and public recreation. These funds 
are the American People's funds to be reinvested, and thus a healthy 
portion of these funds, applied to programs that ensure public access, 
should be a priority of the subcommittee.
    Though the eligibility, and required use by public agencies to 
access LWCF state assistance funds is very broad, ironically, the 
President's budget continues to incorporate non-LWCF authorized 
programs, thus creating the illusion that LWCF is ``fully funded.'' If 
the Congress in its wisdom determines to fund these programs from LWCF, 
then jurisdictions and agencies presently eligible for LWCF state 
assistance should be directly eligible to participate in programs that 
are drawn from the LWCF treasury account.
    According to the National Park Service, the 2005 funding requests 
from state local governments for grants through this program totaled 
$2.8 billion ($2,781,397,625).--This is a sharp increase in expressed 
need from past years. With only $30 million, provided for fiscal year 
2006, the LWCF is inadequate in assisting communities in addressing 
their needs. We are likely to see even greater unmet need for the 
program.
    Nationally, NRPA has a continuing interest in the status of all 
capital development and infrastructure needs of local park and 
recreation agencies. Our work on behalf of local general-purpose 
governments and special purpose park and recreation districts requires 
periodic assessments of both the short and longer-term fiscal 
conditions and capital investment needs. We are purposed with 
identifying both present and longer-term deficiencies to properly steer 
public policy on the federal, state, and local levels. The national 
survey conducted in the spring of 2005, reveals a total capital 
investment need of $72.697 billion for public parks and recreation 
facilities, land acquisition, and recreation resources for fiscal year 
2005 to fiscal year 2009. Nationally, there is a nationwide demand to 
increase the recreation capacity of public systems, especially those 
relatively close to home and in communities exploding with growth.
    We continue to press our concern that the administration's proposed 
budget again recommends access to the Land and Water Conservation Fund 
for a number of other non-LWCF activities. The LWCF act, while broad in 
its application and diversity of projects, is very specific in its 
policy objectives--provision of recreational opportunities to improve 
human health through conservation of lands and waters and developments 
to enable public use and access.
    Non-federal recreation and park resources are essential to quality 
recreation experiences for all people. These systems provide the 
majority of public recreation destinations, services, and visitor 
experiences. Further, they are not incidental to sustaining the social 
and environmental integrity of federal land systems.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    The Urban Park and Recreation Recovery Program recognizes the 
recreation values associated with conservation of the built 
environment. Funds are restricted to restoration and, thus, renewed and 
expanded public use of local recreation facilities and sites that have 
essentially been worn out by use, age, or the elements. These 
facilities and sites are no less important than conservation of other 
recreation spaces and places of high ecological and aesthetic value. 
One alarming shortcoming of the 2007 budget proposal is that no funding 
is planned for administrative costs for the first time in the 30 year 
history of the program, seriously jeopardizing the ability of the 
National Park Service to continue to provide protections for federally 
aided projects under UPARR. NRPA strongly recommends that an 
appropriation of at least $250,000 be made for 2007 to continue 
administrative oversight of the 1,500 UPARR aided projects.
    Demand for Urban Park and Recreation Recovery Program assistance 
remains high. This interest is reflected in both the number of requests 
for assistance and the quality and objectives of projects when the 
program has been funded. Based on demand for fiscal year 2001-2003 
appropriations, for example, our recommendation would support from 50 
to 90 projects.

           NATIONAL PARK SERVICE INTERGOVERNMENTAL ACTIVITIES

Rivers and Trails Conservation Assistance Program
    NRPA recommends $10,100,000 for the Rivers, Trails, and 
Conservation Assistance Program. The program continues to illustrate 
the critical importance of federal contributions to public/public and 
public/private partnerships for conservation of natural and cultural 
resources, and public access for recreation. The program provides 
technical assistance to local governments, citizens, and community 
organizations, and state agencies to consider recreation and 
conservation strategies. The results include planning, restoration, and 
development of waterways and trails, and conservation of open space and 
greenways, among other types of projects. In most cases, local 
governments continue to invest non-federal funds in projects stimulated 
by local public interests and technical assistance.
Federal Lands to Parks Program
    We recommend an appropriation of at least $1 million to support the 
Federal Lands to Parks program, also part of the NPS Recreation and 
Conservation Assistance area. The FLP program is an exemplary service. 
It guides state and local governments in the conversion of federal 
surplus properties to public recreation and park uses and conservation 
of historic or wildlife values. The number of surplus properties 
potentially available for state and local parks, and demands for 
assistance has increased beyond the present capacity of program staff. 
A large part of this demand was generated by the closure of a large 
number of military bases between 1988 and 1995. In recent years, 
program staff has assisted in the transfer of about 20-25 properties 
annually. There is a current backlog of some sixty pending transfers. 
Impending base closure and reuse decisions will substantially impact 
the capacity of program staff.
    While there is today considerable attention and debate on the 
stewardship and priorities of the National Park System and National 
Park Service, we urge the Subcommittee to not let this situation divert 
attention away from other congressional authorities in the Interior 
department's domain.
    We appreciate this opportunity to share the views of our members. 
NRPA public policy Director, Rich Dolesh (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfadbbb0b3baacb79fb1adafbef1b0adb8">[email&#160;protected]</a>) or Policy 
and Advocacy Specialist, Michael Phillips (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81ecf1e9e8edede8f1f2c1eff3f1e0afeef3e6">[email&#160;protected]</a>) (202-
887-0290) is available to provide additional perspectives and to 
respond to questions.
                                 ______
                                 
          Prepared Statement of the Nisqually Tribe of Indians

    Mr. Chairman, my name is Dorian Sanchez and I am the Chairman of 
the Nisqually Indian Tribe. On behalf of the Tribe, I would like to 
submit the following written testimony on the fiscal year 2007 budget 
for the Bureau of Indian Affairs.

                            LAW ENFORCEMENT

    The Nisqually Reservation is located in Washington State. We 
currently employ nine land patrol law enforcement officers to patrol 
5,000 acres of reservation and near reservation lands. In addition, the 
Nisqually Tribe Police has extensive marine water enforcement duties 
and employs two water patrol officers to patrol over 100 square miles 
of Puget Sound for both the treaty salmon fishery and treaty shellfish 
harvesting. Tribal law enforcement also provides hunting enforcement 
for over 50,000 acres of land in the tribe's usual and accustomed area 
within the Nisqually River watershed.
    We also employ ten detention officers at our 45-bed detention 
facility, which was built with Department of Justice funding in 2002. 
Like many other tribes, we are struggling to cope with escalating 
methamphetamine use and associated increases in gang activity and 
property crime related to dealing and manufacturing.
    We support the Administration's proposed increase of $8.2 million 
for BIA law enforcement activities. However, this increase still falls 
short of meeting the severe need in Indian country for additional law 
enforcement resources--a need that will be even greater this year in 
light of significant cuts to Indian programs proposed by the Department 
of Justice. We ask the Subcommittee to increase funding for law 
enforcement officers and equipment. We also ask that the Subcommittee 
restore the $5.3 million proposed cut to the Tribal Courts programs. 
Tribes depend on law enforcement and tribal justice funding and this 
year--at the height of the meth crisis--this funding should be 
increased, not cut.
    A specific area of concern is the status of the Tribe's detention 
facility, the Nisqually Correction Center. The detention center was 
built as part of a DOJ-BIA initiative, under which the DOJ would 
provide funding for new facilities in Indian country and the BIA would 
provide funding for staffing, operations and maintenance of those 
facilities. The Tribe's facility has been praised by BIA official as a 
model facility. In addition to detention space, we work closely with 
community agencies to provide alcohol and drug assessment and 
treatment, continuing education and transitional services. We provide 
these services for members of our tribe and for inmates from 
surrounding communities. For the past two years, however, the Tribe did 
not receive the scheduled funding for operations and maintenance. We 
were forced to cover these costs with tribal funds last year, and if 
this funding is not received in fiscal year 2007, we will likely be 
forced to close the facility.
    The Tribe requests that the Subcommittee contact law enforcement 
officials at the BIA to inquire about the use and allocation of 
appropriated funds for law enforcement. The Nisqually Tribe's 
experience is not uncommon. A 2004 Report by the Office of the 
Inspector General harshly criticized the BIA for failing to account for 
million of dollars in law enforcement funding. The report, entitled 
``Neither Safe Nor Secure: An Assessment of Indian Detention 
Facilities,'' was issued seven years after the BIA and the Department 
of Justice entered into a joint initiative to construct and fund new 
detention facilities in Indian country. The report found that, on the 
whole, tribal detention facilities were still in poor condition and 
that millions of dollars in additional funding appropriated to the BIA 
for detention center staffing and operations was unaccounted for and 
that most never reached the tribes. For example, from fiscal year 2001-
fiscal year 2004, Congress appropriated $10 million to hire additional 
detention officer. Only $3 million of this ever reached the tribes and 
the BIA was unable to determine how the remaining $7 million was spent.

                         CONTRACT SUPPORT COSTS

    The Tribe supports the Administration's proposal to provide $19 
million to fully fund indirect contract support costs. This funding 
supports critical administrative functions that allow tribes to 
successfully operate programs contracted under the Indian Self-
Determination and Education Assistance Act. We ask that the 
Subcommittee support this increase and consider adding report language 
to that effect. In addition, we ask that the Subcommittee support the 
proposed deletion of the word ``indirect'' in the text of the Interior 
Appropriations bill. This change would permit tribes to allocate unused 
Tribal Priority Allocation (TPA) funds to cover unmet direct contract 
support costs, which is important because the Administration proposes 
full funding for only indirect costs, leaving a significant unmet need.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington D.C. 20005; 202-682-0240 (tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aac7dacbdccfc6ead9c5c4c5d9c1d384c9c5c7">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afbe8f5f6f4f3f9f1dae9f5f4f5e9f1e3b4f9f5f7b4">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the Mickey Leland National Urban Air Toxics 
                            Research Center

    The Mickey Leland National Urban Air Toxics Research Center 
(NUATRC) is requesting a $2.6 million appropriation for fiscal year 
2007 to continue the air quality public health research and data 
collection on air toxics in urban areas as directed by the U.S. 
Congress. NUATRC is a 501(c)(3) institution authorized by Congress in 
the Clean Air Act Amendments of 1990 (Title III, Section 301(p)).
    The NUATRC is a unique public/private research partnership. 
Significant funding for the NUATRC is from EPA Assistance Awards based 
upon annual Congressional appropriations. We leverage these federal 
funds with non-federal funds contributed from a variety of sources. 
NUATRC's contributors to specific research also include major U.S. 
companies such as ConocoPhillips, ExxonMobil, Georgia Pacific, Rohm & 
Haas, and Shell. Additional funding is received from the Houston 
Endowment and local and state government. To further leverage our 
funding, NUATRC utilizes an administrative services agreement with The 
University of Texas-Houston Health Science Center (UTHSC) in the Texas 
Medical Center (TMC), complex. This arrangement lowers NUATRC's overall 
costs and allows us to take advantage of the world-renowned scientific 
community at The University of Texas (UT) and TMC as directed by 
Congress, while still remaining an independent entity. However, even 
with multiple sources and efficient leveraging of the NUATRC's funding, 
this important public health research would not be possible without the 
annual congressional appropriation. The research performed by the 
NUATRC is not performed within EPA or other research organizations. 
Since budgets supporting internal EPA research have been declining in 
recent budgets, this research would not likely be performed at all 
without the NUATRC.
    NUATRC's mission is to sponsor and direct sound, peer-reviewed 
scientific research on the human health effects of air toxics in urban 
populations. NUATRC's research is driven by scientific questions 
requiring answers by policy and decision makers in government, 
industry, and academia, in order to improve the scientific basis of 
regulatory decisions. It is an integral part of the strategy 
established by Congress to assess the risks posed by air toxics to 
individuals living in areas where air quality concerns have been 
expressed by medical and scientific experts, and community leaders.
    NUATRC is governed by a nine-member Board of Directors, appointed 
pro rata by the Speaker of the U.S. House of Representatives, the 
Majority Leader of the U.S. Senate, and the President of the United 
States. Amongst its duties, the NUATRC Board appoints a 13-member 
Scientific Advisory Panel, selected from national research 
institutions, academic centers, government agencies, and the private 
sector.
    The NUATRC's unique structure, organization, and intellectual 
resources are its source of strength. The NUATRC is an organization 
dedicated to implementing its mission as a public/private research 
center. Inclusion of academic, business, government, and citizen 
perspectives in the implementation of the NUATRC's research mission not 
only fulfills the NUATRC's mandate from the U.S. Congress; serving this 
public/private mindset is at the core of how the NUATRC operates. By 
embracing these disparate perspectives and working together to achieve 
consensus on the design of an effective research program, the NUATRC's 
leadership greatly reduces or eliminates the all too often occurrence 
of confusion and stalemate resulting from similar research studies 
funded by research organizations with a single type of funding source 
and intellectual resources. Depending on the perspective of the 
audience affected by the research results, an organization with a 
single funding and intellectual resource perspective could be seen as 
biased. In the NUATRC's case, academic, business, government, and 
citizen representatives strive for consensus on the research design and 
objectives prior to beginning the research. With this approach, less 
duplication of research occurs as well as less debate over the accuracy 
or bias of the results produced. This process enhances the focus on the 
policy or regulatory debate, not the design of the air quality research 
study.

                              ACHIEVEMENTS

    NUATRC has accomplished the following major scientific achievements 
over the last several years consistent with our Congressional charge in 
the Clean Air Act Amendments of 1990:
    1. Establishment of the importance of personal exposure (e.g. what 
people breathe) to the evaluation of possible public health effects. 
These findings are stimulating a reevaluation of the national emphasis 
on outdoor levels and sources.
    2. Development of new technology for inexpensive and accurate 
personal monitoring devices to allow measurements of individual 
exposures to air toxics. This provides a new and, for the first time, 
direct view of the possible public health risks of personal exposure to 
air toxics. To our knowledge, this is a unique contribution by the 
NUATRC.
    3. Initiation of community-based studies that involve participation 
by those citizens directly exposed to urban levels of air toxics.
    We owe these advances in large part to the work of our Scientific 
Advisory Panel, made up of world class scientists from the public, 
private, and academic sectors, who have spent considerable time and 
effort to develop and refine these studies in a collegial and efficient 
manner.
    We continue to work closely with the EPA, through which we access 
the Congressionally-appropriated funds. We have an excellent working 
relationship with the scientists that serve on our research panels, and 
we continue to interact with their administrative counterparts to 
establish a firmer base for our financial support.

                           CURRENT ACTIVITIES

    NUATRC has been very active on its air toxics research initiatives. 
One of these initiatives addresses the national concerns about health 
effects. Scientific studies conducted to date suggest that living near 
busy roads leads to adverse health effects. In these studies the 
association between proximity to traffic and health effects has been 
shown without any direct measurement of exposures. The NUATRC plans 
research to clarify the potential impact of air toxics in such observed 
associations. The NUATRC will fund research that is hypothesis driven 
and designed to test the relationship between exposures to air toxics 
and proximity to vehicular traffic and potential adverse non-cancer 
health effects resulting from these exposures. The health effects of 
interest are those affecting the respiratory, cardiovascular, and 
immune systems. The air toxics of interest are one or more of the 33 
chemicals listed as priority air toxics in the EPA's Integrated Urban 
Air Toxics Strategy (FRL-6157-2; Docket No. A-97-44) and the National 
Scale Air Toxics Assessment (http://www.epa.gov/ttn/atw/nata/
34poll.html) and those that are uniquely mobile source related.
    In all NUATRC funded research, the NUATRC's priority is to support 
research leading to peer-reviewed publications. The NUATRC has funded 
research that has contributed to over 35 peer reviewed publications to 
date and significantly advanced the scientific understanding of air 
toxics.

                       RESEARCH FINDINGS TO DATE

    In 2007, NUATRC will continue research efforts to better understand 
the personal exposures of people living in urban areas to a number of 
the 188 air toxics defined in the Clean Air Act. From our earlier 
exposure studies we have achieved pioneering accomplishments in 
measuring levels of personal exposures to toxic air pollutants. These 
data point conclusively to the importance of personal exposures in 
terms of assessing the actual public health risk from air toxics.
    The information we are obtaining suggests that the nation's 
environmental resources need to be focused on personal situations, as 
opposed to a continuing emphasis on fixed site urban air monitors. 
These fixed site monitors, which play a key role in determining overall 
urban air quality and air quality standard attainment, are not numerous 
enough or precise enough to address public health risks. The support we 
have received from Congress has been instrumental in creating a new 
scientific emphasis on personal exposure measurement. The EPA has now 
accepted the importance of such approaches.
    In 2007 the NUATRC will be in the second year of funding for the 
Houston Exposure to Air Toxics Study (HEATS). HEATS is a two-year 
project that will study the relationship between the levels of air 
toxics compounds that are measured at traditional fixed site monitors 
and the levels that individuals are actually exposed to as they move 
throughout their daily activities. It will be conducted in two 
neighborhoods near the Houston Ship Channel. The study will also 
explore reported health effects from the study participants, and 
examine the relationship between reported health effects and personal 
exposure and ambient monitors.
    The study is funded by the U.S. Environmental Protection Agency, 
the Texas Commission on Environmental Quality, the Mickey Leland 
National Urban Air Toxics Research Center, the Texas Environmental 
Research Consortium, Harris County, and The East Harris County 
Manufacturer's Association. The City of Houston is also participating 
in the study in an advisory role. Although HEATS is collecting data in 
Houston, Texas, it is of national importance as it relates fixed site 
monitoring, personal exposure monitoring, and health data.
    Further, the NUATRC will expand its involvement in community-based 
environmental health research, an important element of our mission, as 
air toxics health effects may disproportionately impact the 
economically and medically underserved people in our urban populations.

                             ADMINISTRATION

    NUATRC operates with an efficient administrative staff of four 
full-time and one part-time equivalent staff, consultants, and 
important administrative support from UTHSC. Our staff is employed by 
UTHSC, which eliminates the need for considerable personnel support 
services and allows us the benefit of residence in a world class health 
science center, while remaining an independent institution. This 
provides important scientific, administrative, and cost benefits, 
including access to the UT Medical School and School of Public Health 
faculty. We are extremely conscious of and pleased to call attention to 
our ratio of funding spent directly on research compared to 
administrative costs. Historically, the NUATRC's success in leveraging 
federal research funds with organizations such as the HEI, NCHS, and 
SKC, Inc., have extended the value and accomplishments of the NUATRC's 
research program and optimized the value added by its small, efficient 
administrative staff. The NUATRC will continue to effectively leverage 
its research funds.

                      2007 BUDGET RATIONALIZATION

    For 2007 NUATRC will support several categories for individual 
research studies. The research category budgets are shown in the budget 
table below. The Exposure Assessment category includes research to 
characterize, collect, and assess the impact of air toxics exposure 
data. Research will be designed and funded acquire data to show the 
relative importance of point, area, mobile, and other sources for 
exposure to air toxics. The Health Effects research category includes 
NUATRC's plan to continue its involvement, research funding, and focus 
on health effects research on susceptible subpopulations. The 
Technology Development and Validation research category resulted in the 
commercially successful Sioutas personal cascade impactor and Leland 
Legacy Pump, which were completed with funding from this category. 
Fiscal year 2007 funding in this category will support development of 
new personal monitors for use with susceptible populations. It will 
also include investigation of new technology and methods for the 
measurement of VOCs, aldehydes, PAHs and metals. In prior years the 
Small Grants program has been a successful, cost effective program for 
NUATRC in terms of identification of emerging research areas and 
producing important publications in the peer-reviewed literature. We 
will continue this program in 2007. The emphasis we place on having 
Workshops and/or Symposia every year has proven cost-effective in 
advancing the understanding of air toxics health effects. With 2007 
funding we will support an annual Workshop or Symposium on air toxics 
with TCEQ and EPA. As in previous years NUATRC will leverage Workshop 
and Symposia costs and topics with other related organizations to be as 
cost efficient as possible with the limited funding available. The 
Research Support category is essential to provide funds for scientific 
peer-review, publications, reports, additional scientific research, 
quality assurance and other activities recommended by the SAP and 
approved by the Board. This budget also serves an important strategic 
research function for the entire NUATRC program. The budget presented 
below advances the legacy investment in research already made by 
providing resources to fully analyze and capture the knowledge inherent 
in the study results in time for answers to regulatory and scientific 
questions. We will continue, as previously noted, to seek supplemental 
funding sources for our research program. In past years NUATRC has 
received project specific funding commitments from many private 
contributors. We anticipate continuing these relationships.

                         FISCAL YEAR 2007 BUDGET
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Exposure Assessment.....................................        $400,000
Health Effects..........................................         450,000
Technology Development and Validation...................         400,000
Small Grants............................................         300,000
Conferences, Workshops, Symposia........................          50,000
Research Support........................................         100,000
Indirect Research.......................................         398,049
Administration..........................................         501,951
                                                         ---------------
      Total.............................................       2,600,000
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Mr. Chairman and Members of the Subcommittee: My name is Evan 
Hirsche, president of the National Wildlife Refuge Association (NWRA). 
On behalf of the NWRA and its membership comprised of current and 
former refuge professionals, more than 110 refuge Friends organization 
affiliates and thousands of concerned citizens throughout the United 
States, thank you for the opportunity to offer comments on the fiscal 
year 2007 Interior Appropriations bill. Specifically, we respectfully 
request that the Subcommittee support:
  --a funding level of $415 million--an increase of $33 million over 
        the President's request--for the operations and maintenance 
        (O&M) budget of the National Wildlife Refuge System, managed by 
        the U.S. Fish and Wildlife Service (FWS), in the fiscal year 
        2007 budget;
  --an allocation of $1 million to continue to support volunteer 
        projects on and in connection with refuges, like the 
        Cooperative Volunteer Invasives Monitoring Program (VIMP) and 
        competitive grants, which utilize Friends and volunteers to 
        identify and eradicate invasive species;
  --an increase in the FWS construction budget to prevent further 
        degradation of Refuge System infrastructure;
  --an allocation of $100 million in the FWS land acquisition budget to 
        accommodate the numerous willing sellers across the country;
  --an increase in funding for the FWS' Partners for Fish and Wildlife 
        Program;
  --an allocation of $85 million for the State and Tribal Wildlife 
        Grants Program;
  --an allocation of $9 million for the National Fish and Wildlife 
        Foundation (NFWF) in the FWS' Resource Management General 
        Administration appropriation; and
  --an increase in the FWS' Contaminants Program budget.
    As you know, the National Wildlife Refuge System continues to be 
crippled by a $3.1 billion funding backlog that harms every refuge in 
the System. Specifically, funding shortfalls limit the ability of 
refuges to successfully conduct important science-based, biological 
programs and hire critical staff, while also hindering opportunities 
for the public to engage in compatible wildlife-dependent recreation.
    The Cooperative Alliance for Refuge Enhancement (CARE), 21 diverse 
conservation and sporting organizations, chaired by the NWRA, has 
determined it will be necessary to increase the annual Refuge System 
budget to $700 million simply to meet the System's top tier needs. Our 
groups, representing a national constituency numbering more than 5 
million Americans, recognize the value of a healthy Refuge System to 
both the wildlife and habitats refuges were established to protect and 
the 40 million visitors that frequent these special places each year.
    The National Wildlife Refuge System budget needs an annual $16 
million increase over the previous year's funding to achieve a ``no-
net-loss'' funding level. Without this increase, the FWS cannot account 
for cost-of-living increases for FWS personnel, rising rent and 
utilities and other cost increases, while sustaining current levels of 
visitor services and wildlife management. The Refuge System needs at 
least $16 million to avoid employee layoffs and reductions in services, 
maintain protections for wildlife and habitat and help contain growth 
of the Refuge System backlog. It is crucial that, at a minimum, the 
cost-of-living and ``uncontrollables'' are covered in the fiscal year 
2007 budget. To prevent the additional loss of programs, maintain 
protections for wildlife and habitats, make some modest and needed 
advances, and provide for addressing the backlog in coming years, the 
NWRA recommends a refuge O&M budget of $415 million for fiscal year 
2007.
    For fiscal year 2007, we encourage the Subcommittee to continue its 
support for volunteer-based invasive species detection and eradication 
activities by again appropriating $1 million for volunteer-oriented 
invasives programs. The NWRA thanks the Subcommittee for its work in 
the fiscal year 2003, fiscal year 2005 and fiscal year 2006 budgets to 
promote the use of volunteers to address the growing threat of invasive 
species on and adjacent to our national wildlife refuges. More than 300 
separate refuges have taken actions to control invasives, and the 
Refuge System has identified approximately $260 million of invasive 
species projected needs. By utilizing the strong volunteer support 
available to the Refuge System, we can significantly expand our ability 
to identify and record data on invasives in refuges and implement 
control measures.
    The Cooperative Volunteer Invasives Monitoring Program is showing 
tremendous results at the 14 geographically diverse refuges currently 
participating in the program. For example, at Lee Metcalf NWR in 
Montana, funding provided through the volunteer-oriented invasives 
appropriation resulted in the eradication of invasive spotted knapweed, 
houndstongue and tansy from 16 acres of the refuge for approximately 50 
percent less than the cost of using contractors. The Program is a 
partnership among the NWRA, FWS, United States Geological Survey (USGS) 
and The Nature Conservancy that seeks to train refuge volunteers to 
identify invasives and collect extensive data using inexpensive but 
sophisticated global positioning system (GPS)/geographic information 
system (GIS) data-collection equipment. The data is entered into a 
centralized database and will augment incomplete information previously 
compiled by refuge staff.
    As a result of funding provided by this Subcommittee in fiscal year 
2006, current refuges in the VIMP will conduct invasive species control 
efforts, while seven new sites will be added to the program. Since its 
inception, 316 volunteers have participated in mapping, treating and 
restoring over 3,000 refuge acres through the Program.
    Collection of this data aids the FWS in detecting early 
infestations of invasives on refuges, and helps to prioritize rapid 
response eradication activities. The technology is proving successful 
and should continue to be expanded to more refuges in the coming years. 
The Program provides a more complete picture of the scope and impact of 
invasives on fragile refuge habitats and helps the FWS develop stronger 
invasives management protocols. In addition, broader community 
awareness and involvement generated through this program serves to 
strengthen federal, state and private lands initiatives aimed at 
addressing this rapidly growing threat.
    A competitive grants program for cooperative invasive species 
projects with refuge Friends and volunteers constitutes the majority of 
the $1 million allocated ``for cooperative projects with [F]riends 
groups on invasive species control.'' In 2006, 60 volunteer projects 
were selected through the competitive grants program, 25 of which 
directly involved Friends groups. Through the competitive grants, 876 
volunteers participated in the treatment, inventory and restoration of 
72,931 refuge acres.
    We encourage the Subcommittee to resist cuts proposed in the 
president's fiscal year 2007 budget request to the construction budget. 
The Administration has asked for $19.7 million, a reduction of $25.5 
million or 57 percent compared to fiscal year 2006. According to the 
FWS, the Agency has identified projects for approximately 1,500 new 
facility assets with a cost of about $1 billion. Roughly half this 
dollar amount is for 270 visitor centers and headquarter offices 
identified by field managers, some of which would take the place of 
quickly deteriorating structures that are becoming more expensive to 
maintain than to replace. With an aging infrastructure and visitation 
to national wildlife refuges at an all-time high, the construction 
budget for the Service should reflect the growing needs of the National 
Wildlife Refuge System.
    The NWRA encourages the Subcommittee to allocate sufficient funding 
to purchase high-priority lands and conservation easements. The Refuge 
System land acquisition backlog is estimated at $4 billion. According 
to the FWS' Land Acquisition Priority System (LAPS), as of 2004 
approximately 15.4 million acres remain to be acquired within approved 
refuge boundaries. Across the country, willing sellers are standing by 
to work with the Service. Unfortunately, the FWS has neither the 
funding nor resources to handle these land acquisition opportunities.
    Our primary concern is that vital refuge buffer areas and corridors 
may be lost, jeopardizing the very integrity of refuges. While a full 
suite of conservation strategies should be employed in working with 
private landowners, in cases where fee title acquisition is preferred 
by the landowner and the refuge has identified it as a top priority, 
the FWS should acquire the land. At a minimum, the NWRA believes that 
$100 million should be allocated toward Refuge System land acquisition. 
Even at that rate, it would take at least 40 years to acquire priority 
lands, which is time we don't have given that wildlife habitat is being 
lost at a rate 300 percent that of population growth in the United 
States.
    Within this $100 million request, the NWRA encourages the 
Subcommittee to provide funding for the following land acquisition 
projects in the Refuge System through the Land and Water Conservation 
Fund:
  --$3.2 million for Arapaho NWR (CO);
  --$922,503 for Back Bay NWR (VA);
  --$1.4 million for Balcones Canyonlands NWR (TX);
  --$726,000 for Bear River Migratory Bird Refuge (UT);
  --$150,000 for Lower Rio Grande Valley NWR (TX);
  --$887,000 for Neal Smith NWR (IA);
  --$650,000 for Rachel Carson NWR (ME);
  --$2 million for Silvio O. Conte NFWR (MA);
  --$1 million for Stewart B. McKinney NFWR (CT);
  --$1.75 million for Tensas River NWR (LA); and
  --$3 million for Waccamaw NWR (SC).
    There are a number of federal programs that reward landowners for 
practicing conservation. One of the leading programs in this area is 
the FWS' Partners for Fish and Wildlife Program, which provides 
technical and financial assistance to private landowners to voluntarily 
restore wetlands and other habitat on their land. Since this program 
began, hundreds of thousands of habitat acres have been restored, many 
of the projects located near national wildlife refuges. The Service has 
trouble keeping pace with landowner demand for this program, reporting 
that many states have waiting lists to participate. The NWRA encourages 
the Subcommittee to provide the ``Partners'' program with the resources 
it needs to assist landowners with habitat conservation, oftentimes 
complementing activities on refuge lands, or contributing to the 
resolution of problems on refuges that originate beyond refuge 
boundaries.
    The NWRA urges the Subcommittee to appropriate at least $85 million 
for the State and Tribal Wildlife Grants Program in fiscal year 2007 to 
implement statewide conservation plans. Program grants support projects 
to restore degraded habitat, reintroduce native species, develop 
partnerships with private landowners, and collect useful data. These 
state-based plans can dovetail with the Comprehensive Conservation 
Plans (CCPs) that all refuges are required to produce, complementing 
the mission of the Refuge System. Further, adequate and consistent 
funding for State Wildlife Grants is essential to fulfilling the shared 
federal/state responsibility for keeping our nation's wildlife from 
becoming endangered.
    We encourage the Subcommittee to allocate $9 million for the 
National Fish and Wildlife Foundation through the FWS' Resource 
Management General Administration appropriation. NFWF works to achieve 
healthy and abundant fish, wildlife and plant populations through 
valuable partnerships. Each year, NFWF receives more project proposals 
than they are capable of funding. Adequate funding will ensure NFWF has 
the ability to leverage resources to fund projects that directly 
benefit diverse fish and wildlife species in, around and outside of 
national wildlife refuges across the country.
    Contaminants were a major part of the tremendous damage inflicted 
on national wildlife refuges during the 2005 hurricane season. 
Unfortunately, funding for the FWS' Contaminants Program has remained 
flat for almost two decades. In light of recent natural and man-made 
disasters, this vital program is more important than ever, as the need 
to address contaminant issues on national wildlife refuges continues to 
grow. The NWRA urges the Subcommittee to provide increased funding for 
the Contaminants Program in fiscal year 2007.
    We extend our appreciation to the Subcommittee for its ongoing 
commitment to our National Wildlife Refuge System.
                                 ______
                                 
     Prepared Statement of the Ohio Department of Natural Resources

    I am writing to express my support for the President's request in 
the U.S. Geological Survey's fiscal year 2007 budget of $1 million for 
NatureServe to ensure the quality and consistency of a key national 
data resource that supports federal agencies and the States in the 
management of the nation's natural resources.
    Responsible management and use of our nation's natural resources 
depends on a sound scientific understanding of these resources. The 
States have an important role to play in managing these resources, and 
in assisting the federal government in carrying out their 
responsibilities. State natural heritage programs are among the most 
important sources for objective and reliable scientific information on 
the nation's wildlife species and habitats. The States rely on 
NatureServe, a private non-profit organization, for the scientific and 
technical support to meet quality assurance standards that enable this 
national network to meet in-state needs as well as support a wide array 
of federal-activities.
    Through coordinating the development of consistent biological data 
across all 50 states, NatureServe has created and manages a unique 
national data resource, which fosters strong State and Federal 
cooperation on wildlife conservation and environmental management. 
Numerous state agencies, corporations and private individuals in Ohio 
rely on information from NatureServe and the Ohio Natural Heritage 
Program to better manage natural resources and avoid or reduce 
conflicts with endangered species and other sensitive ecological 
resources. Federal agencies, ranging from the U.S. Fish and Wildlife 
Service and National Park Service to the Departments of Transportation 
and Defense, also rely on this objective and credible scientific 
resource.
    The federal government has a clear and compeiling interest in and 
need for the scientific information managed by NatureServe and its 
State partners. Without these funds, this national network, and the 
high quality and nationally consistent data it generates, would 
deteriorate, compromising the work of the State and Federal agencies 
that depend upon them.
    The President's proposed funding is also very cost effective. This 
$1 million will leverage a more than $40 million investment in this 
resource nationwide, most of which comes from state and private 
sources. This modest investment will also save taxpayer money by 
helping Federal and State agencies better manage our natural resources 
and by avoiding unnecessary endangered species conflicts.
    We recognize that this is a difficult budget climate and the 
Committee is operating with constrained resources. We support the 
President's inclusion of this $1 million allocation in the fiscal 2007 
budget, and respectfully request that the Committee include this in its 
appropriation.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association

    Outdoor Industry Association urges the subcommittee to fund the 
Land and Water Conservation Fund (LWCF) State Assistance Program at 
$100 million for fiscal year 2007, the Federal Land and Water 
Conservation Fund at $220 million and the Urban Park and Recreation 
Recovery Program (UPARR) at $50 million for fiscal year 2007.
    We also support the following funding levels for recreation 
management and trails funding in the Forest Service and Bureau of Land 
Management budgets.
    Fiscal year 2007 Forest Service Budget:
  --Recreation Management, Heritage and Wilderness, $275 million
  --Capital Improvement and Maintenance/Trails, $90 million
    Fiscal year 2007 Bureau of Land Management Budget:
  --Recreation Management, Recreation Resources, $50 million
  --Transportation and Facilities, Annual and Deferred Maintenance, $75 
        million
  --An increase of $5 million for activities on the 12 National and 
        Scenic and Historic Trails that BLM administers or manages.
    Outdoor Industry Association (OIA) is a national trade association 
whose mission is to ensure the growth and success of the outdoor 
industry. A wide spectrum of leading manufacturers, distributors, 
suppliers and retailers of outdoor recreation equipment and services, 
as well as other related business entities, make up OIA's membership. 
The outdoor industry is made up of over 4,000 businesses with 500,000 
employees in all 50 states, generating $33 billion in sales every year. 
Last year, 159 million Americans participated in outdoor recreation, 
with the greatest numbers in the gateway sports of hiking, biking, 
camping and paddlesports.
    OIA's member companies include Yakima, Mountain Hardwear, The North 
Face, Cascade Designs, Vibram USA, Johnson Outdoors, REI, Eastern 
Mountain Sports, JanSport, Smartwool, Timberland, Columbia Sportswear, 
Black Diamond Equipment, GoLite, Vasque/Redwing and more.
       land and water conservation fund state assistance program
    The LWCF State Assistance Program and the Urban Park and Recreation 
Recovery programs are vital for providing recreation experiences and 
healthy lifestyle options to all Americans. These programs are good for 
the physical and economic health of the country. The stateside program 
has 41 years of strong success as one of America's most effective 
federal/state recreation and conservation partnership programs.
    Since its inception, stateside LWCF has underwritten the 
development of more than 40,000 state and local park and recreation 
projects, touching 98 percent of the counties in the United States.
    In 2005, stateside LWCF grants made a direct impact in 535 local 
communities spread across every state and U.S. territory.
    Eight parks and recreation facilities in Montana were enhanced with 
stateside LWCF dollars in 2005 including Lone Pine State Park, the 
school district #1 playground in Philipsburg and Big Sandy Municipal 
Park in Chouteau county.
    The citizens of North Dakota will enjoy improvements at 16 state 
parks and recreation sites as a result of stateside LWCF funding. 
Projects are underway at Lake Metigoshe, Beaver Lake, Ft. Stevenson, 
Lake Sakakawea, Icelandic and Fort Ransom state parks. Many local parks 
also received stateside grants.
    Alaska's Kenai Peninsula received stateside LWCF monies to make 
improvements to the Kasilof River State Recreation Area and Kenai 
Soccer Park.
    New Mexico received stateside LWCF funding for improvements at 
Eagle Nest State Park, Manzano State Park, Living Desert State Park and 
four other local parks.
    Ten projects in Idaho were funded by LWCF stateside grants in 2005, 
including monies to continue the development of Idaho's newest state 
park, Castle Rocks State Park and improvements at Ponderosa State Park.
    In every case, local citizens demonstrated the need and desire for 
parks in their communities by matching stateside LWCF grant monies by 
at least equal dollars and in many cases many times beyond a dollar-to-
dollar match. Because of this, LWCF stateside grants have a high return 
on investment per government dollar.
    The impact of LWCF State Assistance Program is also felt in other 
ways as recreation lands are developed and parks are built and 
enhanced. Studies by the Centers for Disease Control and Prevention 
(CDC) indicate that physical activity has proven absolutely invaluable 
in helping people lose weight. Yet more than 50 percent of U.S. adults 
don't get enough physical activity to recognize health benefits and 26 
percent are not active at all. More than a third of young people in 
grades nine through 12 do not regularly engage in vigorous physical 
activity.
    When people are active it not only makes them healthier; it also 
reduces the amount of money they, and the Federal Government, spend on 
health insurance, doctors, and medicine. Study after study suggests 
that the best way to get people active is to make recreation 
accessible. When there are parks, greenways, trail systems and 
playgrounds within reach of their homes, people exercise more.
    In a study published by the CDC, creation of or enhanced access to 
places for physical activity led to a 25 percent increase in the 
percentage of people exercising on three or more days per week. A group 
of studies reviewed in the American Journal of Preventive Medicine 
showed that ``creation of or enhanced access to places for physical 
activity combined with informational outreach'' produced a 48 percent 
increase in frequency of physical activity.
    Between 2001 and 2005, Congress recognized the many benefits of 
close to home recreation and appropriated more than $100 million per 
year for stateside LWCF grants.
    The President's fiscal year 2006 and fiscal year 2007 budget 
requests for LWCF stateside grants and UPARR zeroed out both programs. 
We thank you for rejecting that recommendation and through a bipartisan 
effort ensuring $30 million in funding for stateside LWCF grants last 
year. We urge you to restore funding to $100 million for fiscal year 
2007.
    Outdoor Industry Association believes LWCF stateside grants are an 
integral part of bringing quality parks and trails within 15 minutes of 
every child in the United States. Developing recreation infrastructure 
is a goal many states share and for which many need LWCF funds to 
accomplish.
    funding for recreation management at the forest service and blm
    Over the past fifty years, recreation has clearly emerged as the 
greatest use of Forest Service lands and the primary driver of the 
National Forest economy. Unfortunately for Americans, government 
funding for access and maintenance of public lands doesn't begin to 
appropriately address the recreation opportunities and other benefits 
we derive from them.
    Recently, the Administration released numbers estimating that 
recreation accounts for 60 percent of the Forest Service's contribution 
to the Gross Domestic Product.
    Unfortunately, staffing and funding for recreation in land 
management agencies doesn't match up to this reality. Historically, 
direct recreation management and trails spending is only about 10 
percent of the Forest Service budget--woefully inadequate when compared 
to the economic value of recreation in the forest economy.
    The Forest Service needs increased funding for recreation 
management and planning as well as funding to begin to reduce the $300 
million in deferred maintenance of recreation facilities and trails.
    Similarly, the Bureau of Land Management is tasked with managing 
261 million acres of land upon which a broad spectrum of recreation 
takes place. BLM is responsible for the management of 600,000 miles of 
roads and trails and like the Forest Service faces an increasing 
maintenance backlog. Increased funding is needed to develop resource 
and travel management plans as well as protect recreation destinations 
for future generations.
    Properly managed public lands provide limitless recreation 
opportunities. By adequately funding these recreation destinations, you 
improve the health of local economies that depend on recreation, the 
health of outdoor businesses that contribute significantly to the U.S. 
economy and the health and fitness of the American people.
    In order to achieve this outcome, OIA urges the subcommittee to 
provide $100 million for the LWCF Stateside Assistance program and to 
adequately fund UPARR, federal LWCF and the recreation management 
budgets at the Forest Service and BLM.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee

    It is my privilege to present this statement on behalf of the 
Oklahoma members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
A. Earnest Gilder, Muskogee; Mr. Terry McDonald, Tulsa; and Mr. Lew 
Meibergen, Enid, who also serves as Chairman of the combined Arkansas 
River Basin Interstate Committee.
    The Committee is encouraged about water resource developmental 
opportunities in the Arkansas River Basin for not only navigation, but 
also hydropower, flood control, recreation, water supply, and 
environmental stewardship. However, we are concerned that existing and 
proposed funding levels will not support the needs.
    Mr. Chairman, Public Law 108-137 authorized a 12-foot channel on 
the McClellan-Kerr Arkansas River Navigation System. The Corps is now 
obligated to operate and maintain the system as a 12-foot channel. Over 
90 percent of the system currently is adequate for a 12-foot channel. 
Deepening the remainder of the channel to 12 feet will allow carriers 
to place 43 percent more cargo on barges, which will reduce the amount 
of fuel consumed and emissions released. Funds in the amount of $7.0 
million were allocated in fiscal year 2005 with $1.5 million used to 
complete the Feasibility Study and Environmental Impact Statement with 
the other $5.5 million used on engineering, design, and construction 
activities. In conjunction with the deepening project the Corps is 
preparing a Basin Wide Master Plan that will include an integrated 
major maintenance construction and operational maintenance prioritized 
list for investment opportunities. Other environmental benefits include 
the creation of new aquatic habitat through new dike construction and 
the construction of Least Tern islands through beneficial use of 
dredged material.
    Therefore, we request $40 million to maintain the authorized depth 
by constructing dike structures to minimize dredging and dredging only 
necessary areas. This investment will increase the cost competitiveness 
of this low cost, environment-friendly transportation method and help 
us combat the loss of industry and jobs to overseas.
    Tow Haulage Equipment--Oklahoma.--We request funding of $5.0 
million to initiate the installation of tow haulage equipment on the 
locks located along the Arkansas River portion of the McClellan-Kerr 
Arkansas River Navigation System.
    The Power Plant at Webbers Falls Lock and Dam on the Arkansas River 
has suffered from greatly reduced reliability due to turbine design 
problems. One of the three turbines at the project has suffered major 
damage and will remain unavailable for generation until it can be 
rebuilt. Because this is a run-of-the-river facility with no storage, 
energy spilled due to off-line units is energy that is lost forever. A 
feasibility study recommending major rehabilitation of this unit has 
been approved by the office of the Chief of Engineers.
    Similar problems have been experienced at Ozark--Jeta Taylor Lock 
and Dam on the Arkansas River in Arkansas. Congress approved a new 
start and funding to begin the major rehabilitation of the Ozark 
powerhouse in fiscal year 2003. Congress approved the Administration's 
fiscal year 2005 budget request of $5 million in Construction General 
funding to continue this major rehabilitation. By combining the turbine 
replacements into a single contract, the Little Rock District awarded a 
contract in May 2005 to replace the turbines with a more reliable 
design. This contract also includes three options to provide newly 
designed turbines for the Webbers Falls project as well, if additional 
funding is forthcoming as recommended by the Corps' Hydropower Design 
Center. The Corps has saved $5 million over the life of the project. 
Unfortunately, no funding for these projects was included in the 
Administration's fiscal year 2006 and 2007 budget requests, and the 
conference report on the fiscal year 2006 Energy and Water Development 
Appropriations bill also excluded funding for them.
    The wholesale power customers are providing essential funding for 
the turbine replacement contract in fiscal year 2006 under terms of a 
Memorandum of Agreement (MOA) between the Corps, the customers and 
Southwestern Power Administration. However, the MOA is not a viable 
vehicle for long-term funding of the contract.
    The Committee recommends that Congress appropriate $19.5 million to 
start the Webbers Falls major rehab in early in fiscal year 2007.
    Arkansas-White Rivers Cutoff Study is to determine a solution to 
prevent the developing cutoff from joining the Arkansas and White 
Rivers near the confluence of the McClellan-Kerr Arkansas River 
Navigation System and the Mississippi Rivers. If not corrected, this 
occurrence could have a dramatic adverse effect on the navigation 
system. Unless corrected, this will effectively drain the water from 
the navigation system and halt the movement of commerce on the system.
    Therefore we request an appropriation of $300,000 to protect the 
navigation system from closure.
    There has been over $5.5 billion invested in the construction and 
development of the McClellan-Kerr Arkansas River Navigation System by 
the federal government ($1.3 billion) and the public and private sector 
($4.2 billion+), resulting in the creation of over 50,000 jobs in this 
partnered project.
    Maintenance of the Navigation System.--In preparation for the 
deepening of the navigation system from 9 to 12 feet, there is a 
backlog of maintenance items that has been deferred due to insufficient 
budgets to allow proper maintenance. These maintenance items are 
required even to support navigation at the 9 foot depth in order to not 
jeopardize the reliability of the system. Therefore, we request 
additional funding in the amount of $1,549,000--plus the amount from 
Little Rock, over and above normal funding, for deferred channel 
maintenance. These funds would be used for such things as repair of 
bank stabilization work, needed advance maintenance dredging, and other 
repairs needed on the system's components that have deteriorated over 
the past three decades.
    In addition to the system-wide needed maintenance items mentioned 
above, the budget for the Corps of Engineers for the past several years 
has been insufficient to allow proper maintenance of the McClellan-Kerr 
Arkansas River Navigation System--Oklahoma portion. As a result, the 
backlog of maintenance items has continued to increase. If these 
important maintenance issues are not addressed soon, the reliability of 
the system will be jeopardized. The portion of the system in Oklahoma 
alone is responsible for returning $2.6 billion in annual benefits to 
the regional economy. The fiscal year 2006 O&M President's budget for 
Tulsa District was $8.2 million less (over 11 percent) than the fiscal 
year 2005 appropriation, which will result in no funding being 
available for critical infrastructure maintenance in fiscal year 2006. 
The fiscal year 2007 O&M President's budget is currently proposed at 
$72.4 million which is presently $10 million more than the fiscal year 
2006 budget. This $10 million increase is offset by higher energy, 
labor, and construction costs. We therefore request that $2.1 million 
be added to the budget to accomplish critical infrastructure 
maintenance items on the Oklahoma portion of the system as follows: 
McClellan-Kerr--$600,000 to repair plate seals for the weirs; and 
Robert S. Kerr--$1,500,000 to repair erosion and construct emergency 
mooring wood dolphins.
    Additional O&M funds are also requested for other high priority, 
non-navigation, water resource needs including $600,000 for tainter 
gate repair at Kaw Lake; $1,200,000 to repair sluice gates and liners 
at Keystone Lake; $1,500,000 for tainter gate repair at Fort Gibson 
Lake; and $400,000 for tainter gate hoist equipment replacement at 
Tenkiller Ferry Lake.
    Miami, Oklahoma and Vicinity Feasibility Study.--We request funding 
of $350,000 to move into the feasibility stage for the vicinity in 
Ottawa County including and surrounding Miami, Oklahoma in the Grand 
(Neosho) Basin. Water resource planning-related concerns include 
chronic flooding, ecosystem impairment, poor water quality, subsidence, 
chat piles, mine shafts, health effects, and Native American issues. 
The State of Oklahoma's desire is to address the watershed issues in a 
holistic fashion and restore the watershed to acceptable levels. Study 
alternatives could include structural and non-structural flood damage 
measures, creation of riverine corridors for habitat and flood storage, 
development of wetlands to improve aquatic habitat and other measures 
to enhance the quality and availability of habitat and reduce flood 
damages.
    Oologah Lake Watershed Feasibility Study.--We request funding of 
$500,000, which is $500,000 more than the President's budget request, 
for ongoing feasibility studies at Oologah Lake and in the upstream 
watershed. The lake is an important water supply source for the city of 
Tulsa and protection of the lake and maintaining and enhancing the 
quality of the water is important for the economic development of the 
city. Recent concerns have been expressed by the City of Tulsa and 
others regarding potential water quality issues that impact water 
users, as well as important aquatic and terrestrial habitat. Concerns 
are related to sediment loading and turbidity, oilfield-related 
contaminants and nutrient loading.
    Grand (Neosho) Basin Reconnaissance Study.--We request funding in 
the amount of $450,000 to conduct a feasibility study of the water 
resource problems in the Grand (Neosho) Basin in Oklahoma and Kansas. 
There is a need for a basin-wide water resource planning effort in the 
Grand-Neosho River basin, apart from the issues associated with Grand 
Lake, Oklahoma. The reconnaissance report has been approved and 
indicated that there is a federal interest in this project and the 
feasibility will focus on the evaluation of institutional measures 
which could assist communities, landowners, and other interests in 
northeastern Oklahoma and southeastern Kansas in the development of 
non-structural measures to reduce flood damages in the basin. 
Feasibility Cost Share Agreements will be executed in 2006 but the 
fiscal year 2007 President's budget did not provide funding to continue 
into the feasibility stage.
    Spavinaw Creek Watershed Study.--Spavinaw Creek and its downstream 
impoundments, Eucha and Spavinaw Lakes, are severely impacted by 
nutrient loading and excessive algae growth as a result of agricultural 
practices located in Arkansas and Oklahoma. Degradation of water 
quality has led to taste and odor problems, increased treatment costs, 
and a decreased recreational and aesthetic value of the lakes. 
Together, Spavinaw and Eucha Lakes provide 47 percent of the water 
supply for the Tulsa metropolitan area. The Metropolitan Utility 
Authority entered into the feasibility cost-share agreement in June 
2004. We request funds in the amount of $210,000 to continue this 
study.
    Grand Lake Feasibility Study.--A need exists to evaluate solutions 
to upstream flooding problems associated with the adequacy of existing 
real estate easements necessary for flood control operations of Grand 
Lake, Oklahoma. A feasibility study is necessary to determine the most 
cost-effective comprehensive solution to the real estate inadequacies. 
We urge you to provide $500,000 to fund feasibility studies for this 
important project in fiscal year 2007 and to direct the Corps of 
Engineers to execute the study at full federal expense. This project 
has been a Congressional add for the past four years, but there are no 
funds in the fiscal year 2007 President's budget request to continue 
this project.
    Section 205.--Although the Small Flood Control Projects Program 
addresses flood problems which generally impact smaller communities and 
rural areas and would appear to benefit only those communities, the 
impact of those projects on economic development crosses county, 
regional and sometimes state boundaries. There is limited funding 
available for these projects and we urge this program be increased to 
an annual limit of $65 million.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help states and Indian 
tribes solve their water resource problems. The Water Resources 
Development Act of 1996 increased the annual program limit from $6 
million to $10 million and we urge this program be fully funded to the 
programmatic limit of $10 million. We urge that you support the State 
of Oklahoma in requesting their full allocation of $500,000 for the 
Planning Assistance to States program for several important projects 
awaiting execution including the cities of Tulsa, Bristow, and 
Bartlesville and for State Water Planning efforts.
    In addition, we request your support of the Section 107 Navigation 
Program and ask that you provide $100,000 for the initiation of studies 
for a port in Wagoner County, Oklahoma. A Wagoner County Port could 
greatly benefit the region and utilize the authorized deepening of the 
McClellan-Kerr Arkansas River Navigation system to benefit the nation.
    We strongly urge the Appropriations Committee to raise the Corps of 
Engineers' budget to $6.7 billion to help get delayed construction 
projects back on schedule and to reduce the deferred maintenance 
backlog which is out of control. This will help the Corps of Engineers 
meet the obligations of the federal government to people of this great 
country.
    Mr. Chairman, we appreciate this opportunity to present our view on 
these subjects.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

                                REQUEST

    The Oregon Water Resources Congress is requesting $25 million for 
the full funding in fiscal year 2007 for the U.S. Fish and Wildlife 
Service Fish Restoration Irrigation Mitigation program as authorized in 
the Fish Restoration Irrigation Mitigation Act (FRIMA) in November 2000 
as Public Law 106-502 (H.R. 1444). The Administration has not request 
any funding in the fiscal year 2007 Budget submission for this program.
    FRIMA created a new federal partnership fish screening and passage 
program in the Pacific Ocean drainage areas of Idaho, Oregon, 
Washington and western Montana, administered by the Fish and Wildlife 
Service and partnered through state fishery agencies.
    The original legislation was supported and requested by the Pacific 
Northwest Partnership, a coalition of local governmental entities in 
the four Northwest states. As one of the members of that coalition, we 
appreciate your consideration of this request.

                                  NEED

    Our association has represented irrigation districts in Oregon 
since 1912. About half of those districts are affiliated with the U.S. 
Bureau of Reclamation. The remainder of the districts were not 
developed under the Reclamation program. There are over 200 irrigation 
districts in Oregon that provide water supplies to over one million 
acres of cropland in Oregon. Almost all of these districts are affected 
by either state or federal Endangered Species Act listings of Salmon 
and Steelhead, Bull Trout or other sensitive, threatened or endangered 
species.
    Fish passage and fishscreen needs have become critical to fishery 
protection:
  --to keep protected fish species out of water canals and delivery 
        systems;
  --to allow fish to be safely bypassed around reservoirs and facility 
        structures;
  --and to eliminate water quality risks to fish species.
    Oregon irrigation districts anticipate no less than $500 million in 
funding will be required to develop fish passage and fishcscreening 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program in Oregon, but primarily the cost share 
for passage and screening needs has been provided by the districts and 
their water users. Many districts already have screening facilities in 
place, but requirements for screening have been changed to meet federal 
agency requirements of the NOAA Fisheries Service and the Fish and 
Wildlife Life Service, driven by implementation of the federal 
Endangered Species Act (ESA) so that existing facilities must be 
upgraded at significant cost.

                    BACKGROUND OF PUBLIC LAW 106-502

    FRIMA was enacted November 2000, creating a voluntary cost-share 
fish screen construction program for water withdrawal projects in 
Idaho, Oregon, Washington and western Montana. The Fish and Wildlife 
Service is to implement this program through the fishery agencies in 
the four states. The funding is to go to local governments for 
construction of facilities. Irrigation districts (local governments), 
can access the funding; individual irrigators can access funding 
through their local Soil and Water Conservation District. (SWCD 
districts are local governments affiliated with the Natural Resources 
Conservation Service).

                                FUNDING

    The legislation calls for $25 million annually, to be divided among 
the four stated, from 2001 forward. The Service has never included 
funding in its budget requests since passage of the legislation. 
Congress provided the first funding in 2001 through a write-in of $4 
million to be shared among the four states. The agency did not get the 
program up and running until late 2002, so the first moneys were 
distributed then. A 2003 budget write-in resulted in a $470,000 
allocation to Oregon ($1.8 million total for the 4 states)
Funding History
    2000: Congressional authorization for $25 million per year
    2001: Congressional write-in of $4 million as no agency budget line
    2002: No budget; agency did not disperse 2001 money until late 2002
    2003: Congressional write-in of $1.2 million as no agency budget 
line
    2004: No agency budget line
    2005: No agency budget line

    For the 4 years, 2001-2004:
    Congress--Authorized-- $100 million
    CBO--Anticipated--$70 million
    Service--Budgeted--0
    Congress--Wrote-in--$8.8 million (2002-2004 total combined)
    In 2000, in the report accompanying the legislation, the 
Congressional Budget Office (CBO) estimated outlays of $8 million for 
fiscal year 2001; $15 million in fiscal year 2002; $22 million in 
fiscal year 2003 and $25 million in fiscal year 2004 and years forward. 
While the CBO estimate would have provided $70 million between 2001 and 
2004, the actual appropriation was only $8.8 million during that time 
period and all of the money was a write-in.
    For fiscal year 2005, Congress provided $2 million for the program 
in the Consolidated Appropriations Act and $2 million in fiscal year 
2006. As you can see from the total amount of money that Congress has 
written in for the program, such amounts are woefully inadequate for 
what was anticipated for the program, yet appreciated. Funding 
continues to not be requested by the Administration for the program for 
fiscal year 2007 despite widespread benefits from the money that 
Congress has provided. A recently produced report by the U.S. Fish and 
Wildlife Service covering the program years fiscal year 2002-2004 
provides state-by-state coverage of how the Congressional provided 
funding has been used in the program. The program has been extremely 
beneficial in the State of Oregon.
    Funding funneled through the Service to state fishery agencies is 
distributed on the basis of an application and approval process that is 
based on a ranking system implemented uniformly among the states, 
including the following factors:
  --fish restoration benefits
  --cost effectiveness
  --feasibility of planned structure
    Each state is allocated 25 percent of the annual program funding. 
Agency administrative costs cannot exceed 6 percent of the funding.

                            PROJECT BENEFITS

    The project must provide improved fish passage or fish protection 
at water diversion structures and must benefit fish species native to 
and present in the area, including those listed on state or federal 
endangered species or conservation lists.
    The project must applicable state and federal requirements for 
project construction and operation. Projects will increase the survival 
of many native fish species in a relatively short period of time. 
Compared to other recovery strategies, the risks posed by these 
activities are low and the assurance of success in increasing numbers 
of fish is high. Dislocation of existing social and economic activities 
is minor. Screening and passage can make a very substantial 
contribution utilizing existing implementation mechanisms and methods 
well accepted by landowners and rural communities.

                               COST SHARE

    The federal cost-share is 65 percent. The applicant's cost-share is 
35 percent plus the on-going maintenance and support of the structure 
for passage or screening purposes.
    Applicants operate the projects and the state agencies monitor and 
review the projects. For more information, see the Services' Fisher 
Resources website for the Pacific Region at http://pacific.fws.gov/
Fisheries/Fish%20Passage-Screening%20Program.htm. This program is 
headquartered in the Portland, Oregon regional office of the Service.

                       OREGON'S PROJECT BENEFITS

    The following are examples of how Oregon has used some of its FRIMA 
money:
    Santiam Water Control District Project.--Fishscreen project on a 
large 1050 cfs multi-purpose water diversion project on the Santiam 
River (Williamette Basin) near Stayton, Oregon. Partners are the 
Santiam Water Control District, Oregon Department of Fish and Wildlife, 
Marion Soil and Water Conservation District, and the City of Stayton 
Approved FRIMA funding of $400,000 leverages a $1,200,000 project. 
Species benefited include winter steelhead, spring Chinook, rainbow 
trout, and cutthroat trout.
    South Fork Little Butte Creek.--Fishscreen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$372,000 and leverages a $580,000 total project cost. Species benefited 
include listed summer and winter steelhead, coho salmon, and cutthroat 
trout.
    Running Y (Geary Diversion) Project.--Fishscreen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, Oregon 
Department of Fish and Wildlife, and Jeld-Wen Ranches. Approved FRIMA 
funding of $44,727 leveraged a total project cost of $149,000. Species 
benefited included listed red-band trout and short-nosed sucker.
    Lakeshore Gardens Project.--Fishscreen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$5,691, leveraging a total project cost of $18,970. Species benefited 
include red-band trout, short-nosed sucker and Lost River sucker.
    Oregon Department of Fish and Wildlife Inventory Project.--An 
inventory to be conducted by Oregon Department of Fish and Wildlife to 
identify FRIMA-eligible passage and screening projects within the Rogue 
and Klamath basins of southwestern Oregon. Approved FRIMA funding is 
$76,000. Estimated total project cost is $125,000.

                              WHY FUND NOW

    Dollar-for-dollar, providing screening and fish passage at 
diversions is one of the most cost-effective uses of restoration 
dollars, creating fishery protection at low cost, with low risk and 
significant benefits. That is why it is important that this program be 
funded now. We urge the full authorization funding for fiscal year 2007 
and urge Congress' oversight in encouraging the Service to budget for 
this successful program in the future.
    Thank you for the opportunity to provide this statement for the 
hearing record.
                                 ______
                                 
               Prepared Statement of the Potapaug Audubon

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Potapaug Audubon, I appreciate the opportunity to present this 
testimony in support of a $1 million appropriation from the Land and 
Water Conservation Fund for land acquisition within the Stewart B. 
McKinney National Wildlife Refuge.
    Potapaug Audubon has been a ``Friend'' of Salt Meadow, one of the 
ten units in the Stewart B. McKinney National Wildlife Refuge, for the 
last five years. Potapaug, a chapter of National Audubon, never had a 
physical address to call home. Since nurturing this relationship with 
the refuge and its staff Potapaug now feels right at home there. We 
hold special programs, meetings and field trips there throughout the 
year in addition to what we do elsewhere, and hope to continue to do so 
for years to come. We, and all the people who attend our programs at 
Salt Meadow, have learned an awful lot about the natural world through 
walking the trails and hands-on demonstrations. Adding this parcel of 
land to the refuge will enhance what is already there and will prevent 
the inevitable disruption of migration if this land is developed.
    Named to honor the late U.S. congressman who was instrumental in 
its creation, the Stewart B. McKinney National Wildlife Refuge was 
established to protect migratory bird habitat considered important to 
wading and shorebird species including heron, egrets, terns, plovers 
and oystercatchers among others. Stewart B. McKinney NWR is currently 
comprised of eight units stretching along 60 miles of Connecticut's 
coastline. In addition to the increase in habitat protection over the 
years, the refuge now provides opportunities for scientific research, 
environmental education, and fish and wildlife oriented recreation. 
Located in the Atlantic Flyway, the refuge provides important resting, 
feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    Available for refuge acquisition in fiscal year 2007 is the 22-acre 
Menunketesuck Salt Meadow Marsh in Westbrook, Connecticut. The property 
is comprised of pristine coastal tidal marsh, a forested upland, 
scrubland, and a rock outcropping that towers above 1,000 feet of 
frontage along the gentle Menunketesuck River as it winds its way to 
Long Island Sound. As a migratory stopover for neotropical migrant land 
birds, this riparian area is the top priority for acquisition for the 
refuge. The marsh property will enhance the resources of the current 
Salt Meadow Unit of the refuge, as it contains part of the least 
developed upland borders of any remaining tidal marsh in all of 
Connecticut. As much of the state's coastline has been built upon, it 
is rare to find an such a large undeveloped marsh area in Connecticut. 
Under imminent threat of development into condominiums, this parcel 
must be acquired by the refuge if it is to continue to serve as an 
island of forested habitat land on an otherwise highly developed 
coastline. In order to acquire the Menunketesuck Salt Meadow Marsh 
property, an appropriation of $1 million is needed from the Land and 
Water Conservation Fund in fiscal year 2007. This priority acquisition 
will increase wildlife habitat protection at the Stewart B. McKinney 
NWR and ensure the public continued opportunities for recreation and 
environmental education along Connecticut's coastline.
    I respectfully request that you include an appropriation of $1 
million for the Stewart B. McKinney NWR in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
         Prepared Statement of the Pechanga Indian Reservation

    The Pechanga Band of Luiseno Indians writes to express our support 
for continued fiscal year 2007 funding of the Urban Indian Health 
Programs (UIHPs) and to request that funding be restored to the fiscal 
year 2006 enacted level of $32.7 million. The President's budget 
eliminates funding for 34 urban Indian non-profit organizations 
providing health care services at 41 sites throughout the United States 
for 430,000 eligible Indian users.
    In 1976, Congress passed the Indian Health Care Improvement Act, 
Public Law 94-437, to address poor health conditions in Indian Country. 
Title V of this law specifically targeted funding for the development 
of programs for American Indians and Alaska Natives living in urban 
areas. Title V has since been amended to strengthen UIHPs to expand the 
quantity and quality of services provided to the urban Indian 
population.
    In 1950's and 1960's the federal government encouraged Indians to 
move off their reservations and into various cities across the country. 
The 2000 census indicated that as many as 66 percent of all American 
Indians and Alaska Natives live in urban areas. Urban Indian 
populations are integral members of communities like Los Angeles, 
Seattle, Portland, Detroit, Chicago, Denver, Baltimore, Boston, 
Phoenix, Omaha, Fort Lauderdale, Anchorage, Oklahoma City, Wichita, 
Reno, Sioux Falls, Albuquerque, Minneapolis, Milwaukee, and Billings, 
among many others.
    UIHPs provide affordable health care for an underserved population 
that is much more likely to die from certain diseases than the rest of 
the country. Indians suffer from diabetes, alcoholism, tuberculosis, 
influenza, and pneumonia at significantly higher rates than the general 
population. Urban primary care clinics and outreach programs provide 
culturally accessible, affordable, and accountable health services to 
our nation's large off-reservation Indian population. UIHPs participate 
in a wide range of activities, including outreach and referral 
services, ambulatory health care, health assessment, health promotion, 
disease prevention, child abuse prevention, and immunization services.
    The Indian Health Service (IHS) estimates that average funding in 
previous budget years has been 22 percent of the projected need for 
this program, and that eighteen additional cities have! an urban Indian 
population large enough to support a UIHP. UIHPs are all operating at 
maximum capacity, servicing over 2 million visits per year.
    The Administration contends that urban Indians live near hospitals 
and have access to Federal, State, and local health care programs. To 
accommodate the expected increase in visits to federal health clinics 
as a result of cutting UIHPs, the Administration will slightly increase 
funding for the Health Centers program.
    In a Senate Indian Affairs Committee hearing on the fiscal year 
2007 IHS budget, Director Charles W. Grimm admitted that the 
Administration did not consult with tribes when coming to the decision 
to eliminate funding for UIHPs. The Administration also did not engage 
the Health Resources and Services Administration (HRSA) in how HRSA 
will facilitate the addition of the urban Indian population into the 
Health Centers system.
    However, even with a small increase to Health Centers funding, it 
is unreasonable to expect that there will be no interruption of 
services or decrease in the level of health care provided to the urban 
Indian population. Open access health centers already serve 8.8 million 
users.
    Dealing with past budget cuts and an increased user population has 
stressed the limits of the service capabilities at these centers. 
Increasing the potential user population by 1.5 million will place a 
much larger burden on a system already operating at capacity to the 
detriment of both non-Indian and Indian users.
    We are committed to fiscal responsibility and understand that 
restraints on funding are a reality of the current budgetary climate--
eliminating an already under funded program that hundreds of thousands 
of Americans have depended on since 1976 is not a choice we can 
support. Without access to affordable and accountable health care 
centers, we fear that many urban Indian families will go without the 
services the federal government has been tasked with providing them. It 
is irresponsible to deny health care access to such a large and 
underserved population.
    We urge you to restore funding for UIHPs to the fiscal year 2006 
budget level of $32.7 million, and thank you for your consideration of 
this request.
                                 ______
                                 
   Prepared Statement of the Pueblo of Laguna Department of Education

    The President's proposed fiscal year 2007 budget does not include 
direct funding for Tribal Education Departments (TEDs) through the U.S. 
Department of the Interior, Bureau of Indian Affairs. Such funding is 
authorized by the No Child Left Behind (NCLB) Act of 2001. See Section 
1140 of NCLB Title X, codified at 25 U.S.C.  2020(a).
    The Pueblo of Laguna Department of Education urges you to correct 
this omission and make appropriations for TEDs so that they can help 
states, school districts, and tribal students meet the challenges of 
implementing NCLB.,
    Although only one President's proposed budget (fiscal year 1996) 
ever has requested appropriations for TEDs through the Department of 
the Interior, historically, the National Congress of American Indians 
(NCAI), has asked Congress for such appropriations. We join in NCAI's 
recent request for TED appropriations at the level of $5 million so 
that our tribal students will achieve at their potentials and not be 
left behind.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System

    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 
several years, through operations funding and earmarked Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service. We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service and your support for the trails in the Bureau of 
Land Management's National Landscape Conservation System. To continue 
the progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of the 24 national scenic 
and historic trails for fiscal year 2007 through these appropriations:
  --National Park Service.--$10.683 million for the administration of 
        19 trails and for coordination of the long-distance trails 
        program by the Washington Park Service office.
  --USDA Forest Service.--$3.04 million to administer 4 trails and 
        $933,000 to manage parts of 16 trails administered by the NPS 
        or BLM; Construction: $4.822 million for the Continental Divide 
        Trail, $1.35 million for the Florida Trail, and $1 million for 
        the Pacific Crest Trail.
  --Bureau of Land Management.--To administer the Iditarod National 
        Historic Trail: $272,000, the Camino Real de Tierra Adentro 
        National Historic Trail: $230,000, the Old Spanish National 
        Historic Trail: $331,000 and $3.15 million to manage portions 
        of 9 trails administered by the Park Service or the Forest 
        Service; $1,386,000 for operating four National Historic Trail 
        interpretive centers.
  --We ask that you appropriate $7 million for the National Park 
        Service Challenge Cost Share Program and continue to earmark 
        $2.5 million for Lewis & Clark Bicentennial projects and one-
        third of the remaining $4.5 million ($1,500,000) for the other 
        national scenic and historic trails or create a separate $1.5 
        million National Trails System Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and earmark the money for the 12 
        national scenic and historic trails it administers or manages.
  --We ask that you appropriate $1.253 million to the National Park 
        Service National Center for Recreation and Conservation to 
        support the second year of a five-year interagency pilot 
        project to develop a consistent system-wide Geographic 
        Information System (GIS) for the National Trails System.
    We ask that you appropriate from the Land and Water Conservation 
Fund for land acquisition:
  --to the Forest Service: $5 million for the Pacific Crest Trail, 
        $250,000 for management of the Pacific Crest Trail land 
        acquisition program; $5 million for the Florida Trail; $5.6 
        million for the Appalachian Trial; $195,000 for the 
        Overmountain Victory Trail in North Carolina;
  --to the Bureau of Land Management: $1.5 million for the Pacific 
        Crest Trail; $1 million for the Oregon Trail in Oregon; $1.4 
        million for the Continental Divide Trail in New Mexico;
  --to the Park Service: $4 million to grant to the State of Wisconsin 
        to match state funds to acquire land for the Ice Age Trail.

                         NATIONAL PARK SERVICE

    We request $1.253 million to fund the second year of a 5-year 
interagency effort to develop a consistent GIS for all 24 national 
scenic and historic trails. This initiative is described in the August 
2001 report (requested by Congress in the fiscal year 2001 
appropriation) ``GIS For The National Trails System'' and is built upon 
work already underway on the Ice Age, Appalachian, Florida, Oregon, 
California, Mormon Pioneer and Pony Express Trails to develop 
consistent information and procedures that can be applied across the 
National Trails System. The requested funding will be shared with the 
Bureau of Land Management and the Forest Service.
    The $10.683 million we request for Park Service operations includes 
increases for many of the trails to continue the progress and new 
initiatives made possible by the $975,000 funding increase provided for 
nine of the trails in fiscal year 2001 and the $500,000 increases 
provided in fiscal year 2004, fiscal year 2005, and fiscal year 2006. 
The $717,000 we request will enable the Park Service to continue 
managing three new national historic trails--Ala Kahakai, El Camino 
Real de Tierra Adentro, and Old Spanish--the latter two co-administered 
with the Bureau of Land Management. These funds will provide full-time 
management, support projects for these trails and development of 
Comprehensive Management Plans for the Ala Kahakai and Old Spanish 
Trails. We also request $200,000 for maintenance of the Pacific Crest 
Trail in Kings Canyon/Sequoia, Lassen, and North Cascades National 
Parks.
    We request an increase of $776,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 
significant sites along the Santa Fe Trail, to develop GIS mapping, and 
to fund public outreach and educational programs of the Santa Fe Trail 
Association. An increase of $87,000 for the Trail of Tears will enable 
the Park Service to work cooperatively with the Trail of Tears 
Association to develop a GIS to map the Trail's critical historical and 
cultural heritage sites so they can be protected and interpreted for 
visitors.
    The $100,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to continue developing 
comprehensive interpretation and auto tour guides for the Oregon, 
California, Mormon Pioneer and Pony Express Trails with a library of 
trail images linked with the GIS map database of the trails.
    We request $1,837,000 for the Lewis & Clark Trail to complete 
resource protection and interpretation projects and to work with the 
public/private and inter-agency partnerships forged through the 
successful Lewis & Clark Bicentennial commemoration to develop a 
strategy for long-term cooperative stewardship of the Trail.
    All of these trails are complicated undertakings; none more so than 
the 4,200 mile North Country Trail. With more than 650 miles of Trail 
across 7 national forests in 5 states there is good reason for close 
collaboration between the Park Service and Forest Service to ensure 
consistent management that provides high quality experiences for 
hikers. The $836,000 we request will enable these agencies to 
collaborate more effectively while also providing greater support for 
the regional and local resource inventory and GIS mapping, trail 
building, trail management, and training of volunteers led by the North 
Country Trail Association, hastening the day when our nation's longest 
national scenic trail will be fully opened for use.
    The $936,000 we request will enable the Park Service to help WDNR 
and other partners to accelerate acquisition of land for the Ice Age 
Trail and further development of the Trail GIS to more efficiently plan 
resource protection, trail construction and maintenance to correct 
unsafe conditions and better mark the Trail for users. The funds will 
also provide assistance to the Ice Age Park & Trail Foundation to 
better equip, train and support the volunteers who build and maintain 
the Ice Age Trail and manage its resources.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $7 million in Challenge Cost 
Share funding to the Park Service for fiscal year 2007 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct $2.5 
million for Lewis & Clark Bicentennial projects and one-third of the 
other $4.5 million for the national scenic and historic trails to 
continue the steady progress toward making these trails fully available 
for public enjoyment. We suggest, as an alternative to the annual 
earmarking of funds from the Regular Challenge Cost Share program, that 
you establish a separate National Trails System Challenge Cost Share 
program with $1.5 million funding.

                          USDA--FOREST SERVICE

    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 16 other trails. We ask you to appropriate $3.04 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Caminos Real de Tierra 
Adentro and de Tejas, Lewis & Clark, California, Iditarod, Mormon 
Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony Express, Trail 
of Tears and Santa Fe Trails, we ask you to appropriate $933,000 
specifically for these trails.
    Work is underway, supported by funds you provided for the past five 
years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association has built 100 miles of new Trail 
across Eglin Air Force Base, in the Ocala National Forest, Big Cypress 
National Preserve and along Lake Kissimmee and the Choctawahatchee 
River. FTA volunteers helped clear trees and other debris scattered 
across 850 miles of trail by four hurricanes in 2004. The Partnership 
requests an additional $1.35 million for trail construction in fiscal 
year 2007 to enable the Forest Service and FTA to build 90 more miles 
and manage 3,410 acres of new Florida Trail land.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $4.822 million to plan 490 miles and to 
build or reconstruct 242 miles of the CDT.
    A Forest Service lands team is working with the Pacific Crest Trail 
Association (PCTA) and the Park Service National Trail Land Resources 
Program Center to map and acquire better routes for the 300 miles of 
the Pacific Crest Trail located on 227 narrow easements across private 
land or on the edge of dangerous highways. We request $200,000 to 
continue the work of the fulltime Trail Manager and the lands team and 
$100,000 for Optimal Location route planning. We also request 
$1,000,000 for new trail construction and reconstruction of fire and 
flood damaged bridges along the PCT in California and Washington by the 
Forest Service and the PCTA.

                       BUREAU OF LAND MANAGEMENT

    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of two scenic trails and 3,115 miles of 
seven historic trails administered by the National Park Service and 
U.S. Forest Service. The significance of these trails was recognized by 
their inclusion in the National Landscape Conservation System and, for 
the first time, in fiscal year 2002, by provision of specific funding 
for each of them. The Partnership applauds the decision of the Bureau 
of Land Management to include the national scenic and historic trails 
in the NLCS and to budget specific funding for each of them. We also 
applaud the recently released 10 Year ``National Scenic & Historic 
Trails Strategy and Work Plan.''
    We ask that you continue to support funding for the National 
Landscape Conservation System and that you appropriate for fiscal year 
2007 as new permanent base funding $272,000 for the Iditarod National 
Historic Trail, $230,000 for El Camino Real de Tierra Adentro National 
Historic Trail, $331,000 to continue development of the Comprehensive 
Management Plan for the Old Spanish National Historic Trail, and 
$3,150,000 for management of the portions of the nine other trails 
under the care of the Bureau of Land Management. We request $166,000 
for construction of new sections of the Continental Divide National 
Scenic Trail, $100,000 for maintenance of the Pacific Crest Trail, and 
$1,386,000 to operate four historic trails interpretive centers. We 
request that you add $500,000 to the Challenge Cost Share program and 
allocate the money for the National Trails System as you have done for 
many years with the Park Service's Challenge Cost Share program. Since 
the Bureau has no account specifically for ``trails'' in its budget we 
ask that you either direct that such an account be established or 
direct all of the requested money except the CCS to the ``Recreation 
Management'' account.

                    LAND AND WATER CONSERVATION FUND

    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement and in Attachment #2. The $5.250 million we request for the 
Pacific Crest National Scenic Trail will continue acquisition underway 
by the Forest Service and Park Service. The $5 million requested for 
the Florida National Scenic Trail will continue another successful 
collaboration between these two agencies to protect another 13 miles of 
Trail and the $5.6 million requested will protect sections of the 
Appalachian National Scenic Trail in three national forests in three 
states. The $195,000 requested for the Overmountain Victory National 
Historic Trail will protect a key link and access to a 7-mile section 
of the trail in the Pisgah National Forest in North Carolina.
    The $3.9 million requested for the Bureau of Land Management will 
close a gap in the Continental Divide Trail in New Mexico and protect a 
key section of the Pacific Crest National Scenic Trail and an important 
historical site along the Oregon National Historic Trail in Oregon.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Wisconsin has matched $7.92 million of fiscal year 
2000-2006 LWCF funding with $15.7 million to help conserve the 
resources of the Ice Age National Scenic Trail. With this 2:1 match of 
State to Federal funds, Wisconsin has purchased 34 parcels totaling 
5,694 acres and now has another 15 parcels under negotiation, appraisal 
or option to purchase. All of the LWCF funds appropriated by Congress 
for the Ice Age NST have been spent. The requested $4 Million Land and 
Water Conservation Fund grant to Wisconsin will continue this very 
successful Federal/State/local partnership for protecting land for the 
Ice Age Trail.
    The essential funding requests to support the trails are detailed 
in Attachment 2.

         PRIVATE SECTOR SUPPORT FOR THE NATIONAL TRAILS SYSTEM

    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2005 the trail organizations channeled 723,191 
hours of documented volunteer labor valued at $12,691,997 to help 
sustain the national scenic and historic trails. The organizations also 
applied private sector contributions of $7,275,556 to benefit the 
trails. These contributions are documented in Attachment 1.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 2005 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimated
                                                                     Volunteer       value of        Financial
                          Organization                                 hours         volunteer     contributions
                                                                                       labor
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference....................................         195,733      $3,435,114  \1\ $3,099,000
Camino Real Trail Association...................................             790          13,865           5,236
Continental Divide Trail Society................................       \1\ 1,500          26,325  ..............
Continental Divide Trail Alliance...............................          17,640         309,582         999,553
Florida Trail Association.......................................      \1\ 58,266       1,022,568         165,000
Ice Age Park & Trail Foundation.................................          90,524       1,588,696         564,289
Iditarod National Historic Trail, Inc...........................         \1\ 896          15,725      \1\ 80,000
Heritage Trails/Amigos De Anza & others.........................        \1\ 2000          35,100  ..............
Anza Trail Coalition of Arizona.................................           2,650          46,507  ..............
Lewis & Clark Trail Heritage Foundation.........................          87,119       1,528,938         495,796
Mormon Trails Association.......................................           1,140          20,007           4,577
Iowa Mormon Trails Association..................................         \1\ 750          13,163           1,730
Nebraska Mormon Trails Association..............................         \1\ 125           2,194           2,445
National Pony Express Association...............................          23,515         412,688         111,147
Pony Express Trail Association..................................           5,703         100,088          44,840
Nez Perce Trail Foundation......................................           6,780         118,989           8,256
North Country Trail Association.................................          35,423         621,670         217,397
Old Spanish Trail Association...................................          10,126         177,711          55,531
Oregon-California Trails Association............................          59,053       1,036,380         602,178
Overmountain Victory Trail Association..........................           7,985         140,137          36,800
Pacific Crest Trail Association.................................          41,100         721,305         577,748
Potomac Heritage Trail Association..............................       \1\ 2,535          44,489  ..............
Santa Fe Trail Association......................................          39,639         695,664         138,808
Trail of Tears Association......................................          32,199         565,092          65,225
                                                                 -----------------------------------------------
      TOTALS....................................................         723,191      12,691,997      7,275,556
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


                               ATTACHMENT 2.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM REQUESTED FISCAL YEAR 2007 APPROPRIATIONS FOR THE NATIONAL TRAILS SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal year
                                             ------------------------------------------------
                Agency/Trail                    2006 cong.      2007 admin.    2007 partners                           Project/Programs possible with increased funding
                                                  approp.         request         request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                PARK SERVICE

Ala Kahakai.................................        $259,000        $261,000        $261,000  Continue preparation of Comprehensive Management Plan (CMP) for new trail;
Appalachian.................................       1,205,000       1,217,000       1,755,000  $350,000 of the total supports volunteer-based trail and land management guided by ATC; Park
                                                                                               ranger to deal with trail encroachments; support GIS work;
Natchez Trace...............................          27,000          27,000          27,000  Planning & building new trail & bridges; backlog maintenance with SCA;
El Camino Real Tejas........................          49,000          49,000          50,000  Begin to administer new national historic trail;
El Camino Real Tierra.......................         140,000         140,000         220,000  Full-time administrator; implement CMP with Bureau of Land Management;
California..................................         278,000         278,000         303,000  Begin to develop Four Trails Images Library/Database to complement GIS Database;
Ice Age.....................................         631,000         641,000         936,000  Accelerate Trail corridor planning and land acquisition by agency partners; Increase Trail
                                                                                               development, maintenance and resource management by IAP&TF volunteers;
Juan Bautista de Anza.......................         305,000         313,000         313,000  Coordination of Trail site protection, interpretation & development projects with local agencies &
                                                                                               organizations; Outreach to schools and Latino communities;
Lewis & Clark...............................       1,798,000       1,837,000       1,837,000  Planning, coordination & support for local L&CNHT projects after the Bicentennial;
Mormon Pioneer..............................         128,000         128,000         153,000  Begin to develop Four Trails Images Library/Database to complement GIS Database;
North Country...............................         684,000         684,000         836,000  Advance Trail construction, route planning, protection and public awareness by providing regional
                                                                                               services, GIS, and technical assistance for volunteers and partners;
Old Spanish.................................         101,000         101,000         236,000  Full-time administrator; continue preparing CMP with Bureau of Land Management;
Oregon......................................         286,000         293,000         311,000  Begin to develop Four Trails Images Library/Database to complement GIS Database;
Overmountain Victory........................         170,000         174,000         286,000  New route signs & interpretive exhibits; mapping Trail sites for protection inventory, feasibility
                                                                                               study for location of Trail headquarters and visitor contact site;
Pony Express................................         182,000         182,000         207,000  Begin to develop Four Trails Images Library/Database to complement GIS Database;
Potomac Heritage............................         276,000         279,000         279,000  Assistance to local agencies & organizations for planning & educational projects;
Santa Fe....................................     \1\ 722,000         740,000       1,516,000  Preserve cultural resources; GIS mapping; produce interpretive media with SFTA;
Selma to Montgomery.........................         328,000         334,000         334,000  Comprehensive management plan developed and trail interpretation begun in collaboration with
                                                                                               citizen support organizations & local agencies;
Trail of Tears..............................         361,000         361,000         448,000  Develop GIS, interpret critical Trail sites & provide new visitor facilities with TOTA;
NTS-Washington Office.......................         336,000         340,000         375,000  Program coordination and funding for special projects and training for staff & partners
                                             ------------------------------------------------
      National Trails System................       8,266,000       8,379,000      10,683,000  Total National Trails System operations funding.
                                             ================================================
Challenge Cost Share........................   \2\ 4,843,000   \3\ 2,380,000       7,000,000  $2.5 million for Lewis & Clark; one-third of remaining $4.5 million for rest of National Trails
                                                                                               System.
Interagency GIS Project.....................  ..............  ..............   \4\ 1,253,000  Development of GIS for National Trails System;

                     BLM

Iditarod Trail..............................         248,000         248,000         272,000  Coordination and support for collaborative management with other Federal agencies, Iditarod Trail
                                                                                               organizations and State of Alaska; bridges and cabins; Interpretive Plan;
El Camino Real de Tierra Adentro............          15,000         230,000         230,000  Collaborative administration and management with National Park Service; Full-time Trail
                                                                                               Administrator; Site certification and protection;
Old Spanish.................................         235,000         331,000         331,000  Full-time Trail Administrator; Collaborative administration and management with National Park
                                                                                               Service; Continue preparation of Comprehensive Management Plan; Site protection and
                                                                                               interpretation;
Continental Divide..........................         194,000         219,000         410,000  Planning 101 miles of CDNST in Idaho, Montana and New Mexico; Interagency management
                                                                                               collaboration; Full-time CDNST Liaison;
Pacific Crest...............................          70,000          75,000          90,000  PCNST maintenance in California and Oregon; Interagency management collaboration;
Juan Bautista de Anza.......................          90,000          58,000          58,000  Interpretive exhibits for Anza Trail in Arizona and California;
California..................................         135,000         150,000         179,000  California NHT resource inventories in Utah, Nevada and California;
Lewis & Clark...............................       2,058,000       1,680,000       1,680,000  Completion of Lewis & Clark Bicentennial projects in Idaho and Montana;
Mormon Pioneer..............................         227,000         193,000         227,000  Mormon Pioneer NHT resource inventories in Utah and Wyoming;
Nez Perce...................................         142,000          27,000         149,000  Completion of Lewis & Clark Bicentennial projects in Idaho and Montana;
Oregon......................................          22,000         133,000         210,000  Interagency management collaboration and Oregon NHT resource inventories;
Pony Express................................         100,000         100,000         147,000  Marking Pony Express Trail in Utah and Nevada;
                                             ------------------------------------------------
      National Trails System................       3,164,000       3,524,000       3,983,000  Total National Trails System operations funding.
                                             ================================================
Challenge Cost Share........................  ..............  ..............         500,000  Projects along the various national scenic and historic trails;
Casper NHT Center...........................         377,000         377,000         425,000  Operating ONHT, CNHT, MPNHT, and PXNHT interpretive center in Casper, WY;
Oregon, Pompey's Pillar & Camino Real                921,000         961,000         961,000  Operating ONHT, L&CNHT, and CRTANHT interpretive centers;
 Centers.
Construction of:
    Pacific Crest Trail.....................  ..............  ..............         100,000  Funding for maintenance and re-construction of Pacific Crest NST in California;
    Continental Divide Trail................  ..............  ..............         166,000  Funding for construction and re-construction of 102 miles of Continental Divide NST in Idaho,
                                                                                               Montana, and New Mexico;

               FOREST SERVICE

Continental Divide..........................        +760,000                       1,250,000  Continued support for full administrative responsibility and for consistent interagency
Florida.....................................        +650,000                         650,000   collaboration for each trail; support for consistent management with trail organization and local
Pacific Crest...............................        +850,000                         500,000   agency partners; trail brochures, signs, project planning etc.; Also $572,500 to plan 490 new
Nez Perce Trails............................        +640,000                         640,000   miles of CDT; $200,000 for work of full-time Trail administrator and $100,000 for Optimal
                                                                                               Location Planning for PCT and $100,000 to increase Trail maintenance by volunteers coordinated by
                                                                                               PCTA; $650,000 to continue collaboration with Florida Trail Association to inventory 430 miles
                                                                                               and certify 150 miles of the Florida Trail and further develop Trail GIS; $49,000 for Nez Perce
                                                                                               Trail Foundation education and public outreach work;
                                             ----------------                ----------------
      Total.................................   \5\ 2,900,000       1,000,000       3,040,000
                                             ================                ================
Appalachian, North Country, Ice Age,                 925,000         350,000         933,000  Improved trail maintenance, marking, interpretation, archaeological studies, historic site
 Iditarod, California, Juan Bautista de                                                        protection and trailhead facilities for trail segments in National Forests; $200,000 to address
 Anza, Caminos Real Tierra Adentro & Tejas,                                                    deferred maintenance, remove blowdown trees on 30 miles of trail, make improvements and provide
 Lewis & Clark, Oregon, Old Spanish, Mormon                                                    liaison for collaborative management of the North Country Trail with National Park Service; Re-
 Pioneer, Overmountain Victory, Pony                                                           location and reconstruction of sections of the Appalachian Trail, replacement of major bridges
 Express, Santa Fe, Trail of Tears.                                                            and installation of toilets at shelters;
Continental Divide Trail....................         995,000  ..............       4,822,500  Trail construction projects along the Continental Divide Trail: reconstructing or building 242
                                                                                               miles of trail in Montana, Idaho, Wyoming, Colorado and New Mexico;
Florida Trail...............................         498,000  ..............       1,350,000  Trail construction projects totaling 150 miles of new trail and management of 3,410 acres acquired
                                                                                               by the Forest Service for the FNST;
Pacific Crest Trail.........................         995,000  ..............       1,000,000  Trail construction projects along the Pacific Crest Trail, including reconstruction of fire and
                                                                                               storm damaged bridges and structures in California and Washington; Fabrication and installation
                                                                                               of roadside interpretive signs at Trail highway crossings;
                                             ------------------------------------------------
      National Trails System................       6,333,000       1,350,000      11,145,500  Total: National Trails System funding
                                             ================================================
Nat. Forest System Trail Maintenance........      42,000,000  ..............  ..............  Trail maintenance throughout the National Forest System.
Nat. Forest System Trail Construction.......      30,500,000  ..............  ..............  New trail construction and re-construction throughout the National Forest System.
Nat. Forest System Capital Improvement &          76,000,000      60,341,000      90,000,000  Trail maintenance and new trail construction throughout the National Forest System.
 Maintenance--Trails.

               LWCF FOR TRAILS

LWCF grant--FS Pacific Crest................         500,000       1,600,000       5,000,000  USDA-Forest Service acquisition of lands in southern California (Tejon Ranch), Oregon and southern
                                                                                               Washington to preserve the scenic integrity of the Pacific Crest Trail.
LWCF grant--BLM Pacific Crest...............  ..............  ..............       1,500,000  BLM acquisition of Sky King Cole Ranch in the Cascade Siskiyou National Monument, including land
                                                                                               along Pacific Crest Trail.
LWCF grant--FS Pacific Crest................  ..............  ..............         250,000  Land acquisition program management.
LWCF grant--FS Florida......................  ..............  ..............       5,000,000  USDA-Forest Service acquisition of lands in the Northwest Florida Greenway near Eglin Air Force
                                                                                               Base and adjacent to St. Marks National Wildlife Refuge.
LWCF grant--FS Appalachian..................  ..............  ..............       5,600,000  USDA-Forest Service acquisition of 1,200 acres in the Cherokee NF in Tennessee, 820 acres in the
                                                                                               George Washington-Jefferson NF in Virginia (last unprotected segment of the Appalachian NST), and
                                                                                               970 acres in the Green Mountain NF in Vermont.
LWCF grant Ice Age--Wisconsin \6\...........       1,000,000  ..............       4,000,000  Assistance provided to State of Wisconsin to protect threatened Ice Age Trail corridor and connect
                                                                                               trail segments across private land in Dane, Chippewa, Kewaunee, Langlade, Lincoln, Manitowoc,
                                                                                               Marathon, Portage, Sheboygan, Taylor, Washington, Waupaca and Waushara Counties.
LWCF grant--BLM Oregon......................       1,600,000         750,000       1,000,000  BLM acquisition of land along the Sandy River in Oregon.
LWCF grant--FS Overmountain Victory.........  ..............  ..............         195,000  USDA-Forest Service acquisition of land to protect key link in the Overmountain Victory Trail near
                                                                                               North Cove in North Carolina.
LWCF grant--BLM Continental Divide..........  ..............  ..............       1,400,000  BLM acquisition of land between El Malpais National Conservation Area and the Gila National
                                                                                               Forest.
LWCF grant--NPS Lewis & Clark...............       1,600,000  ..............  ..............  ..................................................................................................
                                             ------------------------------------------------
      Total.................................       4,700,000       2,350,000      23,695,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Includes $2.463 million earmarked for Lewis & Clark Bicentennial projects. One-third of the remaining funds (about $813,000 of $2.44 million) are earmarked for National Trails System
  projects.
\3\ Administration request does not allocate any funds for the National Trails System. The Congressional earmark is needed to accomplish this.
\4\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\5\ Appropriation includes: $2.9 million for administration of the Continental Divide, Florida, and Pacific Crest National Scenic Trails and the Nez Perce National Historic Trail, funding for
  full-time administrators for each trail and land acquisition teams for the Florida and Pacific Crest Trails.
\6\ This would be a grant to the State of Wisconsin to be matched at least 1:1.

              Prepared Statement of the Pueblo of Tesuque

    The Presidents' proposed fiscal year 2007 budget does not include 
direct funding for Tribal Education Departments (TED's) through the 
U.S. Department of Education. Such funding is authorized by the No 
Child Left Behind (NCLB) Act of 2001. See Section 7135 of NCLB Title 
VII, codified at 20 U.S.C.  7455.
    The Pueblo of Tesuque, urges you to correct this omission and make 
appropriations for TED's so that they can join in helping states, 
school districts, and tribal students meet the challenges of 
implementing NCLB.
    Although no President's proposed budget ever has requested 
appropriations for TED's through the Department of Education, 
historically the National Education Association (NIEA) has asked 
Congress for $3 million in appropriations for TED's. We join in NIEA's 
request so that our tribal students will achieve at their potential and 
not be left behind as evidenced in today's State of New Mexico 
statistics.
                                 ______
                                 
                 Prepared Statement of American Rivers

    American Rivers, on behalf of more than 500 national, regional and 
local organizations representing more than 5 million constituents 
concerned with river conservation,\1\ urges the Committee to provide 
$7,776,233,000 for the following programs in the Interior and Related 
Agencies Appropriations bill for fiscal year 2007. I request that this 
testimony be included in the official record.
---------------------------------------------------------------------------
    \1\ These groups and individuals have endorsed the Citizen's Agenda 
for Rivers which includes the ``River Budget'' for fiscal year 2007, a 
report of national funding priorities for local river conservation. For 
more information on the Citizen's Agenda for Rivers go to 
www.healthyrivers.org.
---------------------------------------------------------------------------

                    ENVIRONMENTAL PROTECTION AGENCY

    Clean Water and Safe Drinking Water State Revolving Loan Funds.--
The Clean Water State Revolving Fund (SRF) provides capitalization 
grants to states, which in turn provide low-cost loans to communities 
for a variety of programs to clean up impaired water bodies and protect 
pristine waters. This program has been extremely effective in helping 
communities to improve water quality and provide safe drinking water. 
However, the needs to improve, repair and replace the nation's aging 
water infrastructure are tremendous. Postponing necessary water 
infrastructure investments will only defer and increase costs that must 
eventually be met. The annual need for clean water funding is close to 
$20 billion. Historically, the federal government has provided between 
10 and 20 percent of those funds or what should be $2 to $4 billion. 
The SRF programs have also been used to fund nonstructural projects 
that reduce non-point source pollution, protect estuaries, prevent 
contamination of drinking source waters, and reduce polluted runoff by 
protecting natural areas and other ``green infrastructure,'' such as 
stream buffers. These approaches are often more cost-effective then 
traditional pipe and cement options and provide a wide array of 
environmental and social benefits, including open space, wildlife 
habitat, recreation, and improved water supply. American Rivers urges 
the Committee to appropriate $3.2 billion for the Clean Water SRF and 
$2.0 billion for the Drinking Water SRF in fiscal year 2007. 
Additionally, within the funds appropriated for the Clean Water SRF 
$250 million should be used for nonstructural projects.
    Enforcement of Discharge Permits under the Clean Water Act.--The 
Environmental Protection Agency's (EPA) ability to enforce 
environmental laws is critical to our nation's efforts to fulfill the 
Clean Water Act's stated objective of restoring waters to fishable and 
swimmable conditions. It is essential that EPA maintain a strong 
enforcement presence working with the states to undertake civil and 
criminal enforcement activities at facilities that can result in real 
improvements in environmental quality. American Rivers urges the 
Committee to appropriate $492 million for EPA's Enforcement programs in 
fiscal year 2007.
    Water Efficiency.--EPA established a water efficiency market 
enhancement program in the fiscal year 2005 budget similar to the 
Energy Star program that promotes energy efficient appliances and 
practices. Promoting water efficient products and practices would 
represent a significant step forward in moving the nation towards more 
efficient water use. American Rivers urges the Committee to appropriate 
$2 million for the Water efficiency program in fiscal year 2007.
    Total Maximum Daily Loads.--The establishment of Total Maximum 
Daily Loads (TMDLs) allow states and the Environmental Protection 
Agency (EPA) to identify all sources of water quality impairment to 
rivers, streams and lakes that do not meet water quality standards, 
develop specific goals for improvement, and design plans to reduce 
pollutant loads into receiving water bodies. The development of strong 
TMDLs by the states done through funding under Section 106 of the CWA 
requires a commitment of adequate resources. American Rivers urges the 
Committee to appropriate $250 million for State Program Management 
Grants in fiscal year 2007.
    Non-point Source Management Program, Clean Water Act Section 319.--
The Section 319 Non-point Source Management Program provides grant 
money that states, territories, and Indian tribes can use for a wide 
variety of non-point source pollution reduction activities including 
technical and financial assistance, education, training, technology 
transfer, demonstration projects, and monitoring. American Rivers urges 
the Committee to appropriate $250 million for Section 319, the Non-
point Source Management Program in fiscal year 2007.
    Chesapeake Bay Program.--The Chesapeake Bay Program focuses on 
restoring tributaries, underwater bay grasses and fish passage, and 
also reducing agricultural runoff pollution and toxics. American Rivers 
urges the Committee to appropriate $30 million for the Chesapeake Bay 
Program, including $3 million Chesapeake Bay Small Watershed Grants 
Program in fiscal year 2007.
    Targeted Watersheds Grants.--The Targeted Watersheds Grants program 
provides direct grants to a limited number of watershed groups, tribes 
and communities working to improve water quality. Portions of these 
funds are designated for technical assistance programs and to train 
community groups engaged in watershed-level protection and restoration 
projects. This training is essential to protect and restore the 
nation's rivers and watersheds. American Rivers urges the Committee to 
appropriate $35 million, including $3.5 million dedicated to technical 
assistance for Targeted Watersheds Grants in fiscal year 2007.

                         NATIONAL PARK SERVICE

    Rivers, Trails and Conservation Assistance Program (RTCA).--This 
program has helped produce some of the best examples of conservation 
based local-federal partnerships by providing communities with 
assistance to help revitalize riverfronts, protect open space, and 
build trails and greenways. If funded at $15 million, RTCA could expand 
to assist approximately 250 additional projects in some 25 new and 
currently underserved locations. American Rivers urges the Committee to 
fund the RTCA program at $15 million in fiscal year 2004 in fiscal year 
2007.
    Elwha River Restoration.--Removal of Glines Canyon and Elwha dams 
will restore salmon access to the Elwha river's wilderness heart in the 
Olympic National Park for the first time in 100 years. This dam removal 
will produce a landmark in river restoration for our national parks and 
an unprecedented opportunity to study a large dam removal and its 
impact on the river and wild salmon populations. American Rivers urges 
the Committee to provide $35 million to complete the restoration of the 
Elwha River ecosystem and its fisheries.
    Dam Safety Program.--Dams that have outlived their average life 
expectancy now threaten the health of rivers inside the National Park 
System. Of the 482 dams in the Park System, some 330 are in poor or 
fair condition. Since its formation, the Dam Safety program has 
repaired 198 dams and removed 159 hazardous dams. American Rivers urges 
the Committee to fund the Dam Safety Program at $3.6 million in fiscal 
year 2007.

                     U.S FISH AND WILDLIFE SERVICE

    National Fish Passage Program.--Working with local, state, tribal, 
and federal partners, the Fish Passage Program has used $2.3 million, 
with partners matching $6.2 million (73 percent) of total costs to 
initiate projects, opening more than 3,000 miles of river and 60,000 
acres of wetlands for fish spawning and rearing habitat. This program 
is key to the success of the Administration's new small dam removal 
initiative coordinating with NOAA and NRCS. American Rivers urges the 
Committee to appropriate the National Fish Passage Program with $5 
million in fiscal year 2007.
    Fisheries Restoration and Irrigation Mitigation Act Program (FRIMA) 
is a unique voluntary program that helps improve anadromous and 
resident fish passage through installing better fish screens for 
irrigation and water diversions in Oregon, Washington, Idaho and 
western Montana without impairing existing water withdrawals. American 
Rivers urges the Committee to fund Fisheries Restoration and Irrigation 
Mitigation Act Program at $5 million in fiscal year 2007.
    Partners for Fish and Wildlife Program.--This program has worked 
with more than 27,000 landowners to restore 574,800 acres of wetlands; 
884,800 acres of native prairie, grassland, and other upland habitats; 
and 4,190 miles of riparian and in-stream aquatic habitat. American 
Rivers urges the Committee to appropriate $52.2 million for the 
Partners for Fish and Wildlife program in fiscal year 2007.
    Coastal Program.--The Coastal Program has worked through 
partnerships to reopened 3,300 miles of coastal streams for anadromous 
fish passage; restored 54,160 acres of coastal wetlands, 19,670 acres 
of coastal upland habitat, 645 miles of riparian habitat; and protected 
230,000 acres of habitat through conservation easements since 1994. 
American Rivers urges the Committee to fund the FWS's Coastal Program 
at $15 million in fiscal year 2007.
    National Fish and Wildlife Foundation (NFWF).--Every 
Congressionally appropriated dollar given to the Foundation translates 
into an average of three dollars in on-the-ground conservation. NFWF 
has made more than 5,000 grants and committed more than $226 million in 
federal funds. Matched with non-federal dollars, NFWF funds have 
delivered more than $617 million for conservation. American Rivers 
urges the Committee to fully fund the National Fish and Wildlife 
Foundation at $28 million in fiscal year 2007.

                         U.S. GEOLOGICAL SURVEY

    These water resource investigation programs provide vital 
information on water quality conditions and trends on the health of our 
nation's rivers and water supply. American Rivers urges the Committee 
to provide the following amounts in fiscal year 2007:
  --National Water Quality Assessment Program: $70 million
  --Toxic Substances Hydrology Program: $17.4 million
  --National Streamflow Information Program: $28.4 million

                        OFFICE OF SURFACE MINING

    Abandoned Mine Land Program--Clean Streams Initiative.--The Clean 
Streams Initiative coordinates and funds community, citizen, and 
government abandoned mine reclamation efforts. American Rivers urges 
the Committee to appropriate $285 million to the Abandoned Mine Land 
Program and should earmark $20 million for the Clean Streams Initiative 
in fiscal year 2007.

                         WILD AND SCENIC RIVERS

    Bureau of Land Management: Land Use Planning--National Landscape 
Conservation System.--The Bureau of Land Management is responsible for 
managing 36 wild and scenic rivers, as part of the National Landscape 
Conservation System. American Rivers urges the Committee to appropriate 
$7 million for WSR Management and $5 million for completion of WSR 
studies in fiscal year 2007.
    U.S. Forest Service: National Forest System--Recreation, Heritage, 
and Wilderness.--The U.S. Forest Service has responsibility for the 
largest number of wild and scenic rivers and has a mandate to complete 
studies of potential wild and scenic rivers through its forest planning 
process. American Rivers urges the Committee to appropriate $9 million 
for Forest Service wild and scenic river management, $3 million for the 
creation of river management plans, and $3 million for completion of 
wild and scenic river studies in fiscal year 2007.
    U.S. Fish and Wildlife Service: National Wildlife Refuge System.--
The U.S. Fish and Wildlife Service manages nine wild and scenic rivers 
and must study rivers located on national refuge lands for potential 
designation. American Rivers urges the Committee to appropriate 
$1,787,000 for FWS wild and scenic river management, restoration and 
studies in fiscal year 2007.
    National Park Service.--The National Park Service manages 36 wild 
and scenic rivers and is responsible for studying rivers both in 
National Park areas and outside of federal lands.
  --Rivers and Trails Studies.--American Rivers urges the Committee to 
        appropriate $1 million for wild and scenic rivers studies and 
        $16 million for wild and scenic river management in fiscal year 
        2007.
  --Partnership Wild and Scenic Rivers.--American Rivers urges the 
        Committee to appropriate $1.846 million for Partnership Wild 
        and Scenic rivers in fiscal year 2007
    None of these agencies currently receives sufficient funding to 
adequately protect our nation's Wild and Scenic Rivers System and to 
ensure that a broad diversity of rivers are represented.

                  PENOBSCOT RIVER RESTORATION PROJECT

    An unprecedented approach to river restoration that will 
reconfigure hydropower facilities and maintain energy production while 
opening up more than 500 miles of habitat to 10 native species of 
anadromous fish, improve water quality, boost wildlife and create new 
opportunities in communities along New England's second largest river. 
American Rivers urges the Committee to appropriate $10 million for the 
Penobscot River Restoration Project for in fiscal year 2007.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund (LWCF) provides much-needed 
dollars for purchasing ecologically important lands. LWCF has proven 
highly successful, projects have helped states and localities purchase 
some 2.3 million acres of land and advanced river restoration through 
acquisition of riverside lands to serve as buffer zones. In particular, 
there are three river protection projects that deserve funding this 
fiscal year: the USFS Goose Creek, Phase 3 (CA) needs $2.7 million in 
fiscal year 2007; the USFS Beaver Creek and Marsh (WA) needs $1.5 
million; and the BLM Sandy River (OR) needs $1 million. American Rivers 
urges the Committee to appropriate $900 million for the Land and Water 
Conservation Fund in fiscal year 2007.
                                 ______
                                 
     Prepared Statement of the Public Service Company of New Mexico

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Sub activity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Sub activity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the Committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Interior--Bureau of Indian Affairs.--The 
Puyallup Tribe has analyzed the President's fiscal year 2007 budget and 
submit the following detailed written testimony to the Senate Interior 
Subcommittee on the proposed funding bill for the Dept. of Interior and 
Related Agencies. In the fiscal year 2006 budget process, the Puyallup 
Tribe supported actions of Congress to restore the base level funding 
for various programs. We look forward to working with the 109th 
Congress to insure that funding levels for programs necessary for the 
Puyallup Tribe to carry-out our sovereign responsibility of self-
determination and self-governance for the benefit of Puyallup tribal 
members and the members from approximately 435 federally recognized 
Tribes who utilize our services are included in the fiscal year 2007 
budget. The following provides a brief review of the Puyallup Tribe's 
priorities and special appropriation requests for fiscal year 2007;
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 435 Tribes and Alaskan 
Villages. The Puyallup Nation Law Enforcement Division currently has 
twenty-six (26) commissioned officers to cover 40 square miles of 
reservation in addition to the usual and accustomed areas. The officers 
are charged with the service and protection of the Puyallup Reservation 
seven days a week, twenty-four hours a day. We currently operate with 
limited equipment, patrol vehicles requiring constant repair and 
insufficient staff levels. With the continuing increase in population, 
increase in gang related activities on the Puyallup Reservation and the 
impact of the increase in manufacturing of meth amphetamines in the 
region, the services of the Puyallup Nation Law Enforcement Division 
are exceeding maximum levels.
    A major area of concern is the status of the Tribe's Regional 
Detention Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the Tribe's ability to house detainee's but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the Tribes ability to house 
juvenile detainees. With no juvenile facilities, Native American youth 
are sent to non-native facilities. These and other issues regarding the 
deplorable conditions existing in Indian Detention facilities is 
documented in the September 2004 report issued by the U.S. Department 
of Interior Inspector General's Office.
  --Request Subcommittee support to fund the BIA Public Safety and 
        Justice Law Enforcement activities at the $201 million level 
        proposed in the fiscal year 2007 budget to operated law 
        enforcement services.
  --Support from the Subcommittee on the Tribes request for funding to 
        design and construct an Adult & Juvenile Detention Facility on 
        the Puyallup Reservation, in the amount of $6.5 million.
  --Support from the Subcommittee to restore proposed funding cuts to 
        the Tribal Courts budget in the amount of $5.3 million and 
        request that the Subcommittee issue directive language to the 
        BIA to include this amount as line item funding for the Tribal 
        Courts in the fiscal year 2008 budget.
    Fisheries & Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and Governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
Non-Indian fisherman, and surrounding communities. Our Resource 
Management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek support and endorsement 
in the following areas:
  --Tribal Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on Bull Trout and Chinook 
        Salmon which is in an highly urbanized setting more so than any 
        other Pacific Northwest Tribe. We request Committee support to 
        increase base contract funding in the amount of $350,000.00 for 
        additional fisheries staff. We further support the Northwest 
        Indian Fisheries Commission's request for the existing BIA 
        hatchery maintenance budget be increased to $1.5 million per 
        year for the next decade to meet basic infrastructure 
        maintenance costs for tribal hatcheries.
  --Western Washington Timber-Fish-Wildlife Program/Forest and Fish 
        Report (TFW-FFR) The TFW-FFR Program has allowed for the 
        expansion of tribal participation in the state forest practice 
        rules and regulations that have an affect on listed salmon 
        populations. Tribes bring a high level of skills and technical 
        capabilities that if appropriately funded, would greatly 
        facilitate and enhance a successful outcome in state forest 
        practice, rules, regulations and greater fish protection. 
        However, base funding for this program is being proposed to be 
        discontinued in the President's fiscal year 2007 budget. 
        Continued funding in this area is essential to facilitate 
        tribal participation in monitoring, research, data analysis and 
        adaptive management processes that are a cornerstone to the 
        TFW-FFR process. We request Committee support for base funding 
        level of $3 million in base funding for the TFW fiscal year 
        2007 budget. We further support the Northwest Indian Fisheries 
        Commission's request that the Subcommittee issue directive 
        language to the Bureau of Indian Affairs to include this amount 
        in their fiscal year 2008 budget.
  --Unresolved Hunting and Fishing Rights Program.--The Medicine Creek 
        Treaty secured the Puyallup Tribe and other tribes the right to 
        hunt on open and unclaimed lands. This treaty right is reserved 
        in the same paragraph that also reserved the right to fish and 
        gather shellfish. Unfortunately, the BIA program that is 
        designed to support this treaty activity has not received 
        adequate, if any, appropriations in the last several years. 
        Funds that were made available to tribes have been on a 
        competitive basis with a maximum amount per program due to 
        limited funding. The Puyallup Tribe has established a Hunting-
        Wildlife Management program that works cooperatively with 
        signatory Tribes to the Medicine Creek Treaty, Washington 
        Department of Fish and Wildlife, U.S. Forest Service and the 
        National Park Service. For further development and 
        participation in unresolved hunting issues, the Puyallup Tribe 
        is requesting Committee support for establishment of base 
        funding of $95,000.00 for the Hunting-Wildlife Management 
        Program. We further support the Northwest Indian Fisheries 
        Commission's request to restore $320,000 to the Unresolved 
        Hunting and Fishing Rights line item and request that these 
        funds be appropriated to the base budget.
    Operation of Indian Programs & Contract Support Costs.--The 
President's fiscal year 2007 budget calls for $1.966 billion to be 
allocated to the Bureau of Indian Affairs Operation of Indian Programs, 
which is an increase of $4.4 million from the fiscal year 2006 enacted 
level. For the fiscal year 2007 budget, the Department of Interior 
reformulated its presentation of the Operation of Indian Programs 
funding. Previous formulations were based on Tribal Priority 
Allocations (TPA). The Interior's new format groups program funding 
according to functions which are; Tribal Government; Human Services; 
Trust-Natural Resources Management; Trust-Real Estate Services; 
Education; Public Safety and Justice; Community and Economic 
Development; and Executive Direction and Administrative Services. These 
budget functions include the majority of funding used to support on-
going services at the ``local tribal'' level, including; law 
enforcement, natural resources management (fisheries), child welfare, 
housing, tribal courts and other tribal governmental services. These 
functions, as detailed in previous ``TPA'' allocations have not 
received adequate funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases ``TPA'' has received over the past few years has not been 
adequate to keep pace with inflation. At a minimum, we request your 
support and endorsement in the following:
  --Support by Congress to fund the Operation of Indian Programs fiscal 
        year 2007 request, at a minimum, at the requested amount of 
        $1,966,000,000, an increase of $4.4 million.
  --Support by Congress to restore funding for the Johnson O'Malley 
        Program in the amount of $16,300,000.
    Another concern the Puyallup Tribe has with the fiscal year 2007 
budget request is the on-going issue of contract support costs. The 
President's fiscal year 2007 budget request includes an increase of $19 
million over the fiscal year 2006 enacted level for BIA Contract 
Support Costs. At a minimum, we request your support and endorsement in 
the following;
  --Support by Congress to fund, at a minimum, BIA Contract Support 
        Costs for fiscal year 2007 as proposed in the President's 
        budget request. Full funding of Contract Support is a mandate 
        towards the full realization of Self-determination and Self-
        governance.
    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their health care programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to an expanding population in Tacoma and Pierce 
County, Washington. There are no IHS hospitals in the Portland Area so 
all specialties and hospital care have been paid for out of our 
contract care allocation. In recent years our Health Authority has had 
the highest patient visits in both medical and dental services in the 
Portland Area of Washington, Oregon and Idaho. It is operating at twice 
the capacity it was designed and staffed for. In fiscal year 2005 our 
contract health budget went $2.8 million over what is provided by the 
IHS. The Puyallup Tribe is now faced with having to subsidize the 
Puyallup Tribal Heath Authority when its own tribal members constitute 
only 14 percent of the patient population. Because of the excessive 
demand for service we have had to add staff without the IHS funding in 
order to match the workload. An additional $6 million is needed to 
operate at this rate.
    Adequate funding for the continued operations and delivery of 
quality care is essential. PTHA, like most IHS and tribal facilities, 
are annually asked to do more with less whether the federal budget is 
in a surplus or a deficit. This is no longer possible. This continued 
philosophy has put our clinic system into a funding crisis. IHS has 
lost $1.9 Billion in purchasing power since 1992. Preserving purchasing 
power and ensuring that medical needs are met must be paramount to 
Tribes, IHS and HHS.
    The IHS Budget request is for an increase of $130 million over the 
fiscal year 2006 level for pay costs, population growth, inflation and 
staffing requirement at new facilities. It is, however, estimated that 
it will take an increase of $482 million to maintain current facilities 
and services in fiscal year 2007. We request congressional support for 
the fiscal year 2007 IHS budget in the following areas:
  --Fund IHS Contract Support Costs at 100 percent. While the 
        President's budget includes an increase of $2 million for 
        Contract Support Costs funding, this will not fund tribe's 
        actual contract support costs. It is estimated that the IHS 
        Contract Support Cost shortfall is currently over $70 million. 
        Funding for IHS Contract Support Costs at 100 percent is 
        requested and essential;
  --We oppose the proposed elimination of the Urban Indian Health 
        Program, which was funded at $32.7 million in fiscal year 2006. 
        The budget request states that this program duplicates other 
        community health center services, with no evaluation or 
        evidence to support this contention or the impacts of 
        eliminating funding for this program will have on the American 
        Indian and Alaska Native populations. We urge the Subcommittee 
        to restore funding for the Urban Indian Health Program, at a 
        minimum $32.7 million, and issue directive language to the 
        Indian Health Service to include this amount in their fiscal 
        year 2008 budget.
  --Fund the Puyallup Tribal Health Authority contract health care fund 
        an additional $4.8 million to match expenditures.
  --Fund the Puyallup Tribal Health Authority's direct care services 
        the additional $6 million it needs to match its doubled 
        workload since it was staffed in 1993.
  --Index Contract Care to population growth and the medical inflation 
        rate. Contract care is most vulnerable to inflation since 
        services are provided by vendors constrained by IHS guidelines. 
        There are no IHS hospitals in the Pacific Northwest which makes 
        our clinic dependent on Contract Care for necessary specialty 
        referrals and hospital care. Contract Health Services should be 
        increased by $62.3 million for fiscal year 2007;
  --The Indian Health Care Improvement Act (Public Law 94-437) provides 
        funding for the Indian Health Services. Re-authorization of 
        this Act was due in 2000 and subsequently has been extended by 
        Congress. IHCIA re-authorization was introduced in the 107th 
        and 108th Congress. While the Health and Human Services 
        Secretary has pledged support for re-authorization of the 
        IHCIA, the bill has failed to satisfy the Administration for 
        re-authorization. The Puyallup Tribe of Indians supports all 
        efforts by Congress and the Administration to pass the Indian 
        Health Care Improvement Act during this session of Congress.
                                 ______
                                 
      Prepared Statement of the Quabbin to Cardigan Conservation 
                             Collaborative

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of an 
appropriation of $3,000,000 from the Forest Legacy Program for the Robb 
Reservoir/Willard Pond tract in New Hampshire, a $2,500,000 
appropriation from the Forest Legacy Program to the Southern Monadnock 
Plateau project in Massachusetts, and a $1,000,000 appropriation from 
Federal Land and Water Conservation Fund to the Temple Mountain project 
in New Hampshire.
    The Quabbin to Cardigan Collaborative (Q2C) is a public/private 
partnership of more than twenty private conservation organizations and 
public agencies seeking to protect a broad corridor of interconnected 
public and private conservation lands along the Monadnock Highlands, 
which stretch more than one hundred miles from the Quabbin Reservoir in 
central Massachusetts north to New Hampshire's Mt. Cardigan, and beyond 
to the White Mountains. Thanks to a long history of farsighted private 
and public land protection and stewardship, the region contains one of 
the largest remaining areas of intact contiguous forest in central New 
England. But today an unprecedented combination of factors--the 
globalization of the forest products industry, growing development 
pressure, and sharply rising land values--threaten the future of the 
region's unique landscape and way of life.
    Harnessing the full resources and expertise of the region's public 
and private conservation organizations in a coordinated effort, the 
Collaborative seeks to conserve large forest blocks while they are 
still in relatively unfragmented ownerships, and secure links between 
new and existing conservation lands to form a continuous corridor of 
conservation and protected working forest land. In keeping with the 
region's traditions, the Collaborative supports conservation on a 
strictly willing-seller basis through a combination of conservation 
easements and fee acquisitions, managed by private owners, conservation 
organizations and public agencies. The three projects that are the 
subject of this testimony are all high priorities for the Quabbin to 
Cardigan Collaborative.

        ROBB RESERVOIR/WILLARD POND, 1,667 ACRES, NEW HAMPSHIRE

    The Quabbin to Cardigan Collaborative supports a $3,000,000 
appropriation from the Forest Legacy Program to the Robb Reservoir/
Willard Pond project in New Hampshire. The project would protect a 
1,667-acre tract in Cheshire County, one of the few areas in southern 
New Hampshire where large unfragmented blocks of forestland can still 
be found. Protection of the property will link together the 1,466-acre 
Willard Pond New Hampshire Audubon Wildlife Sanctuary with two other 
private easements. Altogether these conservation efforts will link a 
block of over 40,000 acres of permanently protected forestland in a 
densely populated area of the state.
    Under the terms of a conservation easement, the project area would 
continue to provide public access for hunting, hiking, nature viewing, 
cross-country skiing, and snowshoeing, as well as fishing for warm and 
cold water species in the North Branch River and Robb Reservoir. A 
network of established recreation trails will connect this property to 
an adjacent trail network at the Audubon wildlife sanctuary. 
Mountainous portions of the property offer unobstructed views of the 
reservoir and surrounding mountains, and provide excellent vantage 
points for wildlife viewing. The Robb Reservoir/Willard Pond property 
is home to diverse and interesting plant and animal species. Several 
state threatened and endangered species have been documented on the 
property including the bald eagle, pied-billed grebe, osprey, purple 
martin, and northern harrier.
    New Hampshire has recognized Robb Reservoir/Willard Pond as its 
number one priority for the Forest Legacy Program this year, and $3 
million has been included for the project in the President's fiscal 
year 2007 Budget. This year, a total appropriation of $3 million of 
Forest Legacy funding is needed to acquire and protect the 1,667-acre 
Willard Pond/Robb Reservoir property.

     SOUTHERN MONADNOCK PLATEAU PROJECT, 2,270 ACRES, MASSACHUSETTS

    The Quabbin to Cardigan Collaborative also supports a $2,500,000 
appropriation from the Forest Legacy Program to the Southern Monadnock 
Plateau project in Massachusetts. The project would permanently protect 
approximately 2,270 acres of forested land in the towns of Ashburnham 
and Westminster. The Southern Monadnock Plateau Project seeks to weave 
a viable network of permanently protected forested landscapes linking 
more than 15,000 acres of currently protected land held by the state, 
local governments and land trusts in both Massachusetts and New 
Hampshire. The MA Natural Heritage and Endangered Species program has 
identified 1,595 acres of the project as containing significant 
wildlife habitat and the project includes lands containing three state-
listed rare species: the Sand Violet, Ebony Boghaunter and Subarctic 
Darner dragonfly.
    The entire Southern Monadnock Plateau project falls within the 
designated region of the Quabbin to Cardigan Collaborative. In 
addition, the Q2C Collaborative has identified the Midstate/Wapack 
Trail corridor as a special focus area for conservation efforts with 
over 800 acres of the land proposed for protection in this project are 
within this focus area. Complementary strategic efforts underway in NH 
to protect large contiguous blocks of forest land along the Wapack 
Trail. Currently only approximately 50 percent of the overall Midstate 
Trail corridor is protected (only 30 percent in Westminster), and like 
the forestland is threatened by fragmentation due to increasing 
development pressures. This project protects over three miles of 
Midstate Trail, ensuring continued public access along this popular 92-
mile, historic trail. Safeguards the public's right to use the trail by 
securing formal easements across project lands.

               TEMPLE MOUNTAIN, 352 ACRES, NEW HAMPSHIRE

    The Quabbin to Cardigan Collaborative supports a $1,000,000 
appropriation from the Federal Land and Water Conservation Fund to the 
Temple Mountain project in New Hampshire. Monadnock Conservancy, in 
partnership with the New Hampshire Department of Resources and Economic 
Development, is seeking the appropriation for the protection of a 352-
acre property on Temple Mountain in the towns of Temple, Sharon, and 
Peterborough.
    Temple Mountain is one of the most visible and beloved landmarks in 
southern New Hampshire. The subject property includes a prominent 
ridgeline, seven distinct natural communities, a spectacular section of 
the 21-mile Wapack Trail, a cross-country ski trail network, and remote 
wildlife-rich wetlands. The land abuts existing conservation areas, 
including Miller State Park on Pack Monadnock. The Conservancy and the 
state are working to establish a new state park at the site of the 
former Temple Mountain Ski Area. The state park proposal enjoys the 
public support of local, state, and federal officials. If successful, 
the Temple Mountain acquisition would be the first new state park in 
southern New Hampshire in more than 25 years, and is the NH Department 
of Resources and Economic Development's highest priority for 
acquisition anywhere in the state.
    The mountain's owners are currently offering the property to the 
state for $1,000,000, which is below appraised value. They are very 
supportive of conservation, but cannot afford to hold the land for much 
longer. It is important that the acquisition be completed no later than 
June 2007.
    Thank you Mr. Chairman, for the opportunity to present this 
testimony in support of this request.
                                 ______
                                 
  Prepared Statement of the Arkansas River Basin Interstate Committee

    Mr. Chairman and members of this distinguished Committee, my name 
is Lew Meibergen. I am Chairman of the Board of Johnston Enterprises 
headquartered in Enid, Oklahoma. It is my honor to serve as Chairman of 
the Arkansas River Basin Interstate Committee, members of which are 
appointed by the governors of the great states of Arkansas, Colorado, 
Kansas, Missouri, and Oklahoma.
    In these times of war on terrorism, homeland defense and needed 
economic recovery, our thanks go to each of you, your staff members and 
the Congress. Your efforts to protect our nation's infrastructure and 
stimulate economic growth in a time of budget constraints are both 
needed and appreciated.
    Our nation's growing dependence on others for energy, and the need 
to protect and improve our environment, make your efforts especially 
important. Greater use and development of one of our nation's most 
important transportation modes--our navigable inland waterways--will 
help remedy these problems. At the same time, these fuel-efficient and 
cost-effective waterways keep us competitive in international markets. 
In this regard, we must maintain our inland waterway transportation 
system. We ask that the Congress restore adequate funding to the Corps 
of Engineers budget--$6.7 billion in fiscal year 2007--to keep the 
nations navigation system from further deterioration. If this 
catastrophic problem is not addressed immediately, we are in real 
danger of losing the use of this most important transportation mode.
    As Chairman of the Interstate Committee, I present this summary 
testimony as a compilation of the most important projects from each of 
the member states. Each of the states unanimously supports these 
projects without reservation. I request that the copies of each state's 
individual statement be made a part of the record, along with this 
testimony.

                       EQUUS BEDS AQUIFER--KANSAS

    Equus Beds Aquifer Storage and Recovery Project.--Continuation of a 
City of Wichita, Groundwater Management District No. 2 and State of 
Kansas project to construct storage and recovery facilities for a major 
groundwater resource supplying water to more than 20 percent of Kansas 
municipal, industrial and irrigation users. The project will capture 
and recharge in excess of 100 million gallons per day and will also 
reduce on-going degradation of the existing groundwater by minimizing 
migration of saline water. Federal authorization of the project through 
House Bill 1327 introduce last year or through similar legislation this 
year. Construction Phase One is scheduled for completion in 2007. 
Continued federal funding is requested for fiscal year 2007 consistent 
with this legislation which will authorize funding for 25 percent of 
the project cost up to a maximum of $30 million during the construction 
phases.

                 ARKANSAS RIVER NAVIGATION IMPROVEMENTS

    Mr. Chairman, Public Law 108-137 authorized a 12-foot channel on 
the McClellan-Kerr Arkansas River Navigation System.--The Corps is now 
obligated to operate and maintain the system as a 12-foot channel. Over 
90 percent of the system currently is adequate for a 12-foot channel. 
Deepening the remainder of the channel to 12 feet will allow carriers 
to place 43 percent more cargo on each barge, which will reduce the 
amount of fuel consumed and emissions released. Other environmental 
benefits include the creation of new aquatic habitat through new dike 
construction and the construction of least tern islands through 
beneficial use of dredged material.
    Therefore, we request $40 million to construct dike structures to 
scour out the channel, and dredge necessary areas for improving the 
depth of the channel. This investment will increase the cost 
competitiveness of this low cost, environment-friendly transportation 
mode and help us combat the loss of industry and jobs to overseas.

                    TOW HAULAGE EQUIPMENT--OKLAHOMA

    We request funding of $5.0 million to initiate the installation of 
tow haulage equipment on the locks located along the Arkansas River 
portion of the McClellan-Kerr Arkansas River Navigation System. Total 
cost for these three locks is $5 million. This project will involve 
installation of tow haulage equipment on W.D. Mayo Lock and Dam #14, 
Robert S. Kerr Lock and Dam #15, and Webbers Falls Lock and Dam #16, on 
the Oklahoma portion of the waterway. The tow haulage equipment is 
needed to make transportation of barges more efficient and economical 
by allowing less time for tows to pass through the various locks.
    The testimony we present reveals our firm belief that our inland 
waterways and the Corps of Engineers' efforts are especially important 
to our nation in this time of trial. Transportation infrastructure like 
the inland waterways need to be operated and maintained for the benefit 
of the populace. Without adequate annual budgets, this is impossible.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance.
                                 ______
                                 
        Prepared Statement of the Rocky Mountain Elk Foundation

    Mr. Chairman and Honorable Members of the Subcommittee: Thank you 
for the opportunity to present testimony in support of an appropriation 
of $2.5 million from the Land and Water Conservation Fund for 
acquisition projects in the Chequamegon National Forest in Wisconsin.
    The northern hardwood forests of Wisconsin are a considerable 
natural treasure in our state. The ``Northwoods'' is a place where the 
forests are interspersed with an abundance of lakes, rivers, and 
streams providing residents and visitors outstanding recreational 
opportunities. The beauty of the area has historically lured many of 
our national leaders here include President Eisenhower who loved to 
fish muskies in the pristine waters of Wisconsin, and President Kennedy 
found the area so rich in beauty and natural resources that he 
protected a portion of it as the Apostle Islands National Lakeshore. 
The Northwoods provides tens of thousands of acres of prime habitat for 
a variety of fish and wildlife, include a growing wild elk herd that 
was reintroduce to this area in 1995.
    The Forest Service has recognized the unique attributes of the 
northern forests in Wisconsin and has undertaken a land protection 
program focused on undeveloped properties along lakes and rivers and 
the consolidation of publicly owned lands for the benefit of recreation 
and natural resources. The Wild Wisconsin Waterways program has been 
supported by annual congressional funding from the Land and Water 
Conservation Fund. This year two properties are available for 
acquisition.
    The 1,150-acre Venison Creek property in Sawyer County is located 
along a tributary of the West Fork of the Chippewa River. Critical to 
the consolidation of the national forest and the expansion of 
recreational opportunities, this inholding is surrounded on three sides 
by the Chequamegon. The forests and riparian areas of the property 
support habitat for bald eagles and a known pack of gray wolves, in 
addition to the reintroduced elk herd that lives in the area.
    The 240-acre Indian Farms property in Taylor County is located on 
the North Fork of the Yellow River. This inholding is completely 
surrounded by the national forest and holds many cultural and historic 
resources. Two Native American settlements and a related cemetery are 
located on the property.
    The Rocky Mountain Elk Foundation supports these two acquisitions. 
The Venison Creek tract is particularly important as it falls within 
the dispersal area of the wild elk herd. I am very proud to say that 
the Elk Foundation is involved with the purchase of this property and 
is working with other organizations to permanently conserve and secure 
Venison Creek for future generations.
    Due to increased development and conversion of land from forest 
uses in northern Wisconsin, these two properties and their important 
natural, cultural, and recreational resources are highly threatened. An 
appropriation of $2.5 million will protect these properties in the 
Chequamegon National Forest and ensure the continued success of the 
Wild Wisconsin Waterways program.
    I thank you, Mr. Chairman, for your consideration of this testimony 
in support of Venison Creek and Indian Farms projects.
                                 ______
                                 
 Prepared Statement of the Ramah Navajo Chapter, Ramah Band of Navajos

    Mr. Chairman and Members of the Committee: As the Vice-President of 
the Ramah Navajo Chapter, Ramah Band of Navajos, I am pleased to 
present this testimony on the Department of the Interior-Bureau of 
Indian Affairs Budget and the Indian Reservation Roads (IRR) budget for 
fiscal year 2007. My testimony today focuses on providing additional 
funding for the following:
    1. To improve and meet jail standards for our Law Enforcement 
Detention facility for the amount of $500,000.00 (BIA)
    2. Funding request under the Indian Reservation Roads Program and 
Public Lands Discretionary Fund (IRRHPP) for road construction/
improvements for BIA Routes RN 122 and RN 125 for $12 million (IRR 
Funding).
    3. Windmill Repair & Maintenance funding request for $90,000.00 to 
abate urgent water safety and supply issues for our people and our 
livestock (BIA)
    4. Civic Center Building for the amount of $1,808,000.00 (BIA)

                  LAW ENFORCEMENT DETENTION FACILITIES

    The current detention facility was constructed in 1972 as a 
temporary, 48--hour holding facility. Long-term inmates were to be 
transported to Navajo Nation jails in Window Rock, AZ and Crownpoint, 
NM. However, due to court decree issued against the Navajo Nation jail 
system, inmates from our facility are no longer accepted. This is a 
serious problem for the Ramah Navajo Police Department, which is forced 
to use a short term holding facility for long-term inmates, which has 
created severe overcrowding conditions.
    According to the BIA Standards for Adult Detention Facilities, our 
detention was designed to hold six male inmates and four female 
inmates. However, the average daily population increased from 7.5 in 
1997 to 9.2 in 2005. With these conditions, there are no secure cells 
for segregation or detoxification, nor are there separate rooms for 
visitations and recreation. Furthermore, supervision of inmates is a 
constant problem. The other problem with our current facility is 
structural deterioration. During recent inspections by the Indian 
Health Service's, Environmental Health Department, several structural 
deficiencies were noted. This includes cracks in the walls indicating 
that the foundation is settling and that the facility does not meet 
handicapped accessibility standards. With these overcrowding and 
security issues, and the fact that the facility does not meet modern 
jail standards, the Ramah Navajo Police Department, the Ramah Navajo 
Chapter and the Navajo Nation are extremely vulnerable to liability and 
litigation.
    To compound the problem, the Director of BIA Law Enforcement 
Services recently issued a directive to tribal jails limiting the 
number of inmates to its current capacity. Should a tribal facility 
continue to hold inmates above the established capacity, the facility's 
funding from the BIA would be withdrawn. Since our detention facility 
receives funds from the BIA for operations, we had to adhere to this 
directive thus, further limiting the number of inmates we can hold. By 
our compliance, it is also placed a limitation on our District Court 
Judge on sentencing. This creates a concern when a person facing a 
mandatory jail sentence cannot serve a jail term such as a multiple DUI 
offender.
    In an attempt to address the need for a new jail facility, the 
Ramah Navajo Community has committed ten acres of land for the 
construction of a new facility. Since then, the Chapter officials have 
presented proposals for construction of new facility to the State of 
New Mexico, Cibola County, Department of Justice and Congress. Funding 
for a new facility was estimated at $5 million. To this date, none of 
these proposals have received funding.
    Without the realization of funds to construct a new facility, the 
Chapter has initiated plans to add on and renovate the existing 
structure. Included in this effort is to purchase a separate office 
facility. By moving office space out, the current office space would be 
used to add additional holding cells.
    The Chapter has estimated the total cost of additions and 
renovations at $500,000.00. The following is a budget of this amount:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Modular Office Building.................................        $100,000
Modular Cell Unit.......................................         300,000
Renovations to existing facility........................         100,000
                                                         ---------------
      Total Amount Requested............................         500,000
------------------------------------------------------------------------

                    INDIAN RESERVATION ROADS FUNDING

    The Ramah Navajo Chapter receives approximately $1.1 million per 
year for road construction, and to complete the two roads BIA RN-125 
and RN-122, it will require approximately twenty years to complete 
under the current Indian Reservation Roads (IRR) program. The previous 
transportation authorization has authorized million of dollars for 
Public Land Discretionary Projects. The two roads mentioned are 
projects vital to the Ramah Navajo Chapter because they will 
dramatically improve school bus routes that are in grave disrepair on 
the reservation. They will also serve New Mexico's overall 
transportation infrastructure by providing improved access to 
Interstate Route 40, which is important, both for the traveling public 
and for the Chapter's homeland security needs. RN 125 is a north-south 
paved road traversing the entire length of the community. In addition 
it serves as a major connector for two New Mexico state roads, State 
Road 53 and 602. If RN 125 is completed, it will provide additional 
access for the traveling public and address the need for additional 
access to I-40 in case of emergency.
    RN 122 is a school bus route that loops off of RN 125 on the north 
and reconnects on the south to RN 125. Because RN 122 is unimproved, 
the cost of transporting students to and from school each day on this 
road is ever-increasing due to mounting fuel cost and vehicle 
maintenance. The school must either reduce the amount of 
transportation---which isn't a realistic option---vehicle maintenance 
and repair or divert money from other school programs to pay for the 
increase. This funding will enable us to both transport our students to 
school, and to keep education funds where they belong: in the 
classroom.
    The Chapter has estimated the total cost for RN 122 & RN 125 in the 
following budget:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
RN 122..................................................      $5,000,000
RN 125..................................................       7,000,000
                                                         ---------------
      Total Amount Requested............................      12,000,000
------------------------------------------------------------------------

                    WINDMILL REPAIR AND MAINTENANCE

    The Ramah Navajo community has a traditional pastoral economy. It 
has been the mainstay of the people and at present, one third of all 
community producer income is still derived from livestock production 
and a few dry--land farms. This winter and previous winters have been 
particularly dry, and there is no evidence that the summer will be much 
different. We know we are facing yet another drought situation, which 
will severely affect the community livestock and subsequently, 
livestock producer income.
    Approximately 60 percent of the Ramah Navajo community members who 
have no running water and live far from domestic water systems. The 
members are using water from windmills for domestic use, including 
drinking water. These sources of water are not potable and do not meet 
any health standards, thus endangering the well---being of community 
members. The second is supplying water to livestock through use of well 
and windmills. The community cannot depend on water collection in a 
series of earth stock tanks and diversions in a drought situation. The 
third is providing feed for livestock. The community cannot depend on 
rangeland, which is adversely affected by the drought.
    We are experiencing severe water shortages in the outlying areas of 
our reservation due to the ill state of repair of our windmill-driven 
water wells. The BIA originally installed these wells as far back as 
twenty and thirty years ago and have failed to maintain them, thus 
leading to current water shortage. There are no funds available from 
the BIA, the Chapter or the Navajo Nation to initiate the repairs 
needed to keep our outlying wells in proper operation or to repair and/
or upgrade wells that are no longer producing efficiently or at all. 
Repairs and upgrades includes structural repairs, replacement of pumps 
as needed, upgrading or out-changing power source and pump systems, 
repairs and segregation to stock troughs and spigots to prevent wastage 
and cross-contamination of potable water, and installation of special 
isolation conditions adapted filtered tanks for potable water.
    The Chapter has estimated the following total cost of windmill 
operations and maintenance:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Windmill Repair & replacement...........................         $50,000
Domestic Water Development..............................          30,000
Livestock Feed Assistance...............................          20,000
                                                         ---------------
      Total Amount Requested............................         100,000
------------------------------------------------------------------------

                         CIVIC CENTER BUILDING

    The Ramah Navajo Chapter House was constructed in the 1950's of 
low-grade materials that are beginning to show their age. The cement 
slab floor is cracking and settling; the cinderblock walls have no 
insulation; the windows (though more recently replaced) are drafty 
allowing dust, snow, and cold wind to enter the building; weathering 
and staining are apparent; the restrooms' plumbing is nearly shot and 
need of constant repair; and there is little sunlight or structural 
aesthetics. Though a central government building should be a pride for 
any community, our Chapter House building is in dire state of repair, 
even though we conduct regular maintenance and upkeep.
    The Chapter government administration is scattered about the 
Chapter complex in portable dilapidated and condemned trailers and 
mobile homes that has been cited by the Environmental Health Service 
with the IHS. One of these is a fairly new metal building but the rest 
are older converted mobile homes. The one housing the offices of the 
Chapter President and other elected officials is in deplorable 
condition.
    The proposed facility would include a Civic Center Building for the 
Community Government and Administration Facility with a Wellness Center 
in the basement. The Administrative Facility will provide accommodation 
for public community meetings. The Wellness Center will accommodate 
community members to have better health through regular aerobic and 
other therapeutic exercise programs, especially for a community with 
very high diabetes rates that threatens the lives of our members.
    The Chapter estimated the total cost of the Civic Center Building 
in the following budget:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Architectural and engineering fees......................        $108,000
Construction............................................       1,700,000
                                                         ---------------
      Total Amount Requested............................       1,808,000
------------------------------------------------------------------------

                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.

    Mr. Chairperson and Members of the Subcommittee: My name is Nancy 
Martine-Alonzo, and I am the President of the Board of Trustees of the 
Ramah Navajo School Board, Inc. (RNSB), which governs the BIA-funded 
Pine Hill School on the Ramah Navajo Reservation in Pine Hill, New 
Mexico. RNSB administers its federal programs under the auspices of the 
Navajo Nation through contracts under the ``Indian Self-Determination 
and Education Assistance Act'' of 1975, as amended (Public Law 93-638). 
My testimony is on the need for Congress to adequately fund BIA schools 
so they will have a fair opportunity to meet the mandates of the ``No 
Child Left Behind Act.''

                   BIA EDUCATION REORGANIZATION PLAN

    The Ramah Navajo School Board (RNSB) requests that Congress direct 
the BIA, through language in the fiscal year 2007 BIA/OIEP budget, to 
transfer the RNSB/Pine Hill School to the Ramah Navajo Agency, or, in 
the alternative, to transfer the RNSB/Pine Hill School to ``SPA/ELO New 
Mexico South,'' under the ``BIA/OIEP Reorganization Plan,''
    In 2005, the BIA proposed a Reorganization Plan for the Office of 
Indian Education Programs whereby OIEP offices and their assigned 
schools would be reorganized on a national level; held consultation 
hearings with tribal leaders; finalized its Plan; and is now proposing 
to implement this Plan. Under the proposed Plan, the RNSB/Pine Hill 
School is scheduled to be moved to ``Navajo Nation South (Grants NM),'' 
along with Alamo Navajo and Tohajiilee Navajo schools. We object to 
this transfer of the Pine Hill School to ``Navajo Nation South'' for 
several reasons.
    First, the proposed move is being done despite objections raised by 
the RNSB School Board President during the BIA's consultation hearings. 
Second, there is no apparent reason for this move other than that Pine 
Hill is a Navajo community school. Third, this move is contrary to 
local control in Indian education in that the expressed wishes of the 
community are being ignored, once again, by the BIA. Fourth, since its 
founding in 1970, the Ramah Navajo School Board, Inc., has established 
a successful relationship with the BIA's Southern Pueblo Agency (SPA), 
as witnessed by: (a) The growth of the Pine Hill School to a K-12 
school with nearly 500 students; (b) the addition of the four preschool 
programs of Head Start, FACE, Early Intervention and the Child Care 
Center; (c) the building of the School Farm and its Fair & Rodeo 
Grounds; (d) the establishment of the KTDB Radio Station, greatly 
needed in this rural community; and many other programs for the support 
of the school and community, such as the health clinic, social 
services, behavioral health, college scholarships, adult education, and 
other services. Therefore, the Ramah Navajo School Board respectfully 
requests that Congress direct the BIA to transfer the RNSB/Pine Hill 
School to the Ramah Navajo Agency or, in the alternative, to the ``SPA/
ELO New Mexico South'' under its Reorganization Plan.

                RAMAH NAVAJO RESERVATION SCHOOL BUILDING

    The Ramah Navajo School Board requests that Congress authorize $5 
million for the construction of an ``Education Multipurpose Building'' 
for the Pine Hill School on the Ramah Navajo Reservation at Pine Hill, 
New Mexico.
    The K-12 Pine Hill School is a BIA-funded Grant School that opened 
in 1975 and serves nearly 500 Ramah Navajo students in its K-12 
programs. Since the completion of all the school's buildings in 1980, 
there has been no new construction, meaning that all six major school 
buildings are at least 25 years old and are now in constant need of 
repair and renovation.
    A new multipurpose school building is needed for the following 
reasons: First, over the past 25 years, school enrollment has greatly 
increased, which requires us to add more classroom space to meet 
federal and state classroom size requirements. Second, new programs and 
services are continuously being added to the school's services, 
especially services that we were required or recommended to add in 
order to help us meet standards set under the ``No Child Left Behind 
Act.'' Third, the new ``Pine Hill School Dormitory'' that will open for 
the 2006-07 School Year will further impact school facilities since the 
new dorm will bring 100 students residing within two blocks from the 
school, instead of 25 miles away in the village of Ramah. These 
students will be using the school buildings during evenings and 
weekends as well. Therefore, a new educational multipurpose building 
will provide the additional space and functional rooms needed by the 
school's students, staff and parents. The proposed building will 
include a gymnasium and athletic training room; a computer tech room to 
enable us to link all students, teachers, staff, parents and programs 
electronically, and to keep up with advances in computer technology; 
administration offices; meeting and conference rooms with audio visual 
conferencing; classrooms for distance learning access; a school nurse's 
office; a dining area; and the usual support rooms. Our preliminary 
estimate is for a building of 24,000 square feet for $5 million.

                     BIA SCHOOL OPERATIONS SUPPORT

    The Ramah Navajo School Board, Inc., requests that Congress 
increase SEP funding by $7 million in the fiscal year 2007 budget for a 
total of $360 million, which would be at the fiscal year 2006 ISEP 
funding level. This will raise the WSU level to $4,131, $80 more than 
the fiscal year 2006 level.
    The Indian School Equalization Program (ISEP) has not received any 
meaningful increases since fiscal year 2002, when Congress increased 
ISEP by $14 million, which resulted in a WSU of $3,916 per student. In 
fiscal year 2004, ISEP received $349 million for a WSU of $3,966; in 
fiscal year 2005, ISEP was $348 million for a WSU of $3.985; in fiscal 
year 2006, ISEP was $353.5 million for a WSU of $3,974. The proposed 
budget for all School Operations is cut $9 million, from $529.6 million 
to $518.1 million. It is unlikely that the fiscal year 2007 WSU will be 
increased, but will most likely remain at the fiscal year 2006 level of 
around $4,000. While we support the intent of the ``No Child Left 
Behind Act,'' the cost of meeting the law's mandates has made it 
difficult financially to reach the standards for BIA schools. Needs 
that have built over the past 40 years continue to plague BIA schools, 
such as transportation, facilities, technology, teacher recruitment and 
retention, curricula, standards, assessments, parent involvement, fuel 
cost, and so on. Yet, these are all necessary components of education 
vitally important for American Indian students in BIA schools, who now 
may be even more ``left behind'' before the Act because of inadequate 
funding.
    It is becoming ever more difficult for BIA schools to recruit and 
retain qualified teachers since we cannot compete with New Mexico's 
public school districts, which are paying teachers an entry level 
salary of $31,000, plus sign-on bonuses as high as $14,000. And it will 
become even harder when New Mexico's proposed three-tiered licensure 
classification system is fully implemented, for then a teacher's salary 
schedule will start around $32,000 for Tier I, $45,000 for Tier II, and 
$50,000 for Tier III. BIA schools near public school districts will 
encounter drastic teacher shortages when their teachers start to 
migrate to public schools with these higher salaries. BIA schools have 
to budget, on the average, about 80 percent of their total school 
operation cost for personnel. What is left has to cover the rest of 
school operations: staff development, school supplies, curricula 
development, text books, technology, consultants, and extracurricular 
activities.

                       ADMINISTRATIVE COST GRANTS

    The Ramah Navajo School Board requests that Congress fund 
administrative cost grants at 100 percent, or $63.5 million for the 
fiscal year 2007 budget, and provide separate start-up funding for BIA-
operated schools converting to new ``grant'' and ``contract'' school 
status.
    Administrative Cost Grants (ACG) should enable tribes to exercise 
their self-determination rights guaranteed by Congress under the 
``Indian Self-Determination and Education Assistance Act of 1975.'' (An 
Act which, by the way, was largely based on the initiative and 
successful grassroots movement in the Ramah Navajo community in the 
late 1960s and early 1970s to establish its own local community-
controlled school.) Yet, Congress has only once approved Administrative 
Cost Grants at 100 percent for Grant and Contract schools. 
Consequently, the Self-Determination Act can never be fully realized 
until Congress funds the program at the 100 percent level. Until this 
happens, tribes will have to continue to administer their school 
programs with less support for their schools due to fiscal constraints.
    Administrative Cost Grants funding has gone from 74 percent to 71 
percent this year. The amount for fiscal year 2004 was $44.6 million; 
for fiscal year 2005, $44.7 million; for fiscal year 2006, $44.5 
million: and proposed for fiscal year 2007, $44.06 million. Thus, 
Administrative Cost Grant funding has decreased $596,000 in four years. 
During that time, four schools became Grant-operated schools and a 
special congressional set-a-side was authorized for their start up 
costs. However, additional set-a-sides were not reauthorized. 
Administrative Cost Grants are funded at only a 71 percent, thus 
creating less ACG grant amounts for schools that have been in the 
system. If more schools become Grant Schools (Public Law 100-297) 
without any increase in Administrative Cost Grants, the negative 
impacts becomes greater for existing Contract and Grant schools in the 
BIA system.
    The negative impact created by the shortfalls is not myth, but 
reality. Many BIA-funded school boards had to make tough decisions in 
reductions-in-force, terminating well-trained staff members and 
consolidating required programs. Some BIA schools have even switched to 
ten-month operations, which imposes more problems since there is no 
time for year-end administrative close-out work and preparation for the 
up-coming school year, not to mention the work required for the annual 
audit. Therefore, the Ramah Navajo School Board requests that Congress 
honor Public Law 93-638 and Public Law 100-297, which provide that 
American Indian and Alaskan Native entities have the right to operate 
their own education programs with adequate funding through 
Administrative Cost Grants, and that Congress must realize that without 
adequate funding, BIA schools cannot be expected to succeed or meet the 
mandates under the ``No Child Left Behind Act.''

                         STUDENT TRANSPORTATION

    The Ramah Navajo School Board requests that Congress fund the BIA 
Student Transportation Program to match the national level of $3.67 per 
mile.
    For the last 25 years, Indian tribes have requested an increase for 
student transportation funding. The failure of Congress to do so can 
only be attributed to a failure to fully understand the rural settings 
and road conditions on most Indian reservations. Every day, many BIA 
schools run their buses as many as 140 miles crisscrossing between 
paved and unpaved roads, good and terrible roads, dry and then knee 
deep in mud roads for 180 days a year. Bus transmission and drive line 
repairs are constant problems and the cost associated with school 
transportation repairs and the high cost of gasoline and diesel fuel 
absorbs most of the student transportation funds before the year is 
over. Consequently, schools have no choice but to dip into their 
limited ISEP funds to pay for transportation cost since students must 
be transported to the school before any education can begin. This then 
increases the financial burden on the total school operation costs. 
Some school buses have approached or exceeded 120,000 miles. It used to 
be that GSA would provide new buses after 60,000 miles, but that has 
not happened for the past 10 years.
    Since the 2002-03 School Year, BIA-funded schools have received 
less than $2.20 per mile: $2.17 per mile in 2002-03; $2.13 per mile in 
2003-04; and $2.15 per mile in 2004-05. Even with the increased funding 
in fiscal year 2006, the mileage support will not increase since the 
total miles increases every year, and it is likely that the per mile 
rate will stay under $2.20 per mile. We do not foresee Congress 
providing an increase that would enable BIA-funded schools to receive 
transportation support on par with public schools. A level of about 
$2.20 per mile is anticipated for fiscal year 2006, but even this falls 
far below the nationwide average of $3.21 that was reported for public 
schools in 2002. In addition to that amount, public schools also 
receive separate additional funding for fuel and maintenance, whereas 
the funds for BIA-funded schools for transportation covers all expenses 
associated with school transportation.
    On behalf of the Board of Trustees for the Ramah Navajo School 
Board, Inc., I would like to express our appreciation for your support 
for Indian education programs. I hope that our testimony will help you 
better understand the situation of American Indian schools at the 
grassroots level throughout the country.
                                 ______
                                 
          Prepared Statement of the Rivers & Trails Coalition

    Mr. Chairman and members of the Subcommittee, the Rivers & Trails 
Coalition, composed of local, regional, statewide, and national 
organizations representing hundreds of thousands of Americans 
nationwide committed to conservation and recreation, respectfully asks 
that you fund the National Park Service Rivers, Trails and Conservation 
Assistance (RTCA) program at $10.1 million in fiscal year 2007.
    Through its Rivers, Trails and Conservation Assistance program, the 
National Park Service (NPS) implements its natural resource 
conservation and outdoor recreation mission in communities across 
America. The Rivers & Trails Coalition formed many years ago to support 
this valuable field-based technical assistance program that yields 
enormous conservation and recreation benefits to communities by 
fostering partnerships between federal, state, and local interests. The 
resulting cooperation of local, state, and federal partners restores 
rivers and wildlife habitat, develops trails and greenway networks, 
preserves open space, and revitalizes communities--all contributing to 
improved quality of life and close-to-home recreation.
    RTCA is a very successful and popular program, coordinating nearly 
300 projects annually. On average, the program partners protect nearly 
700 miles of rivers, create more than 1,300 miles of trails, and 
conserve more than 61,000 acres of open space each year. RTCA staff 
provide on-the-ground assistance solely at the request and invitation 
of communities in coordinating projects, facilitating public meetings, 
serving as a liaison and convener of government and non-profit groups, 
assessing and mapping resources, developing promotional materials and 
events, and identifying sources of funding. Current demand for RTCA 
services greatly exceeds the program's capacity.
    In addition to regional trail systems and greenway development, and 
open space and river corridor protection, projects include 
transportation alternatives, brownfield redevelopment, youth 
conservation projects, and floodplain planning, among numerous other 
conservation and recreation initiatives. RTCA plays a critical role in 
creating a nationwide, seamless network of parks and open spaces, 
supporting conservation partnerships, promoting volunteerism, and 
encouraging physical activity. The Administration's HealthierUS 
Initiative explicitly highlights RTCA for its efforts in promoting 
physical activity through the development of local trails, greenways, 
and parks.
    Despite RTCA's demonstrable successes each year, RTCA funding has 
remained relatively stagnant during the last decade and has lagged well 
behind the rate of inflation. The program's funding was decreased by 
$200,000 in fiscal year 2006, resulting in significant cuts to staff 
and reduced staff participation in on-the-ground projects, diminishing 
essential services of this field-based program. RTCA currently has 
approximately 75 program staff, compared to about 90 staff in 2002.
    RTCA receives .003 of the NPS budget, less than a third of 1 
percent of the total funding for the National Park Service, yet 
succeeds in leveraging the federal investment many times over by 
building partnerships, and securing local and state funding for 
projects. The RTCA program multiplies the original federal investment 
in both direct funding and in-kind matches from local and state 
sources. Each year, the modest amount of National Park Service funding 
spent for staff time has helped leverage millions of dollars from other 
sources for its projects. Highly effective and cost efficient, the RTCA 
program is an excellent value for the American taxpayer and merits 
increased funding to accomplish its mission as a community-based NPS 
technical assistance and outreach program.
    The President's budget proposal for fiscal year 2007 calls for a 
reduction of $500,000 to the RTCA program. The Rivers & Trails 
Coalition strongly opposes the President's proposed program budget cut 
of $500,000 and respectfully requests that Congress restore funding to 
this program and increase the program budget by $2 million to meet the 
real needs that this program serves.
    The President's proposed budget cut of $500,000 would reduce 
overall funding for the program to $7.7 million. If the Administration-
proposed fiscal year 2007 funding level were to be enacted, it would 
result in severe cuts to this valuable program and put many of the 
projects presently underway at risk. It would result in a further loss 
of staff and likely closure of field offices. RTCA is not a program 
that should be cut by any amount and it actually requires a $2 million 
increase to redress its declining real budget and enable the program to 
continue and expand upon its successes throughout the country. In 2004, 
the Senate approved a funding increase of $1.5 million, but the entire 
amount was never approved by the Congress.
    We see evidence in communities across America of the tremendous 
value of RTCA-assisted projects and partnerships, and we can report the 
unparalleled success of RTCA in bringing greenways, blueways, and 
creative conservation partnerships to fruition. The requested funding 
level by the Coalition would allow this extremely beneficial program to 
continue current projects without interruption, restore recent cuts, 
put staff closer to the people they serve, and meet the outstanding 
requests from communities around the nation. We strongly believe the 
National Park Service and Congress should strengthen programs such as 
RTCA that support communities through partnerships and capacity-
building, enabling local stakeholders to better manage and conserve 
their recreational and natural resources from the bottom-up.
    We urge you to fund the Rivers, Trails and Conservation Assistance 
program at $10.1 million in the fiscal year 2007 Interior 
Appropriations bill to remedy the program's continued erosion, 
compensate for losses due to inflation, and enable the program to 
respond to growing needs and opportunities in communities throughout 
the country. Thank you for your consideration.
    Respectfully submitted by the Rivers & Trails Coalition, comprised 
of the following organizations: The Accokeek Foundation; American Canoe 
Association; American Hiking Society; American Outdoors; American 
Rivers; American Society of Landscape Architects; American Trails; 
American Volkssport Association; American Whitewater; Appalachian 
Mountain Club; Association of State Floodplain Managers; Bicycle 
Federation of America; Bikes Belong Coalition; Conservation District of 
Southern Nevada; East Coast Greenway Alliance; International Mountain 
Bicycling Association; Jacksonville Woodlands Association; Land Legacy; 
Land Trust Alliance; League of American Bicyclists; National 
Association of Service & Conservation Corps; National Audubon Society; 
National Parks Conservation Association; National Recreation and Park 
Association; New York-New Jersey Trail Conference; New York Parks and 
Conservation Association; North American Water Trails; Northern Forest 
Canoe Trail; Ohio & Erie Canal Corridor Coalition; Outdoor Industry 
Association; Outside Las Vegas Foundation; Parks & Trails New York; 
Partnership for the National Trails System; Pennsylvania Organization 
for Watersheds and Rivers; Rails to Trails Conservancy; River Network; 
Scenic America; South Carolina Dept. of Parks, Recreation, and Tourism; 
Sporting Goods Manufacturers Association; Student Conservation 
Association; Trout Unlimited; Walk Boston; Washington Area Bicyclist 
Association; Washington Trails Association; and Washington Water Trails 
Association.
                                 ______
                                 
  Prepared Statement of the Society of American Foresters, The Nature 
   Conservancy, and the National Association of State Departments of 
                              Agriculture

    The Society of American Foresters, The Nature Conservancy and the 
National Association of State Departments of Agriculture urge the 
Subcommittee on Interior and Related Agencies to appropriate $130 
million for the USDA Forest Service Forest Health Management Program. 
We also applaud your leadership in past years in securing funding for 
this vital program at levels significantly above the Administration's 
request.
    Our proposed figure would provide a slight increase over the 
program's current funding level. As a result, the Forest Service could 
continue programs vital to protecting America's forests from highly 
damaging introduced insects and diseases, including such threats as the 
Asian long-horned beetle, emerald ash borer, sudden oak death, the 
hemlock woolly adelgid, and gypsy moth. The Forest Health Management 
program also counters other introduced insects that have attracted less 
attention, but that still damage America's forests. These include a 
pathogen killing redbay and sassafras trees in coastal Georgia and 
South Carolina; and several insects and pathogens on the islands of 
Hawai`i and Guam.
    Such a funding level will also enable the USFS to continue vital 
support for the pest eradication and containment programs carried out 
by the USDA Animal and Plant Health Inspection Service. Forest Service 
expertise in the pests' biology and detection and management 
methodology is crucial to the success of these programs. Failure to 
complete eradication of the Asian long-horned beetle will expose to 
destruction hardwood forests reaching from New England into Minnesota 
and smaller areas of the West. Particularly threatened are the hardwood 
timber, maple syrup, and autumn foliage tourism industries of the 
Northeast, and street trees across the Nation valued at $600 billion.
    The threat posed by the emerald ash borer is particularly critical. 
If it spreads from Michigan, Ohio, and Indiana to the rest of the 
country, it could cause undiscounted losses of city trees worth $20 to 
$60 billion. Losses to the timber industry would be $25 billion in 
Eastern states. It is vitally important that the Forest Service effort 
targeting this insect not be reduced.
    The Forest Service has the lead responsibility for detecting and 
combating any outbreaks of sudden oak death in the hardwood forests of 
the East. While these detection efforts can be scaled back to some 
extent after several years of intense surveys, they must not be halted 
completely as the risk of this pathogen being spread by infected 
nursery plants has not been eliminated. Furthermore, greater vigilance 
is needed to prevent introductions from Europe or elsewhere of other 
pathogens threatening to cause similar levels of damage.
    Finally, the Forest Service needs adequate funding to expand its 
Early Detection project. This program has been responsible for 
detecting more than a dozen introduced insects, including two which 
threaten the economically important pine forests of the Southeast: the 
Mediterranean pine beetle and Sirex wood wasp. Steady or increasing 
funding is necessary to expand this program to cover all states and to 
develop and deploy methodologies to detect the highly damaging wood-
boring beetles.
    The agency bearing the principal responsibility for eradicating 
newly introduced forest pests is not the USDA Forest Service, but 
rather the USDA Animal and Plant Health Inspection Service (APHIS). 
USDA APHIS falls outside your jurisdiction. However, the Subcommittee 
cannot achieve its goal of protecting the Nation's forests' health as 
long as funding shortfalls undermine USDA APHIS eradication programs. 
The Society of American Foresters, The Nature Conservancy and the 
National Association of State Departments of Agriculture encourage the 
Subcommittee to work with the Agriculture appropriations subcommittee 
to find ways to increase funding for forest pest line items in the USDA 
APHIS Emerging Plant Pest account.
                                 ______
                                 
    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

    On behalf of our America's fish and wildlife agencies, I urge the 
Subcommittee on Interior and Related Agencies to support funding in the 
amount of $85 million for the State Wildlife Grants Program in the 
fiscal year 2007 Interior and Related Agencies Appropriations Act.
    The State Wildlife Grants Program is our nation's core program for 
keeping wildlife from becoming endangered. State fish and wildlife 
agencies enjoy a strong partnership with the federal government in 
managing our nation's wildlife resources. Working together, we are able 
to ensure robust fish and wildlife populations and keep species from 
declining to the point of becoming endangered. State Wildlife Grants is 
an integral element of this partnership, providing the federal 
government's share of support for proactive on-the-ground conservation 
projects aimed at declining fish and wildlife species and their 
habitats. State Wildlife Grants is not just a grants program. It truly 
is a core program of the Department of Interior for advancing a 
pressing national need.
    The President's budget includes $74.7 million, an increase of $5 
million above the fiscal year 2006 enacted level of $68.5 million. We 
appreciate the Administration's continued support for this program as a 
core component of their collaborative conservation agenda.
    Although the budget is tight, America's fish and wildlife agencies 
are recommending that Congress provide a funding level of at least $85 
million in order to restore this program back up to the highest level 
of funding it has ever received, in fiscal year 2002. Consistent 
funding is essential to the long-term success of this program, and the 
completion of wildlife action plans in every state and territory only 
underscores the need for adequate and reliable resources. A funding 
level of $85 million would send an important message about the 
Congress's commitment to following through on providing the support 
needed to implement the wildlife action plans. We are pleased that 170 
Representatives have already formally signed on to this commitment in 
the form of a ``dear colleague'' and we hope you will match that strong 
demonstration of support.
    We also urge your consideration of additional language to provide 
an incentive for states to cooperate on projects with other states as 
well as federal agencies when implementing the actions in their plans. 
Allowing implementation projects that include several states working 
together to implement actions identified in their comprehensive state 
wildlife strategies at a 75:25 match (vs. 50:50) will provide greater 
benefits to the nation. In addition, allowing federal funds to be used 
as a match for a particular State Wildlife Grants project will 
encourage greater cooperation between a federal entity within that 
state and the state wildlife agency in implementing the strategies/
plans together. The strategies/plans have the potential to encourage 
everyone to work together resulting in a greater cumulative impact as 
well as avoiding costly duplication and unnecessary overlap.
    The President's budget includes a proposal to set aside $5 million 
of the new funds recommended for State Wildlife Grants for a new 
program of competitive grants. While we appreciate the intent to reward 
effective conservation proposals, we believe that the time is not yet 
right for a new competitive program to be created within State Wildlife 
Grants. The creation of such a program should be predicated on the 
attainment of higher levels of funding. State Wildlife Grants has 
provided a tremendous enhancement to the capacity of every state to 
address wildlife conservation. While we cannot currently support the 
creation of a competitive funding program, we are committed to making 
any programs that are enacted by Congress a success. If Congress deems 
that this is an appropriate course of action, we will work together 
with the Fish and Wildlife Service to make it a success.
    In closing, I again extend the appreciation of America's wildlife 
agencies for your continued support for the state-federal wildlife 
conservation partnership. We sincerely urge you to provide our 
requested level of $85 million for State Wildlife Grants.
                                 ______
                                 
       Prepared Statement of the Stoddard Conservation Commission

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of an 
appropriation of $3 million from the Forest Legacy Program for the Robb 
Reservoir/Willard Pond tract in New Hampshire.
    Stoddard is a small hilltop town perched on the high, rocky divide 
between the Connecticut and Merrimack River valleys. While its 
population is relatively small, Stoddard is the second largest town in 
Cheshire County, geographically. Stoddard has a long history of 
sustainable timber management due in large part to the vision and 
forward thinking of the Stoddard Lumber Company's founder Christopher 
Robb, who is also Robb Reservoir's namesake. Today the town of 
Stoddard's newly prepared Master Plan clearly underscores the 
importance of maintaining the quality of life and protecting the 
natural resource beauty of the town by protecting important blocks of 
unfragmented forestland, wildlife corridors, and wetlands, including 
the Robb Reservoir/Willard Pond tract. Because of this, the Stoddard 
Conservation Commission whole-heartedly supports this request for $3 
million from the Forest Legacy Program to purchase and protect this 
``keystone'' parcel of land.
    New Hampshire's forests are the economic engine that drives tourism 
and the majority of manufacturing in the state. Private landowners and 
industries own eighty percent of the state's forestland. The New 
Hampshire Forest Legacy Program seeks to protect blocks of forestland 
of varying sizes and values that are threatened by conversion to 
nonforest uses, so that they may provide for the continuation of 
traditional forest uses. To date, more than 200,000 acres of forestland 
in New Hampshire have been protected through the Forest Legacy Program.
    The Robb Reservoir/Willard Pond project is a 1,667-acre tract in 
Cheshire County, one of the few areas in southern New Hampshire where 
large unfragmented blocks of forestland can still be found. Protection 
of the property will link together the 1,466-acre Willard Pond New 
Hampshire Audubon Wildlife Sanctuary with two other private easements. 
Altogether these conservation efforts will link a block of over 40,000 
acres of permanently protected forestland in a densely populated area 
of the state.
    The Robb Reservoir/Willard Pond project area has also been 
identified as a critical target for protection due to its ecological 
value and central location in the Quabbin-to-Cardigan Conservation 
Initiative, an inter-organizational collaborative effort organized to 
establish a contiguous conservation corridor from the southern White 
Mountains in New Hampshire to the Quabbin Reservoir in Massachusetts. 
Approximately 75 percent of the property is productive forestland and 
will be managed to provide for sustainable timber production. This 
property is under considerable development pressure because of its 
commuting distance to Concord, Manchester and Keene.
    Under the terms of a conservation easement, the project area would 
continue to provide public access for hunting, hiking, nature viewing, 
cross-country skiing, and snowshoeing, as well as fishing for warm and 
cold water species in the North Branch River and Robb Reservoir. A 
network of established recreation trails will connect this property to 
an adjacent trail network at the Audubon wildlife sanctuary. 
Mountainous portions of the property offer unobstructed views of the 
reservoir and surrounding mountains, and provide excellent vantage 
points for wildlife viewing. Documented archaeological sites, located 
along the north branch of the Contoocook River, reveal clues to the 
lifestyle of the Penacook people, who lived on this landscape for 
millennia. A historic Native American travel route, the Kon-weg-ti-ok 
Trail, once ran through the property along the river, connecting Native 
American villages.
    The Robb Reservoir/Willard Pond property is home to diverse and 
interesting plant and animal species. Several state threatened and 
endangered species have been documented on the property including the 
bald eagle, pied-billed grebe, osprey, purple martin, and northern 
harrier. In addition, a state listed endangered plant species, the 
arethusa, is found growing on the property within the three state 
designated Exemplary Natural Communities: Atlantic white cedar swamp, 
southern New England level bog, and southern New England acidic seepage 
swamp. Of these three, the Atlantic white cedar swamp is designated as 
``critically imperiled'' due to its extreme rarity. In 1991, the north 
branch of the Contoocook River, which runs through the property, was 
designated as protected by the New Hampshire Rivers Management 
Protection Program.
    New Hampshire has recognized Robb Reservoir/Willard Pond as its 
number one priority for the Forest Legacy Program this year, and $3 
million has been included for the project in the President's fiscal 
year 2007 Budget. This year, a total appropriation of $3 million of 
Forest Legacy funding is needed to acquire and protect the 1,667-acre 
Willard Pond/Robb Reservoir property.
    Thank you Mr. Chairman, for the opportunity to present this 
testimony in support of this request.
                                 ______
                                 
  Prepared Statement of the State of Colorado Oil & Gas Conservation 
                               Commission

    I am writing to urge you to prioritize funding for a project that 
will streamline oil and gas permitting, enhance oil and gas production, 
and protect the environment on federal lands. The U.S. Bureau of Land 
Management (BLM) would like to take advantage of the Risk Based Data 
Management System (RBDMS) and associated electronic commerce 
applications developed by the Ground Water Protection Council (GWPC). 
This innovative project will allow western oil and gas producing state 
agencies and the BLM to exchange permitting and other environmental 
data seamlessly. Opening this avenue for data sharing will help the BLM 
comply with the Energy Policy Act of 2005, Section 365, Pilot Project 
to Improve Federal Permit Coordination. The BLM, state agencies, and 
industry all are supportive of this project. Please consider 
appropriating $400,000 for the GWPC to manage the project.
    State oil and gas agencies and industry have relied on RBDMS 
applications to store and analyze data to make decisions that result in 
the best possible balance of exploration and environmental 
considerations. Smaller producers are often in the most need of access 
to the data in such a system because the costs associated with 
regulatory compliance affects them the most. The RBDMS electronic 
commerce approach is one of the best examples of how government, 
working with industry, can improve both production and environmental 
protection at the same time. Using this system to manage permitting and 
related data on federal lands will reduce the time, cost, and burden 
for oil and gas producers seeking federal environmental permits before 
drilling or exploration.
    I will be glad to answer any questions you may have. Thank you for 
your support.
                                 ______
                                 
       Prepared Statement of the San Diego County Water Authority

    Your support is needed in securing adequate fiscal year 2007 
funding for the Bureau of Land Management's participation in the 
federal/state Colorado River Basin Salinity Control Program. This 
important program is vital to the Colorado River water, users in San 
Diego County, as well as to the water users throughout the seven-state 
Colorado River Basin.
    The Colorado River is the primary source of drinking water for more 
than 3 million people in San Diego County. Excess salinity causes 
economic damages in the San Diego region worth millions of dollars 
annually. It also hinders local water agency efforts to stretch limited 
supplies by recycling and reusing water. The local impacts of excess 
salinity include:
  --reduced crop yields for farmers, who produce more than $1 billion 
        of agricultural products in the San Diego region;
  --the reduced useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers;
  --the increased household use of expensive bottled water and water 
        softeners;
  --increased water treatment facility costs;
  --difficulty meeting federal and, Califomia wastewater discharge 
        requirements; and
  --fewer opportunities for recycling due to excess salt in the product 
        water, which limits usefulness for commercial and agricultural 
        irrigation.
    The Salinity Control program has proven to be a very cost-effective 
approach to mitigate the impacts of increased salinity in the Colorado 
River. Continued federal funding of the Bureau of Land Management's 
portion of this important program is essential.
    Maintenance of the Colorado River's water quality through an 
effective salinity control program is an investment that avoids 
millions of dollars in economic damages caused by excess salinity.
    The Colorado River Basin Salinity Control Forum (Forum), on behalf 
of the seven Colorado River Basin states, submitted testimony to your 
Subcommittee requesting that Congress appropriate $5,200,000 to BLM in 
fiscal year 2007 for activities that help control salt contributions 
from BLM-managed lands in the Colorado River Basin. The Water Authority 
agrees with this request, and urges your support for these needed 
funds.
    The Water Authority appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance in securing 
adequate funding for fiscal year 2007.
                                 ______
                                 
            Prepared Statement of the Swan Ecosystem Center

    Mr. Chairman and Honorable Members of the Committee: Thank you for 
the opportunity to testify in support of continued federal investment 
in the Swan Valley, Montana and to specifically urge a fiscal year 2007 
$16.2 million appropriation to the U.S. Forest Service from the Land 
and Water Conservation Fund (LWCF) and a $6.2 million appropriation to 
the State of Montana from the Forest Legacy Program (FLP) for the Swan 
Valley conservation effort. The Swan Valley is unique in Montana 
because land is exceptionally good at growing trees, the rich and 
diverse habitat provides for a diversity of species, and the scenic and 
recreation amenities are superb. The people in the Swan Valley care 
deeply about this place and need help protecting it.
    Swan Ecosystem Center formed in 1996 as an inclusive 501(c)(3) 
nonprofit community group in the Swan Valley of northwest Montana. 
Anyone who lives in the Swan Valley and participates is a member. Swan 
Ecosystem Center has an office and visitor center in the U.S. Forest 
Service Condon Work Center through a partnership with the Forest 
Service. Three full-time staff and 4-7 part-time staff develop programs 
to meet SEC's mission, goals and objectives. Volunteers with diverse 
backgrounds and opinions annually contribute over 4,000 hours each 
year, a substantial commitment from a community of about 900 people. 
According to surveys, most people in the Swan Valley want to protect 
forests, wildlife and public access. This request is an important 
component of our multi-stakeholder strategy as indicated in the Swan 
Ecosystem Center Mission: We, citizens of the Upper Swan Valley, 
Montana, have a self-imposed sense of responsibility to maintain a 
strong, vital community, one involved in setting its own destiny 
through partnerships that encourage sustainable use and care of public 
and private land.
    The Swan Valley conservation effort is a cooperative venture among 
private landowners, public land management agencies, public resource 
management agencies, the community, and non-governmental organizations. 
These groups are working to develop a multi-faceted, long-term 
conservation strategy that effectively protects the significant 
ecological and recreational resources of the Swan Valley, while 
promoting the sustainable management of the valley's forest resources. 
This process has included a science-based assessment of wildlife and 
fisheries resources, timber productivity, and recreational activities 
as well as considerable input from a broad base of Swan Valley 
residents. Conservation strategies include:
  --Land and Water Conservation Fund program to protect critical 
        habitat and public recreation opportunities through Forest 
        Service acquisitions.
  --Forest Legacy Program to protect working timberlands with multiple 
        resource values through conservation easements and limited 
        acquisitions by the State of Montana.
  --Residential land conservation easement program through local land 
        trusts.
  --Habitat Conservation Plan program and other mitigation programs to 
        protect core habitat for threatened or endangered species.
  --Special conservation areas to be managed by a nonprofit community 
        group with a broad representation of interests and backgrounds.
  --Private foundation funding and investment capital to further 
        conservation objectives.
    This year, five properties totaling 2,680 acres are available for 
acquisition through the Land and Water Conservation Fund to continue 
the conservation efforts in the Swan Valley. The parcels are located 
within grizzly bear habitat and are important for species recovery. 
Some parcels also contain stream reaches important for bull trout 
habitat and other native species, important habitat for elk and other 
big game, and/or recreation resources important to Montana residents 
and visitors alike. These acquisitions will prevent further 
fragmentation of forestland ownership and land uses, and improve 
coordinated land management through blocking up of public ownership in 
areas of checkerboard ownership.
    The Swan Forest Legacy Program conservation easements and 
acquisitions will promote a sustainable working forest in the Swan 
Valley in order to maintain the forest-based economy of the Valley by 
protecting the most productive forestlands from conversion to non-
forest uses. This year's proposal helps to protect access to public 
lands, maintain traditional outdoor recreation activities and conserve 
important wildlife and fisheries habitats. The proposal includes 
acquisition of 1,655 acres of Plum Creek lands within the Swan River 
State Forest checkerboard area, which would be conveyed to the State of 
Montana for on-going forest management.
    It should be noted that private investment and commitment to 
conservation in the Swan Valley plays a significant role alongside the 
public conservation efforts. There is growing recognition that the 
conservation resources of the area blanket much of the Swan Valley, 
regardless of land ownership boundaries and that effective resource 
protection requires a multi-faceted approach. The efforts of private 
landowners, the Swan Ecosystem Center, other organizations, and private 
foundations are all contributing toward successful implementation of 
the conservation strategy.
    The funding this committee has most generously provided for fee and 
easement acquisitions in the Swan Valley in previous fiscal years has 
reduced the checkerboard ownership pattern in the area, protected 
sensitive habitat and recreation lands from development, and protected 
forestlands from conversion to non-forest uses. We are extremely 
grateful for those past appropriations, and we ask you for your 
continued support as the committee considers the fiscal year 2007 
Interior and Related Agencies Appropriation bill. Please support the 
Swan Valley Conservation Effort. Thank you for the opportunity to 
present this request.
                                 ______
                                 
         Prepared Statement of the Sterling Forest Partnership

    On behalf of over 2,000 supporters of Sterling Forest Partnership 
which advocates for the protection of Sterling Forest State Park and 
its surrounds in both New York and New Jersey, we would like to thank 
you for the opportunity to comment on the fiscal year 2007 Subcommittee 
on Interior and Related Agencies Appropriations bill.
    In particular, we urge you to provide:
  --Full $10 million funding for the Highlands Conservation Act 
        conservation partnership projects,
  --$1 million for USDA Forest Service technical assistance and 
        research programs in the Highlands, and
  --$85 million for the Forest Legacy program.
    Sterling Forest Partnership is an all-volunteer grass roots 
organization which has worked successfully over the past ten years to 
rally strong support to conserve Sterling Forest State Park lands and 
the environment of the region. We are a member of the Highlands 
Coalition and together with them strive to conserve priority lands in 
the Highlands region of NY and NJ.
    In the fall of 2004, Congress enacted and President Bush signed the 
Highlands Conservation Act, recognizing the national significance of 
the more than three-million acre Highlands region as a source of 
drinking water, productive forests and farms, wildlife habitat and 
recreation within an hour of major metropolitan areas including 
Philadelphia, New York City, Newark and Hartford. The Act authorized 
$10 million annually to assist the Highlands states in conserving 
priority lands from willing landowners, and to continue USDA Forest 
Service research and assistance to private landowners in the Highlands. 
Under the Act, the states are required to match federal funds for land 
conservation partnership projects on an equal basis to greater leverage 
these funds.
    However, in the President's budget for 2007, only $2 million has 
been included as funding for the Highlands Conservation Act which is to 
support several projects in all 4 qualifying states. We urge you to 
restore full funding of this appropriation as authorized in the 
original act.
    The Governors of the four Highlands States have jointly submitted 
projects totaling $10 million in need to the Department of the Interior 
for funding in fiscal year 2007. Our particular concern is for critical 
funding for:
               great swamp and sterling forest areas (ny)
    Cost--$10,600,000
    HCA Request--$2,500,000
    Size--1,300 Acres
Description
    Arrow Park.--New York requests funds to assist in the acquisition 
of an addition to Sterling Forest State Park. The Arrow Park property 
is situated adjacent to the northeastern corner of Sterling Forest 
State Park and in close proximity to the Appalachian National Scenic 
Trail. The property contains a highly scenic lake, woodlands and 
wetlands, as well as significant frontage on Orange Turnpike, a well 
maintained access road. The Arrow Park lake drains into Little Dam 
Lake, a wetland within Sterling Forest State Park which supports a 
healthy population of the NY State endangered Northern Cricket Frog. 
Portions of the property were acquired in 2002 as additions to the 
State Park, while the disposition of the remaining 350 acres was being 
considered by the owners who are now willing sellers.
    Great Swamp.--New York State requests funds to assist in the 
acquisition of properties that will further protect the Great Swamp, 
one of New York's most important wetland complexes and the largest and 
highest quality red maple hardwood swamp in the State. It also contains 
breeding habitat for more than 80 bird species and migratory habitat 
for more than 150 species of waterfowl and other birds. The Great Swamp 
also contains a south flowing section based on the East Branch Croton 
River, a critical part of New York City's water supply system; and a 
north flow section based on the Swamp River which flows into the 
Housatonic and, ultimately, to Long Island Sound.
    We are also very concerned about the proposed cuts to the Land & 
Water Conservation Fund, which is slated to receive only $85 million in 
the President's budget, the lowest level of funding in over three 
decades. Without adequate funding to the Highlands Conservation Act, 
Forest Legacy Program and Land & Water Conservation Fund, precious 
natural treasures of the Highlands may be developed in this rapidly 
growing area and lost to conservation forever.
    Thank you again for considering our comments on the fiscal year 
2007 Interior, and Related Agencies Appropriations bill.
                                 ______
                                 
                  Prepared Statement of STRONGER, Inc.

    The State Review Process is a joint project of the U.S. 
Environmental Protection Agency and State-Review of Oil and Natural Gas 
Environmental Regulations, Inc. (STRONGER) It implements requirements 
under the Resource Conservation and Recovery Act (RCRA), and its prime 
objective is to improve the environment by helping state oil and gas 
regulatory programs improve their performance. Since the first review 
in 1992, thirty have been conducted of nineteen state regulatory 
programs representing over 95-percent of U.S. onshore oil and gas 
production. Recent initial reviews have been undertaken in Indiana, 
Michigan and Virginia. Recent follow-up reviews undertaken include 
California, Louisiana, New Mexico, Ohio, Oklahoma, Texas and West 
Virginia. A second follow-up review was undertaken in Pennsylvania, 
with a review currently underway in Kentucky. Additional follow-up 
reviews are planned for New York in 2006 and Colorado in 2007. These 
reviews have resulted in documented improvement of state programs which 
identify strengths and weaknesses and urge environmental improvements 
to address those weaknesses.
    The State Review Process is highly valuable. Congress told the 
industry and the states to do exactly what STRONGER does. The Process 
was developed to implement the conclusions of EPA's 1987 Regulatory 
Determination. The Regulatory Determination concluded that direct 
federal regulation of certain oil and gas exploration and production 
wastes was inappropriate and unnecessary under the RCRA Subtitle C 
because states were effectively regulating these wastes and the 
Subtitle C structure was not suited to regulation of them. The 
Determination also concluded that reviews of the state programs would 
assure that they remained effective. The Process is unique in that it 
brings the environmental community, state agencies and the industry to 
work together assisting the states to identify strengths and weaknesses 
in the programs and urge ongoing environmental improvements.
    Several key aspects of the Process were innovations in regulatory 
program quality improvement in 1990, and remain unique today. They 
include:
  --That state environmental regulatory programs are reviewed and 
        benchmarked against published national Guidelines to evaluate 
        the effectiveness of the programs in protecting public health 
        and the environment;
  --That the guidelines standards are stakeholder consensus of the 
        necessary elements of a successful regulatory program, and are 
        developed by the process participants;
  --That the reviews are performed by multiple-stakeholder teams 
        composed of representatives of the regulated industry, other 
        state and federal agencies, and the environmental/public 
        interest communities, and are open for public observation;
  --That the reviews address environmental performance, and evaluate 
        state program measurements for their effectiveness in tracking 
        environmental results;
  --That the review reports document program strengths and program 
        areas needing improvement; and make specific recommendations to 
        improve program performance; and,
  --That follow-up reviews are conducted to examine state responses to 
        earlier recommendations and review additional program areas.
    In this spring of 2006, the State Review Process is threatened and 
unnecessarily so. During the Process' lifetime, funding has been 
provided by USEPA and the U.S. Department of Energy through a USEPA 
grant and by the American Petroleum Institute (API). In fiscal year 
2005, Congress appropriated $300,000 from the EPA budget to expand and 
carry the process forward. STRONGER has demonstrated the benefits and 
substantial cost savings of the State Review Process and received a new 
three-year grant. No fiscal year 2006 funds were provided, and that 
last grant will soon expire.
    For fiscal year 2007 and beyond, STRONGER is requesting 
programmatic funding. Programmatic funding for STRONGER is entirely 
appropriate because it recognizes that the State Review Process is an 
ongoing function of USEPA and is not a state or local specific project 
or activity. Stated within the contexts of this year's appropriations 
deliberations, its funding should not be included in contemplated 
constraints on earmarked funds, for funds for the Process should never 
have been regarded as earmarks. USEPA funding for this Process should 
have been among its fiscal year 2007 Budget Message requests for 
customary USEPA programs. For whatever reasons, it was not. This is 
unfortunately the case despite this USEPA sponsored program providing a 
needed and well thought through stakeholder-driven process to improve 
state regulatory program oversight of oil and natural gas exploration 
and production activity. The exploration and production industry fully 
supports this program and provides 25 percent of the funding. 
Ultimately, the best and most credible way to fund Congress and EPA's 
mandate, which serves the national public good, is through public 
dollars. If the industry's contribution percentage were any higher, the 
environmental community may well retreat for fear of industry 
dominance; the credibility of the Process would be at stake. 
Participating environmental organizations are reimbursed for their 
participation during reviews.
    Therefore, STRONGER requests $300,000 in programmatic funding in 
fiscal year 2007 appropriations, this actual amount being needed to 
sustain the Process' commitment level and the balanced federal, state, 
industry and environmental relationships. To ``cut the baby in two'' 
here would threaten the entire Process for that reason.
    We are supported in this request by: The Independent Petroleum 
Association of America (IPAA), US Oil & Gas Association, New Mexico Oil 
and Gas Association, Independent Oil and Gas Association of West 
Virginia, Independent Oil and Gas Association of Pennsylvania, 
Pennsylvania Oil and Gas Association, Michigan Oil and Gas Association, 
Texas Alliance of Energy Producers, California Independent Petroleum 
Association, Independent Petroleum Association of Mountain States, 
Texas Independent Producers and Royalty Owners Association, Colorado 
Oil and Gas Association, Kansas Independent Oil and Gas Association, 
Kentucky Oil and Gas Association, Illinois Oil and Gas Association, and 
Association of Energy Service Companies.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission

    The San Juan Water Commission is requesting your support for the 
following appropriations in fiscal year 2007 to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program, 
as recommended in the President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity; Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    The San Juan Water Commission is requesting the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs. Thank you 
for your past support and please call me at 505-564-8969 if you have 
any questions regarding this important issue.
                                 ______
                                 
          Prepared Statement of the Salt Lake City Corporation

    On behalf of Salt Lake City and those cities with urban Indian 
healthcare facilities, I write to express strong support for full 
funding of Urban Indian Health Program. There are currently 34 urban 
Indian healthcare facilities in operation throughout the country, and 
eliminating funding for this program would mean devastating cuts in the 
provision of services or outright closure of many facilities.
    The Urban Indian Health Program provides critical funding for our 
local urban Indian health facility. Recent data indicates that over 66 
percent of all Native Americans live in urban areas. Federal funding 
for this program is critical to ensuring the federal government 
maintains its commitment to providing quality health care services to 
this important population. The fiscal year 2006 enacted level of $32.7 
million for this program is estimated to be only 22 percent of the 
total need of this population. Further reductions in funding will only 
serve to further deteriorate healthcare services to our urban Indian 
populations.
    Given the dramatic impact the President's proposed funding 
reduction would mean to the Urban Indian Health Program, I strongly 
support its full funding in fiscal year 2007. Each year, appropriators 
must make priority decisions regarding the distribution of limited 
resources against expanding needs. The Urban Indian program has 
provided needed, high-quality, and effective services to our urban 
Indian populations for many years.
    Thank you for your time and attention to this request.
                                 ______
                                 
                  Letter From Governor Bill Richardson
                               State of New Mexico,
                                    Office of the Governor,
                                                 February 27, 2006.
Hon. Conrad Burns, Chairman,
Hon. Byron Dorgan, Ranking Member,
Subcommittee on Interior and Related Agencies, Committee on 
        Appropriations, U.S. Senate.
    Dear Chairman Burns and Ranking Member Dorgan: I am writing this 
letter to request your support and assistance in insuring continued 
funding for the Upper Colorado River Endangered Fish Recovery Program 
and the San Juan River Basin Recovery Implementation Program. These 
ongoing cooperative partnership programs involve the States of New 
Mexico, Colorado, Utah and Wyoming, Indian tribes, federal agencies and 
water, power and environmental interests; and have as their dual 
objectives recovery of the four Colorado River endangered fish species 
while water use continues and water development proceeds in compliance 
with the Endangered Species Act, state law, and interstate compacts. I 
respectfully request your support and action by the Subcommittee to 
provide for the following:
    1. Allocation of $211,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$211,000 within the $5,631,000 item entitled ``General Program 
Activities'') for the San Juan River Basin Recovery Implementation 
Program to the FWS for fiscal year 2007 to meet U.S. Fish and Wildlife 
Service (FWS) Region 2 expenses for managing and implementing the San 
Juan Program's diverse recovery activities.
    2. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the FWS for fiscal year 2007 to allow FWS Region 6 to 
continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program. This is the same level of funding 
appropriated to the FWS in fiscal years 2004, 2005 and 2006.
    3. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS Ouray National Fish Hatchery 
in Utah during fiscal year 2007.
    These two programs rely upon substantial state and other non-
federal cost-sharing reflecting strong commitment to these effective 
partnership efforts and have the support of the Department of the 
Interior, who has pointed to them as national models of effective 
conservation partnerships. The requested FWS appropriations will be 
used in conjunction with other funding to continue vitally important 
recovery program activities. We in New Mexico thank the Subcommittee 
for your past assistance and again seek the Subcommittee's assistance 
again this year to ensure adequate FWS funding for the upcoming federal 
fiscal year.
            Sincerely,
                                           Bill Richardson,
                                                          Governor.
                                 ______
                                 
              Prepared Statement of the State of Colorado

    The State of Colorado is an active partner in the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Basin 
Endangered Fish Recovery Program, both of which have been very 
successful in working toward recovery of four endangered and threatened 
fish species in the Upper Colorado River Basin while allowing water 
development to continue.
    Today I request your consideration and support for two items 
funding these Programs which appear in the President's Budget for the 
upcoming fiscal year:
    (1) Appropriation of $697,000 in recovery funds to the U.S. Fish 
and Wildlife Service (Service) for fiscal year 2007. This appropriation 
allows the Service to continue its participation in the Upper Colorado 
River Endangered Fish Recovery Program. The specific designation of 
this appropriation is under ``Ecological Services Activity; Endangered 
Species Subactivity; Recovery Element'' and this would appropriate 
$697,000 within the $5,631,000 entitled ``General Program Activities''.
    (2) Appropriation of $437,000 in operation and maintenance funds to 
the Service's Ouray National Fish Hatchery in Utah for fiscal year 
2007. These specific dollars would be appropriated under the Service's 
budget designated ``Resource Management Appropriation; Fisheries 
Activity; Hatchery Operations & Maintenance Subactivity, Hatchery 
Operations Project''.
    Furthermore, I request that your Committee strongly urge the U.S. 
Fish and Wildlife Service to allocate $211,000 in recovery funds to the 
San Juan River Basin Recovery Implementation Program. Such an 
allocation will allow the Service's Region 2 offices to pursue ongoing 
recovery work and undertake new recovery processes as they continue 
doing the good work of species conservation in the San Juan Basin.
    As you know, these programs accomplish the recovery of the four 
endangered fish species while allowing the ongoing water development in 
the basins. To date, over 1,000 separate water depletion projects 
representing over 2.9 million acre feet of water per year carry on with 
these Programs serving as the means of Endangered Species Act 
compliance. Thank you for your help with these important projects.
                                 ______
                                 
                Prepared Statement of the State of Utah

    I am writing to urge you to prioritize funding for a project that 
will streamline oil and gas permitting, enhance oil and gas production, 
and protect the environment on federal lands. The U.S. Bureau of Land 
Management (BLM) would like to take advantage of the Risk Based Data 
Management System (RBDMS) and associated electronic commerce 
applications developed by the Ground Water Protection Council (GWPC). 
This innovative project will allow western oil and gas producing state 
agencies and the BLM to exchange permitting and other environmental 
data seamlessly. Opening this avenue for data sharing will help the BLM 
comply with the Energy Policy Act of 2005, Section 365, Pilot Project 
to Improve Federal Permit Coordination. The BLM, state agencies, and 
industry all urge support of this project and ask that $400,000 be 
appropriated for the GWPC to manage the project.
    State oil and gas agencies and industry have relied on RBDMS 
applications to store and analyze data to make decisions that result in 
the best possible balance of exploration and environmental 
considerations. Smaller producers are often in the most need for access 
to the data in such a system because the high cost associated with 
regulatory compliance hits them the hardest. RBDMS is the only 
comprehensive, fully relational, PC-based, oil and gas regulatory 
system now in use in many state agencies in the country. RBDMS is one 
of the best examples of how government, working with industry, can 
improve both production and environmental protection at the same time. 
Using the highly successful RBDMS program to manage permitting and 
related data on federal lands will reduce the time, cost, and burden 
for oil and gas producers seeking federal environmental permits before 
drilling or exploration.
                                 ______
                                 
    Prepared Statement of the State of Utah, Office of the Governor

    I am writing to request your support and assistance to ensure 
continued funding for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program. 
These ongoing cooperative partnership programs involve the states of 
Colorado, New Mexico, Utah and Wyoming, Indian tribes, federal agencies 
and water, power and environmental interests; and have as their dual 
objectives recovery of the four Colorado River endangered fish species 
while water use continues and water development proceeds in compliance 
with the Endangered Species Act, state law and interstate compacts. 
Utah respectfully requests support and action by the subcommittee that 
will provide the following:
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) for fiscal 
year 2007 to allow FWS to continue its necessary participation in the 
Upper Colorado River Endangered Fish Recovery Program. This is the same 
level of funding appropriated to the FWS in fiscal years 2004, 2005 and 
2006.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2007.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS's Region 2 expenses managing and implementing the San 
Juan Program's diverse recovery actions.
    As the subcommittee members know, these two programs rely upon 
substantial state and other non-federal cost-sharing (reflecting strong 
commitment to these effective partnership efforts) and have the support 
of the Department of the Interior who has pointed to them as national 
models of effective conservation partnerships. The requested FWS 
appropriations will be used in concert with other funding to continue 
vitally important recovery program activities. I thank the subcommittee 
for their past assistance, and we seek that assistance again this year 
to ensure adequate FWS funding for the upcoming federal fiscal year. 
Thank you.
                                 ______
                                 
   Prepared Statement of the State of Wyoming, Office of the Governor

    I am writing to request your support and assistance in ensuring 
continued funding for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program. 
These ongoing cooperative partnership programs involve the States of 
Colorado, New Mexico, Utah, and Wyoming, Indian tribes and federal 
agencies, as well as water, power, and environmental interests. The 
dual objectives of these programs are the recovery of the four Colorado 
River endangered fish species while continuing water use and 
development in compliance with the Endangered Species Act, state law, 
and interstate compacts. Wyoming respectfully requests support and 
action by the Subcommittee that will provide the flowing:
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) for fiscal 
year 2007 to allow FWS to continue its necessary participation in the 
Upper Colorado River Endangered Fish Recovery Program. This is the same 
level of funding appropriated to the FWS in fiscal years 2004, 2005, 
and 2006.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operation & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS's Ouray National Fish Hatchery 
in Utah during fiscal year 2007.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS's Region 2 expense managing and implementing the San 
Juan Program's diverse recovery actions.
    As the Subcommittee members know, these two programs rely upon 
substantial state and other non-federal cost-sharing (which reflects 
strong commitment to these effective partnership efforts) and have the 
support of the Department of the Interior. DOI points to these programs 
as nation models of effective conservation partnering. The requested 
FWS appropriations will be used in concert with other funding to 
continue vitally important recovery program activities. Wyoming thanks 
the Subcommittee for its past assistance. We seek that assistance again 
this year to ensure adequate FWS funding for the upcoming federal 
fiscal year. Thank you.
                                 ______
                                 
            Prepared Statement of the Shoshone-Paiute Tribes

    I write to support the Bureau of Indian Affairs' request for full 
funding of indirect contract support costs in fiscal year 2007 (and for 
a technical correction to the appropriations language); to ask that the 
Committee closely scrutinize and correct the failure of the Indian 
Health Service to make a comparable request for added contract support; 
and to request that the Committee press Secretary Leavitt to finally 
settle the outstanding five year old Zuni contract support litigation 
before Tribes witness a repeat of the Cobell litigation.
    While we share many criticisms across Indian country over the BIA's 
Budget, one bright spot is the Bureau's recognition after last year's 
Supreme Court Cherokee decision that contract support costs are a 
contract obligation that must be paid. As the Supreme Court said, all 
government contracts, including contracts with Tribes, are legal 
obligations that cannot simply be ignored. The BIA has gone out of its 
way in a very difficult budget climate to correctly prioritize payments 
under those contracts, payments that will benefit every Tribe in the 
Nation.
    By contrast, IHS has utterly failed to meet its legal obligations 
to Tribal contractors. This is particularly shocking given that the 
Secretary and IHS lost the Cherokee decision and have had more than a 
year to make necessary adjustments. NIHB, NCAI and Tribal leaders have 
repeatedly urged IHS to prioritize full funding of contract support 
costs, and the failure to do so risks further litigation in the years 
ahead.
    Finally, the time has come for the Secretary and IHS to settle all 
outstanding contract support cost claims. The Supreme Court has spoken. 
The liability is clear. The shortfall amounts are known. And yet, HIS 
is now fighting CSC claims more vigorously than ever, as if protecting 
the Treasury were more important than honoring legal obligations owed 
the Tribes. Before the ongoing litigation becomes another Cobell for 
Indian country, I ask that the Committee bring its influence to bear so 
that these historic claims might at long last be resolved.
                                 ______
                                 
Prepared Statement of the Board of Selectmen, Newry Owner, Sunday River 
                           Inn, Bethel, Maine

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $2 million from the Forest Legacy Program for the 
Grafton Notch, Maine's #1 Forest Legacy Project this year. The 
President's budget for fiscal year 2007 includes a recommendation of $2 
million for Grafton Notch.
    Programs that fulfill ``essential priorities'' is what President 
Bush called the areas that would get funding in his federal budget for 
2007. My neighbors and I were pleased and proud to see that Maine's top 
conservation priority, Grafton Notch, was also the Bush 
administration's top Forest Legacy priority in the country. The Forest 
Legacy Program helps states conserve private forests and maintain 
traditional forest uses, such as timber production and recreation.
    Recently, 112 Bethel area residents turned out to attend the first 
public meeting dealing with the fate of Grafton Notch and the Mahoosuc 
Range, the spine of the Appalachian Mountains running out of eastern 
New Hampshire into western Maine. They represented a cross-section of 
Maine, a multi-generational group from every walk of life. All in 
attendance shared feelings of enthusiasm and pride in the fact that the 
Grafton Forest project led the list of Forest Legacy projects and 
expressed a desire to protect the Mahoosucs and our rural way of life. 
We are a community that continually comes together to develop and 
support our vision for conserving forests and our forest-based local 
economy, and the Grafton Notch project represents a successful outcome 
of our collaboration.
    Residents of communities in western Maine realize that the 3,688 
acres of the Grafton Forest are essential to keeping the new 42-mile 
Grafton Loop Trail intact, and preserving the east slope of Old Speck 
Mountain and a renowned section of the Appalachian Trail. Mainers have 
long recognized the importance of this parcel as an outlot in a mosaic 
of otherwise conserved lands in the heart of the rapidly developing 
western Maine mountains. The parcel is virtually surrounded by over 
27,000 acres of other conservation lands, including the Grafton Notch 
State Park.
    The effort to protect this wild link between New Hampshire's North 
Country and Maine's North Woods has brought conservation groups, 
community and business groups and individual citizens together in an 
innovative collaboration focused on reinforcing connections between 
economic vitality, quality of life, and land protection. This portion 
of the North Woods is dotted with small towns where a relatively large 
proportion of jobs are directly related to timber harvesting and 
processing. Under the long-term ownership of wood products companies, 
the North Woods have long supported local jobs and small businesses 
through harvesting, wood products manufacture and outdoor recreation. 
Living close to the land has also shaped a way of life as generation 
after generation grew up hunting, fishing, camping, hiking and canoeing 
in the industrial forests where owners gave the public the gift of 
access to their lands. Now, with large-scale economic changes underway 
in the forests, these rural communities are facing a more uncertain 
future, both in terms of job creation and impacts to quality of life.
    As owner of an inn focused on serving outdoor enthusiasts from hard 
core backcountry skiers and whitewater canoeists to wildflower seekers 
and bird watchers. The forests, rivers, streams and mountains of 
Western Maine are the essential resources that attract our guests and 
enable us to educate and entertain them as we guide them through the 
area. The fact that 75 percent of our guests return, many for years and 
years, is testament to their enjoyment of our surroundings and our 
ability to interpret the value of those surroundings to them. In fact, 
the entire economy of this area is dependent upon the continued 
existence of large blocks of undeveloped land where the pursuits of 
forestry, recreation, education and relaxation can coexist. The Grafton 
Forest is an integral part of the conservation mosaic that will insure 
that these activities and business opportunities are available to our 
neighbors and guests and to future generations.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony to your Subcommittee on behalf of the Grafton Notch Forest 
Legacy project.
                                 ______
                                 
       Prepared Statement of the Skyline Sportsmen's Association

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
the Skyline Sportsmen's Association of Butte, Montana, I appreciate the 
opportunity to present this testimony in support of a $2.6 million 
appropriation from the Land and Water Conservation Fund for the second 
phase of the Selway Creek conservation project in the Beaverhead-
Deerlodge National Forest.
    Skyline Sportsman's Association has been at the forefront of 
conservation in Southwest Montana for many years. Skyline's early 
activity included reintroducing elk to western mountain ranges and 
continues today in efforts to maintain habitat for wildlife and hunting 
opportunities.
    Organized into nine separate units, the Beaverhead-Deerlodge 
National Forest in southwest Montana covers over 3.3 million acres and 
is the largest national forest in the state. Lying in eight southwest 
Montana counties, the forest blends stunning 11,000-foot mountain peaks 
with renowned blue-ribbon fly-fishing streams that have cut deep 
valleys into the lush landscape. The result is an enormous public 
playground that begins in the semi-arid grassland foothills, climbs up 
to the coniferous forests of lodegpole pine and Douglas fir, and 
culminates in the peaks of the Bitterroot and Centennial ranges. An 
extensive system of roads and trails makes it easy for visitors to make 
their own discoveries and adventures within the forest, such as it's 
wilderness trekking in the Lee Metcalf Wilderness, driving the Pioneer 
Mountains Scenic Byway, or camping in one of the fifty campgrounds in 
the forest. Campers, anglers, hikers, skiers, equestrians, 
snowmobilers, and many others enjoy 1,500 miles of trails, 155 high 
mountain lakes, 1,050 miles of great fishing streams, two wilderness 
areas, numerous picnic and boating sites, two downhill ski areas, and 
250 miles of groomed snowmobile trails.
    Located approximately 35 air miles west of Dillon within the 
Beaverhead-Deerlodge National Forest is the 1,240-acre Selway Creek 
Property. In the second phase of this project, approximately 873 acres 
are now available for acquisition. The property is part of the Dragging 
Y Ranch--one of the largest cow-calf operations in the northern 
Rockies. It has extraordinary scenic, recreation, wildlife and 
fisheries values and is the number one land acquisition priority for 
the forest. It also includes a large wetland system and approximately 
three and a half miles of Selway Creek, an extremely productive fishery 
with large populations of brook and rainbow trout. The creek and its 
many tributaries are regarded by local fishermen as some of the best 
fly-fishing waters in the local area. It also provides an important 
food source for bald eagles, which can often be seen flying up and down 
the valley patrolling for fish. Occupying a long, lush valley bottom, 
the Selway property also provides exceptional habitat for deer and elk, 
particularly in the calving season, which generally lasts from May to 
July. During this period, more than 200 head of elk can often be seen 
on the property at the same time. Other animals routinely occupying or 
migrating through the Selway property include pronghorn antelope, black 
bear, moose, and an occasional gray wolf.
    It should be noted that this project includes two separate 
conservation easements, which the owners will make available for 
purchase once the second phase of the Selway Creek purchase is 
complete. One of these easements would be placed on a nearby 1,381-acre 
property known as the Hilger Ranch, which includes a two-mile stretch 
of Horse Prairie Creek and some of the best riparian bottomland in the 
local area. The other easement would be placed on a 7,249-acre property 
known as the Knox Ranch, which is located approximately 20 miles south 
of Dillon. Both easements would conserve incredible wildlife habitat 
and allow public hunting access every fall. No additional federal 
funding will be required for either of these easement purchases, but 
the impact on the broader landscape will be enormous. However, without 
the federal funding needed to complete the Selway purchase, this 
broader resource protection opportunity will be lost.
    An appropriation of $2.6 million from the Land and Water 
Conservation Fund in fiscal year 2007 is needed to complete the second 
and final phase of this property's acquisition and to ensure that 1,240 
acres of prime wildlife habitat and recreation lands within the 
Beaverhead-Deerlodge NF are forever preserved. It would also serve as a 
catalyst in conserving 8,630 additional acres of private ranchland in 
nearby area.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of a $2.6 million appropriation from the Land and 
Water Conservation Fund for the second phase of the Selway Creek 
conservation project in Montana.
                                 ______
                                 
 Prepared Statement of the State and Territorial Air Pollution Program 
   Administrators and the Association of Local Air Pollution Control 
                               Officials

    The State and Territorial Air Pollution Program Administrators 
(STAPPA) and the Association of Local Air Pollution Control Officials 
(ALAPCO) appreciate this opportunity to provide testimony regarding the 
fiscal year 2007 proposed budget for the U.S. Environmental Protection 
Agency (EPA), particularly federal grants to state and local air 
quality agencies under Sections 103 and 105 of the Clean Air Act. 
STAPPA and ALAPCO are extremely concerned that EPA's proposed $35.1 
million cut--16 percent--in grants to state and local agencies will be 
devastating and will impair our ability to provide clean, healthful air 
throughout the country. Accordingly, our associations recommend that 
Congress restore this funding and increase the budget request by at 
least $35.1 million, for a total of $220.3 million. Additionally, 
grants for the PM monitoring program should not be shifted from Section 
103 authority to Section 105.
    STAPPA and ALAPCO are the national associations of air quality 
officials in 53 states and territories and over 165 metropolitan areas 
across the country. The Clean Air Act gives state and local air quality 
officials the primary responsibility for implementing our country's 
clean air program. These agencies, on the frontlines of implementation, 
must work to limit or prevent emissions of many pollutants, such as 
particulate matter (PM), ground-level ozone and toxic air pollution. 
They must implement activities designed to reduce those pollutants and 
protect public health and welfare, including, among many others, 
monitoring air quality, developing emissions inventories, preparing 
State Implementation Plans, permitting sources, inspecting facilities, 
enforcing regulations, educating the public and responding to citizens' 
complaints.
    Our concern about the effects of the proposed funding cuts is 
shared by many members of the United States Senate. In fact, a 
bipartisan group of 33 Senators sent a letter on April 7, 2006 to 
Senators Conrad Burns and Byron Dorgan of this Subcommittee urging that 
funding for state and local air grants be restored to $220.3 million in 
fiscal year 2007 and that funds for PM monitoring not be shifted from 
Section 103 authority to Section 105.

                        AIR POLLUTION IN AMERICA

    While great strides have been made in reducing levels of air 
pollution, millions of Americans continue to breathe unhealthful air. 
Over 160 million tons of pollution are emitted annually in this country 
and more than 150 million people live in areas that violate at least 
one of the six health-based National Ambient Air Quality Standards 
(NAAQS). Fine PM alone is responsible for up to 30,000 premature deaths 
each year and causes other health problems, such as aggravation of 
existing respiratory and cardiovascular disease, damage to lung tissue, 
impaired breathing, irregular heart beat, heart attacks and lung 
cancer.
    There are many other pollutants that threaten the health of the 
public. New information just released as part of EPA's National-Scale 
Air Toxics Assessment presents a very troubling picture about the 
prevalence of toxic air pollutants. For example, when the cancer risks 
from all air toxics compounds listed as known, probable or possible 
carcinogens based on human data are combined, EPA estimates that more 
than 270 million people live in census tracts where the combined upper-
bound lifetime cancer risk exceeded 10 in one million risk (one in one 
million risk is generally considered acceptable). Additionally, more 
than 92 percent of the population in this country lives in areas with 
``hazard index'' values for respiratory toxicity greater than 1.0 (with 
1.0 being the level above which adverse effects to the respiratory 
system occur).

                 FUNDING FOR STATE AND LOCAL AIR GRANTS

    State and local air pollution control programs are funded through 
state and local appropriations, the federal permit fee program under 
Title V of the Clean Air Act, state and local permit and emissions 
fees, and federal grants under Sections 103 and 105 of the Clean Air 
Act. Section 103 has usually funded specific monitoring efforts, while 
Section 105 supports the foundation of state and local air quality 
programs, including, but not limited to, personnel.
    The Clean Air Act authorizes the federal government to provide 
grants up to 60 percent of the cost of state and local air quality 
programs, while state and local agencies must provide a 40-percent 
match (as per Section 105). In reality, however, the federal government 
provides approximately 25 percent of the total state/local air budget, 
while state and local governments supply 75 percent (not including 
income from Title V permit fees, which state and local agencies collect 
from major sources and can fund only permit-related activities). In a 
time of limited state and local resources, where state and local 
governments are straining to maintain existing programs, additional 
federal funding is needed to meet the challenges of air quality 
programs.
    The total amount needed for state and local efforts to implement 
the Clean Air Act is estimated to be in excess of $1 billion each year. 
If EPA were to supply 60 percent of that amount, as the Clean Air Act 
envisioned, federal grants would amount to close to $600 million 
annually. However, the fiscal year 2006 budget for state and local air 
quality grants under Sections 103 and 105 of the Clean Air Act was 
$220.3 million, which is far short of the amount needed. Furthermore, 
over the past decade, federal grants for state and local air agencies 
to operate their programs (not including the Section 103 monitoring 
program) have decreased by 25 percent in terms of purchasing power 
(based upon U.S. Department of Labor inflation statistics).

                    FISCAL YEAR 2007 PROPOSED BUDGET

    The President's fiscal year 2007 budget request not only fails to 
provide necessary additional funds, but would decrease state and local 
grants by $35.1 million (16 percent), from $220.3 million to $185.2 
million in the following manner: (1) $15.6 million from the Section 105 
grant program; (2) $17 million from the Section 103 fine particulate 
monitoring program (also, under the fiscal year 2007 budget request, 
the funds remaining in the fine particulate monitoring program--$25 
million--would be funded under the Section 105 authority, rather than 
the Section 103 authority, so state and local agencies would have to 
provide additional matching funds, pursuant to Section 105 
requirements); and (3) $2.5 million from the regional planning 
organizations.

   BUDGET CUTS WOULD SEVERELY UNDERMINE STATE AND LOCAL AIR QUALITY 
                                EFFORTS

    Cuts of this magnitude would severely hamper state and local 
efforts to provide important public health protections. The reductions 
would be detrimental to critical efforts to reduce ozone, small 
particle and toxic air pollution, enforcement and compliance 
activities, monitoring and a host of other programs that are key to 
improving and preserving healthful air quality. The impacts of the cuts 
would be further exacerbated by the budget's proposal to shift grants 
in the PM monitoring program from Section 103 authority (which does not 
require a 40-percent match) to Section 105 authority. Under the budget 
proposal, state and local agencies would need to supply additional 
funds in order to accept the federal grants.
    State and local air quality agencies face several very important 
new requirements that will be costly to implement. For example, EPA has 
designated over 475 counties across the nation as nonattainment for the 
PM and ozone air quality standards. States must develop and submit 
State Implementation Plans (SIPs) by 2007 and 2008, identifying 
specifically how those areas will meet the health based standard by the 
deadlines.
    Very recently, STAPPA and ALAPCO asked state and local air agencies 
to estimate the real-world ramifications of a 16-percent budget cut to 
their programs. The associations compiled those estimates into a report 
entitled, Impact of Proposed fiscal year 2007 Budget Cuts on State and 
Local Air Quality Agencies (March 14, 2006), which paints a vivid 
picture of the difficulties state and local air agencies would have 
accommodating such deep cuts. This report has been provided to each 
member of the Appropriations Committee and additional copies are 
available from STAPPA/ALAPCO (www.4cleanair.org).
    The report contains alarming information about what the proposed 
budget could mean for air agencies. If the proposed reductions occur, 
on average, each state will lose $700,000 (i.e., an average reduction 
of approximately $340,000 in fine particulate monitoring and $360,000 
from the other elements of the air quality program). While some 
agencies will experience greater or lesser reductions than the average, 
all agencies will likely be affected by these decreases.
    Most state and local agencies reported that they would be forced to 
lay off staff or leave current vacancies unfilled. This loss of staff 
and expertise is very significant because, even if there are budget 
increases in future years, the trained personnel that leave the agency 
would likely be unavailable to the agency in the future and training 
new staff would be very costly.
    Many agencies reported that they would have to shut down existing 
monitors or otherwise curtail their monitoring programs. Many also 
reported that the reductions would impair their ability to conduct 
inspections and carry out enforcement activities, thus rendering the 
clean air requirements less effective. Additionally, permits for non-
Title V sources (e.g., minor sources) will take longer to process and 
customer service will diminish.
    The funding cuts could seriously impair the ability of state and 
local agencies to prepare new plans for implementing ozone and PM 
standards. The development of effective State Implementation Plans 
(SIPs) is essential to ensure that measures will be adopted that reduce 
air pollution and protect public health. Without funds to develop and 
carry out the SIPs, several areas currently meeting the standards may 
no longer attain them. Not only would air quality worsen, but 
nonattainment areas are subject to more onerous requirements.
    Several agencies noted that they could be forced to return portions 
of their programs to EPA due to a lack of funds to carry them out. Not 
only will this place excessive burdens on EPA, but there would be an 
additional loss of resources for the air program as state and local 
funds that are currently leveraged as part of the matching requirements 
would no longer be spent on those Clean Air Act activities.
    The budget cuts would be further exacerbated by the proposal to 
shift the fine particulate monitoring program from Section 103 to 
Section 105 authority, requiring a 40-percent match. Some agencies do 
not currently have additional funds for the match. Because of two-year 
legislative cycles or the timing of budget development, some agencies 
can not supply additional matching funds without a reasonable 
transition period in which to make adjustments. They could be forced to 
turn away grant funds.
    Perhaps most troubling of all, if the proposed reductions occur, 
several local air quality agencies face the very real possibility of 
having to close their operations entirely. This would be a terrible 
loss for those local areas.

                               CONCLUSION

    The proposed budget for fiscal year 2007 calls for a significant 
reduction in Section 103 and 105 grants at the same time that the 
workload of state and local air agencies is dramatically increasing. 
Such cuts will have a devastating effect on many state and local air 
agencies' programs. We understand that the federal budget is finite and 
Congress must make very difficult choices. However, air pollution poses 
a very serious threat to public health and the environment. In fact, we 
are not aware of any other environmental problem that presents a 
greater risk. The benefits of air quality programs have been estimated 
to exceed their costs many times over. Therefore, when establishing 
priorities for federal funding, it is prudent to identify the 
improvement and protection of air quality as one of the government's 
highest priorities.
    STAPPA and ALAPCO recommend that the fiscal year 2007 budget for 
federal grants to state and local air quality agencies under Sections 
103 and 105 of the Clean Air Act be increased above the President's 
request by at least $35.1 million (from $185.2 million to $220.3 
million), restoring it to the final fiscal year 2006 level. 
Additionally, grants for the particulate monitoring program should not 
be shifted from Section 103 authority to Section 105.
    Thank you very much for your consideration of our recommendations.
                                 ______
                                 
               Prepared Statement of the Skokomish Tribe

    My name is Gordon James, I am Chairman of the Skokomish Tribe of 
Washington State. The Skokomish Indian Reservation is a rural community 
located at the base of the Olympic Peninsula with a population of over 
1,000 people. The Skokomish Tribe appreciates the work of the 
Subcommittee and ask that you provide funding in areas that are key to 
the continuing development of tribal communities: Law Enforcement and 
Education.

                            LAW ENFORCEMENT

    The Skokomish Tribe requests increased funding for law enforcement 
programs within the Bureau of Indian Affairs.
    In the last ten years, the Skokomish Tribal Police Department has 
grown from one (1) untrained officer, to a force of thirteen (13) 
Washington State/BIA certified law enforcement officers. In addition, 
the Skokomish Tribe's Public Safety Department provides the only marine 
law enforcement and rescue services in a thirty-five mile radius of the 
southern Hood Canal. The Police Department works very closely with non-
Tribal law enforcement agencies to combat the scourge of drug 
trafficking in this isolated rural area. These Tribal officers play a 
key role in the detection and bust of methamphetamine labs on the 
Reservation.
    The Tribe experienced a significant growth in the Reservation's 
population during the 1980s and early 1990s. Along with the increased 
population, the Skokomish Indian Tribe experienced an alarming increase 
in the extent and severity of drug abuse among the residents of the 
Reservation. According to data from the Tribe's Alcohol Service 
Program, more than 53 percent of young adults ages 18-24 are presently 
impacted by drug abuse dependency. Unfortunately, along with increased 
drug use, the community has had to endure a significant escalation in 
associated crimes, including drug manufacturing and selling, armed 
assaults, domestic violence, and burglary. In the last six months, the 
Tribe's officers have responded to 1,800 calls, which resulted in 300 
arrests--many involving non-Indian people. More than one-third of these 
arrests involved substance abuse. It is clear to the community and the 
partnership of law enforcement personnel and agencies involved that if 
the Tribe is forced to close its department, this rural community will 
become a haven for drug manufacturing and selling, and associated 
crimes.
    Despite the growth in law enforcement need, there has not been a 
corresponding growth in law enforcement funding. The Skokomish Tribe is 
not receiving an appropriate share of funding from the BIA, as compared 
to other Tribes in the state. To address this we ask that Congress 
increase this funding overall.

                               EDUCATION

    The BIA is proposing the elimination of Johnson O'Malley funding. 
The Johnson O'Malley program provides funding to local public schools 
to provide outreach and academic assistance to Indian children 
attending these schools. At Skokomish we have a number of children who 
attend two public schools. Hood Canal Elementary and Jr. High and 
Shelton High School. Both are public schools, and without the JOM 
program, we could not track or assist our children to succeed 
academically. We believe the JOM funding is money well spent and we 
would urge Congress to maintain funding for this Program.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District

    The Southwestern Water Conservation District was established by the 
Colorado General Assembly in 1941 to conserve and protect the water of 
the San Juan and Dolores Rivers and their tributaries in nine counties 
in Southwest Colorado. Therefore, we are requesting your support for 
the following appropriations in fiscal year 2007 to the Fish and 
Wildlife Service (FWS) for the San Juan River Basin Recovery 
Implementation Program and the Upper Colorado River Endangered Fish 
Recovery Program, as recommended in the President's budget.
    1. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service to allow FWS to 
continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
       Prepared Statement of the South Yuba River Citizens League

    The South Yuba River Citizens League (SYRCL) appreciates the 
opportunity to present this testimony in support of a $2.5 million 
appropriation from the Land and Water Conservation Fund for the Tahoe 
NF Middle Yuba projects.
    SYRCL was established in 1983 as a river education and advocacy 
group and was legally incorporated as a 501(c)3 organization shortly 
thereafter. SYRCL has an annual operating budget of over $800,000 and 
is regarded as a highly-effective and multi-faceted watershed 
organization regionally, state-wide and nationally. In 2003 Governor 
Arnold Schwartzenegger awarded SYRCL the ``Governor's Environmental and 
Economic Leadership Award'' in the area of ``watershed and ecosystem 
restoration.'' With a membership base of 5,000 people and mission of 
protecting the 1,300 square mile Yuba Watershed, SYRCL serves scores of 
small rural communities as well as rapidly expanding towns and cities 
in the Sierra Nevada mountains.
    In fiscal year 2007, lands important to SYRCL are available for 
acquisition in the Tahoe National Forest:
    Middle Yuba (Phase I).--Twenty-one parcels of land, covering over 
4,000 acres, are available for acquisition over the next two years in 
the vicinity of the Middle Yuba River in Sierra and Nevada Counties. 
The first phase of this project calls for the acquisition of eleven 
parcels, consisting of approximately 2,550 acres in fiscal year 2007. 
According to Forest Service biologists, there have been bald eagle 
sightings nearby, and the area has historically served as spotted owl 
territory. The Pacific Crest Trail (PCT) crosses one of the parcels and 
this higher-elevation mixed conifer forest is especially popular with 
PCT hikers. In addition to its recreational values, these parcels 
provide riparian corridor habitat for numerous species, not only along 
the Middle Yuba, but also along key tributaries of the North Yuba 
River, such as Milton Creek. Acquisition of these important lands can 
go forward with a $2.5 million appropriation from the Land Water 
Conservation Fund.
    The first phase of this project can be acquired with an 
appropriation of $2.5 million in fiscal year 2007. Once protected, they 
will help ensure public access, critical habitat protection, and water 
protection in the High Sierra. I urge you to include this project in 
the fiscal year 2007 Interior and Related Agencies Appropriations bill.
    Thank you for considering this request.
                                 ______
                                 
    Prepared Statement of the Penobscot Nation of the State of Maine

    Chairman Burns, Ranking Member Dorgan and Honorable Subcommittee 
Members, thank you very much for accepting and reviewing the testimony 
of the Penobscot Nation of the State of the Maine. The Penobscot 
Nation's specific requests for the fiscal year 2007 Department of 
Interior Bureau of Indian Affairs budget includes $250,000 for the 
Tribe's Wildlife Management Program, to fund four full-time game 
wardens, $150,000 for Community Fire Protection, and $100,000 for 
Economic Development.
    The Penobscot Nation has a number of serious concerns with the 
Administration's proposed fiscal year 2007 Bureau of Indian Affairs 
budget. While the President proposed a nominal increase of $4.4 million 
to overall Tribal Priority Allocations (TPA), a number of programs that 
are of vital importance to the Penobscot Nation would be decreased or 
even completely eliminated, including the Community Fire Protection 
Program. The Penobscot Nation, as do most tribal communities, relies 
heavily upon BIA funding to support their essential community needs, 
such as fire protection, law enforcement, education, and housing, among 
other things. Further, the Penobscot Nation is working on several 
economic development projects with the anticipation that they will come 
to fruition and the economic gains will assist us in attaining our 
ultimate goal of self-sufficiency. However, if Congress enacts the 
proposed budget reductions, all of our already strained resources will 
once again be expended on maintaining limited basic human needs with no 
community hope of achieving the ``American Dream'' or more importantly, 
our ``Self-Sufficiency Dream''.
    What is more, Congress must consider the impact of inflationary 
costs. We direct your attention to the ``Quiet Crisis--Federal Funding 
and Unmet Needs In Indian Country'' a report prepared by the U.S. 
Commission on Civil Rights in 2003. After a detailed analysis, the 
Commission concluded that funding for programs for Indian tribes simply 
has not kept up with spending for non-native programs, or with the 
increase in population growth in Indian country. Specifically, for BIA 
the Commission noted that, when adjusting for inflation, the impact of 
TPA funding shortfalls becomes more evident as the TPA budget has 
diminished the real spending power of tribal governments dramatically. 
Over the period of the report, 1998-2003, TPA spending power has lost 
$36.5 million or 4.4 percent.
    These inflationary costs coupled with flat spending or reductions 
make it impossible for tribal governments to continue to operate 
programs that the Federal government has a legal obligation through 
treaties, settlement acts, and statues to provide. Tribal self-
determination will be endangered if these reductions are enacted. 
Tribes, like the Penobscot Nation, who have no other funding sources to 
pay for the program operational shortfalls may be left with no 
alternative but to consider retrocession of these programs. Under the 
Indian Self-Determination Act we can retrocede a program we are 
operating back to the United States and the agency involved (BIA or IHS 
for instance) would be required to send personnel to Maine, establish 
offices and take over the management and operation of that program. We 
can assure you there is no way they could operate these programs at the 
funding levels they are providing to us.
    Specific concerns regarding the proposed fiscal year 2007 Bureau of 
Indian Affairs budget are as follows:
    Wildlife Management Program.--Under the Maine Indian Land Claims 
Settlement Act of 1980, the Penobscot Nation has exclusive jurisdiction 
over lands held in trust for the Tribe by the United States. With a 
recent acquisition of 26,000 acres in trust, the Penobscot Nation now 
has approximately 100,000 acres of land in trust. However, the Tribe 
only has funding sufficient to employ two full-time game wardens to 
enforce tribal fish and wildlife regulations on our lands. The 
Penobscot Nation has a severe need for additional funding, in the 
amount of $250,000, to employ four additional full-time game wardens to 
help protect our fish and wildlife resources. As anecdotal evidence of 
the acute need for increased regulation on our lands, the first day 
tribal game wardens patrolled our recently-acquired lands they issued 
five citations for violations of tribal fish and wildlife regulations. 
There are also homeland security concerns, as three years ago a tribal 
game warden incarcerated five individuals crossing the border from 
Quebec at Alderstream, one of whom was on the U.S. terrorist's list.
    Fire Protection.--One major concern that the Penobscot Nation has 
regarding the fiscal year 2007 BIA budget pertains to the proposed 
total elimination of the Community Fire Protection program. Proposed 
elimination of this program directly contradicts the Department of 
Interior's Strategic Plan (2003-2005) which clearly identifies it as 
one of its four missions to provide for the ``Protection of Lives, 
Resources, & Property''. Certainly, the BIA's Community Fire Protection 
contributes to fulfilling this mission.
    Currently, the Penobscot Nation's BIA funding for Community Fire 
Protection is only $70,000. This inadequate funding level provides only 
enough funds to pay for 1 part-time firefighter and minimal operational 
costs, such as insurance, fuel, equipment/vehicle maintenance, and fire 
pagers. Over the last few years, it has become increasingly evident 
that the Penobscot Nation's population and infrastructure has grown to 
the extent that it warrants a full-time fire department. The Penobscot 
Nation has approximately 300 single-family homes which house 
approximately 545 people, 16 elderly apartments, a school with 100+ 
students in attendance, a six bed assisted living complex, and six 
tribal buildings housing approximately 125 employees. Additionally, we 
are currently in the planning stages of building 15 new single family 
homes.
    In addition to our infrastructure growth, it has become 
progressively more difficult to operate the fire department on a 
volunteer basis. Many of the volunteers have outside employment 
obligations and are not available to attend fire calls throughout the 
day. Additionally, many of these volunteer firefighters have lost their 
required firefighter certifications because of their inability to 
attend the required training sessions. In realizing that the Penobscot 
Nation was unable to provide adequate fire protection to our community 
because of inadequate funding, we met with our neighboring town's (Old 
Town, Maine), Fire Department officials to discuss the possibility of 
contracting with them for our fire protection needs. Unfortunately, the 
town reported to us that they could not enter into a contractual 
agreement. Further, at this meeting the mutual-aid agreement between 
Old Town and the Penobscot Nation was reviewed and we were reminded 
that this agreement contained a provision that affirmed we would be 
responsible for providing 4 full-time firefighters for fire calls. 
Currently, we are unable to comply with this provision and are 
potentially jeopardizing this mutual-aid agreement. The Penobscot 
Nation's requests that funding for the Community Fire Protection 
Program be restored and an additional $150,000 be added to our TPA Base 
to provide for the protection of the lives, resources, and property or 
our people and our government. These funds will be utilized to employ 
full-time firefighters.
    Economic Development.--Presently, economic development within our 
community is non-existent and it's an on-going challenge each day in 
determining how to pay for basic essential community services. 
Furthermore, with the escalating decline in federal funding it is 
becoming increasingly more evident that our community's welfare relies 
upon our own self-sufficiency. The Penobscot Nation is currently 
working on several economic development projects, including a Mail-
Order Pharmacy Service and a Native American Manufacturing Initiative. 
The Penobscot Nation is confident that these projects have the 
potential to change our devastating economic conditions. In fact, the 
State of Maine in recognizing the tribe's economic plight and potential 
of these projects, is being supportive and is working with us. They 
have assisted us in obtaining State grant funds for both the Mail-Order 
Pharmacy Service and the Native-American Manufacturing Initiative. In 
the latter instance, the Maine Technology Center is helping us to try 
and obtain government contracts in the manufacturing industry. 
Unfortunately, the State of Maine is dealing with its own budget crisis 
and can only provide very limited financial resources.
    However, in developing both of these projects it has become 
apparent that the Penobscot Nation needs an Economic Development 
Specialist. Regrettably, we have not been able to secure the financial 
resources to employ such a person and are presently forced into relying 
upon existing staff to perform this function. However, these staff 
persons do not have the expertise or required time to devote to these 
economic development initiatives. Therefore it is imperative for the 
successful development of these projects and other economic ventures 
that we secure funding to employ a full-time Economic Development 
Specialist. Once these two economic development ventures are realized 
the Penobscot Nation will be financially capable of retaining the 
Economic Development Specialist.
    The Penobscot Nation requests that one-time funding in the amount 
of $80,000 be added to their BIA TPA to obtain a full-time Economic 
Development Director. We feel confident that this funding will assist 
us in achieving our ``self-sufficiency'' goal, including our ability to 
retain this position.
    Direct Contract Support.--The Penobscot Nation applauds the Bureau 
of Indian Affairs for taking positive steps toward proposing a policy 
that recognizes contract support costs associated with tribal Self-
Determination programs and for taking similar approaches taken by the 
Indian Health Service, particularly with regards to direct contract 
support costs. However, the Penobscot Nation supports the 
recommendation of the National Contract Support Cost Policy Work Group 
(composed of tribal and Bureau representatives) to utilize existing 
Awarding Officials in the negotiation of ``direct contract support 
cost'' instead of BIA proposal to utilize the National Business Center 
(NBC). This concern relates to staffing and the cost of implementing 
the policy.
    With the number of tribes operating Bureau programs under the 
Indian Self-Determination Act, it would be extremely difficult for the 
NBC to negotiate the agreements in a timely manner. Not only are there 
a sufficient number of Awarding Officials, but they are more 
knowledgeable of the true costs associated with operating Self-
Determination programs than are officials at NBC. We are also opposed 
to the Bureau's use of contract support funds to pay the NBC for 
performing this function.
    Our second recommendation concerns a ``transition period'' 
strategy. We propose the Bureau adopt an approach similar to that used 
by the Indian Health Service in adopting a formula that essentially 
represents 15 percent of direct salaries in the initial year then 
allowing tribes to renegotiate their ``direct contract support costs'' 
amounts in subsequent years. This approach will: (1) ease the burden of 
negotiating ``direct contract support cost'' amounts in the initial 
year and in subsequent years; (2) reduce the amount of funding required 
to implement the new policy; (3) allow the Bureau, Department and 
tribes to seek increased appropriations for ``direct contract support 
costs'', and (4) allow the Bureau and tribes to become familiar with 
the new policy. Again, we commend BIA commitment to establish an annual 
Contract Support Cost Work Group and its commitment to collect data and 
prepare an annual contract support cost shortfall report. However, we 
are requesting your assistance in directing the Bureau of Indians to 
move forward in adopting a Contract Support Policy with meaningful 
consultation with the Tribes.
    Finally, the Penobscot Nation would like to see the integration of 
employee fringe benefits into the calculation of direct contract 
support costs. This is another area where parity between tribal and 
non-tribal funding for similar programs and functions is necessary.
    The Penobscot Nation appreciates the opportunity to express their 
concerns pertaining to the proposed fiscal year 2007 Department of 
Interior, Bureau of Indian Affairs budget and your attention to these 
crucial matters. Thank you.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District

    We are requesting your support for the following appropriations in 
fiscal year 2007 to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program, as recommended in the 
President's budget.
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) to allow FWS 
to continue its necessary participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS' Region 2 expenses managing and implementing the San 
Juan Recovery Program.
    We thank you for your past support and request the Subcommittee's 
assistance for fiscal year 2007 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Highlands Coalition, the Litchfield County 
       League of Women Voters, and the Garden Club of Litchfield

    Thank you for the opportunity to submit comments about the fiscal 
year 2007 appropriations for the Highlands Conservation Act.
  --I urge you to provide full funding of the Highlands Conservation 
        Act.
  --I also call your attention to the Litchfield Farms project.
    The four-state Highlands region includes the northwestern portion 
of the state of Connecticut, including the towns of Litchfield, Kent, 
Salisbury, Cornwall and New Milford, to name only a few of the historic 
and scenic places nestled into the Litchfield Hills.
    Tourism is a major industry and source of employment in the 
Litchfield Highlands. Our fall foliage and pristine rolling hills 
attract visitors not only from other states but from the entire world. 
But we are facing a serious threat.
    Our treasured natural resources may be ``sprawled'' out of 
existence in the next decade or two. We are in a desperate ``save it or 
pave it'' race to preserve our most important environmental assets 
before they are bulldozed for strip malls and housing developments.
    Thus we put an extremely high priority on full funding under the 
new Highlands Conservation Act. We urge you to provide the entire $10 
million authorized, plus the $1 million authorized for USDA Forest 
Service technical assistance and research in the Highlands area.
    This is a new program enacted, with bipartisan support, too late in 
2004 to be included in last year's fiscal year 2006 appropriations 
cycle. Therefore, fiscal year 2007 is the first opportunity to fund 
this very important and urgently needed program.
    The Connecticut Highlands region is facing an inundation of people 
pushing outward from the major metropolitan areas to our south. For us, 
protection of our open spaces with their incredible environmental 
values--drinking water source lands, forests and farms, wildlife and 
endangered plant and animal habitats, and passive recreation--is a top 
priority.
    Connecticut is putting its own public and private money where its 
mouth is on this issue.
  --Last summer, the state enacted legislation to impose a $30 real 
        estate document recording fee which will generate nearly $15 
        million annually for matching grants for preserving open space 
        and farmland.
  --State bonding authority for open space and farmland preservation 
        also was increased.
  --This year, a major push is being made in the state legislature to 
        enact even more bonding authority for land preservation.
  --Locally, the town of Litchfield established an ``Open Space and 
        Land Acquisition Fund.''
  --Private citizens are participating through half a dozen area land 
        trusts in raising private funds locally for acquisition of high 
        priority parcels.
  --Local corporate, nonprofit and individual donors sponsored the 
        Litchfield Hills Greenprint, a GIS mapping project to identify 
        places that have significant environmental values.
  --More than 130 people turned out in the tiny borough of Bantam on a 
        cold February week night to attend a Garden Club public forum 
        on how we could work together to preserve high priority open 
        spaces.
    The Litchfield Farms in our town is one of those high value places 
with especially strong environmental values. This is a 753-acre 
property spanning two watersheds (Bantam and Naugatuck). It has large 
areas of wetlands, prime agricultural soils, diverse forests, state-
listed endangered species, and extraordinary scenic vistas. In fact, 
elevations of up to 1,300 feet make it one of the highest points in the 
Litchfield Township and the adjoining city of Torrington.
    This exceptional property is under imminent threat of development. 
It is difficult to know whether or for how long the window can be kept 
open for groups to amass the very substantial funds needed to acquire 
this special land and prevent it from becoming rolling hills of condos, 
town houses, starter mansions and shopping centers.
    Connecticut's Governor Jodi Rell has designated the Litchfield 
Farms in the request to the Interior Department jointly submitted by 
the four Highlands states (Connecticut, New York, New Jersey and 
Pennsylvania). She asked for $2.5 million for the Litchfield Farms.
    Federal support for acquisition of the Litchfield Farms at this 
$2.5 million level would be possible only if the Highlands Conservation 
program receives full funding at the $10 million level for land 
conservation partnership. The Administration's request of $2 million 
for all four states combined would not be sufficient to assure that the 
Litchfield Farms could be saved.
    A $10 million full-funding appropriation, which would allow $2.5 
million for the Litchfield Farms lands, not only would indicate that 
the federal government places a high value on the Litchfield Farms 
lands, it also would encourage national, state and local groups to 
redouble their efforts to raise the additional funds required to 
acquire these exceptional lands for conservation purposes.
                                 ______
                                 
                 Prepared Statement of the Mountaineers

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.7 million for the Cascade Checkerboard Program in 
the Mt. Baker-Snoqualmie National Forest in Washington.
    The Mt. Baker-Snoqualmie National Forest extends more than 140 
miles along the western slopes of the Cascade Mountains from the 
Canadian border to Mt. Rainier National Park. The forest covers 
portions of Whatcom, Skagit, Snohomish, King, and Pierce Counties. Over 
3.5 million people, or 62 percent of the state's population, live 
within a 70-mile drive of the forest. Another 1.5 million residents of 
the Vancouver, British Columbia, metro area are also within easy reach 
of the northern part of the forest. This large population base, coupled 
with easy road access, makes the Mt. Baker-Snoqualmie National Forest 
one of the most visited national forests in the country.
    The central Cascades are bisected east and west by the Burlington 
Northern Santa Fe Railroad and by Interstate 90. The original railroad 
through the Snoqualmie Pass was constructed by the Northern Pacific 
Railway, which received land grants from the federal government in 
alternating square miles along the route. The legacy of this 19th 
century land grant system is the large checkerboard ownership pattern 
that threatens this critical area of wildlife connectivity and 
migratory movement north and south. Because of the checkerboard pattern 
in the Central Cascades and the relatively limited amount of protected 
land, this region has acted as a bottleneck for migratory wildlife. 
Private timber companies continue to log their land grant parcels and 
have started to sell off cut over lands for real estate development.
    Available for acquisition in fiscal year 2007 are two parcels 
located in the vicinity of Stampede Pass and Dandy Pass along the crest 
of the Cascade Mountains. Located less than 50 miles from Seattle, 
these proposed acquisitions are primarily within the boundaries of the 
Mt Baker-Snoqualmie NF, with a corner of the Stampede Pass parcel lying 
in the adjacent Wenatchee NF. In addition to their key role in 
providing wildlife connectivity, they are very important for 
recreational purposes.
    The 618-acre Stampede Pass parcel, which is available for $975,000, 
contains two miles of the Pacific Crest National Scenic Trail (PCT). It 
is a priority of the Pacific Crest Trail Association and its 
acquisition will provide permanent protection for this segment of the 
trail.
    The 640-acre Dandy Pass parcel lies just south of the PCT and is 
available for $725,000. Its acquisition will provide additional 
protection for the landscape visible from the trail. In addition to 
hiking, visitors can enjoy camping and cross-country skiing. Public 
ownership will also ensure public access to adjacent Forest Service 
lands.
    Acquisition of these parcels is part of an ongoing, multi-year 
program of consolidating lands in the central Cascades, which has long 
been a Forest Service priority. This program seeks to consolidate 
federal land management priorities and prevent future fragmentation due 
to subdivision and other development. Fragmented forestlands present 
difficult and expensive challenges to forest managers with respect to 
fire suppression, containment and eradication of invasive species, 
maintaining wildlife habitat, limits on public access, and protection 
of watersheds. Although several parcels were acquired by the Forest 
Service through its I-90 Option Lands project, many more critical 
parcels, including Stampede Pass and Dandy Pass, also need to be 
protected.
    The acquisitions of the Stampede Pass and Dandy Pass parcels will 
improve forest management on a landscape level that will enhance 
recreational activities and secure vital wildlife migration corridors. 
An fiscal year 2007 appropriation of $1.7 million from the Land and 
Water Conservation Fund for the Forest Service Cascade Checkerboard 
program is necessary to bring these lands into protected public 
ownership.
    Thank you, Mr. Chairman, the opportunity to present this testimony 
and for your consideration of this request.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2007 appropriations. My name is Jimmie Powell and I am the 
Director of Government Relations at the Conservancy.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in 27 foreign countries and is supported by 
approximately one million individual members. We have helped conserve 
nearly 15 million acres of land in the United States and Canada and 
more than 102 million acres with local partner organizations globally.
    Wildland Fire Management.--The Conservancy commends the President 
for maintaining stable levels of Hazardous Fuels Reduction funding. We 
have five priorities to promote the restoration of fire-dependent 
forests. First, we recommend that the Committee establish funding for 
emergency fire suppression to avoid the problem of ``fire borrowing'' 
that diverts program dollars away from their primary purpose in years 
when fire suppression needs exceed the annual appropriation. The 
Conservancy also supports the President's budget direction to allow 
Forest Service regions to retain unobligated fire suppression funds for 
use in hazardous fuel reduction in subsequent years as a critical 
incentive to control suppression costs. Second, we recommend that the 
Committee direct the agencies to spend Hazardous Fuels Reduction 
funding on projects that are collaboratively developed (through a 
Community Wildfire Protection Plan or other collaborative developed 
forest or watershed plans). Third, restoration of altered fire regimes 
will, in the long run, result in diminished costs for wildfire 
suppression. Therefore, we request that the Committee encourage 
Wildland Fire Use by directing the agencies to report acres burned 
through Wildland Fire Use as fuels treatments. Fourth, we recommend 
that the Committee direct the agencies to use hazardous fuel reduction 
performance measures that include Fire Regime Condition Class as the 
metric to gauge treatment effectiveness. Fifth, the Conservancy 
believes that forest health cannot be addressed without developing 
commercial markets for the wood by-products of restoration. Thus, we 
support an appropriation of $50 million in the Hazardous Fuels budget 
line item for implementation of Section 210 of the Energy Policy Act of 
2005 (commercial biomass use).
    Forest Health Management.--America's forests are under siege by 
numerous exotic insects and diseases, and the pace of introductions 
appears to be increasing. We recommend that the Forest Health 
Management (FHM) program receive $130 million. This is the principal 
Forest Service program that protects the Nation's forests from 
economically and ecologically damaging non-native pests and pathogens, 
including the Asian Longhorned Beetle, Emerald Ash Borer, Hemlock 
Woolly Adelgid, Sudden Oak Death, Sirex woodwasp, and redbay wilt. 
Additional funds to this program, for example, are important to help 
contain the Emerald Ash Borer. This introduced pest threatens ash 
forests across North America. Its quarantine area now covers nearly 
20,000 square miles in Michigan's Lower Peninsula and nearby areas in 
Ohio and Indiana and Ontario. Expanded USFS engagement would help 
detect additional infestations, assist in outreach programs designed to 
curtail movement of firewood and other vectors, and advise states and 
private landowners on management practices. A particularly important 
FHM program element is the Early Detection project which provides 
flexibility to address immediate needs when new pests are discovered. 
In 2005 and 2006, for example, FHM provided crucial immediate funding 
to assess the impacts of the redbay wilt in Georgia and South Carolina 
and two introduced insects in Guam. Sustained investments in this 
program are essential to containing the growing threat to the 
ecological and economic values of the Nation's forest resources caused 
by an ongoing invasion of introduced insects and pathogens.
    Invasive Species.--Next to habitat loss, invasion by non-native 
species is the most pervasive threat to native biodiversity. The 
Conservancy supports funding at the President's request, or greater, 
for the Interdepartmental National Invasive Species Crosscut Budget. It 
is important to coordinate Federal agency actions to achieve 
prevention, early detection, rapid response, control and management and 
restoration of invasive species problems. We also support enhanced 
funding for three areas identified by DOI as fiscal year 2007 
priorities: leafy spurge on the Great Plains, tamarisk in the Southwest 
and invasive plant control in Florida. We also support continuation of 
the highly successful program of spartina eradication in Willapa Bay 
and request $600,000 in refuge operations for Willapa National Wildlife 
Refuge and $600,000 in targeted Partners for Fish and Wildlife funds 
for this purpose.
    Land and Water Conservation Fund.--We are very concerned with the 
declining levels of support for the nation's principal source of 
federal land acquisition funding. The nation is richer because of our 
historic commitment to protecting biologically significant lands. Yet, 
development pressures are unrelenting, threatening to degrade 
nationally significant resources in once remote areas as diverse as the 
Eastern Shore of Virginia NWR, Georgia's Chattahoochee NF and Montana's 
Blackfoot Valley. We recommend a funding level of $220 million, the 
average of funding over the past 5 years and about the same as the 
President's fiscal year 2005 request. The Conservancy specifically 
proposes funding of 25 biologically rich land acquisition projects 
totaling $57.8 million. Priorities include multi-year projects to 
protect Ivory-billed woodpecker habitat in the Cache River NWR and a 
key inholding at St. Marks NWR. Several projects, including the Rocky 
Mountain Front Conservation Area and Northern Tallgrass Prairie NWR, 
utilize conservation easements to achieve important conservation 
objectives while maintaining the integrity of working landscapes. We 
also urge the Subcommittee to restore funding for the state-side of 
LWCF.
    Forest Legacy.--This program is an increasingly popular and 
successful model of a non-regulatory conservation approach based on 
partnerships between federal and state governments and private 
landowners. The huge potential of this program to achieve conservation 
goals while maintaining sustainable use of private lands requires a 
significant funding increase. We strongly support an $80 million 
appropriation for this program, including such priority projects as the 
Upper Great Lakes Forest in Michigan, North-South Corridor in Rhode 
Island, Moro Big Pine in Arkansas, and the Pee Dee and Savannah Rivers 
projects in South Carolina.
    Payments in Lieu of Taxes and Refuge Revenue Sharing programs 
provide payments to counties where land has been taken off the local 
property tax roles and put into federal ownership. In some counties, 
protection of significant natural resources impacts the tax base that 
funds local government services, including schools and public safety. 
We urge the Committee to provide full funding for these programs and 
honor the federal government's commitment to impacted communities.
    USGS.--We support the President's increases for the new LANDSAT 8, 
a critically important investment for ecological monitoring in this 
country and globally. Within the USGS Water Resources programs, we 
support the $2.325 million increase for streamgages in the National 
Streamflow Information program.
    Following the 2005 hurricanes, biological assessments are needed to 
map the overall extent of natural resource loss, identify priorities 
for remedial action and inform decisions regarding rebuilding and 
recovery of the Gulf coast. The USGS Biological Resources Division 
through the National Wetlands Research Center in Lafayette, LA is 
taking the lead for federal agencies in collecting and centralizing 
information on Gulf coast-wide impacts of Hurricanes Katrina and Rita 
and has developed a three-year plan for assessment of hurricane 
impacts. To begin the initial phase of this effort, we request report 
language that designates $12 million to the National Wetland Research 
Center for collection and synthesis of data on hurricane impacts to 
natural resources.
    Endangered Species.--The Conservancy supports $90 million for the 
FWS's Cooperative Endangered Species Fund, an effective and flexible 
tool for building cooperative, voluntary partnerships. The Conservancy 
and its partners have used the Habitat Conservation Plan and Recovery 
Land Acquisition programs to secure key habitat for numerous endangered 
species in Southern California, as well as Atlantic salmon in Maine, 
Karner Blue Butterflies in New York and endangered freshwater mussels 
in Tennessee. We have also worked with states to develop HCP Plans 
funded by this program, including the bi-state Tennessee and Kentucky 
Northern Cumberland's plan. The requested increase reflects the 
importance and unmet public funding needs of collaborative conservation 
strategies to protect critically rare species on non-federal land, and 
state and local acquisition of habitat necessary for the survival of 
listed and candidate species. We have also worked with states to 
implement HCP plans.
    State Wildlife Grants.--The Conservancy strongly supports this 
program and concurs in the Teaming with Wildlife Coalition in 
recommending funding of $85 million. State wildlife agencies and their 
many partners are working to protect wildlife habitat by implementing 
the comprehensive wildlife conservation plans that were completed last 
fall.
    Cooperative Conservation.--Cooperative conservation partnerships 
are a cornerstone of the Conservancy's work around the world. By 
finding common ground with communities and developers, ranchers and 
farmers, government agencies and corporations, we develop creative and 
practical solutions that balance human needs with conservation goals. 
The Administration's Cooperative Conservation Initiative supports 
innovative partnerships between private landowners, local communities, 
states and the federal government. We endorse the President's request 
of $24.4 million for the Landowner Incentive Program and $9.4 million 
for Private Stewardship Grants. We support the $15 million for the FWS 
Coastal Program. We also support the President's request of $20.296 
million for the BLM, FWS and NPS Challenge Cost Share programs. These 
programs leverage appropriated dollars through 1:1 matches with State 
and private partners to implement important restoration and protection 
projects. We support $50 million for the Partners for Fish and Wildlife 
Program. The Conservancy supports the Administration's request of $3 
million for the National Fish Habitat Initiative.
    Migratory Bird Programs.--The Conservancy supports funding equal to 
or greater than the President's request of $45,000,000 for the North 
American Wetlands Conservation Fund. More than $1.6 billion in partner 
contributions has been raised to match $573 million in federal funds in 
order to save 20.6 million acres of wetlands. The Conservancy supports 
an increase of funding to $15.1 million for Joint Ventures.
    Coral Reefs.--The Conservancy supports the President's request for 
an additional $1.2 million to implement Local Action Strategies to 
address threats to coral reefs. These strategies are the product of 
collaborative efforts between federal agencies, states and territories, 
and local NGOs. We also support an increase in funding to $1 million 
for the Coral Reef Initiative.
    International Programs.--The Conservancy, as part of an alliance of 
major international conservation groups, supports the International 
Conservation Budget, which calls for $10.5 million to the FWS' 
Multinational Species Conservation Funds. This reflects $2 million each 
for the African and Asian Elephants and the Great Ape fund, the same 
for the new Marine Turtle fund, and $2.5 million for the Rhinoceros/
Tiger fund. We support $5 million for the Neotropical Migratory Bird 
Conservation Fund. We support $8 million for the Forest Service's 
International Programs.
    Environmental Protection Agency.--The EPA Gulf of Mexico Program 
works to protect the health and productivity of the Gulf of Mexico and 
is the only federal program solely focused on the five Gulf coast 
states. The Program's successes have led to an ever increasing demand 
to extend their technical services to reach more coastal communities 
across the region. The Program was well on its way toward helping build 
more resilient coastal communities before the historic storm season of 
2005, and the demand for the Program's assistance has continued to rise 
as the Gulf coast rebuilds. In an effort to achieve long-term 
protection of the Gulf of Mexico and ensure environmental and economic 
recovery from the 2005 hurricanes, we support $10 million for the EPA 
Gulf of Mexico program. We also support $22.7 million for the Great 
Lakes National Program Office. This program funds and conducts projects 
to protect, maintain and restore the chemical, biological and physical 
integrity of the Great Lakes--the largest freshwater ecosystem on 
Earth.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the Interior and Related Agencies appropriations 
bill.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado

    Mr. Chairman and Honorable Members of the Committee: As Mayor of 
the Town of Ophir located in southwest Colorado, I am writing to 
respectfully request that $2.5 million be allocated to the U.S. Forest 
Service's fiscal year 2007 budget from the Land and Water Conservation 
Fund. These funds will be used for the first phase of a public purchase 
of 1,200 acres of privately owned patented mining claims in the Ophir 
Valley. During the first phase, the Forest Service would acquire 600 
acres of this incomparable Colorado landscape. An additional $2.5 
million LWCF appropriation will be needed in fiscal year 2008 to 
complete this outstanding land conservation project.
    This project enjoys broad and deep community support in San Miguel 
County, and throughout southwest Colorado, for the following reasons:
    (1) The Ophir Valley is one of Colorado's most outstanding places, 
and is a cherished corner of San Miguel County. Against a backdrop of 
unsurpassed alpine scenery, the Valley offers an abundance of 
recreational opportunities for residents and visitors. Hiking, camping, 
mountain biking, cross-country skiing, four-wheeling, and fishing are 
all popular pastimes. In addition, the Valley supports habitat for the 
Canadian lynx, a federally listed threatened species, and provides 
important habitat for the endangered Uncompahgre fritillary butterfly 
and other sensitive species. It also contains the headwaters of the 
Howards Fork, a key tributary to the San Miguel River, which sustains 
globally rare streamside habitats.
    (2) Federal acquisition of this property will facilitate improved 
public lands management in eastern San Miguel County and will protect 
access to surrounding public lands. The property to be acquired 
consists of patented mining claims that occur as inholdings within 
surrounding national forest system lands. Purchasing these inholdings 
will ensure that they can be managed for their natural and recreational 
values in a manner that is consistent with management of adjacent lands 
already in public ownership. Importantly, acquisition of the property 
will guarantee access to surrounding public lands, and will help avoid 
conflicts between traditional public access expectations and private 
property rights.
    (3) The current property owner, Mr. Glenn Pauls, is a willing 
seller. Mr. Pauls has purchased the mining claims that comprise his 
property from many different sellers over the last several years. He 
has offered them for sale to the public through the Trust for Public 
Land (TPL), a national non-profit land conservation organization with a 
successful track record of acquiring thousands of acres of mining 
claims in the area under the Red Mountain Project. The opportunity that 
Mr. Pauls has afforded the public to acquire such a large number of 
mining claims from a single seller is a rare one that should not be 
missed.
    The Town of Ophir is located in San Miguel County, approximately 10 
miles south of Telluride, in an alpine mountain valley at an elevation 
of 9,600 feet, surrounded by mountain peaks and ridges rising to 13,000 
feet. Incorporated in 1881, Ophir has a long and colorful history, 
beginning as a mining town, then becoming a ghost town, and now is a 
thriving residential mountain community. The mountainsides surrounding 
the town, are as of yet undeveloped, but these hillsides are 
checkerboarded with fee simple patented lode claims, which are 
developable, privately owned inholdings within the national forest.
    Recognizing the development potential of the patented claims, the 
Ophir community has actively sought to protect this stunning area from 
sprawl development for more than 12 years through a town-funded and 
staffed Open Space Protection Program. With limited financial 
resources, the town has shown its commitment to conservation over the 
past 15 plus years. By working cooperatively with landowners, Ophir has 
acquired and conserved over 160 acres of remote lands, which are 
protected through conservation easements and are open to the public for 
recreational purposes.
    This is an exciting regional project. The scenic value of the high 
country in the San Juan mountains has long been recognized by San 
Miguel, Ouray, and San Juan counties. All three counties have portions 
of dramatic mountain jeep passes within their jurisdictions. The Ophir 
project is part of a larger San Juan Skyway initiative to protect key 
landscapes and to develop and protect outdoor recreation opportunities. 
Protection of the high country open space will protect scenic vistas 
that are an important asset to the regional economic engine.
    We want to thank you for your support and leadership in conserving 
Colorado's land and water resources. Protection of the Ophir Valley 
with LWCF funding will contribute greatly to ensuring that Colorado 
remains the special place that it is.
    Thank you for your consideration of this request.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    Mr. Chairman, The Wilderness Society (TWS) would like to thank you 
for the opportunity to provide recommendations and comments on the 
fiscal year 2007 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of the more than 250,000 members and 
supporters of TWS, a 70-year-old organization dedicated to preserving 
America's last remaining wild places, I provide below our fiscal year 
2007 funding recommendations for a number of important conservation 
programs.
    Adequate funding for the programs discussed below is vital to 
protect America's wild areas and environmental values, essential 
components of our American identity and our heritage. The land and our 
relationship with it infuse our history, our heroes, and our hearts. We 
hope to work with you to find the resolve and funding to protect those 
values that are a national birthright.
    Land and Water Conservation Fund.--The Land and Water Conservation 
Fund (LWCF) is our nation's premiere tool to create and preserve parks, 
forests, wildlife refuges and open space. And while the administration 
says its budget funds the program at $533 million, in reality the 
fiscal year 2007 budget provides only $85 million for LWCF's core 
programs--funding federal land acquisition at $84 million and 
eliminating stateside assistance. As it did last year, the budget then 
attempts to cloak this glaring shortfall by declaring more than a dozen 
other ongoing programs to be part of the LWCF. National treasures from 
the Everglades to our neighborhood parks will suffer from the resulting 
net loss in funds for expanding and consolidating parks, refuges and 
forests.
    We urge the Subcommittee to provide $450 million for Federal Land 
Acquisition and reinstate state-side LWCF to $100 million. For decades, 
LWCF has been a premier tool to fund two things: federal land 
acquisition and the state assistance program. Again this year, in an 
attempt to make LWCF look full, the Administration shoehorns in 
numerous additional unrelated programs. This was done to mask real cuts 
in funding for land acquisition. Funding in the President's Budget for 
National Park Service, Fish and Wildlife Service, Bureau of Land 
Management and U.S. Forest Service land acquisition is cut from a 
proposed $130 million in fiscal year 2006 to $84 million proposed for 
fiscal year 2007. Americans have long relied on federal land 
acquisition to protect and complete its parks, forests and refuges, and 
the Administration's cuts would result in smaller, more degraded lands 
and fewer recreation experiences--and the words ``Land and Water 
Conservation Fund'' would lose the meaning they have had since 1965.
    We support the administration's requested project list for LWCF and 
Forest Legacy. In addition to the administration's projects, we 
recommend LWCF federal land acquisition funding for 43 priority 
projects for fiscal year 2007, listed in Appendix A. Federal 
acquisition of these lands is necessary to address immediate 
environmental threats with the potential for permanent damage, and to 
help protect and restore wildlands of significance (e.g. those with 
rare ecosystems, endangered species, and/or other special qualities).
    Forest Legacy.--We support $80 million for the Forest Legacy 
program. Since its inception, the Forest Legacy program has proven an 
extremely popular means to combat the conversion of privately-owned 
timberlands to development. According to the recent USDA Forest Service 
report, ``Forests on the edge,'' over 40 million acres of private 
forestlands are likely to be developed in the next three decades, 
threatening critical water and other ecological resources. In fiscal 
year 2007, 43 states submitted 91 projects totaling $204 million in 
need from Forest Legacy. Fourteen states that submitted projects were 
excluded completely from the President's budget. Funding to the Forest 
Legacy program must rise to respond to these increasing development 
pressures and better meet demand from participating states.

            ADDITIONAL AGENCY APPROPRIATIONS RECOMMENDATIONS

    Fish and Wildlife Service.--The National Wildlife Refuge System is 
suffering under a $2.5 billion backlog in operations and maintenance. 
Consequently, we strongly recommend that funding to the Refuge System 
be increased over the fiscal year 2006 levels, in an effort to begin to 
counteract the massive backlogs. We urge the subcommittee to 
appropriate $800 million for the Operations and Maintenance Program to 
carry out necessary repairs, fund staff positions, and support 
development of Comprehensive Conservation Plans.
    Forest Service: Wildfire Management.--Recognizing that borrowing 
funds for wildfire suppression caused disruptions in management, 
Congress established a suppression account in 2004. We support 
maintaining this account and recommend it remain intact, even during 
funding emergencies, so critical programs are not compromised by 
borrowing. We also urge the Committee to replace any funds used. Up to 
85 percent of the land around communities at highest risk for wildfires 
is state or private. State and Local Assistance programs aid these 
states and localities, including State Fire Assistance and the Economic 
Action Program (EAP). We recommend that no less than 20 percent of the 
five-year average National Fire Plan (NFP) appropriations, $570 
million, be allocated to State and Local Assistance Programs, with 50 
percent of those funds, $285 million, targeted specifically to State 
Fire Assistance. We suggest $39.5 million for EAP in fiscal year 2007. 
We recommend that, in fiscal year 2007 and until an alternative program 
is developed, base EAP receive at least the program's five-year 
average, $27 million. We also recommend that the NFP sub-program be 
restored to $12.5 million and that NFP funding be retained in any 
alternative program.
    BLM's Oil and Gas Program.--We urge you to reduce the Bureau of 
Land Management's (BLM) proposed budget of $115 million for its oil and 
gas program by $20 million. Though the BLM has requested an 
unprecedented $26 million increase in appropriations for its oil and 
gas program for fiscal year 2007, the subcommittee should be aware that 
the BLM is receiving an additional $20 million ``off budget'' from 
lease rentals to fund seven ``pilot permitting programs'' established 
by the Energy Policy. In effect, the BLM is asking for a $46 million 
increase in funding for its oil and gas program, while the BLM's 
request neglects other high priority programs, such as: the National 
Landscape Conservation System; Wildlife and Fisheries; Soil, Water, and 
Air; Riparian Management; and Recreation.
    We recommend that the subcommittee take the following actions with 
respect to the BLM's oil and gas program request:
    (1) Limit the increase in appropriation for the BLM's oil and gas 
program to $6 million, given the fact that the BLM is receiving an 
additional $20 million ``off budget'' for its seven ``pilot programs.'' 
Also, of the $6 million increase, $2.9 million should be allocated for 
Inspection and Enforcement activities, with report language directing 
that such funds and personnel may not be diverted for other oil and gas 
program responsibilities;
    (2) Adopt the Administration's proposal to amend Sec. 365 of the 
Energy Policy Act by striking Sec. 365(i) which prohibits the BLM from 
requiring fees from permit applicants to cover the administrative costs 
of APD processing;
    (3) Direct the BLM to stop diverting BLM appropriations from other 
programs to the oil and gas program; and
    (4) Prohibit the BLM from initiating a commercial oil shale leasing 
program until the subcommittee has received and reviewed a report after 
the completion of the existing oil shale research and development 
leasing program.
    We recommend that the $20 million in savings be used to rebalance 
funding for other BLM programs, with increases in funding for the 
National Landscape Conservation System; Wildlife and Fisheries; Soil, 
Water, and Air; Riparian Management; Wilderness and Recreation 
Resources Management; and a sufficient allocation to the National 
Academy of Sciences to complete the coalbed methane study authorized in 
Sec. 1811 of the Energy Policy Act.
    National Landscape Conservation System.--We urge the committee to 
increase the Administration's fiscal year 2007 budget for the BLM's 
National Landscape Conservation System (NLCS) by $11.3 million, for 
operations and maintenance, to provide a total of $46 million to 
conserve the unique National Monuments, Conservation Areas, Trails, 
Rivers, and Wilderness, and Wilderness Study Areas that comprise the 26 
million acre System. This would restore funding levels to those 
proposed by the President in fiscal year 2006. Priority unmet needs 
include law enforcement, resource monitoring, and cultural resource 
protection. We also ask the committee to support any member requests 
for additional funding for NLCS units in their districts. These 
requested increases could be funded in part with some of the $20 
million in savings from the oil and gas program that we propose. To 
promote greater management transparency and accountability for the 
NLCS, we urge the committee to request expenditure and accomplishment 
reports for each of the System's Monuments and Conservation Areas for 
fiscal year 2006, and a projected cross cut budget for 2007 that 
includes expenditures by area and subactivity.
    Land Sales.--We urge the subcommittee to exclude from its bill and 
report any language that would amend existing law to provide for such 
asset sales.
    Artic North Slope Oil and Gas.--The budget should not assume that 
in 2006 Congress will pass legislation to authorize energy development 
in the Arctic National Wildlife Refuge. To date, all attempts to 
authorize leasing have failed. If any reference to a leasing program in 
Arctic National Wildlife Refuge remains, adopt report language 
prohibiting BLM from conducting the baseline studies and environmental 
impacts analysis that the National Wildlife Refuge System 
Administration Act mandates the Fish and Wildlife Service has the 
authority to complete.

  TABLE A: RECOMMENDED FEDERAL LWCF PROJECTS FOR FISCAL YEAR 2007--TWS
                   LWCF PRIORITY LIST FISCAL YEAR 2007
------------------------------------------------------------------------
    State                        Project                       Request
------------------------------------------------------------------------
          AL Alabama National Forests                       $1,500,000
          AZ Coconino NF (Packard Ranch)                     5,500,000
          CA Big Sur Ecosystem (Rancho Calera Phase I)       2,000,000
          CA Carrizo Plain National Monument                   500,000
          CO McInnis Canyons National Conservation Area      1,100,000
          CO Arapaho NWR (Burr Ranch Phase I)                3,200,000
          CO Uncompahgre NF (Ophir Valley Phase I)           2,500,000
          CO Canyons of the Ancients National Monument       1,100,000
          CT Stewart McKinney NWR (Menunketsuc Saltmarsh     1,000,000
              Meadow)
          FL St. Marks NWR                                   1,700,000
          FL Suwannee Wildlife Corridor/Pinhook Swamp        2,000,000
          FL Florida National Scenic Trail                   2,000,000
          GA Georgia Mountains                               2,700,000
          KY Daniel Boone NF                                 4,615,000
          KY Cumberland Gap NHP (Fern Lake Watershed         2,500,000
              Phase II)
          LA Tensas River NWR (Chicago Mill Phase IV)        1,750,000
          MA Cape Cod NS (North of Highland Campground)      6,100,000
          ME Rachel Carson NWR                                 650,000
          MN Superior NF (Long Island)                       2,000,000
          MS Lower Yazoo Basin, Delta NF                     2,500,000
          NC Croatan NF (Onslow Bight)                       5,000,000
          NC Uwharrie National Recreational Trail            1,600,000
          NH Lake Umbagog National Wildlife Refuge           1,000,000
 NH/VT/MA/CT Silvio O. Conte NFWR                            4,000,000
          OR Pacific Crest Trail, Sky King Cole Ranch        1,500,000
          OR Pacific Crest Trail, Cascade-Siskiyou           1,500,000
              National Monument, Oregon
          SC Francis Marion Sumter NF                        4,685,000
          TN Tenessee Mountains                              3,000,000
          UT Colorado River SRMA (Westwater Ranch Phase      1,300,000
              II)
          UT Bear River Migratroy Bird Refuge (Rolfe           726,000
              Phase II, Christensen)
          UT Bonneville Shoreline Trail (Draper Phase II,    3,000,000
              North Ogden)
          VA Jefferson NF (Black Lick Char-Lo Timberlands    2,850,000
              & Appalachian Trail)
          VT Green Mountain NF (Broad Brook Watershed        1,100,000
              Phase II)
          WA Cascade Checkerboard (Stampede Pass, Dandy      1,700,000
              Pass)
          WI Chequamegon-Nicolet NF-Wisconsin Wild           2,500,000
              Waterways (Venison Creek and Indian Farms)
          AL Cumberland Mountains Preserve                   1,185,000
          AL Mobile Delta                                    1,000,000
          AZ Cedar Springs                                   2,200,000
          ME Grafton Notch                                   2,000,000
          ME Lower Penobscot Forest                          5,500,000
          MN Sugar Hills                                       750,000
          NC Whitehurst State Forest                         4,500,000
          NC Clarendon Plantation                            2,500,000
          NH Willard Pond/Robb Reservoir                     3,000,000
          NH Phillips Brook                                  3,500,000
          NJ Sparta Mountain South, phase II                 2,100,000
          NY Tahawus                                         5,000,000
          PA Birdsboro Waters                                  300,000
          SC Pee Dee River                                   2,500,000
          SC Savannah River                                  2,500,000
          VT Orange County Headwaters                        1,542,000
          VT Adams Pond                                      1,167,000
------------------------------------------------------------------------

                                 ______
                                 
            Prepared Statement of the The Wilderness Society

                              INTRODUCTION

    The Wilderness Society (TWS) appreciates this opportunity to 
provide recommendations and comments on fiscal year 2007 budget 
appropriations for wildfire management in the Department of the 
Interior and Related Agencies Appropriations bill. There are three 
areas in which we would like to provide recommendations or convey 
concerns: (1) maintaining wildfire suppression funding, (2) 
insufficient funding for State and Local Assistance programs, 
particularly State Fire Assistance, and (3) the elimination the Forest 
Service's Economic Action Program (EAP).

                      WILDFIRE SUPPRESSION FUNDING

    Over the last five years over $14.24 billion has been appropriated 
to the National Fire Plan,\1\ in categories including preparedness, 
suppression, hazardous fuels reduction, and state and local assistance. 
Suppression funds are used to suppress wildland fires that occur or 
threaten public lands administered by the Department of the Interior 
and Forest Service or other lands covered by federal fire protection 
agreements. The cost of suppression has grown significantly in recent 
years because of prolonged drought, the build-up of hazardous fuels, 
and expansion of communities into wildlands. Suppression funds 
generally account for about 40 percent of the National Fire Plan budget 
request each year and are usually based on the average costs for the 
previous 10 years, adjusted for inflation. However, in the past 
appropriated dollars for suppression have fallen far short, and even 
with emergency appropriations, have failed on many occasions to meet 
the need. As a result, the agencies have had to borrow money from other 
programs to fund their suppression activities. Recognizing that past 
borrowing of funds from other agency programs for wildland fire 
suppression caused project cancellations, strained relationships with 
partners, and disruptions in management, Congress provided emergency 
funding intended to preclude this practice in August 2004 through a 
supplemental appropriation of $500 million ($100 million to the 
Department of the Interior and $400 million to the Forest Service). 
Congress also included a $500 million supplemental to provide 
additional wildland fire suppression funds in its fiscal year 2005 
appropriations for the Forest Service and the Department of the 
Interior.
---------------------------------------------------------------------------
    \1\ Data source: National Fire Plan website www.fireplan.gov
---------------------------------------------------------------------------
    The 2005 fire season was relatively less active than normal and, as 
a result, funds remained in this supplemental suppression account at 
the beginning of fiscal year 2006. It was during this time that the 
Administration proposed to rescind a portion of this account, $500 
million, to help make up for the cost of Hurricane Katrina. 
Firefighters, members of Congress, and environmental groups, including 
TWS, criticized this proposal. This rescission was not included in the 
final legislation passed to help off-set the costs of Hurricane 
Katrina.
    The Wilderness Society supports the maintenance of this 
supplemental suppression account and recommends that it remain intact, 
even when the nation is faced with future emergency funding needs. If 
funds from this supplemental suppression account are obligated 
elsewhere the agencies are forced to borrow funds from other programs, 
often those very programs--hazardous fuels reduction and community 
assistance--that represent the best hope of decreasing the damage and 
bringing down the costs associated with wildland fire. These potential 
benefits are lost when the funding these programs require is traded off 
for suppression efforts. In addition, this supplemental suppression 
account will aid the agencies in planning for more long-term needs, 
like restoration, because they will no longer face the annual cycle of 
program disruptions and emergency funding requirements precipitated by 
suppression underfunding. Severe drought conditions in many parts of 
the West, the expansion of the wildland urban interface, and build ups 
of hazardous fuels are likely to make for a severe wildfire season this 
year. If the agencies are forced to use these funds from this 
supplemental suppression account because costs exceed their original 
suppression appropriations, we encourage Congress to provide additional 
funding to make up for any funds used so the agencies are not forced to 
again borrow from other programs to fund future suppression needs.
    While this supplemental suppression account will help to reduce the 
negative impacts associated with transferring funds from other 
accounts, it is a short-term solution. Longer-term solutions for 
containing suppression costs are also needed. Congress recognized this 
when it required the Department of Agriculture to establish a cost-
control review panel to examine and report on fire suppression costs 
for wildfires that exceed $10,000,000 and required that the Departments 
of Interior and Agriculture submit a joint report on cost-containment 
measures. The Wilderness Society supports these efforts to examine 
wildfire suppression costs and further recommends that other cost-
containment measures be considered, including changing incentive 
structures to encourage Wildland Fire Use, when appropriate.

           STATE AND LOCAL ASSISTANCE--STATE FIRE ASSISTANCE

    Comprehensive fire management inherently transcends land ownership 
boundaries. In 2001, federal planners identified 11,376 ``communities 
at risk'' (66 FR 751-777) as an indication of the extent of the land 
ownership problem facing fire managers. TWS research has shown that up 
to 85 percent of the land around communities that is at the highest 
risk for wildfires is state or private. These private lands must be 
integrated into landscape-scale problem definition and fire management 
planning. As such, State and Local Assistance programs have been 
designed to help states and localities promote fire-adapted communities 
in fire-resilient landscapes, one of the most important of which is 
State Fire Assistance because it provides the most crucial benefit in 
balancing risk reduction efforts between federal and non-federal lands. 
The State Fire Assistance Program provides technical and financial 
assistance to states for grants and agreements with communities to 
implement fire risk reduction activities, including the removal of 
hazardous fuels, fire prevention campaigns, personnel training, 
equipment availability, Community Wildfire Protection Planning, and 
FIREWISE--a public education program to assist communities located near 
fire-prone lands.
    Unfortunately, the President's Budget for fiscal year 2007 plans to 
reduce the State Fire Assistance program, sending the message that the 
goal of safer communities is not a top priority. Already woefully 
underfunded, State Fire Assistance is proposed for a 30 percent cut in 
the fiscal year 2007 budget, from $78.7 million to $56.1 million. Of 
the $14.24 billion appropriated to the National Fire Plan in the last 
five years, less than 11 percent, or approximately $1.56 billion, has 
been directed to fire management activities by non-federal partners.\2\ 
To improve the effectiveness and efficiency of national fire 
management, better parity simply must exist between appropriations 
allocated to federal and non-federal land and fire managers. 
Accordingly, The Wilderness Society recommends that no less than 20 
percent of the five-year average National Fire Plan appropriations be 
allocated to the State and Local Assistance Program generally, and that 
50 percent of those additional resources be targeted specifically to 
the State Fire Assistance line-item. Total federal appropriations to 
the National Fire Plan over the last five years equal approximately 
$14.24 billion, and $2.85 billion represents an approximate yearly 
average expenditure in those five years. As such, no less than $570 
million, or 20 percent of that averaged total, should target State and 
Local Assistance programs. Because of the importance of State Fire 
Assistance, no less than 50 percent of additional resources afforded 
State and Local Assistance, or approximately $285 million, should 
target specifically the State Fire Assistance program. $285 million 
amounts to only 10 percent of the average total NFP appropriations.
---------------------------------------------------------------------------
    \2\ Specifically those line items under The National Fire Plan 
associated with state and local assistance budget heading, including 
Forest Health Management (Coop Lands), State Fire Assistance and 
Volunteer Fire Assistance under Wildland Fire Management and Forest 
Health Management (Coop Lands), State Fire Assistance, Volunteer Fire 
Assistance, Forests Stewardship, Forest Legacy Program, Urban & 
Community Forestry, Economic Action Program, and Forest Research & 
Information Analysis under State and Private Forestry Appropriations. 
Data source: USFA Budget Justifications 2004, 2005, 2006.
---------------------------------------------------------------------------
    To reach this goal, The Wilderness Society recommends a steady 
increase over three years (see Figure 1). The first year, should 
reflect a 75 percent increase of the $82 million historical average for 
State Fire Assistance, resulting in a $144 million appropriation. In 
the second year, a 50 percent increase to $216 million. In the last 
year, an approximately 30 percent increase would realize the $285 
million target appropriation.

          STATE AND LOCAL ASSISTANCE--ECONOMIC ACTION PROGRAM

    The Forest Service's Economic Action Program (EAP) was designed 
with the intent to strengthen and diversify the economic health of 
communities that are dependent on natural resources over the long-term. 
While we realize that this program is in transition and its structure 
is likely to change, one of the key functions of EAP is to provide one 
of, if not the only, source of funding that communities can use to add 
wildfire risk assessments and defensible space planning to their 
community action plans. Since 2002, EAP has experienced consistent 
funding reductions, from almost $50 million to approximately $10 
million and is proposed for elimination in the fiscal year 2007 budget. 
In order for the Forest Service to achieve the goals they have set for 
the Economic Action Program, more funding is required. We suggest a 
total of $39.5 million for EAP in fiscal year 2007. We recommend that, 
in fiscal year 2007 and until such time as an alternative program that 
retains EAP's critical elements is developed, the base EAP program 
receive at least the average funding level for the program over the 
past 5 years, $27 million. We also recommend that the National Fire 
Plan sub-program of EAP, which provided dedicated funding for 
communities to add wildfire risk assessments and defensible space 
planning to their action plans until 2003, be restored at a level of 
$12.5 million and that this dedicated funding for community fire 
planning be retained in any alternative program developed.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

    Mr. Chairman and Honorable Members of the Committee: I appreciate 
the opportunity to present this testimony in support of a $2 million 
appropriation from the Land and Water Conservation Fund for the 
critical land protection in the Superior National Forest in Minnesota.
    The Wilderness Society seeks to deliver to future generations an 
unspoiled legacy of wilderness and all the precious values it holds. I 
write with the support of our membership of 250,000 voices for the 
critical land protection of Long Island, on Burntside Lake, near Ely, 
Minnesota and within the Superior National Forest.
    I grew up in Ely, where my parents owned and operated the area's 
largest canoe trip outfitting business. My parents have owned property 
on Burntside Lake since 1943 and I personally have owned property on 
Burntside Lake since 1969. I am familiar with the immense development 
pressure on this marvelous lake. Long Island is the largest undeveloped 
island in Burntside Lake and is an ecological and recreational asset to 
the area. At over 10,000 acres in size, Burntside Lake is an important 
recreational area with two entry points into the Boundary Waters Canoe 
Area Wilderness ``BWCAW'', five campsites and six public canoe 
launching points. It is also one of the few lakes in Minnesota that 
support a natural cold water fishery and is renowned for its big lake 
trout and walleye while supporting one of the largest populations of 
loons in the state.
    I have worked to protect the BWCAW and the Superior National Forest 
my entire life. I believe that Long Island would be an outstanding 
addition to the Superior National Forest for its ecological and 
recreational qualities and its significant historical and cultural 
value. Long Island is the stunning view shed of writer and 
conservationist Sigurd Olson's legendary Listening Point. Listening 
Point was a place of inspiration for Olson where he wrote his books and 
crafted aspects of the 1964 Wilderness Act. I have spent time at 
Listening Point with Sigurd and Elizabeth Olson and know first-hand 
that it is a special place.
    While Listening Point is protected today, the view across the lake 
featuring Long Island is not. It is a place where many people go to 
appreciate Sigurd Olson and the land for which he so eloquently 
advocated in his writing. If offers the opportunity to look at and 
enjoy undisturbed landscapes that are a healthy remnant of the great 
forests that once covered Minnesota. Over 200,000 people visit the 
BWCAW annually, which is a testament to the appeal of this beautiful 
wilderness landscape and the need to continue to preserve this area. 
Generations of canoeists from YMCA Camp Widjiwagan and YMCA Family Camp 
DuNord, both located on Burntside Lake, have paddled by and continue to 
travel the waterways of the north country that Olson described.
    Public acquisition of the Long Island property will ensure that the 
attributes of the northwoods region so treasured by its many visitors 
will be protected in perpetuity. The Land and Water Conservation Fund 
has in recent years been underfunded for the protection of these 
special, undisturbed places, and an appropriation of $2 million for 
Minnesota's forests would be a step in the right direction towards 
fulfilling the intent of this fund.
    An appropriation of $2 million from the Land and Water Conservation 
Fund in fiscal year 2007 for the Superior National Forest will secure 
the acquisition of Long Island, protect its critical natural resources 
for the public, and maintain the integrity of the great northwoods.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
               Prepared Statement of the Wildlife Society

    The Wildlife Society appreciates the opportunity to provide 
comments on the proposed fiscal year 2007 budget for the Department of 
Interior and Related Agencies. The Wildlife Society is the association 
of over 8,000 professional wildlife biologists and managers dedicated 
to excellence in wildlife stewardship through science and education. 
The Society supports all aspects of federal programs that benefit 
wildlife and wildlife habitat.

                     U.S. FISH AND WILDLIFE SERVICE

    Funding assistance for state wildlife agencies is one of the 
highest priority needs for wildlife at this time, providing essential 
resources to conserve wildlife, fish, and habitat, and to prevent 
further declines in at-risk wildlife populations in every state. We 
appreciate the Administration's recognition of the importance of the 
State Wildlife Grants Program through the $74 million request, but we 
strongly encourage even greater funding to achieve species 
conservation. We recommend that $85 million be appropriated for State 
Wildlife Grants in fiscal year 2007. States have recently completed 
their comprehensive wildlife conservation strategies (Wildlife Action 
Plans) as mandated by Congress. These Wildlife Action Plans detail each 
state's species of greatest concern, their related habitats, 
limitations, and related needed conservation actions. With the 
completion of all 56 state and territorial Wildlife Action Plans, it is 
critical this program receive increased funding to assist states with 
the actual implementation of on-the-ground actions associated with the 
wildlife action plans.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. We are pleased by the Administration's support of this 
program through its $42 million request, but ask you to recognize that 
the authorized funding level for this program in fiscal year 2007 is 
$75 million. Therefore, we recommend that you appropriate the full $75 
million for the North American Wetlands Conservation Fund in fiscal 
year 2007.
    The Neotropical Migratory Bird Conservation Act provides a broad-
spectrum approach to bird conservation. The Wildlife Society recommends 
that Congress fund the Neotropical Migratory Bird Conservation Act at 
its full authorization of $5 million in fiscal year 2007. The 
Administrations budget would include the Neotropical Migratory Bird 
Conservation Act funding in the Multinational Species Fund. A total of 
$8.217 million was requested for the Multinational Species Conservation 
Fund, with only $3.96 million for Neotropical Migratory Bird 
Conservation. Again, we urge full funding of $5 million in fiscal year 
2007 for the Neotropical Migratory Bird Conservation Act.
    The Multinational Species Conservation Fund supports six often 
neglected species groups important to international wildlife 
conservation: African and Asian Elephants, Great Apes, Marine Turtles, 
Rhinoceroses, and Tigers. All of the fund species are threatened by 
loss of habitat, exploitation, poaching, or disease. Funds for these 
critical programs have been slashed by $2.1 million in the President's 
proposed budget. We are concerned that the President's proposal fails 
to adequately fund the Multinational Species Conservation Fund, and 
recommend that $2.0 million be added to the Multinational Species 
Conservation Fund to be evenly applied across program elements. This 
will restore programs to the fiscal year 2006 level and add additional 
funds for pressing challenges such as increasing Hawksbill turtle 
programs in the Caribbean and dealing with serious disease challenges 
in the Great Ape Colonies of Africa. In the future, we recommend that 
Congress move toward appropriating $2 million for each species group 
(elephants, tigers, apes, rhinos, and marine turtles) each year.
    We are pleased by the $27.39 million request for Migratory Bird 
Management (Conservation and Monitoring) in fiscal year 2007, 
especially since public interest in migratory birds and the need for 
migratory bird management are increasing. However, we strongly 
recommend an additional $1 million for Migratory Bird Management to 
meet program objectives for migratory bird conservation in the future.
    The Wildlife Society is concerned by the proposed decrease in the 
Operations and Maintenance budget of the National Wildlife Refuge 
System. We do, however, support the increased funding requested for the 
Wildlife and Habitat Management and Refuge Operations. There is a 
tremendous backlog of funding needs that must be addressed in the 
future to successfully meet the Refuge System's mission of conserving 
fish and wildlife. Several years ago, The Wildlife Society, along with 
16 other organizations, created the Cooperative Alliance for Refuge 
Enhancement (CARE) specifically to address this growing backlog. The 
Wildlife Society continues to support the CARE recommendations to 
eliminate the backlog of Refuge operations and maintenance and also 
strongly urges these recommendations be used to guide future budget 
requests.
    The Wildlife Society supports maintaining the funding levels for 
all subactivities within the Endangered Species Program, and is 
especially concerned with the proposed reduction of $7.7 million for 
the Recovery Program. Endangered species recovery efforts can 
ultimately lead to delisting actions that result in significant 
benefits to species through State management efforts. This proposed 
decrease in funding would negatively impact the ability to form 
important partnerships with State fish and wildlife agencies. We 
recommend that Congress restore the $7.7 million to the Endangered 
Species Program's base budget for use in recovery efforts.

                       BUREAU OF LAND MANAGEMENT

    The Administration's fiscal year 2007 budget for BLM's Wildlife 
Management program is $28.387 million, a $221,000 increase over the 
fiscal year 2006 enacted level. This increase will allow the Bureau to 
address, with its Partners, the loss of sagebrush habitat and 
associated impacts to sage grouse and other sagebrush dependent 
wildlife. The Wildlife Society supports this effort provided it is 
carried out in a manner consistent with, and complimentary to, ongoing 
state sage grouse management efforts. The Wildlife Society strongly 
urges Congress to increase BLM's fiscal year 2007 Wildlife Management 
budget by an additional $3 million to meet ongoing wildlife issues.
    The President has requested an $181,000 increase in BLM's 
Threatened and Endangered Species Management Program for fiscal year 
2007. However, this request ignores the agency's March 2001 Report to 
Congress which called for a doubling of the current Threatened and 
Endangered Species budget to $48 million and an additional 70 staff 
positions over 5 years. The fiscal year 2007 request is woefully 
inadequate to meet identified needs or allow the BLM to carry out its 
responsibilities under the ESA. In view of this gross inequity between 
resource needs versus funding levels, The Wildlife Society strongly 
encourages Congress to add an additional $5 million to the Threatened 
and Endangered Species fiscal year 2007 budget.
    BLM manages over 23 million acres of riparian or wetland areas, 
supporting some of the most ecologically diverse plant and animal 
communities on public lands. The Wildlife Society supports BLM efforts 
in riparian areas, but remains concerned that the requested $21.598 
million for this program, which is a $526,000 decrease, is insufficient 
to meet all of the identified needs. We request that Congress add $1.5 
million to this program, and urge BLM to continue its coordination with 
State fish and wildlife agencies in order to achieve optimal program 
results.

          U.S. GEOLOGICAL SURVEY BIOLOGICAL RESOURCES DIVISION

    As a member of the USGS Coalition, The Wildlife Society supports 
$1.2 billion for USGS in fiscal year 2007. This level of funding would 
enable the USGS to meet new challenges while continuing to provide data 
for land-use management, sustainable natural resource development, 
economic growth, and enhanced security from natural and manmade 
hazards. More investment is needed to strengthen USGS partnerships, 
improve monitoring networks, produce high-quality digital geospatial 
data and deliver the best possible science to address societally 
important problems.
    We are discouraged to see that uncontrollables for the Biological 
Resources Division (BRD) are not fully funded in the budget request. We 
strongly recommend that the fiscal year 2007 BRD budget be increased by 
$1.07 million to fully fund uncontrollables.
    Fiscal year 2001 was the last time Congress fully funded the 
Cooperative Research Units, thereby allowing unit productivity to rise 
to record levels. Since that was achieved--at a level of $14 million--
there has been an erosion of available fiscal resources, resulting in a 
current staffing vacancy of 19 positions and a decrease in 
productivity, in order to make up for the budget shortfall. In 
addition, the expansion of the new unit at the University of Nebraska 
has been hindered by the inability to fully staff this new effort in 
spite of significant contributions by the cooperating partners. Applied 
research efforts and dissemination of research information to states 
and other cooperators has suffered due to the lack of funding for 
publication of results. In many states, the Cooperative Research Units 
are the research arm of the state fish and wildlife agency, and, as a 
result, excellent cooperative relationships have been established. The 
Wildlife Society strongly recommends Congress increase the fiscal year 
2007 budget for the Cooperative Research Units by $2.562 million to 
achieve full funding and full function.
    In 2003, the BRD embarked on a very limited program to provide 
partial funding to state wildlife agencies for Chronic Wasting Disease 
(CWD) research. This funding is critical to permit the states to 
address this expanding disease. During the past year, three new states 
were CWD positive for the first time in wild deer populations (New 
York, West Virginia, and Kansas). Without research into the 
epidemiology and impacts of CWD on cervid populations, it will be 
difficult to develop adequate management methods to address the 
disease. The Wildlife Society recommends Congress increase the fiscal 
year 2007 budget by $5 million for additional chronic wasting disease 
research, with $3 million designated for cooperative grants to state 
wildlife agencies.
    The advent of highly pathogenic Asian strain H5N1 avian influenza 
(H5N1) in Asia, Europe, Africa, and the Middle East has demonstrated 
the speed with which a zoonotic disease can spread, either 
intentionally or unintentionally. The need to ensure that the United 
States is able to detect this virus if it appears in North America is 
very important to the health of wildlife populations, humans, and the 
poultry industry. The Wildlife Society strongly recommends that funding 
in the fiscal year 2007 budget for USGS-BRD for avian influenza 
research and monitoring be increased by $0.4 million to enable 
operation and supplies for new equipment, $0.7 million for surveillance 
of migratory bird populations on their wintering grounds, and $0.130 
million for development of a wildlife health monitoring network.

                          U.S. FOREST SERVICE

    We support the Administration's request of $267 million for Forest 
and Rangelands Research. This support is conditioned on maintaining 
current activities in the Wildlife, Fish, Water, and Air Program. This 
line item continues important research initiatives such as invasive 
species and Sudden Oak Death disease.
    The Wildlife Society is deeply concerned that the President's 
budget for this program proposes another 7 percent reduction from the 
2006 enacted budget for the Wildlife and Fisheries Habitat Management 
Program. We urge Congress to restore $11.452 million, for a total of 
$135 million. The Wildlife Society requests that the USFS closely 
coordinate use of these funds with state fish and wildlife agencies to 
recognize and fully utilize the state's authorities for fish and 
wildlife management. To maximize benefits from these funds, however, 
the USFS needs to facilitate cooperative design and conduct of programs 
and activities to reduce duplication with state programs and to 
increase acceptability of programs in achieving land and resource 
objectives.
    Thank you for considering the comments of wildlife professionals. 
We are available to work with you and your staff throughout the 
appropriations process.
                                 ______
                                 
    Prepared Statement of the Utah Guides and Outfitters Association

    Mr. Chairman and Honorable Members of the Committee: Utah Guides 
and Outfitters Association (UGO) strongly supports a $1.3 million 
appropriation from the Land and Water Conservation Fund for continuing 
BLM's program to protect important private lands along their Colorado 
River Special Recreation Management Area designation.
    UGO represents more than 40 major river- and land-based recreation 
companies in the state, many of them in Southeast Utah. Members 
specialize in offering guided tours on public lands and waterways.
    Southeastern Utah is particularly blessed with natural history and 
recreational opportunities that make rafting, mountain biking and 
backpacking trips very popular with clients of our member companies, 
which translates into very significant tourism dollars and economic 
benefits for Moab, Grand County and other communities throughout this 
part of the state.
    One very important natural resource that strongly deserves 
permanent protection is the Westwater Canyon stretch of the Colorado 
River, which offers an easily accessible day trip for white water 
rafters to enjoy both Class IV rapids and the inspiring canyons and 
scenery of the Colorado Plateau. A very important part of the Westwater 
Canyon rafting experience occurs at the starting point, BLM Weswater 
Ranger Station, which is the put--in point for the expedition. Through 
the Ranger Station, BLM offers camping and boating facilities, and is 
in need of additional area for expansion due to its high usage and 
popularity among tourists and residents of southeastern Utah and 
western Colorado. Immediately downstream of the Ranger Station--and 
before entering Westwater Canyon itself--rafters float by the 
privately-owned Westwater Ranch which contains three miles of frontage 
along the Colorado River and contains extensive riparian vegetation, 
including very large Cottonwoods, and excellent wildlife habitat.
    Westwater Ranch was acquired in late 2005 by a group of investors 
who plan to make significant investments to return it to a fully 
functional ranch, including removal of invasive species and enhancement 
of wildlife habitat along the river. We understand that this new 
ownership group is very supportive of selling development rights 
associated with the ranch to BLM, thereby offering permanent protection 
to this very important part of the Colorado River landscape near 
Westwater Canyon They are also interested in selling to BLM a small 
area that adjacent to the Westwater Ranger Station for expansion of 
BLM's recreational facilities for the public.
    In fiscal year 2006, Land and Water Conservation Funds were secured 
to protect a first phase of the Westwater Ranch, and we understand that 
BLM and project partners are making good progress towards completing 
that work. Additional funds are requested in fiscal year 2007 federal 
budget to continue the program and complete the protection of the 
ranch.
    Given the importance of both Westwater Ranch and the Ranger Station 
to the recreational opportunities on the Colorado River, UGO strongly 
supports BLM's program at the Colorado River Special Recreation 
Management Area. I espectfully request that you include an LWCF 
appropriation of $1.3 million in the fiscal year 2007 Interior and 
Related Agencies Appropriations bill to complete the acquisition of the 
remaining acreage of Westwater Ranch and other lands along the Colorado 
River SRMA.
    Thank you for your consideration.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for the water programs 
of the U.S. Environmental Protection Agency (EPA) and is particularly 
disappointed that the water programs are slated for a disproportionate 
cut. In particular, funding for programs within EPA's ``Clean and Safe 
Water'' goal is proposed to be cut almost 13 percent, from $3.1 billion 
to $2.7 billion. The percent decline for this budget area is much 
greater than that for the agency overall (a 4 percent reduction) and 
reflects a failure to adequately invest in the nation's water quality.

           STATE WATER POLLUTION CONTROL GRANTS (SECTION 106)

    The Administration has proposed a $5.5 million (2.5 percent) 
increase in funding for Section 106 State Water Pollution Control 
Grants for fiscal year 2007. This increase in Section 106 funds is 
intended to help states implement high priority Concentrated Animal 
Feeding Operations (CAFO) permitting and storm water permitting 
activities.
    While the UMRBA supports the President's proposed increase in 
Section 106 funding, the UMRBA states remain concerned with the 
adequacy of funding in the baseline Section 106 program, which has 
remained largely static in recent years. Under Section 106, states 
combine their matching dollars with federal funds to support the core 
state water quality programs under the Clean Water Act, including water 
quality assessment and monitoring, water quality planning and standard 
setting, total maximum daily load (TMDL) development, point source 
permitting, training, and public information. Adequate funds are 
particularly critical to supporting the states' development and 
implementation of TMDLs, which have the potential to overwhelm state 
agency resources that are already strained.
    In general, UMRBA states have experienced a small, but consistent, 
decline in Section 106 funding in recent years. In fiscal year 2006, 
when Section 106 funding was approximately $216.2 million nationally, 
the five states in the Upper Mississippi River Basin were allocated a 
total of $21.1 million, a slight decrease from their fiscal year 2004 
and fiscal year 2005 allocations. Even this amount of funding may not 
be fully realized in fiscal year 2006, because up to 10 percent of the 
allocated funds are potentially subject to recision. UMRBA states are 
concerned that the modest overall increase proposed by the 
Administration in fiscal year 2007 for Section 106 funding will not be 
sufficient to effectively maintain core Clean Water Act programs and 
will not reverse the erosion of resources being provided to the Upper 
Mississippi River states.

    WATER QUALITY COOPERATIVE AGREEMENTS/GRANTS (SECTION 104(B)(3))

    Given the essentially static level of baseline funding under 
Section 106, the President's failure to request fiscal year 2007 
funding for Section 104(b)(3) water quality grants is particularly 
disappointing. These grants are competitively awarded, with recipients 
including state environmental agencies, municipalities, Indian tribes, 
and nonprofits. Many of the innovations achieved through Section 104 
have helped improve the states' core water quality programs under 
Section 106.
    Historically, the Section 104 grants have enabled EPA to support 
innovative demonstration and special projects on topics ranging from 
institutional coordination to NPDES permits to monitoring and 
assessment. Special projects and studies undertaken with Section 104 
funds are often critical to the states' ability to develop required 
TMDLs for impaired waters. Additionally, these funds have recently 
helped UMRBA states to address emerging management challenges on the 
Upper Mississippi River such as creation of more uniform approaches to 
fish consumption advisories and development of sediment-related water 
quality criteria.
    Nationally, Section 104 funding fell from $14.0 million in fiscal 
year 2004 to $11.4 million in fiscal year 2005 and no funding was 
provided in fiscal year 2006. Over the same period, Section 104 funding 
for EPA Regions 5 and 7 combined fell from $3.3 million to $2.7 million 
to zero. While it is too early to assess the full impact of the loss of 
Section 104 funding in fiscal year 2006, the continued failure to fund 
will stifle innovation and significantly limit the already overburdened 
state water quality programs' ability to meet new challenges. The UMRBA 
urges Congress to restore funding for Section 104(b)(3) grants at a 
recommended minimum level of $11.4 million in fiscal year 2007.

                   CLEAN WATER STATE REVOLVING FUNDS

    The Clean Water State Revolving Fund (CWSRF) program is widely 
acknowledged as having been pivotal in improving the nation's water 
quality by addressing wastewater infrastructure needs. However, the 
President's fiscal year 2007 budget includes a 22 percent reduction in 
funding for this critical program. The UMRBA is deeply concerned with 
the Administration's continued lack of support for the CWSRF.
    In fiscal year 2006, CWSRF funding continued a downward trend, 
falling to $887 million, down from $1.09 billion in fiscal year 2005. 
Overall, CWSAF funding has declined more than 33 percent from its 
historical level of $1.34 billion in fiscal year 2004. The five UMRBA 
states have experienced a commensurate reduction in CWSRF funding, 
receiving a total of $79.7 million in fiscal year 2006, down from 
$176.6 million in fiscal year 2004 and $143.2 million in fiscal year 
2005. The Administration's budget again proposes to cut the CWSRF, this 
time to $688 million for fiscal year 2007, resulting in a nearly 50 
percent reduction from pre-fiscal year 2005 levels.
    EPA's own estimates show multi-billion dollar annual funding gaps 
for clean water and drinking water infrastructure over the next 20 
years. The UMRBA states acknowledge that federal financial assistance 
is not the sole solution to this problem, but the appropriate response 
to this daunting challenge is most certainly not to further reduce 
federal support for this program. In order to best address the 
identified and continuing needs for clean water infrastructure 
improvements, the UMRBA recommends that Congress increase annual 
federal CWSRF appropriations to a level of $3 billion.

               STATE NONPOINT SOURCE GRANTS (SECTION 319)

    Nonpoint sources are one of the major causes of water pollution in 
the Upper Mississippi River Basin, which drains the nation's 
agricultural heartland. The Administration has requested $194 million 
for the Section 319 state nonpoint source grant program, a 5 percent 
decrease from the fiscal year 2006 appropriation of $204 million, and 
an 18 percent overall decrease since fiscal year 2004.
    The prospect of a continued decline in Section 319 funding is 
particularly troubling to the UMRBA. For each year from fiscal year 
2001 to 2004, the five states in the Upper Mississippi River Basin were 
allocated a total of $34.0 million in nonpoint source grants. In fiscal 
year 2006, this allocation stood at $29.9 million, with this amount 
being subject to an up to 10 percent recision.
    Increased resources for the USDA's agricultural conservation 
programs have been cited as justification for this decrease in Section 
319 funding. However, the USDA programs do not have water quality 
improvement as their primary purpose and do not include a monitoring 
component to measure efficacy. Thus, while the UMRBA welcomes and 
supports the expansion of USDA conservation programs, it continues to 
be essential to fund the Section 319 program as well. Without adequate 
funding, Section 319-supported programs cannot work in tandem with the 
USDA's conservation programs, as originally envisioned, and certainly 
cannot address other pressing nonpoint source needs unrelated to 
agriculture, such as urban runoff and degraded urban streams and lakes.
    At a minimum, UMRBA urges Congress to restore funding for state 
nonpoint source grants to the fiscal year 2004 level of $237.1 million, 
recognizing that continued progress in addressing nonpoint pollution 
will require significantly increased resources.

                          HYPOXIA ACTION PLAN

    The UMRBA is disappointed that the Administration's fiscal year 
2007 budget proposal does not include the resources needed to address 
the recommendations in the Hypoxia Action Plan, submitted by the 
Mississippi River/Gulf of Mexico Watershed Nutrient Task Force in 
January 2001. The states in the Upper Mississippi River Basin have 
consistently said that reductions in nutrient inputs to the Gulf of 
Mexico and monitoring to evaluate the effectiveness of these efforts 
will only be possible if the federal government provides significant 
new budgetary resources.
    While the states continue to support the goals and strategies set 
forth in the Action Plan, little progress will be made to reduce the 
Gulf hypoxic zone and improve water quality conditions throughout the 
basin without a major federal financial commitment. The President's 
fiscal year 2007 budget proposal does include funding to support the 
Gulf Program Office (a total of $4.3 million), but even this amount has 
decreased from previous funding and it does not supply the major 
resources needed for Upper Mississippi River efforts. Additionally, 
Targeted Watershed Grants, which in past years have supported some 
hypoxia-related efforts, are subject to a proposed cut of 58 percent 
(from $16.6 million to $6.9 million). The states of the Midwest 
heartland are being left to work largely through their existing 
programs, with limited resources, to reduce nutrient loading to the 
Gulf of Mexico. This approach is simply not adequate to make progress 
on a problem with the complexity and spatial scope of Gulf hypoxia.

         ENVIRONMENTAL MONITORING AND ASSESSMENT PROGRAM (EMAP)

    Within EPA's Human Health and Ecosystems Research program, the 
President has proposed a $5 million cut to the Environmental Monitoring 
and Assessment Program (EMAP) in fiscal year 2007. Part of EMAP is 
devoted to ``the Great Rivers of the Central Basin'' (EMAP-GRE), 
including the Mississippi, Missouri, and Ohio Rivers. EMAP-GRE is 
working to develop improved science and practical tools that states can 
use to assess the ecological conditions of these Great River 
ecosystems. In addition to doing some baseline sampling in the 
Mississippi River, EMAP-GRE is conducting research on reference 
conditions and developing a ``report card'' on water quality, plants, 
sediments, insects, fish, and other aquatic life. A valid report card 
requires consistent, uniform grading standards such as those provided 
by EMAP-GRE. Additionally, EMAP-GRE is developing biological criteria 
universally applicable to these great rivers and is working to 
standardize the numerous assessment protocols used by states to allow 
for reliable comparison and interpretation of data across state lines. 
This is the type of scientific work that no one state would be able to 
undertake alone, yet is fundamentally important to the states' ability 
to manage and protect the river. Thus, UMRBA urges Congress to reject 
the proposed cut to EMAP's budget and, at a minimum, fund EMAP at its 
fiscal year 2006 level.

        WATER SECURITY MONITORING PILOT PROGRAM (WATERSENTINEL)

    EPA's proposed budget includes a $30.5 million increase in funding 
of the ``WaterSentinel'' program. This increase will support additional 
pilot systems for water quality surveillance and emergency response. 
The UMRBA supports the Administration's commitment to this program and 
its proposed allocation of additional funds. The Upper Mississippi 
River states and utilities using the Mississippi River have been 
working together to initiate the establishment of an early warning 
monitoring network on the river and welcome any efforts by EPA to 
further progress in this area.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.

                     U.S. FISH AND WILDLIFE SERVICE

    The U.S. Fish and Wildlife Service has important responsibilities 
in the Upper Mississippi River Basin, including management of federal 
refuge lands and coordination with other federal, state, and local 
agencies on river-related ecological issues. The UMRBA strongly 
supports funding necessary to enable the Fish and Wildlife Service to 
fulfill its responsibilities in the Upper Mississippi River Basin.
    National Wildlife Refuge System.--The U.S. Fish and Wildlife 
Service administers over 284,000 acres of land and water scattered 
along the Mississippi and Illinois Rivers from the most northerly unit 
near Wabasha, Minnesota to the most southerly unit near Gape Girardeau, 
Missouri. This includes the Upper Mississippi River, Mark Twain, and 
Illinois River Complexes. The existence of this extensive national 
refuge system is, in part, the reason that, in 1986, Congress 
designated the Upper Mississippi River System as a ``nationally 
significant ecosystem and a nationally significant commercial 
navigation system.''
    The UMRBA strongly supports increased funding for the National 
Wildlife Refuge System. With the essentially level funding proposed by 
the Administration for fiscal year 2007, inflation will increasingly 
erode the Service's capacity to manage the refuge system. As an 
example, in fiscal year 2006, spending for the refuges along the Upper 
Mississippi and Illinois Rivers will likely total $6.8 million. 
Considering the land base managed by the Service on the Upper 
Mississippi River, this equates to a very modest $24 per acre, and does 
not represent an increase from fiscal year 2005. As a result, there 
continues to be a backlog in routine maintenance and a need for 
additional personnel to address law enforcement, biological needs, 
floodplain forest management, technical assistance to private 
landowners, environmental education, and other refuge management needs. 
In particular, the refuges along the Upper Mississippi River System 
have responsibility for the operation and maintenance (O&M) of projects 
that the Corps of Engineers constructs on those refuges, under the 
authority of the Environmental Management Program (EMP), one of six 
national priority construction programs in the President's Corps of 
Engineers budget. Currently, the Service's annual O&M costs for EMP 
projects are running between $300,000 and $500,000, and its O&M 
liability for these national priority projects will only increase in 
the future. Fully funding the O&M of EMP projects is vital to ensuring 
that these habitat restoration and enhancement projects are fully 
operational and provide lasting environmental and public use benefits. 
A $1.0 million appropriation to the Upper Mississippi River Refuge 
Complex in the Service's construction budget is needed for EMP project 
management.
    Land Acquisition.--The President's fiscal year 2007 budget includes 
just $27.1 million for land acquisition, a 3 percent decrease from 
fiscal year 2006 and almost 27 percent below the fiscal year 2005 
level. The three Upper Mississippi River System refuge complexes alone 
have acquisition opportunities from willing sellers totaling $4 million 
annually. These are priority acquisitions within the authorized refuge 
boundaries that would address significant ecological needs on the 
refuges and, in many instances, also reduce potential flood-related 
economic losses. But, with $4 million representing 15 percent of the 
President's annual request for the entire country, it will be difficult 
to make progress on these UMRS acquisition opportunities, many of which 
could be lost if delays force landowners to make other decisions 
regarding their property. The UMRBA encourages Congress to fund land 
acquisition at a level that permits the Service to address such 
acquisition priorities.
    Ecological Services.--Funding from the Ecological Services account 
supports field offices in Rock Island (IL), the Twin Cities (MN), and 
Marion (IL), which provide most of the ecological services work on the 
Upper Mississippi River and its tributaries. This includes work on 
threatened and endangered species, environmental contaminants, habitat 
conservation, and Partners for Fish and Wildlife. In fiscal year 2006, 
work being done by these Ecological Services field offices related to 
the Upper Mississippi River is estimated to be $375,000. The UMRBA is 
concerned that the Administration is proposing an 8 percent decrease 
for the Ecological Services Habitat Conservation account in fiscal year 
2007. The ability of the Ecological Services offices to fully 
participate in a wide variety of interagency restoration programs on 
the Upper Mississippi is critical to balanced management of this 
nationally significant river system and must be supported from within 
the Service's own budgetary resources. Thus, the UMRBA asks that, at 
minimum, funding for Habitat Conservation be maintained at fiscal year 
2006 levels.
    Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fisheries Resource Offices (FROs). These 
offices assess interjurisdictional fish and threatened and endangered 
species (paddlefish, pallid and shovelnose sturgeon, and freshwater 
mussels), help combat aquatic nuisance species (e.g., Asian carp), and 
restore fish habitat. The UMRBA supports this important work and is 
thus concerned about the 7.4 percent cut proposed for Fish and Wildlife 
Management Assistance in the fiscal year 2007 Fisheries account. (This 
reduction figure excludes $1.4 million that the Administration is 
proposing to transfer to the hatchery operations account.) Portions of 
the $4.4 million cut will affect general program activities (-$1.2 
million) and efforts related to aquatic nuisance species control 
(-$75,000). These reductions could delay the Upper Mississippi FROs' 
work on a controversial and technically demanding Asian carp control 
plan. At a minimum, funding for these activities should be maintained 
at fiscal year 2006 levels.
    The UMRBA is particularly pleased that the President's fiscal year 
2007 budget proposes an increase of $2.5 million for Hatchery 
Operations and Maintenance funding. (This increase excludes $1.4 
million that the Administration is proposing to transfer from Fish and 
Wildlife Management Assistance.) This account supports the work of the 
Genoa (WI) National Fish Hatchery and the La Crosse (WI) Fish Health 
Center. The Genoa Hatchery, established in 1932 on the banks of the 
Mississippi River, has become a center of excellence in the recovery of 
endangered mussels. It cultures endangered Higgins eye pearly mussels 
and rears 20 species of fish, including lake sturgeon, that are stocked 
into the Mississippi River near Missouri. The Genoa facility has teamed 
with state partners on mussel restoration work that has helped avert 
significant controversies on the Upper Mississippi. The La Crosse Fish 
Health Center provides critical diagnostics for diseases such as 
largemouth bass virus and spring viremia of carp. The Health Center's 
invaluable expertise is unique within the country.

                         U.S. GEOLOGICAL SURVEY

    The President's fiscal year 2007 budget for the U.S. Geological 
Survey reflects an overall decrease of $20.5 million, with a $7.7 
million decrease in water resources and a $5.9 million decrease for 
biological research. Funding levels for most of USGS's Water Resources 
and Biological Research programs have declined or remained static in 
recent years. The states of the Upper Mississippi River Basin are 
concerned that the USGS's ability to provide timely and unbiased 
scientific information about complex natural systems not be 
compromised. There are several specific research and monitoring 
programs in the Water Resources and Biological Research accounts that 
are of particular interest to the UMRBA.
    Water Resources Investigations.--The UMRBA strongly supports the 
President's proposed 20 percent increase in fiscal year 2007 for the 
National Streamflow Information Program (NSIP). The streamgaging 
network is essential to protecting public health and safety by 
forecasting floods and droughts, managing the nation's navigation 
system, and monitoring water quality. In 1998, Congressional concern 
about streamgaging led the USGS to create NSIP. Unlike the Cooperative 
Water Program (which is funded in large part by non-federal 
Cooperators), Congress determined that NSIP should be funded entirely 
with federal appropriations. In November 2004, the National Research 
Council's Committee on Water Resources Research completed its 
assessment of the USGS plans for NSIP: ``Overall, the Committee 
concludes that the National Streamflow Information Program is a sound, 
well-conceived program that meets the nation's needs for streamflow 
measurement, interpretation, and information delivery.''
    Of the 4,424 gages proposed for inclusion in NSIP nationwide, 524 
are in the five UMRBA states. However, only about 69 percent of the 
NSIP gages in the UMRBA states are currently in operation, most funded 
through the Cooperative Water Program rather than NSIP. Furthermore, of 
the 333 active NSIP gages operated by USGS, 30 are on the USGS's list 
of ``threatened streamgages,'' which may be discontinued in 2006 unless 
new funding sources can be identified. Another 80 NSIP gages are 
already inactive, due to past funding shortfalls. This erosion in 
funding support has led to the elimination, disrepair, or obsolescence 
of many long term gages, reducing our forecasting and emergency warning 
capabilities. To reverse this trend and enhance the long term stability 
and security of the nation's streamgaging network, UMRBA urges Congress 
to provide, at a minimum, the President's request of $16.764 million 
for NSIP in fiscal year 2007.
    The UMRBA also strongly supports increased funding for the 
Cooperative Water Program (CWP). CWP is an essential tool in meeting 
state and local water science needs, including both interpretive 
studies and streamgaging. For most of its 110 years, the CWP was a 
50:50 cost-shared program between USGS and non-federal cooperators. 
More recently, increased requests by cooperators for USGS services, 
coupled with stagnant federal funding, have altered that proportion. 
USGS now pays only 33 percent of the program costs. USGS funding for 
the CWP would need to almost double in order for USGS to match current 
cooperator funding on a dollar-for-dollar basis. In 2004, there were 
1,386 cooperators nationwide, of which 163 were in the five UMR basin 
states. The President's fiscal year 2007 request for the CWP ($62.17 
million) represents a cut of $2 million and would exacerbate the 
continuing decline in CWP capability. Thus, UMRBA joins with water 
resource managers across the nation in asking that Congress provide $74 
million for the CWP in order to restore real program purchasing power 
to its fiscal year 2003 level.
    The President's fiscal year 2007 budget proposes $13.2 million for 
the Toxic Substances Hydrology program, a decrease of 8 percent. The 
Toxics Program, which conducts research on the behavior of toxic 
substances in the nation's hydrologic environments, is particularly 
important to the states of the Upper Midwest. Under this program, USGS 
provides a range of scientific information to support management 
decisions related to excess nutrients in the Mississippi River Basin 
and hypoxia in the Gulf of Mexico. In particular, USGS assesses the 
sources and transport of nitrogen, models nutrient flux, and conducts 
research on nutrient transport in both the Mississippi River and 
smaller streams in the basin. Given the important work underway in the 
USGS Toxic Substances Hydrology Program, UMRBA urges Congress to 
provide $14.5 million, at a minimum, commensurate with the fiscal year 
2005 level of funding.
    The UMRBA continues to support funding for the National Water 
Quality Assessment (NAWQA), which is slated for $62.6 million under the 
President's fiscal year 2007 budget. NAWQA is designed to answer basic 
questions about the status and trends in the quality of our nation's 
ground and surface waters, assessing 50 major river basins and aquifers 
across the nation on a rotating basis. The Upper Mississippi River 
Basin includes four NAWQA study units (Upper Mississippi, Eastern Iowa, 
Lower Illinois, and Upper Illinois). The first three of these are in 
the assessment cycle that began in fiscal year 2004. The Upper Illinois 
assessment cycle is scheduled to begin in fiscal year 2007.
    Biological Research.--The President's budget request for USGS 
Biological Research is $172.6 million, $5.9 million below the fiscal 
year 2006 enacted level and less than $900,000 above fiscal year 2005. 
In inflation-adjusted dollars, the overall Biological Research budget 
has been declining in recent years, impairing the USGS's ability to 
meet critical science and information needs, both within the Interior 
Department and more broadly. Indeed, USGS's Biological Research 
supports critical national needs, including maintenance of a vital data 
infrastructure, as well as several specific research efforts of great 
regional importance. For example, through its Upper Midwest 
Environmental Sciences Center, USGS is studying bird migration, native 
mussels, amphibian decline, invasive species, and vegetation response 
to water level management on the Upper Mississippi River. All of these 
research questions have direct relevance to the real world challenges 
associated with managing the river for both navigation and ecosystem 
health. Of particular concern to the UMRBA states is the 
Administration's proposal again this year to cut funding for pallid 
sturgeon research. Understanding the movements and habitat needs of 
this ancient, but endangered, species is critical to its recovery on 
the Mississippi and Missouri Rivers. State and federal resource 
managers need answers to these questions. Unfortunately, USGS's 
capacity to contribute sound science to river management is 
increasingly constrained by its fiscal limitations. Given these needs, 
the UMRBA recommends that, at a minimum, Biological Research be funded 
at the fiscal year 2006 level of $178.5 million.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1.2 billion in fiscal year 2007.
    The USGS plays a crucial role in protecting the public from natural 
hazards such as floods and earthquakes, assessing water quality, 
providing emergency responders with geospatial data to improve homeland 
security, analyzing the strategic and economic implications of mineral 
supply and demand, and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in every state and 
has nearly 400 offices across the country. To aid in its 
interdisciplinary investigations, the USGS works with over 2,000 
federal, state, local, tribal and private organizations.
    The USGS Coalition is an alliance of nearly 70 organizations united 
by a commitment to the continued vitality of the unique combination of 
biological, geographical, geological, and hydrological programs of the 
United States Geological Survey. The USGS Coalition supports increased 
federal investment in USGS programs that underpin responsible natural 
resource stewardship, improve resilience to natural and human-induced 
hazards, and contribute to the long-term health, security and 
prosperity of the nation.

                           FUNDING SHORTFALL

    From 1996 to 2006, total federal spending for research and 
development has risen by 55 percent from $87 billion to $134 billion in 
constant dollars. By contrast, real funding for the USGS has been 
nearly flat, as shown in the accompanying chart (Figure 1). Even this 
flat funding for the USGS reflects congressional restoration of 
proposed budget cuts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The need for USGS science in support of decisionmaking has never 
been greater. In the wake of Hurricane Katrina, the USGS was praised 
for quickly arriving on the scene and providing specialized geospatial 
maps to locate victims trapped in flooded neighborhoods and support 
rescue efforts. The USGS provided water level and flow measurements 
from stream gages for the dewatering of New Orleans and performed 
health-based water quality and sediment analyses throughout the Gulf 
Coast.
    The USGS plays a lead role in reducing the impacts of natural 
hazards. It operates seismic networks and conducts seismic hazard 
analyses that are used to formulate earthquake probabilities and to 
establish building codes across the nation. The USGS monitors volcanoes 
and provides warnings about impending eruptions. It operates a stream 
gage system that enables the National Weather Service to issue flood 
warnings. Research on ecosystem structure and function assists forest 
and rangeland managers with forecasting fire risk and managing natural 
systems following fires.
    After a series of devastating natural disasters during the past two 
years, people around the globe have a greater appreciation of the need 
to improve environmental monitoring, forecasting, and warning systems 
that can prevent natural hazards from becoming natural disasters.
    Equally as important as natural hazards, natural resources--from 
energy to freshwater supplies--captured the public's attention in 2005. 
The USGS conducts essential assessments of water levels, flow rates and 
quality, and of mineral, coal, oil and natural gas resources. USGS 
biologists assess wildlife populations, such as through the bird-
banding program, that provide land managers with data needed to 
effectively manage fishing and hunting, as well as public lands for 
healthy wildlife populations. These comprehensive assessments are among 
the most reliable source of data for natural resource management at a 
national level.
    The potential for an avian flu pandemic remains a global concern. 
The USGS is conducting targeted surveillance of aquatic birds for avian 
flu in North America. Other biological programs assess the health, 
distribution, and diversity of wildlife and provide information 
necessary to track and respond to infectious diseases that can be 
transmitted from wildlife to people. Still other programs help sustain 
land and water resources and monitor the spread of invasive species 
that can pose significant economic threats.
    Greater investment in the USGS is required to meet the tremendous 
needs of the future. That investment should be used to strengthen USGS 
partnerships, improve monitoring networks, produce high-quality digital 
geospatial data and deliver the best possible science to address 
societal problems and inform decisionmakers.
    The USGS Coalition is grateful to Congress for its leadership in 
restoring past budget cuts and strengthening the U.S. Geological 
Survey. The House Appropriations Committee has expressed the importance 
of funding USGS science programs in the base budget. Likewise, the 
Senate Appropriations Committee said: ``The strength of the Survey's 
existing efforts in many program areas is deserving of additional 
support. The Committee urges that future budget requests place a 
stronger emphasis on the Survey's core programs, which have proven 
value and strong public support'' (S. Rpt. 108-341).

                          USGS BUDGET REQUEST

    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1.2 billion in fiscal year 2007, which is 
necessary for the agency to continue providing critical information to 
the public and to decisionmakers at all levels of government. The 
recommended budget increase would enable the USGS to restore the 
science cuts proposed in the budget request, accelerate the timetable 
for deployment of critical projects (such as the National Streamflow 
Information Program), and launch new science initiatives that would 
begin to reverse the cumulative effects of the long-term funding short 
fall discussed above (Figure 1).
    The President's fiscal year 2007 budget request would cut funding 
for the USGS by $20.6 million or 2.1 percent to $944.8 million. The 
budget request would add $40.1 million in new programs and fixed costs, 
which would be offset by redirecting $50.7 million from lower priority 
activities and eliminating $10.0 million in earmarked funds, according 
to USGS budget documents.
    The USGS budget request would provide funding for several 
initiatives, including a multi-hazards pilot initiative, development of 
Landsat 8, increased energy research, and testing for avian influenza 
in wild birds as part of an expanding detection effort. These 
initiatives deserve the support of Congress.
    The USGS budget request would cut $22.0 million from the Mineral 
Resources program, a 41.7 percent decrease in funding that would 
decimate the program. The budget request would also eliminate the 
entire $6.4 million budget for the Water Resources Research Institutes, 
which are located in all 50 states. These and other proposed budget 
cuts would adversely affect the ability of the USGS to achieve its 
mission. We encourage Congress to restore the cuts, but this funding 
should not come at the expense of other high priority programs 
elsewhere in the USGS budget.
    The USGS Mineral Resources program is an essential source of 
unbiased research on our mineral resources. This guidance is important 
to reduce the environmental impacts of mining and to maintain the 
growing value of processed materials from mineral resources that 
accounted for $478 billion in the U.S. economy in 2005, an increase of 
8 percent over the previous year. The proposed cuts would terminate 
multidisciplinary research that has important implications for public 
health (such as studies on mercury, arsenic and other inorganic 
toxins), environmental protection, infrastructure, economic 
development, and national security.
    The Water Resources Research Institutes have been highly successful 
in developing cooperative programs that leverage federal investments 
with funds from other sources. The proposal to eliminate all funding 
for this partnership is inconsistent with guidance from the House 
Appropriations Committee: ``The Administration has placed a high 
priority on cooperative programs that leverage funds from State and 
local governments as well as private entities. The Committee believes 
that Bureaus that are successful in implementing these policies should 
be rewarded and not penalized'' (H.Rpt. 108-542).
    The USGS budget request includes an increase of $20.7 million for 
non-discretionary ``fixed cost'' increases (such as salaries and rent), 
of which $15.2 million are budgeted and $5.5 million are ``absorbed.'' 
The cumulative effect of absorbing fixed cost increases over many years 
has had a disproportionate impact on core USGS programs in biology, 
geology, hydrology, and mapping, which cannot absorb cuts without 
affecting scientific research and monitoring activities. Without full 
funding of fixed cost increases, the USGS may be forced to curtail 
ongoing activities, hindering or preventing the delivery of data needed 
by natural resource managers and emergency planners. This could 
increase our vulnerability to natural disasters and increase the costs 
of recovery.
    In addition to restoring proposed program cuts, we encourage 
Congress to consider additional increases that would enable the USGS to 
meet the tremendous need for science in support of public policy 
decisionmaking. More investment is needed to strengthen USGS 
partnerships, improve monitoring networks, implement important 
bioinformatics programs, produce high-quality digital geospatial data 
and deliver the best possible science to address societally important 
problems. The USGS has a national mission that encompasses the homes of 
all citizens through natural hazards monitoring, drinking water 
studies, biological and geological resource assessments, and other 
activities.
    Thank you for your thoughtful consideration of our request. If you 
require additional information or to learn more about the USGS 
Coalition, please contact co-chairs Robert Gropp of the American 
Institute of Biological Sciences (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddafbaafb2adad9dbcb4bfaef3b2afba">[email&#160;protected]</a>) or Craig Schiffries 
of the National Council for Science and the Environment 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7a4b4bfbeb1b1a5beb2a49799948492b8b9bbbeb9b2f9b8a5b0">[email&#160;protected]</a>).
                                 ______
                                 
Prepared Statement of the Archery Trade Association, Boone and Crockett 
   Club, Bowhunting Preservation Alliance, Campfire Club of America, 
Conservation Force, Dallas Safari Club, Ducks Unlimited, Foundation for 
   North American Wild Sheep, International Association of Fish and 
 Wildlife Agencies, Izaak Walton League of America, National Trappers 
  Association, North American Bear Foundation, North American Grouse 
 Partnership, Quality Deer Management Association, Rocky Mountain Elk 
  Foundation, Ruffed Grouse Society, Safari Club International, Texas 
Wildlife Association, Theodore Roosevelt Conservation Partnership, The 
 Wildlife Society, Whitetails Unlimited, Inc., and Wildlife Management 
                               Institute

    We write to ask for your support in providing $17.5 million in 
fiscal year 2007 to fill the many vacant scientist positions in the 
Cooperative Fish and Wildlife Research Unit Program of the U.S. 
Geological Survey (USGS). We greatly appreciate your past efforts in 
behalf of the Cooperative Fish and Wildlife Research Units, especially 
given difficult budgetary constraints.
    As you know, the 40 Cooperative Fish and Wildlife Research Units 
across the country provide very important and cost-effective products 
and services to state and federal agencies, universities and private 
landowners in the form of management-oriented research, graduate level 
education, and technical assistance.
    Full funding and scientist staffing for the Cooperative Fish and 
Wildlife Research Units, which was achieved through your support in 
fiscal year 2001, resulted in unparalleled cooperation, productivity, 
and service in the management of our natural resources. Unfortunately, 
The $14.938 million requested by the Administration for fiscal year 
2007 is $2.6 million less than the amount needed to fill the vacant 
Unit scientist positions and meet congressionally mandated increases in 
federal salaries and benefits, and is only $861,000 more than the 
amount appropriated 6 years earlier. During that same time the 
Cooperative Fish and Wildlife Research Units will have been required to 
absorb $3.0 million in uncontrollable salary and benefit costs, while 
being directed to establish and staff a new Unit. The result is that a 
record number of Unit scientist positions (22) will need to be vacant 
by the end of fiscal year 2007 in order to meet the funding level in 
the current budget request. Lack of funding to fill these vacancies has 
caused the number of Cooperative Fish and Wildlife Research Unit 
scientists to be reduced by 25 percent to 67 percent within a given 
state.
    The Cooperative Fish and Wildlife Research Units have been a 
remarkably successful investment. Unit scientists leverage the USGS 
base funding provided by Congress more than 3:1 with funds from other 
sources. Unit scientists also play a vital role in practical, real-
world training of the next generation of natural resource managers, who 
will be needed soon to replace a significant professional workforce 
component that is nearing retirement. Scientist vacancies hamper the 
ability of the program to leverage funding from state, federal, and 
private sources for addressing key natural resource problems and 
training tomorrow's managers.
    We urge you, therefore, to support providing $17.5 million for the 
Cooperative Fish and Wildlife Research Unit Program in fiscal year 
2007. This action will fill vacant scientist positions at the Units and 
ensure that the Units can continue to support the needs of state, 
university, and private cooperators in your states and elsewhere across 
the country.
    We thank you for consideration of our request.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    As President of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this testimony, 
which reflects the needs, concerns and issues of the tribal membership 
arising from the President's fiscal year 2007 Budget.

                            INDIAN EDUCATION

    Johnson O'Malley.--We urge the Subcommittee to restore $16.8 
million to the Johnson O'Malley (JOM) program. The Administration 
proposes substantial cuts to education funding, and Indian education 
has been especially hit hard. Of particular significance to the Band is 
the proposed elimination of JOM funding. The JOM program provides 
funding for supplemental education programs for Indian students 
attending public schools. Because the Band's member children attend 
public schools, this funding forms the core of the Band's education 
program. We urge the Subcommittee to restore full funding to this 
program.

                     NATURAL AND CULTURAL RESOURCES

    Circle of Flight.--We strongly urge the Subcommittee to restore 
$600,000 for the Tribal Wetland and Waterfowl Enhancement Initiative 
(Circle of Flight), which the Administration proposes to eliminate 
entirely. Congress has restored this funding when it was targeted in 
past years, and the Band would like to thank the Subcommittee for 
understanding how important this program is in restoring and preserving 
our Nation's wetlands and waterfowl populations. The preservation and 
restoration of wetlands is vital to the culture and economy of the 
Great Lakes region. Moreover, in addition to waterfowl habitat and 
gathering areas, wetlands are important in providing flood control, 
clean water and recreation, benefiting residents up and down the 
Mississippi Flyway. Your strong support of this program is required 
again.
    Wildlife and Parks.--We urge this Subcommittee to restore full 
funding to the Wildlife and Parks budget, including the proposed $4.2 
million cut to tribal management and development programs. Tribes are 
leaders in natural resource protection and this funding is essential to 
maintain these programs. The Band has a comprehensive Natural Resource 
Department and dedicated staff with considerable expertise in natural 
resource and land management. Our activities include raising fish for 
stocking, conservation law enforcement, data collection on water and 
air quality, developing well head protection plans, conducting wildlife 
surveys and administering timber stand improvement projects on the 
86,000-acre reservation.
    The Band also requests funding for the Lac du Flambeau Tribal 
Management and Development Program to be restored to the fiscal year 
2005 level, which was $178,500.
    Tribal Historic Preservation Officers.--The Band requests that 
$10.4 million be allocated within the Historic Preservation Fund for 
Tribal Historic Preservation Officers (THPOs).
    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. There are 
currently 54 tribes in the United States--six in Wisconsin--approved by 
the Secretary to administer historic preservation programs. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history and sovereignty.
    As was envisioned by Congress, more tribes qualify for funding 
every year. In fiscal year 2001, there were 27 THPOs with an average 
award of $154,000; in fiscal year 2005, there were 54 THPOs, and the 
Band received only $48,000. Paradoxically, the more successful the 
program becomes overall, the less each tribe receives to maintain 
professional services, ultimately crippling the programs. The requested 
appropriation would provide a modest base funding amount of $180,000 
per THPO program.
    Great Lakes Indian Fish and Wildlife Commission.--The Band also 
supports funding for the Great Lakes Indian Fish and Wildlife 
Commission (GLIFWC) in the amount of $4,174,000 to meet the needs 
outlined in the Commission's testimony submitted to this Subcommittee. 
The Band is a member of the Commission, which assists the Band in 
protecting and implementing its treaty-guaranteed hunting, fishing and 
gathering rights.

         PAY COST SHORTAGES FOR BIA PUBLIC LAW 93-638 EMPLOYEES

    We urge the Subcommittee to restore full Public Law 93-638 pay cost 
funding for tribes in fiscal year 2007 and to restore pay cost funding 
not received in fiscal year 2002-2005 through a special appropriation. 
Under the Indian Self-Determination Act, many tribes have assumed 
responsibility for providing core services to their members. If these 
services were provided by the federal government, employees would 
receive pay cost increases mandated by federal law. While tribal 
governments have assumed this responsibility, Congress and Interior 
have failed to fulfill their obligation to ensure that tribes have the 
same resources to carry out these functions. Tribes received only 75 
percent of the pay cost adjustment in fiscal year 2002, 15 percent in 
fiscal year 2003 and approximately 30 percent in fiscal year 2004. This 
inequity threatens to undermine tribal self-determination.
    The Band also requests an appropriation of $59,600 to provide a 5 
percent cost of living increase for its employees. Funding for the 
Band's most critical core services, including law enforcement, courts, 
education, natural resource management and social services, has eroded 
significantly in recent years because of the lack of appropriate pay 
cost increases. The requested appropriation would cover a 5 percent 
cost of living adjustment for the Band's program employees within TPA, 
Management and Development and Fish Hatchery Operations.

                    ENVIRONMENTAL PROTECTION AGENCY

    Indian General Assistance Program.--The Band requests that the 
Subcommittee increase funding for the Indian General Assistance Program 
(GAP) by $11.4 million. GAP funding is the primary federal mechanism 
available for tribes to protect our lands. These funds, which provide 
support for many of our programs, enable tribes to assume environmental 
responsibilities delegated by EPA. We ask the Committee to increase GAP 
funding to at least $68.3 million to enable tribes to continue 
developing environmental management infrastructure. We also ask you to 
clarify that GAP funding can be used for development, implementation 
and continued support of tribal environmental programs, not merely 
``capacity building.''
    Clean Water Program.--We request restoration of full funding to the 
Clean Water Program, including restoration of $171,000 from this fund 
for the Band's Water Resources Program. The Clean Water Program 
provides grants to tribes under Section 106 of the Clean Water Act to 
protect water quality and aquatic ecosystems. We received $171,000 in 
fiscal year 2005, the minimum required to support the Band's program. 
In fiscal year 2007, the Administration reduced this to $150,000. 
Continued operation of the program requires restoration of this $21,000 
cut.

                             INDIAN HEALTH

    We urge the Subcommittee to significantly increase funding for 
Contract Health Care (CHC).--Federal funding for health services has 
fallen dramatically behind the rising cost of health care over the past 
five years. In fiscal year 2000, The Band's shortfall for health care 
was $1.2 million. We anticipate the fiscal year 2007 shortfall to be in 
excess of $2.9 million. This deficit has increased 136 percent or an 
average annual increase of 27 percent. Despite rising costs, the 
Administration proposes an increase of only $27 million for CHC. A 
substantial funding increase is needed to address the need across 
Indian county.
    The Band also requests an appropriation of $8 million for 
construction of a new clinic facility.--The inadequate design of the 
present facility, which was not intended for use as a clinic, restricts 
access to patient care and limits the quality of service we are capable 
of providing to community. A new facility would improve patient access 
to providers, enable the Band to provide wellness education and health 
screenings for cancer and diabetes, and reduce payments to outside 
vendors because more high cost services could be provided on-site. In 
light of this significant need for construction dollars at the Lac du 
Flambeau, we are disappointed in the President's proposed IHS 
Construction budget, which proposes significant cuts in this program.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington D.C. 20005; 202-682-0240 (tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec819c8d9a8980ac9f8382839f8795c28f8381">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4021322f2c2e29232b00332f2e2f332b396e232f2d6e">[email&#160;protected]</a>
                                 ______
                                 
        Prepared Statement of the Village of Wellington, Florida

    Mr. Chairman and members of the subcommittee: On behalf of the 
Village of Wellington, I am pleased to submit this statement for the 
record in support of our request for funding in the amount of $2.7 
million in the fiscal year 2007 Appropriation Bill for Interior & 
Related Agencies to support the Village's efforts to comply with the 
mandates of the Everglades Forever Program.

                       PROJECT EXECUTIVE SUMMARY

    The 1994 Everglades Forever Act (EFA) established water quality 
goals for the restoration and preservation of the Everglades Protection 
Area. It also identified Basin B within the Village of Wellington as an 
area that will need to meet the new phosphorus standard by December 31, 
2006 for its stormwater discharges into the Arthur Marshall Loxahatchee 
National Wildlife Refuge (conservation Area No. 1). To meet these 
mandates, the Village created the Village of Wellington Water Clean Up/
Phosphorus Removal Project.
    The Acme Basin B drainage has been one of the biggest issues and 
challenges the Village has faced. Wellington has spent the last several 
years working toward compliance with the EFA. In March 2005, the 
Village of Wellington began constructing its improvement per the 
approved Memorandum of Understanding (MOU) with the South Florida Water 
Management District (SFWMD) to redirect Basin B waters to the C-51 
canal and then to STA 1-E.

                          PROJECT DESCRIPTION

    The Acme Basin B Discharge project is one of 55 projects that 
comprise the Comprehensive Everglades Restoration Plan (CERP). The 
Basin B drainage area is part of the Acme Improvement District, which 
was created by the state of Florida in 1953 to provide drainage for 
agricultural land in central Palm Beach County. During the 50 years 
since its inception, land uses within the improvement district have 
changed dramatically. The Acme Improvement District now serves the 
Village of Wellington with over 55,000 residents, and impacts the West 
Palm Beach metropolitan area with a population of approximately 1.3 
million. Basin B consists of 8,680 acres of low-density development 
located in the southern half of the Improvement District. The western 
boundary of Basin B abuts the Loxahatchee Refuge.
    The benefits created by the CERP Acme Basin B Discharge project are 
largely related to restoration of the natural environment. The health 
of the Loxahatchee Refuge and Everglades National Park will be enhanced 
with improved quality and quantity of water generated from within the 
basin. Specifically, the project will provide the equivalent of 28.5 
million gallons of water per day to the Everglades, which, without the 
project, would be needlessly sent to the ocean via the Lake Worth 
Lagoon.
    Wellington was the first Everglades community to develop and 
implement a comprehensive Everglades strategy with the South Florida 
Water Management District, which included:
  --Removing phosphorus at the source to reduce the need for costly 
        infrastructure; Best Management Practices have lowered the 
        phosphorus levels and helped reduce clean up costs;
  --Use of partnership opportunities to make environmental water 
        cleaner and available when and where the Everglades need it;
  --Wise use of resources to ensure the most cost effective solution, 
        taking the least land out of productive use and giving the most 
        up front clean-up;
  --Complete redesign of the Wellington drainage system to divert 
        unclean water from direct discharge to Loxahatchee Wildlife 
        Preserve;
  --This non-traditional, Best Management Practices focus will allow 
        the Basin B Project to use a large portion of a section of land 
        for recreation and environmental education in addition to flood 
        attenuation rather than building another clean-up marsh.
    As part of its Basin B Water Clean Up Initiative, the Village of 
Wellington assembled a ``Surface Water Action Team'' (SWAT) comprised 
of key personnel and expert consultants. This Initiative is presently 
working on a Phase II BMP Ordinance, along with an updated Cooperative 
Agreement with SFWMD.
    The ongoing water quality monitoring program has indicated a fairly 
significant decrease in average phosphorus concentrations since 1999. 
In 1999, the average Basin B phosphorus concentration discharged to the 
Loxahatchee Refuge was 189 parts per billion (ppb). In 2004, the 
average concentration had dropped to 67 ppb, which is a large decrease 
in phosphorus levels. Although inconclusive, it is likely that the 
implementation of the BMP Ordinance played a part in this decrease in 
phosphorus concentrations.
    In March 2005, the Village of Wellington began constructing its 
improvement per the approved Memorandum of Understanding (MOU) with 
SFWMD to redirect Basin B Waters to the C-51 Canal and then to STA 1-E. 
The Village projects all its improvements to be completed well ahead of 
schedule.
    One of the final components to this project is the successful 
implementation of Section 24 Recreational Wetland Acquisition, Planning 
and Development Study. This project was established to examine land 
that is presently owned by the South Florida Water Management District 
for potential development by the Village as a wetlands park for the 
purpose of preserving the wetlands and for potential environmental and/
or recreational uses. The main use of the property is flood 
attenuation. Other potential uses include recreational use, consisting 
of elevated nature boardwalks, trails, horse trails, storm water 
retention and a recharge area. The Village is seeking assistance with 
this project through matching grant opportunities as part of the Basin 
B solution.
    Wellington is currently refining its agreements with the South 
Florida Water Management District to ensure that structured parts of 
the project are built on time and within budget, and that the unique 
recreational aspects fit into the Wellington Community and enhance 
citizen opportunities to understand the Everglades. To do this, 
Wellington and the SFWMD continue to work together to complete the 
project and review operational progress to determine the optimal and 
practical operations of the redesigned system.
    Carol Wehle, Executive Director of South Florida Water Management 
District has stated the cooperative mission very well: ``Restoring the 
Everglades is one of the most significant restoration efforts world-
wide not only because of the significance of its natural communities, 
but also because of the urban communities that live within its 
watershed. Science and engineering can only go so far. Residents and 
communities also have a critical role, and we are especially proud of 
the working relationship we have developed with Wellington. The 
commitments from communities like Wellington are proving that it is 
possible to work cooperatively toward solutions that create benefits 
for everyone involved, including the environment.''

                             FUNDING NEEDS

    Since 1999, the Village has invested over $5 million (not including 
$5.4 million for Pump Station renovations currently scheduled in 
conjunction with this project) of its own funds toward the preservation 
and, in some cases, restoration of environmentally sensitive land. We 
are committed to continuing our investment and our progress, and we 
anticipate additional costs to the Village of $3.25 million. The 
project under the recently approved Basin B agreement has a total 
estimated cost of approximately $22 million (which will be shared with 
South Florida Water Management District and the Federal Government).
    For fiscal year 2007, the Village of Wellington is seeking $2.7 
from the Environmental Protection Agency through your Appropriations 
Subcommittee.
    Thank you for your consideration of our request.
                                 ______
                                 
           Prepared Statement of the Ventana Wildlife Society

    The Ventana Wildlife Society appreciates the opportunity to present 
this testimony in support of a $2 million appropriation from the Land 
and Water Conservation Fund for the first phase of the Rancho Calera 
conservation project in the Los Padres National Forest as part of the 
Big Sur Ecosystem program.
    My organization is the only non-profit group to release condors in 
California and have done so since 1997. We have the most robust 
database of condor locations anywhere in the state. The Rancho Calera 
property is strategically located for many species of wildlife, 
including California Condors. Condors are fairly commonly found at this 
property as it is an important flyway and is in close proximity to 
naturally occurring food supplies along the Big Sur Coastline.
    This year, the 800-acre Rancho Calera property is available for 
protection. This critical property is adjacent to Forest Service and 
local park lands and would link upland forests to the rugged Pacific 
coastline via trails and habitat corridors. The property contains over 
200 acres of redwoods, some of which have been used by condors for 
overnight roosting. The recent sighting of a condor nest in a hollow 
redwood tree in Big Sur, for the first time in 100 years, as reported 
March 29, 2006 in the Monterey Herald, makes clear the importance of 
protecting Rancho Calera and its redwood forests as condors are re-
introduced into the wild.
    Big Sur is one of the most stunning landscapes in California. 
Protection of this property would secure an important connection 
between existing public lands, so that visitors may enjoy its grandeur 
for generations to come. An appropriation of $2 million from the Land 
and Water Conservation Fund in fiscal year 2007 is needed to start this 
property's acquisition and to ensure that acres of prime wildlife 
habitat and recreation lands within the Big Sur Ecosystem are forever 
preserved.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of an appropriation from the Land and Water 
Conservation Fund for the Rancho Calera project in California.
                                 ______
                                 
         Prepared Statement of the Whirling Disease Foundation

    Whirling disease is a parasitic infection of trout and salmon that 
is present in 23 states and has caused trout population declines in 
many of the West's finest trout streams. The discovery of rainbow trout 
strains with resistance to Myxobolous cerebralis infection (whirling 
disease) has provided a unique and potentially powerful approach to 
control whirling disease in selected wild trout populations. The Hofer 
rainbow trout strain was the first among several recently discovered 
``resistant'' trout strains, and therefore research on this strain is 
the most advanced. Considerable data has now been obtained on the 
response of both pure strain and crosses between the Hofer strain and 
natural rainbow trout to infections with the parasite. Evaluation of 
other potentially naturally resistant strains of rainbow trout from 
areas endemic for whirling disease in North America is ongoing, and at 
least two additional strains have been identified as having some degree 
of resistance to the parasite. Research on these ``resistant'' rainbow 
trout strains is considered a very important part of the fisheries 
management programs to control whirling disease. Research is currently 
in progress in Colorado, Montana, Utah, California, and Idaho.
    The research on resistant strains has proceeded using a strategic 
plan developed by the Whirling Disease Foundation and funded with 
private and federal funds (FWS), with each phase addressing particular 
concerns that might arise:
    Phase I provided confirmation of resistance of the fish.
    Phase II provided assurance that the strain identified poses no 
pathogenic threat to existing native fishes. For the Hofer trout, this 
has meant extensive testing for presence of exotic pathogens, repeated 
health examinations for any pathogens, and testing for susceptibility 
to common pathogens they might encounter in the wild. Results of these 
tests showed this strain was not a carrier of any exotic pathogens and 
their susceptibility to other pathogens was similar to other rainbow 
trout. In other words, it had neither gained nor lost resistance to 
other pathogens as a result of selection for resistance to whirling 
disease.
    Phase III, currently in progress, provides information necessary 
for resource managers to decide if resistant rainbow trout strains have 
a role in their program. This has involved extensive testing of crosses 
between resistant and other rainbow trout strains (for example, 
Colorado River and Harrison Lake strains) for resistance to whirling 
disease, growth characteristics, survival in river and reservoir 
habitats and behavioral characteristics (such as vulnerability to 
angling). The studies are most advanced with the Hofer strain but work 
on both the Harrison Lake and Madison River strains is underway. In 
coordination with more applied studies on resistant trout the WDF also 
sponsors basic research that explores the cellular and molecular 
mechanisms that are providing the resistance observed in these 
resistant trout strains. This combination of applied and basic research 
is viewed as a balanced approach to understanding disease resistance in 
both general and more specific terms but also to provide potential 
applications that solve current problems created by whirling disease in 
wild trout populations.
    As the research on these resistant trout progresses the potential 
application of selectively bred rainbow trout for fisheries management 
will increase. Decisions on just how resistant trout will be utilized 
to control whirling disease will be dependent on the approval by 
agencies responsible for the aquatic resources. One potential 
application of selectively bred rainbow trout in the intermountain west 
where they are not native will be the restoration of prized fisheries 
decimated by whirling disease. However, this application must be tied 
closely to the protection of native fish including other salmonid 
species, which is the responsibility of resource managers. The WDF's 
contribution to such decisions will not be in making or supporting 
policy but in sponsoring research that will assist resource managers in 
making informed decisions when they are making policies. The WDF does 
this by funding a variety of research projects on whirling disease and 
by organizing venues for the exchange of information among scientists, 
resource managers, and other constituents (12th annual Whirling Disease 
Symposium, Denver, February, 2006).
    Lastly, the WDF believes and state fisheries managers acknowledge 
that resistant trout will be one of the most important solutions to 
reduce the effects of whirling disease in states where its effects have 
devastated trout populations but other important considerations and 
other approaches are warranted. These include:
    1. Naturally reproducing wild rainbow and cutthroat trout in their 
native range must be protected from genetic or biological intrusions of 
hatchery rainbow trout of any strain. And that dollars spent to benefit 
these populations are best spent for habitat restoration that is the 
long-term key to their success.
    2. In areas where rainbow trout fisheries outside of their native 
range have been established and then have declined or face elimination 
due to WD, introduction of WD resistant rainbow trout may serve a 
useful role in restoration. However, programs to rebuild or restore 
these nonnative fisheries should not occur at the expense of re-
establishing native fish assemblages, particularly those fish species 
that might hybridize with rainbow trout (e.g. cutthroat trout).
    3. The most cautious approaches to re-introducing/re-establishing 
rainbow trout populations outside of their native ranges is done by 
using progeny from crosses between WD resistant rainbow trout and 
naturalized rainbow trout.
    Presently, resistant strains of rainbow trout are being used in a 
research program in Colorado, where Hofer trout and progeny between 
Hofer and other strains are being evaluated for some of the 
applications above. Progeny of these crosses have also been shared with 
the states of Utah and California, where they are being reared in state 
hatcheries and private aquaculture for the purpose of evaluating their 
performance under different culture conditions, and in Idaho, the Hofer 
rainbow will be utilized in an attempt to re-establish an important 
recreational rainbow fishery in the Big Lost River. Another resistant 
trout strain discovered in Montana is being reared and evaluated in 
cooperation with a federal research facility. The progress in research 
and the expansion of the WD resistant trout research program indicate 
that $400,000 in federal support would required in fiscal year 2007.
                                 ______
                                 
                  Prepared Statement of Weber Pathways

    Mr. Chairman and Honorable Members of the Committee: On behalf of 
Weber Pathways, I appreciate the opportunity to present this testimony 
in support of a $3 million appropriation from the Land and Water 
Conservation Fund for critical land protection efforts along the 
Bonneville Shoreline Trail in Utah.
    Weber Pathways in a non-profit organization that is particularly 
committed to creating a network of trails in Weber County. We are 
committed to the idea that non-motorized network of public pathways 
significantly contribute to our community's economic vitality and 
quality of life.
    Weber Pathways believes that the proven benefits of trails include:
  --Encouraging outdoor recreation, fitness and good health;
  --Enabling residents, especially children, to travel safely to their 
        destinations on foot, bicycle, horseback, skis or even 
        wheelchair;
  --Fostering sustainable economic activity by providing amenities that 
        attract business development and tourism;
  --Protecting access to trailheads, mountains, rivers, open spaces, 
        and public lands;
  --Revitalizing people as they engage with their landscape, and
  --Creating community pride as neighbors interact and come to 
        appreciate their environment.
    Weber Pathways, with the strong support of counties and cities in 
the area, envisions a comprehensive network of greenways joining urban 
and rural pathways that respect private landowners while linking 
communities throughout Weber County.
    In 2005, Weber Pathways successfully negotiated a trail easement 
over a five-mile stretch of the Bonneville Shoreline Trail along the 
northeastern side of North Ogden City in Weber County. The easement is 
along a utility corridor that is owned by the utility company 
Pacificorp. This stretch of the trail offers spectacular views in 
several directions; south overlooking the Salt Lake Valley and north 
towards existing National Forest and Ben Lomond Peak, an iconic natural 
feature of Weber County. We anticipate that the trail will be completed 
and opened for public use by the fall of 2006.
    North Ogden is a rapidly growing city, with housing development 
growing towards the northeastern foothills of the Wasatch Mountains 
towards the National Forest and the newly acquired stretch of the 
Bonneville Shoreline Trail. The Forest Service and project partners 
have proposed a program whereby private lands between the existing 
National Forest and the Bonneville Shoreline Trail could be acquired to 
protect the views and protect this vital public recreation trail, and 
further to facilitate spur trails off BST that would enable hikers, 
bikers and horse-riders to access canyons within the Forest. The 
Bonneville Shoreline Trail is also intended to serve as a firebreak 
between the National Forest and urban areas and as a physical 
demarcation of the boundary of Forest Service property. Both of these 
functions are dependent on the acquisition of the private lands in 
question. I understand that the program area is already within the 
authorized boundaries of the Wasatch Cache National Forest.
    In fiscal year 2007, a total of $3 million is needed to acquire BST 
properties, and which would provide funding for the Forest Service for 
a land protection program along this new section of the Bonneville 
Shoreline Trail in Weber County.
    I respectfully request that you include an appropriation of $3 
million for the Bonneville Shoreline Trail in the fiscal year 2007 
Interior and Related Agencies Appropriations bill.
    Thank you for your attention to this request.
                                 ______
                                 
       Prepared Statement of the Western Coalition of Arid States

    The Western Coalition of Arid States (WESTCAS) is submitting this 
testimony regarding the Presidents fiscal year 2007 budget request for 
the United States Fish and Wildlife Service.
    WESTCAS is a coalition of approximately 125 water and wastewater 
districts, cities and towns and professional organizations focused on 
water quality and water quantity issues in the States of Arizona, 
California, Colorado, Idaho, Nevada, New Mexico, Oregon and Texas. Our 
mission is to work with Federal, State and Regional water quality and 
quantity agencies to promote scientifically-sound law, regulations, 
appropriations and policies that protect public health in the 
environment of the arid West.
    WESTCAS supports the U.S. Fish and Wildlife Service mission of 
working with others to conserve, protect, and enhance fish, wildlife, 
plants and their habitats for the continuing benefit of the American 
people. The budget of the FWS is designed to support this mission. 
WESTCAS welcomes opportunities to partner with FWS in the promotion of 
this mission and in that we support several programs outlined within 
the fiscal year 2007 budget.
    Protecting the environment requires the development of best 
management practices and policies that can be implemented, validated 
and measured. In administering the Endangered Species Act the FWS is 
developing partnerships with agencies and scientific standards for its 
implementation. WESTCAS supports the fiscal year 2007 budget for this 
critical program and requests an evaluation of additional funding 
opportunities for the Endangered Species. Specifically WESTCAS would 
like to ensure the Colorado River Flow study is fully funded. This 
Colorado river and its basin is the major water source for millions of 
people in Colorado, Nevada, California and Arizona.
    Thank you for considering our request.
    State and tribal wildlife grants provide funding to ensure research 
and development continues within the FWS program. The FWS program has 
changed dramatically over time, many changes due to research performed. 
Therefore, it is critical to continue to evaluate the environment and 
the effects of discharges and encroachment on wildlife. This evaluation 
provides the foundation for future research into minimizing those 
effects and the development of practices, regulations and standards 
that allow for the continuing benefit of the American people.
    The Private Stewardship program has enhanced the management of non-
native species, restoration of habitat and assisted in reforming 
habitats which support imperiled species. WESTCAS supports these 
programs and the appropriation for the continuation of the Private 
Stewardship program.
                                 ______
                                 
       Prepared Statement of the Western Coalition of Arid States

    The Western Coalition of Arid States (WESTCAS) is submitting this 
testimony regarding the Presidents fiscal year 2007 budget request for 
the United States Geological Survey.
    WESTCAS is a coalition of Western towns and municipalities, water 
and wastewater agencies, irrigation districts, Native American nations, 
companies with water and wastewater concerns and professionals in the 
fields of engineering, the environmental sciences, and natural 
resources law and policy. WESTCAS was formed in 1992 by Western water 
and wastewater agencies concerned with the quality and management of 
water resources in the Arid West. A grass roots organization, WESTCAS 
is dedicated to encouraging the development of water programs and 
regulations which assure adequate supplies of high quality water for 
those living in the arid regions while protecting the environment.

                          MISSION AND SERVICES

    The United States Geological Survey (USGS) is the nations primary 
provider of earth and biological information related to natural 
hazards; certain aspects of the environment; and mineral, energy, 
water, and biological resources. It is the Federal Government's 
principal civilian mapping agency and primary source of data on the 
quantity and quality of the nation's water resources by maintaining a 
network water measuring stations. The USGS is the sole science agency 
for the Department of the Interior and provides impartial science 
information that is used by many other Federal, State and local 
agencies. Its motto of ``science for a changing world'' says it all. A 
major value of the USGS to the Nation is its ability to carry on 
studies on a national and regional scale and to sustain long-term 
monitoring and assessment of natural resources.
    The scientific focus of the USGS and its non-regulatory role, 
enable the USGS to provide information and interpretation that are 
policy relevant and policy neutral. The agency also forms collaborative 
partnerships with State and local governments, which is used to 
leverage matching funds for topographic and water resources 
investigations, and directly contracts for reimbursable work.

                    FISCAL YEAR 2007 BUDGET ANALYSIS

    The following is a comparison of the President's proposed budget 
(in millions of dollars) to the 2005 and 2006 budgets in the major 
categories:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                  2005        12006         2007
                           Program                               actual      enacted      request       Change
----------------------------------------------------------------------------------------------------------------
National Mapping Program....................................      118,751      129,273       76,614      -52,659
Geologic Haz, Res, & Proc...................................      237,346      235,286      217,418      -17,868
Water Resources Invest......................................      211,200      211,764      204,047       -7,717
Biological Research.........................................      171,699      178,544      172,597       -5,947
Enterprise Information......................................       44,373       46,394      111,230      +64,838
Science Support.............................................       65,584       69,302       67,382       -1,920
Facilities..................................................       94,611       94,782       95,472         +690
                                                             ---------------------------------------------------
      Total.................................................      943,564      965,345      944,760      -20,585
----------------------------------------------------------------------------------------------------------------

                    WESTCAS INTEREST IN USGS BUDGET

    As the premier, grassroots organization dedicated to scientifically 
proven methods for environmentally sound long-term water supply 
planning in the arid West, WESTCAS member agencies rely on USGS water 
resources and biological data in assessing programs and regulations. 
Federal and State regulators rely on USGS data for the same purpose.
    1. The overall reduction in the total USGS budget by 2 percent is 
of great concern to WESTCAS in light of major changes in the ecosystems 
of the Arid West due to global warming, and a variety of natural 
disasters, which to evaluate comprehensively, requires significantly 
more scientific data and analyses, not less.
    2. WESTCAS initiatives are most affected by the USGC budgets for 
Water Resources Investigations. These include the Ground-water 
Resources Program, the National Water-Quality Assessment, the Toxic 
Substances Hydrology, Hydrologic Research & Development, National 
Streamflow Information Program, the Hydrologic Networks and Analysis, 
the Cooperative Water Program, and the Water Resources Research Act 
Programs. Except for the National Streamflow Information Program and a 
small increase in the National Water-Quality Assessment, all other 2007 
budgets are proposed to be reduced with funding for the Water Resources 
Research Institutes eliminated. We are concerned that some of the Water 
Resources Research Institutes will not be able to support themselves 
and be forced to close. The overall decrease of 3.6 percent in Water 
Resource Investigations is significant, when more funding in all areas 
is required to the reasons mentioned in item 1.
    3. It is noted that the funding to the National Streamflow 
Information Program (NSIP) is proposed to be increased by $2.3 million 
for streamgaging activities. This will allow 30 additional streamgages 
and continued operations at high priority sites. This is good start in 
reversing the trend and bring back some of the 1,790 streamgages that 
were lost due to lack of funding from 1980 to 2000. However, WESTCAS 
supports additional funding for several years for the NSIP to further 
stabilize, modernize, and expand the streamgage program to meet the 
USGS goal of 4,700 backbone streamgages from the current 3,100 
currently active. We support the sharing of these additional costs with 
funding partners.
    4. WESTCAS is concerned about the decrease in the Biological 
Research funding by 3.5 percent, because of the increased need for this 
data in establishing regulations based on good science. Most of our 
arid western water projects impact and are impacted by issues with 
flora and fauna. WESTCAS supports the Arid West Project, which is 
providing biological data and analyses of arid west ecosystems, so that 
better decision making can occur.
    5. The USGS should be complimented on its publication of their 
Scientific Investigations Report--Water Availability for the Western 
United States--Key Scientific Challenges. WESTCAS agrees with its 
analysis of the complex issues and scientific challenges associated 
with sustainability of water supplies in the arid west. Funding should 
be provided to implement additional research in areas identified by the 
Report.
    Thank you for considering our request.
                                 ______
                                 
       Prepared Statement of the Western Coalition of Arid States

    The Western Coalition of Arid States (WESTCAS) is submitting this 
testimony regarding the Presidents fiscal year 2007 budget request for 
the United States Environmental Protection Agency.
    WESTCAS is a coalition of approximately 125 water and wastewater 
districts, cities and towns and professional organizations focused on 
water quality and water quantity issues in the States of Arizona, 
California, Colorado, Idaho, Nevada, New Mexico, Oregon and Texas. Our 
mission is to work with Federal, State and Regional water quality and 
quantity agencies to promote scientifically-sound law, regulations, 
appropriations and policies that protect public health in the 
environment of the arid West.
    Most citizens of the United States consider the public safety 
departments to be police and fire. Yet when these people come into 
their lives it is usually do to a personal catastrophe or problem. Yet 
water service providers are their every day. It is a service that is 
taken for granted until it is not available. People providing water 
services truly are a part of public safety and the Environmental 
Protection Agency provides the rules, regulations, tools and often 
funding to ensure that this public safety item is one which the 
residents of the United States can trust.
    Providing clean, safe water services to citizens is not just a 
function of the members of WESTCAS it is the mission of each and 
passion of each of its members. The proposed decrease of greater than 
twenty percent in Water Protection funding could greatly impair the 
ability of State, Local and Regional representatives to support EPA's 
goal of increasing drinking water standards to 89-95 percent of the 
population and increasing shellfish growing areas from 77 to 91 
percent.
    EPA's decision to move forward on the Total Coliform Rule, 
developing ways of comprehensive contamination warning systems, and 
requiring the reduction of vessel discharges and invasive species will 
assist organizations in providing services to residents. WESTCAS 
supports these budget initiatives. Databases provide critical 
information to all users. The Safe Drinking Water Information System 
(SIDWIS) is used by Federal, State, Local agencies and public interest 
groups. Ensuring this data is accurate is crucial. As this database is 
expanded to allow the regulated community to directly input and update 
their information the EPA will have data with fewer inconsistencies.
    State Revolving Funding programs provide low cost loans and grants 
to ensure drinking water and wastewater regulations are met. The needs 
surveys indicate that funding needs are increasing not decreasing. The 
proposed reductions to the State Revolving Fund program will cause a 
dramatic reduction in infrastructure programs. The current Clean Water 
Needs Survey provided to Congress identifies billions in need that 
directly affect water safety. WESTCAS supports increasing the SRF 
program funding to its original level.
    Ensuring the aquifer is protected provides security to all 
residents. Leaking underground storage facilities, illegal dumping and 
mismanagement of land application products can lead to contamination of 
this vial resource. WESTCAS therefore supports EPA's superfund program 
and the pursuance of cost recoveries.
    The border of Mexico is great interest to WESTCAS as many of its 
members are a border state. EPA's ``build a partnership work group for 
Mexico'' is an area that WESTCAS would like to offer as a partnership 
opportunity. WESTCAS members are familiar with the terrain, 
complications in sighting wells, and wastewater challenges. At this 
time WESTCAS supports this initiative and welcomes the opportunity to 
assist in this process and would appreciate consideration to be part of 
the work group.
    EPA has recognized the need to cultivate its own employees. 
American Water Works Association and Water Environment Federation have 
identified the need for additional utility workers in the future. 
Operators are retiring at an alarming rate and due to the need to be 
competitive, training opportunities for grade 1 and 2 operators are 
limited. This is causing a regional and national decrease in available 
workers with the required skill sets to run water and wastewater 
facilities. EPA's decision to eliminate funding for operator training 
will increase this problem. Therefore, WESTCAS is requesting that EPA 
evaluate this decision and its long term effects on future operations 
of facilities.
    Budget development and allotment of funding is a challenge and one 
which requires a great deal of introspection within the organization. 
WESTCAS appreciates the opportunity to provide testimony on this 
complex task.
    Thank you for considering our request.
                                 ______
                                 
   Prepared Statement of the Washington Suburban Sanitary Commission

                WASHINGTON SUBURBAN SANITARY COMMISSION

    The Washington Suburban Sanitary Commission (Commission or WSSC), 
established in 1918, is a public, bi-county agency providing water and 
wastewater services to Montgomery and Prince George's Counties in the 
Washington Capital region. WSSC is governed by six Commissioners with 
equal representation from each county and has developed its systems to 
the point where it is a national leader in the water and sewerage 
industry. The Commission is the among the ten largest water and 
wastewater utilities in the country, serving approximately 1.6 million 
people in a 1,000 square mile service area. In addition, the Commission 
provides services to 26 key federal installations and facilities in the 
Washington area, including such important military facilities as 
Andrews Air Force Base; the National Imagery and Mapping Agency; the 
National Naval Medical Center; the Naval Surface Warfare Center; the 
U.S. Army Research Center. Numerous other state and local security-
related installations and offices also receive service from the 
Commission.
    Water treatment and distribution facilities operated by the 
Commission include three water supply reservoirs; two water filtration 
plants; fourteen water pumping stations; 5,100 miles of water mains; 
and 54 treated-water storage facilities. Water production at Commission 
facilities is 166 million gallons per day. In terms of wastewater 
facilities, the Commission operates six wastewater treatment plants; 41 
wastewater pumping stations; and approximately 4,900 miles of sewer 
mains.
  wastewater infrastructure upgrades and improvements, anacostia river
    Under the EPA's State and Tribal Assistance Grant (STAG) program, 
WSSC seeks $1,000,000 for wastewater infrastructure upgrades and 
improvements along the Anacostia River.
    In order to address sanitary sewer overflow (SSO) issues for 
wastewater pipes along the Anacostia River, capital funding is needed 
to allow for the necessary inspections and monitoring to identify 
critical areas and then repair and upgrade pipes as needed. This work 
is expected to be consistent with requirements that are being 
negotiated as part of the current consent decree between EPA and WSSC.
    Upgrading key pipes along the Anacostia River will provide many 
environmental benefits to this critical ecosystem and riparian habitat. 
Furthermore, by helping to clean the Anacostia River, the water quality 
of the Potomac River--a key source of drinking water for the WSSC 
service area--will also be improved, as the Anacostia flows into the 
Potomac.
                                 ______
                                 
 Prepared Statement of the Wilkeson Town Council, Wilkeson, Washington

    On behalf of the Town of Wilkeson I appreciate the opportunity to 
present this testimony regarding the appropriation of $5 million from 
the Land and Water Conservation Fund to acquire 800 acres at Mount 
Rainier National Park in Washington.
    The Town of Wilkeson is a gateway community to Mount Rainier 
National Park on its northwestern side. For 80 years, entry to the Town 
has been highlighted by a prominent sign stating ``Wilkeson, Gateway to 
the Carbon Glacier''. Following a road up the Carbon River Valley from 
Wilkeson, visitors are able to access the Park including Ipsut 
Campground and picnic area and numerous trails. The northwestern 
entrance to the national park through Wilkeson is the closest by 
distance to the nearby metropolitan areas of Seattle and Tacoma.
    Mount Rainier is one of the oldest National Parks in the country 
and is certainly considered a treasure not only by the people of the 
Pacific Northwest but by people from around the world. The Park 
receives nearly 2 million visitors a year many of whom pass through 
Wilkeson on their way to the ``Mountain'' .
    Ensuring access for the Park's many visitors has been a particular 
concern at the northwest entrance. The Carbon River road within the 
Park has occasionally washed out, preventing visitors from reaching the 
Ipsut Creek campground and picnic area, as well as day-use parking for 
access to the Carbon Glacier and other area trails. In 2004 Congress 
passed and President Bush signed legislation adding land along three 
miles of the Carbon River to the Park.
    In part the stated intent of the boundary expansion is to improve 
access to the Park with new roads, campgrounds, trails and other 
facilities. However, I understand through information from the ``Trust 
for Public Lands'' that the existing Carbon River Road from the Park 
entrance to Ipsut Campground and the Carbon Glacier trail is to be 
converted to a hiking and biking trail. Also the National Park has no 
plan to replace the existing Carbon River road. The loss of this road 
to vehicle or general public access will significantly, negatively 
impact the use of this very popular destination.
    The Carbon Glacier trail is a very popular and relatively easy 3.5 
mile hike that many people use throughout the year. The closure of the 
Carbon River road will mean the hike will become an 8.5 mile trip, one 
way. The hike is currently very popular with families, school classes 
in the spring and people of all ages.
    As a gateway community the Town of Wilkeson supports this critical 
appropriation only if it will truly improve the present degree of 
public access to the Park by maintaining existing roads, campgrounds 
and picnic areas and not closing or restricting their use. Continuing 
the current level of access is critical to the people and businesses of 
Wilkeson and surrounding communities.
    Thank you, Mr. Chairman for your consideration of the request and 
for this opportunity to present testimony regarding the appropriation 
of $5 million for the acquisition of 800 acres of land for Mount 
Rainier National Park.
                                 ______
                                 
               Letter From the Wyoming Water Association
                                 Wyoming Water Association,
                                       Cheyenne, WY, March 6, 2006.
Hon. Conrad Burns, Chairman,
Hon. Byron Dorgan, Ranking Member,
Subcommittee on the Interior and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Chairman Burns and Ranking Member Dorgan: On behalf of the 
members of the Wyoming Water Association, this letter is sent to 
request your support and assistance in insuring continued funding for 
the Upper Colorado River Endangered Fish Recovery Program and the San 
Juan River Basin Recovery Implementation Program.
    Founded in 1933, the Wyoming Water Association (WWA) is a Wyoming 
non-profit corporation and voluntary organization of private citizens, 
elected officials, and representatives of business, government 
agencies, industry and water user groups and districts. The 
Association's objective is to promote the development, conservation, 
and utilization of the water resources of Wyoming for the benefit of 
Wyoming people. The WWA provides the only statewide uniform voice 
representing all types of water users within the State of Wyoming and 
encourages citizen participation in decisions relating to multi-purpose 
water development, management and use.
    The Wyoming Water Association is a participant in the Upper 
Colorado River Endangered Fish Recovery Program. That program, and its 
sister program within the San Juan River Basin, are ongoing 
partnerships among the States of Colorado, New Mexico, Utah and 
Wyoming, Indian tribes, federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act. Consistent with the 
requests made by our other Upper Colorado and San Juan Recovery 
Programs' partners, the WWA respectfully requests support and action by 
the Subcommittee that will provide the following:
    1. Appropriation of $697,000 in ``recovery'' funds (Ecological 
Services Activity; Endangered Species Subactivity; Recovery Element; 
$697,000 within the $5,631,000 item entitled ``General Program 
Activities'') to the U.S. Fish and Wildlife Service (FWS) for fiscal 
year 2007 to allow FWS to continue its necessary participation in the 
Upper Colorado River Endangered Fish Recovery Program. This is the same 
level of funding appropriated to the FWS in fiscal years 2004, 2005 and 
2006.
    2. Appropriation of $437,000 in operation and maintenance funds 
(Resource Management Appropriation; Fisheries Activity; Hatchery 
Operations & Maintenance Subactivity, Hatchery Operations Project) to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah during fiscal year 2007.
    3. Allocation of $211,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to the FWS for fiscal year 
2007 to meet FWS's Region 2 expenses managing and implementing the San 
Juan Program's diverse recovery actions.
    These recovery programs have become national models for 
collaboratively working to recover endangered species while addressing 
water needs to support growing western communities in the Upper 
Colorado River Basin region of the Intermountain West. Since 1988, 
these programs have facilitated ESA Section 7 consultation (without 
litigation) for over 1,000 federal, tribal, state and privately managed 
water projects depleting approximately 2.9 million acre-feet of water 
per year. The requested federal appropriations are critically important 
to these efforts moving forward.
    The past support and assistance of your Subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. On 
behalf of the members of the Wyoming Water Association, I thank you for 
that support and request the Subcommittee's assistance for fiscal year 
2007 funding to ensure the Fish and Wildlife Service's continuing 
financial participation in these vitally important programs.
                Sincerely yours,
                                           John W. Shields,
                                               Executive Secretary.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Air Pollution Control District, prepared statement...............   231
Aleutian Pribilof Islands Association, Inc., prepared statement..   231
Allard, Senator Wayne, U.S. Senator from Colorado:
    Prepared statements.....................................24, 59, 187
    Questions submitted by......................................44, 161
    Statement of.................................................    58
Alliance to Save Energy, prepared statement......................   243
American:
    Bird Conservancy, prepared statement.........................   211
    Canoe Association, prepared statement........................   255
    Fisheries Society, prepared statement........................   214
    Geological Institute, prepared statement.....................   218
    Hiking Society, prepared statements...................221, 223, 412
    Indian Higher Education Consortium, prepared statement.......   227
    Institute of:
        Biological Sciences, prepared statements...............226, 224
        Hydrology, prepared statements.........................225, 255
    Public Power Association, prepared statement.................   233
    Rivers, prepared statements......................225, 255, 412, 448
    Society:
        For Microbiology, prepared statement.....................   246
        Of:
            Agronomy, prepared statement.........................   225
            Civil Engineers, prepared statements...............238, 255
    Symphony Orchestra League, prepared statement................   248
    Water Works Association, prepared statement..................   225
    Whitewater, prepared statement...............................   255
Americans for:
    Responsible Recreational Access, prepared statement..........   237
    The Arts, prepared statement.................................   209
Appalachian Trail Conservancy, prepared statement................   251
Archery Trade Association, prepared statement....................   508
Arizona Wilderness Coalition, prepared statements..............255, 412
Arkansas:
    Basin Development Association, prepared statement............   212
    Game & Fish Commission, prepared statement...................   217
    River Basin Interstate Committee, prepared statements.235, 432, 456
Association of:
    American State Geologists, prepared statements.............225, 255
    Fish and Wildlife Agencies, prepared statements............216, 211
    Local Air Pollution Control Officials, prepared statement....   478
    Metropolitan Water Agencies, prepared statement..............   225
    Research Libraries, prepared statement.......................   236
    State and Interstate Water, prepared statement...............   225
    State:
        And Territorial Solid Waste Management Officials 
          (ASTSWMO), prepared statement..........................   250
        Dam Safety Officials, prepared statement.................   255
        Drinking Water Administrators (ASDWA), prepared statement   240
        Flood Plain Managers, prepared statement.................   255
Association to Preserve Cape Cod, prepared statement.............   231
Audubon:
    Connecticut, prepared statements...........................253, 254
    Prepared statement...........................................   211
    Society of Greater Denver, prepared statement................   412
    Society, prepared statement..................................   403
Awwa Research Foundation (AwwaRF), prepared statement............   257

Bardin, David J., prepared statement.............................   298
Bay Area Coalition for Headwaters, prepared statement............   412
Bethel Area Chamber of Commerce, Bethel, Maine, prepared 
  statement......................................................   258
Biomass Energy Research Association, prepared statement..........   259
Black Bear Conservation Committee, prepared statement............   258
Bloom, David A., Director, Office of Budget, Environmental 
  Protection Agency..............................................   177
BlueRibbon Coalition, prepared statement.........................   262
Board of Selectmen, Newry Owner, Sunday River Inn, Bethel, Maine, 
  prepared statement.............................................   476
Bodine, Susan, Assistant Administrator, Office of Solid Waste and 
  Emergency Response, Environmental Protection Agency............   177
Bonneville Shoreline Trail Coalition, prepared statement.........   262
Boone and Crockett Club, prepared statement......................   508
Bosworth, Dale, Chief, Forest Service, Department of Agriculture.     1
    Prepared Statement...........................................     6
    Summary statement............................................     4
Bowhunting Preservation Alliance, prepared statement.............   508
Burns, Senator Conrad, U.S. Senator from Montana:
    Opening statements.......................................1, 55, 177
    Questions submitted by......................................36, 139

California:
    Industry and Government Central California Ozone Study (CCOS) 
      Coalition, prepared statement..............................   267
    State Coastal Conservancy, prepared statement................   287
Campaign for Environmental Literacy, prepared statement..........   390
Campfire Club of America, prepared statement.....................   508
Center for Advanced Separation Technologies, prepared statement..   265
Central Utah Water Conservancy District, prepared statement......   297
Cherokee Investment Partners, LLC, prepared statement............   370
Cheyenne River Sioux Tribe, prepared statement...................   285
Chugach Regional Resources Commission, prepared statement........   283
City of:
    Draper, prepared statement...................................   275
    North Adams, Massachusetts, prepared statement...............   274
Clean Water Action, prepared statement...........................   225
Cochran, Senator Thad, U.S. Senator from Mississippi:
    Prepared statements....................................28, 139, 289
    Statement of.................................................    28
Coconino County, Arizona, prepared statement.....................   289
Colorado River:
    Basin Salinity Control Forum, prepared statement.............   278
    Board of California, prepared statement......................   276
    Commission of Nevada, prepared statement.....................   280
    Water Conservation District, prepared statement..............   287
Colorado:
    Springs Utilities, prepared statement........................   292
    Water Congress, prepared statement...........................   298
Columbia River Inter-Tribal Fish Commission, prepared statement..   280
Confederated Salish and Kootenai Tribes of the Flathead Nation, 
  prepared statement.............................................   290
Confederated Tribes:
    And Bands of the Yakama Nation, prepared statement...........   293
    Of the Colville Reservation, prepared statement..............   296
Conservation:
    Commission, Westbrook, CT, prepared statement................   268
    Force, prepared statement....................................   508
Continental Divide Trail Alliance, prepared statements.........269, 412
Cooperative Alliance for Refuge Enhancement, prepared statement..   264
Council on Library and Information Resources, prepared statement.   236
County of:
    Riverside, prepared statement................................   276
    San Diego, prepared statement................................   289
    Ventura, prepared statement..................................   276
Craig, Senator Larry, U.S. Senator from Idaho:
    Prepared statements.........................................33, 191
    Questions submitted by.......................................    44
Crop Science Society of America, prepared statement..............   225
Crownpoint Institute of Technology (CIT), prepared statement.....   272

Dallas Safari Club, prepared statement...........................   508
Defenders of Wildlife, prepared statement........................   300
Denver Water, prepared statement.................................   303
Domenici, Senator Pete V., U.S. Senator from New Mexico, 
  questions submitted by.........................................   162
Dorgan, Byron L., U.S. Senator from North Dakota:
    Opening statement............................................     3
    Questions submitted by......................................48, 162
Duchesne County Water Conservancy District, prepared statement...   298
Ducks Unlimited, prepared statements...........................211, 508

Eastern Forest Partnership, prepared statement...................   304
Environmental Defense, prepared statement........................   255

Fabiani, Carl and Dinni, prepared statement......................   357
Federation of Flyfishers, prepared statement.....................   255
Florida:
    Fish and Wildlife Conservation Commission, prepared statement   312
    State University, prepared statement.........................   321
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   310
Fort River Partnership, prepared statement.......................   318
Foundation for North American Wild Sheep, prepared statement.....   508
Friends of:
    Balcones Canyonlands National Wildlife Refuge, prepared 
      statement..................................................   306
    Congaree Swamp, prepared statement...........................   309
    Indian Health, prepared statement............................   313
    Rachel Carson National Wildlife Refuge, prepared statement...   318
    Sloan Canyon, prepared statement.............................   412
    The:
        Agua Fria National Monument, prepared statement..........   412
        Boundary Waters Wilderness, prepared statement...........   307
        Columbia River Gorge, prepared statement.................   308
        Health Resources and Services Administration, prepared 
          statement..............................................   334
        Missouri Breaks Monument, prepared statement.............   412
        Silvio O. Conte National Fish and Wildlife Refuge, 
          prepared statement.....................................   319
    Westwater Canyon, prepared statement.........................   322

Gallatin Valley Land Trust, prepared statement...................   328
Garden Club of Litchfield, prepared statement....................   485
Gathering Waterways Conservancy, prepared statement..............   330
Glacier Park, Inc., prepared statement...........................   328
Grand:
    Canyon:
        Trust, prepared statement................................   412
        Wildlands Council, prepared statement....................   412
    County, Utah, prepared statement.............................   323
    Valley Water Users' Association, prepared statement..........   329
Gray, George, Assistant Administrator, Office of Research and 
  Development, Environmental Protection Agency...................   177
Gray, Lyons, Chief Financial Officer, Environmental Protection 
  Agency.........................................................   177
Great Lakes:
    Indian Fish & Wildlife Commission (GLIFWC), prepared 
      statement..................................................   324
    Task Force, prepared statement...............................   327
Grumbles, Benjamin, Assistant Administrator, Office of Water, 
  Environmental Protection Agency................................   177

Haze, Pam, Co-Director, Budget Office, Office of the Secretary, 
  Department of the Interior.....................................    55
Hazen, Susan, Acting Assistant Administrator, Office of 
  Prevention, Pesticides and Toxic Substances, Environmental 
  Protection Agency..............................................   177
Highlands Coalition, prepared statements.......................330, 485
Hoosic River Watershed Association, prepared statement...........   338
Hospital for Special Surgery, prepared statement.................   338
Housatonic Valley Association, prepared statement................   343
Hualapai Indian Tribe, prepared statement........................   332
Humane Society of the United States, prepared statement..........   340

Idaho:
    Conservation League, prepared statement......................   412
    Rivers United, prepared statement............................   412
Independent Petroleum Association of America, prepared statement.   348
Industrial Minerals Association--North America, prepared 
  statement......................................................   345
International:
    Association of Fish and Wildlife Agencies, prepared 
      statements.................................................  255,
                                                          344, 465, 508
    City Managers Association, prepared statement................   370
    Council of Shopping Centers, prepared statement..............   370
Interstate:
    Council on Water Policy, prepared statement..................   255
    Mining Compact Commission, prepared statement................   345
InterTribal Bison Cooperative, prepared statement................   349
Izaak Walton League of America, prepared statement...............   508

Johnson, Hon. Stephen L., Administrator, Environmental Protection 
  Agency:
    Prepared statement...........................................   181
    Statement of.................................................   177
    Summary statement............................................   179

Kansas Arkansas River Basin Interstate Committee, prepared 
  statement......................................................   355
Kennebunkport Conservation Trust, prepared statement.............   356
Kentucky Department of Fish & Wildlife Resources, prepared 
  statement......................................................   356
Klee, Ann R., General Counsel, Office of General Counsel, 
  Environmental Protection Agency................................   177
Kohl, Senator Herb, U.S. Senator from Wisconsin, questions 
  submitted by...................................................    51

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   508
Lago, Lenise, Acting Budget Director, Forest Service, Department 
  of Agriculture.................................................     1
Litchfield:
    County League of Women Voters, prepared statement............   485
    Hills Greenprint Program, prepared statement.................   358
Local Initiatives Support Corporation, prepared statement........   370
Luna, Luis, Assistant Administrator, Office of Administration and 
  Resources Management, Environmental Protection Agency..........   177

Mack Taylor, Geologist, prepared statement.......................   364
Metropolitan Water District of Southern California, prepared 
  statement......................................................   365
Mickey Leland National Urban Air Toxics Research Center, prepared 
  statement......................................................   424
Mississippi Department of:
    Marine Resources, prepared statement.........................   359
    Wildlife, Fisheries and Parks, prepared statement............   360
Missoula County Commissioners, prepared statement................   359
Montana Fish, Wildlife & Parks, prepared statement...............   362
Mountain Group Sierra Club, prepared statement...................   363
Mountaineers, prepared statement.................................   486
Mountains to Sound Greenway Trust, prepared statement............   364

Nakayama, Granta, Assistant Administrator, Office of Enforcement 
  and Compliance Assurance, Environmental Protection Agency......   177
National:
    Alternative Fuels Training Consortium, prepared statement....   367
    Association of:
        Abandoned Mine Land Programs, prepared statement.........   366
        Clean Water Agencies, prepared statement.................   225
        Convenience Stores (NAGS), prepared statement............   250
        Counties, prepared statement.............................   370
        Flood and Stormwater Management Agencies, prepared 
          statement..............................................   255
        Industrial & Office Properties, prepared statement.......   370
        Local Government Environmental Professionals, prepared 
          state- ment............................................   370
        Service and Conservation Corps (NASCC), prepared 
          statement..............................................   373
        State:
            Departments of Agriculture, prepared statement.......   464
            Energy Officials, prepared statement.................   375
            Foresters, prepared statement........................   378
            Universities and Land-Grant Colleges (NASULGC), 
              prepared statement.................................   381
        Truck Stop Operators (NATSO), prepared statement.........   250
    Coast Trail Association, prepared statement..................   412
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   387
    Cooperators' Coalition, prepared statement...................   383
    Council for Science and the Environment, prepared statement..   385
    Environmental Services Center, prepared statement............   393
    Federation of Federal Employees Local 1957, prepared 
      statement..................................................   399
    Fish and Wildlife Foundation, prepared statement.............   401
    Ground Water Association (NGWA), prepared statement..........   250
    Institutes for Water Resources, prepared statement...........   407
    Mining Association (NMA), prepared statement.................   415
    Parks Conservation Association, prepared statement...........   417
    Recreation and Park Association, prepared statement..........   420
    Trappers Association, prepared statement.....................   508
    Trust for Historic Preservation, prepared statement..........   412
    Water Resources Association, prepared statement..............   255
    Wildlife:
        Federation, prepared statements........................352, 412
        Refuge Association, prepared statement...................   427
Natural:
    Lands Trust, Inc., prepared statement........................   415
    Resources Defense Council (NRDC), prepared statements.225, 250, 412
New:
    Hampshire Audubon, prepared statement........................   406
    Jersey:
        Audubon Society, prepared statement......................   409
        Conservation Foundation, prepared statement..............   410
    Mexico:
        Interstate Stream Commission, prepared statement.........   316
        Wildlife Federation, prepared statement..................   412
    River Land Trust, prepared statement.........................   420
    York State Energy Research and Development Authority, 
      prepared statement.........................................   375
Nisqually Tribe of Indians, prepared statement...................   423
North American:
    Bear Foundation, prepared statement..........................   508
    Grouse Partnership, prepared statement.......................   508
North Carolina Wildlife Resources Commission, prepared statement.   392
Northeast:
    Waste Management Officials' Association, prepared statement..   395
    Midwest Institute, prepared statement........................   370
Northern:
    Colorado Water Conservancy District, prepared statement......   392
    Forest Alliance, prepared statement..........................   396
    Lights Nordic Ski Club, prepared statement...................   414

Ohio Department of Natural Resources, prepared statement.........   430
Oregon:
    Natural Desert Association, prepared statement...............   412
    Water Resources Congress, prepared statement.................   435
Outdoor Industry Association, prepared statement.................   430

Partnership for the National Trails System, prepared statement...   439
Peacock, Marcus, Deputy Administrator, Environmental Protection 
  Agency.........................................................   177
Pechanga Indian Reservation, prepared statement..................   438
Penobscot Nation of the State of Maine, prepared statement.......   482
Petroleum Equipment Institute (PEI), prepared statement..........   250
Pollution Control Administrators, prepared statement.............   225
Potapaug Audubon, prepared statement.............................   437
Public Service Company of New Mexico, prepared statement.........   451
Pueblo:
    Board of Water Works, prepared statement.....................   263
    Of:
        Laguna Department of Education, prepared statement.......   439
        Tesuque, prepared statement..............................   448
Puyallup Tribe of Indians, prepared statement....................   451

Quabbin to Cardigan Conservation Collaborative, prepared 
  statement......................................................   454
Quality Deer Management Association, prepared statement..........   508

Ramah Navajo:
    Chapter, Ramah Band of Navajos, prepared statement...........   458
    School Board, Inc., prepared statements......................   460
Real Estate Roundtable, prepared statement.......................   370
Republicans for Environmental Protection, prepared statement.....   412
Research Group, prepared statement...............................   412
Rey, Hon. Mark E., Under Secretary for Natural Resources and 
  Environment, Forest Service, Department of Agriculture.........     1
    Prepared statement...........................................    15
    Summary statement............................................    12
Richardson, Governor Bill, letter from...........................   473
Rivers & Trails Coalition, prepared statement....................   463
Rocky Mountain Elk Foundation, prepared statements.............457, 508
Roderick, Bill, Acting Inspector General, Office of Inspector 
  General, Environmental Protection Agency.......................   177
Ruffed Grouse Society, prepared statement........................   508
Ryan, Michael W. S., Deputy Chief Financial Officer, 
  Environmental Protection Agency................................   177

Safari Club International, prepared statement....................   508
Salt Lake City Corporation, prepared statement...................   472
San:
    Diego County Water Authority, prepared statement.............   468
    Juan:
        Citizens Alliance, prepared statement....................   412
        Water Commission, prepared statement.....................   472
Scarlett, Hon. Lynn, Deputy Secretary, Office of the Secretary, 
  Department of the Interior.....................................    55
    Prepared statement...........................................    62
    Summary statement............................................    59
Shoshone-Paiute Tribes, prepared statement.......................   475
Sierra Club, prepared statements..........................225, 250, 412
Soil Science Society of America, prepared statement..............   225
Skokomish Tribe, prepared statement..............................   480
Sky Island Alliance, prepared statement..........................   412
Skyline Sportsmen's Association, prepared statement..............   477
Society of:
    American Foresters, prepared statements.....................33, 464
    Independent Gasoline Marketers of America (SIGMA), prepared 
      statement..................................................   250
South Yuba River Citizens League, prepared statement.............   481
Southwestern Water Conservation District, prepared statement.....   481
State:
    And Territorial Air Pollution Program Administrators, 
      prepared statement.........................................   478
    Of:
        Colorado:
            Oil & Gas Conservation Commission, prepared statement   467
            Prepared statement...................................   473
        Utah:
            Office of the Governor, prepared statement...........   474
            Prepared statement...................................   474
        Wyoming, Office of the Governor, prepared statement......   475
Sterling Forest Partnership, prepared statement..................   469
Stevens, Senator Ted, U.S. Senator from Alaska, questions 
  submitted by..................................................43, 173
Stoddard Conservation Commission, prepared statement.............   466
STRONGER, Inc., prepared statement...............................   470
Swan Ecosystem Center, prepared statement........................   468

Tamarisk Coalition, prepared statement...........................   412
Texas Wildlife Association, prepared statement...................   508
The:
    Groundwater Foundation, prepared statement...................   225
    H. John Heinz III Center for Science, Economic and the 
      Environment, prepared statement............................   225
    National Ground Water Association, prepared statement........   225
    Nature Conservancy, prepared statements....................464, 487
    Trust for Public Land, prepared statement....................   370
    Wilderness Society, prepared statements.....412, 490, 493, 496, 508
Theodore Roosevelt Conservation Partnership, prepared statement..   508
Town of Ophir, Colorado, prepared statement......................   489
Travers, Linda, Acting Assistant Administrator, Office of 
  Environmental Information, Environmental Protection Agency.....   177
Tri-County Water Conservancy District, prepared statement........   484
Trout Unlimited, prepared statement..............................   255

U.S.:
    Conference of Mayors, prepared statement.....................   370
    Public Interest, prepared statement..........................   412
Upper Mississippi River Basin Association, prepared statements.500, 502
Utah Guides and Outfitters Association, prepared statement.......   499

Ventana Wildlife Society, prepared statement.....................   512
Village of Wellington, Florida, prepared statement...............   510

Washington Suburban Sanitary Commission, prepared statement......   518
Water Environment Federation, prepared statements..............225, 255
Weber Pathways, prepared statement...............................   514
Wehrum, William, Acting Assistant Administrator, Office of Air 
  and Radiation, Environmental Protection Agency.................   177
Weimer, Thomas, Assistant Secretary, Policy, Management and 
  Budget, Office of the Secretary, Department of the Interior....    55
Western:
    Coalition of Arid States, prepared statements..............515, 517
    States Water Council, prepared statement.....................   255
Whirling Disease Foundation, prepared statement..................   513
Whitetails Unlimited, Inc., prepared statement...................   508
Wilderness Watch, prepared statement.............................   412
Wildlife:
    Management Institute, prepared statement.....................   508
    Society, prepared statement..................................   496
Wilkeson Town Council, Wilkeson, Washington, prepared statement..   518
Wyoming Water Association, letter from...........................   519


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

A Strategic Approach to Restoring Forest Health..................     7
Additional Committee Questions...................................    35
Bark Beetles.....................................................    25
    Damage in Montana............................................    31
Budget:
    Increases....................................................     2
    Reductions...................................................     1
Continuing Transitional Support to Rural Communities Through the 
  Secure Rural Schools Act.......................................    15
Cost of Travel Management Planning...............................    32
Earth Island Institute Lawsuit...................................    30
Family Forestland Management.....................................    34
Fiscal:
    Policy.......................................................     3
    Year 2007 Priorities.........................................     5
Forest:
    Health.......................................................    34
    Research and Inventory.......................................    33
    Service:
        Accomplishments..........................................     4
        Priorities for Fiscal Year 2007..........................     7
        Successes................................................     6
    Planning.....................................................    29
Grazing:
    And Noxious Weeds............................................    22
    Permit Backlog...............................................    21
    Permits......................................................    23
Hazardous Fuels..................................................    26
Improving Organizational and Financial Management................    11
Increase the Efficiency of Forest Service Programs...............     9
Increased:
    Collaborative Efforts........................................     9
    Funding of the Northwest Forest Plan.........................    16
National:
    Recreation Reservation System................................    20
    Wildland Fire Outlook, National Interagency Fire Center, 
      Predictive Services Group, Issued: April 12, 2006..........    40
New Grazing Proposal.............................................    17
Northwest Forest Plan............................................    25
Noxious Weeds....................................................    21
Overview......................................................... 6, 15
Reauthorization of Secure Rural Schools Act......................    12
Recreation Funding...............................................    26
Secure Rural Schools Act.........................................     2
Secure Rural Schools Land Sales Proposal.........................    23
Theodore Roosevelt/Ebert Ranch...................................    18
Travel Management................................................29, 32
Wildland Fire:
    Outlook--April Through August, 2006..........................    40
    Program......................................................    31

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Abandoned Mine Lands.............................................    82
    Fee Extension................................................   145
Additional Committee Questions...................................   139
Alaska National Wildlife Refuge.................................167, 78
American White Pelicans..........................................   166
Applications for Permits to Drill................................    80
Approval of APDs.................................................   167
Budget Overview..................................................    63
Bureau of Indian Affairs:
    Johnson-O'Malley Education Grants............................   163
    Replacement School Construction..............................   162
    Tribal College & University Operating Grants.................   163
    United Tribes Technical College..............................   164
Bureau of Land Management........................................   174
Cooperative Conservation.........................................    60
Cultural Resources...............................................    69
Deferred Maintenance.............................................    75
Delays in Tribal Recognition.....................................   145
Easements........................................................   138
Endangered Species: Wolves.......................................   156
Energy...........................................................    60
    Development..................................................    64
    Production...................................................   142
Federal Recognition..............................................    79
Financial:
    And Business Management System...............................    72
    Systems--Cost Overruns.......................................   140
Fish and Wildlife Service......................................146, 173
    Construction.................................................   158
    Land Acquisition: Rocky Mountain Front.......................   156
Hazardous Fuels..................................................    82
Hazards..........................................................    61
Hurricanes Katrina and Rita......................................   168
Indian:
    Education....................................................    73
    Health Service...............................................    78
    Land Consolidation...........................................   143
    Programs.....................................................    67
    Trust Management.............................................    61
Johnson O'Malley.................................................    74
Land and Water Conservation Fund.................................   170
Landowner Incentive and Private Stewardship Grants...............   165
Landsat 8........................................................    62
Maintaining Core Programs........................................    63
Management.......................................................    62
Museum of the Plains Indian......................................    79
National:
    Park Service...............................................153, 173
        Historic Preservation....................................   160
        Maintenance..............................................    83
            And Construction.....................................   159
    Streamflow Information Program...............................   162
    Wildlife Refuges: Hurricane Debris...........................   157
Oil and Gas Exploration on Public Lands..........................   166
Operations Funding for Federal Lands and Properties..............   164
Partnerships in Conservation.....................................    66
Payments in Lieu of Taxes........................................    72
    Reductions...................................................   139
Plains Indian Museum.............................................   142
Programmatic Highlights..........................................    64
Request for $3 Million in Historic Preservation Fund Grants for 
  Gulf Coast State Historic Preservation Officers................   138
Resource Use.....................................................    70
Road Rights-of-Way (R.S. 2477)...................................   140
RS 2477..........................................................    82
Rural Fire Assistance............................................   170
Science Priorities...............................................    71
Stateside Land and Water Conservation Fund (LWCF) Grants.........   172
2005 Hurricanes..................................................63, 83
USGS North Dakota Energy Report..................................   171
Wildland Fire....................................................    70
    Fuels Reduction..............................................   143
    Management...................................................   169

                    ENVIRONMENTAL PROTECTION AGENCY

Arsenic Standards.........................................192, 203, 205
Bilateral Compliance Agreements..................................   193
Budget Request...................................................   178
    Principles...................................................   180
Center for Air Toxic Metals......................................   197
Clean:
    Automotive Technology--Innovation That Works.................   201
    Water:
        Infrastructure Funding...................................   185
        State Revolving Fund...................................195, 199
Colorado Commitments.............................................   188
Combined Animal Feeding Operation................................   194
    Agreements...................................................   195
Compliance and Environmental Stewardship.........................   184
Diesel:
    Emissions Reduction Program..................................   200
    Hybrid Technology............................................   202
EPA:
    And BorgWarner to Develop Fuel Efficient Technology..........   201
    Colorado Commitments.........................................   188
Good Samaritan Project...........................................   189
Healthy Communities and Ecosystems...............................   184
Homeland Security..............................................182, 186
Integrated Risk Information System...............................   205
Land Preservation and Restoration................................   183
Libby Site Record of Decision....................................   200
Partnership Geared Toward New Technologies to Reduce Fuel 
  Consumption....................................................   202
Pesticide Harmonization........................................197, 198
Red River........................................................   198
Summitville Mine Site............................................   187
    Alternative Treatments.......................................   190
    Settlement Funds Status......................................   189
Technology.......................................................   186
Use of Turbochargers on Diesel Engines...........................   201

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
